<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 1999</title>
<body><pre>[Senate Hearing 105-789]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-789

 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 1999

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   on

                           H.R. 4060/S. 2138

 AN ACT MAKING APPROPRIATIONS FOR ENERGY AND WATER DEVELOPMENT FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 1999, AND FOR OTHER PURPOSES

                               __________

                         Department of Defense
                          Department of Energy
                       Department of the Interior
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations

                               ----------

                    U.S. GOVERNMENT PRINTING OFFICE
46-096 cc                   WASHINGTON : 1999

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                           ISBN 0-16-057924-4




                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

              Subcommittee on Energy and Water Development

                 PETE V. DOMENICI, New Mexico Chairman
THAD COCHRAN, Mississippi            HARRY REID, Nevada
SLADE GORTON, Washington             ROBERT C. BYRD, West Virginia
MITCH McCONNELL, Kentucky            ERNEST F. HOLLINGS, South Carolina
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
CONRAD BURNS, Montana                HERB KOHL, Wisconsin
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
TED STEVENS, Alaska (ex officio)

                                 Staff

                             Alex W. Flint
                           W. David Gwaltney
                           Lashawnda Leftwich
                         Greg Daines (Minority)


                            C O N T E N T S

                              ----------                              

                         Tuesday, March 3, 1998

                                                                   Page
Department of Energy: Atomic Energy Defense Activities...........     1

                        Tuesday, March 10, 1998

Department of Energy: Office of Energy Research..................    63

                        Tuesday, March 26, 1998

Department of Defense--Civil: Department of the Army: Corps of 
  Engineers--Civil...............................................   145
Department of the Interior: Bureau of Reclamation................   291

                       NONDEPARTMENTAL WITNESSES

California flood control and other water resource development 
  projects.......................................................   327
California navigation projects...................................   425
Pacific Northwest water resource projects........................   440
Ohio River navigation system and other inland waterway projects..   454
Southwest U.S. water resource development projects...............   461
Upper Midwest water resource development projects................   476
Midwest water resource project...................................   486
Southeast U.S. water resource development projects...............   507
Lower Mississippi River Valley flood control projects............   524
New Jersey and New York water resource development projects......   558
Department of Energy research and development programs...........   561


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              


                         TUESDAY, MARCH 3, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:39 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Gorton, Stevens, and Reid.

                          DEPARTMENT OF ENERGY

                    Atomic Energy Defense Activities

STATEMENT OF DR. VICTOR H. REIS, ASSISTANT SECRETARY 
            FOR DEFENSE PROGRAMS

                 OPENING STATEMENT OF PETE V. DOMENICI

    Senator Domenici. Good morning, everyone. The hearing will 
come to order. I am hopeful, Dr. Reis, that the hearing will 
not run too long. We have seen your statement and we have a 
number of questions. I understand Senator Reid has a statement 
and a number of questions as well. I may ask that you answer 
some of the questions in writing.
    We meet this morning in open session to review the 
Department of Energy's fiscal year 1999 budget request for the 
Atomic Energy Defense Activities, especially that part of the 
DOE requests related to Stockpile Stewardship and Management 
Program.
    We are pleased to welcome as our primary witness Dr. Vic 
Reis, Assistant Secretary of Energy for Defense Programs, and 
others from the Department of Energy who have accompanied him 
this morning.
    Today, we want you to provide an overview of the 
justification for the President's $4.5 billion budget request 
for Stockpile Stewardship and Management Program for 1999. I 
hope we can focus on the key elements of stockpile stewardship 
and management, the accelerated strategic computing initiative 
[ASCI], subcritical experiments, tritium production, among 
other things. We would like for you to explain the importance 
of these programs to the national security activities that are 
planned for the remainder of 1998 and 1999.
    Now, if Senator Reid has any comments, I would ask him to 
make them and then we will turn it over to you, Dr. Reis.

                       STATEMENT OF SENATOR REID

    Senator Reid. Mr. Chairman, I appreciate very much your 
holding this hearing. This is an extremely important, principal 
activity of the Department of Energy, the Defense Programs, and 
to the stewardship of our nuclear weapons stockpile. I have 
appreciated your leadership in this regard during the time that 
I have been able to serve on this subcommittee as ranking 
member.
    I am concerned that stockpile stewardship be efficient and 
well coordinated, requiring a long-term strategy as well as 
resources to fill its mission. The Department's understanding 
of the implications of the Comprehensive Test Ban Treaty to the 
safety and reliability of our nuclear arsenal is also critical.

                           prepared statement

    Mr. Chairman, I would like my full statement to be made 
part of the record so that we can get down to the real reason 
that we are here.
    Senator Domenici. Senator Reid, your statement will be made 
a part of the record.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    Mr. Chairman, I am glad that we are holding this hearing to examine 
how past appropriations are used within Defense Programs in the 
Department of Energy, as well as current requests.
    Of course, the principal activity of Defense Programs is the 
Stewardship of our nuclear weapon stockpile, of which I have been an 
unequivocal supporter.
    That is why I am particularly concerned that stockpile stewardship 
be efficient and well-coordinated requiring a long-term strategy, as 
well as resources, to fulfill its mission.
    The Department's understanding of the ramifications of the 
Comprehensive Test Ban Treaty to the safety and reliability of our 
nuclear arsenal is also critical.
    In the near future I think it would be appropriate to have further 
hearings by this committee regarding the relationship between the 
stockpile stewardship and the treaty's ratification.
    Recent discussions with our sole witness on the panel today, Dr. 
Reis, recently have given me some assurance in the Department's ability 
to maintain a stockpile that is safe and reliable.
    Additionally, the Chairman and I recently toured the Nevada Test 
Site and the Kansas City Plant, which also reflected well-managed state 
of the art activity and increased my confidence in the Defense Program 
infrastructure.
    Essential to the Stockpile Stewardship and Management Activity is 
the support of the facilities, construction, computer modeling and 
necessary experimental measures.

    Senator Domenici. Let me state for the record it was a 
pleasure being in the State of Nevada to visit the Nevada test 
site facilities. Unless you have a chance to go down there and 
see them, it is pretty difficult to understand the significance 
of that facility and the potential for underground testing. 
Even in an era of no underground nuclear testing there is a 
great deal of significance in terms of the kinds of subcritical 
tests and others that we have to make that will help us with 
the trustworthiness of our stockpile and I was very pleased to 
see them. I thank the Department for its extraordinary efforts 
to help us understand them.
    And Senator Reid, thank you for accompanying me there in 
your State.
    Senator Reid. Mr. Chairman, Mother Nature did not treat us 
very well, though. We had one of the very rare opportunities 
when we had rain and even snow there, and so because of that, 
as you know, Dr. Reis, the dry lake there was not dry. There 
was a lot of water in it, so the chairman, even though I 
appreciate very much his being there, he was not able to see 
some of the things that he could normally see on a day that you 
can literally see forever.
    And also, I acknowledge, Mr. Chairman, that I now am 
obligated to come to New Mexico to see Los Alamos, and the 
other great laboratory there.
    I have been to Livermore, and each time that I go, as we 
did to Kansas City, the American public is so well-served by 
the work done in this very critical area that receives no 
acclaim, no notoriety, as I guess, it should not, but I was so 
impressed with the work in Kansas City at that plant that was 
so important to the security of this country. They did a great 
job.

                      Statement of Victor H. Reis

    Senator Domenici. Dr. Reis.
    Dr. Reis. Well, thank you, Mr. Chairman, for the 
opportunity to testify before you today on the Defense 
Program's Fiscal Year 1999 budget, a request of $4.5 billion, 
of which $4.3 billion is directly devoted to stockpile 
stewardship.
    With your permission, I will just summarize my testimony.
    Senator Domenici. We will make the whole statement a part 
of the record, Dr. Reis.
    Dr. Reis. Thank you.
    Mr. Chairman, the purpose of stockpile stewardship is to 
maintain the safety and reliability of the U.S. nuclear weapon 
deterrent under a Comprehensive Test Ban Treaty [CTBT]. While 
the program is hardly without risk, I believe we have a high 
probability of success. Why do I feel as I do?
    First, let me reiterate that we start from a solid base. 
The current stockpile is well-tested and well-understood. The 
designers and engineers who built them are available and are 
active. Indeed, they are the ones who are creating the 
stockpile stewardship program. They are the ones who are 
working on the stockpile now and are helping to train their 
successors.
    Second, you have laid out a plan for a Stockpile 
Stewardship Program, weapon by weapon, part by part, that 
projects the tasks required to maintain the stockpile over the 
next 10 years and beyond. We have concurrence on this program 
from the Department of Defense and the Joint Chiefs, and the 
administration has committed to fund this program in all of its 
parts.
    Third, the President requires us to annually certify, to 
him directly, the safety, reliability, and performance of each 
weapon type. Just last February 12, he transmitted that 
certification to the Congress.
    Fourth, we have a backup. Under Safeguard C, the President 
requires us to maintain the Nevada test site in a state of 
readiness, and the subcritical and other experiments conducted 
there help keep the people sharp and ready. The successful 
experiments bear evidence that the Nevada test site remains a 
``can-do'' operation.
    Fifth, under Safeguard B the President requires us to 
maintain the vitality of the nuclear weapons laboratories, Los 
Alamos, Lawrence Livermore, and Sandia National Laboratories.
    Mr. Chairman, those labs are among the best in the world. 
In my opinion, they are the best in the world, and they are 
better now than they were 4 years ago because of the enthusiasm 
and vigor with which they are attacking the stockpile 
stewardship effort.
    History tells us that great labs need great missions, and 
stewardship, like the Manhattan and Apollo projects, is just 
such a mission. Our DOE labs will get even better, because they 
are attracting the kinds of people who are drawn to solve tough 
problems of national importance.
    Sixth, and this is most important, we are doing stewardship 
now, and doing it successfully. It has been 5 years since our 
last underground nuclear test, and the last weapon was produced 
in 1989. We have completed our second annual certification and 
are working on the third. We have modified the B-61 bomb and 
see it enter the stockpile to replace the aged B-53 bomb. We 
have begun construction of new experimental tools, national 
ignition facility [NIF], dual axis radiographic hydrotest 
facility [DARHT], Atlas, and our computation program has 
developed the world's fastest supercomputer, by a factor of 
three. We have solved problems that in the past would have 
required nuclear testing by using stewardship tools. We have 
done literally hundreds of experiments on existing facilities. 
The Omega and Nova Lasers, Pegasus and Z-Pulse Power devices, 
PHERMEX, and FXR hydrotest facilities, the Los Alamos Neutron 
Science Center [LANSCE] accelerator, that increases our 
understanding of nuclear weapons.

                           subcritical tests

    The subcritical tests have brought new insights to old 
problems and are preparing the way for the resumption of 
plutonium pit production. Throughout, we are using the new 
computational tools to predict and analyze experiments and 
connect with archival underground test data.
    We have safely dismantled over 9,000 nuclear weapons since 
the end of the cold war. We have developed new production 
processes that are much more efficient and environmentally 
sensitive and have produced numerous parts, on time, while 
continuing to downsize the complex.
    This is a system that works, and not just at the labs, but 
also at the plants, Oak Ridge Y-12, Pantex, Kansas City, and 
Savannah River, as well as the Nevada test site.

                           prepared statement

    Mr. Chairman, when President Clinton visited the Los Alamos 
National Laboratory last month, he stated, ``I don't think we 
can get the treaty ratified unless we can convince the Senate 
that the stewardship program works.'' I believe the stockpile 
stewardship program, if supported appropriately, can meet its 
goal of a safe and reliable stockpile indefinitely without 
nuclear testing.
    Your committee has shown the leadership in the Congress in 
providing that support, and I enthusiastically look forward to 
working with you. I know of no national security issue that is 
more important.
    Thank you, and I will be glad to answer any of your 
questions now.
    [The statement follows:]

                Prepared Statement of Dr. Victor H. Reis

    Thank you, Mr. Chairman, for the opportunity to testify before you 
on Defense Programs' fiscal year 1999 budget request of $4.5 billion of 
which $4.3 billion is directly devoted to the Stockpile Stewardship 
Program (SSP). Before I get into the details of the program, I'd like 
to review with you a sense of the size and complexity of our task and 
budget needs.
    Stockpile stewardship is the means by which the Nation will 
maintain the safety and reliability of its nuclear weapon strategic 
deterrent under a Comprehensive Test Ban Treaty (CTBT). The President 
established specific safeguards that define the conditions under which 
the United States will enter into a CTBT. Four of them relate to 
Stockpile Stewardship. These conditions are:
    (A) The conduct of a Science-based Stockpile Stewardship Program to 
insure a high level of confidence in the safety and reliability of 
nuclear weapons in the active stockpile, including the conduct of a 
broad range of effective and continuing experimental programs;
    (B) The maintenance of modern nuclear laboratory facilities and 
programs in theoretical and exploratory nuclear technology which will 
attract, retain, and ensure the continued application of our human 
scientific resources to those programs on which continued progress in 
nuclear technology depends;
    (C) The maintenance of a basic capability to resume nuclear test 
activities prohibited by the CTBT should the United States cease to be 
bound to adhere to this treaty; and (F) The understanding that if the 
President is informed by the Secretaries of Defense and Energy as 
advised by the Nuclear Weapons Council, the Directors of the nuclear 
weapons laboratories, and the Commander of U.S. Strategic Command that 
a high level of confidence in the safety and reliability of a nuclear 
weapon type which the two secretaries consider critical to our nuclear 
deterrent could no longer be certified, the President, in consultation 
with the Congress, would be prepared to withdraw from the CTBT under 
the supreme national interest clause in order to conduct whatever 
testing might be required.
    Maintaining the nuclear weapon stockpile without testing, while 
simultaneously remaining prepared to return to testing and retaining 
the capability to return to production, and at the same time 
dismantling excess weapons and downsizing and modernizing the 
production complex, are difficult challenges, to say the least, but one 
which we are meeting now and are preparing to meet in the future.
    The stockpile stewardship concept is simple. Each year 
representative samples of each type of weapon are returned from the 
active forces to the plants and labs, disassembled, examined, tested, 
and analyzed for defects, much as you would go for an annual physical 
or take your car into your local automobile mechanic. If any defects 
are found, their effect on performance, safety, and reliability is 
assessed, and if that effect is deemed significant, the defective part 
is remanufactured and replaced. Like the battery or spark plugs in your 
car, some parts--neutron generators and gas reservoirs will require 
replacement, and these are replaced at regular intervals.
    While a modern nuclear weapon has about as many parts as a modern 
automobile, it is much more complicated. Many of the parts of a nuclear 
weapon are made from very special materials--plutonium, enriched 
uranium, tritium--which radioactively decay, changing both their own 
properties and the properties of other materials within the weapon.
    Nuclear weapons are designed and manufactured to extraordinarily 
rigid standards, both to enable huge amounts of explosive energy to be 
packaged in relatively small containers, and to maintain phenomenal 
safety standards. A nuclear weapon, less than the size of a small desk, 
will have enough explosive power to completely destroy a modern city, 
and yet it must be able to survive the worst kind of accident you can 
think of with less than a one-in-a-million chance of exploding. This 
level of performance and safety must be maintained throughout the 
weapon's lifetime, even as it ages and changes.
    While we can expect that aging will cause the defect rate to rise--
just like it does in both humans and cars--we can't go out and buy a 
new warhead model--there is no new warhead production, and some of the 
old factories are out of business. Moreover, the weapons designers who 
have had experience with nuclear explosive testing are also aging. In 
about ten years most of them will have retired. This means that about 
the same time all of the weapons reach the end of their original design 
life, we will no longer have anyone on the job with direct test 
experience. It is this time urgency that makes the Stockpile 
Stewardship program distinctive.
    Despite these challenges, people from the weapons laboratories, the 
production plants, and the federal establishment involved in Stockpile 
Stewardship have testified, and will so testify, that we can do the 
Stockpile Stewardship job. We are confident that with continued support 
we can maintain the safety and reliability of the nuclear weapons in 
the stockpile indefinitely without underground testing and keep the 
risks to manageable levels.
    In large measure this confidence is based upon the fact that 
stewardship has been working, is working now, and we have detailed 
plans on how it will work in the future. The last time a new nuclear 
weapon was produced was 1989. The last underground nuclear test was in 
September of 1992; yet we have successfully gone through two annual 
certifications, the latest of which was just submitted to the Congress 
by the President on February 12th.
    What I'd like to do is describe to you some of the highlights of 
what we accomplished last year, and what we plan to accomplish in 
fiscal year 1999.
    We examine about 100 weapons in detail through our surveillance 
program each year. The Enhanced Surveillance Program provides the 
predictive models and age focused diagnostics required to anticipate 
weapons refurbishment. Conducted at DOE's four production plants and 
three weapons laboratories, this program has identified an aging 
mechanism in high explosives, concluding the material is extremely 
stable. We have embarked on a novel strategy to rapidly age plutonium, 
which is expected to determine the lifetime of components made from 
this material. We have also identified how corrosion can limit the 
lifetimes of canned subassemblies. While not complete, these 
investigations indicate that the weapons are aging gracefully. We have 
developed new diagnostic tools including high resolution x-ray 
tomography, neutron imaging, and precision ultrasonics capable of non-
destructively examining weapons components. We have also created 
precision instruments to gather more data from flight tests. All of 
these tools are being incorporated into the annual certification 
process.
    We know we will have to remanufacture and replace aging parts. 
Savannah River, Pantex, Kansas City, and Oak Ridge provide critical 
components to this part of the mission. In fiscal year 1997 we 
completed the B-61 mod 11 upgrade. In addition, the plants manufactured 
3,300 limited life components (LLC's) to support the needs of the 
stockpile. In fiscal year 1998 the plants plan to produce 3,900 LLC's 
and over 4,000 LLC's in fiscal year 1999. The Kansas City Plant has now 
been qualified for the production of tritium gas reservoirs for the W76 
and W80 warheads, and will produce 576 in fiscal year 1999. Sandia 
National Labs has a new production facility for neutron generators and 
will produce some 400 in fiscal year 1999. Sandia is also developing 
new, extended life neutron generators, using many of the new tools and 
techniques of stockpile stewardship.
    In addition to limited life components, DOE expects to take 
significant steps in establishing key manufacturing processes needed to 
support the stockpile. For example, Los Alamos National Laboratory 
(LANL) will demonstrate a pit production capability in fiscal year 
1998, a capability the DOE has not had since the closure of the Rocky 
Flats Plant in 1989. By 2007 LANL will have the capability to 
manufacture approximately 20 pits per year. DOE also plans to resume Y-
12 uranium processing operations, which were shut down in 1994 due to 
violations of administrative safety controls. Y-12 has already 
restarted operations in four out of five major mission areas. DOE is 
now preparing to conduct an operational readiness review for Enriched 
Uranium Operations (EUO). Casting, Rolling and Forming, and Machining 
operations are scheduled to resume next month.
    To create the new parts we need a new and improved production 
complex, one that is appropriately sized for the task at hand. The 
Stockpile Management Restructuring Initiative (SMRI) is right sizing 
the production complex for the 21st century. The SMRI program will 
downsize the following operations: (1) the weapons assembly/disassembly 
and high explosives missions at Pantex; (2) nonnuclear components 
production at Kansas City; (3) weapons secondary and case fabrication 
at Oak Ridge Y-12; and (4) tritium operations at Savannah River. The 
process is already paying dividends today. As mentioned above, the 
Kansas City plant is now manufacturing tritium reservoirs, in a new 
state of the art production facility with improved processes. By the 
end of fiscal year 1998 we expect the Kansas City Plant to be producing 
seven different reservoir types.
    The new production complex must also take advantage of modern 
manufacturing techniques. Our Advanced Manufacturing Design and 
Production Technologies Initiative (ADAPT) is intended to provide the 
manufacturing complex with advanced capabilities for: designing, 
developing, and certifying components and systems; and producing, 
assembling, and delivering the components and systems products. ADAPT 
is radically changing how DOE supports the nuclear weapons stockpile by 
infusing new product and process technologies, and adopting state-of-
the-art business and engineering practices. As an example, a secure 
communications and data network was established among the production 
plants and laboratories which is facilitating the rapid interchange of 
design and manufacturing information related to the W87 life extension 
program and will serve in the future as the backbone of a modern 
simulation product realization environment. The network is reducing the 
time needed to produce classified parts, in some instances up to 90 
percent. The network will be expanded to all DP sites around the 
country in fiscal year 1998.
    While we do not need additional supplies of enriched uranium and 
plutonium, there is one material which we know we must produce: 
tritium--a radioactive isotope of hydrogen that is required for every 
modern nuclear weapon.
    Tritium decays fairly rapidly; approximately 5 percent is 
transformed to helium every year. Tritium was last produced in the U.S. 
in 1988. With the end of the Cold War and the reduction in the size of 
the stockpile, we have had large amounts of excess tritium. This excess 
has been used to make up for the decayed tritium in the current 
stockpile, but eventually this will run out. Current policy requires 
DOE to plan for a new tritium production source by 2005 to support a 
START I nuclear stockpile, the associated five-year reserve, and to 
maintain the ability to ``hedge'' to a START I level even when the 
START II Treaty enters into force. DOE is in the final year of 
analyzing a dual track strategy--using an existing commercial light 
water reactor or using a newly developed accelerator. A primary source 
for tritium production will be selected in 1998.
    We foresee no technical difficulties associated with the production 
of tritium in a light water reactor. A key test was begun in October of 
1997, at the TVA's Watts Bar 1 Nuclear Plant. The test involves the 
irradiation of 32 specially designed twelve-foot ``target'' rods in the 
plant's reactor core. These targets are designed to replace a standard 
component of reactor fuel assemblies. During the plant's normal 18-
month operating cycle, the rods will produce and retain small amounts 
of tritium. The Watts Bar test completes, on a small scale, the 
demonstration of the entire commercial reactor tritium production 
cycle, from fabrication of components through completion of regulatory 
approvals.
    On June 3, 1997, the Department issued a Request for Proposals 
(RFP) for the purchase of one or more commercial light water reactors 
or irradiation services. Proposals from TVA were received on September 
15, 1997. The DOE expects to make a preliminary selection from the 
proposals later this spring.
    The accelerator alternative made impressive gains in 1997. LANL has 
completed the construction of the first test items for the accelerator 
and others are being manufactured. The first of the accelerator 
components, an injector, is being tested and is exceeding performance 
specifications. Thousands of samples of materials, welds, and 
structures have been irradiated to confirm choices and projections of 
performance for materials for the ``target-blanket,'' the part of the 
plant in which the tritium would actually be made. First results of 
these tests are currently being analyzed.
    The fiscal year 1999 request includes $157 million to pursue the 
option to be selected in 1998. If the purchase of irradiation services 
from commercial light water reactors is selected, the budget request 
will be sufficient to meet current requirements. If the Department 
selects accelerator production of tritium as the primary option, the 
Department will need to delay the current target date for initiating 
new tritium production or request additional funding.
    This leaves the assessment and certification process. How can we 
have confidence that the stockpile remains safe and reliable and meets 
its military requirements without underground testing?
    First of all, we start from a solid position. The current stockpile 
has been well tested, is in very good shape and is well understood. We 
have an extensive data base on each of these weapons, and we have a 
cadre of experienced designers, engineers, scientists, and technicians 
that can, with confidence, certify the safety and reliability of the 
current stockpile.
    Now, since we cannot do a complete test of a nuclear explosion, we 
conceptually divide the explosion sequence into each of its parts and 
test and analyze each of these separately, much as you would test the 
ignition system, the cooling system, and the brakes on your car. We 
then put all the data together into a computer calculation--a 
simulation--to see if the resulting performance is within its 
specification. Each part of the simulation must predict the results of 
each of the separate tests, and where they exist, be consistent with 
data from previous underground nuclear tests.
    Some processes are relatively straight-forward to simulate. The 
first part of the nuclear explosion sequence is to send the right 
electrical signal to the right place at the right time. We can test 
this exactly by flight testing actual weapons with inert mockups of the 
nuclear components. In fiscal year 1997 we had 43 flight tests, in 
fiscal year 1998 we will have 46 flight tests and in fiscal year 1999 
we plan to have some 39 flight tests.
    We can do a good job of testing the first part of the nuclear 
explosion, the implosion of the plutonium pit, and we can measure a 
number of important features by taking x-ray pictures during critical 
parts of the experiment. We can then compare these pictures with 
calculations and with previous data from the more than 1,000 
underground nuclear tests and 14,000 surveillance tests. During fiscal 
year 1997 we conducted some 38 hydrotests at the PHERMEX and FXR 
facilities at LANL and Lawrence Livermore National Laboratory (LLNL). 
We will do 60 hydrotests in fiscal year 1998 and plan to do some 50 
hydrotests in fiscal year 1999. But current radiographic systems are 
not able to measure the effects of potential defects in an aged pit, so 
we are building a new X-ray machine--the Dual Axis Radiographic 
Hydrotest Facility (DARHT)--which will look at the shape and size of an 
imploding pit model from two different directions with greatly improved 
resolution.
    After some initial delays, we are making satisfactory progress in 
completing the DARHT facility. The first radiographic machine will be 
installed in March 1998 and the first arm is expected to be completed 
by September. Experiments are tentatively scheduled to begin in the 
summer of 1999. Construction of the second arm is scheduled for 
completion by fiscal year 2002. We are also doing research in advanced 
hydrotest techniques facility that, if successful, could provide for 
detailed, high resolution, three dimensional ``motion pictures'' of the 
implosion process. Such technology could be used in an advanced 
hydrotest facility should existing tools prove insufficient to meet the 
mission of Stockpile Stewardship.
    Beyond obtaining X-ray pictures of imploding pit models, we are 
conducting experiments to obtain an in depth understanding of 
conditions that occur during an explosion. For example, we are 
performing subcritical experiments at the Nevada Test Site. Last year 
we successfully conducted two such experiments. These experiments are 
helping us to: fill in gaps in empirical data on the high pressure 
behavior of plutonium; realistically benchmark data on the dynamic, 
nonnuclear behavior of components in today's stockpile; analyze the 
effects of remanufacturing techniques; understand the effects of aging 
materials; and address other technical issues. Three subcritical 
experiments are planned for this fiscal year and a fourth is planned in 
October. The fiscal year 1999 budget supports three to four additional 
subcritical experiments. Information from these tests are key to being 
able to certify the new pit production facility at LANL. I would add 
that these experiments contribute significantly to the maintenance of 
the critical infrastructure and skilled personnel at the Nevada Test 
Site. This is necessary if we are ever required to resume underground 
testing, consistent with Safeguard C of the CTBT.
    Finally, the ability to study the behavior of matter and the 
transfer of energy and radiation under weapons conditions is essential 
to an improved understanding of the basic physics of nuclear weapons 
and more accurate predictions of their performance without underground 
nuclear testing. We expect to be able to generate conditions of 
temperature and pressure of nuclear explosions with lasers at the 
National Ignition Facility (NIF) at the LLNL. Experiments at the NIF 
will provide data essential to test the validity of computer based 
predictions and demonstrate how aged or changed materials in weapons 
could behave under these unique conditions. The NIF project, now under 
construction, is expected to be completed by the third quarter of 
fiscal year 2003. The first experiments on the NIF are scheduled to be 
conducted in fiscal year 2001 using the first eight lasers.
    While NIF is under construction, the Department is continuing to 
carry out an aggressive inertial confinement fusion research program to 
support the stockpile. With the Omega laser at the University of 
Rochester and Nova laser at LLNL we plan to carry out almost 2000 shots 
at these two facilities in fiscal year 1998. In fiscal year 1999, we 
plan to shutdown the Nova and transfer the resources to the NIF 
project.
    In 1997 the Z-pulse power facility at Sandia, demonstrated an 
extraordinary increase in performance which provides a greatly enhanced 
source of X-rays. In fiscal year 1998, the Z machine will perform about 
200 shots in support of the stewardship program. The Z-pulse will 
provide valuable information to support stewardship, which we do not 
expect to obtain from a current pulsed power facility. A pulsed power 
facility at LANL--Pegasus--maintains an experimental schedule of about 
20 shots per year.
    These, and other experimental facilities that are on line or under 
construction are expected to give us a set of tools sufficient to 
investigate and understand anticipated problems in the stockpile. We 
are investigating the feasibility of using a larger facility based on 
the Z-pinch concept should existing facilities prove insufficient to 
meet the mission of stockpile stewardship.
    As mentioned previously experimental information is tied to the 
assessment process through computation, more precisely, numerical 
simulation. But we know that the level of computation needed to 
effectively simulate effects of aging or a remanufactured part is much, 
much greater than that currently available, so we have begun a 
computation development program--the Accelerated Strategic Computing 
Initiative (ASCI)--in parallel with the experimental program. ASCI is 
providing the software, computer platforms, weapons codes, and user 
environments to allow the national laboratories to run simulations for 
making critical decisions about the safety and reliability of the 
nuclear deterrent without nuclear testing. Even at this early stage of 
the program there has been a extraordinary increase in the speed of the 
ASCI computers, but more importantly the actual number of calculations 
on weapons issues has increased. For example, in 1992, the last year of 
underground testing the estimated number of weapons related 
calculations was 5 gigaops- years, or about 5 CRAY-YMP supercomputers 
running for a full year. In fiscal year 1997 due to ASCI that number 
was 500 gigaops-years, it will rise to 2,400 in fiscal year 1998, and 
in fiscal year 1999 we plan on executing 7,000 gigaops-years of weapons 
related code.
    Our goal is to a have a system capable of operating at the 100 
TeraOps level by 2004, and we are on schedule to meet that goal. In 
1996 we began operation of the Intel 1.6 TeraOps machine at SNL. By 
fiscal year 1999 we will have two major supercomputers which will 
achieve 3.2 TeraOps, one at LANL and the other at the LLNL. We have 
begun work with IBM to build a ten TeraOps machine which is scheduled 
to be completed by the year 2000. The next two steps, the 30 TeraOps 
and the 100 TeraOps machines, will build on the experience of these 
latest machines and will be designed and developed after competitive 
bid contracts are awarded.
    This unprecedented computational power is also being made available 
to the university community through ASCI's Academic Strategic Alliances 
Program (ASAP). The Department of Energy announced on July 31, 1997, 
initial awards to five major U.S. universities--Stanford University, 
California Institute of Technology, the University of Chicago, the 
University of Utah and the University of Illinois. These universities 
are each focusing on a national-scale application for which the 
coupling and integration of computer-based simulations from multiple 
disciplines offer unprecedented opportunities for major advances and 
discoveries in basic and applied science areas important to ASCI, the 
broader DOE Science Based Stockpile Stewardship program, and to the 
chosen application areas. These applications will be unclassified and 
highly relevant to nationally significant scientific, economic and/or 
social national priorities.
    Thus computer simulations, experiments, and previous nuclear test 
data provide the complete tool box for the assessment process. Building 
this assessment ``tool box'' in time to train the new cadre of 
scientists and engineers is critical to the Stockpile Stewardship 
program.
    One such application of the stewardship tool box is the dual 
revalidation program. It has been designed to both challenge the skills 
of the next generation of scientists and engineers and to provide 
baseline data for the current stockpile weapons program. The 
revalidations conducted by teams from the two design laboratories will 
be performed on each system in the stockpile. We are now half way 
through the revalidation of the W76, and a number of specific 
milestones have been completed. Three of six hydro tests were conducted 
and six of fifteen Arming, Fuzing and Firing systems were tested to the 
original production specifications. The major system tests for the W76 
are scheduled in fiscal year 1998 and fiscal year 1999. Advanced 
planning for the next dual revalidation weapon will begin in fiscal 
year 1999.
    During fiscal year 1997, 498 weapons were safely dismantled. The W-
69 dismantlement program was successfully started on July 21, 1997, but 
was suspended in September after completing 42 weapons due to a safety 
concern over the detonator removal process. The remaining shortfall 
from the original performance goal of 556 is from enduring weapon 
programs that were scheduled for disassembly in support of stockpile 
management activities. We expect to dismantle approximately 1,000 
nuclear weapons in fiscal year 1998 and 500 weapons in fiscal year 
1999.
    Defense Programs funds the DOE's nuclear emergency response program 
which consists primarily of engineers, scientists, and other technical 
personnel from the three weapons laboratories, production facilities, 
and other DOE management and operating contractors who support the 
nuclear weapons complex. This program ensures a viable technical 
response is in place for any type of radiological or nuclear accident 
or incident including radiological releases, U.S. nuclear weapons 
accidents, or a malevolent event involving an improvised nuclear device 
or radiological dispersal device. A robust exercise schedule is planned 
to provide challenging scenarios for all radiological emergency 
response assets in order to verify the departmental readiness to meet 
our mandated responsibilities. These scenarios include overseas nuclear 
weapons accidents, field training exercises, multi-agency resolution of 
nuclear terrorism crises, response to transportation accidents and 
commercial nuclear reactor accidents.
    Defense Programs has restructured its technology partnership 
program to focus on cost-shared collaborative R&D partnerships with 
industry which directly support Stockpile Stewardship program 
objectives in applied computing, advanced manufacturing, and 
information technology. Examples of partnerships developed in fiscal 
year 1997 and fiscal year 1998 include work with: a leading 
manufacturer of machining stations to eliminate operator exposure to 
highly toxic beryllium; software vendors to maximize the efficiency of 
the weapons manufacturing cycle including casting, machining, 
inspection, and final assembly; and an industrial leader in laser 
ultrasonics to improve wall thickness measurements for critical weapon 
components. We will continue similar efforts in fiscal year 1999 in 
support of Stockpile Stewardship.
    Mr. Chairman, these are but a selection of the activities that are 
going on and are planned for the stockpile stewardship program. While 
the program is hardly without risk, I believe we have a high 
probability of success. Why do I feel as I do?
    First, let me reiterate that we start from a solid base. The 
current stockpile is well tested and well understood. The designers and 
engineers who built them are available and are active. Indeed they are 
the ones who are creating the stockpile stewardship program. They are 
the ones who are working on the stockpile now, and are helping to train 
their successors.
    Second, we have laid out a plan for the stockpile stewardship 
program--weapon by weapon, part by part, that projects the tasks 
required to maintain the stockpile over the next ten years, and beyond. 
We have concurrence on this program from the Department of Defense, and 
the Joint Chiefs, and the Administration has committed to fund this 
program and all its parts.
    Third, the President requires us to annually certify, to him 
directly, the safety, reliability and performance of each weapon type.
    Fourth, we have a back up. Under Safeguard C, the President 
requires us to maintain the Nevada Test Site in a state of readiness, 
and the subcritical and other experiments conducted there help keep the 
people sharp and ready. The successful experiments bear evidence that 
the Nevada Test Site remains a ``can do'' operation.
    Fifth, under Safeguard B the President requires us to maintain the 
vitality of the nuclear weapons laboratories--Los Alamos, Lawrence 
Livermore and Sandia National Laboratories. Mr. Chairman, those labs 
are among the best in the world--in my opinion hey are the best in the 
world--and they are better now than they were four years ago because of 
the enthusiasm and vigor with which they are attacking the stockpile 
stewardship effort. History tells us that great labs need great 
missions, and stewardship, like the Manhattan and Apollo projects, is 
just such a mission. Our DOE labs will get even better because they are 
attracting the kinds of people who are drawn to solve tough problems of 
national importance.
    Sixth, and this is most important, we are doing stewardship now, 
and doing it successfully. It has been five years since the last 
underground nuclear test. We have completed our second annual 
certification and are working on the third. We have modified the B61 
bomb and seen it enter the stockpile to replace the aged B53 bomb. We 
have begun construction of new experimental tools--NIF, DARHT, Atlas--
and our computation program has developed the world's fastest 
supercomputer--by a factor of three. And we have solved some problems 
that in the past would have likely required nuclear testing by using 
stewardship tools. We have done literally hundreds of experiments on 
existing facilities--Omega, Nova, and Z-pulse power that increase our 
understanding of nuclear weapons. We have safely dismantled over nine 
thousand nuclear weapons since the end of the Cold War, have produced 
numerous parts, on time, while continuing to downsize the complex. This 
is a system that works, and not just at the labs but also at the 
plants: Oak Ridge Y-12, Pantex, Kansas City, Savannah River, and the 
Nevada Test Site.
    Mr. Chairman, when President Clinton visited the Los Alamos 
National Laboratory, he stated `` I don't think we can get the treaty 
ratified unless we can convince the Senate that the Stewardship Program 
works''. I believe the Stockpile Stewardship program, if supported 
appropriately, can meet its goal of a safe and reliable stockpile, 
indefinitely, without nuclear testing. Your committee has shown the 
leadership in the Congress in providing that support and I 
enthusiastically look forward to working with you. I know of no 
national security issue that is more important.
                                 ______
                                 

               Biographical Sketch of Dr. Victor H. Reis

    Dr. Victor H. Reis has served as the Assistant Secretary for 
Defense Programs in the U.S. Department of Energy since August 1993. In 
this position, Dr. Reis directs all aspects of the Department of 
Energy's Stockpile Stewardship and Management Program. These 
responsibilities include maintaining U.S. nuclear weapons in a safe, 
secure, reliable, and environmentally sound manner in the absence of 
nuclear testing; providing an assured supply of tritium gas for the 
nuclear stockpile; dismantling retired nuclear weapons to meet 
international arms control obligations; reducing the size of the 
nuclear weapons complex to one that is smaller and more cost efficient; 
and ensuring the continued science and technology base of the Nation's 
nuclear weapons program. Dr. Reis was nominated for his position by 
President Clinton in May 1993 and was confirmed by the U.S. Senate on 
August 6, 1993.
    Prior to accepting his present position, Dr. Reis was the Director 
of Defense Research and Engineering at the Pentagon, a position he held 
since late 1991. As Director, Dr. Reis was the principal advisor in the 
Office of the Secretary of Defense for scientific and technical 
matters, basic and applied research, laboratories, and early 
development of defense weapons systems. While serving at the Department 
of Defense, Dr. Reis was also Chairman of the Nuclear Weapons Council 
and the Strategic Environmental Research and Development Program--a 
joint project of the Departments of Defense and Energy and the 
Environmental Protection Agency.
    Prior to assuming the directorship of Defense Research and 
Engineering, Dr. Reis served as the Deputy Director and then Director 
of the Defense Advanced Research Projects Agency beginning in December 
1989. Dr. Reis also has served as Special Assistant to the Director, 
Lincoln Laboratory, Massachusetts Institute of Technology; Senior Vice 
President for Strategic Planning, Science Applications International 
Corporation; Assistant Director for National Security and Space, Office 
of Science and Technology Policy, Executive Office of the President; 
and other positions in industry, academia, and Government.
    Dr. Reis earned a Bachelor's Degree in Mechanical Engineering from 
the Rensselaer Polytechnic Institute; a Master's Degree in Mechanical 
Engineering from Yale University; and a Master's and Ph.D from 
Princeton University. He is the recipient of numerous awards, including 
the Department of Defense Distinguished Public Service Medal.
    Dr. Reis was born in New York City on February 11, 1935; is married 
with four children; and resides with his wife, Marilyn, in Washington, 
DC.

                    fiscal year 1999 budget request

    Senator Domenici. I note the presence of the chairman of 
the full committee, Senator Stevens.
    Senator Stevens, I appreciate your attending today and 
frankly I want to make sure that it is understood that when we 
needed an extra allocation for this program from the Defense 
Department in order to get on with stockpile stewardship, the 
chairman of the full committee was our leader and the one that 
has helped us. Without him we could not have achieved much of 
this important work. So there is a lot that goes into meeting 
these very difficult responsibilities, and I want to publicly 
thank him for his effort and help.
    Senator Stevens, do you have any questions this morning?
    Senator Stevens. Thank you for your comments, Senator.
    Dr. Reis, the $4.5 billion, will that be an annual amount 
now for the stewardship program?
    Dr. Reis. Our plan is yes; that would be an annual amount.
    Senator Stevens. For 10 years, we will put $4.5 billion 
into the stewardship program.
    Dr. Reis. Of course, we have only put a 5-year budget 
together, but our projection would be for 10 years, yes, sir.
    Senator Stevens. That is a substantial increase over the 
last 10 years in the nuclear program, is it not?
    Dr. Reis. It is an increase. Of course, if you go back 10 
years, back to 1987, it was considerably more back in those 
days when we were still producing weapons and still testing 
underground. If my memory serves me correctly, it was about $5 
or $6 billion a year, at those times. Of course, it has dropped 
off considerably since we stopped testing in 1992. It dropped 
down to about something just under $4 billion.

                      defense programs work force

    Senator Stevens. Have you given us the detail of the work 
force that is required for the stewardship program?
    Dr. Reis. Yes; we have.
    In December of 1996, we produced what is called a 
programmatic environmental impact statement for stockpile 
stewardship and management, where as part of that analysis we 
looked at the work force requirements.
    Senator Stevens. My last question. From your statement it 
appears we are going to maintain the full force that is 
necessary to resume testing, and at the same time we are going 
to have a new force that is dealing with the stewardship 
program, is that right?
    Dr. Reis. That is correct.
    Senator Stevens. So the manpower really is substantially 
increased.
    Dr. Reis. The manpower actually drops down over what we 
had. While we do not expect to have to resume testing, we are 
keeping the facilities available, and we are keeping the core 
capability available. If we had to go back and test, I am sure 
we would have to augment, to some degree, the work force there. 
The same is true with the production complex, Senator.

                       weapons production complex

    Senator Stevens. Are you going to keep all the sites open 
that you mentioned?
    Dr. Reis. All of the sites currently would be kept open. 
They would be downsized and modernized, but we would anticipate 
keeping every one of those sites open, yes, sir.
    Senator Stevens. Thank you very much.

                      defense programs work force

    Senator Domenici. Mr. Chairman, might I mention that for 
instance, the Nevada test site, pursuant to the understanding 
between the Joint Chiefs and the President, when the Joint 
Chiefs agreed to the stewardship program, in lieu of testing, 
part of that was that the Nevada test site be maintained in a 
state of readiness. But I would state for the record, there are 
several thousand fewer employees at the Nevada test site today 
under the current readiness plan than when we were actively 
engaged in underground testing. I believe the number is around 
9,000 fewer personnel.
    Senator Stevens. It appears that there is an increase in 
the stewardship program almost commensurate with that.
    Senator Domenici. The stewardship program's increases are 
not much related to personnel as they are to new facilities and 
equipment, diagnostic equipment that is necessary to diagnose 
the aging of our weapons without testing.
    Senator Reid. Mr. Chairman, could I say one thing before 
Senator Stevens leaves?
    Senator Domenici. Sure.

                   bipartisan support for stewardship

    Senator Reid. You complimented him for making sure that we 
got a budget allocation that was appropriate. I think one of 
the untold stories of this Congress and the last 10 years has 
been partnership of Senator Stevens and Senator Inouye. I think 
the work that they have done for the security of this country 
has been bipartisan and has been some of the finest work that I 
have seen and it has received no notoriety. Also, I think it 
has just been remarkable, the work those two men have done.
    Senator Stevens. Thank you very much.

                    historic funding for stewardship

    Senator Domenici. Let me just also state for the record to 
see if I am correct, in 1997 the stewardship program, which was 
just getting started, was essentially $4 billion, $3.918 
billion.
    In 1998, it went to $4.1 billion, so essentially we are 
saying that without the add-ons to make the stewardship program 
work, the 10-year projection would have been $40 billion. But 
the current agreement totals $45 billion.
    Dr. Reis. That is correct.
    Senator Domenici. Is that a fair assessment?
    Dr. Reis. That is a fair assessment.
    Senator Domenici. OK. Because $45 billion sounds--you know, 
when you take it without a basis, startup, start basis, it 
sounds like a lot more than $5 billion, $45 billion sounds like 
a lot more.

                         assessment of the labs

    Dr. Reis, could you quickly do an assessment of the ability 
of the three weapons laboratories to manage the critical 
centerpiece programs and activities of stockpile stewardship 
initiatives such as the advanced strategic computer initiative, 
subcritical experiments, DAHRT, et cetera? Do you have any 
concerns with the labs' ability to execute the elements of the 
stockpile stewardship program?
    Dr. Reis. I think the labs are frankly in among the best 
shape they have been in many years Senator. I think it is 
important to recognize that the labs really are responsive to 
challenges, and when you give them difficult challenges they 
get better, and your ability to solve those challenges get 
better.
    I think if you have been to the laboratories recently you 
will compare it to say, several years ago, you will recognize 
the whole spirit of what is happening. The level of successful 
experiments that they have done over the past 2 years really 
gives me the confidence that those laboratories, if we maintain 
the course we are on, will clearly be able to do the job.
    Senator Reid. Mr. Chairman, I have got to go vote to get 
the ISTEA bill out. I will be back in 5 minutes.
    Senator Domenici. If I am finished, I will leave it open.
    Senator Reid. Yes; because I have a few questions.

           accelerated strategic computing initiative [asci]

    Senator Domenici. Sure. We are going to submit some other 
questions in writing, but let us talk a little bit about the 
accelerated strategic computing initiative [ASCI] program.
    Dr. Reis. ASCI program.
    Senator Domenici. That exists to some extent in each of the 
three major laboratories.
    Dr. Reis. That is correct.
    Senator Domenici. Could you tell us, are you experiencing 
any problems, delays in maintaining the schedules, and if there 
are some, what are you doing to correct this?
    Dr. Reis. For the most part I think we are on schedule in 
each of the laboratories. I must point out, as you are aware, 
it is a very aggressive schedule for the ASCI program and all 
the parts that go with it. It is a very complex program. It 
involves not just the laboratories themselves, but the 
contractors, the computer companies that we are in partnership 
with, and overall we are on that curve.
    We have had some concerns at the Los Alamos Laboratory with 
Silicon Graphics/Cray. We expect to be able to put them back on 
the curve shortly.
    Senator Domenici. So you think that one, which is not quite 
up to the scheduling properly as the others, will be brought 
back?
    Dr. Reis. Oh, we have a plan for getting back onto the 
curve.
    Senator Domenici. I might state for the record that it is a 
little-known fact outside of the community of scientists that 
relate to the laboratories that the supercomputer that America 
went way out front of the world on was developed because the 
demand, the market demand for it was the nuclear weapons 
industry, Los Alamos in particular. Livermore needed much more 
computing, and they placed their requirements before the 
industry, and the industry responded to the demand to produce 
supercomputers.
    I gather now, we are going through a subsequent phase, 
which is even more pronounced than that one, wherein ASCI is 
going to be the market driver for stronger and more powerful 
supercomputers, is that correct?

                         operating requirements

    Dr. Reis. That is correct. If I could just take a second 
and explain how we did that. We started off the ASCI program by 
projecting in about the year 2004, which is when we would 
anticipate that many of the designers would be reaching their 
retirement age, and said, what are the specifications, the type 
of calculations that you will need for stockpile stewardship?
    And they came up with a number which we seemed quite 
remarkable at the time of something like 100 trillion 
operations per second (TeraOps), which was about, perhaps as 
much as 100,000 greater than people were actually working 
calculations at the time. But that is what we needed to do. The 
approach that we chose was not to go there in one step, and it 
was also clear that we could not wait for industry to provide 
that.
    So, what we were able to do was put together a partnership 
with industry, with competitive procurements, that allowed us, 
step by step to move up in that direction. The first major step 
was the option red machine at Sandia National Laboratories, 
which as you pointed out was about three times faster than any 
other supercomputer, and we are moving along that curve pretty 
much the way we had to find it.
    What makes that, I think, interesting is that the 
components, all of the components, essentially, are being built 
out of commercial commodity components so that the computer 
companies, as they move along this train, will still be able to 
use those same supercomputers for other applications. I am sure 
many more uses than just, obviously, nuclear weapons, so this 
is really causing a significant boost to the U.S. computer 
industry as well.

                              asci funding

    Senator Domenici. Could you tell me, as I understand it, 
the ASCI program, including stockpile computing, has 
experienced funding increases of nearly $70 million for 1997 
and 1998, and the request for 1999 is $517.8 million. What is 
the total cost of the effort expected to be, what is the basis 
for that estimate, and when do you expect the funding 
requirements to peak?
    Dr. Reis. I would have to check on those numbers. The peak 
is coming up in a few years. That would be about $600 or $700 
million a year for the total computing. That is not just the 
ASCI part but, of course, as you are aware we do a significant 
amount of computation, if you will, production computation.
    I think the key to the ASCI is, of course, I may be moving 
ahead of your next question. I have not seen it.
    Senator Domenici. I do not have one.
    Dr. Reis. Then I certainly have not seen it--is, of course, 
that we not wait until the year 2004 and the 100 TeraOps. We 
are using it now, and will continue to use it.
    As we move up that curve, we are learning a lot about the 
whole simulation area. We are learning about how to interpret 
and predict the experiments that we are doing right now. The 
concept of integrating a simulation with the experiments that 
we are doing, looking at the previous tests, we are learning 
things about the underground tests that we have not known 
before, is, I think quite extraordinary.
    [The information follows:]

               Accelerated Strategic Computing Initiative

    Current planning indicates that the cost of the Accelerated 
Strategic Computing Initiative, including Stockpile Computing 
activities, from fiscal year 1999 through fiscal year 2004 is projected 
to be about $4-$4.2 billion. This estimate is based on current 
projections of the cost of computer platforms being developed with 
industry partners, the cost of ongoing activities with the laboratories 
and academic partners on code development, modeling, tools and 
techniques, as well as creation of ``supercorridors'' and other 
facilities for high performance interfaces to the weapon designers. The 
peak funding is projected to be approximately $750 million in fiscal 
year 2003. However, we must acknowledge the possibility of 
unanticipated issues concerning the stockpile for which additional 
computational efforts that offer greater and more advanced 
technological responses would provide better value in terms of cost and 
effort.

                               asci chips

    Senator Domenici. Let me tell you what my flow charts here 
indicate. The 1999 funding will be $517 million, and by 2003 it 
will be $753 million.
    Dr. Reis. Yes.
    Senator Domenici. I assume that shortly after that----
    Dr. Reis. I think it would stay at that level. Now, what 
would happen as one projects further beyond that, of course, is 
that you will start to drop off, because we would not 
anticipate beyond that level of building new machines.
    The key to the way these machines would work is as the 
chips themselves get better, those improved chips go into the 
machines. They are the same types of chips that you would have 
on your PC, but as you know, they keep getting better. Those 
are the same chips that go into these machines. We sort of get 
the first crack at them, but nonetheless they are still 
advertised.
    So, I would anticipate that the ASCI computers over time 
would continue to improve as the chips themselves continue to 
improve. Once we reach that level, then I would see those 
dollars dropping considerably, because we would no longer be in 
the computer development arena. We would just be using the 
computers.

                     massive parallel construction

    Senator Domenici. Now, so we understand, this next market 
demand pool that will be placed on the industry through this 
program will be fulfilled principally by massive parallel 
computers, as compared with reinventing a total new mainframe 
computer.
    Dr. Reis. That is right. Each of the computers will be 
built up by putting together, the type of commercial computers 
that companies will then go out and sell as part of servers or 
as part of simulation engines, for other applications.

             asci role in the stockpile stewardship mission

    Senator Domenici. Now, could you tell us in layman's terms 
on what this enhanced computing capacity will do in the 
stockpile stewardship program that is so important to its 
maintenance as a trustworthy and safe nuclear deterrent?
    Dr. Reis. I think the basic problem that one faces in 
stockpile stewardship is the aging of the nuclear weapons 
stockpile just like we are. I mean, you may be designed in two 
dimensions. You sort of age in three dimensions, little bumps 
and cracks and changes.
    Senator Domenici. Just like us.
    Dr. Reis. Just like us, wrinkles--you know, some of us lose 
our hair. I do not see anybody in this--looking at you, you all 
seem to be fully----
    Senator Domenici. A little obesity here and there.
    Dr. Reis. That is probably as far as we want to go on this 
discussion, Senator. [Laughter.]
    Senator Domenici. We will have a closed session.
    Dr. Reis. That is right. [Laughter.]
    But what happens, of course, is that in a device like a 
nuclear weapon, in which so much energy is in such a small 
package, those little effects we understand now from looking at 
past tests, and so forth, can make a big difference. We have to 
be able to calculate what those effects are.
    They are in three dimensions, and we need to be able to put 
all the calculations on a machine, that is, the effect as one 
goes through the implosion process, the radiative transfer 
process, and the energy leaving the nuclear weapon.
    Senator Reid. Would the chairman yield just briefly?
    Senator Domenici. I would be pleased to yield.
    Senator Reid. Dr. Reis, the thing I was so impressed with 
at the test site this last time is their explanations that the 
reason these supercomputers are so important is that the test 
results must be obtained in a millisecond. I do not know if I 
pronounced that right, but a lot less than a second.
    Dr. Reis. Well, the events that occur during a nuclear 
explosion, which we are trying to simulate, all occur in a 
very, very short period of time.
    Senator Reid. Less than a second.
    Dr. Reis. Much less than a second, and some effects are 
milliseconds, some effects are microseconds, and you have to be 
able to understand that. You also have to be able to show that 
to the designer, and then let the designer make changes. So it 
is not sufficient just to say, I can run this calculation for a 
very long period of time. He has got to be able to see what 
that effect is, basically try different things, and this 
requires a very, very significant increase in our ability to 
compute.

                    ability to build supercomputers

    Senator Reid. We know we can build the supercomputer.
    Dr. Reis. We feel comfortable that we can do that. Again, 
we have put ourselves on a very aggressive curve.
    I think the reason that we feel comfortable with that is we 
have very good support from the computing companies we are 
working with. We have also just completed a competition (path 
forward) for some of the switching components and so forth, for 
moving up to the 30 TeraOps regime.
    We got very good responses from four of the major 
supercomputing companies--IBM, Silicon Graphics/Cray, DEC, and 
Sun Microsystems--all gave us very, very good proposals.
    They are now feeling comfortable with that, and I would 
suggest that perhaps you bring in those people from the 
supercomputing companies. Ask them very directly what their 
views are. Either have a hearing or just maybe discuss with 
your staff--I am sure they would be delighted to come in and 
just discuss with you what their views are, because they are 
not just looking to us in doing this.
    I mean, we have gotten on, if you will, we are pushing 
their curve from where they expect to be able to sell these 
devices. These are not special devices for us, they are made up 
of devices that they expect to sell as part of their normal 
business.
    We are pushing them a little faster, but they will tell you 
that they expect to be building these things later. It is this 
problem of time urgency that we are dealing with, which is to 
get the system working before these designers retire, which has 
caused us to move at such an accelerated pace. That is why we 
call it accelerated--an accelerated past where the normal 
computing business would take us.

                         stockpile stewardship

    Senator Domenici. Now, just to summarize one more time, 
what we are saying and what the Joint Chiefs said when they 
agreed to this idea of no underground testing, was that we used 
to determine safety and reliability to a significant degree by 
having actual nuclear weapon tests. At one point they were 
above ground. We moved away from that and tested for a long 
time underground--we were doing underground testing for the 
same purpose.
    Now, what was done when we decided to do no more 
underground testing, we came up with a science-based 
stewardship program that would attempt to make the weapons 
systems as safe and as reliable as we knew they were when we 
did actual underground nuclear testing, is that correct?
    Dr. Reis. That is correct.

      stockpile stewardship and the comprehensive test ban treaty

    Senator Domenici. And the big question which will be 
forthcoming on the floor of the Senate when the Comprehensive 
Test Ban Treaty is debated will be, are we as safe and as sure 
with no testing and this stockpile as we were before?
    And if the answer is yes, then the question is, if the 
whole world is in that mode, can we be assured that there is no 
cheating going on in terms of testing?
    That is going to be the framework of the issue on the CTBT 
treaty that the President has sent us. Is that essentially----
    Dr. Reis. I think that is it. That says it very well.
    Senator Domenici. Now, the question, then, for the Congress 
and for our subcommittee is, is that effort worth $500 million 
a year, more than we were spending before we had this science-
based stockpile stewardship program in full effect, and that is 
essentially the difference between about a $4 billion budget 
that existed and a $4.5 billion, which it increased to, and 
maintain the nuclear weapon stockpile in a manner you and other 
experts have deemed the responsible way.
    Dr. Reis. That is correct.
    Senator Domenici. Now, let me ask, it is not just advanced 
computing that will be needed to determine the reliability and 
safety in a stockpile which is not going to have any new 
weapons added. There are other new diagnostic instruments, and 
I use that word, because I do not know what else to call them. 
These tools and facilities will diagnose the parts and the 
reliability of various components in an aging stockpile.
    We are going to also add some equipment, one called the 
dual axis radiographic hydrotest facility [DARHT]. Could you 
tell us what it will do?

                             DARHT FACILITY

    Dr. Reis. What DARHT does, it is an advanced hydro testing 
device, and I should say DARHT is an advanced one. We have been 
doing this whole hydro testing business for many, many years. 
In fact, some of the early work at even the Manhattan project 
used this.
    What we try to do is simulate the behavior of the actual 
primary explosive device. We do not use plutonium, but we use a 
simulant metal and we light off the high explosive, we see how 
the pit forms, and then we take an x ray, literally the same 
way you would do when you went to the doctor to look at your 
lungs except it is done in a very, very short period of time.
    We see the cavity that this imploding pit has formed and we 
can watch--by various diagnostics, the time history of the way 
that implosion occurs.
    But the key is, to let us look inside it, actually see what 
it looks like, and that is what the DARHT facility does for us. 
We will be able to look in more than one direction when we put 
in the second arm. It will have much improved resolution so we 
will be able to look at that x-ray picture much better, and we 
will also be looking from another direction as well. So we will 
be able to get a much better sort of stereoscopic look, the 
same way when you go to the doctor you take an x ray from 
different directions, and then the expert, if you will, looks 
and says is that working all right.
    We have, as you are aware, a number of tests both from what 
we simulated in the past, and real underground tests so we have 
a good idea of what the imploding pit looks like at various 
critical times of its implosion.
    What we will do with DARHT, then, is compare with these 
aged systems what changes, again exactly the way you would if 
you were going to the doctor. Let me look at a new x ray, 
compare that with the old x ray, and then we have to assess. 
That is where the simulation comes in. That is where the 
experts come in. Is that going to make any difference or not? 
Because we do not want to have to make any changes if we do not 
need to.
    Senator Domenici. So for the record, DARHT means dual axis 
radiographic hydrodynamic test facility, which we will never 
repeat again. We will just call it DARHT.
    Now, isn't it true that some of the information--the date 
that will be forthcoming from DARHT--these series of DARHT 
experiments, will use the computer capabilities of ASCI to 
simulate what is actually occurring. And this will aid in 
reference our understanding to safety?

                         stockpile stewardship

    Dr. Reis. The key, of course, is the computing, obviously 
it does not do it all by itself. You cannot validate the 
computer codes. We do the best we can, but indeed what we try 
to do is make sure we are putting the right numbers into the 
computer; that the numbers that come out make sense. So what we 
try to do with DARHT and the various other parts of the system 
is to be able to predict what those experiments might look 
like. That tells us whether our predictions are good.
    We also, when we find something coming out the other end, 
we want to ensure ourselves that we have noticed a change, 
perhaps. Is that change important? We want to make sure that 
the theory that goes behind that is a valid one, because every 
year we have to go back to the President, based on all the 
tests, and say, OK, is this stockpile sufficient to do the job 
or not? Is it still safe? Is it still reliable?
    We know there are going to be changes. The issue is, are 
those changes enough to change your specifications?
    Our safety standards we have for these nuclear weapons are 
certainly among the most rigid and extraordinary in the world, 
and we have not, nor would we anticipate changing those 
standards in any way, even though we are not testing in the 
future.

                    advanced experimental facilities

    Senator Domenici. Now, would you state for the record the 
other key facilities, like Livermore's national ignition 
facility [NIF], and state for us what capability they provide, 
what the schedule is for each one, and whether you foresee any 
significant changes that might alter the project costs and 
schedules.
    And I am not trying to hold anybody to exact cost, but we 
have to be careful that we do not come up with estimates that 
are so far off the mark that in 3 or 4 years we are sitting 
around here trying to justify the money and somebody says the 
program is not worth it because it is too expensive, so will 
you do that for us?
    Dr. Reis. Yes.
    Senator Domenici. And I also have some written prepared 
questions that are more precise on that on these subjects.
    Dr. Reis. I will be glad to do that. Those are very 
important issues, Senator.
    [The information follows:]

                    Advanced Experimental Facilities

    A suite of enhanced capabilities that are needed to fill in the 
knowledge gaps and provide data relevant to various stockpile concerns 
has been identified. The enhanced capabilities include ASCI and 
computations and subcritical experiments, as well as advanced 
experimental facilities to provide high resolution data on the stages 
of the nuclear explosion. The facilities are: Atlas, the Dual-Axis 
Radiographic Hydrodynamic Test Facility (DARHT) and the National 
Ignition Facility (NIF), all of which are currently under construction 
or in detailed design; the Short Pulse Spallation Source enhancement to 
the Los Alamos Neutron Science Center (LANSCE), which is an upgrade to 
an existing facility; and, an advanced hydrotest facility (AHF) and an 
advanced pulsed power facility (APPF), both of which are being assessed 
for the future. Wherever possible, the goal is to obtain data 
experimentally by more than one method. The following table identifies 
the stage of the nuclear explosion that each facility would address:

           EXPERIMENTAL FACILITIES NEEDED TO ENSURE HIGH CONFIDENCE IN WARHEAD SAFETY AND RELIABILITY
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                        Atlas     DARHT      AHF       NIF       APPF    LANSCE
----------------------------------------------------------------------------------------------------------------
Improved physical models............................      X         X         X         X          X        X
Early implosion.....................................  ........      X         X    ...........  ......      X
Preboost............................................      X         X         X         X          X        X
Boost...............................................  ........  .........  ......       X       ......  ........
Primary-secondary coupling..........................  ........  .........  ......       X          X    ........
Secondary implosion.................................      X     .........  ......       X          X    ........
Total Cost..........................................   $48,500   $269,800     TBD   $1,198,900     TBD   $16,700
Scheduled completion................................       TBD    FY 2002     TBD      FY 2003     TBD   FY 2000
----------------------------------------------------------------------------------------------------------------

    The current schedule for Atlas completion is the third quarter of 
fiscal year 1999. However, design revisions are currently under 
consideration by the Department to allow the design of a test 
capability which will meet programmatic requirements within the 
existing estimated cost. The original design was too costly. The 
completion date is being delayed by an estimated 14 months to allow 
time for the necessary redesign.
    The first axis of DARHT will become operational during fiscal year 
1999 and experiments are scheduled to begin in June of 1999. The cost 
reflected includes the full estimate for the four pulse technology 
selected for the second axis. We are very confident of this estimate 
and do not anticipate further increases.
    The cost estimate for NIF was established in December 1996, at the 
end of Title 1 design, and to date, the project is on schedule and 
within cost.
    The fiscal year 1999 budget includes $7.7 million to complete 
funding for the Short Pulse Spallation Source enhancement to the Los 
Alamos Neutron Science Center (LANSCE). These upgrades will allow 
Stockpile Stewardship Program researchers to obtain dynamic and 
surveillance measurements more quickly and accurately. It will also 
improve facility reliability and maintainability and reduce worker 
radiation exposure.
    The fiscal year 1999 budget also includes $49 million for research 
and development leading to a decision within a five year period whether 
to construct an advanced hydrotest facility and/or an advanced pulsed 
power facility.

                        experimental activities

    Senator Domenici. The staff reminds me now that you know, 
we are already, certainly Senator Reid and I on this 
subcommittee, are going to feel a lot of pressure as to whether 
we need the $4.5 billion each and every year, and we are surely 
not going to get significantly more than that.
    We are counting on the accuracy of your cost estimates and 
schedules. We really need you to be sure your people are doing 
the best work possible in that regard, because I do not 
perceive that we are going to add 10 percent or 15 percent over 
the $4.5 billion cap in order to accommodate costs which are 
significantly beyond the estimates when we commit to a 
particular project.
    Senator Reid.
    Senator Reid. Thank you, Mr. Chairman.
    Of the many experiments and tests that are planned, it is 
your unqualified opinion that we are doing this for the 
national interest, security interest of this country?
    Dr. Reis. Yes, sir.
    Senator Reid. And these are experimental activities 
separate and apart from testing activities, is that true?
    Dr. Reis. That is correct.
    Senator Reid. And the chairman has gone over in some detail 
the fact that while we are increasing the budget, but only by a 
little bit over a 5-year period. Do you feel that you are going 
to have sufficient resources to focus on the safety and 
reliability of the stockpile?
    Dr. Reis. Yes; I do, Senator.

                        subcritical experiments

    Senator Reid. Regarding the subcriticals at the Nevada test 
site, have you yet been able to gauge the value of these 
experiments from the few that have been done?
    Dr. Reis. Senator, I must tell you that I was looking 
forward to those tests because I thought they would be very 
interesting and very useful. I must tell you that I have been 
more than pleasantly surprised about just how useful they are, 
and you, of course, have visited and seen that.
    It is a major success story, I believe, for stewardship, 
because it is working now. We have been able to answer some 
very significant problems, again in combination with our 
understanding flowing with previous experiments, using the ASCI 
computers to be able to predict and to interpret what those 
results are.
    Just with the two experiments so far, Rebound and Holog, 
from the two laboratories, working together with the people at 
the test site, we have more information on some very difficult 
problems that in the past we simply did not understand by just 
looking at data from underground testing.
    So it has been, I believe, a major success story.

                            laboratory moral

    Senator Reid. Dr. Reis, one of the things that I 
recognized, and I think I can speak for Senator Domenici, is 
the enthusiasm----
    Dr. Reis. Yes.
    Senator Reid [continuing]. Of the scientific community out 
there.
    When I say out there, this includes bringing some people 
from the laboratories when they do these experiments.
    It is as if they have a chance of winning the World Series. 
They are really in their finest--they are dealing with pure 
science, and I just found an esprit-de-corps there that is hard 
to express.

                        subcritical experiments

    Dr. Reis. I am glad you mentioned that. I visited with 
General Habiger. We went down to visit before the experiment 
started, when they were in the process of being set up. It is a 
very unusual experience to put on mining gear and all the 
safety equipment, go down almost 1,000 feet, get down to the 
bottom, and then you put on lab coats and lab gear on top of 
that.
    Senator Reid. Because it is so clean.
    Dr. Reis. Because it is so clean down there. As you point 
out, the enthusiasm of the people working is good. What is very 
interesting is the level of diagnostics. In terms of the amount 
of diagnostics we have on those subcritical experiments it is 
greater in many respects than we had during an actual test.
    That is because you are able to get closer, but also, you 
get much finer detail. Of course, that is the fine detail we 
need, as I expressed to Senator Dominici because that is where 
the problems are.

                           archival test data

    Senator Reid. And Dr. Reis, you compare what you do there 
with the archival information that has been gathered with these 
hundreds and hundreds of tests--you do have something to 
compare it with, is that true?
    Dr. Reis. Well, that is key. I hope I get that point 
across, that those archival tests are very, very important for 
us, because that gives us the baseline. We are always looking 
for changes.
    We do not anticipate going back into weapon production. So 
how do you know whether current systems are going to work or 
not? Well, you have to determine: what are the changes that are 
taking place; and then are those changes significant. That 
requires a lot more detailed scientific understanding of what 
happens in nuclear explosions.

                        subcritical experiments

    Senator Reid. We are planning for four subcriticals per 
year. Only three are scheduled this year. Could you explain 
why?
    Dr. Reis. The fourth is actually within about 2-3 weeks 
after the end of the fiscal year, so much of the planning of 
the funding for that is actually in 1998.
    As you are aware, those are not easy experiments. There are 
a lot of diagnostics. There is a lot of thought that goes into 
them, and we are trying not to press the schedule faster than 
makes sense, but we are aggressively pushing the subcriticals, 
because they are on the critical path to the resumption of the 
pit production at Los Alamos.
    So there are a number of experiments we have to do. We have 
to understand what is happening to both new plutonium and aged 
plutonium. We have to understand the difference between cast 
and wrought plutonium. The detailed experimental information 
that will be gained from those subcritical tests in relation to 
the previous tests that we had done underground are tying it 
together using the simulation techniques that we are developing 
at the same time.

                            aging work force

    Senator Reid. One of the things, Dr. Reis, that has been 
difficult is with the passage of time some of the scientists 
that we had that were working on these programs decades past 
are leaving because of death, retirement. Aren't we losing the 
knowledge of a generation of scientists, physicists, and 
engineers who build and test these nuclear devices?
    Dr. Reis. Indeed, that gets back to why $4.5 billion and 
not $4 billion, or some other number. It has to do with the 
rate of the program, because we are moving very rapidly on many 
fronts, on the experimental front, on the computational front, 
throughout the whole program.
    It is based on our feeling comfortable that we have the 
stewardship program in place, working, before those people 
retire, because those are the people that raise their hands and 
tell you yes, this is a program that we feel, with our test 
experience, will be sufficient.
    While we do numbers, we do calculations, we do experiments, 
Senator, it really comes down to the level of expertise of 
those people. We need the same level of expertise, perhaps even 
more, when we are not testing in the future than we have in the 
past. The people who judge that are the people who have had 
that experience.

                        challenge of stewardship

    Senator Reid. Dr. Reis, also we have made this very 
difficult for ourselves, have we not, by playing with a set of 
rules that, for example, does not generate any nuclear yield of 
any kind. It makes work for the scientific community, those 
that have been involved in it in the past, and those we want 
involved in the future, it makes their job extremely difficult, 
and that is why we are talking about super-supercomputers, and 
we are talking about all of these national ignition facilities 
and all these other methods of experiments that have no nuclear 
yields.
    Dr. Reis. That is certainly true, and that is the challenge 
that we have to face, that these are tough, very, very 
difficult jobs.
    I think it is a more difficult job we have to do now than, 
in fact, building a weapon from scratch if you had the ability 
to go test it.
    Senator Reid. Dr. Reis, there have been articles written--I 
read one yesterday, in, I think it was the National Journal, 
where I am not sure you were quoted, but there were other 
scientists who were quoted as saying that the program about 
which we are engaged is as difficult as the Manhattan project 
or sending someone to the Moon.
    Dr. Reis. Yes; I think it is of that magnitude, and I am 
not at all surprised. When you are dealing with a program of 
that magnitude, the $45 billion over 10 years sounds like a lot 
of money, but certainly not way out of whack for the job we are 
trying to do in terms of its scientific and engineering 
difficulty, and also the rate at which we have to do it.
    What is interesting about comparing it to Apollo and the 
Manhattan project is that they were time-driven. You had to 
have the job done by a certain time.
    And that is what drives the importance of why we need 
experimental facilities like DARHT and Atlas and some of the 
pulse power work. That is what drives the rate at which we have 
to do subcriticals. That is certainly what drives the ASCI 
program, and why we simply cannot wait for the computing 
companies to sell us the next big computer that they find, that 
they are selling to everybody else.
    Senator Reid. Mr. Chairman, I would ask your permission to 
submit some questions in writing. I have to go up to the ISTEA 
markup, we are reporting that out, and I need to be there, so I 
am going to have to leave.

                             tritium supply

    Senator Domenici. Senator, I am going to close the meeting 
down now. Your questions will be incorporated into the record.
    Dr. Reis, just one last question. With reference to tritium 
sources----
    Dr. Reis. Yes.
    Senator Domenici [continuing]. We have a situation where by 
2000--what, 4 or 5?
    Dr. Reis. 2005 is our current need date for new tritium.
    Senator Domenici. We will need a new source given the 
current stockpile requirements.
    Dr. Reis. We have to start producing a new source by 2005.
    Senator Domenici. Now, is it not correct that if we go the 
accelerator technology route it will cost between $4 and $4.5 
billion over time, and if it is possible to go with a 
commercial light water reactor--and I am not suggesting we have 
all the problems ironed out on that--that it would be in the 
neighborhood of $1 billion?
    Dr. Reis. Those numbers are roughly correct.
    Senator Domenici. And the fiscal year 1999 budget request 
makes no choice between the options, but includes $157 million 
to get started, is that correct?
    Dr. Reis. To continue one of those, yes, sir.
    Senator Domenici. Can you have your answers to our 
questions back by the end of March?
    Dr. Reis. Certainly.
    Senator Domenici. We are going to mark up as early as we 
can.
    Dr. Reis. We will try to get them back to you as early as 
we can.

                  prepared statement of senator craig

    Senator Domenici. Senator Craig has a statement that will 
be inserted in the record, and Senator Cochran has a series of 
questions which will be submitted for answer within the 
established rules of getting them to us by the end of March.
    [The statement follows:]

              Prepared Statement of Senator Larry E. Craig

                 department of energy: defense programs
    As the subcommittee convenes to consider the important national 
security functions carried out by the Department of Energy, I would 
like to take this opportunity to highlight one particular program. 
There has been a well coordinated effort between the Idaho National 
Engineering and Environmental Laboratory, in my state, and Los Alamos 
National Laboratory in the Chairman's state of New Mexico on a program 
called Defense Programs Environmental Surety. This program uses basic 
research results from Los Alamos and then applies Idaho's engineering 
skills in designing industrial systems to meet various environmental 
needs at Los Alamos.
    The Office of Defense Programs within the Department of Energy has 
done a good job of integrating INEEL into the Enterprise Integration 
program, and deserves recognition for a job well done. In turn, the 
INEEL provides high-quality services to the weapons complex, while 
helping maintaining the security and robustness of our nuclear weapons 
program.
    The defense programs within DOE have demonstrated leadership in 
recognizing the core strengths of each laboratory and encouraging this 
teaming effort. I commend DOE for that, and for placing the 
Environmental Surety program in the President's budget request for 
fiscal year 1999. I am sure that INEEL's skill base in applied 
engineering can continue to meet this and other needs for the DOE 
weapons complex.

    Dr. Reis. All right. We will try to do that.
    Senator Domenici. Do you have anything else you would like 
to discuss with the committee?
    Dr. Reis. I think that should do it, other than to thank 
you again for more than interest in this. This is a very 
important project.
    I cannot think of any more important one that we are doing, 
and again, this committee has shown, both yourself, Senator 
Reid, other members, and the staffs that you've assembled to 
work on this. They ask tough questions continually, and we are 
doing our best to answer those, but this has got to be a strong 
bipartisan effort, and Senator, we are in your debt for what 
you have done so far.
    Senator Domenici. Well, I want to close the record by 
saying you have understated the significance, as you usually 
do. It is tremendously important to the nuclear stockpile. For 
those who do not think we ought to have a stockpile at all, and 
there are some, obviously this sounds like something we are 
wasting money on. But for those who know the significance of 
maintaining a solid, reliable, and safe stockpile, it seems to 
me that we have a job of educating a lot more Senators from 
both parties.
    This is not just any run-of-the-mill program. The Chief of 
Staff and all of those who serve with him are expecting the 
stockpile stewardship program to work--to keep our weapons 
stockpile reliable and safe. You have got the President, who 
has said no underground testing, expecting this to work, and I 
assume, although many Senators were against stopping 
underground testing, we have done it as a Nation and a treaty 
is pending.
    So, we can put off a lot of things, but this one is a 
pretty dangerous one for the kind of world we live in. Knowing 
what the stockpile looked like in countries like Russia for the 
foreseeable future, we have to do something like this, and we 
will do our best, and you have done a great job explaining to 
the scientific community.

                     Additional committee questions

    Many of them think it is a very exciting science-based 
research program from which much science will evolve, and that 
it is one of the major research programs going on now by way of 
Government-directed programs, and from it will come many 
computer capabilities and ideas, and many other items of 
scientific significance are going to evolve.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Domenici

                           general questions
    Question. Dr. Reis, is the nuclear weapons stockpile safe and 
reliable, and does DOE have the capability to meet the requirements of 
the Defense Department for fiscal year 1999?
    Answer. Yes, the Nation's nuclear weapons stockpile is safe and 
reliable. The Secretaries of Energy and Defense have completed two 
annual certifications to the President that the nuclear weapons 
stockpile is safe and reliable and that no nuclear testing is required. 
At this time, the Department of Energy has the capability to meet the 
nuclear weapon requirements of the Department of Defense as approved 
and delineated by Presidential guidance.
    Question. Dr. Reis, how long will we have to wait until it can be 
determined that the science-based Stockpile Stewardship program works 
and can be fully relied upon in the absence of underground weapons 
testing?
    Answer. Stockpile Stewardship is working now. While it has been 
more than five years since the last nuclear test we have successfully 
addressed several stockpile issues by using the experimental and 
testing tools available today. This provides confidence that the even 
more powerful computing and testing tools being developed will allow us 
to solve future stockpile problems without nuclear testing. By annually 
certifying the safety and reliability of the stockpile, the DOE will 
confirm that Stockpile Stewardship can be relied on now and in the 
future. We have successfully completed the process twice, and the third 
annual certification process is well underway. A copy of the second 
certification was provided to the Congress by the President on February 
12, 1998.
    Question. Dr. Reis, how would you assess the ability of the three 
weapons labs to manage the critical, center-piece programs and 
activities of the Stockpile Stewardship initiative, such efforts as the 
Accelerated Strategic Computing Initiative, Subcritical Experiments, 
DARHT, etc.?
    Answer. The Department's three weapons labs have done an excellent 
job of defining the stockpile stewardship program initiatives and in 
most key areas are moving aggressively and effectively in carrying 
these programs out. The labs successfully implemented the development 
of the world's fastest computer at Sandia National Laboratories, the 
conduct of three subcritical experiments, and the start of construction 
of the National Ignition Facility. These successes confirm their 
ability to manage the critical programs of Stockpile Stewardship. With 
respect to DARHT, unanticipated changes in technical requirements 
impacted the schedule and cost of the project, which in turn will 
require significant changes in both the DOE and LANL management. We 
also have concerns with some of the technical issues regarding the Blue 
Mountain computer at LANL, and we are shoring up our management process 
here as well.
    Question. Do you have any concerns with the Labs ability to execute 
the elements of the Stockpile Stewardship program?
    Answer. If long term, adequate stable funding is provided, I 
believe we will be able to execute all elements of the program.
    Question. Are you confident that the management and leadership of 
the national weapons laboratories is aware of the need to effectively 
manage costs and schedules?
    Answer. Yes, the directors of the weapons laboratories are fully 
aware of the importance of delivering the key elements of the Stockpile 
Stewardship Program on time and within budget. They have stated that 
Stockpile Stewardship is their top priority program, and are acting 
accordingly.
    Question. Specifically, what are you doing to ensure that 
appropriate structures and personnel are in place to carry out these 
high priority activities?
    Answer. I, and each of my Deputies and their DOE staff, conduct 
frequent program reviews, workshops and independent analyses. We 
participate fully and encourage independent reviews and analyses by the 
United States Strategic Command, other DOD elements, other parts of the 
U.S. government such as OMB, NSC, and OSTP and outside groups such as 
the JASONS and the National Academy of Sciences.
    Question. Dr. Reis, please explain the interrelationship of each of 
the major elements of the Stockpile Stewardship and Management program 
and how they complement each other.
    Answer. The Stockpile Stewardship Program is an integrated program, 
and all of its parts must work together if it is to be successful. As a 
start, we conduct surveillance to determine the condition of the 
current stockpile, find any defects, assess what effect these defects 
have on the safety and reliability of the weapons, and replace 
defective parts with remanufactured parts and certify that the weapons 
will perform to their safety and reliability specifications. Because 
the stockpile must remain safe and reliable indefinitely, we must 
project this cycle of surveillance, assessment, remanufacture and 
certification into the future, and much of the stockpile stewardship 
program involves investing in the tools, facilities and people for the 
future. This investment schedule is driven by the fact that the people 
who designed, built, and tested the current stockpile are retiring and 
will no longer be available.
    Question. How will the work being accomplished in the science and 
computing area benefit the production complex?
    Answer. The science and computational simulation efforts will 
enable the modeling of complex fabrication and manufacturing processes 
to a degree that has heretofore not been possible. These include, for 
example, rapid prototyping of newly developed parts using tools 
developed in the Accelerated Strategic Computing Initiative. This 
modeling will enable us to predict the sensitivity of manufacturing 
processes on product performance and to predict the life of the new 
product, and as a result reduce production cost and cycle time.
           accelerated strategic computing initiative (asci)
    Question. Explain the importance of the ASCI program to the 
Stockpile Stewardship initiative and how this advanced computing 
capability will be integrated with other critical Stewardship 
activities?
    Answer. ASCI is a time-critical, essential element of the 
Department of Energy's Stockpile Stewardship initiative. ASCI enables 
DOE to make the required shift from the past stockpile management 
approach that was based on new weapon development and nuclear testing 
to a science-based approach based on maintenance of the existing 
stockpile through simulation and fundamental experiments. Specifically, 
ASCI will create and provide to all stewardship activities the leading-
edge weapon simulation capabilities that are essential for maintaining 
the safety, reliability, and performance of the nation's nuclear 
stockpile under the current nuclear test moratorium and will meet the 
challenge set forth by the Comprehensive Test Ban Treaty.
    Under the Stockpile Stewardship Program, computational modeling and 
numerical simulation provide the integration of theory, past nuclear 
test data, and existing and new experimental results into results that 
can be verified and validated for stockpile assessment and 
certification. Advanced computational capabilities (application codes, 
computing platforms, supercorridors, and various tools and techniques) 
are currently being developed and incorporated into ongoing stockpile 
computational activities. The weapons scientists and engineers will 
rely on numerical simulations and experiments to a greater extent than 
in the past. The goal is to combine past nuclear test data, 
computational modeling and new data to fill in knowledge gaps and 
extend the fundamental understanding in all areas related to nuclear 
weapons assessment.
    The ASCI computational modeling and numerical simulation 
capabilities support the assessment and certification actions defined 
by the Stockpile Life Extension Program (SLEP) activities. Similarly, 
they are vital to the success of the Enhanced Surveillance Program 
plans to predict weapons component aging and lifetimes and the Advanced 
Design and Production Technologies (ADaPT) plans to establish weapons 
component remanufacturing processes and techniques. Further, the ASCI 
capabilities will accelerate the traditional symbiotic and iterative 
improvements back and forth between the designer's theories, models, 
and simulation and the experimentalist's tests at current and future 
experimental facilities, such as the Dual Axis Radiographic 
Hydrodynamic Test (DARHT) facility and the National Ignition Facility 
(NIF).
    Question. Discuss briefly how the ASCI programs at each of the 
three weapons labs is progressing.
    Answer. The three national weapons laboratories are progressing on 
schedule in reaching the ASCI Program Plan objectives. They are 
providing the application codes and related science needed to address 
weapon safety, reliability, and performance without nuclear testing. 
They are developing improved tools, methodologies, and infrastructure 
to utilize this unprecedented volume of data. The labs are running 
simulations on the new ASCI platforms with the existing codes faster, 
and performing calculations and simulations with new codes with 
physical and engineering details and physics models that were 
impossible to contemplate before. The laboratories are providing 
weapons designers and analysts with computer center operations, model 
development, and code maintenance services necessary to support the 
current Stockpile Stewardship Program activities. They support the 
assessment and certification of the existing nuclear weapons stockpile 
by providing incremental upgrades to existing codes and computing 
platforms.
    Question. Are you experiencing any problems or delays in meeting 
expected schedules, and if so, why and what is being done to correct 
those weaknesses?
    Answer. We are concerned with the some of the technical issues 
surrounding the ASCI Blue Mountain system. DOE and the Los Alamos 
National Laboratory management are working closely with SGI/Cray to 
resolve the technical issues they face in developing the Blue Mountain 
system. SGI/Cray canceled planned production of the microprocessor chip 
used in the computer system in the 3 TeraOps Blue Mountain system 
scheduled for initiation of assembly in December 1998. DOE, Los Alamos 
National Laboratory, and SGI/Cray are currently developing a revised 
plan for Blue Mountain system development. A new plan is expected in 
June 1998. We remain on the overall curve to demonstrate a three 
TeraOps capability in 1999 with the IBM Blue Pacific System at the 
Lawrence Livermore National Laboratory.
    The Secretary of Energy announced on February 12, 1998, that DOE 
has awarded a contract with IBM Corporation for delivery of the 10 
TeraOps system that will be sited at the Lawrence Livermore National 
Laboratory by 2000. In 1998, we awarded contracts to four major U.S. 
computer companies for the Pathforward Program to develop interconnect 
and scaling technologies for 30 TeraOps systems. These technologies are 
intended to reduce the technical risk in developing a 30 TeraOps 
computer system.
    Question. Why was the 2004 date for development of the a 100 Tera 
Flop predictive simulation capability established?
    Answer. The year 2004 was chosen because by that date a significant 
number of test-experienced weapons designers will be retiring. These 
test-experienced designers must be provided with the appropriate 
simulation tools in time for them to validate the simulation codes 
based on their intimate knowledge and experience with the nuclear 
weapons.
    Question. What would be the impact of stretching out the 2004 date 
by several years?
    Answer. Stretching out the 2004 date by several years would 
increase the risk to a successful stockpile stewardship program. The 
success of a science based stockpile stewardship program, depends upon 
staying as close as possible to our scheduled milestones.
    Question. Provide an annual funding profile for both ASCI and 
Stockpile Computing for the next 5 years.
    Answer. The current five year estimates for ASCI and Stockpile 
Computing included in the fiscal year 1999 Congressional Budget Request 
follow. Program funding requirements for fiscal year 2000 through 
fiscal year 2003 will be refined each year, guided by policy, planning, 
and program workload information at that time.

                        [In millions of dollars]

        Fiscal Year                                                     

2000.............................................................. 629.1
2001.............................................................. 681.0
2002.............................................................. 734.7
2003.............................................................. 753.8

    Question. What are the key activities to be completed in fiscal 
year 1998 and how does progress on those items compare to the schedule 
required to meet the 2004 date for development of a 100 Tera Flop 
capability?
    Answer. Within ASCI and Stockpile Computing, there are a number of 
key activities that will be completed in 1998 which include upgrading 
the ASCI Blue Mountain system to about 400 GigaOps (billion operations 
per second) and the ASCI Blue Pacific to 980 GigaOps; validating a new 
3D hydrodynamics code with 2D legacy code results; awarding the 
contract for the 10 TeraOps system; developing the technical 
requirements for a 30 TeraOps system; prototyping high speed network 
switches and classified network operations; and bench marking of 3D 
models to hydrodynamic test data. Continued simulation and modeling 
with new and legacy codes will support the certification of the B61 Mod 
11, W76 Revalidation, W88 pit rebuild assessment, and the W87 life 
extension certification. A more complete listing of detailed activities 
are available in the implementation plans for the ASCI program.
    Question. What are the key activities proposed to be undertaken in 
fiscal year 1999 and what is the schedule for completing each?
    Answer. The key activities proposed to be undertaken in fiscal year 
1999 are the three new programs of Numeric Environment for Weapons 
Simulation (NEWS), Distance and Distributed Computing (DisCom2), and 
the Verification and Validation (V&V). These three new programs provide 
the weapons designers and analysts at three national laboratories the 
capability to work on application and weapons codes from a distance, to 
install supercorridors to the large-scale computers for high 
performance interfaces for designers, and validate simulation on 
archival nuclear data and above ground experiments. In addition to 
these new programs, we plan to begin in fiscal year 1999 the 
contractual process to acquire the 30 trillion operations per second 
computer system, the next major step in ASCI to reaching the 100 
TeraOps level by 2004. Other fiscal year 1999 key activities include: 
an initially validated 3D burn code for primaries; linking all three 
nuclear weapons laboratories at an extremely high bandwidth for 
classified computing; implementing dedicated high-performance graphic 
engines to enable real-time, 3D visualization; and achieving the 3 
TeraOps milestones for Option Blue.
    Question. What is the current status of reaching the 3 Tera Flop 
computing level?
    Answer. Our planning process is to reach a 3 Tera Flop computing 
level in 1999, and we see no difficulty in demonstrating this 
capability in the target time frame.
    Question. What is the schedule for development of a 3, 10-30, and 
100 Tera Flop computing capability?
    Answer. The planned schedule for the ASCI computing capability of a 
3, 10, 30, and 100 TeraOps is on target. As you see from the attached 
chart, the 3 TeraOps is planned for demonstration in 1999; the 10 
TeraOps for which the contract to develop the 10 TeraOps was recently 
announced by the Secretary of Energy is planned for demonstration in 
2000; the 30 TeraOps has a target date of mid 2001; and the 100 TeraOps 
has a target date range of late 2003 or early 2004.
    Question. Provide a chart for the record which shows the key 
elements of reaching each computing level and the major milestones for 
completing each element.
    Answer. The attached chart referenced in the previous question 
shows the key elements of reaching each computing level and the major 
milestones.
[GRAPHIC] [TIFF OMITTED] TNERGY.010

    Question. Funding is being requested to begin the ``Distributed 
Computing At A Distance'' effort. Describe this activity and why it is 
important to begin this effort in fiscal year 1999.
    Answer. The ``Distributed Computing at Distance'' effort, more 
commonly known as the Distance Computing and Distributed Computing 
(DisCom2) Program, will deliver key computing and communications 
technologies that complement the ASCI vision. DisCom2 will accelerate 
the ability of the DOE national laboratories and plants to apply vital 
high-end and distributed computing resources (from desktops to TeraOps) 
across thousands of miles to meet the urgent and expansive design, 
analysis, and engineering needs of stockpile stewardship. Specifically, 
DisCom2 includes two key strategies that will assist in the development 
of an integrated information, simulation, and modeling capability. The 
first strategy, distance computing, will develop the technologies and 
infrastructure necessary to enable the efficient use of high-end 
computing platforms by remote sites. The second strategy, distributed 
computing, will focus on the delivery of mid-range computing and 
communications technologies that can be flexibly configured to provide 
both capacity and capability computing that will support DOE's science, 
engineering, and remanufacturing requirements for stockpile 
stewardship.
    It is essential to begin this effort in fiscal year 1999 in order 
for this program to keep pace with the developing ASCI related 
structure that requires each of the Defense Programs laboratories to 
use resources, particularly the large-scale computers, that are not 
geographically co-located with their design and analysis experts.
    Question. How much is being requested in fiscal year 1999 and 
future years for this effort?
    Answer. In the President's fiscal year 1999 budget request, the 
amount planned for the ``Distributed Computing At a Distance'' effort 
is $28.4 million. In fiscal year 2000, the estimated amount is $48.2 
million, and for fiscal year 2001-2003, remains constant at $47.7 
million. In fiscal year 2000, DisCom2 will extend the distance 
computing and distributed computing environment to include all the 
laboratories and plants, resulting in a substantial increase in both 
the number of end users and the scale of infrastructure required. This 
will enable the application of high-end computing resources to a wider 
set of problems that address the urgent and expansive design, analysis, 
and remanufacturing requirements of stockpile stewardship.
    Question. The budget justification for fiscal year 1999 indicates 
that a ``Numeric Environment for Weapon Simulation'' initiative will be 
started. Describe this program and its relationship to the ASCI 
program.
    Answer. The Numeric Environment for Weapons Simulation (NEWS) 
initiative will deploy unprecedented capabilities for visualizing, 
storing, transporting and managing massive data sets resulting from the 
ASCI simulations, above ground experiments and previous underground 
tests data. NEWS will create localized Data Exploration Super Corridors 
to support large-scale data analysis and assimilation tasks for 
individual researchers and for multi-member weapons assessment teams. 
Future weapon assessments will rely on the judgments of technical 
personnel increasingly removed in time and experience from nuclear 
testing. Consequently, they will rely on high-fidelity simulations, 
coupled with above ground experiments and historical data, to build 
their experience base. However, the high-fidelity simulations required 
to train tomorrow's designers will produce data sets that will vastly 
exceed today's computing capability in both quantity and complexity. 
These data sets expected to be 1,000's to 10,000's times larger than 
the simulation data sets created today. New and innovative approaches 
to information and data management and data analysis and assimilation 
will be required. NEWS will focus on overcoming these technological 
obstacles to unleash the full potential of ASCI-scale systems for 
designers and analysts residing at the nuclear weapons laboratories.
    Question. What is the total cost of this activity expected to be?
    Answer. The total cost of the ``Numeric Environment for Weapon 
Simulation'' initiative is planned to grow to about $77 million by 
fiscal year 2001 and remain at that level through full validation of 
the ASCI simulation codes. Some savings might occur in the future if 
research in scalable visualization and presentation systems proves 
successful in the future. It is essential for this initiative to be 
funded in order to support the weapons designers and analysts as they 
work with huge amounts of data needed to create accurate weapons 
simulations to certify that our nation's stockpile is safe and 
reliable.
    Question. How much funding is included in the fiscal year 1999 
budget and what are the annual funding requirements expected to be over 
the next 5 years?
    Answer. The requested amount in fiscal year 1999 for the Numeric 
Environment for Weapons Simulation (NEWS) initiative is $31 million. 
The estimated annual requirements over the next five years are expected 
to be approximately $68.7 million in fiscal year 2000; $77.6 million in 
fiscal year 2001; $77.6 million in fiscal year 2002; $78 million in 
fiscal year 2002; and $77 million in fiscal year 2003. This funding 
will implement a variety of key activities in the areas of Input/
Output, Validation and Archival systems storage, weapons designer 
networks, pre- and post-processor systems and designer visualization 
environments.
                        subcritical experiments
    Question. What are subcritical experiments and how important are 
they to the Stockpile Stewardship effort?
    Answer. The subcritical experiments at the Nevada Test Site are 
scientific experiments to obtain technical information needed for the 
success of Stockpile Stewardship and are very important to that effort. 
Subcritical experiments involve high explosives and nuclear weapon 
materials, particularly plutonium. In an experiment, the high explosive 
is detonated to create high pressures relevant to those achieved in a 
nuclear weapon; however, the configuration and quantities of materials 
are such that nuclear criticality cannot be reached. This means that 
there can be no self-sustaining nuclear chain reaction.
    The experiments will provide data needed for assessing nuclear 
weapons performance and safety via advanced computer simulation. The 
experiments will provide data on the high pressure behavior of weapons 
material (including equation of state, strength, and ejecta), benchmark 
data on the hydrodynamics of weapon materials, the effects of aging on 
materials, the effects of remanufacturing techniques and other valuable 
technical data. In addition to these data, these experiments will help 
provide mechanisms to maintain a national nuclear test readiness 
capability by productively utilizing resources and operational skills 
needed for an underground nuclear test.
    Question. Does the science-based Stockpile Stewardship plan 
approved by the President specifically include subcritical experiments?
    Answer. The President directed that the Department conduct a 
program of science-based Stockpile Stewardship. The program to 
implement this directive is described by the Department in the 
Stockpile Stewardship Plan (SSP), which includes subcritical 
experiments as an important element.
    Question. I believe sufficient funding was provided for fiscal year 
1998 for DOE to conduct four subcritical experiments. Will DOE be able 
to execute four experiments as planned? If not, explain why.
    Answer. Currently, the Department is planning to conduct three 
subcritical experiments in fiscal year 1998 and a fourth following 
shortly in the month of October. Most of the preparatory work for the 
fourth test will be completed in fiscal year 1998. This scheduling is 
dictated by technical and operational factors related to the 
experiments. Of course, as with any experimental program, technical and 
operational issues may require further changes in these plans; however, 
funding is not an issue at the present time.
    Question. What is DOE doing to ensure that delays are held to a 
minimum in order that these critical experiments are completed on time?
    Answer. The Department has established what we believe is an 
efficient system to conduct these experiments in a manner that is safe, 
cost-effective and scientifically productive. The process includes 
scientific and policy reviews and necessary safety and criticality 
evaluations. Once the first experiment was conducted in July 1997, the 
second followed a little over two months later. The next experiment is 
expected to be conducted in March of this year and three more are 
planned by the end of the calendar year.
    Question. How much funding was appropriated for subcritical 
experiments in fiscal year 1997?
    Answer. Funding for subcritical experiments is appropriated as part 
of the core Stockpile Stewardship Operation and Maintenance Account, 
not specifically for the experiments. Thus, there is no single 
accounting category to collect costs associated with the experiments. 
However, an estimate of the fiscal year 1997 funding that can be 
associated with this program effort is $40 million.
    Question. How many experiments were planned to be undertaken?
    Answer. In April 1997, Secretary Pena announced the schedule for 
the commencement of subcritical experiments. Two experiments were 
planned: one in June 1997 and the second in the fall of 1997.
    Question. How many were actually completed?
    Answer. The two experiments announced in April 1997 were completed. 
The first in July 1997 and the second in September 1997.
    Question. How much funding is included in the fiscal year 1999 
budget for subcritical experiments and how many experiments are 
expected to be executed?
    Answer. In the fiscal year 1999 funding request, $82,065,000 is 
associated with these experiments as well as supporting our Test 
Readiness posture. It is expected that three to four experiments will 
be conducted in this time period. However, the actual number conducted 
may vary due to the scientific needs of the program (which bears 
strongly on the complexity and difficulty of each experiment), the 
results of prior subcritical and/or preparatory experiments, and the 
effect of unforseen operational issues that may arise.
    Question. Provide a chart for the record which shows the schedule 
for each subcritical experiment planned for fiscal year 1999 along with 
key milestones for each experiment.
    Answer. While the general technical objectives and estimated target 
times for the fiscal year 1999 experiments have been identified, no 
detailed time lines have been finalized. Preliminary target times for 
execution of these experiments are as follows:

Clarinet...............................  October 1998.\1\
Trotter................................  June 1999.
Oboe...................................  July 1999.
Buckskin...............................  September 1999.
 
 
\1\ With most preparatory work performed in fiscal year 1998.

                    national ignition facility (nif)
    Question. Briefly, what is the importance of the NIF to Stockpile 
Stewardship?
    Answer. The National Ignition Facility (NIF) is essential for the 
success of the science-based Stockpile Stewardship program. It permits 
us to do the relevant weapon physics experiments and measurements 
important for primaries and secondaries at temperatures and densities 
close to those occurring in nuclear weapons detonation. The NIF will 
examine the effects of specific age-related changes and other nuclear 
component modifications on weapon performance. Experiments at the NIF 
will provide data on how materials behave under extreme conditions 
similar to those found in a nuclear weapon test. The fusion ignition 
mission will provide a rigorous test of simulation codes developed 
under the Advanced Strategic Computing Initiative.
    The NIF will be the world's premier laser facility attracting the 
highest quality scientists for work in high energy density science 
important for weapons physics. It will provide an excellent tool for 
recruiting and training the next generation of scientists for the 
Stockpile Stewardship Program. Two JASON panels have stated that the 
NIF is the most scientifically valuable of the programs proposed for 
science-based stockpile stewardship. The NIF's value to the stockpile 
stewardship is recognized internationally with similar high powered 
laser facilities being planned in France and Great Britain by their 
respective weapons programs.
    Question. What is the status of the major critical path items 
scheduled to be completed in fiscal year 1998?
    Answer. The critical path items for fiscal year 1998 are the 
foundations for the Laser Building and the Target Building which are 
currently four weeks behind schedule. These activities were delayed in 
November due to the impact of early El Nino rains which have now been 
mitigated by implementing wet weather construction features at the 
site. We expect that the critical path schedule can be completely 
recovered by the end of the year.
    Question. Provide a chart for the record which shows the schedule 
for each major critical path item planned for fiscal year 1999.
    Answer. The are several major critical path items for the NIF that 
will be accomplished in fiscal year 1999. These items and their 
schedule for completion are :

 
                    Critical path item                       Date
 
Optical Assembly Building Ready for Equipment         10/98
 Installation.
Start Special Equipment Installation................  11/98
Laser Bay #2 Ready for Beam Transport Installation..  3/99
Target Bay Ready for Target Chamber Installation....  3/99
Laser Bay #1 Ready for Beam Transport Installation..  4/99
Switchyard # 2 Ready for Space Frame Installation...  4/99
Core Area Ready for Equipment Installation..........  6/99
Capacitor Bay Ready for Power Conditioning            7/99
 Installation.
Optical Assembly Building Complete (Certified Clean)  8/99
 

    Question. Manufacture and supply of high quality optical glass 
remains a large component of the project cost and is critical to the 
success of the project. What critical optical glass activities are 
planned for fiscal year 1998 and are they on schedule?
    Answer. The NIF critical path optics, including laser glass 
manufacture, optics fabrication, and crystal growth facilitization, are 
on schedule in fiscal year 1998 and going well. Critical activities for 
NIF optics in fiscal year 1998 are the placement and execution of 
facilitization contracts to establish the manufacturing capacity at the 
vendors for the project. The major facilitization contracts, including 
those for laser glass, optics fabrication, and crystals, have all been 
awarded on schedule. The earliest awards were for a full-scale laser 
glass melter and for the laser glass finishing (that is, polishing) 
facilities. The glass melter was completed on schedule in fiscal year 
1997, and used for a development run to provide initial data on the 
viability of continuous melting of full size laser glass slabs for NIF. 
This glass met critical specifications for platinum inclusions (the 
impurity of greatest concern), and other specifications. Remaining 
technical specifications are expected to be met during the pilot runs 
in fiscal year 1999. Work is on schedule for the next use of the 
melter, and complete facilitization of the other processing activities.
    The laser glass finishing facility building has been completed on 
schedule, and the installation of the first of three polishers is also 
complete, on schedule. The rapid crystal growth program has produced 
NIF-size and -quality potassium dihydrogen phosphate crystals. The 
crystals are used to convert the laser's red light into ultraviolet 
light. Plates have been fabricated from these crystals, and will be 
tested on the Beamlet laser at Lawrence Livermore National Laboratory 
during the third quarter of fiscal year 1998. Other significant optics 
facilitization activities include the award of mirror and polarizer 
facilitization contracts, which are on schedule, and the mirror and 
polarizer substrate orders, which have been delayed to later in fiscal 
year 1998 to take maximum advantage of shorter delivery lead times than 
anticipated previously.
    Question. What work is proposed for fiscal year 1999 and what is 
the completion schedule for each major element?
    Answer. In fiscal year 1999, the facilitization contracts will be 
completed at all the vendors, and pilot production will begin on all 
the required optical components. The results of the pilot production 
contracts will be used to confirm vendor capabilities to meet the NIF 
schedule and specifications during optics production. These results 
also provide the basis for competitive awards for the production 
contracts in finalizing the split between the vendors. Pilot production 
will be complete, or nearly complete in laser glass, optics 
fabrication, and crystal growth, which are the critical path optics for 
NIF. Pilot production will begin in mid- to late-fiscal year 1999 in 
the areas of mirror and polarizer coatings and crystal finishing. Pilot 
production in these areas will be complete in mid-fiscal year 2000.
    Question. What assurances can you give that the laser glass can be 
supplied on schedule and within the cost estimate?
    Answer. The results of the pilot production will establish the 
viability of continuous melting to meet the technical specifications, 
and yields from the pilot will provide the basis for establishing the 
cost of laser glass during production. Nevertheless, considering that 
the development results to date have been good, and that development 
and facilitization has maintained the critical path schedule, our 
confidence remains high that the laser glass will be available as 
planned. We are working with two vendors each capable of producing 100 
percent of the laser glass; these are two of the best glass 
manufacturers in the world. The furnace technology has established a 
new state-of-the-art for continuous glass melting. By working with two 
vendors, we are minimizing both technical and schedule risk to the 
project, and establishing competition for production to obtain the 
lowest possible cost. Results to date have strengthened our confidence 
in meeting cost and schedule for the glass. With completion of pilot 
production at the end of fiscal year 1999, we expect confirmation of 
our estimates.
    Question. What impact has the El Nino rain had on the project?
    Answer. The El Nino rains occurring on November 15th and 26th 
damaged the soil sub-base under the target building wall footings, and 
the grades and soil compaction site-wide. On November 25th, the project 
contracted with Earth Tech wet weather consultants from the Northwest. 
By December 5th, essential elements of a wet weather construction plan 
were in place to protect the site from further rain damage. Before 
Christmas, the site had been repaired and protected for wet weather 
construction. Since this time, construction has proceeded with no 
additional impacts due to El Nino rains.
    Question. Do you expect significant delays or major cost increases?
    Answer. No, all aspects of the project are making steady and 
satisfactory progress. The major adjustment in the project was made at 
the end of the Title I design phase in late 1996 and submitted in the 
fiscal year 1998 budget. Since then the project has made significant 
progress and overcome the challenge of the El Nino rains. As previously 
noted, a critical issue is manufacture of laser glass which is 
proceeding well. The NIF project is following a prudent development 
plan for the laser glass which takes into account the risk involved.
       dual-axis radiographic hydrodynamic test facility (darht)
    Question. Explain the changes which have taken place in the DARHT 
project and why those changes were necessary.
    Answer. The DARHT project has changed significantly over the past 
ten years due to many factors including the increased scientific 
demands placed upon hydrodynamic testing following the cessation of 
underground nuclear testing, the emergence of new radiographic 
technology, and an increased sensitivity to environmental impacts.
    A significant part of the Total Estimated Cost (TEC) increases in 
this project have been the result of directed changes in project scope. 
The DARHT project has been able to adjust to changing DOE needs driven 
by dramatic changes on the world scene. The moratorium on underground 
nuclear testing at the end of 1992 created tremendous pressure to 
increase hydrotesting capabilities. The evolving Science-Based 
Stockpile Stewardship (SBSS) plan also leads to evolving hydrotesting 
needs, including multiple axes with multiple pulses. The increasing 
need for comprehensive regulatory compliance and the need to address 
public concerns over emissions lead to solutions such as the DARHT 
phased containment effort. The DARHT, because of its modular design, 
has been able to accommodate these changing needs. The result of adding 
much greater scientific test capability, while at the same time 
reducing environmental impact, has resulted in a higher cost facility. 
A complete history of the project follows.
    The DARHT was originally proposed as a 1988 project with an 
estimated cost of $53.4M. This design was however a complete rescoping 
of an earlier $30M project that included significantly lower power 
pulsed diode machines without an enclosed structure and with only a 
small instrument building. The 1988 project, which is considered to be 
the actual DARHT baseline project, included two 16 MeV linear induction 
accelerators and large enclosing structures for the machines, data 
recording instrumentation, component assembly and test space.
    In 1990, the project was suspended until additional testing could 
be performed to demonstrate conclusively that all technical 
uncertainties with the design were resolved. The baseline design for 
DARHT was a modified and improved adaptation of a Lawrence Livermore 
National Laboratory (LLNL) design. However, these improvements caused 
problems that were not anticipated in 1988. As a result, project 
funding was suspended in fiscal year 1992 and fiscal year 1993, making 
way for an extensive testing during this period. Design modifications 
were determined to be necessary, and the delay in procurement 
activities and other directed changes to the original design 
contributed to the new $81.4M price tag for a single axis machine. 
Based upon recommendations from two external review panels the decision 
was made by the Department to postpone the technology decision on the 
second axis machine.
    Work was resumed on the construction of the first axis of DARHT in 
March 1993 and the project was proceeding satisfactorily until a 
Federal Court injunction was issued in January 1995. This injunction 
was issued as the result of failure to prepare an environmental impact 
statement (EIS) for the DARHT project.
    All work associated with the project stopped for one year and four 
months; the total delay, including the time to re-start the project, 
was one year and eight months. During that time an EIS was prepared and 
it was decided that containment of hydro tests, phased-in over time, 
should be added to the design in order to reduce environmental impacts. 
Although the phased containment concept added additional cost and delay 
to the project, it was a correct decision in terms of environmental 
protection and the long term viability of the facility. Additional 
information gathered during the directed suspension of the project 
indicated that the 16 MeV electron beam machine planned for the first 
axis should be increased to 20 MeV to assure penetration of dense 
weapons systems. These changes in beam strength and the addition of 
phased containment increased the cost of the project from $81.4 to 
$105.7M. This increase was approved in April 1996 shortly after the 
lifting of the injunction. We expect to complete Phase 1 at this cost.
    In October 1996, the Department requested Los Alamos National 
Laboratory (LANL) to determine the best technology for the second x-ray 
machine. The Record of Decision (ROD) stated that DOE might incorporate 
modified or improved technology for the second axis. The fiscal year 
1998 budget included a preliminary estimate for the cost of the second 
axis which increased the TEC for the project by $81M, from $105.7M to 
$186.7M. It was clearly stated in the Construction Project Data Sheet 
(CPDS) that the TEC for Phase 2 was based upon planning estimates that 
were derived from the EIS and the ROD and based on a simple 
reproduction of the first x-ray machine. The ROD further indicated that 
a more accurate estimate of Phase 2 cost would be done upon completion 
of a technology option study, prior to the fiscal year 1999 budget 
request.
    Following completion of the study to determine the best option for 
the second axis machine and significant design efforts to define the 
containment/confinement requirements, the Department approved a multi-
pulse x-ray machine and completion of the phased containment 
requirements. This decision brought the total estimated cost of the 
project to the current level of $259.7M.
    The DARHT project greatly increases the Department's confidence in 
our near term ability to provide the scientific data necessary to 
support a SBSS program. DARHT will incorporate the most current 
radiographic technology available for conducting hydrodynamic tests. 
The lessons learned in development, component testing and construction 
on the DARHT project will significantly advance hydrodynamic test 
technology.
    Question. Why should further construction work be undertaken until 
a firm total cost baseline for the entire project, including Phase III, 
is established?
    Answer. The halting of underground nuclear testing and the 
subsequent development of the SBSS plan have led to the generation of a 
well-defined list of important capabilities for radiographic 
hydrotesting in the future: (1) high-resolution radiographs; (2) multi-
axis views; and (3) multi-time views. The DARHT (with its second axis 
as now proposed) is the only radiographic hydrotesting facility that 
will be able to address in the near term all of these issues when it is 
complete. It will represent the nation's initial capability for multi-
axis views and multi-time views. The DOE may elect to move forward from 
DARHT, but such a new capability, an advanced hydro test facility will 
be built only if DARHT and other existing facilities prove to be 
inadequate for the needs of SBSS. As the stockpile continues to age 
beyond its design lifetime, a new generation of weapons designers and 
stewards will replace those who have underground nuclear testing 
experience, and the new Accelerated Strategic Computing Initiative 
(ASCI) super-computers will come on-line, requiring high-fidelity data 
to benchmark their predictions. In short, DARHT is the only facility 
capable of addressing new requirements for radiography without 
underground testing in the near and mid term. It will set the stage for 
further advances. No other construction project, or research project, 
can generate as much needed high-quality data in the time frame 
projected for the DARHT project.
    The baseline Total Project Cost (TPC) for the complete DARHT 
project is $269.8M which includes all capital and operating costs for 
both Phase 1 and Phase 2. The Hydro test Firing Site construction will 
be completed in fiscal year 1998. The Phase I x-ray machine will be 
operational in CY 1999. The only significant construction remaining 
will be the Vessel Preparation Facility as part of Phase 2 to complete 
the containment commitments made in the Environmental Impact Statement 
(EIS) Record of Decision (ROD). Phase 3 of DARHT was discussed within 
the DARHT EIS as a possibility that might be added to the project at 
the completion of Phase 2 in order to produce a large containment 
vessel capable of containing very large charges of high explosives. The 
Construction Project Data Sheet (CPDS) submitted for DARHT states that 
no additional funding would be required for Phase 3 unless a decision 
to develop this large vessel is made.
    The Department considers it unlikely that the large vessel will be 
required and projects that Phase 3 will not be implemented, therefore 
additional funding beyond Phase 2 is not required at this time. The 
scope of Phases 1 and 2 include sufficient containment vessels and 
infrastructure to fully meet the emissions reduction requirements 
committed to in the ROD. Phase 1 and 2 provided the equipment, the 
techniques, and the experience to achieve a 75 percent reduction in 
emissions compared to the DARHT baseline case analyzed in the DARHT 
EIS. No further action will be required to achieve the required 75 
percent reduction.
    Question. What activities are planned to be undertaken with the $36 
million being requested for fiscal year 1999, and what are the major 
milestones to be met during the remainder of fiscal year 1998 and in 
fiscal year 1999?
    Answer. The $36M request for fiscal year 1999 will be used for 
Phase 2 activities including: Special Facility Equipment design, 
prototype testing and procurement, and civil construction design for 
the Vessel Preparation Facility. This facility will support the routine 
use of containment vessels at DARHT that will reduce the environmental 
emissions from hydrodynamics testing as required in the DARHT Final 
EIS/ROD.
    In the Special Facility Equipment area, design of the electron beam 
accelerator injector will be completed and high-voltage testing of the 
assembly begun after all injector procurement is complete. Design of 
the accelerator hardware will also be completed and the initial 
procurement and testing of the first DARHT Phase 2 accelerator cells 
completed. Accelerator pulsed power design will be completed and DARHT 
production prototypes tested. All of this work will be completed by the 
Lawrence Berkeley National Laboratory (LBNL) in Berkeley, California.
    The LLNL is also collaborating in the second phase of DARHT and 
work there during fiscal year 1999 will consist of design of the kicker 
and transport system that generates multiple electron beam pulses (from 
which the multiple x-ray pulses are made) from the single, long-pulse 
of electrons generated in the accelerator. Work at LLNL will also 
include design of the final electron beam focus, including prototype 
testing on their accelerator.
    At LANL, work during fiscal year 1999 will include design of the 
Phase 2 accelerator control system, including controls of the prototype 
equipment being fielded by both LBNL and LLNL. In addition, the overall 
physics modeling of the entire system will continue at LANL as well as 
diagnostic development and technology transfer processes from LBNL and 
LLNL to LANL. Prototype work on the multi-pulse x-ray detector will be 
well advanced with the design of a prototype fast-framing recording 
chip being completed and the first growth of Lutetium Ortho-oxysilicate 
scintillator (LSO) being completed. The LANL design of the Phase 2 
extension of the hydro test firing site control center will be 
completed and the purchase of additional optical diagnostics begun. 
Design of the dual-axis confinement vessel system will be nearing 
completion by the end of fiscal year 1999 and procurement of supporting 
vessel component hardware testing will be completed. During fiscal year 
1999, design work on the Vessel Preparation Facility will progress. 
Finally, although no further funding during fiscal year 1999 is 
requested for Phase 1, it should be noted that the first DARHT x-ray 
machine will become operational during the fiscal year and single-axis, 
high-resolution radiographic hydrodynamics testing will commence.
    The major project milestones for the remainder of fiscal year 1998 
and fiscal year 1999 include the following:

 
                                                   Expected  performance
                       Milestone                            date
 
Begin installation of Phase 1 accelerator systems
 into the Phase 1 portion of the DARHT Hydro test
 Firing Site (HFS) building......................  March 1998.
Begin installation of Phase 1 control and data     July 1998.
 acquisition systems.
Complete first DARHT Phase 2 prototype
 accelerator cell and pulsed power module........  Sept. 1998.
Complete all construction of the DARHT HFS.......  Oct. 1998.
Begin Phase 1 accelerator operations.............  March 1999.
Begin Phase 1 hydrodynamics testing operations...  June 1999.
Begin Phase 2 injector assembly system testing...  July 1999.
 

    Question. What is the current status of Phase 1 of the DARHT 
facility, and how does the current estimated cost compare to the 
original baseline cost?
    Answer. The first phase of DARHT is proceeding well at this time. 
Construction of the DARHT facility building (the ``Hydro test Firing 
Site,'' or HFS) is about 75 percent complete and LANL has begun moving 
into the first-axis part of the building. All of the major accelerator 
components of the first axis have been pre-assembled and all of the 
accelerator's pulsed power equipment has been assembled and tested. The 
accelerator control and data acquisition system has been tested on the 
DARHT Integrated Test Stand (ITS). The ITS has generated about 40,000 
electron beam pulses, giving us high confidence in the design of the 
accelerator and associated sub-systems. Installation of the Special 
Facility Equipment has begun with all pulsed power support structures 
and electronic racks installed. Accelerator installation of the 
equipment has begun. The LANL expects to complete installation by early 
next year and begin facility commissioning by March 1999. Initial 
radiographic explosives testing is planned by the end of June 1999.
    Although the original fiscal year 1988 Total Estimated Cost (TEC) 
baseline for DARHT was $53.4M for a dual-axis facility, the current 
Phase 1 TEC baseline was set during the EIS process in August 1995 at 
$105.7M. The cost change described in detail previously includes 
increased power to meet program needs and the impact and scope changes 
from the EIS process. Since August 1995 when the latest scope was 
established, there have been no cost increases and we expect to 
complete Phase 1 in June 1999 within cost.
    Question. Does the project cost baseline of $270 million reflect 
the entire cost for Phase I through Phase III? If not, please explain 
why, and what does the Department expect the cost of Phase III to be.
    Answer. The baseline Total Project Cost (TPC) for the complete 
DARHT project is $269.8M which includes all capital and operating costs 
for both Phase 1 and Phase 2. Phase 3 of DARHT was discussed within the 
DARHT EIS as a possibility that might be added to the project at the 
completion of Phase 2 in order to produce a large containment vessel 
capable of containing very large charges of high explosives. The CPDS 
submitted for DARHT states that no additional funding would be required 
for Phase 3 unless a decision to develop this large vessel is made.
    Question. Under what conditions would Phase III construction, which 
would implement measures to reduce testing emissions by 75 percent, be 
required?
    Answer. Phase 3 would be needed only if a significant change in the 
regulatory environment occurs. The Department considers it unlikely 
that the large vessel will be required and projects that Phase 3 will 
not be implemented and that additional funding beyond Phase 2 will not 
be required at this time. The scope of Phases 1 and 2 include 
sufficient containment vessels and infrastructure to fully meet the 
emissions reduction requirements committed to in the ROD. Phase 1 and 2 
provided the equipment, the techniques, and the experience to achieve a 
75 percent reduction in emissions compared to the DARHT Baseline case 
analyzed in the DARHT EIS. No further action will be required to 
achieve the required 75 percent reduction. The CPDS states that Phase 1 
and 2 will allow techniques to be implemented that will result in at 
least 75 percent reduction in emissions.
    Mention is made in the CPDS of Phase 3 because of its inclusion in 
the EIS, but no funding is sought at this time because implementation 
of Phase 3 does not appear to be required.
    Question. What are the Department's plans regarding initiating 
construction of Phase III?
    Answer. At this time, the Department considers the scope of Phase 1 
and 2 to be sufficient to meet all emissions requirements as defined in 
the DARHT EIS. The Department has no plans or requirements for Phase 3 
and it is intended that the DARHT construction project be completed at 
the end of Phase 2. However, because the DARHT EIS mentions a possible 
Phase 3, and such action could be required if regulatory requirements 
change, the CPDS also lists the possibility of Phase 3. The Department 
intends to complete Phases 1 and 2 and, if no further requirements are 
identified during that period, complete the project at the end of Phase 
2. Phase 3 would be needed only if a significant change in the 
regulatory environment or EIS requirements occurs.
                          pulsed power program
    Question. How would you assess the progress of the pulsed power 
program over the past year?
    Answer. Over the past year, the pulsed power program made 
substantial progress in increasing x-ray output energy, power, and 
temperature on Z. Sandia National Laboratories, in collaboration with 
Los Alamos and Lawrence Livermore National Laboratories and other 
participants, have markedly increased the x-ray energy output to over 
two megajoules and power to over 290 terawatts from z-pinch implosions. 
A particularly significant achievement for Stockpile Stewardship is 
attaining a radiation temperature of 140 electron volts because it 
approaches physics regimes that are of greater relevance to weapons.
    Question. When does the Department expect to have a science based 
technical contract completed?
    Answer. In consultation with the Department and other national 
laboratories, Sandia recently completed a draft Z-Pinch Science and 
Technology Research and Development Plan that establishes a science-
based technical contract for the program. A revised Plan incorporating 
outside comment and review will be available in final form within the 
next few months.
    Question. Explain why you believe such a contract is warranted?
    Answer. A technical contract outlining a series of experiments 
relevant to weapons physics, inertial confinement fusion, and weapon 
effects, to be conducted on Z, is needed to help guide the pulsed power 
program in its work for stockpile stewardship. The use of a ``technical 
contract'' follows the successful model previously demonstrated on the 
Nova and Omega lasers.
    Question. How could this technology contribute to the Stockpile 
Stewardship program down the road if development is successful?
    Answer. A successful pulsed power development program would provide 
added capability to execute a variety of experiments requiring high x-
ray energy, long x-ray pulses, or large target size (this simplifies 
some complex measurements). High yield fusion experiments would also be 
useful for the stewardship program, but the credibility of ignition and 
yield on an advanced pulsed power facility is yet to be established. 
This is one of the goals for a technical contract.
    Lasers and pulsed power are partly complementary. However, pulsed 
power devices cannot reach as high a temperature, which restricts some 
weapons physics, and are also less flexible than lasers with regard to 
pulse shaping and repetition rate. DOE and the laboratories are working 
towards a unified program that uses both of these capabilities in the 
most efficient way to carry out the experiments required by the 
stewardship program.
    Question. What can you tell us regarding the plans for an advanced 
pulsed power facility?
    Answer. DOE is currently conducting internal studies and 
anticipates an external review of the entire pulsed power program in 
the near future. A goal of this effort will be to determine an 
appropriate pace for the program, including the potential need for any 
new facility. Key questions will include the emphasis to be placed on 
experiments with a significantly upgraded Z accelerator and the mission 
and capability of an advanced pulsed power facility, such as the X-1 
machine proposed by Sandia.
    Question. What are the major hurdles that must be overcome before 
the decision can be made regarding such a facility?
    Answer. The following criteria must be satisfied before a decision 
can be made on whether to proceed with an advanced pulsed power 
facility:
    (1) The mission need must be clearly demonstrated. This involves 
comparing the planned capabilities (output, shot rate) of an advanced 
pulsed power facility with other current and planned stewardship 
facilities and demonstrating that such a facility would be needed to 
address a deficiency in the currently planned stockpile stewardship 
program.
    (2) There must be satisfactory progress on a pulsed power 
``technical contract.'' This ``contract'' outlines a series of 
experiments whose purpose is to validate the capability of an advanced 
pulsed power facility in meeting physics goals. It should be noted that 
the contract covers both high yield fusion and ``non high yield'' 
applications.
    (3) The pulsed power technology development program must 
demonstrate the technology required for an advanced pulsed power 
facility to achieve its design parameters.
    (4) The required funding for construction of such a facility must 
fit within the expected outyear funding profile for DP and therefore be 
consistent with DP overall funding priorities.
    (5) The completion of an appropriate National Environmental Policy 
Act review.
    Question. How does your fiscal year 1999 budget request support 
this effort?
    Answer. The fiscal year 1999 budget includes nearly seven million 
dollars of funding for technology development for an advanced pulsed 
power facility.
    Question. How long will it take for the program to mature to the 
point that an advanced pulsed power facility can proceed?
    Answer. In the next year DP will be conducting a series of internal 
studies and external reviews to determine the appropriate pace for the 
pulsed power program and the potential for an advanced pulsed power 
facility. A workshop planned for this spring on this subject will form 
part of this analysis effort. The DOE decision on whether to build an 
advanced pulsed power facility will be based on satisfying the criteria 
listed above.
    Question. What major activities and milestones are planned or 
established for fiscal year 1999?
    Answer. The major fiscal year 1999 pulsed power activities and 
milestones for the pulsed power program are:
    (1) Conduct an aggressive experimental program on Z, which includes 
275 experimental shots in the areas of Z performance and 
characterization, weapons physics, inertial confinement fusion, and 
weapons effects.
    (2) Initiate modernization of the Z facility. The Z facility will 
be modernized in several phases to maintain and improve the 
experimental infrastructure (accelerator and diagnostics) in order to 
meet the requirements (i.e., shot rate, diagnostic breadth and 
capability, and data quality) of the experimental program. The first 
phase will be conducted in fiscal year 1999; this includes replacing 
aging facility components and commencing addition of a laser back 
lighter capability.
    (3) Pursue pulsed power technology development relevant to an 
advanced pulsed power facility.
                     tritium supply and production
    Question. If DOE is required to maintain an active stockpile at 
START II levels, with the capability to return to a START I level, how 
many separate weapons systems is DOE required to support?
    Answer. Under the START I stockpile scenario, the DOE is required 
to support ten active stockpile systems.
    Question. Under this strategy, when will DOE require a new tritium 
source?
    Answer. Currently, the new tritium source need date to support a 
START I stockpile is fiscal year 2005, including a five year reserve.
    Question. If you assume a stockpile at START II levels, how many 
weapon systems would DOE be required to maintain, and when would a new 
tritium source be needed?
    Answer. At START II levels, the DOE is required to support nine 
active stockpile systems and the tritium inventory is sufficient to 
support START II requirements until about fiscal year 2011, assuming no 
hedge requirement to return to START I levels. However, if the current 
hedge policy remains, there would be no change from the fiscal year 
2005 date.
    Question. What is the difference in cost between the current 
strategy and a strategy of supporting START II level only?
    Answer. The principal savings of a START II strategy, assuming no 
hedge requirement to START I levels, is associated with the acquisition 
of a tritium source. However, current policy assumes a hedge 
requirement under a START II force structure. The Department will 
provide firm cost estimates associated with tritium after the 
Department has developed cost figures for the commercial light water 
reactor option based on completion of negotiations with the Tennessee 
Valley Authority.
  new tritium source need date for various active stockpile scenarios
    Question. What impact would Russian ratification of the START II 
treaty or moving directly to a START III treaty have on the 
Department's strategy for tritium supply?
    Answer. If the Russian Duma ratifies the START II Treaty, there 
will be no significant impact on our requirement for tritium supply 
unless the current requirement to be able to return to START I levels 
is revised or eliminated. The details of a START III treaty would have 
to be studied before any specific impact of the need date for tritium 
could be established.
    Question. When does the Department plan to make its tritium supply 
decision?
    Answer. Consistent with Congressional direction, the Department 
will make the decision no later than December 1998.
    Question. Do you expect the decision to be made mid-1998 or late in 
the year?
    Answer. The Department is working to resolve all the outstanding 
issues and conducting the required analyses, so that a decision can be 
made in 1998.
    Question. Do you foresee any obstacles which could prevent the 
Department from making a decision in 1998?
    Answer. The Department does not foresee any obstacles that would 
preclude us from making a decision in 1998.
    Question. Congress appropriated $68 million for fiscal year 1998 
for detailed engineering and design of an accelerator production of 
tritium facility. The budget request of fiscal year 1999 requests $157 
million to pursue the option that is selected. How are the funds 
appropriated for the current fiscal year being utilized?
    Answer. The $200 million funds appropriated for the current fiscal 
year for the APT includes $68 million (capital) to support the first 
year of the four-year Preliminary and Final Design program, and $132 
million (operating) to support the third year of the five-year 
Engineering Development and Demonstration (ED&D) program. The operating 
funds also include environmental and safety licensing and permitting 
activities.
    The $62 million funds appropriated for the current fiscal year for 
the CLWR option includes $10 million in capital funding to support 
engineering design of the new Tritium Extraction Facility. The 
remaining $52 million operating funds will support confirmatory 
demonstration in the Watts Bar Reactor and in laboratories, to prepare 
analyses to be submitted to the Nuclear Regulatory Commission, to 
complete environmental impact statements, and to further the transition 
of component manufacturing to the private sector.
    Question. What is the Department's strategy for proceeding and how 
will the funds requested for fiscal year 1999 be used based on each 
option?
    Answer. The Department's strategy for fiscal year 1999 will depend 
upon the tritium production technology selected and the tritium 
production requirements at the time of the selection decision. The 
Secretary of Energy is required to make a selection, as stipulated in 
the National Defense Authorization Act, by December 1998. We believe 
that the $157 million is adequate if the purchase of irradiation 
services from a CLWR is selected as the primary option. If the 
Secretary selects the APT as the primary option, we will need to seek 
relief from the current target date for initiating new tritium 
production or request additional funding. It would be premature to 
anticipate the results of the ongoing process at this time. We are 
committed to providing the Congress with a full justification for the 
ultimate fiscal year 1999 funding requirement once the final decision 
on the tritium source is reached.
    Question. What does the Department plan to do with the accelerator 
program if that technology is not selected?
    Answer. This issue will be addressed, if applicable, as part of the 
Department's selection of a primary tritium technology in 1998.
    Question. What would be the schedule and costs associated with 
developing the accelerator technology as a backup source of tritium?
    Answer. The Department will address these issues should the CLWR be 
selected as the primary tritium technology in 1998.
    Question. Review briefly the costs, benefits and problems 
associated with commercial light water reactor and the accelerator 
options.
    Answer. The information requested is shown in the section below 
which I would like to insert for the record. The information follows:
                   accelerator production of tritium
Cost
    The Department will provide cost estimates associated with the APT 
at the same time the Department provides firm cost estimates for the 
CLWR option based on completion of negotiations with the Tennessee 
Valley Authority.
Benefits
    Use of a dedicated defense facility avoids non-proliferation or 
Atomic Energy Act issues, and preserves the long standing policy of 
separating military and civilian uses of atomic energy.
    The System is fully capable of meeting current tritium production 
requirements with flexibility to meet anticipated changes in production 
requirements.
    APT has no major technical issues remaining.
    APT will be a new facility, dedicated to the tritium mission, with 
40+ year expected lifetime.
    No formal overall regulatory action, license, or license amendment 
is required for APT.
    The system is designed to have minimal environmental impact and 
minimal waste generation.
    APT incorporates a management approach reflecting commercial best 
practices and current government initiatives. The project has exemplary 
cooperation between the lab, site, and contractor.
    APT is an investment in technology for the future that establishes 
production-plant capability of high-power accelerators. APT develops 
capability for important alternative uses: waste transmutation, 
advanced nuclear power, production of medical isotopes, and as a 
diagnostic tool for aging weapons under the science-based stockpile 
stewardship program.
    APT costs are known and coming down, with potential to reduce near-
term investment.
    APT has strong regional public support.
Problems
    APT requires a significant financial investment in fiscal year 1999 
and out-years.
    APT has some development and demonstration work to be completed.
                     commercial light water reactor
Cost
    The Commercial Light Water Reactor (CLWR) option is expected to be 
significantly less expensive than other options. Because negotiations 
between the Department and the Tennessee Valley Authority (TVA) are 
still ongoing, an accurate estimate for annual operating costs 
associated with irradiation services cannot be provided at this time. 
Detailed cost comparisons will be made available after irradiation 
services contract(s) are finalized.
Benefits
    No technical risks.--The CLWR uses proven technology and is 
technically straightforward. Tritium is currently being produced in 
TVA's Watts Bar reactor as part of the confirmatory demonstration.
    Apparent lowest life cycle cost.--The Department believes that the 
CLWR option will be significantly less expensive than other options. 
However, cost data cannot be provided at this time without revealing 
procurement sensitive information.
    Fastest path to a domestic tritium supply.--The CLWR project is on 
schedule to meet or beat its required fiscal year 2005 deadline.
    High reliability.--The CLWR option will use a mature industrial and 
regulatory infrastructure. The regulatory process is well established 
and has been exercised successfully to obtain Nuclear Regulatory 
Commission approval for Watts Bar confirmatory demonstration. The 
Department is seeking access to two or more commercial reactors.
    Inherent flexibility.--Irradiation services options contract(s) 
need not be exercised until tritium is needed. The CLWR system can 
remain in standby indefinitely at a very low cost. Conversely, the 
production rate of the CLWR system can be increased on relatively short 
notice.
    Status.--The CLWR project is progressing on schedule and within its 
budget.
Problems
    Nonproliferation concerns must be addressed.
    Question. What are the important activities planned for fiscal year 
1999 for both options if you assume that option is selected?
    Answer. Assuming the APT option is adopted without a schedule 
delay, fiscal year 1999 activities would include:
Operating Funds: Engineering Development and Demonstration and ES&H 
        Activities
    Complete site specific Environmental Impact Statement and issue 
Record of Decision on location, plant configuration, etc.
    Complete low-energy accelerator system demonstration through first 
three accelerating sections.
    Characterize irradiated material properties to optimizing Target/
Blanket material selection.
    Confirm industrial manufacturability of high-energy accelerator 
structure prototype.
    Complete performance and operability demonstrations of high-energy 
beam transport and diagnostics.
Capital Funds: Design and Construction
    Complete preliminary design of much of the rest of the Target/
Blanket.
    Complete detailed design of both the Target/Blanket Building and 
Accelerator Tunnels.
    Procure the Target/Blanket internals.
    Begin initial site construction work. This involves completing the 
site infrastructure required to support more extensive construction in 
fiscal year 2000.
    If the Commercial Light Water Reactor (CLWR) option is selected as 
the primary or backup tritium supply, the following activities are 
planned for fiscal year 1999:
Operating Funds
    Lead test assemblies of tritium-producing rods will complete a full 
cycle of irradiation in TVA's Watts Bar reactor. The rods will be 
removed from the reactor and transported to the Department's Argonne 
National Laboratory-West in Idaho where laboratory examinations will 
begin.
    Analyses will be finalized and submitted to the Nuclear Regulatory 
Commission requesting the amendment of operating licenses for all 
reactors selected for actual or potential tritium production roles.
    Destructive examinations will be completed of tritium-producing 
rods previously irradiated in the Department's Advanced Test Reactor.
    Contracts will be executed with tritium-producing rod manufacturers 
and long-lead materials will be ordered.
    Complete site specific Environmental Impact Statements and issue 
Records of Decision
Capital Funds
    Detailed design and site preparation of the new Tritium Extraction 
Facility will begin at the Savannah River Site.
    Question. Provide for the record a chart which shows the major 
milestones for each option through completion.
    Answer. The milestones in the following table are from the current 
Defense Programs Stockpile Stewardship Management Plan. The current 
focus of the table is fiscal year 1998 and fiscal year 1999. Additional 
milestones will be added year-by-year as the project approaches 
outyears.

------------------------------------------------------------------------
      APT Project Milestones               Status              Plan
------------------------------------------------------------------------
Select APT Site...................  Completed...........      1Q/FY 1996
Approval of Mission Need..........  Completed...........      1Q/FY 1996
Commence Conceptual Design........  Completed...........      2Q/FY 1996
Superconducting Radio Frequency     Completed...........      2Q/FY 1997
 Linear Accelerator Decision.
Issue Final Conceptual Design       Completed...........      3Q/FY 1997
 Report.
Complete High Power Density         Completed...........      4Q/FY 1997
 Irradiation of Target/blanket
 Materials.
Critical Decision--2a, Approve      Completed...........      4Q/FY 1997
 Start of Engineering Design.
Begin Engineering Design of the     Completed...........      1Q/FY 1998
 APT Plant.
Complete Modular Design Study of    ....................      2Q/FY 1998
 the APT Plant.
Complete Site Specific
 Environmental Impact Statement
 and Issue Record of Decision.....  ....................      4Q/FY 1998
Submit Readiness Report to Support  ....................      4Q/FY 1998
 Primary Path Decision.
Demonstrate Radio Frequency         ....................      4Q/FY 1998
 Quadruple Operation.
Technology Down-Select............  ....................      4Q/FY 1998
Critical Decision--3, Approve       ....................      1Q/FY 1999
 Start of Construction.
Begin Plant Construction..........  ....................      1Q/FY 1999
Complete Preliminary Safety         ....................      2Q/FY 1999
 Analysis Report.
Complete Target/Blanket Tritium     ....................      4Q/FY 1999
 Production Demonstration.
Tritium Requirement Reduction       ....................      1Q/FY 2002
 Option.
Begin Plant Startup and             ....................      3Q/FY 2004
 Commissioning Activities.
Begin Tritium Production            ....................      2Q/FY 2007
 Certification.
Critical Decision--4, Approve       ....................      3Q/FY 2007
 Plant Acceptance/Certification.
------------------------------------------------------------------------

    Completion of the milestones identified in this table assumes 
sufficient funding to support planned activities. The project is 
completing modular design and is doing what is necessary to rebaseline 
the project in accordance with the modular design. These milestones 
will be revised when the APT Modular Design is completed in April 1998.

------------------------------------------------------------------------
  Commercial Light Water Reactor
        Project Milestones                 Status              Plan
------------------------------------------------------------------------
Submit Lead Test Assembly Topical   Completed...........      1Q/FY 1997
 Report to NRC.
Issue draft request for proposals   Completed...........      2Q/FY 1997
 to nuclear utilities.
Insert lead test assemblies in an   Completed...........      4Q/FY 1997
 operating reactor.
Critical Decision-2, Approve
 baseline and begin design of
 Tritium Extraction Facility......  Completed...........      4Q/FY 1997
Award options contracts to          ....................      2Q/FY 1998
 purchase reactor(s) or
 irradiation services.
Prepare Tritium-Producing Burnable  ....................      4Q/FY 1998
 Absorber Rod Topical Report.
Submit report on the CLWR option    Completed...........      4Q/FY 1998
 to support the primary path
 decision.
Critical Decision-3, begin          ....................      1Q/FY 1999
 construction of Tritium
 Extraction Facility.
Submit documents to initiate NRC    ....................      2Q/FY 1999
 license amendment process.
Document laboratory examinations
 of absorber rods irradiated in
 the Advanced Test Reactor........  ....................      4Q/FY 1999
Irradiated lead test assemblies     ....................      2Q/FY 2000
 delivered to examination facility.
Begin assembly of production        ....................      1Q/FY 2002
 absorber rod components.
NRC issues safety evaluation of     ....................      1Q/FY 2002
 absorber rod design.
NRC license amended...............  ....................      1Q/FY 2003
Begin irradiation of production
 Tritium-Producing Burnable
 Absorber  Rods...................  ....................      1Q/FY 2004
Critical Decision-4, begin          ....................      1Q/FY 2005
 operation of the Tritium
 Extraction Facility.
Extraction of the first increment   ....................      3Q/FY 2005
 of tritium gas.
------------------------------------------------------------------------

    Question. The budget justification indicates that future budget 
targets do not support the construction of an accelerator production 
facility. If that option is selected, what are the Department's plans 
regarding obtaining sufficient budget resources to ensure the project 
proceeds in a timely manner?
    Answer. If APT is selected, the project must receive relief from 
current requirements or obtain sufficient additional funding to proceed 
in a timely manner. APT funding requirements were identified in the 
answer to a previous question. The Department is addressing potential 
requirements changes with DOD and has identified additional funding 
requirements. Funding for the capital requirements for APT is not 
included in the DP budget request. Funding for CLWR will require 
reprogramming to provide capital funding within current budget request.
                        pit production capacity
    Question. Update the committee on DOE's strategy, and status 
regarding reestablishing pit production capacity for the weapons 
program.
    Answer. DOE's strategy is a phased approach to achieving both the 
capability to produce war reserve pits and establishing a limited 
manufacturing capacity. At the base of the phased approach is the need 
to assure the facilities involved in the production of the pits and 
those which support the production are maintained and can perform their 
operations in a safe manner; and equipment necessary to sustain 
production is obtained.
    The maintenance and safety of facilities involved in production and 
production support; and capital equipment purchases necessary for 
production are being accomplished through several maintenance and 
construction projects. These are the Chemistry and Metallurgy Research 
Upgrade Project (to maintain nuclear qualified space for all analytical 
chemistry support), the Capability Maintenance and Improvement Project 
(to provide plutonium facility improvements; non-nuclear component 
facility improvements; and capital equipment replacement), Transition 
Maintenance and Safety Equipment projects (to perform urgent 
maintenance within the plutonium facility and long lead procurement of 
equipment to support production), Nuclear Materials Storage Facility 
Renovation Project (to provide storage space to store plutonium 
material), and the Nuclear Materials Safeguards and Security Upgrade 
Project (to provide continued protection for nuclear materials).
    Assuring the capability to produce war reserve pits is being 
achieved through the Pit Rebuild Program. It is key to capturing the 
manufacturing technologies and corporate memory which support the 
production of pits. This program centers on the production of three 
different technology development pits (W88 Trident II Warhead; W87 
Peacekeeper Warhead; and B61-7 bomb). These pits span the technology 
found within the current stockpile (except one specific pit); and 
successful completion of these builds will reflect that the capability 
to remanufacture pits found in the stockpile has been retained. The Pit 
Rebuild Program also requires the establishment of an infrastructure to 
support the quality requirements defined in quality control directives 
and the establishment of a production control methodology to ensure 
that war reserve product certification is maintained and that a 
schedule to deliver product could be supported. This program also 
requires the review, revision, and issuance of specifications for 
materials and processes as they relate to Los Alamos National 
Laboratory operations. This requires that all design agency 
specifications be reviewed and revised and that all process control 
procedures be rewritten to meet Los Alamos National Laboratory 
requirements.
    Establishing a limited manufacturing capacity is being conducted in 
a phased manner through production of the W88 pit. The phased approach 
has been instituted to maintain pit production while also performing 
necessary maintenance and upgrades to the facilities involved in 
production. Production of a ``lot'' of pits for qualification and 
certification will begin in the latter part of fiscal year 1999 at the 
rate of approximately 10 pits per year. Qualification and certification 
is scheduled to be completed by the third quarter of fiscal year 2001, 
at which time a war reserve pit would be available for entry into the 
stockpile. Production would continue on this ``lot'' until fiscal year 
2007. From fiscal year 2001 to fiscal year 2007, Phase I of the 
Capability Maintenance and Improvement Project would make upgrades to 
the facilities involved in production. By fiscal year 2007, it is 
expected those construction and improvement efforts would be complete 
and an interim production capacity of 20 pits per year would have been 
established through both facility improvements and production 
efficiencies. This production capacity is limited by the necessity to 
share equipment and personnel involved in multiple programs, such as; 
surveillance and research and development activities.
    A final capacity is being discussed between the Department of 
Defense and Department of Energy. Once this is agreed upon, Phase II of 
the Capability Maintenance and Improvement Project would proceed to 
make the additional facility modifications or new facility construction 
necessary to establish a dedicated production line. Currently, the 
Department of Energy's objective is to establish a dedicated production 
line with a capacity of 50 pits per year with single shift operation. A 
surge capacity of 80 pits per year could be achieved through use of 
multiple shifts. Both Phase I and II of the Capability Maintenance and 
Improvement Project would be complementary in nature and could be 
conducted concurrently or sequentially. A major element in project 
execution would be that production of pits would need to continue while 
construction is ongoing to meet programmatic requirements in support of 
the stockpile.
    The status in establishing the capacity is that we are still on 
schedule to complete the Pit Rebuild Program, as well as, provide war 
reserve pits by the end of fiscal year 2001. The first early 
development unit in preparation for producing war reserve pits was 
completed February 6, 1998.
    Question. How much will it cost to reestablish pit production 
capability at Los Alamos, and how much has been spent to date on this 
program?
    Answer. The total costs for reestablishing a pit production 
capability at the Los Alamos National Laboratory will be about $400 
million. This includes costs for Pit Rebuild; process development costs 
for manufacturing; non nuclear component production costs; urgent 
repair of equipment and long lead procurement of equipment supporting 
manufacturing in the Transition Maintenance and Safety Equipment 
projects; and the manufacturing element in the Phase I Capability 
Maintenance and Improvement Project to put in place a 20 pits/year 
capacity. Through fiscal year 1997, $39.2 million has been spent.
    Question. What is the current schedule for reestablishing pit 
production capability and how does this date compare to the original 
dates set for this program?
    Answer. The current schedule for reestablishing pit production 
capability is completion of the Pit Rebuild Program and completion of 
qualification and certification of the ``lot'' of W88 pits for 
replacement of units being pulled from the stockpile for surveillance. 
These efforts are scheduled to be completed by the end of fiscal year 
2001. This end date has not changed from the original dates set for 
this program. An enduring capability associated with an interim 
capacity of 20 pits per year will be achieved by fiscal year 2007 
through implementation of Phase I of the Capability Maintenance and 
Improvement Project.
    The final capacity date has changed. Originally this was to be 
fiscal year 2005, based on a concerted construction effort that 
required production to be halted around fiscal year 2002 until 
construction on several facilities had been completed and several 
missions moved out of the plutonium facility. In order to maintain a 
production capability once established, as well as complete production 
of the number of W88's necessary to support the surveillance program, 
it was necessary to change the execution of the plutonium strategy and 
phase the construction effort. This has resulted in an interim capacity 
of 20 pits/year being established in fiscal year 2007. The final 
limited capacity, now planned to be 50 pits/year (single shift) and 80 
pits/year (multiple shift), will be determined through mutual agreement 
with the Department of Defense. Should an agreement be reached within 
the next year, initial design on the construction effort could begin by 
fiscal year 2002.
    Question. What delays have been encountered and what is being done 
by DOE to ensure that the current schedule will be met?
    Answer. Currently no delays to major milestones have been 
encountered in establishing pit production capacity other than the need 
to modify the execution of the strategy to a phased approach in order 
to meet programmatic requirements and maintain the operation of pit 
production once it is established. In order to manage the execution of 
the current strategy and assure the current schedule is met, an 
Integrated Plan is being developed by the Los Alamos National 
Laboratory establishing schedule, milestones, critical path, and 
management processes. In addition, DOE is closely coordinating with the 
Department of Defense to insure not only that DOD's programmatic 
requirements are met, but also that the processes and activities 
necessary to achieve qualification and certification of a war reserve 
pit can be completed.
    Question. What key activities are planned for the remainder of 
fiscal year 1998 and what is the schedule for completing that work?
    Answer. Key activities are the completion of the manufacture of 
early development pits, completion of the installation of most 
equipment necessary to begin production of regular development pits 
followed by war reserve pits, and completion of engineering test plan 
development. These activities are being accomplished within the 
historical capability to produce pits at LANL. DOE also plans to issue 
a site-wide environmental impact statement which will analyze those 
activities necessary to increase the capability to produce pits to 
those levels discussed in the answers to earlier questions.
    Question. How much is being requested to continue this program in 
fiscal year 1999 and how will those funds be used?
    Answer. $66.6 million has been requested in fiscal year 1999. The 
funding would be spent on pit rebuild; manufacturing development; 
process development; non-nuclear components; design development of work 
packages, long lead procurement of equipment, and initial maintenance 
under the Transition Maintenance and Safety Equipment Program; and 
conceptual design report development for the Capabilities Maintenance 
and Improvement Project Phase I construction project in preparation for 
fiscal year 2001 new start.
    Question. What are the important activities to be completed in 
fiscal year 1999 and when are they scheduled to be completed?
    Answer. The important activities to be completed in fiscal year 
1999 are completion of the development unit build by mid-fiscal year 
1999 and then subsequent initiation of the manufacture of the W88 
``lot'' to be qualified and certified as war reserve; and then by the 
end of fiscal year 1999 to have initiated the processes of non-nuclear 
component production required for the continuation of manufacturing and 
completion of two physics tests for certification.
    Question. How will the $22.4 million requested to support facility 
maintenance and equipment procurement in TA-55 at Los Alamos National 
Laboratory be utilized?
    Answer. The funding will be used for design of maintenance 
packages; initiation of construction activities on such items as a 
overhead trolley system to move parts and material between work 
stations, and maintenance on the facility uninterruptable power system; 
procurement of long lead items, such as machining lathes and 
radiography equipment; and completion of the conceptual design report 
of Phase I of the Capability Maintenance and Improvement Project for 
validation into the fiscal year 2001 budget.
    Question. How important is this work to overall success of 
reestablishing pit production capability?
    Answer. In general, nonaccomplishment of work planned in fiscal 
year 1999, using the $22.4 million requested, would: (1) place 
continued operation of the plutonium facility at a higher risk because 
of increasingly more frequent equipment outages; (2) place future 
manufacture at risk as equipment normally used for research and 
development break down under manufacture usage; (3) reduce the 
efficiency of operation by having to move materials and conduct 
radiography testing in other facilities and maintaining inefficiencies 
in movement of material and parts between work stations; and (4) place 
in jeopardy the ability to initiate Phase 1 of the Capability 
Maintenance and Improvement Project necessary to make facility upgrades 
and improvements in support of pit manufacturing and replace equipment 
being worn out by manufacturing usage.
             pit production--environmental impact statement
    Question. A recent article in The Energy Daily indicated the 
environmental groups have filed new demands calling for DOE to conduct 
supplemental environmental impact analysis on this program. Is this 
true and what are the issues of concern?
    Answer. It is correct that NRDC and thirty-nine other environmental 
organizations have amended their original complaint in the ongoing 
lawsuit, NRDC et al. v. Pena (Civ. No. 97-936-SS). In the amended 
complaint plaintiffs drop many of their original allegations regarding 
the alleged inadequacy of the Stockpile Stewardship and Management 
Programmatic Environmental Impact Statement (SSM PEIS). The plaintiffs 
amended complaint requests that, based on new information, the 
Department be required to prepare a Supplemental PEIS on limited issues 
related to the National Ignition Facility (NIF) and plutonium pit 
production activities at Los Alamos National Laboratory (LANL). The 
issues of concern regarding pit production at LANL, as alleged by 
plaintiffs and broadly stated, relate to whether the SSM PEIS 
adequately considered and analyzed the impacts associated with the pit 
production mission at LANL.
    Question. How does the Department plan to address these new 
demands?
    Answer. The plaintiffs demands are being addressed by the 
Department within the context of the ongoing litigation. Under the 
current schedule set by the court, the Department filed an answer to 
plaintiffs amended complaint on March 9, 1998. In addition, on March 
13, 1998, the Department filed a Supplement Analysis regarding pit 
production at LANL which concluded that the analysis in the PEIS was 
adequate and that there is no new information to warrant a supplemental 
EIS for this activity.
    Question. Will there be any impact on the Department's ability to 
proceed with work in fiscal year 1998 and fiscal year 1999?
    Answer. No. Plaintiffs are not seeking to enjoin DOE activities 
related to the establishment of a plutonium pit production capacity at 
LANL or construction of the NIF.
                         weapons dismantlement
    Question. Why were you unable to meet your performance goal of 
dismantling 556 weapons in fiscal year 1997?
    Answer. Last year the Department of Energy set a dismantlement goal 
of 944, which was later revised to 556, but only completed 498 nuclear 
weapon dismantlements. The Department completed the majority of its 
weapon dismantlement goals, in terms of weapons types, including 
completing the W55 (antisubmarine missile warhead) dismantlement line 
ahead of schedule, completing the B61-2 (gravity bomb) line on 
schedule, and starting and completing the B61-5 (gravity bomb) line on 
time. The primary reason the Department fell short of its dismantlement 
objective was because the W69 (Short-Range Attack Missile warhead), a 
high rate disassembly program, was not started as scheduled in March 
1997. This program startup was delayed while additional safety analysis 
was conducted to confirm that newly identified, potential facility 
accident scenarios would not affect safe W69 weapon disassembly 
operations. Because this program has monthly full capacity disassembly 
rates of over 100, the six-month delay had a significant impact on the 
quantity of weapons completed last fiscal year.
    The exact date on which we start up dismantlement lines cannot be 
precisely forecast because we delay all weapon operations until all 
possible concerns raised by internal and external safety reviewers have 
been considered. The dismantlement rate attained after startup of a 
line may be impacted because we stop all operations to study any 
unexpected conditions found in the weapons being dismantled. These 
factors have introduced delays of one month to a year and can cause the 
dismantlements performed to differ from the planned quantities by more 
than 50 percent. Safety in operations is our highest priority, and we 
did slow some operations and conduct additional safety studies to 
satisfy ourselves that we are performing operations safely.
    Question. Do you consider this to be a problem?
    Answer. We take our goal to dismantle nuclear weapons very 
seriously, and we strive to meet our commitments. However, our first 
priority is safety and safety concerns resulted in the short fall as 
discussed above.
    Question. What is being done to correct existing problems?
    Answer. We have no existing problems, but we continually assess the 
safety of operations at Pantex and all our facilities and factor safe 
operations into our dismantlement projections. Dismantlement of the W69 
began in July 1997 and approximately 15 units are being dismantled 
weekly. Monthly dismantlement rates will increase from the current 55-
65 per month to 100 in April 1998.
    Question. How many weapons are scheduled to be dismantled in fiscal 
year 1998, and are you on schedule to meet this goal? If not, why?
    Answer. DOE planning guidance calls for 1,000 weapons to be 
dismantled in 1998, and we are on schedule to meet this goal.
    Question. How many weapons are scheduled for dismantlement in 
fiscal year 1999 and why is the budget request for this program being 
reduced from $22 million in fiscal year 1998 to $8.4 million in fiscal 
year 1999?
    Answer. DOE planning guidance calls for 500 weapons to be 
dismantled in 1999, compared to the goal of 1,000 in fiscal year 1998. 
The budget request for direct support of dismantlements is being 
reduced as we change focus on some specific dismantlement programs at 
Pantex. In fiscal year 1999, the W56 (Minuteman II ICBM warhead) and 
the W79 (Artillery-Fired Atomic Projectile) dismantlement lines should 
be under way, so the large effort associated with their startups, such 
as safety studies and component characterization, will be completed. 
The funding cited in the question relates to startup and disassembly 
work only--this reduction is consistent with the reduced quantity of 
weapons to be disassembled in fiscal year 1999 and the fact the start-
up efforts for most of the systems will already be complete.
         doe weapon alteration, modification, and surveillance
    Question. Explain the reasons for not meeting established schedules 
and what is being done to correct problems you may be experiencing? 
Specifically, how does the Department plan to address and correct 
operational issues related to nuclear and non-nuclear systems 
laboratory testing at Pantex?
    Answer. Starting in December 1996, safety issues were raised 
dealing with the Linear Accelerator Facility, Dynamic Balancer 
Facility, and Separation Facility at Pantex. These issues precluded 
Pantex from performing disassemblies and inspections, which then 
translated into delays in having components available for both non-
nuclear system level laboratory tests and laboratory tests of nuclear 
components, such as pits and secondaries at Los Alamos and Y-12, 
respectively. The Department has reviewed the situation at Pantex over 
the past year. The above issues have been resolved, and we have 
attempted to anticipate the type of facility issues that might occur in 
the future.
                         enhanced surveillance
    Question. Why is there a 62 percent increase in funding proposed in 
the fiscal year 1999 budget request?
    Answer. The fiscal year 1999 budget request supports the milestones 
and deliverables set forth in the Enhanced Surveillance Program Plan. 
It will support tests for precision performance, standards and 
divergence in high explosives, advanced surveillance hydrodynamic 
tests, new radiography, gas analysis, and endoscopy diagnostics; 
advanced flight test hardware, plutonium and uranium stability and 
performance tests, materials surveillance test and models, and systems 
surveillance tools and models. Outyear funding for this program will 
continue at this level in order to conclude the program in fiscal year 
2002.
    Question. A little over $27 million, an increase of $10 million 
over the current years level, is requested to deliver predictive 
capabilities for nuclear and non-nuclear components. Please describe 
these deliverables and the schedule and milestones planned for the 
remainder of fiscal year 1998 and for fiscal year 1999.
    Answer. The Enhanced Surveillance Program Plan includes detailed 
milestones and deliverables for the delivery of predictive 
capabilities. These capabilities include models and simulations for use 
by designers to include component lifetimes. The work also includes 
experimentation necessary to validate the results of those predictions. 
Work supporting nuclear components addresses pits, high explosives/
initiation and organics, and canned subassemblies. Work supporting non-
nuclear components includes materials aging models, component aging 
models, and system aging models. Attached are Figures 1.7 and 1.8 from 
the fiscal year 1998 (Revision 2) ESP program plan which summarize the 
delivery of predictive capabilities in each of the categories. All 
fiscal year 1996 and fiscal year 1997 milestones and deliverables are 
complete. All fiscal year 1998 milestones and deliverables are 
currently on schedule.
    Question. The budget also includes $39.7 million for the delivery 
of diagnostic tools for surveillance of nuclear and non-nuclear 
components. What deliveries are scheduled for fiscal year 1998 and are 
those deliveries on schedule? If not, why? What deliveries are planned 
for fiscal year 1999 and when are those items scheduled to be 
delivered?
    Answer. The Enhanced Surveillance Program Plan includes detailed 
milestones and deliverables for new surveillance tools. Work conducted 
in support of nuclear components fall into the categories of high 
explosives/initiation and organics, hydrodynamic tests, diagnostics, 
and systems. Work supporting non-nuclear component surveillance are 
grouped in materials surveillance, component surveillance, and system 
surveillance. Attached are Figures 1.5 and 1.6 from the fiscal year 
1998 ESP program plan which summarize the delivery of predictive 
capabilities in each of the categories. All fiscal year 1996 and fiscal 
year 1997 milestones and deliverables are complete. All fiscal year 
1998 milestones and deliverables are currently on schedule.
[GRAPHIC] [TIFF OMITTED] TNERGY.002

[GRAPHIC] [TIFF OMITTED] TNERGY.003

[GRAPHIC] [TIFF OMITTED] TNERGY.004

[GRAPHIC] [TIFF OMITTED] TNERGY.005

          stockpile management restructuring initiative (smri)
    Question. Has the Department developed a SMRI plan for each site 
that lays out each project which is to be undertaken along with 
established baseline costs and schedules?
    Answer. Yes. Each site has prepared an implementation plan and a 
conceptual design report for each respective SMRI Project. The 
Conceptual Design Report (CDR) establishes the preliminary cost, 
schedule, and technical baselines until completion of Title I design. 
Completion of Title I design will establish the projects baselines for 
the physical construction portion of the projects.
    Question. While DOE is undertaking Title I and Title II at a number 
of sites, how will the baseline costs and schedules be determined?
    Answer. The initial preliminary baselines are established from the 
CDR. The results of the Title I Design establishes the Title I 
Baselines that are used for the remainder of the project.
    Question. Will they be based on a Conceptual Design Report or on 
Title I engineering?
    Answer. The pre-Title I baselines come from the CDR.
    Question. Why has this restructuring work been by site, with 
multiple subprojects and business units?
    Answer. Although the SMRI program has a single goal, the 
restructuring of the production complex to meet current infrastructure 
requirements, in terms of project management each SMRI project is 
essentially independent of the others. Thus, individual line items by 
site also allows each site to more effectively manage that site's 
project requirements. An example that you have already seen is that the 
projects were started as they were ready to begin, Y-12 and Savannah 
River in fiscal year 1998, Kansas City and Pantex in fiscal year 1999. 
And again, the individual site projects will be able to individually 
take the appropriate actions based on the completion of title I and II 
design. And finally, each site project will be closed as each site 
project is completed. These benefits would have been significantly 
reduced if we had requested a single line item for the SMRI program.
    Question. Why haven't larger subprojects been broken out and 
displayed separately for greater control and visibility?
    Answer. There is always a trade-off between centrally controlling 
projects on the one hand, and allowing the project manager greater 
flexibility on the other. In the case of the SMRI projects it was 
decided that the appropriate balance was to manage the projects as a 
series of subprojects, show those subprojects in the construction data 
sheets so that Congress could easily see what we were doing, but to 
request funding at the total project level. In order to improve the 
cost control of larger subprojects, however, we will provide separate 
displays for all subprojects with a total estimated cost of greater 
than $10 million in the fiscal year 2000 budget.
    Question. What would be the impact of requiring subprojects, over a 
certain total estimated cost, to be displayed and requested separately?
    Answer. The purpose of each SMRI project is to restructure the site 
in total, not to restructure individual bits and pieces of each site. 
Therefore, the individual subprojects can change, in scope, schedule 
and cost, as we further refine the best, most efficient and effective 
manner to achieve the restructuring of the site. If we receive funding 
at the total project level, as requested, we will keep Congress 
informed of these changes, but will not need to request reprogramming 
to implement the changes and can proceed in a timely and efficient 
manner. On the other hand, if we receive funding by subproject, each 
time we decide to change how we are going to achieve the desired end 
point of the project, we will have to request a reprogramming from 
Congress, thereby imposing delays, uncertainty, and possible cost 
increases, into the projects. In order to improve the cost control of 
larger subprojects, however, we will provide separate displays for all 
subprojects with a total estimated cost of greater than $10 million in 
the fiscal year 2000 budget.
    Question. What assurance can you give the committee that the total 
scope and costs under SMRI at each site is well defined and that the 
cost of each subproject can be controlled?
    Answer. Each of the projects has a completed conceptual design 
report and each will complete Title I and II design before proceeding 
to physical construction. Based on these design and engineering 
efforts, we are confident that our estimates for the projects are 
robust and will not change significantly over the course of the 
projects.
          chemical and metallurgy research facility (cmr) lanl
    Question. What problems has the Department experienced with the CMR 
facility at Los Alamos?
    Answer. The shortcomings in the Chemistry and Metallurgy Research 
Upgrades Project are the result of weaknesses in project management and 
construction engineering practices. Preliminary assessments by the 
Department and the Laboratory found that the tools and systems required 
to effectively execute project management in many cases were not 
adequate. Corrective actions under development will address both 
project-specific and institutional issues. Primary findings of both 
assessments include:
  --Both Laboratory project management and Departmental oversight were 
        inadequate in maintaining control of this project.
  --Laboratory engineering and project management deficiencies resulted 
        in subtask cost increases and schedule delays. Engineering 
        designs were poorly specified and were accepted and implemented 
        without evaluations of constructability. The failure to perform 
        condition assessments prior to either conceptual development of 
        the project or design resulted in numerous design changes late 
        in the project, with significant cost impacts.
  --Inaccurate Laboratory reporting prevented timely issue 
        identification and resolution of issues and the reporting did 
        not portray actual status. Management reserve, a contingency 
        account, was consumed without communication to, or knowledge or 
        approval of the Department.
  --The project contingency was mismanaged. Contingency funds were 
        allocated on a first-come, first-served basis as cost increases 
        occurred, rather than allocation by risk factors to each 
        subproject.
  --The Laboratory's organization contributed to the systemic nature of 
        the shortcomings. This project should have been constrained by 
        finite resources and a finite scope defined in the Construction 
        Project Data Sheets. The Laboratory construction management 
        structure contributed to a lack of accountability and 
        ineffective processes.
    There are many details associated with the above findings, but 
these summaries capture the vital issues that will be addressed in a 
Corrective Action Plan. The Department and the Laboratory will work 
closely to correct both project specific and institutional weaknesses.
    Question. What has the Department done to correct project 
management deficiencies and other weaknesses that have caused these 
problems?
    Answer. The Department has already taken steps to strengthen 
oversight of Laboratory projects through personnel changes, addition of 
personnel, and reorganization of some offices to focus resources and 
management attention to Laboratory programs and projects. These steps 
have been specifically targeted for those field elements closest to the 
day-to-day activities.
    The Department will control contingency funds for all Stockpile 
Management projects at the Laboratory, and will evaluate the 
Laboratory's corrective actions for implementation and effectiveness.
    Both the Department and the Laboratory have designated responsible 
management officials with the authority to execute the Stockpile 
Management Construction Program at the Laboratory.
    Question. When will the corrective action plan, which addresses 
cost overruns and construction management problems, be completed and 
approved by the Department?
    Answer. A LANL corrective action plan addressing Laboratory 
construction management issues, specifically CMR, was presented to the 
Department in September 1997. The Department approved the plan and has 
been overseeing the laboratory's implementation of the plan including 
the emplacement of stronger management oversight procedures, improved 
performance and budget accountability, and the incorporation of 
``lessons learned'' into all further construction activities.
    Question. What other actions need to be completed before 
construction can resume and when will they be finalized?
    Answer. The Department will authorize restart on a limited basis, 
using a step-by-step approach, measuring improvement and achievement of 
specific milestones by the Laboratory before proceeding to the next 
step. Condition assessments, detailed definition of project completion 
criteria, and effective integrated project and program planning with 
the rigor and discipline expected for work in nuclear facilities will 
be measures that the Department will use to evaluate Laboratory 
responsiveness to the Chemistry and Metallurgy Research Upgrades 
project. Only after completion of the above activities will the 
Department authorize the restart of actual construction.
    Question. The budget request for fiscal year 1999 includes $16 
million to resume design and construction of the project. How much of 
the request is to continue design and how much is for construction?
    Answer. The fiscal year 1999 request for $16 million will be used 
to begin or continue design of necessary Phase 2 subprojects and 
complement Phase 1 construction requirements as necessary. The exact 
split of those costs will not be determined until all facility 
assessments and engineering reports have been completed. Funds 
appropriated in fiscal year 1998 and unspent prior year funding will be 
used to complete the facility assessments and restart Phase 1 
construction work.
    Question. How confident is the Department that this project can be 
resumed in fiscal year 1999, and completed on schedule and within 
costs?
    Answer. There will be impacts to the project from the changes to 
project management and other corrective actions that must be taken to 
ensure the project is ready to proceed. However, it is our intent to 
complete the project within the current estimated cost of $174.1 
million. We will, of course, keep Congress informed of our progress on 
this project.
                                 ______
                                 

                 Questions Submitted by Senator Cochran

                   safety features on nuclear weapons
    Question. In response to a question of mine last October during 
your testimony before my Governmental Affairs Subcommittee on 
International Security, Proliferation, and Federal Services, you said 
that you believed that we have safety measures that are advanced to the 
point they should be ``at this time.'' Are the most advanced safety 
measures present in every weapon in the stockpile right now?
    Answer. All weapons in the stockpile, with the exception of the W62 
warhead in the Minuteman III Strategic Missile, have modern enhanced 
nuclear detonation safety (ENDS). All weapons, however, do not have 
insensitive high explosive (IHE) or fire-resistant pits (FRP). Should 
the W62 remain in the enduring stockpile, I strongly support upgrading 
its detonation system to meet modern safety design criteria. The W62 
warhead is not scheduled to remain in the stockpile under START II.
    Question. Would adding safety features like insensitive high 
explosives and fire retardant pits to weapons in our stockpile that 
don't already have these features make them safer?
    Answer. Yes, incorporating features like insensitive high explosive 
and fire retardant pits into stockpiled warheads would inherently make 
them safer. However, all stockpile warheads meet both DOD and DOE 
safety requirements.
    Question. Can you add all of these safety features right now, using 
the Stockpile Stewardship Program technologies already developed, 
without conducting explosive testing?
    Answer. No; however, the DOD/DOE have confirmed the safety and 
reliability through the annual certification process, and no 
modifications to safety features are currently required.
                          tritium requirements
    Question. You also stated at our hearing that the price of a 
tritium generation facility is not included in the $4.5 billion per 
year estimate for SSP's cost. Has DOE settled yet on a method by which 
to produce tritium? If so, what will be its total and annual cost?
    Answer. The Department has not decided which technology, 
accelerator or reactor, will be used to produce tritium. DOE plans to 
select one of the two tracks as the primary option in 1998. Based on 
the results of the technology decision, total and annual cost for the 
selected technology will be provided.
    Question. If not, what is the price range, both total and annual, 
for the options being considered?
    Answer. The funding included in the budget for tritium is:

        Fiscal year                                             Millions
1999..............................................................  $157
2000..............................................................   145
2001..............................................................    71
2002..............................................................    67
2003..............................................................    69
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................   509

    If the purchase of irradiation services from commercial light water 
reactors is selected as the primary option, the budget request will be 
sufficient to meet current requirements. If the Department selects 
accelerator production of tritium as the primary option, it will need 
to seek relief from the current target date for initiating new tritium 
production or request additional funding.
    The Department will provide firm cost estimates associated with 
tritium after the Department has developed cost figures for the 
commercial light water reactor option based on completion of 
negotiations with the Tennessee Valley Authority.
           stockpile stewardship and aging of nuclear weapons
    Question. You testified at our hearing that, because the United 
States is no longer producing nuclear weapons, we would be encountering 
problems due to the effects of aging that we've not had to deal with in 
the past. Are you certain SSP will both identify all of these problems 
and be sufficient to certify their remediation?
    Answer. It is not possible to declare with total certainty that the 
stockpile stewardship program will identify all aging problems. 
However, we are highly confident this strategy will be successful. We 
are currently enhancing our weapon surveillance process to maximize the 
likelihood of early discovery of the most serious of these aging 
problems, and we are modernizing our historical surveillance process to 
ensure that weapon aging defects, when present, will be detected and 
corrected in a timely way. Early detection is fundamental to 
remediation.
    As the Stockpile ages, there will inevitably be changes in the 
weapons, some of which will require a ``fix'' that in the past would 
have been validated by a nuclear test. We expect the SSP will provide 
the confidence necessary to certify the safety and reliability of 
weapons with these changes. Specifically, the computer simulation, 
experimental capabilities, and expert judgement resulting from the SSP 
should allow the basis for the formal determination of stockpile 
confidence made through the Annual Certification Process.
                      adequacy of outyear budgets
    Question. Is inflation included in your $4.5 billion per year SSP 
pricetag?
    Answer. We anticipate changes and efficiency improvements that will 
allow the impact of inflation in the outyears to be accommodated within 
the $4.5 billion annual budget level.
    Question. If not, how much more will the program cost to add 
inflation in over the course of the FYDP?
    Answer. Because of changes and efficiency improvements, we do not 
anticipate any increase in cost due to inflation.
    Question. If DOE were refused permission to add the cost of 
inflation to the program's budget, what would you cut to stay at $4.5 
billion per year?
    Answer. Our strategy for countering the effects of inflation calls 
for aggressive pursuit of productivity cost savings both in terms of 
the cost of doing business and the cost of operating our facilities. 
The Stockpile Management Restructuring Initiative is an example of 
efforts to reduce the physical footprint of the weapons complex and 
thus reducing facility costs and outyear budget pressures. We fully 
expect these efforts to be successful.
                  nuclear weapon problems and testing
    Question. Are you aware of any nuclear weapons problems that have 
been identified in the past as a result of a nuclear test?
    Answer. In the past, some nuclear weapon stockpile problems have 
been identified solely by nuclear testing. In general, nuclear testing 
has been used to confirm the existence of problems that were identified 
by nonnuclear experiments, computer simulation, and expert judgment for 
both stockpiled weapons and during weapon development. For the 
existing, enduring stockpile I am not aware of any nuclear weapon 
problems that have been identified solely by nuclear testing.
    Question. Are you aware of any fixes to any nuclear weapons 
problems that were found to be inadequate through testing?
    Answer. The only cases where nuclear testing has found inadequate 
fixes occurred with certain weapons that were designed or modified in 
the early years during the 1959-1961 Test Moratorium.
    Question. The administration's current nuclear weapons policy, as 
set out in the Nuclear Policy Review and described by then-Deputy 
Secretary of Defense John Deutch in testimony before the SASC in the 
last Congress, says that the Department of Energy is required to 
``Maintain [the] capability to design, fabricate, and certify new 
warheads.'' Does stockpile stewardship maintain DOE's capability to 
design new warheads? To fabricate new warheads? To certify new 
warheads?
    Answer. Yes, the Department of Energy's Stockpile Stewardship 
Program will maintain the capability to design, fabricate, and certify 
new warheads; however, there are no requirements for new warheads, at 
this time.
          nuclear weapon certification without nuclear testing
    Question. Can a new warhead be certified without a nuclear test?
    Answer. It is unlikely that an entirely new modern, high 
performance warhead, developed without the benefit of nuclear testing, 
would be certifiable by today's standards.
    Question. If not, is there not a fundamental disagreement between 
the Clinton Administration's nuclear weapons policy and a comprehensive 
test ban?
    Answer. We do not see a fundamental disagreement. The Stockpile 
Stewardship Program is allowed by and consistent with the Comprehensive 
Test Ban Treaty (CTBT). The Laboratories are required by the Nuclear 
Posture Review and the subsequent Presidential Decision Directive to 
maintain the capability to design and certify new warheads. Programs 
are in place at the Laboratories to do this. The Nevada Test Site is 
maintained in a state of readiness to resume testing if so ordered by 
the President and approved by Congress. The skills necessary for the 
continuing safety and reliability assessment of current weapons and for 
evaluating authorized stockpile modifications are the same as those 
needed for designing ``new'' weapons.
                         stockpile stewardship
    Question. How will you know if Stockpile Stewardship is working? 
Have you established specific milestones short of completion of entire 
parts of the program that will tell you if you are succeeding or not?
    Answer. We believe that Stockpile Stewardship is working now. While 
it has been more than five years since the last nuclear test, we have 
successfully addressed several problems with existing warheads by using 
a combination of computer analysis, archived test and manufacturing 
data, and most importantly the collective judgement of the two weapon 
design laboratories. This success, using the experimental and testing 
tools available today, provides confidence that the even more powerful 
computing and testing tools being developed will allow us to solve 
future stockpile problems without nuclear testing. Additionally, we 
have replaced the B53 with the B61-11, achieved a world record in 
computing speed through the Accelerated Strategic Computing Initiative 
(ASCI), conducted several subcritical experiments at the Nevada Test 
Site, produced a development warhead pit at Los Alamos National 
Laboratory, and have conducted safety reviews to resume enriched 
uranium operations at Oak Ridge Y-12. By annually certifying the safety 
and reliability of the stockpile, the DOE will confirm that Stockpile 
Stewardship can be relied on now and in the future. We have 
successfully completed the process twice, and the third annual 
certification process is well underway. A copy of the second 
certification was provided to the Congress by the President on February 
11, 1998.
                    national ignition facility/nova
    Question. One of the key elements of Stockpile Stewardship is the 
National Ignition Facility, or ``NIF.'' Its predecessor, ``NOVA,'' took 
several years to build and it wasn't until NOVA was completely built 
and, essentially, the switch was thrown for the first time that you 
found NOVA wasn't working. It then took and additional two years to get 
NOVA to work. With experiences like NOVA in mind, how, and when, will 
you know if Stockpile Stewardship is failing?
    Answer. The issue of how progress on the stewardship program is 
assessed is clearly important. While key metrics such as the annual 
certification process are in place, the Department in conjunction with 
the laboratories and plants continues to evaluate this issue on an 
ongoing basis. Three important factors should be considered in 
evaluating the success of the stewardship program. First, the 
Department has outlined a series of specific milestones in its 
Stockpile Stewardship Plan (SSP), and progress towards these will be 
monitored. Secondly, we will examine how the tools developed as part of 
the SSP are working in addressing the full range of specific stockpile 
issues. A particular example relevant to the stated question would be 
to assess the progress of laser based experiments towards addressing 
high energy density science issues relevant to the stockpile such as 
was already done in a specific stockpile system. Finally, the judgment 
of the scientists and engineers engaged in the SSP will be assessed.
    Assessment of the progress of the program using these three factors 
will rely on a combination of internal laboratory and external peer 
reviews, as well as the annual certification and dual revalidation 
processes. In general the peer review process will play an increasingly 
important role in establishing confidence in the stockpile.
    Regarding the operation of large laser facilities such as Nova and 
NIF, most large science facilities require some operating experience 
and measurement development (especially the latter) to realize their 
potential. As one example, while Nova worked from the beginning, 
realizing the full capability of the facility required that the laser 
glass be upgraded. The NIF first bundle, operational at the end of 
fiscal year 2001, will provide early experience with NIF operations and 
help prepare for the best use of the full NIF when it is available in 
fiscal year 2004.
                           low yield testing
    Question. What yield of testing would be the lowest possible to 
accomplish new designs as well as ensure the safety and reliability of 
our stockpile?
    Answer. If the Stockpile Stewardship Program (SSP) leads to a solid 
fundamental understanding of nuclear weapons physics as we plan, we 
should not need any nuclear testing to maintain the safety and 
reliability of existing weapons. If we were to resume testing, the 
lowest useful test yield for safety issues would be a few pounds, and 
for a reliability test around a kiloton.
    As for a new, modern design, the test yield would depend upon how 
far the design was from an existing, well tested design. A design 
relatively close to current weapons might be certifiable with 
relatively low yield, whereas other new weapons might require something 
close to full yield.
                          nuclear design staff
    Question. One of the major aspects of the Stockpile Stewardship 
Program is to keep a well-trained team of scientists and engineers 
working at the labs. When my staff visited the Los Alamos National Lab 
in August, we were informed that some position announcements have been 
closed for lack of qualified applicants or, in some instances, 
applicants for positions are being hired who are of lower quality than 
was the case in the past. Should we be concerned that the labs won't be 
able to recruit and retain the best people, which has always been our 
standard?
    Answer. Finding highly qualified applicants for our scientific and 
engineering positions remains a challenge. However, we continue to draw 
very high quality individuals to the laboratories. We have gone through 
dramatic changes in staffing requirements in the past decade and have a 
changed external environment in which we compete. While the 
laboratories have hired small numbers in recent years, the current 
requirements call for significant hires from an academic environment 
that is much more heavily populated by foreign national students who 
are ineligible for the positions we have available. Additionally, in 
some areas, such as computer science, it is difficult to match the 
industrial compensation packages offered to most highly sought after 
graduates. These challenges are partially compensated for by the 
desirability of working at a National Laboratory and by the focused 
technical challenges we provide and the world-leading tools we have 
available, as well as the clear commitment of the President and 
Congress regarding the importance of this work. The Laboratory Directed 
Research and Development Program, which supports scientists for 
innovative basic research in support of SSP, is an example of the 
opportunities that can be offered a young scientist. While recruiting 
will continue to be a challenge for us, we believe that we will compete 
favorably when the candidates consider their career options.
    Question. How many nuclear weapons designers now routinely evaluate 
the performance of U.S. nuclear weapons by doing explosion 
calculations?
    Answer. Approximately 85 primary and secondary designers at 
Lawrence Livermore and Los Alamos National Laboratories are actively 
and routinely engaged in evaluating the performance of nuclear weapons 
with simulation codes.
    Question. How many have been lead designers on a nuclear test?
    Answer. Of that number, 35 designers have been lead designers on a 
nuclear test.
    Question. Are there enough qualified designers to do the jobs that 
need to be done today?
    Answer. Yes. There are enough designers to do the job as currently 
defined.
    Question. How confident are you that the Stockpile Stewardship Plan 
will maintain weapons designers' expertise?
    Answer. A central objective of the Stockpile Stewardship Plan is 
the development and maintenance of a cadre of personnel who can 
effectively use the new experimental and modeling capabilities to 
address warhead issues as they arise. Since most of these personnel 
will be continually working on weapons topics, we can expect their 
continued commitment to address future issues that might arise. Today, 
we depend heavily on the experience base of veteran nuclear weapon 
designers and their familiarity with a wealth of past nuclear test 
data. These designers are working with--and, in the process, training--
their younger colleagues on real stockpile issues to develop and 
validate the sophisticated tools that will be needed for stewardship in 
the longer run. These activities include dual revalidation, annual 
certification, and other weapons baselining activities. We are 
developing additional techniques to capture the information both from 
the nuclear test database and from the personal experience of veteran 
designers, and to make it readily available for future work through our 
Archiving Program. The most important issue is to make the transition 
from reliance on the nuclear test experience to validated experimental 
and computational tools in a carefully thought- out manner, as quickly 
and reasonably as possible. That goal is built into the design of the 
Stockpile Stewardship Plan, and given appropriate support, I am 
confident in the success of our efforts.
                    stockpile safety without testing
    Question. President Bush informed the Congress on January 19, 1993 
that the Departments of Energy and Defense had tried to find a 
technically responsible nuclear testing program consistent with the 
provisions of what is known as the Hatfield, Exon, Mitchell amendment 
to the 1993 Energy and Water Development Appropriations Act. His report 
states ``We have concluded that it is not possible to do so.'' Later it 
says, ``The requirement to maintain and improve the safety of our 
nuclear stockpile and to evaluate and maintain the reliability of U.S. 
forces necessitates continued nuclear testing for those purpose * * 
*.'' Did the Department of Energy participate in the effort described 
by the President and did the Department support the President's 
conclusions?
    Answer. The Department of Energy participated in the January 
19,1993 report referred to in these questions and the conclusions were 
accurate at the time.
    Question. Are you aware of any technical factors that have changed 
since this report was sent to the Congress that would change its 
conclusion? This same report includes reference to an ongoing `` * * * 
major effort to increase predictive capability, and thus reduce our 
reliance on nuclear testing for force safety and reliability.'' It goes 
on to say that the conditions of Hatfield, Exon, Mitchell `` * * * 
would permit us only marginally to increase our predictive capability, 
and would certainly not bring us to the point that we could maintain 
the safety and reliability of the U.S., deterrent without underground 
nuclear tests.'' Since President Clinton decided to not even attempt 
the minimal number of tests permitted by Hatfield, Exon, Mitchell it 
would seem that the situation today must be even worse than portrayed 
by President Bush. Can you explain how in 1993 nuclear testing was 
needed to play a critical role in validating predictive capability 
while today you are optimistic that SSP, today's predictive capability 
program, does not need nuclear testing to validate it?
    Answer. There have been several significant technical advances that 
alter the conclusions of the 1993 report to Congress. The Department's 
stockpile stewardship program has been an engine of enormous technical 
advance and the stockpile stewardship tools have allowed the DOE and 
DOD to twice certify to the President that the nuclear weapons 
stockpile remains safe and reliable and that there was no need to 
return to underground testing. These tools have also allowed us to 
solve several stockpile issues that previously would have required 
underground testing. This also gives us confidence that the new 
stockpile tools under construction such as NIF, DARHT and Atlas and 
more advanced computers will allow us to certify the stockpile into the 
future. In the unlikely event we should ever have to return to testing 
we are maintaining the Nevada Test Site, consistent with presidential 
direction.
      major defense programs projects at the national laboratories
    Question. General Accounting Office Energy Issues Director Victor 
Rezendes recently informed the Congress that of 80 Department of Energy 
projects which spent in excess of $100 million dollars, and some of 
which spent billions, between 1980 and 1996, only 15 were ever 
completed. These statistics do not present a very promising view of the 
likelihood of the many SSMP capabilities coming to reality, or coming 
to reality on the time scale currently predicted for them. What is the 
record of LLNL, LANL, and Sandia over this period?
    Answer. Generally, considering the fact that Defense Programs' 
large construction projects at the laboratories are usually unique, 
state of the art, or even cutting edge technology research projects, 
Lawrence Livermore, Los Alamos and Sandia National Laboratories have 
done an acceptable job bringing these projects to conclusion. Only two 
of the canceled projects were Defense Programs funded projects at these 
laboratories.
    A current example of our laboratories' ability to carry out these 
large projects is the National Ignition Facility, which at $1.2 billion 
is by far our largest scientific project currently under construction. 
It is on schedule and within budget, even with the recent weather 
problems in northern California. That being said, we have had some 
recent problems regarding management of large projects, particularly at 
Los Alamos, but we are working to resolve those issues.
    Question. How many projects of this size were begun and never 
completed?
    Answer. Of the 65 incomplete projects on Director Rezendes' list, 
only two were Defense Programs laboratory projects. The Special Nuclear 
Materials Research and Development Laboratory Replacement (88-D-105) 
was canceled in the design phase when it was determined that renovation 
of the existing Chemistry and Metallurgy Research facility was a more 
cost effective means of responding to our changing program 
requirements. The Special Isotope Separation Project (86-D-148) was 
canceled when changing stockpile requirements meant that the materials 
to be supplied by the facility were no longer needed.
    Question. How many projects of this size succeeded on their 
originally predicted timetable, with their originally predicted 
capabilities.
    Answer. The High Energy Laser Facility (78-4-a), probably more 
familiar to you as ``Nova'', was the only major laboratory construction 
project completed during the 1980 to 1996 time period. The bulk of the 
construction activity during this time period at the laboratories was 
over a half billion dollars of smaller infrastructure improvements. Los 
Alamos and Sandia also successfully met the infrastructure requirements 
of accepting non-nuclear production responsibilities from Rocky Flats, 
Mound and Pinellas during this period.
    Question. Is there some reason to believe the laboratories will be 
any more successful in the next 16 years?
    Answer. The laboratories have been generally successful in the past 
on these projects and are, with some caveats, proceeding nicely with 
the current set of projects important for implementing the stockpile 
stewardship program. Where we have had problems, we have moved 
aggressively to identify the issues and causes of those problems and 
then moved just as aggressively to insure the appropriate corrective 
actions are taken. So, yes, I do believe we will be successful in 
providing the facilities necessary for conducting our program.
                                 ______
                                 

                 Questions Submitted by Senator Gorton

                        fast flux test facility
    Question. Given the high cost of the two primary tritium production 
options under consideration--use of a commercial light water reactor 
and constructing a large accelerator--doesn't it make sense to keep 
restart of the Fast Flux Test Facility (FFTF) as a near-term 
``insurance'' policy?
    Answer. In announcing the Department's January 1997 decision to 
keep the Fast Flux Test Facility in standby, former Secretary O'Leary 
stated that keeping the reactor in standby is a low cost option that 
allows the Department maximum flexibility to ensure the tritium needs 
for the strategic nuclear stockpile are met.
    The Fast Flux Test Facility will be maintained in a safe and 
environmentally compliant standby condition until a decision is made on 
the Department's overall tritium production strategy. The Department is 
working to ensure that this decision will be made by December 1998.
    Question. Doesn't the FFTF option hedge DOE's bets, especially 
given the uncertainties associated with future tritium requirements?
    Answer. The Department is required to meet tritium production 
requirements as stated in the Nuclear Weapons Stockpile Memorandum 
signed by the President. While the Fast Flux Test Facility is capable 
of producing a significant quantity of tritium on an annual basis, it 
cannot by itself supply the entire current requirement. The Fast Flux 
Test Facility is being retained in a defueled standby condition pending 
a decision on whether the facility can provide a cost effective 
capability as part of the Department's tritium production strategy.
                                 ______
                                 

                  Questions Submitted by Senator Reid

                            defense programs
    Question. Isn't there a point at which our confidence in the 
stockpile is going to be diminished beyond repair because we simply 
will not be able to replace old parts of nuclear devices?
    Answer. There is no expectation that our confidence in the 
stockpile is going to be diminished because we will not be able to 
replace old parts. Replacement may require that the laboratories 
develop new components because of sunset technology issues; however, 
because of programs that exist to maintain capability at both the 
laboratories and plants, we should be able to design and produce any 
parts that would be required in a reasonable amount of time. The one 
current exception is the production of pits. Although we currently have 
no reason to believe this will be an issue in the foreseeable future, 
we are presently establishing that capability at Los Alamos.
    Question. With the death of those who designed the current weapons, 
aren't we losing the knowledge of a generation of physicists and 
engineers who built and tested the nuclear devices?
    Answer. We still have in our ranks a sizable number of physicists 
and engineers that built and tested nuclear weapons, and we have an 
active program of archiving past data, documenting past methods and 
understanding, interviewing experienced workers and data capture, and 
mentoring young scientists and engineers. In this context, dual 
revalidation, annual certification, and other weapon baselining 
activities are key to transferring and improving upon this knowledge to 
the next generation of weapon stewards. By working in teams--younger 
staff and senior designers and engineers--we are developing and 
applying the methods of science-based stewardship to current and 
projected stockpile issues. This is serving as a true test to gauge our 
ability to train the next generation of weapons designers and stewards, 
and I believe we will successfully make this generational transition.
    Question. Without testing the devices, we are relying upon science 
that has not been done before; given that this is an uncharted 
science--on what do you base your confidence in the program?
    Answer. Our confidence in the Stockpile Stewardship Plan is based 
on several key elements: (1) the extensive nuclear test database, (2) 
our experienced personnel still available to train a new generation of 
weapon scientists and to provide archival information, (3) our program 
of nonnuclear experiments, and 4) advanced computational capability 
that will improve the scientific understanding necessary to evaluate 
stockpile problems and possible modifications. All of these elements 
are absolutely essential. Our confidence is enhanced by successes so 
far in the program, including the institution and successful execution 
of the Annual Certification and Dual Revalidation programs, the 
progress of the Accelerated Strategic Computing Initiative in meeting 
its timelines for improved simulation and modeling capability, early 
promising results from the Enhanced Surveillance Program, and our 
progress on several stockpile modifications, including the B61-11 and 
the W87 Life Extension Program.
    Question. Is the uncharted territory of a science based stockpile 
stewardship program leaving too much to chance by relying on computer 
simulations, subcritical experiments, and experiments on fusion 
ignition?
    Answer. As I previously stated, the ``uncharted territory'' could 
indeed be very problematic without all the key elements of the plan. At 
this point our assessment is that a fully implemented Stockpile 
Stewardship Plan will be sufficient for maintaining the reliability and 
safety of the stockpile.
    Question. Additionally, is this uncharted territory too ambitious 
for the current generation of scientists? I read recently where Bruce 
Tarter of Lawrence Livermore National Laboratory observed, ``Even with 
these new facilities, the question remains whether we can keep from 
fooling ourselves about how good we are.'' If Dr. Tarter is incorrect, 
could you explain?
    Answer. Dr. Tarter properly states the challenge. Our mission is a 
challenging one, and we are sensitive to the need for continuing 
critical evaluation. A critical yearly measure of the success of the 
SSP will be our ability to provide formal statements of stockpile 
confidence through the Annual Certification process. Should we not be 
able to certify the safety or reliability of a weapon system in the 
enduring stockpile, the SSP will not have been totally successful. 
Three supportive factors should be considered in assessing program 
success.
    First, we can test progress on SSP compared to the specific 
milestones set forth in the DOE Stockpile Stewardship Plan. This 
comprehensive plan includes the detail needed to judge progress in 
providing the necessary experimental, computational and manufacturing 
capability, and in executing required stockpile actions. Timely 
execution of required modifications such as the B61-11 and W87 LEP, 
including certification performed to the satisfaction of a well-
informed technical community, will be an important measure. So will 
completion of the planned facilities and meeting of the simulation and 
modeling milestones.
    Second, we can examine specifically how well the tools being 
developed as part of the SSP are working by testing them against two 
sets of data. One is the past nuclear test database, for which we 
should be able to ``predict'' past nuclear test data (failures as well 
as successes). The second set is new laboratory test results, including 
large integral experiments such as 3-D hydros with high resolution, and 
future ignition capsule performance on NIF. Our computational 
simulations must consistently match a broad range of data with a 
significantly reduced need for empirical ``fudge'' factors and 
phenomenological models.
    Third, there are ways we can assess the judgment of the scientists 
and engineers engaged in SSP. It is absolutely crucial that we maintain 
expert judgment about nuclear weapon issues by developing the skills 
and capabilities of the next generation of stockpile stewards. Our 
ability to retain and attract new top-notch scientists and engineers to 
the program will be another key index of the program's success.
    The judgment of the stockpile stewards will be exercised through 
the Annual Certification and Dual Revalidation processes, which entail 
formal peer review activities involving the two weapon design 
laboratories (LANL and LLNL). Each of the laboratories, with its own 
unique capabilities, will be put to the test before the other 
laboratory and experts from Sandia, DOE Defense Programs, and our 
customer, the DOD. Peer-review activities must include independent 
evaluations, dual revalidation and reviews specifically aimed at 
finding the weak spots in the technical story. Such peer review will 
play an increasingly important--and very visible--role in establishing 
confidence in the stockpile.
    Question. It seems to me that we are painting ourselves into a 
corner with our nuclear stockpile. We cannot build new weapons and we 
are to have confidence in an aging stockpile, the safety and 
reliability of which we are trusting to scientific experiments. There 
are many questions about the future that you cannot answer and that is 
exactly what is bothering me. How are we assured that the greater 
strategic questions are addressed, even though there are not yet 
answers?
    Answer. We can only answer strategic questions by continuing to 
question and evaluate whether the stockpile stewardship program 
effectively balances current and future needs and whether the system of 
labs, plants and Federal management are meeting their objectives 
effectively. This process must be done every year and with a vigor 
commensurate with the responsibility of the ``supreme national 
interest.''
    Question. Metering our progress toward the program goals will 
certainly measure success of the plan, but will it measure mission 
success?
    Answer. Mission success is reflected in our ability to annually 
certify to the President that the nuclear weapon stockpile is safe and 
reliable. We have completed two annual certifications and we will 
continue to measure how well we are meeting our programmatic goals. The 
combination of annual certification and meeting program goals will help 
ensure that the Stockpile Stewardship Program is successful.
    Question. Will it measure the reliability and safety of the 
stockpile?
    Answer. The annual certification has one main purpose--to ensure 
that the U.S. nuclear weapon stockpile is safe and reliable.
    Question. I am concerned that success with the plan allows us to 
say only that, so far, we have found no ``cause for alarm.'' Is there 
another measurement that could more accurately reflect the status of 
the stockpile?
    Answer. The status of the stockpile is reported, in detail, through 
several classified reports currently provided to the Congress including 
the President's transmittal of the annual certification report.
    Question. Science Based Stockpile Stewardship at least offers us 
some hope that we can maintain the stockpile without testing. But, is 
it enough? Have we overlooked something that might materially add to 
our confidence?
    Answer. Science Based Stockpile Stewardship, now referred to as the 
Stockpile Stewardship Program (SSP), offers the best opportunity to 
meet the goal of maintaining the aging nuclear stockpile without 
nuclear testing. The DOE and the DOE weapon laboratories believe that 
if the SSP is fully funded, then it is the right program based on over 
fifty years of nuclear weapons experience. We believe that we can 
manage the risk of no nuclear testing and that we have not overlooked 
anything that would materially contribute to our confidence.

                          subcommittee recess

    Senator Domenici. So it is, indeed, an exciting thing, and 
with that, the committee stands in recess until the call of the 
chair.
    Dr. Reis. Thank you, sir.
    [Whereupon, at 10:35 a.m., Tuesday, March 3, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              


                        TUESDAY, MARCH 10, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:40 p.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Cochran, Gorton, Reid, Kohl, 
and Dorgan.

                          DEPARTMENT OF ENERGY

                       Office of Energy Research

STATEMENTS OF:
        DR. MARTHA A. KREBS, DIRECTOR
        DAN W. REICHER, ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND 
            RENEWABLE ENERGY

                 OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Well, first I apologize for being a 
little bit late. We will not keep anyone too long, I do not 
think. Thank you for coming.
    Today, we are going to consider the Department of Energy's 
1999 budget request for science, magnetic fusion, and renewable 
energy. We will hear from Dr. Martha Krebs, Director of the 
Office of Energy Research. The administration has requested an 
11-percent increase in science programs for fiscal year 1999. 
To pay for these increases, the administration has proposed to 
reduce funding for water projects by $1.3 billion below the 
level required to continue ongoing projects.
    Simply put, with the $9.4 billion the President has 
proposed spending on nondefense programs within this 
subcommittee's jurisdiction, the subcommittee will have to find 
on the order of $1.3 billion for ongoing water projects if we 
are to avoid higher cost to the Government and delayed benefits 
to local interests. That means we almost certainly cannot 
provide for these proposed increases and will probably have to 
reduce some programs below their current level.
    With that said, you should know that I am a strong 
supporter of the Department's science programs and will do 
everything I can to mitigate any changes that we have to make 
to the President's budget.
    From the standpoint of your programs, I am willing to 
listen. You have some very interesting and innovative thoughts 
on the subject, and I commend you for the new position you have 
and the Department for having someone of your high 
qualifications in that position. We have not always agreed on a 
lot of things in your prior life. Maybe we can agree on a few 
more now. It might be better for you if we do. I should not 
have said that, should I? [Laughter.]
    Having said that, do you understand the dilemma we are in 
on the water projects issue?
    Senator Cochran. I do.
    Senator Domenici. I think the appropriators are now fully 
cognizant at the level above us, the full committee chairman 
level, of the very dramatic decrease in water projects. What 
has to be done, in our opinion, is probably to get us some 
additional resources for these water projects. We are very 
hopeful they will be concerned enough to consider that with us.
    I do plan in the budget, Senator Reid, so you will know, to 
make room to make some adjustments where some of that water 
money will be made available in the various functions that we 
have to take care of that in the budget resolution.
    Senator, do you have any opening remarks?

                       STATEMENT OF SENATOR REID

    Senator Reid. Mr. Chairman, I have an opening statement I 
would like to be made part of the record in its entirety.
    Senator Domenici. It will be done.
    Senator Reid. I would only say that, even though we do not 
spend a lot of time on some of these programs that we are going 
to be talking about today with these two witnesses they are 
important. I think it is one of the areas where the American 
public should be very happy that we are doing something. It has 
a lot of scientific potential. I am very glad that we are 
involved in this, and they will get my full attention. I think 
the energy research programs are extremely important for the 
future of this country.
    [The statement follows:]

                Prepared Statement of Senator Harry Reid

    This hearing today deals with some very important issues. How we 
deal with them will affect in fundamental ways our general quality of 
life. Long term economic health and vitality depend critically on 
secure access to abundant and affordable energy.
    Today's testimony addresses investments that will help determine 
what the new energy resources will be. New energy resources, and how we 
use them will be enormously important to the air we breathe and the 
water we drink. The past two decades have taught us that even our 
weather will be affected by our choice of primary energy.
    The so-called ``greenhouse'' gases from fossil fuel combustion and 
other processes can change global weather patterns in ways we cannot 
predict. Continuing ``business as usual'' guarantees that we will 
continue to add to the growing inventory of atmospheric greenhouse 
gases with consequences of unknown magnitude. Global power generation 
must turn to new fuels and to new conversion processes.
    Eighty percent of today's energy in the United States comes from 
finite and diminishing stores of natural gas, oil, and coal. Only 10 
percent of our current energy production comes from renewable resources 
that will never run out--and the majority of this renewable energy 
today is hydroelectric power, a mature resource that we are unlikely to 
develop further. So, not only must we stop adding to the greenhouse gas 
inventory, we must develop renewable resources to ensure supplies for 
the indefinite future.
    Presently, 70 percent of U.S. petroleum consumption powers our 
transportation systems, and more than 50 percent of that fuel is 
imported. By early in the next century, more than 70 percent of the 
world's oil will be supplied by countries in the Persian gulf. Such a 
monopoly on the supply side has historically led to abuses, as we 
experienced in the 1970's and early 1980's.
    In response to those abuses, we increased domestic production and 
implemented new efficiencies so that competition was restored by 
reduced import demand. Energy efficiency continues to be highly 
relevant, but by itself only delays the inevitable depletion of non-
renewable resources and only slows the accumulation of atmospheric 
greenhouse gases. So the development of more renewable resources that 
do not damage the environment is an essential part of preparing for the 
future.
    The Chairman and I represent great western states with enormous 
potential for renewable solar energy production. Solar power is 
technically feasible, but not yet economically competitive--a 
deficiency that I hope to hear today is being dealt with.
    I don't know about New Mexico, but Nevada has developed significant 
geothermal generation capability, and Nevada's distribution of 
mountains and valleys makes it ideal for wind power development. I do 
know that Sandia Laboratories in the Chairman's great state of New 
Mexico has made significant technical advances in both solar and wind 
power generation. I am looking forward to the time when I can visit the 
New Mexico Labs and see some of these things first hand.
    I welcome our witnesses today from the Department of Energy. I 
fully expect to hear wonderful things about science and technology from 
the Department that many refer to as the ``Department of Science'' 
instead of the Department of Energy. But I hope to hear also about how 
this wonderful science and technology is being harnessed and directed 
for the national benefit. What the Department does is important; how it 
is done is just interesting.
    Right this moment, we are in the middle of a technical revolution; 
one that many say is as important to the future as the industrial 
revolution has been to the present. This is an information revolution. 
It affects the ways we receive, deliver, and act on information.
    Our citizens today observe our wars when they are happening, up 
close and personal. They have international news updates on events as 
they happen, at all times of the day and night. They carry cellular 
phones, satellite-serviced pagers, lap-top computers, and the shirt-
pocket computer with a built-in modem is just around the corner.
    More than 50 percent of American homes have a personal computer, 
and most of these have an on-line service provider that allows instant 
access through the world wide web to Internet sites in all the 
countries of the world. There are some amusing moments with automated 
translators, but just the same, the world of nations is becoming a very 
large village. Electronic gossip, or ``Internet chats'' is being 
supplanted by electronic barter and electronic commerce is just 
beginning.
    The United States leads the world in developing innovations in 
communications and computations technologies. In many respects, the 
Department of Energy stimulated that leadership by requiring advanced 
computational technology for its nuclear weapons program. DOE's 
programs stimulated the computer revolution by requiring continually 
increasing computation speed and memory in digital computers. But the 
real revolution has been pretty much independent of the government. 
Business and individual citizens have driven the real revolution of 
universal connectivity provided by small personal computers and the 
Internet.
    The Federal government is investing significant effort and 
resources to accelerate this revolution through the Next Generation 
Internet Initiative. This is only one of several information technology 
initiatives in the Department of Energy.
    The business community is rapidly developing innovations that 
expand internet access through product cost reductions and through 
network assets sharing with high bandwidth carriers, like cable 
television fiber optic lines. I am concerned that the Next Generation 
Internet Initiative might be diverging from the path being defined by 
industry. If this should happen, then this would be one of those 
projects of great interest, but little importance.
    I hope that testimony today will clarify the relationships of these 
information technology initiatives and that compelling arguments can be 
presented for their continuation.
    In another matter, the President's Committee of Advisers on Science 
and Technology has recommended research investments in the key 
obstacles to nuclear power. The President's budget request reflects 
this advice in the Nuclear Energy Research Initiative.
    The United States is the world leader in nuclear technology and in 
nuclear power production. Yet, in spite of that leadership, nuclear 
power is widely held to be a dying industry in the United States.
    Apart from public fear of nuclear power, there are two overwhelming 
obstacles preventing a healthy nuclear power industry: the cost of 
nuclear power and the waste it generates.
    This industry generates exceptionally dangerous wastes that 
presently must be carefully sequestered for more than 10,000 years. 
Industry claims and Federal investments notwithstanding, there is still 
no acceptable means of managing this waste. The present program of 
geologic disposal is universally opposed by a majority of U.S. 
citizens. If the disposal site happens to be in one's own state, that 
opposition becomes virtually unanimous among those so affected.
    It does not matter what the industry says; it does not matter what 
the engineers say; and, believe it or not, it will not matter what the 
politicians say. If our United States citizens find the waste disposal 
proposition unacceptable, it will not succeed.
    Now, managing the waste of this industry is important. It is 
important if the industry is to continue, and it is just as important 
if the industry is to terminate. This feature distinguishes nuclear 
waste from all other issues surrounding nuclear energy.
    All the other obstacles to nuclear power vitality are only 
important to the continuation of the industry. They are important, but 
not as important as finding an acceptable way to manage the waste.
    I will be enormously disappointed if the Department has not 
recognized the central and overwhelming priority of acceptable 
resolution of the nuclear waste dilemma in its planning of the Nuclear 
Energy Research Initiative.
    I know that the Chairman is aware of technically feasible options 
for making this waste problem more manageable. One of those comes from 
his great lab in Los Alamos, New Mexico. This idea promises a reduction 
in the amount of waste to be sequestered by a factor of 20--instead of 
70,000 tons of radioactive material, only 3,500 tons would need to be 
managed. It would reduce the period of sequestration from more than 
10,000 years to about 300 years. The concept appears to do all this for 
not more than 20 percent of the cost of the geologic disposal program. 
Indeed, it is not at all obvious that geologic disposal would make 
sense under these new terms of waste management.
    So if the Department of Energy wants to pursue the Nuclear Energy 
Research Initiative, it needs to focus its investments on the highest 
priority problems surrounding nuclear power--and that would be finding 
an acceptable waste management path.

                       STATEMENT OF SENATOR KOHL

    Senator Domenici. Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman. I am delighted to be 
here today. I do not have an opening statement. I have a 
specific question I would like to ask at the appropriate time.
    Senator Domenici. Did you just have one?
    Senator Kohl. One single question.
    Senator Domenici. Would you like to go ahead?
    Senator Kohl. Oh, I would love to.
    Senator Domenici. And you have some other business?
    Senator Kohl. Yes.
    Senator Domenici. Then you may proceed.
    Senator Kohl. I do appreciate that. Thank you so much.

                    federal energy bank legislation

    We appreciate your willingness to testify before us today 
regarding the Department of Energy's energy and renewable 
energy programs. I would like to take this opportunity to bring 
to your attention a bill that I have introduced, the Federal 
Energy Bank Act, S. 1375. This bill creates a bank to fund the 
purchase of energy efficiency projects by Federal agencies and 
in the long run will greatly reduce the overall amount of money 
spent on energy consumption by the Federal Government.
    According to the recent Federal energy efficiency and water 
conservation study drafted by the DOE, an investment of $5.7 
billion is required through 2005 to achieve the Federal 
Government's goal of a 30-percent reduction in the Federal 
Government's energy consumption by the year 2005 as compared to 
the year 1985. The best estimate of total funding available for 
this project is $2 billion less than what we need to meet our 
goal.
    My legislation addresses this shortfall by creating a 
revolving fund that Federal agencies can use to purchase energy 
efficiency systems. The agencies would contribute 5 percent of 
their previous year's utility costs into this fund. The 
agencies would then take out loans from the bank to pay for 
energy conservation systems and pay them back as their use of 
efficient technology leads to increased energy savings.
    So, in your opinion, do you believe a revolving fund of 
this kind, designed to generate revenue to purchase energy 
conservation systems, such as the energy bank bill could help 
solve this shortfall in funding, and does the Department have a 
position on my legislation, S. 1375?
    Mr. Reicher. Senator Kohl, the Department does not 
currently have a position. We are reviewing the bill. I have 
only, to be honest with you, become aware of it in the last 
several days, and we are developing a position. We are working 
on a position with OMB.
    Let me say as a general matter, we completely agree with 
the challenge that you pose in Federal energy. The Federal 
Government spends $8 billion a year on 500,000 buildings to 
provide the energy for those buildings and to fuel our 
transportation fleet, and there is great opportunity to make 
substantial energy savings and there are a variety of ways to 
do it.
    We are in the midst of a program where we are going to 
provide contracting authority up to $5 billion through an 
energy savings company concept to make investments in energy 
retrofits in Federal buildings. That is one approach we can 
take.
    Your approach, which is not necessarily in conflict with 
that approach, may well be one that would serve an additional 
useful purpose in meeting this big challenge, which is to 
reduce Federal energy use. We will be taking a careful look at 
the bill. We will work with your staff on it and we will get 
you a position from the administration on it very quickly.
    Senator Kohl. I do appreciate that interest on your part. I 
appreciate your willingness to work on it quickly, as you said. 
We think that the bill has great merit and offers the potential 
for great savings. Thirty percent on $8 billion is $2.5 billion 
a year. So I am looking forward to working with you.
    And I thank you, Mr. Chairman.
    Senator Domenici. Senator, would you like the answers in 
the record?
    Senator Kohl. Yes; I would appreciate it.
    Senator Domenici. Would you do that as soon as you can, and 
we will put them in this record.
    Senator Kohl. Thank you.
    [The information follows:]

                        Federal Energy Bank Bill

    The proposed Federal Energy Bank Bill offers a critically needed 
means of providing funding for Federal energy management. In past 
years, the Federal sector has invested approximately $1.8 billion to 
improve energy efficiency in Federal buildings and has achieved 
cumulative costs savings to taxpayers of $5.1 billion. Typically, 
projects that are awaiting funding have the potential to return $4 in 
savings for every $1 invested. The Federal Energy Bank Bill can help 
provide funds to make those investments.
    However, the current version of the bill has a provision that 
capitalizes the Bank by taxing agencies 5 percent of their energy 
expenses in the first three years. While this would result in a net 
benefit over a long period of time, it would leave the agencies short 
of money to pay their energy expenses in those first three years. 
Agencies have expressed unwillingness to support the bill in its 
current form without some relief from the 5 percent tax.
    One excellent suggestion for overcoming this problem would be to 
allow the Federal Energy Bank to use the services of the Federal 
Financing Bank to raise the initial capital. This would be consistent 
with the Financing Bank's role of supporting other agencies' minor 
borrowing needs. The Federal Energy Bank would then make loans to 
agencies for specific energy saving projects. The borrowing agency 
would pay back the loan out of future year energy savings. Because 
Federal energy savings projects offer such high rates of savings ($4 
saved for every $1 invested), after projects are implemented and 
savings result, agencies would have access to more than enough in 
savings to repay the loans.
    A portion of the excess cost savings from each project could be 
used to establish a permanent capital fund within the Federal Energy 
Bank. This would minimize the need for further borrowing after a few 
years of Federal Energy Bank operation.
    This approach has several advantages. First, it would allow the 
Federal Energy Bank to capitalize itself only at a level consistent 
with the demand for funds from the agencies each year. Second, it would 
not require appropriations. Third, the amount funded by the Federal 
Energy Bank would not need to be held to the current limit of 5 percent 
of agencies' energy bills and would allow agencies to borrow greater 
amounts for the earlier completion of more energy saving projects.
    If the Federal Financing Bank approach is not adopted and the 
agencies are taxed 5 percent each year, the agencies will be unable to 
pay their annual energy expenses. In such a case, they will have two 
options: to seek additional funds from Congress or to take funds from 
programs critical to their mission. The agencies would face uncertain 
funding and would be unlikely to support the Federal Energy Bank 
despite its long-term promise.
    For these reasons, the Department of Energy recommends using the 
Federal Financing Bank as a funding mechanism for the initial 
capitalization of the Federal Energy Bank.

                       STATEMENT OF MARTHA KREBS

    Senator Domenici. Now, Dr. Krebs, you may proceed.
    Dr. Krebs. Thank you, Mr. Chairman. Mr. Chairman, members 
of the subcommittee: It is a pleasure to be here, and I will 
submit my written remarks for the record.
    Over the holidays as I was waiting for the administration's 
budget process to close and anticipating your return to the 
Hill, I went through a reading marathon to prepare myself. I 
happened upon a book by a man named Max DuPrie, who writes on 
leadership, and he gave me a number of ideas and quotes. The 
one I want to refer to, that particularly struck me as 
appropriate for this discussion on science and leading science 
today, goes like this:

    It's much easier to extrapolate from the past than to 
imagine what's possible in the future. Yet, the more complex 
the job, the more important it is to deal with the future, and 
the more complex the job is, the more talented the people, the 
higher you want to go on that scale of working on the future.

    The Department of Energy in all of its missions has some 
very complex jobs, critically dependent on advances in complex 
science and technology endeavors and the talents of our 
scientists and engineers. The budget for Energy Research [ER] 
in fiscal year 1999 builds on our past, but proposes new 
investments for the possibilities of the future.
    I am going to limit myself to only the major elements of 
the fiscal year 1999 ER request, and that means I will leave a 
lot unsaid. ER has a history of great science and effective 
management of scientific facility construction and operation. 
It continues and we, all of us in the administration, in the 
Department, and in the Congress, can be proud of that.
    The fiscal year 1999 budget request for Energy Research is 
about $2.7 billion, $246 million above the fiscal year 1998 
appropriation or, from my point of view, a 10-percent increase, 
but I would take 11 percent. What this means is that it is good 
news for science if we can make this happen. It builds on and 
sustains our investments and our history of large-scale 
scientific user facilities. It establishes and enhances 
research agendas that enhance science and the economy.

                       spallation neutron source

    The first topic that I want to discuss and the major 
element in that increase is the spallation neutron source at 
the Oak Ridge National Laboratory. We propose to initiate 
construction of that $1.3 billion facility with a request of 
$157 million in fiscal year 1999. It is important to note that 
in fiscal year 1999 and in the out-years the President has 
identified the increases required for the profile of that 
facility, has added them on top of our targets in fiscal year 
1999 and in the out-years.
    This facility has been on the scientific community's agenda 
explicitly since 1984 and implicitly for nearly 20 years. The 
role of neutron science and its connection with the Oak Ridge 
National Laboratory from the very discovery of neutron 
diffraction has made critical contributions to the Department's 
energy and science mission; from advanced fibers and plastics 
to catalysts, magnetic materials for efficient electric 
generators, magnetic recording tapes, and computer hard drives.
    In addition to the need and opportunity for this facility, 
we believe we are ready to start construction in the fall. The 
cost has been validated through two independent review 
processes. We have a management structure in place. Key hires 
are being recruited and other hires have been made, and the 
systems for managing the facility are being put in place.

                  climate change technology initiative

    The other major element, or a major element, of our 
initiative is related to the President's climate change 
technology initiative. That is related to work that Mr. Reicher 
will describe as well.
    In Energy Research we have $27 million added to our budget, 
$16 million in the Basic Energy Sciences Program, that relates 
to advanced materials and chemical processes associated with 
both efficiency and renewable applications. In the Biological 
and Environmental Research Program, we also have $11 million 
that is focused on natural cycles, carbon sequestration through 
natural cycles, as well as in oceans, and an increase in 
microbial genome work that has had such attention in the recent 
past.

                       scientific user facilities

    Within the budget, not quite so obvious, is our continuing 
commitment to our other unique scientific facilities. We have 
increased the budget for these facilities from $915 million to 
$1 billion. This includes facilities like Fermi and the 
Stanford Linear Accelerator Center. It includes our work at the 
Los Alamos Neutron Scattering Facility. It will provide for the 
computing capability at Fermi, Brookhaven, and Stanford in 
order to prepare those facilities for when the B-factory and 
the main injector come on board.

                        next generation internet

    Another element is the Next Generation Internet at $22 
million.
    It builds on our base activity and will allow us to 
interact with the high-speed networks, the very high-speed 
networks, being invested in by DARPA. It will also make our 
applications available to the advances that are being invested 
in now by other agencies.

                           science education

    Finally, in terms of new funding provided within this 
effort is our request for $15 million to reestablish the 
science education programs that will build on our lab assets 
and provide collaborations between the National Science 
Foundation and the Department of Education.
    I think at this point I will complete my initial comments. 
I would be happy to deal with questions on the large hadron 
collider and the fusion program, but also I understand you are 
interested in progress on the human genome.
    [The statement follows:]

                 Prepared Statement of Martha A. Krebs

    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today to present the fiscal year 1999 budget request for the 
programs supported by the Office of Energy Research (ER). In his State 
of the Union address, President Clinton spoke about how we must use 
science and technology to give the next generation the tools they will 
need for the 21st century. The Department of Energy (DOE) budget for 
fiscal year 1999 reflects that commitment by providing a $246.0 million 
increase above fiscal year 1998 for the programs in the Office of 
Energy Research. The increase will permit initiation of the Spallation 
Neutron Source (SNS), the first world class neutron source built by the 
United States in more than 30 years. In addition, ER will build on its 
existing programs to undertake increased efforts in areas of basic 
science that support efficient, clean, new technologies for the 
production and use of energy as well as the sequestration of carbon, in 
coordination with the DOE technology programs. The increase will 
sustain the availability and productivity of the Department of Energy's 
(DOE) unique scientific user facilities that serve the DOE missions as 
well as other national research needs. The University and Science 
Education program will enable DOE to utilize more effectively the human 
and scientific assets of its National Laboratories to inspire and 
educate young scientists and engineers from elementary through 
undergraduate education.
    ER's fiscal year 1999 budget request, detailed in Table 1, supports 
national laboratory, university, and industry based research in six key 
areas: High Energy and Nuclear Physics, Biological and Environmental 
Research, Basic Energy Sciences, Computational and Technology Research, 
and Fusion Energy Sciences. This support entails thousands of 
individual projects at hundreds of research facilities across the 
United States. In addition to this diverse research portfolio, ER plays 
a unique role in providing researchers, professors and students 
nationwide access to the large-scale, state-of-the-art research 
equipment and scientific user facilities that are critical to their 
scientific work. As a result, the programs help to expand the Nation's 
human and intellectual resources, continuously replenishing the 
Nation's capabilities for scientific and technological innovation.
    It is this base program that has and continues to produce the 
achievements and contributions of Office of Energy Research programs. 
The detailed budget request outlines the proposed research agenda for 
fiscal year 1999 that would continue your investment in the base 
program. Today, I would like to provide you with some of the recent 
results of that investment and share with you our vision for the 
research program and the fiscal year 1999 initiatives and priorities 
that support that vision.
    In keeping with the Government Performance and Results Act (GPRA), 
ER's fiscal year 1999 budget request includes program specific goals, 
strategies, and measures that focus our research activities and ensure 
continuity with Departmental plans and national goals. These measures 
and mechanisms will continue to be refined with use and as we benchmark 
our activities against the other federal science agencies and the best 
of the private sector.
                     energy research--serving today
    Research sponsored by the Office of Energy Research is producing 
benefits today. ER's current investments are extending the frontiers of 
knowledge and contributing to many of the Nation's most pressing 
concerns and priorities. Each year, ER research and investigators have 
been recognized by national and international scientific societies, 
magazines, and prizes.
    Nobel Prize.--The 1997 Nobel Prize in Chemistry was shared by an 
ER-supported researcher, Professor Paul Boyer, for his ``elucidation of 
the enzymatic mechanism underlying the synthesis of adenosine 
triphosphate (ATP)''. The energy cycle of all biological organisms 
involves the central molecule, ATP. The energy captured from 
photosynthesis or released from respiration is converted into ATP where 
it is used for maintenance of cells, synthesis of cellular components 
and other energy-requiring processes such as movement. ATP is 
frequently referred to as the ``energy currency'' of the cell. Dr. 
Boyer's work examined the detailed chemical reactions involved in this 
synthesis and the roles specific parts of the ATP synthase molecule 
played in the overall synthesis. Dr. Boyer's work on the synthesis of 
ATP was supported in part by the Energy Research Basic Energy Sciences 
and Biological and Environmental Research Programs and their 
predecessor organizations. This basic research into energy capture and 
use in plants and bacteria continues to advance our understanding of 
how these processes work and how they might contribute to future energy 
production and use.
    Top Scientific Breakthroughs in 1997.--Each year ``Science'' 
Magazine lists the top ten significant developments in scientific 
research. The 1997 list included three topics strongly supported by ER 
programs--synchrotrons, fullerenes and genomes. Richard Smalley's Nobel 
Prize winning discovery of fullerenes continues to generate exciting 
science at the nano- (one billionth of a meter) scale. Dr. Smalley's 
work was supported by Basic Energy Sciences and the structure of 
buckyballs and many of its derivatives were determined at ER's National 
Synchrotron Light Source and neutron scattering facilities. Today, ER 
supported research such as Lawrence Berkeley National Laboratory's 
characterization of the properties of nanotubes are a continuation of 
this research agenda. Microbial genome research, that builds on our 
capabilities and contributes to our mission, has contributed to the 
accomplishment of ``what once seemed a pie-in-the-sky goal--analyzing 
whole genomes''. Third generation synchrotron radiation sources, the 
Advanced Photon Source and the Advanced Light Source were called out 
for enabling breakthroughs in the structure of materials.
    The Advanced Photon Source (APS) completed its first year of 
operation in 1997. The floor of the APS was filled with experiments, 
many of which could not have been conducted anywhere else. Results are 
beginning to flow out of those experiments in many fields including: 
materials science and condensed matter physics, biological sciences, 
plant and environmental sciences, and geosciences. For example, a new 
structural determination and biochemical analysis of the human fragile 
histidine triad (FHIT) protein was performed at the APS during its 
first year of operation. This protein derives from a fragile site of 
human chromosome 3 that is commonly disrupted in association with 
cancer development. The unique capabilities of the APS are advancing 
our understanding of this tumor suppressor protein and a great many 
other scientific mysteries.
    In the News.--ER's advanced materials research is also contributing 
to human health. A new sensor has been invented, by researchers at 
DOE's Lawrence Berkeley National Laboratory, that makes it possible to 
instantly and inexpensively detect a wide range of biological toxins 
and common disease-causing organisms. The sensors detected cholera and 
botulism toxins, similar to those recently discovered in fruit and fast 
food hamburgers. These toxins are responsible for hundreds of American 
deaths each year. Existing tests require a 24 hour culture, but with 
development, the new sensors could, with development, be placed on 
packaging for instant and simple identification of contaminated foods 
and materials. Other sensors are being developed to detect viruses such 
as the influenza virus.
    The William R. Wiley Environmental Molecular Sciences Laboratory 
(EMSL), a unique scientific user facility for molecular-level research 
in environmental and life sciences, became fully operational on October 
1, 1997, at Pacific Northwest National Laboratory. In addition to its 
potential for breakthrough research in environmental sciences and 
remediation technologies, EMSL has advanced the concept of ``virtual 
and remote'' laboratory research.
    The Large Hadron Collider.--DOE and NSF completed negotiations with 
the European Physics Lab, CERN, regarding contributions to the Large 
Hadron Collider (LHC) accelerator and detectors as part of the U.S. 
participation in the LHC program. The enabling agreements were signed 
in December 1997. Participation will provide U.S. scientists with 
continued access to the forefront high energy physics facilities in the 
next decade.
    Partnerships.--For over 50 years, ER and its predecessor 
organizations, have demonstrated an unwavering commitment to the 
pursuit of cutting-edge scientific research. More recently, ER has 
committed to forging more effective partnerships that leverage our 
research investments and connect us more closely with other federal 
science programs and the direct beneficiaries of our research. ER is 
fostering new kinds of partnerships among its national laboratory, 
university and industry based researchers to maximize the effectiveness 
and impact of research activities. In partnership with the Department's 
applied programs, ER is also working to bridge the gap between basic 
research and application to ensure the continued relevance of our 
research portfolio and maximize the return on the taxpayers' 
investment. These partnerships include: joint planning of long-term 
research; joint solicitations and funding of targeted research efforts; 
and annual integration workshops that bring together program managers 
and researchers from across DOE. ER strives to be the premier basic 
research organization in the basic energy and natural sciences in order 
to contribute to a more secure energy future with a clean environment, 
a healthy citizenry, and a strong economy including the ability to meet 
future challenges and providing a range of energy and policy options 
necessary for future prosperity.
        fiscal year 1999 priorities--exploring the future today
    The highest program priorities in fiscal year 1999 are to move the 
U.S. toward International Leadership in Neutron Science, provide the 
scientific basis for a DOE Climate Change Technology Initiative, 
maintain Scientific User Facilities Utilization, develop DOE 
applications and technologies for the Next Generation Internet, and 
renew our commitment to Science Education to tap the human resources of 
the National Laboratories to ensure an adequate supply of scientists 
and engineers for the future.
    The Spallation Neutron Source.--Since the late 1940's, DOE and its 
predecessor agencies have been the major supporter of neutron science 
in the United States. DOE support extends from the earliest work at the 
Oak Ridge National Laboratory's Graphite Reactor in the 1940's to the 
Nobel Prize in physics in 1994 for work on neutron scattering. The 
Spallation Neutron Source (SNS) is included as a line-item construction 
project in the fiscal year 1999 President's budget at a level of $157.0 
million. The purpose of the SNS project is to provide a next-generation 
short-pulse spallation neutron source for neutron scattering and 
related research in broad areas of the physical, chemical, materials, 
biological, and medical sciences. The SNS will be a national user 
facility open to scientists from universities, industries, and federal 
laboratories. It is anticipated that the facility will support the work 
of between 1,000 to 2,000 scientists and engineers each year and that 
it will meet the national need for neutron science capabilities well 
into the next century.
    The U.S. currently lags behind both Europe and Japan in neutron 
research capability and planned foreign neutron sources threaten to 
further increase their lead. The unique information that neutrons 
provide about the hundreds of materials that we use every day affects 
us all. For example, information from neutron scattering is used by 
chemical companies to make better fibers, plastics, and catalysts, and 
by drug companies to design drugs with higher potency and fewer side 
effects. Magnetism research with neutrons has led to more efficient 
electric generators and motors and to improved materials for magnetic 
recording tapes and computer hard drives. The importance of neutron 
science for fundamental discoveries and technological development has 
been enumerated in all of the major materials science studies since the 
1970's. These include the 1984 National Research Council study ``Major 
Facilities for Materials Research and Related Disciplines'' (the Seitz-
Eastman Report); the 1993 DOE Basic Energy Sciences Advisory Committee 
(BESAC) report ``Neutron Sources for America's Future'' (the Kohn Panel 
Report); and the 1996 BESAC Report (Russell Panel Report).
    The Conceptual Design Report was prepared by a team involving 
several DOE laboratories. Lawrence Berkeley National Laboratory is 
responsible for the ion source; Los Alamos National Laboratory for the 
linear accelerators; Brookhaven National Laboratory for the compressor 
ring; and Argonne National Laboratory and Oak Ridge National Laboratory 
for the target and instrumentation. Oak Ridge National Laboratory has 
overall responsibility for the project. In preparing the Conceptual 
Design Report, the SNS project used internal technical reviews, 
international collaborations, and workshops involving technical experts 
and the user community. Technical reviews were held for the accelerator 
systems, the target station, and the conventional facilities. Four 
workshops were held on various aspects of the design and technology 
challenges. Based on the recommendations of the scientific community, 
particularly the 1996 Russell Panel Report, the SNS Conceptual Design 
was completed in June of 1997. At an initial operating power of 1 
megawatt, the design will create the most powerful spallation source in 
the world.
    We developed the conceptual design focusing on the technical 
specifics of the project and the needs of the scientific community, 
decoupled from the site preference. Cost differences associated with 
different sites will be minimal and will be associated with site 
preparation and, perhaps, minor differences in labor rates. The final 
decision on the location of the Spallation Neutron Source has not been 
made and will come in the first quarter of the calendar year 1999, 
after alternative sites are evaluated in the Environmental Impact 
Statement.
    The SNS Total Project Cost (over 7 year schedule) is $1,332.8 
million. In August of 1997, ER's Division of Construction Management 
reviewed the Design with a team of 60 experts and concluded that the 
design was credible and the costs reasonable. The DOE Independent Cost 
Estimate done by Burns and Roe, validated the cost to within less than 
1 percent. On December 23, 1997, Secretary Pena reviewed and approved 
the SNS Baseline. The fiscal year 1999 request will allow the start of 
Title I design activities, initiation of subcontracts and long-lead 
procurements, and continuation of critical research and development 
work necessary to reduce technical and schedule risks in this project.
    One of the major technology decisions--a full-energy linac with an 
accumulator ring versus a rapid cycling synchrotron--was considered in 
great detail and was the subject of numerous discussions and review. 
This was perhaps the most vigorously discussed aspect of the entire 
project. The DOE Review of the CDR summarized the findings of the 
community on this issue as follows:
    ``To address the needs expressed by the neutron community, the NSNS 
team examined the relative merits of several technology options, 
including a full-energy linac plus accumulator ring versus a lower-
energy linac plus rapid cycling synchrotron. While it was realized that 
the synchrotron option might be less expensive, the reduced technical 
risks and the flexibility for future upgrades of the full-energy linac 
and accumulator made this option a superior choice for keeping pace 
with evolving needs.''
    Oak Ridge National Laboratory was chosen as the preferred site 
because of its long standing role in developing neutron science and its 
role in applying advances in basic materials science to DOE's missions. 
The Oak Ridge Graphite Reactor was the world's first production reactor 
and first continuous neutron source. The Graphite Reactor produced an 
array of radioisotopes for defense, medicine, industry and research. 
Two Oak Ridge researchers, Clifford Shull and E.O. Wollan realized that 
the reactor's neutrons could be just as useful for probing matter as 
for transmuting it. In a series of pioneering experiments, Shull and 
Wollan used neutron diffraction, or scattering, to reveal structural 
details and magnetic properties never before seen. The science of 
neutron scattering was thus born at Oak Ridge in the late 1940's--an 
event recognized in 1994 by the award of a Nobel Prize in Physics to 
Clifford Shull. To demonstrate the State of Tennessee's backing for the 
SNS project, Governor Don Sundquist has pledged $8.0 million for a user 
support facility, which will include office space, general computing 
capabilities, and dormitory space for students.
    As neutron scattering flourished, Oak Ridge physicists developed 
and harnessed these and other powerful research tools, such as 
accelerators, in the study and manipulation of materials. The Oak Ridge 
National Laboratory High Flux Isotope Reactor is one of the world's 
most productive research reactors, capable of creating radioisotopes, 
exposing alloys to brutal radiation intensities and revealing the 
molecular architecture of plastics and magnetic materials. Oak Ridge's 
high-strength, high-temperature alloys lead to tougher power plants and 
trucks while reinforced ceramics form the world's fastest, most durable 
machining tools; and Oak Ridge radioisotopes enabled millions of home 
smoke detectors and an estimated 100 million medical diagnostic 
procedures each year. Surface-treated plastics, recently developed at 
Oak Ridge, may soon find their way into both fighter jets and credit 
cards while fundamental contributions to semiconductor science are 
already etched into every computer chip made today.
    We are organizing our management at the labs, the field offices, 
and headquarters to be ready for prompt initiation of the project in 
fiscal year 1999. Key lab management positions such as the Associate 
Laboratory Director for the SNS, the Deputy Project Director, the 
Engineering Manager, and the Science Director have been filled. Senior 
Team Leaders have been appointed at all of the participating 
laboratories. The Cost and Schedule Control System is being developed 
and will be in place before construction begins.
    In addition to project management, a Steering Committee has been 
formed, consisting of distinguished members of the neutron science 
community to provide input on instrumentation and user needs to the 
laboratory. The Megascience Forum of the Organization for Economic 
Cooperation and Development has formed a Working Group on Neutron 
Sources that includes in its scope of activities cooperation in 
research and development for new neutron sources. Agreements are 
already in place with England's Rutherford Appleton Laboratory and the 
European Spallation Source project to allow joint research and 
development.
    Climate Change Technology Initiative.--Energy drives our economy 
but also challenges environmental stewardship locally, regionally and 
globally. About 85 percent of human generated greenhouse gas emissions 
are associated with energy production and use. To control or reduce 
these emissions we must rethink our use of carbon-based fuels. New 
technologies for efficient fossil fuel use, carbon sequestration, or 
use of renewable fuels will be key. The foundation for both technology 
and policy innovation is new knowledge. Building on existing programs 
and capabilities, DOE is proposing to contribute to the President's 
Climate Change Technology Initiative by expanding its energy science 
and technology programs. The fiscal year 1999 budget request provides 
$27.0 million for Energy Research programs.
    Within the Climate Change Technology Initiative, Energy Research 
will provide the science base for new technologies that will lead to 
reduced greenhouse gas emissions. For example: fundamental materials 
science will enable low-friction, lightweight, and nano-scale materials 
that improve energy efficiency; biomimetic (biological-mimicking) 
chemistry such as artificial photosynthetic system, biochemistry, and 
molecular genetic analysis will promote low- and no-carbon emitting 
energy sources such as hydrogen; catalysis research will result in 
advanced, energy efficient chemical processes, for example, improving 
the catalytic converters in automobiles; and the natural carbon 
sequestration processes of ecological systems, such as forests and 
oceans, will be explored for possible enhancements. These topics and 
their integration into our existing programs arise from the 
recommendations of a draft report from a set of 1997 Energy Research 
workshops entitled ``Carbon Management: Fundamental Research Needs 
Assessment,'' as well as the President's Committee of Advisors on 
Science and Technology (PCAST) report on Energy R&D entitled ``Federal 
Energy Research and Development for the Challenges of the Twenty-First 
Century.''
    The expanded Energy Research efforts in carbon management will be 
closely coordinated with DOE's technology programs. Many activities 
will impact the Office of Energy Efficiency and Renewable Energy by 
providing technology options for increasing efficiency and reducing 
energy consumption. The basic research program will also provide the 
knowledge base needed to increase the use of renewable resources and 
alternate energy sources. Other aspects of the research program impact 
the Office of Fossil Energy by providing a foundation for effective and 
safe underground sequestration, enhanced natural sequestration on land 
and in the oceans, new materials, a better understanding of combustion, 
and improved catalysts. In support of this initiative the Biological 
and Environmental Research program will be increased by $11.0 million. 
This increase supports research on the determination of which 
biochemical mechanisms and natural systems of plants, interacting with 
the components of their native environments, can be induced to increase 
their net utilization of atmospheric carbon dioxide, thus reducing 
carbon dioxide in the atmosphere. Ocean sequestration of carbon will be 
studied to identify and enhance key pathways by which marine 
microorganisms sequester carbon in the oceans. The microbial genome 
program will sequence the genomes of methane-producing and hydrogen-
producing microbes. The microbial sequences will enable the 
identification of the key genetic components of the organisms that 
regulate these gases. Once we identify and understand more fully how 
the enzymes and organisms operate, we will be able to evaluate their 
potential use in producing methane or hydrogen from either fossil fuels 
or other carbon sources, including biomass and perhaps some waste 
products. For instance, recently discovered ``extremophile'' organisms 
could be used to engineer biological entities that could ingest a 
feedstock like methane, split off carbon dioxide for sequestration, and 
give off hydrogen. This activity capitalizes on the significant 
accomplishments of our genome investments that have increased 
sequencing rates and capabilities and on our unique work in microbial 
genome sequencing.
    The Basic Energy Science program will be increased by $16.0 million 
in materials sciences, chemical sciences, geosciences, and energy 
biosciences. Investments in materials sciences will enable the 
derivation of new and improved materials for: more efficient 
combustion; improved performance and corrosion resistance in high 
temperature applications; reduced energy loss from magnetic materials; 
and improved efficiency in the conversion of light to electricity. 
Basic research in chemical sciences for carbon management includes 
multidisciplinary efforts to reduce carbon dioxide emissions through 
catalytic and photochemical reduction of carbon dioxide to specialty 
chemicals or hydrocarbons and improved fundamental understanding of the 
chemistries of combustion to improve combustion and reduce emissions. 
Geoscience will support basic research in areas of geophysics and 
geochemistry, that impact carbon dioxide sequestration in subsurface 
geologic formations. In energy biosciences, there are a number of 
unexplored opportunities in photosynthesis that complement the current 
work in the biophysics and biochemistry of energy capture. Studies in 
this area are central to understanding global carbon cycling.
    Scientific Facilities Utilization.--Each year, over 15,000 
university, industry, and government sponsored scientists conduct 
cutting edge experiments at these large and small user facilities that 
include particle accelerators, neutron sources, synchrotron light 
sources, and smaller facilities. To meet the demand for operating time 
and to improve research capabilities at existing facilities, the 
Science Facilities Utilization Initiative began in fiscal year 1996. In 
fiscal year 1999 we maintain the Science Facilities Utilization 
Initiative with a renewed commitment to operate our facilities and 
sustain adequate operating levels. An increase of $84.8 million in 
fiscal year 1999 will raise total ER support for facilities to $1.0 
billion. The increase will enable ER to sustain or expand utilization 
of scientific user facilities nationwide throughout the Basic Energy 
Sciences, High Energy Physics, Nuclear Physics, Biological and 
Environmental Research, and Computational and Technology Research 
programs.
    In Basic Energy Sciences, the fiscal year 1999 request includes 
$317.0 million to maintain support of the scientific user facilities, 
an increase of $46.3 million. This funding includes increases for the 
synchrotron radiation light sources and for the neutron scattering 
facilities to adjust for increased cost-of-living expenses. In 
addition, in accord with the highest recommendations of the Basic 
Energy Sciences Advisory Committee (BESAC) Panel on Synchrotron 
Radiation Sources and Science (the Birgeneau Panel), additional funds 
are provided to the National Synchrotron Light Source for increased 
support for users and to the light source community for instrumentation 
and beamline construction at the light sources; the latter funds will 
be allocated via peer review. Research and development in support of 
Spallation Neutron Source (SNS) construction is increased and is 
included in the Science Facilities Utilization Initiative increase. 
Finally, increased research activities are planned for the Combustion 
Research Facility, which will complete construction of Phase II in 
fiscal year 1999. These increases were made possible because, in fiscal 
year 1999, all funds associated with the SNS were added as an increment 
above the base program. Research communities that have benefitted from 
the BES supported Science Facilities Utilization Initiative include 
materials sciences, chemical sciences, earth and geosciences, 
environmental sciences, structural biology, superconductor technology, 
medical research, and industrial technology development.
    For High Energy and Nuclear Physics (HENP), the Scientific 
Facilities Utilization Initiative has meant a focus on providing 
funding for a high level of operation of the accelerator facilities. 
For optimum scientific progress in HENP, a balanced strategy is 
essential. Operation of facilities, support for the (mostly university 
based) researchers using the facilities, and support for R&D and 
fabrication of facility upgrades for enhanced future capabilities must 
be carefully balanced. An increase of $36.6 million in HENP in fiscal 
year 1999, will ensure aggressive and successful commissioning and 
improve the computing capability at the Stanford Linear Accelerator 
Center's (SLAC) B-factory, the Fermilab Main Injector, and the 
Brookhaven National Laboratory Relativistic Heavy Ion Collider (RHIC) 
in order to increase the productivity of users when these facilities go 
on-line. Some of the increase will go to university groups to improve 
their productivity on site. In addition, this funding will provide for 
about 26 weeks of operation of the Alternating Gradient Synchrotron 
(AGS) at Brookhaven for High Energy Physics research. The transfer of 
the AGS to the Nuclear Physics program for use as the injector for RHIC 
will occur during the 3rd Quarter and RHIC operations will begin in the 
4th Quarter of fiscal year 1999.
    Scientists supported under the President's Climate Change 
Technology Initiative will have the opportunity to take advantage of 
the unique research capabilities provided by Energy Research. For 
example, research results from the Climate Change Technology Initiative 
on methane and hydrogen producing microorganisms and on marine 
microorganisms will develop, in part, through structural biology 
studies conducted at the DOE light sources. They will also extend the 
use, and develop new applications and techniques, of the range of 
spectroscopies available at both the synchrotron sources and the 
William R. Wiley Environmental Molecular Sciences Laboratory, to be 
able to identify and quantify species critical to carbon fixation in 
model and natural systems, as well as within plant roots, soil 
particles, bacteria, and other components of the ecological system 
involved in the carbon fixation processes. In addition, Climate Change 
Technology Initiative researchers will make use of Energy Research's 
Free Air Carbon Dioxide Enhancement Experiment and the AmeriFlux carbon 
network.
    The user community is extremely pleased with the results of the 
Scientific Facilities Utilization Initiative as seen in many letters 
and customer surveys. However, the full impact of the Initiative has 
not yet been realized since new beamlines and instrumentation are not 
yet fully operational. Many of the funding commitments for 
instrumentation are spread over multiple years and continued support in 
fiscal year 1999 is important to the success of this Initiative.
    The Next Generation Internet.--Key to the solution of large complex 
multidisciplinary problems is the ability to maintain strong 
communications and collaborations among researchers in remote 
locations. As the complexity of problems and the importance of 
international collaboration grows, it increases the need to communicate 
and transmit massive amounts of data. DOE currently utilizes advanced 
networks to provide thousands of remote users nationwide with access to 
its large, unique computer facilities. In addition, DOE uses the 
internet to link researchers in universities, laboratories, and 
industry who are working to solve the multidisciplinary problems that 
underpin the DOE mission. These problems include computing the effects 
of greenhouse gases on global warming, designing the next generation of 
clean diesel engines, and guaranteeing the safety of the nuclear 
stockpile. As a result, DOE's projected data transmission requirements 
of about a thousand-trillion bytes per year (peta bytes/year) will 
critically stress existing internet capabilities.
    The Next Generation Internet (NGI) is important to DOE because we 
support thousands of teams of researchers spread across the world. The 
NGI network capabilities and services are necessary to advance mission-
critical applications in our science and technology programs that are 
carried out through collaborations between remote institutions. Without 
the NGI, DOE will not make the kind of progress on its mission-critical 
programs that NGI funding will enable. Accessing and visualizing large 
scientific data sets are critical to the future of high energy and 
nuclear physics, genome research, and other DOE programs. Prompt 
development and integration of NGI technologies and infrastructure is 
absolutely essential for making DOE's unique online facilities, 
supercomputers, and data sets securely and efficiently available to 
remote researchers.
    In addition, DOE participation is important to NGI because adapting 
our scientific applications to the advanced NGI technologies and 
networks will provide the important tests for stressing the new network 
technologies. If DOE researchers are not on the NGI networks then these 
tests cannot occur. DOE's ESnet is one of the most advanced research 
networks supported by the federal government. A critical issue for the 
NGI will be testing the interconnection of high speed and advanced 
capability networks of different kinds. If ESnet is not involved, that 
goal of the NGI program will be seriously hampered. DOE applications 
require advanced production network services, as well as the ability to 
``live in the future'' through the early use of experimental 
technologies. In order to concurrently satisfy these competing goals 
and remain fiscally responsible, DOE will have to support both types of 
traffic on as much of the same network infrastructure as possible. 
Other agencies and the university community face the same problem, and 
therefore will directly benefit from DOE's work in this area. DOE's NGI 
research and development of intelligent middleware for DOE applications 
will also benefit other ``application agencies,'' such as NASA, NIH, 
and NSF, as well as university applications.
    The fiscal year 1999 request includes $22.0 million for the DOE NGI 
program. This program has three major components: core network 
research, enhancements through intelligent software and ``middleware'' 
[software between the computer operating system and the network 
application to allow the two to work together properly], and a new DOE- 
University partnership that enhances the collaborative application 
environment through joint DOE-University NGI technology development and 
deployment. All of these components cut across and make contributions 
to the three NGI goals of technology development, advanced testbed 
infrastructure, and revolutionary applications. The Core Network 
Research component focuses on developing new technologies and 
capabilities to be integrated into the network infrastructure. The 
middleware component focuses on providing easy-to-use interfaces and 
software to DOE's applications so that they can ascertain the status of 
the network and then intelligently and dynamically make the best use of 
that infrastructure to support their application. DOE will enhance DOE-
University collaborative research on DOE mission critical applications 
by defining a new NGI-based partnership. This partnership will focus on 
jointly developing NGI technologies, accelerating the establishment of 
end-to-end DOE Laboratory to Campus network and testbed 
infrastructures, and adapting DOE application codes at both the labs 
and universities to support DOE programs.
    Science Education.--The ER programs support university faculty, 
graduate students and post-docs in specific areas as part of their 
ongoing research efforts. ER also operates its unique research 
facilities for the peer reviewed use of university scientists. However, 
the scientific and technical challenges of the DOE missions demand the 
availability of an adequate and diverse supply of excellent scientists, 
engineers, and technicians for the future. Therefore, the Department 
also uses the resources of its national laboratories to provide hands-
on research opportunities to undergraduate students and faculty, and to 
K-12 teachers to contribute to the national effort to improve math and 
science education.
    In line with this educational philosophy, ER's fiscal year 1999 
budget includes a modest request to support University and Science 
Education (USE) programs aimed at maintaining a diversity of students 
in the science pipeline from small colleges and universities and 
minority serving institutions across the country. The Department has 
requested $15.0 million to reestablish this effort and provide a focus 
for DOE corporate investments in the next generation of scientists and 
engineers in support of DOE missions. The proposed USE program will 
support activities that utilize DOE resources in partnership with other 
agencies thereby ensuring against duplication of efforts. For example, 
DOE is working with the National Science Foundation and the Department 
of Education to leverage our substantial investments in science and 
technology facilities and personnel in support of national goals in 
science education. By opening the National Laboratories to students and 
teachers, providing them with hands-on research opportunities and other 
technical tools, DOE fills an important gap in math and science 
education across the nation. The internet provides an excellent 
opportunity for DOE to utilize its scientific infrastructure to advance 
science education with minimal capital and opportunity costs. The 
proposed USE program will make extensive use of internet tools both for 
outreach and coordination.
    The DOE fiscal year 1999 education initiative is extremely 
important and vital to help improve our nation's understanding of 
science. In particular our kids and teachers. The Secretary has set an 
agenda, in partnership with the National Science Foundation that will 
help train thousands of teachers in science and technology and also 
develop a mechanism to distribute this knowledge via the internet.
    The Large Hadron Collider.--On December 8, 1997, the Secretary of 
Energy and the Director of the National Science Foundation took on a 
historic, national responsibility when they, and the President of the 
CERN Council and the Director General of CERN, signed the 
``International Co-operation Agreement Concerning Scientific and 
Technical Co-operation on Large Hadron Collider Activities''. The LHC 
Agreement represents the largest commitment ever made by DOE and NSF to 
an international project overseas. We realize that this unique project 
poses new management challenges, and have, in partnership with NSF, 
taken steps to ensure effective coordination and strong leadership of 
the U.S. part of the LHC project.
    DOE, NSF and CERN have established a management structure that 
looks at the U.S. contributions from the various perspectives entailed 
in an international research program. The Agreement with CERN 
established a Co-operation Committee to monitor and facilitate 
activities with annual meetings beginning this spring. DOE and NSF are 
now official Observers at the CERN Council, the governing body of CERN. 
As Observers, DOE and NSF receive the same information and reports as 
Member State delegates on the LHC Project, and can influence the 
deliberations of the Council on the LHC. By being part of the Committee 
of Council, a closed session of the CERN Council which meets quarterly, 
DOE and NSF now have the capability (and the forum) to discuss 
privately LHC concerns with CERN management. DOE and NSF also have full 
membership in the Resource Review Boards that monitor and oversee 
resource matters related to LHC experiments.
    DOE and NSF are forming a Joint Oversight Group, the decision-
making body that will be responsible for the joint co-ordination, 
oversight and programmatic direction of DOE and NSF activities 
regarding the U.S. LHC effort. Its purpose is to ensure that the 
commitments made to CERN (and the U.S. Congress) under the Cooperation 
Agreement and Protocols are met in a timely and effective manner, and 
that DOE and NSF are reliable, predictable, and credible international 
partners with CERN and with the Compact Muon Solenoid (CMS) detector 
and ATLAS (A Torroidol LHC ApparatuS) detector collaborations. A U.S. 
LHC Program Manager located at DOE Headquarters and a U.S. LHC Project 
Manager located at Fermilab, both federal employees, will support the 
work of the Joint Oversight Group. Reporting to the U.S. LHC Program 
and Project Managers are the individuals with the technical expertise 
and experience to design, build and operate the in-kind contributions 
that are part of the U.S. LHC effort.
    Under the LHC Agreement, DOE is to contribute $200.0 million worth 
of goods and services for the LHC accelerator over ten years. The U.S. 
LHC Accelerator Project Manager, an employee of Fermilab, is 
responsible for the programmatic coordination and management of the 
$110.0 million worth of high-tech hardware for the technically 
challenging LHC Interaction Regions to be built by Brookhaven National 
Laboratory, Fermilab and the Lawrence Berkeley National Laboratory and 
for advising DOE on the $90.0 million worth of procurements from U.S. 
industry.
    The ATLAS and CMS detectors are being built by international 
Collaborations in close coordination with CERN. DOE and NSF will 
provide $250.0 million and $81.0 million respectively for goods and 
services for the ATLAS and CMS detectors, with most of those funds 
provided to U.S. universities. DOE and NSF communicate and interact 
with these Collaborations primarily through the ATLAS and CMS Resources 
Review Boards convened by CERN and through the U.S. ATLAS and U.S. CMS 
Project Managers, non-federal employees situated, respectively, at 
Brookhaven and Fermilab. Currently, they are completing Project 
Management Plans which delineate the organization and distribution of 
management responsibilities within the U.S. ATLAS and U.S. CMS efforts.
    In December 1997, LHC management informed the CERN Council that the 
project is advancing according to schedule and within budget. DOE and 
NSF are active members of the collaboration with a management structure 
in place to assure responsible stewardship for the resources devoted to 
this effort.
    ITER and the Fusion Transition.--In fiscal year 1999, the fusion 
energy sciences program will continue the restructuring recommended in 
1996 by the Fusion Energy Advisory Committee to a program that 
emphasizes science, with a long-term energy goal. In fulfilling our 
mandate to restructure the program, we have shut down the Tokamak 
Fusion Test Reactor (TFTR) after obtaining significant scientific 
results and setting a world record for the production of fusion energy. 
The money saved by shutting down TFTR is being used for an initiative 
in plasma science that introduces young scientists with fresh ideas 
into the program. In addition, a reinvigorated program of research on 
alternative fusion concepts and better use of our remaining tokamak 
facilities has been put in place.
    International cooperation is, and will continue to be, a vital part 
of our fusion program. It is essential to our ability to participate in 
large scale experiments and to advance the energy goal of the fusion 
program. We plan to expand our collaborative activities with our 
partners as long as such collaborations are beneficial to the 
restructured program.
    The largest of our international fusion activities, the 
International Thermonuclear Experimental Reactor (ITER) project, has 
proven to be a valuable focusing element for our program both in terms 
of the technical product, which is excellent, and the process by which 
we work together. In July 1998, the ITER Agreement between the United 
States, the European Union, Japan and the Russian Federation for 
conducting the Engineering Design Activities (EDA) is scheduled to 
expire. The four ITER Parties are working toward an extension of the 
Agreement for three years to continue international collaborations in 
fusion, including the additional activities that may be required to be 
ready for construction decisions in the 2000-2001 time frame in case 
there is the interest to proceed.
    The four ITER Parties are coming to the view that we should plan 
now to evaluate possibilities for reducing the cost of ITER, in the 
event that the parties are financially unable to proceed with 
construction of the current design. Therefore, for fiscal year 1999, 
the U.S. will refocus its ITER contribution toward the evaluation of a 
variety of lower-cost design options while reducing our participation 
in ITER baseline design activities.
    The restructuring of our participation in ITER will allow further 
reallocation of funds to high priority science and technology 
activities in the fiscal year 1999 budget. Enhanced science activities 
include increased research operations and modifications to the Alcator 
C-MOD and DIII-D experiments, additional alternate concept experiments, 
and increases in theory efforts, collaborations on existing experiments 
overseas, and plasma science initiatives. With the restructuring of our 
participation in ITER, we are refocusing most of our technology efforts 
on the needs of existing and planned domestic and international 
experiments. Much of these efforts will likely be beneficial to ITER as 
well. The remainder of our technology effort will focus on providing 
the knowledge base needed in the longer term for an attractive fusion 
energy source.
    In particular, we have started a coordinated national effort on a 
facility that will be located at the Princeton Plasma Physics 
Laboratory (PPPL). This facility, the National Spherical Torus 
Experiment (NSTX), is a proof-of-principle scale, innovative fusion 
concept experiment with exciting scientific potential. During the past 
year, PPPL and its collaborators, Oak Ridge National Laboratory, 
Columbia University, and the University of Washington, have made rapid 
progress on completing the design and initiating component fabrication 
for the NSTX. Their work is on schedule and within budget; we expect to 
begin operations in mid-fiscal year 1999. Work has also begun to form 
an NSTX national research team through an open solicitation process 
whereby scientists across the country have been invited to participate 
in various topical areas of research. In addition, scientific 
collaborations are continuing to develop between NSTX and similar 
efforts on spherical torus research in England and Russia, where 
complementary experiments will begin operations at about the same time.
                              conclusions
    The significant increase in the fiscal year 1999 budget for the 
Office of Energy Research recognizes the critical role that fundamental 
knowledge plays in achieving the mission of the Department as well as 
for the general advancement of the Nation's economy and the welfare of 
its citizens. The SNS, the Scientific Facilities Utilization, and Next 
Generation Internet initiatives will build upon and sustain the 
Department's role in the development and operation of large, unique 
scientific instruments and facilities. The Energy Research part of the 
President's Climate Change Technology Initiative will provide 
fundamental knowledge for a long term portfolio of clean, efficient 
energy technologies. On behalf of the Administration and the 
Department, I am pleased to present this budget for Energy Research 
programs and welcome the challenge to deliver the required results.
                                 ______
                                 

                               Attachment

             the programs of the office of energy research
Fiscal year 1998 appropriation--$2,474.7 million; fiscal year 1999 
        request--$2,720.5 million
    The Energy Research budget request of $2,720.5 million for fiscal 
year 1999 is shown in Table 1. Energy Research is seeking $836.1 
million for its Basic Energy Sciences (BES) program, $392.6 million for 
its Biological and Environmental Research (BER) program, $691.0 million 
for its High Energy Physics (HEP) program, $332.6 million for the 
Nuclear Physics (NP) program, $228.2 million for the Fusion Energy 
Sciences (FES) program, and $160.6 million for Computational and 
Technology Research (CTR). The request also includes $15.0 million for 
the University and Science Education program, $21.3 million for the 
Multiprogram Energy Laboratories Facilities support program, $39.9 
million for Energy Research Program Direction, and $1.0 million for 
Energy Research Analyses, and $9.8 million for the Technical 
Information Program. Prior year Superconducting Super Collider funds in 
the amount of $7.6 million not needed for termination activities are 
used to offset the fiscal year 1999 appropriation request.
                         basic energy sciences
Fiscal year 1998 appropriation--$667.3 million; fiscal year 1999 
        request--$836.1 million (Figure 1)
    The Basic Energy Sciences (BES) program fosters and supports 
fundamental research in the natural sciences and engineering leading to 
new and improved energy technologies and to understanding and 
mitigating the environmental impacts of energy technologies. The BES 
program obtains fundamental knowledge by supporting innovative, peer-
reviewed basic research in areas important to the Department of Energy 
mission (see Figure 1).

                    Figure 1.--Basic Energy Sciences

                        [In millions of dollars]

Construction...................................................... 132.4
Engineering and Geosciences.......................................  44.4
Materials Sciences................................................ 417.2
Chemical Sciences................................................. 209.6
Energy Biosciences................................................  32.5
                        -----------------------------------------------------------------
                        ________________________________________________
      Total....................................................... 836.1

    The BES program is a principal sponsor of fundamental research in 
the U.S. and funds more than 2,400 researchers at 200 institutions 
nationwide. In fiscal year 1997, principal investigators funded by BES 
won 70 major prizes and awards sponsored by 34 professional societies, 
and 57 BES-supported researchers were newly elected Fellows of 24 
professional societies. In addition, ten principal investigators became 
members of the National Academy of Sciences in 1997, and five were 
inducted to the National Academy of Engineering. Paramount among the 
honors for BES in fiscal year 1997 were Nobel Prizes. The 1997 Nobel 
Prize in Chemistry, shared by BES researcher Paul D. Boyer, was the 
fourth Nobel Prize awarded to BES principal investigators in the four 
years.
    The BES program supports the missions of the Department of Energy 
(DOE) by promoting the transfer of the results of basic research to 
contribute to DOE missions in areas of energy efficiency, renewable 
energy resources, improved use of fossil fuels, reduced environmental 
impacts of energy production and use, science-based stockpile 
stewardship, and future fusion energy sources by using established 
management practices to link BES staff and BES-supported principal 
investigators with their counterparts in the energy technology offices 
and in industry. For example, such practices include co-funding and 
collocating basic research programs supported by BES with applied 
research programs supported by the technology offices at DOE 
laboratories. In addition, the Partnerships for Academic-Industrial 
Research (PAIR) Program, to be initiated in fiscal year 1999, will link 
basic researchers in academia with those in industry.
    To fulfill its mission, the BES program plans, constructs, and 
operates premier national scientific user facilities to serve 
researchers at universities, national laboratories, and industrial 
laboratories, thus enabling the acquisition of new scientific 
knowledge. These facilities include synchrotron radiation light 
sources, high-flux neutron sources, electron-beam microcharacterization 
centers, and specialized facilities such as the Combustion Research 
Facility. BES encourages use of these facilities in areas important to 
BES and also in areas that extend beyond the scope of BES activities, 
such as structural biology, environmental science, medical imaging, 
rational drug design, micromachining, and industrial technologies. Open 
to all qualified researchers, BES facilities have more than 5,000 
users, including scientists from about 100 U.S. companies.
    The BES program ensures stable research communities in critical 
areas to maintain our domestic ability to respond quickly and 
appropriately to national needs and scientific opportunities. For 
example, BES serves as the nation's primary or sole supporter of such 
important subdisciplines as heavy element chemistry, natural and 
artificial solar energy conversion, catalysis, organometallic 
chemistry, combustion related science, separations science, neutron 
science, radiation chemistry, and radiation effects in materials.
    A BES initiative in Complex and Collective Phenomena will be 
expanding the frontiers of basic research in fiscal year 1999. Research 
under this initiative is intended to be revolutionary rather than 
evolutionary, and it is expected to involve multidisciplinary and/or 
interdisciplinary efforts. Further the Complex and Collective Phenomena 
initiative is expected to bridge the gap between an atomic level 
understanding and a continuum mechanics understanding of complex and 
collective phenomena. For example, understanding materials that involve 
collective phenomena--such as superconductivity--will help to develop 
revolutionary new materials that are needed for the next generation of 
energy technologies.
    Materials Sciences.--The Materials Sciences subprogram supports 
basic research in condensed matter physics, metals and ceramics 
sciences, and materials chemistry. This basic research seeks to 
understand the atomistic basis of materials properties and behavior and 
how to make materials perform better at acceptable cost through new 
methods of synthesis and processing. Basic research is supported in 
corrosion, metals, ceramics, alloys, semiconductors, superconductors, 
polymers, metallic glasses, ceramic matrix composites, non-destructive 
evaluation, magnetic materials, surface science, neutron and x-ray 
scattering, chemical and physical properties, and new instrumentation. 
Ultimately such research leads to the development of materials that 
improve the efficiency, economy, environmental impact, and safety in 
energy generation, conversion, transmission, and use.
    In fiscal year 1999, the Materials Sciences subprogram will support 
research routes to improved carbon management in support of the Climate 
Change Technology Initiative which include: reducing fuel consumption 
(and consequently emissions) via higher temperature operation through 
the use of improved heat and corrosion resistant alloys; reducing 
energy losses in motors via improved magnetic materials; and displacing 
fossil fuels with higher-efficiency photovoltaic cells. Materials 
Sciences research under the Complex and Collective Phenomena initiative 
in fiscal year 1999 will focus on new classes of magnetic materials and 
their behavior in thin films and layered arrangements; new classes of 
alloys; and an increased understanding of mechanical behavior between 
the atomic scale and the macroscopic continuum model.
    Chemical Sciences.--The Chemical Sciences subprogram has two major 
components. One major component is comprised of atomic, molecular and 
optical physics; chemical physics; photochemistry; and radiation 
chemistry. This research enables the production of more efficient 
combustion systems with reduced emissions of pollutants, and it also 
broadens our knowledge of solar photoconversion processes resulting in 
new, improved systems and production methods. The other major component 
of the research program is comprised of inorganic chemistry, organic 
chemistry, analytical chemistry, separations science, heavy element 
chemistry, and aspects of chemical engineering sciences. This research 
has resulted in improvements to known catalytic systems for the 
production of fuels and chemicals; better analytical methods for 
applications in energy processes and environmental sciences; and new 
knowledge of actinide elements and separations important for 
environmental remediation and waste management.
    In fiscal year 1999, as part of the Climate Change Technology 
Initiative, chemical physics and photochemistry will provide knowledge 
that enables more efficient combustion, a new understanding of the 
photochemical conversion of CO<INF>2</INF> and the direct conversion of 
solar radiation to electricity. Separations science, physical chemistry 
and inorganic chemistry enable new catalysts for converting fuels to 
carbon dioxide and hydrogen; carbon dioxide conversion to chemicals, 
separation of the conversion components; and new electrochemical energy 
production and storage systems. Chemical Sciences research in fiscal 
year 1999 under the Complex and Collective Phenomena initiative would 
fall in the areas of atomic, molecular and optical physics with a focus 
on scaling in space and time, functional synthesis, and improved 
photochemical processes.
    Engineering and Geosciences.--In Engineering Research, the goals 
are to extend the body of knowledge underlying current engineering 
practice to create new options for improving energy efficiency and to 
broaden the technical and conceptual knowledge base for solving the 
engineering problems of energy technologies. In Geosciences Research, 
the goal is for fundamental knowledge of the processes that transport, 
concentrate, emplace, and modify energy and mineral resources and the 
byproducts of energy production. The research supports existing energy 
technologies and strengthens the foundation for the development of 
future energy technologies to improve efficiency, reduce pollution, and 
increase energy supplies, while improving the effectiveness of 
environmental remediation.
    In fiscal year 1999, the Geosciences Research program will 
contribute to the Climate Change Technology Initiative by providing the 
science for improved characterization of subsurface formations and 
their host potential for carbon dioxide sequestration. Geomechanical 
studies and research on rock-fluid interactions will support carbon 
dioxide injection technologies, reservoir storage capacities, and long-
term storage stability. Research concerning the physics of multiphase 
flow in fractured rock systems will provide the basis not only for 
advancing the predictability of terrestrial carbon dioxide 
sequestration, but also for providing the basis for improved efficiency 
of fossil energy and geothermal energy production. Research on Complex 
and Collective Phenomena in fiscal year 1997 will address: the coupling 
between geochemical, hydrodynamic, mechanical, and thermal processes in 
shallow crustal conditions; the effects of heterogeneity and scale on 
geological structures, transport processes, and properties; and non-
linear controls in processing.
    Energy Biosciences.--The Energy Biosciences subprogram supports 
research to provide a basic understanding of the biological phenomena 
associated with the capture, transformation, storage and utilization of 
energy. Research on plants and non-medical microorganisms focuses on a 
range of biological processes including photosynthesis, bioenergetics, 
primary and secondary metabolism, the synthesis and degradation of 
biopolymers such as lignin and cellulose, anaerobic fermentations, 
genetic regulation of growth and development, thermophily, e.g., 
bacterial growth under high temperature, and other phenomena with the 
potential to impact biological energy production and conversion.
    In fiscal year 1999, the Climate Change Technology Initiative will 
be focused on plant science and fermentative microbiology. Biological 
systems, particularly plants, algae, and microbes, play a major role in 
the capture and release of atmospheric carbon dioxide. The biological 
processes of carbon dioxide fixation offer numerous possibilities for 
reducing atmospheric carbon dioxide levels such as recycling the carbon 
or providing fixed carbon for longer term sequestration. Research in 
Complex and Collective Phenomena in fiscal year 1999 will examine the 
fundamental nature of interactions between the biological 
macromolecules responsible for self-assembly and the effects of their 
intercommunication.
                 biological and environmental research
Fiscal year 1998 appropriation--$405.9 million; fiscal year 1999 
        request--$392.6 million (Figure 2)
    The Biological and Environmental Research (BER) Program provides 
fundamental science to support the Department of Energy missions. 
Through its support of peer reviewed research at national laboratories, 
universities, and private institutions, the program develops the 
knowledge needed to identify, understand, and anticipate the long-term 
health and environmental consequences of energy production, 
development, and use. The goal of the BER program is to develop the 
information, scientific ``know-how,'' and fundamental science that 
underpins new technologies used in the pursuit of detailed 
understanding of the consequences to health and the environment of 
energy production, development and use.

            Figure 2.--Biolgoical and Environmental Research

                        [In millions of dollars]

Medical Applications..............................................  43.9
Environmental Remediation.........................................  67.5
Environmental Processes........................................... 119.2
Life Sciences..................................................... 162.0
                        -----------------------------------------------------------------
                        ________________________________________________
      Total....................................................... 392.6

    The integrated, cross-disciplinary nature of the BER program is 
reflected in its division into four subprograms: Life Sciences, 
Environmental Processes, Environmental Restoration, and Medical 
Applications and Measurement Science.
    Life Sciences.--During fiscal year 1999, the Department's Human 
Genome Program (HGP) will continue its major emphasis on enhancing 
automated high-throughput DNA sequencing. Fiscal year 1999 will be the 
first year of full operation for the DNA sequencing factory in Walnut 
Creek, California that will begin operation in August 1998. We are 
excited by a new partnership between leading genome scientists at our 
nation's universities and Department of Energy laboratories that will 
provide additional technology, expertise and resources to the 
Department's Joint Genome Institute and its DNA sequencing factory. Our 
sequencing goal for fiscal year 1999 of 40 million bases of DNA is 
double our fiscal year 1998 goal, indicating our serious commitment to 
sequence our share of the total human DNA as part of the U.S. and 
international genome programs.
    As more of the human genome is sequenced there will be an 
increasing need for tools that lead to a rapid understanding of the 
organization, regulation, and function of the human genome. The fiscal 
year 1999 request provides for the development of some of these tools 
by taking advantage of rapid progress that has been made in discovering 
and understanding the function of new genes in experimental organisms 
such as yeast, the fruit fly, and the mouse.
    Fiscal year 1999 will be another year for rapid and exciting 
progress in our Microbial Genome Program. This past December, 
``Science'' magazine identified microbial genomics as one of this past 
year's top 10 fields of discovery. In addition, three of last year's 
``Hottest 11 Papers in Biology'', based on the number of times the 
papers were cited in the scientific literature, described the complete 
genomic sequencing of microbes, two of which were funded by BER. The 
DOE program has supported the sequencing of six of the 13 bacteria 
whose DNA have been completely sequenced. We plan to complete the 
sequencing of up to seven additional microbes this year and will be 
well underway to completely sequencing eight more microbes in fiscal 
year 1999. These sequencing projects include bacteria important in the 
remediation of organic pollutants and toxic metals and that process 
carbon monoxide and produce hydrogen or methane.
    As the complete genomic sequences of microbes are determined, the 
DNA sequences are also analyzed, or annotated, to identify all the 
potential genes encoded in their DNA and to get clues about their 
potential functions. This annotation of the microbial genomes is a 
critical and fascinating part of the Microbial Genome Project. More 
than half of the genes identified in these newly sequenced microbes are 
unrelated to any genes that have previously been discovered. These new 
genes represent exciting opportunities for future basic research and 
potential sources of biological resources to be ``mined'' for future 
use.
    Fiscal year 1999 will also see a linkage with the Microbial Genome 
Program as we focus on the genetic characterization of methane and 
hydrogen producing microbes that can be exploited in the development of 
useful and efficient non-fossil fuel sources and on microbes that can 
be induced to increase their natural carbon sequestration capabilities.
    The fiscal year 1999 request provides for structural biology 
research to continue developing and supporting DOE national user 
facilities for scientists to learn the molecular structure of important 
biological molecules, such as enzymes, antibodies, or other proteins. 
These facilities, used by scientists from universities, industry, and 
national laboratories, are critical tools in applications ranging from 
energy production to environmental remediation. They also provide a 
means for better understanding the mechanism of action of current drugs 
and for the design of new drugs to control or treat a variety of 
diseases.
    The fiscal year 1999 request provides for the development of new 
molecular-based tools for health surveillance, biological dosimetry, 
and individual susceptibility determination to understand and 
characterize the risks to human health from exposures to low levels of 
radiation and chemicals both at home and at work. An emphasis is placed 
on research that utilizes the unique resources and tools developed in 
the Department's human genome, structural biology, and cellular and 
molecular biology programs.
    Environmental Processes.--The Environmental Processes program 
conducts research on a range of issues related to the mission of the 
U.S. Global Change Research Program. Thus, activities are focused on 
understanding and predicting the potential consequences on climate and 
ecological health of energy-related emissions, especially carbon 
dioxide, from fossil fuel combustion.
    As the major federal agency supporting research into climate 
predictions on the decade-to-century time scale, the DOE has an 
integrated observational and modeling program focused on predicting 
climate variability and climate change 10 to 100 years in advance. New 
generation coupled atmosphere-ocean general circulation models have 
been developed and will be used to perform simulations of possible 
climate response to increasing atmospheric concentrations of greenhouse 
gases. The fiscal year 1999 request provides for continued development 
of more accurate and computationally efficient models and improvements 
in the observational data bases and methods necessary to test and 
verify the capacity of climate models to predict decade to multi-
century climate variability.
    The fiscal year 1999 request also provides for continued 
investigation, under the ARM Program, of what has been called the most 
important barrier to improving these general circulation models--the 
effect of clouds and water vapor on the Earth's energy balance. This 
research has already demonstrated that existing climate models may 
underestimate how much radiation from the sun is absorbed in the 
atmosphere, a result that may not only affect our ability to improve 
climate and weather predictions, but that may also lead to improved 
technologies for accurate positioning of satellites.
    The fiscal year 1999 request enables the second atmospheric 
radiation and cloud station (ARCS) in the Western Tropical Pacific, in 
Nauru to begin yielding data and for operation to begin at the first 
polar ARCS in Barrow, Alaska. This will result in a rapid increase in 
the data being generated from the ARM program. Operation of the 
Southern Great Plains site in Oklahoma and Kansas, that has been in 
operation for five years, will continue with at least five intensive 
observational periods. Data from these sites continue to be openly 
provided to the interested scientific community. The fiscal year 1999 
request will also support a combined unmanned aerospace vehicle (UAV) 
and manned aircraft mission over the Southern Great Plains Site that 
will provide essential data on the radiation budget in the cloudy 
atmosphere to be correlated with measurements of cloud characteristics. 
The Atmospheric Sciences Program complements these studies with 
research into ultraviolet-B radiation, aerosols, and mid-latitude 
stratospheric and tropospheric ozone. Analysis of data measured during 
the prototype megacity (Mexico City, Mexico) air quality study will be 
completed.
    In addition to these studies on the key physical processes that 
affect the Earth's atmosphere and climate, the fiscal year 1999 request 
supports research on the fundamental mechanisms by which terrestrial 
ecosystems respond to environmental changes such as increased 
atmospheric carbon dioxide or altered temperature and precipitation. 
Key to such studies is an understanding of the atmosphere-land-ocean 
carbon cycle and the impact of energy usage on that cycle. The research 
provides a scientific basis for assessing the effects of human 
activities on the Earth's climate and for assessing the need for action 
to mitigate any adverse change. Beyond their mutual scientific support, 
the environmental processes programs are coordinated with other 
agencies through the National Science and Technology Council's 
Committee on Environment and Natural Resources.
    The fiscal year 1999 request provides for research, that is part of 
the Climate Change Technology Initiative, focusing on the underpinning 
science that will enable mitigation of climate change while maintaining 
a robust national economy. Research will determine which systems of 
terrestrial plants, interacting with the components of their native 
environment can be induced to increase the net sequestration of 
atmospheric carbon dioxide to enhance understanding of the potential to 
enhance natural carbon sinks on land that could help stabilize or 
reduce the concentration of atmospheric carbon dioxide. Similarly, 
research activities on carbon sequestration in oceans will include 
identification of key pathways by which marine microorganisms enhance 
carbon flow from the atmosphere to the oceans, ways these pathways 
might be enhanced, and the mechanisms and role of these microorganisms 
in sequestering carbon and its transfer from the ocean surface to the 
deep ocean.
    Environmental Remediation.--The fiscal year 1999 request supports 
research focused on understanding the fundamental physical, chemical, 
geological, and biological processes that must be marshaled for the 
development and advancement of new, effective, and efficient processes 
for the remediation and restoration of the nation's nuclear weapons 
production sites. The two highest priorities of this subprogram are 
bioremediation and the operation of the William R. Wiley Environmental 
Molecular Sciences Laboratory (EMSL) which will have completed its 
first full year of operation at the beginning of fiscal year 1999. 
Facility operation supports the operation of the EMSL as a national 
user facility for basic research that will underpin the development of 
safe and cost-effective environmental remediation methods and 
technologies and other environmental research priorities. Another key 
activity is the continuation of joint scientific endeavors with the 
Office of Environmental Management, including the transition of basic 
research into potential field applications.
    The fiscal year 1999 request provides for increased research to 
help resolve many of the questions that today prevent bioremediation 
from being a major weapon in the arsenal of tools for environmental 
remediation. The fiscal year 1999 request will provide for the 
establishment of the first field research center for the Natural and 
Accelerated Bioremediation Research (NABIR) program, that will be sited 
after completion of the NEPA process. This site will help correlate the 
complexities of the natural field environment with the discoveries in 
more simplified and controlled laboratory settings. Research will 
include identifying key microbial communities, biotransformation 
pathways, and biogeochemical processes to enhance the utility of 
bioremediation, and will begin to develop strategies to represent these 
processes in predictive models. The fiscal year 1999 request will also 
further development of the program on bioremediation and its societal 
implications and concerns, an effort parallel to the ethical, legal, 
and social implications program within the human genome program. The 
NABIR program will continue to build on other components of the BER 
program, most notably activities in structural biology and the 
microbial genome program. In short, the combination of this research 
with the research performed at the EMSL will make the BER program an 
international leader in fundamental molecular and biological sciences 
that underpin strategies to cleanup the environmental legacy of the 
Cold War.
    Medical Applications and Measurement Science.--The Medical 
Applications program fosters research to develop beneficial 
applications of nuclear and other energy-related technologies for 
medical diagnosis and treatment of patient's problems. The 
infrastructure promotes a fertile partnership among the major 
biomedical disciplines of science and technology, biology, and medicine 
in support of three major research areas which include nuclear 
medicine, boron neutron capture therapy (BNCT), and instrumentation.
    The fiscal year 1999 request provides for research with broad 
impacts for the understanding, diagnosis, and treatment of disease. 
These impacts include radiopharmaceutical chemistry and radionuclide 
imaging instrumentation, the investigations of a broad range of 
diagnostic and therapeutic applications, the scientific and 
technological foundation for the major medical specialty of nuclear 
medicine, and the expansion of a vital industry for radiopharmaceutical 
development and radionuclide imaging instrumentation. Early phase I/II 
clinical trials of BNCT at reactor sources of neutrons will be 
completed for at least 50 patients and a feasibility study of 
accelerator-based BNCT will be underway.
    The technology developed under this program provides for the non-
invasive detection and localization of small lesions in the body, the 
quantitative measurement of dynamic organ function, and the selective 
treatment of cancer with internal molecular radiation therapy. Nuclear 
medicine research supported by the Department continues to make 
contributions that improve the diagnostic accuracy and use of 
radiopharmaceuticals for the study and treatment of coronary artery 
disease; the effects of smoking, alcoholism and substance abuse; 
neurodegenerative diseases including Parkinson and Alzheimer diseases; 
and for mitigation of bone-pain from generalized skeletal cancer 
metastases. Medical Applications research, in partnership with the 
Department's human genome and molecular and cellular biology research, 
is forging new alliances in molecular nuclear medicine for imaging the 
biochemistry and gene expression of cells and tissues in the body to 
find not only where some disease processes take place, but to locate 
and study the action of genes involved in still mysterious normal 
functions such as learning and memory.
    Our measurement science program supports basic research that will 
lead to the development of new instruments and measurement technologies 
for direct application to environmental and life sciences research. The 
scientific knowledge developed under this program is also relevant to 
the need for new analytical instrumentation in the Department's Office 
of Environmental Management. The fiscal year 1999 request will enable 
us to maintain the core capability for developing advanced measurement 
technologies for environmental and biomedical research at the 
Department's National Laboratories.
                         fusion energy sciences
Fiscal year 1998 appropriation--$229.7 million; fiscal year 1999 
        request--$228.2 million (Figure 3)
    The Fusion Energy Sciences program is a broad-based, fundamental 
research effort, producing valuable scientific knowledge and practical 
benefits in the near term and, in cooperation with our international 
partners, making substantial progress toward an economically and 
environmentally attractive energy option in the long term. The mission 
of the Fusion Energy Sciences program is to: ``Acquire the knowledge 
base needed for an economically and environmentally attractive fusion 
energy source.''
    This is a time of important progress and discovery in fusion 
research. The Fusion Energy Sciences program is making great progress 
in understanding turbulent losses of particles and energy across the 
magnetic field lines that are used to confine fusion fuels. In 
addition, the program is identifying and exploring innovative 
approaches to fusion power that may lead to less costly development 
paths.

                    Figure 3.--Fusion Energy Sciences

                        [In millions of dollars]

Technology........................................................  50.0
Facilities Operations.............................................  61.0
Other.............................................................   6.7
Science........................................................... 110.5
                        -----------------------------------------------------------------
                        ________________________________________________
      Total....................................................... 228.2

    Cross-cutting goals of the Fusion Energy Sciences program as 
developed through stakeholder meetings and endorsed by the Fusion 
Energy Sciences Advisory Committee are summarized below.
    Understand the physics of plasmas, the fourth state of matter.--
Plasmas comprise most of the visible universe, both stellar and 
interstellar, and have many practical applications. Progress in plasma 
physics has been the prime engine driving progress in fusion research, 
and conversely, fusion energy has been the dominant motivation for 
plasma physics research.
    Identify and explore innovative and cost-effective development 
paths to fusion energy.--There is a continuous spectrum of approaches 
to fusion, from the tokamak, which is the leading reactor candidate, to 
other magnetic configurations to inertial confinement using particle 
beams or lasers. The current fusion program is encouraging both 
research on tokamak improvements and research on other innovative 
concepts.
    Explore the science and technology of energy producing plasmas, the 
next frontier in fusion research, as a partner in the international 
effort.--One of the strongest factors that favors fusion power is the 
potential for self-sustaining operation. Energy from the fusion 
reaction of deuterium and tritium is released in two components: (1) 
most of the energy released is in a form that can be extracted and used 
for commercial purposes; and (2) the remaining energy released is used 
to replace the energy losses of the confined plasma and to heat the 
deuterium and tritium sufficiently to sustain the fuel temperature and 
maintain the reaction process. When this replacement energy exceeds the 
energy losses, the fusion plasma is said to be ``ignited.'' 
Understanding the physics of ignited, or self-heated plasmas and 
developing the technologies essential for fusion energy are linked 
goals that are achievable through the cooperative efforts of the world 
community. The long-term benefits to the United States of being a 
credible partner in this cooperative effort include ensuring our own 
scientific and technological integration in the world fusion program 
and contributing to a major step in the development of fusion as an 
energy source for a growing world population.
    Restructuring Our Participation in ITER.--The largest of our 
international fusion activities, the International Thermonuclear 
Experimental Reactor (ITER) project, has proven to be a valuable 
focusing element for our program both in terms of the product, which is 
technically excellent, and the process by which we work together. In 
July 1998, the ITER Agreement among the United States, the European 
Union, Japan and the Russian Federation for conducting the Engineering 
Design Activities (EDA) is scheduled to expire. The four ITER Parties 
are working toward an extension of the Agreement for three years to 
cover the additional activities necessary to be ready for possible 
construction decisions in the 2000-2001 time frame.
    The four ITER Parties are coming to the view that we should plan 
now to evaluate possibilities for reducing the cost of ITER, in case we 
are financially unable to proceed to the construction of the current 
design. Thus, for fiscal year 1999, the U.S. will refocus its ITER 
contribution on an evaluation of a variety of lower-cost design options 
while reducing our participation in ITER baseline design activities.
    Reallocation of ITER funds to high priority science and technology 
activities.--The restructuring of our participation in ITER will allow 
us to enhance science activities and better use of our remaining 
tokamak facilities. These enhancements will include increased research 
operations and modifications to the Alcator C-MOD and DIII-D 
experiments, additional alternate concept experiments, and increases in 
the theory efforts, collaborations on existing experiments overseas, 
and plasma science initiatives.
    During our involvement in the six year ITER EDA, most of our fusion 
technology development activities were focused on the needs of the 
project. With the restructuring of our participation in ITER, we are 
refocusing most of our technology efforts on the needs of existing and 
planned domestic and international experiments. The remainder of our 
technology effort will focus on providing the knowledge base needed in 
the longer term for an attractive fusion energy source. It is expected 
that much of the results obtained from fiscal year 1999 technology 
development efforts will be applicable to ITER, and we expect to share 
these results with the other Parties as part of our participation in 
the ITER project.
    Continued Leveraging of Program Resources through International 
Collaborations.--International cooperation is, and will continue to be, 
a vital part of our fusion program. It is essential to our ability to 
participate in large scale experiments and to advance the energy goal 
of the fusion program. We plan to expand our collaborative activities 
with our partners as long as such collaborations promise to meet our 
needs.
    Completion of National Spherical Torus Experiment Construction 
Activities.--We have started a coordinated national effort on a 
facility that will be located at the Princeton Plasma Physics 
Laboratory (PPPL). This facility, the National Spherical Torus 
Experiment (NSTX), is a proof-of-principle scale, innovative fusion 
concept experiment with exciting scientific potential. During the past 
year, PPPL and its collaborators, Oak Ridge National Laboratory, 
Columbia University, and the University of Washington, have made rapid 
progress on completing the design and initiating component fabrication 
for the NSTX. Their work is on schedule and within budget; we expect to 
begin operations in mid-fiscal year 1999.
    Creating National Teams that will Use New and Existing 
Facilities.--Work has begun to form a NSTX national research team 
through an open solicitation process whereby scientists across the 
country have been invited to participate in various topical areas of 
research. In addition, scientific collaborations are continuing to 
develop between NSTX and similar efforts on spherical torus research in 
England and Russia, where complementary experiments will begin 
operations at about the same time.
    With the restructuring of the U.S. fusion program and the shutdown 
of TFTR, the two remaining major U.S. fusion facilities have evolved 
into national collaborative research programs. Over half of the 
scientists working on DIII-D at General Atomics in San Diego and a 
quarter of the scientists working on Alcator C-MOD at MIT are from 
other major fusion laboratories and universities in the U.S. and 
abroad. The broad collaborative nature of these experiments is leading 
to new ways of doing business. For example, remote data analysis is now 
routine at both facilities, and ``brain storming sessions'' for the 
planning of experiments are open to all members of the fusion community 
through live broadcasts on the internet. The NSTX, has been planned 
from the outset as a national collaborative research effort, and has 
already begun to reach out to future users both in the U.S. and abroad.
                 computational and technology research
Fiscal year 1998 appropriation--$150.6 million; fiscal year 1999 
        request--$160.6 million (Figure 4)
    The Computational and Technology Research Program (CTR) addresses 
complex problems important to Department of Energy missions and 
national goals, through an integrated program in applied mathematical 
sciences, high performance computing and communications, information 
infrastructure, advanced energy projects, and technology research. The 
forefront of scientific research is increasingly multidisciplinary and 
fast-paced, requiring new research technologies and approaches that 
keep pace with scientific advance. The CTR program emphasizes 
multidisciplinary research that builds on the existing capabilities and 
skills of universities, national laboratories, and industrial research 
institutions.

            Figure 4.--Computational and Technology Research

                        [In millions of dollars]

Laboratory Technology Research....................................  16.3
Advanced Energy Projects..........................................   3.0
Mathematical, Information and Computation Sciences................ 141.3
                        -----------------------------------------------------------------
                        ________________________________________________
      Total....................................................... 160.6

    The CTR program funds research that extends from fundamental 
investigations to technology development including: High Performance 
Computing and Communications; the National Information Infrastructure; 
inter-agency development of the Next Generation Internet; and the joint 
initiative between Energy Research and Defense Programs--DOE 2000. The 
CTR program also explores the scientific feasibility of advanced energy 
concepts and other technology research activities that include multi-
year collaborations and technical assistance to small business. The CTR 
program works closely with Energy Research, Department of Energy, and 
other agency programs in establishing its research portfolio.
    Mathematical, Information, and Computational Sciences.--The 
Mathematical, Information, and Computational Sciences (MICS) program 
supports fundamental research, technology development and demonstration 
in applied mathematical sciences, high performance computing, 
communications and information infrastructure. These diverse activities 
are integrated toward: National Collaboratories (NC) that develop tools 
and capabilities to permit scientists and engineers working at 
different facilities to collaborate on research as easily as if they 
were in the same building; and the Advanced Computational Testing and 
Simulation (ACTS) that develops an integrated set of algorithms, 
software tools and infrastructure that enable computer simulation to 
better complement experiment and theory or to be used in place of 
experiments when real experiments are too dangerous, expensive, or 
inaccessible. These two strategic thrusts support the mathematics, 
computational science, and information technology needs of all of the 
Department of Energy mission areas and are closely coordinated with 
related activities supported by Defense Programs.
    The fiscal year 1999 request includes funding for the DOE 2000 
initiative. Support for the Advanced Computational Testing and 
Simulation piece of this initiative will foster advanced computational 
testing and simulation tools to attack complex technical problems and 
accelerate applications critical to Department of Energy missions. 
Support for the National Collaboratory piece of the DOE 2000 initiative 
will develop and test a common technology base that will permit 
scientists and engineers at various remote sites to simultaneously 
participate in research at large science facilities. The DOE 2000 
initiative is coordinated with parallel research in other agencies 
through the Committee on Computing, Information, and Communication of 
the National Science and Technology Council, in partnership with other 
Department of Energy programs.
    The MICS subprogram provides supercomputer access and advanced 
communication capabilities, through the National Energy Research 
Scientific Computing (NERSC) Center and the Energy Sciences Network 
(ESnet), to scientific researchers.
    The fiscal year 1999 request also includes funding for the 
Department's participation in the President's NGI Initiative. This 
initiative, which involves a number of federal agencies, has three 
goals: (1) promote experimentation with the next generation of 
networking technologies; (2) develop a next generation network testbed 
to connect universities and federal research institutions at rates that 
demonstrate new networking technologies and support future research; 
and (3) demonstrate new applications that meet important national goals 
and missions. This initiative will leverage previous MICS investments 
in ESnet and other advanced networking technologies. At this level of 
funding, DOE's goal one activities will focus on developing and 
deploying technologies that provide DOE applications greater control 
and management of the network infrastructure, and provide enhanced 
network interconnection capabilities to support agency and university 
collaborations. DOE's participation in goal two is focused on 
connections to six National Laboratories at 100 times today's Internet 
and two connections to National Laboratories at 1,000 times today's 
Internet, as well as enhanced support for some strategic university 
access to DOE facilities and collaborations. DOE's focus in goal three 
is the enabling of DOE's applications to utilize goal one technologies 
immediately in DOE's goal two infrastructure, specifically those 
applications that require University and Laboratory access to DOE's 
unique facilities. The National Collaboratory Pilot Projects initiated 
in fiscal year 1997 would continue as NGI applications.
    Laboratory Technology Research.--The Laboratory Technology Research 
(LTR) subprogram supports high risk, energy related research that 
advances science and technology toward innovative applications that 
could significantly impact the Nation's energy economy. Laboratory 
Technology Research is a scientific research program that fosters the 
production of research results motivated by a practical energy payoff, 
through formal cost-shared collaborations between the Energy Research 
(ER) multiprogram laboratories and industry.
    Laboratories under the stewardship of the Office of Energy Research 
conduct breakthrough research in a variety of scientific and technical 
fields and operate unique scientific facilities for visiting 
scientists. Viewed as a system, these five laboratories, Argonne 
National Laboratory, Brookhaven National Laboratory, Lawrence Berkeley 
National Laboratory, Oak Ridge National Laboratory, and Pacific 
Northwest National Laboratory, offer a comprehensive resource for 
research collaborations. The major component of the LTR research 
portfolio consists of investments at these laboratories to conduct 
research that benefits all major stakeholders--the DOE, the industrial 
collaborators, and the nation. These investments are further leveraged 
by the participation of an industry partner, using Cooperative Research 
and Development Agreements (CRADA's). Research proposals are chosen for 
award using external peer review to ascertain scientific and technical 
merit. The program focuses on key initiatives and other high leverage 
areas including advanced materials, intelligent processes and controls, 
and sustainable environments. Another important component of the LTR 
program provides rapid access by small business to the research 
capabilities at the ER multi-program laboratories, using several 
flexible mechanisms including personnel exchanges and technical 
consultations with small businesses.
    The fiscal year 1999 request will maintain support for technology 
research in areas that advance science and technology toward innovative 
energy applications through cost-shared partnerships between the Office 
of Energy Research multiprogram laboratories and industry.
    Advanced Energy Projects.--The Advanced Energy Projects (AEP) 
subprogram funds research to establish the feasibility of novel, 
energy-related concepts that span the Department's energy mission and 
goals. Funded projects are based on innovative ideas that span multiple 
scientific and technical disciplines and do not fit into any other DOE 
program area. A common theme for each project is the initial linkage of 
new research results to an energy application with a potentially 
significant payoff. Typically, AEP supports projects up to a level of 
about $250,000 per year for a period of about 3 years. Projects are 
selected from proposals submitted by universities and national 
laboratories. Funding criteria emphasize scientific merit as judged by 
external peer review.
    The fiscal year 1999 request supports high-risk research at 
universities and national laboratories to establish the feasibility of 
novel energy related concepts that are at an early stage of scientific 
definition. No new novel, energy related concepts will be initiated in 
fiscal year 1999.
                          high energy physics
Fiscal year 1998 appropriation--$679.7 million; fiscal year 1999 
        request--$691.0 million (Figure 5)
    The Department of Energy provides over 90 percent of the federal 
support for the nation's high energy physics (also called elementary 
particle physics) research. High energy physics research seeks to 
understand the nature of matter and energy at the most fundamental 
level, as well as the basic forces which govern all processes in 
nature. High energy physics research requires accelerators and 
detectors utilizing state-of-the-art technologies in many areas, 
including fast electronics, high speed computing, superconducting 
magnets, and high power radio-frequency devices.

                     Figure 5.--High Energy Physics

                        [In millions of dollars]

Facility Operations............................................... 456.6
Construction......................................................  21.0
Research and Technology........................................... 213.4
                        -----------------------------------------------------------------
                        ________________________________________________
      Total....................................................... 691.0

    In these areas, high energy physics research has led to many 
developments with practical applications in the civilian marketplace. 
High energy physics technology research continues to make major 
contributions to accelerator technology and develops technical 
expertise which supports widespread accelerator utilization in other 
scientific disciplines and industrial processes such as synchrotron 
light sources and medical diagnostics and treatment.
    This program provides the basis for an excellent educational 
experience for the brightest young scientific minds, so necessary for 
the program to continue research at the intellectual frontier. 
Experimental and theoretical researchers from more than 100 
universities conduct about three-fourths of the research, with the 
remainder conducted by staff at the national laboratories. This 
combination of highly skilled scientists and engineers from 
universities and our national laboratories contribute significantly to 
the transfer of technology to other fields.
    Progress in high energy physics research depends on the 
availability of forefront experimental capabilities, effective use of 
specialized facilities, and new and upgraded facilities designed to 
take advantage of new technologies and research opportunities. The 
Department of Energy supports three major high energy accelerator 
research centers. Each brings unique capabilities to the program and is 
operated as a national facility available to qualified experimenters 
around the nation and abroad on the basis of scientific merit of their 
research proposals. Approximately 2,000 U.S. scientists and 200-300 
foreign scientists work at these facilities at any given time.
    At the Fermi National Accelerator Laboratory (Fermilab), the 
Tevatron, the world's highest energy particle accelerator, provides 
both fixed target and colliding beam research programs. The colliding 
beam research program benefits from having two major detector 
facilities, the Collider Detector at Fermilab (CDF) and the D-Zero 
Detector, which complement each other in their differing technical 
capabilities. Following on their earlier discovery of the long sought 
top quark, the CDF and D-Zero collaborations have now measured its mass 
and production properties. In fiscal year 1999, the Fermilab 
accelerator complex will operate for about 14 weeks to complete 
commissioning of the new Main Injector. This will be followed by about 
26 weeks of operation in the fixed target mode.
    Construction of the Fermilab Main Injector project is on schedule 
for completion and initial commissioning in fiscal year 1999, and 
continues within budget. By providing a fivefold increase in collider 
luminosity, and a doubling of intensity for the fixed target program, 
this project will greatly enhance the physics capabilities of the 
Tevatron accelerator and its detector facilities by the end of the 
decade, and greatly increase the likelihood of major new scientific 
discoveries early in the next century. The Main Injector will also 
allow for simultaneous operation of the fixed target and colliding beam 
research programs, currently not possible.
    At the Stanford Linear Accelerator Center (SLAC), the Stanford 
Linear Collider (SLC) is the world's only operating high energy linear 
collider. The SLC continues to collect data using its beam of polarized 
electrons, a capability unique to the SLC which gives physicists an 
added degree of control over the experimental conditions. In fiscal 
year 1999, the SLC will be replaced by the B-factory as the principal 
facility at SLAC, and the SLC will be shut down.
    In these SLC experiments, a high energy beam of polarized electrons 
collides with an unpolarized beam of positrons (the electron's 
antimatter counterpart) to produce what are referred to as Z particles, 
the heaviest known elementary particle. More than 200,000 Z particles 
were observed and recorded by the SLAC Large Detector (SLD) in the 
latest data run. The SLC data has provided high precision results on 
the details of electron-positron interactions at high energies.
    The SLAC B-factory project is on schedule for completion and 
commissioning in 1998. The B-factory will provide a high luminosity, 
asymmetric electron-positron colliding beam facility to study the 
reasons for the preponderance of matter over antimatter in our 
universe, a fundamental concept necessary for our very existence. This 
project will also provide opportunities to pursue a rich program of 
experiments in a large number of other areas of intense interest in 
high energy physics. The project was designed and is being built by 
SLAC in collaboration with Lawrence Berkeley and Lawrence Livermore 
National Laboratories. An international collaboration, about half of 
which is from the U.S. and half from abroad, is building the BaBar 
detector, the principal experiment at the B-factory. In fiscal year 
1999, the B-factory is expected to operate for about 36 weeks in its 
inaugural data run.
    The Alternating Gradient Synchrotron (AGS) at Brookhaven National 
Laboratory (BNL) will transition, during fiscal year 1999, from 
primarily being a proton accelerator for the high energy physics 
program to primarily being the injector for the Relativistic Heavy Ion 
Collider (RHIC) project in the Nuclear Physics program. During the 
fiscal year 1998 run, the experiment to search for rare decays of 
particles called kaons reported preliminary positive results, and the 
experiment to measure the magnetic properties of the muon successfully 
completed its initial test run. During fiscal year 1999, the AGS will 
operate for about 26 weeks in the final major run in the high energy 
physics program.
    The European Laboratory for Particle Physics (CERN) in Geneva, 
Switzerland, has begun construction of a proton collider, called the 
Large Hadron Collider (LHC). Formal negotiations for U.S. participation 
in the LHC began in January 1996, and culminated in December 1997 with 
the signing of the formal agreement between the U.S. and CERN. While 
there is a long history of international collaboration in high energy 
physics experiments, this is the first time the U.S. will contribute 
significantly to the construction of an accelerator outside the U.S. 
The agreement is also the first between CERN and the U.S. government.
    Participation in the LHC is extremely important to the goals of the 
U.S. high energy physics program, and over 500 U.S. scientists are 
involved in the two major LHC detector collaborations and in the 
magnet/accelerator research and development collaborations. U.S. 
participation will primarily take the form of the design and 
fabrication of components and subsystems for the LHC accelerator and 
the two LHC detectors and will allow CERN to finish the project at full 
operating capability in the year 2005 instead of 2008. The fiscal year 
1999 budget requests $65.0 million for fabrication of components and 
subsystems for the LHC accelerator and detectors as specified in the 
agreement with CERN.
    The extraordinary benefits to the U.S. include continued access to 
the energy frontier at what will then be the highest energy accelerator 
in the world. It will ensure continued world class excellence of our 
university and national laboratory scientists and will provide training 
to many students in leading edge science and technology. In addition, 
most of the U.S. money will be spent on detector and accelerator 
components manufactured largely by U.S. industries. This will improve 
the capabilities and expertise of U.S. scientists and industries and 
will ensure their access to the high-level technologies being 
developed. The LHC is a significant next step in the 
internationalization of large scientific construction projects, since 
in the future, nations will have to work together to build these 
necessary but expensive research facilities.
                            nuclear physics
Fiscal year 1998 appropriation--$320.7 million; fiscal year 1999 
        request--$332.6 million (Figure 6)
    The primary goal of nuclear physics research is to understand the 
structure and properties of atomic nuclei and the fundamental forces 
between the constituents that form the nucleus of the atom. Nuclear 
processes determine essential physical characteristics of our universe 
and the composition of the matter that forms it.

                       Figure 6.--Nuclear Physics

                        [In millions of dollars]

Heavy Ion Nuclear Physics......................................... 150.3
Low Energy Nuclear Physics........................................  33.2
Nuclear Theory....................................................  15.6
Construction......................................................  16.6
Medium Energy Nuclear Physics..................................... 116.9
                        -----------------------------------------------------------------
                        ________________________________________________
      Total....................................................... 332.6

    Beyond helping to maintain world leadership in basic research, the 
Nuclear Physics program develops and transfers knowledge to enhance the 
nation's technological and economic competitiveness in such fields as 
nuclear medicine. The Nuclear Physics program continues to be a vital 
source of trained people for fundamental research and for these applied 
technology areas. The program supports the graduate training of 
approximately 450 students per year, and typically 100 Doctorates in 
nuclear physics are awarded each year at DOE-supported nuclear physics 
programs. A majority of these highly trained researchers will take 
positions in high-technology private industry.
    Many future nuclear physics investigations will study questions 
related to the quark presence in composite nuclei. Until the last few 
years, the fundamental understanding of nuclear properties has been 
based on the idea of a nucleus composed of protons and neutrons that 
interact through a combination of weak, strong, and electromagnetic 
forces. It became clear that achieving a deeper knowledge of many 
nuclear properties depends on understanding nuclear structure based on 
quarks and other particles called gluons that bind the quarks together. 
Quarks and gluons are the building blocks of protons and neutrons 
(nucleons). The Long Range Plan for the U.S. Nuclear Physics Program, 
prepared by the nuclear physics community in 1996, has emphasized the 
importance of addressing the role of quarks in nuclear matter as well 
as other pressing questions in nuclear science.
    Studies of nuclear structure require ultrahigh resolution 
``microscopes,'' accelerators that produce particle beams of very high 
and well-defined energy. These particle beams are the ``probes'' which 
have the ability to react to the detailed structure hidden within an 
atomic nucleus. The Operating Expenses request is designed to provide 
the maximum operating hours for these facilities, optimized by funding 
from the Scientific Facilities Initiative, so that researchers may take 
maximum advantage of their unique capabilities.
    Research at the Thomas Jefferson National Accelerator Facility 
(TJNAF) is now studying the effects due to the presence of quarks in 
nucleons in the nucleus. Two principal focuses of these studies are to 
continue to develop an understanding of how the ``spin'' of a nucleus 
originates in the quarks, and how to extract the role of different 
kinds (flavors) of quarks in the makeup of the proton and neutron. 
However, no one has ever observed a single free quark; they always 
travel in closely knit groups within nucleons. In fiscal year 1999, 
TJNAF will operate for 4,500 hours which will allow the completion, 
continuation, and commencement of several high priority experiments at 
this new laboratory.
    In fiscal year 1999, the Bates Linear Electron Accelerator at the 
Massachusetts Institute of Technology will operate on a limited 
schedule of 1,000 hours to concentrate on the construction of a new 
Bates Large Acceptance Spectrometer (BLAST), a major particle detector 
which will be used in conjunction with the South Hall Pulse Stretcher 
Ring. The South Hall Ring and BLAST will enable a unique program using 
the very high beam currents in the ring and very thin gas targets to 
pursue a program of research on few-body nuclei. This new program will 
complement, both in energy range and in experimental capability, the 
new program at TJNAF, and will be the primary activity at Bates in the 
future.
    A ``quark-gluon plasma'' will be produced with a second major 
facility for the study of new ``quark-based'' nuclear physics, the 
Relativistic Heavy Ion Collider (RHIC) at the Brookhaven National 
Laboratory. In fiscal year 1999, RHIC will complete construction and 
begin operation in the last quarter of the fiscal year. It is predicted 
that if a collection of nucleons are compressed and heated to a very 
high temperature by collisions of high energy heavy nuclei, there will 
be a phase transition to a new state of nuclear matter in which the 
quarks are ``freed'' from their nucleon boundaries to form a so-called 
``quark-gluon plasma'', creating conditions in the laboratory that are 
similar to those of the expanding universe just a few millionths of a 
second after the Big Bang. RHIC will be a unique, world-class facility 
with colliding beams that provide collision energies of 100 billion 
electron volts (GeV) per nucleon, for heavy ions as massive as gold 
nuclei.
    Some of the most critical nuclear reactions in stellar burning 
processes involve nuclei which, because of their short lifetimes, have 
not been available for laboratory studies. Another new generation 
facility, the Radioactive Ion Beam (RIB) Facility at Oak Ridge National 
Laboratory is now producing some of these previously unavailable nuclei 
so that these important stellar processes can be studied in the 
laboratory. A variety of unique radioactive beams for experiments will 
be increasingly available in fiscal year 1999 and it is already 
possible, for the first time, to study many processes which are crucial 
to our understanding of how nuclei were synthesized in the Big Bang. 
The RIB will be operated for 2,400 hours for studies of nuclear 
measurements of astrophysical significance and for studies of very far 
from stable proton rich nuclei.
    The solar neutrino problem remains one of the great challenges in 
astrophysics. The predicted rate of neutrino production by the sun is 
significantly higher than the observed rate. There are two possible 
explanations for the discrepancy. Either our understanding of solar 
burning is very wrong, or the neutrino has a small mass, in 
contradiction to the long-held belief that it is massless. The third 
major new facility which will be operational in fiscal year 1999 is the 
Sudbury Neutrino Observatory (SNO) in Canada. SNO's new detector, which 
is being filled with heavy water as we speak, is located 6,000 feet 
below the earth's surface in a nickel mine in Sudbury Ontario. 
Calibration and testing will be underway during much of the remainder 
of fiscal year 1998. Slated to begin data collection in early fiscal 
year 1999, SNO is designed to sort out this longstanding problem. The 
project involves an international collaboration among the U.S., United 
Kingdom, and Canada.
          multiprogram energy laboratories--facilities support
Fiscal year 1998 appropriation--$21.2 million; fiscal year 1999 
        request--$21.3 million (Figure 7)
    The Multiprogram Energy Laboratories-Facilities Support (MEL-FS) 
program addresses the larger general purpose infrastructure needs at 
the five multiprogram ER laboratories. The five multiprogram energy 
laboratories are: Argonne National Laboratory-East, Brookhaven National 
Laboratory, Lawrence Berkeley National Laboratory, Oak Ridge National 
Laboratory, and Pacific Northwest National Laboratory. These 
laboratories have over 1,100 buildings with a total of 14.3 million 
gross square feet of space. The estimated replacement value of all 
buildings and other structures is over $10.0 billion. The average age 
of the buildings at these laboratories is over 33 years. All facilities 
at these laboratories are government-owned and contractor-operated. 
Total operating funding for these laboratories is over $3.0 billion a 
year.

     Figure 7.--Multiprogram Energy Laboratories--Facilities Support

                        [In millions of dollars]

Construction......................................................  20.1
Infrastruction Support............................................   1.2
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................  21.3

    Fulfilling the science and technology goals and objectives 
identified in the DOE Strategic Plan depends heavily on the existence 
and operating efficiency of these multiprogram laboratories. However, a 
significant portion of the infrastructure of these laboratories is old, 
deteriorating, obsolete or inadequate for current use and function, and 
needs improvement to comply fully with the environment, safety and 
health requirements and to meet operational needs.
    The MEL-FS program is designed to help preserve the government's 
investment in these laboratories by supporting line item construction 
for the refurbishment and replacement of inadequate general purpose 
facilities and infrastructure. The fiscal year 1999 budget supports the 
initiation of four projects including Electrical Systems Modifications 
at BNL, Rehabilitation of Building 77 at LBNL, the Central Supply 
Facility at ANL-E, and the Sanitary Systems Modifications, Phase III at 
BNL.
    In fiscal year 1999, the program will also begin funding Payments 
in Lieu of Taxes (PILT) ($1,160,000) as authorized by the Atomic Energy 
Act of 1954, as amended, for communities surrounding Brookhaven 
National Laboratory and Argonne National Laboratory. These 
discretionary payments are made to state or local governments where the 
Department or its predecessor agencies has acquired property previously 
subject to state or local taxation.
                    university and science education
Fiscal year 1998 appropriation--$0; fiscal year 1999 request--$15.0 
        million (Figure 8)
    The University and Science Education (USE) program ensures that the 
Department effectively utilizes and leverages the resources of the 
laboratory system to support DOE's university and science education 
mission. USE provides leadership and program support necessary to use 
and leverage the resources of the Department's laboratories to help 
replenish the overall pool of well trained, diverse scientists and 
engineers of the future, and to achieve significant, long-term 
improvements in their scientific and technological skills.

               Figure 8.--University and Science Education

                        [In millions of dollars]

Community Outreach................................................   2.0
Minority Institution Development..................................   2.0
Educational Technology............................................   5.0
Research Participation............................................   6.0
                        -----------------------------------------------------------------
                        ________________________________________________
      Total.......................................................  15.0

    In fiscal year 1999, USE plans to support: undergraduate students 
participation in the National Undergraduate Laboratory Fellowship 
program; development of Internet based education technologies for 
elementary through college students and faculty; coordination with 
other DOE programs and improved integration of science education 
activities; high priority Administration and Congressional science 
education and diversity programs; a developmental award program for 
faculty and students from primarily undergraduate institutions and 
minority institutions that stimulates collaboration with DOE scientists 
and enhances faculty grant competitiveness; and partnering with 
National Science Foundation in support of its Minority Institutions of 
Excellence program to enhance coordination and effectiveness of support 
for undergraduate programs at HBCU's and coordination with other 
federal, state, and local agencies.
                        energy research analyses
Fiscal year 1998 appropriation--$1.5 million; fiscal year 1999 
        request--$1.0 million
    The Energy Research Analyses (ERA) program provides DOE program 
managers and senior managers with objective assessments of research 
projects and programs in order to evaluate the quality and impact of 
these efforts, to identify undesirable duplications and gaps, and to 
provide analysis of key technical issues in support of long range 
energy research planning, science and technology planning, and 
technical and performance evaluation of departmental strategic plans, 
and objectives.
    Over 100 independent peer reviews were completed in fiscal year 
1997. However, these levels will be scaled down in coming years to 
accommodate reduced funding. The program continues to refine the 
recently developed process for appraisal of Energy Research 
Laboratories and a new DOE-wide system for simplified technical reviews 
of National Laboratories has been developed and the pilot process 
completed at three National Laboratories.
                    technical information management
Fiscal year 1998 appropriation--$10.1 million; fiscal year 1999 
        request--$9.8 million
    The Technical Information Management (TIM) program, under the 
leadership and guidance of the Office of Scientific and Technical 
Information (OSTI), is responsible for the collection, preservation, 
and dissemination of scientific and technical information resulting 
from DOE's research, development, and environmental programs. Emphasis 
is on forging a National Library of Energy Science and Technology, and 
bringing energy science to the user's desktop electronically through 
the effective application of innovative information-age technologies.
    In fiscal year 1999, TIM will provide mechanisms and procedures for 
accessing electronic journals at the desktop, develop and implement 
tools to facilitate access to DOE's scientific and technical 
information via electronic means, increase public access to DOE 
scientific and technical information, establish mechanisms to provide 
web-based access to energy-related scientific and technical information 
obtained by DOE via multilateral international partnerships, and 
establish customer feedback mechanisms to assess effectiveness of DOE's 
information program and related products and services.
                   energy research--program direction
Fiscal year 1998 appropriation--$37.6 million; fiscal year 1999 
        request--$39.9 million
    Program Direction provides the federal staffing resources and 
associated costs required to plan, direct, and manage a viable, high 
quality national program of basic research and advisory 
responsibilities for the Office of Energy Research. Energy Research 
Program Direction supports staff in the Basic Energy Sciences, Fusion 
Energy Sciences, Biological and Environmental Research, High Energy and 
Nuclear Physics, Computational and Technology Research, University and 
Science Education, Multiprogram Energy Laboratories-Facilities Support 
and Energy Research Analysis programs, including management and 
technical support staff. In addition, Energy Research Program Direction 
provides funds through the Working Capital Fund to cover the costs of 
centrally provided goods and services such as supplies, office space, 
utilities, etc., which previously were budgeted in Departmental 
Administration.
    This program also supports staff at the Chicago, Oakland and Oak 
Ridge Operations Offices directly involved in program execution. Staff 
includes scientific and technical personnel and program management 
support in the areas of budget and finance, general administration, 
grants and contracts, information resource management, policy review 
and coordination, infrastructure management and construction 
management.

                    magnetic fusion energy research

    Senator Domenici. Please review the current status of the 
fusion program.
    Dr. Krebs. Fusion. Within the fusion program, the budget 
request is basically constant. We are requesting $228 million, 
down $1 million from fiscal year 1998. Within that budget, we 
propose to significantly reduce our participation in ITER. We 
believe that the agreement that has enabled the ITER 
engineering design activity, which will be completed this 
summer, is a very effective mechanism for us to work with our 
partners around the world. We are proposing it be continued. In 
particular, the partners wish to have a transition period where 
they make a determination amongst themselves as to whether or 
not they will offer specific sites in their countries.
    We would propose to have $12 million associated with 
continuing the joint baseline design. The remaining $39 
million, which was allocated to the ITER program in fiscal year 
1998, would be redirected for increases in current facility 
operations, the DIII-D at General Atomics in San Diego, the 
Alcator C-Mod at MIT, and it also would enable us to include 
the National Spherical Torus Experiment in Princeton.
    We would also put more money into plasma and fusion 
technology that would be carried out in part in collaborations 
at JET in Europe and the JT-60 in Japan.
    I think that is the summary of what I would say relative to 
fusion.
    Senator Domenici. Your entire statement will be made a part 
of the record.
    Senator Gorton, did you want to make some remarks?
    Senator Gorton. I do not. I have one question for Mr. 
Reicher, so I will wait my turn and make whatever statement I 
have then.
    Senator Domenici. Is that all you have for the day, is the 
one question?
    Senator Gorton. That is all I am going to have for the day, 
yes.

                      statement of senator dorgan

    Senator Domenici. Do you have more than one question?
    Senator Dorgan. I have three questions, but let me ask 
consent to have an opening statement be made part of the 
record, and I will wait my turn.
    Senator Domenici. Sure.
    I tell you, if you only had one I would let you go now and 
then you could leave.
    Senator Dorgan. I have one-half a question with three 
parts. [Laughter.]
    [The statement follows:]

               Prepared Statement of Senator Byron Dorgan

    Mr. Chairman, Senator Reid, thank you for convening this hearing. 
The topics discussed today are of great concern to North Dakota--
particularly to the Energy and Environmental Research Center at the 
University of North Dakota which has so much to offer to this country 
in the way of excellence in energy and energy-related research. The 
Department of Energy has a long relationship with the EERC, and I would 
like to see that relationship strengthened through the President's 
Global Climate Change initiative.
    I also want to take this opportunity to restate my support for 
fossil fuel energy research and, particularly, for clean coal 
technology. Lignite is the only rank of coal in North Dakota, and there 
is a 1,000-year supply in my state based on the existing recoverable 
resource of 35 billion tons. Many developing countries use low-rank 
coals. Coal will remain the workhorse in our nation's energy future. So 
research in clean coal technology is absolutely essential and should be 
a priority for ours and other nations.
    While I recognize the continued importance of coal, and its role in 
our future, I am supportive of the need to develop renewable energy 
sources. I am glad to see an increase in this budget for those 
purposes.
    I commend the Department for reversing its past course to shift 
funding away from coal research. I do want to work with the 
Administration to make sure that adequate priority is given for clean 
coal research and clean coal technologies--especially in light of its 
commitment to emissions reductions.
    Buildings account for about 35 percent of U.S. greenhouse gases 
when electric usage is included. I support the budget request for a 
significant increase for building technologies (up $118 million). I 
would ask today's witnesses to consider carefully the importance of 
focusing efforts on building technologies in cold weather climates. 
This is where a disproportionate share of energy is used per capita.
    I am in total agreement with the President on the need to push for 
new advances in science and technology and I support the proposed 
increase of $246 million for the Office of Energy Research.

               Fuel efficiency standards for automobiles

    Senator Domenici. Senator Gorton.
    Senator Gorton. Well, first I would like to welcome Dr. 
Krebs. I would like to thank her for her mention of EMSL, the 
laboratory that I think is doing very, very good work, as she 
does.
    My question, however, is for Mr. Reicher. I have gone 
through all of your testimony on energy efficiency and 
statements with respect to energy independence for the United 
States. I fail to see anything this year and I failed to see 
anything in the previous 4 years in the Clinton Administration 
about fuel efficiency standards for automobiles.
    For a dozen years now, every year the Congress ends up 
enjoining, prohibiting the administration from doing anything 
to further our fuel efficiency. You have here programs that 
cost tens or hundreds of millions of dollars. You have got one 
available to you, it seems to me, that lessens our dependence 
on foreign oil, cuts down on air pollution, cuts down on our 
use of fossil energy resources. And yet, year after year, you 
stay absolutely silent on that.
    Can you tell me why the administration does not make it a 
high priority to go ahead with what back in the 1970's was 
probably the single most successful energy initiative in the 
history of the country?
    Mr. Reicher. Senator, let me first say that we have a very 
active program focused on the fuel efficiency of automobiles. 
It is funded in the Interior account, which is the other two-
thirds of the budget for the Office of Energy Efficiency and 
Renewable Energy. It is a very substantial program, primarily 
carried out with the big three in Detroit, that is looking to 
develop a fuel-efficient vehicle by 2004 that will get 80 miles 
per gallon in a 5- to 6-passenger car, with all the safety and 
features that people are looking for at an affordable price.
    So that is the sort of technological emphasis of the 
Department of Energy and indeed the administration through the 
Partnership for a New Generation of Vehicles.
    Your question is regarding the CAFE standards, as I 
understand it, and I think, in that regard, the administration 
early on considered the issue of CAFE. I think, in discussions 
within the administration and in discussions with Congress, a 
decision has been made not to pursue additional increases in 
the CAFE standards, but instead to focus on the most 
cooperative and most effective way we can to develop a 
technology that will ultimately give us the fuel-efficient 
automobiles that we need.
    Senator Gorton. Well, the research program of which you 
speak is funded by a subcommittee of which I am chairman, as 
Senator Domenici pointed out. And I have, within the 
constraints of our budget, always been enthusiastically in 
support of that proposition. It has never seemed to me, 
however, that you were involved in an either-or situation. We 
were not 10, 20 years ago.
    But I take it that you have expressed the policy that will 
continue to be the policy, that this administration regards 
CAFE standards as a dead-end street and is going to do nothing 
with respect to them?
    Mr. Reicher. Let me just say that I think the 
administration finds that there are probably more--there are 
greater opportunities to advance the fuel efficiency of 
vehicles on the technology side today than there would be in 
potentially reopening the CAFE issue.
    Senator Gorton. Well, it is at least a straightforward 
answer, Mr. Chairman, not necessarily the one I wanted. But I 
appreciate being able to ask it, and that is all I have.
    Senator Domenici. I let you go first, even before any of 
us, not because I wanted to get rid of you----
    Senator Gorton. You have succeeded in doing so. [Laughter.]
    Senator Domenici. But if that is the result, it is out of 
an act of generosity, knowing how busy you are.
    We are going to now hear from you, Mr. Reicher.
    Incidentally, those name signs that you bring when you 
testify are very nice.
    Senator Reid. You bring your own name plates?
    Senator Domenici. They bring their own signs. It says on 
there ``United States Department of Energy.'' Do we make them 
or do they?
    Mr. Reicher. Mr. Chairman, these were prepared by Federal 
employees, not contractors. [Laughter.]
    Senator Domenici. It is nice.

                        statement of dan reicher

    Mr. Reicher. Mr. Chairman and members of the subcommittee: 
I appreciate the opportunity to appear before you to discuss 
the fiscal year 1999 budget for the Department's Office of 
Energy Efficiency and Renewable Energy. Our budget request 
calls for increases to support cost-shared resource development 
and precommercial deployment of clean, efficient, and cost-
effective energy technologies.

                       solar and renewable energy

    Mr. Chairman, there is often a tendency to view energy 
efficiency and renewable energy as somehow different from our 
traditional energy investments, as some green alternative to 
the real business of energy. Given that over 90 percent of the 
energy we consume today comes from fossil and nuclear fuel, we 
must use these sources as efficiently as possible. The 
investments we make in energy efficiency do not simply save 
energy, they represent one of the best public investments we 
can make to ensure the productivity and competitiveness of our 
economy and one of the cheapest, least intrusive ways of 
accomplishing our environmental objectives.
    Renewable technologies are also far more than just a green 
alternative. They are, in fact, essential elements of our 
energy mix today, tomorrow, and in the coming decades. Today 
hydropower, just one renewable, provides approximately 10 
percent of the total U.S. electrical generating capacity. In 
fiscal year 1999, we propose to begin engineering design of a 
fish-friendly turbine that will better protect fish while 
allowing existing hydropower facilities to function at 
capacity. Without these and other technological improvements, 
the Nation risks losing a large portion of this existing clean 
energy source.
    In terms of tomorrow's energy market, wind is well 
positioned to become another major renewable energy source. In 
fiscal year 1999, we propose to continue our work with the wind 
industry to design and test the next generation of wind 
turbines, which will reduce energy costs to as low as 2.5 cents 
per kilowatt-hour by 2002. By building turbines that can 
operate in moderate wind speeds, we can open up the Nation's 
tremendous wind resources from Washington, Idaho, and Montana, 
to New Mexico, North Dakota, and West Virginia, and establish 
these areas as the ``Saudi Arabia of wind.''
    Senator Reid. If you had mentioned Nevada it would have 
been a big help to you. [Laughter.]
    Mr. Reicher. I will in one moment. [Laughter.]
    Senator Reid. You just overlooked it, right?
    Mr. Reicher. Absolutely. I will amend the record, but I am 
going to get to it in 1 second.
    We will also establish a U.S.-based, internationally 
recognized organization to expedite certification of wind 
turbine systems and allow U.S. manufacturers to compete more 
effectively in the rapidly growing world market.
    I would also like to mention our rapidly expanding efforts 
to burn energy crops and agricultural wastes in combination 
with coal in existing power plants. There is strong industry 
interest in this cofiring technology because it could provide a 
cost-effective option to meet more stringent environmental 
regulations.
    Looking to the future, our R&D investments are stimulating 
the development of entirely new technologies that will 
fundamentally change the energy landscape. Superconductivity, 
which allows electricity to move through wires without 
resistance, has the potential to reduce the Nation's electrical 
system losses by 50 percent, equivalent to the output of 60 
conventional power plants. In our fiscal year 1999 budget, we 
propose to transfer breakthrough technologies to industry so 
that we can eventually manufacture miles, rather than only 
meters, of super-efficient wires.
    As part of our hydrogen R&D in fiscal year 1999, we propose 
to develop a facility in Nevada that would use a path-breaking 
fuel cell to produce hydrogen and supply power to the 
Department's Nevada Operations Office and a fleet of 20 to 30 
vans and buses. I guess that is two mentions of Nevada.
    Our R&D programs not only build the foundation for our 
energy future, but also open markets for U.S. manufacturers of 
advanced energy technologies. The World Bank has estimated that 
over the next four decades developing countries alone will 
require five million megawatts of new electricity capacity, 
compared to the world's total current installed capacity of 
three million megawatts. In order to meet this explosive energy 
demand and reap the resulting technology sales and jobs, we 
must invest in the research, development, and, yes, in 
appropriate circumstances, the deployment of energy 
technologies.
    With Federal support, the U.S. photovoltaics industry has 
grown more than 20 percent annually over the last 7 years and 
now holds 40 percent of the world market. We expect even 
greater market penetration with the million solar roofs 
initiative.
    As part of our focus on the most promising technologies, we 
are increasing the level of competition in selecting 
contractors and we are proposing a $10 million R&D solicitation 
to stimulate the best proposals for crosscutting renewable 
technologies to address economic competitiveness, air quality, 
and climate change.
    We are also better coordinating our research with State 
energy R&D programs. Just last week we signed an agreement with 
the California Energy Commission to increase R&D cofunding and 
decrease duplication. We are also expanding our collaboration 
with other DOE programs, including fossil energy, energy 
research, and nuclear energy.
    Mr. Chairman, just as we are committed to a wise R&D 
strategy, we are also dedicated to managing taxpayer dollars 
responsibly. I recognize that we must put our financial house 
in better order. I have already mentioned our expanded emphasis 
on competition. We are also looking carefully at our 
noncompetitive grants and contracts. We are focusing closely on 
program evaluation and terminating projects that have reached 
their goals or do not measure up.
    In fiscal year 1999, for example, we will finish testing 
and conclude our work on the Solar II power tower. We are also 
developing a clearer budget and a more open budgeting process.
    Thank you again, Mr. Chairman and members of the 
subcommittee, for the opportunity to discuss our fiscal year 
1999 budget, and I look forward to working with you and your 
staff over the coming year.
    [The statement follows:]

                  Prepared Statement of Dan W. Reicher

    Mr. Chairman and members of the Subcommittee, I am pleased to have 
the opportunity to appear before you today to discuss the Energy and 
Water Development portion of the fiscal year 1999 budget request for 
the Department of Energy's Office of Energy Efficiency and Renewable 
Energy (EERE).
    As the 21st century approaches, our nation faces tremendous energy, 
economic, and environmental challenges. Over the next few years, we 
will encounter growing demand for energy in an increasingly volatile 
global energy market; we will witness the complete restructuring of 
U.S. electricity markets; we will implement sweeping new federal and 
state clean air requirements; we will respond to concerns about global 
climate change; and we will confront increasingly stiff competition 
from other nations in global commerce. In the face of these challenges, 
we must invest in key new energy supply technologies and use energy 
efficiency technologies to make better use of conventional energy 
sources.
    Research and development (R&D) is a key driver of long-term 
economic development. In fact, the ability to innovate, develop and 
deploy new technologies in a wide range of fields has been a key reason 
for the stunning success of the U.S. economy in the last fifty years 
and will likely continue to drive our economic development over the 
next fifty years. Sustained commitment to R&D in both private industry 
and the federal government has produced these results. However, 
corporate downsizing, increased competition, financial pressures and 
other factors have drastically cut the level of private investment in 
basic and applied R&D in many industries--especially in the energy 
sector. In the face of the energy and environmental challenges of the 
next century and these declines in private sector R&D, the role of the 
federal government is critical. Without a substantial federal energy 
technology R&D effort--conducted in collaboration with industry--many 
advanced technologies will likely not be developed and our nation will 
suffer the resulting economic losses.
    In its 1997 review of the national energy R&D portfolio, the 
President's Committee of Advisors on Science and Technology (PCAST) 
recommended expansion of a number of national energy R&D programs and 
targeted renewable energy programs for large increases in funding, 
second only to energy efficiency R&D. Crediting DOE with remarkable 
gains in technology performance and cost reductions, PCAST noted that 
renewable energy technologies offer a number of benefits, including, 
cleaner air, economic development, and reduced dependence on oil 
imports.
    The fiscal year 1999 budget request for EERE programs calls for 
increases to support cost-shared research, development, and pre-
commercial deployment of clean, efficient, and cost-effective energy 
technologies. These programs target federal resources in key areas that 
provide critical national benefits, stimulate complementary private 
investments and leverage market forces. Our budget request responds to 
five significant drivers: economic competitiveness; energy security; 
environmental quality; electric utility restructuring; and global 
climate change.
Economic Competitiveness
    Carried out in partnership with industry, national laboratories, 
and universities, EERE's research and development programs help to 
maintain America's technological expertise and competitive advantage 
here at home and in the rapidly growing global market for clean energy 
technologies. EERE's investments not only build the foundation for a 
sustainable energy future but also open markets for U.S. manufacturers 
of these advanced technologies. EERE sponsors international programs to 
promote U.S. renewable electric and related power sector technologies 
in international markets. EERE's work on renewable energy reduces the 
U.S. trade deficit by creating technologies for export, reducing costly 
energy imports, and thereby stimulating economic development and job 
creation.
    The World Bank has estimated that over the next four decades 
developing countries alone will require five million megawatts of new 
electrical capacity to meet the needs of their citizens and their 
expanding economies (the world's total installed capacity today is 
three million megawatts). Meeting this demand will require world-wide 
investments of several trillion dollars and thus represents a 
tremendous opportunity for U.S. clean energy technology sales and job 
creation. EERE programs help ensure that advanced American-made clean 
energy technologies are developed that can meet this demand and ensure 
the technological competitiveness of U.S. companies. We cannot afford 
to cede the development of these innovative technologies to other 
nations or to develop them and allow other countries to realize the 
resulting economic benefits.
Energy Security
    During the past 23 years, three major disruptions in the world oil 
market have shaken the global economy. Further disruptions in the 
future are quite possible. In 1996, U.S. net oil imports accounted for 
46 percent of domestic petroleum consumption. By 2020, U.S. net oil 
imports are expected to grow to 63 percent of domestic petroleum 
consumption--with an annual oil bill of $130 billion. By that time, 
Persian Gulf nations will likely account for over two-thirds of the 
world's oil exports. And as the current Iraq situation illustrates, the 
Persian Gulf continues to be one of the most volatile regions of the 
world.
    To ensure a secure energy future, we must not only reduce our 
dependence on imported oil, but diversify our energy resources. We must 
develop a diverse portfolio of energy options, including renewable 
energy sources, to meet our expanding energy needs. Such a portfolio 
will lessen the impact on the U.S. of volatility in global energy 
markets while reducing the U.S. trade deficit by cutting energy 
imports.
Environmental Quality
    Air pollution, particularly in urban centers, ranks high among the 
nation's most pressing environmental concerns. Renewable technologies 
offer a clean, environmentally responsible option for generating power. 
By developing technologies that use alternative energy sources and 
advanced technologies, EERE programs are concurrently finding ways to 
reduce energy-related air pollutants as well as the cost of 
environmental compliance. The emphasis is on pollution prevention 
rather than traditional end-of-process pollution control technologies. 
Renewable energy technologies offer states and cities attractive 
options in the development of State Implementation Plans to meet Clean 
Air Act requirements.
Electric Utility Restructuring
    EERE is working with utilities, industry, states, and consumers to 
ensure that restructuring of the electric industry results in a 
competitive, cost-effective and consumer-responsive electricity 
generation industry. Utility restructuring presents an opportunity to 
reduce energy costs, advance the use of energy efficient and renewable 
energy technologies, and provide affordable services with reduced 
environmental impacts.
    Restructuring also presents a significant challenge. Where 
restructuring has occurred, private industry investment in energy 
technology R&D has virtually disappeared. For example, in the United 
Kingdom, restructuring of energy industries has resulted in private 
industry energy R&D declining to essentially zero as companies can no 
longer assume such financial risks. The same phenomenon has occurred in 
California. Several large utilities maintained substantial investments 
in technology R&D, but with the onset of restructuring these 
investments have dropped to zero. Thus it is imperative that 
restructuring be done in a way that encourages industry investment in 
R&D. Further, under a restructured environment, federal government 
investments in energy technology are critical.
Climate Change
    The President's fiscal year 1999 budget request for EERE programs 
is a major element of his proposal to invest $6.3 billion over five 
years to reduce greenhouse gas emissions to below 1990 levels by 2008-
2012 through enhanced energy research and development and tax 
incentives. In 1997, a major study conducted by five DOE national 
laboratories documented the critical role that development and 
deployment of energy efficiency and renewable energy technologies can 
play in reducing greenhouse gases. Increased investments in R&D for 
these technologies and implementation of policies to accelerate their 
use can substantially cut the cost of reducing greenhouse gas emissions 
while producing cleaner air and other benefits that exceed the cost of 
the emissions reductions. It is important to realize that development 
and deployment of these technologies offer economic benefits now while 
positioning our nation to reduce greenhouse gas emissions in the future 
if and when that is required by international treaty. Quite simply, 
these technologies are of critical importance in meeting the broad 
array of energy and environmental challenges of the next century.
                solar and renewable energy technologies
    Our fiscal year 1999 program request for Solar and Renewable Energy 
Technologies is $389.3 million--an increase of $92.6 million over 
fiscal year 1998. This request has three central objectives. First, we 
will maintain U.S. technological superiority by funding, in cooperation 
with industry and other partners, a balanced portfolio of research and 
development in renewable energy and supporting electric technologies. 
Second, we will improve environmental quality through increased use of 
non-polluting renewable energy technologies and advanced electric power 
systems. Third, we will expedite the transfer of technology and 
manufacturing process improvements to U.S. renewable energy and 
supporting technology industries which will enable them to increase the 
deployment of their energy systems in the United States and to better 
compete for expanding export markets for such systems in other 
countries.
    The bulk of the EERE Energy and Water Development Appropriation 
supports the work of the Office of Utility Technologies. This office 
works with electric service providers and related industries to advance 
clean, reliable and affordable power. We develop renewable energy 
technologies that use solar, wind, hydropower, geothermal and biomass 
energy resources and conduct R&D that will enable a hydrogen energy 
infrastructure in the future. Our program also develops advanced 
technologies--including high temperature superconducting materials and 
energy storage--that will improve the energy efficiency and cost-
effectiveness of the nation's electric systems. Finally, the program 
facilitates the export of renewable energy power generation 
internationally.
    The Energy and Water Development Appropriation also funds two other 
EERE programs: The Office of Transportation Technologies supports R&D 
on production of biomass-based transportation fuels, and the Office of 
Industrial Technologies supports the development of advanced turbine 
technology for cogeneration applications using biomass fuels.
    Table I on the following page provides a summary of our fiscal year 
1999 budget request, together with the appropriations for fiscal year 
1998 and fiscal year 1997. In the following sections, I describe the 
details of the request. For each major line of the budget, I identify 
changes relative to fiscal year 1998 appropriations and describe 
program specifics and reasons for the requested funding change.

               SOLAR AND RENEWABLE ENERGY PROGRAM FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
                                              Fiscal year
                              ------------------------------------------
                                                     1999     1998-1999
                                 1997      1998     request     change
------------------------------------------------------------------------
Solar Building Technology
 Research....................       2.3       2.7       5.0         +2.3
Photovoltaic Energy Systems..      59.2      65.5      78.8        +13.3
Solar Thermal Energy Systems.      21.9      16.5      22.5         +6.0
Biopower Energy Systems......      27.2      28.2      42.9        +14.7
Wind Energy Systems..........      28.6      32.5      43.5        +11.0
Renewable Energy Production
 Incentive...................       2.0       3.0       4.0         +1.0
Solar Program Support........  ........  ........      14.0        +14.0
International Solar Energy
 Program \1\.................       0.6       1.4       8.8         +7.4
Geothermal Energy Systems....      29.6      29.0      33.0         +4.0
Hydrogen Research and
 Development.................      14.8      16.0      24.0         +8.0
Hydropower Development.......       1.0       0.7       4.0         +3.3
Renewable Indian Energy
 Resources...................       4.0       3.9  ........         -3.9
Electric Energy Systems and
 Storage.....................      31.4      43.8      38.5         -4.3
Federal Buildings Remote
 Power Initiative............  ........       4.9  ........         -4.9
                              ------------------------------------------
      Total Utility
       Technologies..........     222.6     247.0     319.0        +72.0
                              ==========================================
Transportation Technologies:
 Biofuels Energy Systems.....      27.2      30.7      46.9        +16.2
                              ==========================================
Solar Technology Transfer....  ........  ........       1.4         +1.4
National Renewable Energy
 Laboratory..................       3.3       3.2       5.0         +1.8
Program Direction............      13.1      15.7      17.0         +1.3
                              ------------------------------------------
      Subtotal, Solar and
       Renewable Energy......     266.2     296.7     389.3        +92.6
                              ==========================================
Use of Prior Year Balances...     -22.4     -24.4     -17.0         +7.4
                              ==========================================
      Total, Solar and
       Renewable Energy......     243.8     272.2     372.3       +100.0
------------------------------------------------------------------------
\1\ Excludes funding for international energy efficiency programs under
  Energy Conservation.

                   solar building technology research
    The request for Solar Building Technology Research is $5.0 million, 
an increase of $2.3 million from current levels to help provide 
economically competitive sources of solar hot water heating in 
residential, commercial, and industrial buildings. The funding increase 
will enable the Department to implement a new strategic partnership 
with builders, developers and utilities based on customer 
identification of emerging solar water heating requirements. The 
program is divided into three areas: Technology Development ($3.5 
million), Field Validation ($1.0 million), and Quality Assurance and 
Customer Information ($0.5 million).
    Within Technology Development (up $2.1 million), customer concerns 
regarding solar water heating systems will be addressed by improved 
manufacturing process and component R&D. These will lower costs by an 
estimated 20 percent and provide products that are more visually 
attractive. New concepts will be solicited that have the potential for 
reducing costs by 50 percent or that can adapt existing technologies to 
new markets.
    In Field Validation (down $0.1 million), the program will enter 
into partnerships with builders and utilities in several regions to 
deploy solar systems. The objective is to demonstrate the capability of 
solar hot water systems to meet homeowner needs in the new construction 
market. Evaluation of the operation of these systems, and widespread 
dissemination of the results, will provide valuable feedback to the 
research and development of these systems.
    Quality Assurance and Customer Information (up $0.3 million) 
funding will be used to address reliability, a major customer concern. 
This will be addressed through the establishment of a national rating 
and certification process in collaboration with industry. Information 
materials will also be developed to improve customer confidence in 
solar water heating systems. Overall program goals include reducing the 
levelized energy costs of heating water from 8 cents/kWh electricity 
equivalent to 6 cents/kWh, and extending system life 15 to 20 years.
    The Solar Building Program is also a key element of the Million 
Solar Roofs Initiative discussed below, which has a goal to install one 
million solar energy systems on U.S. roofs by 2010. It is anticipated 
that up to half of these systems will be solar hot water systems. The 
program's efforts, carried out in conjunction with U.S. industry and 
other initiative partners, will help ensure that the initiative's goal 
is met.
                      photovoltaic energy systems
    The request for Photovoltaic Energy Systems is $78.8 million, an 
increase of $13.3 million from fiscal year 1998. Industry provides 
significant resources for cost-shared technology R&D. Based on a multi-
year technology plan that has been developed in close partnership with 
industry, this balanced program focuses on three key activities that 
industry and other stakeholders have cited as the most critical to 
maintaining and advancing our lead in PV technology and products: 
Fundamental Research ($11.0 million), Advanced Materials and Devices 
($27.0 million), and Collector Research and Systems Development ($40.8 
million).
    Today, the U.S. stands as the world leader in photovoltaic 
technology, with our industry garnering 42 percent of total sales in 
1997. This has not always been the case, however. Leadership in 
photovoltaic technology was lost to Japan in the mid 1980's because of 
strong government support for PV development. As a result of expanded 
support for advanced technology research and other DOE-industry 
partnership programs, the U.S. was able to recapture the lead in global 
market share for photovoltaic modules in 1993.
    Despite its current leadership position, however, the U.S. 
photovoltaic industry faces intense competition for the rapidly growing 
world-wide photovoltaics market from Japan and Europe, which are 
aggressively researching and marketing their PV technology. Although 
worldwide PV sales grew by 43 percent in 1997, current sales are still 
only 127 MW per year, a tiny fraction of PV's full potential. To 
maintain U.S. leadership, and to penetrate new, larger markets in 
utilities and building applications, the cost of PV systems must be 
more competitive with other sources of electricity. Critical 
improvements in conversion efficiency, manufacturing, reliability and 
system life are essential. The increased funding request will enable 
the PV program, in cooperation with U.S. industry partners, to continue 
the research needed to resolve these technical problems.
    Funding for Fundamental Research (no change) will continue world-
class research at national laboratories and universities on advanced 
concepts for improved technology in the post-2000 time frame. 
Activities will include continued research on several photovoltaic 
semiconductor materials to resolve issues that limit current 
technology. This work will advance the understanding of new and 
improved materials, cell structures, deposition processes, 
semiconductor theory and material characterization methods.
    Advanced Materials and Devices (up $3.0 million) will continue 
collaborative research with industry to improve device efficiency and 
stability, particularly for large-area, thin-film deposition systems. 
The budget increase will enhance efforts (four to five new contracts) 
within the thin-film partnership program to achieve cost-effective 
thin-film technologies. Photovoltaic devices employing thin-film 
technology significantly reduce the amount of semiconductor material 
required for power generation. Also, because such devices are amenable 
to mass production, they offer significant potential for cost 
reduction--which would make possible widespread use of such 
technologies as PV shingles. Module reliability research will continue 
to support testing of modules to improve operational lifetime in the 
field.
    Collector Research and Systems Development increases (up $10.3 
million) will improve manufacturing processes for thin-film 
technologies emerging from successful laboratory R&D activities and 
assist U.S. industry to develop advanced manufacturing technology for 
higher-performance and lower-cost commercial thin-film modules (fifteen 
to eighteen new three year contracts). Key to maintaining U.S. 
competitiveness over the next five to ten years, manufacturing process 
research and development under the Photovoltaic Manufacturing 
Technology (PVMaT) partnership will continue cost-shared research with 
industry to reduce module manufacturing costs, improve module 
performance, and stimulate investment in new manufacturing production 
lines. As a result of cost-shared R&D with industry, average 
manufacturing costs for DOE partners have declined by 50 percent and 
are expected to decline by another 75 percent by 2000. In addition, 
funding will be provided to continue collaboration with industry to 
increase module and balance-of-systems manufacturing efficiency. The 
objective of this research is to reduce costs by about 35 percent for 
installed systems in the year 2000 and increase system performance and 
reliability through improved manufacturing process technology, 
efficiency, and quality control. In cooperation with the Utility 
Photovoltaic Group (UPVG), efforts will continue to complete cost-
shared utility projects designed to provide utilities with hands-on 
experience with PV systems, and validate technical and economic 
performance in specific high-value applications. A portion of the 
increase will also be used to fully fund 5 to 10 Phase III building 
integrated contracts under the PV:BONUS program, which supports cost-
shared efforts with utilities and others to develop PV products that 
can be integrated into commercial and residential buildings.
    In addition, a part of the increase in Collector Research and 
Systems Development (up $1.4 million) will be targeted at specific 
activities that support the President's Million Solar Roofs Initiative. 
An important goal of this initiative is to help develop a significant 
domestic market for U.S.-manufactured solar energy systems, to provide 
a firm base for U.S. industry expansion and market competitiveness. 
Without such a base, as is being actively pursued in other countries 
such as Germany and Japan, it is likely that PV systems will be another 
example of technology developed here but exploited abroad.
    In fiscal year 1999, the Million Solar Roofs Initiative will work 
with at least 25 partners--utilities, builders, solar equipment 
manufacturers, federal and state agencies, cities, and financial 
institutions across the nation--to develop action plans to install one 
million PV and solar water heating systems on the roofs of buildings 
and homes across the United States by the year 2010. Many of these 
entities are eager to invest in these technologies for a variety of 
reasons, including energy supply diversification, restructuring of the 
electricity industry, development of local clean energy industries and 
environmental quality. To ensure that the program is responsive to 
business, customers and to local needs, the DOE regional support 
offices will help leverage private financing, provide technical 
assistance and coordinate federal support. As the largest single user 
of energy in the U.S., the federal government is committed to 
installing 15,000 to 20,000 rooftop systems on its own facilities by 
2010. Additionally. the initiative will also work to ensure that 
photovoltaic and solar hot water systems meet the requirements of 
builders and state and local codes and standards.
                      solar thermal energy systems
    The fiscal year 1999 budget request for Solar Thermal Energy 
Systems is $22.5 million, an increase of $6.0 million. The funding is 
divided between Thermal Systems Research ($5.5 million) and Power 
Applications Research ($17.0 million). The program is working to 
develop economically competitive solar thermal technologies which 
convert sunlight into heat and then into electricity. Solar thermal 
technologies will improve our nation's diversity of energy supply, 
reduce the environmental impacts of energy production, and create 
business opportunities for U.S. industry both here and abroad. In 
concert with U.S. industry, the program is working to provide solar 
thermal power options that industry can use to serve dispatchable, 
distributed and remote power needs.
    The requested funding for Thermal Systems Research ($0.6 million 
decrease from fiscal year 1998) will be used to support materials 
research, including the final year of the five-year outdoor testing 
program for optical materials, solar concentrator research, dish/engine 
receiver development, and identification and evaluation of advanced 
thermal power concepts.
    The Power Applications Research funding (up $6.6 million) will 
support full-power testing and operations at the Solar Two power tower, 
proving the capability of molten-salt thermal storage and establishing 
the technical and operational feasibility of power tower systems. It 
will reduce the cost of drive mechanisms for dishes and heliostats 
under the Solar Manufacturing Technologies (SolMaT) Initiative. In 
addition, the request will continue to work with U.S. industry to 
reduce system O&M costs, and support several cost-shared field 
validation efforts to improve the reliability of dish/engine systems. 
The dish/engine industry-led efforts include the Utility-Scale Joint 
Venture Project, which will demonstrate dish/Stirling systems in 
various operating environments and configurations; the Dish/Engine 
Critical Components Initiative, which is investigating alternative 
dish/engine designs; and the Dish Engine Field Verification Initiative, 
which will establish long-term system reliability, quantify O&M issues 
and costs, and develop the manufacturing capability and production 
capacity necessary to build future systems that will compete 
economically in the distributed power market.
    Full-power testing of Solar Two, the world's leading-edge 
demonstration of molten-salt thermal storage and power tower 
technology, is the critical step needed to ensure commercial interest 
in these technologies. With the ability to dispatch power for many 
hours after the sun goes down and thus provide power throughout periods 
of high demand, power tower technology could play an important role in 
future clean electricity supply at competitive costs. Strong and 
continued private sector interest and cost-sharing support this 
conclusion. Full power testing of this research facility will conclude 
in fiscal year 1999, at which time the facility will be sold or 
retired.
                          wind energy systems
    The fiscal year 1999 funding request for the Wind Energy Systems 
program is $43.5 million, an increase of $11.0 million over the fiscal 
year 1998 appropriation. The Wind Energy Systems program supports R&D 
activities that help U.S. industry develop wind technology as an 
economically viable energy supply option and gain a technological edge 
over international competition. While costs of wind-generated 
electricity have declined significantly, wind energy is still not 
widely accepted as a commercial power generation technology in the 
U.S., and initial domestic sales have occurred only in certain markets. 
The U.S. wind industry also faces intense competition from foreign 
companies that offer their manufacturers tied aid and other market 
support not generally available to U.S. firms. The key to positioning 
wind as an important U.S. clean energy option is the development of 
innovative, cost-competitive technology that is being carried out under 
the Wind Energy program. These efforts are targeted for the post-2000 
marketplace, and should help U.S. industry leapfrog its foreign 
competition.
    In fiscal year 1999, the wind program will focus on Applied 
Research ($10.7 million), Turbine Research ($24.8 million), and 
Cooperative Research and Testing ($8.0 million).
    Applied Research (down $0.8 million) addresses fundamental 
engineering and technology issues with a broad range of applications 
and is carried out at national laboratories and numerous universities. 
The decrease in requested funding reflects completion of the 1.5 MW 
dynamometer facility for testing turbine drive train performance in a 
laboratory environment.
    Turbine Research (up $11.8 million) is a coordinated effort with 
industry and utilities to perform cost-shared R&D for the next 
generation of U.S. manufactured wind turbines. The requested increase 
for Turbine Research will support both new and continuing partnerships 
that help U.S. industry design and test state-of-the-art wind turbines. 
Two next generation turbines are being designed, in a joint effort with 
industry, that will reduce energy costs from wind systems to as low as 
2.5 cents/kWh at 15 mph wind sites by 2002. In fiscal year 1999, 
fabrication of the first prototype of this next generation wind turbine 
(up to 1 MW size) will be completed and field testing will begin. We 
will also seek 2-3 partners for utility-scale projects (up to 25 MW in 
size) tailored to meet the requirements of electric service providers 
competing in restructured electric power markets. In addition, the 
program will complete fabrication and begin field testing of small wind 
turbine prototypes (8-40 kW) ideal for distributed or remote 
applications.
    Cooperative Research and Testing (no change) focuses on near-term 
R&D and testing at the world-class National Wind Technology Center in 
Colorado, which features a new user facility that allows U.S. 
industries to expand testing of new wind energy technologies. Level 
funding for Cooperative Research and Testing will support industry 
testing at the National Wind Technology Center and establishment of a 
U.S.-based commercial firm as an internationally-recognized 
certification agent for wind turbine systems. At present, certification 
is problematic for U.S. companies because they must submit their data 
to foreign-based certification agents. DOE and the U.S. wind industry 
agree that a U.S.-based certification organization is essential to the 
long-term success of the industry, and an aggressive effort is underway 
to put such an organization in place. Key international standards are 
being developed with U.S. participation. We are taking steps to achieve 
International Standards Organization accreditation of tests performed 
at the National Wind Technology Center, and the National Renewable 
Energy Laboratory and Underwriters Laboratory are working together to 
develop U.S. wind turbine certification capability. Our time line 
indicates that initial certification of wind turbines by a U.S.-based 
certification organization could take place in early fiscal year 1999.
                           biopower/biofuels
    We are requesting $89.8 million for Biopower/Biofuels programs in 
fiscal year 1999, an increase of $30.9 million. The Department's 
program is an integrated effort spread among three sectors within the 
Office of Energy and Renewable Energy in partnership with the private 
sector. The program supports biomass energy projects aimed at three 
principal markets: electric power; transportation fuels; and biomass 
cogeneration in industry.
    The budget request for the Biopower Energy Systems program within 
the Office of Utility Technologies is $42.9 million in fiscal year 
1999--an increase of $14.7 million over fiscal year 1998. The program 
focuses on research, development and proof-of-concept activities for 
thermochemical conversion technologies to produce cost-competitive 
baseload electricity from biomass. The request includes $2.7 million 
for Thermochemical Conversion, $37.3 million for Systems Development 
and $2.9 million for industrial biomass cogeneration.
    The increase in Thermochemical Conversion (up $1.2 million) will 
support basic thermochemical research that will facilitate the 
continued development of cost-competitive biogasification technologies.
    Within the Systems Development activity (up $15.9 million), $20 
million is requested for the DOE/USDA Biomass Power for Rural 
Development Initiative (an increase of $2.2 million), $9.3 million is 
requested for a new co-firing with coal initiative, and $8.0 million is 
requested for a significantly expanded modular biopower systems 
initiative.
    The Rural Development Initiative in fiscal year 1999 would support 
three projects: full power testing of the 35 MW switchgrass co-firing 
project in Chariton Valley, Iowa, that is scheduled for completion in 
2001 ($2.5 million); full power testing for the 30-40 MW willow co-
firing project in New York State that is also scheduled for completion 
in 2001 ($2.5 million), and support for construction of the 75 MW 
Minnesota Valley Alfalfa Producers integrated gasification combined 
cycle power plant, which is scheduled to begin delivering power to 
Northern States Power by the end of 2001 ($15.0 million).
    The Co-Firing with Coal Initiative will complete five commercial-
scale demonstrations using at least five percent biomass at 
conventional power plants, provide technical information to interested 
parties and develop tools to identify low-cost feedstocks. Modular 
systems development focuses on designing smaller gasification units (5 
kW to 5 MW) that are easy to manufacture, install and operate. These 
flexible systems, which will be usable with a broad range of biomass 
feedstocks, will have great potential for both distributed and remote 
applications, will have minimal environmental impact, and represent a 
potentially important export market for U.S. industry.
    The increases in the Systems Development budget will be partially 
offset by reduced funding (down $2.2 million) for two gasifier 
projects. No fiscal year 1999 activity is anticipated for the Hawaii 
bagasse direct gasifier project due to permitting and cost-sharing 
difficulties. The Vermont wood gasification project will utilize prior 
year funds and cost-sharing to complete installation of a gas turbine 
to test the gasifier/gas turbine configuration.
    The Industrial Biomass for Cogeneration program within the Office 
of Industrial Technologies (up $0.3 million), seeks to enable the 
Advanced Turbine System technology to combust biomass derived fuels. 
Cogeneration system efficiencies can reach as high as 90 percent, 
significantly higher than when steam and electricity are produced 
separately. Use of biomass fuels for cogeneration can significantly 
lower operating costs and cut emissions--especially for industries that 
produce biomass waste. The budget request will support continued 
analysis of the gasification and combustion products of low/medium Btu 
fuels in highly efficient gas turbines.
    The Transportation Biofuels Energy Systems program within the 
Office of Transportation Technologies has a budget request of $46.9 
million in fiscal year 1999--an increase of $16.2 million over fiscal 
year 1998. This program supports research, development and 
demonstration activities related to feedstock production systems to 
develop bioenergy crops and biochemical conversion systems for the 
production of ethanol for use as transportation fuel. The request will 
support research, development and demonstration of technologies for the 
production of liquid transportation biofuels, to provide 0.7 quads of 
energy by the year 2010 and 1.0 quads by the year 2020. Biofuels 
produce almost no net carbon on a life cycle basis. Their use in 
replacing traditional fossil fuels will reduce oil dependence and 
greenhouse gas emissions. The $46.9 million request includes $36.4 
million for Ethanol Production R&D, $1.0 million for Biodeisel 
Production R&D, $6.0 million for feedstock production and $3.5 million 
for the Regional Biomass Energy Program.
    The major focus of the Biofuels Program is Ethanol Production (up 
$11.0 million). Today, ethanol can be blended with gasoline in 10 
percent ethanol/90 percent gasoline mixtures. It is also used in some 
flexible-fueled vehicles (up to 85 percent ethanol blend). It is 
estimated that 500,000 of these vehicles will be produced over the next 
several years. Ethanol is also being considered for use in fuel cells.
    We are also working to demonstrate commercial production of ethanol 
from ``cellulosic'' biomass in different regional settings with 
different feedstocks. We are currently working with three partners who 
believe that technology risks have been minimized to the point where 
they are seeking private sector financing to build ``first-of-a-kind'' 
commercial demonstration plants using agricultural wastes. Our request 
of $36.4 million for ethanol production also enables us to pursue 
opportunities, such as utilizing forest underbrush to produce ethanol 
to also reduce the risk of catastrophic forest fires in the West. In 
addition, we are working with the existing starch-based corn-to-ethanol 
industry to demonstrate cellulose-to-ethanol technology using the corn 
fiber (kernel) and corn stover (stalks). This will provide a potential 
market for enzyme companies to develop systems that are critical to the 
large-scale deployment of cellulosic ethanol.
    Core ethanol technology research will continue at National 
Laboratories to address key cost factors and integrated process 
efficiencies to reach our ethanol production cost goal of $0.67 per 
gallon by the year 2010 and achieve at least 3-4 percent displacement 
of gasoline in the transportation sector.
    The biodiesel program (up $0.3 million) will continue research and 
development of technologies to lower the cost of biodiesel production 
in order to bring about a cost-competitive bio-based alternative to 
diesel fuel.
    The request for feedstock production R&D (up $3.5 million) and the 
Regional Biomass Energy Program (up $1.5 million) reflects a 
consolidation of these programs into the Office of Transportation 
Technologies. The actual net increase for these programs is $2.3 
million over fiscal year 1998. These programs will expand the research 
and development of low cost biomass feedstocks in the form of dedicated 
energy crops and continue the regional biomass energy partnerships with 
state and local governments to develop the capability to produce and 
use biomass resources.
             renewable energy production incentive program
    The request for the Renewable Energy Production Incentive Program 
is $4.0 million, a $1.0 million increase over fiscal year 1998 funding 
levels. Annual appropriations provide financial production incentives 
to stimulate the construction and operation of new, qualified renewable 
energy facilities owned by state entities, municipal utilities, and 
electric cooperatives that produce and sell electricity. Although 
higher than the request for fiscal year 1998, the request for fiscal 
year 1999 is still considerably below the amount that would be needed 
for full funding of all electricity generated by qualified facilities. 
We estimate that fiscal year 1999 payments to qualified Tier I 
facilities--which use solar, wind, geothermal or dedicated (closed-
loop) biomass resources--will require $0.2-0.3 million to pay for 
electricity generated and sold. For qualified Tier II facilities, which 
include non-dedicated (open-loop) biomass resources (a much greater 
number of facilities), $11-13 million would be required to make full 
payments. In addition, Tier II facilities have approximately $6.7 
million in previous electricity production from prior year generation 
that will be eligible for incentive payments in fiscal year 1999. Thus, 
full payment in fiscal year 1999 to all eligible facilities would 
require as much as $20 million. Since full payments are not possible 
with limited appropriations, partial payments are provided on a pro-
rata basis.
                  national renewable energy laboratory
    The fiscal year 1999 request of $5.0 million for the National 
Renewable Energy Laboratory (NREL), a net increase of $1.8 million, is 
to provide for facility operations, including general purpose equipment 
purchases, and for maintaining and upgrading NREL facilities to assure 
appropriate technological, computational and scientific support for 
Solar and Renewable Energy R&D activities. The majority of the request 
will fund upgrading of the data system infrastructure--including 
cables, telecommunications equipment, servers, other hardware and 
software--that supports data transmission among all NREL research 
facilities and sites. The expansion of the Field Test Laboratory 
Building will be completed in fiscal year 1998 and will therefore 
require no funding in fiscal year 1999.
                           geothermal energy
    The Geothermal Energy request for fiscal year 1999 is $33.0 
million, an increase of $4.0 million over fiscal year 1998 levels. The 
Office of Geothermal Technologies works with U.S. industries and 
electric utilities to create cost-competitive, environmentally 
attractive geothermal options. These joint efforts sponsor research and 
development that leads to advanced technologies to improve reliability, 
reduce environmental impacts, and lower costs of geothermal energy 
systems. The budget request is divided between Geothermal Electric R&D 
and Deployment ($29.5 million) and Geothermal Heat Pump Deployment 
($3.5 million).
    Within the Geothermal Electric R&D and Deployment (up $6.8 
million), cost-shared funding will initiate development of a technology 
that can map the characteristics of fractures in subsurface geothermal 
rock formations and complete development of computer techniques to 
derive critical geothermal reservoir parameters from relatively 
inexpensive seismic data. The program will continue to work with 
industry to field test synthetic diamond bits that can drill 
effectively in hot, hard rock formations. We will also continue 
development of fiber optic technology capable of transmitting 
information at high rates from the bottom of geothermal wells.
    In fiscal year 1999, we plan to evaluate the performance of a 
rotary separator-turbine in a cost-shared demonstration of the economic 
benefits of improved electric generation technology in geothermal 
applications. The program will also cost-share with industry new field 
studies to test techniques for recovering geothermal heat at the 
margins of geothermal fields in the absence of natural fluids. In 
addition, we will co-fund construction of a bioprocessing unit that can 
recover commercially-valuable byproducts from geothermal power plant 
operation, including silica, sulfur, and mineral-rich solid waste.
    In fiscal year 1999, the final year of funding for the Geothermal 
Heat Pump Deployment (down $2.9 million), we will continue to work with 
the industry consortium to accelerate widespread consumer acceptance of 
geothermal heat pump technology. This will include continued co-funding 
of efforts to increase public awareness of geothermal heat pump 
technologies and benefits and develop advanced design capability to 
increase market share. Co-funding will also support research on 
drilling and grouting techniques to improve the efficiency of ground 
loop heat exchangers and to increase geothermal heat pump reliability.
                                hydrogen
    The fiscal year 1999 request for Hydrogen research and development 
is $24.0 million, an increase of $8.0 million compared to fiscal year 
1998. The mission of the Hydrogen Research Program is to support the 
development of cost-competitive hydrogen systems that will reduce the 
environmental impacts of energy use and support the increased market 
penetration of renewable energy systems and hydrogen-powered vehicles. 
To carry out its mission, the program employs four strategies. First, 
we work with industrial suppliers of hydrogen to improve the 
efficiency, lower the emissions, and lower the cost of technologies 
that produce hydrogen from natural gas or use renewable energy. Second, 
we work with fuel cell manufacturers to develop storage and reversible 
fuel cell systems that will facilitate the introduction and penetration 
of distributed, renewable-based power generation systems. Third, we 
coordinate with the Department of Defense and DOE's Office of 
Transportation Technologies to demonstrate safe and cost-effective 
fueling systems for hydrogen vehicles in non-attainment urban areas. 
Finally, we work with national laboratories and universities to lower 
the cost of technologies that produce hydrogen directly from sunlight 
and water without electrolysis.
    The three program components are Core Research and Development 
($10.1 million), Technology Validation Program ($11.4 million) and 
Analysis and Outreach ($2.5 million).
    Core Research and Development (up $3.1 million) supports R&D on 
hydrogen production, storage and utilization. Production research and 
development is focused on steam and plasma reforming and partial 
oxidation of natural gas, production of hydrogen from biomass, and 
photobiological and photoelectro-chemical processes for hydrogen 
production. In fiscal year 1999, a scaled-up experimental unit 
demonstrating the integration of a sorbent-enhanced reformer will be 
operated to verify a 4 percent anticipated increase in process 
efficiency while eliminating CO<INF>2</INF> emissions. A biomass 
pyrolytic process development unit for hydrogen production will also be 
assembled and tested to demonstrate catalysis lifetimes.
    Storage research and development is focused on developing materials 
and systems that exceed 5.5 percent hydrogen by weight for utility and 
transportation applications. Metal hydrides carbon-based storage, glass 
microspheres, and polyhydride materials are being explored as possible 
future storage systems. A proof-of-concept, light weight magnesium-
aluminum-copper alloy metal hydride system approaching five percent 
hydrogen storage will be assembled and demonstrated at an operating 
temperature below 150 deg. C.
    Utilization technology development is focused on developing and 
demonstrating end-use power systems that are safe, and have near-zero 
or zero emissions with an overall generation efficiency greater than 45 
percent. A low-cost fiber optic hydrogen gas leak detector, developed 
jointly with industry, will be fully transferred to industry for 
commercial application. Additionally, an advanced proton exchange 
membrane fuel cell manufacturing process will be assembled and scaled 
up using metal plates rather than more expensive graphite plates.
    Technology Validation (up $5.1 million) supports cost-shared 
ventures with industry on hydrogen vehicle fueling stations, vehicle-
mounted storage systems reversible fuel cells (i.e., fuel cells that 
can operate as power sources or electrolyzers), biomass gasifiers for 
hydrogen production, and small hydrogen fuel cell systems. These 
efforts include: (1) development of hydrogen reversible fuel cells and 
electrolysis systems for use with wind, hydra, biomass, solar and other 
renewable electric power systems for the production of hydrogen and 
peak or intermediate power, and for remote applications; (2) a 
solicitation for the demonstration of a 50 kW fuel cell electric 
generation station that co-produces hydrogen for a fueling station for 
hydrogen vehicles as part of a ``Clean Corridor'' activity being 
supported by the Office of Transportation Technology; and (3) Phase II 
design and construction of cost-shared ventures with industry for 
small-scale (3-10 kW) fuel cells for remote applications.
    Analysis and Outreach (down $0.2 million) conducts portfolio and 
technology analyses and works with industry and university partners to 
determine what steps are required to transition to a hydrogen energy 
economy. In fiscal year 1999, this activity will support the 
development of technology roadmaps for hydrogen technology and corridor 
development.
                  electric energy systems and storage
    $38.5 million is requested for the Electric Energy Systems and 
Storage program in fiscal year 1999, a decrease of $4.3 million from 
fiscal year 1998. The program is working with partners to develop 
advanced power systems that will make the delivery of electric power 
more efficient and cost effective, reduce power sector emissions, 
facilitate market penetration of renewables, and enhance U.S. 
industrial competitiveness. The program includes efforts on High 
Temperature Superconductivity ($32.0 million), Energy Storage ($6.0 
million), Electric and Magnetic Fields (no funds requested) and Climate 
Challenge ($0.5 million).
    The High Temperature Superconductivity program (no change) will 
enable the Department to continue to lead the national effort to 
capture the energy savings potential of superconductivity--the ability 
of certain materials to carry electricity without resistance losses. 
Pre-commercial prototypes of electric transmission cables, 
transformers, motors and current limiters will be built and tested 
during the next three years, and commercial versions will become 
available over the next 15 years--a period when much of the existing 
power delivery infrastructure will need replacement and new stresses 
will be placed on the national electrical system due to deregulation 
and increased competition.
    Within the program, funding of $14.0 million will continue support 
for the innovative and highly successful Superconductivity Partnership 
Initiative; $8.0 million will be directed to the Second Generation Wire 
Initiative to transfer breakthroughs in wire technology discovered at 
Los Alamos and Oak Ridge National Laboratories to industry to develop 
manufacturing processes for continuous wire lengths and manufacture the 
world's first high field magnet which operates at liquid nitrogen 
temperature; and $10.0 million will be used to continue the world class 
basic research on high temperature superconductivity that is being 
carried out at our National Labs. This strategic research is critical 
to ensure long-term U.S. leadership in an increasingly competitive and 
growing world market. The Fifth International Superconductivity 
Industry Summit has estimated that the market for all superconductivity 
sales in 2020 could be as much as $244 billion. The Japanese government 
is currently spending at least $99 million in research and development 
on superconductivity according to a National Science Foundation study 
entitled ``Power Applications of Superconductivity, in Japan and 
Germany.''
    The $6.0 million request for the Energy Storage Systems program (up 
$2.0 million) will fund the Storage 2000 Initiative which will develop 
systems to enhance power quality and service reliability, increase the 
value of renewable resources, and enhance technology choices in a 
competitive utility environment.
    Electric and Magnetic Fields (EMF) R&D (down $6.9 million) will 
complete experiments to identify the biophysical basis for replicable 
EMF biological effects and relevant EMF exposure parameters in fiscal 
year 1998. In addition, research begun in fiscal year 1996 to replicate 
key findings, using advanced EMF exposure at four government 
laboratories, and risk evaluation of potential human health effects 
from exposure to EMF, will be completed. The EMF program will complete 
its work in fiscal year 1998 and transfer the data and analyses 
prepared to the National Institute of Environmental Health Sciences for 
that agency to complete its comprehensive risk assessment. Thus, no 
funds are requested by the Department for this program in fiscal year 
1999.
    We are also requesting $0.5 million to support the electric utility 
industry effort on Climate Challenge. This successful effort encourages 
electric utilities to voluntarily reduce, avoid, or sequester 
greenhouse gas emissions using currently available, cost-effective 
means. More than 600 utilities are currently participating in this 
voluntary program representing 70 percent of U.S. electricity 
production. The fiscal year 1999 request would support ongoing 
activities and engage utilities in a dialogue to design a post-2000 
voluntary program.
                         solar program support
    The fiscal year 1999 budget request for Solar Program Support is 
$14.0 million, the first request under this budget line since fiscal 
year 1995. It will fund efforts on Utility Restructuring and a 
Competitive Solicitation to encourage innovative applications and 
deployment of renewable electric technologies.
    Included in the request is $4.0 million for a Utility Restructuring 
program, with $2.0 million to be spent on research and technical 
analysis and $2.0 million to be spent on outreach activities. The 
purpose of these activities is to develop a comprehensive understanding 
of emerging utility restructuring policies across the nation at both 
the state and federal levels, and to provide technical assistance to 
state and federal decision makers. We will conduct research and 
analysis, and develop and disseminate technical results and 
information. Outreach activities will communicate research results to 
state and regional electricity policy officials and other interested 
parties. Technical analyses and research activities will assist 
federal, regional, and state decision makers in evaluating electricity 
policy and market alternatives. Further, this effort will provide tools 
and information for policy makers to develop legislative and regulatory 
policies that lead to competitive, reliable electricity markets with a 
range of energy options including renewable energy technologies.
    The fiscal year 1999 request for Solar Program Support also 
includes $10.0 million for a Competitive Solicitation to speed early 
deployment of renewable technologies. Technology proposals will be 
solicited on the best ways to use renewable technologies either singly 
or in combination with other renewable technologies, or in hybrid 
configurations with natural gas or energy storage systems.
    This effort will be a five-year, cost-shared, highly-leveraged 
partnership ($10.0 million per year federal investment) for 
verification of renewable project performance. The Department will 
offer technical and financial support for new renewable energy projects 
with 70 percent private sector cost share aimed at project structures 
appropriate for a restructured electric power industry. These projects 
would enable new technologies to be demonstrated in the field while 
their performance is monitored and verified so that the private sector 
partners can increase their experience with these prototypes and the 
R&D programs can benefit from field data in a variety of settings. This 
new competitive solicitation reflects the intent of the Federal 
Buildings Remote Power Initiative initially funded by the Congress in 
fiscal year 1998, but is not limited to the federal sector. Of the 
$10.0 million proposed for fiscal year 1999, up to $3.0 million of the 
solicitation will be dedicated to projects benefiting Americans.
    This program is designed to overcome specific impediments to the 
use of renewable electricity technologies. Currently, renewable energy 
projects are hampered by the uncertainties of electric utility 
restructuring, the current low price and perceived availability of 
natural gas, and improvements in gas turbine technology. The 
increasingly competitive restructured electric environment also favors 
technologies with low first costs over those with higher first costs, 
but lower life cycle costs. Rather than high project technical or 
financial risk, the major hurdle often facing renewable energy projects 
is identification of project structures in the new marketplace that 
would allow acquisition of long term power purchase contracts and 
project financing. Such new structures include renewable energy power 
marketers, hybrid projects with renewables and natural gas, investments 
in distributed renewable electricity generation, and customer choice.
                               hydropower
    For fiscal year 1999, the Department is requesting $4.0 million for 
Hydropower Development, an increase of $3.3 million over fiscal year 
1998 funding. With this funding, the program will begin the engineering 
design of a ``fish-friendly'' turbine that can replace turbines at 
existing facilities where environmental concerns may cause a reduction 
in their capacity allowance when applying for relicensing. Hydropower 
provides approximately 11 percent of the total U.S. generating capacity 
today; diminished power production from this clean baseload power 
resource would have serious environmental and economic impacts on our 
nation. This cost-shared program with industry would maximize power 
generation from hydropower facilities and help develop an important 
export market for U.S. companies.
                       solar technology transfer
    The funding request for the Solar Technology Transfer Program is 
$1.4 million. The program did not receive appropriated funds in fiscal 
year 1998. The Solar Technology Transfer Program will disseminate 
information and assistance to a variety of organizations to increase 
knowledge of and experience with renewable energy technologies. The 
funding will be directed to the Energy Efficiency and Renewable Energy 
Clearinghouse (EREC) that serves as a one stop shop for public and 
partner inquiries on renewable energy technologies. In performing such 
a function, EREC lowers the overall cost of staff resources to provide 
such information. This service, which is partially funded under the 
Interior and Related Agencies appropriation to provide information on 
energy efficiency technologies, responded to about 60,000 requests for 
information in fiscal year 1997.
                   international solar energy program
    The fiscal year 1999 budget request for the International Solar 
Energy Program is $8.8 million, an increase of $7.4 million over fiscal 
year 1998 funding. The program comprises three elements: CORECT, the 
Committee on Renewable Energy Commerce and Trade ($2.0 million). 
America's 21st Century Program ($3.4 million) and the U.S. Initiative 
on Joint Implementation ($3.4 million).
    With electricity demand in developing countries projected to grow 
sharply over the next four decades and local environmental quality 
becoming an increasingly severe problem in many of these nations, a 
significant fraction of this demand could be for clean energy 
technologies. If even a small fraction of this growth is met by 
American renewable energy technologies, this would translate into sales 
of several hundred billion dollars and creation of many high quality 
jobs. Our International Solar programs are designed to help ensure that 
U.S. companies are major players in this huge emerging market.
    CORECT, the Committee on Renewable Energy Commerce and Trade (up 
$2.0 million), is the multi-agency coordinating arm of the federal 
government working with U.S. industry to help counter intense 
international competition for the rapidly growing global market for 
renewable technologies. Funding will ensure increased technical 
collaboration with U.S. companies, multilateral financial institutions, 
U.S. trade missions and U.S. consulates to deploy U.S. manufactured 
renewable technologies worldwide. America's 21st Century Program (up 
$3.4 million) will expand technical assistance to Asian/Pacific 
countries, Russia, in addition to Latin America for the deployment of 
renewable energy technology projects through joint ventures with both 
the public and the private sectors. The U.S. Initiative on Joint 
Implementation (up $2.0 million) facilitates public/private cooperation 
on clean technology projects that reduce the emission of greenhouse 
gases. These projects are critical to bringing developing nations into 
full participation in international climate agreements because they 
help these nations understand how clean energy technologies can be used 
to cut their emissions without reducing economic growth.
                        solar program direction
    In fiscal year 1999 we are requesting $17.0 million for program 
direction, an increase of $1.3 million. This increase is primarily for 
corporate planning and analysis activities such as implementation of 
the Government Performance and Results Act. Program Direction provides 
the staffing resources and associated funding to support the management 
and oversight of the Solar and Renewable Energy Programs. It also 
provides funding for support service activities, as directed in 
Congressional Appropriations language.
                          improved management
    Just as we are committed to undertaking critically important R&D, 
we are also dedicated to managing these programs effectively and using 
taxpayer dollars responsibly. To that end, I am implementing a number 
of management initiatives. We are increasing the level of competition 
in selecting contractors. We are developing technology roadmaps in 
collaboration with partners for a greater number of our programs. We 
are developing both a clearer budget and a more open budgeting process. 
Finally, we are focusing on program evaluation and terminating programs 
that don't measure up. To cite a few examples, we are concluding our 
work with the petroleum refining industry as well as our research on 
vehicle applications for Stirling engines, flywheels, ultracapacitors, 
and gas turbines.
                               conclusion
    Thank you again, Mr. Chairman, and members of the Subcommittee for 
the opportunity to discuss our fiscal year 1999 budget request. I hope 
you agree that the investments we propose for our programs, coupled 
with private-sector investments, will enable the nation to respond to 
the important energy and environmental challenges of the coming 
century.

                         nuclear waste disposal

    Senator Domenici. Thank you very much.
    Senator Reid.
    Senator Reid. Thank you, Mr. Chairman.
    Dr. Krebs, your detailed statement identifies clearly the 
priorities of the Office of Energy Research, but does not 
include any new methods that I was aware of disposing of 
nuclear waste. Is there anything in there?
    Dr. Krebs. Senator Reid, we do not invest specifically in 
applications associated with nuclear waste. However, we do make 
investments in our chemical science programs and in our 
geological sciences program that are relevant to issues that 
are involved in nuclear waste. We make investments in 
laboratories, for example at Berkeley, Los Alamos, and 
Livermore that are involved in the nuclear waste repository 
program. So they had the benefit--the colocation, the 
coinvestment, of our research with their activities associated 
with nuclear waste. We believe it pays off on behalf of that 
program.
    Senator Reid. The reason I mention that, there are some who 
are addressing the future of nuclear power, and I think that we 
have to also recognize that cost and social acceptability are 
the two principal obstacles to nuclear power, and I think the 
Government should be involved in some form or fashion.

                           hydrogen research

    In last year's appropriations bill, our bill, the 
Department of Energy--I am sorry. In last year's appropriation 
bill for the Department of Energy, $3 million was put within 
the Office of Energy for hydrogen research. What happened to 
that money? What was accomplished as a result of that money 
being set aside?
    Dr. Krebs. I am aware of $3 million that we have identified 
within the Office of Energy Research associated with hydrogen 
funding. This is the basic science that was funded within the 
Biological and Environmental Research Program, and also in the 
Basic Energy Sciences Program. We were requested by the House 
to identify activities that were related to renewables, and for 
us that included the hydrogen effort.
    A lot of this research is associated with plant science and 
the investigation of methane-producing plants or methane-
metabolyzing plants, and also the use of light to induce the 
production of hydrogen in chemical processes.
    This research was not focused solely on hydrogen, although 
we identified it as associated with hydrogen, it also has a 
broader impact on multidisciplinary areas of science than just 
those associated with hydrogen issues.
    Senator Reid. I understand.
    Dr. Krebs. I would be happy to provide you with that 
information for the record.
    [The information follows:]

                                Hydrogen

    There is confusion regarding the $3 million identified in the 
fiscal year 1998 Energy Research budget for hydrogen research. To 
clarify the main point, at the request of the House Appropriations 
Committee, the Office of Energy Research (ER) was asked to identify ER 
funded research in fiscal year 1998 that supported the activities of 
the Office of Energy Efficiency and Renewable Energy's (EE) programs in 
solar and renewable energy. Within the $44 million of ongoing ER 
activities that were identified, $3 million supported the hydrogen 
program in EE. I would be pleased to provide a listing of current 
projects supported in fiscal year 1998. It is again noted that these 
are ongoing activities within the base program of the Department's 
request and do not represent any added funds by the Congress.
    Dr. Mary F. Roberts, Boston College, ``Osmoregulation in 
Methanogens''
    Dr. Laurens Mets, University of Chicago, ``Molecular genetic 
analysis of biophotolytic hydrogen production in green algae''
    Dr. Michael W.W. Adams, University of Georgia, ``The Metabolism of 
Hydrogen by Extremely Thermophilic Bacteria''
    Dr. William B. Whitman, University of Georgia, ``Biochemistry and 
Genetics of Autotrophy in Methanococcus''
    Dr. Ralph S. Wolfe, University of Illinois, ``Studies on the 
Microbial Formation of Methane''
    Dr. Robert J. Maier, Johns Hopkins University, ``Bacterial Nickel 
Metabolism for Hydrogenase Synthesis''
    Dr. Judy Wall, University of Missouri, ``Genetics and Molecular 
Biology of Hydrogen Metabolism in Sulfate Reducing Bacteria''
    Dr. John N. Reeve, Ohio State University, ``Structure and 
Regulation of Methanogen Genes''
    Dr. Michael J. McInerney, University of Oklahoma, ``Energetics and 
kinetics of syntrophic aromatic degradation''
    Dr. Daniel J. Arp, Oregon State University, ``Characterization of 
the Genes Involved in Nitrification''
    Dr. Louis Sherman, Purdue University, ``A Genetic Analysis of the 
Lumenal Proteins of the Photosystem II 02-evolving Complex in 
Cyanobacteria''
    R. Eisenberg, University of Rochester, ``Photochemistry of Platinum 
Group Elements: Applications to Energy Conversion and Bond Activation''
    E. Greenbaum, Oak Ridge National Laboratory, ``Kinetics of Enzyme-
Catalyzed Processes''
    J.K. Hurst, Washington State University, ``Membrane-Organized 
Chemical Photoredox Systems''
    T.E. Mallouk, Pennsylvania State University, ``Electron Transfer 
Reactions in Microporous Solids''
    N. Sutin, C. Creutz, Brookhaven National Laboratory, ``Thermal, 
Photo-, and Radiation-Induced Reactions in Condensed Media'', ``Solar 
Hydrogen-Related Projects in the Division of Chemical Sciences''

        renewable energy contribution to electricity production

    Senator Reid. That would be fine.
    We have heard testimony here today about 90 percent of the 
energy of this country comes from fossil fuels; is that right?
    Mr. Reicher. Fossil and nuclear together.
    Senator Reid. And about 80 percent then is fossil fuels, is 
that not right?
    Mr. Reicher. About 80. Well, total energy----
    Senator Reid. Anyway, a big number, all right?
    Mr. Reicher. Electricity is 20 percent nuclear, but with 
total energy then that ramps down.
    Senator Reid. My question is this. You talked about solar 
and you've talked about wind energy, but realistically what can 
we hope to gain from production of electricity by those means 
in the next 10 years? It all sounds good and, you know, I have 
driven through California and watched those windmills whipping 
around, but, in fact, it does not produce much electricity, 
does it?
    Mr. Reicher. The installed base in the United States today 
for wind is relatively small.
    Senator Reid. Less than 1 percent.
    Mr. Reicher. Correct.
    Let me answer that in terms of the potential that both of 
those technologies hold. Looking at wind, what we are 
endeavoring to do through research and development and testing, 
and, in fact, what other nations are also trying to do as well, 
is to develop turbines that will bring the cost down for wind 
so that they can be used in areas of the country with moderate 
wind speeds, as opposed to simply in the higher wind speed 
areas.
    We are closing in very quickly in the next couple of years 
to a point where there will be a turbine available that can 
operate in those moderate wind speeds. This, as I said in my 
testimony, could open up large expanses of the country, 
particularly in the upper Midwest, to wind power development.
    Senator Reid. So would this triple the wind power or double 
it? What are we talking about?
    Mr. Reicher. I think you could see, in terms of new 
installed capacity, several hundred megawatts of wind being 
installed this year. You could begin to ramp up into points 
where you are seeing thousands of megawatts installed per year.
    Senator Reid. Oh, really.
    Mr. Reicher. We are trying to get these costs down from 
where they are today, which is on the order of 4 to 6 cents, 
which is almost competitive with other technologies, down into 
the 2 to 4 cent range. As I said earlier, in broad expanses of 
the upper Midwest and in other parts of the country there is a 
very, very large wind resource where you could develop these 
technologies.
    So that is my brief answer on wind.

                         solar energy potential

    Senator Reid. Now, solar, we know that the potential for 
solar, especially in the western part of the United States, is 
significant. What is the drawback to producing large quantities 
of electricity through solar?
    Mr. Reicher. The challenge with solar today, within the 
United States, is primarily cost. The technology has gotten to 
a point with both of the major branches of solar technology, 
which are solar hot water systems to produce hot water for 
buildings and solar electric systems to produce electricity, 
have progressed to a point where it is quite a reliable way to 
produce energy. But solar is still on-the-grid, in many 
situations, not as cost competitive as it needs to be, and that 
is, in fact, the primary thrust of our energy R&D work.
    I would point out, though, Senator, that off-the-grid, in 
the United States, solar is quite a competitive technology. And 
for the 2.5 billion people across the globe who are off-the-
grid, it is quite a competitive technology. That is, in fact, 
one of the reasons why we are seeing this explosive growth--
five new plants opened in just the past year in photovoltaic 
production in the United States. It is fueling this 
international growth.
    We believe that, with the continued, relatively rapid drop 
in cost and a major deployment push through the million solar 
roofs initiative and by other means, we can continue to drive 
down the price of solar and it will be in even greater use over 
the next several years.

                         basic energy sciences

    Senator Reid. One last question. I know the chairman is 
wanting to move this along.
    If the Global Climate Change Treaty is not ratified this 
year, which I think the odds are quite good that that will 
certainly be the case, I see that there is under Basic Energy 
Sciences a 25-percent increase, raising that allocation to 
about $836 million. Will that still be necessary?
    Dr. Krebs. The increase in that program is driven by the 
request for the new spallation neutron source. That is a long-
term investment in basic research for a balanced energy R&D 
portfolio, and it is not driven by the Kyoto meetings.
    Senator Reid. Thank you, Mr. Chairman.
    Senator Domenici. Senator Reid, I am just wondering from 
the standpoint of further inquiries, would you want to stay 
after? I have to leave for a Republican conference at 3:30. You 
could stay and ask whatever questions you have.
    Senator Reid. The only thing that would be better than that 
is I will attend the Republican conference. [Laughter.]
    Senator Domenici. The only problem is that they want me to 
tell them how we are going to do the budget and I am not sure 
you could do it for Republicans. You might do it just for 
Democrats.
    Senator Reid. I will stay however long you need me, sir.
    Senator Domenici. Do you have a question?
    Senator, we are glad to let you do that.

                              lignite coal

    Senator Dorgan. Mr. Chairman, I would like to ask about 
lignite coal that is produced in North Dakota, Louisiana, 
Montana, and Texas, and represents about 9 percent of the coal 
production of the country. What programs does the Department of 
Energy sponsor to ensure that lignite remains an important part 
of our Nation's energy resource base?
    Mr. Reicher. The bulk of the work on coal, Senator, is 
focused in our Fossil Energy Program. Unfortunately, neither of 
us today could address the details of that. We would be happy 
to get that information for you rapidly. There are small 
amounts of work in the Office of Energy Efficiency and 
Renewable Energy that look at the way one can burn coal along 
with agricultural crops and agricultural wastes to improve 
emissions from coal-fired power plants.
    [The information follows:]

               Lignite Research and Development Projects

    Fossil Energy is conducting a comprehensive coal program to develop 
advanced power systems and clean fuels technology that are designed to 
use a wide variety of coals from lignite to anthracite that will help 
ensure the full use of the nations coal resource base. Projects more 
specifically involving lignite include: a detailed kinetic analysis at 
Sandia investigating the burning behavior of ten strategic U.S. coals 
ranging in rank from lignite to low-volatile bituminous; a lignite is 
being evaluated as part of an effort to develop a model that describes 
toxic metal transformation throughout a utility boiler; under a Jointly 
Sponsored Research Program Cooperative Agreement, a large number of 
research tasks utilizing lignite were carried out at the University of 
North Dakota Energy and Environmental Research Center; the University 
of Utah is investigating the impact of fuel and combustion changes on 
ignition stability and flame characteristics to support the development 
of low-emission, high efficiency pulverized coal power systems; Rust 
College is investigating the mechanisms involved in the reduction of 
NO<INF>X</INF> during reburning with lignite; and previously Fossil 
Energy conducted an air toxics emissions characterization program, 
where one of the plants was a lignite unit located in North Dakota, 
from which the data was forwarded to EPA for inclusion in its Utility 
Air Toxics Report to Congress.
    In addition to the foregoing R&D projects, there are three Clean 
Coal Technology Demonstration projects that utilize low rank coals 
(lignite is considered a low rank coal) as their fuels. These include: 
the ENCOAL mild coal gasification project that will demonstrate the 
integrated operation of a number of novel processing steps to produce 
higher value fuel forms from mild gasification of low rank coal; a 
Clean Coal Diesel Demonstration Project which uses a coal slurry 
produced from Alaskan low rank coal; and the Healy Clean Coal Project a 
50 MWe facility consisting of two pulverized-coal-fired combustors that 
burn Alaskan low rank coal.

    Senator Dorgan. What I will do is, with the permission of 
the chairman, I will submit a couple of questions on lignite 
coal and ask that you respond and ask that they be included as 
part of the record.

           cold weather climate building efficiency programs

    One question then on another part of your agenda. What part 
of the EE program for building efficiency is targeted toward 
cold weather climates that require the use of disproportionate 
amounts of energy per capita?
    Mr. Reicher. There are a variety of pieces of the energy 
efficiency budget that address cold climates, and let me give 
you some examples. First is the weatherization program, which 
as you know funds weatherization of homes for poor people, and 
that is on the order of a $150 million a year and is part of 
the Interior budget.
    Second, is in the building technologies area where we are 
looking at a whole host of ways to tighten up buildings, 
including insulation and building materials and construction 
techniques and roofing, that will make homes more comfortable, 
warmer, and more energy efficient in cold climates.
    We also have a remote power initiative that looks at the 
use of various energy sources in rural areas, including in cold 
regions, and how to improve energy technologies in those types 
of places.
    So there is a variety of things that we are doing to 
address colder regions.
    Senator Dorgan. Thank you very much.
    Mr. Chairman, I will submit some questions and ask that the 
responses be part of the record.
    Let me just make one other observation. I do not quite 
understand why we have a substantial part of the energy issue 
in the Interior appropriations bill. I will look into that, I 
guess. It is curious to me how some of these things get 
fragmented in tradition over time, and tradition does not seem 
to be----
    Dr. Krebs. I can give you a very quick answer.
    Senator Reid. Senator Byrd is the biggest answer.
    Dr. Krebs. The Department of Energy was created from a 
variety of agencies.
    Senator Dorgan. I understand now. I was just told.
    Dr. Krebs. You were just really informed by the expert.
    Senator Dorgan. I will share that with the chairman, who 
already knew it.
    Senator Domenici. Well, I do not look for any ordinary 
rationale for any of these allocations of different functions 
of Government to a subcommittee. I never have understood why 
water projects should be part of energy. But we have those 
issues to contend with.
    They already understand the President whacked the water 
program and, frankly, that may end up impacting what we are 
able to accomplish in these energy programs. Everyone knows the 
House is not going to cut water, so where are they going to 
cut? They are probably going to cut energy. That is kind of 
shameful. But we may have to do the same thing, you know, 
although we are going to try very hard not to. We will try to 
be balanced.
    I thought I had 2 hours for this hearing and I end up only 
having an hour because the leadership has set a meeting with 
all the Senators from my party at one time at 3:30 p.m.

                   solar and renewable energy budget

    I have a lot of questions and I am going to submit them in 
writing. I note, with reference to the solar and renewable 
energy programs, that we might not be able to provide a 37-
percent increase. So what I would ask you to do is to provide 
me with recommendations of the allocations of funding at a 
couple of different levels, if you would. Do it at current 
level, do it at a 10-percent increase, a 20-percent increase, 
where would you put the money. I think that would be helpful to 
us.
    Mr. Reicher. We would be pleased to do that, Mr. Chairman.
    [The information follows:]

                           Budget Priorities

    Increased investments in renewable energy technology R&D are of 
critical importance to the nation. These technologies will improve 
local environmental quality, improve the diversity and security of our 
energy supply, reduce greenhouse gas emissions, and improve our long-
term competitiveness. They are of critical importance to meeting the 
energy and environmental challenges of our times and of the next 
century. However, we do recognize the existence of budget constraints 
and will work with the committee staff to establish priorities at the 
current level and at a 10 percent and 20 percent increase.

             electricity restructuring and renewable energy

    Senator Domenici. We also are going to ask you a question 
about electricity restructuring, because that may very well 
start moving next year. Sometimes it is called deregulation. I 
am wondering if the administration has any proposals that they 
want included in that electric restructuring to encourage the 
use of renewable energy sources. I think that is very 
interesting. I think you can almost bid adieu to any successes 
that you have had for many years if there is not something 
built into the restructuring, because the purpose is to drive 
the cost down, which will happen, and you have already restated 
for the record that the most significant impediment to the use 
of renewables is that the cost of the alternatives is too cheap 
or, conversely, the cost of the renewables is too expensive.
    [The information follows:]

   Comprehensive Electricity Competition Plan: Provisions Affecting 
                            Renewable Energy

    The Administration's Comprehensive Electricity Competition Plan 
will result in lower prices, a cleaner environment, increased 
innovation and government savings. The Department of Energy estimates 
that retail competition will save consumers $20 billion a year on their 
electricity bills. This translates into direct savings to the typical 
family of four of $104 per year and indirect savings, from the lower 
costs of other goods and services, of $128 per year. Thus, total 
savings for a typical family are estimated to be $232 a year.
    Competition will also produce significant environmental benefits 
through both market mechanisms and policies that promote investment in 
energy efficiency and renewable energy. We expect the Electricity 
Competition Plan to produce significant environmental benefits through 
these policies. Provisions of the plan that will facilitate the use of 
renewable energy include:
  --A Public Benefits Fund that will provide matching funds to States 
        of up to 1.0 mill/kWh, ($3 billion a year) to finance energy 
        efficiency, renewable energy and other public benefit programs;
  --``Green labeling'' provisions to help consumers identify and choose 
        power from environmentally friendly generators including 
        renewable energy;
  --A Renewable Portfolio Standard, to require that at least 5.5 
        percent of electricity sales be generated from non-
        hydroelectric renewable sources, subject to a cost cap; and
  --Trading authority for NO<INF>X</INF> emissions, to facilitate cost-
        effective, market-driven NO<INF>X</INF> reductions--which will 
        encourage investment in low- and zero-emissions technologies 
        such as renewable energy.

                         high flux beam reactor

    Senator Domenici. Dr. Krebs, I have some really serious 
problems with the High Flux Beam Reactor at Brookhaven and I 
ask you some questions about it. I frankly would like to have, 
as part of this question, a list for the record of all ongoing 
environmental problems at Brookhaven. I think we have taken 
some giant steps recently, but there remains some real fear in 
that area, that some of that pollution might already have 
migrated further and deeper than any of us thought.
    [The information follows:]

                     Environmental Problems at BNL

    The major environmental challenges at Brookhaven National 
Laboratory are environmental restoration of contaminated groundwater 
and soils, and stabilizing the Brookhaven Graphite Research Reactor for 
decontamination and decommissioning.
    Brookhaven National Laboratory is a designated Superfund site. A 
tri-party Interagency Agreement was executed in 1992 among the 
Department of Energy, the New York State Department of Environmental 
Conservation, and the U.S. Environmental Protection Agency that 
integrates cleanup requirements under the Resource Conservation and 
Recovery Act, the Comprehensive Environmental Response, Compensation 
and Liability Act, and State regulations. The Interagency Agreement 
contains a list of 29 Areas of Concern which require assessment and 
possible remediation, including the tritium plume from the spent fuel 
pool at the High Flux Beam Reactor. BNL is located above a sole source 
aquifer and one of the major environmental issues is groundwater 
contamination with volatile organic compounds and radionuclides 
(tritium and strontium-90). Other environmental concerns include 
radiologically contaminated soils and contaminated sediments in the 
Peconic River.
    The final decisions on the cleanups for these problems are expected 
to be made over the next year with input from the U.S. EPA, the State, 
and the general public.
    Accelerated actions completed to date include the connection of 
approximately 1,500 residents to public water as a precautionary 
measure because of off-site volatile organic compound groundwater 
contamination from BNL, the capping of three landfills, the excavation 
of fifty-five buried waste pits, the construction and operation of four 
groundwater treatment systems, and the removal of numerous tanks and 
cesspools. A fifth groundwater treatment system is scheduled to be 
built off-site this year.
    The Brookhaven Graphite Research Reactor was the first reactor 
built for the sole purpose of providing neutrons for research, and 
operated from 1950 to 1968. During a recent facility review, 
radioactively contaminated water was found in the cooling systems 
channels. BNL is stabilizing the facility prior to decontamination and 
decommissioning.
    Both the Superfund cleanup and the decontamination and 
decommissioning of the Graphite Research Reactor are scheduled to be 
completed in 2006 under DOE's draft Accelerating Cleanup: Paths to 
Closure Plan.
    Attached is a detailed list of environmental concerns associated 
with BNL.
                     brookhaven national laboratory
          environmental restoration--list of areas of concern
    1. Hazardous Waste Management Area
    1b. Groundwater
    2a-e. Chemical/Animal/Glass Holes
    2f. Ash Pit
    3. Current Landfill
    4. Sewage Treatment Plant
    5. Central Steam Facility
    6. Building 650 and Sump Outfall Area
    7. Paint Shop
    8. Experimental Agricultural Fields
    9. Brookhaven Graphite Reactor
    10. Waste Concentration Facility
    11. Building 830 Pipe Leak
    12. Building 830 Underground Storage Tanks
    13. Cesspools
    14. Bubble Chamber Spill Area
    15a. Potable/Supply Wells
    15b. Monitoring Well 130-02
    16. Aerial RadSurvey Results
    17. Area Adjacent to Former Low-Mass Criticality Facility
    18. AGS Scrapyard
    19. Building T-111 TCE Spill Area
    20. Particle Beam Dump, North End of Linear Accelerator
    21. Leaking Sewer Pipes
    22. Old Firehouse
    23. Offsite Tritium Plumes
    24a. Process Supply Wells 104, 105
    24b. Recharge Basin HP
    24c. Recharge Basin HN
    24d. Recharge Basin HO
    24e. Recharge Basin HS
    24f. New Stormwater Runoff Recharge Basin
    25. Building 479
    26. Building 208
    27. Building 464
    28. EDB Groundwater Contamination
    29. HFBR Spent Fuel Pool and Tritium Groundwater Plume

                         nuclear energy program

    Senator Domenici. I also, of late, have taken up a strong 
position in favor of us moving ahead with nuclear power, which 
may cause some people to shudder. But when you have the problem 
with greenhouse gases with our friends in Europe so eagerly 
embracing the Kyoto Accord and ask them why, and two out of 
three countries can do it so easily, because they have huge 
nuclear power percentages, take France as an example. France 
was running around during the treaty deliberations saying 
America surely does not want to do very much. Well, France does 
not have to do anything with 87 percent of their power coming 
from nuclear.
    They do not have the problem of waste disposal like we 
have. They reprocess. Nobody is frightened of it. You walk into 
a couple of big buildings and you are standing right on top of 
all their nuclear wastes from all their power plants. And here 
we are, fussing with Nevada for nigh on 20 years about a tunnel 
in the ground, and in New Mexico 14 years on WIPP regarding low 
level radiation.
    So one of the things that I have learned is radiation 
standards are very important in the United States. The 
protection from radiation is a field that is in desperate need 
of somebody looking at it and making some reasonable standards. 
And I ask you some questions about that.

                          human genome program

    The human genome program. I guess what I need to know from 
you all, the split is no longer one-third to two-thirds, as it 
was when we started this program. NIH gets much, much more.
    Dr. Krebs. Right.
    Senator Domenici. I frankly would like to know whether you 
are provided the money or not, and know what, if anything, the 
Department of Energy thinks they should be doing that they are 
not getting money for in the genome field. If you could go back 
and look at that, I would be very, very willing to look and see 
if there are some things that we would be able to provide 
something for that. That is the greatest research program we 
have got in America in terms of wellness. I do not think 
anybody doubts that. It is humankind's wellness program for the 
future, and we have a few hangups in terms of technology for 
the final round of sequencing, but the program is going along 
handsomely, is it not?
    Dr. Krebs. We think so. We worry more about the challenges, 
but the accomplishments have been significant.
    Senator Domenici. Yes; when you meet with those NIH people 
you can smile and say that, if it weren't for the Department of 
Energy you never would have got off the dime and started that 
program. That is what happened.
    Dr. Krebs. That is right.
    Senator Domenici. Do you know Charlie Delisi?
    Dr. Krebs. Yes.
    Senator Domenici. He is the one that left them and came to 
you, came to me.
    Dr. Krebs. And started, I think, in New Mexico.
    Senator Domenici. Yes; he came to me and said, we ought to 
be doing this. So let us do it all in the Department of Energy. 
And that brought NIH in. It is a great program, doing 
wonderfully.
    [The information follows:]

                      Human Genome Program Funding

    The U.S. Human Genome Program has now emerged from its earlier 
emphasis on chromosome mapping, core resource development, and early 
technology innovation to its current high throughput DNA sequencing 
phase. To meet the core goal of generating a reference sequence of the 
human genome in the year 2005, DOE has had to commit a substantial 
fraction of its fiscal year 1998 genome program resources to initiate 
factory scale DNA sequencing. This was at the painful cost of reduced 
investment in important areas still critically needed to bring the 
human genome program to a timely and increasingly economical fruition.
    This commitment has resulted in a reduced investment in three areas 
of critical need: (1) ``hardening'' or validating of prototype systems 
for the production DNA sequencing, (2) prototyping of the next 
generation of DNA sequencing technology, and (3) implementing 
``biologist friendly'' computer tools and biological resources needed 
to process and understand the rich information resource of the human 
genome. Technological research is what DOE does best, but the current 
genome budget is inadequate to do these tasks properly. Full funding 
would have a dramatic impact on the ability of DOE to solve the 
existing technological obstacles to widespread use of genomic tools in 
medicine and biotechnology. It would also enable the U.S.A. to maintain 
its technological lead in the face of substantial investments in 
research into genome technologies in Europe and Asia.
    The recently published JASON report on the Human Genome Project 
made four technology-related recommendations: (1) technology 
development should be emphasized as a DOE strength; (2) continue work 
to improve present technologies; (3) enhance long-term technology 
research; and (4) retain technology flexibility in production 
sequencing facilities.
    There are several new and developing DNA sequencing technologies 
that cannot yet be used in a DNA sequencing factory. These include 
systems for handling very small volumes of expensive reagents, genetic 
engineering to improve critical biochemical reagents, and novel 
massively parallel capillary electrophoresis systems. These new 
technologies need to mature and be ``hardened'' or validated before 
they can be reliably introduced into production DNA sequencing systems. 
Their introduction will increase the likelihood that the complete DNA 
sequence of the first human genome will be determined by 2005. Industry 
experts have estimated that ``hardening'' of new technologies for use 
in a production facility require an investment equal to 10 percent of 
the overall investment in a given program.
    The need for DNA sequencing will not end with the first phase of 
the human genome project. Knowing the complete DNA sequence of a 
reference human genome and the identity of all human genes will make 
DNA sequencing the basis of an increasing number of medical diagnoses 
in the future. DNA sequencing will also be one tool in the development 
of therapeutic strategies for a variety of diseases making a broader 
array of drugs available to many more people than today. However, to be 
most useful, DNA sequencing in the future will have to be much faster 
and cheaper than it is today. Therefore, research is needed today to 
develop the next generation of DNA sequencing technology that will 
bring genomics into widespread use in the nation's universities and 
industrial laboratories. This investment will also ensure that 
scientists and physicians can maximize use the human DNA sequence 
information determined in the first phase of the human genome project.
    The real value of the human genome project still lies buried in the 
genetic code that is currently being deciphered. Tools and resources 
are needed for understanding and using the information encoded in the 
human DNA sequence. This broad area of research is often referred to as 
``functional genomics.'' Biologists and medical researchers are 
accustomed to revealing the functional details of single genes or small 
numbers of genes in their individual laboratories with a few graduate 
students and postdocs. Having access to all of the approximately 
100,000 genes in the human genome presents biologists with an entirely 
new challenge.
    The challenge of functional genomics at the genomic level requires 
resources and tools not commonly available in today's single 
investigator laboratory. It requires a new scale of interaction between 
human genome biologists, medical scientists, and biologists with 
expertise in so-called model organisms, such as mouse, fruit fly, round 
worm, yeast, and others. The genetic similarity between the identity 
and organization of genes in these model organisms and in humans is 
remarkable and a feature that can be exploited to rapidly learn about 
the nature or function of many human genes. The experimental 
flexibility available to biologists working with model organisms 
enables key studies to be rapidly done in these other species that 
address key questions in human biology. National functional genomics 
resources providing specialized tools, resources, or services will be 
needed to ensure that tomorrow's biologists and physicians are able to 
effectively exploit the research and discovery opportunities that exist 
in the human genome.
    The DOE Human Genome Program is well positioned to take advantage 
of these additional resources. The DOE Joint Genome Institute's 
Production Sequencing Facility is being built in a modular fashion so 
that it can serve as a ``plug-and-play'' type test bed for hardening 
today's new sequencing technologies. In addition to capabilities at the 
Joint Genome Institute, the DOE national laboratories can leverage 
their capabilities in spectroscopy, single molecule detection, 
engineering, and computation to contribute to the development of 
tomorrow's sequencing technologies. Finally, DOE laboratories are the 
best place in the U.S. to transition yesterday's capabilities in high 
throughput mouse genetics, used to determine the genetic effects of 
radiation and chemicals, into tomorrow's functional genomics facilities 
with a wide range of user facility capabilities including the 
production of mice containing or missing specific pieces of DNA. The 
long term impacts of these new investments in the DOE Human Genome 
Program will reach far beyond the basic biological community to include 
a broad range of medical applications including impacts in molecular 
nuclear medicine.
    With input from our advisory committee, the Biological and 
Environmental Research Advisory Committee (BERAC), we have determined 
that the following additional resources would greatly enhance the DOE 
genome program in the following categories:

                        [In millions of dollars]

Hardening of prototype production sequencing technologies.........    10
Long-term research in new sequencing approaches...................    15
Functional genomics...............................................    15

                         fusion energy research

    Senator Domenici. I ask you some specific questions 
regarding fusion energy; generally, which of these technologies 
are we going to have to get rid of, what are we going to end up 
with, and where are we really going? We used to all run around 
thinking this was the energy source for the future, which would 
be clean and cheap and everybody would have it. Maybe an 
expectation statement on your part from the standpoint of the 
science community as to where it is would be very interesting.
    We are spending much less than we ever planned 10 years 
ago, but nonetheless it is, what, $200 million-plus a year?
    Dr. Krebs. Correct.
    [The information follows:]

                         Fusion Energy Sciences

    Since fusion is not expected to enter the commercial energy 
marketplace until the middle to latter part of the next century, 
projections for the economics of fusion energy are subject to 
considerable uncertainty. The general conclusion of studies conducted 
on this subject has been that fusion energy has the potential to be 
economically competitive with other long-range energy sources for 
generating electricity. Given this conclusion, and fusion's potential 
as a virtually unlimited source of environmentally acceptable energy, 
we continue to support a vigorous science and technology oriented 
program to enable us to be in a position to realize this potential in 
the future.

                   forest waste conversion to ethanol

    Senator Reid. I just have a couple questions and I will 
quit.
    Senator Domenici. Sure.
    Senator Reid. What is the DOE doing to support forest waste 
conversion to ethanol for fire suppression in the western 
United States? How much money is in the President's budget to 
support this effort?
    Mr. Reicher. We have an active program that looks at forest 
and agricultural wastes; generally, looking at making both 
ethanol and gasifying those wastes to use in power plants. 
Senator Reid, I do not know the exact expenditures on the 
program you are talking about. I know there are discussions out 
West looking at clearing forests and using the resulting forest 
wastes to produce energy sources.
    Senator Reid. Could you amplify your answer when you return 
to the office?
    Mr. Reicher. I would be pleased to.
    [The information follows:]

        Forest Waste Conversion to Ethanol for Fire Suppression

    In fiscal year 1998, the Department is supporting the Western 
Biomass Consortium, which is made up of 13 western states, including 
Nevada. The Consortium focuses primarily on forest health and the 
potential use of biomass for ethanol production and power. Activities 
relevant to the forest waste conversion to ethanol effort include: (1) 
the Northeastern California Manufacturing Feasibility Study, completed 
in cooperation with the Quincy Library Group, the California Energy 
Commission, the California Institute of Food and Agriculture Research, 
Plumas Corporation, TSS Consultants, and the National Renewable Energy 
Laboratory (NREL); (2) a pre-feasibility study, also completed by NREL 
for southeastern Alaska; and (3) support of the Colorado Forest Health 
Front Range Partnership.
    In fiscal year 1999, the reduction of risk from catastrophic forest 
fires in the West, through the use of forest thinnings (primarily 
softwoods), is one of the major partnership opportunities that will be 
sought under the Ethanol Production budget request. Resources at NREL, 
including the Alternative Fuels User Facility, will be used to conduct 
integrated bench-scale studies of softwood thinnings from private and 
public lands (national forests), in cooperation with industrial 
partners. Part of the $12 million requested for cellulose-to-ethanol 
production facilities may be used to support potential opportunities 
for organizations, such as the Quincy Library Group, that are trying to 
co-generate ethanol and electricity from softwood thinnings in 
California.
    Most of the longer term core research program, about $12 million in 
the fiscal year 1999 budget request, will lead to lower costs for 
producing ethanol from softwoods. This research includes the 
development of advanced fermentative organisms, advanced cellulases, 
and pretreatment methods which will lower, and possibly eliminate, the 
need for cellulase enzymes.

                     Additional committee questions

    Senator Reid. We all have some questions to submit in 
writing and if you would just make that part of your work I 
would appreciate it.
    Senator Domenici. Might I say to both of you, in the event 
in the next couple of weeks that something comes to mind that 
seems important for us to know, if you would just let our staff 
know. We will either arrange to informally communicate with you 
or we will set up a quick hearing and finish out the rough 
edges of this.
    I am leaving you about 15 questions, and about 6 or 8 for 
you, if you will answer them at your earliest convenience. We 
do not have any deadline yet--a month, that is plenty of time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Domenici

                  high flux beam reactor at brookhaven
    Question. I understand the Basic Energy Sciences Advisory Committee 
has recommended that the High Flux Beam Reactor at Brookhaven be 
upgraded and restarted. When will the EIS on the reactor be completed?
    Answer. On October 8-9, 1997, the Basic Energy Sciences Advisory 
Committee (BESAC) met to review the scientific case for the HFBR. In 
its report, the Committee recommended that the HFBR be restarted `` * * 
* at 30 MW and move up to 60 MW in a timely manner * * *.'' However, `` 
* * * if the start-up were to be at 30 MW with no clear plan to move to 
60 MW, it should not be done * * *.'' The reason BESAC recommended the 
60 MW operation is that 30 MW operation `` * * * will not provide a 
facility that warrants the expenditure of the funds that will be 
required for the restart.'' BESAC did not recommend that the HFBR be 
upgraded at this time; rather, the recommendation was for restart with 
a clear path to 60 MW operation.
    At its meeting in October, 1997, BESAC also recommended a full 
Environmental Impact Statement before restarting HFBR. The EIS process 
started with the issuance of the Notice of Intent on November 24, 1997. 
The Department conducted three scoping meetings, the last of which was 
held on January 15, 1998. The EIS is scheduled to be completed and the 
record of decision issued in December 1998.
    Question. If the Department decides to pursue an upgrade, how much 
would that cost?
    Answer. A non-preferred alternative is included in the EIS that 
analyzes upgrading the reactor vessel, beam tubes and beam lines and 
scientific instruments. The estimated cost of that upgrade is about 
$150 million.
    Question. Have you determined how much tritium has leaked from the 
spent fuel storage pool and if that tritium will reach a drinking water 
aquifer?
    Answer. The total amount of tritium leaked is not precisely known; 
DOE has focused its resources on correcting the problem by removing the 
water from the spent-fuel pool and cleaning up the plume.
    All of the water from the spent-fuel pool was pumped out as of 
December 30, 1997. The project to remove the water was completed ahead 
of schedule and under budget. All of the tritium released is on the BNL 
site, and has not reached any off-site drinking water.
    In May 1997, BNL started pumping the contaminated groundwater to 
prevent the tritium from leaving the site boundary in concentrations 
above the state and federal drinking water standards. Monitoring wells 
directly south of the recharge basin and of the tritium plume will be 
sampled routinely to make sure that the groundwater leaving the BNL 
site meets EPA drinking water standards.
    Question. Last week a geologist that used to work at Brookhaven 
claimed that radioactive material may have leaked into the groundwater 
at Brookhaven as early as 1959. Could you provide for the record a list 
of all ongoing environmental problems at Brookhaven?
    Answer. The major environmental challenges at Brookhaven National 
Laboratory are cleanup of contaminated groundwater and soils and 
stabilizing the Brookhaven Graphite Research Reactor for 
decontamination and decommissioning.
    Brookhaven National Laboratory is a designated Federal and State 
Superfund site. A tri-party Interagency Agreement was executed in 1992 
among the Department of Energy, the New York State Department of 
Environmental Conservation, and the U.S. Environmental Protection 
Agency that integrates cleanup requirements under the Resource 
Conservation and Recovery Act, and the Comprehensive Environmental 
Response, Compensation and Liability Act. The Interagency Agreement 
contains a list of 29 Areas of Concern which require assessment and 
possible remediation, including the Building 650 Sump Outfall area and 
the tritium plume from the spent fuel pool at the High Flux Beam 
Reactor. BNL is located above a sole source aquifer and one of the 
major environmental issues is groundwater contamination with volatile 
organic compounds and radionuclides (tritium and strontium-90). The 
final decisions on the cleanups for these problems are expected to be 
made over the next year pursuant to this Interagency Agreement.
    Accelerated actions completed to date include the connection of 
approximately 1,500 residents to public water as a precautionary 
measure because of off-site volatile organic compound groundwater 
contamination from BNL, the capping of three landfills, the excavation 
of fifty five buried waste pits, the construction and operation of four 
groundwater treatment systems, and the removal of numerous tanks and 
cesspools. A fifth groundwater treatment system is scheduled to be 
built off-site this year.
    The Brookhaven Graphite Research Reactor was the first reactor 
built for the sole purpose of providing neutrons for research. It 
operated from 1950 to 1968. During a recent facility review, 
radioactively contaminated water was found in the cooling systems 
channels. BNL is stabilizing the facility prior to decontamination and 
decommissioning.
    Both the Superfund cleanup and the decontamination and 
decommissioning of the Graphite Research Reactor would be completed in 
2006 under the draft planning document, ``Accelerating Cleanup: Paths 
to Closure.''
    I would be pleased to provide a list of ongoing environmental 
problems at Brookhaven for the record.
                     brookhaven national laboratory
          environmental restoration--list of areas of concern
    1. Hazardous Waste Management Area.
    1b. Groundwater.
    2a-e. Chemical/Animal/Glass Holes.
    2f. Ash Pit.
    3. Current Landfill.
    4. Sewage Treatment Plant.
    5. Central Steam Facility.
    6. Building 650 and Sump Outfall Area.
    7. Paint Shop.
    8. Experimental Agricultural Fields.
    9. Brookhaven Graphite Reactor.
    10. Waste Concentration Facility.
    11. Building 830 Pipe Leak.
    12. Building 830 Underground Storage Tanks.
    13. Cesspools.
    14. Bubble Chamber Spill Area.
    15a. Potable/Supply Wells.
    15b. Monitoring Well 130-02.
    16. Aerial RadSurvey Results.
    17. Area Adjacent to Former Low-Mass Criticality Facility.
    18. AGS Scrapyard.
    19. Building T-111 TCE Spill Area.
    20. Particle Beam Dump, North End of Linear Accelerator.
    21. Leaking Sewer Pipes.
    22. Old Firehouse.
    23. Offsite Tritium Plumes.
    24a. Process Supply Wells 104, 105.
    24b. Recharge Basin HP.
    24c. Recharge Basin HN.
    24d. Recharge Basin HO.
    24e. Recharge Basin HS.
    24f. New Stormwater Runoff Recharge Basin.
    25. Building 479.
    26. Building 208.
    27. Building 464.
    28. EDB Groundwater Contamination.
    29. HFBR Spent Fuel Pool and Tritium Groundwater Plume.
                     radiation protection standards
    Question. I am frustrated that we spend billions of dollars each 
year cleaning up DOE sites and regulating commercial reactor sites to 
within 5 percent of background radiation. I am interested in the 
possibility that our current radiation protection standards, which 
assume a linear relationship between radiation exposure and cancer, 
with no minimum level below which radiation might not be harmful, might 
be wrong. Last year's Act required the Department to develop a multi-
year program, including budgets for the next 10 years, to understand 
the effects of low levels of radiation. Have you completed the plan?
    Answer. A general description of the multi-year low dose research 
program has been included in Dr. Krebs' prepared statement for the 
record of March 10, 1998, to the Senate Appropriations Committee. That 
description includes the outline and most of the details of a program 
plan. An excerpt of this material is being provided to you. A specific 
program plan will be available by April 15, 1998. (The information 
follows:)
Low Dose Radiation Exposure Program
    In response to guidance in the Conference Report for the fiscal 
year 1998 Energy and Water Development Appropriation, BER is initiating 
and carrying out ``a rigorous, peer-reviewed research program that will 
apply the molecular level knowledge gained from the Department's human 
genome and structural biology research to ascertain the effects on 
levels ranging from cells to whole organisms that arise from low-dose-
rate exposures to energy and defense-related insults (such as radiation 
and chemicals).''
    The BER Health Effects Research Program is currently being 
restructured. One aspect of this restructured program will be research 
on the mechanisms of cellular responses to low dose, low dose rate 
exposures to radiation and chemicals. Solicitations for new research 
have been made. Preproposals from National Laboratories were received 
January 16 and preapplications are due from Universities on March 26. 
Formal proposals and applications will be reviewed in May and June and 
new research will be funded in fiscal year 1998 and fiscal year 1999. 
Additional peer reviews will be conducted and new research funded in 
fiscal year 2000.
    The new Low Dose Radiation Exposure Program will include research 
on: (1) the identification/characterization of genes/gene products that 
determine/affect cellular responses to low level exposures; (2) 
individual differences in susceptibility to low level exposures; and 
(3) methods to relate molecular level information on cellular responses 
to low level exposures to health risk. Funding for this program will be 
$3 million in fiscal year 1998, $5 million in fiscal year 1999, and $10 
million per year in fiscal year 2000-2007.
    The program will leverage the results of previous DOE research on 
DNA repair, cell cycle regulation, radiation-induced gene expression, 
tissue effects on regulating cell responses and phenotypes, and 
susceptibility genes. The program will use resources, information, and 
technologies developed in the human genome program and information on 
the structure of critical molecules involved in cellular responses to 
low level exposures developed in the structural biology program. The 
program will maintain links with related efforts outside of DOE. These 
include an international effort to pool cancer risk data from indoor 
radon exposures, ongoing activities of the National Research Council 
and the National Academy of Sciences to evaluate risks from low level 
radiation exposures, and a new low dose radiation risk consortium 
coordinated by Canadian scientists.
    A lead scientist will be selected for this program from applicants 
who receive funding from the current solicitations for new research. 
The lead scientist will be an expert on mechanisms of cell responses to 
low dose exposures, will facilitate collaborations and information 
exchange among scientists, and will be a critical resource of 
information on this new program and the broader scientific and 
regulatory issues associated with low level exposures. Workshops with 
funded investigators, other experts, regulators, policy makers, and 
other agencies will be held every 18 months to maximize information 
exchange and program progress. The first workshop for new program 
investigators will be held in the fall or early winter of 1998.
    As requested in the Conference Report for the fiscal year 1998 
Energy and Water Development Appropriation, a ten year program plan, 
including budgets, will be available by April 15, 1998.
    Question. Does your budget include optimum level funding for that 
program?
    Answer. The current program plan calls for $3 million in fiscal 
year 1998, $5 million in fiscal year 1999, and $10 million for each of 
the subsequent eight years. This is intended to be, ``a rigorous, peer-
reviewed research program that will apply the molecular level knowledge 
gained from the Department's human genome and structural biology 
research to ascertain the effects on levels ranging from cells to whole 
organisms that arise from low- dose-rate exposures to energy and 
defense-related insults.'' Two factors will determine the scientific 
success of this program: (1) the quality and progress of the research 
and (2) the amount of research that can be supported. Scientific 
progress takes time. In the near term, by redirections in existing 
budgets, we will fund this program as best we can. This will require 
making difficult choices to terminate ongoing excellent scientific 
work. It is difficult to determine optimum levels under such 
circumstances. We believe, that a $10 million annual investment over 
the life of this program is sufficient to address the program goals. 
Additional funds would allow us to expand the range of research topics 
and issues addressed by the program.
    Question. When will we be able to determine the effects of low-
level ionizing radiation?
    Answer. The program is a basic science program involving 
``rigorous, peer-reviewed research.'' It is our intent that this 
program will determine the effects from low-dose-rate exposures to 
energy and defense-related insults, including radiation, within the 
designated time frame of the program. However, the pace of scientific 
progress cannot be predicted with precision. The first set of projects 
funded by this program may provide the critical answers being sought. 
Equally likely, these same projects may only identify the critical 
experiments that need to be done. Our strategy for managing this 
research program is designed to maximize rapid progress through ongoing 
program reviews and workshops that include principal investigators, 
other scientists, regulators, policy makers, and other agencies.
                          human genome program
    Question. For fiscal year 1999, the Department has requested $85.3 
million for the Human Genome program, the NIH has requested $350 
million, and I understand industry may spend that much again on its own 
sequencing. Would you describe the relationship between those three 
efforts?
    Answer. The U.S. Human Genome Project has been jointly coordinated 
by the Department of Energy (DOE) and the National Institutes of Health 
(NIH) since 1988. High throughput DNA sequencing is currently the major 
focus of both the DOE and NIH genome programs. All sequence information 
supported by DOE and NIH is rapidly submitted to public databases. 
Sequencing laboratories supported by both agencies participate in an 
international effort to coordinate human DNA sequencing to minimize 
overlapping sequencing efforts. The DOE and NIH participate in the peer 
review of research conducted by both agencies. DOE is an active 
participant in the sequencing quality tests coordinated by NIH. Both 
agencies are currently planning a workshop to discuss and plan the 
current and future needs in data management and analysis for the genome 
program. DOE and NIH are working together on the next five year plan 
for the U.S. Human Genome Project for fiscal year 1999-2003. Industry 
is making a considerable investment in human DNA sequencing; however, 
for the most part, this sequence data is not submitted to public 
databases but is used for internal research and development. In 
addition, the DOE and NIH efforts are focused on determining the 
complete sequence of long stretches of human DNA; much of industrial 
sequencing is focused on sequencing short sequences of DNA useful as 
gene markers that are important in drug development or diagnostics.
    Question. Last year was the final year of construction for the 
Joint Genome Institute at the Lawrence Berkeley Laboratory. How much of 
the DOE's requested Human Genome budget goes to the operation of that 
facility?
    Answer. DOE funded the construction of the Human Genome Laboratory 
at Lawrence Berkeley National Laboratory. This new facility is not the 
Joint Genome Institute (JGI). The JGI is a collaboration or ``virtual 
laboratory'' whose work is currently conducted at Lawrence Berkeley, 
Lawrence Livermore, and Los Alamos National Laboratories. Genome 
scientists at Lawrence Berkeley National Laboratory conduct their share 
of JGI activities at the Human Genome Laboratory. Direct funds are 
provided for research conducted in the Lawrence Berkeley Human Genome 
Laboratory but not for the operation of the building itself.
    In August 1998, the JGI will open a production sequencing facility 
in Walnut Creek, California. This laboratory will be used as a state-
of-the-art robotics factory for the sequencing of DNA and will be the 
only building or laboratory specifically designated as a JGI facility.
    Question. The JASON's committee issued a review of the Human Genome 
program in January. The Committee concluded that present sequencing 
technology leaves much to be desired and must be replaced by a new 
technology if the full potential of the genome is going to be used. Do 
you concur with that assessment, and, if so, how much is the Department 
spending in non-EP technology development?
    Answer. The present sequencing technology, based upon 
electrophoresis (EP) technology is considered adequate for the 
immediate needs of the genome program. However, it is likely to be 
inadequate to meet the requirements of the program for high throughput 
sequencing as we approach the year 2005, when the first complete 
sequence of the human genome is to be completed. The need for DNA 
sequencing in the research laboratory or the medical laboratory will 
not end with the completion of the initial sequencing phase of the 
human genome program. It is generally agreed that the EP technology 
cannot meet the needs for determining sequence information for the wide 
range of applications of genomics beyond the goal for the year 2005. 
The Department is spending $1,980,000 in fiscal year 1998 for research 
into technologies that are not based upon electrophoresis (non-EP) 
technologies. The Department will redirect the genome instrumentation 
research subprogram during fiscal year 1999. The redirected subprogram 
will address the points raised in the report by the JASON's committee 
and will likely contain an increase in the level of funding for 
research into non-EP technologies for sequencing.
                         fusion energy sciences
    Question. I would like to commend the Fusion Energy Sciences 
Advisory Committee for recognizing that the emperor had no clothes by 
declaring what those of us who do the budgets have known for some time; 
the international community will not spend $12 billion on the next 
fusion machine.
    The fusion community is now developing low cost alternatives to the 
International Thermonuclear Experimental Reactor.
    Has the Department provided any guidance as to what the United 
States might contribute to a less expensive international machine?
    Answer. I am delighted that we and our ITER partners are now 
agreeing to focus our efforts on lower-cost options for this major step 
in fusion research. Within the proposed three-year ITER extension 
period, we expect to provide decision-makers in the four Parties with a 
broad range of options that will enhance the probability of moving to 
joint construction of an attractive, affordable next step. We have not 
yet stated what the U.S. might contribute to a lower-cost ITER. First 
we want to see the outcome of the joint efforts to prepare lower-cost 
designs and assess the level and nature of our fusion budget support 
from the Congress in the next few years.
    Question. This Subcommittee funds two totally separate fusion 
programs; one in defense and one in non-defense, and at least six 
different technologies all with the goal of achieving controlled 
ignition; glass lasers, KrF lasers, heavy ion drivers, light ion 
drivers, magnetic confinement, and pulsed power.
    We are not going to fund all these technologies indefinitely. When 
are we going to be able to make a down selection?
    Answer. The Department does have two separate fusion programs, and, 
although they are interrelated, they serve quite different missions.
    The mission of Energy Research's Fusion Energy Sciences program is 
to acquire the knowledge base needed for an economically and 
environmentally attractive fusion energy source. The understanding of 
ignition, or burning plasma physics, is a key element of that knowledge 
base. We are depending on international collaboration, in particular 
through ITER, for experimental exploration of burning plasma physics. 
While the Fusion Energy Sciences program is predominantly focussed on 
magnetic fusion research, it also contains a small component focussed 
on the energy aspects of inertial confinement, especially the physics 
of heavy ion accelerators. We are depending on the work of the 
Department's Defense Programs to provide the most important element of 
inertial fusion energy, namely the target physics.
    The mission of Defense Programs' Inertial Confinement Fusion 
program is to support stockpile stewardship, and the National Ignition 
Facility is a major element of that program. An intermediate goal of 
the National Ignition Facility is an ignited target driven by glass 
laser technology. Within the Inertial Confinement Fusion program, other 
drivers are supported for near-term research and for possible future 
applications in the Stockpile Stewardship program. The light ion 
driver, however, has been dropped and will not be supported after this 
year. The pulsed power program and the KrF laser program are being 
funded to provide scientific results now for Stockpile Stewardship and 
to understand their potential for future capability needed by the 
Stewardship program.
    The restructuring of the Fusion Energy Sciences program, mandated 
by Congress in 1995, eliminated milestones for the development of 
fusion energy and resulted in a science driven program with an emphasis 
on innovation, including increased efforts in plasma science and on 
alternate concepts. A major issue for the magnetic fusion community had 
been that we had ``down selected'' too soon in magnetic fusion. The 
time to ``down select'' will be when the science is further developed 
so that when the country is ready to proceed with the development of 
fusion energy, a fully informed down select decision can be made.
             thomas jefferson national accelerator facility
    Question. Last year's Appropriations Act recommended that the 
Department provide an additional $3 million for the operation of the 
accelerator at the Jefferson Lab so the facility could operate for an 
additional 8 weeks.
    Consistently, the conferees provided a $5 million increase for the 
program and no other direction or earmarks.
    Instead of increasing its budget as recommended, you provided the 
laboratory with $2.3 million less than you said you would in your 
fiscal year 1998 request.
    Why did you reduce the budget, and how did you spend that money on 
something else without submitting a reprogramming request?
    Answer. As described in the fiscal year 1998 columns of the 
Congressional Budget requests for both fiscal year 1998 and fiscal year 
1999, the Nuclear Physics program provided Thomas Jefferson National 
Accelerator Facility (TJNAF) in fiscal year 1998 $1.25 million more 
than the budgets requested. Following recommendations by TJNAF, the 
distribution of these funds between facility operations and research 
support was optimized for support of the user program. Allocation of 
undistributed general reductions at the ``Science'' appropriation total 
for prior year balances, training for contractor principal 
investigators, and other departmental and programmatic priorities 
reduced the total funding available for research and operations 
objectives. The Nuclear Physics program office is presently reviewing 
options for distribution of its remaining fiscal year 1998 funds to 
optimize scientific output for fiscal year 1998.
    The following table compares the fiscal year 1998 budget request 
with the current estimate.

             Thomas Jefferson National Accelerator Facility

                            [Whole Dollars]

Congressional request...................................     $67,350,000
Current estimate........................................     $68,600,000

                              kyoto accord
    Question. Mr. Reicher, I am uncertain about any correlation between 
greenhouse gas emissions and global climate change. I am also worried 
that the restraints the United States will have to impose on its energy 
choices in order to meet the Kyoto Agreement targets will also restrain 
our economy. But, if one assumes a causal relationship between 
greenhouse gas emissions and global warming, isn't it true that capping 
emissions at 1990 levels still results in a continuing increase in 
greenhouse gases in the atmosphere?
    Answer. The relationship between greenhouse gas emissions and 
atmospheric concentrations of those gases is complex and is explored 
below. The simple answer is that capping emissions at 1990 levels--with 
no further actions--would still result in increased greenhouse gases in 
the atmosphere. The Kyoto agreement by itself will not decrease 
concentrations of these gases but rather cut the rate of increase. 
Reductions in concentrations within a time frame that significantly 
reduces the threat of increased global warming will require more 
substantial and widespread emissions reductions than those negotiated 
at Kyoto. However, the Kyoto agreement is a vital first step for two 
reasons. First, in order to enable more substantial and widespread 
emissions reductions in the future, policies must be put in place that 
accelerate the use of advanced, low-emission technologies available 
today and new technologies must be developed that can reduce emissions 
at relatively low cost. The agreement reached in Kyoto is already 
motivating such actions and investments in several nations. The Climate 
Change Technology Initiative proposed in the fiscal year 1999 budget 
request is in fact the Administration plan to develop and accelerate 
the use of key technologies in the buildings, industry, transportation 
and power sectors that will play key roles in reducing emissions while 
simultaneously providing environmental benefits and cost savings in the 
nearer term. Second, the longer the world remains on the present path 
of emissions growth, the more difficult it ultimately may be to reduce 
concentrations to acceptable levels. Even cutting the rate of emissions 
growth in the near term will make reaching long term targets less 
difficult.
    The atmospheric concentrations of important greenhouse gases have 
grown significantly from pre-industrial levels to the present day. For 
example, the concentration of carbon dioxide has increased from a pre-
industrial level of 275 parts per million by volume (ppmv) to 360 ppmv 
in 1992, while methane has increased from 700 parts per billion (ppbv) 
to 1720 ppbv. Most scientists now agree that these increases are 
responsible for a human-induced, discernable effect on the Earth's 
climate system. These increases in atmospheric concentrations of these 
greenhouse gases directly result from increased emissions of these 
gases from human-related activities. However, concentrations rise much 
more slowly than emissions and the gases persist in the atmosphere long 
after they are emitted. Carbon dioxide has an atmospheric lifetime of 
50 to 200 years, methane about 12 years, and nitrous oxide about 120 
years. This means that there is a significant time lag between the 
moment that these gases are released into the atmosphere and the time 
when the gases are cleansed out of the atmosphere through natural 
processes. Thus, as noted above, taking an initial step is extremely 
important and increased investments in energy efficient and clean 
energy technologies are of vital importance to reducing emissions in 
the future.
    Question. If our objective is to stabilize the levels of greenhouse 
gases in the atmosphere, maybe at two times the pre-industrial level, 
and support a growing world population with developed economies, don't 
we need a whole different set of technologies like fission and fusion 
to meet base-load energy requirements?
    Answer. The challenge that global climate change poses requires a 
comprehensive, multi-year technology approach. There is no single 
technology--or even a small set of technologies--that is likely to be 
able to meet this challenge. Rather, a diverse portfolio of 
technologies that meets our needs in the near to long term is required. 
It is critical that our nation begin to invest in this portfolio of 
technologies that can lower the mid- to long-term costs of reducing 
greenhouse gas emissions--especially since other nations are racing to 
develop these technologies. Such a portfolio--including energy 
efficiency, low-carbon energy production and carbon sequestration 
technologies--will require many years to develop, so it is critical 
that we begin this work now to minimize costs. In addition, development 
and widespread use of this technology portfolio will likely provide 
many other benefits--including reduced energy costs, increased energy 
security, improved urban air quality, and greater U.S. competitiveness.
    This portfolio will include a wide range of technologies that will 
provide opportunities in the near to mid term, long term and very long 
term. Several recent studies have examined the potential role 
technology can play in reducing greenhouse gases. The study ``Scenarios 
of U.S. Carbon Reductions: Potential Impacts of Energy Technologies by 
2010 and Beyond,'' by five leading national laboratories, concluded 
that accelerated use of energy efficiency and low-carbon technologies 
and development of new technologies could substantially cut the cost of 
reducing U.S. greenhouse gas emissions. The report of the President's 
Committee of Advisors on Science and Technology, ``Federal Energy 
Research and Development for the Challenges of the 21st Century,'' 
recommended expansion of a number of national energy R&D programs and 
targeted energy efficiency and renewable energy programs for the 
greatest increases in funding. In the development of the Climate Change 
Technology Initiative, the Administration weighed the potential of 
various opportunities across technologies and time periods. The budget 
proposal supports a portfolio that balances nearer term opportunities 
with longer term investments.
    Between the present and 2010, the largest opportunities for 
emissions reductions are in making more efficient use of fossil and 
nuclear fuels. These energy sources account for over 90 percent of 
current energy use and will continue to dominate energy markets for 
some time. Energy efficiency technologies produce equivalent energy 
services from less primary energy--thus lowering emissions for those 
energy services. Technologies such as advanced automobiles and trucks, 
high efficiency motors, industrial combined heat and power systems, and 
high efficiency lighting and building equipment can substantially cut 
the rate of growth in greenhouse gas emissions. Many of these 
technologies are available today--the opportunity in the near term is 
to accelerate the use of those available today while developing even 
more efficient technologies for the future. While some clean energy 
technologies--including renewable energy and higher capacity factors at 
current nuclear plants--will also play a role in this time frame, most 
of the low-cost emission reductions are likely to be due to investments 
in energy efficiency.
    By 2010, a portfolio of clean energy technologies--including an 
array of low-cost renewable energy, fuel cells, high-efficiency coal 
power, and improved nuclear power technologies will play an 
increasingly important role. The restructured electricity environment 
will also likely favor highly efficient generation technologies, 
environmentally-friendly energy sources and distributed power. These 
technologies will enable further emissions reductions that are not 
economically viable today. After 2020, a new generation of energy 
technologies--brought about by R&D investments we begin today--will 
enable even greater emission reductions. These technologies include 
widespread use of a variety of carbon sequestration methods; advanced 
nuclear fission; very low cost advanced renewable energy; energy plexes 
that produce power, clean fuel and chemical products; advanced 
industrial processes; fusion power; and others that we cannot foresee. 
These advanced technologies will be extremely important, but the many 
components of the overall technology portfolio--both today's 
technologies and those in the future--will have important roles in 
meeting the challenge of global warming.
    Question. This week's Science magazine includes an article co-
written by a Sandia scientist that claims China's demand for oil and 
coal over the next two decades will offset any gains from the Kyoto 
Accord. How big a percentage reduction in annual global greenhouse gas 
emissions will occur because of the Kyoto Accord?
    Answer. The goal set at Kyoto is to reduce global greenhouse gas 
emissions from the Annex I nations 6-8 percent below their emissions in 
1990 in the period of 2008 to 2012. From this, one can estimate the 
percentage reduction in annual global greenhouse gas emissions that 
will occur because of the Kyoto Accord.
    Global emissions of greenhouse gases in 1990 were 6,000 million 
metric tons of carbon equivalent (MMTCE). Of this, about 5,830 MMTCE 
were from the use of fossil fuels. Annex I nations emitted about 3,775 
MMTCE greenhouse gases in 1990. If all Annex I nations comply with the 
Kyoto agreement, at the levels prescribed in the treaty, these nations 
would emit about 3,560 MMTCE per year in the year 2010. This reduction 
amounts to about 215 MMTCE below their 1990 levels of emission and 
considerably lower than emissions forecast in the absence of an 
agreement. This reduction of 215 MMTCE is a 3.6 percent reduction in 
total annual global greenhouse gas emissions from Annex I and non-Annex 
I nations relative to the total 1990 level.
                            renewable energy
    Question. The Energy Information Administration reports that, of 
total energy consumption in the United States, non-hydroelectric 
renewable energy was: 3.6 percent in 1991, 3.8 percent in 1992, and 3.7 
percent in 1993, 1994, and 1995--the last year for which the 
Administration has compiled data.
    With all the money we have put into this program, why can't 
renewable energy expand its market share?
    Answer. More recent data presented by the Energy Information 
Administration (EIA) in its 1998 Annual Energy Outlook (Table A17) for 
non-hydro electric generation (in billion kilowatt-hours) is as 
follows:

1994..............................................................  48.4
1995..............................................................  44.5
1996..............................................................  45.8
2000..............................................................  53.6
2010..............................................................  63.6
2020..............................................................  74.7

    This data shows a reduction in non-hydro renewable generation in 
the U.S. from 1994 to 1996, due to decreases in geothermal and biomass 
electric generation associated with the expiration of older, higher-
priced power purchase contracts. More generally, the combined impacts 
of uncertainty from electricity restructuring, lower competing fossil 
fuel prices, and continued increases in competing gas turbine 
generation efficiencies have slowed the renewable energy generation in 
the U.S. last several years.
    In other parts of the developed world, where electricity prices are 
higher, and public policy attention has been placed on non-technical 
barriers to renewables deployment, market expansion has been 
considerably greater (e.g., in Japan, where photovoltaic systems are 
being widely deployed, and in Germany, where the number of wind and 
photovoltaic systems is growing rapidly). In less developed parts of 
the world, where many people lack access to grid- supplied electricity, 
renewable electricity systems are making significant inroads, often 
being the lowest-cost option for bringing electrification to rural 
areas. As a result, global sales of photovoltaic systems have grown at 
more than 20 percent annually over the past seven years, and U.S. 
market share has climbed to more than 40 percent. This trend should 
continue in the future as renewable energy costs are further reduced by 
the Department's joint R&D programs with industry, and public policy 
concerns increase market demand for clean energy sources. While utility 
industry restructuring may have temporarily slowed renewable energy in-
roads, restructuring will also provide opportunities. The growth in 
consumer choice over electricity providers will result in significant 
expansion of ``green'' supply programs. The number of States that 
establish renewable energy portfolio standards in concert with 
restructuring legislation will grow.
                            renewable energy
    Question. According to the Energy Information Administration, solar 
technologies now produce 8-one hundredths of a percent of total energy 
consumption, and wind energy produces 3-one hundredths of a percent of 
total U.S. energy consumption.
    What percentage do you predict they will produce by 2010?
    Answer. The Energy Information Administration (EIA) is a semi-
independent element of the Department of Energy that collects and 
analyzes energy data and provides status summaries and outyear 
forecasts. Their objectivity and avoidance of bias are unquestioned 
within the Department and, we believe, by many outside as well. 
However, EIA acknowledges that models used to forecast energy trends 
and future fuel demand do not account for technology improvements, 
policy changes, new legislation, or institutional metamorphoses such as 
utility restructuring. For these reasons, EIA projections of adoption 
rates for renewable energy systems--a group of energy technologies 
subject to continuing technical advancements and policy treatment--are 
traditionally low.
    Over the next 10-12 years, the emergence of portfolio standards, 
``green'' programs, new Federal or State legislation on utility 
restructuring and increasingly stringent clear air standards will 
influence the penetration rate of renewable systems. The steady stream 
of technology improvements over the same period will result in more 
competitive products and systems. The net effect of these changes will 
be greater renewable energy penetration than the modest in-roads 
projected by EIA on business-as-usual assumptions.
    We believe that wind will contribute approximately 9,600 MW to the 
nation's new electric capacity needs by 2010. We expect that the solar 
technologies (photovoltaics, solar thermal electric, wood and non-
cogeneration biomass under EIA's definition) will add an additional 
7,800 MW during the same time period. The 17,400 total megawatts 
represents approximately 8 percent of the 200,000+ MW new capacity EIA 
projects as needed by 2010--a substantial contribution for these two 
classes of renewables.
                            renewable energy
    Question. The Energy Information Administration also forecasts 
that, between now and 2020, coal prices will drop 28 percent while 
natural gas prices will slightly increase. Do you estimate the United 
States will burn more or less coal in 2020 than it does today?
    Answer. The Reference Case of the Energy Information 
Administration's Annual Energy Outlook 1998 projects that coal 
consumption will rise from 20.9 quads in 1996 to 25.6 quads in 2020. By 
2020, an estimated 90 percent of this coal will be used to generate 
electricity at base load power plants. However, this projection is a 
``business as usual'' forecast that explicitly assumes that there are 
no changes in policy or major changes in technology. In other words, it 
assumes that the U.S. does little or nothing to change its energy or 
environmental emissions trajectory. According to several recent 
studies, changes in policies and technologies could reduce future coal 
consumption.
    The report ``Scenarios of U.S. Carbon Reductions: Potential Impacts 
of Energy Technologies by 2010 and Beyond'', quantifies the potential 
for energy efficient and low-carbon technologies to reduce carbon 
emissions in the U.S. In this study's ``high-efficiency, low-carbon 
scenario'', coal use for electricity generation decreases 24 percent by 
2010--resulting in a drop in annual coal consumption of about 5 quads 
by that year. This translates into essentially no growth or a slight 
decrease in future coal consumption. This scenario assumes increased 
end-use efficiency in buildings and industry (decreasing electricity 
demand), increased use of natural gas for electricity generation and a 
domestic carbon emissions permit trading system with permits priced at 
$50 per ton of carbon. Bringing about such a scenario will require 
aggressive development of advanced technologies and concurrent policies 
to accelerate their use.
    While the potential exists to significantly reduce coal 
consumption, it is likely that coal consumption will rise at least 
somewhat over the next 20 years. Under any plausible scenario, coal 
will continue to be an important part of the U.S. energy mix far into 
the future. It is therefore vitally important to develop technologies 
that enable coal to be used with minimal environmental impact. The 
Department is therefore proposing to expand R&D on high-efficiency coal 
power generation technologies and carbon sequestration. The new power 
technologies--such as integrated gasification combined cycle and fuel 
cells--will produce more power and fewer emissions from a given amount 
of coal. Sequestration technologies will enable the removal of carbon 
from fuels, emission streams or the atmosphere directly and the 
permanent storage of this carbon through a variety of means. The 
combination of high efficiency power generation and carbon 
sequestration technologies will enable both our industrialized nations 
and coal-dependent developing nations such as China to continue to use 
coal even in a greenhouse gas-constrained future.
                           funding shortfall
    Question. I do not think the Subcommittee will be able to provide a 
37 percent increase in Solar and Renewable Energy programs. Would you 
provide the Committee your recommendations of the allocation of funding 
at the current level?
    Answer. Increased investments in renewable energy technology R&D 
are of critical importance to the nation. These technologies will 
improve local environmental quality, improve the diversity and security 
of our energy supply, reduce greenhouse gas emissions, and improve our 
long-term competitiveness. These technologies are of critical 
importance to meeting the energy and environmental challenges of our 
times and of the next century. However, we also recognize the existence 
of budget constraints and will work closely with the committee to 
identify priorities.
                       electricity restructuring
    Question. The Energy Information Administration predicts in its 
December Annual Energy Outlook that renewable energy technologies are 
expected to penetrate markets at a slower pace than previously forecast 
due to electricity restructuring and increased competition with fossil 
fuel technologies. Do you agree with the Energy Information 
Administration assessment?
    Answer. While their assessment may be likely in the very short 
term, I do not agree with the Energy Information Administration's 
forecast for renewable energy technologies for the medium and long 
term. It is important to understand that the Annual Energy Outlook 
(AEO) reference case forecast is a projection of current policies into 
the future. It is a continuation of ``business as usual'' into the 
future. The penetration of renewable energy technologies in the current 
AEO is lower than in the previous edition primarily because of 
projected lower generation costs and electricity prices. All else 
equal, these factors will tend to decrease renewable energy electricity 
generation. However, there are several factors in restructuring not 
considered in that forecast that will likely increase the use of 
renewable energy. These factors include: (1) the ability of retail 
consumers to choose electricity suppliers and the demonstrated consumer 
preference for ``green power''; (2) the creation of renewable energy 
portfolio standards that require a minimum percentage of renewable 
electric power in some states; (3) the creation of state funds to 
accelerate the development and deployment of renewable energy 
technologies; (4) the likely increase in distributed power 
applications; and (5) more stringent environmental requirements.
    Retail competition will enable consumers to select their power 
supplier based on price and other characteristics. Many utility and 
consumer surveys have suggested that an important selection criterion 
will be lower levels of emissions from a particular company. Many 
utilities have established green power programs in which consumers can 
voluntarily purchase electricity from renewable energy sources such as 
wind or photovoltaics for a modest price premium. Not only have these 
programs proved popular, but in some cases the utility offering the 
program cannot keep up with the consumer demand for this product. 
Retail competition will likely stimulate similar green power programs 
across the country--potentially increasing the market share of 
renewable energy.
    Several states have established renewable energy portfolio 
standards or funds to accelerate the development and deployment of 
renewable energy as part of their restructuring legislation. These 
actions have been taken for many reasons, including diversifying the 
state electricity supply, facilitating the development of the clean 
energy industry, and increasing a state's options for compliance with 
environmental regulations. Like consumer choice, these actions are 
likely to increase the use of renewable energy for electricity 
generation.
    Restructuring is very likely to increase the use of smaller, 
distributed power generation. Such generation will be close to the 
consumer and be modular in nature. An example is a combined heat and 
power system in an industrial plant that will economically produce both 
electricity and steam--with excess electricity sold to a power company. 
Other distributed systems likely to be of increased interest include 
small turbines, fuel cells, biomass combustion, wind and photovoltaics. 
Currently, major barriers exist that discourage such systems, but many 
of these barriers will disappear under restructuring.
    Finally, the more stringent national air emissions standards for 
NO<INF>x</INF>, ozone and particulates could make renewable energy 
technology options more attractive in many situations across the 
country. Since these technologies emit few or no emissions, their 
attractiveness relative to conventional fossil energy electricity 
generation could increase. This change, especially when coupled with 
the likely increase in distributed generation, could tend to increase 
the use of renewable energy.
    The Comprehensive Electricity Competition Plan just released by the 
Administration includes several features that will stimulate renewable 
energy market penetration as described above. These features include: 
retail competition in electricity markets; consumer information 
required from all electricity companies on generation sources and 
emissions; a federal renewable portfolio standard; a $3 billion per 
year public benefit fund to provide matching funds to States for 
activities such as development and demonstration of emerging 
technologies, particularly renewables; net metering for small 
independently-owned renewable electricity projects to enable 
electricity sales from those projects; and interstate trading of 
NO<INF>x</INF> credits. Each of these factors, if enacted, will tend to 
increase the use of renewable energy technologies.
    One additional factor not considered in the EIA forecast of 
renewable penetration is that rapid growth in international sales by 
U.S. renewable energy manufacturers. While the total production level 
in, for example, the photovoltaics industry is still modest, the rate 
of growth is 20-40 percent per year. This is allowing manufacturers to 
increase production volume and decrease unit costs. Higher production 
levels, albeit driven to export sales, will drop the domestic costs of 
these technologies. All else equal, this will also tend to increase the 
market penetration of renewable energy technologies.
    In sum, while the projected lower electricity prices under 
restructuring will tend to decrease the use of renewable energy 
technologies, a variety of other factors will tend to increase their 
use. With so many uncertainties in the future evolution of electricity 
markets it is difficult to make a prediction, but it is anything but 
certain that the use of renewable electricity will decline. In fact, 
renewable energy penetration may increase as electricity markets 
evolve.
                       electricity restructuring
    Question. What provisions will the Administration propose be 
included in an electricity restructuring bill to encourage the use of 
renewable energy sources?
    Answer. The attached provisions affecting renewable energy are 
excerpted from The Comprehensive Electricity Competition Plan. The 
Administration's Comprehensive Electricity Competition Plan will result 
in lower prices, a cleaner environment, increased innovation and 
government savings. The Department of Energy estimates that retail 
competition will save consumers $20 billion a year on their electricity 
bills. This translates into direct savings to the typical family of 
four of $104 per year and indirect savings, from the lower costs of 
other goods and services, of $128 per year. Thus, total savings for a 
typical family are estimated to be $232 a year.
    Competition will also produce significant environmental benefits 
through both market mechanisms and policies that promote investment in 
energy efficiency and renewable energy. We expect the Electricity 
Competition Plan to produce significant environmental benefits through 
these policies. Provisions of the plan that will facilitate the use of 
renewable energy include:
  --A Public Benefits Fund that will provide matching funds to States 
        of up to 1.0 mill/kWh, ($3 billion a year) to finance energy 
        efficiency, renewable energy and other public benefit programs;
  --``Green labeling'' provisions to help consumers identify and choose 
        power from environmentally friendly generators including 
        renewable energy;
  --A Renewable Portfolio Standard, to require that at least 5.5 
        percent of electricity sales be generated from non-
        hydroelectric renewable sources, subject to a cost cap; and
  --Trading authority for NO<INF>x</INF> emissions, to facilitate cost-
        effective, market-driven NO<INF>x</INF> reductions--which will 
        encourage investment in low- and zero-emissions technologies 
        such as renewable energy.
                                 ______
                                 

                  Questions Submitted by Senator Reid

                             nuclear energy
    Question. Dr. Krebs, your submitted statement identifies clearly 
the priorities of the Office of Energy Research but does not include an 
effort to find new methods of disposing of nuclear waste. Would any of 
the $332.6 million requested for Nuclear Physics or $392.6 million 
requested for Biological and Environmental Research be applied to 
finding ways to store nuclear waste?
    I would note that Senator Domenici has been addressing the question 
of the future of nuclear power and as I see it, the cost and social 
acceptability are two principal obstacles to nuclear power. Your 
office, which studies the nature of the nucleus, ought to be examining 
the disposal question.
    Answer. The mission of the Office of Energy Research programs is to 
develop and provide the knowledge base for the Department of Energy; 
disposal of nuclear waste is the responsibility of other programs 
within the Department.
    There are, however, a number of activities within the Office of 
Energy Research that provide fundamental science in support of the 
disposal of nuclear waste.
    In this context, Nuclear Physics (NP) manages the U.S. Nuclear Data 
Network, which evaluates and makes available the latest data on-line; 
the Nuclear Physics program also maintains the Oak Ridge Electron 
Linear Accelerator, which is available to other programs within DOE for 
the purpose of obtaining specialized nuclear data.
    Similarly, Biological and Environmental Research (BER) does not 
fund research on processing or storage of nuclear waste, but it does 
support research that might be applicable to storage of civilian 
nuclear waste, for example research into new instrumentation for 
characterization and monitoring of radioactive materials in the 
environment. Such research could result in new instrumentation that 
would also be useful for monitoring stored nuclear wastes.
    Perhaps the largest activity within the Office of Energy Research 
that focuses directly on nuclear waste disposal is associated with the 
Environmental Management Science Program. This program is jointly 
managed by the Office of Energy Research and the Office of 
Environmental Management (EM) and is funded from EM's appropriation. 
This program focuses on the cleanup of the former weapons development 
sites within the DOE complex and includes research associated with the 
disposal of both high level and mixed radioactive waste. Current 
support for these areas is about $10.2 million per year.
    Within the Basic Energy Sciences program, we support about $10.5 
million in broad based fundamental studies of separations, chemistry 
and spectroscopy of the actinides and their daughter products. These 
studies provide the fundamental understanding that is necessary in 
order to ensure their ultimate safe disposal by whatever technology is 
deployed. In addition, the Basic Energy Sciences program has, within 
the past three years, sponsored two well publicized workshops that 
identified fundamental scientific research needs and opportunities with 
respect to radiation effects in glasses and crystalline ceramics for 
the immobilization of high-level nuclear waste and the disposal of 
plutonium. The scientific publication of the findings from these 
workshops in open scientific literature makes it likely that the Basic 
Energy Sciences program will be receiving some high scientific quality 
research proposals that fall within the priority needs that were 
identified. The Basic Energy Sciences program is currently funding two 
projects that are concerned with understanding and developing reliable 
predictive models for the degradation of primary radioactive waste 
hosts.
    We are also working with the Office of Nuclear Energy Science and 
Technology to establish a new directed science program, the Nuclear 
Energy Research Initiative (NERI). Planning activities for this program 
include a workshop to be held April 23-24, 1998, that will include 
researchers from the physics, chemistry and materials communities 
supported by the Office of Energy Research and the nuclear engineering 
community supported by the Office of Nuclear Energy. The workshop will 
focus on research needs and opportunities that can build on the more 
fundamental activities within the Office of Energy Research.
                                hydrogen
    Question. In last year's appropriation for the Department of 
Energy, $3 million was put within the Office of Energy Research for 
hydrogen research. Could you explain what efforts were made with this 
funding?
    Answer. There is confusion regarding the $3 million identified in 
the fiscal year 1998 Energy Research budget for hydrogen research. To 
clarify the main point, at the request of the House Appropriations 
Committee, the Office of Energy Research was asked to identify ER 
funded research in fiscal year 1998 that supported the activities of 
the Office of Energy Efficiency and Renewable Energy's (EE) programs in 
solar and renewable energy. Within the $44 million of ongoing ER 
activities that were identified, $3 million supported the hydrogen 
program in EE. I would be pleased to provide a listing of current 
projects supported in fiscal year 1998. It is again noted that these 
are ongoing activities within the base program of the Department's 
request and do not represent any added funds by the Congress.
    Dr. Mary F. Roberts, Boston College, ``Osmoregulation in 
Methanogens.''
    Dr. Laurens Mets, University of Chicago, ``Molecular genetic 
analysis of biophotolytic hydrogen production in green algae.''
    Dr. Michael W.W. Adams, University of Georgia, ``The Metabolism of 
Hydrogen by Extremely Thermophilic Bacteria.''
    Dr. William B. Whitman, University of Georgia, ``Biochemistry and 
Genetics of Autotrophy in Methanococcus.''
    Dr. Ralph S. Wolfe, University of Illinois, ``Studies on the 
Microbial Formation of Methane.''
    Dr. Robert J. Maier, Johns Hopkins University, ``Bacterial Nickel 
Metabolism for Hydrogenase Synthesis.''
    Dr. Judy Wall, University of Missouri, ``Genetics and Molecular 
Biology of Hydrogen Metabolism in Sulfate Reducing Bacteria.''
    Dr. John N. Reeve, Ohio State University, ``Structure and 
Regulation of Methanogen Genes.''
    Dr. Michael J. McInerney, University of Oklahoma, ``Energetics and 
kinetics of syntrophic aromatic degradation.''
    Dr. Daniel J. Arp, Oregon State University, ``Characterization of 
the Genes Involved in Nitrification.''
    Dr. Louis Sherman, Purdue University, ``A Genetic Analysis of the 
Lumenal Proteins of the Photosystem II 02-evolving Complex in 
Cyanobacteria.''
    R. Eisenberg, University of Rochester, ``Photochemistry of Platinum 
Group Elements: Applications to Energy Conversion and Bond 
Activation.''
    E. Greenbaum, Oak Ridge National Laboratory, ``Kinetics of Enzyme-
Catalyzed Processes.''
    J.K. Hurst, Washington State University, ``Membrane-Organized 
Chemical Photoredox Systems.''
    T.E. Mallouk, Pennsylvania State University, ``Electron Transfer 
Reactions in Microporous Solids.''
    N. Sutin, C. Creutz, Brookhaven National Laboratory, ``Thermal, 
Photo-, and Radiation-Induced Reactions in Condensed Media'', ``Solar 
Hydrogen-Related Projects in the Division of Chemical Sciences.''
    Question. Assuming general science research still needs to be done 
with hydrogen, wouldn't funds be used effectively if there is 
coordination with hydrogen applications and technologies within Energy 
Efficiency and Renewable Energy office under Assistant Secretary Dan 
Reicher?
    Answer. Coordination through effective communication between basic 
and applied research programs benefit both offices. Effective 
communication provides a mechanism to funnel new fundamental 
discoveries to a focused program in technology research and development 
while problems that come up in applied programs are often a source of 
good fundamental questions. The Office of Energy Efficiency and 
Renewable Energy (EE) and the Office of Energy Research (ER) have 
acknowledged the need for improved communication. On November 12, 1997, 
the staff from both offices met to discuss numerous activities 
currently underway and what future activities were being considered. 
The development of new mechanisms for encouraging fuller exchanges 
between the two offices will be a continuing activity. Within the 
hydrogen area, two technical staff from ER will participate in the 
annual program review of EE's hydrogen program in April 1998. 
Discussions have been initiated on establishing a more formal 
coordination mechanism within the Department similar to the Hydrogen 
Energy Coordinating Committee.
                        lopsided budget request
    Question. In a budget request that is lopsided in its increases and 
decreases, ``Basic Energy Sciences'' receives a 25 percent increase 
raising the allocation to $836.1 million. This program would be the 
link, as I see it, of the sciences to the Climate Change Initiatives of 
the Administration. Would it be correct to say that if there were no 
Global Climate Change Treaty this year that you would not need the 
entire $836 million?
    Answer. The Basic Energy Sciences budget request shows an increase 
of $168.8 million. Three main activities account for this increase, the 
largest of which is the Spallation Neutron Source (SNS), a project that 
is independent of our activities related to the Climate Change 
Technology Initiative (CCTI). The three activities that constitute the 
main components of the increase to the BES budget are: (1) initiation 
of Spallation Neutron Source (SNS) construction; (2) Scientific 
Facilities Utilization; and (3) carbon management science.
    Initiation of Spallation Neutron Source (SNS) Construction. Fiscal 
year 1999 funding of $157.0 million is requested for the SNS Project to 
begin Title I design activities, initiate subcontracts and long-lead 
procurements, and continue critical research and development work 
necessary to reduce technical and schedule risks. The $128.4 million in 
construction and $28.6 million in research funding in fiscal year 1999 
is an increase of $134.0 million over the $23.0 million for SNS 
research in fiscal year 1998.
    Scientific Facilities Utilization. Fiscal year 1999 funding of $317 
million is requested to maintain support of the scientific user 
facilities, an increase of $46.0 million over fiscal year 1998. 
Research funding for the SNS accounts for $28.6 million of this 
increase. The remainder, $17.4 million, includes increases for the 
synchrotron radiation light sources and for the neutron scattering 
facilities to adjust for increased cost-of-living expenses. In 
addition, funds are provided to the National Synchrotron Light Source 
for increased support for users; to the light source community for 
instrumentation and beamline construction at the light sources; and for 
increased research activities at the Combustion Research Facility, 
which will complete construction of Phase II in fiscal year 1999.
    Carbon Management Science. A fiscal year 1999 funding increase of 
$16.0 million is requested for carbon management science. This research 
will build on the strengths of current Energy Research programs and 
promises maximum impact in the area of carbon management. Focus areas 
include: science for efficient technologies; fundamental science 
underpinning advances in all low/no carbon energy sources; and 
sequestration science. The research activities will be important in 
maintaining fossil fuel production and use in an environment more and 
more attuned to greenhouse gas emissions.
    The remaining $1.4 million increase is the result of several 
offsetting increases and decreases throughout the program.
    Question. In the ``Computational and Technology Research,'' which 
has a $10 million increase, you have written that this Program ``builds 
on the existing capabilities and skills of universities, national 
laboratories, and industrial research institutions.'' Would you explain 
why some of the work done in the ``Mathematical, Information and 
Computational Sciences'' Activities is not duplicative of the work done 
at private firms, and educational institutions?
    Answer. The work in Mathematical, Information and Computational 
Sciences is carefully managed to avoid duplication of efforts.
    First, the work funded by this office is focused on providing 
advanced tools and research in mathematics needed to accomplish the 
Department of Energy's missions.
    Second, the work is also focused at the leading edge of technology 
to support the Department of Energy's requirements. In this area there 
is either no significant industrial investment or we form partnerships 
with industrial researchers to ensure that there is no duplication. In 
fact, many of the technologies and tools developed in the Mathematical, 
Information and Computational Sciences program, such as the High 
Performance Parallel Interface (HiPPI), are adopted as industry 
standards after our research has provided the scientific and technical 
basis.
    Third, a significant fraction of this research (about 35 percent) 
is conducted at educational institutions. There are two reasons for 
this: to make the best use of research funding by taking advantage of 
the intellectual resources at U.S. universities; and to encourage the 
education of graduate students in mathematical and computational 
sciences to fill future national and DOE personnel requirements.
    Finally, through meetings of the working groups formed by the 
Computing, Information, and Communications Research and Development 
Committee of the National Science and Technology Council there are 
ongoing discussions with program managers at other Federal agencies to 
coordinate our research efforts in these areas and avoid duplication.
    Question. Dr. Krebs, there is in total a significant increase in 
your budget, focusing on many activities, like the fragile histidine 
triad and the Spallation Neutron Source, that few up here in the 
Congress fully grasp. Yet, you want us to take it on your word, which 
we often do, that these activities are essential to our national 
interest. At some point I will venture that our faith will weaken; but 
will you be able to provide greater evidence that these activities are 
essential?
    Answer. The two activities mentioned in this question--the 
determination of the structure of the fragile histidine triad and the 
construction of the Spallation Neutron Source--are very different 
activities, yet both represent years of strong and enduring support and 
recommendations from the broad scientific communities. The 
determination of the structure of the fragile histidine triad 
represents early results from the Advanced Photon Source. The 
initiation of construction of the Spallation Neutron Source represents 
our commitment to fulfill the recommendations of the scientific 
community put forth since 1984 to construct major scientific user 
facilities for photon and neutron science studies. Indeed, the Advanced 
Photon Source was one of the four facilities recommended at that time.
    The Advanced Photon Source (APS)--our newest and largest 
synchrotron radiation light source--was commissioned in May, 1996, and 
promises significant advances in fields ranging from materials science 
to biology. The highlight in my budget testimony on the structural 
determination and biochemical analysis of the human fragile histidine 
triad (FHIT) protein is one of the recent results from work at the APS. 
The FHIT protein is a member of the histidine triad family of proteins 
and derives from a fragile site on human chromosome 3. It is commonly 
disrupted in association with human cancers, although definitive 
evidence supporting its role as a tumor suppresser has yet to be 
elucidated. The new crystal structure shows that FHIT is similar to 
another histidine triad (HIT) family member that was also solved at 
APS, which is highly conserved throughout mammalian evolution. The data 
also show that, contrary to previous studies, FHIT catalysis is not 
metal dependent. Structural and biochemical analyses of these different 
HIT proteins using DOE facilities such as APS will better focus the 
search for their functions in living systems.
    The Spallation Neutron Source is a major scientific user facility 
for neutron scattering that will be used by 1,000-2,000 scientists from 
academia, industry, and national laboratories annually. We have been 
working for two decades with the scientific community to envision this 
next-generation neutron scattering facility for basic and applied 
research and for technology development in the fields of condensed 
matter physics, materials sciences, magnetic materials, polymers and 
complex fluids, chemistry, and biology. The need for the SNS dates to 
the 1970's and the 1980's when the scientific community became 
increasingly concerned about the state of neutron sources in the U.S. 
In 1984, the broad-based National Research Council study ``Major 
Facilities for Materials Research and Related Disciplines'' chaired by 
Frederick Seitz and Dean Eastman recommended the following four 
facilities: (1) a 6 GeV synchrotron radiation light source, which 
became the Advanced Photon Source at Argonne National Laboratory; (2) 
an advanced, high-flux, steady-state neutron source, which became the 
Advanced Neutron Source, terminated in 1995; (3) a 1-2 GeV synchrotron 
radiation light source, which became the Advanced Light Source at 
Lawrence Berkeley National Laboratory; and (4) a high-intensity pulsed 
neutron facility, which is the Spallation Neutron Source. The Secretary 
of Energy's Energy Research Advisory Board reviewed the National 
Research Council's report and recommended to the Secretary in June 1985 
that ``the prerequisites and scientific priorities set down in the 
Major Materials Facilities Report are consistent with the needs of the 
Department and are in the best interest of the Nation.'' Since that 
time, many committees impaneled by the National Research Council and 
the Department of Energy have reaffirmed the recommendations of the 
Seitz-Eastman report. We anticipate that within a short time after the 
commissioning of the SNS, we will be reporting results of similar 
impact to those noted above for the Advanced Photon Source.
    Question. Or in the alternative, can you prioritize the activities 
in which you are engaged?
    Answer. As stated in my testimony before you, the highest program 
priorities in fiscal year 1999 are to move the U.S. toward 
international leadership in neutron science, provide leading-edge 
science related to climate change, maintain scientific user facilities 
utilization, develop DOE applications and technologies for the Next 
Generation Internet, and renew our commitment to science education to 
tap the human resources of the National Laboratories to ensure an 
adequate supply of scientists and engineers for the future.
                        economic competitiveness
    Question. Your submitted statement points out that partnerships 
assist America's technological expertise and competitive advantage in 
the development of clean energy technologies. When we address the 
marketplace for technologies, some critics suggest that the 
department's involvement in the marketplace is a crutch for otherwise 
failing business and pushing technologies that society doesn't want, 
what's your response to that criticism?
    Answer. The Office of Energy Efficiency and Renewable Energy forges 
partnerships with private and public sector organizations for several 
reasons. First, these partnerships ensure that our technology R&D is 
highly relevant to the marketplace. Second, they provide opportunities 
for cost-sharing. Third, they provide opportunities to field test the 
resulting technologies in order to provide useful feedback to the R&D 
effort. Finally, they provide opportunities for pre-commercial 
deployment that bring down initially high production costs. Technology 
R&D partnerships are typically established through a competitive 
solicitation process and only pursued substantial interest is 
demonstrated in the marketplace. This avoids the problem of ``pushing 
technologies that society doesn't want''. In addition, we only pursue 
R&D for technologies that have clear public benefits--such as emissions 
reductions, decreased oil use or other broad public benefits. 
Technologies that would only benefit the manufacturers or a narrow 
segment of society are not supported.
    The competitive process of selecting partners also ensures against 
providing a ``crutch for otherwise failing businesses''. Partnerships 
are generally formed with broad industry representation or a collection 
of organizations--less often with individual firms. However, when 
individual firms are chosen, the selection criteria ensure that our 
partners are strong and will be able to perform the necessary work over 
the life of the relationship. Further, such partnerships with 
individual firms require the broader transfer of the particular 
technology once the R&D effort is completed so that a broad cross-
section of industry benefits from the R&D work.
                       solar and renewable energy
    Question. Could you walk us through the measurable accomplishments 
of, and the need for a $72 million increase in, the Utility 
Technologies program?
    Answer. Progress in renewable energy development in the 1990's has 
opened significant opportunities for these systems to make near term, 
competitive contributions to the Nation's growing electricity demand--a 
demand that is outstripping forecasts due to the extended economic 
growth currently underway. Incremental technical advances coupled with 
field verification of performance and reliability are the critical 
steps needed for industry to invest heavily in renewable electricity. 
The nation benefits to the extent that renewable systems displace new 
fossil plants and avoid increasing our overall level of emissions while 
retaining price stability in the electric sector.
    The Office of Utility Technologies (OUT) has increased its efforts 
at tracking accomplishments and program progress for the past several 
years, as the Office prepares for the mandated fiscal year 1999 
reporting requirements under the Government Performance and Results 
Act. For fiscal year 1997 and fiscal year 1998, our accomplishments 
include:
    Photovoltaics.--Advances have occurred in the underlying technology 
base, in the applications served, and in the cost of delivered energy; 
the following examples are representative.
    Thin film PV cells are lower cost and more easily manufactured in 
larger sizes than traditional single crystal cells but are less 
efficient (usually single digits); the program recently achieved 12 
percent sunlight-to-electricity efficiency on thin film amorphous 
silicon laboratory cells, a world record for this type of silicon.
    Transition from small laboratory PV cells to large area PV modules 
usually causes efficiency loss of 3 or 4 percentage points due to wire 
contacts and framing, often resulting in thin film modules in the 5-7 
percent efficiency range; a DOE contractor has commercialized a 
cadmium-indium-selenide think film module that achieves 9.5 percent 
efficiency.
    DOE developments have led to commercialization of a photovoltaic 
roofing shingle which won awards for best new product of the year from 
both Popular Science and Discover magazines.
    Delivered energy costs from NASA's PV arrays were in the $5.00/kWh 
range at the start of DOE's R&D program; today's output energy is under 
$0.20/kWh and $0.12/kWh or lower appears to be only a year or two away.
    Wind Energy Systems.--For certain applications in selected 
locations, wind turbines offer a competitive alternative to 
conventional systems. This results from DOE supported technical and 
economic advancements.
    A new airfoil optimized by the National Renewable Energy Laboratory 
(NREL) for the wind turbine environment has increased energy capture by 
20-30 percent over the helicopter blade or aircraft wing airfoils 
previously used; this is achieved at no increase in rotor cost and 
testing indicates that rotor life is longer.
    Current delivered energy costs are less than $0.05/kWh at good wind 
sites, compared to over $0.30/kWh in the early 1980's.
    Solar Thermal Energy Systems.--Both power tower and dish/engine 
designs continue to make significant gains.
    In November 1997, the Solar Two Power Tower Project located in 
Barstow, CA, plant achieved a peak power output of 11 MW (the tower's 
nominal full power output is 10 MW). Solar Two demonstrated its unique 
ability to collect, deliver, and store solar energy during the day and 
to continue to generate power for several hours after sundown. 
Successful completion of the Solar Two Project will position power 
tower technology, with its ability to provide ``solar energy on 
demand,'' as a leading candidate for providing dispatchable renewable 
energy both here and abroad. Solar Two recently received the ``Best of 
What's New'' award from Popular Science and the Technology Innovation 
award from Discover Magazine, and was featured in United Airlines' 
Hemispheres magazine in February 1998.
    On December 17, 1996, Arizona Public Service Company (APS) joined 
Science Applications International Corporation (SAIC) and Stirling 
Thermal Motors (STM) in the development of dish/engine systems as part 
of the Utility-Scale Joint Venture Project (USJVP). The addition of a 
utility to the team opens the door for ``real world'' testing.
    Biopower Energy Systems.--In the Biomass Power for Rural 
Development (BPRD) initiative, construction of over 150 MW of renewable 
biomass power is beginning this year. The Minnesota Valley Alfalfa 
Producers (MnVAP) project, which at 75 MW is the largest of the BPRD 
projects, will leverage a $188M (75 percent) private-sector investment. 
This venture will stimulate rural economic development by creating a 
new market for up to 180,000 acres of alfalfa crops and by generating 
new employment opportunities in the transportation and processing of 
alfalfa as well as in the generation of electric power and other 
valuable co-products. MnVAP has secured a long-term energy sales 
contract from Northern States Power Company.
    Hydropower.--The hydropower program has completed conceptual 
designs of advanced environmentally-friendly turbines in partnership 
with industry. This work by Alden Research Laboratory and Voith Hydro, 
Inc. includes features that are expected to substantially reduce fish 
injury and mortality, without extracting an efficiency penalty. This 
turbine development activity is complemented by a state-by-state 
hydropower resource assessment that is scheduled for completion in 
fiscal year 1998.
    Energy Storage.--Progress continues in both bulk storage and power 
quality applications.
    In August 1997, Senator Ted Stevens dedicated a 1.4 MWh battery 
energy storage system at the remote Metlakatla island in southeastern 
Alaska. This state-of-the art system is charged by hydropower and is 
expected to pay for itself within three years. The hybrid system 
eliminates the use of a noisy, polluting 3 MW diesel engine and handles 
large load spikes caused by the lumber mill that is also the main 
employer on the Indian reservation. Prior to installation of the new 
system, power ``brownouts'' were a frequent occurrence. The Energy 
Storage program provided technical assistance throughout the project 
and is supplying a data acquisition system to monitor battery operation 
(the entire system was built with private funding). This type of 
installation is a direct outgrowth of the technology base developed by 
the storage program and is expected to lead to similar facilities in 
other remote Alaskan communities.
    In August 1997, the Energy Storage program, along with the AC 
Battery Corporation and Pacific Gas & Electric, received the 
prestigious R&D 100 Award for the PQ2000 power quality system. PQ2000, 
developed under a cooperative agreement, is a 2 MW/10 second factory-
assembled battery storage system expected to meet a large market demand 
for devices that protect against power quality disturbances in 
industrial and utility applications. The first commercial PQ2000 was 
installed in late 1996 in Homerville, GA to meet the power quality 
needs of a lithography plant. During the first six months of operation, 
the PQ2000 corrected over 90 percent of all power quality events (e.g., 
voltage spikes which disrupt or halt plant operations). This project is 
the first U.S. installation of a complete integrated power quality 
protection system with master control by the electric utility and is a 
commercial manifestation of early 1990's program developments.
    High Temperature Superconductivity.--As a result of OUT's 
superconductivity research, a whole new class of technological 
opportunities is becoming available to the electric power industry. 
``Superefficient'' electric transmission cables, transformers, motors 
and current limiters are being developed that will be half the size of 
conventional alternatives and have only half or fewer energy losses. 
Because of their high rate of energy savings, the higher initial cost 
of these systems, relative to conventional systems, can be recovered in 
2-4 years. These technologies are expected to be introduced 
commercially in the next 2-4 years and become widely available over the 
next 15 years--a period when much of the existing power infrastructure 
will need replacement and new demands from deregulation and increased 
competition will be placed on the nation's electrical system. The 
Superconductivity Program's success has been recognized with many 
patents, several R&D 100 awards, and internal DOE and national 
laboratory awards.
    Hydrogen.--In 1998, Air Products and Chemicals, Inc. developed 
materials that selectively adsorb carbon dioxide in a hydrothermal 
environment. Analysis of a Sorbent Enhanced Reformer process using 
these materials indicates a reduction of 20 to 30 percent in the costs 
to produce hydrogen, in addition to the benefit of separating the 
carbon dioxide and hydrogen. This opens the door to near-term uses of 
hydrogen in transportation experiments and in utility dispersed fuel 
cell applications.
    Electric and Magnetic Fields.--Fiscal year 1998 is the final year 
for the EMF program. The program has completed a portfolio of health 
effects research, exposure assessments and analyses that will enable 
the National Institute of Environmental Health Sciences (NIEHS) to 
complete a comprehensive risk assessment of health effects.
    Geothermal.--Progress continues with both power generation and heat 
pump technologies.
    The Geothermal Technology Program has developed a new high-
performance cement for use in geothermal and oil wells and for soil 
remediation. The formula for the cement includes fly ash, calcium 
aluminate, sodium polyphosphate and water. Since these materials are 
abundant and inexpensive and no technical training is required to make 
the compound, the cement is economical compared to conventional 
alternatives. This new cement resists chemical degradation and will 
result in greatly enhanced geothermal well life times. In July 1997, 
large-scale field testing began in a geothermal well at Unocal's 
project in Indonesia. Based on the initial successes with this 
material, Unocal plans to use it and similar versions in all of its 
remaining wells on this project.
    At Fort Polk, Louisiana, 4,003 Geothermal Heat Pumps installed in 
U.S. Army housing are saving over 26 million kWh annually (32.5 
percent) and shaving summer peak load by 7.5 MW (43.5 percent) based on 
statistically-valid data collected by Oak Ridge National Laboratory. In 
1997, the Fort Polk project received Vice President Al Gore's Hammer 
award for ``hammering away at building a better government''--in this 
case, one that works better and costs less.
    The $72 million increase proposed for fiscal year 1999 represents 
an additional level of effort that is founded on accomplishments such 
as were just described. This enhanced effort will allow us to 
capitalize on program progress and provide critical technical advances 
and field verification that leads to the larger (than R&D cost sharing) 
industry investment in product commercialization. It also allows more 
prototype testing in actual application environments.
    Such increases are generally in concert with recommendations made 
by the President's Committee of Advisors on Science and Technology. The 
renewable systems rely entirely on domestic energy sources and their 
increased use contributes toward an enhanced national energy security. 
Renewable systems are domestically manufactured for the most part and 
growth in the level of installed capacity translates into growth in 
U.S. economic activity and jobs. Availability of economic renewable 
energy systems is an important component of a restructured utility 
environment since renewables offer choices for consumers wishing to 
reduce dependence on fossil fuels or seeking ``green'' options. 
Increased renewable energy use clearly qualifies as one of the 
``prudent actions independently justified'' often cited as the first 
steps for the nation to take in response to global climate change 
concerns.
    The budget request contains numerous details regarding fiscal year 
1999 activities. In summary, the proposed program increases will 
support the following:
    Photovoltaics and Solar Buildings.--Fiscal year 1999 activities 
will result in the private sector installation of at least 15,000 
photovoltaic and/or solar thermal roof top systems roofs in 1999. 
Through the President's Million Solar Roofs Initiative, increased 
outreach activities will establish 25 partnerships with energy 
companies, builders, Federal, State, and local agencies, corporations, 
and financial institutions across the nation. We will increase training 
for builders and solar equipment installers and increase efforts to 
develop the technology to ensure that PV systems meet requirements of 
builders and codes and standards.
    We will fund 15-18 new three-year Phase 5 PVMaT contracts (Phase 4 
involved 12 contracts) which will accelerate industry investment in 
process improvements and capacity additions to achieve manufacturing 
cost reductions of 50 percent from 1996 levels.
    Wind Energy Systems.--Our efforts will help assure that 12 percent 
of the 1999 international wind energy market is secured by U.S. 
industry. We will provide testing, design review, analysis, and 
management for 11 industry subcontract projects and begin evaluation of 
distributed wind generation projects initiated in fiscal year 1997 
under the cost shared Turbine Verification Program (TVP). In fiscal 
year 1999, we will also select two to three partners under a new TVP 
solicitation for projects up to 25 MW in size that are tailored to the 
requirements of the restructured electric power market of the state or 
region the project serves. The projects would be based on the TVP model 
and selected through a competitive solicitation with a targeted 90 
percent industry cost share. These projects become regional ``door 
openers'' for increased commercial activity by wind manufacturers.
    Solar Thermal Energy Systems.--In fiscal year 1999, we will 
complete Solar 2 testing and will make significant progress toward 
demonstrating the technological viability of 25-kW dish/engine solar 
thermal systems for distributed generation. We will accomplish this 
objective by installing up to 20 manufacturing prototypes and four 
advanced prototypes at utility/field sites through the Utility Scale 
Joint Venture Program. These programs are expected to result in 
achievement of the interim goal of 2000 hours mean time between failure 
(MBTF) for a 5 dish/engine system in unattended operation. Achievement 
of 2000 hours MBTF is expected to lead to the first commercial sale of 
dish/engine technology.
    Biopower Energy Systems.--Fiscal year 1999 activities under the 
Biomass Power for Rural Development Initiative will involve three 
projects, totaling 157 MW, in Minnesota, New York, and Iowa. 
Ultimately, these heavily cost shared efforts will demonstrate full 
operation, full capacity testing and technology verification of these 
rural economic development ventures. The alfalfa project in Minnesota 
is expected to generate a new market for up to 180,000 acres of crop.
    Fiscal year 1999 efforts in co-firing (minimum 5 percent biomass) 
with coal will lead to 5 major power plant evaluations to help 
establish this technology nationwide as a means of reducing carbon and 
other power plant emissions (regional factors are important). 
Operational data will be provided to the stakeholder community to 
assist in their assessment of this attractive--and readily 
implemented--technology option.
    Hydropower.--The fiscal year 1999 increase provides for the design 
of instrumentation for real-time visualization and accurate simulation 
of fish passage through turbines. This capability provides needed 
reassurance to industry investors that the emerging hydroturbine 
technology can achieve design goals. The new ``fish-friendly'' turbine 
under development will help reverse the decline in hydropower 
generation (over 9 percent of total U.S. generation) due to 
environmental barriers and regulatory limitations.
    Energy Storage.--The Energy Storage program's fiscal year 1999 
activities will support a Storage 2000 joint DOE/industry initiative to 
conduct field evaluations of renewable/storage systems, distributed 
storage, transmission support, customer service projects and control 
systems. Improved energy storage technology will enhance utility system 
asset utilization and system stability, and help address concerns about 
the maintenance of power quality and system reliability associated with 
a deregulated utility industry. Storage can have a major role in 
forestalling network problems expected to accompany increased wheeling 
and other operational changes under deregulation.
    High Temperature Superconductivity.--Superconductive materials can 
reduce by half the huge amount of energy (up to 10 percent of the 
electricity generated) that is now lost through transmission, 
distribution, consumer applications, and other factors. The fiscal year 
1999 program will take the next step in helping industry realize the 
potential of this technology through continued support for the 
Superconductivity Partnership Initiative and the Second Generation Wire 
Initiative. These activities will help move major superconductivity 
breakthroughs recently achieved in the laboratory into the nation's 
electric system years sooner than would otherwise occur.
    Hydrogen.--Hydrogen produced using renewable energy can be stored 
and transported to U.S. energy end-use markets (utility, 
transportation, industrial) and converted cleanly and efficiently to 
electricity in fuel cells, or can be combusted to provide for thermal 
energy. The fiscal year 1999 program continues the implementation of 
the Department's Hydrogen Multiyear Plan. The proposed activities 
support fuel cell development and evaluation and tests of vehicle use 
of hydrogen in city driving.
    Electric and Magnetic Fields.--The program activities in this area 
will be terminated in fiscal year 1999, as continuing responsibilities 
will be assumed by the National Institute for Environmental and Health 
Sciences.
    Geothermal.--The fiscal year 1999 program will be targeted toward 
increasing the amount of economically recoverable geothermal reserves. 
This will be accomplished through advanced drilling and reservoir 
engineering technology development. The program will initiate field 
tests of revolutionary drilling technology that will reduce costs by an 
additional 20 percent over previous work. This will be focused on 
imaging of fractured reservoirs using new 3D-seismic techniques, and 
development of interpretation methods to characterize hot, fluid-filled 
fractures using borehole electromagnetics. In addition, the program 
will conduct industry-recommended research into methods of enhanced 
heat recovery from ``hot dry rock.'' Cost of energy reductions achieved 
through this work can result in 15,000 MW of new U.S.-installed 
capacity worldwide in the next decade.
    Concerted efforts will continue in fiscal year 1999 to encourage 
greater consideration of geothermal heat pumps by builders, utilities, 
municipalities, and others who influence building sector policies and 
investment. This program will be terminated after fiscal year 1999 
commitments are satisfied.
                          solar energy program
    Question. I have some concern about the International Solar Energy 
Program, which in your description sounds a lot like the function of 
the commerce and state departments. Are other federal agencies and 
departments working with foreign nations to sustain clean energy 
technologies, engaging in joint ventures to develop renewable energy 
projects and supporting international agreements?
    Answer. The Office of Energy Efficiency and Renewable Energy's 
Solar International programs are specifically designed not to duplicate 
efforts ongoing elsewhere with the Federal Government. These programs 
closely coordinate with other relevant agencies and, in fact, often 
lead key multi-agency programs and/or activities. Solar International 
Energy Programs include the Committee on Renewable Energy Commerce and 
Trade (CORECT), the Americas' 21st Century Program (A21), and the U.S. 
International Joint Implementation Program (USIJI). CORECT and A21 are 
designed and function to coordinate and facilitate export assistance to 
U.S. companies. USIJI helps identify joint project opportunities with 
other countries that reduce greenhouse gas emissions and offer 
opportunities for sale of U.S. equipment.
    CORECT, established in 1984, is an interagency working group 
comprised of fourteen Federal agencies that coordinates Federal 
activities relating to the export of renewable technologies. Both the 
State and the Commerce Departments are active members of CORECT. CORECT 
is the only Federal program that facilities the sharing of information 
regarding ongoing renewable energy export activities within each 
agency. CORECT is instrumental in assuring that Federal agency efforts 
are complementary to each other and not duplicative. CORECT has also 
been selected by the Commerce Department's Trade Promotion Coordinating 
Committee as the designated reporting entity for renewable energy 
export activities.
    A21 implements the export strategies developed by CORECT for Latin 
America, Asia and Africa. In past years, A21 has worked closely with 
the U.S. Agency for International Development (U.S. AID) and the 
Environmental Protection Agency (EPA) on developing cost-shared joint 
ventures in these developing regions. These deployment efforts have 
resulted in significant replication by local governments, particularly 
with regard to rural electrification efforts in Brazil using U.S. 
manufactured photovoltaic systems.
    USIJI, established in 1992 following the U.N. global climate change 
conference in Rio de Janerio, coordinates closely with the State 
Department and EPA in implementing projects and activities to promote 
the voluntary reduction of greenhouse gas emission in accordance with 
international agreements. USIJI is the program designated within the 
Federal Government to lead these efforts.
                        increased budget request
    Question. While I support your office, generally, I do have some 
concern, specifically, that given some of the larger increases sought 
by the Administration, whether the funds will be efficiently managed as 
the activities multiply. What assurances can you give this subcommittee 
regarding the use of funds in actual production of alternative and 
renewable energy?
    Answer. The Office of Energy Efficiency and Renewable Energy is 
proposing a number of expanded activities for fiscal year 1999. The 
management resources needed for each of these were carefully considered 
prior to the request. We routinely consult with our industry partners 
and other stakeholders to ensure that our proposed projects are 
carefully targeted toward activities that will provide maximum benefits 
while remaining within the bounds of program capabilities. Some of the 
increases proposed are to implement follow-on or expansion activities 
for projects already underway. Others are for new initiatives that are 
expected to speed the rate at which the technologies become proven, 
viable options for the 21st century.
    Examples of increased activity levels for existing programs include 
expanding the photovoltaic manufacturing technology program (PVMaT) to 
further reduce costs and increase module performance and reliability, 
expanding the modular system development activity in the biopower 
program to increase possibilities for export of U.S. manufactured 
equipment, increasing advanced reservoir drilling and mapping 
activities in geothermal to expand the resource base for power 
generation, expanded wind turbine verification programs with utilities, 
and demonstrating remote uses of hydrogen-powered fuel cell generators 
and advanced hydrogen storage systems. As part of continuing efforts, 
each of these activities will be managed from within the existing staff 
structure using improved procurement and management procedures 
implemented over the past several years. Continued emphasis will also 
be placed on cost-shared efforts with the private sector to leverage 
public funds.
    Among the more innovative initiatives are the Million Solar Roofs 
Initiative (MSRI) and a technology-neutral competitive solicitation, 
both designed to speed deployment of renewable energy systems. MSRI is 
aimed at developing expanded domestic markets for photovoltaic and 
solar hot water heating systems, to enable U.S. manufacturers of such 
systems to expand their plant capacities and remain competitive in 
domestic and international markets. Recognizing that to be successful 
MSRI must have strong grass roots support, $6.4 million has been 
requested in fiscal year 1999 to support partnerships with builders, 
financial institutions, other Federal agencies, and a broad range of 
local organizations. We have also requested $10 million for a 
competitive solicitation to identify and support innovative ways to 
deploy renewable energy technologies, whether singly, in combination 
with other renewables, or in hybrid configurations with storage and 
natural gas systems. It is designed to be highly leveraged (up to 70 
percent non-DOE cost sharing) and is expected to result in $30 million 
of private sector investment.
    Increased attention is also being paid to improved management 
procedures for all Energy Efficiency and Renewable Energy (EERE) 
programs through several new initiatives aimed at managing EERE 
programs more effectively and using taxpayer dollars more responsibly. 
First, EERE is developing both a clearer, more easily understood budget 
and a more open budgeting process. Second, EERE is increasing the level 
of competition in selecting contractors. Third, the Office is putting 
increased emphasis on developing technology roadmaps in collaboration 
with partners for a greater number of our programs. These roadmaps will 
specify with clarity long-term goals and related program activities. 
Finally, EERE is increasing the use of regional support offices to 
implement programs closer to our customers.
    To complement the foregoing program related activities, EERE is 
increasing attention to, and limiting the overall dependence on, 
crosscutting activities. Where such activities are considered 
necessary, participation by individual program staff will be increased 
to ensure program benefits are realized. EERE will share more 
information about these activities with committee staff. The objective 
is to maximize the direct return for each program's appropriation.
                            increased budget
    Question. You state that you are ``focusing on program evaluation 
and terminating programs that don't measure up.'' Could you share that 
criteria with us and any projects, activities, or programs that have 
not measured up?
    Answer. I would be happy to discuss program termination criteria 
and share some illustrative example projects with you. First, however, 
since programs and projects can end for both ``good'' and ``bad'' 
reasons, I would like to offer a few definitions used within the Office 
of Energy Efficiency and Renewable Energy to ensure clarity.
    Termination.--The ending of a program due to failure to achieve 
objectives, a shift in marketplace/industry conditions necessitating a 
refocussing of efforts, or insufficient funding available to meet all 
priorities.
    Closeout.--The ending of a program whose DOE mission and/or planned 
objectives have been successfully completed.
    As I am sure you know, programs and projects may successfully 
conclude or they may be ended prior to completion. Each project or 
program has its own unique set of characteristics or factors that must 
be considered both in establishing the effort and with regard to its 
potential termination. With terminations, however, there are some 
general criteria which we do apply. These include:
  --Failure of a program/project to meet its goals, objectives, and 
        performance measures (even given reasonable adjustments and 
        flexibility on changes of approach, time frames, etc.);
  --New information or early results that would indicate the 
        impracticality or unfeasibility of a program or project even 
        prior to full completion of all originally planned efforts;
  --Emergence of new, more promising technology developments or 
        opportunities that replace an ongoing program (either due to 
        priorities and funding limitations or because of the potential 
        for the new technology to better address the goals and 
        objectives than the program/project it replaces); and
  --Reduced program funding or the emergence of higher priorities. 
        Sometimes hard choices are required, with lower priority 
        efforts being delayed, postponed indefinitely, or terminated.
    Mitigating factors that have bearing upon any decision for 
termination include:
  --Will termination of this program/project create undue harm to other 
        ongoing or planned efforts dependent upon its results?
  --Will termination cause undue harm to the partners involved--States, 
        other Federal Agencies, industry, etc.?
  --Impacts upon communities, non-governmental organizations, and other 
        stakeholders.
    Additionally, sometimes we may fold two or more programs/projects 
into more cost-effective or broader-impact efforts. For example, in the 
fiscal year 1999 Budget Request we have recommended folding the 
Renewable Indian Energy Resources line item and the Federal Buildings/
Remote Power Initiative into a single Renewable Energy Competitive 
Solicitation. The intent of this proposed programmatic vehicle is to 
solicit innovative proposals to demonstrate the efficacy of renewables 
for providing power, either alone or in hybridized format, that would 
be appropriate for operation within a restructured electric power 
market. Proposals would not be restricted to specific applications or 
geographic regions, and high levels of cost-sharing (up to 70 percent) 
would substantially leverage the Federal investment. This new approach 
would still meet the primary objectives of the former programs (i.e., 
clean, reliable power at a reasonable price).
    Below are several examples of programs that have been terminated 
and the rationale for ending the efforts:
    Magma R&D Program.--The Magma Program was terminated to allow the 
geothermal program to concentrate on nearer-term, less costly R&D. The 
commercial exploitation of the magma resource is believed to be the 
most expensive option for generating geothermal power (assuming the use 
of existing technology).
    Geopressured-Geothermal Program.--The Geopressured-Geothermal 
Program was terminated following extensive flow testing of the 
resource. It was determined that, although the resource itself was 
quite large, the ability to further reduce technology costs to where 
this resource would be economically viable was not possible in the 
foreseeable future. The program was terminated to allow refocussing of 
efforts on higher-potential geothermal R&D.
    7-kW Dish/Engine Program.--Market conditions, and thus industry 
partner interest and priorities, have shifted to larger-scale dish/
engine systems having greater marketplace utility (less costly power 
production). Dish/engine R&D efforts have been refocussed on larger-
scale (up to 25MW) systems.

                          subcommittee recess

    Senator Domenici. We will stand in recess until the call of 
the chair. Thank you very much.
    [Whereupon, at 3:30 p.m., Tuesday, March 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              


                        THURSDAY, MARCH 26, 1998

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:40 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Cochran, Gorton, Bennett, 
Burns, Craig, Reid, Byrd, and Dorgan.

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

STATEMENTS OF DR. JOHN ZIRSCHKY, ACTING ASSISTANT 
            SECRETARY OF THE ARMY FOR CIVIL WORKS
ACCOMPANIED BY:
        LT. GEN. JOE N. BALLARD, CHIEF OF ENGINEERS
        MAJ. GEN. RUSSELL L. FUHRMAN, DIRECTOR OF CIVIL WORKS
        THOMAS F. CAVER, JR., CHIEF, PROGRAMS MANAGEMENT DIVISION, 
            DIRECTORATE OF CIVIL WORKS

                           OPENING STATEMENT

    Senator Domenici. Thank you everyone for coming.
    Fellow Senators, I am apologetic for being 10 minutes late. 
I had an emergency in New Mexico.
    I do think the witnesses know that this is going to be a 
very, very serious meeting, because something is wrong with the 
President's budget, something that cannot be allowed to stand. 
But it will not be so easy to fix, because there isn't enough 
money given the dramatic cut of the Corps of Engineers' budget. 
Clearly, we have to put some of that money back.
    So, this morning the subcommittee will first hear the 
testimony on the fiscal year 1999 budget request of the Corps 
of Engineers. We will hear from Dr. John Zirschky, the Acting 
Assistant Secretary of the Army for Civil Works; along with 
Lieutenant General Ballard, Chief of the Engineers; and Maj. 
Gen. Russell Fuhrman, Director of Civil Works.
    It is nice to have you all here.
    Following testimony on the Corps' budget, we will hear from 
Patricia Beneke, Assistant Secretary for Water and Science, 
Department of Interior, and Eluid Martinez, Commissioner of the 
Bureau of Reclamation.

                    fiscal year 1999 budget request

    I wish I could say that it was a pleasure to have you here 
today. You come before this committee to support a budget 
request which is totally unrealistic and unacceptable. The 
President has presented a budget for water resource 
infrastructure for this Nation which is, arguably, $800 million 
to $1.3 billion short of the amount necessary to carry out the 
programs intended by Congress in the 1998 Energy and Water 
Appropriations Act.
    One can only speculate on the reasons for the President's 
and OMB's action in devastating the Corps' budget the way they 
have. But this is just another example of the shell games the 
administration's budget put forth for consideration here. 
Cutting the Corps' water resource development program in order 
to provide hundreds of millions of dollars to undertake 
measures in support of the Kyoto Agreement and Global Warming 
is one possibility.
    But in my view--and I must say it is also the view of a 
number of my Senate colleagues--this budget proposal for the 
Corps is counter productive to the interests of this country.
    First, if approved in its present form, this request will 
add hundreds of millions of dollars in increased costs to these 
projects--costs that will be borne by the American taxpayers. 
That is, by waiting, and waiting, and waiting, the costs of 
delaying these projects becomes greater and greater.
    Second, this budget proposal will significantly delay local 
communities realizing billions of dollars in economic benefits.
    I am going to depart a bit from my usual assessment of 
water projects and talk 1 minute here about the nature of the 
benefits these kinds of projects provide to the local areas and 
the Nation.

                    water resource project benefits

    For flood control projects, the 1997 value of damages 
prevented is $45.5 billion--that is damages prevented by these 
kinds of projects in 1997. The value of the damages prevented 
was $45.5 billion.
    To highlight the impact of the administration's budget and 
what it will have on the highest priority flood protection 
projects in the country, let me just tick off a few.
    The Santa Ana project in California: the President's 
funding request is $20 million to continue this project which 
has been under construction for nearly 10 years. The budget 
request represents a 2 1/2-year delay and results in an 
estimated $40 million increase in the project costs and $30 
million in increased flood protection insurance premiums for 
those living and working in flood plains. It also is estimated 
that if a major flood were to happen along the Santa Ana River, 
it would result in $2.7 billion in damages.
    We would be on the floor with an emergency request that 
would be for more money than we are arguing over here in the 
President's budget versus a realistic level of 1999 
appropriations.
    Similarly, in the Los Angeles County drainage area, flood 
protection in this area is budgeted as $11 million, and it 
needs $60 million to remain on schedule. The budget proposal 
represents a 5-year delay, $200 million in lost flood control 
benefits and $130 million in increased flood insurance to the 
citizens in the surrounding area.
    In the area of navigation, in which some of the Senators 
here are interested. U.S. ports and harbors annually handle 
$600 billion in international cargo, generating over $150 
billion in tax revenues, nearly $520 billion in personal 
income, contributing $783 billion to the Nation's gross 
domestic product.
    Now what happens to these navigation projects in the 
President's budget for fiscal year 1999? For the Port of Los 
Angeles, one of the Nation's biggest and busiest, the budget 
provides $12 million, which represents a 13-month delay in the 
completion schedule. The committee understands that the Corps 
could use $64 million to do its work on that biggest and most 
important of American seaports.
    When completed, this project will generate $1 billion in 
customs revenues annually, $1.5 billion in Federal taxes, and 
250,000 jobs nationally.
    So this budget, as simply as I can put it, is not logical, 
especially since the President found other programs to fund 
with the savings from this that do not come close to standing 
the test of benefits that I have just described that would be 
forthcoming to the American people and people around these 
areas.
    It ignores the economic benefits that are going to happen 
and accrue to our Nation, and it ignores the fact that many of 
these projects are the underpinning, the economic underpinning 
which supports and generates resources which fund the rest of 
the Federal budget.
    Having said that, I realize that you are in a difficult 
position having to defend this budget which was thrust upon you 
by the OMB. You are merely messengers for the administration. 
But I hope that you will deliver the message back to those who 
have formulated this proposal that it is, from what I can tell, 
totally unacceptable.
    I do not believe Congress will concur with the budget as 
presented. But we have a hard time ahead of us, because if we 
are to limit the impact that this budget represents--and there 
is pretty good evidence of the magnitude--we will have to 
squeeze other programs in this subcommittee.
    It is a danger to our people from potential flood 
possibilities and lost economic benefits to many, many 
Americans.
    Now I am sorry to have to deliver that message. Frankly, I 
don't know that I have delivered one as harsh as this since I 
have been a Senator. But I truly believe we have been fooled.
    Now we are going to proceed unless the Senators have 
something to say.
    Senator Reid. Mr. Chairman.
    Senator Cochran. Mr. Chairman.
    Senator Domenici. I will yield first to my ranking member.

                       STATEMENT OF SENATOR REID

    Senator Reid. Mr. Chairman, I also want to say that I 
consider myself a good Democrat. I know you are a good 
Republican. But I want everyone within the sound of my voice to 
understand that I agree wholeheartedly with the chairman on 
this issue. This subcommittee does not act on a partisan basis. 
Senator Domenici and I are going arm and arm to come out with a 
good budget, a good mark on this appropriations bill.
    We are very proud of being able to work with this 
subcommittee, that we think is the most important of all the 
subcommittees in the appropriations process.
    This reminds me of when I worked in the Military 
Construction Subcommittee. There, every year the administration 
would give us a budget that had nothing in the budget for Guard 
and Reserve. We always had to do something to take care of the 
Guard and Reserve, because they are such an integral part of 
the security of this country. We were left to do it because the 
administration never gave us any money for the Guard and 
Reserve.
    This is kind of what I see here today. Everyone knows we 
have to take care of these very essential water programs. They 
are going to be taken care of in the House. But House members 
do not represent States, except in rare occasions where there 
are single member districts. But these water projects in these 
House districts are essential. If they cannot take care of the 
water projects that are so important to their congressional 
district, they, in effect, have failed. They are not going to 
fail. They are going to have to make sure that these water 
projects are forthcoming.

                  importance of flood control projects

    I know there are people who are going to say well, I know 
that all you guys are trying to do is protect the pork. I would 
like for someone to come and see the devastation that took 
place in southern Nevada with a flood a few years ago. It 
washed cars away. People died in those floods.
    Flood control is extremely important to the rapidly growing 
southern Nevada area. The Corps of Engineers is where we look 
for help. We have no place else to look. That is the way it is.
    We can hold back some of the money on some of these major 
flood control projects. But it winds up costing my 
constituents, the taxpayers all over this country, more money. 
That is why it is important that we go forward on some logical 
basis.
    We fully understand that the witnesses are loyal soldiers. 
You did not come up with this mark that we have in this 
appropriations bill. We understand that. So I express my 
appreciation to the Acting Assistant Secretary of the Army, Dr. 
Zirschky--and any name that begins with ``Z'' is always hard to 
get out and pronounce--to Lieutenant General Ballard and Major 
General Fuhrman for their testimony here today.
    Your contributions, expertise and judgment are vital to the 
business of this committee. You need to work with us. We have 
told you what we want to do. You have to help us get where we 
need to go.
    The work of the Corps of Engineers, as we have all said, is 
very vital to the Nation's water resources, flood damage 
reduction and regulation of wetlands. It is exactly because of 
this critical role of the Corps that this causes me such 
concern, as I have already outlined.
    Those of us in western States understand that water 
management is essential for sustainable growth and development. 
And, of course, Nevada is the fastest growing State in the 
country. We depend on the work of the Corps to insure not only 
an adequate water supply in many instances, but also to protect 
and control water resources, flood hazards, and flood 
mitigation which provide security and peace of mind for 
residents throughout the State of Nevada.
    We have projects currently under development to provide for 
flood control, as I have already said, in Las Vegas and water 
quality improvement at Lake Tahoe. This is something that is 
also of concern to me.
    The President, Vice President, and five Cabinet officers 
came to Lake Tahoe saying they were going to do everything they 
can to help Lake Tahoe. Well, we have to focus a little more 
attention on Lake Tahoe with the Corps of Engineers, which is 
an integral part of saving that lake, which belongs to the 
States of California and Nevada.
    There is also work in there for restoration of the Truckee 
River and flood warning enhancement in Reno, among others.
    So, we have to maintain these programs and the others that 
Senator Domenici has talked about.
    Mr. Chairman, I have a bill, an amendment, that is pending 
and I have to leave to speak at 10:00. I am going to get back 
just as quickly as I can.
    I am not going to take the time of the committee in that I 
am not going to be here for the direct testimony. So I will 
submit my questions to the Corps in writing and will hopefully 
get back in time so that I can ask questions to Secretary 
Beneke.
    Senator Domenici. Thank you, Senator.
    Thank you, Senator. Thank you for your remarks, especially 
those that have to do with your confidence in the chairman. You 
and I have great confidence and faith in one another.
    It might be noted, for those wondering about parochialism, 
that I did not mention a single project when I gave you the 
benefits and the risks, a single one in my State. Those that I 
mentioned were not in my State. They were in the States of 
other Senators.
    Senator Reid. But if we were to look closely, we would find 
a project or two in there.
    Senator Domenici. Oh, we will get to those in the 
questioning. We don't have very many. [Laughter.]
    Senator Byrd. You don't have to apologize for that, Mr. 
Chairman. Mention those projects in your State. That is why you 
are sent here. You don't owe anyone an apology for that.
    Senator Domenici. Senator, nobody is going to accuse me of 
shirking my responsibility to get these projects. [Laughter.]
    I just have a different idea this morning about how we are 
going to handle this.
    Senator, did you want to comment now? You are welcome to do 
so, Senator Cochran.

                      STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Thank you, Mr. Chairman.
    Mr. Chairman, I come to the hearing this morning as we 
begin the hearing to make a couple of observations about the 
Corps' budget request. I am unable, because of commitments to 
other appropriations subcommittees to remain to ask questions 
during the question and answer period.
    To emphasize the practical results of your observations 
about having to delay and postpone completion of important 
flood control projects that have long since been authorized and 
construction has begun, just to cite three projects in the 
Yazoo Basin, which is a major tributary of the Mississippi 
River in my State, to complete those projects now with the kind 
of incremental funding request that we see presented to our 
committee by the administration will take about 10 years 
longer, 10 years of delay. The practical consequences in terms 
of the budget are that the cost will be $54 million greater to 
complete just those three projects that are under construction 
and underway now.
    This is an example of what is happening and what this 
administration is putting before the taxpayers. It is a shame; 
it is a disgrace.
    Flood control is not politically appealing right now. There 
is a lot of controversy about some of these projects--not the 
ones in my State, but others. [Laughter.]
    The fact is these projects are going to save lives. They 
are going to save the opportunity to earn a livelihood for 
people who have lived in this region all of their lives, or for 
generations. Their whole family over a period of time has 
invested everything they have in their homes, their businesses, 
and their farms. Now, because of a political decision that you 
are not going to be rewarded by the taxpayers throughout the 
country if you propose to spend what you ought to be spending 
to complete these projects as promised and authorized and as 
planned, but you would rather assume new responsibilities for 
the Federal Government that traditionally have not been Federal 
responsibilities and put a lot of money in those programs--they 
are new, they are exciting, they are daring.
    These are projects that only the Federal Government can 
complete. State and local governments do not have the 
resources. They do not have the expertise. The private sector 
cannot come in and make money building these projects.
    There is no other alternative but for the Federal 
Government to keep its commitment. It is shirking its 
responsibilities, turning its back on the people--the people 
who live along these tributaries, in these basins, where flood 
control projects are needed desperately and have been promised. 
Cost sharing has been allocated in many cases and new tax 
burdens assumed by local sponsors. And the Federal Government 
says well, not yet. Let's wait a while before we do what we 
ought to do this year on that.
    We are going to cut this budget, for example, in this one 
Yazoo Basin area by 36 percent from last year's fiscal year 
funding level. That is outrageous.
    I hope, Mr. Chairman, that with your leadership we will 
reverse these decisions and make allowances for the needs and 
provide funding for the projects.

                           regulatory permits

    I want to make one other comment. The Corps has undertaken 
to assume zoning responsibilities in league with other agencies 
of the Federal Government on the Mississippi gulf coast.
    There is a letter that I just read yesterday saying that 
permits for coastal casino development will be withheld until 
there can be an advanced planning process put in place.
    We have a commission authorized by the Congress that has 
been appointed to review casinos, whether they are good or bad, 
everything about them. We are going to find out what these 
commissioners think about casinos.
    In the meantime, because of the permit authority and the 
responsibility the Corps has, somebody has decided that this 
commercial activity is going to be subjected to some long-range 
planning process in concert with other Federal agencies and, it 
says, the State. There is nothing in there about local 
governments.
    In our State, the law is that local governments are the 
zoning authorities. I mean, are you going to decide whether a 
shopping center should be built in one place or another, or 
that there ought to be a long-range planning process for 
shopping centers, or housing, or ship building, or other 
commercial activities?
    Singling out casino development--is this the hotels, or the 
hotels that don't have casinos? Are they exempted? If you are 
going to build a hotel that does not have a casino, you are not 
a part of the planning process. But if you are going to build a 
hotel that has a casino in it, or a parking garage that maybe 
is used by a casino, then are you going to be involved or not?
    I have a letter from a fellow who, when he found out about 
this memorandum--it is a memorandum for the Director of Civil 
Works, entitled Mississippi Coastal Area Casino Permit 
Applications, dated March 4, 1998--one counsel to one of the 
largest resort enterprises on the Mississippi gulf coast that 
has been there the longest in continuing operation, I think, of 
any indicates they are considering an expansion of golf 
courses, marinas, all of the other things that are attendant to 
this large resort complex.
    When they see this, they are talking about a 300-plus acre 
renovation project. Where does this leave them? They are 
beginning to get commitments for financing. They are beginning 
to make plans, having designs done, and now they are going to 
wait until the Corps of Engineers, the EPA, and whoever else in 
Washington or Atlanta decides what kind of long-range planning 
there ought to be for projects that involve casinos on the 
Mississippi gulf coast.
    Are there going to be any in Atlantic City undertaken, or 
in the State of Nevada that involve gaming operations? What 
about other States and other kinds of commercial activity? Are 
they all now going to be suspended in terms of their zoning 
processes until the people in Washington decide what kind of 
commercial enterprises are appropriate in these areas and which 
ones are not?
    This is outrageous. This is absolutely unbelievable.
    So I hope that you will go back, take another look at what 
you are undertaking and whether you have the legal authority to 
do that which has been given to you by the Congress, or for the 
people of the country to decide that we do need zoning 
authorities in Washington like this. Think about what you are 
doing and develop some kind of new approach.
    I suggest this ought to be done immediately, because you 
have put in jeopardy the economy and the prerogatives that are 
vested now in State and local governments, local governments 
particularly, that already have planning commissions, that 
already have zoning requirements, that already are subject to 
the most careful scrutiny of all.
    You have a 401 permit process and you have other specific 
duties. I am not saying you should not undertake to carry those 
out as carefully and as thoughtfully as you can. But your 
authority is limited under the law. It is not broad and 
sweeping and encompassing every whim or notion that might be 
developed by somebody who thinks that they know best, that 
Washington knows best.
    I hope you will take a look at that. I apologize to the 
committee for taking longer than I intended. I appreciate your 
recognizing me, Mr. Chairman.
    Senator Domenici. Senator, I welcome your remarks, as long 
as they take. I am very pleased that so many Senators showed 
up. We have a lot of subcommittee hearings where we don't have 
this many Senators, including the largest budget of all, that 
for Health and Human Services. That is run by just a couple of 
people and nobody even shows up.
    So, it is great that so many subcommittee members are here. 
You said under my leadership let's get this done. But let me 
add that I will need all of your help. What this amounts to is 
how much do we get allocated for Corps projects when our 
wonderful friend, Ted Stevens, does the subcommittee 
allocations.
    Senator Byrd.

                       STATEMENT OF SENATOR BYRD

    Senator Byrd. Mr. Chairman, I fully support what you have 
said and I support what has been said by others.
    Their thinking is in accordance with mine in this matter. 
As one who has been appropriating money for water resources 
projects for 46 years, I am somewhat surprised at this budget.
    I shall support the efforts, Mr. Chairman, to put it right.
    It might be well for the administration to go back and look 
and see what happened when President Carter sought to make cuts 
in the water resources budget. It might look at Mr. Reagan's 
problems when he sought to go against the tidal wave of the 
people's elected representatives here in Congress.
    It seems to me that the administration would prefer that it 
be the only voice in deciding which projects to fund. Many of 
the projects supported by Congress have received funding well 
below the identified needs, while some of the administration 
initiatives are increased significantly.
    For example, the Columbia River fish mitigation project 
increases by $22 million, 23 percent; central and southern 
Florida increases $13.4 million, 49 percent; Everglades South 
Florida Ecosystem increases by $10 million, 50 percent; and the 
Kissimmee River, Florida, increases by $24.3 million, 810 
percent. Meanwhile, other projects--and I will be a little 
provincial now--God forgive me--[Laughter.]
    Other projects such as Marmet Lock and Dam could use 
additional funds. You see, I am not bashful about being 
parochial. I know who sent me here and I have been living in 
West Virginia. I have seen the floods come and I have seen the 
destruction that follows in the wake of those terrible floods.
    I have seen those coal miners go back into their homes and 
shovel out the black muck after a flood. I have seen their 
furniture sitting all over the lot which has been pulled out of 
the mud. Their furniture is ruined. And there they stand, 
hosing out the muck. Mud, muck, and misery, that is the story.
    So why should I be backward or bashful about standing up 
for some projects that might benefit my people?
    I am sorry that you have to take this guff, gentlemen. You 
did not devise this budget. We know who your bosses are, but 
they are not ours. That is no disrespect toward you. It is no 
disrespect toward them. They just have the wrong idea.
    They like to say where it will be spent. They like to 
disregard, apparently, what the elected representatives of the 
people are saying with respect to the people who send us here.
    We are directly elected by the people. Nobody downtown is 
directly elected by the people. They are indirectly elected. 
They are elected by the electors who, in turn, are elected by 
the people.
    So Marmet Lock and Dam could use additional funds, $7.5 
million more--just a drop in the bucket. It is chicken feed. 
Others also need much more. Charleston Harbor in South Carolina 
needs $27 million; Los Angeles Harbor, California, $57 million; 
Montgomery Point Lock and Dam, Arkansas, $41 million; and we 
could go on.
    So I am looking forward to the return of the President. I 
don't know what programs he will come back recommending for 
Africa after his trip. I expect he will recommend some programs 
that will cost right much. I don't know. But I have a pretty 
good idea. I will be pleasantly surprised if he does not.
    Mr. Chairman, I want to take this moment not to ask any 
questions, though I do have some questions. But I want to thank 
the witnesses who are here.
    I do not envy you your positions. You are just trying to do 
your jobs and I commend you for that.
    That is all I have at the moment.
    Senator Domenici. Thank you very much, Senator Byrd.
    It just dawned on me that, through an oversight, as I was 
giving my opening remarks I welcomed the two generals and did 
not verbally welcome you, Dr. Zirschky. I should have welcomed 
you. This is belated, but I do welcome you, Dr. Zirschky as 
well.
    Senator Craig.

                       STATEMENT OF SENATOR CRAIG

    Senator Craig. Mr. Chairman, thank you. I think the 
gentlemen on the panel this morning can see that there is great 
concern about the budget we have before us.
    I must tell you that Idaho is very fortunate this year. We 
have not caught the wrath of El Nino like California and other 
States have.
    But last year, it was an entirely different story, as you 
know. Many of our rivers flooded, causing thousands of 
Idahoans' property to be destroyed, and now we are trying to 
straighten up our rivers. Many of our rivers lost 20, 30, to 40 
percent capacity because of the movement of gravel and the 
shifting of aggregates within those river beds. Today we are 
having a phenomenally difficult time trying to resolve that in 
a timely way. Thank goodness we did not get the high water this 
year that we got last year or the damages would have been much 
worse.
    Now, John, you and the Corps have worked with us very 
closely and we do appreciate that. However, the kind of 
restrictions the administration is placing on working rivers to 
somehow return them to a pre-European-man existence simply 
cannot be tolerated. These waterways are working rivers, and we 
all understand what that means. And yet, the administration 
appears determined to ignore this fact.
    There is only one thing I will accept about the Army Corps 
being green and that is your uniforms. The rest of you and your 
programs ought to be balanced and right down the middle of the 
road. And yet, this administration attempts to green-you-up 
more than I have ever seen. This effort is not constructive in 
the long term for the whole of our country and for the whole of 
our people.
    You are in the business of managing certain things and you 
ought to manage them in ways that are fair and balanced. We are 
going to hold you to that, and many of the new projects we have 
talked about have a very clear and decided slant that we don't 
think serves the public in general very well. When the rivers' 
gravels are not removed or rearranged and communities lose 
their economic wellbeing, it does not make a lot of sense. And 
yet, that is the game that seems to be played today.
    Consider Dworshak Dam, a major facility in north Idaho. The 
Corps is 19 positions short of fully staffed. It is a dam that 
was going to be a key recreational center for that community. 
The citizens of that community can no longer cut trees in one 
of the most productive forests in the country, because this 
administration has put a stop to cutting trees. So, we want to 
recreate and fulfill the promises that the original Congress 
that authorized the construction of that project.
    And yet we are 19 positions short. It is becoming less a 
recreational facility and more a mechanism for environmental 
measures, as you know,. The project is now caught up in the 
business of flush, and other downstream uses of water. By late 
summer, it no longer serves the recreational needs of the 
public.
    A lot of frustration exists in the communities surrounding 
the project. I could go on and express that, Mr. Chairman. I 
will submit my questions for the record as I have to leave 
also.
    The one thing that I found most fascinating last year in my 
State of Idaho was a palpable media slant against existing 
dams. We appear to be developing a generation of citizens who 
wonder why all those dams are there. Some of those citizens 
have expressed their views that we ought to remove dams to save 
fish and promote more natural flows in the rivers. Then along 
came the 100-year and 200-year floods. Communities were saved 
and hundreds of millions of dollars of property were saved 
because our forefathers had the wisdom to put those dams in 
place.
    I hate to say this but, tragically enough, every so often a 
good flood reminds a generation of why we did what we did after 
the last flood.
    So, I would hope that we can resolve this budget and that 
the Army Corps of Engineers will play the role that it has 
historically played as a neutral agent, serving the needs of 
the country at the direction of Congress, the appropriators, 
and the authorizing committees that provide the kind of 
direction that I think has been tremendously beneficial for 
public health and safety as well as providing enormous economic 
benefits for this country over the years.
    Our citizens sustain a wellbeing not in spite of Mother 
Nature, but because we have been able to help shape Mother 
Nature's unpredictable events. You have been those public 
agents who have been allowed to help in that regard.
    I would hope we would continue to do so.
    Thank you, Mr. Chairman. I would ask unanimous consent that 
my full statement be made a part of the record as well as some 
questions that I ask be included in the record for response.
    I would say, gentlemen, that we have had a marvelous 
working relationship, and I look forward to continuing that.
    Thank you.
    Senator Domenici. We will do both of those for you, 
Senator.
    [The statement follows:]

              Prepared Statement of Senator Larry E. Craig

    Thank you Mr. Chairman, for giving me the opportunity this morning 
to comment on the U.S. Army Corps of Engineers' proposed Budget.
    At the outset, I will state for the record my concern about the 
pressure being applied to the Corps to remove dams in the northwest 
region of our country. Last year's floods should have been a sharp 
reminder to dam removal advocates why this country invested the time, 
man-power, and funds to construct those dams--to save lives and protect 
the economic well-being of Pacific Northwest citizens. Without those 
dams, the floods would have claimed many more lives and inflicted much 
more economic misery on the people living and earning their livelihood 
in the northwest.
    Another concern I have is with the reduction of services at Corps' 
projects throughout the northwest and, in particular, Idaho. For 
example, at the Corps' Dworshak Project in Idaho, nineteen positions 
have been lost in that project's resource department. Moreover, the 
resource manager position at that project has been vacant for some time 
and I understand the position will be filled only temporarily.
    Several Idaho communities depend on the operations at the Dworshak 
Project for their economic survival and when services at this facility 
change, the citizens of these communities get anxious. The City of 
Orofino in Clearwater County, Idaho, is terribly concerned about the 
reductions in force at Dworshak, and about any future change in 
operations that could interrupt electric power, adversely impact 
recreation, and result in excessive inflow that would cause the 
reservoir to overfill. I have several questions that I will send to the 
Corps that cover these concerns.
    The last point I will make today concerns the progress of the 
Corps' Lower Snake River Juvenile Salmon Migration Feasibility Study.
    Over twenty million dollars will be spent by the American taxpayer 
for the Corps to complete the Lower Snake Feasibility Study. I have 
grave concerns about the way this large expenditure of taxpayer money 
is being used by the Corps, as well as concerns about the usefulness of 
the final product.
    First, I want to underscore the concern I expressed last week to 
members of the Corps' North Pacific District, about a recreation survey 
that was mailed to 150 citizens in the northwest. I have a good deal of 
experience with surveys and polls and believe the recreation survey 
mailed to these 150 citizens to be terribly flawed. Indeed, the very 
title of this survey--``Removing Dams from the Lower Snake River to 
Increase Salmon''--exhibits bias inasmuch as science does not suggest 
that dam removal increases salmon. There are many other similar 
problems with this survey which I and my staff have communicated to 
employees at the Corps' North Pacific Division. I was relieved to hear 
from my staff that further thought is being given by the Corps to the 
manner in which this survey ``objectively'' pursues the facts, and I 
hope that swift action will be taken to correct the problems with the 
current recreation survey.
    My other concern about the Feasibility Study is with its usefulness 
when it is timely delivered by the Corps in mid-1999.
    In Section 1.2.1 of the Corps' ``Interim Status Report'' of the 
Feasibility Study, the Corps states that the study will accomplish 
several listed goals. By far, the most important one from my 
perspective is the goal listed as number (3)--``to provide a sound and 
documented basis with which both federal and regional decision makers 
can judge the recommended solutions.''
    I am very interested in whether the Corps still stands behind this 
promise, and whether the Corps will deliver the final product on time. 
It is essential that important scientific questions be answered as 
definitively as possible and included in the Corps' final report. Two 
of these important scientific questions that must be answered are: (1) 
how many wild, natural spawners will each salmon recovery alternative 
produce? and (2) how will each of the recovery alternatives impact 
salmon survival? When the answers to these questions are definitively 
stated, then policymakers can begin to weigh the tradeoffs by matching 
the cost (capital construction, power impacts, economic mitigation) 
with the number of wild, adult fish produced by each recommended 
alternative.
    I realize fully that getting the answers to the trenchant 
scientific questions presented is, primarily, the responsibility of the 
group of Northwest fisheries scientists know as ``PATH''--Plan for 
Analyzing and Testing Hypotheses. Mr. Chairman, PATH receives about 
$1.7 million annually in BPA funds, and has been operating for nearly 
two years. The scientists in this group receive direction from the 
National Marine and Fisheries Service's ``Implementation Team,'' which 
is responsible for implementing the 1995 Biological Opinion. PATH's 
mission Mr. Chairman, is to inform policymakers about what is already 
known regarding salmon survival in the mainstem and where research 
should be focused.
    Mr. Chairman, what concerns me today in March, 1998, a little over 
a year away from the Corps' expected delivery date of the Feasibility 
Study, are reports that PATH may not be able to deliver on the science. 
Scientists in the PATH group are, reportedly, unable to resolve their 
differences with respect to the proper weight to be given evidence 
supporting alternatives.
    Without clear information on what are the best alternatives to 
pursue, the Corps' study will be almost useless. No matter how good the 
economic and engineering analysis is, without sound biological 
analysis, decision makers will be unable to make the necessary 
political, social, and scientific determinations that will effect 
salmon survival in the northwest.
    Mr. Chairman, if the Corps fails to deliver on this most important 
goal, legitimate criticism will abound. Once again, a large amount of 
money will have been spent on salmon recovery with little to show for 
the taxpayers expense. That, Mr. Chairman, is unacceptable.
    Thank you, Mr. Chairman, and I look forward to the Corps' responses 
to the questions that I will submit for the record.

                      STATEMENT OF SENATOR DORGAN

    Senator Domenici. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you.
    I would ask that a statement of mine be put in the record.

                    fiscal year 1999 budget request

    Before I came to the Congress, I used to testify from time 
to time before committees of Congress. I remember that after 
the testimony I used to think that Congress seemed to me to be 
permanently indignant about things. Then I came to Congress and 
I realized there was plenty of reasons to be indignant.
    So this morning, when I hear what is being said, I must 
tell you that I share almost all of what I have heard about 
priorities. I am very concerned that we are shortchanging the 
Corps of Engineers and shortchanging our investments in these 
areas.
    In my judgment, we ought to have pride in making the right 
investments. These are, in fact, important and good investments 
for the country. We ought to be ashamed if we don't make these 
investments.
    Having said that, I also want to say to the Corps of 
Engineers that you are, I think, some of the best flood 
fighters in the world. Many parts of this country owe you an 
enormous debt of gratitude.
    We had nearly 10 percent of the population of North Dakota 
evacuated in a major flood last year. Ninety-five percent of 
one of our largest cities was evacuated. The Corps waged a 
flood fight the likes of which I have never seen.
    They won parts of that fight and lost parts when the dikes 
broke. But we could call at midnight or at 3 o'clock in the 
morning and we would find the Corps in the middle of that flood 
fight.
    I just want to say at the start that I have enormous 
respect for what the Corps does. But it makes it even more 
important that we make the right investments and that we allow 
you to make the right investments.

                            devils lake, ND

    Mr. Chairman, I am concerned about a wide range of issues 
and support the general tone of your comments. We have an 
enormous problem with Devils Lake, which all of you know. I 
have some charts which I will not go through at the moment.
    Devils Lake has risen again. We are in the middle of a huge 
flood problem. I have a picture of a man's house burning down, 
a quadriplegic. Just like all the rest of the houses engulfed 
by this lake, in a basin that has no inlet and no outlet, you 
could not do anything but burn the house and leave.
    Here is a picture of the house that was burned. That is a 
fire that is set on purpose because the lake envelops not just 
that house but hundreds of others. And the lake continues to 
rise.
    We must make the investment to try to do something about 
it. That investment is a relatively small outlet to try to 
reduce the pressure on that lake.
    So that is one of the issues. There are some funds 
requested in this budget. Members of this subcommittee have 
been very helpful in this area.
    The second area is the Garrison Diversion Project. This has 
been ongoing for a third of a century. We did not come asking 
for anything. The Federal Government came to us and said if 
you'll take a flood that comes and stays the size of the State 
of Rhode Island in your State, if you accept a permanent flood 
the size of Rhode Island, if you do that, North Dakotans, we 
will give you the benefit of moving the water around the State.
    That was a third of a century ago. We got the flood, so we 
got all of the costs. We have yet to collect on all of the 
benefits.
    The members of this subcommittee have been very helpful in 
trying to move us down the road to finish that project.

                           prepared statement

    So, Mr. Chairman, those are a couple of the specific items 
that I will be asking questions about. Thank you for your 
patience and I thank the subcommittee for its help.
    Senator Domenici. Thank you.
    [The statement follows:]

               Prepared Statement of Senator Byron Dorgan

                         devil's lake flooding
    Much of the work of the U.S. Army Corps of Engineers deals with 
flood protection and prevention. I want to focus today on one crucial 
aspect of this work. What I want to talk about is an emergency. It is 
not the kind of emergency that strikes without warning. It is not the 
kind of emergency that can be swiftly dealt with by mobilizing disaster 
forces. It is an emergency that a large group of North Dakota's 
citizens have lived with for the past 5 years and will continue to live 
with for the foreseeable future. The emergency is chronic flooding in 
the Devil's Lake Basin in my state.
    Since 1993, Devils Lake has risen over 20 feet, doubling its size 
and tripling its volume. The lake's incredible growth is a direct 
result of its unique geological status as a closed basin, with no 
natural outlet under normal conditions, and a continuing trend towards 
wet weather in the Upper Midwest. The expanding lake has inexorably 
consumed homes and businesses, submerged roads, and inundated farm and 
pasture land. During the last five years, this flood has caused 
hundreds of millions of dollars in economic damages and triggered over 
$200 million in federal disaster assistance. None of this has happened 
overnight. This is not an acute emergency, it is a chronic one.
    In response to this emergency, an Interagency Task Force 
recommended a comprehensive flood-fighting strategy which includes 
relocation of structures, upper basin water storage, raising the levee 
protecting the City of Devil's Lake, raising essential roads, and 
constructing an emergency outlet from the lake. No single one of these 
approaches will be sufficient to address the problem.
    Although federal, state, and local governments are aggressively 
implementing this strategy, a critical part of the plan, construction 
of an emergency outlet, remains undone. The U.S. Army Corps of 
Engineers has designed a 13-mile emergency outlet from Devils Lake to 
the Sheyenne River. This outlet has the potential to reduce the lake 
level by one foot a year, preventing millions of dollars in damages to 
the City of Devils Lake, the Spirit Lake Nation reservation, farms, and 
pasture lands.
    Congress provided $5 million in the fiscal year 97 Disaster 
Supplemental Appropriation Bill for project planning and design, and 
another $5 million in fiscal year 1998 for additional design and 
initial construction. For fiscal year 1999, the Administration has 
requested $16 million for construction.
    That's the technical side of this emergency, now let me share some 
of its human face. Like a chronic disease, Devils Lake has slowly but 
inexorably taken its toll on those who live around it.
    Dwayne Howard is typical of hundreds of farmers and ranchers who 
live near Devils Lake. Dwayne, a proud former rodeo champion, has 
watched helplessly as the lake swallows his farm. The flood waters are 
now just feet from his home. Like so many others, he has been forced to 
abandon his farm, with no hope of compensation from any government 
authority. Mark Kreklau, an agricultural financial consultant predicts 
that ``Between now and May 1 we will lose more farmers in the area than 
in recent memory. It's the worst I've ever seen.'' Kreklau expects to 
see a 60 percent increase in farm bankruptcy rates this year.
    On the Spirit Lake Nation Reservation many of the reservation's 
4,000 enrolled members are affected. Tribal Elder Pauline Graywater 
recently told of her plight at a public meeting. Her home is threatened 
by the rising waters and she fears she may have to move as early as 
this summer. The Spirit Lake Nation casino, a major tribal business, 
now stands isolated on an island. With revenues slashed by 60 percent, 
more than half of the casino's 325 employees have been laid-off.
    Joe Belford, County Commissioner, described it best when he said 
that, at Devils Lake ``Our house is burning.'' I'll leave you with the 
image of the burning house of quadriplegic Lakewood resident Randy 
Myers. Unable to have his house moved as floodwaters advanced, Joe was 
forced to have his house burned.
    In the absence of an emergency outlet to Devils Lake, the chronic 
emergency takes its relentless toll. To confront the advance of this 
vast body of water, we must implement all aspects of the total flood-
fighting strategy. With the water rising right now, it is time to 
proceed with an emergency outlet.
                       garrison diversion project
    My principal concern in the Bureau of Reclamation budget is funding 
for the Garrison Diversion Project. This is the key to water 
development in North Dakota, just as water development in general is 
the key to economic development in our state.
    I am requesting $31 million for the Garrison Diversion Project 
pursuant to the currently authorized project. This amount is $7 million 
over the President's request. Two million dollars of that amount would 
be made available for the needs of North Dakota's Indian tribes which 
have already reached their funding ceilings under existing authority. 
This amount is just a small fraction of the over $200 million in 
critical unmet Indian needs identified by the Bureau of Reclamation.
    The remaining $5 million would fund water systems in the southeast, 
northwest, and west central regions of the state as well as the 
continued operation of the Oakes Test Area. Funding will allow the 
continuation of numerous projects under way in these regions. Providing 
adequate funding for these projects is a federal responsibility under 
the Garrison Reformulation Act. That Act promises North Dakota 
compensation in the form of water development for the inundation of 
500,000 acres of prime farm land and two Indian reservations in North 
Dakota.
    However, the project is being recast to emphasize the most pressing 
water needs in North Dakota--safe, abundant water for municipal, rural 
and industrial use. As a result, on November 10, 1997, the North Dakota 
delegation introduced S. 1515, the Dakota Water Resources Act, a major 
reformulation of the project. I expect this bill, which is critical to 
the development of North Dakota, to be the subject of hearings soon 
before the Senate Committee on Energy and Natural Resources.
    Meanwhile, semi-arid North Dakota has several unmet water 
development needs. We get just 15 to 17 inches of water in a typical 
year. Lack of clean and abundant water for drinking, industry and 
agriculture limits our economic development and imposes undue hardship 
on our citizens. Clean, abundant water is also required for 
agriculture, recreation and environmental quality.
    Not only is water scarce in North Dakota, but it is also often of 
poor quality. I'm sure not many of my colleagues would want their 
constituents to drink the dark brown water that is often all that is 
available in northwestern North Dakota.
    While lack of good quality water harms our economy, clean water can 
make all the difference. For example, the Antelope Creek Bison Ranch 
connected up to the Garrison project's Southwest Pipeline in the fall 
of 1995. This small business now receives clean, dependable supplies of 
water for its bison herd. Clean water enables the ranch to remain in 
business. In fact, the business is so successful that it was named 1997 
Producer of the Year by the Dakota Territory Buffalo Association.
    The Taylor Nursery is another Southwest Pipeline success story. 
Once the company connected to the pipeline, its owners estimated that 
their business increased by 15-20 percent.
    Other Garrison benefits have enabled North Dakota companies to cut 
down on maintenance costs and improve quality control in a variety of 
industrial processes and to stretch out our limited aquifer supplies.
    Mr. Chairman, the people of North Dakota are patient. They have to 
be since they have been waiting for over 40 years to receive the full 
benefits of the promised Garrison project. These are benefits that they 
were promised when they sacrificed half a million acres of farmland to 
benefit down stream states. We were told that if we accepted a 
permanent flood on these lands, in return we would receive water for 
irrigation, drinking and industrial uses. North Dakotans thought this 
was a good deal. But we are still waiting for the federal government to 
fulfill its side of the bargain.
    While the pipeline projects I have mentioned are real rays of hope 
for North Dakota, they are not enough. We need to finish the job, repay 
the debt to my state and complete a reformulated Garrison project with 
adequate annual appropriations.

                      STATEMENT OF SENATOR BENNETT

    Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman. There seems to be 
a discernible pattern about the opening statements here. I will 
continue the pattern.

                     bureau of reclamation programs

    But I will break the pattern a little bit in that I am not 
talking about the Army Corps of Engineers. I am talking about 
the Bureau of Reclamation.
    I want to commend Assistant Secretary Patty Beneke who is 
here and from whom you will hear on the second panel for the 
work she is doing to help us with the Central Utah Project.
    My concerns are about the unfair treatment and 
micromanagement of these projects by OMB. I think OMB should 
let the Department of Interior do its job.
    I have contacted Erskine Bowles about this. I have sent a 
letter to the White House. I want Secretary Beneke to know that 
I will do everything I can to assist her, and trust that she 
will help assist me in getting a response from the White House 
about our concerns.

                          central utah project

    It is very similar to what we have heard here already. 
There is an historic compromise agreement passed by the 
Congress in 1992 called the Central Utah Project Completion 
Act. It created a very delicate balance between the people who 
wanted to build the dams and preserve the water and the 
environmental concerns about mitigation of the environmental 
impact of these dams. It was put together carefully by Congress 
after literally decades of negotiation.
    The fiscal year 1999 budget request does not keep the 
agreement. It acts as if there were no commitment made in the 
previous agreement and moves to cut both the requests from the 
district relating to the Central Utah Project and, 
interestingly enough, the administration has cut the 
Environmental Mitigation Commission as well.
    It troubles me that OMB has cut the district moneys by a 
significantly greater percentage than that of the commission. 
This is a fundamental break with the spirit of the 1992 
Competition Act Agreement.
    I sincerely hope the actions of OMB do not signal a change 
in the policy of this administration to follow the intent of 
that act. It is important that the funding proceed on schedule 
and not suffer delays while adequately funding the fish and 
wildlife activities of the commission.
    This committee has been very supportive in the past for the 
Central Utah Project. I am grateful to the chairman for his 
personal attention. I hope we can quickly get to the bottom of 
this.
    Now, Mr. Chairman, I will submit some written questions for 
the record, addressing such Utah issues as the Tooele 
Wastewater Project.
    I also have some questions for the Army Corps regarding 
some other projects. But let me join in thanking the Corps for 
their tremendous assistance in the past on a number of Utah 
projects and warning them that I will be coming back to them 
often for activities relating to the 2002 Winter Olympics.
    Salt Lake City technically won the bid for the Olympics, 
but we are fast recognizing that the Olympics cannot be held 
and sponsored by a single city or a single State. These are 
America's games every bit as much as they are Utah's games or 
Salt Lake City's games. A good portion of them will take place 
on public lands.

                           prepared statement

    I am grateful for the preliminary cooperation we have had 
from the Corps as we have had discussions about this issue. I 
want to join with Senator Dorgan--we have not had a disaster in 
Utah, but we will have a different kind of disaster if we don't 
have the cooperation. We have every reason to expect that based 
on your past performance and I want the record to show that we 
recognize that and are grateful for it.
    Thank you, Mr. Chairman.
    Senator Domenici. Thank you very much.
    [The statement follows:]

            Prepared Statement of Senator Robert F. Bennett

    Mr. Chairman, I want to take this opportunity to thank and commend 
Assistant Secretary Patty Beneke for the work she is doing on the 
Central Utah Project. We have met privately to discuss my concerns 
about some unfair treatment and micro management of this project by 
OMB. They should let the Department of the Interior do their job. I 
have sent a letter to the White House about these concerns several 
weeks ago and have received no response. I want to ask Secretary Beneke 
if she will assist me in getting a response from the White House about 
my concerns.
    The historic compromise agreement known as the Central Utah Project 
Completion Act Congress enacted in 1992 provides a delicate balance 
between the activities of the Central Utah Water Conservancy District 
in constructing the project and the implementing environmental programs 
of the Utah Reclamation Mitigation and Conservation Commission. I want 
to express concern that the fiscal year 1999 Budget Request has not 
dealt fairly with the Central Utah Project. In assembling the budget, 
OMB cut the original requests from the District and the Commission.
    Mr. Chairman, while I would prefer that the funding was a little 
higher for CUP, what really troubles me is that OMB cut the District's 
money by a significantly greater percentage than that of the 
Commission. This is a fundamental break in the spirit of the 1992 
agreement.
    I sincerely hope the actions of OMB do not signal a change in the 
policy of this Administration to follow the intent of the delegation 
from Utah when it passed the CUP Completion Act. It is important for 
the funding of the project to proceed on schedule and not suffer from 
delays while adequately funding the fish and wildlife activities of the 
Commission.
    I appreciate the Committee's past support for the Central Utah 
Project as well as the Chairman's personal attention that he has given 
this project. I hope that we can quickly get to the bottom of this 
issue.
    Mr. Chairman, I will submit a few questions for the Record that I 
would like the Bureau to address regarding a few Utah issues such as 
the Tooele Wastewater Project, the Privatization of Dutch John and, of 
course, the proposal to drain Lake Powell. I also have some questions 
for the Army Corps regarding some other projects. Let me briefly thank 
the Corp for their tremendous assistance in the past on a number of 
Utah projects and I look forward to working closely with them in the 
coming months as we prepare for the 2002 Winter Olympics.

                       STATEMENT OF SENATOR BURNS

    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman. I have a statement 
that I will put into the record. I know that you want to get to 
the witnesses. So, I will put my statement in the record.
    Senator Domenici. It will be incorporated for the record.
    Senator Burns. I just want to say one little thing. I have 
been looking at the map here. We are at the headwaters of the 
greatest river system is in this country. The area that we 
cover--I don't know if you thought you were collecting combat 
pay here this morning, didn't you?
    Dr. Zirschky. Yes, sir.
    Senator Burns. Well, you can forget about that.
    The area that in our district it covers is an area that 
lengthwise runs from the Utah-Colorado border to Norfolk, VA, 
and even the North-South runs from Chicago to Washington, DC. 
That is how big an area it is that you have out there.
    We only get 4 percent of the funds. Maybe we are lucky. I 
don't know. But we have some problems out there and we will 
submit those questions to you.

                           prepared statement

    I want to direct them mostly to the Bureau of Reclamation.
    I thank the chairman for this opportunity.
    Senator Domenici. You are welcome.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman. I appreciate you calling this hearing this 
morning. As I have looked over the budget justifications for the 
agencies funded by this committee one glaring point has been clear. 
There is not enough money available in the Administration's budget for 
the projects overseen by the people we have here today. A point which 
has been made clear to me in the past couple of days, by people in my 
state of Montana.
    I appreciate the work that the agencies, appearing before the 
committee are tasked to do for the good of the nation. But I am also 
concerned by the course that they appear to be taking when addressing 
the issues on the ground in the states. They appear to be headed down 
the same road that many agencies have, into the regulatory role. 
Instead they should be continuing in the area of providing assistance 
to the many people out there that really need and desire their 
technical expertise.
    In recent days it has come to my attention that the Bureau of 
Reclamation has some very real problems developing in the area of 
public confidence. This it appears has also affected the manner in 
which they deal with the public and the numerous irrigation districts 
and their governing bodies across this nation. The people in these 
irrigation districts pay their income taxes, and in addition pay fees 
to be provided water for their crops. However, the Bureau of 
Reclamation finds them either unworthy or unable to work within order 
to develop budgets and management plans for the same districts.
    I find this all very troublesome, for it leads to the premise that 
this government does not care to listen or work with the people. In 
this year alone we have seen more of this than we need to, and in the 
past six years more than many people can tolerate. Gentlemen, there's 
problems arising out there on the ground, and if you looked closely you 
would find that you are a major portion of the problem itself. Instead, 
you and the Bureau should be the solution.
    In these times, when the Administration is seeking to develop a 
clean water initiative and strategy, spending millions of dollars to 
provide clean water to the nation to the country. They are spending 
less and less on the construction of clean drinking water systems in 
many of our states. As the Chairman mentioned last year there are just 
more projects than there is money to go around. This creates a dilemma 
of its own making, but piled on top of this is the money that the 
President and Vice President are seeking for their clean water 
initiative.
    I am sorry to inform the administration that the people in rural 
America do not drink water from the streams and rivers in the country, 
they get their water supply the same way you and I do, Mr. Chairman, 
out of a local water supply system. Unfortunately the Administration is 
more concerned about making the water clean in streams than it does 
about the water that this minority group of American rural residents 
use for drinking, cooking and cleaning.
    A couple of weeks ago in an Agriculture Appropriations hearing the 
Department of Agriculture provided the committee with numerous projects 
they would like to undertake to clean up watersheds and streams. A few 
of the plans had no real parameters for implementation or development.
    This is a problem that scares me, when I have to fight tooth and 
nail to get funding to provide a safe and secure water system both for 
Indian tribes and rural Montana's. Due to the numbers presented I will 
once again have to fight to get the funding necessary to get the 
construction started on projects that will provide safe and clean 
drinking water for an area of high growth potential. This project, that 
will provide a safe and reliable water supply, is adjacent to one of 
the largest man made reservoirs in the world. Yet these people have to 
truck in clean and safe drinking water.
    I will also have to fight the Administration to get funding for a 
regional water supply system for a group of communities in north 
central Montana. Even though they have been working with a local tribe 
who is in the process of finishing a water compact with the state of 
Montana and the Department of the Interior. To complicate matters even 
further in this case the Environmental Protection Agency is threatening 
these communities with noncompliance of safe drinking water 
requirements. All the while the Vice President is running around the 
country promoting an initiative he has developed to make sure we have 
clean water in our rivers and streams across the nation.
    This just puzzles me to no end, as does the lack of concern for Joe 
citizen in relation to his drinking water this Administration has 
displayed. We need funding and we need some solid leadership for 
guidance for the local water district communities. The people will 
develop the plans and work to build a coalition to address all the 
concerns. But you need to work with them and not against them as this 
group in power seems to want to provide.
    Another issue of great concern I have recently learned about is the 
plans and contracts that the Department of the Interior and the Bureau 
of Reclamation are preparing which have water districts in Texas and 
your state of New Mexico, Mr. Chairman, signing agreements that will 
allow them to supply water to smaller communities. The concern here is 
that they want these districts and the states to sign away and 
acknowledge the federal government as owners of the water rights. From 
the beginnings of this country the federal government has stated that 
the states have primacy in the area of water rights ownership and 
adjudication. But our friends in the Department of the Interior are 
seeking any way they can to gain control over the states, especially in 
the west. Where as I have stated ``Whiskey is for drinkin', water is 
for fightin' ''.
    I am aware that the Governor of Texas, and the Governor of Montana 
will not agree with you and will fight to continue to preserve their 
primacy in water rights ownership. This is not going to play out well 
at all in states like Montana, New Mexico, Texas, Idaho and Washington, 
as well as Nevada.
    Now as for the Army Corps of Engineers, I wonder where exactly you 
are today. In the past several months I have heard numerous complaints 
about the Corps and the work, or maybe a better term would be lack of 
work, they are suppose to be providing. In Montana, Mr. Chairman, I can 
tell you that the reputation of the Corps is gaining on that of three 
highly ridiculed land management agencies are in the west. The Bureau 
of Land Management, the National Park Service and the U.S. Fish and 
Wildlife Service. The three agencies I have just mentioned have 
probably the lowest combined trust factor in the United States, and 
especially in my state of Montana.
    In recent years we have seen the Corps change from a practice and a 
mission which is to provide for navigation on our nations waterways and 
for the construction of water storage on our rivers. Recent direction 
from up above appears to be moving the Corps away from their mission 
and instead we are finding a group which seeks to regulate people on 
the ground.
    Earlier this year on the Yellowstone River in Montana we had a 
situation develop where people, who had for years done all the work 
required to provide for stream bank wash outs and flood prevention were 
caught in a position of being unable to do any work at all. Fortunately 
in recent days the Corps has made moves to correct this problem, but a 
few days on this side of the decision time would have been too short 
and would have created a real problem. Spring runoffs would have made 
it next to impossible to make any repairs or provided any maintenance 
to provide for safety and soil erosion on the river banks.
    We see this continue to happen and develop up and down the entire 
length of the Yellowstone River. Crisis like this are avoidable if the 
federal government works with the general public, and more importantly 
places themselves in the position of being able to work with other 
federal agencies on the ground.
    When it comes to wetlands the Corps now has a position of being a 
regulatory authority instead of working with and providing technical 
assistance for the public. The 404 permits and the process involved has 
become a nightmare for the public and they are sick of this growth of 
work. If I remember right, was it not this President and Vice President 
who told us they were seeking to streamline government making it more 
responsive to the needs of the public. Smoke N mirrors is all I am 
seeing.
    Mr. Chairman, you'll notice I have yet to even mention the funding 
that the Administration the Office of Management of Budget have 
provided for the Corps in the fiscal year 1999 budget. I wonder what 
and how the Administration arrived at the number they did, but it is 
clearly unacceptable to this Senator. Again in this case it makes me 
wonder what the real role and mission of the Army Corps of Engineers 
really is in this world.
    I just can't imagine there is a way that this Administration thinks 
they can have an agency with the requirements that the Army Corps has, 
perform a meaningful and realistic job. I am very interested in hearing 
exactly what it will be and what the function and future of the Army 
Corps will be.
    I could continue on here, and we would accomplish nothing and I am 
very interested in what the panel has to present us to accept their 
numbers. I offer my commitment to the Chairman and the Ranking member 
to work to find a way to provide for the public. I will therefore close 
and wait to hear the testimony of the panel. I will have several 
questions later in the hearing.
    Thank you Mr. Chairman.

    Senator Domenici. We are going to proceed quickly to our 
witnesses. I will ask them to be as brief as they can so that 
we can ask questions.

               national water resource development effort

    But I wanted to make one further observation. You know, 
about 15 years ago I was vilified as the opponent of the inland 
waterways of this country because I proposed, and won, my first 
legislative victory in making the commercial barges pay a user 
fee on their diesel fuel for system improvements.
    I can remember what prompted me to take on this issue. It 
was a hearing like this when a group of inland waterway 
interests contested whether a Senator from New Mexico ought to 
have any interest in the inland waterways of the United States. 
I succeeded in assuring them that I indeed had an interest. But 
I think some who heard me then might not have believed my 
statements here today.
    Essentially, I have come to the realization that in 
budgeting in the United States, there is one giant thing wrong 
and I don't know how to fix it. My staff is not big enough.
    Senator Byrd and fellow Senators, we are so busy creating 
new programs that we think our Government ought to be in and 
pay for, partially or otherwise, that we do not know the extent 
of our responsibility to do things that only the Federal 
Government's can manage that we have already committed to. 
Highways is one example.
    This massive infrastructure investment is not going to get 
done without Federal support. State and local governments alone 
are not able to do it.
    I would like to find out just how many billions of dollars 
of infrastructure investment we are responsible for in those 
items which are clearly a Federal responsibility. Then there is 
this whole discussion about whether you should cut the 
investment in water resources development, our port and 
harbors, to find room for $100 billion in new programs and 
initiatives that are being requested in the President's fiscal 
year 1999 budget. I think this brings into focus just what I am 
talking about.
    I know it is not your fault that these new programs and 
initiatives have been chosen over these needed water resource 
investments. But I'll tell you that we are confronted with that 
every year in the budget of the United States and it is a very, 
very serious problem.
    Having said that, how do you wish to proceed? Mr. 
Secretary, do you want to proceed first?

                       statement of john zirschky

    Dr. Zirschky. Yes, sir, and I will be very brief.
    First, I would like to thank the committee for their kind 
remarks and their understanding of the predicament that the 
four of us face.
    It was not too many years ago that we would not have had so 
many Senators show up and say such kind things about us. After 
the Midwest floods of 1993, we were blamed for all kinds of 
things we had absolutely nothing to do with. I am very pleased 
with the support of the members here for our program.
    I am going to submit my statement for the record so that we 
have plenty of time for questions. I believe that our budget 
request is adequate in every program but Construction General. 
Not all of the programs are great. We don't have all the money 
we need, but we can work within those amounts.
    The primary problem that we face is in the Construction 
General Program. The uncertainty associated with where we lie 
in the future is causing a great deal of difficulty for our 
commanders to address. It is tough to plan for next year's 
program with such a wide difference between views. It has put a 
great deal of pressure on General Ballard and his staff and all 
of us to try to keep working together to get through this 
problem.
    There are some who do not seem to want us to work through 
this problem. But I am very proud of the support that I have 
gotten from the Chief of Engineers and his staff in this 
process.
    With that said, I would like to make one last comment. If 
you would, please pass this on to Senator Cochran.

                           prepared statement

    I am responsible for that memo to which he referred. Two 
weeks ago, I met with General Fuhrman and his staff, and we are 
reconsidering and trying to come up with a new means of 
addressing the situation in Mississippi. So we are addressing 
that problem.
    Thank you, sir.
    [The statement follows:]

                 Prepared Statement of John H. Zirschky

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to testify today on the President's fiscal year 1999 budget 
for the Civil Works program of the Army Corps of Engineers. 
Accompanying me are Lieutenant General Joe N. Ballard, the Chief of 
Engineers; Major General Russell L. Fuhrman, the Director of Civil 
Works; and Mr. Thomas F. (Fred) Caver, the Chief of the Civil Works 
Programs Management Division.
    On February 2nd, the President transmitted to Congress his budget 
for fiscal year 1999, along with planning targets for the out-years. 
This budget is part of the President's plan to balance the budget as 
early as possible.
    My statement will cover the following subjects:
  --The Civil Works strategic plan and annual performance plan under 
        the Government Performance and Results Act (GPRA), along with a 
        summary of the Corps' recent performance,
  --The President's recent Emergency Supplemental Appropriations 
        request for Civil Works,
  --An overview of the fiscal year 1999 Army Civil Works budget, and
  --The fiscal year 1999 Civil Works program highlights by business 
        program.
                 government performance and results act
    The Civil Works Strategic Plan, being prepared in response to the 
Government Performance and Results Act, is currently under discussion 
within the Administration. Our plan will describe how the Corps of 
Engineers will continue to fulfill its Civil Works missions within 
available resources.
    The Corps is preparing program performance goals and performance 
measures for each of its eight business programs: flood and coastal 
storm damage reduction, navigation, environment, hydropower generation, 
recreation activities, regulatory, emergency preparedness and disaster 
response, and support for others. We will consult with this 
Subcommittee and others on the Strategic Plan and the fiscal year 1999 
performance plan as soon as we have completed our consultations within 
the Administration.
    I would like to discuss briefly our ongoing efforts to improve the 
performance of the Civil Works program. It is important that we 
effectively execute the programs and projects for which you provide the 
funds. Let me also stress that we are committed to working with this 
Subcommittee in improving our performance.
Improving Performance in the Civil Works Program
    At the end of fiscal year 1994, the Corps had an unexpended funding 
balance of $1.4 billion, more than 25 percent of the funding available 
for that year. Partly because of that performance, the Army has been 
pursuing reforms in the Civil Works program which would allow the Corps 
to reduce the cost and time required to implement projects and to meet 
agreed upon implementation schedules. By the end of fiscal year 1996, 
the Corps had reduced its unexpended balance to $0.5 billion, 12 
percent of its available funding, and expended 98 percent of the 
scheduled program. In fiscal year 1997, the Corps expended 99 percent 
of the funds it scheduled; however, the unexpended balance grew to $0.8 
billion, about 17 percent of its available funding. This increase was 
due in part to the Emergency Supplemental Appropriations Act, which 
provided an additional $585 million late in the year.
    Figure 1 shows the performance of the program across its entire 
spectrum. The left side of the figure represents outputs of the program 
and the right side shows appropriation accounts.
    Reconnaissance Studies.--In fiscal year 1997, we initiated the 
Expedited Reconnaissance Study process. In that year, we completed 36 
expedited reports with a median completion time of 6 months. During the 
same year, we also completed 45 regular reconnaissance reports started 
the prior year, with a median completion time of 12 months. As you can 
see our performance in this area has been improving.
    Feasibility Studies.--In fiscal year 1997, we completed 16 of 18 
studies scheduled to be completed. In addition, since fiscal year 1993 
we have reduced completion times from a median of 5.6 years to 3.5 
years.
    Design Completions for Construction Contracts.--Completion of 
designs is a major element in maintaining Construction schedules. In 
fiscal year 1997, we completed only 126 of 154 designs, 81 percent of 
the scheduled number.
    Award of Construction Contracts.--This is another measure important 
to maintaining project schedules. In fiscal year 1997, we completed 
only 101 of 144 scheduled awards, 70 percent of the scheduled number.
    Continuing Authority Construction Contracts.--This measures the 
number of construction contracts awarded on projects not specifically 
authorized by Congress (Section 14, 103, 107, 111, 205, and 208). In 
fiscal year 1997, we completed only 75 percent of the number scheduled, 
35 out of 47.
    General Investigations.--In this account we expended only 80 
percent of the available funds. We were scheduled to expend 94 percent.
    Construction General.--In fiscal year 1997, we expended 95 percent 
of the scheduled funds; however, that was only 77 percent of the 
available funding.
    Flood Control, MR&T.--In fiscal year 1997, we expended 98 percent 
of the scheduled and available funds.
    Operation and Maintenance, General.--In fiscal year 1997, we 
expended 92 percent of the available funding.
    In summary, we accomplished 99 percent of the scheduled 
expenditures for the year; but, as the Total Program bar shows, we 
expended only 83 percent of the funds available in fiscal year 1997. 
The significant difference is largely the result of the Emergency 
Supplemental Appropriations Act which was passed late in the year and 
provided little time for us to expend the funds.
Performance Goals for Fiscal Year 1998
    Although the current schedules for fiscal year 1998 would provide 
for the Corps to increase expenditures to almost $4 billion, a ten 
percent increase over previous years, the Corps is still expected to 
carry over about 16 percent of its available funds. Through the first 
quarter, expenditures are slightly ahead of schedule. However, because 
of the significant increases in expenditures which will be required in 
the remainder of the fiscal year, significant management effort will be 
required to meet the current schedules.
             emergency supplemental appropriations request
The President's Request for Civil Works
    The President has proposed a fiscal year 1998 contingent emergency 
supplemental appropriation of $30 million for the Operation and 
Maintenance, General, appropriation account. This funding is contingent 
upon a more detailed assessment of requirements, which we are currently 
developing. These emergency supplemental funds are needed to address 
recent and continuing damage to Civil Works projects from ongoing 
severe and unusual weather patterns. These significant damages to 
Federal navigation channels and harbors, reservoir facilities and flood 
control channels are caused by the continuous El Nino related flooding 
and wave action in California, the Pacific Northwest and Florida. These 
funds would allow for the additional work necessary to restore project 
services, including dredging, snagging, drift and debris removal, scour 
protection, and access road repairs. As discussed above, a large 
emergency supplemental appropriation for the Flood Control and Coastal 
Emergencies account was received late in fiscal year 1997, much of 
which remains uncommitted for past emergencies. The Administration's 
proposal is to transfer a small portion of this uncommitted balance to 
the Operation and Maintenance, General, appropriation account, where it 
would fund the repairs to projects other than commercial navigation 
channels and harbors. Funding to address damages to commercial 
navigation channels and harbors would be derived from the Harbor 
Maintenance Trust Fund.
Annual Flood Damage Report to Congress
    A few days ago I transmitted to this Subcommittee a copy of the 
Annual Flood Damage Report for Fiscal Year 1997. In the past year, the 
Corps' estimate of the value of the flood damages prevented within the 
United States by water projects controlled by the Corps and emergency 
activities totaled $45.5 billion. This set a new annual record and is 
well above the ten-year average. These record damages prevented 
resulted from major storms hitting eight major river basins that 
together cover more than half of the Nation. Flood damages actually 
suffered amounted to approximately $8.9 billion in value, also well 
above the ten-year average.
                      the army civil works budget
Multi-year Funding Levels for Civil Works
    In November 1997, the President exercised his line-item veto 
authority by removing funding for several projects in the Energy and 
Water Development Appropriations Act for fiscal year 1998. At the time, 
the White House press release announced that the Administration wished 
to work with Congress to agree on an appropriate, predictable level of 
annual funding for the Civil Works program. Such an agreement would 
enable the Corps to more efficiently manage its program and maintain 
commitments to project sponsors. Attached to this statement is a copy 
of the chart used at the White House press conference to demonstrate 
the disparity between the budgeted and appropriated funding levels 
(Figure 2). This continuing disparity prevents the Corps from 
establishing and maintaining project schedules, contributes to 
inefficiency, defers realization of project benefits and, ultimately, 
increases project costs to both the sponsor and the Government. The 
attached graph displaying the level of Civil Works appropriations, in 
constant dollars, over time puts this discussion in an historical 
funding context (Figure 3).
Fiscal Year 1999 Civil Works Budget
    The President's fiscal year 1999 budget includes $3.215 billion in 
new discretionary Energy and Water Development appropriations for the 
Army Civil Works program. This is about 95 percent of the funding level 
budgeted by the President for the Civil Works program for fiscal year 
1998 and is about 80 percent of the fiscal year 1998 level of 
appropriations for Civil Works, including funding for the Formerly 
Utilized Sites Remedial Action Program (FUSRAP) transferred from the 
Department of Energy to the Army. This level of funding is the maximum 
that could be accommodated by the Administration within the overall 
outlay target for domestic discretionary programs. Because of the 
importance of staying within the outlay target and the large amount of 
carryover from fiscal year 1998 that will be spent during fiscal year 
1999, the budgeted level of new funding for fiscal year 1999 was 
reduced accordingly.
    In addition to the discretionary appropriations, the fiscal year 
1999 program reflects $14.7 million in mandatory permanent 
appropriations; $144 million in non-Federal cash contributions from 
project cost sharing sponsors, through the Rivers and Harbors 
Contributed Funds account; and the transfer of $48.3 million from the 
Coastal Wetlands Restoration Trust Fund. Moreover, for the first time, 
the costs of operating and maintaining Pacific Northwest hydropower 
facilities will be financed directly by Bonneville Power 
Administration, whose fiscal year 1999 program includes approximately 
$98 million for this purpose. Over 24 percent of the overall fiscal 
year 1999 Civil Works program would be derived from user fees or non-
Federal contributions.
    The new appropriations request is distributed among accounts as 
follows: $150 million for General Investigations; $784 million for 
Construction, General; $1.603 billion for Operation and Maintenance, 
General; $110 million for the Regulatory Program; $280 million for 
Flood Control, Mississippi River and Tributaries; and $288 million for 
other accounts. Figure 4 presents a geographical distribution of the 
budget by region.
Advance Appropriations for New Investments and Near-term Completions
    Like the President's amended budget for fiscal year 1998, this 
budget proposes appropriation during fiscal year 1999 of amounts 
required in each year from fiscal year 2000 through fiscal year 2003 to 
advance fund the Federal share of completing 60 continuing projects 
scheduled for completion during that time frame. These advance 
appropriations would become available for obligation in the year 
specified, which would provide the Corps and sponsors of these projects 
greater predictability in managing the schedules and costs to complete 
them and bring their benefits on-line.
    Continuing projects with completion dates of 2004 or beyond, 
including 95 projects in the Construction, General, account and all 
projects in the Flood Control, Mississippi River and Tributaries 
(MR&T), account continue to be budgeted incrementally, based on 
estimated annual requirements to complete the projects. For these 
projects in the Construction, General, account, the remaining Federal 
cost of construction after fiscal year 1999 is $14 billion. For 
similarly funded projects in the MR&T account, the remaining Federal 
cost of construction after fiscal year 1999 is $4.155 billion.
Environmental Resources Fund for America
    As part of the President's overall plan to support increases for 
many of the Nation's key environmental programs, the Administration has 
proposed the Environmental Resources Fund for America. The Fund, which 
includes two components under the purview of the Army, is a deficit 
neutral plan for financing and carrying out environmental initiatives.
    Challenge 21--Riverine Ecosystem Restoration and Flood Hazard 
Mitigation.--The fiscal year 1999 request includes funds in the amount 
of $25 million for the Challenge 21 initiative, the Corps' Flood Hazard 
Mitigation and Riverine Ecosystem Restoration Program. As proposed for 
inclusion in this year's Water Resources Development Act, this 
initiative expands the use of non-structural flood hazard mitigation 
options to achieve the dual purposes of flood damage reduction and 
restoration of the functions and values of riverine ecosystems. 
Projects might include the relocations of threatened homes or 
businesses, conservation or restoration of wetlands and natural 
floodwater storage areas and planning for responses and solutions to 
potential future floods. Although focused on non-structural 
alternatives to flood protection, a Challenge 21 project could, where 
appropriate, include structural pieces. Challenge 21 builds on existing 
programs and initiatives, uses a watershed approach and initiates and 
expands partnerships with other Federal agencies (particularly FEMA, 
NRCS and USFWS) and non-Federal public entities. Candidate projects 
might be areas where frequent or severe flooding has occurred, 
emergency assistance has been necessary, flood hazards have increased 
due to changes in hydrologic and hydraulic regimes, development is 
encroaching on and altering flood plains and important floodplain 
functions and values need maintenance or restoration. Cost sharing will 
be 50 percent Federal and 50 percent non-Federal for studies and 65 
percent Federal and 35 percent non-Federal for design and 
implementation.
    Special Area Management Plans.--The Environmental Resources Fund 
for America also provides $5 million in the Regulatory Program account 
to enable the Corps to carry out Special Area Management Plans (SAMP's) 
to address comprehensive watershed development issues in selected 
sensitive ecosystems. These SAMP's are valuable tools that can be used 
by state and local agencies to decide development in environmentally 
sensitive areas, while helping to ensure consistency among Corps 
regulatory, planning and operations actions and facilitating 
coordination with other Federal and State agencies.
Budget Allocations for New Investments
    The Administration supports a regular program of new investments in 
the Civil Works program. This would enable the Corps to maintain and 
improve its technical capabilities and to continue its historical role 
as a problem solver for the Nation. This year, the budget includes an 
affordable program of nine new starts, most of which are oriented 
toward prudent stewardship of existing Federal resources.
    In the fiscal year 1999 budget, the Administration has addressed 
the need to construct projects on an efficient schedule by providing 
full funding, through advanced appropriations, under the 
Administration's Fixed Assets Initiative, and by making reasonable 
trade-offs, in the near term, among priorities for the ongoing program. 
We are hopeful that the Administration and Congress will engage in 
discussions on the future priorities and funding levels that are 
appropriate for the Civil Works program, in the context of the current 
budgetary constraints.
    The continuing disparity between the level of funding budgeted for 
the Civil Works program and the level appropriated has real impacts on 
real people across the country. The Los Angeles County Drainage Area 
Project (LACDA), which cannot be completed until 2006, is an example of 
how unpredictable future funding levels and the need to delay 
completion dates in order to accommodate unprogrammed work in the short 
run are affecting one of the Nation's major metropolitan areas.
    The LACDA project will restore 100-year flood protection for an 
urbanized area with a population of over 9 million. This area currently 
is partially protected by an urban flood control system which includes 
a combination of Federal, state and local structures consisting of 5 
major reservoirs, 22 debris basins, and 470 miles of channel 
improvements. As urbanization of the basin has occurred over the past 
40 years, the ability of the existing systems to provide design levels 
of protection to the Nation's second largest metropolitan area has 
diminished.
    Because of multi-year funding constraints necessary to balance the 
budget, the funding available for LACDA has necessarily been well below 
that which could have been used by the Corps in fiscal year 1998 and 
fiscal year 1999. Meanwhile our sister agency, the Federal Emergency 
Management Agency, has deferred changes in flood insurance requirements 
as long as possible and, beginning in July 1998, the low and moderate 
income residents within the project area will be required to begin 
paying mandatory flood insurance premiums in the amount of $130 million 
annually. These out-of-pocket costs associated with delaying the 
completion of LACDA are in addition to an increased risk of flooding.
    Although, every effort will be made to maintain as many of the 
original project schedules as possible, there are certainly other areas 
that will suffer similar impacts due to unavoidable project delays. It 
is imperative that Congress and the Administration reach an 
accommodation on a justified predictable funding level for the program.
Acceptance of Non-Federal Funds
    We recognize there is a growing problem regarding the funding 
implications associated with several authorities under which non-
Federal sponsors can plan and construct water resource projects, or 
advance funds to the Corps of Engineers for such efforts, with 
subsequent reimbursement of the Federal share. Our current analysis 
indicates there is a potential demand for reimbursement agreements that 
total almost $900 million. Under the current constrained budget 
ceilings for the Corps of Engineers construction program, 
implementation of these authorities can create expectations of large 
future payments that cannot be fulfilled. We also share the 
Subcommittee's concerns about entering into reimbursement agreements 
expressed in the conference report that accompanied the fiscal year 
1998 appropriation act. Therefore, we plan to enter into future 
reimbursement agreements only for those projects we believe will be 
budgeted within available future funds to provide timely reimbursement.
          summary of the fiscal year 1999 civil works program
                      new civil works investments
New Starts and Other New Work
    The budget provides for initiation of specifically authorized new 
Civil Works investments with a total cost of $531.4 and a Federal 
construction cost of $410 million. Of this amount, $21 million will be 
repaid by power users and $121 million will be paid by non-Federal 
sponsors. The fiscal year 1999 budget includes $28.5 million to 
initiate nine new surveys; three regular construction new starts; four 
major rehabilitation new starts; one deficiency correction; and one dam 
safety assurance new start. In addition, the budget includes $47 
million for ongoing and new activities under the Continuing Authorities 
Program. Attached to this statement is a table listing the new 
construction work funded in the fiscal year 1999 budget (see Table A).
Seamless Funding for Preconstruction Engineering and Design Activities
    Under the ``seamless funding'' practice followed in recent years, 
the budget also includes funding to proceed into the PED phase on 18 
projects for which cost-shared feasibility studies currently are 
underway. To reduce the budgetary impact of PED efforts and to better 
assure sponsor commitments, the Administration proposed to jointly 
finance new PED's in fiscal year 1997. For equity reasons, the fiscal 
year 1998 budget proposed to extend this joint-financing policy to 
include all new PED-like activities which might be added by Congress in 
other accounts, such as Construction, General or Operation and 
Maintenance, as well. We have now developed draft model Design 
Agreements to cover such situations and will continue to apply this 
policy to all applicable projects in fiscal year 1999 and beyond.
O&M Cost Reduction Initiative
    Prudent management of the Nation's investment in water resources 
projects is an important part of our program. Half of the Army's $3.22 
billion Civil Works budget--$1.6 billion in the Operation and 
Maintenance, General, appropriation account--finances the stewardship 
of the existing infrastructure. This budget request will help ensure 
that the Army Corps of Engineers can continue to deliver justified 
levels of service at the least cost to the taxpayer.
    We are exploring various cost saving measures in the O&M program. 
Aligning operation and maintenance levels at projects with the demand 
for services is one avenue. For example, where utilization of locks is 
relatively low, perhaps the same service could be provided for our 
customers at something less than 24 hours a day. Another example would 
be to align the length of the recreation season with visitation rates 
at Corps lakes. Support activities, such as condition and operation 
studies, master planning, water control management and real estate 
management are potential cost saving areas. Prudent stewardship 
requires that we will need to examine all our facilities critically to 
ensure that available resources are devoted to the highest priority 
maintenance requirements.
    The above examples are conceptual and will be analyzed further, 
coordinated with our customers and refined as necessary in an informed 
and open forum to achieve the cost savings. Also, the individual 
project amounts included in the fiscal year 1999 budget represent our 
best estimates of what will be required next year. Undoubtedly, 
intervening events will change these requirements. The Corps will 
closely monitor project conditions and will apply the flexibility the 
Subcommittee has afforded the Civil Works program to make adjustments 
among projects to ensure that the most urgent O&M requirements are met.
                     civil works business programs
    In keeping with the government-wide focus on managing to achieve 
program results and improve the efficiency and effectiveness of service 
delivery to customers, the balance of my statement will discuss the 
fiscal year 1999 Civil Works program by business program, since it is 
through these results oriented business programs that the Army serves 
its Civil Works customers. Discussing the President's budget for the 
Civil Works program in this light also puts into perspective the 
important economic and environmental benefits derived from investments 
in this program. Table B, attached to this statement, shows the 
relationship between Civil Works appropriation accounts and business 
programs. The funding for General Expenses, which provides executive 
direction and management for the Civil Works program at the Corps 
Headquarters and division offices, is distributed proportionately 
across business purposes in Table B.
    Flood and Coastal Storm Damage Reduction.--The total funding in the 
fiscal year 1999 Civil Works budget to reduce damages caused by floods 
and coastal storms across the country is $874 million. This includes 
$583.9 million to invest in new and continuing surveys and 
investigations, design project solutions, research and development, and 
construct projects devoted to reducing flood damages. We also are 
requesting $365 million to operate and maintain completed projects. 
About $119 million of that budget request is for operating and 
maintaining completed flood protection features along the Mississippi 
River and its tributaries. The remaining balance will operate and 
maintain Federal projects which were authorized and constructed prior 
to the Water Resources Development Act of 1986. Prior to 1986, flood 
protection projects were often retained in Federal ownership for Corps 
operation and maintenance.
    Navigation.--The budget provides $1,255 million for navigation 
activities. This includes $252 million to plan, design and construct 
improvements to our Nation's system of coastal harbors and inland 
waterways. Within this total, $47 million is included to maintain 
shallow draft harbors, including both inland waterway ports and coastal 
harbors, where the economies of the communities are dependent on 
commercial fishing and related purposes. A total of $957 million is 
requested to operate and maintain our extensive system of coastal ports 
and inland waterways that provide for safe and efficient movement of 
waterborne commerce.
    Environment.--The environmental activities--including both 
environment related costs of projects pursued for other purposes as 
well as projects fully dedicated to the environment--make up $439 
million of the Corps fiscal year 1999 Civil Works budget. Within this 
amount, we are requesting $225 million for new investments in 
environmental mitigation, restoration, and protection activities. The 
total also includes $140 million to continue the Formerly Utilized 
Sites Remedial Action Program (FUSRAP) transferred to the Corps last 
year by Congress. In addition to the above budgeted amounts, $48 
million will be transferred to the Army from receipts to the Department 
of the Interior for the continuing Coastal Wetlands Restoration Fund.
    Within the environmental programs, the fiscal year 1999 budget 
continues several major investments to which the Army is committed. 
Principal among these are $98 million in new investments, within the 
total funding for associated projects, for ongoing South Florida 
Ecosystem Restoration for the purpose of restoring, preserving, and 
protecting the Everglades and the surrounding ecosystem. This amount 
includes $27 million to continue the Kissimmee River Restoration 
project. The enactment of WRDA 1996 was an important milestone in the 
restoration of the Everglades and South Florida ecosystem. That 
legislation specifies responsibilities, time frames and cost sharing 
for the Corps and for the non-Federal sponsor for the restoration, 
preservation and protection of the ecosystem in the vicinity of the 
Central and Southern Florida project. The Act also codifies in Federal 
law the South Florida Ecosystem Restoration Task Force, which has been 
so effective in bringing Federal and State agencies and private 
interests together in the development of a restoration plan.
    The fiscal year 1999 budget includes $144 million for the Columbia 
River Salmon Program. These funds will pay for mitigation, restoration, 
and protection of salmon species indigenous to the Columbia River 
Basin, including operation and maintenance of fish passage facilities 
in place. The amount requested is consistent with the Memorandum of 
Agreement executed in September 1996 among the Departments of the Army, 
Commerce, Energy and the Interior, concerning the financial commitment 
of the Bonneville Power Administration for Columbia River Basin fish 
and wildlife costs. The largest item in this program is the Columbia 
River Fish Mitigation project, for which $117 million is budgeted to 
continue the construction of fish bypass improvements at eight Corps 
dams on the Columbia and Snake Rivers and to continue the mitigation 
analysis, which evaluates additional measures to increase fish survival 
at those dams. This includes more than $41 million for Bonneville Dam 
surface bypass and outfall monitoring facilities, $15 million for 
extended length screens at John Day Dam, and more than $5 million for 
surface bypass facilities at Lower Granite Dam.
    The Army recognized that there will be further decisions during 
1999 on Lower Granite and other Lower Snake River dams. In the interim, 
the budget supports making the operation of these projects as 
compatible as possible with improved fish survival. This project is and 
has been responsive to the National Marine Fisheries Service's (NMFS) 
March 1995 Biological Opinion for operation of the Federal Columbia 
River Power System. An Independent Scientific Review Board is, at the 
request of the Northwest Power Planning Council, continuing to review 
the effectiveness and risk associated with alternative management 
measures, including some of the components of this program. The Army 
will work closely with NMFS in responding to any changes in that 
Biological Opinion.
    Other investments dedicated solely to the environmental program are 
$7.5 million for the Section 204, 206, and 1135 environmental 
restoration continuing authority programs. In addition, the budget 
provides $67.4 million within the total for operation and maintenance 
of Civil Works facilities and management of associated lands for 
continued management in an environmentally responsible manner, fully in 
compliance with applicable environmental statutes and regulations.
    The Army has given priority to ensuring that the transition of 
program administration and execution responsibilities for the FUSRAP 
program would not result in slippages at any site. Once a site by site 
assessment of the program is completed, the Corps will validate 
schedules and funding requirements in order to maximize savings and 
accelerate project completion. The Army's budgeted amount in fiscal 
year 1999 for FUSRAP continues the cleanup at the same funding level 
that Congress provided in fiscal year 1998.
    Hydropower.--The significant role played by the Corps in meeting 
the Nation's electric power generation needs is reflected in the 
budgeted amount of $177 million for this purpose. This includes $47 
million for continuing and new investments in major rehabilitation and 
improvement of existing facilities and $123 million for the operation 
and maintenance of generating capabilities for the production of 
reliable and cost effective electricity from a renewable source of 
power. As discussed above, in addition to these funds, operation and 
maintenance of hydropower facilities in the Pacific Northwest would be 
directly financed by a transfer of approximately $98 million from 
Bonneville Power Administration revenues.
    Recreation.--The Corps is one of the Federal government's largest 
providers of outdoor recreation opportunities. The budget includes $219 
million to provide this service at multipurpose reservoirs, of which an 
estimated $34 million would be derived from recreation user fees 
collected at Civil Works projects.
    Regulatory.--The President's 1999 budget includes $117 million for 
the Corps Regulatory Program account to maintain fair and effective 
regulation of the Nation's wetlands and other aquatic resources. This 
is an increase of $4 million over the amount appropriated for fiscal 
year 1998. The increase is necessary to implement important initiatives 
that make the regulatory program more responsive, more equitable, and 
more efficient.
    Five million dollars of the Regulatory Program total is for the 
Clean Water Action Plan in the President's Environmental Resources Fund 
for America. This $5 million is to be used to develop Special Area 
Management Plans, which are tools to help guide local entities in the 
development of environmentally sensitive areas.
    The Administration is again proposing legislation to establish a 
more rational system of permit application fees for the Corps 
regulatory program. In the current system, most permit fees do not 
cover the cost of collection, let alone the cost of administering the 
program. Under this proposal, the fees for individual landowners would 
be eliminated, and fees for commercial applicants would be increased to 
cover the costs of evaluating and processing the permits, using a 
sliding scale based on the complexity of the application. These fees, 
estimated to produce receipts of $7 million in fiscal year 1999, would 
offset an equal amount in new appropriations for this program.
    Emergency Preparedness and Disaster Response.--The Corps prepares 
for and responds to natural and national emergencies in peacetime and 
war in support of the Army and the Nation. The President's budget does 
not request any new appropriations for emergency preparedness 
activities in fiscal year 1999 because carryover funds from the 1997 
Emergency Supplemental Appropriations Act and other legislation, 
estimated at this time to be about $330 million at the start of fiscal 
year 1999, are expected to be sufficient to meet operational 
requirements.
    Support for Others.--In fiscal year 1999, the Corps will provide 
reimbursable technical support to other Federal agencies, state and 
local governments, other countries and international organizations. 
This support covers the complete range of planning, engineering, design 
and construction management, environmental services and technical 
assistance related to water, natural resources and infrastructure. 
Assistance can vary from providing technical advice to complete project 
management services. The Support for Others program enhances the Corps' 
ability to maintain and improve technical competence, while allowing 
other agencies to focus their in-house resources, particularly 
personnel, on their own primary areas of expertise. The estimated 
dollar value of the Corps efforts on behalf of other agencies in fiscal 
year 1999 is $814 million.
                               conclusion
    The President's fiscal year 1999 Civil Works budget is consistent 
with the need to balance the Federal budget and the President's overall 
domestic priorities. The funds available for the Civil Works program 
have been applied to give balance among numerous Civil Works 
priorities: responsible stewardship of existing infrastructure, meeting 
commitments for ongoing construction to the extent possible, and 
reducing future emergency requirements through investments that achieve 
both ecosystem restoration and flood hazard mitigation.
    In conclusion, I would emphasize the Administration's commitment to 
work with this Subcommittee, others in Congress and the non-Federal 
partners of Civil Works projects to ensure that the policies and 
priorities for the Army Civil Works program of the Corps of Engineers 
continue to serve the vital interests of the Nation by providing 
efficient priority investments in public infrastructure while 
protecting and restoring the Nation's environment. Moreover, this must 
be achieved in a way that supports and contributes to the President's 
commitment to balance the Federal budget. I ask for your support as we 
move forward to meet these challenges.
    Thank you Mr. Chairman, Members of the Subcommittee. This concludes 
my statement.

                                Figure 1
[GRAPHIC] [TIFF OMITTED] TNERGY.006

                                Figure 2
[GRAPHIC] [TIFF OMITTED] TNERGY.007

                                Figure 3
[GRAPHIC] [TIFF OMITTED] TNERGY.008

                                Figure 4
[GRAPHIC] [TIFF OMITTED] TNERGY.009


      TABLE A.--DEPARTMENT OF THE ARMY, CORPS OF ENGINEERS--ClVlL WORKS--FISCAL YEAR 1999 NEW CONSTRUCTION
                                                    [Funding]
----------------------------------------------------------------------------------------------------------------
                                                                                          Cost
                                                           Fiscal year -----------------------------------------
                     Category/project                      1999 budget      Total
                                                                           project       Federal     Non-Federal
----------------------------------------------------------------------------------------------------------------
New Construction Starts:
    Big Sioux Falls, SD..................................   $2,200,000   $37,100,000   $27,800,000    $9,300,000
    Assateague Island, MD................................    4,000,000    17,200,000  \1\ 17,200,0
                                                                                                00  ............
    Grand Prairie, AR....................................   11,500,000   342,000,000   229,800,000   112,200,000
Major Rehabilitation:
    Walter F. George Powerhouse and Dam, AL and GA.......    1,000,000    37,000,000    37,000,000  ............
    Lock and Dam 24 Part 2, Mississippi River, IL and MO.    2,400,000    38,370,000  \2\ 38,370,0
                                                                                                00  ............
    Patoka Lake, IN......................................    3,600,000     7,200,000     7,200,000  ............
    London Locks and Dam, Kanawha River, WV..............    1,700,000    20,200,000  \3\ 20,200,0
                                                                                                00  ............
Dam Safety Assurance: Skiatook Lake, OK..................      500,000     9,500,000     9,500,000  ............
Deficiency Correction: Chain of Rocks, Canal, Mississippi
 River, IL...............................................      700,000    22,270,000    22,270,000  ............
                                                          ------------------------------------------------------
      All................................................   27,600,000   530,840,000   409,340,000   121,500,000
----------------------------------------------------------------------------------------------------------------
\1\ $300,000 will be provided by UPS.
\2\ $19,185,000 will be derived from the IWTF.
\3\ $10,100,000 will be derived from the IWTF.


                                         TABLE B.--DEPARTMENT OF THE ARMY, CORPS OF ENGINEERS--CIVIL WORKS--FISCAL YEAR 1999 BUDGET BY BUSINESS PROGRAM
                                                                                    [In thousands of dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                              Flood and
                                                                                storm                                             Emergency                 Water    Support for
                          Account                              Navigation       damage     Hydropower   Regulatory  Environment  management   Recreation   supply      others           All
                                                                              prevention
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
General Investigations.....................................          62,000       64,000        1,000  ...........       42,000  ..........        1,000  ........  ............         160,000
Construction General.......................................         200,073      367,387       46,320  ...........      173,210  ..........        7,010  ........  ............         784,000
Operation and Maintenance, General.........................         956,993      246,544      122,769  ...........       67,422       6,000      203,273  ........  ............       1,603,000
FC, Mississippi River and Tributaries......................  ..............      280,000  ...........  ...........  ...........  ..........  ...........  ........  ............         280,000
    Regulatory Program.....................................  ..............  ...........  ...........      117,000  ...........  ..........  ...........  ........  ............         117,000
General Expenses...........................................          46,000       36,700        6,600        4,400       16,300         300        8,000  ........        30,800         148,000
Flood Control and Coastal Emergencies......................  ..............  ...........  ...........  ...........  ...........  ..........  ...........  ........  ............  ..............
FUSRAP.....................................................  ..............  ...........  ...........  ...........      140,000  ..........  ...........  ........  ............         140,000
                                                            ------------------------------------------------------------------------------------------------------------------------------------
      Total Direct Appropriations..........................       1,266,066      973,631      176,689      121,400      438,932       6,300      219,283  ........        30,800       3,222,000
                                                            ====================================================================================================================================
Other Civil Works (Coastal Wetlands Restoration)...........  ..............  ...........  ...........  ...........       48,300  ..........  ...........  ........  ............          48,300
Support for Others.........................................  ..............  ...........  ...........  ...........  ...........  ..........  ...........  ........       814,000         814,000
                                                            ------------------------------------------------------------------------------------------------------------------------------------
      Total................................................       1,266,066      973,631      176,689      121,400      487,232       6,300      219,283  ........       844,800       4,084,300
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                        statement of joe ballard

    Senator Domenici. Thank you. We are going to move on with 
our witnesses before we move to questions.
    General Ballard.
    General Ballard. Yes, sir; I am also pleased to be 
testifying before this committee. I am honored to be appearing 
before you again for the second time as Chief of Engineers.
    I want to thank the members of the subcommittee, and you 
personally, for the very kind remarks that you have made about 
the Corps. I would say, thanks to your efforts, the Civil Works 
Program has been in the past very strong. It has been a 
balanced program and has been highly productive.
    I look forward to our continuing partnership in this 
essential program that is so beneficial to our Nation, as has 
been pointed out several times this morning.

                           prepared statement

    Sir, with your permission I will submit my statement for 
the record and we are prepared to take your questions.
    [The statement follows:]

                  Prepared Statement of Joe N. Ballard

    Mr. Chairman and Members of the subcommittee: I am pleased to be 
testifying on the President's fiscal year 1999 Budget for the Civil 
Works Program, and am honored to be appearing before you again as Chief 
of Engineers.
    Today, the Civil Works Program is strong, balanced, and highly 
productive. I look forward to your continued partnership in this fine 
program, so broadly beneficial to our Nation.
    My statement covers seven topics: Restructuring, Headquarters 
Relocation Planning, Fiscal year 1999 Civil Works Program Budget, 
Improvement of Business Processes, Corps of Engineers Financial 
Management System, Civil Works Program Execution and Outlook, and Corps 
Vision and Strategic Plan.
                             restructuring
    I would like to take a moment to review the progress of division 
restructuring.
    Beginning in April 1997, the Corps began to implement the 
restructuring, which reduced the number of division headquarters from 
11 to 8. I approved most of the division commanders' implementation 
plans in May 1997, and since that time, the new organizations have been 
up and running.
    I am convinced that the division restructuring provides a more 
efficient organizational structure that will result in greater 
efficiencies in the future. We expect that the staffing level for the 
eight divisions will be about 8 percent less in fiscal year 1999 than 
division usage in fiscal year 1997, and about 18 percent less by fiscal 
year 2002.
    I have also targeted the Corps Civil Works Headquarters activities 
for achievement of comparable manpower savings.
                    headquarters relocation planning
    The Corps proposes to relocate its headquarters, in August 2000, to 
underutilized space in the headquarters building of the General 
Accounting Office (GAO) at 441 G St. NW, Washington, D.C. By relocating 
from the Pulaski Building, the Corps will leave commercially leased 
space to make more efficient use of government owned space. The close 
proximity of the GAO headquarters to the Pulaski Building will minimize 
the impact of the relocation on Corps employees. Additionally, our 
headquarters will not be disrupted by reconfiguration/modernization of 
space which would be required if the Corps were to remain in the 
Pulaski building.
              fiscal year 1999 civil works program budget
                              introduction
    New fiscal year 1999 funding for the Civil Works Program, including 
the Direct and Reimbursed programs, is expected to approach $4.29 
billion.
    The Direct Program is formulated by the federal government and 
funded through appropriations of discretionary and mandatory amounts 
directly to the Corps. Funding for this program totals $3.48 billion. 
Discretionary amounts include defense and domestic program components 
of $140 million and $3.08 billion, respectively. The defense component 
is for the newly assigned Formerly Utilized Sites Remedial Action 
Program (FUSRAP), transferred from the Department of Energy to the 
Corps by Congress in the Energy and Water Appropriations Act, 1998.
    The Reimbursed Program is formulated, under provisions of law, by 
the Corps in collaboration with other federal agencies, State and local 
governments, and other nations. It is funded in either of two ways: 
from discretionary amounts of the Direct Program, initially, and, 
ultimately, through reimbursement by the ordering agencies, 
governments, and nations; or by advance payments by the agencies, 
governments, and nations. Funding for this program totals $814 million.
                             direct program
Overview
    The proposed fiscal year 1999 Civil Works Direct Program budget 
provides for continued funding of nearly all studies and projects 
underway, including many started in fiscal year 1998. It also provides 
for funding of new starts under the General Investigations (GI), 
Construction, General, (CG), and Flood Control, Mississippi River and 
Tributaries (FC,MR&T) programs.
    Funding includes ``traditional'' and ``advance'' incremental 
funding. Under traditional funding, appropriations are made for the 
budget year of amounts needed during that year, based on estimates in 
the justification statements for that year. All programs, except the CG 
Program, are funded in the traditional way. Under advance funding, 
appropriation is made ``upfront,'' in the budget year, of amounts 
needed for each outyear until completion of the projects, based on 
estimates made in the budget year for all years until completion. Each 
advance funding amount becomes available in the year of need and, 
therefore, is ``scored'' in that year. This promotes full consideration 
of all costs and benefits of projects during resource decision making, 
and allows the Corps and local sponsor to proceed with construction.
    The CG Program is funded both ways. Ongoing projects not completing 
in outyears of the 5-year program, fiscal year 2000-03, are 
traditionally funded, whereas projects completing in the outyears, 
including new starts, are advance funded in amounts needed during each 
year until completion, based on outyear estimates in the budget year 
justification statements. Four of the fiscal year 1999 new start 
projects are advance funded in outyears for completion.
    The new start program includes 9 new reconnaissance studies and 18 
preconstruction engineering and design studies, following cost-shared 
feasibility studies, being funded for the first time. The new start 
program also includes new construction projects, including 9 
specifically authorized by Congress, and an undetermined number 
generally authorized under the CAP. The specifically authorized 
projects include 3 regular construction projects, 4 major 
rehabilitation projects, 1 dam safety assurance project, and 1 
deficiency correction project.
New Funding
    As shown in the table at the end of this statement, the fiscal year 
1999 budget provides for $3.48 billion in new direct funding. This 
includes $3.22 billion in discretionary funding being requested through 
the fiscal year 1999 Energy and Water Development Appropriations Act, 
and $266 million in mandatory funding to be made available under 
existing law.
    Mandatory funding includes $15 million from three permanent 
appropriations--one for maintenance of mine debris reservoirs used for 
other purposes in California; one for construction, operation and 
maintenance of federal water management facilities nationwide; and one 
for payments to states to compensate for loss of tax base owing to 
federal projects nationwide. Mandatory funding also includes $10 
million from the Coastal Wetlands Restoration Trust Fund (CWRTF) for 
the Corps' part in interagency protection and restoration of wetlands 
in Louisiana. Additionally, it includes $144 million in nonfederal 
contributions from the Rivers and Harbors Contributions Trust Fund 
(R&HCTF), representing costsharing paid under five programs (the GI; 
CG; Operation and Maintenance, General (O&M); and Coastal Wetlands 
Restoration programs) and one project (the FC,MR&T Project). Mandatory 
funding also includes $98 million to be transferred from the Bonneville 
Power Administration (BPA) for operation of the Corps' hydropower 
generation facilities in the Pacific Northwest.
    Additionally, the budget provides for $22 million in mandatory 
borrowing authority for capital improvements for the Washington 
Aqueduct. However, unlike other mandatory authority, this is authority 
to obligate against and make payment from money borrowed from the 
Treasury.
Comparison with Fiscal Year 1998 Funding
    As shown in the table, new funding for the fiscal year 1999 budget, 
including discretionary and mandatory funding, is $923 million less 
than the total of appropriations for fiscal year 1998. The 
discretionary part is $836 million less than last year's total, largely 
reflecting a $685 million reduction in the CG Program. Of the $784 
million in discretionary appropriations for the CG Program, $16 
million, or 2.0 percent, is provided to fund new construction starts.
    Outlays of discretionary funding for fiscal year 1999 are expected 
to be about $828 million less than for fiscal year 1998, commensurate 
with the reduction in funding.
Net New Funding
    Of the $3.48 billion in total new direct funding, $820 million, or 
24 percent, would come from nine sources other than Treasury's General 
Fund, yielding net new funding not specifically collected for the 
program of $2.66 billion. These sources--eight existing and one 
proposed--include five Special and four Trust Funds. The largest 
amounts would come from the Harbor Maintenance Trust Fund (HMTF) ($462 
million, including $2 million for the CG and $460 million for the O&M 
programs), R&HCTF ($144 million), Inland Waterways Trust Fund (IWTF) 
($50 million), Special Recreation User Fees (SRUF) Fund ($34 million), 
and CWRTF ($10 million). As discussed later, under Program Execution 
and Outlook, the one proposed source would be a special fund for the 
Regulatory Program, with collections estimated to amount to $7 million 
in fiscal year 1999 and increase to $14 million, annually, thereafter.
Significance of Budget for Corps
    Owing principally to appropriation of $411 million for 359 studies 
and projects not included in the President's Program for fiscal year 
1998, we project a large funding carryover from fiscal year 1998 into 
fiscal year 1999, most of which--$490 million--would occur for the CG 
Program. However, since much of the carryover is earmarked for specific 
work, it is unavailable for reprogramming to cover shortages in other 
work.
    The budget provides for annual funding in outyears of the 5-year 
program averaging roughly $210 million more than in fiscal year 1999. 
Coupled with this follow-on funding, fiscal year 1999 funding is 
expected to provide adequate amounts for planning and design missions, 
enabling continuing, with few exceptions, ongoing efforts. However, 
schedules for many ongoing construction projects will be stretched out, 
resulting in later completion dates than presented in the fiscal year 
1998 Budget.
    Ever-increasing needs and constrained resources challenge us to 
become even more efficient and innovative in producing for our 
customers. As discussed later, we have been working hard at this, and 
have met with many successes already. However, much more is needed. The 
Corps' strategy, discussed under the Corps Vision and Strategic Plan, 
commits us to achieve ``dramatic improvement in performance and 
customer satisfaction.'' Our goal is to ``revolutionize'' our 
effectiveness in problem-solving--continually maximizing the actual and 
potential values of our organization to Civil Works Program customers 
and the Army, and, thereby, the Nation. This budget promotes 
implementation of this strategy, not only confirming its necessity, but 
also providing adequate funding to facilitate its diligent pursuit.
    Advance funding for acquisition of fixed assets will allow us to 
coordinate far more intensively, quickly, and effectively with local 
sponsors in determining optimum work and funding schedules based on 
capabilities and constraints of both parties. Both parties should 
benefit significantly--the Corps, because of more efficient work 
schedules; and the customer, because of greater certainty of financial 
obligation and faster delivery of needed facilities and expected 
benefits.
                           reimbursed program
    Through the Interagency and Intergovernmental Support Program we 
help other agencies and governments with timely, cost-effective 
implementation of their programs, while maintaining and enhancing 
capabilities for execution of our Civil Works Direct Program and 
Military Program missions. Other agencies look to us for help with 
engineering and construction management because of our vast experience 
and capabilities, enabling us to do the work better, faster, and 
cheaper.
    We provide reimbursable support for about 60 other federal agencies 
and several State and local governments through help with 
environmental, engineering, and construction management work. Total 
reimbursement for such work in fiscal year 1999 is projected to be 
close to $814 million. About half of this is for environmental work. 
The largest share--nearly $300 million--is expected from the 
Environmental Protection Agency (EPA) for cleanup of wastes at numerous 
sites under its Superfund program. 98 percent of our Reimbursed Program 
funding is provided by federal agencies.
                                staffing
    Total staffing for the Civil Works Program for fiscal year 1999 is 
25,520 FTE's. This reflects a reduction of 448 FTE's from the fiscal 
year 1998 total. Of the total, 24,416 FTE's are for the Direct Program 
and 1,204 FTE's are for the Reimbursed Program. Total staffing is 
allocated 90 percent to districts, 4.5 percent to laboratories and 
other separate field operating agencies, 3.5 percent to division 
offices, and less than 2.0 percent to headquarters. Under 
restructuring, the headquarters share will remain essentially 
unchanged, while district and separate field operating agency shares 
will grow from reallocation of division office savings.
                   improvement in business processes
                              introduction
    This part of my testimony summarizes efforts to improve business 
processes of the Civil Works Program over the past few years, with 
emphasis on accomplishments in fiscal year 1997, and efforts underway 
in fiscal year 1998.
                   decision document review/approval
    As I reported last year, we have put in place a process that now 
restricts Headquarters review of decision documents to ``policy 
review,'' ensuring compliance with law and Administration policy, with 
divisions providing quality assurance, and districts accomplishing 
technical reviews, thereby controlling the technical adequacy of the 
planning and engineering in these documents at the local level. I am 
happy to report that we have made significant progress in achieving 
corporate efficiency and effectiveness through elimination of 
fragmented review at multiple layers.
              headquarters responsiveness to field offices
    In addition to restricting its review to policy review, our ``one-
stop'' Washington-level review office continues to improve its review 
process in an effort to provide more timely decisions to districts.
    In fiscal year 1997, this office received 425 decision document 
policy review actions from our field offices, including actions for 
review of reconnaissance, feasibility, design, and major rehabilitation 
reports. We completed over 380 of these review actions in fiscal year 
1997, for a review efficiency of 90 percent. Through the 1st quarter of 
fiscal year 1998, we completed review of 113 decision documents. We are 
on track to complete well over 400 in fiscal year 1998.
    Additionally, in fiscal year 1997, this office reviewed and 
approved 34 Project Cooperation Agreements (PCA's)--contracts spelling 
out roles and responsibilities of the federal government and nonfederal 
sponsor--for specifically authorized projects. Average processing time 
for these documents continues to be less than 60 days, enabling project 
construction to begin expeditiously. Through the 1st quarter of fiscal 
year 1998, we have had over 30 PCA reviews underway, and executed 8 
PCA's. A total of 70 PCA reviews are scheduled for execution in fiscal 
year 1998.
    Finally, in the interest of further expediting project development, 
Army established an expedited reconnaissance study and report process. 
The expedited process focuses on determining Federal interest and 
developing a detailed plan of study for subsequent feasibility work. 
This process has been successful in completing the reconnaissance 
studies more quickly and moving viable locally supported studies 
forward toward solutions. Although the process is still new, it has 
been well received.
                     project cooperation agreements
    We have continued efforts to make negotiation and processing of 
PCA's more predictable and efficient in three ways.
    First, in consultation with nonfederal project sponsors, Army 
continues to develop new PCA models reflecting principles of 
partnering, and addressing recurring concerns of sponsors. These models 
cover specific program authorities, and expedite the agreement process. 
Two of the models, for specifically authorized flood control projects 
and commercial navigation projects, cover most of the Corps' program. 
Other models cover continuing authorities and environmental 
infrastructure projects. Additionally, one covers preconstruction, 
engineering and design (PED) agreements for cost-sharing of the PED 
phase. Latest versions of all models are easily accessible to our field 
offices and project sponsors on the world-wide web.
    Second, headquarters has delegated authority to division and 
district commanders to execute PCA's and PED agreements, conforming to 
the models, without Washington-level review.
    Finally, we have posted all current guidance for preparation of 
PCA's and other agreements on our homepage, easily accessible to 
nonfederal sponsors, as well as Corps personnel and the public. 
Homepage publication enables almost instantaneous notification of 
changes in guidance to the benefit of all involved.
    These improvements have fostered partnership and expedited 
negotiations.
                               partnering
    The Corps has long supported dispute prevention and resolution in 
its corporate policy and workplace practice. The Alternate Dispute 
Resolution (ADR)/Partnering Program continues to lay the foundation for 
better working relations among Corps personnel, partners, and 
customers. It focuses on the development of cooperative project 
management teams through collective definition of goals, improved 
communication, and the fostering of problem-solving attitudes among 
parties involved. The ADR Program has become a model for programs of 
other federal agencies, including the Office of Personnel Management's 
program for executive management, and for programs of several law 
schools and universities. The program provides for training, 
publications, and field support.
    Partnering philosophy is the key to more successful and effective 
project execution, resulting in improvements in quality, schedule and 
cost. It is aimed at improving our business process by making our 
customers and partners an integral part of the team. While the concept 
was originally applied only to construction contracts, it is now being 
used to improve business relationships across the broad spectrum of 
Corps activities. Partnering has dramatically reduced the number of 
construction-related claims and appeals.
    In fiscal year 1997 we pursued recommendations, made at the 
partnering workshop of the previous year, for improvement of service to 
local sponsors. We have taken actions to increase our efficiency and 
enhance sponsor involvement in project development and execution. These 
have included improvement of the existing and development of new models 
for project cost-sharing agreements, improvements in the real estate 
review and acquisition process, and acceleration of review and approval 
of the decision documents and reports.
    Our major initiative in fiscal year 1997 was development of the 
Partnering Guide for Civil Missions. The guide is one in a series of 
publications describing techniques and applications of Partnering in 
Corps programs. When completed, it will serve as a tool for successful 
execution of our missions. A partnering workshop was conducted with our 
division and district personnel in December 1997 to finalize the guide 
and explore further opportunities for Partnering in Civil Works 
missions.
    In fiscal year 1998 we undertook a major initiative in the customer 
satisfaction arena to develop service standards and implement a pilot 
test in Mississippi Valley Division. Our objective is to develop tools 
to measure satisfaction and, then, to use the feedback to change Corps 
business processes to improve services and products within available 
resources. The pilot test will result in tools for evaluation of 
customer satisfaction Corps-wide.
                   government performance and results
    The Government Performance and Results Act of 1993 (GPRA) requires 
that we show how improvements in our business processes, and efforts to 
balance scarce budgetary resources between operation and maintenance 
and new investments, ultimately impact delivery of our products and 
services to the Nation.
    The improvements in our business processes, discussed elsewhere in 
this statement, include: streamlined decision document review 
processes, eliminating duplication of functions at different levels; 
intensively monitored policy review, significantly reducing average 
review times; standardized PCA models, simplifying and expediting 
development, review, and approval of PCA's; broader application of 
partnering techniques to strengthen partnerships with sponsors, 
expediting construction and minimizing costs; and intensively managed 
program execution, for more efficient and timely production and greater 
customer satisfaction.
    Until recently, we could demonstrate benefits of these process 
improvements only at the project level; we did not have means to 
display them at the program level. Likewise, we could demonstrate the 
impacts of varying funding levels on levels of program services and the 
timing of program results at the project level; however, again, we did 
not have means to measure such impacts at the program level.
    Currently, we are testing an initial set of results-oriented 
performance measures for demonstrating the contributions of internal 
process improvements and impacts of different levels of funding for 
programs. Our goal is to comply with GPRA in development of a 
comprehensive set of results-oriented program performance measures. We 
are discussing these measures with OMB, and continuing the consultation 
process with Congress.
             corps of engineers financial management system
    We are continuing deployment of the Corps of Engineers Financial 
Management System (CEFMS). As of 30 September 1997, we had completed 
deployment at forty-four Corps locations. To date, in fiscal year 1998, 
we have completed deployment at our Cold Regions Research and 
Engineering Laboratory, Northwestern Division, Alaska District, and 
Transatlantic Engineering Center, Europe, and initiated deployment at 
the South Pacific Division. We anticipate completing the process for 
all locations this month, with deployment at the North Atlantic 
Division.
    I am pleased to report on success achieved by our first Division to 
have completed a full year of operations using CEFMS. The U.S. Army 
Audit Agency and Corps teamed together at our Southwest Division in 
fiscal year 1997 to verify that CEFMS will produce consolidated 
financial statements consistent with requirements of the Chief 
Financial Officers Act. The Army Auditors have advised me that the 
fiscal year 1997 Southwest Division consolidated financial statements 
will receive an unqualified audit opinion. This is a big step forward 
for the Corps, Army, and Department of Defense (DOD) in demonstrating 
the capability of our automated financial management information system 
to document the financial integrity of our stewardship of funds 
entrusted to us.
    CEFMS is now being adopted for wider use throughout DOD because of 
its demonstrated capabilities.
                     program execution and outlook
                              introduction
    Program Execution continues to be very important throughout the 
Corps. In fiscal year 1997, our divisions and districts generally 
succeeded in improving their execution, as measured in terms of 
expenditures. Division commanders have described execution results of 
their divisions for that year, by program, in their status reports. As 
usual, these will be made available to the Subcommittee, following this 
hearing. We are continuing to emphasize the importance of meeting 
obligation and expenditure schedules in fiscal year 1998.
    In following discussions, the term ``expenditure'' is substituted 
for ``accrued expenditure.''
                         general investigations
    Scheduled expenditure for the GI Program in fiscal year 1997 was 
$161 million. We spent $151 million, or 94 percent of this, and 80 
percent of funding available. This execution, based upon funding 
available, was unsurpassed in the preceding five years.
    Scheduled report production for the program in fiscal year 1997 
included 90 reconnaissance and 20 feasibility reports. The performance 
goal for reconnaissance reports was completion of 81 of the 90, or 90 
percent, within the 12-18-month legislative time-frame for regular 
reconnaissance reports, and 6-9-month time-frame for expedited reports. 
We completed 84 of the 90 for a performance result of 93 percent. The 
performance goal for feasibility reports was completion of 16 of the 
20, or 80 percent. We completed 16, meeting this goal.
    Scheduled expenditure for the GI Program in fiscal year 1998 is 
$157 million. Our goal is to expend 95 percent of this amount. Based on 
first quarter results, we will exceed that goal.
    In addition to the GI improvements of last year, in anticipation of 
implementing further efficiencies, we have contracted with the National 
Research Council to provide an independent assessment of the Civil 
Works decision making process, taking into consideration the magnitude 
of investments, the state of analytic arts, governing laws, and 
executive branch guidance. We expect a report in January 1999.
    The President's Budget provides for $150 million in new funding for 
the GI Program. The outlook for program workload is healthy. We are 
striving continually to enhance our performance during these times of 
limited resources.
                         construction, general
    In fiscal year 1997, scheduled expenditures totaled $1.10 billion, 
we expended $1.05 billion, and carried an unexpended balance of $313 
million over into fiscal year 1998. This unexpended carryover was 
significantly less than our historical average. Moreover, it included 
$149 million earmarked in law for specific activities or projects which 
could not be accomplished that year.
    In fiscal year 1998, $1.79 billion was available for expenditure in 
the CG account at the beginning of the year. Expenditures scheduled for 
this year total $1.30 billion, leaving $490 million to be carried over 
into fiscal year 1999. At the end of the first quarter, expenditures 
were on schedule at $190 million.
    The President's Budget provides for $784 million in new funding for 
the CG Program in fiscal year 1999. It also provides for advance new 
obligation authority of $531 million for the four-year fiscal year 
2000-03 period for completion of 60 specifically authorized projects 
scheduled for completion during that period. Of the fiscal year 1999 
amount, $16 million is for initiation of 8 new start projects. The 
balance of $768 million, reflecting a reduction for savings and 
slippage in the total program, is for specifically authorized 
continuing projects and remaining items, including projects under CAP. 
About $659 million of this amount is for specifically authorized 
projects.
    The budget request includes $25 million for the Challenge 21--
Riverine Ecosystem Restoration and Flood Hazard Mitigation Initiative 
as part of the President's Environmental Resources Fund for America. 
This new program will examine entire watersheds to expand the use of 
non-structural alternatives to reduce flood hazards and flood disaster 
recovery costs while helping to restore natural functions and values to 
riverine ecosystems.
                   operation and maintenance, general
    In fiscal year 1997, we expended 92 percent of the funds available 
to operate and maintain the existing federal water resources 
infrastructure, including 12,000 miles of inland waterways, 237 locks, 
926 harbors, 383 dams and reservoirs and recreation facilities for 375 
million visits over the year. This infrastructure provides beneficial 
outputs for navigation, flood damage reduction, hydropower generation, 
recreation, and environmental stewardship that are important to the 
economic and environmental well-being of the Nation. Our workload was 
financed with the $1.697 billion regular appropriation plus two 
emergency supplemental appropriations--$19 million to repair damages 
caused by Hurricane Fran along the Atlantic Coast and $150 million to 
repair Civil Works projects impacted by natural disasters that occurred 
throughout the Nation, including California, the Pacific Northwest, 
Gulf Coast, Ohio River Basin, and Upper Midwest. This performance, with 
an emphasis on justified results, reflects outstanding management by 
our headquarters and field staff who had to make substantial regional 
adjustments to deal with these major flooding events pending enactment 
of supplemental appropriations.
    We expect even better performance in fiscal year 1998 with the 
appropriation of $1.733 billion which was 36 million, or 2.1 percent, 
greater than the initial fiscal year 1997 amount. This year's storms 
have caused damages to some of our projects. We will have to work hard 
to address these additional requirements while keeping the 
infrastructure in good working order.
    Our fiscal year 1999 estimated O&M program is $1.709 billion, 
including a $1.603 billion appropriation request, an estimated $98 
million in funding from the Bonneville Power Administration to operate 
and maintain hydropower facilities in the Pacific Northwest, and $8 
million in cost-sharing contributions. I am confident that this amount 
will be adequate to operate and maintain our projects at justified 
levels of service.
    For the period fiscal year 1997-99, the O&M program is essentially 
stable at the $1.7 billion level. As projects continue to age and 
federal funding constraints continue, it is clear that we need to find 
innovative ways to accomplish required O&M work nationwide. In order to 
continue providing services to project customers at this level of 
funding, we are proceeding with the O&M Cost Saving Initiative that I 
mentioned in last year's testimony. A report comparing project costs 
and outputs has been provided to various Congressional committees and 
customers. Although the O&M Cost Savings report is not intended to 
identify categories of projects for reduced funding, Corps field 
offices have been using it as a starting point to engage our customers 
and Congressional delegations to further analyze their respective 
projects and seek cost saving opportunities.
            flood control, mississippi river and tributaries
    In fiscal year 1997, we expended 98 percent of funds scheduled for 
expenditure on the MR&T Project. Of the $34.5 million unexpended, $8.7 
million was unobligated and $25.8 million was obligated but unexpended. 
The unobligated carryover was about 3 percent of new budget authority 
for fiscal year 1997.
    We anticipate excellent financial performance on the MR&T Project 
in fiscal year 1998.
    The President's Budget request for $280 million in new funding for 
the MR&T Project includes funding for one new start reconnaissance 
study and one construction new start.
                           regulatory program
    The President's budget requests $117 million for the Regulatory 
Program, with $7 million to be derived from offsetting receipts under 
proposed legislation to restructure permit application fees, for a net 
of $110 million. Total funding is $11 million more than the fiscal year 
1998 appropriation. The increase supports national water resources 
initiatives, including continued work under the President's Wetlands 
Plan of August 1993.
    The requested funds will provide for the implementation of a full 
administrative appeals process by which the public can challenge 
regulatory decisions without resorting to litigation. This includes 
appeals of denials of permits and appeals of jurisdiction 
determinations. We will begin implementation for appeals of permit 
denials near the end of fiscal year 1998.
    In addition, we are increasing efforts to initiate and sustain 
partnerships with State and local governments in the protection of the 
aquatic environment. With the proposed fiscal year 1999 funding, we 
will develop watershed management plans and other permitting mechanisms 
that allow state and local authorities to take on more permitting 
responsibilities, thus reducing Corps workload.
    We are again proposing changes in fees for the regulatory program, 
including increasing fees for commercial applications to cover review 
costs, and dropping fees for applications of individuals. This proposal 
is expected to generate $14 million in the first full year of 
operation.
                 flood control and coastal emergencies
    The President's Budget does not request new funding for the Flood 
Control and Coastal Emergencies (FCCE) Program. The expected carryover 
of funds appropriated in the 1997 Emergency Supplemental Appropriations 
Act is adequate for administration of the Disaster Preparedness and 
Emergency Response programs in fiscal year 1999. The need for 
additional funding will be determined by future events requiring 
extraordinary flood-fighting or subsequent repair of damaged water 
management facilities and the balance of funds in the FCCE account.
    Under this program, we provide leadership and expertise in 
preparation for and response to disasters throughout the Nation. Since 
receiving our emergency mission in 1941, we have developed and 
sustained an engineering organization capable of responding to both 
natural and technological disasters, such as hurricanes, floods, 
earthquakes, and oil spills. This mission also entails supporting 
deployed U.S. Forces and accomplishing reimbursable work for other 
agencies, particularly, the Federal Emergency Management Agency.
    Last year, we responded to several natural disasters, including the 
Western Floods of January 1997, flooding in the Ohio River and 
Mississippi River Basins in March 1997, and the Upper Midwest Floods of 
April. We have completed the repair and rehabilitation of critical 
levees in California and other States as we continue to restore flood 
protection to distressed communities throughout the Nation.
    This year, we were part of the Federal relief efforts led by the 
Federal Emergency Management Agency in New England as the result of 
January's severe ice storm. In February, we responded to the flooding 
in California and Florida, and we remain a key player in the Federal 
recovery and relief efforts in these states. Also, as part of its 
overall emergency response mission, the Corps of Engineers continues to 
provide support to U.S. forces in Bosnia.
                            general expenses
    The President's Budget provides for $148 million in new funding for 
GE, the same as for fiscal year 1998. These funds support the 
headquarters, the new eight division office structure and four field 
support activities. Expenses are allocated approximately 71 percent 
labor, 22 percent fixed costs such as rent, utilities, communications, 
and contractual services, and 7 percent for discretionary costs, such 
as travel, training, supplies and materials. It reflects initial 
savings from reducing the number of division offices phased over 
several years and other streamlining initiatives. It also includes 
absorbing the 1.5 percent increase for agency contributions for 
retirement benefits effective in fiscal year 1998, and the increase 
from 9 percent to 15 percent for payments to the Federal retirement 
account for employees taking Voluntary Early Retirement Authority 
(VERA) and Voluntary Separation Incentive Program (VSIP).
    The budget requested supports projected staffing of 1,180 FTE's for 
all headquarters activities, and will continue to decline through 
fiscal year 2002 to about 1,050 FTE's. The fiscal year 1999 staffing 
for these executive direction and management functions comprises only 
4.6 percent of the total civil workforce, and is projected to continue 
this decline to about 4.1 percent by fiscal year 2002. The headquarters 
staff of 453 FTE's represents less than 2 percent of the total civil 
program workforce.
            formerly utilized sites remedial action program
    Since transfer of execution responsibilities for FUSRAP from the 
Department of Energy (DOE), the Corps has ensured that the transition 
would not cause a slippage at any site, conducted a site-by-site 
assessment of the program, and is now developing schedules and funding 
requirements to maximize savings and accelerate project completion 
schedules. In its assessment of DOE's accelerated cleanup plan, the 
Corps found that program completion by 2002 was possible only by 
reducing the scope of the program.
    The Corps' fiscal year 1999 FUSRAP request of $140,000,000 is based 
on a balanced approach to remediation which takes into account health 
and safety factors, regulatory requirements, community interests, 
future use of the property, and estimated cleanup costs. The requested 
funding will permit the Corps to complete three projects and continue 
work underway at the remaining 18 projects.
                    corps vision and strategic plan
    Finally Mr. Chairman, last year I briefed you on the new Corps 
Vision and Strategic Management Plan. I should clarify that this Plan 
is not the Strategic Pan required by GPRA, rather, it is my separate 
plan for challenging the Corps to improve and adapt to the many changes 
occurring in our Nation at every level. For this, we need to have an 
end state in sight and a road map to get there. Here is our Vision for 
the Corps.
    The U.S. Army Corps of Engineers is:
  --the world's premier engineering organization, trained and ready to 
        provide support any time, any place.
  --a full-spectrum engineer force of high quality, dedicated soldiers 
        and civilians:
    --a vital part of the Army;
    --the engineer team of choice--responding to our Nation's needs in 
        peace and war; and
    --a values-based organization--respected, responsive, and reliable
  --changing today to meet tomorrow's challenges!
    As you can see, the Vision touches on many different areas. All of 
these are important, but several are critical. The first of these is to 
focus on our customers, as embodied in ``The Engineer Team of choice.'' 
The second is to build on the successes in responding to our Nation's 
needs in peace, with the Civil Works Program being the cornerstone. The 
third is to become more relevant to the Army, where our roots are.
    This Vision and Plan have matured a lot in the past year. The team 
that helped develop them is also helping to guide implementation; it 
consists of employees and commanders at every level, customers from 
both the civil works and Army side and other stakeholders in our 
success. We have developed a series of linked and tiered management 
plans that ``govern'' our management initiatives and move us toward 
that Vision. You can expect a continuing series of changes over the 
years, that will keep what is good, significantly improve some weak 
areas, and posture us for the next century.
                               conclusion
    The President's Budget for the Corps of Engineers provides stable 
funding with a balance among competing priorities. However, we must 
continue to find ways to reduce our costs and shift more of those 
remaining to direct beneficiaries of our services. Meanwhile, we will 
do our very best to execute the Civil Works Program for maximum benefit 
to the Nation.
    We have a long history of improving production of the Civil Works 
Program and achieving greater customer satisfaction, while conserving 
resources. A recently passed milestone in this history was formalized 
Corps-wide institution of project management, given impetus by 
nonfederal cost sharing requirements of WRDA86. This led to marked 
improvement in program execution and greatly improved partnerships with 
state and local governments.
    Lately, we have been improving business processes, including the 
decision document review and approval process, project cooperation 
agreement execution process, and partnering process. Improvements 
adopted have eliminated duplication of effort; empowered districts to 
accomplish work formerly done at higher levels; expedited policy and 
nondepartmental reviews, yielding more timely answers for districts; 
and preset compatible goals for stakeholders in projects, enabling win-
win outcomes with less rework, claims, and lawsuits. These improvements 
have further improved our production and customer satisfaction, while, 
simultaneously, enabling us to participate significantly in ongoing 
efforts to downsize government.
    And now, our Strategic Management Plan commits us to dramatic 
improvement in performance and customer satisfaction within available 
resources, with a goal of revolutionizing our effectiveness in problem 
solving--continually maximizing actual and potential values of our 
organization to the Civil Works Program and the Army, and, thereby, the 
Nation. This, in conjunction with our ongoing implementation of GPRA, 
promise even greater improvements in future business operations.
    Finally, the Energy and Water Development Appropriations Act, 1998, 
challenges us to accomplish a large workload in the current year. I am 
confident in our ability to meet that challenge, in continuing to 
benefit our great Nation.
    Thank you Mr. Chairman and Members of the Committee. This concludes 
my statement.

            DEPARTMENT OF THE ARMY, CORPS OF ENGINEERS--CIVIL WORKS--FISCAL YEAR 1999 DIRECT PROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year
                                                                 -----------------------------------------------
                         Source/account                           Actual/assumed
                                                                       1997        Assumed 1998    Request 1999
----------------------------------------------------------------------------------------------------------------
Appropriation:
    Discretionary:
        Defense: Formerly Utilized Sites Remedial Action Program  ..............         140,000         140,000
        Domestic: General Investigations........................         152,972         156,804         150,000
        Construction, General:
            General Fund........................................         997,027       1,391,073         732,000
            Harbor Maintenance Trust Fund.......................  ..............  ..............           2,000
            Inland Waterway Trust Fund..........................          85,815          78,000          50,000
                                                                 -----------------------------------------------
              Total.............................................       1,082,842       1,469,073         784,000
        Operation and Maintenance, General:
            General Fund........................................       1,295,940       1,201,393       1,108,561
            Harbor Maintenance Trust Fund.......................         535,986         497,844         460,439
            Special Recreation User Fees Fund...................          34,089          33,988          34,000
                                                                 -----------------------------------------------
              Total.............................................       1,866,015       1,733,225       1,603,000
        Flood Control, Mississippi River and Tributaries........         330,374         294,312         280,000
        Regulatory Program:
            General Fund........................................         101,000         106,000         117,000
            Proposed Permit Fees................................  ..............  ..............          -7,000
                                                                 -----------------------------------------------
              Total.............................................         101,000         106,000         110,000
        General Expenses........................................         149,000         148,000         148,000
        Flood Control and Coastal Emergencies...................         425,000           4,000  ..............
        Oil Spill Liability Trust Fund..........................  ..............  ..............  ..............
                                                                 -----------------------------------------------
          Total.................................................       4,107,203       3,911,414       3,075,000
                                                                 -----------------------------------------------
          Total.................................................       4,107,203       4,051,414       3,215,000
                                                                 ===============================================
    Mandatory:
        Permanent Appropriations................................          13,243          14,627          14,674
        Coastal Wetlands Restoration Trust Fund:
            Corps...............................................          10,000          10,000          10,000
            Others (excluded)...................................          34,134          39,000          38,300
                                                                 -----------------------------------------------
              Total.............................................          44,134          49,000          48,300
        Rivers and Harbors Contributions........................         190,051         233,217         143,741
        Bonneville Power Administration.........................          92,000          95,000          98,000
        Washington Aqueduct (borrowing authority, excluded).....          29,000          24,000          22,000
                                                                 -----------------------------------------------
          Total.................................................         305,294         352,844         266,415
                                                                 -----------------------------------------------
          Total.................................................       4,412,497       4,404,258       3,481,415
----------------------------------------------------------------------------------------------------------------

                prepared statement of Russell L. Fuhrman

    Senator Domenici. Thank you very much, General Ballard.
    Are we going to have a third statement? Are you going to 
testify, General Fuhrman?
    General Fuhrman. I would like to submit my statement for 
the record. I have no oral statement, Mr. Chairman.
    [The statements follow:]

                Prepared Statement of Russell L. Fuhrman

                              introduction
    Mr. Chairman and members of the Subcommittee, I am honored to 
testify before you as Director of Civil Works.
    I would like to note some highlights of the fiscal year 1999 budget 
request for Remaining Items, which include the Army Corps of Engineers 
(Corps) nationwide programs and activities. These include the General 
Expenses appropriation, which provides for executive direction and 
management of the Civil Works program at the Corps Headquarters and the 
Division Offices.
                        remaining items overview
    The total for Remaining Items in the budget request is $624.549 
million of which $78.4 million is for General Investigations; $102.019 
million for Construction, General; $39.13 million for Operation and 
Maintenance, General; $117 million for Regulatory Program; $140 million 
for Formerly Utilized Sites Remedial Action Program; and $148 million 
for General Expenses.
       activities under the general investigations appropriation
   coordination with other federal agencies, states, and non-federal 
                               interests
    The request for Coordination with Other Federal Agencies, States, 
and Non-Federal Interests is $13.7 million, an increase of $6.765 
million from the fiscal year 1998 allocation of $6.935 million for 
these activities. Following is a comparison of the fiscal year 1998 
allocation and the fiscal year 1999 request for activities under this 
program:

------------------------------------------------------------------------
                                                       Fiscal year
                                               -------------------------
                   Activity                         1998         1999
                                                 allocation    request
------------------------------------------------------------------------
Planning Assistance to States.................   $2,897,000   $5,300,000
Special Investigations........................    1,687,000    3,742,000
Gulf of Mexico Program........................      127,000      200,000
Chesapeake Bay Program........................      348,000      250,000
Pacific Northwest Forest Case Study...........      326,000      300,000
Interagency Water Resources Development.......      753,000    1,300,000
Interagency and International Support.........      144,000      300,000
Inventory of Dams.............................      197,000      500,000
National Estuary Program......................       69,000      100,000
North American Waterfowl Management Plan......       69,000      100,000
Risk Based Analysis...........................      116,000      108,000
Coordination with Other Water Resources.......      202,000      500,000
CALFED........................................  ...........    1,000,000
------------------------------------------------------------------------

    The request includes one new budgeted item for fiscal year 1999. 
The Corps participation in the CALFED Bay Delta process was initiated 
in fiscal year 1997. The Corps level of effort necessary for this 
program warrants the designation of CALFED as a separate line item.
    CALFED.--The request of $1,000,000 allows the Corps to continue to 
play a key role in the CALFED Bay-Delta process in fiscal year 1999. 
The CALFED Bay-Delta Program is a three-phased solution process for the 
development of a long-term comprehensive plan that will restore 
ecological health and improve water management for beneficial uses of 
the Bay-Delta system. This program is a joint effort between local land 
management agencies and the state and Federal government. In addition 
the Corps is requesting $89.1 million for studies and projects in Bay 
Delta.
    Planning Assistance to States.--The request of $5.3 million is a 
major portion of the Coordination with Other Federal Agencies, States, 
and Non-Federal Interests program. The fiscal year 1999 request would 
enable the Corps to provide much needed planning and technical 
assistance for a variety of water resource efforts to states, 
territories, and Federally recognized Indian Tribes. The assistance is 
in the form of 50 percent Federal, 50 percent non-Federal cost-shared 
reconnaissance level studies which provide information and guidance to 
help the non-Federal sponsors become more active and effective working 
partners with the Federal government in resolving water resource 
problems. The studies may address a wide variety of water resource 
issues including environmental conservation/restoration, wetlands 
evaluation, water supply and demand, water quality, flood damage 
reduction, coastal zone management, and dam safety. Since fiscal year 
1991, we have executed over 440 cost-sharing agreements with 48 states 
and 22 Indian Tribes. Significant flood events over the last several 
years have raised public awareness and increased the demand for 
assistance in resolving water resource problems. As a result, interest 
in this highly efficient and effective program continues to grow.
    Special Investigations.--Another major portion of the fiscal year 
1999 request is $3.742 million for Special Investigations. The 
activities of this program include: special investigations and reports 
of nominal scope prepared pursuant to Congressional and other requests 
from outside the Corps of Engineers for information relative to 
projects or activities which have no funds; review of reports and 
environmental impact statements of other agencies; and review of 
applications referred to us by the Federal Energy Regulatory Commission 
for permits or licenses for non-Federal hydropower developments at, or 
affecting, Corps water resource projects.
    Interagency Water Resources Development.--The request is $1.3 
million to conduct district activities, not otherwise funded, that 
require coordination effort with non-Federal interests. These 
activities include items such as meeting with City, County, and State 
officials to help solve water resources problems or to determine 
whether Corps programs are available and may be used to address the 
problems.
    Gulf of Mexico Program.--The request of $200,000 allows the Corps 
to continue involvement in this U.S. Environmental Protection Agency 
(EPA)-initiated, partnership driven, program of blending of programs 
and resources of Federal, state, and local governments, with the 
resources and commitments of business, industry, citizens groups and 
academia. The Gulf of Mexico Program is formulating and implementing 
creative solutions to economic and environmental issues with Gulf-wide 
and national implications. Hypoxia/nutrient enrichment and 
nonindigenous species are focus areas, which are linked to authorized 
Corps missions in the five-state program area.
    Chesapeake Bay Program.--The request of $250,000 enables the Corps 
to continue participation in the EPA-initiated interagency program for 
the protection and restoration of the bay's natural resources. These 
natural resources have tremendous environmental and economic 
significance to the northeast region and to the nation.
    Pacific Northwest Forest Case Study.--The request of $300,000 is 
for the Corps to continue participation in the interagency program 
initiated by the White House's Council of Environmental Quality for 
ecosystem management of the public lands in the Pacific Northwest 
within the range of the Northern Spotted Owl.
    Risk Based Analysis.--The request of $108,000 provides for the 
completion of a study of the use of risk-based analysis by the Corps of 
Engineers in the evaluation of flood damage reduction studies. In 
accordance with Section 202(h) of Public Law 104-303, the funds would 
be used to fulfill contractual requirements with the National Academy 
of Sciences.
    Interagency and International Support.--The $300,000 request allows 
the Corps of Engineers to participate with other Federal agencies and 
international organizations to address problems of national 
significance to the United States. In fiscal year 1998, program funding 
includes support to the State Department on international water and 
environmental issues related to U.S. national security, to support the 
Administration initiatives on Africa, and to participate in and support 
U.S. interests on the World Water Council.
    Inventory of Dams.--The $500,000 request is for the continued 
maintenance and publication of the National Dam Inventory. This ongoing 
maintenance effort is a coordinated effort involving data for the 
Federal and non-Federal Dam Safety community in coordination with the 
Interagency Committee of Dam Safety. This inventory is now required for 
use by the Director of Federal Emergency Management Agency (FEMA) and 
the National Dam Safety Review Board in the allocation of dam safety 
program assistance funds to the various States in proportion to the 
number of dams in the state.
    The request is $500,000 for Coordination with Other Water Resource 
Agencies, including the Department of Agriculture, Soil Conservation 
Service Department of Interior, and Regional Planning Commissions and 
Committees and $100,000 each to continue cooperation with Federal and 
state agencies in the EPA's National Estuary program and with Federal 
and state agencies, and non-Federal interests in support of the North 
America Waterfowl Management Plan administered by the U.S. Fish and 
Wildlife Service.
                   collection and study of basic data
    The fiscal year 1999 request of $17.350 million for Collection and 
Study of Basic Data is an increase of $5.078 million from the fiscal 
year 1998 allocation of $12.272 million for these activities. Following 
is a comparison of the fiscal year 1998 allocation and the fiscal year 
1999 request for activities under this program:

------------------------------------------------------------------------
                                                       Fiscal year
                                               -------------------------
                                                    1998         1999
                                                 allocation    request
------------------------------------------------------------------------
Flood Plain Management Services...............   $7,344,000   $9,400,000
Stream Gaging (U.S. Geological Survey)........      653,000      900,000
Precipitation Studies (National Weather
 Service).....................................      326,000      450,000
International Water Studies...................      277,000    1,900,000
Hydrologic Studies............................      408,000      600,000
Scientific and Technical Information Centers..      106,000      100,000
Coastal Field Data Collection.................     1,224,00    1,500,000
Transportation Systems........................      653,000      850,000
Environmental Data Studies....................       82,000      100,000
Remote Sensing/Geographic Information System
 Support......................................      343,000      400,000
Automated Information System Support--Tri
 Service CADD/GIS Technology Center...........      530,000      650,000
Flood Damage Data.............................      326,000      500,000
------------------------------------------------------------------------

    The Flood Plain Management Services, International Water Studies, 
and Coastal Field Data Collection programs respectively are the three 
largest programs of Collection and Study of Basic Data and are 
highlighted individually.
    Flood Plain Management Services.--The largest portion of the 
Collection and Study of Basic Data program request is $9.4 million, for 
the Flood Plain Management Services program, an increase of $2.056 
million from the fiscal year 1998 allocation. This program continues to 
be one of the most important non-project services that the Corps 
provides for Federally recognized Indian Tribes, states, and local 
governments. By working together with state, local, and tribal land use 
decision makers, we are able to alert them to various flood hazards, 
promote prudent use of the flood plains, and help mitigate future 
losses to life and property. The active involvement of land use 
decision makers is the key to sound flood plain management in the 
United States. Significant flood events over the past several years 
have raised public awareness and increased the demand for information 
and assistance for mitigating flood losses. The increased funding will 
provide flood plain management services to a greater number of state, 
regional, local governments, Indian Tribes, and other non-Federal 
public agencies who, in turn, invest their own funds to avoid flood 
hazards and make good use of the flood plains. This not only mitigates 
future losses to life and property but also reduces the need for costly 
Federal flood control works as well as the demand for other Federal, 
state, and local services such as providing major disaster assistance 
before, during, and after floods. Under this program, we also 
participate with the FEMA, the National Weather Service, and local 
governments in conducting critical pre-disaster hurricane evacuation 
and preparedness studies for mobilizing local community responsiveness 
to natural disasters in high hazard coastal areas of states and 
counties along the Atlantic Ocean and the Gulf of Mexico.
    International Water Studies.--The request of $1.9 million for the 
International Water Studies program is an increase of $1.623 million 
from the fiscal year 1998 allocation of $277,000. The request will fund 
Corps of Engineers participation in assisting the U.S. Government meet 
its obligations under provisions of boundary water treaties and other 
international agreements between the United States and Canada. A 
significant portion, $1.4 million, of the fiscal year 1999 request will 
be used to complete the U.S./Canada cost-shared International Joint 
Commission study of the Red River Basin. The catastrophic losses and 
problems caused by the 1997 spring flood in the Red River of the North 
have increased the need for an international comprehensive water 
management plan for the Red River Basin. President Clinton specifically 
discussed the situation with the Canadian Prime Minister on 3 May 1997 
and both agreed to take a joint international approach to find long 
term solutions to the Red River Basin flooding problem.
    Coastal Field Data Collection.--The fiscal year 1999 request for 
this activity is $1.5 million to systematically measure and assemble 
information required to accomplish the Corps mission in coastal 
navigation, storm damage reduction, and evaluation of harbor entrance 
impacts on adjacent shores. Cost-effective mission accomplishment 
requires long-term data that encompasses winds, waves, currents, water 
levels, and bottom configuration, sediment characteristics, and 
geomorphologic data. With 800 navigation projects to maintain and 
repair (25 percent are more than 50-years old), cost attributable to 
having no data or poor data could be significant. These data are either 
unavailable in existing archives, are of uncertain or poor quality, or 
are too sparsely distributed temporally and/or spatially to have 
statistical value. The required data are regional in nature and not 
properly chargeable to authorized projects. Sufficient time is not 
available prior to or during project preauthorization planning studies 
to accumulate the years of base-line data necessary for adequate 
assessment of technical, economic, and environmental feasibility. 
Acquisition of the information will be accomplished through the 
concurrent accumulation of complementary items each of which is unique 
and contributes certain critically needed data. The value of program 
data and project-related data is maximized through the use of Corps-
wide standards, routine updating of available data, utilization of a 
centralized data library on the world wide web and dissemination over 
the Internet.
    Scientific and Technical Information Centers.--Public Law 99-802, 
Federal Technology Transfer Act of 1986 requires technology transfer 
from Federal agencies to the private sector. The fiscal year 1999 
request will be utilized to acquire, examine, evaluate, summarize, and 
disseminate newly published scientific and technical information 
generated within the Corps and other activities within the U.S. and 
abroad.
    Environmental Data Studies.--The fiscal year 1999 request will be 
utilized for the general, national or regional environmental data 
collection and statistical data summaries to include activities related 
to floods, droughts or climate change and variability and the 
development of information on the overall environmental program 
performance of the Corps.
    Flood Damage Data Collection.--The fiscal year 1999 budget request 
includes $500,000 to continue a program to improve the technical 
accuracy and quality of flood damage data including the relationship of 
flood characteristics to property damage. This program will facilitate 
the timely collection of data when a damaging event occurs and the 
development of a national flood damage database to support local, state 
and Federal studies and research. Additionally, the program is 
currently developing generic flood damage and property valuation 
relationships which could be used Corps-wide. This will result in 
shorter, less-costly flood damage reduction studies.
    Automated Information System Support--Tri-Service CADD/GIS 
Technology Center.--The fiscal year 1999 request of $650,000 for the 
Tri-Service CADD/GIS Technology Center represents the Civil Works share 
of the total $3.05 million required to operate and maintain this 
important center of expertise. The remainder of the total requirement 
is provided by the Navy, the Air Force, and from Army military 
appropriations, in accordance with a 1992 agreement, establishing a 
Tri-Service center in order to minimize duplication of effort of the 
three services. All phases of Corps work, including planning, real 
estate, design, construction, operations, maintenance and readiness 
benefit from CADD/GIS technologies.
                        research and development
    The fiscal year 1999 request for Research and Development (R&D) 
under General Investigations is $30 million. The Corps must pursue an 
aggressive R&D effort to take advantage of rapidly developing 
technologies and techniques that offer the possibility of significant 
monetary savings and greater reliability, safety, and increased 
efficiency. The added complexities of downsizing, environmental and 
social considerations, energy conservation, and the mounting concern 
with urban problems necessitate, more than ever, increased emphasis on 
new approaches and methods. The Civil Works R&D program is formulated 
to directly support the established business programs and strategic 
directions of the Civil Works Program including Flood and Coastal Storm 
Damage Prevention, Inland and Coastal Navigation, Environment, Water 
Supply, Hydropower, Emergency Management, Recreation, and Regulatory. 
The Civil Works R&D requirements are primarily user driven and the 
effort is essentially a problem solving process by which the Corps 
systematically examines new ideas, approaches, and techniques, with a 
view toward improving the efficiency of Civil Works planning, design, 
construction, operations and maintenance activities.
    Base Research and Development.--A major focus area of the fiscal 
year 1999 Civil Works Research and Development Program continues to be 
the Innovative Design and Construction Techniques for Navigation 
Projects Research Program. This multi-disciplinary research will 
include studies to develop new filling and emptying systems for locks 
and the use of alternative construction methods such as float-in, lift-
in, and underwater construction techniques for navigation projects. The 
results of these studies will provide the needed guidance for the 
implementation of innovative concepts that will result in rapid 
construction and modernization of navigation projects at a much reduced 
cost and with little or no impact to navigation during construction. 
This five-year research program will have the potential savings between 
$1.4 and $1.8 billion for the eleven navigation projects requiring 
major rehabilitation and modernization in the next 15 to 20 years on 
the Upper Mississippi River, Ohio River Main Stem, and Illinois 
Waterway systems. Development of cost-reducing design and construction 
techniques will permit the construction and rehabilitation of more 
navigation projects with limited funds in the Inland Waterways Trust 
Fund and will reduce the potential for major disruptions in inland 
navigation and decrease operating costs to the Nation's inland 
navigation industry. Another area of research focus is to develop new 
or enhanced technologies to extend the life and reduce future 
operational costs of Corps' Civil Works facilities. These technologies 
will be produced by developing high-performance materials and systems 
with major emphasis on reducing rehabilitation and maintenance costs. 
The results of this research will furnish the Corps with improved 
materials and technologies to ensure a continued high level of safety 
and reliability of Civil Works facilities and more economically design 
and construct required remedial and rehabilitation improvements. 
Potential partnership with industry and other Federal and state 
agencies is being actively pursued to leverage limited R&D resources. 
The recent Return-on-Investment Study indicated that the benefits of 
this type of high-performance materials research are generally six 
times greater than the research investment. A third major research 
focus area is on sediment management. Improved sediment management at 
Civil Works navigation and flood damage prevention projects offers 
tremendous potential for cost-reductions. Research in this area will 
focus on reduced sedimentation, optimizing channel depths and 
dimensions, reduced dredged material management costs and increased 
navigation system reliability. The Research Program will also focus on 
developing watershed/ecosystem level management and assessment 
technologies. This is a high priority field research need in a number 
of areas, including water management, emergency management, ecosystem 
restoration and regulatory functions such as cumulative impact 
assessments.
    The Civil Works R&D Program continues to provide practical end 
products and a high return on investment for the Corps and the 
taxpayer. The following are some examples of benefits derived from this 
program in fiscal year 1998:
    New computer-aided analysis tools were developed to support bearing 
pile analysis, automated method for design of steel in tainter gates, 
and for the layout of concrete arch dams. The field offices have 
identified annual savings of over $5 million through the reduction of 
man hours by using this suite of practical computer tools for each of 
the past 9 years.
    Guidance was provided for the design of earth embankments using 
reinforcement such as geosynthetics. While earth embankments are 
generally cost-competitive with sheet-pile walls, reinforced earth 
embankments are less expensive because the side slopes can be steeper; 
reducing the amount of right of way that must be acquired for 
construction. This benefit has not been previously realized because 
design and analysis procedures were inadequate. The improved design 
tools led to savings of $500,000 on the Sargent Beach Erosion 
Protection Project in the Galveston District.
    Developed shallow-draft coastal port design guidance for entrance 
channels subjected to waves for small commercial vessels. Experiments 
with two vessels, an Alaskan fishing boat and a New England lobster 
boat, were completed and guidance based on these experiments was 
developed to aid in the design of shallow-draft ports.
    New methods and associated three computer programs that greatly 
improve the efficiency and accuracy of planning, design, and operation 
of flood damage reduction projects and support field office flood 
damage reduction studies and reservoir operations were released.
    Developed criteria to improve channel depth and width design 
guidance to optimize deep-draft navigation entrance channel dimensions, 
taking into account hydrodynamic forces, ship motions, and the 
projected future international shipping fleet.
    Completed field guidance for design habitat corridors and buffer 
strips to reduce the effects of increasing impacts from commercial and 
private development on Corps projects.
    Completed field guidance for application of the U.S. Coast Guard 
Radio beacon System on Corps projects to improve navigation safety.
    Earthquake Engineering Research.--The fiscal year 1999 funding 
request for $2.65 million will be used to continue the Earthquake 
Engineering Research Program. This is a significant Federal R&D program 
focused on eliminating inadequacies in present seismic safety 
evaluation knowledge for dams and their appurtenant structures. The 
Corps may be required to expend more than $10 billion to assure 
adequate seismic performance of its 580 dams unless advancements 
continue to be made in earthquake dam safety analysis. Most Corps dams 
were built before seismic hazards were well understood. More than 200 
high hazard dams and 73 intake towers have been identified as subject 
to severe earthquake shaking; most of which would expose downstream 
populations to mortal hazard in the event of failure. Expensive 
remediation actions are being considered for many Corps dams. For 
example, Arkabutla, Enid, Wappapello, Success, and Tuttle Creek have 
been identified and the number is rising due to an increased seismic 
threat in the western U.S. Virtually all 73 intake towers at these 
projects would be judged inadequate with today's analysis techniques, 
which translates into about $7 billion in repair costs. Expensive 
remediation can be avoided or minimized in many cases by reevaluating 
the structure using improved methods of engineering analysis.
    This program offers the potential for vast cost savings in seismic 
remediation efforts by performing focused research to ensure that safe 
dams are not remediated and that dams that are unsafe are remediated as 
quickly, efficiently, and cost effectively as possible. For example, 
using the tools developed in this research program, the nation will 
realize: $100 million remediation costs avoidance for each intake tower 
found to be safe with new methods; a $200 million cost avoidance for 
each concrete dam and $50 million for each embankment dam found to be 
safe with more advanced analytical methods. There will also be reduced 
uncertainty in seismic damage to dams and increased safety for all 
Corps dams.
    Significant accomplishments in fiscal year 1998 included: published 
guidance on selecting three-dimensional design earthquake ground 
motions for design of new and remediation of existing water resource 
facilities; conducted in-flight cone penetration measurements before 
and after liquefaction in centrifuge soil models (a historical first); 
conducted preliminary centrifuge experiments to investigate the extent 
of damage to an embankment dam founded on liquefiable materials; 
developed simplified analysis procedures for intake towers and outlet 
works using results of physical experiments conducted in fiscal year 
1996 and fiscal year 1997 which revealed new failure mechanisms that 
had not been included in traditional analysis methods and quantified 
(another historical first) ductility available in these lightly 
reinforced concrete structures essential to reservoir control; 
conducted cooperative full-scale shaking experiment of a concrete dam 
in China to contribute to field quantification of subbottom absorption 
and its effect on hydrodynamic pressures and dam-foundation-reservoir 
response to dynamic loads; and developed material constitutive model to 
predict the nonlinear structural response caused by cracking and large 
displacements in concrete materials. These research accomplishments 
were presented at workshops, conferences, seminars, Corps classes, on 
the Internet and in technical publications.
    Zebra Mussel Control Research Program (ZMRP).--Funds are being 
requested in the amount of $1.5 million for fiscal year 1999 to 
continue this extremely high-priority program. The ZMRP is the only 
Federally authorized program which addresses control of zebra mussels 
and their effects on public facilities. The development of strategies 
to apply control methods involve engineering design, operations, and 
maintenance of facilities and structures. Control strategies are being 
developed for navigation structures, hydropower and other utilities, 
vessels and dredges, and water treatment, irrigation and other control 
structures. The zebra mussel has spread throughout the eastern half of 
the U.S. and threatens the rivers and water supply systems of the 
western States. Over $100 million is spent annually to prevent 
catastrophic shutdown of public facilities. This cost will increase to 
over one billion dollars annually, as numbers of zebra mussel increase 
in the Lower Mississippi River and spread to southeastern and western 
states. Methods of prevention and more effective, inexpensive methods 
of control must be developed. Existing research areas include the 
development of antifoulant coatings, filter systems, the use of 
electrical fields, the development of environmentally compatible 
biocides, and biological control using microorganisms. The program is 
transferring this technology through the development of a computer 
based information system and engineering handbooks for facility 
managers and operators of locks and dams, water supply and treatment 
facilities, power plants, and vessels which will identify the 
vulnerability of their facility and provide control options. Fiscal 
year 1998 accomplishments included development of specifications for a 
non-toxic, foul-release coating; new criteria documents for use of 
thermal spray and paint coatings to control zebra mussels; and joint 
studies with Russian scientists using thermal spray shock applied 
underwater to control infestations. The resulting technology will be 
directly applicable as control measures for a wide variety of impacted 
facilities and will preclude the costly necessity of plant shutdowns, 
dewatering and dry docking associated with current control 
technologies.
    Characterization and Restoration of Wetlands Research Program.--
Funding in the amount of $1.85 million is requested for this critical 
program in fiscal year 1999. The Corps has been designated as the lead 
Federal agency to develop and implement the Hydrogeomorphic (HGM) 
approach to wetlands functional evaluation. In response to this 
directive, the research program is focused on the development of both 
national and regional models to assess the functions and values of our 
nation's wetlands. This information will be used directly by Corps 
Civil Works projects in NEPA compliance, in Section 404 regulated 
activities involving wetlands and in the successful restoration and 
creation of wetlands. Major research focus areas include regional 
wetlands functional assessments and delineations; innovative 
construction techniques, structures and equipment for wetland- and/or 
region-specific applications; and development of contract-ready design 
criteria for wetlands restoration. Major accomplishments for fiscal 
year 1998 included completion of three national and 13 regional 
wetlands HGM models which will be useful in defining technically 
appropriate mitigation requirements for wetland actions under 404 
permits; publication of the HGM National Action Plan, prioritizing 
wetlands types for study, distribution of products and training of 
government users; and completion of contract-ready design criteria for 
wetlands restoration in selected freshwater and coastal wetlands 
systems.
    Engineering and Environmental Innovations of National 
Significance.--Section 212 of the Water Resources Development Act of 
1996 (WRDA 96) authorizes the Secretary of the Army to undertake 
investigations of such innovative technologies that may lead to work 
new under existing authorities or to recommendations for additional 
authorities. Fiscal year 1999 funding of $600,000 is requested to 
continue this important provision. The following work initiated in 
fiscal year 1998 will be completed in fiscal year 1999: cost-effective 
technologies and protocols for contaminated bottom sediments 
remediation associated with existing Corps navigation projects, as 
authorized by Section 205 of the WRDA 96; development and demonstration 
of a state-of-the-art Watershed Management Support System comprised of 
integrated technology capabilities representing advanced data 
acquisition and management systems, geo-ecophysical models and decision 
support technologies; and development of technologies and guidance to 
support EPA Brownfields economic revitalization initiatives associated 
with Corps Civil Works projects. During fiscal year 1999, work will 
also be initiated to develop field guidance on regional sediment 
management strategies, protocols, and technologies for application to 
both coastal and Great Lakes environments.
    Total Civil Works Research and Development Funding.--The conference 
report, House Report number 102-177, accompanying the fiscal year 1992 
Energy and Water Development Appropriations Act stated the conferees 
concern with the trend of spreading research related programs 
throughout several appropriation accounts in the Civil Works budget 
request, and directed the Corps to work with the committees to address 
this issue. In response to this interest by the committees the 
following table has been developed to provide a consolidated display of 
all Civil Works research and development activities for which there is 
a request for funding in the fiscal year 1999 budget:

        Account and Activity                               Dollar amount
General investigations:
    Base Research & Development.........................     $23,400,000
    Earthquake Engineering..............................       2,650,000
    Zebra Mussel Control Research Program...............       1,500,000
    Characterization & Restoration of Wetlands..........       1,850,000
    Engineering & Environmental Innovations (WRDA 96)...         600,000
Construction, general: Aquatic Plant Control............       2,600,000
Operation and maintenance, general:
    Coastal Inlet Research..............................       4,000,000
    Dredging Operations & Environmental Research........       8,000,000
    Civil Works Management Tools........................         600,000
General expenses: Coastal Engineering Research Board....         324,000
                    --------------------------------------------------------
                    ____________________________________________________
      Grand total.......................................      45,524,000
        activities under the construction, general appropriation
                         continuing authorities
    The fiscal year 1999 request for the six Continuing Authorities 
funded under Construction, General is $47 million. This is a decrease 
of $16.4 million from the fiscal year 1998 allocation. The request 
covers funding of planning, design, and construction to provide 
solutions to flood control and emergency streambank erosion problems 
under the Section 205 and Section 14 programs, navigation problems 
under the Section 107 program, shoreline damage problems under the 
Section 103 and Section 111 programs, and clearing and snagging 
problems under the Section 208 program. Under our Continuing 
Authorities Program, projects are accomplished expeditiously and result 
in a high level of customer satisfaction. Continuing Authorities 
projects continue to be an important segment of our total water 
resources infrastructure investment program.
                      inland waterways users board
    Funds are requested for fiscal year 1999 in the amount of $230,000 
for the Inland Waterways Users Board activity. Section 302 of the WRDA 
86, created this eleven-member advisory board of inland waterway users 
and shippers to make recommendations to the Secretary of the Army and 
the Congress regarding construction and rehabilitation priorities and 
spending levels for commercial waterway improvements. The Board members 
were initially appointed in late Spring of 1987. The Board has held 
thirty-one meetings since it was created. The Board's recommendations 
are a valuable addition to our program and budget development process. 
We appreciate the contribution of the Board's chairman and its members 
to the efficient management and modernization of our inland waterways. 
We believe the Board provides an important advisory function to both 
the Secretary of the Army and the Congress.
        project modifications for improvement of the environment
    Funds are requested for fiscal year 1999 in the amount of $5.3 
million for Project Modifications for Improvement of the Environment 
authorized by Section 1135 of the WRDA 86, as amended. This is a 
decrease of $14.6 million from the fiscal year 1998 allocation. These 
funds will be used to determine the need for structural or operational 
modifications of Corps projects for the purpose of improving the 
quality of the environment. Section 1135 projects contribute to 
achievement of national and regional program goals for ecosystem 
restoration.
                  beneficial uses of dredged material
    The fiscal year 1999 request includes funds in the amount of 
$200,000 for Beneficial Uses of Dredged Material authorized by Section 
204 of WRDA 92. This is a decrease of $1.7 million from the fiscal year 
1998 allocation. These funds will be used to carry out projects for the 
protection, restoration, and creation of aquatic and ecologically 
related habitats and wetlands in connection with dredging projects. The 
program provides an attractive alternative solution for the frequently 
difficult problem of determining where to place dredged material.
                     aquatic ecosystem restoration
    Funds in the amount of $2 million are requested for fiscal year 
1999 for Aquatic Ecosystem Restoration authorized by Section 206 of 
WRDA 96. This is a decrease of $3.6 million from the fiscal year 1998 
allocation. These funds will be used to carry out projects for aquatic 
ecosystem restoration and protection to improve the quality of the 
environment.
                     aquatic plant control program
    The fiscal year 1999 request includes funds in the amount of $2 
million for the Aquatic Plant Control Program authorized by Section 104 
of the Rivers and Harbors Act of 1958, as amended. This is a decrease 
of $2.7 million from the fiscal year 1998 allocation. These funds will 
be used to continue research efforts for aquatic plant control 
technologies to support operation and maintenance of Corps Water 
Resources projects. Primary research efforts are focused on the non-
indigenous submersed species, hydrilla and Eurasian watermilfoil, with 
emphasis on development of biological control agents.
              dredged material disposal facilities program
    Funds in the amount of $2 million are requested for fiscal year 
1999 to initiate the Dredged Material Disposal Facilities Program. 
Section 101 of WRDA 86, as amended by Section 201 of WRDA 96, 
established consistent cost sharing for construction of dredged 
material disposal facilities associated with Federal navigation 
projects, including disposal facilities for Federal project 
maintenance. Funds requested for fiscal year 1999 will be used for the 
Federal share of construction of applicable dredged material disposal 
facilities required for maintenance of existing projects, reimbursement 
of non-Federal sponsors for dredged material disposal facilities 
constructed by them in advance of Federal appropriations for such 
purpose, or fee payments to private entities for the use of privately 
owned dredged material disposal facilities if such a facility is the 
least cost alternative to dispose of dredged material. All costs for 
dredged material disposal facilities associated with project 
maintenance will be reimbursed from the Harbor Maintenance Trust Fund.
       flood hazard mitigation and riverine ecosystem restoration
    The fiscal year 1999 request includes funds in the amount of $25 
million for the Challenge 21 initiative, the Corps' Flood hazard 
Mitigation and Riverine Ecosystem Restoration Program. As proposed for 
inclusion in this year's Water Resources Development Act, this 
initiative expands the use of non-structural flood hazards mitigation 
options to achieve the dual purposes of flood damage reduction and 
restoration of the functions and values of riverine ecosystems. 
Projects might include the relocation of threatened homes or 
businesses, conservation or restoration of wetlands and natural 
floodwater storage areas and planning for responses and solutions to 
potential future floods. Although focused on non-structural 
alternatives to flood protection, a Challenge 21 project could, where 
appropriate, include structural pieces. Challenge 21 builds on existing 
programs and initiatives, uses a watershed approach and initiates and 
expands partnerships with other Federal agencies (particularly FEMA, 
NRCS and USFWS) and non-Federal public entities. Candidate projects 
might be areas where frequent or severe flooding has occurred, 
emergency assistance has been necessary, flood hazards have increased 
due to changes in hydrologic and hydraulic regimes, development is 
encroaching on and altering flood plains and important floodplain 
functions and values need maintenance or restoration. Cost sharing will 
be 50 percent Federal and 50 percent non-Federal for studies and 65 
percent Federal and 35 percent non-Federal for design and 
implementation.
                        employees' compensation
    The fiscal year 1999 request includes $18.3 million for transfer to 
the Department of Labor to repay the Employees' Compensation Fund for 
costs charged during the period July 1, 1996 through June 30, 1997 and 
for investigation of fraudulent claims for workers compensation 
benefits. This is an increase of $241,000 over the fiscal year 1998 
allocation. The transfer to the Department of Labor is for payment of 
benefits and claims due to injury or death of persons under the 
jurisdiction of the Corps of Engineers civil functions.
 activities under the operation and maintenance, general appropriation
                    coastal inlets research program
    The fiscal year 1999 budget includes $4 million to fund the Coastal 
Inlet Research Program, a short-term focused program to increase Corps 
capabilities to cost-effectively design and maintain the over 100 inlet 
projects which comprise the bulk of coastal operations and maintenance 
(O&M) expenditures. Because of their complex nature, the behavior of 
inlets is poorly understood. So little is known about inlet behavior 
and response that it is possible that the Corps is spending much more 
of its O&M budget than necessary to maintain inlet projects. The 
Coastal Inlets Research Program is evaluating functional aspects of 
inlets such as their short- and long-term behavior and their response 
to waves, tides, currents, and man-made changes, given their geologic 
make-up. As inlet behavior becomes better understood, sophisticated 
tools for management of inlets for navigation projects, such as models 
and empirical relationships, will become available from the research 
program.
    With our fiscal year 1998 allocations we plan to: (a) complete 
development of empirical relationships to predict scour depths and 
related structural stability due to outgoing tides around coastal 
structures; (b) develop a preliminary sediment budget methodology, an 
essential tool for effective sand management at and adjacent to inlets; 
(c) complete study of inner bank erosion mechanisms which will assist 
in revised designs to increase project stability and reduce 
sedimentation into the navigation channels from adjacent banklines; and 
(d) complete study of shoal removal methodologies aimed at minimizing 
impacts on downstream shorelines and navigation channels.
     dredging operations and environmental research program (doer)
    An allocation of $8 million is requested in fiscal year 1999 to 
continue this eight-year program. The objective of DOER is to balance 
environmental and operational requirements while economically 
maintaining a viable navigation system. Research is required to address 
operations and environmental demands in six major areas: contaminated 
sediment characterization and management; instrumentation for 
monitoring and site management; near-shore placement of dredged 
materials at coasts, estuaries and rivers; environmental windows for 
dredging operations; innovative equipment and technologies 
demonstrations; and, environmental risk management for dredging and 
disposal activities. Benefits will include application of environmental 
windows, cost-effective identification and management of contaminated 
sediments, greater flexibility for dredging in sensitive ecological 
areas, and expanded options for beneficial uses of dredged materials.
    By the end of fiscal year 1998, we will have (a) produced cost-
effective rapid screening methods for high profile toxic substances 
(e.g., dioxin) for wide application to Corps projects, (b) developed a 
risk characterization document for application to dredging and dredged 
material disposal impact assessment, (c) formulated the technical and 
managerial requirements for an automated dredging and dredged-material 
disposal performance system for pipeline and hopper dredges, and (d) 
began a cooperative assessment of seasonal dredging restrictions, a 
major issue for many Corps districts, with the evaluation of the 
effects of turbidity and entrainment effects at dredging and disposal 
sites on marine organisms. In addition, DOER identified existing 
confined dredged-material disposal facilities containing marginally 
contaminated sediments and applied an assessment framework for removal 
for beneficial use and increased capacity purposes.
          dredging operations technical support (dots) program
    DOTS is a continuing program with a fiscal year 1999 budget request 
of $2 million to provide technical assistance and technology transfer 
of general use at all dredging projects. The on-going DOTS program, 
formed in 1978, supplies direct environmental and engineering technical 
support to all Corps elements in support of maintenance dredging 
projects; training of Corps staff on the latest environmental and 
engineering techniques associated with dredging and dredged material 
management; short-term work efforts to address generic Corps-wide 
technical dredging and dredged material disposal problems; and 
technology transfer of new and emerging techniques in assessment and 
management of dredged material for determining compliance with 
environmental protection statutes.
    The expertise obtained through the DOTS program is not available 
through any other source. As technical personnel at the district level 
continue to be lost to private industry, the DOTS program is called 
upon more frequently to accomplish technical support for maintenance 
dredging and disposal projects. The state-of-the-science for testing 
and evaluating dredged material is advancing more quickly than our 
ability to interpret the data for decision-making. The DOTS program 
supports scientists in a centralized location for mobilization at Corps 
projects. Highly contaminated sediments continue to be found at Corps 
projects such as dioxin at the Port of New York/New Jersey. The Corps 
must maintain the technical capability through the DOTS program to 
respond to such issues.
    Ongoing dredged material management tasks include assistance in 
using implementation manuals for the Clean Water Act and the Marine 
Protection, Research, and Sanctuaries Act. Guidance is being developed 
for the application of techniques and methodologies for the management 
of contaminated dredged material to include risk management, equipment 
selection, confined disposal facility management, and quality 
assurance/quality control guidance. As computer information sciences 
advance, the DOTS program is keeping pace by integrating all dredging 
information, research results, dredging related databases, and other 
dredging information computer systems into a central repository 
accessible through the Internet.
               monitoring of coastal navigation projects
    The fiscal year 1999 request of $2 million for Monitoring of 
Navigation Projects will provide for the continuing program of 
monitoring critical engineering parameters of selected coastal and 
inland navigation projects to determine and analyze project-induced 
changes in topography, currents, tidal stages, and other physical 
processes phenomena. The data collected and analyzed are used to 
evaluate project performance in relation to design, operation, and 
maintenance expectations. These evaluations are then used to develop 
improved designs for navigation projects or desirable modifications in 
their operation or maintenance modes. Studies are performed at the 
local level to evaluate project performance and physical processes 
response in relation to the particular needs of each project. 
Additionally, the information is collected and analyzed from a Corps-
wide perspective to document successes and the sometimes costly lessons 
learned and to transfer the information into guidance for field and 
management staff. The information developed by this program is made 
available to other federal, state, and local agencies concerned with 
planning and regulating the conservation, development, and use of 
coastal and inland waterway resources.
                  cultural resources (nagpra/curation)
    The Native American Graves Protection and Repatriation Act of 1990 
addresses the recovery, treatment, and repatriation of Native American 
and Native Hawaiian cultural items by Federal agencies and museums. 
Cultural items are defined as human remains and associated and 
unassociated items having to do with funerals and/or burials, sacred 
objects, and objects of cultural patrimony. The Department of the 
Interior has developed regulations for compliance with the provisions 
of this Act and the Corps is requesting funds because of the immediate 
impacts and reporting requirements the regulations impose. In fiscal 
year 1998, Corps field offices are continuing an inventory of those 
cultural items which were started in prior years. Information will be 
made available to interested individuals and groups through notices in 
the Federal Register. Corps field offices will engage in formal 
consultation with recognized tribes to repatriate cultural objects for 
which there are claims consistent with the provisions of the Act and 
implementing regulations. In addition, the Corps has established the 
St. Louis District as a center of expertise (MCX) for curation because 
of the large volume of cultural resource materials collected from Corps 
flood control projects. The MCX is also continuing a partnership effort 
with the Department of Defense to identify suitable facilities to house 
Corps and DOD collections according to the standards established by the 
Department of the Interior. The fiscal year 1999 budget request 
includes $2 million to continue this program.
                      national dam safety program
    The National Dam Safety Program Act (Public Law 92-367 as amended) 
designates FEMA as lead agency in all efforts to enhance national dam 
safety. The National Dam Safety Program is coordinated through the 
Interagency Committee of Dam Safety (ICODS). The Chief, Engineering 
Division, Directorate of Civil Works, represents the Department of 
Defense as a member of ICODS. The Corps and FEMA signed a Memorandum of 
Understanding for the purpose of establishing responsibilities for 
management and administration assistance in the implementation of the 
National Dam Safety Program. FEMA acting through ICODS will provide 
support in development of Federal guidelines for dam safety, promotion 
of public awareness programs, publications, training materials, the 
National Performance of Dams Program, and workshops. The fiscal year 
1999 budget request includes $40,000 to continue this participation.
   national recreation management support (nrms)--(formerly natural 
                  resources technical support (nrts))
    Changed from ``Natural Resources Technical Support (NRTS)'' to 
reflect more clearly the scope of conducted activities, NRMS is a 
continuing program to provide technical assistance and support to the 
Corps recreation business function which generates about $34 million 
dollars in Special Recreation Use Fees, annually. Visitors spend over 
$12 billion annually to engage in recreation at Corps projects. Over 
600,000 full and part time jobs are associated with this spending. Our 
fiscal year 1999 allocation request for this program is $1.85 million.
    NRMS supports the conduct of focused management studies and reports 
on recreation related issues. It provides assistance in the transfer 
and application of technology to solve immediate technical problems of 
national scope, including the establishment of an Internet Website in 
fiscal year 1999 to facilitate technology transfer for recreation 
issues. We have contracted for the National Recreation Reservation 
Service, in coordination with the USDA Forest Service and the 
Department of Interior, to provide toll-free telephone and Internet 
reservation services for our public recreation facilities and programs 
nationwide. We expect this service to be operational in early fiscal 
year 1999.
           water operations technical support (wots) program
    The fiscal year 1999 budget request includes $850,000 for the WOTS 
Program. This will provide effective environmental and water quality 
engineering technology to address a wide range of water resource 
management problems that can be applied throughout the Corps system of 
over 540 reservoirs, hundreds of miles of ancillary waterway projects 
and thousands of miles of rivers impacted by the operation of Corps 
projects. Technology is provided to address problems occurring from the 
presence of non-indigenous species, tailwater fisheries at pump-back 
hydropower projects, water quality impacts of shoreline erosion and 
reservoir sedimentation, and dozens of other project operations related 
environmental and water quality issues.
                        protection of navigation
    The fiscal year 1999 budget request for Protection of Navigation 
totals $6.6 million and includes funding for the following five 
continuing programs under this category:
    (1) $1,075,000 for the Dredging Data and Lock Performance 
Monitoring System which provides data for efficient management of 
navigation projects consistent with federal laws regarding execution of 
our dredging program. The program also includes a continuing evaluation 
of local conditions and performance measures throughout the navigation 
system to facilitate traffic control and critical management decisions.
    (2) $50,000 for work pursuant to the authority provided in Section 
3 of the 1945 River and Harbor Act to protect, clear and straighten 
channels in navigable waters for small projects not specifically 
authorized by Congress.
    (3) $500,000 for removal of sunken vessels and other obstructions.
    (4) $4,400,000 for the collection of waterborne commerce statistics 
pertaining to rivers, harbors, and waterways, and publication of such 
data.
    (5) $575,000 for collection of Harbor Maintenance Trust Fund Fees.
             national emergency preparedness program (nepp)
    Preparedness for response to national emergencies, including 
catastrophic disasters, is a fundamental Governmental obligation. From 
support to national mobilization during World War II through response 
to events such as Hurricane Andrew, the Northridge Earthquake and the 
1993 Midwest Floods, the importance of the Corps role associated with 
this responsibility has been amply demonstrated.
    The NEPP is the civil component of the Corps National Security 
Emergency Program and a vital element of Corps readiness. The program 
provides the capability to rapidly and effectively respond to a broad 
spectrum of catastrophic technological and natural disasters, having 
national implications, as well as the capability to satisfy Corps 
requirements associated with anti-terrorism initiatives. The Flood 
Control and Coastal Emergencies (FC&CE) (another Civil Works 
appropriation account) and NEPP programs are complementary. However, 
the NEPP supports planning and preparation for scenario specific 
catastrophic disasters (natural and technological) of national 
proportions. Additionally, NEPP planning goes beyond disaster response 
to include planning for the Continuity of Operations/Government, 
Emergency Water Program, anti-terrorism programs directed at Corps 
projects and other national disaster preparedness and recovery 
activities. The high level and broad spectrum of preparation associated 
with the NEPP provides synergistic benefits to FC&CE funded efforts.
    A substantial portion of the NEPP funding pays for the salaries of 
the emergency planners who lead the catastrophic and anti-terrorism 
planning and functional personnel (e.g. engineering, contracting, etc.) 
who provide supporting data and plans. The planners also coordinate and 
conduct exercises with Federal, state and local governments and, during 
emergencies, serve as part of the emergency response teams which 
coordinate the Corps response. These personnel and their activities 
have enabled the Corps to respond effectively to disasters such as 
Hurricane Andrew and the Northridge Earthquake. Absent the readiness 
funding that supports these activities, the Corps response to these and 
other similar events would not have been as capable nor as timely. The 
$6 million requested in fiscal year 1999 for the NEPP will enable us to 
maintain our current, minimal, levels of preparedness while continuing 
to develop catastrophic disaster preparedness and anti-terrorism 
related activities.
    earthquake hazards reduction program for buildings and lifelines
    Public Law 101-614 requires the Corps, among other Federal 
Agencies, to establish and initiate for buildings and lifelines a 
systematic approach to reducing loss of life, injuries, and economic 
costs resulting from earthquakes in the United States. Lifelines are 
defined as public works and utility systems. The Corps main lifeline 
functions include waterways transportation, hydroelectric power, and 
water supply. The Earthquake Hazards Reduction Program for Buildings 
And Lifelines provides for the single source management of funds for: 
(a) preparation of guidance and training for district personnel to 
conduct seismic evaluations, (b) performance of seismic evaluations and 
development of mitigation cost estimates, (c) development of the 
required inventory data for Corps owned or leased buildings, (d) 
assistance to the districts participating in the program, and (e) 
assuring uniformity in the results.
    Executive Order 12941, Seismic Safety of Existing Federal Buildings 
directs all federal departments and agencies to develop by December 1, 
1998, an inventory of their owned and leased buildings and an estimate 
of the cost of mitigating unacceptable seismic risks in their 
buildings. The completion of the inventory data and the mitigation cost 
estimates are scheduled to be completed in fiscal year 1999. To support 
the follow-up seismic mitigation program for buildings and lifelines, 
this program has been extended to fiscal year 2002 at minimal funding. 
The fiscal year 1999 budget request for this program is $2 million.
           management tools for civil works research program
    Federal deficit reduction measures mandating budgetary constraints 
are likely to continue well into the future. Because the funding 
requests for operating and maintaining Corps projects significantly 
outstrip the reasonably anticipated resources, an objective and 
consistent prioritization procedure is essential. This prioritization 
requirement is complicated by the diversity and size of the O&M 
projects. The performance-based budget requirement is also an impetus 
for this research program. This research will develop a performance-
based return-on-investment (ROI) model and procedure for prioritization 
and ranking of the maintenance activities of the annual Civil Works O&M 
budget. The need for a performance-based procedure has been validated 
by several recent initiatives including: the Government Performance and 
Results Act (1993), Corps Performance Measurement Guidebook (1995), 
Corps full service Civil Works vision and focus, and the Corps 
Operation and Maintenance Cost Savings Initiative (1997). The product 
of this research will provide an objective and consistent procedure for 
both O&M budget prioritization and other issues including the impact of 
O&M funding shortfalls on project effectiveness and the impact of 
deferred maintenance on operation expenditures. Funding in the amount 
of $600,000 is requested to initiate this critically needed research.
        mississippi river basin mainstem model development (mrm)
    The Great Flood of 1993 demonstrated the need for the Corps to 
develop an integrated model to operate and manage flood control 
projects under a wide spread storm system covering a geographic region 
as large as the Upper Mississippi and Lower Missouri River basins. Such 
a model will enable the Corps to compute the real-time flow and stage 
data along various river reaches during flood events, assess the extent 
of impacts due to levee failures, and to facilitate communications 
between Corps offices, other agencies and with Corps customers.
    Sub-models for the individual river reaches in St. Paul, Rock 
Island, St. Louis, Omaha, and Kansas City Districts and lower 
Mississippi River from Cairo to the Gulf outlet have now been 
developed. In fiscal year 1999 we will (a) incorporate the digital 
terrain elevation data (DEM) acquired in 1998 in the MRM, (b) update 
model cross-sectional data, recalibrate and validate MRM, facilitate 
interface of MRM output with DEM in generating innundation mapping, and 
(d) provide coordination.
    Fiscal year 1999 is the final year for the MRM program as we 
complete the integrated systemic model, thoroughly test in real-time 
mode, and recalibrate and validate with up to date terrain data. The 
fiscal year 1999 budget request to complete this program is $2 million.
          performance based budgeting support program (pbbsp)
    The Government Performance and Results Act (GPRA) requires that 
agencies implement performance based budgeting for their programs such 
as the Civil Works Operation and Maintenance, General program. The 
PBBSP addresses this requirement by seeking new methods for linking 
performance to annual budget requests and for analyzing the potential 
economic impact of budget requests on customers who use Corps projects. 
The fiscal year 1999 request to fund this work is $515,000.
          reliability models program for major rehabilitation
    The budget request also includes $675,000 for the Waterways 
Experiment Station to support districts with a Reliability Models 
Program for Major Rehabilitation. These models are used by the 
districts to prepare reports for projects submitted under the Major 
Rehabilitation Program. The Reliability Models Program is varied yearly 
to respond directly to field needs for the fiscal year and to assist in 
the preparation of reliability analyses for projects as requested by 
the districts. Some examples include reliability models needed for 
determining sliding stability parameters for difficult foundation 
conditions, conducting stress analyses of hydropower turbine blades and 
shafts, and evaluation of structural integrity based on recent flood 
data. Virtually every major rehabilitation report submitted since 
fiscal year 1993 has utilized this program to prepare the reliability 
analyses required for the report. This is a continuing program with an 
estimated average annual cost of $675,000.
         activities under the regulatory program appropriation
    The fiscal year 1999 Regulatory Program budget request is $117 
million. This is an $11 million increase over the fiscal year 1998 
appropriated amount.
    This Spring, we will publish, for public comment, our new 
nationwide permits under the Regulatory Program. These are replacement 
permits for nationwide permit 26 which expires at the end of this year. 
In December 1996, the Corps revised nationwide permit 26 to reduce the 
limits of filling in isolated waters and above headwaters from 10 acres 
to 3 acres. Our experience with the 10-acre limit warranted the 
reduction to 3 acres to lessen impacts on the aquatic environment. The 
replacement permits will authorize specific fill activities.
    We are committed to insuring that the Corps' nationwide permits 
support the President's Wetlands Plan by assuring environmental 
protection while maintaining or enhancing our responsiveness to the 
regulated public.
    In fiscal year 1997, the Corps processed more than 85,000 
documented permit actions, an increase of 34,000 from five years 
earlier. Of these 85,000 actions, 94 percent were approved under 
nationwide or regional general permits in less than sixty days. This 
was the same percentage as in fiscal year 1996 and the first time this 
decade that we did not improve from the year before. We are beginning 
to experience a leveling off in performance although the fiscal year 
1998 appropriation of $106 million, after three years at $101 million, 
is helping to restore some of the personnel vacancies in the district 
offices. Our fiscal year 1999 budget request includes $3 million to 
cover personnel cost increases associated with this labor-intensive 
program. As permit numbers increase each year, we are finding it 
difficult to maintain the performance standards we believe the public 
expects and deserves.
    We again propose the establishment of a full administrative appeals 
program. We will implement a program for review of permit denials by 
the end of this fiscal year. This will allow applicants to challenge 
denials without the need for time-consuming and costly litigation. In 
fiscal year 1999, with the requested funding, we would expand the 
program to include review of appeals of Corps jurisdiction 
determinations. We estimate there will be about 100 denial appeals and 
5,000 jurisdiction appeals per year. The total cost for the full 
administrative appeals program is about $5 million per year.
    The budget request includes about $3 million to develop watershed 
management plans and other cooperative efforts with state and local 
governments. Wherever state and local authorities can increase their 
regulatory role for aquatic resources, Corps workload can be reduced. 
We have been particularly successful with programmatic general permits 
which transfer to the states permitting responsibilities in certain 
areas.
    We plan to implement the Wetlands Delineator Certification Program 
in fiscal year 1999. This program will create a nationwide pool of 
certified non-Federal wetlands delineation experts. With start-up costs 
of about $500,000, the program will yield future cost savings because 
of reduced delineation workload for the Corps.
    Our regulations on excavation activities are currently the subject 
of judicial review. In January 1997, the Federal District Court held 
that the Corps ``Tulloch Rule'' was invalid and ordered the Corps to 
not apply the rule where regulation was solely based on incidental 
fallback of excavated material. The Corps continues to regulate most 
excavation activities after a stay of the order was granted by the 
Federal Circuit Court last June. The issue is on appeal and we expect a 
final decision this Spring. In the 1980's, there was an increase in 
actions to fill or clear wetlands by methods that were not clearly 
regulated by our existing regulations. Since issuing the Tulloch Rule 
in 1993, the Corps has been consistently regulating these activities 
nationwide. These activities include all ditching, mining in waters of 
the U.S., and most land clearing.
    Corps jurisdiction over isolated waters has been challenged by the 
Fourth Circuit of the U.S. Court of Appeals decision on the Interstate 
General Corporation, or ``Wilson,'' case. On December 23, 1997, the 
Court ruled that the Corps exceeded its authority when it extended its 
jurisdiction under the Clean Water Act to isolated waters, including 
isolated wetlands, without documenting a connection to interstate 
commerce (e.g., actual use by migratory birds). The Corps and the 
Justice Department are reviewing the Government's options regarding 
this decision.
    We have proposed language for inclusion in this year's Water 
Resources Development Act which would raise permit fees for commercial 
projects. This would help recover some of the costs associated with the 
review of more complex projects. Under the revised fee system, which 
would be based on the complexity of a project, we expect about $14 
million to be collected during the first full year of operation.
      activities under the flood control and coastal emergencies 
                             appropriation
    The Corps continues to provide leadership in response to natural 
disasters and, therefore, must maintain a preparedness program that 
meets the needs of the Nation. Although no new funds are requested for 
fiscal year 1999, carryover of fiscal year 1997 Supplemental funds, 
contingent on the number of disasters to be funded in fiscal year 1998, 
will provide for the basic requirements of the preparedness program.
    The Corps responsibility for emergency response requires that its 
engineering, construction, and emergency operations capabilities are 
maintained. Therefore, the level of funding must be sufficient to 
support an organization capable of responding to both natural and man-
made disasters: hurricanes, floods, earthquakes, and other disasters, 
such as contaminated public water supplies and terrorist acts. The 
anticipated carryover of fiscal year 1997 Supplemental funds for use in 
fiscal year 1999 will support baseline preparedness and operations in 
response to life threatening situations and protection and restoration 
of critical infrastructure necessary for public health and safety. This 
basic level of funding for fiscal year 1999 may require supplementation 
in the event of a major disaster.
    Activities in this program include: the review and updating of 
response plans to maintain readiness; training to ensure our capability 
to respond under adverse circumstances; procurement and pre-positioning 
of critical equipment and supplies such as sandbags and pumps, which 
are not likely to be available during initial stages of a response; 
periodic exercises to test and evaluate plans, personnel and adequacy 
of training; inspection of non-federal flood control projects to ensure 
their viability to provide flood protection; laboratory support for 
field operations; and the overall management of the response program to 
ensure workable, coordinated efforts are undertaken in a timely manner.
    In addition, work continues on comprehensive interagency response 
planning activities. These activities support the FEMA's Federal 
Response Plan for providing engineering and construction support 
following major disasters, such as recurring floods in the Midwest and 
Western states, major hurricanes, such as Andrew and Fran, and the 
Northridge Earthquake. In support of FEMA's disaster response and 
recovery activities, our mission assignments have included: emergency 
debris removal; temporary housing; emergency water; restoration of 
infrastructure; temporary power; construction management; and other 
support which uses Corps engineering, contracting, and construction 
expertise.
 activities under the formerly utilized sites remedial action program 
                                (fusrap)
    Since receiving responsibility for FUSRAP administration and 
execution with enactment of the Energy and Water Development 
Appropriations Act, 1998, last October, the Corps has moved rapidly, 
first, to insure that no slippage would occur at any site as result of 
the transition from Department of Energy, and second to develop 
schedules and funding requirements by site to maximize potential 
savings and accelerate completion schedules. The Corps has concluded 
that the 2002 target completion date established in the Department of 
Energy's (DOE's) accelerated clean-up plan was not realistic. It did 
not clean-up the Niagara Falls Storage Site; it greatly underestimated 
the quantity of hazardous wastes at the Lucky site; and it did not 
recognize the potential for ground water contamination.
    The Corps fiscal year 1999 FUSRAP request will permit the Corps to 
complete three projects and possibly a fourth one. It also fully funds 
the requirements at those projects which are at the site 
characterization/site investigation stage prior to the development of a 
cleanup plan and provides sufficient funding to continue the 
remediation efforts at all other sites.
          activities under the general expenses appropriation
    The General Expenses (GE) appropriation provides for the executive 
direction and management of the overall Civil Works program through the 
Office of the Chief of Engineers and the regional Major Subordinate 
Commands. The primary purpose of the GE account is to provide 
definitive policy guidance, program management, regional and national 
interface, and quality assurance and oversight for all Corps activities 
toward execution of a comprehensive Civil Works program. The fiscal 
year 1999 budget request for the GE account is $148 million, consistent 
with the fiscal year 1998 funded level. Within this amount the Corps 
will be absorbing inflation and increases in personnel compensation and 
agency benefits contributions.
    The GE account also funds activities providing support to the 
Headquarters to include the Coastal Engineering Research Board, which 
reviews and recommends coastal engineering research and development 
project priorities; the Humphreys Engineering Center Support Activity, 
which provides administrative support to the Corps Headquarters as well 
as other Corps tenants at the Humphreys Engineer Center at Fort 
Belvoir; the Water Resources Support Center, also at Fort Belvoir, 
which provides a variety of water management functions such as 
conducting and managing national studies, special studies in support of 
the Civil Works mission, data collection and distribution, and 
technical support to other Corps offices on water resource management 
matters; and the U.S. Army Corps of Engineers Finance Center which was 
established in 1996 in Memphis, TN, to begin the Corps-wide 
centralization of finance and accounting activities. These activities 
represent 139 FTE of the total GE staffing of 1,180 FTE.
    The fiscal year 1999 General Expenses budget of $148 million 
consists of approximately 71 percent labor, 22 percent fixed costs, 
such as rent, utilities, communications, information management, and 
other contractual services, and 7 percent discretionary costs, for 
travel, training, supplies and materials, furniture, and equipment. The 
budget reflects absorption of inflation of 2.6 percent in nonlabor 
costs of about $1.1 million, and 4.8 percent in personnel costs from 
pay increases and agency contributions to retirement funds, for another 
$4.9 million. These costs will be offset through downsizing and 
restructuring efficiencies. In addition, in the fiscal year 1998 Energy 
and Water Development Appropriations Act, responsibility for FUSRAP was 
transferred from the DOE to the Corps. The costs associated with 
executive direction and management of this program, estimated at about 
$900,000, will also be absorbed within the fiscal year 1999 budget 
request.
    The Corps has continued its efforts to streamline executive 
direction and management functions in compliance with the 
Administration's National Performance Review and Reinventing Government 
Initiatives. In January 1997, the Chief of Engineers and the Assistant 
Secretary of the Army (Civil Works) submitted a Division Office 
Restructuring Plan, in compliance with Congressional direction (Energy 
and Water Development Appropriations Act, 1997), to reduce the number 
of division offices from eleven to eight, with each division 
responsible for no fewer than four districts. The Secretary of the Army 
approved the plan in February 1997, and implementation began on 1 April 
1997 as scheduled.
    The fiscal year 1999 budget supports the new 8 division office 
structure at a reduced staffing level of 588 FTE, down 54 FTE, or -8.4 
percent, from the staffing level at implementation in fiscal year 1997. 
The Division Office Restructuring Plan put into place a typical 
division office structure with a base staffing level of 73 FTE, 
adjusted for significant variances in volume and mix of workload and 
geographical dispersion. The exception is the Pacific Ocean Division 
(POD), previously an operating division, which under this plan would 
become a full-fledged division consistent with the roles and missions 
of the remaining 7 continental United States (CONUS) divisions. 
However, POD has a predominantly military mission workload and a 
comparatively small civil workload, creating the reverse staffing 
relationship as the CONUS divisions. The CONUS divisions, under this 
restructuring plan, are on a downward staffing slope to achieve the 
average of 73 FTE per division by fiscal year 2002, for a total of 506 
FTE, plus 16 for POD.
    Consistent with streamlining initiatives across the Corps, the 
Headquarters and its support activities have also been under intensive 
review to find opportunities for consolidations and efficiency savings. 
One step toward achieving these savings was the Chief of Engineer's 
decision to disestablish the Engineer Strategic Studies Center at Fort 
Belvoir, Virginia, in late 1997 and merge that staff's strategic 
planning expertise into the Headquarters to eliminate duplication of 
effort and realize efficiencies. A similar review is being made of the 
Water Resources Support Center as well as other support activities.
    The five-year staffing plan for the Headquarters and support 
activities also reflects a downward slope equivalent to the divisions 
in support of the Administration's deficit reduction initiatives and 
federal downsizing goals. The Headquarters and supporting field 
activities staffing level by the year 2002 is projected at 525, down 
from 672 FTE in fiscal year 1996. Across all GE-funded activities, this 
represents a 41 percent reduction in staffing (from 1,760 to 1,050 FTE) 
since 1989, when various streamlining initiatives began, and 23 percent 
from the fiscal year 1996 base year prior to reducing the number of 
division offices and downsizing Headquarters activities. These 
percentages far exceed the Administration's Federal Workforce 
Reductions Act 12 percent goal.
    Meeting the Headquarters' fiscal year 2002 downsizing goals without 
impacting products and services presents a real challenge, but one the 
Chief of Engineers is committed to achieve. At these projected staffing 
levels, the total General Expenses ``headquarters activities'' will be 
performed by 4 percent of the total Civil Works FTE and approximately 4 
percent of the total Civil Works budget. This staffing level is the 
minimum required to provide oversight of the execution the Civil Works 
program throughout the planning, programming, budgeting, and execution 
phases.
    Through these restructuring, collocation, and downsizing 
initiatives, we have been able to absorb cost increases of inflation 
and increased pay and benefits costs, as well as assume responsibility 
for managing the FUSRAP program. Pre-restructuring budget estimates 
with staffing reductions constrained to that required by FWRA only 
would have required $161 million to support 1,322 FTE in lieu of the 
1,219 FTE budgeted, or $13 million more than the budget request of $148 
million. Fiscal year 1999 budget requirements would have been $163 
million after FWRA reductions, reflecting a cost avoidance of $15 
million. Savings estimates, or cost avoidance, through completion of 
the five-year plan in fiscal year 2002 reflect cumulative reductions of 
$113 million, and an annual cost avoidance in excess of $30 million per 
year thereafter.
                  activities under the revolving fund
    The fiscal year 1999 Plant Replacement and Improvement Program 
(PRIP) obligations under the Revolving fund for items designed to 
improve productivity, increase efficiency, modernize, and improve the 
Corps equipment and operational capabilities, and increase safety are 
estimated at $100 million. This figure includes estimated fiscal year 
1999 expenditures of $53.2 million for 12 new major items: $15 million 
to repower the Dredge POTTER for the St. Louis District; $3.5 million 
for dredge ladder extensions for the HURLEY and JADWIN in the Memphis 
and Vicksburg Districts, respectively; $3.9 million to replace a fuel 
oil barge, a tender and the service base trestle in the St. Louis 
District; $3.4 million to replace a tugboat and rehabilitate the Ft. 
Mifflin pier in the Philadelphia District; $2.4 million to replace a 
surveyboat in the New York District; $5 million for a dock front 
rehabilitation for the Pittsburgh District; $3 million to replace the 
hydropower communications system in the Mobile District; $100,000 for a 
hyperflume research facility at the Waterways Experiment Station; and 
$16.9 million for costs associated with relocating Corps headquarters 
to the General Accounting Office (GAO) headquarters facility. Also 
included are expenditure estimates of $28.3 million for the acquisition 
of continuing major items and $18.5 million for the design, 
rehabilitation, construction, acquisition, additions and improvements 
of miscellaneous items of plant and equipment with unit costs less than 
$700,000.
    Included above are two items which were not included in the 
justification sheets for the Revolving Fund submitted in support of the 
President's budget on 2 February 1998, specifically, the dredge ladder 
extensions for the HURLEY and JADWIN in the Memphis and Vicksburg 
Districts, respectively. Through an administrative oversight these 
items were omitted and two items which were not part of the President's 
approved new start program included instead, specifically, the single 
point mooring system for the Philadelphia District and the replacement 
crane barge for the Mobile District. The dredge ladder extensions are 
needed to maintain the recently deepened 45 foot navigation channel on 
the Mississippi River between Baton Rouge and New Orleans at the 
authorized channel width. The single point mooring system and the 
replacement crane barge will be considered for possible funding in 
future years. Also, in light of our Headquarters relocation planning I 
have increased our estimated expenditures in the Plant Replacement and 
Improvement Program by $10 million, from the amount in the 
justification sheets, to $100 million.
                               automation
    The Corps has again included an estimate of automation costs. Costs 
are displayed under three categories, hardware acquisition, software or 
automated systems, and automation personnel. Total hardware acquisition 
costs for fiscal year 1999 are estimated at $66.7 million. $14.3 
million of these costs are included in the fiscal year 1999 Revolving 
Fund PRIP request. The remainder will be paid for using the General 
Expenses appropriation funds, district or laboratory overhead accounts, 
or funds provided for specific Civil Works studies, projects or 
programs. Total automated information systems costs for fiscal year 
1999 are estimated at $25.8 million. Total estimated automation 
personnel costs for fiscal year 1999 are $31.2 million. The Corps 
continues to improve the tools it uses to develop these estimates and 
to measure actual expenditures. This will increase the accuracy of the 
data in future submissions and facilitate Corps management of 
automation resources.
                    headquarters relocation planning
    Corps proposes relocating its Headquarters to the 3rd floor of the 
GAO Headquarters building at 441 G St. NW, four blocks to the northwest 
of the Pulaski Building.
    By doing so, the Corps would leave commercially leased space to 
make more efficient use of government owned space. The only alternative 
to relocating is a further extension on the Pulaski lease or a new long 
term one, since the present lease was intended only to fill the gap 
until the General Services Administration could relocate the Corps to a 
new facility at the Southeast Federal Center (SEFC). In addition to the 
advantages to the government of the Corps being in government owned 
space, the Corps will be saving lease costs due to the favorable terms 
which the GAO has offered to the Corps. Also the close proximity of the 
GAO headquarters to the Pulaski Building will minimize impact of the 
relocation on Corps employees and our headquarters will not be 
disrupted by reconfiguration/modernization of space which would be 
required if the Corps were to remain in the Pulaski. The GAO has 
requested that the Corps utilize Revolving Fund resources to pay 
advance rent in order to support renovation of the 6th floor for their 
use. This advance rent would be credited against rent owed by the Corps 
during the first three to five years of the Corps lease and would 
enable GAO to move remaining employees in renovated space sooner. The 
Corps has initiated a relocation planning process intended to result in 
a physical relocation to the new headquarters in August 2000, and is 
working with the GAO to finalize the terms of the lease agreement.
                           support for others
    In fiscal year 1999, the Corps will provide reimbursable 
engineering, environmental remediation, construction management, 
emergency response and other technical support to over 60 various 
Federal Agencies. The estimated dollar value of the Corps efforts is 
$800 million. The actual program size depends on various factors: 
requesting agency's appropriation (which often is not known until the 
first quarter of the fiscal year), requesting agency's final decisions 
on how their projects will be executed, and the nature and magnitude of 
national emergencies.
                               conclusion
    This concludes the detailed statement of Major General Russell L. 
Fuhrman on Remaining Items of the fiscal year 1999 Civil Works Budget.

            impact of budget request on construction program

    Senator Domenici. Thank you very much.
    Let me say that I am free to stay here for as long as it 
takes this morning, so I would yield to Senators who have 
questions.
    Senator Byrd, do you have any questions?
    Senator Byrd. Thank you, Mr. Chairman.
    The Corps' request to OMB for construction funding was 
$1,894,000,000. OMB reduced this by $1,110,000,000. So the 
request is now $784 million. Thus, OMB reduced the amount 
recommended by the Department of the Army by some 58 percent.
    What is your assessment as to the Corps' ability to execute 
a program of the magnitude proposed to OMB?
    Dr. Zirschky. Sir, we did indeed submit that request. Part 
of our difficulty is with the uncertainty. It would depend on 
how we got the $1.8 billion we requested. Had we gotten it in 
January and known it was going to be in the President's budget, 
we would have 9 months to prepare, get our designs done and be 
ready to award those contracts.
    If we don't find out until September that we are going to 
get $1.8 billion, it is going to be much more difficult. But I 
believe that the Corps, if we could get some predictability, 
can, indeed, utilize the funds.
    Senator Byrd. I ask that same question of General Ballard.
    General Ballard. Sir, the $1.8 billion request that the 
Corps submitted was the amount of money we thought was 
necessary to continue those projects that we already had in the 
pipeline prior to the 1998 budget. That $1.8 billion would 
allow us to continue to work on all of those programs that we 
have had and the new programs that were identified without 
delay.
    So this budget of $784 million would cause some delay and 
disruption in that workload.
    Senator Byrd. Dr. Zirschky, if you had any such doubts 
about the Corps' ability, doubts that I hear being expressed by 
General Ballard, surely you must have known about those. I am 
positive that you inquired of General Ballard as to what his 
viewpoint was. If that is the case, with such doubts about the 
Corps' ability to execute a large program in fiscal year 1999, 
then why was the Corps allowed to submit a $1.9 billion 
proposed construction program to OMB?
    Dr. Zirschky. Sir, I believe that, had we gotten that 
request, we could have executed it. One of our biggest 
obstacles is uncertainty.
    We are asking now for $784 million in construction, which 
means that our folks out in the field, until you all act to 
change that, have to plan for that level of funding.
    That means that things get more constrained.
    I think the uncertainty of not knowing how much money we 
are going to have in the future is an inhibitor to the amount 
of work we can do.
    We have great people. But what we need is predictability in 
our funding schedule.
    Director Raines, I believe, has written to the Senate and 
offered to meet with the committee and other Senators to see if 
we can arrive at a mutually satisfactory number for the 
construction program that will give us the kind of 
predictability that we can execute everything effectively.
    Senator Byrd. If there were concerns about the Corps' 
ability to carry out a program more in line with what Congress 
approved for fiscal year 1998, then I should think it would be 
doubtful that such a huge request would have been forwarded to 
OMB.
    I'm sure those concerns existed. And yet, the huge request 
went forward. Now there is reason to wonder what happened.
    What happened between the time the request went forward and 
now?
    Dr. Zirschky. Sir, it was a couple of things.
    For one, there have been some restrictions on how we can 
use the money, what kinds of contracting that we can do. But 
the primary factor that I believe makes the Corps' job 
difficult is the time that will elapse. If we knew today that 
we were going to get $1.8 billion, we could begin planning for 
that, making sure that we have the people in the right places 
now so that at the start of the fiscal year, we would be 100 
percent ready to respond.
    I will assume the bill will not be signed until September. 
We will get our allocation from OMB probably at the end of 
October. We will have already missed a good part of the 
construction season in many areas. So now we are looking at 
trying to spend that money beginning in March or April in many 
parts of the country.
    It is an issue of timing. If I know today how much money I 
am going to have, I have every confidence that the Corps can 
execute the program.
    Senator Byrd. Dr. Zirschky, with all due respect to you, 
you are jumping around on the head of a pin. You have not 
answered my question.

               increased project costs and lost benefits

    Let me ask you this question. What are the consequences of 
further delays in the construction program? What will happen to 
the total project costs? Will they rise? If so, do you have any 
estimate of the additional out-year costs that will result from 
this proposal?
    Dr. Zirschky. Yes, sir; there are two components. First, by 
delaying the projects, the country will not get the benefits. A 
rough estimate is that we will lose about $2.8 billion in 
potential benefits.
    Senator Byrd. That's $2.8 billion in benefits?
    Dr. Zirschky. Lost benefits.
    Then we also have the increased costs to build the projects 
to get to those benefits. I don't have an exact number.
    Do you have that, General Ballard?
    General Ballard. For the delay?
    Dr. Zirschky. Not the lost benefits, but the increased 
costs.
    General Ballard. Increased costs, sir, would be roughly 
$400 million.
    Senator Byrd. So there would be an increase in the cost of 
$400 million, which seems to me to be pretty low. But you are 
the engineer, I am not.
    General Ballard. We calculated that, sir, on the basis of 5 
years. If you stretch it out longer than 5 years, the costs 
would go up incrementally.
    So that is about a delay of, we are looking at a 5-year 
delay on the average project, and that cost would be about $400 
million. Longer delays would mean increased costs.
    Senator Byrd. What effect would the proposed fiscal year 
1999 budget have on the major contracts already in place for so 
many ongoing projects?
    Do you expect significant contract termination or 
cancellation costs?
    Dr. Zirschky. Sir, we expect that most of the projects will 
be delayed. I am hoping that we will have enough flexibility to 
not have to terminate projects. But I believe costs will 
increase substantially.
    Senator Byrd. Yet in spite of what you say, the 
administration has managed to find significant funding for a 
few favored projects, such as those projects which I enumerated 
at the beginning. But it is neglecting so many other projects 
as it elects to go forward with such projects as the Everglades 
and South Florida projects.

                          marmet lock and dam

    What are the estimated delay and cost growth consequences 
of this proposed budget on the Marmet Locks and Dams 
replacement project--to bring it right down to Earth, where 
Earth really is, Marmet, Kanawha County, southern West 
Virginia, down in that area where the hills sharply decline and 
create hollows which are subject to sudden floods because of 
summer torrential storms. Just bring it down to Earth and tell 
me what would happen.
    What is the estimated delay in cost growth consequences?
    General Fuhrman. For that one, Senator, the foregone 
benefits would be approximately $48 million and delay costs 
would be an additional $8 million.
    Senator Byrd. How much?
    General Fuhrman. An additional $8 million in increased 
costs.
    Senator Byrd. $8 million. All right.
    Mr. Chairman, I am not going to take too much longer. I 
know others want to ask some questions.

              implication of continued budget constraints

    Let me just say this, however. I am concerned about the 
long-term implications of the administration's proposed funding 
level for the Corps of Engineers. Dr. Zirschky's statements 
suggest that this budget is necessary to comply with the 
overall spending constraints.
    However, those concerns about spending constraints do not 
appear to be evident when one looks at other parts of the 
budget. There are spending increases for any number of 
administration initiatives, whether for the environment, 
education, global climate change, or basic research.
    I think we have a fundamental disagreement with the 
administration regarding the need for further investment in the 
basic infrastructure. It serves no purpose for the 
administration to send up a budget for the Corps of Engineers 
that is as totally unrealistic as is this one.
    It sets the stage for problems in resolving the 
appropriations bills this summer and fall if the administration 
expects to receive the funding increases that it has proposed 
in other program areas. Those increases are predicated on 
Congress accepting reductions such as those proposed for the 
Corps of Engineers.
    I hope that my colleagues are not prepared to accept such 
draconian actions. I am very disappointed that the fiscal year 
1999 budget does not include the funding necessary to keep the 
Marmet project on schedule.
    This is a project that has been identified as one of the 
top priorities for the inland navigation system. Marmet has a 
strong benefit/cost ratio because of the value of the coal, the 
chemical, and the other products that are shipped along the 
Kanawha River to the Ohio River navigation system.
    The people whose lives are affected by this project have 
already been subjected to unnecessary delays and uncertainties.
    However, now that the project is ready to proceed, it is a 
shame that the Corps has been unable to take care of such basic 
responsibilities, such as the Marmet project, but has provided 
enhanced funding for other initiatives.
    So, I will be working with the chairman to ensure that the 
fiscal year 1999 Energy and Water appropriations bill provides 
adequate funding to keep this project on track and to minimize 
any opportunities for further delay.
    I thank you. I hope I will be able to ask another question 
later.
    Senator Domenici. Thank you very much, Senator Byrd.
    I think I will ask just a few questions now. I would like 
to give another example, Senator Byrd, of where you spoke of 
programs and projects within our subcommittee for which the 
President has asked for a lot more funding. While it is not for 
the Corps, the Bureau of Reclamation received fiscal year 1998 
funding of $85 million for California Bay-Delta Restoration 
Program. Since that is more desirable than some in your State, 
you should know that the request this year is $143 million--
more than a $60 million increase.
    Last year it was a brand new program.
    We have programs that have been 8 or 10 years in 
development or construction that have not been treated so well.
    I would like to be more specific since there are members of 
the media here. I don't want to misstate anything.
    I have just checked and the President found room for $125 
billion in new programs in his fiscal year 1999 budget.
    Senator Byrd. Would you state that figure again?
    Senator Domenici. That's $125 billion.
    Senator Byrd. I thought you had said ``million.'' Thank 
you.
    Senator Domenici. It's billion.
    To be fair, I have to say that $62.5 billion of it was 
estimated to come from the cigarette tax settlement, which may 
not occur. But that was also spent on programs that are in 
competition with the normal budget with something like the 
Bureau of Reclamation, Corps of Engineers, and other things.

                           benefits foregone

    Having said that, I wonder if we should make sure that we 
have the right number with reference to benefits foregone.
    Senator Byrd asked about benefits foregone and I have a 
chart, General Ballard, which shows a different number than the 
Assistant Secretary. I have the figure for benefits foregone as 
$3.6 billion. Is that correct?
    General Ballard. That is the number I have, sir.
    Senator Domenici. All right.
    So, Senator Byrd, the number was not $2 billion but $3.6 
billion, according to the General.
    Just by itself, it is a rather incredible number when you 
consider the number of dollars that we are trying to get back 
that would provide these benefits over a period of time.
    I have a lot of questions, but there are other Senators 
here. So I just want to go through a few that establish what I 
am concerned about.

                 development of fiscal year 1999 budget

    General Ballard has indicated that the Corps recommended 
funding request for Construction General was $1.8 billion. Is 
that correct?
    General Ballard. That's correct, Senator.
    Senator Domenici. Was OMB's final funding level appealed?
    General Ballard. Yes, sir; it was.
    Senator Domenici. Was the appeal made in the executive 
branch all the way to the President?
    General Ballard. It was made, sir; twice to OMB. I am 
assuming that that information was transmitted to the 
President. I am not aware of that, though.
    Senator Domenici. So, you don't know for sure?
    General Ballard. I don't know for sure, sir.
    Senator Domenici. Assistant Secretary, do you know?
    Dr. Zirschky. We did not make the list of people who were 
able to present an appeal to the President, sir. So, I do not 
know if he actually had the information.

                    fully funded contracting policy

    Senator Domenici. Dr. Zirschky, on January 23, 1998, 
Majority Leader Lott and a bipartisan group of more than 40 
Senators wrote to Director Raines of OMB regarding OMB's 
instructions to the Corps to enter into only lump sum contracts 
for unrequested new construction projects.
    Mr. Secretary, has OMB responded to Senator Lott's letter? 
If so, could you tell the committee how OMB responded?
    Dr. Zirschky. Yes, sir; I believe OMB has responded and 
their response was to add the administration's requested new 
starts from fiscal year 1998 to that list.
    Senator Domenici. So, there was no reconsideration?
    Dr. Zirschky. The reconsideration, sir--their decision was 
to add more projects to the list rather than to get rid of the 
list.

                      construction general program

    Senator Domenici. General Ballard and General Fuhrman, is 
the $784 million funding request for construction sufficient to 
carry out the fiscal year 1998 program approved by Congress and 
signed into law by the President without major disruptions and 
without subsequent increased costs?
    General Ballard. No, sir; there will be delays in 
undertaking and completing many of those projects.
    Senator Domenici. Now, frankly, at some point in time we 
may not get the resources to fully fund what you requested, 
General.
    General Ballard. Yes, sir.

            minimum funding level need for fiscal year 1999

    Senator Domenici. I think at some point we need to know 
what the minimal levels of funding would be to allow the Corps 
to manage the current programs in an efficient way without 
these major disruptions.
    What other actions or guidance can you give the committee 
that would help us in making sure that the Corps' ability to 
effectively manage these programs is maintained?
    General Ballard. Well, sir, any additional funding would be 
generally all that is necessary to execute the program.
    Senator Domenici. Right.
    General Ballard. However, we are prepared to submit for the 
record the minimum funding that we think is necessary to 
complete those.
    Senator Domenici. You don't know that number now?
    General Ballard. General Fuhrman.
    General Fuhrman. It really would be too hard to determine 
right now, because the $1.8 billion is what is required to 
carry out what is provided in the President's programs plus 
those added by Congress. Until we know, in 1999, what gets 
added by Congress, it would be hard for us to determine what 
the delta is below $1.8 billion.
    Senator Domenici. I would think, and as chairman I am 
interested in knowing what this number is before our 
appropriations chairman has to make the subcommittee budget 
allocations. I think we ought to go tell him in our 
communications what you say, Generals. We also ought to say if 
this is the amount that we can get that is less than that, how 
it will minimize the damage that is going to occur to these 
projects and minimize the costs.
    Will you do that for us?
    General Ballard. Sir, I will be happy to do that. This is 
an important number and I would have to take a guess at it. I 
would be more than happy to submit that for the record.
    Senator Domenici. Thank you.
    [The information follows:]

      Minimum Funding Level for the Construction, General Program

    Determination of a minimum fiscal year 1999 funding level for the 
Construction, General program is based on the premise that all facets 
of the program would be treated equitably. This includes new and 
continuing projects and programs presented in the President's fiscal 
year 1999 budget, as well as fiscal year 1998 Congressionally added new 
start construction projects and other continuing unbudgeted projects. 
It also assumes that no unbudgeted new start construction projects 
would be undertaken in fiscal year 1999. The minimum funding level 
would provide less than optimum funding, and thus would not allow 
projects to be completed on the most efficient schedules possible to 
minimize project cost increases and achieve benefits at the earliest 
time; however, it would allow reasonably efficient scheduling. Based on 
these assumptions, the minimum fiscal year 1999 funding level for the 
Construction, General program is $1,600,000. This would result in 
delays ranging up to 12 months from optimum project schedules in fiscal 
year 1999 for ongoing projects.

                     acequias irrigation system, NM

    Senator Domenici. I have a request today with reference to 
a small historic program in my State that you all know about, 
although most of you don't say the name right. So, I will tell 
you how to say it again. We have some historic ditches in New 
Mexico that take water from streams and move it around. They 
are 400 years old and they are called acequias. That's 
acequias. It means water carriers in Spanish.
    Now this program has been funded with little, small amounts 
every year for you to supervise the maintenance of some of 
these.
    I would like the two Generals to try to help me understand 
what is causing the delays in these projects. Can the Corps 
give us, at the earliest convenience, a written statement about 
how we resolve some of the problems of delays and what we could 
do to make that a more efficient process?
    It seems to me that all kinds of rumors are coming that you 
don't want to do the program and that you would rather someone 
else do it. I would like a statement about that. If it is too 
burdensome for some reason, then clearly we would have to make 
some adjustments.
    [The information follows:]

                            Acequias Program

    The Corps of Engineers is committed to providing the irrigators in 
New Mexico reliable, permanent facilities requiring minimal 
maintenance. We have successfully designed and constructed over 35 
projects dating back to 1987, and we look forward to continuing the 
program and building on strong relationships forged over the last 
decade between us and our local sponsor. That is not to say, however, 
that our processes cannot be improved. Indeed, they can.
    Recent delays have been caused by an inability to execute local 
loan agreements. As you are aware, we cannot proceed past the 
reconnaissance phase until our partner is financially committed to the 
project. There are currently seven projects that the State of New 
Mexico, the local sponsor, is reviewing and coordinating with the local 
Acequias associations for approval. These seven projects have been 
under financial and technical review by the State for over two years.
    The Corps will continue to work with the New Mexico Acequias 
Commission, the New Mexico Interstate Stream Commission, and the 
individual community acequias associations to insure expectations of 
water delivery, project longevity and cost effectiveness are achieved. 
We are also meeting with all stakeholders to refine the process and 
proceed in an efficient and effective manner. For example, we are 
reviewing processes for accelerating environmental documentation and 
preliminary design. We also plan to produce programmatic environmental 
impact statements for major acequias and river basin areas. With these 
improvements, we can proceed with preliminary design and required 
environmental documentation while our sponsor and sub-sponsors finalize 
local cost sharing arrangements. We are also exploring other 
opportunities to expedite our processes to assure prompt delivery of 
quality products within budget.
    The Corps has a proud history of meeting the country's engineering 
needs. We remain committed to executing the acequias program and 
satisfying the requirements of our local sponsor, the State of New 
Mexico. We fully expect our process improvements will expedite the 
program, and look forward to leading Federal participation in the rich 
history of the acequias tradition.

    Senator Domenici. My last observation and question combined 
is this. There is a commission that works on preservation of 
these historic ditches. Will you work with that commission in 
the next few months to see if, between the two, you can come up 
with some reasonable suggestions about expediting and 
efficiency?
    General Ballard. Yes, sir; we will.
    General Fuhrman. Yes, sir.

                        las cruces, nm, project

    Senator Domenici. I have a project in Las Cruces, NM, and I 
would just want to know how will the $150,000 included in the 
President's budget be used.
    General Ballard. Sir, I would defer here to General Fuhrman 
for that information.
    Senator Domenici. You need more than that to keep it on 
schedule, don't you? My understanding is you need $3.5 million 
to keep it on schedule.
    Would that take too much time for you right now, sir?
    General Fuhrman. Let me provide that for the record, 
Senator.
    General Ballard. The exact amount.
    Senator Domenici. I've got it here. I will put it in the 
record. If you think it is not right, then you can correct it. 
It is easier for me to find it than it is you. I know what it 
means.
    It says $3.5 million is needed to keep it going. So if that 
is not correct, will you correct the record?
    General Fuhrman. We will correct it.
    General Ballard. I most certainly will, Senator.
    [The information follows:]

                             Las Cruces, NM

    The $150,000 included in the President's budget will be used to 
continue real estate coordination and to ready the project for 
construction. If $3.5 million were provided, we could award the 
construction contract in December 1998 and complete construction as 
originally scheduled in August 2000 rather than August 2001 as 
reflected in the budget justification materials.

    Senator Domenici. Which Senator would like to proceed next.
    Senator Reid. Mr. Chairman, I have indicated that I am 
going to submit my questions in writing.
    Senator Domenici. Then Senator Dorgan.

                            devils lake, nd

    Senator Dorgan. Mr. Chairman, I also would like to submit a 
series of questions in writing with your permission to both the 
Corps and the Bureau in the event I am not here later.
    Let me now just ask this. Secretary Zirschky, on the Devils 
Lake project, can you give me a status report of the Corps work 
on that project?
    Dr. Zirschky. Yes, sir; we are in the process of raising 
the levees around the city of Devils Lake. The water level is 
still rising in the basin.
    We recently conducted an exercise with the help of the 
Energy and Environment Research Center in Grand Forks to study 
various options on how to respond to the ever-increasing flood. 
That was completed earlier this month. We hope to have a report 
back on that. It was a very useful exercise, identifying the 
various options to help fight that flood.
    Senator Dorgan. The Corps remains supportive of the outlet?
    Dr. Zirschky. Yes, sir; we are still evaluating it. But the 
virtual flood indicated that there were scenarios where it 
could be a very useful tool for fighting the flood.
    Senator Dorgan. I would like to show my colleagues a chart 
that deals with a summary of damages in the Devils Lake area, 
because this relates to the point I made earlier that some of 
these investments that we make here are very important.
    The estimate of damages here with the rise of Devils Lake 
shows we have already spent just over $200 million to try to 
mitigate damages, raising roads, moving buildings, and a range 
of other issues. If this continues to rise, this closed basin, 
if the water level continues to rise, we are headed toward over 
$400 million.
    Rather small investments can save very large amounts here. 
The reason I asked about the outlet is this. You are building 
the levee. The water is projected to increase nearly 2 feet 
again by midsummer, which is going to get you to the limit of 
the levee that is already under construction.
    Is that correct?
    Dr. Zirschky. Yes, sir.
    Senator Dorgan. We are trying to get an outlet that would 
measure some release of that water in quantities that would not 
hurt any other rivers or any other citizens but that would take 
some pressure off this lake which, potentially, could save a 
couple of hundred million dollars over time.
    Dr. Zirschky. Yes.
    Senator Dorgan. Mr. Chairman, these issues are always very 
difficult, but necessary. As I said, there are only two closed 
basins of this type in the country. One is the Great Salt Lake 
and the other is Devils Lake. These have no inlet and no 
outlet, and when the water continues to rise, we face enormous 
problems.
    If I might have the chart about the water levels over time, 
I could just show my colleagues what we are facing.
    We have a chart that shows over a long period of history 
what is happening in Devils Lake. The 1,445.5 foot level is 
expected to be reached midsummer this summer. That basin has in 
the past 5 years tripled in volume, doubled in size, risen more 
than 20 feet.
    This picture shows a woman standing in the Devils Lake area 
near a telephone pole. If you will take a look at the woman 
down at the bottom of the pole and then take a look way up 
there on top to where the pole has been extended, that is where 
the lake is today. That tells you what is happening in this 
closed basin.
    It is simply gobbling up land, homes, and property.
    There is a fellow who my colleague, Conrad Burns, will 
know. His name is Dwayne Howard. He was one of the great bull 
riders in America for many years, one of the great rodeo 
cowboys. He won all over America.
    He had a ranch in this area but he does not have a ranch 
there anymore. He is gone. He had to move out. He could not get 
to his house. All of his ranch was under water.
    Senator Burns. He went from riding bulls to fishing. 
[Laughter.]
    Senator Dorgan. That's right. But he is not fishing 
anymore, because he cannot be there anymore. It has broken his 
heart. Here is a guy who has lost everything.
    In human terms, this has an enormous consequence.
    Senator Reid. On the Indian side is it water?
    Senator Dorgan. The lake continues to rise.
    Senator Reid. Where is the water coming from?
    Senator Dorgan. No one knows. The upper basin, obviously we 
have had wet years, and the water comes from down the basin. 
There is some theory that there is an aquifer feeding and no 
one quite understands this. We don't even quite understand the 
full history because we only have 150 years or so of history of 
this closed basin.
    The point is that it is an awful problem for these people 
and this subcommittee has been very helpful. Secretary Zirschky 
and the Corps has been very helpful. We are struggling very 
hard on several fronts--a levee, an outlet.
    Secretary Zirschky, again, just to reiterate, the 
preconstruction money was allocated by this committee for the 
outlet's design, planning, and preconstruction. That is 
underway. The first $5 million of construction money has 
already been appropriated.
    The President is requesting--what--$14 million?
    General Fuhrman. $16 million.
    Senator Dorgan. Excuse me--$16 million in this set of 
recommendations, and the Corps continues to support that and 
continues to see the value and the merit of these approaches.
    General Fuhrman. Yes, sir.
    Senator Dorgan. Thank you.
    Mr. Chairman, I know that others would like to ask 
questions. I would like to be able to submit additional 
questions to both the Corps and the Bureau.
    Senator Domenici. We will submit those to the witnesses in 
your behalf. Thank you.
    Senator Burns.
    Senator Burns. Thank you very much, Mr. Chairman. I have an 
amendment coming up on the floor and I appreciate the courtesy. 
I have just one comment to make.
    By the way, Senator, we found your answer. There are some 
pumps down on the Great Salt Lake that have never been used. If 
you could get trucks down there, we might be able to get you 
some pumps. Will that help you out any?
    Senator Dorgan. You know, you seem to have an answer every 
time I ask you a question. But the water keeps going up. 
[Laughter.]
    Senator Burns. That's all right. These pumps are going to 
take care of that.
    Dr. Zirschky, we have a little situation. I would like some 
time with you if I could come to your office or you could come 
to mine. We have a situation up at Fort Peck having to do with 
fossils. I thought he was referring to me. But that is not 
true.
    We need to visit about that because it is just an isolated 
thing and we need to take some action. We have some people who 
are getting conflicting stories and I think we can work that 
out in nothing flat.
    Dr. Zirschky. I would be delighted to come to your office.
    Senator Burns. Thank you very much. I appreciate that.
    Thank you, Mr. Chairman.
    Senator Domenici. Thank you, Senator.
    Senator Gorton.
    Senator Gorton. Mr. Chairman, like the other members of the 
committee, I have a long series of questions to submit to the 
Corps that I will do in writing.

                corps of engineers public opinion survey

    But I do want to share with you and the other members what 
I think to be an almost unbelievable set of priorities or 
campaigns in which the Corps of Engineers has engaged in 
Washington, Oregon, and Idaho.
    Last week, one of my constituents sent me a survey the 
Corps of Engineers is sponsoring. When the recipient opened up 
the survey, a $2 bill dropped out. The Corps of Engineers was 
paying him $2 to pick up his mail.
    Then the Corps said that if he would fill out the survey, 
they would pay him another $10.
    Senator Reid. Are you joking?
    Senator Gorton. No; I'm telling the truth. I have the 
letter right here. They would pay him another $10, because they 
wanted to find out what his views were on removing all of the 
dams on the Snake River for the salmon.
    By contrast, one of my friends, when I was talking about it 
the other night, said that he had gotten a survey like this 
from Lexus, a luxury automobile, for which he got $1. He filled 
it out. In this case, you get $12 if you fill it out.
    I made a speech on the floor of the Senate last week. It is 
the only lottery in the State of Washington of which everyone 
was a winner.
    Senator Reid. But you get $2 if you do nothing?
    Senator Gorton. You get $2 just for opening up the 
envelope. The $2 bill fell out simply by doing that.
    Senator Dorgan. If I might inquire, has the Corps 
acknowledged that this is something they have done?
    Senator Gorton. Oh, yes; it is a Corps deal.
    Then they are going to do 10,000 or 12,000 more of these 
surveys after they perfect this one. They tell us, when I make 
the speech they say oh, no, the second time around you are only 
going to get the $2. Maybe so, maybe not.
    But in addition to the fact that they were willing to pay 
people $12 of our taxpayers' money to fill out the survey, you 
ought to see the survey. You know, we here are partisans and 
you know how the Democratic National Committee will send out a 
poll that says ``Do you want to allow Republicans to destroy 
Social Security and throw old people out on the street?''
    Senator Dorgan. Oh, no, never. [Laughter.]
    Senator Gorton. And how Republicans may send out a poll 
that will say ``Do you want to allow Democrats to triple your 
tax burden and take all of your money away from you for 
wasteful Federal spending in other States?'' [Laughter.]
    Well, the Corps of Engineers survey is sort of like that. 
They go through all of these facts about how many fish can be 
saved and a few little mentions of maybe it will cost a little 
bit of money, and all of these wonderful recreational 
opportunities that will be given if this crazy idea of 
destroying dams, which were put up for power, for irrigation, 
and for transportation is effected and the dams are taken down.
    So not only are we having all this money being spent, given 
away for people to fill out the form, they are trying to fix 
the answers to the survey the way we sometimes do politically.
    I really want General Ballard to justify who in the world 
came up not only with the crazy idea of paying people this 
amount of money to fill out a survey but with the totally 
biased nature of the questions that are included in it.
    General Ballard. I can't wait to answer that question.
    First of all, let me say that it did not come from 
headquarters. The Corps is like one of those organizations 
where if we were a musical instrument, we would be a drum 
because there is an opportunity for a lot of folks to beat us.
    I was not aware of this survey until I heard your speech on 
the floor and it was immediately brought to my attention. Let 
me tell you what I have done.
    I have launched an investigation to find out who authorized 
it, where did the money come from, what was the purpose of the 
survey, and I am expecting an answer next week. As soon as I 
get that answer, I would be more than willing to either come 
see you or submit it for the record, sir.
    Senator Gorton. That is a responsive response. I appreciate 
it. I will be happy to see you on it and I will defer my next 
speech on the floor until you have had an opportunity to 
explain it.
    General Ballard. I would appreciate that, sir.
    Senator Domenici. We all would be interested.
    General Ballard. I will submit it for the record.
    Senator Domenici. Yes; submit it for the record, and go and 
see the Senator also.
    General Ballard. I will do that, sir.
    [The information follows:]

                       Letter From Joe N. Ballard

                                                     April 1, 1998.
Hon. Slade Gorton,
U.S. Senate, Washington, DC.
    Dear Senator Gorton: I am taking this opportunity to respond to 
questions raised at the March 26, 1998, subcommittee hearings regarding 
a U.S. Army Corps of Engineers recreation survey. This survey is one 
tool being used by the Corps to collect information for its Lower Snake 
River Juvenile Salmon Migration Feasibility Study. The study is 
investigating potential long-term configurations of the Snake River 
hydroelectric system to aid in the recovery of listed salmon 
populations. Funding for the study and the associated recreation survey 
is appropriated through the Columbia River Fish Mitigation Project.
    Study recommendations and follow-on decisions could have major 
economic and natural resource implications for the region. Accordingly, 
the best possible information is being sought for the study. As you are 
aware, some of the information for the recreation analysis is being 
obtained through a public survey. Our Walla Walla District office has 
contracted with Normandeau Associates to conduct the survey.
    Survey needs, protocol and questions are being developed by the 
contractor in collaboration with a broad group of regional economists 
who are assisting the Corps in fully evaluating social and economic 
effects of each study alternative. This group has developed a number of 
different versions of the survey to improve the validity of the 
information.
    A test mailing of the ``dam removal'' draft survey was made this 
past February and March. The test survey, which was sent to 150 people 
selected at random, included $2 as a participation incentive. The use 
of such incentive payments is not an unusual practice in the survey 
industry to ensure a higher response rate. An additional $10 was 
provided to those 43 who responded to the survey and completed a 45 
minute telephone follow-up interview.
    The final survey form and questions will be completed after 
internal and peer reviews of the draft survey. The final survey will 
adhere to Office of Management and Budget guidelines. At this time, we 
do not plan to use a cash incentive in the distribution of the final 
survey. The enclosed information paper provides additional details on 
scope, nature and basis of the recreation survey.
    I appreciate your interest and concern in this matter. If I can 
assist you further, please contact me. I will ensure that copies of 
this letter are provided to the other members of the subcommittee.
            Sincerely,
                                            Joe N. Ballard,
                         Lieutenant General, U.S. Army, Commanding.
                                 ______
                                 

                           Information Paper

     lower snake river juvenile salmon migration feasibility study
                     recreation survey and analysis
Background
    The Walla Walla District of the Corps of Engineers is conducting a 
feasibility study in response to the March 1995 Biological Opinion for 
Federal Columbia River Power System operation, issued by National 
Marine Fisheries Service (NMFS). Walla Walla District will prepare a 
Feasibility Report/Environmental Impact Statement. The draft report/EIS 
will be distributed by April 1999. The report will make a 
recommendation, fully coordinated with regional interests and the 
public, to either implement the permanent natural river drawdown on the 
lower Snake River or a non-drawdown alternative to provide survival 
benefits to salmon and aid in the recovery of endangered salmon stocks. 
As a component of the feasibility study, the Drawdown Regional Economic 
Analysis Workgroup (DREW) was established to develop a comprehensive 
social and economic analysis (which includes recreation). DREW includes 
economists from many Federal agencies (Corps of Engineers, NMFS, 
Bonneville Power Administration, and the Bureau of Reclamation), 
Northwest Power Planning Council, states, tribes, contractors, and 
environmental conservation groups. The recreation survey and analysis 
is a product of the DREW.
    Funding for this study, including the recreation survey and 
analysis, is included in the appropriated funds for the Columbia River 
Fish Mitigation project in the Corps of Engineers Construction General 
appropriation account.
Recreation Survey Objective
    Recreation on the four lower Snake River reservoirs is a project 
purpose. As indicated by DREW, recreation is considered to be 
potentially a significant economic impact, particularly with the 
drawdown alternative. Therefore, the need exists to develop 
quantitative and qualitative information related to the potential 
effects. There are four primary objectives for the survey:
  --Estimate the recreation use and benefits associated with the 
        existing system.
  --Estimate recreation use and benefits from returning the lower Snake 
        River to a more natural state.
  --Estimate non-use values for a more natural river and for salmon.
  --Estimate non-use values for salmon recovery associated with project 
        improvements and additional transportation of juvenile salmon.
Survey Facts
    The surveys are still in draft form. The draft survey was developed 
by the consultant in collaboration with the DREW. All activities 
associated with the draft survey were authorized by the Walla Walla 
District. We are still working with the consultant in the development 
of the final versions. The work related to this recreation analysis is 
being conducted by Normandeau Associates, a consulting firm located in 
Bedford, New Hampshire. Normandeau has enlisted the following 
subcontractors to assist in this effort: Agricultural Enterprises Inc. 
of Masonville, Colorado, Colorado State University at Fort Collins, and 
University of Idaho. The cost for this contract is $300,000, which 
includes preparing the survey, distribution, compiling survey results, 
and preparing a report including an analysis of the recreation effects.
    There is a range of different survey versions being developed and 
considered. These versions focus on different potential benefits for 
salmon. One survey, for example, will assume juvenile fish 
transportation as the only way to meet recovery needs. The others 
represent drawdown as the most effective way to meet recovery standards 
and incorporate different anticipated biological outputs. This approach 
was recommended by the consultant as the best way to portray potential 
biological effectiveness since specific information is not available at 
this time.
    Many of the questions in the draft surveys assume a definite 
conclusion, which may not be factual. This approach was deemed 
necessary to assure a high confidence in the accuracy of the responses. 
Research has shown that questions which appear to be hypothetical or 
use words such as ``if'' and ``may'' lead to less accurate answers by 
survey respondents. That is, hypothetical questions give rise to 
hypothetical answers and the objective is to achieve greater certainty 
in the survey results. This response pattern is the basis for stating a 
hypothetical condition in the survey as more of an assumed fact.
    The present strategy, which is still under review, is for the final 
survey to be distributed to a total of 15,000 people. No incentive will 
be used in the distribution of the final survey. The surveys are 
scheduled to be sent out in April 1998 and completed in July 1998. They 
will be distributed by the University of Idaho. There is no reference 
in the survey to the Corps or the Lower Snake River Juvenile Salmon 
Feasibility Study.
Survey Development--Preliminary Test Survey
    A preliminary test mailing of five of the ``dam removal'' versions 
of the draft survey was made during February-March 1998. The survey was 
reviewed by the Corps for consistency with pre-approved OMB survey 
questions and was approved in February 1998. The test surveys were sent 
to 150 people selected at random with a $2 bill included as a 
participation incentive. Specific approval from OMB for the monetary 
incentive was not sought. A further $10 payment was provided to those 
43 individuals who responded to the survey and completed a 45 minute 
telephone follow-up interview. Three or four ``transport'' versions of 
the survey are being developed as are one or two more ``dam removal'' 
versions for inclusion in the final survey.
    Internal and peer reviews of the draft surveys are scheduled in the 
next several weeks. Those reviews will determine the final questions 
and protocol. The final survey will adhere to all OMB guidelines and 
criteria for surveys.

    Senator Dorgan. May I just ask on this? I did not hear your 
speech. I assume it was an eloquent speech and that you sat and 
fumed and wondered what went on. So I assume you got on the 
phone immediately to find out who in the hell did this.
    General Ballard. I did.
    Senator Dorgan. So, what did you find out?
    General Ballard. Well, what we have found out so far is 
there is a group that is working in support of the Corps as we 
look at a number of issues that the local commander asked to 
take a look, to do a survey. What has been told to me so far 
over the telephone is that about $800 total was sent out to the 
folks who were--what is the word, Russ?
    General Fuhrman. To develop a survey, to get public input 
on a study that we are doing out there, what the public input 
was with regard to some of the proposals.
    General Ballard. This method, I am told, is rather common 
procedure. I don't know. But let me just say this. Any survey 
that is done in support of a policy of the Corps or the 
administration has to be eventually submitted to OMB for 
approval.
    I am not justifying the survey. I don't know enough about 
it to tell this committee in a reasonable manner what occurred. 
So I will defer any conclusions until I do the investigation 
and find out exactly the rationale behind it.
    Senator Gorton. For me, at least at this point, that is an 
adequate response. We will hear from them on how they came up 
with it, who did it, and why it was justified. But I have never 
heard of anyone getting $2 to open an envelope and another $10 
to fill out a true/false questionnaire.
    Senator Byrd. Will the Senator yield?
    Senator Gorton. Yes; of course.
    Senator Byrd. I hope that the response that the General is 
going to give you will come to each of us.
    General Ballard. Yes, sir.
    Senator Byrd. I hope it will be in writing, because few of 
us ever go back to these printed hearings. We will forget about 
this in a day or two, because there will be something else that 
commands our attention. We may never, many of us, know what the 
response is in this record.
    But I think this is something that we all would be 
interested in knowing what the answer is or what the answers 
are.
    So I would like, Mr. Chairman, for the General or for 
someone, Dr. Zirschky or someone, to send each of us an 
explanation of this in writing, if that is agreeable with the 
Senator.
    Senator Gorton. Oh, it is more than agreeable. This is the 
responsibility of this subcommittee.
    Senator Domenici. Would you please do that?
    General Ballard. I will do that, sir.
    Senator Gorton. With that, I have a number of other 
questions that are not quite so colorful with this one. I will 
not take your time with them but will submit the questions to 
them in writing.
    General Ballard. Yes, sir.
    Senator Gorton. Thank you, Mr. Chairman.
    Senator Domenici. We have two more witnesses that we want 
to hear from with reference to Bureau of Reclamation programs 
for 1999. I want to accommodate Senators also.
    Do we have any further questions? We have a vote at 11:45 
a.m.
    Senator Byrd. Did the chairman ask if we had more 
questions?
    Senator Domenici. I was wondering if we could take the 
other two witnesses at the earliest possible time. But if there 
are some urgent questions of this panel, then I obviously do 
not want to go to the next panel.
    Senator Byrd. I don't have any questions of the other 
witnesses. I have one or two that I would like to propound 
here.
    Senator Domenici. Then why don't we do that now, Senator.
    Senator Byrd. All right. I thank the chairman.

                       greenbrier river basin, wv

    Recently, the Corps completed an updated evaluation report 
to provide a more accurate assessment of flood control options 
for the Greenbrier River Basin. In that report, the Corps did 
not endorse a particular option but, rather, identifies the 
various benefits, costs, and procedural requirements associated 
with each of the alternatives.
    Will the Corps take any further actions to pursue a 
particular option or is a cost-sharing partner necessary before 
proceeding to the next step?
    Dr. Zirschky. Yes, sir; we are going to complete our 
studies. In fact, I will probably be going to that project site 
in West Virginia.
    So far, our studies show that a dry dam may be economically 
justified. We still have some planning, engineering, and design 
to do. As for cost sharing, certainly the administration would 
prefer cost sharing on all of our projects.
    Senator Byrd. What would be the cost sharing in this 
instance?
    Dr. Zirschky. I believe sir, depending on the authority 
under which we did this, we could do it at 75 Federal/25 local.
    Senator Byrd. Is it less than that in certain instances? If 
so, what would be the circumstances required?
    Dr. Zirschky. In most flood control projects, it is 65/35. 
I believe, and I could be mistaken, that this project has an 
older authority that might allow it to be grandfathered. That 
is something we will have to evaluate further, sir.
    Senator Byrd. If local consensus develops around one of the 
options that involves a dam--and you made reference to a dry 
dam--and a cost sharing partner steps forward, would the 
administration be likely to support authorization to allow such 
an option to proceed?
    Dr. Zirschky. Sir, if the project is economically justified 
and environmentally acceptable, the Army will support the 
project. I cannot speak for the administration, because they 
have not had an opportunity to review it. But the Army would 
support such a project.
    Senator Byrd. In your opinion, is it likely that the 
administration would be willing to support construction of a 
dry dam?
    Dr. Zirschky. We have one going on, sir, at Seven Oaks in 
California. But, quite frankly, we would, I believe, have to do 
a considerable amount of work to gain their support.
    Senator Byrd. You are treading lightly, aren't you? 
[Laughter.]
    If a nondam alternative is supported locally and a cost-
sharing partner comes forward, what further steps would be 
necessary for the project to proceed?
    Dr. Zirschky. I believe we would need to finish some more 
planning, engineering, and design and then get the construction 
funding and authorization and build it.
    Senator Byrd. Would you say that again.
    Dr. Zirschky. General Fuhrman, do you want to explain?
    Senator Byrd. Pull the microphone up there in front of you, 
will you please?
    General Fuhrman. Basically, with a local cost-sharing 
sponsor, we could move forward with planning and engineering. 
So only the appropriations part, the money, would be required.
    Senator Byrd. Are more studies necessary or is the Corps 
ready to proceed to detailed planning and design so that the 
project implementation could begin?
    General Fuhrman. If the locals determine that that is the 
solution, we are ready to proceed.
    Senator Byrd. If the local protection plans and 
nonstructural enhancements are the chosen alternative, what 
funding is necessary in fiscal year 1999 to enable continued 
progress to be made?
    General Fuhrman. We would require $1 million, Senator.
    Senator Byrd. And this is in the case of a nondam 
alternative?
    General Fuhrman. Yes; it is.
    Senator Byrd. What is the Corps' view with respect to the 
various options if there be various options?
    What is the position of the Corps as to a dam?
    Dr. Zirschky. Sir, I don't believe at this time we have a 
position. I hope to learn more about the project when I go to 
the area and once we get the reports. But the headquarters does 
not have an official position on that project yet.
    Senator Byrd. Can anyone speak to that question?
    General Ballard, can you?
    General Ballard. Russ, can you?
    General Fuhrman. From a headquarters perspective, we have 
not, the district and the Division have not forwarded the 
proposal. So, we don't know. We know that from an economic 
perspective, a dry dam looks like it is economically justified, 
cost/benefit ratio. But with regard to the environmental 
issues, yet there is no decision.
    Senator Byrd. There has been a recent report, I believe, 
concerning this project, has there not been?
    General Fuhrman. It is not at the headquarters, Senator.
    Senator Byrd. Is there one down the road?
    General Fuhrman. There is one in the district, Senator, but 
it has not reached the Division and been forwarded to 
headquarters as yet.
    Senator Byrd. So you are not prepared to comment on that 
report?
    General Fuhrman. That is correct, Senator, we are not.
    Senator Byrd. I would encourage the Corps to continue their 
efforts to work with the citizens in the affected areas of the 
Greenbrier River Basin to address ongoing concerns about 
adequate flood control protection for their communities. These 
local areas must decide which option best suits their needs and 
can be supported financially with local cost-sharing 
arrangements.
    I want to do whatever I can to assist the communities. I 
hope that the Corps will be forthcoming and direct in 
responding to requests for information and providing technical 
assistance regarding the different options.
    I am interested in doing what I can to help the residents 
to obtain flood protection as quickly as possible if options 
can be found that are economically feasible and if cost-sharing 
partners can be designated. But I hope the engineers will be 
very frank as to their opinions regarding the various options.
    There are some people in the area who want a dam while 
others want this and others want that. They need the expertise 
of the engineers. I need that as do my colleagues on the 
delegation.
    While a local cost-sharing partner will need to be 
identified, I hope that the Corps will do everything it can to 
move this project along and be realistic on its cost and 
schedules, and complete the necessary planning and studies 
promptly so that implementation can begin.
    What is your reaction? Can you do that? Will you do it?
    Dr. Zirschky. We would agree with that.
    Senator Byrd. And you will do that?
    Dr. Zirschky. Yes, sir.
    General Fuhrman. Yes, sir.
    Senator Byrd. I thank you.
    Thank you very much, Mr. Chairman.
    Senator Domenici. Thank you.
    Senator Reid, are you finished with this panel?
    Senator Reid. Yes, Mr. Chairman.
    Senator Domenici. Mr. Secretary, did you want to say 
something?
    Dr. Zirschky. If I might, sir.

                           program execution

    Thank you very much for working with us on this issue. I 
just would like, in closing, to ask you for two favors. One, we 
need to come to some agreement with OMB on the size of the 
program to give us the predictability that we need to do our 
best possible job. It is very tough on us right now with this 
uncertainty. It even causes debates about how much we can 
execute.
    I am more worried about that because we get penalized for 
carryover, and a lot of the money we are not able to actually 
use. OMB counts it against us when they put together the budget 
request--through no fault of our own for much of the money, but 
it still works against us.
    So with your help, Mr. Chairman, over the next few weeks 
and months, we will probably be submitting many reprogramming 
requests to try to keep what we have going and to get things 
going as fast as we can.
    Some of the money I may have to come to ask you for is 
money that previous administrations have reprogrammed away from 
projects for which they did not have follow-on funding. We have 
tried not to reprogram money away from projects which the 
President did not include in his 1999 budget because we don't 
have a way to pay it back. But we are about to run out of 
complete flexibility because we will submit requests for all 
the money we can easily touch.
    Now I am going to have to get to the hard stuff which is I 
may have to come to you and ask you to help us reprogram money 
that I cannot promise to pay back just to keep things going. It 
is not something we want to do, but it is something we may need 
to do. If that happens, I would like to be able to work with 
the committee to keep what we have going.

                    resolution of budget differences

    Senator Domenici. Let me just make an observation and then 
try to see if we can reach a consensus here on what we want to 
do.
    Frankly, I recall, my staff has reminded me of the veto 
message that the President sent up last year. In it, on water 
projects, the President said he was willing to meet with the 
Congress and try to come up with a workable plan.
    Now, I have inquired everywhere I can, but it does not seem 
like the administration has asked anybody to meet any time 
about anything.
    Then comes this budget and that was the commitment about 
where this budget ought to be based on the President's concerns 
about what we did for 1998. That is water under the bridge.
    Now, it is obvious to me that we are in a critical 
situation. You know, contractors must be in a state of turmoil 
and many of them must be about to close up their operations and 
get out, because they don't have a contract or are uncertain 
the Corps will have sufficient funds to cover their earnings. 
There are a lot of them like that.
    The only acknowledgement we have of the willingness to meet 
is in the response letter that I alluded to where Senator Lott 
and 40 Senators sent a letter to the executive branch. In that, 
the OMB Director said, ``I welcome the opportunity to meet with 
you and other interested Senators to discuss issues involved in 
the Corps' near-term and long-term funding. To this end, I 
would appreciate it if a meeting could be convened'' and that 
they will be ready and willing to meet on that.
    This letter is only dated March 20, so not much time has 
passed. But I would think, since our leader made the request in 
this letter, perhaps we ought to consider convening a meeting 
with Mr. Raines with members of this subcommittee, the leader, 
and whomever else and ask Mr. Raines to settle this issue of 
how we are going to keep you all operating.
    I think we would have to have more information, wouldn't 
you, Senator, before we go in there?
    Senator Byrd. Absolutely.
    Senator Domenici. We don't want to go in there cold. We 
need some information.
    Senator Byrd. Yes.
    Dr. Zirschky. I would be delighted, sir, to make anybody in 
the Corps available to provide you whatever information you 
need.
    Senator Domenici. Yes; you know, we start with this point. 
OMB wants about $1 billion for construction. Congress and the 
Corps think they need $1.8 billion. So, we start with that.
    Then you have to help us with information regarding what is 
going to happen if we don't get some relief from OMB with 
reference to the problems you are going to list for us. Could 
we have those presented so that they are agreeable to the 
General and you, sir? Give us that information and then we will 
see about seeking that meeting as soon as we can.
    Does that make sense to you, Senator Byrd?
    Senator Byrd. Yes.
    Senator Domenici. We will proceed on that score, then. I 
personally think it is appropriate for you to ask this 
committee for--well, you called it a favor. I think it is just 
a forthright statement that you have a terrible problem, and we 
are going to be jumping on everybody for the results that are 
going to happen if we don't get you some relief. We are going 
to be very upset, because a program we thought was going 
forward is not going on and you have the potential to lose 
contractors, cancel contracts, and let people go home instead 
of working out on these sites.
    If you would get us that information as soon as possible, 
we would appreciate it.
    Thank you, all four of you. It was a pleasure to have you 
all here.
    Dr. Zirschky. Thank you.

                     Additional committee questions

    Senator Domenici. All of the questions submitted by various 
members for the Corps of Engineers will be incorporated in the 
record at this point for your response.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Domenici

                       budget request and impacts
    Question. Gentlemen, we have had a chance to look at the budget 
request for the Corps of Engineers and I have heard from many Senators 
regarding the potential impact the budget request poses on many 
individual projects nationwide if the President's funding levels are 
adopted.
    Most projects would be funded at 50 percent or less than what is 
needed to maintain more efficient construction schedules. This results 
in most projects having completion schedules extended 2-3 years, but 
some have delays of 15 years or more.
    Could you provide some insight into why the President is proposing 
such a dramatic reduction in funding levels?
    Answer. As part of the Administration's efforts to balance the 
budget, the Administration believes that outlays for the Corps of 
Engineers Construction, General program should be stabilized at about 
$1 billion each fiscal year. The fiscal year 1999 budget decisions for 
the Corps were made very difficult for the Administration by fiscal 
year 1998 Congressional actions. The large unrequested fiscal year 1998 
funding increase of $391 million in the Construction, General account 
from a budget request of $1.078 billion to an appropriation of $1.469 
billion resulted in nearly $200 million of additional outlays in fiscal 
year 1999 that must be absorbed within the fiscal year 1999 funding 
level.
    Question. What are the impacts of this budget request in terms of 
increased project cost?
    Answer. The Corps estimates that increased costs due to inflation 
under the completion schedules proposed in the fiscal year 1999 budget 
on projects that are currently in the construction pipeline compared to 
schedules under an unconstrained funding schedule are about $400 
million. The impacts were computed by multiplying the months of delay 
between the two completion dates for each project by a prorated share 
of inflation costs. For projects not included in the fiscal year 1999 
budget, a uniform delay of 12 months was assumed.
    Question. What are the impacts of this budget request in terms of 
lost benefits--that is benefits foregone by extended completion 
schedules?
    Answer. The Corps estimates that total benefits foregone under the 
completion schedules proposed in the fiscal year 1999 budget on 
projects that are currently in the construction pipeline is about $3.6 
billion. These impacts were calculated in the same manner as increased 
project costs.
          future funding levels for water resource development
    Question. Now, the President in vetoing certain water resources 
development projects in the fiscal year 1998 Energy and Water 
Appropriations bill indicated his desire to work with the Congress to 
solve the growing problem of future liabilities and extended delays.
    How does this budget request fulfill the President's stated 
intention to work with the congress to find an acceptable program level 
for the water resource development program?
    Answer. The budget request presented by the President sets forth 
his view of the program amount that is affordable for water resources 
development in the context of all the other programs competing for the 
funds that are available for domestic discretionary spending. The 
Administration recognizes that the Congress has differing views on the 
priority of water resources in relationship to other domestic programs. 
Therefore, a dialogue is desirable to come to an agreement on a program 
level for water resources that allows for the President's priorities 
and those of the Congress. The Army cannot effectively manage this 
program with such levels of uncertainty regarding funding levels.
    Question. Mr. Gauthier, associate Director at OMB, indicated in his 
November 13, 1997 letter to you Dr. Zirschky, that the Administration 
``intends to meet with appropriate Members of Congress to follow up on 
the President's commitment to work toward a solution.'' Can you inform 
the Committee of what meeting or negotiations have taken place to this 
point? Can you check with officials at OMB and provide, for the record, 
a list of meetings which have taken place to date to negotiate a 
solution to this problem?
    Answer. The Administration has officially requested a meeting, but 
none has yet taken place.
                      lump sum contracting policy
    Question. On January 23, 1998, Majority Leader Lott and a 
bipartisan group of more than 40 Senators wrote to Director Raines of 
OMB regarding OMB instructions to the Corps to enter into only lump sum 
contracts for unrequested new construction projects funded by Congress 
in fiscal year 1998.
    Dr. Zirschky, has OMB responded to Senator Lott's letter, and if 
so, can you tell the committee how OMB responded?
    Answer. OMB's initial directive was to only enter into fully funded 
lump sum contracts with the funds added by Congress for new start 
construction projects and elements that were not included in the 
President's fiscal year 1998 budget OMB has now extended its directive 
to all fiscal year 1998 new start projects and elements for which funds 
were appropriated in fiscal year 1998, including those proposed in the 
budget. This directive now includes the twelve new start construction 
projects that were in the President's fiscal year 1998 budget and 
funded by Congress. In addition, the Director of OMB wrote to Senator 
Trent Lott on March 20, 1998, and offered to meet to resolve 
differences on the level of funding for the Civil Works program.
    Question. General Ballard, what impact will this prohibition have 
on continuing contracts have on the progress of the affected projects?
    Answer. Fifteen of the 50 unbudgeted new start construction 
projects or elements for which Congress added funds in fiscal year 1998 
were scheduled for award of continuing contracts in fiscal year 1998. 
The remainder were scheduled for engineering and design and land 
acquisition activities or for award of only fully funded lump sum 
contracts as a normal course of action because of the limited project 
scope. Seven of the budgeted new start projects were scheduled to 
include award of continuing contracts in fiscal year 1998. One project 
was scheduled for award of a fully funded lump sum contract, one 
project was scheduled for land acquisition and engineering and design 
activities, and three projects were scheduled only for engineering and 
design activities. The projects for which continuing contracts were 
scheduled to be awarded must now include award of only fully funded 
lump sum contracts in fiscal year 1998. Awarding lump sum contracts for 
portions of projects that would ordinarily be awarded as part of multi-
year continuing contracts is more costly in the long run primarily due 
to increased mobilization and demobilization costs. These costs 
generally account for 5 to 10 percent of total contract costs. About 
$88 million was appropriated in fiscal year 1998 for the 50 
Construction, General, unbudgeted new start projects and elements. 
Increased mobilization and demobilization costs for these projects 
could range from $4 to $8 million, but will very likely be less than $4 
million because many of the added projects or elements are not yet 
ready to begin construction, the added funds are not sufficient to 
award substantial amounts of work, or the non-Federal sponsors may be 
unwilling to only undertake portions of the projects or elements since 
no funds were included in the fiscal year 1999 budget.
    Question. General Ballard, what impact would Congressional action 
directing the Corps to award continuing contracts on new project 
contract awards have on the ability to manage the construction program?
    Answer. Congressional action directing the Corps to award 
continuing contracts on new project contract awards could have both 
advantages and disadvantages. Continuing contracts are generally used 
if work will be completed over several fiscal years, and they are 
incrementally funded each year as funds are appropriated for the 
applicable project. On the plus side, such Congressional direction 
would assure that all new start construction projects are undertaken in 
the same manner as most ongoing Corps construction projects included in 
the President's budget each fiscal year. On the minus side, such action 
would require award of continuing contracts for projects that are not 
included in the President's budget and would require significant 
Congressional adds each fiscal year to preclude terminating contracts 
due to lack of funds.
                          unfunded obligations
    Question. Dr. Zirschky, I wrote you earlier this year regarding 
requests to approve local interests advancing funds to the Corps to 
allow work to proceed earlier than Corps budgets could accommodate or 
to allow non-Federal interests to undertake work and receive a credit 
at a later time.
    Can you give the committee an estimate of the future unfunded 
liability of work the Corps of Engineers is currently considering?
    Answer. The Corps indicates we have 21 existing agreements which 
total about $274 million in credits and reimbursements. There is a 
potential demand for 27 additional agreements which total about $604 
million. About $36 million of this potential demand is for 
contributions made by non-Federal interests where the Corps has not 
agreed to make reimbursements.
    Question. Do you believe it prudent to approve such requests?
    Answer. It is only prudent to enter into future agreements for 
those projects we believe will be budgeted within available future 
funds to provide timely credit or reimbursement. That is why I move 
such requests only very slowly and with great hesitation. I would 
greatly appreciate your thoughts.
    Question. A condition for the committee considering future requests 
of this nature is a repayment plan agreed to by the Administration and 
the non-Federal partner. When could non-federal sponsors expect to 
receive reimbursement within the funding targets envisioned by the 
President's proposed budget?
    Answer. The Corps has compiled information related to potential 
credits and reimbursements for the period fiscal year 1997 through 
fiscal year 2002 based on non-Federal sponsor expectations and fiscal 
year 1999 through fiscal year 2002 budget ceilings. Most of the credits 
and reimbursements would occur later than sponsor expectations as the 
result of constrained budget ceilings and so far out in the future as 
to not really constitute a commitment. (The information follows:)
    The Administration would only enter into reimbursement agreements 
for which funds are expected to be available. The timing for 
reimbursements would be worked out on a project specific basis.
        formerly utilized sites remedial action program (fusrap)
    Question. Congressional action on the fiscal year 1998 Energy and 
Water Appropriations bill transferred the FUSRAP program from the 
Department of Energy to the Army Corps of Engineers in order to use the 
expertise and experience of the Corps in remediating contaminated 
sites. Aware of potential problems in DOE, Congressman McDade and I 
wrote to the Secretaries of Energy and Defense setting forth the 
committee's expectations.
    Among these expectations was that a Memorandum of Understanding 
(MOU) between the two departments defining respective roles and 
responsibilities would be executed.
    General Ballard, would you please tell us what has transpired with 
the transition of this program?
    Answer. The Corps established as its top priority for FUSRAP in 
fiscal year 1998 ensuring that no slippages would occur as a result of 
the transfer from the Department of Energy (DOE). We have achieved that 
goal. Our second highest priority was to complete an assessment of the 
program which was transferred to us and the report you requested. In 
ensuring a seamless transition and in our program assessment we have 
received the support and cooperation from the DOE at Oak Ridge, without 
which neither would have been possible. Our third highest priority was 
to transfer program and project management responsibilities from the 
management contractor used by DOE to our district and division offices. 
This is now being done. The Corps geographic districts recently 
negotiated their own delivery orders with the management contractor. 
The final stage in the transfer will occur before the end of the 
calendar year, as the geographic districts begin utilizing their own 
contract vehicles.
    Question. Has an MOU been developed or executed in accordance with 
congressional intent? Is this having any adverse impact on the Corps' 
ability to execute the FUSRAP program?
    Answer. We have not executed an MOU in accordance with 
congressional intent. We have met with DOE officials to discuss issues 
related to the transfer of the program. The Corps has begun drafting a 
proposed MOU identifying roles and expect this effort will be 
intensified over the next couple of months. The lack of an MOU, 
however, has not had an impact on the execution of the work scheduled 
for fiscal year 1998. I believe that having an MOU will improve the 
exchange of information between the Corps and DOE and is needed to 
resolve issues concerning the respective roles of the two agencies.
    Question. The Committee is informed that DOE has indicated that 
there was a significant gap in the transfer of this program, and the 
gap was related to regulatory issues. Could you explain the nature of 
this gap?
    Answer. The Corps has the necessary Comprehensive Environmental 
Response, Compensation and Liability Act of 1980 (CERCLA) authorities 
and responsibilities to complete cleanup of the remaining 22 FUSRAP 
sites. While certain questions remain (e.g., regarding management of 
the federally owned disposal sites, such as the Niagara Falls Storage 
Site).
    Question. There are concerns that the Corps is unilaterally 
reclassifying the FUSRAP nuclear waste material and disposing of it in 
a manner that is not in compliance with regulators in order to reduce 
costs thereby making the Corps execution of this program look better. 
General Ballard, how do you respond to this?
    Answer. The Corps has the responsibility to characterize all waste 
which must be disposed as a result of the cleanup at the FUSRAP sites. 
There are a number of federal and state laws which impose limitations 
on the disposal of waste materials at facilities which are permitted to 
receive particular kinds of solid, hazardous or radioactive waste. 
USACE will ensure that all waste which is disposed from FUSRAP sites is 
managed in compliance with all applicable federal and state laws and 
regulations, and will continue to work with environmental regulatory 
agencies to ensure such compliance.
    Question. The Congress requested a report on the Corps assessment 
of the program and steps that could be taken to complete the FUSRAP 
clean up program faster and at reduced cost. General Ballard, has the 
report been completed, and if so, in your judgement could DOE have 
completed the cleanup effort by 2002?
    Answer. Based on the information available to me, I do not believe 
that DOE was on track to complete the cleanup of FUSRAP sites by 2002. 
The draft accelerated cleanup plan which DOE prepared in June 1997 
limited the scope of the program principally by proposing that 
hazardous wastes at the Niagara Falls Storage Site remain on site and 
by proposing to clean up the St. Louis sites to a restricted use 
industrial standard rather than industrial use. In addition, the draft 
accelerated cleanup plan was based on an early estimate of the scope of 
the required work at the Luckey site which, it has since been 
established, greatly underestimated the quantities requiring 
remediation. Further, DOE's completion date of 2002 for the draft 
accelerated cleanup plan was premised on an annual funding level of 
$182 million per year over the next several years which, at this time, 
doesn't seem likely.
    Question. What is the Corps assessment of when the cleanup of all 
the remaining sites can be completed? What are the reasons for the 
differences between DOE's plan and the Corps assessment?
    Answer. In our assessment the Corps could complete 16 sites by 
2002, following the Comprehensive Environmental Response, Compensation 
and Liability Act of 1980 (CERCLA) close out process. Four additional 
sites could be completed by 2004. The two remaining sites, Niagara 
Falls Storage Site, NY and Luckey, OH could not be completed until 
2006. These last two sites are in the early stages of characterization 
and pose a major technical challenge for site cleanup. The Corps 
assessment includes removal of hazardous wastes at the Niagara Falls 
Storage Site and recognizes the increased quantities at the Luckey, OH, 
site. Our ability to actually accomplish cleanup by these dates will 
depend on the level of funding provided and the specific cleanup 
criteria established for inidividual sites in accordance with CERCLA.
    Question. What annual funding level would be necessary to complete 
the cleanup program by 2006? Does the fiscal year 1999 budget request 
support the 2006 date?
    Answer. In order to complete in 2006, funding for fiscal years 
1999-2002 would have to be $281.1 million, $322.1 million, $314.3 
million and $230.5 million, respectively. Requirements for fiscal year 
2003-2006 would be substantially less, $62.5 million, $103.5 million, 
$96.9 million, and $7.4 million respectively. These estimates are based 
on assumptions regarding cleanup criteria. Actual cleanup criteria, 
which will be established on a site by site basis in accordance with 
the CERCLA process, will impact both schedule and costs. Funding at the 
$140 million level will not permit completion of the program until 
fiscal year 2011.
    Question. General Ballard, the Corps has been managing this program 
only 6 months. Has DOE been completely cooperative and helpful, 
particularly here in Washington, to bring about a smooth transition? 
What areas or issues remain unresolved between DOE and the Corps and 
have DOE and the Corps agreed on a plan to resolve them? Provide for 
the record a list of the remaining issues and the dates when you expect 
them to be resolved. What are the most notable achievements of your 
first months of FUSRAP management?
    Answer. We have achieved a smooth transition from DOE without 
slippage at any of the FUSRAP sites in large part because of the 
support we have received from DOE and its contractors at their Oak 
Ridge facilities. However, we have not reached agreement with the DOE 
regarding the extent to which FUSRAP responsibilities which were 
transferred by the Energy and Water Development Appropriations Act.
    Chief among the unresolved issues are ownership and maintenance 
responsibilities for sites completed by DOE prior to 13 October 1998, 
responsibility for the designation of new sites into FUSRAP, and 
responsibility for site closeout and long term monitoring and 
maintenance at the 22 sites which the Corps was asked to complete. In 
order to resolve these issues, the Corps is drafting a proposed 
Memorandum of Understanding to clarify the respective roles and 
responsibilities of DOE and the Corps regarding FUSRAP. I would like to 
complete negotiations with DOE and execute a MOU so we move into fiscal 
year 1999 execution with the transition behind us.
    Our biggest achievement was ensuring that there would be no 
slippages as a result of the transfer. We not only have been able to 
maintain schedules, but it appears we have postured ourselves to 
accelerate efforts at Middlesex, NJ, and at several sites which had 
been put on the back burner, including Bliss and Laughlin Steel, 
Buffalo, NY; Madison, IL; W.R. Grace Site, Curtis Bay, MD; and Dupont 
and Co., Deepwater, NJ. In addition, we anticipate closing out the 
Shpack Landfill, Norton, MA site. We have negotiated a new disposal 
contract at one of our sites which will reduce disposal costs for mixed 
wastes by approximately a third for that site. We have undertaken 
several value engineering studies which have the potential to produce 
substantial savings.
             tennessee valley authority non-power functions
    Question. You are aware that TVA performs non-power functions such 
as flood control and navigation on the Tennessee River and its 
tributaries. Which of these non-power functions are similar to 
activities the Corps performs in other parts of the country?
    Answer. The water resources development and management functions 
performed by TVA are virtually identical to what the Corps does 
nationwide. The Corps constructs dams and reservoirs, such as are found 
on the Tennessee River and tributaries, and controls the impounded 
water for multiple purposes, including navigation, flood control, 
hydropower, water supply, and recreation. We also operate or license 
the lands at those reservoirs for recreation, resource management, and 
environmental stewardship. In addition, the Corps designs, constructs, 
rehabilitates, and operates the system of locks and dams on the Inland 
Waterway System, and in fact we operate the locks at the TVA dams, 
maintain the Tennessee River for navigation, are constructing Kentucky 
Lock on the Tennessee River, and have performed an independent review 
of the condition of TVA's Chicamauga Lock.
    Other functions are less similar. The Land Between the Lakes 
National Recreation Area would pose a challenge because there are 
several unique activities at Land Between the Lakes that the Corps does 
not perform as part of its traditional recreation management mission at 
lake projects. Regional economic development assistance is beyond our 
authority.
    Question. Does the Corps have the technical capability to take over 
those TVA functions?
    Answer. Yes, the Corps has the technical capability to take over 
the dams and reservoirs, operate them as a system, and perform repair 
and rehabilitation activities to ensure that they are efficient, 
reliable and safe.
    The Corps does not have the manpower, funds, or authority to assume 
these responsibilities, and the steps to transfer the physical assets 
and associated responsibilities would take additional time and money.
    TVA maintains its power and non-power programs are integrated in 
such a way that separating them could cause inefficiencies and loss of 
money and power. Any transfer would have to deal with this issue.
    Question. Could you provide the Committee at the earliest possible 
time an analysis as to what functions would be appropriate to possibly 
transfer to the Corps including an estimate of the funding and 
personnel resources that would be necessary for the Corps to carry out 
those functions. Also provide any legislative language that would be 
helpful in making an orderly transition.
    Answer. I will work through the Administration to provide the 
information you have requested. I would note that the Office of 
management and Budget is preparing a report to Congress, in response to 
a request in the Conference Report to the Fiscal Year 1998 Energy and 
Water Development Appropriations Act, that will address the issue of 
whether some other entities should be responsible for the execution of 
TVA non-power activities.
                          new mexico projects
              las cruces flood control project, new mexico
    Question. The Congress provided $1,500,000 to initiate the Las 
Cruces flood control project in New Mexico. This project was included 
in the President's fiscal year 1998 budget as a new construction start. 
We have information that the Corps plans to use only about $400,000 of 
the $1,500,000 appropriated for fiscal year 1998. Is this correct, and 
if so why?
    Answer. Sir, $400,000 will be used in fiscal year 1998 to complete 
the plans and specifications, execute the Project Cost Sharing 
Agreement, and continue coordination with the City of Las Cruces. The 
additional funds could not be used to accelerate the project due to the 
remaining time required by the local sponsor to complete real estate 
acquisition. The local sponsors have indeed moved out quickly. However, 
they do not have all the land, perhaps 90 percent but not all. Even 
once the remaining 10 percent is acquired, there are still 
certifications of compliance and etc. required to wrap everything up.
    Question. How will the $150,000 included in the President's fiscal 
year 1999 budget request be used?
    Answer. Sir, those funds will be used to continue real estate 
coordination and to ready the project for construction.
    Question. What impact does the budget request have on the project 
completion schedule?
    Answer. The construction contract award for the Las Cruces project 
was delayed one year due to a constrained budget ceiling, and is now 
scheduled for December 1999. Project completion will be delayed from 
August 2000 to August 2001.
    Question. How much is the cost of the project expected to increase?
    Answer. Sir, the project costs are anticipated to increase by 
$200,000.
    Question. Who is responsible for paying those costs?
    Answer. Sir, this increase in cost will be shared on a 75-25 
percent basis by the Federal government and the City of Las Cruces.
    Question. The City of Las Cruces has acquired necessary property 
and passed a $2,000,000 bond issue to cover the local cost sharing 
requirement. They are ready to go. How much funding is needed in fiscal 
year 1999 to get this project under construction and on an efficient 
schedule?
    Answer. Sir, funding in fiscal year 1999 in the amount of 
$3,470,000 would enable us to award the construction contract in 
December 1998 and complete construction as originally scheduled in 
August 2000. Although project and study capabilities reflect the 
readiness of the work for accomplishment, they are in competition for 
available funds and manpower army-wide. In this context, the fiscal 
year 1999 capability amount for $3,470,000 considers the Las Cruces 
Flood Control project by itself without reference to the rest of the 
program. However, it is emphasized that the total amount proposed for 
the Army's Civil works program in the President's budget for fiscal 
year 1999 is the appropriate amount consistent with the 
Administration's assessment of national priorities for Federal 
investments and the objective of achieving and maintaining a balanced 
budget. Therefore, while we could use $3,470,000 on the Las Cruces 
Flood Control project, offsetting reductions would be required in order 
to maintain our overall budgetary objectives.
                 acequias irrigation system, new mexico
    Question. My office continues to hear from interests in New Mexico 
that the Corps is not proceeding in an efficient and effective manner 
on the Acequias Irrigation System rehabilitation work. However, 
information provided to the Subcommittee by the Corps indicates that 
the Corps cannot proceed with work until the Interstate Streams 
Commission gives approval to individual cost-sharing agreements with 
the acequias organizations. General Furhman/General Ballard can you 
help me understand what is causing the delays on this project?
    Answer. Sir, the information previously provided by the Corps is 
correct. There are currently seven projects that the State of New 
Mexico, the local sponsor, is reviewing and coordinating with the local 
Acequias associations for approval. These seven projects have been 
under financial and technical review by the State for over two years.
    Question. What can the Corps do to resolve these problems?
    Answer. Sir, the Corps will continue to work with the New Mexico 
Acequias Commission, the State of New Mexico, and the individual 
Community Ditch Associations. The U.S. Fish and Wildlife Service has 
completed a Programmatic Fish and Wildlife Coordination Act Report for 
the acequia program. We will no longer have to prepare individual Fish 
and Wildlife Coordination Act Reports for each project. We also plan to 
produce Programmatic Environmental Assessments for acequias in major 
river basins. This would eliminate the requirement to prepare an 
Environmental Assessment and conduct public review for each individual 
acequia project. Remaining environmental coordination will continue to 
include Section 106, National Historic Preservation Act compliance and 
Endangered Species Act compliance. We are also exploring other 
opportunities to expedite our processes to assure prompt delivery of 
quality products with budget.
    Question. What assurances can you give me that the problem is not 
with the Corps of Engineers?
    Answer. Sir, the Corps is committed to providing the irrigators in 
New Mexico reliable, permanent facilities requiring minimal 
maintenance. We will continue to work with all Federal, State and local 
entities to refine the process and proceed in an efficient and 
effective manner.
    Question. How much funding was available to be spent in fiscal year 
1998 and how much does the Corps expect will actually be used?
    Answer. Sir, in fiscal year 1998 the Corps had $1,980,000 available 
for expenditure. We have scheduled $587,000 for expenditure.
    Question. Will the Corps work cooperatively with the New Mexico 
Acequias Commission and other interested parties in evaluating the 
efforts and effectiveness of the Corps in executing the Acequias 
Rehabilitation project?
    Answer. Yes, Sir. The Corps is committed to this effort.
    Question. Do you expect to be able to spend more than the $150,000 
budget request for fiscal year 1999?
    Answer. Yes, Sir.
    Question. If so, how much additional funding is needed and how will 
the funds be used?
    Answer. Sir, our approved capability is $600,000. Although project 
and study capabilities reflect the readiness of the work for 
accomplishment, they are in competition for available funds and 
manpower army-wide. In this context, the fiscal year 1999 capability 
amount for $600,000 considers the Acequias Irrigation System project by 
itself without reference to the rest of the program. However, it is 
emphasized that the total amount proposed for the Army's Civil works 
program in the President's budget for fiscal year 1999 is the 
appropriate amount consistent with the Administration's assessment of 
national priorities for Federal investments and the objective of 
achieving and maintaining a balanced budget. Therefore, while we could 
use $600,000 on the Acequias Irrigation System project, offsetting 
reductions would be required in order to maintain our overall budgetary 
objectives. Pending approval of the cost sharing agreements by the 
State of New Mexico, the Corps could continue to design and ready the 
acequias projects for construction.
                upper rio grande water operations model
    Question. The committee has strongly supported the Corps efforts 
related to scheduling reservoir operations and the joint program with 
other Federal agencies related to the need for an Upper Rio Grande 
water operations model to help managers in flood operations, water 
accounting, and evaluation of water operations. Is this a worthwhile 
activity that is providing benefit to the Corps?
    Answer. Yes, Sir. The Upper Rio Grande Water Operations Model is a 
tool to more efficiently manage water, a critical resource for the 
future of the Rio Grande Basin. The water operations model will replace 
our current processes that impede making timely water management 
decisions. It will provide immediate information for daily reservoir 
water operations, and more accurate and timely projections of Federal 
water operations in the basin.It will be used extensively to evaluate 
the interrelated effects of water operation alternatives and individual 
water management decisions on the river basin as a whole with all of 
the Basin's contemporary complexities.
    Question. Have the other Federal agencies budgeted their funding 
for fiscal year 1999?
    Answer. Yes, Sir. The Bureau of Reclamation has budgeted $229,000 
within its Middle Rio Grande Project for fiscal year 1999 and have 
expressed a need for an additional $350,000 for their participation in 
this joint effort in fiscal year 1999. The U.S. Fish and Wildlife 
Service, U.S. Geological Survey, Bureau of Indian Affairs and 
International Boundary and Water Commission have not previously had a 
separate budget item included for this effort but have supported it 
through their other ongoing activities in the Rio Grande Basin.
    Question. How much is included in the Corps budget to continue 
participation in fiscal year 1999?
    Answer. Sir, $60,000 was included in the Corps' fiscal year 1999 
Operations and Maintenance budget for the Upper Rio Grande Water 
Operations Model Study.
    Question. What does the Corps need in fiscal year 1999 to continue 
their involvement in this joint effort?
    Answer. Sir, the Corps needs $850,000 in fiscal year 1999 to 
continue the joint program with other Federal agencies for development 
of the water operations model and to evaluate existing Federal basin 
water operations in cooperation with the Bureau of Reclamation. 
Although project and study capabilities reflect the readiness of the 
work for accomplishment, they are in competition for available funds 
and manpower army-wide. In this context, the fiscal year 1999 
capability amount for $850,000 considers the Upper Rio Grande Water 
Operations Model by itself without reference to the rest of the 
program. However, it is emphasized that the total amount proposed for 
the Army's Civil works program in the President's budget for fiscal 
year 1999 is the appropriate amount consistent with the 
Administration's assessment of national priorities for Federal 
investments and the objective of achieving and maintaining a balanced 
budget. Therefore, while we could use $600,000 on the Upper Rio Grande 
Water Operations Model, offsetting reductions would be required in 
order to maintain our overall budgetary objectives.
                          loyal sock creek, pa
    Question. The Dushore project was funded in fiscal year 1998 under 
Section 14 and Section 205. What is the status of the Corps of 
Engineers review of this project and why shouldn't it be funded 
entirely in Section 205?
    Answer. Initiation of both the Section 14 and Section 205 
investigations was formally requested by the Borough of Dushore on 
March 27, 1998. An initial coordination meeting and site visit with the 
sponsor will be conducted in April. After this site visit, a decision 
will be made on whether it is appropriate to incorporate the Section 14 
project into the Section 205 project.
    Question. What is the Corps capability to continue this project in 
fiscal year 1999?
    Answer. The amount appropriated in fiscal year 1998 is sufficient 
to continue this project in fiscal year 1999.
    Question. When do you expect to complete the reconnaissance level 
study and begin a feasibility study?
    Answer. The feasibility study will be initiated in April 1998.
    Question. Assuming a favorable reconnaissance report, when could a 
feasibility study be completed and actual construction begin?
    Answer. If the Section 14 project is incorporated into the Section 
205 project, the feasibility study could be completed in fiscal year 
2000 and construction could be initiated in fiscal year 2001.
    Question. Could this be started in fiscal year 1999?
    Answer. Yes. The feasibility study will be initiated in April 1998.
    Question. Will you provide for the record a list of all the new 
start programs and projects included in the fiscal year 1999 budget?
    Answer. Yes sir, the following table reflects the proposed new 
start studies, projects and programs for fiscal year 1999.
                         general investigations
    Kern River Valley (Isabella Lake), CA
    Long Island, Marsh & Johns Creeks, GA
    Ala Wai Canal, Oahu, HI
    Coastal Massachusetts Ecosystem Restoration, MA
    Bayou Pierre, MS
    Cimarron River and Tributaries, NM, OK, CO, & KS
    Columbus Metropolitan Area, OH
    Lower Columbia River, OR & WA
            flood control, mississippi river and tributaries
    Mississippi River, Alexander Co., IL & Scott Co., MO
                         construction, general
    Walter F. George Powerhouse and Dam, AL & GA (Major Rehab)
    Jim Woodruff Lock and Dam, Lake Seminole, FL, AL & GA
    Chain of Rocks Canal, Mississippi River, IL (Def Corr)
    Lock and Dam 24 Part 2, Mississippi River, IL & MO (Major Rehab)
    Patoka Lake, IN (Major Rehab)
    Assateague Island, MD
    Big Sioux River, Sioux Falls, SD
    London Locks and Dam, Kanawha River, WV (Major Rehab)
            flood control, mississippi river and tributaries
    Grand Prairie, AR
                         construction, general
    Riverine Ecosystem Restoration and Flood Hazard Mitigation
    Dredged Material Disposal Facilities Program
                   operation and maintenance, general
    Management Tools for Civil Works Research Program
                                 ______
                                 

                 Questions Submitted by Senator Gorton

    Question. As you know, the Corps of Engineers has recently begun 
distributing surveys to Northwest residents in an attempt to assess the 
impacts on recreation of breaching Snake River dams. Included in these 
surveys is a two-dollar bill and, in many surveys, the promise that if 
one responds, an additional ten dollars will be paid to the respondent. 
Please explain the process through which the Administration, 
specifically the Corps of Engineers, approved of the content and 
structure of the surveys. This response should include a detailed 
explanation of both the study and pre-study process, as well as 
justification for the use of substantially different texts during 
individual rounds of surveys and what results are expected as a result 
of their use.
    Answer. The content and structure of the final surveys have not 
been approved at this time. The recreation surveys are in draft form, 
and are currently undergoing technical reviews within the Corps of 
Engineers, as well as a peer review. These reviews follow extensive 
reviews conducted by members of the Drawdown Regional Economic Analysis 
Workgroup (DREW). The surveys are being developed by a consultant who 
is a nationally recognized expert in this area. A variety of Federal 
agencies, tribes, private economic consultants, and other experts in 
conducting contingent value surveys have contributed in the development 
and review process. The intent of this extensive review process is to 
ensure the technical creditability of the surveys before they are 
finalized and approved.
    Draft surveys were reviewed and approved by the Corps to allow for 
limited survey testing. Such testing, where the draft surveys were sent 
to 150 people selected at random, formed the basis for making further 
survey modifications to enhance the creditability of the responses when 
the official survey is conducted. Several different draft survey 
versions were developed. These versions differ primarily in the area of 
the potential biological benefits of the alternatives under 
consideration. Such versions were deemed necessary in the absence of 
specific biological information relating to the alternatives. In 
addition, many of the questions in the draft surveys assume a definite 
conclusion, which may not be factual. Such statements were deemed 
necessary in the absence of specific biological data to ensure a higher 
degree of accuracy in the responses. Research has shown that questions 
which appear to be hypothetical in nature, lead to less accurate 
answers by survey respondents. That is, questions presented in a 
hypothetical manner lead to hypothetical answers, and the object of the 
survey is to achieve greater certainty in the survey results.
    The final survey forms and questions will be completed after 
extensive quality control/quality assurance reviews as discussed above. 
The final survey will be submitted to OMB for review and approval. We 
will not use a cash incentive in the distribution of the final survey. 
The final survey will be mailed to 15,000 people from the states of 
Oregon, Washington, Idaho, Montana, and northern California. Responses 
of the final survey will assist in providing: (1) estimates of 
recreation use and benefits associated with the existing system; (2) 
estimates of recreation use and benefits from returning the Lower Snake 
River to a more natural state; (3) estimates of non-use values for 
salmon and a more natural river condition; and, (4) estimates of non-
use values for salmon recovery associated with project improvements and 
additional barge transportation of juvenile salmon.
    Question. How does the Corps of Engineers justify the inclusion of 
two-dollar bills and the incentive of an additional ten dollar to 
respondents? In addition, please explain the approval process the 
inclusion of such incentives was subject to, including the 
participation of the Office of Management and Budget or any other 
Federal agency in the development and approval of this plan.
    Answer. The use of small monetary incentives in mail surveys is a 
commonly used practice to ensure higher response rates. A higher 
response rate will improve the reliability of survey findings, and will 
tend to reduce the level of risk and uncertainty in the conclusions 
derived from the survey results. Reliability in the conclusions drawn 
from the survey is critical, especially when such information may be 
used as part of the decision making process for long-term configuration 
of the four Lower Snake River projects. Such a decision will have 
significant regional and national implications.
    These incentive payments were provided as part of the test mailing 
of five ``dam removal'' versions of the draft survey during February-
March 1998. The test survey was sent to 150 people selected at random, 
each of whom received a $2 participation incentive. An additional $10 
was provided to 43 of those who responded to the survey and completed a 
45 minute telephone follow-up interview. The total incentive payment 
for the test was less than $750. The information obtained from the test 
of the draft survey and subsequent telephone interview will greatly 
assist in making refinements to the questionnaire and will further 
enhance the technical credibility of the final survey.
    The surveys are being developed by a consultant who is a nationally 
recognized expert in this area. Federal agencies, tribes, private 
economic consultants, and other experts in conducting contingent value 
surveys have contributed in the development and review process. Draft 
surveys were reviewed and approved by the Corps in February 1998 to 
allow for limited survey testing. The Corps review was conducted to 
ensure consistency with pre-approved OMB survey questions. Specific 
approval from OMB for the small monetary incentive for the survey tests 
was not sought. The Corps has no plans to use monetary incentives in 
the distribution of the full survey.
    Question. Please provide a detailed outline of the survey strategy. 
This outline should include numbers of surveys being mailed, content of 
surveys, including notification if more than one text will be used in 
any specific surveying rounds, and any other relevant information on 
the strategy of gathering public opinion on the drawdown or breach of 
Snake River Dams.
    Answer. The present strategy, which is still under review, is for 
the final survey to be distributed to a total of 15,000 people residing 
in the states of Oregon, Washington, Idaho, Montana, and northern 
California. No incentive will be used in the distribution of the final 
survey. The surveys are scheduled to be sent out after OMB approval. 
They will be distributed by the University of Idaho. The Corps will 
provide Congressional notification of survey action prior to sending 
out any final survey documents to potential respondents. There is no 
reference in the survey to the Corps or the Lower Snake River Salmon 
Feasibility Study.
    There is a range of different survey versions being developed. 
These versions project different potential benefits for salmon 
associated with the alternatives under consideration, including 
existing conditions, dam removal, and increased barge transportation. 
The use of a range of survey versions is necessitated by the absence of 
specific biological performance data for these alternatives at this 
time.
    Question. The Corps of Engineers has recently awarded a contract to 
cover the site where the Kennewick Man remains were discovered. 
Included in the Senate version of the Supplemental Appropriations bill 
is an amendment prohibiting the Corps from taking any actions to cover 
or alter the site without specific approval by the Court with 
jurisdiction over a civil action between a group of prominent 
anthropologists and archaeologists and the Federal Government. As this 
is a matter of extreme urgency, I request responses to the following 
requests by April 3, 1998.
    Answer. Yes, we understand.
    Question. Please provide a justification for the Corps' actions. 
Included should be all relevant data supporting the claim that the site 
is at serious risk of erosion due to heaving rain flows in coming 
months.
    Answer. In December 1997 the Corps determined that there was a 
potential for high flows, similar to previous years, which could 
inundate the park and further erode the site due to saturation and high 
flow velocities. We now expect spring flows will be lower than the 
December projections. However, a serious risk of erosion still exists 
due to wind-driven or boat generated wave action.
    Question. Please provide a history of the administrative process 
through which the Corps determined the risk at the site, developed the 
plan for site protection, and approved of the plan.
    Answer. The site of discovery of the subject human remains consists 
of a narrow beach bounded on one side by the Columbia River and on the 
landward side by a rapidly eroding bluff line and upland terrace. The 
subject human remains were discovered scattered along the beach and in 
the river surf-line. It has been postulated that a series of high-water 
events over a period of several years eroded the bluff line 
sufficiently to expose the subject human remains and it is this erosion 
that caused the bones to spill downward onto the beach and into the 
surf-line.
    In the Fall of 1997, the Corps, the Departments of the Interior and 
Justice, and representatives from the President's Office of Science and 
Technology became sufficiently concerned about the on-going erosion and 
potential for additional erosion in the Spring and Summer of 1998 to 
begin the formulation of plans to physically protect the eroding bluff 
line. The interagency concern focused on the need to ensure the 
preservation of undisturbed cultural resources in the terrace behind 
the eroding bluff line.
    In December 1997, the Corps led an integrated team of government 
scientists and investigators from the Confederated Tribes of the 
Umatilla Indian Reservation (CTUIR) and Washington State University 
(WSU) in a thorough examination of the beach and bluff line at and near 
the site of the discovery. The Corps notified the U.S. District Court 
of the scientific investigation and of the plan to protect the area. 
The Corps also complied with Section 106 of the National Historic 
Preservation Act by completing consultation with the Washington State 
Historic Preservation Office and the President's Advisory Council on 
Historic Preservation. Through the section 106 process, the Corps has 
confirmed that site protection measures will have no adverse effect on 
any significant cultural resources.
    The Corps' Walla Walla District conducted an intensive evaluation 
of the discovery site characteristics and studied a number of 
engineering (structural and non-structural) solutions. The most 
effective and efficient remedy to the on-going erosion includes the 
placement of rockfill materials along the eroding bluff line, covering 
the rockfill with topsoil, and covering the topsoil with vegetation and 
plant species to stabilize and anchor the soil. Construction materials 
will be air lifted to a ground crew to avoid overland hauling that 
could adversely affect significant natural and cultural resources. The 
contract for this effort was awarded on 24 March 1998 and the 
contractor began work on that date. All in-water work is scheduled to 
be completed by 15 April 1998 and all construction activities will be 
completed by 30 April 1998.
    Question. Please provide an account of what monies will be used for 
this purpose. Specifically, please include a list of the account or 
accounts to be drawn upon for funding for this project.
    Answer. The monies that will be used for this will be from McNary 
Lock and Dam under the Operations and Maintenance, General, 
Appropriation.
    Question. Please provide an explanation of the Corps' 
interpretation of the amendment to the Supplemental Appropriations bill 
and how it might affect the project to cover the site. Please 
specifically address any impacts on the project should the project 
start and the Supplemental Appropriations bill become law before its 
completion.
    Answer. Work was started on 24 March and most of it must be 
completed by 15 April to avoid harm to endangered and threatened salmon 
and steelhead species which will be migrating through that stretch of 
the Columbia River on, and after, this date.
    Question. How will any reductions in the Columbia River Fish 
Mitigation budget affect the Corps' ability to manage federal multiple-
use projects on the Columbia and Snake Rivers? Additionally, how, if at 
all, will any reductions in this budget affect the Corps' relationship 
with the Bonneville Power Administration, in light of the recent direct 
funding agreement?
    Answer. Sir, in the near term there would be little or no effect 
from any reduction in the Columbia River Fish Mitigation budget on our 
ability to manage our multiple use projects because this work is 
carried out with Operations and Maintenance funding rather than 
Construction, General, funding used for the Columbia River Fish 
Mitigation Project. However, reduced funding for this project over the 
next several years could impact management of the multipurpose projects 
in the long run. This is because the Columbia River Fish Mitigation 
Project is carrying out measures in the Reasonable and Prudent 
Alternative in the 1995 salmon Biological Opinion regarding hydropower 
operations and system configuration. If we are unable to implement 
measures in the Reasonable and Prudent Alternative as presently 
written, it is conceivable that other measures could be formulated, 
such as increased spills and flow augmentation, which would impact 
other multiple uses. The recent agreement we signed with Bonneville 
Power Administration is for direct funding of annual Operation and 
Maintenance power costs to include hydropower specific costs, the power 
portion of joint use costs and power small capital items. At the 
present time we do not foresee that reduced funding in the Columbia 
River Fish Mitigation Project will affect our relationship with 
Bonneville Power Administration under the agreement.
    Question. Representatives of the Corps of Engineers have recently 
stated that the Corps of Engineers could, under the correct 
circumstances, begin work to drawdown or breach Columbia River dams by 
early in the next century. Please provide a detailed account of any 
scenario in which drawdown or breach of a Columbia or Snake River dam 
could occur before 2008 and a list of assumptions that Corps 
representatives have used to develop such a scenario.
    Answer. The Corps is currently only looking at drawdown or dam 
breaching of the four dams on the lower Snake River. We have not 
started planning studies for any projects on the lower Columbia River 
at this time, and are awaiting a decision and funding from Congress to 
conduct the first phase of planning study on John Day reservoir 
drawdown.
    For the lower Snake River dams we are developing an implementation 
(design and construction) plan that would be used if a decision is made 
to breach the dams. Based on preliminary information it may be possible 
to actually breach the lower Snake River dams on or before 2008. A 
number of assumptions are inherent in this optimistic scenario, 
including the following:
    The draft EIS and Feasibility Report would be distributed in April 
1999. The final EIS and Feasibility Report would be completed in 
December 1999. It assumes that the recommended plan of action in the 
EIS has regional consensus.
    It is assumed that there would not be lengthy litigation. This may 
be an optimistic assumption but there is no reasonable way to account 
for litigation in an implementation schedule.
    It assumes Congressional authorization to implement drawdown or dam 
breaching would occur in 2000, presumably as part of a WRDA. This is 
possible assuming there are no delays in the review process and 
submission of the Chief of Engineers report to Congress.
    It assumes appropriations, along with authorization, would occur in 
the fall of 2000 and that the Corps would receive the required funding 
in all future years (related to drawdown) so as to preclude any future 
resource limitations.
    Preconstruction, Engineering and Design phase would be initiated 
following both appropriations and authorization.
    In-water work period extensions or exemptions would be provided by 
the fishery management entities. The normal in-water work window for 
the Snake River is November to March, which is a period of low salmon 
and steelhead migration. During the breaching process, in-water work 
would need to start in August, when fish are migrating.
    Question. Please provide justification for the representative's 
position that Planning, Engineering and Design on deconstruction of the 
projects can begin prior to any congressional authorization to breach, 
drawdown or remove dams.
    Answer. Usually, the Corps initiates its Preconstruction, 
Engineering and Design (PED) work after the Feasibility Report is 
forwarded to Headquarters for processing and the Division Engineer 
issues the ``Notice of Report.'' This is part of the Corps seamless 
funding process to assure the swift implementation of water resource 
projects. It is recognized that this is not a typical project. 
Therefore, it has been assumed for the implementation of drawdown that 
the Corps would need project authorization and appropriations prior to 
initiating PED.
    Question. The hydro-electric production of Columbia and Snake River 
dams is an essential component of the economies of the states in the 
Pacific Northwest. Any slowdown in rehabilitation and modernization 
plans underway at Northwest projects has a direct effect on these 
economies. Please provide a detailed justification of the Corps of 
Engineers' plans to decrease funding in fiscal year 1999 for the 
rehabilitation and upgrade projects at Bonneville and The Dalles dams 
and any other affected projects.
    Answer. The needs at these on-going projects had to be reduced by 
about 70 percent to fit within the budgetary ceiling. Funding needs for 
on-going contracts were given due consideration but, when possible, the 
schedules were stretched out. Unstarted work and future contract awards 
were delayed or the specific yearly amounts reduced with the work being 
stretched out.
    Question. Please provide a schedule for completion of the 
rehabilitation and modernization of these projects, including any 
changes that must be made due to the Administration's lower funding 
request for fiscal year 1999.
    Answer. The project completion dates for Northwestern Division's 
three Major Rehabilitation projects are September 2005 for Bonneville 
Powerhouse Phase II Major Rehabilitation project, September 2007 for 
the Garrison Dam and Powerhouse Major Rehabilitation project, and 
September 2007 for The Dalles Powerhouse Major Rehabilitation project. 
As a result of the reduced fiscal year 1999 funding request, The Dalles 
exciter replacements and the start of additional rewinds for eight more 
generators will be delayed one year. Work at Garrison Dam will be 
delayed one year which includes some engineering work, gantry and 
bridge crane repairs, governor repair, replacement of two draft tube 
bulkheads, and other general powerplant work. At Bonneville, generator 
windings and turbine replacements will be slowed down, causing a one 
year project completion delay.
    Question. What consequences does the Corps see any slowdown might 
have on the Bonneville Power Administration and its rates to Northwest 
customers?
    Answer. Schedule delays will increase the total cost for the 
rehabilitation of the powerhouses. The increases in costs will have to 
be paid by the appropriate Federal marketing agency, such as Bonneville 
Power Administration, through increases in electricity rates and 
repayment to the U.S. Treasury. Delays will also increase the 
possibility of unit failure, thus potentially reducing revenues due to 
units being out of service. As a result of delays, reliability of the 
powerhouses will continue to deteriorate resulting in major breakdowns; 
forced outages; and decreases in turbine efficiencies, operational 
flexibility, peaking capability, and juvenile fish survival. Powerhouse 
unreliability is a direct cause of large increases in O&M costs and 
total system power generation costs.
    Question. In the Columbia River Fish Mitigation program, a number 
of alternative strategies for salmon recovery and fish passage are 
being pursued. Does this reflect a pursuit of strategies that will, in 
time, become incompatible? If so, at what point will that occur and at 
what point should decisions ultimately be made regarding the 
continuation of individual strategies?
    Answer. Sir, all of the efforts in the Columbia River Fish 
Mitigation project are directed to improving survival of juvenile and 
adult salmon passing the eight Corps mainstem dams. The National Marine 
Fisheries Service 1995 Biological Opinion called for immediate and 
near-term improvements to the existing fish passage systems. Some of 
these improvements could become obsolete under certain long-term 
reconfiguration alternatives being evaluated under the Biological 
Opinion.
    For the Lower Snake River dams, we are currently evaluating the 
feasibility of long-term actions such as breaching the dams, 
implementing major improvements such as surface bypass systems, or 
retaining the existing systems. The Biological Opinion calls for a 1999 
decision on these long-term alternatives for the lower Snake River. If 
the dams were to be breached, the existing juvenile and adult bypass 
systems would no longer be functional, as the river would flow through 
a channel past the dams. If the decision is to implement surface 
bypass, existing juvenile bypass facilities may continue to be used in 
conjunction with surface bypass. Regional and federal review of a draft 
Environmental Impact Statement/Feasibility Study in 1999 will begin the 
decision process.
    In the Lower Columbia River we are also evaluating and implementing 
passage improvements. These efforts are not necessarily mutually 
exclusive or incompatible at three of the four projects. For example, 
at Bonneville second powerhouse, we have begun construction of juvenile 
bypass system and outfall improvements. These will provide passage 
benefits regardless of the long-term plan at Bonneville, assuming 
breaching, or drawdown is not considered in the future. At John Day, we 
have deferred substantial investment in surface bypass development 
pending decisions by the Appropriations Committees on whether funding 
will be provided for drawdown studies. The 1995 Biological Opinion 
identifies specific decision and implementation dates for individual 
passage improvement measures at the Lower Columbia River projects but 
does not specify an overall decision timeline as for the Lower Snake 
River.
    The Northwest Power Planning Council is engaged in reviewing the 
major construction activities in the Columbia River Fish Mitigation 
Project in response to the Conference Report for fiscal year 1998 
Energy and Water Development Appropriations.
    Question. In its fiscal year 1999 budget request, the Walla Walla 
District of the Corps of Engineers requested $100,000 for a 
reconnaissance study of fish habitat restoration along the Columbia 
River in the Tri-Cities area of Washington state. Please provide an 
explanation for this project's exclusion from the Corps' fiscal year 
1999 budget request.
    Answer. Due to the many recommended studies that competed for 
limited new start funding nationwide and the constrained number that 
could be included, the Tri-Cities Levees Restoration study was not 
selected for the fiscal year 1999 budget request.
                                 ______
                                 

                  Questions Submitted by Senator Craig

                            dworshak project
    Question. The resource manager position at the Dworshak project has 
been vacant for some time, and according to a Corps employee, the 
position will be filled only temporarily. Why can't this position be 
filled permanently?
    Answer. The Walla Walla District Commander made the decision to 
permanently fill this position on 16 March 1998.
    Question. Please submit for the record proof whether the money 
specifically requested by the Corps and appropriated by Congress for 
the Dworshak Project during each fiscal year beginning in 1994 through 
1998, was actually used for operations at the Dworshak Project.
    Answer.

                     DWORSHAK DAM AND RESERVOIR, ID
------------------------------------------------------------------------
                                        President's O&M     Actual O&M
                                         budget request    expenditures
------------------------------------------------------------------------
Routine O&M...........................     ($6,556,000)     ($6,742,864)
Nonroutine O&M........................        (552,000)    \1\ (434,000)
                                       ---------------------------------
      Fiscal year 1994................       7,108,000        7,176,864
                                       =================================
Routine O&M...........................      (6,861,000)      (7,571,626)
Nonroutine O&M........................      (1,371,000)    \2\ (687,000)
                                       ---------------------------------
      Fiscal year 1995................       8,232,000        8,258,626
                                       =================================
Routine O&M...........................      (7,581,000)      (8,180,390)
Nonroutine O&M........................      (1,563,000)    \3\ (928,000)
                                       ---------------------------------
      Fiscal year 1996................       9,144,000        9,108,390
                                       =================================
Routine O&M...........................      (6,500,000)      (8,347,351)
Nonroutine O&M........................      (1,439,000)  \4\ (2,662,000)
                                       ---------------------------------
      Fiscal year 1997................       7,939,000       11,009,351
                                       =================================
Routine O&M...........................      (7,613,000)  \5\ (7,974,700)
Nonroutine O&M........................        (253,000)         \5\ \6\
                                                             (3,418,000)
                                       ---------------------------------
      Fiscal year 1998................       7,866,000   \5\ 11,392,700
------------------------------------------------------------------------
\1\ Boat ramp extension and damage repair; infrastructure repair.
\2\ Boat ramp extension; boat anchor repair; water supply; payment for
  damage claim.
\3\ Foundation grouting; water supply; boat ramp extension; purchase
  tailrace crane.
\4\ Foundation grouting; balance of purchase of tailrace crane.
\5\ Estimated.
\6\ Foundation grouting; hatchery water and temperature control work.

    Question. Will any current or future operational plans for the 
Dworshak Project interrupt electric power, adversely impact 
recreational opportunities, or result in excessive inflow that would 
cause the Reservoir to overfill and harm the citizens of the City of 
Orofino, in Clearwater County, Idaho, or others down river?
    Answer. Current and future plans for Dworshak Project include 
adequate resourcing to assure sound operation and maintenance practices 
of both the powerhouse and natural resource features. I do not 
anticipate significant changes to our overall management philosophy, 
and budget reductions are being applied with the principles of good 
stewardship in mind. Power demands will be met, as in the past. Smaller 
staffing, i.e., fewer rangers and tour guides, may reduce contact 
opportunities for the public. Maintenance expenditures in recreation 
areas have been reduced, but no sites have been closed. Operational 
practices will continue to assure that the safety of the citizens 
living below the Project will be not be compromised.
                     lower snake feasibility study
    Question. Describe the process by which the Corps will develop 
qualitative information related to the potential effects on recreation 
of alternatives being considered in the Feasibility Study. Include in 
this discussion a detailed explanation of how the Drawdown Regional 
Economic Analysis Workgroup (DREW) influences or directly impacts the 
Corps' process.
    Answer. As a component of the feasibility study, the Drawdown 
Regional Economic Analysis Workgroup (DREW) was established to conduct 
a comprehensive analysis of the social and economic effects of 
alternative plans intended to assist in the recovery of listed salmon 
species on the Lower Snake River. Participants in the DREW represent 
numerous Federal agencies (Corps of Engineers, NMFS, BPA, Bureau of 
Reclamation, USFWS), the Northwest Power Planning Council (NPPC), the 
NPPC Independent Economic Advisory Board, states, tribes, environmental 
conservation groups, inland navigation interests, contractors, and 
others. The DREW is part of the Corps process to complete a feasibility 
study by late 1999.
    The recreation analysis, and surveys in question, is a component of 
the overall economic analysis being conducted by the DREW. Recreation 
on the four Lower Snake River reservoirs is a project purpose, and 
these activities would be significantly altered with implementation of 
the drawdown alternative. A study plan was developed by the DREW to 
effectively evaluate the impacts to recreation. The analysis was also 
being designed to estimate how recreation uses would change in the 
event of drawdown. Recreation surveys are currently under development, 
and are designed to obtain necessary qualitative and quantitative 
information on the effects on recreation. Specifically, the four 
primary objectives of the surveys include:
  --Estimate the recreation use and benefits associated with the 
        existing system.
  --Estimate recreation use and benefits from returning the Lower Snake 
        River to a more natural state.
  --Estimate non-use values for salmon and a more natural river.
  --Estimate non-use values for salmon recovery associated with project 
        improvements and additional transportation of juvenile salmon.
    Question. Please provide an update on what is being done to improve 
the objectivity of the survey that will be used to determine: (1) the 
recreation use and benefits associated with the existing system; (2) 
the recreation use and benefits derived from any action returning the 
lower Snake River to a more natural state; and (3) estimate the non-use 
values for a more natural river and for salmon.
    Answer. The surveys are being developed by a consultant who is a 
nationally recognized expert in this area. Federal agencies, tribes, 
private economic consultants, and other experts in conducting 
contingent value surveys have been involved in the development and 
review process. The surveys in question are undergoing rigorous quality 
control/quality assurance reviews by experts at the Corps' Institute 
for Water Resources and at the Corps' Headquarters office. In addition, 
a peer review is concurrently being performed to further enhance the 
technical credibility of the surveys. This overall process is being 
managed by the Walla Walla District office. Following these reviews, 
the Walla Walla District will submit the surveys to the Northwestern 
Division office, where they will be further evaluated to ensure 
compliance with OMB guidelines. The surveys will not be approved nor 
will a formal survey be conducted until these various quality control/
quality assurance processes have been successfully completed.
                     lower snake feasibility study
    Question. Is the current ``PATH'' (Plan for Analyzing and Testing 
Hypotheses) process capable of resolving the ambiguities or 
uncertainties surrounding the scientific data on salmon survival?
    Answer. The uncertainties associated with salmon survival will not 
be completely resolved based on available information. Given enough 
time, we believe PATH could reduce the critical uncertainties 
associated with salmon survival and overall recovery estimates. 
However, based on preliminary results for spring/summer chinook 
analysis, one of the PATH conclusions is that the ``key uncertainties 
are unlikely to be resolved with existing data.''
    Question. Will the data allow definite conclusions to be reached on 
salmon survival from the various recommended alternatives?
    Answer. The PATH process will reduce the degree of uncertainty, but 
it will not result in any definitive conclusions. Current scientific 
information and analyses are not likely to point to a single 
alternative as the only means of satisfying survival and recovery goals 
for Columbia River listed stocks. Preliminary PATH spring/summer 
analysis completed to date is consistent with this observation. 
However, the assessments of spring/summer chinook are incomplete and 
the analyses for other species have only recently been initiated. PATH 
is not scheduled to complete the analysis of fall chinook and steelhead 
until this coming fall. A critical element of the spring/summer chinook 
assessment, the weighting of alternative assumptions, will be carried 
out over the summer. The degree to which the final analysis will be 
able to eliminate or highlight specific actions depends upon the 
outcome of those steps.
    Question. Please provide suggestions as to how the Corps can ensure 
that its Feasibility Study will contain the necessary scientific 
information that will meet its goal of providing ``a sound and 
documented basis with which both federal and regional decisionmakers 
can judge the recommended solutions.''
    Answer. Biological information for the feasibility study is being 
compiled and analyzed through the PATH process. The approach, 
assumptions and products from this interagency effort are periodically 
reviewed by a panel of nationally recognized experts. We recognize that 
the PATH activities are behind schedule. We are working with the PATH 
and with others in the regional forum to explore options for expediting 
the PATH analyses so that adequate biological information will be 
available for use in making the 1999 long-term system configuration 
decisions.
    A regional economic workgroup (DREW) is analyzing the economic and 
social effects of the alternatives. The DREW is looking at direct 
effects of dam removal on power, navigation, irrigation and other 
project uses. They will also examine the secondary economic and social 
effects on the community and regional industries. The economic 
information will be available for the 1999 decision if PATH meets its 
target schedules.
    The Corps is examining the engineering and technical aspects for 
each of the alternatives. This information will be fully available for 
the 1999 decision.
                                 ______
                                 

                  Questions Submitted by Senator Reid

    Question. Dr. Zirschky, you represent the Administration in 
advocating the budget that was presented to Congress. Therefore, I know 
we are on opposite sides of the issue when I say I was extremely 
disappointed in the deep cuts that the President sent to us. As I am 
sure you gathered, earlier this week the administration is advocating a 
budget that is considered not only unpopular but unworkable.
    Don't you see the dilemma that has been created by the budget cuts 
after the Congress expressly provided such strong support for the Corps 
program and projects?
    Answer. Yes, I see the dilemma, and it is a cause of much anxiety. 
The President has requested the amount for water resources that he 
believes is affordable within the ceiling for domestic discretionary 
spending.
    Question. What is your rationale for allowing the projects to be 
further drawn out and thus costing the local cost-share partners more 
in the long run?
    Answer. The amount that the President believes can be made 
available for water resources cannot fulfill the needs of all ongoing 
projects. This left me with a very difficult choice. I could either 
have selected some projects to fund at the optimal rate and not funded 
others, or funded them all at a reduced rate. I did not want to pick 
winners and losers. Indeed, I directed the Corps to do away with an 
existing Army list of high priority projects. There were some 
Administration-wide projects that did get consideration. Thus, my 
rationale was that within the funds available I had to work with, I was 
going to try to be as fair as possible and keep projects going as best 
I could.
                        division office salaries
    Question. I understand that a percentage of the amount that is 
appropriated for a specific project goes to the salaries of officers 
and personnel at the Division offices for their activities that are 
completely unrelated to the projects themselves. Nevada, along with 
other states that do not have a division office, as well as any project 
manager, should be extremely concerned. If this is an accurate 
portrayal of the situation, I intend to propose that those salaries 
should be drawn from the General Administration account for the Corps. 
Your comments?
    Answer. The costs of operating the division offices, including 
salaries for civil program team members, are paid from the General 
Expenses appropriation account, which is the ``general administration'' 
account for the civil works program. If a division also has a military 
program mission, payment of operating costs is shared with the 
Operation and Maintenance, Army, appropriation account. Title I of the 
Energy and Water Development Appropriations Act, 1998, Public Law 105-
62, prohibits the use of project funds for the activities of the 
Headquarters and the division offices.
                            lake tahoe basin
    Question. Given all the restoration work needed immediately at Lake 
Tahoe and the many nonfederal agencies involved in the lake 
restoration, could you explain the reprogramming request of $750,000 
that was appropriated for the Lake Tahoe Basin in fiscal year 1998?
    Answer. The only funds that have been reprogrammed this fiscal year 
from the Tahoe Basin GI study have been $100,000 to fund our efforts in 
the Tahoe Basin Federal Partnership which has the objective to operate 
and protect the extraordinary natural, recreational and ecological 
resources within the Lake Tahoe Region and the economies that depend on 
them. This effort is compatible with the on-going reconnaissance study 
for which funds were appropriated. Moreover, not all of the 
appropriated funds will be expended this fiscal year in the Tahoe Basin 
study due to extended effort to define an appropriate feasibility study 
plan and identify a willing cost sharing partner. We completed an 
initial reconnaissance report in July 1997 but were unable to find a 
sponsor able to cost share continued feasibility studies. We are 
currently expanding the scope of the reconnaissance study and expect to 
sign a feasibility cost sharing agreement in September 1998 dependent 
on identification of a cost sharing sponsor. We are continuing to work 
with the local communities on other Tahoe Basin studies under the 
Section 206, Aquatic Ecosystem Restoration program, and under the 
Section 208, Clearing and Snagging program for flood control.
    Question. I understand that a deputy project manager has been 
appointed to be stationed in Las Vegas. I appreciate the Corps' 
recognition that the Tropicana and Flamingo flood control project is of 
vital importance to the Las Vegas valley.
    Answer. In response to the unprecedented growth of Las Vegas during 
the design of this project, and the attendant dynamics of coordinating 
the expanding infrastructure of roads, water, power and other 
utilities, combined with the pressures of private development, we felt 
it was appropriate to appoint a deputy project manager to ensure the 
efficient implementation of this important flood control project.
    Question. What is your best estimate for completion of the 
feasibility study in the South Coast Restoration Project?
    Answer. The Rhode Island South Coast Habitat Restoration and Storm 
Damage Reduction feasibility study is scheduled to be completed in June 
2000.
    Question. What steps is the Corps taking to minimize the time 
between the completion of the feasibility study and the implementation 
of an action plan to address beach erosion in Rhode Island?
    Answer. The feasibility study is evaluating the optimum schedules 
to conduct the preconstruction engineering and design effort for the 
implementation of beach erosion measures in Rhode Island. This would 
include identification of any separable measures for which construction 
could be expedited. Nevertheless, any measures recommended for further 
effort must comply with the Administration's shore protection policy in 
effect when the feasibility study is completed.
                                 ______
                                 

                  Questions Submitted by Senator Byrd

         impact of the proposed fiscal year 1999 funding level
    Question. The fiscal year 1999 budget request for Corps 
construction is $784 million, a decrease of some $685 million, or 47 
percent, below the fiscal year 1997 level. Dr. Zirschky's statement 
suggests that such a reduction is appropriate due to the accumulation 
of unexpended balances. I would note, however, that funds provided to 
the Corps in the fiscal year 1997 supplemental, and in the fiscal year 
1998 regular appropriations bill, are for specific projects and 
purposes. It is incumbent upon the Corps to execute the program which 
is enacted by Congress. If Congress were to approve the proposed budget 
for fiscal year 1999, in all likelihood, the Corps would need to 
undertake massive reprogrammings. I do not believe that is an effective 
way to manage a program, and hope that this Subcommittee will provide 
sufficient resources to avoid significant disruptions in fiscal year 
1999.
    What effect will this constrained funding level proposed for fiscal 
year 1999 have on project schedules--will they have to be stretched 
out? By how much?
    Answer. There are 139 projects with established completion dates in 
the President's fiscal year 1999 budget. These projects have slipped an 
average of 14 months from the completion dates in the President's 
fiscal year 1998 budget request. Differences range from a stretch out 
of 120 months to one project completing 24 months sooner than scheduled 
last year, and 43 projects have no change in their completion dates.
    Question. The budget reduction presumes that the necessary funding 
to address project requirements in the out years will be forthcoming 
once the Corps reduces its unobligated balances. Do the outyear 
planning assumptions for the Corps of Engineers assume an increase? If 
not, how will the corps be able to address the future costs associated 
with the projects in process?
    Answer. The current outyear planning assumptions for the Corps of 
Engineers Construction, General program includes stable construction 
funding about $1 billion per fiscal year. The funding and completion 
schedules for projects included in the President's fiscal year 1999 
budget have been developed in accordance with these funding 
assumptions.
    Question. Will there be further delays and subsequent additional 
cost increases if the necessary funds are not forthcoming in the out 
years?
    Answer. No, the projected delays include the assumed outyear 
funding levels of about $1 billion per year.
                          marmet lock and dam
    Question. Last year, Congress provided $1.8 million for initial 
pre-construction activities associated with a major lock replacement 
program at Marmet Lock and Dam along the Kanawha River. This project 
has been supported by the Corps, and was authorized in the 1996 Water 
Resources Development Act.
    Funds made available in fiscal year 1998, and proposed for fiscal 
year 1999, will allow the Corps to continue the necessary real estate 
acquisition. However, the fiscal year 1999 budget does not include the 
funds necessary to proceed with detailed engineering and design. What 
activities does the Corps anticipate completing in fiscal year 1998? 
How many homes will be acquired?
    Answer. In fiscal year 1998, advanced engineering and design will 
continue, with completion of the design memorandum for sewer 
relocations, the geology and foundation draft design memorandum, and 
the draft lock design memorandum.
    Preliminary deed research on all tracts have been completed and 
legal descriptions have been prepared for twenty-seven tracts. Ten 
homes are scheduled for acquisition in fiscal year 1998, and for 
seventeen tracts titles and appraisals are being completed and 
hazardous waste investigations are being updated.
    Question. How many homes are expected to be acquired in total? How 
long have these people been waiting? Are there willing sellers, or is 
condemnation contemplated?
    Answer. There are approximately 200 tracts of land containing 176 
single family residences, 53 residential mobile homes, five apartment 
buildings containing 13 apartments, and 10 businesses. This totals 252 
displacements as the result of the Marmet project. Since a public 
meeting in 1989, local residents have been aware of the Corps' plan to 
modernize the locks at Marmet and of the fact that their properties 
could be required for the project, depending upon the selected plan. 
The selected project was presented to local residents at a public 
meeting in 1993.
    Based on discussions with landowners at the public meetings, the 
Corps expects a typical percentage of condemnations, which historically 
is about 10 percent of tracts. A better estimate will be available once 
negotiations have been initiated.
    Question. So, if there are some 250 properties to be acquired, 
would you agree that the fiscal year 1998 funding is just the 
beginning--that there is still significant progress that must be made 
in the acquisition program before the project will be able to proceed 
with construction?
    Answer. Yes, I agree that the fiscal year 1998 effort is just the 
beginning. The Corps is scheduled to acquire five percent of the tracts 
in this fiscal year.
    Question. The budget request for fiscal year 1999 is just $1.5 
million. What funding level has been identified as capability for 
fiscal year 1999?
    Answer. Subject to the qualifying language, the fiscal year 1999 
capability for the project is $9,000,000 to continue real estate 
acquisition and engineering and design activities.
    Question. On previous occasions, the Corps had estimated it would 
take four years to complete the necessary land acquisition. What annual 
funding level did this presume? At the level proposed in the budget, 
what will be the time necessary to complete the land acquisition?
    Answer. The four year schedule assumed a funding level of 
approximately $6,500,000 per year for real estate acquisition. At a 
funding level of $1.5 million per year, acquisition would take 
approximately 18 years to complete.
    Question. What funding levels for Marmet for fiscal year 1999 were 
proposed by the District? What funding levels were included in the 
Corps' request to OMB for fiscal year 1999?
    Answer. The fiscal year 1999 funding level proposed by the 
Huntington District was $8,960,000. The Corps request to OMB was for 
$10,960,000 for real estate acquisition and continuation of engineering 
and design.
    Question. If funds are not provided in fiscal year 1999 for 
engineering and design for Marmet, what will this do to the project 
schedule?
    Answer. The current project completion schedule of 2009 reflects no 
funds being available in fiscal year 1999 for engineering and design. 
If the fiscal year 1999 project capability amount of $9,000,000 is 
provided for real estate and engineering and design, the project 
completion schedule could be advanced one year.
    Question. What will happen to the people who are working on this 
project in the Huntington District? Would work be stopped?
    Answer. Approximately 8 to 10 people currently are working on 
engineering and design. They would be assigned to work on other 
projects, and engineering and design tasks for the Marmet project would 
be terminated in a manner that minimizes disruption of the work.
                            greenbrier river
    Question. Recently, the Corps completed an updated evaluation 
report to provide a more accurate assessment of flood control options 
for the Greenbrier River basin. In that report, the Corps does not 
endorse a particular option, but rather, identified the various 
benefits, costs, and procedural requirements associated with each of 
the alternatives. If a non-dam alternative is supported locally, and a 
cost-sharing partner comes forward, what further steps would be 
necessary for the project to proceed? Are more studies necessary, or is 
the Corps ready to proceed to detailed planning and design so that 
project implementation can begin?
    Answer. At each location in the Greenbrier River Basin where a cost 
sharing partner comes forward, we would prepare a Project Management 
Plan and execute an agreement to share design costs. As the first part 
of design we would prepare a Detailed Project Report to support a 
project cooperation agreement. The level of effort to prepare the 
Detailed Project Report at each location would depend on the extent of 
the work already accomplished. Additional detailed design, including 
plans and specifications, would be needed after completion of each 
Detailed Project Report.
                           tug fork projects
    Question. Last year, Congress provided $12.1 million for ongoing 
activities in the West Virginia areas that are part of the Levisa/Tug 
Fork flood protection program. No funds are included for ongoing flood 
protection actions underway in Hatfield Bottom and Upper and Lower 
Mingo and Wayne Counties, nor to initiate flood proofing and 
acquisition in approved areas in McDowell County. Why are no funds 
included in the budget for the Hatfield Bottom and Lower and Upper 
Mingo County components of the Tug Fork project?
    Answer. No funds are included in the Administration's budget 
request for the Hatfield Bottom and Lower and Upper Mingo County 
elements because these elements are not economically justified.
    Question. Have Upper and Lower Mingo County identified the 
necessary cost-sharing to comply with their particular authorizing 
requirement?
    Answer. Yes, both the Lower Mingo County project and the Upper 
Mingo County project involve cost sharing. The County Commission of 
Mingo County has signed cost-sharing project cooperation agreements for 
these projects.
    Question. What funding is necessary in fiscal year 1999 to keep 
these projects on schedule?
    Answer. Subject to the qualifying language, fiscal year 1999 
funding capabilities to continue work on these projects are $1.6 
million for Upper Mingo County, $3.6 million for Lower Mingo County, 
and $300,000 for Hatfield Bottom.
    Question. What funding is necessary to initiate flood proofing and 
acquisition in McDowell County and to continue the effort in Wayne 
County?
    Answer. Sir, again subject to the qualifying language the fiscal 
year 1999 capability to initiate efforts in McDowell County is 
$5,000,000 and the capability to continue efforts in Wayne County is 
$1,800,000.
    Question. Last year, Congress provided $400,000 for an early flood 
warning system for the Tug Fork valley. What is the status of this 
effort? Has a cost-sharing partner been identified?
    Answer. System design is currently under way. The Corps is 
discussing project sponsorship with both the State of West Virginia and 
the Commonwealth of Kentucky. Implementation of the system is scheduled 
for completion in fiscal year 1999 subject to identification of a cost 
sharing sponsor.
                      statewide flood control plan
    Question. In fiscal year 1998, Congress provided $400,000 for the 
Corps to work with the State of West Virginia in the development of a 
statewide assessment of flood control activities and needs. By 
involving Federal, State, and local authorities involved with flood 
protection and response, this assessment will help to ensure that the 
highest priority needs receive attention and that efforts among the 
different players are coordinated. What is the current expectation for 
how long it will take to complete this assessment?
    Answer. The Corps is currently negotiating a cost sharing agreement 
for this assessment with the State of West Virginia. The agreement is 
scheduled to be executed in April 1998. If funds were available, it 
would take approximately twenty-six months to complete the assessment 
after execution of the agreement.
    Question. Are additional funds necessary in fiscal year 1999 to 
complete this undertaking? If so, how much is required?
    Answer. Yes, additional funds of $624,000 are necessary to complete 
the defined work tasks.
                   moorefield, wv and petersburg, wv
    Question. In 1990, Congress authorized construction of flood 
control protection projects in Moorefield and Petersburg, West 
Virginia. These areas suffered considerable damage as a result of 
flooding in November, 1985, and the communities have been working to 
improve their flood protection ever since. Both projects are now 
completed, and I will be participating in the dedication of the 
Moorefield project at the end of April. Both projects have been faced 
with final costs higher than originally expected due to high land 
acquisition costs, as well as damages stemming from flooding during the 
construction phase. Dr. Zirschky, do you have any flexibility to extend 
the repayment period for these projects?
    Answer. No, sir. The Corps does not have any flexibility to extend 
the repayment period for the Moorefield, West Virginia, and Petersburg, 
West Virginia projects.
    Question. Are you able to do this administratively, or is 
legislation required?
    Answer. In order to extend the repayment period for the non-Federal 
share of the costs of these projects, legislation is required.
    Question. If the extension period were to be provided, and Congress 
were to direct that this be done interest-free, would there be any 
further cost increases for either of these projects?
    Answer. There could be, sir. Until all construction is completed 
and all final project costs, including settlement of construction 
claims, and non-Federal credits are determined, both the Federal and 
non-Federal costs could change.
    Question. Are there any instances in recent years where the Corps 
has been directed to waive any additional amounts owed to be repaid 
after a project has been completed?
    Answer. No, sir. There are no instances in recent years where the 
Corps has been directed to waive any additional amounts owed or to be 
repaid after a project has been completed.
                     bluestone dam drift and debris
    Question. Section 357 of the 1996 Water Resources Development Act 
included a provision for the Corps to address drift and debris 
accumulation above the Bluestone Dam. In last year's Energy and Water 
appropriations bill, Congress provided $475,000 to begin design of the 
debris removal elements. What is the status of this effort? Are 
additional funds necessary in fiscal year 1999 to complete the planning 
and design?
    Answer. The debris removal effort has four components. The first is 
limited removal of impounded material. The second is a public awareness 
program to address disposal of manmade trash into the waterways 
upstream of the dam. A third component, removal of debris downstream of 
the dam, is performed by the Park Service and the West Virginia 
Division of Environmental Protection, and the Corps is not authorized 
to participate in this effort. For the fourth component, the multi-
level intake structure, development of a hydraulic model currently is 
under way and project design will begin later this fiscal year. Subject 
to the qualifying language, an additional amount of $420,000 could be 
used to complete the planning and design of that feature.
    Question. Previously, the cost estimate to complete the debris 
removal component of this project was $7.5 million. Is this still an 
accurate cost estimate? When will the Corps be ready to begin 
construction on this project?
    Answer. Yes, apart from $1.6 million used for early testing and 
analysis of alternatives, $7,500,000 is an accurate estimate to 
complete the debris removal effort. Construction of the multi-level 
intake structure would cost on the order of $5 million, and design and 
construction management for the structure and implementation of the 
other components together would cost on the order of $2.5 million. If 
$420,000 were provided, the Corps could finish design before the end of 
fiscal year 1999 and be ready to advertise and award a construction 
contract.
    Question. On a different matter at Bluestone Dam, there are 
interests in West Virginia that have proposed the construction of 
hydropower generating capacity at this location. Their proposal is an 
interesting one, in that they propose non-Federal financing for the 
project elements, to be done in conjunction with the Corps' standards 
and requirements. It is unclear yet whether the Corps has authority to 
pursue this project, or whether special authorization will be 
necessary.
    Dr. Zirschky, you will be meeting with these interests to discuss 
this proposal in April. I look forward to hearing from you after you 
have had a chance to review the project proposal and evaluate the 
various options which may or may not be available. I am interested in 
ensuring that my constituents have an accurate and complete picture of 
the Corps' authorities in this regard.
    Answer. Yes sir.
                      robert c. byrd lock and dam
    Question. Last year, Congress appropriated $5.4 million for dam 
rehabilitation and construction of mitigation responsibilities 
associated with this project. Additional funding is anticipated as 
being needed in fiscal year 1999 to keep this project going. What 
funding is included in the budget for this project? Is this amount 
sufficient to keep pace with anticipated progress on the mitigation 
work at RCB lock and dam?
    Answer. The President's Budget requests $7,000,000 to continue with 
efforts at the Robert C. Byrd Locks and Dam project. This amount is not 
sufficient to provide for uninterrupted efforts on the ongoing 
mitigation contract but is sufficient to enable the exercise of 
contract options in time to avoid delay costs.
    Question. What funding would be considered to be the ``approved 
capability'' to allow work on this project to proceed without 
disruption?
    Answer. Subject to the qualifying language, the fiscal year 1999 
capability for the project is $10,600,000.
                                 ______
                                 

                 Questions Submitted by Senator Murray

                          minimum dredge fleet
    Question. On August 12, 1997 I wrote to Dr. John Zirschky, along 
with five other Northwest Senators, asking the Corps to address several 
issues when it issues its recommendation to Congress on the future of 
the Minimum Dredge Fleet. We restated this request on November 7, 1997 
in the combined Northwest Delegation comments on the Minimum Dredge 
Fleet study. Quoting from the November 7 letter, ``we asked that the 
study include certain analysis to allow Congress to evaluate Corps 
recommendations regarding the future of the fleet. We asked that the 
analysis include an examination of responsiveness to routine and 
emergency dredging requirements, industry competitiveness, a comparison 
of dredging costs and industry capacity.''
    How does the Corps plan to comply with this repeated request? If 
the Corps does not plan to comply with this request, why not?
    Answer. I appreciate the high level of interest and support that 
you and other members of the Northwest Delegation have given to the 
Corps Minimum Dredge Fleet. The Corps is currently working on a draft 
final report that will recommend the appropriate configuration of Corps 
hopper dredges. The issues of responsiveness to routine and emergency 
dredging requirements, industry competitiveness, dredging costs and 
industry capacity will be addressed in this document.
               dredging cost, capacity and responsiveness
    Question. The presentation of the eight options in the recent 
Minimum Dredge Fleet study did not include the kind of analysis 
described in question # 2. There are indications that the Corps will 
release proposals for changes to Minimum Dredge Fleet policy this 
summer. What data and analysis is the Corps using to develop these 
proposals? How will cost, capacity and responsiveness be examined?
    Answer. The data that is being used for the analysis of proposals 
includes hopper dredging contract data from fiscal years 1994-1997, 
Corps hopper dredging data, and dredging data from the dredging 
industry for non-Corps hopper dredging work. These data are being used 
to analyze each option by assessing risk to navigation, risk to the 
industry, and estimated annual cost. The goal is to optimize the 
configuration of the Corps hopper dredges and identify other management 
initiatives that will ensure a viable, competitive private hopper 
dredge industry while sustaining our nation's capability to respond to 
peak workloads, and emergency and national defense needs. The options 
analysis will seek to balance risks to navigation and risks to industry 
with cost considerations and improved competition. In seeking this 
balance, there will be opportunities to implement innovative 
contracting methods, improved scheduling procedures, and new management 
initiatives that will improve responsiveness and protect the interests 
and needs of ports and maritime users.
                          dredging objectives
    Question. Included in the November 7, 1997, Northwest Delegation 
comments on the Minimum Dredge Fleet Study were a list of questions. To 
my knowledge, the Corps has not yet responded to these and other 
questions raised in comments made by stakeholders. I will restate them 
here, with some additional questions.
    First, is the Corps primary objective to keep navigation channels 
maintained at authorized depths at all times? It appears that the 
guiding principal of the study considers maintenance of channels and 
maintenance of the dredge industry as equal goals. Is that correct, and 
if so, why?
    Answer. The primary objective of the minimum dredge fleet study is 
to evaluate various options and recommend the future disposition of the 
four hopper dredges in the Corps minimum dredge fleet. These options 
focus on risk to navigation and risk to industry. The options seek to 
balance the risks with cost considerations and improved competition, 
long-term viability of the private hopper dredges, and the ability to 
be responsive to peak workloads and emergency and national defense 
needs. In seeking this balance, there will be opportunities to 
implement innovative contracting methods, improved scheduling 
procedures, and new management initiatives that will improve the 
ability to protect the interests and needs of ports and maritime users 
and ensure a competitive bidding environment.
                                options
    Question. Second, has the Corps completed a detailed analysis of 
the range of possible impacts of the eight study options and any new 
options on navigation in the Northwest and the rest of the nation? 
Please explain how the four Corps hopper dredges would be impacted 
under each scenario, including any new options developed after the 
original eight. Also, does the Corps plan to propose a major overhaul 
of the McFARLAND under any scenario?
    Answer. The Corps is in the process of refining existing options 
and developing additional options, and these are not completed at this 
time. When the draft report is completed, the impacts to the Corps 
hopper dredges under each scenario will be addressed. The Corps is 
currently seeking authority to perform a major overhaul of the 
McFARLAND.
    Question. Third, exactly how does placing dredges on standby status 
provide low risk to navigation?
    Answer. Currently Corps hopper dredges schedule work in navigation 
projects at the beginning of the fiscal year, and this dredging must be 
accomplished to ensure the viability of the ports involved. Once these 
schedules are developed, these four dredges are literally booked for 
the year, and are only available for unforeseen work at the expense of 
another scheduled project. Experience has shown that with the current 
method of scheduling work, peak workload requirements place demands 
upon the dredging resources available and dredging reassignments must 
be made. Often the reassignments include termination of ongoing 
dredging operations, or delay of completion and/or initiation of 
scheduled work. These assignment changes can result in annual dredging 
work being postponed until the next year because of environmental 
dredging windows closing before the dredge can return.
    Question. Fourth, has the Corps developed specific predictions for 
the cost of maintaining dredges in standby? If so, please describe 
these predictions. If not, why not? Similarly, has the Corps developed 
contractual and procedural frameworks and vessel operations frameworks 
for dredges in standby? If so, please describe these frameworks. If 
not, why not? Please describe how these predictions and frameworks 
support the low risk conclusion.
    Answer. We have predicted that the standby costs for each hopper 
dredge will be approximately 25 percent less than current annual costs. 
The procedural framework for each dredge will be slightly different, as 
each dredge operates differently in each coastal region. However, the 
basic concept is predicated upon the premise that the crew size on each 
dredge can be reduced to a level that reflects a crew capable of 
operating for a two or three week time-frame, and be ready to mobilize 
within a 72-hour response time. We have established a scheduling and 
communication process that has greatly improved our ability to 
anticipate hopper dredge shortfalls and peak workload periods well in 
advance of experiencing these impacts. This process has demonstrated 
its applicability with the current dredging requirement challenges. The 
Corps districts and industry have been able to use this process to 
better plan and schedule work, and anticipate potential problems. The 
ability to call out the WHEELER when shortfalls in capability have 
occurred this year clearly demonstrates the process reducing risk to 
navigation impacts. When a need arises, a Corps dredge can be called 
out, one that is standing by ready to respond, and no other project is 
impacted. The ability to manage the inherent variability associated 
with dredging requirements, with a Corps hopper dredge in a standby 
mode, will reduce the risk to navigation and improve the reliability of 
our ports.
           future support for maintaining dredges in standby
    Question. Fifth, does the Corps believe that Congress and future 
administrations will support maintaining dredges in standby? If so, 
please describe the key rational and cost projections for maintaining 
Corps dredges in standby while using industry hopper dredges for work 
now performed by Corps hopper dredges. Would such a scenario increase 
the cost of the Corps dredging program? Please explain.
    Answer. Yes, we believe that Congress and the Administration will 
continue to support maintaining dredges in standby. While the concept 
of managing the navigation program with hopper dredges in standby, 
rather than scheduling them for work, is a culture change, the concept 
of funding equipment to be ready to respond to unforeseen conditions is 
an integral part of Government, e.g. fire engines, oil spill 
contingency vessels, Coast Guard search and rescue vessels, to name a 
few. We believe that experience will show that these hopper dredges 
will be needed periodically to support peak workload dredging 
requirements and emergency and national defense needs. In fact the 
WHEELER, which is in a ready reserve status, has demonstrated this 
reality for both scenarios, peak workload requirements in the 
Mississippi River and emergency dredging support in the Military Ocean 
Terminal at Sunny Point, North Carolina. To properly evaluate the cost 
to the navigation program of the standby concept, requires looking 
beyond the net change from status quo. There are several facts that 
must be considered in evaluating the cost to the navigation program.
    First, some of the work normally performed by the Corps hopper 
dredges can be performed by industry at less cost. From the long-term 
perspective, industry has not had a sufficient reliable workload that 
can be offered as security to lending institutions for the purpose of 
financial investment in vessel replacement or vessel expansion.
    It is clear from previous peak workload experiences that, if there 
were less industry hopper dredges, there would be additional projects 
that would not be dredged during the peak workload periods and ports 
would be impacted. Moreover, when Corps dredges have scheduled their 
annual workload, and the remaining hopper dredging workload is minimal, 
industry dredges either shut down or seek work outside the United 
States. This has resulted in diminished capability when unforeseen 
requirements occur. The ports have suffered from this condition, 
ongoing dredging operations have been disrupted, and unforeseen 
dredging is performed at an increased cost. If industry can rely on a 
steady workload, even when the dredging requirement is diminished, 
industry utilization will tend to become more constant, income security 
will stimulate investment, and capability will be ensured.
    In addition, because there is a Corps hopper dredge capability 
sustained to respond to peak workloads and emergencies, industry does 
not have to expand their fleet to accommodate the unforeseen, and the 
increased cost of underutilized excess vessels is not burdened upon the 
industry. The net result will be a cost effective standby fleet, ready 
to respond and ensure reliable navigation channels.
            audits and investigations of dredging contracts
    Question. On October 13, 1997, the Washington Post reported on a 
Army Audit Agency audit of industry bids. I am told that the Department 
of Justice also is examining the issue. Please report on these and 
other federal processes underway related to the Army Audit Agency and 
Department of Justice audits and investigations. Are you concerned 
about the questions raised, including identical line item bids, limited 
competition, complimentary bids, bid rotation, and winning low bidder 
subcontracting projects to higher bidders? Please describe the Corps 
concerns related to each of these questions.
    Answer. As a result of the Army Audit Agency report dated September 
12, 1995, reported in the Washington Post, the Department of Justice 
was asked to investigate the issues raised concerning the standard 
collusion indicators listed in your question. As a result of the 
findings in the AAA report on industry bidding practices, the Corps has 
improved the reporting of subcontracting information through the 
Dredging Information System and has developed a methodology for 
increased oversight of bidding practices by the dredging industry. The 
methodology will seek clarification from industry bidders who submit 
identical line item bids or bids which appear to be excessively high. A 
report will be published each year documenting the procurements with 
identical line item bids, bids that were determined to be potential 
complimentary bids, and the distribution of work by each company 
performing work under a Corps dredging contract. Industry will be 
constantly reminded of our concerns for competition, and regional 
dredge scheduling meetings will consistently have reports of previous 
bidding practices. Industry will be asked to submit their suggestions 
for improvement of competition, including innovative procurement 
practices, and improved workload packaging.
    We are aware of the potential for collusion with dredging contracts 
and will seek to improve monitoring and oversight of this issue.
       process and methodology of the minimum dredge fleet study
    Question. Some concerns have been raised about the process and 
methodology of the Corps Minimum Dredge Fleet study. Did the study meet 
other established Corps Policies and Practices as a matter of course 
for developing policy changes? If not, why not?
    Answer. Yes, this study was undertaken in a manner consistent with 
other Corps policy development processes.
                  comments minimum dredge fleet study
    Question. Please provide a copy of each comment on the Minimum 
Dredge Fleet study to the Committee for the hearing record or the 
committee files. This will help Congress evaluate future proposed 
changes to the Minimum Dredge Fleet.
    Answer. A copy of each of the 48 letters commenting on the Minimum 
Dredge Fleet study follows:
                                                Dunes City,
                                    Westlake, OR, October 22, 1997.
Corps of Engineers Minimum Fleet Comments,
Attention CECW-OD,
Washington, DC.
    Thank you for the opportunity to comment on the ``Draft Minimum 
Dredge Fleet Study''.
    Maintenance of the navigation channel and harbor in the Port of 
Siuslaw is extremely important to the economic health of our community. 
It is with the perspective of maintaining this important activity that 
we reviewed the Corps' draft study.
    We know our community and the Northwest best. We believe that 
maintaining both federal dredges in active, operating status is 
critical to keeping our channels and harbors open. Six of the eight 
options call for retiring at least one of the federal dredges based in 
the Northwest, yet there is no analysis that demonstrates that we will 
continue to have our dredging needs met in a timely, cost-effective 
manner under those options.
    We want to keep costs down, make sure there is adequate capacity to 
meet our routine needs, and ensure that dredges will be responsive 
enough to meet our emergency dredging requirements. The study does not 
provide any basis for us to believe those needs will be met under any 
of the options that retire federal dredges or place federal dredges on 
standby.
    Therefore, we must reject all options that decrease the active role 
of the federal dredge fleet.
            Sincerely,
                                       Robert B. Ward, Jr.,
                                                             Mayor.
                                 ______
                                 
                                            Port of Benton,
                                    Richland, WA, October 21, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    Thank you for the opportunity to comment on the ``Draft Minimum 
Dredge Fleet Study.''
    Maintenance of the navigation channel supports trade and other 
forms of commerce, which is extremely important to the economic well-
being of the Tri-Cities. The Port of Benton is a very important link to 
the dismantling of decommissioned nuclear submarines. The spent 
reactors are barged from Bremerton along the West Coast of Washington 
and through the mouth of the Columbia River to the Port of Benton's 
barge slip, where they are off-loaded for burial on the Hanford 
Reservation. This year alone, nine shipments have been or are scheduled 
to be made. It is with the perspective of maintaining this important 
activity that we reviewed the Corps' draft study.
    We know our community and the Northwest best. We believe that 
maintaining both federal dredges in active, operating status is 
critical to keeping our channels and harbors open. Six of the eight 
options call for retiring at least one of the federal dredges based in 
the Northwest, yet there is no analysis that demonstrates that we will 
continue to have our dredging needs met in a timely, cost-effective 
manner under those options.
    We want to keep costs down, make sure there is adequate capacity to 
meet our routine needs and ensure that dredges will be responsive 
enough to meet our emergency dredging requirements. The study does not 
provide any basis for us to believe these needs will be met under any 
of the options that retire federal dredges or place federal dredges on 
standby.
    Therefore, we must reject all options which decrease the active 
role of the federal hopper dredge fleet.
            Sincerely,
                                               Ben Bennett,
                                                Executive Director.
                                 ______
                                 
                                      Port of Lewiston, ID,
                                                  October 24, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    Thank you for the opportunity to comment on the ``Draft Minimum 
Dredge Fleet Study.''
    Maintenance of the navigation channel and harbor in our port is 
extremely important to the economic health of our region. It is with 
the perspective of maintaining this important activity that we reviewed 
the Corps' draft study.
    We know our community and the Northwest best. We believe that 
maintaining both federal dredges in active, operating status is 
critical to keeping our channels and harbors open. Six of the eight 
options call for retiring at least one of the federal dredges based in 
the Northwest, yet there is no analysis that demonstrates that we will 
continue to have our dredging needs met in a timely, cost-effective 
manner under those options.
    We do not agree with making a decision on these options without 
analysis. The study provides no analysis of the viability of the 
standby concept. The study simply defined standby status. It did not 
analyze whether the dredges can actually be maintained to that standard 
over the long run. It did not address whether Congress is likely to 
fund the additional costs over the long term. It did not discuss 
whether contracting procedures allow dredges to be called out of 
standby in 72 hours if a private contractor does not perform.
    We encourage the Corps to conduct the kind of analysis that will 
appropriately answer the key questions. We expect that all options 
other than the status quo will require Congressional approval. Until we 
see an acceptable analysis that addresses the above concerns, we will 
be recommending that our Congressional delegation reject any proposed 
changes to the operating status of the Corps dredges.
    We want to keep costs down, make sure there is adequate capacity to 
meet our routine needs, and ensure that dredges will be responsive 
enough to meet our emergency dredging requirements. The study does not 
provide any basis for us to believe those needs will be met under any 
of the options that retire federal dredges or place federal dredges on 
standby.
    Therefore, we must reject all options which decrease the active 
role of the federal hopper dredge fleet.
            Sincerely,
                                     David R. Doeringsfeld,
                                                           Manager.
                                 ______
                                 
                                     Port of Clarkston, WA,
                                                  October 24, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    Thank you for the opportunity to comment on the ``Draft Minimum 
Dredge Fleet Study''.
    Maintaining the navigation channel in the Snake River is vital to 
the health of our port and our community. Family farmers would suffer 
greatly without the cost-effective transportation afforded by the river 
system. Grain from our Palouse and Camas Prairie regions is barged to 
Portland for shipment overseas. In 1996 more than 28 MILLION tons of 
products were exported through the Columbia River ports.
    It is essential to keep both federal dredges the Yaquina and the 
Essayons in active operating status to keep our channels and harbors 
open. Many times in the past, these dredges have been needed for 
emergency dredging in addition their active maintenance 
responsibilities.
    Keep the federal hopper dredge fleet in operation.
            Sincerely,
                                                   Mack Lavik Funk.
                                 ______
                                 
                                State of Louisiana,
                Governor's Task Force on Maritime Industry,
                                    St. Rose, LA, October 30, 1997.
Maj. Gen. Russell L. Fuhrman,
Director and Asst. Commander of Civil Works,
U.S. Army Corps of Engineers, Washington, DC.
    Dear General Fuhrman: Following our recent meeting in Washington 
with you and our subsequent meeting with Barry Holliday, we have 
compiled the following list of information we require. Our list is 
comprised of input from the Pacific Northwest, the East Coast, and the 
U.S. Gulf Coast which were represented in our recent meeting.
    (1) The revised Minimum Dredge Fleet Study of 1994 (Step 2);
    (2) The Army Audit Agency Report to Dr. Zirschky on the Minimum 
Dredge Fleet Study of 1994 (Step 2);
    (3) The USACE New Orleans District Study on the cost to the 
maritime industry on loss of draft on the Mississippi River and the 
Mississippi River-Gulf Outlet. Comparable studies or data related to 
channels and harbors in the East Coast, the Pacific Northwest, and the 
U.S. Gulf for fiscal year 1994-fiscal year1996;
    (4) Detailed schedule of work, repair and idle time on all the 
private sector hopper dredges for fiscal year 1993-fiscal year1997;
    (5) Accurate data as to the daily production of the USACE hopper 
fleet in cubic yards per day or per hour for fiscal year 1990-fiscal 
year1996;
    (6) Accurate data as to the daily production of all the private 
sector hopper dredges in cubic yards per day or per hour for fiscal 
year 1990-fiscal year1997;
    (7) Data used to compile options 1 through 8 of the U.S. Army Corps 
of Engineers Minimum Dredge Fleet presentation;
    (8) Copies of the Army Audit Agency Report in 1995 on bid rigging 
and their investigation into the private dredging sector.
    (9) An analysis of the 1996 and 1997 dredging emergencies in the 
East Coast, the Pacific Northwest and the U.S. Gulf. This should 
include the loss of project dimension, the bid advertisements, the 
responses, and the total number of dredges that responded in the 
hopper, cutterhead and ladder type dredges.
    Since the new extension date for our reply and comments is November 
7th, we would appreciate an indication as to when we can expect to 
receive this data. Hopefully, this information can be sent to us in a 
timely fashion which would allow us time to review the data and then 
properly respond. Anticipating that this data will take a period to 
prepare, what we would like to propose is that if we receive the data 
by November 15th, thence we will be able to respond to you by December 
1st. We think that a two (2) week interval with the Thanksgiving 
holiday in that period would be sufficient. We hope this is workable, 
as it is important for us to review and evaluate the data in order to 
properly respond to you on the Minimum Dredge Fleet.
    Rather than have copies mailed to all of our participants, what I 
would request is that two (2) copies be mailed to Mr. Dan James, PNWA 
for the Pacific Northwest area, a copy to Mr. Dennis Rochford, 
Philadelphia Maritime Exchange for the East Coast, and a copy to 
myself. We will distribute the data to the balance of our members. We 
are hopeful that this information is available to us, and if not, 
please let us know what information is going to be able to be 
distributed and what information is not for whatever reasons.
    If there is any clarification needed, please have one of your staff 
contact me, or if you want, we can just deal directly with Harry 
Holliday on this information flow.
            Yours very truly,
                                           George E. Duffy,
                                                          Chairman.
                                 ______
                                 
                               Schwabe, Williamson & Wyatt,
                                    Portland, OR, November 3, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
       clarification of viewgraph presentation of draft mdf study
    As a participant in a large conference call on October 8, during 
which the Corps presented its 27-page outline-viewgraph, I first thank 
the Corps for extending its comment period. Second, I understood from 
that teleconference, and from comments from participants in an October 
22 meeting at Corps HQ, that the outline-viewgraph approach is one the 
Corps will use as it examines and evaluates its options, and then later 
explains its decision.
    Part One of my comments, submitted herein, addresses points that I 
believe will strengthen the Corps presentation. In some cases, people 
newer to this issue may rely only on this slide presentation, so it 
should be as complete as is practical for a set of slides. I plan to 
submit other comments addressing such issues as the issues of lack of 
data, weaknesses of the risk assessment, comments on the various 
options, etc. In other words, these comments do not argue for or 
against any option. Instead, they suggest steps to clarify the Corps 
presentation of its options and later explanations of why it chose a 
particular solution for the Corps dredges.
    Before turning to the slides in order, I will address a fundamental 
shortcoming in the Corps presentation, as evidenced in Slide # 9: ``The 
Challenge.'' The Corps lists in bold print what the dredging industry 
``wants''--but implores the ``wants'' of other stakeholders. Someone 
reading this slide might think that the Corps cared only about 
addressing the ``wants'' of private industry, rather than the interests 
of all impacted parties.
    Slide # 9: ``The Challenge'': The Corps should add bullet sentences 
setting out the ``wants'' of: ports; domestic and international 
shippers; state and local governments; and maritime unions.
    Returning to the slides in order, I suggest the following changes 
or additions:
    Slide # 4: ``Interested Parties'': Add as separate parties: 
Domestic and International Shippers; Fishing Industry; and Local 
Governments.
    Slide # 5: ``Dredging requirement'': Add a statistic that describes 
the Corps hopper work as a percentage of the total O&M dredging 
requirement.
    Slide # 6: ``Hopper Dredge `Requirement' '': Add a footnote here 
that explains factors limiting attempts to even out the monthly hopper 
dredge work: the months when environmental dredging windows limit 
dredging; the months of the recent Mississippi River floods; etc.
    Slide # 7: ``Hopper Dredge Requirement by Region'': Add two items 
here. The first would show the hopper dredge requirement as a 
percentage of the total dredging requirements per region. The second 
would show the percentage of total hopper dredge work performed by 
Corps hopper dredges per region.
    Slide # 8: ``19 Hopper Dredges'': Add the year each Corps and 
private dredge entered service, plus the years of any major overhaul or 
upgrade. Also, I am told that the private dredge Long Island is not 
sufficiently maneuverable to perform harbor entrance or channel work. 
If this is so, and it is used only for beach nourishment, that fact 
should be noted on this slide. Include, for example, how much (if any) 
harbor and channel work the Long Island has performed in the past three 
years.
    Slide # 9: ``The Challenge'': Covered earlier.
    Slide # 10: ``Hopper Dredge Quantities: Atlantic and Gulf 
Regions'': Add a footnote reminding viewers that this total is 80 
percent of the total hopper dredge requirement.
    Slide # 11: ``Guiding Principle'': This slide should include the 
American shipper, more than the American taxpayer. Shippers pay the 
costs of dredging through the HMTF. The American taxpayer, as 
represented by each Member of Congress, created both the rivers and 
harbors system, and the current method to find their O&M that did not 
tax the general population. Second, I ask that you include the 
underlined phrases in the second part of the principle: `` * * * while 
sustaining our nation's capability to respond to peak workloads, [and] 
to emergency and national defense needs, and to a lack of 
competition.''
    Slide # 12: ``Risk to Navigation'': In the ``HIGH RISK'' section, 
add after the phrase `` * * * no capability to perform unforeseen, 
time-sensitive work'' the following sentence: ``A fully utilized 
private industry dredge fleet has less interest in performing small 
jobs when contracted to larger jobs.'' At the end of the HIGH RISK 
section, add the sentence ``Increasing environmental restrictions on 
timing of dredging.''
    Slide # 13: ``Risk to Industry'': How is the term ``minimal'' 
utilization defined? What level constitutes minimal use? How does the 
percentage the Corps adopted as constituting ``minimal utilization'' 
compare to that used in other capital-intensive industries? The Corps 
should explain how it arrived at its ``minimal utilization'' 
percentage, and provide comparisons used elsewhere in the USG and 
private industry for similar capital-intensive industries. A critic of 
the private dredge fleet also might add in the ``LOW RISK'' section the 
sentence that ``Without Corps dredges as measuring stick to help 
estimate O&M dredging costs, Corps O&M estimates may rise over time.'' 
A critic also might add another sentence to the ``LOW RISK'' summary: 
``No competition from Corps dredges for certain work.''
    Slide # 14: ``Current Limitations on Corps Hopper Dredges'': 
Clarify that the ``Ready Reserve'' status of the Wheeler (per 
Congressional direction) differs from the proposed ``hot standby'' 
status now proposed by the Corps.
    Slide # 16: ``Standby Status'': Explain the meaning of ``ready to 
respond in 72 hours.'' Does it mean ``respond first and talk later'' ? 
How will appeals by private dredgers be handled after a Corps decision 
to activate a Corps dredge? How will current procedures be changed to 
reflect an ``act first, talk later'' approach? Can a District Engineer 
make the final decision to utilize a Corps dredge, or must it be 
processed and blessed by Corps HQ?
    Slide # 17: ``Option One: Fully use Corps hoppers'': Provide some 
detail to clarify the first and third ``Implication,'' adding to the 
phrases ``expanding on Government costs increase slightly due to * * * 
'' and to the phrase ``annual program costs are lowest because * * * ''
    Slide # 20: ``Option 4: Wheeler and Yaquina retired'': Explain 
whether or not the Wheeler and Yaquina will be sold, and, if so, to 
U.S. dredging companies. What will the criteria be for such a sale, for 
a sale would prevent restoration of the status quo if this experiment 
fails. Also, explain whether or not the Corps plans to rehabilitate the 
McFarland to expand its capabilities under this option.
    Slides # 23 and # 24: ``Options 7 and 8'': The term ``low 
navigation risk'' is used, with no explanation of factors leading to 
this conclusion. Without any explanation, the statement represents only 
a Corps conclusion. Use of a graph is misleading, as it conveys a 
quantifiable determination, where none was used, as I understand. 
Without any quantifiable statistics to mark such graphs, they should be 
dropped from all slides.
    Slide # 25: ``Risk Analysis'': A new descriptive slide should 
precede this Slide # 27, on which the Corps would describe what factors 
were used in its risk analysis. Without such explanation, a viewer has 
only a Corps conclusion (low, medium, high), with no explanation of how 
such a conclusion was reached. Without a quantifiable set of numbers to 
justify use of graphs, they should be omitted from all slides.
    Slide # 26: ``Summary and Conclusions'': Add as another guiding 
principle: ``Protect taxpayers and their investments in ports and 
channels by maximizing real competition for hopper dredge O&M work.'' 
Separately, does the term ``competitive private fleet,'' as used in 
this slide, mean competitive in global markets, or competing among 
various private dredge companies for available hopper dredge work. 
Reference to ``competitive private fleet'' should be explained in an 
earlier slide, if the Corps means that more private competitors will 
compete for available Corps work. The Corps should explain how changes 
in the status of the MDF will promote more competition, or justify why 
removing a competitive element provides better protection (e.g., ``the 
best deal possible'') for the American taxpayer. As competition is 
important, this opaque reference should be amplified in earlier slides. 
Otherwise, it should be dropped from the conclusion slide, as no 
explanation of how competition is maintained or expanded was offered in 
any earlier slides.
    Thank you for this opportunity to comment on how to make the 
presentation of the material regarding your MDF options clearer and 
more complete. As noted above, I will comment later regarding other 
aspects of the draft study.
            Sincerely,
                                               Walter H. Evans III.
                                 ______
                                 
                               Schwabe, Williamson & Wyatt,
                                    Portland, OR, October 31, 1997.
Maj. Gen. Russell L. Fuhrman,
Director of Civil Works, U.S. Army Corps of Engineers,
Washington, DC.
    Dear General Fuhrman: During the past decade or so, I represented a 
number of Pacific Northwest ports. In advocating their interests, I was 
involved with issues concerning the Corps' Minimum Dredge Fleet (MDF). 
Over this long period, I sat through many meetings with local port 
managers; State of Oregon officials, Corps District officials, Corps 
headquarters staff, and the DCA and its representatives working to 
resolve MDF issues.
    As a result, I have heard various points raised and questions asked 
about the Yaquina and its strengths and its shortcomings. I have 
several informational questions about the Yaquina (and the Essayons, in 
some cases), and request factual information. As you know, outside 
parties interested in the MDF have until November 7 to comment on the 
options laid out by Corps HQ concerning the Future of the MDF. I hope 
the Corps can provide me with most answers ASAP. In advance, I thank 
you for your prompt attention to these questions.
    1. Efficiencies.--Has the Portland District taken steps to increase 
the efficiency of the Yaquina? If so, how was this accomplished? What 
has been the impact on her operating costs? Have any increased 
efficiencies been in place long enough to be reflected in the most 
recent statistics gathered and relied upon by Corps HQ? Are other steps 
now underway or contemplated to increase further the Yaquina's 
operating efficiencies? What is the anticipated impact of any such 
proposed further changes?
    2. Plant Increment Costs.--In several meetings in past years, the 
issue of plant increment costs has been discussed among the various 
parties. Can you explain its precise purpose and operation? How does it 
impact daily rates for the Corps dredges? What is the size of this fund 
today? Where and how is the money segregated? How is continuation of 
this account justified if the Corps has no plans to replace its 
dredges? Does the Corps have the flexibility to cease imposing this 
cost? If not, what specific statute or Corps regulation prevents it? If 
so, has serious consideration been given to waiving this cost? Do you 
know if Corps HQ included termination of this fund as it developed its 
options, and factored into its equations the impact from so doing? What 
would be the separate impact on the Yaquina if the Corps removed the 
plant increment costs from its daily rate calculation?
    3. Seaworthiness.--My next question is more subjective, at least to 
a nonprofessional. I believe that the Yaguina and the Essayons both are 
classified as self-propelled vessels, with ship's hulls. I believe that 
the two private Manson dredges, the Newport and the Westport, are 
barges rather than vessels. Am I correct? Are they self-propelled or 
are they moved by a tug? How does this impact their transit time to an 
emergency job? How does their shape as a barge affect their 
seaworthiness in rough seas? Can you say that, in operating in rough 
seas, these two private dredges, when compared to the two West Coast 
Corps Dredges, are more seaworthy, equally seaworthy, or less 
seaworthy? If they are less seaworthy, could this impact their 
emergency responsiveness, or their ability to complete a job in a 
short, environmentally driven dredging window? Are these private 
dredges less able than their Corps' counterparts to work in rough seas 
that typify the Northwest coastal sea conditions during much of the 
year? I also am interested in whether the Northerly Island is a barge 
or a ship, and how its seaworthiness and usefulness in rough seas 
compare to the Yaquina.
    4. Repair.--Can you provide the repair experience of the Westport, 
the Newport and the Northerly Island when traveling to or working on 
Corps projects in West Coast ports in recent years? What was the 
District's experience when private dredges performed O&M work at the 
smaller West Coast ports? Any concrete examples will assist me in 
responding to the Corps HQ initiative. Can you give me the ages of 
these smaller private dredges, and their expected productive life?
    5. Emergency Response.--Does the Corps keep track of ``emergency'' 
responses over the past several years, where the availability of Corps 
dredges provided quick relief to the impacted port or river? If so, can 
you please provide examples. How has the Corps dredges' prompt response 
saved money for the served port or river? Put another way, were certain 
damages avoided because of the quick Corps dredge responses? Do we know 
what those savings or avoided costs are? I am told that either the New 
Orleans District or the private sector in New Orleans calculated the 
costs of a loss of draft when shoaling occurs in the Mississippi 
channel. I have heard a statistic that each foot of lost draft due to 
shoaling costs an average of x dollars per vessel per voyage. ``Light-
loading'' a vessel by a sufficient amount to clear the shoal costs each 
vessel an amount of ``lost'' cargo the vessel could not load, due to 
the impaired clearance. If calculations have been done on the impact on 
a typical Columbia River vessel due to loss of authorized depth from 
shoaling, I would like to know the impact. I also would welcome such 
data as it pertains to Coos Bay or other West Coast ports where 
significant dredging requirements exist.
    6. Bidding Competition.--Can the Corps provide data covering the 
past several years showing the number of private bidders that sought 
work when the Portland District made it available? Please also provide 
data from other West Coast Districts for such contracts. Please provide 
data comparing those bids with the Corps estimate of each job. How do 
you interpret the impact of a limited number of private bidders on the 
job costs?
    7. Environmental Benefits.--Over the years, one environmental 
argument favoring retention and use of the Corps dredge fleet stresses 
their usefulness as environmental ``platforms'' for research into 
improved dredging techniques or other environmental research. 
Supporters say the Corps can provide more such environmental 
enhancements than can private dredges, and so forth. Can you please 
cite examples of how Corps dredges have provided such environmental 
enhancement or research in carrying out their tasks. The number and 
nature of environmental restrictions should increase in the years 
ahead. In view of that, are the private dredges that might replace the 
Yaguina as able to respond to unique environmental requirements as is 
the Yaquina? How will such environmental research and testing be 
replicated by private dredges? Have cost estimates calculated whether 
private dredges will be willing to perform such research at the same 
cost as that of Corps dredges? Does a Corps dredge provide more 
flexibility for such tests and experiments than does a private dredge?
    8. Emergency Assistance.--In an emergency, I am told that the 
Yaguina can dredge as deep as 55 feet. Can you describe how this 
provides back-up capability for the Columbia River (or San Francisco 
harbor or elsewhere) to help in an emergency. Do either of the smaller 
private industry dredges have the capacity to dredge as deep as 55 feet 
for the length of a normal dredging job? Has this extra capability of 
the Yaquina helped control dredging costs and/or assisted in meeting 
the requirements of limited dredging windows?
    9. Remaining Debt.--Has the cost of the Yaquina been repaid to the 
government? If not, please describe the repayment schedule to pay for 
the Yaquina. If the Yaquina is mothballed, how will the remaining costs 
be calculated and repaid? Did the Corps include close costs in its cost 
calculations developed in the MDF study? Has the cost of the Essayons 
been repaid? If not, how will the remaining debt be paid if the vessel 
is on standby?
    10. New Construction Starts.--Were new West Coast port or channel 
projects approved by Congress in WRDA 96, or are any West Coast 
projects expected in the proposed WRDA 98? If so, how will this impact 
on the availability of private dredges to do O&M work on the West 
Coast? Are other military dredging, or beach replenishment projects for 
the West Coast now in the contract pipeline or final review that could 
impact on the availability of private dredges to do routine O&M work?
    11. Mobilization and Transportation Costs.--Corps officials speak 
of increased competition from private dredges that should result from 
removing the Yaquina from service. How are costs calculated to 
transport a private dredge to compete for small port O&M work? What 
would be the anticipated impact on the bid of a private dredge that 
must be moved to the West Coast to compete for small port O&M work? Is 
it realistic to expect that more private competitors will seek the West 
Coast small port O&M work when such transportation costs are factored 
into their bids? Will lack of new competition leave most West Coast 
work for smaller ports with one private company as the only likely 
bidder? How can the Corps encourage more competition from other private 
dredging companies for smaller jobs in West Coast ports without raising 
the costs to these ports?
    12. Transfer of the Essayons.--With the Wheeler on ready reserve, 
are the chances increased that the Essayons will be transferred to the 
Gulf periodically to perform work? What would the impact be on 
maintaining the Columbia River channel from a lengthy transfer of the 
Essayons to the Gulf? What policies have been adopted by Corps 
headquarters to govern such a transfer? Are procedures in place to 
protect the Columbia River's critical dredging needs from such a 
transfer? How can the Corps prevent the dredging needs of the 
Mississippi from competing directly with dredging needs of the 
Columbia--when both are significant, and both need the Essayons? In 
other words, when both systems need more dredging capacity and there 
are too few dredges available, how does the Corps decide whether 
Mississippi or Columbia system shippers suffer?
    13. Unique Yaquina Strengths.--Is the Yaquina the most heavily 
built of the four Corps dredges? How has this benefited its operation? 
I was told once that the Yaquina can touch bottom on a shoal, move 
side-to-side to create a trench, and then begin dredging. At the time, 
this was cited to me as a strength. Is it a strength? Are there 
circumstances where this helps her perform her duties? Can either of 
the small private hopper dredges that have done work in the Northwest 
also do this? How important is it? How does the maximum daily dredging 
volume of the Yaquina (in a realistic operation) compare with the other 
``small'' private hopper dredges? Can the Yaquina dredge as much as any 
of the private medium-sized hopper dredges? If so, which ones?
    Several of my specific questions stem past discussions some years 
ago and my recollection may not be precise. Nevertheless, I hope they 
allow you to respond with specifics.
    In view of the short time in which I have to respond to Corps 
headquarters, I will appreciate your prompt attention to these 
questions.
    Thank you for your assistance and for the information provided by 
your staff.
            Sincerely,
                                               Walter H. Evans III.
                                 ______
                                 
                               Schwabe, Williamson & Wyatt,
                                    Portland, OR, November 6, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
     does draft mdf study meet other corps policies and standards?
    Interested parties welcome the opportunity to comment on the 
proposed draft minimum dredge fleet (MDF) study announced by the Corps 
on October 8, 1997. In my opinion, however, the short ``viewgraph 
slide'' format, devoid of supporting analysis or data, falls short of 
meeting the standards adopted in a recent Corps initiative addressing 
various aspects of Corps service, including improving customer 
friendliness and developing greater customer partnering. In my opinion, 
the draft study also failed to meet descriptions used by ASA Lancaster 
and General Ballard in describing it.
    Providing a report in draft form for comment is an element of 
openness and customer friendliness. Nevertheless, failure to supply the 
analysis that formed the basis for the conclusions, or even to supply 
data used in the analysis, damages this improved relationship with 
impacted parties: ports, shippers, state and local governments, 
maritime unions, and the private dredge industry. Stating conclusions 
without supporting materials erodes confidence in the processes used to 
reach these conclusions. Using graphs to illustrate risk when 
(apparently) the graphs do not display numerical or quantifiable 
factors or elements can mislead a casual reader into thinking that such 
graphs resulted from ``number crunching.''
    To illustrate how this ``slide show viewgraph'' rendition of the 
study falls short of commendable Corps goals, I analyzed two recent 
Corps documents. The ``Corps Vision Statement'' was one. The recent 
Corps statement extending the comment period on the MDF study was the 
other, one where General Ballard's statements about the study are not 
matched by the product itself, in my opinion. Lastly, I looked at ASA 
Lancaster's response to Senator Murray's questions at an appropriations 
committee hearing about the MDF study to see how the draft study 
matched up with his comments.
    These documents are only illustrative Corps documents I chose to 
make a point. When the Corps sets out laudable goals and procedures, 
and its leaders make clear statements, the Corps raises the bar. As a 
customer, I want to encourage the Corps to meet these goals and 
visions.
           notice of extension of time for mdf study comments
    On October 16, the Corps issued a two-page statement extending the 
comment period on the draft MDF report to November 8, 1997. In it, the 
Corps stated:
    ``The options were developed by the Corps of Engineers based on 
comments and concerns expressed by the ports, maritime users and the 
dredging industry.''
    Does this statement refer to comments made over the years 
informally to Corps officials? I am unaware of any formal request for, 
or systematic collection of, comments, observations, concerns, ideas, 
etc. regarding the MDF. This opportunity to comment on your draft study 
is the first opportunity with which I am familiar. How complete is the 
record of collected ``comments and concerns'' the Corps used for its 
analysis? Does data developed by the Corps for the MDF study reflect 
the ``comments and concerns'' of the three groups cited in that 
statement: ports, maritime users and the dredging industry? Did 
``maritime users'' include comments solicited by the Corps from 
shippers and other stakeholders? Are these ``comments and concerns'' 
from all stakeholders available for review by the public? If not, they 
should be, for many impacted stakeholders want the opportunity to 
review this material. Without it, the Corps conclusions will be suspect 
in the eyes of many stakeholders.
    In describing the MDF study in the statement extending the comment 
period, General Ballard is quoted as stating:
    ``We have attempted to focus the options on the varying degrees of 
risk to the viability of the navigation projects and the investment and 
income risk to the dredging industry, and to balance those risks with 
costs considerations and improved competition, the long term viability 
of the industry, and the ability to respond to time sensitive and 
emergency dredging needs. * * * (i)n seeking this balance, there will 
be a compromise. But some of the new, innovative contracting methods 
and improved scheduling techniques being implemented will offer an 
improved competitive bidding environment and a higher level of 
responsiveness to protect the interest of the nation's ports and the 
Corps' maritime partners.''
    Does ``varying degrees of risk'' to the navigation projects mean 
that these were quantifiable risks? Were they, instead, only Corps' 
conclusions? What does the term ``viability of the navigation project'' 
include in its elements? Did it, for example, include impact on 
shippers and on the local community, or only on the specific project 
use?
    Next, what is the IRR for the private dredging companies that the 
Corps used to calculate the ``investment and income risk to the 
dredging industry?'' What elements entered the Corps calculation of 
``long term viability of the industry?'' All the investment and income 
data regarding the private dredging industry and relied on by the Corps 
should be available for review by all interested parties.
    Two phrases in General Ballard's statement address critical 
concerns of the Corps dredge beneficiaries. First, what elements were 
evaluated and analyzed in balancing ``costs considerations and improved 
competition?'' Second, what elements were used to calculate and analyze 
``time sensitive and emergency dredging needs?'' Corps partners are 
eager to learn how the drain report meets these standards set out by 
General Ballard, but they saw no supporting information.
    In the statement, General Ballard also refers to ``innovative 
contracting methods and improved scheduling techniques.'' The draft 
provided interested Corps partners with no operational details about 
these changes, nor how these changes will protect ports. Without these 
explanations for evaluation, ports are reluctant to endorse several of 
the eight Corps options. Many ports and their customers wish to review 
the analyses used by the Corps to develop these new ``innovative 
contracting techniques and improved scheduling techniques'' before 
commenting. Ports will welcome your description of how these changes 
will benefit ports and maritime users.
    Lastly, General Ballard noted that these changes referenced in the 
paragraph above will ``improve competitive bidding and a higher level 
of responsiveness.'' Along with capacity and emergency response, these 
are elements critically important to Corps partners benefiting from 
Corps dredging services. The comments by General Ballard raise these 
critical elements, yet no data in the draft report explain their 
operation under any of the eight options. Viewgraph # 11 ``Guiding 
Principles'' uses the term ``best deal possible for the American 
taxpayer.'' These same taxpayers want real competition from the private 
sector for dredging contracts. Taxpayers want to prevent conditions 
that limit competition, and these same taxpayers know that the 
existence of the Corps fleet can help avoid non-competitive conditions.
                         corps vision statement
    In the introduction to the Corps of Engineers ``Strategic Vision'' 
statement, General Ballard makes a strong and clear comment: ``Visions 
don't mean anything without a burning commitment from the entire Corps 
organization to make it happen.''
    How does the draft MDF study mesh with this Vision Statement? 
Perhaps a new slide should be added to the Corps dredge new study 
options. This slide could be called ``Integrating MDF Future with Corps 
Strategic Vision.'' In it, the Corps would explain how development of 
this study and the results of the options mesh with elements of the 
Corps vision. A review of one sub-strategy raises questions whether or 
not it meets the standards set out in the vision statement.
    Under the Strategic Vision Sub-Strategy ``Satisfy the Customer,'' 
who is the Corps customer? In the civil works division, are Corps 
customers the project beneficiaries, the projects themselves, and the 
general population? In this context, is the Corps customer also the 
shippers whose fees fund the HMTF?
    Is the private dredge industry a Corps customer? Is not the private 
dredge industry a supplier of services to the Corps? Could an argument 
be made that, as a supplier of services with whom the Corps contracts, 
the private dredge industry should be treated the same as suppliers to 
the Corps of other outside services: copying services, computer 
services, construction services, accounting services--other services 
where the Corps contracts with outside entities, (Here, I realize that 
a statute drives the outside dredge contracting.) Does the Corps 
consider all its service providers and suppliers to be its customers?
    Under the Corps Vision Statement, Sub-Strategy ``Satisfy the 
Customer,'' Item # 2 talks about ``customer based performance measures 
that allow us (Corps) to institutionalize customer feedback.'' The 
draft MDF report, however, overlooks this goal. On an ad hoc basis, 
parties to this debate always have been able to express their views to 
Corps officials at the District and HQ level. To help implement the 
Corps vision, any new Corps MDF plan should include ways to measure 
customer based performance measures, regardless of what option is 
adopted.
    In addition, the Corps should explain how each Corps dredge, if 
retired from service because the Corps selects a certain option, later 
can return to active service if experiences over several years provide 
evidence that the chosen option has not worked, for whatever reasons. 
The Corps should make clear to stakeholders which options preclude any 
return to the status quo, with Corps dredges available for active 
service. The Corps draft study omitted a description, for example, of 
alternatives available to impacted ports if MDF Option # 8 were chosen, 
but then failed miserably. Where the Corps envisions no return to 
service ever by a retired Corps dredge, that option should provide an 
analysis of alternatives to the port if the selected option fails.
    Item # 8 in this sub-strategy calls for appointing advocates for 
customers and developing other partnerships to ``better understand the 
customer's interests and concerns.'' The draft study omits this 
element. Inasmuch as the Corps already meets on a regular basis with 
the private dredge industry, any new MDF plan should create a forum to 
hear on a regular basis from port customer partners on issues relating 
to cost and competition, emergency response, capacity, and other 
concerns. Such a forum would help the Corps address both items # 2 and 
# 8.
    Item # 9 in this sub-category calls for developing ``innovative 
procedures to tighten the partnership between customers and the 
Corps.'' First, as noted, the Corps HQ doors always are open to all 
voices in the debate over the MDF's future. Also, the ability to 
comment on a draft report is a step toward greater involvement that all 
parties welcome. Yet, in evaluating alternative options for the future 
of the MDF fleet, the Corps should consider how best to ``tighten this 
partnership between customers and the Corps.'' As presented to its 
customers with scant analysis and supporting material, this study moves 
in the other direction. Benefits to the Corps and its customers from 
such partnering should not be jeopardized for example, by presenting 
conclusions relating to risk without the data and analysis used to 
calculate risk.
        asa lancaster's response to senator murray re mdf study
    During Senate Appropriations Committee hearings, Senator Murray 
asked ASA Martin Lancaster:
    ``When will the Corps release its Minimum Dredge Fleet Study? Will 
it include an analysis of current and recent peak dredging seasons? 
What process does the Corps plan to carry out to provide Congress and 
interested stakeholders the opportunity to comment on a draft report 
before it is final?''
    ASA Lancaster responded:
    ``The Minimum Dredge Fleet study will be completed in July 1997. 
The study will include an analysis of dredging requirements including 
peak hopper dredge seasonal demands. The draft study will be 
coordinated with the Dredging Contractors of America, ports and other 
stakeholders, as well as interested committees and members of 
Congress.''
    It appears that the Secretary's assurance that the study would 
include an ``analysis'' is addressed only by three pie charts and two 
bar graphs. The illustrations, on pages 5, 6 and 7 of the viewgraphs, 
all use the term ``requirement, but contain little ``analysis.'' One 
page contains a pie chart with the breakdown of dredging requirements 
between hopper dredges and all other'' and the division between 
industry and hopper work. On the next page, a bar graph illustrates the 
monthly workload for hopper work over a three year period. The third 
page has a simple pie chart showing percentages of hopper dredge work 
in the four regions. Beyond this, page 10 of the study contains bar 
graphs illustrating the three-year monthly averages for hopper work on 
the East and Gulf coasts.
    These pie charts and bar graphs do not meet many stakeholders' 
understanding of ``analysis,'' as used by ASA Lancaster. Failure to 
include more than these cursory charts damages the Corps' case for 
making changes in the MDF. Charts and graphs can be an effective 
communications tool when making an oral presentation. While they can 
summarize data in an understandable format, they do not substitute for 
analysis. The pie chart on page 7 showing only hopper dredge work by 
region focused attention on a box that stated that when two of the four 
regions' percentages are combined, they equal 80 percent of the work. 
Such ``analysis'' falls short of usual Corps standards.
                               conclusion
    These comments do not examine or catalogue all past Corps 
initiatives regarding customer partnering and customer interaction to 
see how the draft MDF measures up to the standards and policies set out 
in each. Those initiatives have been welcome, and indicate how the 
Corps is changing the way it does business; Across the board, these 
initiatives benefit all parties, including the Corps. Here, the Corps 
provided a draft document for comment by impacted parties, a welcome 
procedure. Yet the draft report, without more material available to the 
public fell short of the standards the Corps set for itself in recent 
policy statements, in my opinion.
    I hope that the Corps will correct such deficiencies as these by 
providing the analyses used to reach its conclusions. Where available, 
all supporting data also should be made available to interested 
parties.
    Lastly, the Corps should extend the comment period so all parties 
have the benefit of the analysis used by the Corps.
    Thank you for the opportunity to comment on this aspect of the 
proposed MDF study.
            Sincerely,
                                               Walter H. Evans III.
                                 ______
                                 
                         Convention & Visitors Association,
                                 Lane County, OR, November 4, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    Thank you for the opportunity to comment on the Draft Minimum Fleet 
Study. The active role of the federal dredge fleet is very important. I 
am particularly concerned that an active dredge remain available for 
the Port of Siuslaw in Florence, Oregon. Maintenance of the navigation 
channel and harbor is critical to the economic health of Florence.
    Timely, cost-effective access to dredging must be maintained. The 
Study does not ensure this access under the scenarios calling for 
retirement or standby status for federal dredges. Please reject all 
options that decrease the active role of the federal dredge fleet in 
the Pacific Northwest.
            Sincerely,
                                             Kari Westlund,
                                                     President/CEO.
                                 ______
                                 
                                      Port of Portland, OR,
                                                  November 6, 1997.
U.S. Army Corps of Engineers,
CECW-OD,
Washington, DC.
    The Port of Portland is pleased to provide the following comments 
on the ``Draft Minimum Dredge Fleet Study'' released recently by the 
Corps of Engineers. I also want to emphasize the Port's willingness to 
work on a solution on dredging policy that truly addresses the problems 
of the navigation system. Ocean shippers pay 100 percent of navigation 
maintenance costs through their harbor Maintenance fees and they 
deserve a system that meets their requirements at all times.
    As a general perspective, I am disappointed at what appears to be a 
lack of analysis behind the recommendations listed in the study. For 
example, we see little to help examine private sector dredging 
capacity, hopper dredge use during the year or overall dredge 
capability during peak demand periods. Because of our concerns for 
quick response to dredging emergencies, this type of information is 
critical.
    Thus, I cannot support any of the options outlined in the report. I 
understand there will be an opportunity to review further details about 
the Corps analysis of the Minimum Dredge Fleet and management 
alternatives, so I file these preliminary comments and will plan to 
comment later when more details are available from the Corps.
    Recommendation.--The Guiding Principle in the study lists important 
goals of savings for the taxpayers and ensuring a competitive private 
hopper dredge industry. These goals, in our judgment, must rank behind 
the Corps primary navigation role of assuring that navigation channels 
are maintained at authorized depths at all times.
    To meet the needs or the nation's manufacturers, producers and 
shippers, assuring adequate channels for trade is the clear priority 
for the Corps dredging mission. Without this priority ranking, 
navigation safety and the effectiveness of our national transportation 
system is degraded.
    Recommendation.--The list of four interested parties in this 
discussion is incomplete. Prominent by omission are shippers and 
shipping lines.
    Recommendation.--The study reveals little analysis of the 
capabilities of the private sector to meet dredging needs. We had 
expected to see research into the supply and demand of private dredges, 
the number of bids for Corps contracts, a comparison of successful bids 
versus Corps estimates and an overall assessment of industry 
competitiveness. Lack of this information underscores our ongoing 
concern over what we view as the lack of industry capacity in our 
region.
    Recommendation.--The study results rely heavily on the concept of 
``standby'' status for Corps dredges. Missing in this analysis are 
several key points, including particularly the willingness of Congress 
to finance such a program. In today's climate of shrinking federal 
budgets, we believe the task of generating federal dollars will prove 
to be formidable. The challenge the Corps will face is how to justify 
what appears to be minimal use of expensive and labor-intensive capital 
equipment.
    A second related question is how to assure sustained, regular 
maintenance and operational reliability of dredges in a standby mode. 
We know from our own dredging operations that maintaining an idle 
dredge is an expensive and time-consuming operation, but without this 
maintenance the standby mode will not work.
    Recommendation.--While the description of standby status calls for 
the capability to respond in 72 hours, what is missing is a complete 
definition of what constitutes an emergency for call out from standby 
and how this response time will be accomplished. How will current Corps 
procedures be changed to assure the short call out time for government 
dredges can be met under this option. We would seek assurances of a 
practical system to provide certainty for this rapid call for Corps 
dredges. How will navigation emergencies be defined to assure that 
response can be triggered promptly? Who in the Corps will have this 
responsibility: a district engineer or Corps headquarters? How will the 
Corps respond to appeals by private dredge operators to block such 
activation? We will look to the Corps for further clarification that 
quick response time can assure safe navigation.
    In light of these concerns, we strongly encourage the Corps to re-
examine its reliance on standby options.
    The Port of Portland appreciates the opportunity to comment on the 
study and its preliminary recommendations. As I mentioned above, we 
also look forward to seeing further details of the Corps analysis. We 
plan to comment again in detail after we have had an opportunity to 
review this additional data.
            Very truly,
                                               Mike Thorne,
                                                Executive Director.
                                 ______
                                 
                    Oregon Economic Development Department,
                                       Salem, OR, November 6, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    As Manager of the Ports Division of the Oregon Economic Development 
Department, I appreciate the opportunity to comment on the Corps 
Minimum Dredge Fleet Study. I conveyed in a recent meeting with Major 
General Furhman, that we remain very willing to work with the Corps of 
Engineers and other dredging interests to achieve a position that 
assures safe, reliable navigation on our nations federally authorized 
waterways.
    The State of Oregon's position on this issue has been consistent. 
Stated simply, we care that dredging gets done on time, at reasonable 
cost, and assures safe, efficient navigation. Towards this end, we 
continue to urge Congress to appropriate the funds necessary for a 
dredging program that allows us to maintain full channel depths at all 
times. While we believe that the Corps hopper dredge fleet is needed to 
achieve that end, we remain open to analysis, supported by data, which 
shows that the private sector can achieve these results.
    Over the last several years we have asked the Corps to provide us 
with analysis that would show the ability of the private sector to meet 
the hopper dredging requirements. We were hopeful that this study would 
shed some light on the subject, unfortunately it has not. Without that 
analysis, we have no basis to abandon our belief that the Corps fleet 
is a necessary component of navigation and should be utilized at least 
at current (pre-1996 Water Resources Development Act) operational 
levels.
    We recommend that each scenario set forth in the Study be analyzed 
as to its impact on dredging costs, ability to respond, and overall 
hopper dredge capacity to meet demand. A risk analysis applied to any 
scenario should at a minimum reflect these three elements.
    There also seems to be a disconnect between the Corps stated 
mission on page 4 ``to provide safe, reliable, and efficient waterborne 
transportation systems (channels, harbors and waterways) for movement 
of commerce, national security needs, and recreation,'' and the 
``Guiding Principle'' as stated on page 12. That principal eludes to 
``getting the best deal for the American taxpayer and seek ways to 
ensure a viable private hopper dredge industry * * *.'' This is a 
difficult principal to understand because it appears as if the Corps 
has shifted its mission to add a policy of bolstering private industry 
while decreasing the focus on maintaining channels at authorized depths 
at all times.
    At the end of the day, we need to know whether the private hopper 
dredging industry can handle the hopper dredge work if all or some of 
the Corps fleet were removed from service. The answer to that question 
should reflect well reasoned and thoughtful analysis based on complete 
data, which can support clear public policy decision making. We, and 
hopefully Congress, still await such data and analysis.
    Thank you for the opportunity to respond, we stand ready to 
continue to work on future alternatives.
            Sincerely,
                                          Keith A. Leavitt,
                                                           Manager.
                                 ______
                                 
                         Florence Area Chamber of Commerce,
                                    Florence, OR, November 6, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    Thank you for the opportunity to comment on the ``Draft Minimum 
Dredge Fleet Study.''
    The Florence Area Chamber of Commerce feels that the maintenance of 
the navigation channel and harbor for the Port of Siuslaw is extremely 
important to the tourism economy of our community. Since the mid-1980's 
the timber industry has seen a down-sizing effect, and commercial 
fishing has also been on the decline. However, recreational fishing has 
been on the upswing and serves as an important adjunct to our tourism 
based business. It is with the perspective of this important activity 
that our Chamber reviewed the Corps Draft Study.
    We know our community of Florence and its surrounding area along 
the Siuslaw River best. Therefore, we believe strongly that maintaining 
both federal dredges in active operating status is critical to keeping 
our channels and harbor open. Six of the eight options call for 
retiring at least one of the federal dredges based in the Northwest 
region, yet there is no analysis demonstrating that we will continue to 
have our dredging needs met in a timely, cost effective manner under 
these options.
    We are interested in cost containment, but not at the expense of 
sacrificing adequate capacity to meet our routine needs for the Siuslaw 
system, and certainly not at the expense of losing our emergency 
dredging requirements. This study does not provide any basis for the 
Chamber to believe that these needs will be met.
    Therefore, the Chamber of Commerce rejects all options that 
decrease the active role of the Federal Dredging Fleet.
            Sincerely,
                                            David A. Capen,
                                                         President.
                                 ______
                                 
                                  District No. 1-PCD, MEBA,
                                 Jersey City, NJ, November 7, 1997.
Army Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    District No. 1--MEBA is the exclusive collective bargaining 
representative for the Marine Engineers on all of the Army Corps of 
Engineers vessels, and I'd like to express our concerns as to the 
future of the minimum dredge fleet.
    The Army Corps of Engineers draft Minimum Dredge Fleet study dated 
October 8, 1997 only contains the options management is considering in 
order to develop a plan for the Minimum Dredge Fleet; it contains no 
data upon which an informative decision can be reached.
    As you are aware, Public Law 95-269 requires the Corps to ``carry 
out such work in the manner most economical and advantageous to the 
United States.'' Therefore, only the first option makes any sense, 
since this option gives the American taxpayer value for money already 
spent in building the Minimum Fleet Dredges and, by using the Corps 
dredges to their maximum capacity, the U.S. Government gets the best 
value for the dollar.
    In view of the fact that the private industry has yet to 
demonstrate that they have the capability to perform the work in a 
timely manner and at reasonable prices, as stated in Public Law 95-269, 
and as can be seen by the various emergencies on the Gulf Coast this 
past year, as well as numerous other crises over the past ten years, it 
is apparent that to reduce the Minimum Dredge Fleet below its current 
level would jeopardize one or more sectors of the national water 
transportation infrastructure, which would result in the deviation of 
ships and cargos to our neighbors to the north/south resulting in 
additional job losses.
    Additionally, Public Law 95-269 states that the Secretary shall 
retain a minimum federally owned fleet which is capable of performing 
emergency and national defense work and may exempt such amount of work 
as necessary to keep the federal fleet fully operational.
    It should be noted that this study does not address the U.S. Army 
Audit Agency's report on industry bidding practices dated September 12, 
1995, and had this report been available when the Water Resources 
Development Act of 1996 was being discussed, Section 237, Hopper 
Dredges (c) program to increase use of private Hopper Dredges might not 
have been included in this Act.
    Further, if these allegations are true, then why would there be any 
consideration of eliminating one of the few checks remaining on the 
private industries' ability to inflate bids which could raise the cost 
of all of the alternatives, especially if one or more of the Corps' 
dredges were operating at less than status quo.
    In closing, I feel that, by using option one, the Corps' would 
fulfill its obligations under Public Law 95-269 and thereby prevent the 
loss of not only the Minimum Dredge Fleet but, also, the loss of the 
highly skilled professional crew members manning these vessels. 
District No. 1--MEBA strongly urges that this option be adopted.
            Sincerely,
                                             John Haarmann,
                                       Government Fleet Operations.
                                 ______
                                 
                                State of Louisiana,
                Governor's Task Force on Maritime Industry,
                                                  November 7, 1997.
Major General Russell L. Fuhrman,
Director & Asst. Commander of Civil Works,
U.S. Army Corps of Engineers, Washington, DC.
    Dear Major General Fuhrman: This is our response to the Minimum 
Dredge Fleet presentation. We hope you can appreciate that we are 
unable to make any other type of presentation. We include a copy of my 
letter dated October 30th requesting the information that will allow us 
to properly respond.
                                history
    The U.S. Army Corps of Engineers released the original Minimum 
Dredge Fleet Study in July of 1991. The Maritime industry determined, 
after a detailed review, that the study contained false conclusions 
which were based on incomplete and inaccurate data. The U.S. Army Corps 
of Engineers decided to revise the study and it took over three (3) 
years to complete the revision of the 1994 (Step 2) study.
    During Dr. Zirschky's first appointment, he reviewed the study and 
requested the Army Audit Agency to evaluate the study. The Army Audit 
Agency reached the same conclusion, the study was flawed. They reported 
this to Dr. Zirschky. The 1994 revised study was never publicly 
released. A new Minimum Dredge Fleet Study was ordered by Dr. Zirschky 
in October 1994 and was to be completed by October 1996. A decision was 
made by the U.S. Army Corps of Engineers to delay the study to include 
fiscal year 1996 dredging data. The study was to be completed by April 
1997, but this again was delayed.
    The Maritime industry has been waiting since 1991 for the release 
of a study providing detailed corrected data to properly evaluate the 
Minimum Dredge Fleet requirements. History has shown that the private 
dredging industry doesn't have sufficient capacity to respond to peak 
or emergency situations. Maritime interest has suffered lost revenues 
due to loss of draft due to lack of dredging capacity and capability to 
timely maintain ports at these project dimensions.
    The slide presentation referred to as the 97 Minimum Dredge Fleet 
Report is a serious disappointment to the Maritime industry. This 
presentation as the previous studies were completed without the 
valuable input of the Maritime industry. This, again, is a serious 
shortcoming on behalf of the U.S. Army Corps of Engineers. It also 
displays the U.S. Army Corps of Engineers' total disregard for the U.S. 
Army Corps of Engineers ``Partnering Concept'' Program. Over the past 
seven (7) years, the Maritime Industry has had numerous meetings with 
the U.S. Army Corps of Engineers at the District Division and HQ levels 
to discuss this issue and obtain the required data to go to Congress in 
support of the U.S. Army Corps of Engineers hopper fleet. It is our 
opinion that the U.S. Army Corps of Engineers has failed in their 
mission to properly evaluate the dredging issue thru full study and 
presentation of the facts for comment and review.
                                comments
    The 97 Minimum Dredge Fleet release does not address the capacity 
or capability issues so vital to maintaining our ports and harbors. Why 
has the U.S. Army Corps of Engineers rejected the dredging history 
since 1990? This release does not, in anyway, address the dollar cost 
to industry when a channel is lost due to insufficient capacity and 
lack of timely response to maintain project dimensions. The New Orleans 
District completed a study on this, and it should be completed and 
added to this data set. The lack of sufficient capacity has been 
clearly demonstrated on the Mississippi River in 1996 and 1997, as well 
as on the Mississippi River-Gulf Outlet which was the result of 
tropical storm Josephine. These facts have not been presented in this 
presentation.
    It also includes a number of dredges which are very restricted in 
operation due to design or limited capacity. In particular, the 
Mississippi River qualified dredges should be analyzed on a separate 
data sheet. The U.S. Army Corps of Engineers does not address the need 
for an increased number and cost of dredges due to small daily 
capacity, i.e. the U.S. Army Corps of Engineers ``Wheeler'' equals to 
Island Class (NATCO) dredges.
    The U.S. Army Corps of Engineers fails to detail the daily work 
schedule, repair, lay up or idle status of the private hopper dredge 
fleet. We were able to obtain this information from our local district 
thru fiscal year 1995. They acquired this information from the private 
dredges as the U.S. Army Corps of Engineers does not maintain this 
vital information. Why doesn't the U.S. Army Corps of Engineers 
maintain this vital information, which is required to properly 
determine private availability and capabilities? Over a two (2) year 
period, three (3) large Mississippi River qualified private dredges 
operated between 85 to 95 percent of daily dredging operations. They 
were employed at times on other projects which prevented them from 
responding to our dredging emergency. The U.S. Army Corps of Engineers' 
scheduling has been a problem, and we support your addressing this 
issue.
    Lack of this type of data, as well as other incomplete data and 
lack of details, caused a serious doubt as to the accuracy of this 
presentation. In particular, the high dredging requirements of the 
Atlantic and Gulf Coast areas should be presented as a total separate 
analysis. We also question the decision of not considering all data 
from fiscal year 1988 to fiscal year 1994.
    The increased dredging cost by the private sector is not fully 
reviewed in the cost estimates. The total job cost is not considered. 
The lack of competitive bids by private sector has increased our 
dredging cost, especially in the Mississippi River and Mississippi 
River-Gulf Outlet. The number of options of operating the U.S. Army 
Corps of Engineers dredges yields the greatest savings as per the U.S. 
Army Corps of Engineers chart. We realize this is not practical, and in 
the real world is not an option.
    The recent newspaper article on the private dredging and the Army 
Audit Agency investigation in fiscal year 1993 and fiscal year 1994 are 
a great concern to the Maritime industry. Since the U.S. Army Corps of 
Engineers had knowledge of this, was any consideration given to these 
issues in preparing this presentation? What is the time frame of the 
Army Audit Agency's investigation into fiscal year 1995, fiscal year 
1996 and fiscal year 1997 contracts?
                               conclusion
    Based on the above comments, we must reject this presentation as 
being lacking in the above comment area. There is insufficient data to 
properly evaluate and/or make choices on the options presented. The 
U.S. Army Corps of Engineers should provide a copy of the previous Army 
Audit Agency's evaluation of the revised Minimum Dredge Fleet Study 
(1994 Step 2). In addition, we feel a more complete study should be 
undertaken immediately to have a full evaluation of this important 
issue. We would like to work with you to help prepare a report we can 
use to bring to Congress to show them the need to:
  --(1) Improve and update the ``McFarland'';
  --(2) Maintain the ``Wheeler'' in full operational service;
  --(3) Maintain the ``Essayons'' and ``Yaquina'' operational; and
  --(4) Ensure private dredging companies obtain their fair share of 
        work, provide for reinvestment into the fleet, and a proper 
        return on their investment.
    Since this study is incomplete and lacks sufficient data, we most 
decline to respond to the options presented.
            Yours very truly,
                                           George E. Duffy,
                                                          Chairman.
                                 ______
                                 
                                State of Louisiana,
                Governor's Task Force on Maritime Industry,
                                                  October 30, 1997.
Maj. Gen. Russell L. Fuhrman,
Director & Asst. Commander of Civil Works,
U.S. Army Corps of Engineers, Washington, DC.
    Dear General Fuhrman: Following our recent meeting in Washington 
with you and our subsequent meeting with Barry Holliday, we have 
compiled the following list of information we require. Our list is 
comprised of input from the Pacific Northwest, the East Coast, and the 
U.S. Gulf Coast which were represented in our recent meeting.
    (1) The revised Minimum Dredge Fleet Study of 1994 (Step 2);
    (2) The Army Audit Agency Report to Dr. Zirschky on the Minimum 
Dredge Fleet Study of 1994 (Step 2);
    (3) The USACE New Orleans District Study on the cost to the 
maritime industry on loss of draft on the Mississippi River and the 
Mississippi River-Gulf Outlet. Comparable studies or data related to 
channels and harbors in the East Coast, the Pacific Northwest, and the 
U.S. Gulf for fiscal year 1994-fiscal year 1996;
    (4) Detailed schedule of work, repair and idle time on all the 
private sector hopper dredges for fiscal year 1993-fiscal year 1997;
    (5) Accurate data as to the daily production of the USACE hopper 
fleet in cubic yards per day or per hour for fiscal year 1990-96;
    (6) Accurate data as to the daily production of all the private 
sector hopper dredges in cubic yards per day or per hour for fiscal 
year 1990-97;
    (7) Data used to compile options 1 through 8 of the U.S. Army Corps 
of Engineers Minimum Dredge Fleet presentation;
    (8) Copies of the Army Audit Agency Report in 1995 on bid rigging 
and their investigation into the private dredging sector.
    (9) An analysis of the 1996 and 1997 dredging emergencies in the 
East Coast, the Pacific Northwest and the U.S. Gulf. This should 
include the loss of project dimension, the bid advertisements, the 
responses, and the total number of dredges that responded in the 
hopper, cutterhead and ladder type dredges.
    Since the new extension date for our reply and comments is November 
7th, we would appreciate an indication as to when we can expect to 
receive this data. Hopefully, this information can be sent to us in a 
timely fashion which would allow us time to review the data and then 
properly respond. Anticipating that this data will take a period to 
prepare, what we would like to propose is that if we receive the data 
by November 15th, thence we will be able to respond to you by December 
1st. We think that a two (2) week interval with the Thanksgiving 
holiday in that period would be sufficient. We hope this is workable, 
as it is important for us to review and evaluate the data in order to 
properly respond to you on the Minimum Dredge Fleet.
    Rather than have copies mailed to all of our participants, what I 
would request is that two (2) copies be mailed to Mr. Dan James, PNWA 
for the Pacific Northwest area, a copy to Mr. Dennis Rochford, 
Philadelphia Maritime Exchange for the East Coast, and a copy to 
myself. We will distribute the data to the balance of our members. We 
are hopeful that this information is available to us, and if not, 
please let us know what information is going to be able to be 
distributed and what information is not for whatever reasons.
    If there is any clarification needed, please have one of your staff 
contact me, or if you want, we can just deal directly with Barry 
Holliday on this information flow.
            Yours very truly,
                                           George E. Duffy,
                                                          Chairman.
                                 ______
                                 
                            Alabama State Docks Department,
                                      Mobile, AL, November 7, 1997.
U.S. Army Corps of Engineers,
CECW-OD,
Washington, DC.
    The Alabama State Docks, on behalf of the Port of Mobile, the 
deepwater port of Alabama and the terminus of a 1,500 mile inland 
navigation system encompassing the Tennessee, Tennessee-Tombigbee, 
Black Warrier-Tombigbee and Coosa-Alabama waterway systems, has 
anxiously anticipated the release of and opportunity to comment on the 
Minimum Dredge Fleet Study.
    Unfortunately, once again the process has not responded to the 
third and fourth partners' (the port and navigation industries) desire 
and need to have full understanding of the analyses behind the 
alternatives presented. To request that the ports choose (or rank 
order) alternatives based on the information provided to date is 
unacceptable.
    In the way of background, shortly after I joined the port industry 
in 1991, I was introduced to the Minimum Fleet Study as a working 
member of the American Association of Port Authorities', Harbors, 
Navigation and Environment Committee. Despite numerous attempts to 
obtain full and direct involvement in the process, our successes were 
few and with minimal impact. Over time, through regional and national 
Corps/port partnership forums and verbal and written communication with 
Corps leadership, to include the ASA, our frustrations have been 
thoroughly articulated. Yet, to date, our desire to be a full 
participating partner continues to be stymied.
    Our goal for the total (hopper) dredge fleet is simple. The total 
fleet must have the capability of providing navigation channels that 
are maintained at authorized depths at all times to ensure that 
navigation safety and the effectiveness of our national transportation 
system is not degraded. Over the last four years, the combined Corps 
and private fleet has been unable to achieve this goal satisfactorily. 
In two of those four years, the Port of Mobile and its users have been 
the victim of the fleet shortfall.
    In the third year, we only narrowly avoided being tasked once again 
to operate in a degraded state while an ongoing dredge project using 
non-Corps assets was interrupted to divert the assets to a ``higher 
priority'' system. Even though this port does not use the Corps 
(hopper) fleet assets, it is ludicrous to think that reduction of the 
Corps fleet will not have further negative impact on the maintenance of 
the port's Federal Project. Even the concept of ``standby'' status is 
fraught with numerous risks which are unacceptable to any port tasked 
with providing full capability to the shipping interest it serves.
    With these thoughts foremost in mind, we do appreciate the 
opportunity to provide comment on the ``Study'' material presented. We 
also look forward to the opportunity to comment on the full Corps 
analyses in the future.
            Sincerely,
                                             John P. Carey,
                                      Chief Administrative Officer.
                                 ______
                                 
                        Steamship Association of Louisiana,
                                 New Orleans, LA, November 7, 1997.
Major General Russell L. Fuhrman,
Director and Assistant Commander for Civil Works,
U.S. Army Corps of Engineers, Washington, DC.
    Dear General Fuhrman: Please find attached our Association's 
comments on the 1997 Dredge Report recently provided to us by the Corps 
of Engineers. If you have any questions or comments about the attached, 
please contact me.
            Very truly yours,
                                   Channing F. Hayden, Jr.,
                                                         President.
  steamship association of louisiana's comments on the 1997 dredging 
                        report november 7, 1997
                               background
    In November of 1991, the steamship industry commented on the 
Minimum Dredge Fleet Study (the 1991 Study) completed in July of that 
year. Noting several fatal flaws, the steamship industry (the users of 
federal dredging) urged that the 1991 Study be redone. After the Army 
Audit Agency agreed with industry's position, then Acting Assistant 
Secretary of the Army for Civil Works, Dr. John Zirschky, advised that 
a new Minimum Dredge Fleet Study would be undertaken, one which would 
not contain the defects of the 1991 Study. The new study was expected 
about two years from Dr. Zirschky's October 1994 decision.
    Six years after the 1991 Study, and a year past the expected 
deadline for a new study, the steamship industry finds itself reviewing 
a document presented by the Corps of Engineers that does not meet the 
minimal requirements for a Minimum Dredge Fleet Study. Public Law 95-
269 requires the minimum fleet analysis be based on:
  --Capability, which includes suitability of the private dredges 
        available and the dredging capacity of the combined Corps/
        private fleet;
  --Reasonable price; and
  --Timely response.
                                comments
    General.--The recent document presented by the Corps (referred to 
here as the 1997 Dredge Report) took an inordinate amount of time to 
complete. Secretary Zirschky announced in October 1994 that the 1991 
Study would be redone. Noting that there was about a year between the 
completion of the last fiscal year included in the 1997 Dredging Report 
and its release, if the 1991 Study had been redone in a timely fashion, 
it would have been completed in late 1995 and based on data from fiscal 
year 1988 through fiscal year 1994.
    Despite the amount of time it took to finish, the 1997 Dredging 
Report, like the 1991 Study, was undertaken and completed without 
meaningful steamship industry input. While industry representatives 
have met with the Corps on several occasions, our input and dredging 
needs were not solicited during the preparation of the report.
    Capability.--The 1997 Dredge Report touches briefly on dredge 
capacity but fails to consider the suitability of the hopper dredges in 
the private fleet--ignoring their age and the fact that several small 
dredges included in the Study are unsuitable for use on the Mississippi 
River. The data set on which dredging requirements are determined is 
incomplete. Without complete data on dredging requirements no credence 
can be given to the 1997 Dredging Report's comparison of dredging 
capacity to dredging requirements.
    It seems inconceivable that the Corps does not have all the data 
from its dredging contracts, yet the data set supporting the 1997 
Dredging Report has gaping holes in it. In some cases, the amount of 
material dredged is not known. The incompleteness of the data casts 
doubt on the validity of the Corps' estimates of the nation's dredging 
requirements and the capacity of the combined Corps/private hopper 
fleet to meet those needs.
    The 1991 Study was based on data from fiscal year 1988 and 1989. 
The 1997 Dredging Report is based on data from fiscal year 1994 through 
fiscal year 1996. Why did the 1997 Dredging Report not include data 
from fiscal year 1988 through 1996? Data selectivity implies an attempt 
to bias the conclusion.
    Why is the methodology of the 1997 Dredging Report different from 
that of the 1991 Study? Though the steamship industry was critical of 
the 1991 Study, it was much more thorough.
    If nearly 80 percent of all hopper dredging is on the Atlantic Gulf 
coasts, a capacity-versus-requirements analysis should have been done 
for that area.
    The dredging capability used in the 1997 Dredging Report is not 
completely valid. The capability data for the private fleet is based on 
fiscal year 1991 information, and the dredging requirements are based 
on fiscal year 1994, 1995 and 1996. During part of those three years, 
the PADRE ISLAND and SUGAR ISLAND were out of the country, and the 
MANHATTAN ISLAND was in the shipyard for an extended period as the 
result of a collision. In addition, the WESTPORT, ATCHAFALAYA and 
MERMENTAU are too small for use on the Mississippi River. These three 
small dredges must be removed for the capability equation and would 
have been if the analysis of Atlantic and Gulf dredging capacity-
versus-requirements (suggested above) had been performed. Thus, the 
chart on page 10 of the 1997 Dredging Report must be reconstructed to 
show the reduced private dredging capability by adjusting for the six 
private dredges mentioned here.
    Finally, as noted below, the increase of single bidder contracts on 
the Mississippi River shows that there is not sufficient private hopper 
capacity to address the hopper dredge needs on the River.
    Pricing.--The 1997 Dredge Report gives scant notice to the price of 
dredge work. Other than to state (without any empirical analysis given) 
that certain of the Report's options cost more or less than the status 
quo, pricing is ignored. Thus, the Study's authors failed to consider 
the effects of single bidder dredge contracts on the cost of dredging. 
If the authors had reviewed this aspect of pricing, they would have 
found the following (based on information Senator Murray requested and 
received from General Ballard):

                            [In percentages]
------------------------------------------------------------------------
                                             Multiple bid    Single bid
                Fiscal year                 contracts \1\  contracts \2\
------------------------------------------------------------------------
1992......................................        -11.62         +15.00
1993......................................         -8.79         +23.97
1994......................................         -8.90         +15.97
1995......................................         -1.82         +16.04
1996......................................        -11.98          +0.50
------------------------------------------------------------------------
\1\ Average difference between winning bid and Government estimate.
\2\ Average difference between winning bid and Government estimate.

    In addition, had the authors focused on pricing as required by law, 
they would have noticed a strong correlation between single bidder 
contracts and cost over-runs in the Mississippi River and Mississippi 
River-Gulf Outlet (MR-GO) projects as set out below:

------------------------------------------------------------------------
                                                   No. of
                                                   single
                                                   bidder     Cost over-
                  Fiscal year                    contracts      run on
                                                  on Miss.   Miss. River
                                                River & MR-    & MR-GO
                                                     GO
------------------------------------------------------------------------
1992..........................................            2     $240,936
1993..........................................            5    1,251,577
1994..........................................            8    2,635,921
1995..........................................            4    3,361.254
1996..........................................  ...........      ( \1\ )
------------------------------------------------------------------------
\1\ No cost over-runs.

    And finally, had the authors of the 1997 Dredge Report considered 
pricing, they would have considered the implications of the 
uncompetitive activity recently alleged by an internal Corps' study.
    In fact, the only pricing information in the 1997 Dredging Report 
shows that the least costly method of keeping the nation's navigation 
channels open, compared to the current situation in which the WHEELER 
is on ready reserve status, is to employ the Corps' hopper fleet 250 
days per year. However, there is no empirical analysis of the cost 
associated with the eight options. Thus, readers cannot evaluate the 
conclusions drawn. In addition, the cost data presented for the various 
options raises the following question: Would additional savings be 
achieved if Corps' dredges worked more than 250 days? What would the 
savings be if, for example, the Corps' hopper fleet worked 300 or 325 
days per year?
    A risk analysis is not a requirement of a minimum dredge fleet 
study. However, if one is to be done, it should not be subjective, as 
is the case in the 1997 Dredging Report.
    The risk analysis in the 1997 Dredging Report is incomplete. It 
does not consider the expected value of the outcomes. For example, if 
an undesirable outcome for the shipping industry has a low probability 
of occurring (say 5 percent), but a high cost if it does occur (say 
$20,000,000), its expected value is $1,000,000. If the countervailing 
risk to the dredging industry has a high probability of occurring (say 
80 percent), but a low cost (say $1,000,000), its expected value is 
$800,000. In such a case, the low risk steamship industry alternative 
should be avoided because of the higher expected costs associated with 
it. Should the Corps wish to undertake a risk analysis, it must be done 
based on the losses to the ports and nation that are incurred when 
navigation channels are maintained at less than project dimensions.
    Finally, no discussion of the price of dredging would be complete 
without noting, again, that U.S. taxpayers do not pay for dredging. 
That cost is borne by the shipping industry (the Corps' dredging 
customer) through the Harbor Maintenance Tax.
    Timeliness.--The 1997 Dredging Report fails to consider, as 
required by law, timeliness as a criteria in the analysis of the 
nation's dredging needs. Timeliness is critical to any dredging 
evaluation. Regardless of the dredging capacity available, if dredges 
do not arrive on station in time to address rapid shoaling, the 
capacity has no practical value. This result occurs when private 
dredges arrive on station unable to work at full capacity, when 
dredging contracts are let and no private dredges bid, or when the low 
bidder for a contract is more than 125 percent above the government 
estimate.
    For example, at the November 5, 1997 monthly Dredging Forum meeting 
in New Orleans, the Corps reported on four recent bids for which there 
were no bidders, or the bid was too high above the government estimate 
to be awarded. Needed dredging on the Calcasieu Ship Channel and the 
MR-GO has been delayed as a result. This is but one example of how not 
considering timeliness causes the 1997 Dredging Report to be fatally 
flawed.
                               conclusion
    For the reasons given above, our Association rejects the 1997 
Dredging Report as a valid Minimum Dredge Fleet study, which the 
industry has been expecting since Secretary Zirschky's 1994 commitment 
to redo the 1991 Minimum Dredge Fleet Study. We respectfully request 
that the Corps of Engineers undertake, with all deliberate speed, a 
proper Minimum Dredge Fleet Study that addresses the concerns noted 
above, as well as our comments on the 1991 Minimum Dredge Fleet Study, 
and commits to having the new study completed and disseminated to the 
interested parties by the end of March, 1998. It is further 
respectfully requested that the Corps comply with the shipping 
industry's request to make available to us, in a timely fashion, the 
Army Audit Agency's (AAA) critique of the 1991 Minimum Dredge Fleet 
Study, the AAA report on uncompetitive pricing practices in the 
dredging industry, and the complete data set on which the 1997 Dredging 
Report is based.
                                 ______
                                 
                                    Board of Commissioners,
                                    Roseburg, OR, November 6, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    We request your consideration of retaining the Corps hopper dredges 
(Yaquina and Essayons) in active service on the west coast.
    We are particularly concerned with the possibility of losing the 
Yaquina which works in the Oregon coastal ports, including the Umpqua 
River located here in Douglas County. The maintenance dredging in the 
port and river has a significant economic impact on the coastal area of 
Douglas County.
    Thank you for your consideration of this and other comments you 
have received in support of retaining the Yaquina and Essayons.
            Sincerely,
                                            Doug Robertson,
                                                          Chairman.
                                 ______
                                 
                                       Port of Walla Walla,
                                 Walla Walla, WA, November 7, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    The Port of Walla Walla appreciates the opportunity to comment on 
proposed option regarding prospective changes in the Corps Minimum 
Dredge Fleet, as set out in the Draft Report made available by the 
Corps on October 8, 1997.
    As the Corps is aware, the Port of Walla Walla is on the Columbia-
Snake River system. Last year our port loaded 114 barges of grain of 
which 90 percent goes to export markets.
    As a Columbia-Snake River system upriver port, we benefit from 
shallow draft dredging. Our port also depends on O&M work on the lower 
Columbia River. Much of that vital work is performed by the Corps 
dredge Essayons. As an active member of Pacific Northwest Waterways 
Association, we also know the benefits from, and we support, the 
critical role played by the Corps dredge Yaquina in dredging smaller 
coastal ports.
    Any government initiative aimed at lower dredging costs and a 
greater private sector role has obvious appeal to our port. In this 
case, however, we are concerned that adoption of any of several of the 
eight different Corps options will result in higher dredging costs, 
less ability to respond to emergencies, and a greater lack of peak 
dredging capacity. Any of these results could damage our port and our 
region. As a result, we oppose any changes in the stateus quo for the 
reasons detailed below.
                            lack of analysis
    The Port of Walla Walla was looking forward to evaluating the 
various Corps options in your draft report to assess their potential 
impact on our port and on others on the Columbia-Snake system. The 
draft report, however, does not provide sufficient information for us 
to offer educated comment. Instead, the 27 ``viewgraphs'' that form the 
draft report contain generalities and conclusions without supporting 
analysis. As a result, we are compelled by this lack of supporting 
information to reject all options except maintaining the status quo. In 
summary, our port lacks sufficient material from the Corps to examine 
the potential impact of many of the options developed by the Corps.
    Our port looks to services provided by the Corps dredges to see how 
they meet the standards critical to us. Those standards are:
    1. Cost and competition.--How does any proposed change impact the 
potential costs of providing dredging services, particularly on the 
Lower Columbia River? How much real competition exists today among the 
private dredge companies? We are told of single private bids from time 
to time, including bids issued from the Portland District. What will 
the impact be from lessening competition by removing some of the 
balance now offered by the four Corps dredges? Importantly, how did the 
Corps reach the conclusions that the risk is ``low'' to Columbia River 
ports if private dredge operators are allowed to perform all the 
Columbia River Dredging? How often do private dredge companies exceed 
125 percent of the Corps estimate--a ceiling above which that now 
allows Corps dredges to perform the work? If Corps dredges are removed 
from service, and only one private dredge company bids on a Corps 
dredging job, what happens if the bid is excessive, but no Corps dredge 
is in service to perform the work? What if a private dredge breaks down 
while dredging in the Columbia River, and neither a Corps dredge 
(retired) nor another private dredge of equal capacity is available to 
replace it?
    In summary, we see no evidence or analysis that shows how cost 
increases for dredging will be addressed under several of the Corps 
options. Without the back-up availability of Corps dredges to step in 
to do the work, we predict that dredging costs will rise. The Corps MDF 
study provided no analysis that this prediction is erroneous. Removing 
Corps hopper dredges from service further depletes an already limited 
number of hopper dredges, thus creating even less competition.
    2. Emergency Response.--Our region still recalls the impact of the 
Mt. St. Helens eruption, when the Columbia River channel was closed 
from debris and sediment that flowed into the channel from the 
eruption. Shoaling in the lower Columbia that lowers the channel depth 
could create serious problems, without prompt emergency dredging to 
remove the shoaling.
    Shippers of grain and other products using Columbia River upriver 
ports want reliability in their transportation services to export 
markets. When water transportation is involved, channels must remain 
open, so fully loaded vessels can depart with U.S. exports. Our port 
cannot endorse any changes to the Corps dredge fleet that could reduce 
emergency assistance to reopen the Columbia River channel after 
shoaling that reduced the channel depth. We believe that removing Corps 
will meet these needs.
    We do not have enough information from the Corps to make informed 
comments on this critical element. For example, we understand the Corps 
is considering changing in contract procedures to compel private 
dredges to move quickly from an existing dredging job to sites 
requiring emergency assistance. Where are these details of such 
changes? We cannot endorse this concept without supporting explanation 
providing more information. For example, how can the Corps prevent 
court challenges to such actions, either by the private dredge 
companies or by the beneficiary being served at the time by the dredge 
in question the Corps wants to move to an emergency?
    What if a private dredge is working at a military channel or 
facility in California when a Columbia River emergency occurs. Will the 
dredge stay in California, under pressure from the military seeking 
completion of its work? The U.S. military may make a compelling case 
that its immediate dredging needs are for national security, while 
claiming that the Columbia River ports have only commercial cargoes at 
risk. If so, vital shipping down the Columbia River could be damaged.
    Shipping delays caused by channel shoaling damage our system in two 
ways. First, shipments actually delayed at the time can be lost forever 
if overseas grain requirements, for example, can be met elsewhere. 
Second, and of equal importance, damage to the image of reliability of 
the Columbia River as an avenue to export markets can create a long 
term disaster for our river system. Any reputation of unreliability in 
meeting shipping needs of products that can get to market via other 
channels can devastate a port or a river system. Our shippers now using 
Columbia River ports might shift to Canadian ports if they experience 
delays or light loading requirements brought about by shoaling in the 
lower Columbia--when a Corps dredge now could respond immediately to 
solve the problem.
    In summary, several Corps options remove Corps dredges from 
service, thus damaging emergency response capability. Under some 
options, the Corps dredges would be unavailable for emergency 
responses. Already, the private hopper dredge fleet is limited in 
number. We lack information about how the standby options would operate 
to provide emergency response. We oppose any options that could create 
channel depth problems in the lower Columbia, both for the immediate 
damage to shippers, but also for the damage to our reputation as a 
reliable conduit for shippers into global markets.
    3. Capacity.--We are aware that insufficient hopper dredging 
capacity now occurs at certain times of the year. This lack of peak 
capacity is not only a Mississippi River issue, as it could have a 
serious impact on the Columbia System. If the Corps dredge Wheeler is 
retried, and Mississippi flooding occurs, there may not be enough 
capacity to meet their emergency dredging needs. The Essayons might be 
transferred to the Mississippi for emergency response, thus leaving the 
Columbia River system vulnerable to shoaling. Because of the lack of 
peak capacity now, when four Corps dredges are available, we question 
removing from service any of the four Corps dredges.
                               conclusion
    The Port of Walla Walla welcomes the spirit of openness 
characterized by providing a draft report for comment. We support this 
process, and believe it benefits both the Corps and its port partners. 
Our port regrets, therefore, that the draft MDF report was not more 
complete than the viewgraphs, for it erodes this cooperative spirit.
    In conclusion, the Port of Walla Walla must oppose changes in the 
existing operation of the Corps dredges until more data is available 
for our review. The key elements must be met for us to support any 
changes in the current operation of the dredges. A short set of slides 
fails to give Corps stakeholders enough information to make informed 
judgments. Slides that set out Corps conclusions without backup 
analysis are inadequate. Use of graphs showing conclusions of risk 
(``low, medium, high'') presume that the graphs represent quantifiable 
amounts displayed in graph form for easy comparison. We see no 
information that identifies how the Corps selected low, medium or high 
risk. Lastly, we were disappointed that one viewgraph (``The 
challenge''--viewgraph # 9) included only the ``wants'' of the private 
dredge industry, and omitted the ``wants'' of Corps customers such as 
ports and shippers.
    We suggest that no further action be taken until more information 
is provided to your impacted customers, such as our port. Only then can 
we provide informed analysis and recommendations.
    Thank you for your consideration of our port's views.
            Sincerely,
                                            James M. Kuntz,
                                                Executive Director.
                                 ______
                                 
                                     Port of Vancouver, WA,
                                                  November 7, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    The Port of Vancouver appreciates the opportunity to provide 
comments on the draft minimum dredge fleet (MDF) study released by the 
Corps on October 8, 1997. We welcome the cooperative relationship 
evidenced by providing stakeholders the chance to address strengths and 
weaknesses of a study before the Corps makes its final decisions.
    The draft MDF study, unfortunately, falls short of the analysis 
required to make reasoned judgments about the impact of the eight 
options. We had anticipated a fully documented study that reflected 
thorough analysis of the critical issues. We expected sufficient 
material upon which we could base our analysis and comments. We see in 
slide # 3, for example, a statement repeating the Corps navigation 
mission. The study omitted an analysis of how the proposed changes in 
the MDF affect this critical Corps mission. The Corps navigation 
mission must not be compromised in an effort to meet the ``wants'' of 
the private dredge operators appearing on slide # 9. That slide, 
labeled, ``The Challenge,'' misrepresents the challenge. We believe the 
challenge for the study is to determine whether the key Corps 
navigation mission can include a greater role for a few dredging 
contractors without compromising the mission.
    Our port urges the Corps to reopen the comment period after making 
public for review by all parties the Corps' analysis used to reach your 
conclusions. Without this process, the Corps faces a difficult 
challenge in securing support from your customers--ports and shippers--
for changes in the MDF.
    Only with sufficient information can smart choices be made. We 
should be your partners in this effort, not your adversaries. Although 
the 27 pages of slides make a useful summary for outsiders new to the 
issue, they do not provide sufficient information or detail to be 
acceptable to your port partners.
    In sum, the information is too general and vague to form the basis 
for such an important change in the operation of the Corps MDF. We urge 
that the Corps use this draft as a starting point, but now provide 
stakeholders with a fully documented study with analysis supporting 
these conclusions. We also see in the draft report nothing that 
examines the specific impact on American shippers, whose fees fund O&M 
dredging. Without such material, our port cannot accept any alternative 
to the status quo, for too many questions remain unanswered.
    Our key issue is the level of service provided by the Corps, 
including effectiveness of emergency response and availability of 
adequate capacity. These are critical elements.
    Naturally, a proposal that suggests ways to save on dredging costs 
and increase private sector work has an appeal to our port. With a 
sufficient level of detail, ports that now resist changes due to a lack 
of information might well have their concerns met and their confidence 
raised. For that to occur, however, we need more detail that 
demonstrates how the Corps reached its conclusions and recommendations.
    Our port also will offer comments on a few areas where we see 
shortcomings in your draft study.
    Emergency Response.--As did other Columbia River ports, our port 
suffered after the eruption of Mt. St. Helens, when debris and mud from 
the eruption swept into the Columbia River channel, blocking it to ship 
traffic. Corps dredges were at work promptly clearing the channel. 
Although private dredges also helped in the longer term, restoration of 
Columbia River shipping would have been delayed significantly without 
the Corps dredges. Columbia River ports and our shippers would have 
been damaged even more without the quick emergency response from the 
Corps dredges, or if we had to wait for the regular mobilization 
procedures for private dredges.
    Emergency response is critical for two reasons. First, cargo is at 
risk whenever channel depth is lost. Vessels that must depart ``light 
loaded'' because of shoaling see their per ton costs increase 
significantly. Obviously, this translates directly into dollar losses. 
Second, any port or river system that acquires a reputation for not 
clearing shoals immediately faces a bleak fixture, as shippers and 
vessels may choose other pathways for export cargo. No shipper or 
vessel owner will continue to ship through a river system or port where 
authorized channel depth is not maintained at all times.
    We also saw nothing in the slides implicating that the Corps 
considered and reviewed the needs of American shippers, who pay for 
dredging costs through fees deposited into the Harbor Maintenance Trust 
Fund. Shippers' needs should be part of any final MDF report.
    A comparison also should be made between the total value of 
American goods exported through the Columbia River, the Mississippi 
River and the Delaware River systems and the cost of operating the four 
remaining Corps dredges. We think that the MDF provides minimal cost 
insurance for this country's exporters whose products compete in global 
markers.
    Standby Option.--The conditions are not defined in the draft study 
under which any Corps dredge on standby would be activated under the 
72-hour rule to provide emergency assistance. In the past, there have 
been instances where the private dredge owners protested use of a Corps 
dredge for emergency response, saying their private dredges were 
available. Under any new MDF plan, will the private dredgers be allowed 
an appeal of a decision to activate a Corps dredge?
    Serving the Military.--The Corps also failed to explain under what 
circumstances Corps dredges would be activated from standby to provide 
emergency dredging for the U.S. military. Would the same standards for 
activation apply? Once working for the military, a claim of ``national 
security'' could be made by the military to protect against 
reassignment of a dredge to clear a commercial channel elsewhere. We 
worry that the Corps would be in the middle of a fight if it tried to 
free a Corps dredge from performing a military project to return to 
help clear shoaling on the Columbia system or elsewhere in the U.S.
    Portland District Cooperation re Columbia River Conditions.--
Currently, our port and the Port of Portland meet on a regular basis 
with District O&M staff and the bar and river pilots. We evaluate 
problem areas in the Columbia River channel, so that the Corps dredges 
can be directed to respond immediately to serious shoaling or other 
problems. Without the two Corps dredges available to provide this 
service, these sessions would be useless. A restrictive definition of 
``emergency'' limiting quick responses would nullify the effectiveness 
of any standby option. Strict and rigid terms limiting Corps dredge 
activation might tie the hands of a D.E., even if a Corps dredge on 
standby is available.
    Activation Decision.--Our port believes strongly that a decision to 
activate a Corps dredge should be made by the District Engineer. That 
decision should not be delayed by headquarters review. The 72-hour 
activation period would be less effective if it did not begin until 
after Corps headquarters approved activation. The 72-hour period should 
begin with approval by the D.E., although Corps HQ would retain 
authority to intervene if competing needs for the dredge was an issue.
    We do see a role for Corps HQ, however, in evaluating which 
competing area deserves emergency servicing by dredges if a conflict 
arises. If the Wheeler is retired, and emergency shoaling threatens 
both the Mississippi and the Columbia channels, the Corps may have to 
choose where to provide the emergency capacity of the Essayons, or 
where to assign a large-capacity private dredge. Keeping the Wheeler on 
standby, at a minimum, will minimize this concern.
    Adequate capacity.--From what we understand, all parties, including 
the private dredgers, have agreed that there has been inadequate peak 
capacity to meet dredging needs at certain times of the year. 
Environmental windows limiting dredging at certain times probably will 
grow, thus increasing the potential for problems from a lack of 
capacity. Dredging requirements cannot be managed over an entire year 
to a level of maximum efficiency. When environmental windows combine 
with the unpredictable nature of floods and freshets, they strengthen 
the arguments not to remove any of the current remaining Corps dredges. 
The Corps dredges can provide peak capacity relief, even where 
conditions do not create ``emergency'' conditions.
    Competition.--We see no evidence that the options in the Corps 
draft study will increase competition within the private sector for 
Corps dredging work. Maintaining the existing level of competition is 
too low a standard to use when it is accompanied by such an increased 
level of risk to the ports and our shippers.
    Competition only develops if dredge capacity and type are available 
from both Federal and private resources. In spite of the role of Corps 
dredges, competition today already is limited. In fiscal year 1997, for 
example, the Corps had ten potential contracts where only one private 
bid was received for hopper work--up from only two contracts with 
single private bidders in fiscal year 1992. At the same time, the 
number of hopper dredge bids with three bidders fell from 16 in fiscal 
year 1992 to 4 in fiscal year 1997. When all Corps dredging is 
examined, single bids rose from 13 in fiscal year 1992 to 33 in fiscal 
year 1997. That does not appear to indicate a healthy level of 
competition for Corps contracts from within the private dredge 
industry.
    Even when faced with such limited competition, several Corps 
options call for retiring some of the remaining four Corps dredges. 
Without increasing private sector capacity, this will lead to less 
competition, not more, and to non-availability of critical dredging 
resources. The study also should examine the remaining useful life of 
the private hopper dredges, as the cost of repairs, etc., could result 
in companies removing some hopper dredges from service within a few 
years. This would reduce competition (and capacity) even more, unless 
more private dredges are added.
    Costs.--With less competition among the private dredging companies, 
our port fears that O&M costs will rise. Overall, the Corps faces a 
future with declining O&M funds, from all that we hear. As a result, 
any actions that remove Corps dredges from service threaten to drive up 
the cost of O&M dredging at the very time when the Corps predicts 
declining O&M funding.
    Increased dredging costs can result from several factors. Our port 
looked at the statistics provided to our Senator Murray by ASA/CW 
Martin Lancaster in response to the Senator's questions at an 
appropriations subcommittee hearing. One response provided summaries of 
all hopper dredge contracts from fiscal year 1992 through fiscal year 
1996. ASA Lancaster responded with data showing that, during this 
period, there were 22 contract bid amounts where only one bid was 
received. Of these 22 cases, only one bid was received for less than 
the Corps estimate of the costs. (That bid, for work at the Norfolk 
harbor in the 45 and 50 foot area, was 27 percent below the Corps 
estimate.) The other 21 bids with only one bidder all were more than 
the Corps estimate--ranging as high as 55 percent and 46 percent above 
the Corps estimate. (Most were within 10-30 percent above the Corps 
estimates.)
    Corps Response to Excessive Bids.--Currently, if private bids 
exceed 125 percent of the Corps estimate of the cost, a Corps dredge 
may perform the work. Under Corps options that retire Corps dredges or 
put them on standby, the Corps offers no conditions under which Corps 
dredges would be used. No slides indicated that a Corps dredge on 
standby would do the work if private bids exceeded the 125 percent 
ceiling. The Corps does not address how the Corps would respond if the 
Yaquina is retired and a single bid is received for small coastal port 
work--and the bid exceeds 125 percent. Without the Yaquina. the Corps 
options appear more limited.
    If the Corps adopts an option that retires the Wheeler, the chances 
increase that the Essayons will move the Gulf in certain emergencies. 
As long as that does not create any problems, we support limited use of 
the Esseyons in this way. Without the Wheeler, and with the Essayons in 
the Gulf, if the Corps then puts out a bid for Columbia River work, and 
a single bid is received that exceeds 125 percent of the cost, it 
appears that the Corps is in a box--and the Columbia system might 
suffer.
    Costs and Corps Bid Estimates.--Currently, actual hopper dredging 
experiences of the Corps MDF assist other Corps professionals in 
preparing its bid estimates. We are concerned that, if the Corps 
dredges are not used regularly for project work, the Corps hopper 
dredge estimates may creep upward, as the Corps will lack the ``hands 
on'' recent experience to counter the private industry claim that the 
Corps under-estimates the costs for various jobs. Without the reference 
provided by regular project work by the MDF, we could see bid estimates 
rise, thus eroding any cost savings for the program envisioned by these 
policy changes.
    Improving the Partnership.--We offer two suggestions to improve the 
O&M dredging sector partnership between the Corps and its port and 
maritime partners. First, we see benefits from a one-time workshop that 
would bring together ports and maritime interests, O&M staff from the 
three districts that are home to the Corps dredges, and civilian 
dredging officials from Corps HQ. As a model, under AAPA sponsorship, 
our Columbia River Channel Deepening group met with representatives of 
other navigation projects in various stages of review and construction. 
Corps officials were important players in making this workshop a 
success. We saw benefits to all participants. We believe similar 
benefits could result from an O&M dredging workshop.
    Second, we recommend creating a regular forum for sharing 
information about such issues as dredging needs, possible emergencies, 
dredge deployment plans, Corps and private dredge utilization and the 
like. This forum would assist the Corps, as do your regular meetings 
now held with the private dredging companies that look at common issues 
from their viewpoint. As noted, we already meet at the Portland 
District level, as do Mississippi maritime interests and the New 
Orleans District. These meetings benefit all participants, and we 
believe a national O&M dredging forum would provide similar benefits to 
the Corps and your partners.
    In conclusion, we repeat that we believe that the options presented 
by the Corps represent only conclusions without useful supporting 
analysis. More importantly, the draft study fails to meet our port's 
concerns of emergency response, adequate capacity, costs and 
competition. Our review of the 27 slides shows that many options in the 
Corps draft MDF study actually damage the Corps' ability to meet these 
standards.
    We believe that, if adopted, most options would lead to poorer 
emergency response, reduced peak capacity, higher O&M costs, and less 
competition. As such, we urge the Corps to pause in this process and 
provide more material for review. This report already was postponed for 
two years so more current data could be collected. A further delay will 
enable the stakeholders to provide useful analysis. The Corps also may 
find that good, useful information and analysis from the Corps will 
answer ports' concerns, so all interested stakeholders can move ahead 
as partners dedicated to meeting the navigation mission of the Corps.
    We thank you for the chance to present our views to the Corps.
            Sincerely,
                                              Bernie Bills,
         Director of Management Services for the Port of Vancouver.
                                 ______
                                 
                   Pacific Northwest Waterways Association,
                                   Vancouver, WA, November 8, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    We were disappointed in the ``Draft Minimum Dredge Fleet Study'' 
released on October 8. We have been waiting for years for the Corps' 
study, expecting it to provide data and analysis that could be used to 
determine the requirements for the federal fleet. Our criteria for 
maintaining the federal fleet has been cost, capacity and 
responsiveness. Capacity and responsiveness were not analyzed in the 
study. The future of the dredge fleet is an important decision that 
will affect international trade and the economic well being of our 
region and the nation. It should be made with sound analysis.
  --The study was not a study. It provides neither the data nor the 
        analysis necessary for making a decision. Until we get more 
        information, we have no other alternative but to reject all 
        proposals to put federal dredges on standby or to retire 
        federal dredges.
  --We do not agree with the guiding principle. The guiding principle 
        should be to ensure that the nation's navigation channels are 
        maintained to authorized depths at all times.
    We do not agree with the risk criteria. The definition of risk 
criteria drives the conclusions of the study. Essentially, the study 
defines low navigation risk as having dredges on standby. With that 
definition, the logical conclusion is that having dredges on standby 
provides low risk. That is not analysis. We believe low navigation risk 
should be defined as the assurance that all channels are properly 
maintained to authorized depths at all times. The study provides no 
analysis that demonstrates that this criterion is met for any of the 
options.
  --The study provides no analysis of the viability of the standby 
        concept. The study simply defined standby status. It did not 
        analyze whether the dredges can actually be maintained to that 
        standard over the long run. It did not address whether Congress 
        is likely to fund the additional costs over the long term. It 
        did not discuss whether contracting procedures allow dredges to 
        be called out of standby in 72 hours if a private contractor 
        does not perform.
  --The study offers six options that would retire the YAQUINA, but it 
        provides no analysis of private industry's ability to meet the 
        dredging requirements the YAQUINA currently fills. It doesn't 
        analyze whether there will be sufficient West Coast competition 
        in the private sector to keep costs down. It doesn't describe 
        how dredging will occur without the YAQUINA if private bids are 
        not competitive. The same comments apply to options in which 
        the WHEELER or the McFARLAND are retired or placed on standby.
    We encourage the Corps to conduct the kind of analysis that will 
appropriately answer the key questions about cost, capacity and 
responsiveness. We expect that all options other than the status quo 
will require Congressional approval. We have requested additional 
information to help us evaluate current and future Minimum Dredge Fleet 
proposals. Until we see an acceptable analysis that addresses these and 
other concerns, we will be recommending that our Congressional 
delegation reject any proposed changes to the operating status of the 
Corps dredges.
            Sincerely,
                                            Glenn Vanselow,
                                                Executive Director.
                                 ______
                                 
                               Coos Bay Pilots Association,
                                    Coos Bay, OR, November 6, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    Dear Corps of Engineers: I am writing on behalf of the Coos Bay/
Yaquina Bay Pilots to express our concern about the possible retirement 
of the dredge YAQUINA. The YAQUINA has been a critical asset to the 
ports at Coos Bay, Oregon and at Yaquina Bay in Newport, Oregon. The 
navigation channels at both locations are subject to frequent shoaling 
and the YAQUINA has been very responsive to the need for prompt 
maintenance when shoaling appears.
    As state-licensed pilots for both locations, we are responsible for 
the safety of deep-draft vessels entering and leaving Coos Bay and 
Yaquina Bay. In many cases we move vessels with very little underkeel 
clearance. Shoaling that is not removed immediately will result in 
either a grounding or a constraint on navigation with serious, adverse 
economic consequences to vessels, shippers and ports.
    We object to consideration of any option for future operations that 
does not include continuing availability of the YAQUINA as part of the 
federal hopper dredge fleet.
            Very truly yours,
                                       Captain Steve Sweet,
                                                         President.
                                 ______
                                 
                                      Oregon International,
                            Port of Coos Bay, OR, November 3, 1997.
U.S. Army Corps of Engineers,
Minimum Dredge Fleet Study,
CECW-OD,
Washington, DC.
    Thank you for the opportunity to comment on the draft ``Minimum 
Dredge Fleet Study.'' The Oregon International Port of Coos Bay 
supports your efforts to provide for the nation's dredging needs in the 
most cost-effective manner possible, but we cannot agree with the 
analysis in the Corps' recent study.
    Six of the eight options call for retiring at least one of the 
federal dredges based in the Northwest, yet there is no analysis that 
demonstrates that we will continue to have our dredging needs met in a 
timely, cost-effective manner under those options.
    Maintenance of the navigation channels in Coos Bay is extremely 
important to the economic health of our community. Attached to this 
letter is a copy of the Port of Coos Bay 1996 Annual Waterborne Report, 
which depicts the number of vessels that call this harbor. 
Additionally, the Port's Charleston Marina Complex, with its 520-plus 
vessel slips, is home to one of the largest commercial fishing fleets 
on the South Coast, as well as being heavily used by recreational 
vessels.
    We are writing to express our strong support for the Corps of 
Engineers' maintenance dredging program, and to urge you to maintain 
the minimum dredge fleet. We must reject all options which decrease the 
active role of the federal hopper dredge fleet.
            Sincerely,
                                         Allan E. Rumbaugh,
                                                   General Manager.
                                 ______
                                 

                                 PORT OF COOS BAY 1996 ANNUAL WATERBORNE REPORT
----------------------------------------------------------------------------------------------------------------
                                                                    Board feet      Short tons        Values
----------------------------------------------------------------------------------------------------------------
Outbound:
    Lumber:
        Australia...............................................      64,484,919         112,849     $52,394,000
        Domestic................................................      18,929,830          33,127       8,992,000
        Japan...................................................      90,453,929         158,294      62,187,000
        Mediterranean...........................................       8,471,000          14,824      16,942,000
        N. Africa...............................................  ..............  ..............  ..............
        S. Seas.................................................      14,717,039          25,755       8,094,000
        Other...................................................  ..............  ..............  ..............
                                                                 -----------------------------------------------
          Total.................................................     197,056,717         344,849     148,609,000
                                                                 ===============================================
    Logs:
        Japan...................................................      77,116,622         385,583      67,863,000
        Korea...................................................  ..............  ..............  ..............
        Other...................................................  ..............  ..............  ..............
                                                                 -----------------------------------------------
          Total.................................................      77,116,622         385,583      67,863,000
                                                                 ===============================================
    Plywood:
        Australia...............................................  ..............             385  ..............
        Domestic................................................  ..............           7,985  ..............
        Japan...................................................  ..............              57  ..............
        Mediterranean...........................................  ..............              50  ..............
        N. Africa...............................................  ..............  ..............  ..............
        S. Seas.................................................  ..............           2,106  ..............
        Other...................................................  ..............  ..............  ..............
                                                                 -----------------------------------------------
          Total.................................................  ..............          10,583       2,117,000
                                                                 ===============================================
    Linerboard:
        Australia...............................................  ..............           1,250  ..............
        Domestic................................................  ..............  ..............  ..............
        Japan...................................................  ..............          19,257  ..............
        Mediterranean...........................................  ..............  ..............  ..............
        China...................................................  ..............           7,457  ..............
        N. Europe...............................................  ..............  ..............  ..............
        S. Seas.................................................  ..............           9,208  ..............
        S. America..............................................  ..............  ..............  ..............
        Other...................................................  ..............  ..............  ..............
                                                                 -----------------------------------------------
          Total.................................................  ..............          37,172      18,586,000
                                                                 ===============================================
    Woodchips:
        Japan...................................................  ..............       2,063,098     134,555,000
            (Hardwood)..........................................  ..............         274,441      18,160,000
        Korea...................................................  ..............  ..............  ..............
        Other...................................................  ..............  ..............  ..............
                                                                 -----------------------------------------------
          Total.................................................  ..............       2,337,539     152,715,000
                                                                 ===============================================
    Miscellaneous
        Copper Ore..............................................  ..............  ..............  ..............
        Pulp....................................................  ..............           5,549       2,775,000
                                                                 -----------------------------------------------
          Total.................................................  ..............           5,549      52,775,000
                                                                 -----------------------------------------------
          Total Outbound........................................  ..............       3,121,275     392,665,000
                                                                 ===============================================
Inbound:
    Lumber......................................................       8,267,411          14,468
                                                                 -----------------------------------------------
      Total.....................................................       8,267,411          14,468       6,201,000
                                                                 ===============================================
    Logs........................................................      28,998,024         144,990  ..............
                                                                 -----------------------------------------------
      Total.....................................................      28,998,024         144,990      11,352,000
                                                                 ===============================================
    Miscellaneous...............................................  ..............  ..............  ..............
    Petroleum...................................................  \1\ 36,035,936         118,919  ..............
                                                                 -----------------------------------------------
      Total.....................................................      36,035,936         118,919      23,991,000
                                                                 ===============================================
    Nickel Ore..................................................  ..............         941,332
                                                                 -----------------------------------------------
      Total.....................................................  ..............         941,332      35,086,000
                                                                 ===============================================
      Total Inbound.............................................  ..............       1,219,708      76,630,000
                                                                 ===============================================
      Total Tonnage.............................................  ..............       4,340,984     469,295,000
----------------------------------------------------------------------------------------------------------------
\1\ Gallons.

Deep-draft calls..................................................   236
Barges (loaded)...................................................   139
Barges (light)....................................................   113
                                 ______
                                 
                                      Columbia River Pilots
                                    Portland, OR, November 6, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    Dear Corps of Engineers: I am writing to express the concerns of 
the Columbia River Pilots regarding the possible reduction in size of 
the federal hopper dredge fleet. In particular, we are disturbed that 
six of the eight options addressed in your recent study would retire 
the dredge YAQUINA. The YAQUINA is essential to maintaining the 
navigability of the Columbia River, one of our nation's key navigable 
waterways.
    Enclosed, to remind you of the level of commerce on the Columbia 
River, is a copy of the Great Waterway, an annual publication with 
shipping and cargo statistics and port information. Billions of dollars 
worth of cargo is transported on deep draft vessels each year on the 
Columbia River. The lower hundred miles of the River is wide and 
relatively slow flowing, and it is joined by many side streams and 
smaller rivers. The tremendous sediment loads, fluctuating river levels 
and currents, and influences of side streams and rivers cause the 
Columbia River to be constantly subject to rapid shoaling and 
development of sand waves and ridges. Because we frequently move 
vessels at drafts that are at the limits of the project depth of 40 
feet, the appearance of shoaling at any location creates a hazard to 
navigation that must be dealt with immediately.
    Our experience with the YAQUINA has been excellent. The YAQUINA was 
at work in the Columbia River 27 days in 1996 and 47 days so far in 
1997. It has responded quickly and effectively to emerging problems and 
with it and the current federal fleet we are confident that any problem 
that arises will soon be dealt with. We have no such confidence in what 
amounts essentially to a privatization scheme for a basic governmental 
function.
    Your recent study does nothing to demonstrate that the public 
interest would be protected under any of the options that retire 
federal dredges or place federal dredges on standby. We are operating 
vessels on thinner safety margins than most people realize, and cannot 
sanction the further erosion of those margins by turning maintenance 
dredging operations over to private, unproven contractors of 
questionable reliability.
            Very truly yours,
                                       Captain Steve Brown,
                                                         President.
                                 ______
                                 
                                                  November 8, 1997.
MG Russell Fuhrman,
 Director of Civil Works, U.S. Army Corps of Engineers,
Washington, DC.
    Dear General Fuhrman: The Dredging Contractors of America (DCA) 
welcomes the opportunity to comment on the Corps of Engineers' (Corps) 
``options paper'' for the future use of the four federal hopper 
dredges. While we remain committed to the successful implementation of 
Section 227 of WRDA 96 and seek no changes until the two-year trial 
period has run its course, we appreciate the Corps' effort under your 
leadership to spawn a dialogue between and among the interested 
parties. We are always open to new ideas and approaches to this public 
policy issue of great concern to our industry. We are also willing to 
discuss potentially non-controversial technical corrections to last 
year's legislation. While the industry appreciates the work that went 
into this report, ``option two,'' the status quo remains our preferred 
course of action through the congressionally mandated reporting period.
    For several years, DCA has pursued a ``use industry first'' policy 
for the overall management of the public/private hopper dredge fleet. 
If such a policy were applied universally, government dredges would 
serve as a ``navigation insurance policy'' and industry's investment 
potential would be enhanced while risk to the dredging industry and the 
ports reduced. Last year's congressional action and first step in this 
direction has already led to a commitment to build the first private 
hopper dredge in over a decade and the first large class hopper dredge 
since 1984. If the federal dredges are managed in a readiness status, 
``using industry first'' will produce the maximum number of hopper 
dredges to maintain the nation's entrance channels.
    Based on several of the options in the ``options paper,'' DCA is 
pleased that the Corps apparently is supportive of a ``use industry 
first'' concept. The Corps' commitment to maintaining active reserve 
dredges and personnel should help provide confidence to those concerned 
with a long term funding commitment. DCA is also committed to working 
with both the ports and the Corps to make sure Congress and the Office 
of Management and Budget understand the importance of maintaining 
needed federal reserve capacity. Finally, permanent changes to the 
government fleet should be considered after adjusting to the new 
system. With enough time ``using industry first,'' it should become 
crystal clear to all which federal dredges must be kept at a high 
readiness status.
    With these thoughts in mind, Corps options seven and eight would 
eventually yield the best results. However, as stated above, DCA does 
not support the retirement of any dredge before the ``use industry 
first'' operating policy has been successfully implemented in the 
context of WRDA 96. Since all vessels have a finite economically useful 
life, ``using industry first'' will extend the life of every federal 
dredge, clearly a benefit to proponents of ``maximum capacity'' and to 
lowering the risk to navigation. It should also provide the Corps good 
data upon which to make future decisions.
    The first option to increase the operations of the Corps dredges 
would unduly harm industry and increase government cost over the long 
term. DCA strongly disagrees that the risk to navigation would be low 
under this scenario. Rather, the risk to navigation increases under 
option one as industry would likely disinfest in the hopper dredge 
segment. The lowest risk to navigation is the scenario diet stimulates 
the most investment.
    DCA looks forward to working with all concerned to develop and 
refine a policy that's good for America's ports, taxpayers as well as 
the dredging industry.
            Sincerely,
                                                   Mark D. Sickles.
                                 ______
                                 
                             Congress of the United States,
                                  Washington, DC, November 7, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    Dear Mr. Holliday: We are writing to you regarding the Corps' 
Minimum Dredge Fleet Study. Dredging is an important part of the 
navigation infrastructure in the Northwest. Our region and the nation 
are heavily dependent upon a safe, reliable navigation system for 
domestic and international trade and commercial and recreational 
fishing. The Corps' hopper dredges support these activities by 
contributing to responsive, cost effective dredging with capacity to 
provide competition and to respond to peak dredging needs.
    When we wrote to Acting Assistant Secretary John Zirschky on this 
issue in August, we asked that the study include certain analysis to 
allow Congress to evaluate Corps recommendations regarding the future 
of the fleet. We asked that the analysis include an examination of 
responsiveness to routine and emergency dredging requirements, industry 
competitiveness, a comparison of dredging costs and industry capacity. 
The presentation of the eight options in the study did not include such 
an analysis.
    Upon review of the study, we have several additional questions. 
First, is the Corps' primary objective to keep navigation channels 
maintained at authorized depths at all times? It appears that the Corps 
considers other issues to be of greater importance. Second, has the 
Corps completed a detailed analysis of the range of possible impacts of 
the eight study options on navigation in the Northwest and the rest of 
the nation? Third, exactly how does placing dredges on standby status 
provide low risk to navigation? Fourth, has the Corps developed 
specific predictions for the cost of maintaining dredges in standby? 
Similarly, has the Corps developed contractual and procedural 
frameworks and vessel operations frameworks for dredges in standby? Do 
these predictions and frameworks support the low risk conclusion? 
Fifth, does the Corps believe that Congress and future administrations 
will support maintaining dredges in standby?
    We encourage the Corps to conduct the kind of analysis that will 
appropriately answer the key questions about cost, capacity and 
responsiveness. We must reject all proposals to put federal dredges on 
standby or to retire federal dredges until we review the Corps analysis 
of these issues and our related questions. We expect that all options 
other than the status quo will require Congressional approval. Until we 
see an acceptable analysis that addresses the above issues and 
questions, we will oppose reductions in the current operating status of 
the Minimum Dredge Fleet.
            Sincerely,
                                   Gordon Smith,
                                   Ron Wyden,
                                   Slade Gorton,
                                   Patty Murray,
                                   Larry Craig,
                                   Kirk Kempthorne,
                                                       U.S. Senate.
                                   Peter DeFazio,
                                   Darlene Hooley,
                                   Elizabeth Furse,
                                   Earl Blumenauer,
                                   Michael Crapo,
                                   Helen Chenoweth,
                                   George Nethercutt,
                                   Norm Dicks,
                                   Jack Metcalf,
                                   Jim McDermott,
                                   Adam Smith,
                                   Doc Hastings,
                                   Linda Smith,
                                   Bob Smith,
                                   Jennifer Dunn,
                                               Members of Congress.
                                 ______
                                 
                                State of Louisiana,
              Department of Transportation and Development,
                                                  November 7, 1997.
U.S. Army Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    Dear Sir: This is in response to your request for comments on the 
Minimum Dredge Fleet Study.
    The Louisiana Department of Transportation and Development has the 
responsibility to administer the planning and coordination of 
navigation activities in the State of Louisiana. The Department also 
administers a statewide program for the construction and development of 
port infrastructure. We are, therefore, very interested in the 
conclusions of your study.
    We are concerned about private industry's reliability to respond to 
dredging needs on the lower Mississippi River. With 60 percent of the 
hopper dredge requirement being attributed to the Gulf region, it seems 
prudent that hopper dredge capability be given a high priority.
    To that end we support Option 1, maximum work to Corps of 
Engineers' dredges. It was noted in your ``Guiding Principle'' that the 
best deal for the American taxpayer would be ensured. Option 1 is the 
lowest cost of the eight options.
    Option 1 has a low risk to navigation. We, in Louisiana, cannot 
afford to risk our maritime industry. Four of our ports are ranked in 
the top seven ports nationwide in tonnage handled. The 1995 Waterborne 
commerce statistics reveal that approximately 438,000,000 tons were 
shipped through the Port of South Louisiana, the Greater Baton Rouge 
Port, the Port of New Orleans, and the Plaquemines Parish Port, Harbor, 
and Terminal District. The St. Bernard Port, Harbor, and Terminal 
District is currently implementing a construction program to enable 
Louisiana shippers to use this port's services as well. Keeping the 
lower Mississippi River dredged is also a key in the effectiveness of 
the Red River ports (Caddo-Bossier, Natchitoches Parish, Alexandria 
Regional, and Red River Parish) as the Red River Waterway navigation 
project is complete.
    A recent study indicates the total impact of Louisiana ports is 
$21.9 billion. The ports and related activities generate directly $4.8 
billion in income for Louisiana residents and support, in part or 
whole, 178,600 jobs throughout the State.
    Louisiana's maritime industry is of vital importance to the state 
and the nation. We simply have too much at stake to afford any risk.
    Thank you for the opportunity to comment.
            Sincerely,
                                           Frank M. Denton,
                                                         Secretary.
                                 ______
                                 
                                    Port of Hood River, Or,
                                                 November 10, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    The Port of Hood River welcomes the opportunity to comment on the 
October 8, 1997 draft study of the Corps Minimum Dredge Fleet (MDF). 
All stakeholders appreciate the interest of the Corps in considering 
our views about this important issue when the study still is in draft 
form.
    The Port of Hood River is a part of the Columbia-Snake River 
system, a vital gateway for many different American exports. 
Personally, as a former Manager of the Port Division of the Oregon 
Economic Development Department, I have been involved with issues 
surrounding the future of the Corps MDF for over a decade.
    After the buildup to the issuance of this report, and the two-year 
delay for compilation of additional data, we were disappointed that 
short set of ``viewgraphs'' represents a significant portion of the 
entire study. A slide show can be effective in demonstrating highlights 
to an audience of people new to this issue, but ports whose future is 
tied to dredging need a more complete explanation. Specifically, no 
analysis was given to us to show how the Corps reached its conclusions. 
Because of this, we encourage the Corps to extend the comment period 
until sufficient background analysis can be provided to stakeholders 
for review.
    When the Corps states that they have a plan to lower costs and 
increase the private sector role, all ports and all taxpayers pay 
attention. However, at this point the study does not document how these 
benefits will flow to shippers, ports and taxpayers, or how port 
concerns will be addressed.
    The four Corps dredges are all that remain from what once was a 
much larger Corps fleet. The private fleet already performs all the new 
construction dredging. In total, the Corps dredges only performed 8.3 
percent of all dredging work in fiscal year 1996. In fiscal year 1994, 
the total of all dredging work done by Corps dredges was only 6 
percent. Yet these dredges perform a vital service to the ports and 
shippers of this country.
    Cost and competition, emergency responsiveness and adequate 
capacity form the core of our concerns for dredging in our region. The 
draft report needs to provide measurements for these issues. Factors to 
be addressed include:
    1. Cost and competition.--Real competition for Corps contracts 
offered to the private contractors is limited. Single bidders sometimes 
are awarded jobs. The Corps dredges currently serve as a brake against 
excessive bids. If a private company bids over 125 percent of the Corps 
estimate, the Corps dredge can perform the work. No plausible 
explanation in the draft report shows how our region can be protected 
if an option is implemented that retires additional Corps dredges.
    2. Emergency Response.--The current Corps dredge fleet provides 
emergency response capacity to all three coasts. If shoaling limits the 
channel depth, vessels must depart ``light loaded.'' Corps dredges that 
are active in each region can respond quickly to prevent economic 
impact to shipping. We are told that the Corps is considering new 
contracting procedures that will help speed private dredges to service 
such emergencies. Ports want to see details before accepting the 
concept. What administrative or court challenges by the private dredge 
companies will be permitted? Will the private dredgers push for such 
high fees to respond that the Corps will be reluctant to utilize them 
under a declared emergency--thus creating a damaging adverse economic 
impact for a port or river whose exports are limited by channel 
shoaling?
    3. Adequate Capacity.--All parties admit that there is inadequate 
dredging capacity at times of peak demands. Although this issue 
traditionally has been thought of as a Mississippi River concern, it 
impacts the Columbia system. If the Corps dredge Wheeler is retired, 
chances rise that the Essayons will be transferred to the Mississippi 
to help after a flood. If the Essayons is in the Gulf and shoaling 
occurs in the Columbia, how will our needs be met? The rate of repair 
for private and Corps dredges is an important consideration in this 
decision process. Any port or river system that acquires a reputation 
for a slow response to shoaling that causes light loading faces a 
serious risk of a loss of business. For example, if the Essayons is in 
the Gulf, and shoaling in the Columbia threatens grain shipments from 
Eastern Oregon and Washington, disgruntled shippers could decide to 
export some future cargoes through Canadian ports.
    Due to the lack of detailed analysis, our port wishes to wait for 
adequate material before commenting further. We cannot accept any 
change in the status quo of the existing Corps dredge fleet until we 
have sufficient data so we can make informed judgments.
    In closing, we also urge the Corps to have a port stakeholder 
forum. Senior Corps officials now meet regularly with the private 
dredge industry to discuss dredging schedules, compare notes, etc. That 
is fine. We would welcome creation of a regular forum with ports and 
shippers and senior Corps officials, so the Corps would hear our 
concerns on a regular basis. Ports have enjoyed an open door policy at 
Corps headquarters, so this is not a criticism of past policies. A 
regular meeting with ports and shippers should include regular 
information from the Corps on competition, bid costs and trends, 
predictions of dredging needs (snowpack, El Nino, etc.) and so forth. 
If one of the Corps options is not working, ports must not be forced to 
rely on ad hoc communications for resolution.
    Thank you for your consideration of our port's view on this 
subject.
            Sincerely,
                                             Greg E. Baker,
                                                Executive Director.
                                 ______
                                 
                               Siuslaw School District 97J,
                                   Florence, OR, November 20, 1997.
Corps of Engineers Minimum Fleet Comments.
CEW-OD,
Washington, DC.
    By unanimous consent, the Siuslaw School District Board of 
Directors directed me to express their concerns about the proposal to 
decrease the federal dredge fleet and its impact on the Port of 
Siuslaw.
    As directors of a public agency, the Board strongly supports 
government efficiency and efforts to reduce costs. When considering 
reductions, however, long term consequences should be balanced with 
short term benefits before making a decision. In this case, the Port's 
viability and its impact on the community must be weighed against the 
savings made from reducing the dredging fleet. In the Board's opinion, 
the scale tips in favor of keeping the fleet and continuing the 
dredging.
    Board members, all of whom are long-time residents of the area, 
believe that the proposed reduction will affect the community's 
economic health and quality of life. The Board believes that 
maintaining the dredges is critical to keeping the Port's harbor and 
navigation channel open for commercial and recreational activities. By 
staying open, the Port remains dynamic and a vital contributor to the 
area's economy and environment. It also gives the community an avenue 
for strengthening its commercial, recreational, and environmental 
assets. Based on their history in the area, board members conclude that 
two things will happen if dredging is reduced or eliminated. First, 
commercial and recreational opportunities will decrease creating an 
economic downturn that will disturb the community's stability. Second, 
the Siuslaw River Basin and its ecosystems will be harmed or damaged by 
unforeseen or unanticipated consequences.
    Subsequently, the Siuslaw School Board recommends that you keep the 
dredging fleet active and maintain the regular maintenance of the 
Port's harbor and navigation channel.
    Thank you for your consideration.
            Sincerely,
                                             Steve Waddell,
                                                    Superintendent.
                                 ______
                                 
                            West Gulf Maritime Association,
                                    Houston, TX, November 26, 1997.
Mr. Barry Holliday, Chief,
Dredging & Navigation Branch,
U.S. Corps of Engineers, Washington, DC.
    Dear Mr. Holliday: We have received a copy of your communication to 
George Duffy dated November 18, 1997 which was in response to his 
request for certain additional information. Similar requests have been 
made by several of the concerned parties participating in the dredge 
fleet discussions as we felt they were needed and essential in order to 
make informed comments on the presentation that was given to us.
    As has been pointed out to you some of the specifically requested 
information would hopefully enable us to evaluate the facts as you 
presented them.
    It is hard to believe that the Army Corps of Engineers does not 
have specs on the hopper dredges capabilities so that you can evaluate 
the capacity any one dredge or a combination of dredges produces. We 
know loss of project dimensions occurred the last year or two in the 
Gulf due to insufficient equipment being available to do the work when 
needed. The only option that the maritime industry can accept from the 
analysis distributed by Major General Fuhrman on 8 October 1997 is 
Option one (1) which would keep the four Corps hopper dredges available 
and in active status at least 250 days a year.
    The specific details we were seeking have been clearly outlined to 
you from many different sources and for you to state that this 
information is not available and/or not utilized by the Army Corps of 
Engineers is almost unbelievable.
    We understand Major General Fuhrman has forwarded a copy of the 
Army Audit Agency report we discussed to Mr. Duffy, and we are looking 
forward to receiving a copy from him and to review the contents.
            Very truly yours,
                                            Ted Thorjussen,
                                                         President.
                                 ______
                                 
                                    Port of St. Helens, OR,
                                                  November 5, 1997.
Corps of Engineers Minimum Fleet Comments,
CECW-OD,
Washington, DC.
    The Port of St. Helens appreciates the opportunity to comment on 
the proposed changes in the Corps Minimum Dredge Fleet (MDF) as set out 
in the draft study of October 8, 1997. As a beneficiary of dredging 
sentences provided primarily by the Corps dredge Essayons and also the 
Yaquina we know first-hand the importance of the dredging services 
performed by these two dredges.
    In summary, our port believes that the status quo should continue, 
even though current restrictions imposed by Congress limiting use of 
the Corps dredges drive up the costs of Corps dredges by allocating 
expenses to a limited number of days. As to the other options, our Port 
is unable to evaluate the impact of various options in the Corps' 
``viewgraphs'' of October 8. We find in it little analyses or 
supporting data from which our port can make reasonable judgements 
about whether or not the various eight options meet the standards 
critical to us: costs and competition, emergency response and adequate 
capacity.
    When the issue of the MDF has been discussed in the past, these 
three elements served as our guidelines. When we examine the Corps 
options set out in the 27-page viewgraphs, we find little analyses 
showing how these standards will be met by most of the eight options.
    Specifically, we do not know enough to evaluate how the ``hot 
standby'' options involving the Essayons will impact vital Columbia 
River dredging. Without such data, we question the basis by which the 
Corps reached its conclusions. We cannot accept conclusions without the 
analysis documenting how the Corps' conclusions will not compromise the 
standards set out above that are critical to us. As a result, we cannot 
agree now to any option that alters the status quo.
    If sufficient back-up material is available to allow our port to 
evaluate how options involving ``hot standby'' can be implemented 
without compromising these important factors, we certainly will examine 
it. We know that the Corps believes that benefits to it will flow from 
adopting a less-costly alternative than the status quo. Ports also 
benefit from less costly dredging. Ports need convincing that, in fact, 
costs will decrease. Our port will look seriously at the impact from 
all the options when we have supporting materials and analyses to help 
us. Today, however, the options in the Corps draft study involving 
standby status, from what we have seen and when measured by our 
standards, do not meet the test.
    We support efforts of the Corps to evaluate its approach to its 
various programs. Looking for ways to save money while expanding the 
role of the private sector has obvious appeal. Yet, the current Corps 
hopper dredge program appears to work well: the private dredges already 
do about two-thirds of the hopper dredge O&M work. Private dredges also 
perform all new constructions dredging. Corps dredges play a limited, 
but critical role in hopper dredge O&M. Overall, Corps dredges 
performed only 8.3 percent of all dredging of Corps projects in fiscal 
year 1995. In the years fiscal year 1992 through fiscal year 1996, 
Corps dredges amounts ranged from a high of 9.1 percent in fiscal year 
to a low of 6.0 percent in fiscal year 1994.
    As one example of the shortcomings we see in the Corps draft study, 
use of graphs to illustrate risk presumes that statistical analysis was 
done to develop a numerical basis for the conclusion of low, medium or 
high risk to navigation projects illustrated on each ``options'' page 
in the study. Each graph was blacked in, as if it had a numerical 
basis. Perhaps the Corps had a numerical basis that prompted its use of 
graphs for ease of illustration. Without that numerical quantitative 
data, however, we believe use of graphs on the ``options'' pages of the 
study is misleading. They imply that quantitative ``number crunching'' 
produced the level of risk shown on the bar graphs. Without such data, 
the graphs should be dropped on each options page of the viewgraphs.
    The Corps' 27-page set of slides had other shortcomings that, in 
some cases, presented conclusions as if they were analyses, or 
introduced new elements as conclusions without first explaining how 
they were developed.
    More than many other ports, the Port of St. Helens can cite the Mt. 
St. Helens eruption as a vivid example of the importance of the Corps 
dredges. The vital Columbia River channel was closed to all large 
vessel traffic by enormous mud deposits carried into the channel from 
the eruption. This blockage occurred not far from our port, and we 
witnessed the impact first-hand. Several vessels were trapped upriver 
and could not exit the river with their cargoes. Other vessels could 
not pass the blockage to reach ports upriver on the Columbia-Snake 
system. Corps dredges were at work to clear the Columbia River channel 
shortly after the eruption, and these dredges led efforts to reopen the 
blocked channel. (We note that private dredges also played an important 
role in reaping the channel, but Corps dredges were the critical 
element.)
    One purpose of Corps dredges is as an insurance policy, and prompts 
the question of how often a disaster event must occur to merit 
retention of that ``insurance.'' Recent Mississippi River floods also 
remind the nation of the importance of this emergency role played by 
Corps dredges. At such times, there is insufficient peak capacity. 
Retiring any Corps dredges will worsen this lack of peak capacity.
    Mississippi River shippers can cite the dollar loss if vessels must 
be light-loaded to clear shoals that occur and are not removed. The 
availability of the Wheeler meant that a Corps dredge could respond to 
sudden shoaling and could limit the risk to river commerce. On the 
Columbia River system, Corps dredges have responded when emergency 
shoaling threatened the draft or creating a navigation hazard.
    If the Wheeler is removed from service, and a Mississippi River 
flooding recurs, as can be expected, the Essayons may well be moved to 
the Gulf to help with emergency channel maintenance. As long as it was 
for reasonable time and did not present problems for regular Columbia 
River O&M, we would have no objection. When the Essayons was in the 
Gulf however, and if shoaling the Columbia reduced our allowable draft 
and curtailed full vessel loading at Columbia River ports, then our 
region would suffer greatly. Any shipper or vessel owner is upset when 
suddenly forced to ``light load'' to clear a channel shoal, and this 
will hurt a port's ability to keep current clients and attract new 
customers. As a result, our region has a direct interest in the issue 
of capacity. The Corps recalls examples in the past when the existing 
fleet--Corps and private--was inadequate to meet the needs of this 
country's ports and harbors at certain times. International trade can 
suffer as a result, and the cost of the four Corps dredges is small 
when measured against an adverse impact on U.S. exports.
    In addition, the Corps asks smaller ports along the Oregon coast to 
accept on trust that their needs can be met by the greatest change: 
retiring the Yaquina. Without the Yaquina as a back-up if a private 
dredge company bids over 125 percent of the Corps estimate, coastal 
ports may well see their dredging costs rise. If the Yaquina is 
retired, we saw in the study no explanation of how the Corps will 
respond to issues of no competition or excessive bids.
    Currently, Corps dredges act as a brake on excessive bids. If 
private bids exceed 125 percent of the Corps estimate, a Corps dredge 
can perform the work. We believe that the existence of this alternative 
results in low bids from private dredges. Without it, and with true 
competition, private dredge bids for coastal O&M work may well climb. 
Without the Corps dredges to perform the work, such as the Yaquina 
performs along the Oregon coast, Corps options appear to be limited if 
it finds no private dredge company competition or if a bid is too high 
If the Yaquina is removed from service, how does the Corps respond when 
an Oregon coastal port O&M bid is well above the 125 percent ceiling? 
In the end, we fear coastal dredging costs will rise if the Yaquina is 
retired.
    We also believe that the Corps fleet also helps as guideposts to 
assist the Corps in preparing O&M bids estimates. Without the Corps 
dredges, these estimates may drift upward. If the private fleet 
challenges Corps job estimates as being consistently too low, without a 
Corps dredge by which to help measure such costs, Corps estimators may 
accept the private dredge fleet complaints, for the Corps could be 
unable to check them in the same way they can today.
    In order to increase the operating efficiencies of its four 
dredges, we encourage the Corps to implement cost-savings on all its 
dredges. We understand that some changes have been made already to 
increase such efficiencies, and we encourage more such actions.
    In conclusion, we welcome the openness represented by the 
opportunity to comment on a draft report. Because of serious 
shortcomings in the study itself, however, we cannot support any of the 
eight options except continuing the status quo. Given the length of the 
study by the Corps, our port hoped for a more complete analysis by the 
Corps by which ports could evaluate all eight options.
    We thank the Corps for the opportunity to present our views.
            Sincerely,
                                        Peter K Williamson,
                                                   General Manager.
                                 ______
                                 
                                    Port of Pascagoula, MS,
                                                   January 6, 1998.
Maj. Gen. Russell L. Fuhrman,
U.S. Army, Director of Civil Works,
CECW-OD, Washington, DC.
    Maj. Gen. Fuhrman: Thank you for the opportunity to comment on the 
Army Corps' ``Minimum Dredge Fleet Study.'' We realize that the 
deadline for official comment has expired; however, we felt strongly 
enough about this issue to provide you with our comments. Although the 
Port supports the Army Corps' guiding principles of ensuring the ``best 
deal'' possible to the American taxpayer, we were disappointed that the 
guiding principles did not emphasize one of the Corps most important 
roles; maintaining navigation channels to authorized project dimensions 
at all times. We cannot overestimate the importance of a fully 
maintained federal channel to the economic health of our community.
    The Army Corps should be commended for taking initiative and 
seeking ways to ensure a viable, competitive private hopper dredge 
industry, while sustaining the capability to respond to national and 
international emergencies. Although hopper dredges are responsible for 
only 20 percent of the national dredging requirement, our region's 
hopper dredge requirement makes up approximately 60 percent of this 
national requirement. Our dredging requirements for the Port of 
Pascagoula are usually completed by dredges other than hoppers (i.e., 
bucket, pipeline). However, we have recently used or considered using 
hoppers for certain sections of our channel. An example of this was 
during Phase I of our Harbor Improvement Project where a hopper dredge 
was used to widen and deepen the entrance channel.
    The Port's concern is that the Minimum Dredge Fleet Study did not 
analyze the effects of a reduced hopper dredge fleet on other types of 
dredge fleets (i.e., bucket, pipeline). Specifically, we are concerned 
that the hopper dredge fleet could be depleted to a point where other 
type dredges (i.e., bucket, pipeline) have to be used in areas 
traditionally dredged by a hopper. This would be a less than desirable 
situation, as our experience with bucket and pipeline type dredges has 
shown that they are already operating at or near capacity. For example, 
our last maintenance dredging contract had to be rebid since no bids 
were received in the first advertisement. We received two bids the 
second time, however, only one bid was within the Corps' budget 
allotment. In an environment where only one or two bids are received, 
the ability to receive a full range of competitive bids is reduced and 
industry could, therefore, dictate dredging costs.
    As the Corps of Engineers develops its plan for a Minimum Dredge 
Fleet, their assessment should consider the implications of a depleted 
hopper fleet on other types of dredging and their fleets. The Corps' 
Study did not provide this type analysis, and a final assessment should 
demonstrate that dredging requirements would continue to be completed 
in a cost-effective, timely manner. A competitive private fleet in 
addition to a sufficient Corps' fleet, which considers impacts on all 
dredging fleets, would ensure the best deal for the American taxpayer.
    Again, thank you for the opportunity to comment on the Corps' 
Minimum Dredge Fleet Study. If you have any questions or comments, feel 
free to contact me.
            Sincerely,
                                         Melody K. Bradley,
                                                     Port Director.
                                 ______
                                 
                             Pacific Rim Trade Association,
                                   Portland, OR, December 18, 1997.
U.S. Army Corps of Engineers Minimum Dredge Fleet Study,
CECW-OD,
Washington, DC.
    As an organization many of whose members are dependent on water 
transportation for their commercial activities, we are concerned about 
an expected effort to place the Corps of Engineers hopper dredge fleet 
on stand-by status.
    We believe such an action would result in a lower level of service 
to those Oregon and Washington ports that have relied on the Corps 
fleet for many years. Moreover, tax funds would be used for the cost of 
mothballing the fleet, while still paying private contractors to do the 
work. In short, taxpayers would pay twice.
    Our members, especially those representing Oregon ports, are in 
strong support of the Corps' maintenance dredging program, and we urge 
you to maintain the public hopper dredge fleet.
    We understand that Representative Peter DeFazio has called for a 
congressional hearing on the matter, and we fully support him in this 
request.
    Thank you.
            Yours truly,
                                               Rolf Glerum,
                                                Executive Director.
                                 ______
                                 

                 Questions Submitted by Senator Dorgan

                     ramsey county sewer system, nd
    Question. What actions are being taken by the Corps to modify the 
Ramsey County Sewer system?
    Answer. An evaluation of the Ramsey County Rural Sewer system, 
including the development of designs and plans and specifications to 
keep the system operational for levels of Devils Lake up to elevation 
1450, was conducted. Two construction contracts have been awarded to 
modify the system through raising, modifying, and protecting lift 
stations, relocation of sewer lines, and modifications to sewer 
connections. Two remaining components will be accomplished by 
exercising options to the last contract.
    Question. Is the $250,000 being requested in the Supplemental 
Appropriation sufficient to complete the work?
    Answer. Yes, sir. Bids have been received on the second of two 
construction contracts and based on the low bid for this contract, the 
$250,000 will be sufficient to complete the work.
    Question. Please explain possible liability for an $80,000 claim.
    Answer. During the construction of one segment of the first 
construction contract, a sewer line that was being reinforced was found 
to be collapsed. This was a significant change in conditions which 
required additional work beyond that covered in the original contract. 
A claim for the additional work has been submitted by the contractor. 
The additional funds ($250,000) requested in the Supplemental will be 
sufficient to settle this claim.
    Question. As the lake continues to rise, are there any technical, 
scope, or authority issues that may arise?
    Answer. The modifications to the Ramsey County Rural Sewer System 
are being designed to keep the system functional for lake levels up to 
elevation 1450. The lake is presently at elevation 1443. If the lake 
level rises more than another seven feet and goes above elevation 1450, 
additional modifications to the rural sewer system will be required 
which are beyond the scope of the funding provided for the present 
work. For lake levels higher than elevation 1450, another evaluation 
will be required to determine the requirements to keep the rural sewer 
system functional.
                   devils lake basin, nd, levee raise
    Question. What is the status of the current levee raise project 
(TOL 1450 feet) regarding the levee and pump stations?
    Answer. The current levee raise project for the city of Devils Lake 
to get the levee to a top of levee elevation of 1450 (TOL 1450) is well 
underway. The levee embankment sections and the riprap erosion 
protection are essentially complete and are providing assured 
protection for a lake level up to elevation 1445. The permanent pumping 
stations required to address the runoff from the areas within the levee 
system will not be completed until the spring of 1999. Five pumping 
stations are required. Two are presently operational and the other 
three will not be completed until 1999. Temporary pumping will be used 
at those three locations until the permanent stations are completed.
    Question. When will the contract to raise the levee to TOL 1452 
feet be let?
    Answer. There will be two contracts to raise the city's levee to a 
top elevation of 1452 (TOL 1452), one on the west side and the other on 
the east side of the city of Devils Lake. The contract for the east 
side was advertised in March, and the contract for the west side is 
scheduled for advertising in April 1998. Execution of an amendment to 
the existing project cooperation agreement between the Assistant 
Secretary of the Army for Civil Works and the city of Devils Lake is 
required prior to contract award. The contracts necessary to raise to a 
TOL 1452 are scheduled for award in May 1998 with completion scheduled 
for December 1998.
    Question. What is the cost and cost sharing?
    Answer. The additional cost to raise the city of Devils Lake levees 
from the TOL 1450 condition to the TOL 1452 condition is estimated to 
be $12 million. This would bring the total cost of the levee raise work 
being accomplished since 1996, when the raise of the original levee 
system was started, to an estimated $38 million. This cost is being 
shared on a 75 percent Federal/25 percent non-Federal basis.
    Question. As we expect a 2 to 2.5 foot rise this summer, are there 
any special construction considerations needed to protect the citizens 
of Devils Lake?
    Answer. No special construction considerations are required to 
accommodate the predicted 2 to 2.5 foot rise in lake level this summer. 
If, however, the lake level is expected to increase by more than 2.5 
feet, special construction requirements will be considered for 
implementation. The requirements considered would include prioritizing 
selected segments of the levee for additional raises in the embankment 
height, placement of additional riprap, and requiring the construction 
contractor to accelerate the completion date for the work.
    Question. Will it include options to raise it to TOL 1457 feet and 
would it be prudent to do so?
    Answer. Yes, the option to raise the levee to a top of levee 
elevation of 1457 (TOL 1457) will be considered. Our goal is to ensure 
a five to seven foot freeboard on the levee.
    Question. What would be the cost and cost sharing for levee raises 
to TOL 1452 feet and TOL 1457 feet?
    Answer. The additional cost to raise the levee from a top-of-levee 
condition of 1450 (TOL 1450) to a TOL 1452 condition is estimated to be 
$12 million, and the cost to raise it from a TOL 1452 to a TOL 1457 
condition is estimated to be an additional $12 million. This would be 
cost-shared on a 75 percent Federal and 25 percent non-Federal basis, 
similar to the rest of the levee raise project.
                devils lake basin, nd, emergency outlet
    Question. What is the status of the Corps' work on the planning, 
engineering, and design of an emergency outlet?
    Answer. An all-pipeline option from the west end of Devils Lake to 
the Sheyenne River along the Peterson Coulee route has been identified 
as the recommended plan and has been endorsed by the North Dakota State 
Water Commission. The detailed design of this plan is now. Plans and 
specifications on the first major components would be completed in the 
spring of 1999 for the ordering of pumps and pipe.
    Question. Is the outlet part of a comprehensive plan? Specifically: 
What role does an outlet play in an overall flood-fighting strategy?
    Answer. The proposed outlet is considered an element of a three 
pronged comprehensive plan to reduce flood damages caused by the rising 
levels of Devils Lake. The plan includes upper basin storage to reduce 
the amount of water entering the lake, the outlet to help remove excess 
water, and infrastructure protection (levees, road raises, relocations, 
etc.) to reduce damages if the lake continues to rise in spite of the 
effects of the other two measures.
    Question. Why not just try to store more water in the upper basin 
instead of constructing an emergency outlet?
    Answer. Upper basin storage is also one of the components of the 
comprehensive approach of flood damage reduction for the Devils Lake 
basin. Additional upper basin storage is being pursued by the North 
Dakota State Water Commission; however, a very large percentage of the 
upper basin is suffering from flooding due to high water levels in 
existing wetlands, ponds and lakes. Significant additional storage of 
water that would reduce the water reaching Devils Lake would adversely 
affect the economic viability of many farmers and as a result there is 
very little support in the agricultural community for this concept. 
Also, the actual effectiveness of the upper basin storage cannot be 
reliably estimated as it is a hydrologically very complex situation. 
Past geologic analysis indicates that Devils Lake has naturally 
overflowed into the Sheyenne River several times prior to settlement by 
man and development of the land for agriculture. Restoration of the 
upper basin to its natural condition by increasing the storage may not 
prevent future overflows to the Sheyenne River.
    Question. Without an emergency outlet, what might happen downstream 
if the lake continues to rise?
    Answer. If the level of Devils Lake continues to rise to the 
natural overflow elevation of 1459 water from Devils Lake will start 
flowing into the Sheyenne River via the Stump Lakes and Tolna Coulee. 
Although the flow rate of the overflow would be relatively small 
initially, the salinity of the natural overflow would be high. Several 
parameters of the water quality standards in the Sheyenne River and 
possibly the Red River of the North would be exceeded as a result of 
the natural overflows. With a natural overflow, flooding problems along 
the Sheyenne River would be worsened.
    Question. What is the status of the Corps report to Congress 
relative to initial construction of an emergency outlet (pursuant to 
Public Law 105-62)?
    Answer. The report to Congress required by Public Law 105-62 is in 
preparation with a draft scheduled for the summer of 1998. However, 
many of the studies underway as part of the environmental impact 
statement will not be available for incorporation into the report based 
on the present schedule for submission.
    Question. Each foot rise in the level of the lake causes $10-15 
million in damages. What role would an outlet play in preventing such 
damage?
    Answer. The proposed outlet would try to remove from 50,000-100,000 
acre-feet per year from Devils Lake which would translate into a one-
half to one foot reduction at the present lake level. If the lake goes 
higher, the same volume of water removed would result in a smaller 
stage (level) reduction. The cumulative effects of operation of the 
outlet over a period of years could result in lowering the lake level 
by several feet and could prevent very significant amounts of damages. 
However, due to the complexities and unknowns of forecasting whether, 
when, and at what rate, the lake level could rise, the outlet alone 
cannot provide an effective means of preventing flood damages. The 
outlet must be considered as only one part of an overall plan which 
includes upper basin storage and infrastructure protection.
    Question. What is the status of the $5 million appropriated in the 
1997 Supplemental for PED and NEPA work?
    Answer. The funding appropriated in the 1997 Supplemental is being 
used for the preconstruction engineering and design, the environmental 
studies and the environmental impact statement. As of the end of March 
1998, $2.6 million has been provided to the St. Paul District. Of that 
amount, $1.3 million has been obligated and $1.1 million has been 
expended. Additional amounts from the balance of the $5 million of 
appropriated funds will be requested as required to accomplish the 
necessary design and environmental studies.
    Question. Given that we expect the lake to rise about 2 feet this 
spring, what are your funding requirements for constructing an outlet 
under these circumstances?
    Answer. Based on the information presently available, the $5 
million already appropriated will be adequate for the completion of 
design and economic and environmental studies for the outlet. The 
actual date of initiation of construction, however, is dependent upon 
the completion of the design and the completion of the environmental 
impact statement which are not related to funding. If these worsening 
conditions lead us to a decision to proceed with the outlet immediately 
and if a waiver from the normal NEPA compliance process under the 
emergency provisions of NEPA is granted, and if the report to Congress 
required by Public Law 105-62 is favorable, and if the Secretary of 
State assures that the provisions of the 1909 Boundary Waters Treaty 
have been met, and if agreement with the state of North Dakota for 
acquisition of real estate, cost sharing and operation and maintenance 
is reached, and if the pumps and the pipe are ordered in the fall of 
1998 and construction started in the spring of 1999, Federal 
construction funds of $21 million may be required in fiscal year 1999. 
The $5 million appropriated for the initiation of construction in 
Public Law 105-62 will be sufficient for the initial ordering of the 
pumps and pipe, but additional construction funds in fiscal year 1999 
of $16 million would be required to actually start the physical 
construction of the project.
    Question. The President's fiscal year 1999 budget includes $16 
million in additional funding for construction of emergency outlet. 
What assurances can you provide that the Corps is treating the flooding 
as an emergency and is prepared to take any necessary steps to prevent 
a catastrophe at Devils Lake?
    Answer. The design of the proposed outlet is proceeding on an 
expedited schedule and is being readied for construction at the 
earliest possible time. The schedule for completion of the 
environmental impact statement has been intensively reviewed and is 
also being conducted as fast as possible using the normal NEPA 
compliance procedures. If necessary and warranted, use of the emergency 
procedures of NEPA will be considered to initiate construction of the 
outlet project at the earliest possible schedule.
    Question. Even though the Devils Lake Basin is within the Hudson's 
Bay drainage, Canadian officials view an outlet as a potential threat 
to Canadian fisheries. Is it correct that a joint team of Canadian and 
American technical experts have completed a report that shows that any 
Canadian concerns relative to biota transfer can be addressed?
    Answer. A report was prepared by the Garrison Joint Technical 
Committee Working Group that addressed potential issues with an outlet 
from Devils Lake, including biota transfer. The report indicates that 
there are minimal risks at the border due to any potential concerns 
with biology related issues associated with introducing Devils Lake 
water into the Sheyenne and Red River of the North.
    Question. What is the status of formal consideration of this 
report?
    Answer. This report has been approved by the Garrison Joint 
Technical Committee which includes both U.S. and Canadian 
representatives and has been provided to the U.S./Canadian Consultative 
Group for consideration. No action has yet been taken by the 
Consultative Group.
    Question. What is the status of consultations involving our State 
Department and the International Joint Commission to ensure that 
construction of an emergency outlet would comply with the Boundary 
Waters Treaty Act?
    Answer. On 10 March 1998 the Department of State was requested by 
the Acting Assistant Secretary of the Army for Civil Works to initiate 
consultations with the International Joint Commission (IJC) as required 
in Public Law 105-62. A specific schedule and the requirements for the 
consultation with the IJC have not yet been developed.
    Question. Will the Boundary Waters Treaty be complied with under 
all circumstances?
    Answer. The operating plan for the outlet is being designed to 
assure compliance with the Boundary Waters Treaty. Changes in flow and 
water quality at the border are anticipated to be very minor and 
compliance with the Boundary Waters Treaty is expected. However, since 
under existing conditions the water in the Red River of the North at 
times exceeds the water quality goals at the border, detailed 
hydrologic, hydraulic and water quality modeling is being undertaken to 
assess the potential effects at the border during these critical 
periods.
    Question. How are these consultations being coordinated with NEPA?
    Answer. Coordination with representatives of agencies in Manitoba 
and at the Canadian federal level is being conducted as a part of the 
environmental impact statement preparation process. These agency 
representatives are invited to participate in discussions concerning 
the studies being undertaken.
    Question. What is the status of public NEPA scoping meetings and 
what steps are being taken to ensure widespread input from local 
citizens, tribal members of the Spirit Lake Nation, and downstream 
interests in North Dakota, Minnesota, and Canada?
    Answer. A notice of intent to prepare an Environmental Impact 
Statement for the outlet was published in the Federal Register on 21 
October 1997. Initial scoping meetings were held with agencies in 
January 1998 and initial pubic scoping meetings were held 23-27 March 
1998. Coordination meetings with agencies and the public will continue 
throughout the development of an Environmental Impact Statement.
    Question. How are these concerns being addressed?
    Answer. Coordination and scoping meetings with agency 
representatives and the public are being held to determine their 
concerns and to identify the studies required to address the concerns. 
Hydrologic, hydraulic, water quality, cultural resources, and other 
environmental studies are underway or planned. The results of these 
studies will be shared with interested parties. A liaison with the 
Spirit Lake Nation is being established to improve the lines of 
communication. Newsletters are being published to distribute 
information throughout the Devils Lake basin, to downstream areas, and 
to interested agencies and organizations. Information on the Devils 
Lake outlet is also available on the St. Paul District web page.
    Question. Will NEPA be complied with under all circumstances? 
Please specify how.
    Answer. Yes, NEPA will be complied with under all circumstances. 
The necessary environmental studies and analyses are underway. Under 
the normal NEPA procedures, construction of a project would not start 
until after the record of decision is issued with the environmental 
impact statement. However, NEPA allows for variation from the normal 
procedures in emergency situations. If the construction of the outlet 
is deemed necessary at an earlier schedule than allowable using normal 
NEPA procedures, construction could start before completion of the EIS 
by using the guidance for emergency situations. The necessary 
environmental studies and analyses would still all be conducted, 
however, they would be conducted concurrently with or after completion 
of construction.
    Question. What is the management plan for the outlet?
    Answer. The management plan for the outlet is to pump water from 
the west end of Devils Lake through a 13 mile pipeline into the 
Sheyenne River at appropriate rates to avoid or minimize any adverse 
effects on the downstream areas along the Sheyenne River and Red River 
of the North. Release rates from the outlet would be based on an 
assessment of the flows in the Sheyenne and Red Rivers, water quality 
in the Sheyenne and Red Rivers, the water quality in Devils Lake, and 
on the level of Devils Lake. The release rates would be adjusted so 
that flows on the Sheyenne River stay within the non-damaging channel 
capacity and so that the water quality standards are complied with.
    Question. Who would operate the outlet?
    Answer. The non-Federal sponsor would operate and maintain the 
outlet project. The operation of the project would be monitored by the 
Corps of Engineers to assure compliance with the operating constraints 
developed for the project. Although the flow rates and the water 
quality on the upper Sheyenne River will be the principal 
considerations in the operation of the outlet, many other factors will 
be considered for project operation, including the effects on the 
downstream water users and downstream biota.
    Question. What criteria would be used to avoid adverse impacts?
    Answer. Adverse impacts would be avoided or minimized to the extent 
possible in the design of the project and in the development of the 
operational plans. Where adverse impacts cannot be avoided, mitigation 
measures will be evaluated and implemented where feasible and 
justified. The technical feasibility and soundness, the social 
compatibility and the economics will all be considered in the 
development of mitigation measures.
    Question. Are downstream interests involved in the management of 
the outlet?
    Answer. Yes. The North Dakota legislature has directed 
establishment of a Devils Lake Outlet Management Advisory Committee 
that would provide guidance and recommendations to the North Dakota 
State Water Commission on the operation and management of the outlet. 
This committee has been established and has several representatives of 
downstream interests. In addition, the development of the operation 
plan for the outlet is considering downstream effects and is being 
formulated to comply with downstream water quality standards and to not 
worsen flooding conditions in the downstream areas.
    Question. Give examples of how the outlet could be effective in 
reducing flood damages.
    Answer. The outlet could be effective for potential future 
scenarios that would project lake levels to continue to rise based on 
the average runoff volumes experienced over the past 10 to 15 years. 
Runoff patterns over the past fifty years show a period of several 
years with higher than normal runoff alternating with several years of 
below normal runoff. A continuation of this pattern would allow the 
lake to be drawn down in anticipation of the next higher than normal 
runoff period.
    Question. During operation of the emergency outlet, would water 
quality and quantity in the Sheyenne River and the Red River of the 
North differ from normal conditions?
    Answer. The changes in the quality and quantity of the Sheyenne and 
Red Rivers due to the operation of the outlet from Devils Lake to the 
Sheyenne River would vary depending on the reach of river being 
considered. The largest changes would be on the upper Sheyenne River 
upstream of Lake Ashtabula, with the changes becoming less further 
downstream, with the smallest changes occurring on the Red River in 
Canada. The water quality changes would primarily be increases in 
salinity represented by Total Dissolved Solids, including specific 
parameters such as sulfates. Although the salinity levels would 
increase, water quality in the Sheyenne and Red River would be within 
existing water quality standards. The increases at the Red River 
crossing into Canada would be very small but within the objectives of 
the Boundary Waters Treaty of 1909. The water quantity changes upstream 
of Lake Ashtabula would result in river level increases of generally 
less than three feet and these changes would still keep the river 
within its natural riverbanks. Along the Sheyenne River between Lake 
Ashtabula and the Red River, the river level increase would be less 
than one foot. Along the Red River of the North, the river level 
increase would be less than two inches. These changes would be at lower 
flow levels along the Sheyenne and Red Rivers.
    Question. What is the status of activities to develop a PCA and to 
obtain the real estate necessary for an emergency outlet?
    Answer. The North Dakota State Water Commission (NDSWC) has been 
identified as the non-Federal sponsor. The NDSWC has been informed of 
the requirements of project sponsorship, including providing 35 percent 
of the first cost of the project and operating and maintaining the 
project at full non-Federal cost. The NDSWC is preparing to issue bonds 
for the non-Federal share of the first cost and is working with the 
Devils Lake Joint Water Resource District to develop arrangements for 
the operation and maintenance. The NDSWC is also working with the 
Spirit Lake Nation and individual property owners along the outlet 
alignment to secure the necessary rights-of-entry to accomplish the 
necessary surveys for the design of the project. The NDSWC will also be 
responsible for acquiring the necessary lands and easements for the 
construction of the project.
    The Project Cooperation Agreement (PCA) will need to be executed 
prior to the ordering of pumps and pipe, acquisition of real estate, 
and initiation of construction.
    Question. What is the status of the ``Virtual Flood'' exercises and 
what did it show?
    Answer. The Virtual Flood workshop was held in Grand Forks on March 
11, 1998 for Federal, State, and local agencies and members of the 
public. The workshop used computer simulations of synthetic future 
floods to demonstrate the potential effectiveness of outlet operation 
and upper basin storage on lowering the level of Devils Lake. The 
effects of varying the flood timing and severity, outlet implementation 
schedule, water quality standards, river channel capacity, amount of 
upper basin storage, and outlet and storage trigger elevations were 
also displayed. The Virtual Flood model is a tool for graphically 
demonstrating, exploring, presenting, and explaining the complex 
interrelationships between the above factors. However, the current 
Virtual Flood model does not address cost effectiveness and downstream 
water quantity and water quality issues. The model will be enhanced 
when ongoing and planned studies of those factors are completed.
    Question. How have you included information from EERC and RWIC and 
what was the value of their input?
    Answer. Information from Energy and Environmental Research Center 
(EERC) and the Regional Weather Information Center (RWIC) was used in 
the development of the Virtual Flood model. The RWIC provided weather 
outlooks for the next several years which were incorporated into the 
hydrologic information data base. The EERC provided information on the 
salinity relationships in the Stump Lakes. These inputs were 
incorporated into the model. The major effort in model development was 
conducted by the Institute for Water Resources (IWR). IWR worked with 
EERC and RWIC on the model development, arrangements for the Virtual 
Flood workshop, and integration of the EERC and RWIC input into the 
model. The participation of EERC and RWIC was valuable to the Virtual 
Flood workshop.
    Question. What additional actions related to Devils Lake flooding 
are being taken by city, state, and other federal agencies?
    Answer. Other actions being undertaken in the Devils Lake basin to 
address the flooding problem include raising and relocating roads and 
highways, relocating homes imminently threatened by flooding, 
constructing and raising levees, modifying and relocating utilities, 
acquiring rights to store additional water in the upper basin, and 
development of mapping and flood risk information.
                                 ______
                                 

               Questions Submitted by Senator Hutchinson

                     montgomery point lock and dam
    Question. I understand that the contractor for Montgomery Point 
Lock and Dam has suspended contract operations in early January this 
year. I believe this project is very important not only to my state of 
Arkansas, but to the Southwest United States, as well. Will you please 
inform me of your progress on identifying reprogramming funding so 
construction can resume this year?
    Answer. Sir, Headquarters is currently identifying projects 
throughout the nation where funds are excess to current year needs and 
available for reprogramming into the Montgomery Point project. I 
anticipate that funds will be reprogrammed into the Montgomery Point 
project by early April 1998 to continue construction.
    Question. Few will disagree with me that the president's fiscal 
year 1999 budget request for the Corps of Engineers is woefully 
inadequate. I will join my colleagues in their effort to ensure more 
realistic funding is provided in fiscal year 1999. Indeed, only $19 
million is provided for Montgomery Point Lock and Dam. What is the 
Corps' capability range for the project in fiscal year 1999?
    Answer. Sir, subject to the normal language regarding capabilities, 
$60,000,000 is the approved fiscal year 1999 capability for this 
project. This is $41,000,000 above the budget amount requested.
                                 ______
                                 

                 Questions Submitted by Senator Bumpers

                montgomery point lock and dam, arkansas
    Question. The Montgomery Point Lock and Dam project is vital to the 
McClellan-Kerr Arkansas River Navigation System. It is my understanding 
that construction on Montgomery Point Lock and Dam has been halted due 
to a lack of funds. What is the status of Montgomery Point Lock and Dam 
with regards to the reprogramming of funds to continue construction 
during fiscal year 1998?
    Answer. Sir, we are currently evaluating other Construction, 
General, projects throughout the Corps which may have funds excess to 
fiscal year 1998 needs. Once projects are identified, we will reprogram 
within our authority to this project. Any remaining funds required to 
be reprogrammed will be coordinated with the Committees for approval.
    Question. It is my understanding that the original intent of the 
Corps was to complete construction of Montgomery Point Lock and Dam 
within five years. What is the current timetable for completion of 
Montgomery Point Lock and Dam.
    Answer. Sir, assuming capability funding through construction, the 
timetable for completion of this project is March 2003. However, the 
funding stream anticipated in the President's budget will result in a 
completion in March 2007.
          grand prairie region and bayou meto basin, arkansas
    Question. Water resources are vital to Arkansas' economy. Water for 
municipalities, industry, and agriculture is key to the long term 
viability of my state. The Arkansas Soil and Water Conservation 
Commission recently declared the ground water to be at critical levels 
in several areas in eastern Arkansas. Due to this dire situation, the 
President has included the Grand Prairie/Bayou Meto project in the 
budget for fiscal year 1999.
    Is there any reason to be concerned that delays in construction 
will be encountered if funds are made available for construction in 
fiscal year 1999?
    Answer. We are concurrently revising the project to provide 
substantial multipurpose benefits and are proceeding toward new start 
construction in fiscal year 1999 for the irrigation components of the 
project. However, there are several policy concerns that must be 
resolved that affect the irrigation components of the project. We must 
also assure that there is a non-Federal sponsor prepared to share in 
the cost of the project and to fulfill the items of local cooperation. 
We expect to have these policy concerns resolved within three months 
and will then work with sponsors to define and obtain commitments for 
the items of local cooperation. When the General Reevaluation Report is 
approved, we will initiate negotiations with the non-Federal sponsor 
for a Project Cooperation Agreement and process the draft Environmental 
Impact Statement. With so much work remaining to be done, it may not be 
possible to complete all of the steps required by law, especially the 
National Environmental Policy Act, before the end of fiscal year 1999. 
Concurrently, we are preparing a decision document presenting revisions 
of the project to provide substantial amounts of groundwater 
protection, wetland restoration, and water fowl habitat to enable the 
Secretary of Army to determine whether, as stated in Section 363(a) of 
the Water Resource Development Act of 1996 `` * * * the change in scope 
of the project is technically sound, environmentally acceptable, and 
economic, as applicable.'' Nonetheless, assuming funding is provided as 
requested, we will do all that we can do to achieve the actual start of 
construction as soon as possible.
    Question. Language was provided in the fiscal year 1998 Energy and 
Water Development Appropriations Act directing the Corps to reevaluate 
the Grand Prairie and Bayou Meto Projects. Will the Corps provide my 
office with the results of the evaluation regarding the status of these 
irrigation projects?
    Answer. Yes, The General Reevaluation Report on the Grand Prairie 
element of the Grand Prairie Region and Bayou Meto Basin Project was 
submitted to Corps Headquarters in October 1997. Policy issues are 
currently being resolved. The fiscal year 1998 Appropriations Act urged 
the Corps to continue design on the Grand Prairie and initiate a 
reevaluation of the Bayou Meto Basin. Funds were reprogrammed into the 
Grand Prairie Region and Bayou Meto Basin Project and design of the 
first item of construction, the pumping station, for the Grand Prairie 
has been initiated. Preparation of a plan of study for reevaluation of 
the Bayou Meto Basin to include substantial amounts of groundwater 
protection, wetland restoration, and water fowl habitat has also been 
initiated. Your office will be kept informed of the status of the 
resolution of policy issues for the Grand Prairie and of the 
reevaluation of the Bayou Meto Basin.
                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

STATEMENTS OF:
        PATRICIA J. BENEKE, ASSISTANT SECRETARY FOR WATER AND SCIENCE, 
            DEPARTMENT OF THE INTERIOR
        ELUID L. MARTINEZ, COMMISSIONER, BUREAU OF RECLAMATION

                            opening remarks

    Senator Domenici. Now could we have Patty Beneke, Assistant 
Secretary for Water and Science, Department of the Interior, 
and Eluid Martinez, Commissioner of the Bureau of Reclamation 
come to the witness table.
    Senator Reid. Mr. Chairman, as they are coming up here, we 
have been working the last couple of days on the Superfund bill 
and the final committee vote on that is going to be at 11:30 
a.m. So I am going to have to again recognize and excuse 
myself. I'll return shortly.
    Senator Domenici. Is that in committee?
    Senator Reid. Yes; we are going to report a bill out. So I 
am going to have to do that before our vote.
    Senator Domenici. Secretary Beneke, Commissioner Martinez, 
we welcome you. We look forward to your testimony. We have 
reviewed it.
    If you could be as brief as possible, we would greatly 
appreciate it.
    Please proceed.

                    statement of patricia j. beneke

    Ms. Beneke. Yes; good morning, Mr. Chairman. It is a 
pleasure to be here again this year as Assistant Secretary for 
Water and Science to testify regarding the President's fiscal 
year 1999 budget request for both the Bureau of Reclamation and 
the Central Utah Project Completion Act.
    I will be very brief this morning. My written statement 
highlights several key items in Reclamation's budget request. 
Among these, providing adequate funding for facilities 
operation and maintenance and for dam safety continues to be a 
high priority for both the Commissioner and me.
    The budget request for the CALFED program has already come 
up this morning. I would like to make a few comments on that.

               california bay-delta ecosystem restoration

    We appreciate the Congress' efforts in passing legislation 
in 1996 to authorize the California Bay-Delta Ecosystem 
Restoration Program [CALFED] and in providing funding in the 
amount of $85 million for the program this fiscal year.
    CALFED, which is a consortium of Federal and State agencies 
working on the California Bay-Delta Ecosystem Restoration 
Program, has developed a careful, consultative process to 
select the highest priority restoration actions for funding.
    We are doing everything possible to invest these funds 
effectively and wisely.
    For fiscal year 1999, the President's budget requests 
funding consistent with the congressional authorization. In 
addition, I would like to emphasize that we are working very 
closely with the State of California, and they are 
participating as full cost-share partners with us.
    This initiative is important for California and for the 
Nation for resolving the long-term issues of the Bay-Delta, 
where we are confronted with serious problems regarding not 
only habitat degradation but also water supply, water quality, 
and flood control.
    Finally, consistent with the Central Utah Project 
Completion Act, the Secretary has delegated to my office 
responsibility for completion of the Central Utah Project. For 
the record, I would like to assure Senator Bennett that both 
OMB and I are working diligently to provide an expeditious 
response to his request.

                           prepared statement

    This concludes my statement and, again, it is both a 
pleasure and an honor to be here this morning.
    Senator Domenici. Did you have a longer statement?
    Ms. Beneke. Yes; I have a longer statement that I would 
like to submit for the record.
    Senator Domenici. That will be made part of the record.
    Ms. Beneke. Thank you.
    [The statement follows:]

                Prepared Statement of Patricia J. Beneke

    I am pleased to appear before this Subcommittee again as Assistant 
Secretary for Water & Science to testify in support of the President's 
fiscal year 1999 budget for the Bureau of Reclamation and the Central 
Utah Project.
    Reclamation's fiscal year 1999 request reflects its focus on water 
resources management. Providing adequate funding for the operation, 
maintenance and rehabilitation of its facilities continues to be one of 
Reclamation's highest priorities, and its staff works closely with 
water users and other stakeholders to ensure that available funds are 
used effectively. The fiscal year 1999 request will allow the timely 
and effective delivery of project benefits; ensure the reliability and 
operational readiness of Reclamation's dams, reservoirs, power plants, 
and distribution systems; and identify, plan, and implement dam safety 
corrective actions and site security improvements.
    The budget request for the Department of the Interior reflects the 
Department's and the Administration's continued commitment to address 
natural resource issues by working in geographically-based partnerships 
that cross not only the jurisdictional boundaries within the Federal 
government but also involve the States, Tribes, local communities and 
affected stakeholders.
    This approach is reflected in several major initiatives in the 
Department's fiscal year 1999 budget, including actions implementing 
the President's Forest Plan in the Pacific Northwest, implementing the 
Vice President's Clean Water Action Plan, making the Endangered Species 
Act work better through partnerships with private landowners, and 
restoring California's Bay-Delta ecosystem. In South Florida, several 
Federal agencies are working closely with the State, Tribes, local 
communities and affected stakeholders to restore the Everglades. And, 
finally, because funding for another such vital effort, the multi-
agency Bay-Delta Restoration Program, is included in the Bureau of 
Reclamation's budget request, I will discuss it in more detail this 
morning.
    Eluid Martinez, the Commissioner of the Bureau of Reclamation is 
appearing with me today. His testimony will address details of the 
fiscal year 1999 budget request for the Bureau of Reclamation. This 
morning I would like to highlight only one or two key elements in 
Reclamation's budget and also discuss the request for the Central Utah 
Project, for which my office is responsible. Ron Johnston, Program 
Director for the Central Utah Project (CUP) Completion Act Office is 
also with me today.
               california bay-delta ecosystem restoration
    The President's fiscal year 1999 budget request includes second 
year funding of $143.3 million, the full amount authorized by the 1996 
Bay-Delta Environmental Enhancement and Security Act. The historic 1994 
Bay-Delta Accord recognized that a comprehensive set of actions is 
required to balance competing water uses, restoring and protecting the 
Bay-Delta ecosystem while providing the reliable water supply on which 
the State's long-term economic health depends. Under the Accord, 
CALFED--a consortium of the Federal and State agencies with management 
and regulatory responsibilities in the Bay-Delta--is developing a 
balanced solution to the four main problems in the Bay-Delta: uncertain 
water supplies, aging levees, declining fish and wildlife habitat, and 
threatened water quality. Working with stakeholder groups, CALFED has 
defined and analyzed options which can result in a comprehensive, long-
term program for water quality, water supply, levee stability, and 
ecosystem restoration. Ecosystem restoration is an essential component 
in achieving the goals of the program.
    During 1997, CALFED developed a careful consultative process to 
select the highest priority ecosystem restoration actions for funding. 
It includes two methods of identifying proposals: Public Project 
Solicitations and CALFED Directed Programs. Under both methods, 
proposals are reviewed by technical experts and the CALFED program 
staff before going to the Ecosystem Roundtable and the Bay Delta 
Advisory Council for review and advice. A final list of recommended 
proposals is then forwarded by the CALFED Policy Team to the Secretary 
of the Interior, or in the case of State funds, the California 
Resources Secretary for approval.
    The first Public Project Solicitation was published by CALFED in 
June 1997, and resulted in 332 proposals for a total of $471 million. 
In December, 50 of these proposals were selected and recommended for 
approval: 44 costing a total of $37.3 million to be funded using the 
State's Proposition 204 money, and six costing a total of $21 million 
to be funded using Federal funds appropriated for this program in 
fiscal year 1998. In February of this year the Secretary approved these 
six projects and four others recommended by the CALFED Policy Team. 
These projects will be described in our first quarterly report to 
Congress.
    In early March, following the process described above, the CALFED 
Policy Team recommended approval of a package of projects and programs 
that would use the balance of the funds appropriated for this program 
in fiscal year 1998. A letter seeking final approval of this package is 
now in the review process within the Department.
                         bureau of reclamation
    Aside from the request for the Bay-Delta Restoration initiative, 
the budget request for the Bureau of Reclamation totals $775.8 million, 
a decrease of $8 million. The request includes adequate funding for 
operations, maintenance and rehabilitation, which continues to be a 
high priority for both the Commissioner and me. The request also 
includes $68 million for the dam safety program, $50 million for the 
Central Arizona Project; $25 million for the Colorado River Basin 
Salinity Control; $24 million for the Garrison Diversion Unit; $37 
million for Water Reclamation/Reuse projects; $131 million for the 
Central Valley Project; $49 million for the Central Valley Project 
Restoration Fund; $13 million for Columbia/Snake River Salmon Recovery 
and $15 million for Endangered Species Recovery, including the Platte 
River.
    Reclamation's water management mission places a greater emphasis on 
water conservation, recycling and reuse; developing partnerships with 
its customers, States and Tribes; finding ways to bring various 
interests together to address their water needs; good stewardship of 
Reclamation's facilities; and transferring title and operation of some 
facilities to local beneficiaries. All these changes have one goal--to 
meet the increasing water demands of the West while protecting the 
environment and the public's investment.
    The Reclamation budget request also includes the first Annual 
Performance Plan required under the Government Performance and Results 
Act. This plan identifies the annual goals for fiscal year 1999 that 
support Reclamation's Strategic Plan that was submitted to Congress 
last September.
                  central utah project completion act
    The Central Utah Project Completion Act became law in October 1992 
after several years of debate on how to complete the CUP and resolve 
related claims of the Ute Indian Tribe. The Act provides for completion 
of the Central Utah Project (CUP) by the Central Utah Water Conservancy 
District. The Act also authorizes funding for fish, wildlife, and 
recreation mitigation and conservation; establishes the Utah 
Reclamation Mitigation and Conservation Commission to coordinate 
mitigation and conservation activities; and provides for the Ute Indian 
Rights Settlement.
    The Central Utah Project Completion Act prohibits the Secretary 
from delegating his responsibilities under the Act to the Bureau of 
Reclamation, and therefore, responsibility for overseeing 
implementation of the Act has been delegated to the Office of the 
Assistant Secretary for Water and Science. We have established a 
program coordination office in Provo, Utah, with a Program Director to 
provide oversight, review, and liaison with the District, the 
Commission, and the Ute Indian Tribe, and to assist in administering 
the responsibilities of the Secretary under the Act.
    We are pleased with progress to date in implementing the Act. 
Accomplishments through fiscal year 1997 include: initiation of 
construction on the Wasatch County Water Efficiency Project; 
implementation of 14 other water conservation measures that conserve a 
total of 12,000 acre-feet of water annually (enough water to serve 
60,000 urban dwellers annually); initiation of a major conjunctive use 
project in Salt Lake County; completion of construction of the Lower 
Diamond Fork Pipeline; substantial progress on planning the remaining 
segments of the Diamond Fork System, the Spanish Fork Canyon/Nephi 
Irrigation System, and the Uinta Basin replacement facilities; and 
initiation of a variety of activities by the Mitigation Commission, 
including land acquisitions for the Provo River Restoration Project, 
and around Great Salt Lake, the Jordan River, and Utah Lake to protect 
wetlands.
    The fiscal year 1999 request for the Central Utah Project 
Completion Account provides $40.9 million for use by the District, the 
Mitigation Commission, and the Department, a decrease of $0.2 million 
from the fiscal year 1998 enacted level. This includes $20.4 million 
for the District to continue construction and implementation of the 
Wasatch County Water Efficiency Project and other water conservation 
projects; to continue work on the Diamond Fork System and the Spanish 
Fork Canyon/Nephi Irrigation System; and to continue implementation of 
the Uinta Basin Replacement Project and the groundwater recharge and 
conjunctive use programs. In addition, the fiscal year 1999 request 
includes $1.4 million to continue work on additional replacement 
facilities for the Uintah and Upalco Units that would serve Indian and 
non-Indian users in the Uinta Basin.
    The request also provides $12.4 million that would be transferred 
to the Mitigation Commission for mitigation and conservation projects 
authorized in Title III of the Act, and for completion of other 
mitigation measures identified in Reclamation planning documents. 
Finally, the request includes funds for the Federal contribution to the 
principal of the Utah Reclamation Mitigation and Conservation Account 
($5.0 million); for mitigation and conservation projects outside the 
State of Utah ($0.3 million); and for activities administered by the 
program office ($1.4 million).
    In addition to this request, the Bureau of Reclamation's budget 
includes $0.1 million to complete certain features of the CUP; $30.0 
million is included in the Bureau of Indian Affairs budget for the Ute 
Indian Rights Settlement authorized in Title V of the Act; and $5.0 
million is included in the request for the Western Area Power 
Administration for its contribution to the Utah Reclamation Mitigation 
and Conservation Account.
    This completes my statement today. Again, thank you for providing 
me the opportunity to discuss with this subcommittee our fiscal year 
1999 requests. The Commissioner and I will be pleased to respond to 
your questions.

                     statement of eluid l. martinez

    Senator Domenici. Commissioner.
    Commissioner Martinez. Mr. Chairman, my written statement 
will be submitted for the record, and I will try to be brief.
    Generally, Reclamation's budget contains a request for 
approximately $776 million for our traditional programs. That 
reflects a decrease of $8 million from our fiscal year 1998 
level.
    Approximately 50 percent of our 600 dams out West were 
constructed between 1900 and 1950. The continued safe 
performance of those structures as they age is of great 
concern. Our budget reflects the need to continue to address 
this high priority item.

                             budget summary

    With respect to our facility operation and maintenance 
budget line item, we are requesting $8.2 million above our 
fiscal year 1998 level and believe it is sufficient to 
adequately maintain and operate those structures.
    Let me draw your attention to one Bureau of Reclamation 
program which has drawn quite a bit of interest. It is the 
Water Reclamation and Reuse Program.
    As you know, in 1992, Congress authorized four projects in 
southern California, and in 1996, 18 additional projects were 
authorized. Our budget request this year includes $37 million 
to continue funding the four projects initiated in 1992, plus 
minor amounts for the Arsenic Wellhead project in New Mexico, 
one demonstration project in South Dakota, and a reuse study in 
California.
    Our budget request this year includes $7.8 million of new 
money to be used as follows: $1.1 million for assisting project 
sponsors with feasibility studies and to review and prioritize 
projects for possible funding in the future; $1 million for 
research and development activities; $1 million for 
preconstruction work on the Orange County Regional Water 
Reclamation project; and the balance of $4.7 million is to move 
forward three projects out of those 18 projects that were 
authorized, and to continue one additional project that already 
has ongoing funding. We propose to spend $800,000 for the 
continuation of the Tooele project in Utah; $1.3 million for 
the North San Diego County project; $1.3 million for the Long 
Beach project; and $1.3 for the Calleguas project. The last 
three are in California.
    We in Reclamation went through an extensive process for 
soliciting information from the project sponsors to determine 
which of the authorized projects were ready to go to 
construction. We then did a ranking using a criteria process to 
come up with these four new projects.

                           prepared statement

    Mr. Chairman, that is my summary, and, other than the 
issues that you will find in our budget, these are the issues 
of interest.
    [The statement follows:]

                Prepared Statement of Eluid L. Martinez

    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to appear before the Subcommittee this morning to discuss 
the Bureau of Reclamation's fiscal year 1999 budget request.
    The Bureau of Reclamation has been in existence for 96 years, 
developing and managing water and related resources in the Western 
United States. Having constructed more than 600 dams and reservoirs, 
including such significant structures as Hoover and Grand Coulee Dams, 
Reclamation today is the largest water wholesaler in the country, 
bringing water resources to more than 31 million people and irrigating 
approximately 10 million acres of land. Reclamation is also the second 
largest producer of hydroelectric power in the nation and the fifth 
largest electric utility in the West. Reclamation's 58 powerplants 
annually provide more than 40 billion kilowatt-hours, generate nearly a 
billion dollars in power revenues, and produce enough electricity to 
serve six million homes.
    Today, the main focus of the Bureau of Reclamation is to provide 
improved water resources management. Reclamation programs include a 
broad range of water uses, such as domestic water supply, irrigation, 
Indian self-sufficiency, fish and wildlife protection, endangered 
species recovery, environmental restoration, and recreation. Since 
water is a scarce resource in the West, the budget proposes innovative 
strategies for addressing water resource issues, including water 
reclamation and reuse.
    For fiscal year 1999, the Bureau of Reclamation is requesting 
$919.1 million, of which $893.3 million is new budget authority and 
$25.8 million is a transfer of unobligated balances from its Working 
Capital Fund. This request includes $775.8 million for Reclamation's 
traditional programs, a decrease of $8.0 million from the fiscal year 
1998 level; and $143.3 million for California Bay-Delta Ecosystem 
Restoration account, which is administered by Reclamation but funds 
activities in several Federal agencies, an increase of $58.3 million 
over fiscal year 1998.
    Before moving into the more specific financial data, I'd like to 
discuss several programs and issues of interest.
                        annual performance plan
    The Government Performance and Results Act (GPRA) of 1993 requires 
annual performance plans beginning with fiscal year 1999 and annual 
performance reports beginning in March of 2000. Reclamation has made 
significant progress in the implementation of GPRA. Based on 
Reclamation's Strategic Plan, the fiscal year 1999 Annual Performance 
Plan has been developed to address the direction of key programmatic 
activities. This plan reflects the linkage between strategies and goals 
of the Strategic Plan, the annual performance goals and indicators, and 
the programmatic budget. Each performance goal is linked to program and 
financing activities and accounts as indicated in the tables provided 
with the Annual Performance Plan.
                               dam safety
    Ensuring the safety and reliability of Reclamation dams is one of 
the agency's highest priorities. This program is critical to 
effectively manage risks to the downstream public safety, property, and 
natural resources. Funding of $10.0 million is being requested for 
ongoing modifications on four dams--Cachuma Project, Bradbury Dam in 
California; Salt River Project, Horse Mesa Dam in Arizona; Weber Basin 
Project, Lost Creek Dam in Utah; and San Angelo Project, Twin Buttes 
Dam in Texas.
    In addition, $56.6 million is requested for the Safety of Dams 
Evaluation and Modification Program that provides for risk management 
activities throughout Reclamation's inventory of 378 high and 
significant hazard dams, as well as preconstruction and construction 
activities for up to 32 dams in the Safety of Dams program. Another 
$1.5 million is requested for the Department of the Interior Dam Safety 
Program.
    Approximately 50 percent of Reclamation's dams were built between 
1900 and 1950, and approximately 90 percent of the dams were built 
before current state-of-the-art foundation treatment and filter 
techniques were incorporated in embankment dams to better control 
seepage. Continued safe performance becomes a greater concern with 
aging of the dams and places a greater emphasis on the risk management 
activities provided by the program.
                                el nino
    The current El Nino is producing heavy precipitation in California 
and in the Southeastern U.S. While these areas are the most seriously 
affected to date, the unusually mild and humid air mass over much of 
the nation presents the potential for additional weather anomalies as 
Spring arrives. Long-lead forecasting of specific amounts of 
precipitation and runoff is impossible for particular river basins. 
Water managers must watch the short-range forecasts closely--to best 
manage reservoir operations. This requires close cooperation with the 
National Weather Service, Army Corps of Engineers, U.S. Geological 
Survey, National Resources Conservation Service and state water 
management agencies.
    Reclamation has taken an aggressive role in preparing for El Nino 
impacts: reservoirs were drawn down; and water operations managers took 
other proactive positions regarding water supply forecasts. They are 
fully aware of El Nino's historic impacts in their river basins, and 
Reclamation has taken special precautions in planning operations. The 
Denver Office has established a real-time, continually updated El Nino 
Website and its hydrometeorological team is closely collaborating with 
National Weather Service forecasters. The Central Valley Operations 
Office in Sacramento has developed a special flood runoff and reservoir 
operations model above Folsom Reservoir in collaboration with the 
National Weather Service to assist in operations. Water managers will 
take appropriate actions when there is clear evidence of any developing 
problems. Thus far, we have identified $2.3 million of emergency needs 
and included them in the Administration's request for supplemental 
funding in fiscal year 1998.
    Now, I would like to focus on Reclamation's fiscal year 1999 Budget 
request by appropriation.
    Water and Related Resources.--The amount requested for the Water 
and Related Resources appropriation for fiscal year 1999, $665.9 
million, is a decrease of $27.1 million from the fiscal year 1998 
enacted level of $693.0 million. This appropriation funds five program 
activities. These are Water and Energy Management and Development, Fish 
and Wildlife Management and Development, Land Management and 
Development, Facility Operations, and Facility Maintenance and 
Rehabilitation.
    The fiscal year 1999 Budget proposes $273.4 million for Facility 
Operations and Facility Maintenance and Rehabilitation, an increase of 
$8.2 million from the fiscal year 1998 enacted level. Reclamation 
places high priority on these activities, which ensure delivery of 
project benefits and protect the Federal investment and the public 
through the dam safety program, discussed above, and other measures.
    The request includes $49.9 million for the Central Arizona Project; 
$131.4 million for the Central Valley Project in California; $31.3 
million for the Mni Wiconi Project and $10 million for the Mid-Dakota 
Project in South Dakota; $24.1 million for the Garrison Project in 
North Dakota; $37 million for water reclamation and reuse projects; and 
$3 million for the Animas-LaPlata Project in Colorado and New Mexico.
    The fiscal year 1999 request of $37 million for water recycling 
includes funding for four projects that were authorized by the 102nd 
Congress in 1992, plus minor amounts for Arsenic Wellhead in New 
Mexico, the Rapid City Wastewater Reuse Study in South Dakota, and the 
Southern California Comprehensive Water Reclamation and Reuse Study. 
Additional projects were authorized in 1996 through Title XVI 
amendments. The Bureau has included $1 million for the Orange County 
Regional Water Reclamation Project in California and $6.8 million for 
research and feasibility studies, and to initiate construction cost 
sharing on additional projects. As this testimony is being prepared, we 
are completing a careful selection process and will inform the 
subcommittee of the results.
    Reclamation's fiscal year 1999 request includes a proposal which 
fully funds the acquisition of capital assets for four water resource 
projects. This is part of an overall effort to improve the way the 
Federal Government manages the planning, budgeting, and acquisition of 
capital assets.
    Reclamation's fiscal year 1999 request proposes to fully fund four 
projects through advance appropriations. The four projects are: 
Colorado River Front Work & Levee System (CA, AZ); Salt River Project, 
Horse Mesa Dam, Safety of Dams (AZ); Minidoka Northside Drainwater 
Management Project (ID); and Weber Basin Rehabilitation and Betterment 
Project (UT).
    The total amount requested for fiscal year 1999 for these projects 
is $7 million. In addition, appropriation language is included in the 
fiscal year 1999 budget to provide advance appropriations totaling 
$22.6 million in fiscal year 2000 and beyond (including cost indexing), 
which should be sufficient to complete these projects.
    The request also includes $10.2 million for our Science and 
Technology Program. This funding is requested for development of new 
information and technologies that respond to and anticipate mission-
related needs, and that provide for innovative management, development, 
and protection of water and related resources and associated values 
through cost-shared research and technology transfer.
    Loan Program.--Funding of $12 million is requested to continue work 
on six loans--Chino Basin Desalination, Castroville Irrigation, Salinas 
Valley Water Reclamation, San Sevaine Creek, and Temescal Valley, in 
California, and Milltown Hill, in Oregon. In addition, $425,000 is 
requested for program administration.
    Policy and Administration.--The $48 million requested supports 
Reclamation's centralized management functions. These functions include 
overall program and personnel policy management; equal employment 
opportunity management; safety and health management; budgetary policy 
formulation and execution; information resources management, property, 
and general services policy; public affairs activities; and 
organizational and management analysis.
    Central Valley Project Restoration Fund.--The Restoration Fund 
request is the full $49.4 million allowed for fiscal year 1999. These 
funds are focused on three primary emphases: water acquisition for 
instream flows and refuges; refuge conveyance and refuge water 
wheeling; and land retirement. Efforts to provide for the doubling of 
the anadromous fish population are expected to be enhanced through 
increased emphasis on partnerships with local, state, and stakeholder 
involvement.
    California Bay-Delta Ecosystem Restoration.--The fiscal year 1999 
budget includes a request for $143.3 million to continue Federal cost 
sharing in ecosystem restoration efforts in California's Bay-Delta, the 
full amount authorized by the California Bay-Delta Environmental 
Enhancement Act. Although requested in a single account under 
Reclamation, the funds will be distributed among participating Federal 
agencies based upon the program recommended by CALFED, a consortium of 
Federal and State agencies with management and regulatory 
responsibilities in the Bay-Delta, and approved by the Secretary of the 
Interior.
    The fiscal year 1999 budget request provides details on how we 
intend to use the funds, including a summary of how the project 
selection process works. Participating agencies and the CALFED staff 
have developed a fiscal year 1998 program that covers habitat 
acquisition and restoration, improvements to fish screens and passage, 
and exotic species management. In early February the Secretary approved 
a proposal for the allocation of the first $23 million of fiscal year 
1998 Federal funding. A second package approving the remaining $62 
million of the $85 million appropriated in fiscal year 1998 is expected 
to be approved by the Secretary very soon.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared remarks. I would be happy to respond to any questions Members 
may have concerning the Reclamation program and our fiscal year 1999 
Budget request.

                           dam safety program

    Senator Domenici. Commissioner, let me ask this. You stated 
that many of our reclamation dams were built between 1900 all 
the way through 1950. Is there a process where these dams are 
evaluated regularly for dam safety?
    Commissioner Martinez. Yes; we have in our budget request a 
line-item request for money to repair dam deficiencies and 
money for continuing inspection and operation of these 
facilities.
    We inspect our high and significant hazard dams on a 
routine basis and our low-hazard dams on a routine, but less 
frequent, basis. But we do inspect every single dam.
    Senator Domenici. So we should not wake up in the morning 
suspecting there has been a dam failure unless there was 
something unusual happening upstream from the dam?
    Commissioner Martinez. I would dread the day that I have to 
wake up to that scenario. I would hope not.
    Senator Domenici. That is why the dam safety program is in 
effect.
    Commissioner Martinez. Correct.
    Our dam safety request this year, Mr. Chairman, reflects a 
lesser amount than it did last year. The reason it does that is 
because we need less construction money this year since we have 
completed work on some dams. However, I am advised that in the 
future years, that request will go up as we identify 
construction needs at particular dams.

                        animas-La Plata project

    Senator Domenici. Regarding the Animas-La Plata project, 
the Bureau has begun what you call a reconnaissance level 
appraisal of both the opponents' downsize project and the 
proponents' proposal to provide the tribes money to purchase 
water rights. The committee has been clear, and specifically 
referred to a modified project, not a method of paying the 
tribes money for them to buy water rights. What is the status 
of the appraisal study?
    Has the study been completed and do you have it with you 
today?
    Ms. Beneke. I will take a crack at that, Senator.
    As you know, Governor Romer and Lt. Gov. Gail Schoettler of 
Colorado convened the Romer-Schoettler process a year or one-
half years ago to try to work through these issues. As a result 
of that process, two main alternatives came out for the Animas-
La Plata Project. One is the so-called Animas Lite, which is a 
downsized structural alternative. The other one is a 
nonstructural alternative that involves both additional storage 
in existing facilities and some acquisition of water for the 
tribes.
    When those alternatives were forwarded to us, the 
Commissioner and I discussed it. We decided that the best 
course would be to evaluate the alternatives and to do an 
appraisal-level study, anticipating possible authorizing 
legislation in this Congress and anticipating questions about 
both of the alternatives.
    The Bureau is in the midst of doing this study. Again, it 
is just at the appraisal level. At the time we decided to 
undertake the study, we said that we would do everything 
possible to have it done in 3 to 6 months. We are still within 
that timeframe.
    We are making good progress on the analysis. It is going to 
have to be cleared by the administration, and we do not control 
that timeframe. But, other than that, I think we will be within 
our 3 to 6 month estimate.
    Senator Domenici. Yes; Commissioner?
    Commissioner Martinez. Mr. Chairman, I am well aware of the 
controversy of this particular project. There were two 
proposals that really came out of this Romer-Schoettler 
process. I thought it was in the best interest to be prepared 
to answer specific questions on both proposals. That is why I 
undertook this study.
    I have reviewed a draft document, and I would expect that 
it would be released by Reclamation in the next few weeks for 
clearance by the administration. I would hope I would be 
prepared to respond to specific questions at a future hearing.
    Senator Domenici. When do you think that might be? In a 
month?
    Commissioner Martinez. The clearing of the report?
    Senator Domenici. When you think you would be in a position 
to tell us more.
    Commissioner Martinez. I will be in a position to move the 
document through the Bureau of Reclamation, hopefully in the 
next few weeks. As to when it will come out of the 
administration, I cannot say.
    Senator Domenici. What about your thoughts on whether this 
is going to cause undue delay? Is somebody really serious about 
this new scheme to pay them money to buy water rights? 
Obviously, the Indians want to store water rights. They don't 
want money. They want to be able to store them so they can use 
them for a very diverse set of potential uses.
    I understand the administration regularly says we are for 
Animas-La Plata and they send us up $3 million, $4 million, or 
$5 million in their budget. But then it seems like there is no 
end to the delays.
    Ms. Beneke. Well, it certainly was not our intention, in 
taking a look at these two proposals, to delay anything any 
further. We just want to be in a position to be as responsive 
as we can be to the inquiries regarding both.
    Senator Domenici. Where do these kind of proposals go after 
they leave you? From your shop, the Secretary level, do they go 
through some environmental review section within the 
administration beyond OMB? Where would it go?
    Ms. Beneke. The study--is that what you mean?
    Senator Domenici. Whatever. You are coming up with a final 
decision. To get there, after you all have looked at the 
modified plan, the so-called Animas-La Plata Lite, and the 
other study that you are looking at for payment in dollars to 
acquire water rights, when you have reached a conclusion as you 
have put that together, where does it go in the administration?
    Ms. Beneke. The Animas-La Plata Lite proposal would require 
legislation. Senator Campbell has introduced a bill that 
basically embodies the Animas-La Plata Lite proposal.
    The report that we are doing, because we are planning to 
provide it to the Congress, will need to be cleared through 
OMB. We are also doing our best to coordinate with EPA and with 
CEQ. EPA has voiced concerns in the past regarding our 
environmental documentation. We think it is good Government to 
try to coordinate with them as well.
    Senator Reid. Mr. Chairman, would you yield just for a 
brief second?
    Senator Domenici. Of course.
    Senator Reid. I would like to submit my questions and ask 
the Secretary and Commissioner Martinez if you would answer 
those not only for the record but send a copy to my office. I 
have to go up and vote on Superfund now, which is going to be 
reported out of committee.
    Senator Domenici. Do you have any to ask before you go?
    Senator Reid. No; this will be fine. I have had a meeting 
with the Secretary and I have some additional questions here.
    If you get back to me as soon as you can, that would be 
adequate.
    Thank you, Mr. Chairman.
    Senator Domenici. Thank you, Senator. Thank you for helping 
today.

                        animas-la plata project

    I guess what I am wondering about, Madam Secretary, is 
this. How long is it going to take for the administration to 
say what it is going to say in an official way about the 
Animas-La Plata Lite?
    Ms. Beneke. It is difficult for me to give you a specific 
timeframe. At the Interior Department, we are working as 
expeditiously as possible to complete this review. It would 
certainly be my hope that the review would make it possible for 
the administration to take a position on the pending 
legislation.
    Senator Domenici. I'll tell you, every year it is the same 
story. You send up a little bit of money and request further 
studies and further reviews. I personally would think, and as 
chairman of the subcommittee I think it would just be better to 
reach a point where we are just going to forthrightly say what 
do you recommend and go from there.
    I will communicate that further to whomever I must. But we 
are going to be called upon to appropriate a small amount of 
money. It could end up being a lot of money. I don't want to be 
just misled every year into putting something in with the 
administration pulling the plug in 18 months or 2 years when 
they finally give an opinion. I don't see why it should take 
more than a few months for the administration, with all its 
stopover points, to give Congress an answer.
    My hunch is there are many within the administration who 
don't want this project. Now that may be a normal process. 
That's fine. But we keep hearing from the Interior Department 
that the project is getting a go-ahead sign, that you all have 
been requesting money and it has been put in. I just think 
sooner or later we have to end this process. Either we are 
totally on our own up here or we have the administration 
suggesting some changes on which they would predicate they 
support a recommendation.
    You understand. You have been up here on this side with us. 
One reason we think you are doing so well is because you 
understand us. We do have some prerogatives. It is not all OMB. 
As Senator Byrd so aptly describes, that is what the 
Constitution says. You don't get any money without us. That is 
one interesting thing.
    So whatever you can do to convey that to the right people, 
we will convey it to OMB.
    Thank you very much.

              rio grande low-flow conveyance channel study

    Commissioner, the Rio Grande Low-Flow Conveyance Channel 
Study, the funding for the Rio Grande Conveyance Channel Study 
is requested at $25,000, compared to $265,000 in 1998. What 
does that mean?
    Commissioner Martinez. I cannot respond directly to you on 
that. I will look into it for the record.
    But my knowledge is that there is a holdup on the 
construction because of some consultation on endangered species 
issues. I will have to get back to you on that.
    Senator Domenici. OK. I need to know specifically, when you 
get back to us, if the $25,000 is sufficient to keep the study 
on schedule and to meet the commitments that are made in fiscal 
year 1999. Would you do that?
    Commissioner Martinez. This is not the model study for the 
assessment for the Rio Grande, but there is a Rio Grande 
Assessment Assistance model.
    Senator Domenici. We will work with you on being more 
specific. Please get that information to us.
    [The information follows:]

              Rio Grande Low-Flow Conveyance Channel Study

    The fiscal year 1998 enacted budget for the Rio Grande Low-Flow 
Conveyance Channel Study was $170,000, which, coupled with $95,000 from 
non-federal contributions equals the amount needed for fiscal year 1998 
of $265,000. Originally, the study was scheduled for completion in 
fiscal year 1998; however, completion of the study has been pushed into 
fiscal year 1999. The $25,000 requested for fiscal year 1999 is 
sufficient to complete the draft and final environmental impact 
statement and complete the study.

         el paso-las cruces regional sustainable water project

    Senator Domenici. There is an El Paso-Las Cruces Regional 
Sustainable Water project. Are you familiar with that, 
Commissioner?
    Commissioner Martinez. That's a study for the pipeline down 
in that part of the country. Yes.
    I believe our budget contains some money. They have an 
ability to spend another million dollars, and they have that 
capability. If the money is available, I think they would need 
it. They could use it.
    Senator Domenici. Maybe you can look at that more 
specifically. Our understanding is that the 1999 budget does 
not contain any follow-on funding for the project.

               california bay-delta ecosystem restoration

    I have one last question for you on the California Bay-
Delta Ecosystem Restoration, CALFED project. We provided $85 
million for the first year appropriation for that program. It 
is expected over time to cost quite a few billions of dollars. 
How much of the appropriation has been allocated to specific 
projects that have definite completion dates?
    Ms. Beneke. To the best of my knowledge, Senator, $23 
million was approved in February to specific projects. The 
program did a public solicitation for projects last summer. We 
had $470 million worth of projects proposed.
    There has been an extensive project selection process. It 
is outlined in my written statement. As a result of that 
process, $23 million worth of projects have been approved. 
Another package is pending approval at the Department. It is a 
package for both programs and specific projects which will 
allocate the balance of the $85 million. We expect that 
imminently.
    Senator Domenici. I have about five questions on CALFED and 
would ask you to respond to them.

                       southern new mexico study

    Commissioner Martinez. Mr. Chairman?
    Senator Domenici. Yes.
    Commissioner Martinez. With respect to the southern New 
Mexico study, our fiscal year 1999 budget does not contain any 
money. The fiscal year 1998 request was a $400,000 write-in. I 
believe the participants would be seeking a $400,000 write-in.
    Senator Domenici. I did not hear you. Tell me that again.
    Commissioner Martinez. The fiscal year 1999 budget does not 
contain a request for the southern New Mexico study. There was 
a write-in of $400,000 in 1998, and the project sponsors would 
appreciate $400,000 for 1999. They could use it.
    Senator Domenici. OK. But you don't have it in your budget.
    Commissioner Martinez. No.
    Senator Domenici. Thank you.

                     Additional committee questions

    We have a number of other questions regarding operation and 
maintenance costs and a series of other questions. We will 
submit them to you in the interest of time.
    You have been very patient, waiting around while the other 
witnesses were testifying. Maybe next time we will sequence you 
and tell you when you are coming on. One year we will put you 
on first. Maybe next year, whoever is second, we will tell them 
that the people don't have to be here for an hour or one-half 
hour after our starting time.
    Thank you so much.
    Ms. Beneke. Thank you.
    Commissioner Martinez. Thank you, Mr. Chairman.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Questions Submitted by Senator Domenici

                            animas-la plata
    Question. The Bureau of Reclamation has begun what they call a 
``reconnaissance level appraisal'' of both the proponent's downsized 
project and the opponent's proposal to provide the Tribes money to 
purchase water rights citing the direction of this Committee as the 
basis of undertaking this work. The Committee was very clear and 
specifically referred to a modified ``project'', not a scheme to pay 
the Tribes Federal dollars to buy water from their non-Indian 
neighbors. An important component to the Tribes is to have the ability 
to store their rightful water supplies.
    What is the status of the appraisal study? Has the study been 
completed and--do you have it with you today?
    Answer. The Bureau of Reclamation is in the process of completing 
the appraisal level study of two major alternatives that resulted from 
the process led by Governor Romer and Lieutenant Governor Schoettler 
and estimates that it will have its work completed within the three to 
six month time-frame as originally estimated. The study will also need 
Administration clearance prior to its release. No final conclusions 
have been reached at this time.
    Question. In light of the fact that legislation has now been 
introduced to move a modified project forward, one that the Tribes will 
accept as full settlement of their claims, what is the Administration's 
position on this modified project, and how do you intend to use the 
fiscal year 1999 budget request? Will the $3,000,000 be used for 
anything other than more studies?
    Answer. At this time it would be premature for the Administration 
to take a position regarding either alternative. However, under either 
alternative, fiscal year 1999 funds would be used for additional 
compliance activities and to address cost- share and repayment issues.
         el paso-las cruces regional sustainable water project
    Question. Last year $400,000 was provided for the Rio Grande 
Conveyance Canal Pipeline project. The name has been changed to the El 
Paso-Las Cruces Regional Sustainable Water project to better reflect 
the regional nature of the project. However, the Bureau's budget 
request for fiscal year 1999 does not contain any follow on funding for 
the project.
    Is there any reason, other than budget constraints, that shaped 
your decision not to request funding for the El Paso-Las Cruces project 
in fiscal year 1999?
    Answer. Yes. Funding this type of project would not be a high 
priority by the Administration who would oppose efforts to fund 
construction of a single-purpose, municipal and industrial water supply 
project of this kind through the Reclamation program.
    Question. What is the capability of the Bureau of Reclamation to 
continue this project in fiscal year 1999 and how will the funds be 
used?
    Answer. The Bureau of Reclamation has the capability to expend 
approximately $400,000. Funds would be used for scoping and agency 
coordination, natural and cultural resource surveys to include 
assessment of Endangered Species Act and cultural resource compliance; 
development and analysis of alternatives; and an Environmental Impact 
Statement.
    Question. As a general matter, setting aside budgetary issues, does 
the Administration support pursuing this type of project through the 
Bureau of Reclamation?
    Answer. If Congress again adds funds, we are prepared to continue 
to use our expertise to assist the local communities at this stage of 
the planning process. The Bureau has an interest in the project at this 
stage of the planning process because the water resources that are 
being studied are administered by the Bureau and the project would 
require substantial coordination and review by the Bureau and other 
Federal agencies. However, typically the Administration would oppose 
efforts to fund construction of a single-purpose, municipal and 
industrial water supply project of this kind through the Reclamation 
program.
                    operation and maintenance costs
    Question. Both the House and Senate Energy and Water Subcommittees 
address the issue of providing stakeholders an opportunity to 
participate in the review and development of operation and maintenance 
budgets for their respective projects. What steps has the Bureau of 
Reclamation taken to implement such a process?
    Answer. In the recent past, Reclamation has involved the various 
water and power contractors in varying degrees of user participation to 
discuss prospective budgets and costs, including major maintenance 
items such as capital replacements that impact these users. Feedback 
obtained from users at a recent Family Farm Alliance meeting in early 
March identified a detailed process that Reclamation is currently 
evaluating.
    Question. The Bureau has had six months to develop this process. 
Why is it taking so long to interact with stakeholders on the O&M 
program?
    Answer. Stakeholder participation in the development of our fiscal 
year 1999 and fiscal year 2000 budgets has taken place both formally 
and informally throughout Reclamation, but perhaps not to the degree 
and depth as requested by some users. Reclamation is currently 
exploring additional opportunities to allow stakeholder involvement in 
developing the fiscal year 2001 budget.
    Question. Do you plan any conversations with project beneficiaries 
concerning the fiscal year 1999 budget or development of the fiscal 
year 2000 budget request?
    Answer. Conversations with many project beneficiaries took place 
during formulation of the fiscal year 1999 and fiscal year 2000 
budgets. Reclamation is exploring additional opportunities to allow 
more involvement by project beneficiaries in developing the fiscal year 
2001 budget.
    Question. Given that construction activity is winding down and that 
Reclamation soon will no longer be a construction agency, will not the 
direct collection of operation and maintenance costs for most of the 
contracting and contract management activities currently conducted by 
the Bureau of Reclamation essentially remove Reclamation from the 
budget process?
    Answer. No. Reclamation still operates and maintains multipurpose 
projects that affect the national interest. In addition, on many 
projects there are nonreimbursable activities such as flood control, 
fish and wildlife, recreation activities, land management, and water 
quality that continue to be funded by Reclamation. The transfer of O&M 
responsibility to our users/contractors, or transfer of title to some 
facilities where feasible, has allowed Reclamation to meet its 
maintenance funding requirements without having to seek significant 
increases in appropriated funds.
    Question. Since most of these projects, if not all of them that 
will remain and not be handed over to project beneficiaries have 
associated hydropower generation as part of their benefits and 
repayment scheme, wouldn't contract administration be just as 
efficiently managed if moved to the relevant power marketing 
administration?
    Answer. If power production were the primary purpose of 
Reclamation's multi-purpose projects, then this approach might work. 
Since the primary purpose of these projects is typically the use of 
water for multiple purposes, it would not be appropriate to transfer 
project administration to the power marketing administrations.
               california bay-delta ecosystem restoration
    Question. Congress provided a first year appropriation of 
$85,000,000, for the California Bay-Delta Ecosystem Restoration 
(CALFED) program which is expected to cost several billion of dollars 
over many years.
    Of the $85,000,000 appropriated for the current year, how much has 
actually been or will be spent by the end of fiscal year 1998?
    Answer. The full $85 million will be allocated to specific projects 
or programs by the end of April 1998. Because much of this funding will 
be used for projects of more than 12 months duration, Reclamation 
estimates that $50 million or more will be obligated by the end of 
fiscal year 1998 of which approximately $25 million will actually be 
expended by September 30, 1998. This represents a first year ``spend 
out rate'' of about 30 percent, or slightly less than the 35 percent 
assumed in the fiscal year 1998 budget request.
    Question. How much of the appropriation has been allocated to a 
specific project that have initiation and completion dates? What is the 
average cost and duration of the projects which have been committed to?
    Answer. On February 13, 1998, the first package of Bay-Delta 
Ecosystem Restoration projects totaling $23 million was approved by the 
Department. A second package totaling $62 million is working its way 
through the Department for approval. Roughly $35 million of this amount 
are programs. With approval of the second package, the total $85 
million will have been allocated to projects or programs. Of the $85 
million allocation to projects and programs, approximately $32 million 
will be allocated for 21 specific projects that have initiation and 
completion dates. The range of project costs runs from $15,000 for a 
small fish screen for the Boeger Family Farm to $10.6 million for land 
acquisition and riparian restoration in the San Joaquin Floodplain. 
With respect to the $35 million allocated to programs, CALFED plans 
another solicitation for specific projects by program categories which 
identify additional high priority specific projects. The duration of 
these projects varies from 6 months to 3 years.
    Question. How much of the $85,000,000 will remain uncommitted to 
individual, specific projects at the end of fiscal year 1998. Is it 
realistic to believe that the entire appropriation for CALFED be 
identified by specific project? Please explain.
    Answer. As mentioned in response to the question above, the full 
$85,000,000 will be allocated or committed to specific projects or 
programs shortly. It is neither realistic nor possible to identify 
specific projects for fiscal year 1999 in advance of the time that 
Congress appropriates the funds. It is also likely that some portion of 
the funds allocated to one or more programs may not have been 
identified with specific projects by the end of fiscal year 1998.
    Question. What is the current status of the draft programmatic 
environmental impact statement which, I believe, was to be published in 
draft form in February or March?
    Answer. The release date for the draft Environmental Impact 
Statement/Environmental Impact Report was March 16, 1998. The public 
comment period ends June 1, 1998.
    Question. What is the importance of the programmatic EIS to 
proceeding with additional requests for proposals for additional work 
under CALFED?
    Answer. The Environmental Impact Statement will not affect work 
proposed for fiscal year 1999 under the Bay-Delta Ecosystem Restoration 
Appropriation. Restoration work performed prior to the selection of the 
preferred alternative is not dependent upon the outcome of the EIS. 
Because ecosystem restoration is a common element in all of the 
alternatives in the draft EIS, the activities being undertaken are 
early implementation activities that comport with the regulation of the 
Council on Environmental Quality.
    Question. What is the schedule for completing and releasing the 
final programmatic EIS?
    Answer. The final programmatic EIS/EIR is scheduled to be released 
to the public in December 1998, assuming the comment period for the 
draft is not extended beyond the June 1 deadline.
    Question. How much of the $143,000,000 in new appropriation 
requested for fiscal year 1999 is identified by specific project? When 
will the Department be able to tell the Committee how additional 
appropriations will be allocated by project?
    Answer. Due to the open and public process CALFED is committed to 
providing, funding for specific projects will not be identified until 
an October 1998 through February 1999 time frame. CALFED expects to 
issue a public solicitation for proposal projects which would be funded 
with fiscal year 1999 monies. The budget justification document sets 
forth the categories of projects that will be funded with the fiscal 
year 1999 appropriation request.
    Question. What major milestones or critical dates are scheduled for 
the remainder of fiscal year 1998 and in fiscal year 1999?
    Answer. The following time line is provided for the record:
                    restoration coordination program
    April 1998--Approval of allocation of remaining $62 million to 
projects and programs for fiscal year 1998.
    May 1998--Public proposal solicitation for programs identified by 
the CALFED process for funding in fiscal year 1998. (Roughly $35 
million of the $62 million proposed in the second funding package to 
the Secretary in March 1998 are programs that will require a public 
solicitation process.)
    Spring 1998--Revise and update ecosystem priorities for fiscal year 
1999 funding.
    Summer 1998--Technical workshops for fiscal year 1999 actions.
    September 1998--Final selection of projects for fiscal year 1998 
funding.
    Late Summer through December 1998--Select actions for fiscal year 
1999 funding.
                          programmatic eis/eir
    June 1, 1998--Comment period closes.
    December 1, 1998--Final EIS/EIR released to the public.
    December 31, 1998--Record of Decision.
    (Last two dates assume the comment period is not extended).
    Question. Congress required a quarterly report on how the funds 
appropriated under the CALFED program are being utilized. What is the 
status of this quarterly report? Why has it taken so long to get the 
first report to the Congress?
    Answer. The first quarterly report was delivered on March 24, 1998. 
Since it was the first report for the Bay-Delta Ecosystem Restoration 
Appropriation, we wanted to make sure that we included all the 
appropriate information. Now that we have a product we feel accurately 
describes quarterly results, future reports should be more timely.
    Question. Congress has also required the Department to develop 
performance measures or indicators to determine whether the restoration 
measures are achieving their purpose over time. What progress is being 
made in developing these measures? When will this effort be completed?
    Answer. Performance assessment for the ecosystem restoration 
program consists of two major parts: overall assessment of ecosystem 
response--or landscape-level assessment--and project level assessment.
    CALFED requires project-specific performance standards for 
monitoring and assessing the biological benefits of the individual 
projects as part of standard contract conditions. These project-
specific performance standards will be adopted as each contract is 
finalized. Information from project-specific monitoring will be used in 
the adaptive management process to evaluate the benefits of certain 
actions. Project-specific standards will be required for all of the 
major ecosystem restoration investment categories.
    The overall, landscape-level assessment is, by its nature, a long-
term commitment to monitoring and to evaluating trends and broad 
conditions. We do not have well defined performance measures relative 
to landscape level assessment at this time, but CALFED agencies working 
through the Interagency Ecological Program and stakeholder groups are 
developing a comprehensive monitoring and assessment program that will 
include long-term performance measures.
    Question. What measures or procedures have been put in place to 
ensure that funding is spent primarily for on ground activities? What 
assurances can you give the Committee that other agencies 
administrative costs are not being provided through CALFED 
appropriations?
    Answer. All requests for funding are reviewed closely through the 
CALFED process of technical panels, the Ecosystem Roundtable and then 
referred to the CALFED Policy Team for final recommendation. Funding 
must be requested and approved through this process and must meet the 
priorities identified by the technical panels. The only administrative 
costs associated with individual proposals are those required to 
perform the work, such as project management.
                central valley project restoration fund
    Question. The Central Valley Project Restoration Fund was 
established to provide funding for habitat restoration, improvement, 
and acquisition and other fish and wildlife restoration in the Central 
Valley Project area in California. Many of the activities proposed for 
funding through the Central Valley Project Restoration Fund are the 
same as projects to be accomplished through CALFED and visa versa.
    How do you differentiate between activities to be conducted under 
the Restoration Fund and those to be conducted under CALFED?
    Answer. First, Public Law 104-333, Section 1101(b) states that 
``funds authorized to be appropriated in the CALFED Bay-Delta Program 
shall be in addition to the baseline funding levels established for 
currently authorized projects and programs under the Central Valley 
Project Improvement Act.'' As required by Section 1101(e), a baseline 
funding report was submitted last year to the Committees on 
Appropriations, which shows funding provided previously or requested 
under pre-existing authorities, including CVPIA.
    Secondly, the projects and programs to be implemented under Central 
Valley Project Improvement Act (CVPIA) encompass the entire Central 
Valley, and, with exceptions, are related to CVP facilities and 
operations. For example, section 3406(b)(4) provides authorization to 
develop and implement a program to mitigate for fishery impacts 
associated with operations of the Tracy Pumping Plant, and section 
3406(b)(5) to develop and implement a program to mitigate for fishery 
impacts resulting from operations of the Contra Costa Canal Pumping 
Plant. The Bay-Delta Ecosystem Restoration Program, on the other hand, 
focuses on environmental protections and improvements in the San 
Francisco Bay-Delta estuary and other portions of the ``solution 
area.'' For coordination purposes, CVPIA workplans are provided to the 
CALFED Integration Panel in order to insure a comprehensive 
perspective.
    Question. The fiscal year 1999 budget proposes an appropriation of 
$49,447,000 out of the Fund compared to a $32,775,000 program for 
fiscal year 1998. What are the sources of receipts into the Fund 
annually?
    Answer. The majority of the receipts projected to be collected in 
fiscal year 1999, $40,981,000, consists of discretionary payments 
authorized by Section 3407(d) commonly known as ``Additional Mitigation 
and Restoration Payments.'' These receipts are expected to be collected 
from Central Valley Project water and power users through water and 
power rates. The remaining estimated collections consist of revenues 
received from Friant Surcharges, ($7,026,000); water transfer charges, 
($140,000); tiered water charges, ($300,000); and Municipal and 
Industrial water surcharges, ($1,000,000).
    Question. Mitigation Restoration Payments are expected to increase 
from $25,649,000 in fiscal year 1998 to $40,981,000 in fiscal year 
1999. Where do these payments come from and how realistic is it that 
the $40,981,000 will be available?
    Answer. In fiscal year 1998, Additional Mitigation and Restoration 
Payments were reduced in accordance with the fiscal year 1998 Energy 
and Water Development Appropriations Act. The impact of the reduction 
in payments was a reduction in collections from the power customers, 
with no impact to water users. The fiscal year 1999 budget requests the 
full amount available under the authority in the CVPIA. Scheduled 
collections are expected to be as follows: $24,586,000 from irrigation 
and municipal and industrial water users; and, $16,395,000 from power 
customers. It is realistic that these payments can be collected within 
fiscal year 1999.
    Question. There is some controversy regarding Congressional action 
in fiscal year 1998 reducing the appropriation from the Fund. What 
would be the best approach if Congress wanted to limit or reduce the 
program again in fiscal year 1999?
    Answer. We would urge the Congress to accept the Administration's 
proposal to collect the full amount allowed under the CVPIA. The 
premise of establishment of the CVP Restoration Fund was to provide 
funding from water and power project beneficiaries to accomplish CVPIA 
objectives. If Congress chooses to reduce or limit the CVP Restoration 
Fund collections in fiscal year 1999, it would be appropriate to 
indicate that the reduction is limited to that specific year, and not 
intended to affect future year collections through the action of the 
three-year rolling average computation required by the CVPIA.
    Question. Provide for the record a detailed breakout of all Central 
Valley restoration, improvement enhancement work for 1997, 1998 and 
that proposed for fiscal year 1999 by the Bureau of Reclamation. Show 
the source of the funding whether from Water and Related Resources, the 
Restoration or CALFED, etc.
    Answer. The table provided lists all Central Valley restoration 
work for fiscal year 1997 through fiscal year 1999 in terms of thirteen 
categories. Bay/Delta funds were initially appropriated in fiscal year 
1998. The fiscal year 1998 CVP Restoration Fund Program includes $7.5 
million of carryover funds from fiscal year 1997.

               CENTRAL VALLEY PROJECT IMPROVEMENT ACT AND BAY-DELTA ACT CENTRAL VALLEY HABITAT MITIGATION, IMPROVEMENTS, AND ENHANCEMENTS
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                               Actual fiscal year 1997              Planned fiscal year 1998              Proposed fiscal year 1999
                                        ----------------------------------------------------------------------------------------------------------------
                Category                  Water and                            Water and                             Water and
                                           related   Restoration   Bay-Delta    related   Restoration   Bay-Delta     related   Restoration   Bay-Delta
                                          resources      fund        funds     resources      fund        funds      resources      fund        funds
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fish Screen Improvements...............       6.021        6.859  ..........       8.750        2.000        2.539       9.400        7.850       19.000
Fish Passage Improvements..............       2.817        0.719  ..........       3.260        0.090        8.325       2.216  ...........        3.000
Habitat Restoration in Floodplains &
 Marshes...............................  ..........       13.963  ..........  ..........        6.237       27.342  ..........        7.133       27.000
River Channel Changes..................  ..........        0.778  ..........  ..........        0.050        9.624  ..........  ...........        58.00
Improved Instream Flows................       2.739       12.098  ..........       4.055        6.016       20.000       2.800       14.564       20.000
Water Quality and Temp Improvements....       0.365        7.041  ..........       2.750        0.070        5.003       0.200  ...........        2.000
Introduced and Undesirable Species
 Control...............................  ..........  ...........  ..........  ..........  ...........        1.250  ..........  ...........        3.000
Watershed Management...................  ..........        1.673  ..........  ..........        0.790        2.253  ..........        1.200        3.000
Improved Fish Management & Hatchery Ops  ..........        2.069  ..........       2.150        3.623        0.625       1.500        1.000        3.000
Refuge Water Acquisition & Wheeling....       1.127       10.764  ..........       5.853        8.479  ...........       5.400       10.000
Land Retirement........................       1.383        1.824  ..........       1.000       10.000  ...........       4.000        4.000  ...........
Monitoring, Permit Coordination & other
 Support...............................       0.002        4.300  ..........  ..........        3.295        3.570  ..........        3.700        5.000
Program Dev, Coordination, &
 Miscellaneous.........................  ..........  ...........  ..........  ..........  ...........        4.469  ..........  ...........        0.300
                                        ----------------------------------------------------------------------------------------------------------------
      Total............................      14.454       62.088  ..........      27.818       40.650      85.0002      25.516       49.447      143.300
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. How much additional funding is provided for these types 
of activities through other Federal, State or other agencies or groups? 
Provide a table for the record which shows the funding level for 1997 
and the work proposed for 1998 and 1999.
    Answer. The following table displays additional funding for 
activities that are direct-funded by other agencies or groups under 
CVPIA and Bay-Delta Ecosystem Restoration Act.

  ADDITIONAL FUNDING FOR ACTIVITIES DIRECTLY PROGRAMMED UNDER CVPIA AND
       BAY-DELTA ECOSYSTEM RESTORATION ACTS--FISCAL YEAR 1997-1999
                        [In millions of dollars]
------------------------------------------------------------------------
                                                   Fiscal year
                                        --------------------------------
                                            1997       1998       1999
                                           actual   estimated  estimated
------------------------------------------------------------------------
Reclamation:
    Water and related resources........     14.454     27.818     25.516
    Restoration fund...................     62.088     40.650     49.447
    Bay-Delta..........................  .........     85.000    143.300
                                        --------------------------------
      Reclamation total................     76.542    153.468    218.263
                                        ================================
Other:
    EPA Bay-Delta watershed............      1.000      1.000
    Prop 204--Cat III..................  .........     60.000  .........
    Prop 204--Ecosystem restoration....  .........  .........    ( \1\ )
    Prop 204--CVPIA....................  .........     31.161     25.000
    California urban water agencies....     10.000     10.000  .........
    Misc.--Including local and water
     districts.........................     13.312     50.793     40.309
                                        --------------------------------
      Other total......................     14.312    152.954     65.309
                                        ================================
      Total of all funds...............    100.854    306.422    ( \1\ )
------------------------------------------------------------------------
\1\ On December 1, 1998, the Final Environmental Impact Statement/
  Environmental Impact Report is scheduled to be released. At that time,
  an additional $390 million will be available for implementation of
  ecosystem restoration projects. Therefore, we cannot estimate total
  funds for fiscal year 1999.

                deschutes ecosystem restoration project
    Question. Describe the Deschutes Ecosystem Restoration project 
which is a new project proposed to be initiated in the fiscal year 1999 
budget request.
    Answer. This project was authorized by Public Law 104-333, Omnibus 
Parks and Public Lands Management Act of 1996, Title X, Subtitle C, 
Section 1025, Deschutes Basin Ecosystem Restoration Projects, and 
Public Law 104-208, Title III, Deschutes Basin Act of 1996. The purpose 
is to restore and protect the natural and biological resources of the 
Deschutes and Crooked River basins and to avoid future resource 
conflicts. The program will focus initially on water quality and 
quantity through conservation. The Deschutes Basin Resources 
Conservancy, formerly known as the Working Group, which is a not-for-
profit corporation in the State of Oregon, has been established to 
propose projects and obtain non-Federal cost-share funds. The 
Conservancy will include federally appointed members from the 
Departments of the Interior and Agriculture as well as members from the 
private sector (representing agriculture, environmentalists, as well as 
others), tribes, and state and local governments. The private sector 
members represent the agriculture, environmental, hydroelectric, 
grazing, timber, land development and recreation/tourism interests. The 
Restoration Project resulted from a locally-driven initiative that was 
not undertaken to recover an ecosystem, but rather to restore (where 
needed) and to protect an ecosystem that, while facing threats from 
rapid growth, was still in fairly good health.
    Fiscal year 1999 funds will support actual restoration projects. 
The Conservancy's Board of Directors has directed that funds go to on-
the-ground actions. The overhead limits of five percent in the Federal 
authorization reflect this desire. We expect the cost-share will be a 
maximum rate of 50 percent Federal funding.
    The Conservancy has identified potential projects totaling $5.6 
million through its initial solicitation. The Conservancy is working to 
have projects approved and ready for fiscal year 1999 Federal funding 
by the end of September 1998. It has already approved, pending 
appropriation of funds, a riparian fencing project that will require 
about $76,000 of Federal funds. Other potential projects include the 
purchase of water rights on a willing seller basis, fish passage and 
protection at irrigation diversions and hydroelectric facilities, 
irrigation water conservation, riparian restoration, and a conservation 
easement program.
    Question. What is this restoration effort expected to cost, when is 
it expected to be completed and what are the major milestones?
    Answer. The authorizing legislation for this project specifies that 
Congress may appropriate up to $5 million for Federal cost-share at the 
rate of $1 million per year for five years beginning in fiscal year 
1997. Because the project was not authorized until fiscal year 1997 and 
the fiscal year 1998 budget request had already been formulated, fiscal 
year 1999 was the first year Reclamation could request appropriations 
through its normal budgeting process. Conclusion of Federal funding 
assistance in fiscal year 2001 pursuant to the existing authorization 
will limit Federal funding to not more than $3 million. The Conservancy 
expects watershed restoration actions to continue well beyond 2001 
using private, state, and other funds. Reclamation will, however, 
continue to be involved in the Working Group process beyond fiscal year 
2001 even though directly appropriated Federal funding will no longer 
be provided for selected restoration projects.
    Reclamation intends to review project proposals carefully to ensure 
that proposed restoration projects have technical merit and fulfill the 
intent of the law. The first group of projects will be approved in 
September of 1998 for funding in fiscal year 1999. Thereafter, a 
solicitation for additional project activities will be issued annually 
for approval and funding to be provided in the next fiscal year.
    Question. How will the costs be shared between the Federal 
government, and State and local interests?
    Answer. The authorizing legislation requires at least 50 percent 
non-Federal funds. Cost-share funds will be contributed by the State of 
Oregon, irrigation districts, not-for-profit organizations, local 
governments, and private businesses. Cost-share will be provided by the 
project sponsor, through other funds raised by the Conservancy, by 
interested state or local governments, or through a combination of 
sources. The authorizing law allows for recognition of in-kind services 
for cost-share, and Reclamation is developing a procedure with the 
Conservancy for valuing cost-share either on a project-by-project basis 
or on a programmatic basis.
  pacific northwest endangered species recovery implementation project
    Question. Why is this program increasing from $935,000 in fiscal 
year 1998 to $1,830,000 in fiscal year 1999? What new activities are 
planned for fiscal year 1999?
    Answer. The program increase of $895,000 is largely to fund the 
construction of the Phoenix Canal Diversion fish ladder and to complete 
construction of Oak Street Diversion fish ladder and Phoenix Canal 
Diversion fish screen, which are in the Rogue River basin. In addition, 
contracts for construction of fish screens on the Baker and Deschutes 
Projects will be awarded and additional preliminary design and 
investigation work on additional sites on other Central Oregon projects 
will continue. These activities are needed to protect and conserve 
endangered and threatened species. Funding also has been requested to 
allow Area Offices to participate in strategic partnerships and 
cooperative efforts to proactively monitor and evaluate the status of 
certain candidate species that may be impacted by Reclamation's 
projects. These funds will provide for general coordination and 
consultation with other Federal, state, tribal, and local governments 
and agencies and to develop basinwide recovery plans. Currently there 
are more than 30 species listed in the Pacific Northwest. To the extent 
that Reclamation and others can work to protect candidate species and 
their habitats, the potential for formal Endangered Species Act 
listings will be diminished.
    Question. What portion of the $1,830,000 request is for promotion 
of watershed and ecosystem recovery measures?
    Answer. Approximately $300,000 has been included to allow 
Reclamation to participate in partnerships and cooperative efforts with 
other agencies. In addition, this funding will allow further monitoring 
and studies on candidate species to help preclude listings that could 
further impact Reclamation's projects.
        state water management and technical assistance programs
    Question. Many of the individual state water management and 
technical assistance programs have significant increases in the fiscal 
year 1999 request compared to the fiscal year 1998 level. Generally, 
what accounts for this increase over the fiscal year 1998 level?
    Answer. Fiscal year 1998 studies and activities devoted to general 
investigation-type work totaled $15.6 million which includes 
feasibility studies. In fiscal year 1999, the 23 Geographically Defined 
Programs, which do not include feasibility studies, and the separate 
line item General Planning Activities total $14.6 million. The fiscal 
year 1998 continuing program and some new planning activities and 
studies for fiscal year 1999 have been included in a geographic area. 
These boundaries of the Geographically Defined Program are based on 
states, counties, Native American reservations, tribes, ecosystems or 
river basins. The intent is that most areas within the 17 Western 
States are included in a Geographically Defined Program area.
    At first glance this combination of all investigation related work, 
within a geographical area rather than by line item, may give the 
appearance of explosive growth. But in actuality, looking at the 
program as a whole, this is not the case.
    Question. For example, the California program increases from 
$594,000 in fiscal year 1998 to $1,863,000 in fiscal year 1999, and the 
Oregon program goes from $603,000 to $910,000 in fiscal year 1999. What 
specifically accounts for these increases?
    Answer. The increase for the California Water Management and 
Technical Assistance Program reflects the initiation of several data 
gathering efforts and studies essential to addressing California water 
and related resource problems. These include Nutrient Management Study 
of the Lower Stanislaus River $100,000, San Joaquin River Basin Salt 
Management Study $85,000, Land Subsidence Appraisal Study $125,000, 
Selenium Drainage Management Appraisal Study $143,000, North Coast 
Salmon Water Management and Reuse Study $100,000, Noyo Harbor 
Comprehensive Water Management Study $100,000, Conjunctive Use Program 
$100,000, and the Sacramento Valley Water Quality Management Study 
$100,000. Most of these studies are cost-shared with the California 
Department of Water Resources.
    The Oregon Water Management and Technical Assistance Program will 
fund Reclamation's participation in a proactive effort among all State 
and Federal agencies in Oregon's Coastal Salmon Restoration Initiative 
designed to focus and coordinate activities for the purpose of 
threatened and endangered coastal salmon species. In addition, the 
increase will provide funds to the State for watershed council 
coordinators and provide technical assistance to watershed councils. 
Assistance will include design, watershed assessments, water 
conservation, monitoring, and modeling. Needs will be determined by the 
watershed councils, in consultation with Reclamation, to ensure the 
requested technical assistance supports Reclamation's priorities.
               cvp--folsom dam temperature control device
    Question. What are the problems driving the need to construct a 
temperature control device at Folsom Dam in California?
    Answer. Folsom Dam regulates the flows of the American River for 
flood control, water supply, power generation, and fish and wildlife 
benefits. Normal releases are through three penstocks and an 84-inch 
municipal and industrial water supply intake. The three penstock 
intakes are equipped with temperature control shutters to conserve cold 
water in the reservoir. This cold water is later released to enhance 
the temperature conditions for the anadromous fish, such as salmon and 
steelhead, downstream of the dam. Steelhead in the American River were 
listed as threatened pursuant to the Federal Endangered Species Act on 
March 13, 1998. However, the M&I intake is located deep within the 
reservoir's cold water pool, has no temperature control device, and 
diverts significant amounts of cold water throughout the year. 
Diversion of this cold water without a temperature control device could 
adversely affect the threatened steelhead by reducing the amount of 
cold water available to enhance the downstream temperatures.
    Question. What is the total estimated cost for this work and what 
is the basis of the estimate?
    Answer. The total estimated cost for this work is $4.4 million 
based on a design that is 95 percent complete. This is an increase of 
$623,000 over the total cost shown in the Bureau's fiscal year 1999 
Budget Justifications due to refined estimates reflecting the nearly-
completed design.
    Question. When is the work scheduled to start and be completed, and 
what are the major milestones for the project?
    Answer. The design and specifications for the temperature control 
device are scheduled to be completed in June 1998 and a construction 
contract could be awarded by early fiscal year 1999, pending 
Congressional authorization. The major milestones are: Contract Award--
January 31, 1999; Complete Construction--December 31, 1999.
    Question. Now, a similar project to construct a temperature control 
device at Shasta Dam experienced significant cost increases and 
extended delays due to changes in approach and scope. How certain is 
the Bureau of Reclamation in the costs and schedules supporting the 
funding request for Folsom Dam for fiscal year 1999, and that there 
will not be increases in costs and schedule delays similar to Shasta 
Dam?
    Answer. The temperature control device on Shasta Dam was a much 
larger, more complex, and more expensive structure than the one for the 
water supply intake at Folsom Dam. By comparison, the fabrication and 
installation of the Folsom Dam temperature control device is fairly 
straightforward, and even if there were some delays, they should be in 
terms of days or weeks rather than months, and the cost overruns would 
be proportionally smaller, as well.
         california central valley project cvp--delta division
    Question. Why does the request for the Suisun Marsh increase by 
more than three times from $500,000 in fiscal year 1998 to $1,909,000 
in fiscal year 1999?
    Answer. In the fiscal year 1998 Budget Justifications, the Delta 
Division carried a line item for Suisun Marsh Preservation which 
included what was the ``historical construction'' type of activities. 
Also in fiscal year 1998, the Miscellaneous Project Programs carried a 
separate line item for Suisun Marsh Preservation which included what 
was the ``historical operation and maintenance'' type of activities. 
The total fiscal year 1998 request for the two Suisun Marsh 
Preservation line items was $1,557,000. The Bureau decided that this 
activity should be presented in its entirety within one project. 
Therefore, fiscal year 1999 is the first year of displaying this 
activity as one line item within the Delta Division.
    In order to meet water quality standards, an increase of funds is 
required for the next five years, beginning in fiscal year 1999, for 
management actions. As a result there is an increase of $352,000 in 
fiscal year 1999.
    Question. Also explain the increase in the Administration and 
Compliance request for fiscal year 1999.
    Answer. The increase in Administration and Compliance for the CVP, 
Delta Division was $1,048,000, up from $801,000 in the fiscal year 1998 
Budget Justifications to $1,849,000 in fiscal year 1999. This is 
primarily due to a few new line items for water contracting and Delta-
Mendota subsidence and groundwater monitoring; increases in water 
service contract renewals, water conservation, water quality marketing, 
and Delta water quality monitoring; but partially offset by decreases 
in the administration of water marketing and resource management.
    Question. Reclamation plans to initiate implementation of the 
Conservation Plan in fiscal year 1999. Explain the scope and costs 
associated with this Plan.
    Answer. The primary goal of the Conservation Program, developed and 
managed by Reclamation and the Fish and Wildlife Service, is to meet 
the needs, including habitat, of special-status species in the area 
affected by the Central Valley Project. The Delta Division addresses 
only that portion of the Program which resides within the Delta 
Division boundaries. The special-status species' needs which will be 
addressed by the Conservation Program which consists of primarily 
Federally-listed species. In addition, the program will benefit species 
that are candidates or are proposed species for Federal listing, as 
well as other species of concern that have high-priority biological 
needs. Proposed funding for the Program, for all of the Central Valley 
Project, is approximately $2.4 million per year for the first half of 
the projected 10-year period and decreasing amounts for the last five 
years, after the species' initial needs have been met.
    Question. How long will it take to implement this Plan?
    Answer. Implementation of this Plan is projected for a 10-year 
period.
    Question. Why isn't this effort funded through the California Bay-
Delta program?
    Answer. The primary focus for this Program is upland terrestrial 
species and habitats, which are not being addressed by the CALFED 
Program. Additionally, the Program is targeting federally-listed and 
other special-status species throughout the area affected by the 
Central Valley Project, which is not the goal of CALFED. There may be 
some species and habitats of common interest to the Conservation 
Program and CALFED. Currently, there is close coordination and 
cooperation between the two Programs to prevent duplication of effort.
                  cvp--miscellaneous project programs
    Question. The budget request for fiscal year 1999 includes 
$3,500,000 under Miscellaneous Project Programs to ``continue 
construction of refuge water supply conveyance systems'', yet fiscal 
year 1998 justification material does not reflect a similar item. 
Explain this apparent discrepancy.
    Answer. The fiscal year 1998 justification material contained a 
request of $8,553,000 for the Refuge Water Supply program. Because this 
amount included $4 million from the Central Valley Project Restoration 
Fund, the narrative for this work was included in the section for the 
Central Valley Project Restoration Fund. The remaining $4,553,000 was 
part of the $7,553,000 total shown on page 93 of the fiscal year 1998 
Budget Justifications. In fiscal year 1999, no Central Valley Project 
Restoration Funds are allocated to the Refuge Water Supply program and 
the narrative is, therefore, included only in Water and Related 
Resources.
    Question. How was this work started and where did the funds to 
start the work come from?
    Answer. The Refuge Water Supply program was authorized by the 
Central Valley Project Improvement Act, Section 3406(d), Central Valley 
Refuges and Wildlife Habitat Areas. Work began in fiscal year 1994 with 
funding from the Central Valley Project Restoration Fund.
    Question. What is the total estimated cost of the work?
    Answer. The total estimated cost is $48,221,000.
    Question. Why is it not appropriate to fund this activity in the 
CALFED program or through the Central Valley Project Restoration Fund?
    Answer. The Refuge Water Supply program is specifically mandated by 
the CVPIA, and is funded through the Central Valley Project Restoration 
Fund and the Water and Related Resources appropriations. The focus of 
this program is on refuges in the Sacramento and San Joaquin Valleys 
and is directed at construction of conveyance facilities to meet refuge 
water supply requirements of the CVPIA. CALFED activity is authorized 
to receive Federal funding only for restoring the ecosystem in the 
Delta, and has no mandate to improve or enhance State and Federal 
refuges located elsewhere within California.
    Question. What accounts for the Administrative and Compliance item 
increasing from $1,992,000 in fiscal year 1998 to $5,872,000 in fiscal 
year 1999?
    Answer. The primary changes in the Administrative and Compliance 
items reflect changes in what work functions were included in fiscal 
year 1998 versus fiscal year 1999. Fiscal year 1998 was Reclamation's 
first year of presenting the Budget Justifications under the new 
Programmatic Budget Structure, and in fiscal year 1999 some items are 
being presented differently as we refine the definitions for 
consistency. The programmatic activity Water and Energy Development for 
fiscal year 1998 totaled $5,280,000, which compares favorably to the 
fiscal year 1999 request of $5,872,000.
    The difference in the Administrative and Compliance subtotals 
reflects the exclusion in the fiscal year 1998 Budget Justifications of 
Water Conservation ($2,250,000), Modeling ($500,000), Monitoring 
($338,000) and the California Water Augmentation Program ($200,000), 
which if included as they were in fiscal year 1999, would bring the 
total Compliance and Administration to $5,280,000.
                     cvp--sacramento river division
    Question. Explain why the budget justification for fiscal year 1999 
shows an allocation of $9,690,241 for Fish and Wildlife Management and 
Development for fiscal year 1998, which the fiscal year 1998 budget 
justification only requested $6,860,000. Explain the reason for this 
change and where the additional funding came from.
    Answer. The increase above the fiscal year 1998 request for 
Sacramento River Division's Fish and Wildlife Management and 
Development activity is the result of including $1,830,241 in fiscal 
year 1997 carryover and $1,000,000 in funding added by Congress. On 
page 113 of the fiscal year 1999 Budget Justifications, the carryover 
is subtracted from the this total, before calculating the ``Total 
Reclamation Allotment.'' The funding added by Congress included 
$750,000 for the Colusa Basin Drainage District's Integrated Watershed 
Management Plan, and $250,000 for the Winter-Run Chinook Salmon Captive 
Broodstock Program.
    Question. Describe the fish passage problems at Butte Creek and 
what work is proposed to correct the problem.
    Answer. The principal fish passage problems on Butte Creek are 
marginal to inadequate ladders, unscreened diversions, and inadequate 
flows. The relative importance of these problems varies among stream 
segments. Improvements have been completed at Durham Mutual and 
Parrott-Phelan dams and Western Canal siphon. Other work proposed 
includes the removal of two dams immediately downstream of the siphon 
and the installation of new ladders on the stream immediately upstream 
of the siphon; the Adams Dam fish screen and ladder; and the Gorrill 
Dam fish screen and ladder. In addition, programs are also underway to 
identify problems and restoration opportunities in the lower reach of 
Butte Creek and to explore the potential for establishing fish passage 
into uppermost Butte Creek.
    Question. What is the estimated cost of the work and when will it 
be completed?
    Answer. The total cost of improvements for Butte Creek as a whole 
is yet to be determined and is therefore speculative. The original 
estimate of $14.5 million is still plausible and may be funded by 
several private, state and Federal sources. Funding is contingent upon 
determination of eligibility under the CALFED processes. A completion 
date depends upon funding as determined in the CALFED process, but once 
funded, should be complete within 2-3 years.
    Question. Why is the work being accomplished through Reclamation's 
Sacramento River Division and not through the CALFED program?
    Answer. In the future, work on Butte Creek may indeed be eligible 
to compete for funding through the CALFED process. Funds requested for 
fiscal year 1999 would be used to facilitate the early development of 
plans for such work, regardless of how the implementation of these 
plans ultimately will be funded.
                    cvp--san joaquin river division
    Question. Explain why Water Acquisition and Land Retirement funding 
is requested both through the general Reclamation request and through 
the Central Valley Restoration Fund.
    Answer. The overall intent of the Central Valley Project 
Improvement Act is to protect, restore, and enhance fish, wildlife, and 
associated habitats in the Central Valley and Trinity River basins of 
California. CVPIA is implemented through the use of Water and Related 
Resources appropriations, State of California contributions and/or in-
kind services, and Restoration Fund receipts from the water and power 
users of the Central Valley Project. All CVPIA activities, including 
water acquisition and land retirement, compete for the limited Water 
and Related Resource funds with all other Reclamation activities each 
fiscal year. Similarly, the CVPIA activities compete among themselves 
for Restoration Funds. This dual competition assures that the 
activities funded under both the comprehensive Regional program and the 
CVPIA restoration and mitigation program are of high priority. Water 
Acquisition and Land Retirement are significant activities within the 
Region and have been funded accordingly, using both Water and Related 
Resources as well as Restoration funds.
    Question. Why does Reclamation's request for Land Retirement 
increase from $1,000,000 in fiscal year 1998 to $4,000,000 in fiscal 
year 1999?
    Answer. In fiscal year 1998, the budget for the Land Retirement 
Program was $4 million, including $1 million from Water and Related 
Resources and $3 million in Restoration Funds. In fiscal year 1999, the 
request for the Land Retirement Program is $8 million, comprised of $4 
million of Water and Related Resources appropriations and $4 million in 
Restoration Funds. The increase in funding for land retirement is in 
response to the current availability of willing sellers recently 
identified through a Request for Proposal process.
    Question. Why isn't all work related to Water Acquisition and Land 
Retirement funded from the Central Valley Restoration Fund?
    Answer. These are activities that we believe require more funding 
than is available solely through the CVPIA Restoration Fund. The water 
acquisition funding would be used to make water available for refuges 
and to meet other CVPIA objectives. Land retirement also is a high 
priority in the region.
                            klamath project
    Question. How much of the $2,287,000 requested for Klamath Project 
fish and wildlife activities is for the Wood River Ranch/Tulana Farms 
restoration project?
    Answer. Of the $2,287,000 requested for Klamath Project fish and 
wildlife activities, $75,000 is for the Wood River Ranch/Tulana Farms 
restoration project.
    Question. What is the total cost of this work expected to be and 
when will it be completed?
    Answer. Reclamation has spent about $2.6 million to date and our 
remaining cost should be roughly $200,000. Our involvement is scheduled 
for completion in fiscal year 2001. There are a number of other Federal 
and non-Federal interests involved in this work. The total estimate for 
Wood River Ranch is about $5 million, and about $8.8 million for Tulana 
Farms restoration. We do not have a firm estimate as to when other 
parties will complete their work, but it will probably continue for 
over ten years.
    Question. Is the work authorized?
    Answer. Yes, the work is authorized under the authority of the 
Reclamation Act of 1902 and by the Endangered Species Act, the Fish and 
Wildlife Coordination Act, the North American Waterfowl Conservation 
Act, and Executive Order 11910, Section 1(a).
                san diego area water reclamation project
    Question. Congress has provided nearly $30,000,000 for the San 
Diego Area Water Reclamation project through fiscal year 1998. The 
justification material for fiscal year 1998 indicated a $120,000,000 
program between Federal appropriation and non-Federal funds. Now, the 
fiscal year 1999 justification material shows the total program for 
fiscal year 1998 to be $80,000,000 and sizable delays on most of the 
elements of the overall project.
    Please explain the reasons for these changes and delays?
    Answer. The construction schedules for the San Diego Area Water 
Reclamation Project, upon which Reclamation's budget request is based, 
are provided by the project sponsors. The information shown in the 
fiscal year 1998 Budget Justifications material was based on optimistic 
schedules for several components. The information on fiscal year 1998 
that is shown in the fiscal year 1999 Budget Justifications document is 
thought to be more realistic. Most of the $40 million difference is due 
to slippages of five component projects. The San Diego Water 
Repurification Project was delayed 1 year due to additional studies 
that are being required by regulators and health officials, who are 
being very conservative with this project that will convert wastewater 
to potable water. Three components of the San Diego Area Water 
Reclamation Project (North City Water Reclamation Plant 
Demineralization, Sweetwater Authority, and Tijuana River Basin) were 
delayed due to lack of permits and/or delays in designs. Another 
component of the San Diego Area Water Reclamation Project (Southern 
Distribution System) was delayed because the schedule in the fiscal 
year 1998 Budget Justifications document was not realistic.
    Although the fiscal year 1999 Budget Justifications document 
indicates that three of the four components have had their completion 
dates delayed by 1 or 2 years, Reclamation does not consider the delays 
to be ``sizeable.'' The completion date for the Escondido component was 
delayed 2 years because the City of San Diego decided to completely 
reformulate the San Pasqual portion of this project. The Padre Dam 
Municipal Water District Reclamation Project was delayed one year due 
to the District's decision to revise its schedule for Phase II. Phase I 
will be complete in fiscal year 1998.
    Even with all of the above changes and delays, the fiscal year 1998 
appropriation and the fiscal year 1999 budget request for the San Diego 
Area Water Reclamation Project will not be sufficient to keep up with 
the Federal cost-sharing of up to 25 percent.
    Question. What level of funding was available for use in fiscal 
year 1997 and how was it actually spent on the project during that 
year?
    Answer. In fiscal year 1997, Federal funds available for 
expenditure totaled $10,956,229 and actual expenditures were 
$10,813,523. Major expenditures were $5.8 million for the City of San 
Diego's North/Central Distribution System, $3.6 million for the Padre 
Dam Municipal Water District, $0.7 million for the City of Escondido, 
$0.3 million for the City of San Diego's Water Repurification Project, 
$0.2 million for the Sweetwater Authority, and $0.1 million for the 
Tijuana Valley County Water District.
    Question. How much was available for fiscal year 1998, how will it 
be spent, and how much is expected to be carried over into fiscal year 
1999?
    Answer. In fiscal year 1998, Federal funds available total 
$12,622,706. Major expenditures include $5.1 million for the City of 
San Diego's North/Central Distribution System, $1.7 million for the 
Padre Dam Municipal Water District, $1.4 million for the Sweetwater 
Authority, $1.2 million for the City of Escondido, $1.1 million for the 
City of San Diego's North City Water Reclamation Plant Demineralization 
Facility, $0.8 million for the City of San Diego's Water Repurification 
Project, $0.7 million for the Otay Water District, $0.2 million for the 
City of San Diego's San Pasqual Project, and $0.1 million for the 
Tijuana Valley County Water District, for a total of $12.3 million. 
Approximately $0.1 million is for administrative costs. Carryover into 
fiscal year 1999 is expected to be minimal, similar to the previous 
years.
    Question. Has any project or element of a project been canceled or 
deferred in fiscal year 1997, or expected to be canceled or deferred in 
fiscal year 1998? If so, explain why and the impact this will have on 
Reclamation's use of available funding.
    Answer. No projects or elements of projects have been canceled or 
deferred in fiscal year 1997, nor are any expected to be canceled or 
deferred in fiscal year 1998.
    Question. Is there any reason, at this point, why the fiscal year 
1999 request will not be spent as planned on any project or element of 
a project?
    Answer. At this time we know of no reason why the fiscal year 1999 
request would not be spent as planned.
                       san gabriel basin project
    Question. What accounts for the 3 year delay on the San Gabriel 
Basin Demonstration project? Explain, specifically what is meant by 
``as a result of negotiations with the potential responsible parties'', 
which is given as the reason of the delay.
    Answer. The San Gabriel Basin Demonstration Project, authorized by 
Section 1614 of Public Law 102-575, is a conjunctive-use project that 
will improve the quality of the groundwater in the San Gabriel Basin. 
The Basin has been included on the Environmental Protection Agency's 
list of Superfund sites, and the entities that are believed responsible 
for the contamination have been identified as potentially responsible 
parties. Reclamation is authorized to provide up to 25 percent of the 
costs of this project, and the potentially responsible parties are 
responsible for the remainder of the costs. The San Gabriel Basin Water 
Quality Authority has been facilitating the overall project 
coordination, with the goal of completing the project without any 
litigation. This requires several concurrent, complex negotiations 
involving the potentially responsible parties, Environmental Protection 
Agency, numerous local water agencies, and state and local regulators. 
These negotiations have taken much more time than had been originally 
projected by the San Gabriel Basin Water Quality Authority. Reclamation 
is not a party to these negotiations and thus has little control over 
the process.
    Question. Is there anything associated with these delays which has 
impacted or will impact the use of the funding provided for fiscal year 
1998 or requested for fiscal year 1999?
    Answer. The delays have impacted the use of funding provided for 
fiscal year 1998. In addition, the recent discovery of perchlorates in 
the groundwater will result in further delays due to the lack of an 
existing process for perchlorate removal. However, it is anticipated 
that these problems will be resolved so that most of the funds 
available in fiscal year 1998 will be obligated. All funds available 
and requested for fiscal year 1999 should be expended by the end of 
fiscal year 1999.
              platte river recovery implementation program
    Question. Explain why the non-Federal cost sharing for the Platte 
River Recovery Implementation Program has still not been determined.
    Answer. The non-Federal share for the proposed Platte River 
Recovery Implementation Program was framed in the Cooperative Agreement 
signed by the Secretary of the Interior and the Governors of Wyoming, 
Nebraska and Colorado on July 1, 1997. The total costs including the 
first increment of the proposed program (10-12 years) is $75 million. 
Through this first increment, the states contribution will be as 
follows: Wyoming, $7.5 million; Nebraska, $15 million; and Colorado, 
$15 million. The Cooperative Agreement will be in place for three 
years, during which time a final consensus-based program will be 
developed.
    Question. When will the cost sharing agreement be finalized and 
non-Federal funds contributed to the recovery program?
    Answer. As mentioned previously, the proposed Platte River Recovery 
Implementation Program is a key part of the cooperative Agreement that 
was signed on July 1, 1997. During the three years of the Cooperative 
Agreement, the three states have committed to providing a total of $7.5 
million in cash and cash equivalents; Nebraska--$6,000,000, Colorado--
$900,000, and Wyoming--$600,000, in fiscal years 1998, 1999, and 2000 
to fund implementation of the Agreement. Each state legislature is in 
the process now of authorizing state funds for the next one or two 
fiscal years. In fiscal year 1998, the states will be providing the 
entire funding for the first year of a three-year, $900,000 study for 
water conservation and supply augmentation opportunities. The states 
will also be providing $100,000 this year to support the hiring of an 
Executive Director for the Governance Committee. In addition, as part 
of its cost-share, Nebraska has set aside land owned by the Nebraska 
Public Power District valued at $5,300,000 for use as endangered 
species habitat. This amount is included in Nebraska's $6,000,000 
contribution.
    Question. Why should the Federal government, which will have 
allocated $10,000,000 by the end of fiscal year 1999, continue to 
provide funding in advance of the State or other non-Federal interest 
providing their portion or project costs?
    Answer. The Federal government will have appropriated $7,500,000 by 
the end of fiscal year 1999. The cost-sharing agreed to by the states 
for the three-year period of the Cooperative Agreement, the funding 
being provided by the states in this first year, and the cost-share 
formula developed for the proposed program are evidence of the states' 
commitment to share the financial cost of the proposed Platte River 
Recovery Implementation Program.
               rocky boys indian water rights settlement
    Question. Is use of the $1,000,000 budget request for fiscal year 
1999 contingent upon enactment of authorizing legislation?
    Answer. The entire amount requested for fiscal year 1999 could be 
used for pre-feasibility studies of water resources in North Central 
Montana, under authority in the Reclamation Act of 1902. If authorizing 
legislation is enacted as anticipated, Reclamation would provide 
$500,000 of the amount requested in fiscal year 1999 to the Chippewa-
Cree Tribe for a feasibility study of an additional MR&I water supply 
for the Rocky Boys Reservation, as provided in S. 1899.
    Question. What is the total cost of the settlement agreement 
expected to be?
    Answer. The total cost is expected to be about $50 million, of 
which $29 million would be funded through Reclamation and $21 million 
through the Bureau of Indian Affairs. Of the $29 million funded through 
Reclamation, $24 million would be for specified on-reservation 
construction projects to enhance water storage and enable full use of 
on-reservation water supplies, and $5 million will be for feasibility 
studies and project administration. Of the $21 million funded through 
the Bureau of Indian Affairs, $15 million would be the Federal 
contribution towards future construction of an imported drinking water 
supply, $3 million for an economic development fund, and $3 million to 
pay for compact administration.
    Question. What specifically will be Reclamation's responsibilities 
under the settlement and what are the associated costs for 
Reclamation's work?
    Answer. Under S. 1899, Reclamation would be responsible for:
    (1) Contracting with the tribe for the Rocky Boys municipal, rural, 
and industrial feasibility study; $500,000 in fiscal year 1999 and 
$500,000 in fiscal year 2000;
    (2) Contracting with the Tribe for the planning, design, and 
construction of four identified on-reservation water resource 
development projects; $13 million in fiscal year 2000, $8 million in 
fiscal year 2001, and $3 million in fiscal year 2002;
    (3) Providing engineering and construction oversight for items 1 
and 2; $1 million in fiscal year 2000; and
    (4) Completing a Regional Feasibility Study to evaluate water and 
related resources in north-central Montana; $500,000 in fiscal year 
1999 and $2.5 million in fiscal year 2000.
    Question. What is the 5-year funding profile for Reclamation's 
work, including the initial studies which are beginning in fiscal year 
1999?
    Answer. This would be the total funding through Reclamation:

                        [In millions of dollars]

        Fiscal year                                                     
1999..............................................................     1
2000..............................................................    17
2001..............................................................     8
2002..............................................................     3
2003....................................................................
                  environmental program administration
    Question. The budget request includes nearly $2,000,000 for 
Environmental Program Administration.
    Why isn't this work, which is described as ``assessment, 
evaluation, study, * * * to ensure compliance with environmental law, 
policy, and initiatives'' conducted either under individual projects or 
under Policy and Administration?
    Answer. In all cases of Bureauwide programs, such as the 
Environmental Program Administration, we review the site specific work 
plans and determine whether or not the work is within an individual 
project's boundaries. We routinely budget such work under those 
projects where Reclamation is currently operating or maintaining the 
project. The work funded by this program is either related to projects 
that are not operated by Reclamation, or to issues such as land 
withdrawn for Reclamation purposes and not assigned to a specific 
project. The Policy and Administration appropriation was not meant to 
provide the funding for specific, day-to-day activities, such as site 
assessments for environmental compliance.
    Question. The Description/Justification does not indicate 
activities of an operational nature, yet a portion of the $964,000 
request for fiscal year 1999 for Land Management and Development is for 
operational work. Please explain this and why the work is not 
accomplished under individual projects.
    Answer. All of this work is for cultural resource activities 
necessary to identify and protect sites on Reclamation withdrawn land. 
None of this land is associated with projects currently operated or 
maintained by Reclamation. The National Historic Preservation Act and 
the Archaeological Resources Protection Act, among others, require 
Reclamation to protect these resources when they are present on 
Reclamation-controlled land not associated with a project. It should 
also be noted that none of these costs would be reimbursable by project 
users.
                    native american affairs program
    Question. The total program for the Native American Affairs Program 
increases from $10,000,000 in fiscal year 1998 to $13,900,000 in fiscal 
year 1999. What accounts for this increase?
    Answer. The Turtle Mountain Tribe has obtained a USDA Rural 
Development Administration loan in the amount of $3,000,000 which is 
shown on our budget reports as an ``Other Federal'' contribution. This 
amount is not a Reclamation request for additional funds. A planned 
expenditure of $150,000 for fiscal year 1999 for the Turtle Mountain 
Reservation MR&I needs assessment will be made from the Native American 
Affairs program. This is the only amount included in the fiscal year 
1999 budget request. This MR&I needs assessment is only a portion of a 
larger reservation wide water system project planned on the 
reservation. Both the Indian Health Service and the Bureau of Indian 
Affairs are cooperating and providing data to this study. The Tribe 
will provide in-kind services through staff time and facilities. The 
remaining $900,000 increase is due to the following:
    The $423,000 increase in the Great Plains Region will be used for 
water needs assessment studies and other water resources related 
projects.
    An additional $210,000 is requested for water needs assessments and 
other water resources related projects on Indian reservations in other 
regions.
    The $267,000 increase in the Commissioner's Office Technical 
Assistance Program will be used in support of special needs not funded 
in the Regional Technical Assistance portion of the program, such as 
emergency technical assistance to tribes, additional work in support of 
Indian colleges, and other training programs to be used throughout 
Reclamation, such as protocol policy, cultural awareness, and Indian 
Self-Determination and Education Assistance Act, as amended, Public Law 
93-638.
    Question. The total program costs are to be offset by nearly 
$5,000,000 of other funds in fiscal year 1999. This offset was only 
$1,700,000 in fiscal year 1998. What is the basis of the estimate of 
other funding and how certain is Reclamation that these funds will be 
provided? What would be the impact if these funds are not available as 
planned?
    Answer. The non-Federal and other Federal funding is identified by 
the tribes when the work proposals for technical assistance projects 
are developed and submitted to the Regional Native American Affairs 
Program Managers. In the past, the estimated non-Federal and other 
Federal funding have been reasonably accurate.
    The MR&I work proposed by Reclamation in fiscal year 1999 on Turtle 
Mountain Indian Reservation is planned to be accomplished regardless of 
whether or not the $3,000,000 in other Federal dollars are provided.
    Question. Why does the technical assistance program increase from 
$5,900,000 in fiscal year 1998 to $10,200,000 in fiscal year 1999?
    Answer. As stated above, most of this increase is due to an 
anticipated loan in the amount of $3,000,000 to the Turtle Mountain 
Tribe from the Rural Development Administration. The estimated fiscal 
year 1999 cost of the Reclamation needs assessment is $150,000. The 
remaining $1,300,000 increase is due to the following:
    Additional funds in the Regional Technical Assistance Program will 
be used for water needs assessments and other water resources related 
projects.
    Additional funds in the Commissioner's Office Technical Assistance 
Program will be used in support of special needs not funded in the 
Regional Technical Assistance portion of the program, such as emergency 
technical assistance to tribes and additional work in support of Indian 
colleges and other training programs to be used throughout Reclamation, 
such as protocol policy, cultural awareness, and Indian Self-
Determination and Education Assistance Act, as amended, Public Law 93-
638.
    Question. Explain why the funding level for the Commissioner's 
Office increases from $869,000 to $1,136,000; and the Great Plains 
request increases from $1,354,000 to $4,777,000 in fiscal year 1999.
    Answer. The increase of $3,423,000 in the Great Plains Region is 
due to a $3,000,000 loan from the Rural Development Administration to 
the Turtle Mountain Indian Reservation. The other $423,000 is due to 
increased water needs assessment studies and other water resources 
related projects on Indian reservations.
    The Commissioner's Office technical assistance program for fiscal 
year 1999 was increased to provide funding at about the level that was 
available in fiscal year 1998 taking into account the appropriated 
funds and the unobligated carryover funds from fiscal year 1997. The 
current funding level for fiscal year 1998 is $1,284,000. The fiscal 
year 1997 carryover funds enabled projects to be added in fiscal year 
1998, such as special projects for the Pyramid Lake Indian Reservation 
and the Hoopa Tribe and work with Indian colleges in support of 
Executive Order 13021.
                             site security
    Question. The budget request for fiscal year 1998 included 
$5,000,000 for the Site Security Program and that full amount was 
appropriated by the Congress. However, an additional $2,834,000 of 
prior year funding was applied for a total program of $7,834,000. Why 
was the program changed from that presented to Congress in the fiscal 
year 1998 budget request, how was the additional funding used, and 
where did those funds come from?
    Answer. This program was not changed from that presented to 
Congress in the fiscal year 1998 budget request. There was $5,100,000 
appropriated for Site Security in fiscal year 1997 to do facility 
assessments, security training programs and enhance security measures 
at our facilities. Some of these activities did not get underway until 
late in the year and were not completed by the end of the fiscal year, 
which extended the activities into fiscal year 1998. The remaining 
$2,834,000 of the $5,100,000 was carried over into fiscal year 1998 for 
the completion of facility assessments and other security-related 
activities. The $5,000,000 requested in fiscal year 1999 will be used 
for the implementation of the recommendations from the security 
assessments.
                        unscheduled maintenance
    Question. The budget request includes $1,500,000 for unspecified, 
unscheduled maintenance needs.
    Explain the need for this type of an appropriation and why it is 
unrealistic for the Bureau to reprioritize within existing resources 
when unscheduled maintenance needs arise.
    Answer. As Reclamation's infrastructure continues to age, it 
becomes more difficult to predict all maintenance needs with certainty 
at the time the budget is developed. The ``Unscheduled Maintenance'' 
addresses the need to respond to these unforeseen critical budget needs 
without major impacts to other programs.
    Question. Can you give the Committee an example of how not having 
this type of funding has impacted your operations and why Reclamation 
was unable to reorder priorities to free up resources to accomplish the 
work?
    Answer. No. However, we believe that the availability of these 
funds will better assist us in meeting the demands created by an aging 
infrastructure and improve our ability to respond quickly to the 
situation. Reclamation wants to make sure that funding is available to 
address these demands so as to minimize any impacts to the public, 
personnel safety and health, and disruption in the delivery of service.
                        central arizona project
    Question. What is the current status of litigation between the 
United States and the Central Arizona Water Conservation District 
regarding repayment obligations for the Central Arizona Project?
    Answer. The discovery phase of the litigation has been completed 
and the United States District Court has ordered a trial phasing plan 
to be jointly presented by the parties to the court by April 20, 1998. 
No trial date has been set. Settlement discussions between the United 
States and the Central Arizona Water Conservation District have been 
ongoing and a preliminary framework for settlement of the financial 
issues has been developed. State and water user interests have 
expressed concern to the Central Arizona Water Conservation District 
Board of Directors regarding this framework.
    Question. What are the potential budgetary impacts if the 
government loses this litigation?
    Answer. There are several aspects of the litigation related to the 
repayment obligation of the Central Arizona Project. If a court were to 
rule against the United States in the litigation, the size of the 
repayment obligation owed to the United States could be impacted. 
Because of the complexity and number of the issues involved, it is not 
possible to speculate on the potential impact that court rulings might 
have on the repayment obligation.
    In addition, it is possible that the United States would have to 
appropriate money to cover its litigation costs, which are currently 
funded from project revenues, as well as the litigation costs of the 
Central Arizona Water Conservation District.
                 western water policy review commission
    Question. What is the current status of the Western Water Policy 
Review Commission and the final report of the Commission?
    Answer. The Western Water Policy Review Advisory Commission 
completed its final draft report in October 1997. The Commission chose 
to extend its schedule to allow for two months of public review and 
comment on the report, and to make revisions to the report based upon 
the comments received. The report was revised and adopted at the 
Commission's final meeting in February 1998. At present, final editing 
and preparation for publication are underway. The report is currently 
scheduled to be published for public distribution by June 1, 1998.
    Question. What activities are planned for the remainder of fiscal 
year 1998 and fiscal year 1999?
    Answer. Except for the final publication of the report, no 
additional Commission activities are anticipated.
           title xvi water reclamation and recycling projects
    Question. How many projects are currently under construction and 
what is the total cost of those projects?
    Answer. There are four projects authorized in 1992 under Title XVI 
of Public Law 102-575 that are currently under construction. The total 
estimated cost to construct these four projects is $1,603,559,000, of 
which the Federal cost-share is limited to not more than $390,609,000. 
In addition, four projects authorized in Public Law 104-266, which 
amended Title XVI, and a desalination demonstration project are 
currently under construction or are expected to be under construction 
in the very near future. Based on the limited project information 
available at this time, the total estimated cost to construct these new 
projects is $115,413,000, of which the Federal cost-share is limited to 
not more than $37,222,300.
    Question. The budget request identifies $4,700,000 in funding for 
initiating new Title XVI projects in fiscal year 1999, in addition to 
the $1,000,000 budgeted for initiation of the Orange County, California 
water recycling project. How does the Bureau of Reclamation plan to 
allocate the $4,700,000 by individual project?
    Answer. Reclamation proposes to allocate the $4.7 million as 
follows:

North San Diego County Area Water Recycling Project.....      $1,300,000
Calleguas Municipal Water District Recycling Project....       1,300,000
Long Beach/Los Angeles County Water Recycling Project...       1,300,000
Tooele Wastewater Treatment and Reuse Project...........         800,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................       4,700,000

    Of the $4.7 million in construction funds proposed for the four 
projects, Reclamation intends to complete certain Title XVI 
requirements, such as complete and/or assess feasibility studies, 
determine financial capability of project sponsors, prepare and process 
environmental compliance documents under the National Environmental 
Policy Act, and prepare construction cost-sharing agreements for the 
North San Diego County Area, Calleguas Municipal Water District, and 
Long Beach/Los Angeles County water recycling projects in southern 
California. Reclamation will also continue funding and administration 
of the Tooele Wastewater Treatment and Reuse Project in Utah.
    Question. What is the estimated total costs of these projects and 
what would be the total Federal commitment?
    Answer. The total estimated cost of these five projects, including 
Orange County, is $609,483,100. The estimated maximum Federal cost-
share is $76,733,300.
    Question. Have there been any delays on any of the Title XVI 
projects funded for the current fiscal year which have resulted in a 
reduced ability to fully utilize the funding provided for fiscal year 
1998. If there have been delays, provide a description of the delay and 
how much of funding will not be used in fiscal year 1998 and carried 
over into fiscal year 1999.
    Answer. To the best of our knowledge, while there have been some 
delays, these should not reduce our ability to obligate the funds 
provided for these projects in fiscal year 1998.
                                 ______
                                 

                 Question Submitted by Senator Bennett

             tooele wastewater treatment and reuse project
    Question. Commissioner Martinez, Congress last year appropriated 
$500,000 for the construction of the Tooele Wastewater Treatment and 
Reuse Project pursuant to the Bureau of Reclamation's Title XVI 
program. I recently wrote to you regarding the delay the City of Tooele 
has experienced in receiving these funds from the Bureau and I 
appreciated your prompt response to that letter which answered several 
of the questions that have troubled me. However, I am particularly 
concerned by one aspect of your response and would like to explore 
further with you now if I might.
    Your letter indicates that the Bureau has unilaterally decided to 
withhold appropriated funds from projects or portions of projects that 
are required to meet water quality discharge standards under the Clean 
Water Act. I am not aware of any limitation in TITLE XVI generally or 
in the specific authorization for the Tooele project which would 
authorize the Bureau to withhold appropriated funds on that basis. I am 
very concerned that your position discriminates against water reuse 
projects being developed in states like Utah, which allow for direct 
use of secondary effluent. It seems to me that Congress and this 
Committee have the ultimate say over which of these projects receive 
appropriated funds. For the Bureau to withhold any of those 
appropriated funds for reasons not clearly established by statute is, 
it seems to me, inappropriate and possibly illegal.
    I would appreciate it if you would explain to the Committee your 
position on this matter and what the statutory basis for that position 
might be. Thank you.
    Answer. In reviewing the Bureau of Reclamation's program authority, 
we believe that Congress has not spoken to the issue of providing Title 
XVI funds for conventional wastewater treatment facilities. On the 
other hand, Congress has specifically spoken to the issue of funding 
construction projects to meet effluent discharge requirements in the 
Clean Water Act. Title 33 of the United States Code, Section 1381 
provides that ``the Administrator [of the Environmental Protection 
Agency] shall make capitalization grants * * * for providing assistance 
for the construction of treatment works.'' Thus, in light of this 
direct Congressional directive to the Environmental Protection Agency, 
we feel that allocating Title XVI funds for portions of projects other 
than those that are designed to meet Clean Water Act standards is a 
reasonable interpretation of our Title XVI authority.
    We believe this approach is appropriate because in situations such 
as this, where Congress has authorized a program without addressing 
specific operational aspects, the administering agency is authorized to 
develop and implement policies on matters Congress has not addressed. 
This understanding of agency discretion has been recognized by the 
United States Supreme Court in Natural Resources Defense Council v. 
Chevron, 467 U.S. 837 (1984) and Morton v. Ruiz, 415 U.S. 199 (1974).
                                 ______
                                 

                  Questions Submitted by Senator Burns

                elephant butte project, new mexico-texas
    Question. It is my understanding that states still own the water in 
their states, yet I recently heard that your agency has decided to 
change that.
    The Bureau of Reclamation recently filed a quiet title suit in 
Federal court related to the Elephant Butte project in New Mexico and 
Texas. In that suit, the Bureau asserts that they not only own the 
water rights associated with this project, they also assert that they 
are sovereign owner of waters flowing in the Rio Grande in both Texas 
and New Mexico. Is this correct?
    Answer. No, that is not correct. The United States filed a civil 
action to quiet title in its water rights for the Rio Grande 
Reclamation Project in June 1997. The project was authorized in 1905 
and covers the headwaters of Elephant Butte Reservoir in New Mexico to 
Fort Quitman in Texas. In operating the project for the purposes 
authorized by Congress, the United States relies upon the water stored 
in Rio Grande Project facilities, return flows, and inflows to the Rio 
Grande in both New Mexico and Texas. When water stored in Elephant 
Butte Reservoir is released, it is intermingled with project return 
flows and with inflows to the Rio Grande. These intermingled sources of 
water are then diverted for use in New Mexico, Texas, and Mexico. These 
sources together enable the United States to meet its Rio Grande 
Project delivery requirements of approximately 931,841 acre-feet per 
annum under normal conditions, including the United States' treaty 
obligation to Mexico. In January 1906, the United States filed notice 
with the New Mexico Territorial Irrigation Engineer notice of its 
appropriation of water for the Rio Grande Project, in accordance with 
Section 8 of the Reclamation Act of 1902. Thus, the United States' 
claim to ownership was acquired through appropriation, filed in 
conformity with the laws of the then Territory of New Mexico, and with 
the exception of the water for Mexico, not as a consequence of the 
sovereignty of the United States. The operation of the Rio Grande 
Project is further subject to the requirements of the Rio Grande 
Compact of 1939 between the United States, Colorado, New Mexico, and 
Texas.
    Reclamation's position in the lawsuit is that the United States is 
the legal title holder of the water rights appropriated for the Rio 
Grande Project, subject to the rights of the Water District and the 
beneficial owners. The rights to the use of the water subject to such 
appropriation are appurtenant to the project. The users of such water 
own a beneficial property interest, provided that they use it 
consistent with the terms of their contracts and applicable law.
                                 cvpia
    Question. The Central Valley Project Improvement Act (CVPIA) 
requires the Department of the Interior to submit an annual report to 
Congress describing actions and costs associated with implementing the 
law as well as progress made toward achieving the Act's purpose. The 
CVPIA was passed in 1992. To date, it appears that the Department has 
submitted only ONE annual report. Yet, you are once again requesting 
substantial sums to carry out the CVPIA. Why has the Department failed 
to fulfill its legal responsibility to report to Congress on how these 
funds are being spent?
    Answer. Section 3407(f) of the CVPIA requires the Secretary to 
submit annually a Restoration Fund Financial Report describing all 
receipts to and use of Restoration Funds and the Restoration Account 
during the prior fiscal year. The report must also include projections 
for the upcoming fiscal year as to expected receipts and uses. The 
first three Restoration Fund Financial Reports have been submitted to 
Congress.
    Section 3408(f) requires the Secretary to submit annually a report 
describing all significant actions taken by the Secretary to implement 
the provisions of the CVPIA. The first and second Annual Reports on 
CVPIA implementation have been submitted to Congress. The third Annual 
Report is finalized and expected to be submitted to Congress shortly. 
The fourth and fifth Annual Reports are in the review process and will 
be sent to Congress once they are finalized.
    Question. Last year, the Committee directed the Bureau to undertake 
certain actions regarding operations and maintenance (O&M) budgeting 
for its projects. The Committee was acting in response to allegations 
about excessive overhead, poor accounting practices and lack of 
involvement on the part of project users. Please tell us what you have 
done to carry out these directives?
    Answer. In regard to overhead costs, Reclamation is in the process 
of finalizing the report requested by Congress in the committee reports 
last year. With respect to involvement of users in the development of 
our budget requests, Reclamation is evaluating opportunities for 
increased stakeholder involvement in the development of our fiscal year 
2001 budget. Reclamation does not believe that poor accounting 
practices were an issue.
    Question. Has the Bureau identified specific problems with its O&M 
budgeting and management? If so, what are they and how do you plan to 
remedy them?
    Answer. No. Reclamation is unaware of any specific problems related 
to O&M budgeting and management. However, we are working to identify 
additional opportunities for stakeholder involvement in our budget 
formulation process.
    Question. Will the survey of O&M costs result in lower overhead 
charges? If so, to what extent can this reduction be attributed to 
reclassification of charges as something other than overhead?
    Answer. In developing a methodology to prepare the report, 
Reclamation sought expert advice on the definition of overhead and 
learned that there is no widely agreed upon definition and that 
overhead legitimately can be defined in a number of different ways. The 
report will show as overhead the same sources of costs which 
Reclamation has long treated as overhead. Reclamation believes that 
total cost is ultimately the area of greatest interest to the 
stakeholders. However labeled, we are always interested in working with 
others in finding ways to reduce costs for stakeholders and taxpayers 
as long as appropriate levels of operation and maintenance are achieved 
and public health and safety are not compromised.
    Question. Has the Bureau identified opportunities for genuine 
savings in its O&M management? If so, please explain how you plan to 
realize those savings.
    Answer. Reclamation has streamlined all of its administrative 
support activities and reduced the number of managers. Genuine cost-
saving opportunities are always of interest to Reclamation. While we 
have not identified additional opportunities specific to ``O&M 
management'' at this time, we welcome any cost-savings suggestions from 
our contractors or other stakeholders.
    Question. The Committee directed the Bureau to reexamine its policy 
of attributing payments for Central Valley Project O&M deficits to the 
lowest interest bearing debts first. This policy seems to be intended 
to generate increased benefits or services to the contractors. Has the 
Bureau's reexamination of this policy considered the issue of fairness? 
If not, why?
    Answer. Reclamation is analyzing the current policy, including the 
issue of fairness.
    Question. The Bureau's fiscal year 2000 budget cycle is about to 
get underway. What specific steps have you taken to include water and 
power users in the formation of the fiscal year 2000 O&M budget 
submissions?
    Answer. Reclamation's preparation of its fiscal year 2000 budget 
proposal is, in fact, nearing completion. Each region has involved 
water and power users in the development of the fiscal year 2000 budget 
submission, but not to the degree and depth as requested by some users. 
We intend to provide additional opportunities for stakeholder 
involvement in the preparation of our fiscal year 2001 budget as the 
next budget cycle gets underway.
                                 ______
                                 

                  Questions Submitted by Senator Reid

                     role of bureau of reclamation
    Question. There has been some speculation about the distinction 
between the Corps of Engineers and the Bureau of Reclamation. Could you 
discuss the role that you see for the Bureau of Reclamation in the 
future and reconcile that role with the decreased budget that was 
proposed by the Administration?
    Answer. The mission of the Bureau of Reclamation is to manage, 
develop, and protect water and related resources in an environmentally 
and economically sound manner in the interest of the American public.
    In 1902, President Theodore Roosevelt indicated that a key element 
to initiate Western growth and development was the reclamation of the 
arid West by constructing a system of irrigation works for the storage, 
diversion, and development of water. Since then, the Federal 
Reclamation program has expanded to include a variety of non-irrigation 
project purposes such as authorization to provide water for towns, for 
hydropower, to construct multipurpose projects, and to participate in 
municipal and industrial water supply projects.
    As Reclamation's authorities have expanded, so have Congressional 
environmental mandates such as the National Environmental Policy Act in 
1969 and the Endangered Species Act in 1973. In 1992, the Reclamation 
Project Authorization and Adjustment Act (Public Law 102-575) 
authorized Reclamation to undertake a number of new initiatives that 
reflected the view that further water resources development must 
address environmental concerns and be economically justified, such as 
Water Reclamation and Reuse. Changing societal values, greater 
environmental knowledge and awareness, increased competition for a 
scarce and finite resource, and Federal budgetary constraints have 
dictated the improved management and protection of existing facilities 
and our natural resources. Subsequent actions by Congress have been 
consistent with this view of Reclamation's program priorities.
    Furthermore, Reclamation supports this Administration's commitment 
to meet Indian Tribe's needs for water and related resources. Even as 
we approach the 21st Century, many Indian reservations have not 
benefited from the water infrastructure that has been developed in the 
West; therefore, there remains a substantial need on Indian 
reservations to be addressed. Reclamation is uniquely and properly 
situated to assist in meeting that need.
    As Reclamation shifts its focus toward the broader issues 
associated with water resources management, there is a decline in new 
construction projects. Furthermore, ongoing construction programs and 
contracts have either been completed or are nearing full performance. 
Specific examples of such projects include the Umatilla Basin Project 
in Oregon, the Dolores Project in Colorado, Belle Fourche Unit of the 
Pick-Sloan Missouri Basin Project in South Dakota, the Brantley Project 
in New Mexico, and two Water Reclamation and Reuse projects--Port 
Hueneme Brackish Water in California and Northwest El Paso Wastewater 
in Texas. In addition, several studies and investigations have been 
completed. As in every budget year, overall budgetary constraints 
impact the Bureau of Reclamation's as well as other agencies' requests.
                           effects of el nino
    Question. Commissioner Martinez, in your statement you focused on 
the effects of El Nino. Doesn't a decrease of $27 million in Water and 
Related Resources from the fiscal year 1998 level of $693 million 
impair the Bureau's ability to respond to the needs of the western 
states hit hardest by the harsh weather patterns?
    Answer. When the fiscal year 1999 budget documents were prepared, 
the effects of the El Nino-related damage were not fully known. Since 
the submission of the budget, an assessment has been made of the 
current effects upon the Reclamation program. To assist in repairing 
the damage to Reclamation projects, a request for additional funds was 
made by the President for supplemental appropriations for fiscal year 
1998. The reduction in the request for fiscal year 1999 is primarily 
due to a one year drop in the safety of dams work, as several large 
safety of dams repair projects are nearing completion.
               california bay-delta ecosystem restoration
    Question. It has come to my attention that other federal agencies 
with whom you coordinate projects are complaining that they are not 
getting their fair share of the funds appropriated to the CALFED Bay 
Delta project within the Bureau. Could you explain the process by which 
those funds are allocated?
    Answer. CALFED has developed a comprehensive process for ecosystem 
restoration project selection. The process is the same for every 
applicant whether or not the applicant is a Federal agency. In the 
project selection process, CALFED agencies, with assistance from 
stakeholder groups--the Bay-Delta Advisory Council and its subgroup 
called the Ecosystem Roundtable--first identify priorities for what are 
called stressors and the various species concerns. The dialogue begins 
with the Ecosystem Roundtable which provides the forum for open debate 
by all interested parties in determining the priorities for the 
available funding.
    Two funding processes are utilized by CALFED for project or program 
selection. One is the public solicitation process and the second is the 
directed programs process. Under the public solicitation process, 
CALFED agencies will identify specific stressors that they would like 
to address and request proposals from the general public. Proposals 
would be accepted from Federal, state, and local governments, water 
users, agricultural concerns, environmental concerns, and non-profit 
organizations such as universities. Anyone who has a good idea that 
would specifically meet the goals described in the solicitation package 
will compete with all other applicants. Under the directed programs 
approach, CALFED participants--CALFED agencies, CALFED program staff, 
or even the stakeholder community--might suggest a specific project be 
funded. This approach would be utilized to address ``gaps'' that have 
occurred in the public solicitation process--areas of concern that 
require action, but perhaps the public solicitation applicants did not 
provide projects that address these concerns.
    In either case, proposals are referred to the Ecosystem Roundtable 
for their evaluation and suggestions. The Ecosystem Roundtable created 
a Technical Review Panel to review proposals to determine that goals 
identified in the public solicitation are met and to rank the proposals 
based on the selection criteria established at the time of the 
solicitation. The Technical Review Panel forwards their suggestions to 
the Ecosystem Roundtable for their consideration.
    The Ecosystem Roundtable includes representatives of 20 to 24 
stakeholder groups. Membership is not closed. Stakeholder involvement 
is a necessary ingredient in the success of the CALFED program. 
Therefore, as stakeholders become engaged, they are welcome to join the 
group. Representation on the Ecosystem Roundtable is primarily made up 
of interest groups--water users, environmental groups, urban 
representatives, and several Federal agencies.
    The Ecosystem Roundtable refers a list of proposals to an 
Integration Panel. The Integration Panel consists of technical experts 
in various disciplines such as fishery biologists, wildlife biologists, 
chemists for water quality issues, and such. Membership includes 
Federal and state agency personnel, but it is not limited to government 
representation. Experts from the private sector are also included. The 
Integration Panel reviews proposals to determine if, overall, the 
projects selected fit together to meet CALFED goals. They also look at 
compatibility with existing programs to make sure that all our programs 
complement each other in order to maximize benefits. The Integration 
Panel provides recommendations to the Ecosystem Roundtable for final 
review and discussion.
    The list of recommended proposals, along with the advice from the 
Ecosystem Roundtable is forwarded to Bay-Delta Advisory Council for its 
advice. After review and recommendation by the Bay-Delta Advisory 
Council, recommended proposals are filtered through another review 
process--the CALFED Management Team. The Management Team is represented 
by Federal and state agency directors or managers and other more 
technical agency staff. The Management Team provides recommendations to 
the CALFED Policy Team.
    The CALFED Policy Team includes representatives of the Secretary of 
the Interior and the state's Secretary for Resources and policy level 
representatives from both state and Federal participating CALFED 
agencies. After the CALFED Policy Team prepares the final list of 
recommended actions, they forward the list of programs and specific 
projects to the Secretary of the Interior for final approval of 
proposed expenditures from the Federal Bay-Delta Ecosystem Restoration 
Appropriation or the California Resources Secretary for final approval 
of proposed expenditures from Proposition 204 funds.
                                 ______
                                 

                 Questions Submitted by Senator Dorgan

                        garrison diversion unit
    Question. The Garrison Diversion Project is the key to water 
development in North Dakota and water development is the key to 
economic development in our semi-arid state. Can you tell the Committee 
how this year's budget request will help North Dakota advance water 
development? I hope the Bureau would support adding additional 
resources for this critical project since the budget request is about 
$5 million less than last year's appropriation level. Funding in the 
range of $31 million would more closely reflect our priority needs for 
water development.
    Answer. The Garrison Diversion Unit's fiscal year 1999 budget 
request will be used to advance project water development in the 
following major areas (Water and Energy Management and Development):

                        [In millions of dollars]

Development of irrigation facilities on the Standing Rock 
    Reservation...................................................   2.9
Federal cost-sharing for municipal, rural, and industrial projects 
    around the State of North Dakota..............................   8.6
Continued maintenance of completed facilities.....................   2.5
Continued construction of mitigation and enhancement features at 
    Audubon and Arrowwood National Wildlife Refuges, including 
    maintenance on completed wildlife lands.......................   5.6
Deferred construction on McClusky Canal...........................   0.8

    Question. One of the funding priorities in the 1986 Garrison 
Reformulation Act was meeting the Municipal, Residential and Industrial 
water needs of Indian tribes in North Dakota. The tribes have now 
reached the funding ceiling in the Reformulation Act which prompted the 
Congress to add about $1.4 million to last year's appropriation.
    Can you assure the Committee that the Bureau is prepared to work 
with us in identifying additional resources--in the range of $2 
million--to meet critical MR&I needs on the reservation? Tribes in 
North Dakota have some of the poorest quality water in the nation and 
the Bureau has validated over $200 million in Indian MR&I needs so I 
encourage your cooperation.
    Answer. Reclamation is prepared to assist in identifying projects 
and activities on the reservations that would help meet the water 
supply needs of the tribes. Construction of service line connections, 
community fill stations, and replacement of aged components are 
examples of such activities.
    Question. All but 11 of North Dakota's counties are losing 
population as farm communities face unparalleled problems from low 
prices, Canadian grain imports, and severe weather disasters, among 
other factors. The MR&I program has helped breathe new economic life 
into communities across the state.
    Can you comment on the benefits of such projects as the Southwest 
Pipeline in bringing clean, dependable water supplies to towns in our 
state? Several North Dakota communities have been using tobacco-colored 
water or been in violation of Clean Water standards--through no fault 
of their own. Now several are enjoying what most of us take for 
granted: clean, clear water.
    Moreover, several businesses have started or expanded because they 
have access to dependable supplies of usable water. I might mention 
Antelope Creek Bison Ranch and Taylor Nursery as beneficiaries of the 
Southwest Pipeline. In eastern North Dakota, the Melroe Company in 
Gwinner and ADM Corn Processing, which draws upon the North Valley 
Water project, have also been able to tap the kind of high quality 
water their businesses require.
    Answer. The municipal, rural, and industrial program, resulting 
from the Garrison Diversion Unit Reformulation Act of 1986, has 
resulted in significant investment and benefits in municipal and rural 
water supplies across the State of North Dakota. Over 100,000 people 
are now receiving a sufficient quantity of excellent quality water. The 
benefits go beyond just municipal and rural households as livestock, 
agricultural processing, and other industries are benefitting as well.
    Question. As you know, the Bureau of Reclamation is currently 
studying the water development and management needs of the Red River 
Valley. Can you apprise the Committee of the status of these studies? 
The information provided in these studies will assist the Congress in 
making decisions about the future shape and funding needs of the 
Garrison Diversion project so I urge the Bureau to make these studies a 
top priority.
    Answer. Reclamation recently received comments from interested 
entities, which included the North Dakota delegation and the Governor, 
on the Draft Phase IA Red River Valley Municipal, Rural, and Industrial 
Needs Assessment Report. We are in the process of finalizing that 
report which will be sent to state and local interests as well as the 
North Dakota congressional delegation. Work is underway on the Phase IB 
report, which will address instream flow needs. The Phase II study, 
which will identify alternatives to meet current and future needs in 
the Red River Valley, is in progress and is expected to be available 
for review later this year.
    Question. I am concerned that the Bureau's budget request of $24 
million does not provide funds for operation of the Oakes Test Area nor 
for orderly contracting for MR&I projects.
    Will you please provide for the record the Bureau's plans to 
operate the Oakes Test Area in fiscal year 1999 and to ensure that 
contracts for MR&I projects can be let and managed in an efficient 
matter.
    Answer. Research on the Oakes Test Area concluded in fiscal year 
1996. Reclamation is working with the project sponsors in an effort to 
transfer title of the Oakes Test Area to local interests. Negotiations 
are taking longer than anticipated; therefore, the transfer process has 
been delayed. If a transfer cannot be worked out, Reclamation has 
recommended that the area be abandoned, since the limited water supply 
does not allow for enough acres to be irrigated, resulting in the 
inability to pay annual operation, maintenance and replacement costs.
    The Administration has not requested funding in its fiscal year 
1999 budget for the Oakes Test Area. This is consistent with the 1990 
Task Group Report which continues to be the basis of Administration 
policy.
    The fiscal year 1999 request includes $8.6 million for the 
municipal, rural, and industrial water program. This level of funding 
would allow the state to continue to let contracts and manage them in 
an efficient manner, although at a reduced level compared to fiscal 
year 1998.

                         conclusion of hearings

    Senator Domenici. We are in recess, subject to the call of 
the Chair.
    Thanks, everybody.
    [Whereupon, at 11:41 a.m., Thursday, March 26, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 1999

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 1999 
Energy and Water Development Appropriations Act.]

 CALIFORNIA FLOOD CONTROL AND OTHER WATER RESOURCE DEVELOPMENT PROJECTS

  Prepared Statement of Daniel F. Kriege, Chairman, California Water 
                               Commission

    The California Water Commission is an official agency of the State 
of California. It is composed of nine representative citizens from 
throughout the State. The Commission is charged by statute with 
representing State of California and local interests before your 
Committee. The Commission is coordinating the filing of the statements 
of a number of State and local agencies. On behalf of the California 
Water Commission, I would like to express our sincere appreciation for 
the support this Committee has given California water, fishery and 
flood control appropriations over the years. I am privileged to submit 
to you the official recommendations of the State of California for 
fiscal year 1999 appropriations.
    The Commission would like you to know that it supports projects as 
shown on the attached document entitled, California Water Commission--
Final Recommendations for Fiscal Year 1999 Federal Appropriations for 
California Water, Fishery and Flood Control Projects, March 6, 1998. 
That document contains recommendations adopted by the Commission at its 
March 6, 1998 meeting in Sacramento, California, where individuals from 
throughout the State testified on individual projects.
    This year the recommended add-ons to the President's budget for the 
Corps of Engineers is the largest the Commission has ever requested. 
The reason is that the Corps' budget has been cut drastically in a 
cloak to balance the budget. These proposed cuts in ongoing flood 
control construction projects could be devastating. Stopping and 
starting construction projects can significantly increase the cost, as 
well as putting the respective project areas in jeopardy of severe 
damage from flooding of a partially build facility.
    The Commission is also concerned with the Corps' new program on 
infrastructure seismic reliability. The funding requests for this 
program are growing exponentially. The Corps of Engineers has the 
expertise to prepare plans and give technical assistance to the cities; 
however, the funds are in competition for the dollars needed for 
ongoing construction projects that are proposed for major cuts in the 
President's Budget. The Commission has a similar concern with the U.S. 
Bureau of Reclamation's budget for water recycling projects. The 
California Water Commission has long recognized water recycling as an 
important element in the management of California's water resources. 
Nevertheless, the Commission encourages the Bureau to require local 
sponsors to demonstrate that long-term beneficial use can be made of 
the water produced (other than from research/demonstration projects) 
and that adequate long-term funding will be available for operation and 
maintenance of completed facilities.
    The Commission is concerned about the engineering, economic, 
environmental and political feasibility of establishing a common set of 
criteria for evaluating and comparing the merits of one or more water 
recycling programs with other types of ongoing USBR projects and 
programs, such as dam safety, Arroyo Pasajero flooding of the San Luis 
Canal, a workable long-term program for Red Bluff Diversion Dam, other 
fisheries enhancement programs and Federal participation with the State 
of California in funding the anticipated recommendations to come out of 
the Bay-Delta Ecosystem Restoration (CALFED) process for long-term 
water supply and environmental benefits.
    It is the Commission's view that both water recycling programs and 
the other ongoing USBR programs are highly important and that they 
should be supported in concert, within the limitations of available 
Federal funds, giving due consideration to other potential sources of 
funds that could be available to effect their implementation.
    Special recommendations for funds.--The Commission recommends that 
special consideration be given for appropriation of funds for projects 
of the U.S. Army Corps of Engineers and U.S. Bureau of Reclamation as 
shown in the following table. The Commission believes that these 
projects merit special consideration for the reasons set forth in the 
information shown on the tables on the following page.

------------------------------------------------------------------------
                                                             CWC Final
                                            Presidents    recommendation
 CWC No.        Project and county         budget fiscal    fiscal year
                                             year 1999         1999
------------------------------------------------------------------------
          U.S. ARMY CORPS OF ENGINEERS
 
     110 Sacramento and San Joaquin         $3,500,000      $3,500,000
          Rivers Comprehensive Study
     201 American River Watershed               50,000       5,000,000
     235 Arroyo Pasajero (Also CWC 135  ..............       1,000,000
          and 660-USBR)
    304B Marysville/Yuba City Levee            746,000      12,000,000
          Reconstruction
     305 American River Watershed            1,000,000      26,000,000
          (Levee Improvements on
          American and Sacramento
          Rivers)
     309 West Sacramento Project             2,500,000      13,000,000
     353 Guadalupe River (Santa Clara)       4,000,000       8,000,000
     381 Los Angeles County Drainage        11,000,000      60,000,000
          Area Project
     382 Santa Ana River Mainstem           20,035,000      76,000,000
     387 Norco Bluffs Bank              ..............       4,400,000
          Stabilization, Santa Ana
          River
     400 WRDA, 1996, Section 205,       ..............         ( \1\ )
          Flood Damage Prevention
          Continuing Authorities
          Program Nationwide
     410 WRDA, 1996, Section 206,       ..............         ( \1\ )
          Aquatic Ecosystem
          Restoration
     420 WRDA, 1996, Section 503,       ..............         ( \1\ )
          Watershed Management,
          Restoration and Development
          ($15 million allocated for
          length of program)
     430 WRDA, 1986, Section 1135,      ..............         ( \1\ )
          Project Modifications for
          Improvement of the
          Environment
           U.S. BUREAU OF RECLAMATION
 
     500 CALFED San Francisco Bay-         143,000,000     143,000,000
          Delta Program
     612 Coleman National Fish               2,500,000       2,500,000
          Hatchery
     621 Winter-Run Chinook Salmon      ..............         400,000
          Captive Broodstock Program
     622 Hamilton City Pumping Plant         7,900,000      10,000,000
          Fish Facility (Glenn)
  660A-D Arroyo Pasajero Studies             1,050,000       5,960,000
   701&A Central Valley Project             68,537,000      68,537,000
          Operations and Maintenance /
          San Luis Unit
900--100 Water Recycling Projects--            ( \2\ )         ( \1\ )
       0  Public Law 102-575, Title
          XVI/Public Law 104-266) (Mid-
          Pacific and Lower Colorado
          Regions)
    1108 Salton Sea Area Study                 400,000         400,000
   1304B Colorado River Salinity            12,300,000      17,500,000
          Control Program, Title I
          Div. (Basinwide)
------------------------------------------------------------------------
         \1\ Support
         \2\ Various

                      u.s. army corp of engineers
    CWC 110--Sacramento and San Joaquin Rivers Comprehensive Study.--As 
a result of the floods of 1997, the studies were combined in order to 
conduct a comprehensive assessment of the entire flood control system. 
Local, State and Federal water resources agencies support a coordinated 
multi-objective investigation to balance flood damage prevention, 
environmental restoration, and other water resource purposes along the 
river. The study will provide a long range management program for the 
Sacramento and San Joaquin Rivers with the objective of improving the 
flood carrying capacity of the system while restoring and protecting 
environmental features including wetlands and fish and wildlife 
habitat. The study will also identify those areas that are generally 
unsuitable for development. The study will include preparation of a 
comprehensive post-flood assessment, development of a hydrologic/
hydraulic model, and formulation of a comprehensive plan for flood 
damage reduction and environmental restoration. Once completed, this 
study will provide a framework for a management plan that can be 
effectively implemented and supported by local, State and Federal 
agencies. The State of California, the local sponsor, expressed support 
for the study in May 1997, understands the two-phase planning process, 
and is willing to participate in 50-50 cost sharing of feasibility 
phase studies. The Feasibility Cost Sharing Agreement was executed in 
January 1998.
    CWC 201--American River Watershed.--Folsom Lake and levees along 
the lower American River, Sacramento River, and tributary streams and 
channels provide flood protection to the highly urbanized Sacramento 
area. Potentially flooded areas during rare flood events could have an 
impact on approximately 410,000 people, and an estimated $37 billion in 
property value. Recent evaluations indicate that the level of flood 
protection along much of the American River area is less than the 100-
year level. The February 1986 storms filled Folsom Lake and 
necessitated record releases in excess of design flows downstream. Due 
to the 1986 storms, an extensive flood fighting effort was made by the 
Corps at a cost of $3 million and an additional $10 million was 
required for post flood repair work. The storms of January 1997 again 
filled Folsom Lake and releases reached design flows. Portions of the 
project have been authorized for construction in the Water Resources 
Development Act of 1996 and are included in the budget for initiation 
of construction in fiscal year 1998.
    Fiscal year 1998 funds will be used to complete the reimbursement 
agreement and plans and specifications for recreation features and 
continue discussions with the local sponsor on a comprehensive flood 
protection plan for the Sacramento area. Preconstruction engineering 
and design is scheduled for completion in September 1998.
    Both SAFCA and the Reclamation Board are considering seeking 
Congressional authorization of additional improvements on the American 
River system as part of the 1998 Water Resources Development Act. If 
Congress acts on any of the alternatives being considered, the Corps 
will need significantly more funds to proceed with any meaningful 
design in 1999 and not lose a year in the schedule to implement these 
improvements.
    CWC 135 and 235 (Corps) and CWC 660A-D (USBR)--Arroyo Pasajero 
Flood and Silt Deposition.--In the 1960's, in cooperation with the 
California Department of Water Resources (DWR), the U.S. Bureau of 
Reclamation (USBR) designed and constructed a 100-mile reach of the 
California Aqueduct called the San Luis Canal to convey municipal and 
agricultural water to San Joaquin Valley and southern California water 
users. The San Luis Canal is part of the ``joint-use facilities'' along 
the west side of the San Joaquin Valley, which are operated and 
maintained by DWR. Design, construction, operation and maintenance 
costs for this project are shared (DWR 55 percent and USBR 45 percent).
    Following completion of an Arroyo Pasajero feasibility report to 
identify solutions to the flooding, sediment and asbestos problems in 
1990, DWR requested the U.S. Corps of Engineers to conduct a 
reconnaissance study of these problems. The reconnaissance study 
demonstrated a Federal interest, and the Corps and DWR, with the DWR as 
local sponsor, began a feasibility study in 1994. The USBR supports the 
study through the San Luis Unit ``joint-use facilities'' agreement.
    At present, DWR and the Corps are only a few months away from 
completion of the Feasibility Study which will identify a long-term 
flood protection plan for the Arroyo. The Corps, DWR and USBR are all 
participating in the cost of the study. If a feasible project and a 
Federal interest are identified by the feasibility study, the Corps 
will proceed with P.E. & D. for the selected project.
    Severe flooding was experienced at the Arroyo during the winters of 
1994-95 and 1997-98. On March 10, 1995 a section of Interstate 5 
upstream of the canal collapsed when floodflows raced down the Arroyo. 
Seven people lost their lives and there was substantial property 
damage. Flood damage claims filed by private landowners adjacent to the 
canal against USBR and DWR have exceeded $12 million from this one 
flood alone. Damage to canal embankment from the flooding was repaired 
under an emergency construction contract, and turbidity in the canal 
water resulting from the Arroyo inflow caused significant damages to 
downstream water customers for up to 4 months after the flood. Arroyo 
flooding also closed Highway 269, isolating the community of Huron for 
several days in 1995 and again in 1998. DWR is taking the lead in a 
multi-agency group formed as a result of this most recent flooding to 
develop broad-based support for implementation of flood control 
measures on the Arroyo Pasajero and neighboring streams, and to keep 
the Federal, State, and local agencies, as well as the affected 
communities, apprised of the joint feasibility study.
    CWC 304B--Marysville/Yuba City Levee Reconstruction.--The project 
is located within the boundaries of the Sacramento River Flood Control 
System in Butte, Sutter and Yuba Counties in north-central California. 
The area includes the Feather and Yuba Rivers and their tributaries, 
Sutter Bypass and the cities of Marysville and Yuba City and the 
communities of Linda and Olivehurst.
    High flow conditions during the February 1986 storm event resulted 
in a levee break on the Yuba River, the evacuation of about 24,000 
people and about $95 million in flood damages. Additional flood damages 
of about $2 million were incurred on the Feather and Bear Rivers and 
about $1 million in post-flood levee repair work was required. Flooding 
also occurred in 1997. Flooding was caused by a levee break along the 
Feather River below Marysville/Yuba City in the Linda/Olivehurst area, 
where one is confirmed dead and two are missing.
    The California State Reclamation Board is the local sponsor for 
reconstruction work. The non-Federal sponsor is capable and willing to 
contribute non-Federal share.
    CWC 305--American River Watershed (Levee Improvements on the 
American and Sacramento Rivers).--Recent evaluations indicate that the 
level of flood protection along much of the American River is less than 
the 100-year level. The project consists of a slurry wall to strengthen 
the lower American River levees, levee and berm raising along the 
Sacramento River, telemetered gages above Folsom Dam, and improving the 
flood warning system for the lower American River.
    In June 1996, the Chief of Engineers deferred a decision on a 
comprehensive flood control plan, but recommended that features common 
to all three plans be authorized as the first component of a 
comprehensive plan. These common features include modification of and 
telemetering three streamflow gages upstream of Folsom Lake; installing 
a new downstream flood warning system; constructing a slurry wall in 
levees on the Lower American River; and strengthening and raising 
levees on the east side of the Sacramento River.
    The American River Common Elements Project has $1 million in 
construction funds included in the President's Budget for fiscal year 
1999. The Corps' proposed budget included with the Project Cooperation 
Agreement shows $26 million in Federal funds are needed in 1999 to keep 
this project on schedule. Both SAFCA and the State Reclamation Board 
are in a position to support funding at the higher Federal share.
    CWC 309--West Sacramento.--The project is located in West 
Sacramento, Yolo County in north-central California. The project 
consists of raising 4.9 miles of levees up to 5.0 feet along the 
Sacramento and Yolo Bypasses; constructing concrete wing walls, a 
concrete sill and a manually operated gate at the Southern Pacific 
Railroad; constructing a concrete wing wall and flow cut-off wall on 
each side of Interstate 80; and developing approximately 40 acres of 
mitigation lands for riparian and upland habitat loss.
    Construction of this project will provide protection to lands, 
improvements, and over 30,000 people in West Sacramento. Estimated 
damageable property in the floodplain is $1.2 billion. Flooding in 
February 1986, January 1997 and February 1998, in conjunction with 
subsequent updated hydrologic analyses, have shown that the existing 
level of flood protection is significantly less than previously thought 
and does not provide FEMA 100-year level of protection. Levee failure 
along the Yolo Bypass would release floodwater from the Sacramento 
River into the West Sacramento urban area, inundating industrial areas, 
two major highways, thousands of homes and thousands of acres of 
farmland.
    The California State Reclamation Board will act as the non-Federal 
sponsor for the project.
    CWC 353 Guadalupe River.--The project is located in San Jose, Santa 
Clara County, California. The authorized plan consists of channel 
improvements on the Guadalupe River between Interstate Highways 880 and 
280, a distance of approximately 2.5 miles with provisions for fish and 
wildlife mitigation as necessary. The project under construction is the 
Locally Preferred Plan (LPP). The non-Federal sponsor is responsible to 
pay 100 percent of the difference in cost between the LPP and the NED 
plan.
    The Santa Clara Valley Water District is the local sponsor for both 
the flood control portion and the recreation portion of this project. 
The Local Cooperation Agreements (LCA's) were executed 30 March 1992.
    Potential damage from a 1-percent flood in the project reach 
exceeds $526 million. Based on past flood events, the average annual 
flood damage estimate for the project is $24 million. Guadalupe River 
Park, an integral part of the successful revitalization for downtown 
San Jose, is an important element of the project. Benefit-to-cost ratio 
is approximately 2 to 1.
    Two of three contracts are complete. Contract 3 is expected to be 
completed in 2000 pending sufficient Federal funding, and resolution of 
mitigation issues. Environmental issues regarding fish habitat and 
thermal impacts are being resolved through a multi-agency collaborative 
process. Total project cost is $182.8 million. Local community has 
expended more than $70.5 million on planning, design, land acquisition, 
and construction.
    CWC 381--Los Angeles County Drainage Area (LACDA) Project.-- The 
Los Angeles County Drainage Area, current population of over 9 million, 
is partially protected by an urban flood control system which includes 
Corps flood control structures consisting of 5 major reservoirs, 22 
debris basins, and 470 miles of channel improvements. The existing 
system, protecting the second largest urban metropolitan area in the 
United States, has prevented over $3.7 billion in damages since 
construction. However, the flood of 1969 in Los Angeles County caused 
widespread damages of over $12 million, $56.5 million at 1996 prices. 
As urbanization of the basin has grown over the past 40 years, the 
ability of the existing systems to provide design levels of protection 
has diminished. Portions of the existing system cannot contain a 50-
year flood event. Average annual benefits, at October 1991 price 
levels, are $58,616,000, all flood control.
    The LACDA Project involves raising of 21 miles of existing levees 
which were originally built 40-50 years ago and modifying 21 bridge 
crossings. The Project was authorized by Congress in 1992 and is 
estimated to cost $240 million with the Federal Government paying about 
$180 million and the local sponsor (Los Angeles County) paying the 
rest.
    Construction began in February 1996. Three construction contracts 
which included 4.5 miles of levee raising and modifications to three 
bridges have been completed. The current fiscal year budget includes 
$20.7 million for completion of two additional contracts which are 
scheduled to be awarded this February and March.
    The low level of funding included in the President's Budget for 
fiscal year 1999 ($11 million) will significantly delay completion of 
the project. This will prolong the risk of flooding and continue 
jeopardizing the safety of those living in the 75 square mile overflow 
area. Such a condition is unacceptable.
    CWC 382--Santa Ana River Mainstem.--The project is located along a 
75-mile reach of the Santa Ana River in Orange, Riverside, and San 
Bernardino Counties southeast of and adjacent to metropolitan Los 
Angeles, California.
    The plan of improvement provides for construction of the Seven Oaks 
Dam about 35 miles upstream of the existing Prado Dam, with a gross 
reservoir storage of 145,600 acre feet; flood plain management of the 
flood overflow area on the Santa Ana River between Seven Oaks Dam and 
the existing Prado Reservoir; enlargement of Prado Dam to increase the 
reservoir storage capacity from 217,000 acre-feet to 362,000 acre-feet; 
construction of 3.3 miles of channel modifications along Oak Street 
Drain in Corona; enlargement of the existing 2.4 miles of Mill Creek 
levee; construction of a detention basin and 2.0 miles of channel 
modifications along the Santiago Creek; and various means of flood 
control, including flood plain management, levees, and vertical walled 
concrete channels along the 30.5 miles of the Santa Ana River from 
Prado Dam to the Pacific Ocean.
    Construction of this project will primarily provide protection to 
lands and improvements within Orange County downstream of Prado 
Reservoir. A severe flood threat exists in this area, which could cause 
damages in excess of $15 billion and could endanger and disrupt the 
lives of over three million people living or working in the floodplain. 
Damages upstream of Prado Reservoir could exceed $450 million. The 
overflow area comprises 160 square miles of primarily urban development 
in 15 cities including San Bernardino, Riverside, Anaheim, Orange, 
Santa Ana, Fountain Valley, Costa Mesa, Huntington, and Newport Beach. 
The greatest potential damage area is the Orange County floodplain 
below Prado Dam.
    The $76 million request includes $53 million dollars to continue 
construction on Seven Oaks Dam and the Lower Santa Ana River plus $23 
million to begin construction (a new start appropriation is required) 
at Prado Dam. Commencement of construction on improvements to Prado Dam 
is very important. This feature of the SAR Project is the key link in 
providing the level of flood protection envisioned by Congress when it 
authorized the SAR Project in 1986.
    CWC 387--Norco Bluffs, Santa Ana River.--The study area is located 
approximately 40 miles southeast of Los Angeles in the City of Norco 
along the south bank of the Santa Ana River. Flood induced migration of 
the main channel of the Santa Ana River to base of the bluffs has 
resulted in undercutting and subsequent bank destabilization which 
threatens residential development along the edge of the bluffs.
    The purpose of this project is to protect a susceptible 65 foot 
high bluff in Norco from further retreat into the residential 
neighborhood. Severe bank sloughing results when floodflows within the 
Santa Ana River attack the toe of the bluffs. WRDA 96 Section 101b(4), 
provided for the authorization of the project based on a Chief's Report 
dated December 23, 1996 that recommended the project for construction. 
Design of the project by the Corps is underway and is fully funded. 
They are now seeking funding in the amount of $4.4 million in fiscal 
year 1999 for completion of construction of the Norco Bluffs Bank 
Stabilization Project.
    CWC 400--WRDA, 1996, Section 205, Flood Damage Prevention.--The 
California Water Commission heard testimony at its March 6, 1998 
meeting requesting support on individual projects. Each of these 
projects have merit and are needed to prevent recurring flood damages 
in the local areas. The Commission supports these projects for funding 
from this Continuing Authority for small projects.
    CWC 410--WRDA, 1996, Section 206, Aquatic Ecosystem Restoration and 
Protection.--The California Water Commission heard testimony at its 
March 6, 1998 meeting requesting support on individual projects. The 
Commission supports these projects to improve the quality of the 
environment. Section 206 directs the Secretary of the Army to carry out 
such project if the Secretary determines that the project will improve 
the quality of the environment and is in the public interest; and is 
cost-effective. The cost-sharing provisions state that the non-Federal 
interests shall provide 35 percent of the cost of the construction of 
any project carried out under this section, including provision of all 
lands, easements, rights-of-way, and necessary relocation.
    CWC 420--WRDA, 1996, Section 503, Watershed Management, Restoration 
and Development.--The California Water Commission heard testimony at 
its March 6, 1998 meeting requesting support on individual projects. 
The Commission supports fiscal year 1998 appropriations for the 
projects. This provision gives the Secretary of the Army the authority 
to have the Corps provide technical, planning and design assistance to 
non-Federal interests for carrying out watershed management, 
restoration and development projects at locations listed in Section 
503, WRDA 1996.
    CWC 430--WRDA, 1986, Section 1135, Project Modifications.--The 
California Water Commission heard testimony at its March 6, 1998 
meeting requesting support on individual projects. The Commission 
supports fiscal year 1998 appropriations for each of these projects. 
Section 1135 of WRDA of 1986 directs the Secretary of the Army to 
review the operation of water resources projects constructed before the 
date of the Act to determine the need for modifications in the 
structures and operations of such projects for the purpose of improving 
the quality of the environment in the public interest.
                       u.s. bureau of reclamation
    500--CALFED S.F. Bay-Delta Program.--The CALFED Bay-Delta Program 
is a cooperative effort among State and Federal agencies and the 
general public to ensure a healthy ecosystem, reliable water supplies, 
good water quality, and stable levees in California's Bay-Delta. The 
President's fiscal year 1999 Budget, contains $143 million to be spent 
specifically in pursuit of CALFED objectives. This money is 
appropriated to the U.S. Bureau of Reclamation to hold for the 
participating CALFED agencies as spending decisions are made.
    California voters approved the $995 million Proposition 204 on the 
November 1996 ballot. This general obligation bond measure provides 
$390 million for the Bay-Delta Ecosystem Restoration Program.
    During Phase I, from June 1995 through August 1996, the Program 
identified these problems, developed a mission statement and several 
guiding principles, and designed three alternative solutions. In Phase 
II, from June 1996 to September 1998, the Program will conduct a broad-
based environmental review of the three alternative solutions will 
identify the one preferred alternative. During Phase III, starting in 
late 1998 or early 1999 and lasting for many years, the preferred 
alternative will be implemented in stages.
    The California Water Commission strongly supports a fiscal year 
1999 Federal appropriation of $143,300,000, which is in the President's 
fiscal year 1999 budget.
    CWC 612--Coleman National Fish Hatchery Modification.--The Coleman 
National Fish Hatchery was built by the U.S. Bureau of Reclamation 
(USBR) on Battle Creek in 1942 to mitigate damages to salmon spawning 
areas in the Sacramento River system caused by the construction of 
Shasta and Keswick Dams. Federal custody and operation were transferred 
to the U.S. Fish and Wildlife Service (USFWS) in 1948. Title 34 of 
Public Law 102-575 (Central Valley Project Improvement Act) specifies 
that USBR provide funding for completion of the rehabilitation of the 
Coleman National Fish Hatchery: 50 percent will be reimbursable from 
water and power users and 50 percent non-reimbursable.
    Facilities remaining to be completed are additional ozone water 
treatment facilities, a pump station in the Coleman Canal to pump water 
to the sand filters and ozonation plant, two new sand filters, 54-inch 
pipeline from the ozone plant to the 15 x 150 foot raceways and an air 
compressor.
    The California Water Commission supports the funding in the 
President's fiscal year 1999 Budget for completion of the items listed 
above.
    CWC 621--Winter-Run Chinook Salmon Captive Broodstock Program.--The 
captive broodstock program arose from shared concerns for the fate of 
the Sacramento River winter-run chinook salmon. Active participants 
have included representatives of U.S. Fish and Wildlife Service, 
National Marine Fisheries Service, U.S. Bureau of Reclamation, Bodega 
Marine Laboratory of the University of California, Steinhart Aquarium 
of the California Academy of Sciences, California Department of Fish 
and Game, California Department of Water Resources, Pacific Coast 
Federation of Fishermen's Associations, Tyee Club and California Water 
Commission. In late 1991, the parties formed the Winter-Run Chinook 
Captive Broodstock Committee to investigate the feasibility of rearing 
winter-run fry to maturity in captivity, so that broodstock would be 
available should the natural run disappear. By early 1992, the 
committee, through public meetings and consensus decisions, formulated 
and began the captive broodstock program.
    The program has promoted the genetic conservation of winter-run 
chinook salmon. Analyses of the effective size of the winter-run stock 
showed that a properly managed artificial propagation program to which 
the captive broodstock program contributes gametes is not likely to 
have a negative effect and may, instead, be helping to maintain or 
slightly increase slightly the genetic diversity of the stock.
    Development of microsatellite DNA markers from complementary 
programs at the Bodega Marine Laboratory, which are needed to determine 
parentage and run identity in the captive breeding effort, represents a 
substantial technical contribution of and for the program. In addition, 
under one of these complementary programs, these markers are being 
further developed and used for a mixed-stock analysis of juvenile 
chinook salmon in the Central Valley and in the Sacramento-San Joaquin 
Delta of California, where chinook salmon are taken by the State, 
Federal, and agricultural water diversions. Similar markers are also 
being used by salmon biologists in Alaska, Idaho, Washington, 
Louisiana, British Columbia, Ontario, Nova Scotia, Denmark, and New 
Zealand. Thus, these DNA markers will have uses in salmon biology far 
beyond their uses in the captive broodstock program.
    The captive broodstock program was initiated as a rapid response to 
the endangerment of the Sacramento River winter-run chinook salmon. To 
date, the program has realized many of its objectives. Gametes from 
captively reared broodstock have contributed to artificial propagation 
of the winter-run population; however, gamete quality must be improved 
to ensure successful production of offspring. Despite these problems, 
in each year since its inception, the program has provided 
progressively better spawners, gamete production, fertilization and 
production of juvenile fish. The artificial propagation program is 
actively pursuing improvements to rearing facilities and genetics and 
mating protocols to eliminate hybridization concerns. The recently 
completed Livingston Stone NFH below Shasta Dam is expected to 
successfully imprint the young fry on Sacramento River water. Most 
important, the scientific and technical advances by the program will 
provide an important legacy to salmon biology.
    The California Water Commission strongly recommends continuation of 
the program, which has been broadly supported by Federal, State and 
local funds.
    CWC 622 Hamilton City Pumping Plant Fish Facility.--The project is 
located between Sacramento River Mile 202 and 206 near the Glenn-Tehama 
county line. It is about 100 miles north of Sacramento, California.
    Finding a solution to the fish passage problem at the Hamilton City 
Pump Station has been identified as an important element to Central 
Valley fish restoration in both the Department of the Interior's draft 
Anadromous Fish Restoration Plan and in the California Department of 
Fish and Game's Restoring Central Valley Streams: A Plan of Action. 
Developing a state-of-the-art project has been a cooperative effort 
involving the District, the Bureau of Reclamation, the Corps of 
Engineers, the Department of Fish and Game, the Department of Water 
Resources, the National Marine Fisheries Service, the U.S. Fish and 
Wildlife Service and the Reclamation Board. A final EIR/EIS is 
currently undergoing a 30-day review. The lead agencies expect to sign 
a record of decision and notice of decision by March.
    The preferred alternative incorporates two important elements. One 
element is the fish screening facility. After extensive physical 
modeling, it was determined that an extension of the existing flat-
plate screen offered the most viable method of providing protection to 
California's fisheries.
    The second critical element to the long-term solution is the 
gradient restoration work being done on the Sacramento River. Hydraulic 
modeling and field investigations have demonstrated that the gradient 
facility is essential to the long-term viability of the fish screen 
structure.
    An appropriation of $2 million is recommended for the Corps of 
Engineers to complete the physical modeling necessary for final design 
and to award construction contracts, with construction scheduled to 
begin in late 1999. This level of funding is important to maintain the 
coordinated schedule for construction of the comprehensive long-term 
solution.
    CWC 660A--Arroyo Pasajero (See CWC 235).
    CWC 701 and 701A--Central Valley Project Operations and Maintenance 
(includes CVPIA).--The Nation's public works infrastructure is aging. 
We must ensure that adequate levels of funding are provided to protect 
the public's investment in facilities which we rely upon daily to 
provide water supply, flood protection, public safety, and other 
benefits. California's population of 32 million people depends upon a 
network of local, State, and Federal infrastructure developed over the 
past decades. Today, governments at all levels are finding it 
increasingly difficult to find funds to properly maintain existing 
facilities. The competition for funding raises important public policy 
questions about the relationship of funding for new projects and 
programs as opposed to funding to maintain and rehabilitate existing 
infrastructure.
    Too often, the temporary solution used by all levels of government 
to meet budgetary constraints is to defer maintenance funding. However, 
deferred maintenance does not come without a price.
    Given the increasing competition for Federal dollars, we must be 
prepared to make the difficult choice of deferring studies and new 
projects until we are assured that existing Federal facilities are 
receiving appropriate levels of safety review and maintenance.
    CWC 900 and 1000--Recycled Water Projects.--The California Water 
Commission has long recognized water recycling as an important element 
in the management of California's water resources, both for cleanup of 
municipal, industrial and agricultural discharges and to improve the 
quantity and quality of water supplies. Following extensive hearings 
throughout the State on the Department of Water Resources' Bulletin 
160-98, California Water Plan Update, which includes a provision that 
over 1 million acre-feet of recycled water be added to California's 
annual water supply by the year 2020.
    It is the Commission's view that both water recycling programs and 
the other ongoing USBR programs are highly important and that they 
should be supported in concert, within the limitations of available 
Federal funds, giving due consideration to other potential sources of 
funds that could be available to effect their implementation.
    CWC 1108--Salton Sea Study.--The Salton Sea is the largest lake in 
California and is a regionally important feature from both 
environmental and economic standpoints. It is located in the 
southeastern corner of the State within the geologic feature known as 
the Salton Basin, a natural basin located approximately 278 feet below 
mean Sea level (-278 feet msl). The Salton Sea receives drainage from 
approximately 8,000 square miles of Riverside, Imperial, and San Diego 
Counties and the Republic of Mexico. It is a closed basin thus water 
only leaves the Sea via evaporation. Inflow to the Sea consists of 
agricultural drainage, storm water and wastewater, and is generally in 
hydrologic balance with evaporative losses. The closed nature of the 
system has resulted in changes in the salinity and water surface 
elevation of the Sea over time.
    In 1993, the Counties of Riverside and Imperial, Imperial 
Irrigation District (IID), and Coachella Valley Water District (CVWD) 
entered into a Joint Powers Agreement, creating a public agency known 
as the Salton Sea Authority. The Authority and the California Water 
Commission conducted a symposium on January 12, 1998 to help focus 
attention on this major issue. The Commission strongly supports the 
proposed authorized bill that is being discussed by Congress.
    CWC 1304B--Colorado River Basin Salinity Control (Basinwide).--The 
Colorado River is a large component of the regional water supply, and 
its relatively high salinity causes significant economic impacts on the 
16 million water customers in the Metropolitan Water District's service 
area, as well as throughout the Lower Colorado River Basin. For this 
reason, MWD and the Bureau of Reclamation are currently conducting a 
Salinity Management Study in Southern California. The first phase of 
the study (completed in February 1997) concluded that the high salinity 
from the Colorado River causes significant impacts to residential, 
industrial, and agricultural water users.
    The Colorado River Basin Salinity Control Forum (Forum), the 
interstate organization responsible for coordinating the Basin States' 
salinity control efforts, issued its ``1996 Review, Water Quality 
Standards for Salinity, Colorado River System'' (1996 Review) in June 
1996. The 1996 Review found that additional salinity control was 
necessary beginning in 1994 to meet the numeric criteria in the water 
quality standards adopted by the seven Colorado River Basin States and 
adopted by the U.S. Environmental Protection Agency, with normal water 
supply conditions.
    The President's proposed fiscal year 1999 budget contains funding 
of $12.3 million for implementation of the basinwide program. MWD 
requests that Congress appropriate $17.5 million for implementation of 
the basinwide program, an increase of $5.2 million from that proposed 
by the President. This level of funding is necessary to meet the 
salinity control activities schedule in order to maintain the State 
adopted and federally approved water quality standards.
    The California Water Commission supports an increase of $5.2 
million for this program. 
[GRAPHIC] [TIFF OMITTED] TCORPS.001

[GRAPHIC] [TIFF OMITTED] TCORPS.002

[GRAPHIC] [TIFF OMITTED] TCORPS.003

[GRAPHIC] [TIFF OMITTED] TCORPS.004

[GRAPHIC] [TIFF OMITTED] TCORPS.005

[GRAPHIC] [TIFF OMITTED] TCORPS.006

[GRAPHIC] [TIFF OMITTED] TCORPS.007

[GRAPHIC] [TIFF OMITTED] TCORPS.008

[GRAPHIC] [TIFF OMITTED] TCORPS.009

                                 ______
                                 

  Prepared Statement of Frank Dal Gallo, President, Peter D. Rabbon, 
General Manager, the Reclamation Board, the Resources Agency, State of 
                               California

 THE RECLAMATION BOARD, FINAL RECOMMENDATIONS FOR FEDERAL FLOOD CONTROL
                         PROJECTS--1999 SUMMARY
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                   President     Board
                                                     budget   recommends
------------------------------------------------------------------------
Corps of Engineers' Projects:
    General investigations--Surveys:
        Sacramento and San Joaquin Rivers
         Comprehensive Basin Study...............      3,500       3,500
        Northern California Streams:
            Middle Creek.........................        200         200
            Lower Strong Ranch and Chicken Ranch
             Sloughs.............................  .........         100
    Preconstruction engineering and design:
        Kaweah River.............................      1,165       1,165
        American River Watershed (Long Term
         Planning)...............................        500       4,000
        Yuba River Basin.........................        100         775
        Merced County Streams....................        500         900
    Construction--General
        Sacramento River Bank Protection.........      7,080      10,080
        Marysville/Yuba City Levee Reconstruction        746      12,000
        West Sacramento..........................      2,500      13,000
        American River Watershed (Common
         Elements)...............................      1,000      26,000
        American River Watershed (Long Term).....  .........       1,000
        Mid-Valley Levee Reconstruction..........      1,700       1,700
        Kaweah River.............................  .........         500
        Lower Sacramento Levee Reconstruction....        952         952
        Upper Sacramento Levee Reconstruction....        400         400
        American River Watershed (Natomas).......  .........      14,500
------------------------------------------------------------------------

                the reclamation board's recommendations
    The Reclamation Board, as the State agency which furnishes required 
local assurances for a majority of the Federal flood control projects 
in California's Central Valley, respectfully submits this statement of 
support for Corp of Engineer's flood control projects.
    The Board in general supports the Presidents budget for Federal 
flood control projects in the California Central Valley. The projects 
described below are of particular importance to the health, safety, and 
well-being of Central Valley residents and are especially important to 
The Reclamation Board that they are started and/or kept on schedule.
General Investigations--Surveys
    Sacramento and San Joaquin Rivers Comprehensive Basin Study.--The 
study area includes the entire Sacramento River Basin and San Joaquin 
River Basin in Northern and Central California respectively. Local, 
State and Federal water resources agencies support a coordinated multi-
objective investigation to balance flood damage prevention, 
environmental restoration, and other water resources purposed along the 
river. The Feasibility Cost Sharing Agreement was executed in February 
1998.
    The Board recommends funding to continue this study.
    Northern California Streams.--This survey, authorized in 1962, is a 
study of the Sacramento River and its tributaries in regard to flood 
control measures. The following are interim study proposals for funding 
in fiscal year 1997.
                              middle creek
    A reconnaissance study, which evaluated several alternatives near 
Middle Creek's confluence with Clear Lake on lake county, was completed 
in 1997. Existing levees which do not provide adequate flood protection 
need to be repaired and upgraded.
    The Board supports funding to continue the feasibility study.
              lower strong ranch and chicken ranch sloughs
    In January 1997 areas along lower Strong Ranch Slough and lower 
Chicken Ranch Slough in Sacramento County were flooded twice by those 
streams. This area was also flooded in February 1986.
    The Board recommends funding for a reconnaissance study.
Preconstruction Engineering and Design
    Kaweah River.--Terminus Dam above the city of Visalia was completed 
in 1962 to provide flood control and irrigation water supply. However, 
significant flood damages to communities and highly developed 
agricultural lands along the Kaweah River have continued to occur.
    The Board recommends funding to continue preconstruction 
engineering and design and to initiate construction.
    American River Watershed (Long Term Planning).--The Sacramento 
Urban Area has only a 70-year level of protection from flooding by the 
American River. Although incremental actions have occurred, a long term 
plan for high levels of protection must be developed and implemented.
    The Board recommends funding to continue: long term planning; 
preconstruction engineering and design; and to initiate construction.
    Yuba River Basin.--The Marysville and Yuba City area has 
experienced seven major floods. A feasibility study is scheduled for 
completion in April 1998.
    The Board recommends funding to continue preconstruction 
engineering and design.
    Merced County Streams Group (Bear Creek Unit).--Merced narrowly 
avoided major urban flooding in January and February 1998.
    The Board recommends funding to continue preconstruction, 
engineering, and design.
Construction--General
    Sacramento River Bank Protection.--The project, authorized in 1960, 
is a long-range Federal-State effort to preserve the existing project 
levee system along 192 miles of the Sacramento River. The Sacramento 
River Bank Protection Project work consists of providing some form of 
bank stabilization at those points which are identified each year as 
the most critical.
    The Board recommends funding for continued construction.
    Marysville/Yuba City Levee Reconstruction.--This program will 
reconstruct 44 miles of the 134 miles of federally authorized levees 
which protect the Marysville/Yuba City area. The first of three 
construction contracts was awarded in July 1995. Flooding in 1997 
demonstrated the need to extend the work sites, modify the design, and 
investigate new sites in the project area.
    The Board recommends funding for continued construction.
    West Sacramento.--The Board is the non-Federal sponsor for the West 
Sacramento flood control project which was authorized for construction 
by WRDA 1992.
    The Board supports funding to continue construction.
    American River Watershed (Common Elements).--The Common Elements 
Project was authorized in WRDA 1996. This project consists of features 
that would be common to any long term project selected for the American 
River.
    The Board supports Federal funding for the continued construction 
of this project.
    American River Watershed (Long Term).--Discussed previously under 
preconstruction engineering and design.
    Mid-Valley Area Levee Reconstruction.--An evaluation of about 240 
miles of the Sacramento River Flood Control Project levees in the 
Sacramento Mid-Valley area identified about 20 miles of levees that are 
structurally deficient and require reconstruction.
    The Board recommends funding to initiate construction.
    Kaweah River.--Discussed previously under preconstruction 
engineering and design.
    Lower Sacramento Levee Reconstruction.--An evaluation of about 295 
miles of the Sacramento River Flood Control Project levees in the Lower 
Sacramento Valley area identified about 47 miles of levees that are 
structurally deficient. The project includes reconstructing about 2 
miles of these levees.
    The Board recommends funding for construction activities.
    Upper Sacramento Levee Reconstruction.--Federally authorized flood 
control levees in the Upper Sacramento Area were evaluated and 12 miles 
were determined to be deficient and requiring reconstruction.
    The Board recommends funding for construction.
    American River Watershed (Natomas).--The project was authorized but 
not funded in 1992. The local flood control agency proceeded with the 
work.
                                 ______
                                 

   Prepared Statement of Floyd R. Summers, PE, President, California 
           Society of Professional Engineers, Sacramento, CA

    The Federal Appropriations for fiscal year 1999 presented to you by 
the California Water Commission are endorsed by the California Society 
of Professional Engineers.
    The Commission's process of understanding and screening each 
project, each year, is extensive, exhaustive and thorough. The 
Commission works with many Federal and State agencies, districts, 
cities, organizations and individuals throughout the year to understand 
the projects and their effects on a growing society. This includes 
deliberative balancing of competing interests. A project does not make 
the list unless it is well understood and makes sense.
    Increases for some of the Bureau of Reclamation and Corps of 
Engineers projects which are in the feasibility study phase are because 
of situations encountered during study work that require investigation 
and were not anticipated when original budgets were developed 2 or 3 
years in advance. Without the increases, work in progress on the 
studies will be seriously adversely impacted, often with detrimental 
impacts on resource management and people's well being.
    The California Society of Professional Engineers is a voluntary 
organization of 2,500 registered professional engineers of all 
disciplines (civil, electrical, mechanical, structural, fire 
protection, chemical, control, etc.) and areas of practice 
(construction, education, government, industry, and private practice).
                                 ______
                                 

Prepared Statement of Stephen K. Hall, Executive Director, Association 
                      of California Water Agencies

    On behalf of the members of the Association of California Water 
Agencies (ACWA), I am writing to request support for Federal funding in 
fiscal year 1999 to continue ongoing efforts through the CALFED Bay-
Delta Program to restore the San Francisco Bay/San Joaquin River Delta 
ecosystem in California.
    The 104th Congress in 1996 passed the California Bay-Delta 
Environmental Enhancement and Water Security Act, which authorized $430 
million over 3 years for this purpose. President Clinton, as he did in 
his fiscal year 1998 budget, has requested $143 million of these funds 
as part of his fiscal year 1999 budget. In October 1997, President 
Clinton signed an energy and water development and appropriations bill 
containing $85 million for the Bay-Delta system.
    Our members strongly support making this fiscal year 1999 request a 
high priority within the Energy and Water Development Appropriations 
bill.
    The key to the appropriation of these funds was the work of a 
unique coalition, which brought together environmental, urban and 
agricultural interest to advocate for the Federal ecosystem funds. The 
coalition continues to work to secure this second-year appropriation.
    The San Francisco Bay/San Joaquin River Delta system is the largest 
estuary on the West Coast. Millions of birds and 53 species of fish 
migrate through and live in the Bay-Delta estuary, including many 
listed as threatened or endangered. The estuary is also crucial to the 
nation's economy, providing drinking water for 22 million people and 
irrigation water for over 4 million acres of farmland, including 45 
percent of the nation's produce.
    One of the unique aspects of the CALFED Bay-Delta Program is that a 
strategy for funding a long-term solution is being developed as an 
integral part of the overall program. Costs of the program will be 
shared by many entities, including Federal appropriations, private-
public partnerships, and general obligation bonds. Passage of State 
Proposition 204 in 1996 has provided more than $430 million for the 
CALFED Bay-Delta Program's environmental enhancement efforts. Water 
users also provided seed money to jump-start implementation of 
ecosystem projects in 1995-97. This funding for early implementation of 
the Programs' environmental actions reflects the fundamental need to 
restore the ecosystem as an essential component of a long-term 
comprehensive solution to Bay-Delta system problems. Funds provided in 
fiscal year 1999 can be leveraged against other funding sources, 
including the Central Valley Project Improvement Act Restoration Fund 
to finance further ecosystem restoration activities.
    Again, on behalf of the California water supply community, thank 
you for your attention to this request to fully fund the President's 
fiscal year 1999 budget request of $143 million for the CALFED Program.
                                 ______
                                 

 Prepared Statement of Nathaniel S. Bingham, Habitat Director, Pacific 
              Coast Federation of Fishermen's Association

          winter-run chinook salmon captive broodstock program
    The Captive broodstock program, which we are requesting 
continuation funding for, arose from the shared concern about the 
possible extinction of the winter-run of a wide range of stakeholders 
and agencies. In 1991 the concerned parties formed the Winter-Run 
Captive Broodstock Committee which formulated and began the program. 
Utilizing funding provided by Congress the committee began the program 
in 1992. Total annual program costs have averaged $1,250,000. Rearing 
facilities at Bodega Marine Laboratory of the University of California 
and Steinhart Aquarium of the California Academy of Sciences were 
constructed around juvenile salmon provided from Coleman National Fish 
Hatchery. Presently the combined facilities of both institutions are 
holding four year classes of salmon in captivity. Offspring from the 
captive adult salmon have been successfully released in the Sacramento 
River. This years production will be 40,000 juvenile winter-run chinook 
salmon. The captive broodstock program has required and has provided 
substantial scientific and technical advances in the husbandry, 
pathology, and genetics of chinook salmon. In order to conserve the 
unique genetics of the winter-run, the program has developed a new 
microsatellite DNA marker technology to determine the parentage and run 
identity of the captive salmon. These markers are now being further 
developed and are being used to identify the stock origin of salmon 
entrained by the State water export pumps in the Sacramento San Joaquin 
Delta. Thus these markers will have uses in salmon biology far beyond 
their application to the brood stock program.
    For fiscal year 1999 we are requesting $350,000 from the committee 
in the Bureau of Reclamation funds. The U.S. Fish and Wildlife Service 
has committed $150,000 from the Central Valley Improvement Act 
Restoration Fund.
          community based salmon habitat restoration projects
    Coho Salmon have recently been listed as threatened in Central 
California under the Federal Endangered Species Act. In addition the 
National Marine Fisheries Service has also listed Coho in the 
``Transboundary Evolutionarily Significant Unit'' in Northern 
California and Southern Oregon. This listing is anticipated to impact 
many users of timber and water resources in California and Oregon. We 
are requesting that the committee provide $1 million in California, for 
community based watershed restoration projects to be funded through the 
National Fish and Wildlife Foundation.
                                 ______
                                 

Prepared Statement of Emery Poundstone, President, Reclamation District 
                                No. 108

    Mr. Chairman, Members of the Subcommittee, my name is Emery 
Poundstone. I am a rice farmer, and I am President of the Board of 
Directors of Reclamation District No. 108.
    I appreciate the opportunity to testify before you this morning 
regarding the Federal funding priorities for RD 108.
    I also want to thank the Committee Members, particularly 
Congressman Vic Fazio, who represents our region, for their past 
efforts to address our concerns. In particular, the District is very 
appreciative of the Committee's strong support for our efforts to 
construct a state-of-the-art fish screen at our District's main 
diversion on the Sacramento River.
    Reclamation District No. 108 has two funding requests for fiscal 
year 1999. First, RD 108 requests that the Subcommittee provide an 
additional $3,000,000 for the Corps of Engineers, under the Sacramento 
River Bank Protection Program, to complete levee protection work that 
was begun in fiscal year 1998. The funds will allow the Corps of 
Engineers to complete reinforcement and protection work on a five mile 
section of the District's so-called Back Levee, the left bank of the 
Colusa Basin Drain. In fiscal year 1998, the Committee provided 
$750,000 to initiate work on this levee protection work.
    The fiscal year 1999 funds are needed to permanently protect the 
District's Back Levee and avoid the need for future repairs under the 
Public Law 84-99 program.
    During the early fall of 1997, the Corps of Engineers repaired 3.4 
miles of this levee section, under Public Law 84-99. The levee section 
was severely damaged during the 1995 flood event and the Corps of 
Engineers worked to restore the levee to its original condition. 
However, just months after this work was finished, in February of this 
year, another flood occurred and caused severe damage to not only the 
original 3.4 mile section of levee reconstructed by the Corps but also 
to approximately 1.5 miles of additional levee. Clearly, a permanent 
remedy to prevent recurring flood damage is required.
    The project the Corps of Engineers is currently designing, and that 
will be completed with the $3,000,000 the District seeks, will 
permanently protect this important levee. The California Water 
Commission has endorsed the project, and the State Reclamation Board 
has indicated its desire and intent to cost-share the project.
    Again, the District respectfully requests that the Committee add 
$3,000,000 to the Sacramento River Bank Protection Project and direct 
the Corps of Engineers to use these funds to reconstruct and protect 
the so-called Back Levee of Reclamation District No. 108 from future 
damage and potential failure.
    Second, on behalf of the Sacramento River Settlement Contractors, I 
respectfully request the Committee provide an additional $1,000,000 for 
studies that must be undertaken to complete the Sacramento River Basin-
Wide Water Management Plan and to update and extend the 1956 
Cooperative Study (WMP). The WMP is required by the Memorandum of 
Understanding between eight Settlement Contractors and the Bureau of 
Reclamation in January 1997 and must be completed prior to the 
negotiation of the renewal of the Central Valley Project Sacramento 
River Settlement Contracts.
    The Bureau of Reclamation has allocated $650,000 to these studies 
in fiscal year 1998. The Bureau has additional $1,000,000, of which 
$600,000 is for continuation of these studies, in the fiscal year 1999 
budget request for the Bureau of Reclamation, under Central Valley 
Project, Sacramento River Division, Sacramento River Contract 
Litigation Settlement. While the District and the other Sacramento 
River Settlement Contractors are pleased with the Bureau's commitment 
to completion of the WMP, we believe that financial resources, in 
addition to those provided by the Settlement Contractors on a cost-
share basis, will be needed in fiscal year 1999 in order to ensure that 
these studies are carried out in a timely and complete process. RD 108 
and the other seven Sacramento River Settlement Contractors, therefore, 
request that the Committee provide an additional $1,000,000, over and 
beyond the funds included in the budget request, for the Sacramento 
River Division, specifically to support water user directed studies 
associated with the preparation of the final WMP. Failure to complete 
the work that will be carried out with the additional resources, could 
jeopardize the capability of all Settlement Contractors to complete 
negotiations with the Bureau of Reclamation on renewal of Sacramento 
River Settlement Contracts.
    Here, again, the California Water Commission has endorsed this 
request.
    Thank you for the opportunity to testify.
                                 ______
                                 

   Prepared Statement of Gaye Lopez, Manager, Colusa Basin Drainage 
                                District

USBR Fiscal Year 1998 Request: $3,500,000
    Mr. Chairman and Members: The Colusa Basin Drainage District 
appreciates your past support for our Integrated Resources Management 
Plan for water management that addresses flooding and will provide 
opportunities for future conjunctive use of water resources to meet the 
diverse needs of agricultural, urban and wildlife interests in the 
Colusa Basin.
    The 650,000 acre Colusa Basin Drainage District, located on the 
west side of the Sacramento River, serves a large watershed exceeding 
one million acres. It covers three counties, Glenn, Colusa and northern 
Yolo Counties. It not only is a rich agricultural area, but a rich 
wildlife area as well, including three national wildlife refuges.
    Over the decades, devastating floods have repeatedly struck the 
Colusa Basin resulting in costly damages to public and private property 
and loss of life. In 1995 and again in 1998 these three counties 
suffered an estimated 100 million dollars in losses and 1 death due to 
storms. In November 1995, a majority of landowners voted to implement 
the District's Integrated Management Plan to address flood damage while 
obtaining other benefits of increasing groundwater supplies, surface 
water storage, and improve environmental and wildlife uses in the 
watershed.
    Through a stakeholder/local, State and Federal agency collaborative 
process, four projects have been initially selected to be developed to 
serve as a demonstration for integrated resources management: Two small 
reservoirs, a groundwater recharge detention basin, and management of 
the 75 mile Drain itself. During 1996, preliminary design for the 
conjunctive use demonstration projects was completed. Both basin-wide 
programmatic as well as project specific environmental documentation 
commenced during 1997 and is scheduled for completion in fiscal year 
1998.
    The District requests a $3,500,000 appropriation in fiscal year 
1999 for final design and construction of one of the District's 
priority projects. We believe our Integrated Resource approach to 
solving a number of problems across a large area with the same dollar, 
is a wise expenditure of public funds.
    Thank you for your continued support.
                                 ______
                                 

 Prepared Statement of Dick Akin, Sutter County Supervisor, District 5

    We are requesting reconnaissance studies within Sutter County 
because:
  --flooding of January 1997, including in our Meridian area, exposed 
        problems along our 200 miles of levees that we were not aware 
        of prior to this;
  --the Corps of Engineers has developed new levee stability 
        information subsequent to that flooding;
  --as part of a review of alternatives to provide flood control, we 
        hired engineers, in the Fall of 1997, to do some scoping work 
        and identified numerous areas of concern we have placed a one-
        half cent sales tax for flood control on the June ballot and 
        would like to begin the process of seeking Federal assistance 
        as soon as possible.
    While we requested four separate studies, we are willing to work 
with you and the Corps of Engineers to determine the correct approach. 
It is possible that there should be some combination of these studies, 
based on discussions with your staff, and we will gladly accept your 
advice on that issue.
    We just want to get the process started.
    Thank you for your time and attention and for the opportunity to 
speak.
                                 ______
                                 

  Prepared Statement of Tib Belza, Chairman, Yuba County Water Agency

                                request
    Please appropriate $775,000 for fiscal year 1999 for the U.S. Army 
Corps of Engineers (USACE) for preconstruction engineering and design 
for the Yuba River Basin, California, levee flood protection 
improvements.
                                 issue
    The USACE has recently completed the Draft Feasibility Report, Yuba 
River Basin Investigation, California, January 1998. The report 
identifies Federal interest in approximately $28 million of 
improvements to existing levees. To keep the effort to provide 
critically needed higher levels of flood protection for the area moving 
forward, the USACE has identified that they need $775,000 of Federal 
funding in fiscal year 1999. The California State Reclamation Board is 
on record as supporting this levee improvement work, and the Yuba 
County Water Agency (YCWA) Board has committed money that is in hand 
for the local share of this critically needed flood protection work.
             identified levee improvements that are needed
    The USACE recommended plan involves constructing or deepening 6.7 
miles of slurry walls, deepening 9 miles of interior toe drains and 
constructing or modifying 9.5 miles of berms along section of the Yuba 
and Feather Rivers and constructing about 5 miles of slurry walls and 
berms along the ring levee around the City of Marysville. The proposed 
work has an overall benefit-cost ratio of 2.6.
                         flood protection need
    The City of Marysville is located at the confluence of two major 
California Rivers, the Feather and the Yuba. Historically the area on 
the average has been subject to major floods about every 8.5 years. 
During the past 50 years, the area has had five major river floods, 
resulting in a total of 43 deaths and an estimated total damage cost of 
$818 million when brought to 1997 dollars. None of these floods have 
been from levee overtopping, all have been the result of levee 
failures. The most recent major Yuba County flood in January 1997, took 
3 lives, destroyed in excess of 800 homes, flooded 16,000 acres and 
resulted in the largest evacuation in California history. An estimated 
100,000 people were evacuated as a result of this flood. The 
environmental damage was enormous, including vast destruction of 
designated habitat for endangered species.
    Yuba County has probably done more to provide flood protection for 
itself than any County in California. Unfortunately Yuba County is 
consistently in the bottom three counties for per capita income in 
California. Substantial efforts are continuously being undertaken to 
bring economic development to the area, but each time progress is being 
made, another flood occurs, scaring away potential investors.
             congressional support leading to where we are
    In 1988 Congress appropriated $500,000 for a USACE Yuba River Basin 
Flood Control Reconnaissance Study. The Reconnaissance Study identified 
Federal interest in levee improvements and recommended a Feasibility 
Study. In 1991 the USACE undertook a $2.1 million Feasibility Study 
that ultimately cost $2.6 million. Half the cost of the Feasibility 
Study was non-Federal. The Feasibility Study has identified Federal 
interest in approximately $28 million in levee improvements. The 
$775,000 being requested is part of the Federal share of levee 
improvement work identified in the recently completed Feasibility Study 
that has been underway since 1991. Since 1988, $1.8 million in Federal 
funds and a total of $3.1 million have been spent identifying the 
problem. It is now time to move forward with some fixes on the ground.
    On behalf of the flood devastated people of Yuba County, I urge 
that you find a way to provide the USACE with the $775,000 they have 
identified is needed to keep urgently needed flood protection 
improvements for our County moving forward. We are grateful for the 
financial assistance Congress has provided in the past. Thank you.
                                 ______
                                 

Prepared Statement of Walter Kickewirth, Chairman, Board of Directors, 
                       Place County Water Agency

    The Bureau of Reclamation is now engaged in a project to construct 
a permanent pump station located out of harm's way in order to meet its 
contractual requirements and eliminate the waste of annually installing 
and removing a major facility.
    Last year, Congress supported this project and appropriated $4 
million. With this, we hope to issue an initial construction contract 
late this summer. We anticipate construction activity will span at 
least three construction seasons and additional funds will be required 
to complete the project.
    The Bureau of Reclamation has requested $13,400,000 through the 
President's budget, and the Placer County Water Agency is in full 
support of the Bureau and respectfully asks for your consideration.
    In lieu of a large appendix of background material tied to the 
Auburn Dam saga, I am enclosing only two items: (1) a photo of the 
Placer County Water Agency pump station, circa 1967, which was removed 
by the Federal Government to make way for the Auburn Dam, and (2) a 
copy of the contract between the Water Agency and the Bureau of 
Reclamation guaranteeing access to our water whenever needed.
    If you have questions or need any additional information, feel free 
to contact, at Placer County Water Agency, General Manager Dave 
Breninger at (530) 823-4860, or our Special Projects Administrator, 
Jack Warren, at (530) 823-4986; or at Reclamation, Regional Director 
Roger Patterson at (916) 979-2207, or Area Manager Tom Aiken at (916) 
988-1707.
    Thank you for the opportunity to bring this matter to your 
attention for funding.
            supplemental agreement to land purchase contract
    THIS AGREEMENT, made this ______ day of ____ 19____, in pursuance 
of the Act of June 17, 1902 (32 Stat. 388), and acts amendatory thereof 
or supplementary thereto, between THE UNITED STATES OF AMERICA, 
hereinafter styled the United States, acting through such officer as is 
authorized therefor by the Secretary, of the Interior, and PLACER 
COUNTY WATER AGENCY, a public agency created by Act of the Legislature 
of the State of California, hereinafter styled Vendor.
    2. WITNESSETH:
    WHEREAS, on July 25, 1972, Vendor and the United States entered 
into Land Purchase Contract No. 14-06-859-308, which contract was 
recorded on August 7, 1972, in Volume 1435 at Page 226, Official 
Records, County of Placer, State of California; and
    WHEREAS, under the terms and provisions of Article 3 of said 
contract Vendor agreed to convey to the United States those certain 
lands identified as ``Unit AD-32, Rev. 5-11-72, Corrected,'' and ``Unit 
AD-49-1, 5-29-68,'' as described in Exhibit ``A'' of said contract, 
excepting, therefrom the tunnel intake structure, tunnel, valve house 
and appurtenant facilities, and reserving to Vendor the perpetual 
right, power, privilege, and easement to operate and maintain the 
Auburn Ravine Tunnel and appurtenant parts and structures, including 
the valve house, in, on, over, and through the lands so described in 
Schedule ``A'' of said contract as Unit AD-49-1 and Tract No. 2 of AD-
32; and
    WHEREAS, Articles 11 and 12 of said contract provide that in the 
event Vendor demonstrates a need for water, the United States will 
provide a substitute pumping facility to deliver water into said 
existing tunnel intake structure at the intake portal of the Auburn 
Ravine Tunnel, or at its option, the United States could provide water 
from an alternate source provided delivery was made to a point suitable 
for its intended use; and
    WHEREAS, by letter dated February 9, 1977, Vendor informed the 
United States of a need for additional water due to an increase in 
service demands from customers within Vendor's water service area and 
also that Vendor was faced with a water shortage due to the current 
drought conditions; and
    WHEREAS, the United States has determined that additional water for 
Vendor' use cannot be obtained economically from an alternate source 
and that construction of a substitute pumping facility is the most 
desirable method of providing Vendor with the means for obtaining said 
additional water from the American River for delivery to said intake 
portal of the Auburn Ravine Tunnel; and
    WHEREAS, in order to expedite construction of a substitute pumping 
facility by the United States, Vendor proposes to provide the original 
pumps and motors which were salvaged and removed by Vendor in 
accordance with Article 4 of said contract; and
    WHEREAS, Vendor's proposal to furnish pumps and motors would 
relieve the United States of the obligation to purchase new pumps and 
motors and would result in a more timely construction of a substitute 
pumping facility; and
    WHEREAS, it is to the mutual benefit and desire of the parties that 
said Land Purchase Contract be supplemented and amended to provide that 
Vendor will furnish the pumps and motors for a substitute pumping 
facility and that the United States, in lieu of furnishing new pumps 
and motors, will furnish and install the necessary electric power 
facilities and repair and install the electrical equipment previously 
purchased by the Vendor as necessary to make the substitute pumping 
plant operative.
    NOW, THEREFORE, the parties hereto do agree that said contract 
shall be supplemented by the addition of Articles 19, 20, 21, 22, 23 
and 24 as follows:
    19. The United States shall construct a substitute pumping facility 
on the upstream side of the existing cofferdam at the Auburn Dam site 
on the American River. In lieu of providing new pumps and motors for a 
substitute facility, the United States will utilize the original pumps 
and motors which shall be provided by the Vendor. Vendor agrees that 
said pumps, motors and appurtenant equipment shall be available for 
United States use in the substitute facility until such time it is 
determined, by mutual agreement of the parties hereto, that said 
substitute facility is no longer required. In exchange for the use of 
Vendor's pumps and motors, the United States shall provide the 
necessary transmission line, repair and install the Vendor's electrical 
equipment, and allow Vendor to use United States substation as a source 
of electric power to make the substitute facility operative. It shall 
be Vendor's responsibility to arrange with Pacific Gas and Electric 
Company for installation of the necessary metering equipment at the 
substation and for billing to Vendor for the power used by the 
substitute pumping facility.
    20. In the event Vendor's need for additional water extends beyond 
calendar year 1978, it shall be Vendor's responsibility to arrange for 
an alternate source of power for continued operation of the substitute 
pumping facility. The United States shall, at that time, as part of the 
exchange referred to herein, arrange for relocation of the transmission 
line within the construction area so as not to interfere with the 
construction of Auburn Dam.
    21. Installation of said substitute pumping facility upstream from 
the existing cofferdam will subject the facility to flooding when river 
flows exceed 80,000 c.f.s. during the winter months. It shall be the 
responsibility of the United States to arrange for the removal, storage 
and reinstallation of the pumps, motors, electrical equipment and such 
other of the facilities that could be damaged by high water. All other 
operation and maintenance of said substitute facility shall remain the 
responsibility of the Vendor as provided for in Article 12 of said 
contract. The United States shall provide Vendor with a suitable means 
of temporary ingress and egress through the construction site to their 
valve house structure and to the substitute pumping facility for 
operation and maintenance purposes. Said route of temporary ingress and 
egress may vary from time to time so as to interfere as little as 
possible with the contractor's activities during construction of 
Auburn, Dam.
    22. Vendor agrees to inform the United States annually of the need 
for continued use of the substitute pumping facility. Vendor shall give 
the United States at least sixty days written notice when requesting 
the United States to reinstall the pumps, motors, and electrical 
equipment as necessary, to make the substitute pumping facility 
operational.
    23. It is mutually understood and agreed upon by the parties 
hereto, that all equipment pertaining to the said substitute pumping 
facility, with the exception of the two 24-inch diameter steel 
discharge pipelines extending from the ends of the pump manifolds to 
the Auburn Ravine Tunnel intake structure, is considered to be the 
property of the Vendor. Said steel discharge pipelines shall remain the 
property of the United States.
    24. In the event Vendor determines that the equipment in use at the 
substitute facility could be utilized elsewhere by Vendor more 
effectively, or, that said substitute facility is no longer required to 
provide Vendor with additional water, the United States shall, upon 
written notification by Vendor, deliver the pumps, motors and 
appurtenant equipment to a Project storage site selected by the United 
States. Vendor shall be responsible for removal of said equipment from 
said Project storage site to a site selected by Vendor for either 
permanent storage or installation elsewhere. Vendor shall also be 
responsible for the removal of any electric transmission line installed 
by Vendor to provide power to operate the substitute facility.
    As to all other provisions in said Land Purchase Contract, the same 
shall remain in full force and effect.
    IN WITNESS WHEREOF, the parties hereto have executed this 
instrument this ________day of19____.

UNITED STATES OF AMERICA

By______________________________
Regional Real Estate Officer
PLACER COUNTY WATER AGENCY, Vendor

By______________________________
Chairman, Board of Directors

    On this ________ day of ____, 19____, before me a Notary Public in 
and for the County and State aforesaid, personally appeared and 
__________, known to me to be the and __________ of the Corporation 
that executed the within instrument, and to be the persons who executed 
the within instrument on behalf of the corporation therein named, and 
acknowledged to me that such corporation executed the within instrument 
pursuant to its by-laws or a resolution of its Board of Directors.
    IN WITNESS WHEREOF, I have hereunto set my hand and affixed my 
official seal this day and year in this certificate above written.
______________________________
Notary Public

My Commission Expires:____________
                                 ______
                                 

 Prepared Statement on behalf of the County of San Joaquin and the San 
    Joaquin County Flood Control and Water Conservation District, CA

    San Joaquin County, located in the heart of California's central 
valley, has both a vibrant agricultural economic base and burgeoning 
metropolitan growth. Both of these vital elements are vulnerable to the 
forces of nature. The 1997 flood inundated thousands of acres and 
threatened our major urban areas. The actual economic loss to the 
County in 1997 is a staggering ($100+ million) and the potential loss 
due to flooding is enormous. The heart of Stockton faces a flood threat 
from the Calaveras River, Bear Creek and Mosher Slough. The San Joaquin 
Area Flood Control Agency (SJAFCA) has been formed and construction is 
nearly complete (a $70 million investment) to restore the Stockton area 
100-year level of flood protection. We have aggressively moved ahead 
with this work to protect our people in anticipation that a credit for 
our work would be forthcoming against a Corps developed project.
    At the other extreme of the weather spectrum, San Joaquin is very 
vulnerable to drought induced water shortages. Due to the export of our 
water by East Bay Municipal Utility District to the Oakland area and by 
the Bureau of Reclamation to the CVP, San Joaquin County is deficient 
of an adequate water supply in quantity and quality. Our ground water 
levels dramatically drop during a less than average water year. During 
these drops, the threat of salt water intrusion in our ground water 
basin from the Delta is a major concern. Our local water district 
(Stockton-East Water District) has invested $65 million to allow 
transfer of Stanislaus River flows to supplement our water supplies, 
but this project is dependent on the coordinated operation of New 
Melones Reservoir and local storage capability during wet years.
    As you can see, we are willing to invest in our future and we will 
continue to do so. The timely funding of these important studies is 
crucial to the economic well being of San Joaquin County. These 
projects represent studies that need to be conducted in order to 
resolve problems on flood control, water supply, water quality, 
groundwater and the environment in San Joaquin County. We need Federal 
help in several of these projects and we request Federal appropriations 
during fiscal year 1998-99 for the following Corps of Engineers and 
Bureau of Reclamation projects:

              Fiscal year 1999                                          

U.S. Army Corps of Engineers:
    General Investigations--Surveys:
        (110) Sacramento and San Joaquin Rivers Comprehensive 
          Study...............................................$3,500,000
        (125) San Joaquin River Basin Cosumnes and Mokelumne 
          Rivers..............................................    18,000
        (134A) San Joaquin River Basin Stockton Metropolitan 
          Area................................................   400,000
        (134B) San Joaquin River Basin Stockton Metropolitan 
          Area Farmington Dam.................................   500,000
Bureau of Reclamation:
    (647) South Delta Barriers................................   200,000

                           detailed comments
U.S. Army Corps of Engineers
            (110) Sacramento and San Joaquin Rivers Comprehensive 
                    Study, fiscal year 1999--$3,500,000
    The Sacramento and San Joaquin Rivers Comprehensive Study is a $9 
million study of the water resources needs of the Sacramento and San 
Joaquin Rivers. Flood control and environmental needs will receive 
equal consideration. We expect setback levees and re-operation of 
existing reservoirs will receive a careful review in this Study. The 
President has proposed $3.5 million for both the San Joaquin and 
Sacramento Rivers Watershed Studies. At this time, we do not know the 
allocation, although 50-50 seems likely. The State is the cost-sharing 
partner in these studies.
            (125) San Joaquin River Basin Cosumnes and Mokelumne 
                    Rivers, fiscal year 1999--$18,000
    The project is a Reconnaissance Study of flood problems on the 
Mokelumne and Cosumnes Rivers. The fiscal year 1998 Budget includes 
funding for $100,000 and the President's fiscal year 1999 Budget 
includes funding for $18,000.
            (134A) San Joaquin River Basin Stockton Metropolitan Area, 
                    fiscal year 1999--$400,000
    This project was analyzed by the U.S. Army Corps of Engineers' 1997 
Reconnaissance Report, which concluded that there was a Federal 
interest in a flood project for the Stockton area. During this same 
period, a levee project was authorized under Section 211 of the Water 
Resources Development Act of 1996 for the San Joaquin Area Flood 
Control Agency (SJAFCA) levee project. Before Federal dollars can be 
appropriated to reimburse SJAFCA (up to 75 percent reimbursement), a 
Section 211 Report must be approved by the Secretary of the Army. The 
requirements of this Report, since the project is essentially complete, 
and the funding of the report (potentially 100 percent local with 
reimbursement upon completion), are currently under negotiation.
    The President's Budget of $400,000 is adequate to complete the 
required study if it is determined that the study can be cost shared. 
The local view is that the Reconnaissance Report by the Corps of 
Engineers found the project to be highly beneficial and that additional 
expenditures on studies of nearly constructed projects are unwarranted. 
The Corps of Engineers proposes $1 million of additional studies to 
secure approval of the existing project and to analyze the rural areas 
for a feasible project. The funding in the President's Budget is 
adequate to allow completion of the studies required. The San Joaquin 
Area Flood Control Agency will provide local funding for this study.
            (134B) San Joaquin River Basin Stockton Metropolitan Area 
                    Farmington Dam, fiscal year 1999--$500,000
    The study costs for this investigation will determine if a Federal 
interest may exist for converting the Farmington Dam into a multiple 
purpose reservoir. In addition to the flood control, the Corps study 
will determine the viability of using the existing Farmington Dam for a 
water supply reservoir. The dam currently detains water for flood 
protection but does not store water for water supply. By making 
Farmington Dam a multiple purpose project, San Joaquin County's water 
shortage could be addressed with minimal impact. The fiscal year 1998 
Budget includes $225,000. The President has included $500,000 in his 
fiscal year 1999 Budget. Since this is a feasibility study, all Federal 
funds must be matched by local funds. The sponsor for this study is the 
Stockton East Water District.
Bureau of Reclamation
            (647) South Delta Barriers, fiscal year 1999--$200,000
    The project provides temporary barriers in the south Delta to 
improve water quality. The fiscal year 1998 Budget includes funding for 
$200,000 and the President's fiscal year 1999 Budget includes funding 
for $16,000. In order to maintain the program, $200,000 is needed and 
the California Water Commission will be requested to recommend an 
increase in funding.
                                 ______
                                 

             Prepared Statement of the City of Stockton, CA

    Mr. Chairman and Members of the Committee: The City of Stockton 
supports the following Corps of Engineers and Bureau of Reclamation 
water, flood control and fishery projects:
    1. Stockton Metropolitan Area--$400,000
    2. Farmington Dam--$500,000
    3. San Joaquin Watershed--$9,000,000
    4. Consumnes and Mokelumne River--$18,000
    5. Water Resources Development Act, 1996, Section 206, Aquatic 
Ecosystem Restoration, Stockton Waterfront--$1,000,000
    6. South Delta Barriers--$16,000
                        u.s. corps of engineers
Stockton Metropolitan Area--$400,000
    This project was analyzed by the U.S. Army Corps of Engineers' 
(Corps) 1997 Reconnaissance Report, which concluded that there was a 
Federal interest in a flood project for the Stockton area. During this 
same period, a levee project was authorized under Section 211 of the 
Water Resources Development Act of 1996 for the San Joaquin Area Flood 
Control Agency (SJAFCA) levee project. Before Federal dollars can be 
appropriated to reimburse SJAFCA (up to 75 percent reimbursement), a 
Section 211 Report must be approved by the Secretary of the Army. The 
requirements of this Report, since the project is essentially complete, 
and the funding of the report (potentially 100 percent local with 
reimbursement upon completion), are currently under negotiation. The 
President's budget of $400,000 is adequate to complete the required 
study if it is determined that the study can be cost shared. The local 
view is that the Reconnaissance Report by the Corps found the project 
to be highly beneficial and that additional expenditures on studies of 
nearly constructed projects are unwarranted. The U.S. Army Corps of 
Engineers proposes $1 million of additional studies to secure approval 
of the existing project and to analyze the rural areas for a feasible 
project. The funding in the President's budget is adequate to allow 
completion of the studies required. The San Joaquin Area Flood Control 
Agency will provide local funding for this study.
Farmington Dam--$500,000
    The study costs for this investigation will determine if a Federal 
interest may exist for converting Farmington Dam into a multiple 
purpose reservoir. The fiscal year 1998 budget includes $225,000. The 
President has included $500,000 in his fiscal year 1999 budget. Since 
this is a feasibility study, all Federal funds must be matched by local 
funds. The sponsor for this study is the Stockton East Water District.
San Joaquin River watershed--$9,000,000
    The San Joaquin River Watershed Management Study is a $9 million 
study of the water resource's needs of the San Joaquin River. Flood 
control and environmental needs will receive equal consideration. We 
expect setback levees and reoperation of existing reservoirs will 
receive a careful review in this study. The President has proposed $3.5 
million for both the San Joaquin and Sacramento Rivers Watershed 
Studies. At this time, we do not know the allocation, although 50-50 
seems likely. The State is the cost-sharing partner in these studies.
Consumnes and Mokelumne Rivers--$18,000
    This project is a Reconnaissance Study of flood problems on the 
Mokelumne and Consumnes Rivers. The fiscal year 1998 budget includes 
funding for $100,000 and the President's fiscal year 1999 budget 
includes funding for $18,000.
Water Resources Development Act, 1996, section 206, aquatic ecosystem 
        restoration--Stockton waterfront--$1,000,000
    The City of Stockton, CalTrans and the Port of Stockton have 
combined to initiate a study to restore the aquatic ecosystem of the 
Stockton waterfront. The assistance of the Corps of Engineers to study, 
plan and eventually construct improvements will expedite this 
restoration project. An essential element of the study will be the 
development of a model of the channel to determine the appropriate 
level of oxygen required to restore aquatic life and improve water 
quality conditions in the channel. The channel is currently a deadend 
slough, contaminated by urban storm runoff and boating discharges. 
Potential solutions include the installation of pumps to create flow 
and/or aeration devices to oxygenate the water. This project will not 
only improve water quality but significantly complement economic 
development in downtown Stockton. Additionally, restoring this segment 
of the lower San Joaquin River is consistent with the objectives of 
American Heritage Rivers Program, a designation recently given by the 
President to the lower San Joaquin River.
                         bureau of reclamation
South Delta barriers--$16,000
    The project provides temporary barriers in the south Delta to 
improve water quality. The fiscal year 1998 budget includes funding for 
$200,000 and the President's fiscal year 1999 budget includes funding 
for $16,000. In order to maintain the program, $200,000 is needed and 
the California Water Commission will be requested to recommend an 
increase in funding.
    The City of Stockton opposes the following projects:
                         bureau of reclamation
Bay-Delta ecosystem restoration--$143,000,000
    Current year funding is for $85,000,000 and the President's fiscal 
year 1999 budget has included $143,000,000. Funds for this program have 
been used primarily for acquisition of lands and development of the 
habitat. We are concerned with the loss of agricultural lands and the 
lack of accountability with the funds. No documentation of benefits 
will be derived from expenditure of funds. This program does not help 
with water supply. There are no water quality improvement objectives 
and the program does not recognize area of origin protections.
    NOTE: Recommendation is for opposition unless the California Water 
Commission supports the following conditions:
    1. No expenditure for any project within the boundary of any local 
agency unless the project is approved by the governing board or boards 
of such local agency or agencies.
    2. At least 30 percent of such expenditures shall be for the 
purpose of developing new surface or subsurface water storage 
facilities which increase the total firm water supply yield. At least 
50 percent of such 30 percent of such expenditures shall be used for 
the purpose of developing new surface or subsurface water storage 
facilities to meet the needs within the watershed in which the water 
originates or in areas immediately adjacent thereto which can be 
conveniently served thereby.
    3. Funding of $11,900,000 for the Woodbridge Dam fish passage 
facilities and fish screening portions of the Lower Mokelumne River 
Restoration Plan (A197).
    4. Funding of $10,000,000 to supplement the State contributions to 
the Delta Levee Maintenance Subvention Program. (California Water Code 
sections 12980 et seq.).
    5. Funding of $10,000,000 to initiate the development of additional 
water supply to correct the overdraft in the East San Joaquin County 
groundwater basin.
    6. No expenditure for any export of water which is needed by users 
within the watershed in which the water originates or in the areas 
immediately adjacent thereto which can be conveniently served thereby.
    7. Funding of $1,000,000 for SSJID and OID salmon radio tracking 
project.
Bay-Delta (CALFED) oversight--$1,200,000
    Current year funding is for $4,100,000 and the President's fiscal 
year 1999 budget has included $1,200,000. Funds pay Federal salaries to 
participate in the CALFED process. The primary focus of these studies 
is the export of water from the region. Unless area of origin water 
rights are acknowledged and protection of the Delta is primary, the 
process is not beneficial to San Joaquin County.
Water acquisition--$2,000,000
    This program obtains upstream water rights to meet fisheries' 
objectives in the San Joaquin River. The program increases April-May 
and October flows, but could reduce summer flows. Unless the U.S. 
Bureau of Reclamation agrees to meet Vernalis flows throughout the 
year, this program should be opposed. Current year funding is for 
$8,502,000 and the President's fiscal year 1999 budget has included 
funding for $2,000,000.
                                 ______
                                 

Prepared Statement of David Okita, General Manager, Solano County Water 
                                 Agency

    Mr. Chairman, Members of the Subcommittee, my name is David Okita. 
I am the General Manger of the Solano County Water Agency, California. 
The Solano County Water Agency is a countywide special district, which 
is responsible for flood control and water supply. The Agency is 
seeking assistance from Congress to fund four Corps of Engineers 
projects in the fiscal year 1999 Energy and Water Appropriations Bill.
    Under General Investigations-Surveys we support Northern California 
Streams Vacaville, Dixon and Vicinity and Northern California Streams, 
Fairfield Streams, and Cordelia Marsh (includes Suisun Marsh) projects, 
both of which are included in the President's fiscal year 1999 budget 
at $300,000 each.
    These surveys are a continuation of the reconnaissance studies 
completed by the Corps of Engineers in these two flood prone areas of 
Solano County. The Solano County Water Agency and other local agencies 
have submitted Letters Of Intent to fund the local share of the 
continued general investigations for both these projects.
    The Vacaville, Dixon and Vicinity project would provide flood 
protections for the cities of Vacaville and Dixon. Both of these cities 
have flooding problems that need to be addressed on a regional basis 
since they are located in the middle of large watersheds. Flooding in 
the watershed has also caused the closure of Interstate 80, resulting 
in a disruption of this vital transportation corridor.
    The Fairfield Streams and Cordelia (Suisun) Marsh project is on a 
parallel tract with the Vacaville, Dixon and Vicinity investigation. 
The reconnaissance studies were done at the same time. The main problem 
in this watershed is flood-induced siltation in the Suisun Marsh. The 
Suisun Marsh is the largest tidal wetland in California and is 
considered a natural resource of international importance. The Suisun 
Marsh includes managed wetlands, which are a critical part of the 
Pacific Flyway. Siltation, transported by storm waters, from upstream 
areas has severely damaged an estimated 200 acres of valuable wetlands. 
Additionally, homes and businesses have been damaged due to flooding 
within the watershed. A coordinated plan addressing both siltation and 
flooding is necessary. The general investigations for this watershed 
will be coordinated with the two other projects described below.
    The Agency supports a new Section 205 (Flood Damage Prevention, 
Continuing Authorities Program) appropriation for Ledgewood Creek in 
Solano County. This project is upstream of the completed Fairfield 
Streams Project improvements done by the Corps of Engineers. On 
February 3, 1998, flooding occurred in this area that closed Interstate 
80 for five hours. During the design of the Fairfield Streams Project 
the Corps of Engineers predicted that Ledgewood Creek would flood in 
this manner. Downstream areas were put in the 100-year FEMA flood plain 
and were required to purchase flood insurance. Extension of the 
Ledgewood Creek component of the Fairfield Streams project would solve 
the flooding problems in this area, including the danger of flooding of 
Interstate 80. We ask Congress for $700,000 for this important project.
    Under Section 206 (Aquatic Ecosystem Restoration) we seek funding 
for the Northern California Streams-Fairfield Streams, Suisun Marsh, 
Cache Creek project. This project would fund a watershed demonstration 
project for the design and construction of sediment containment ponds 
upstream of the Suisun Marsh. Specifically, one proposal calls for the 
construction of a sediment containment pond on Hennessey Creek, which 
has been identified as a major source of siltation into the Suisun 
Marsh. As mentioned previously, the Suisun Marsh is the largest tidal 
wetland in California and is considered a natural resource of 
international importance since it is a critical part of the Pacific 
Flyway. There is clearly a strong interest in protecting this 
environmental resource. We support funding of $500,000 to continue this 
project. If the demonstration project is successful, it could act as a 
model for other tributaries in the Suisun Marsh watershed.
    I appreciate the opportunity to provide this testimony on behalf of 
the Solano County Water Agency, and I urge your support for these four 
projects in our community.
                                 ______
                                 

   Prepared Statement of the Hon. George Pettygrove, Mayor, City of 
                             Fairfield, CA

    Mr. Chairman, Members of the Subcommittee, my name is George 
Pettygrove. I am the Mayor of the city of Fairfield, CA. The city of 
Fairfield is seeking the assistance of the Committee in funding three 
projects in the fiscal year 1999 energy and water appropriations bill.
    First, I request the support of the Committee for the Ledgewood 
Creek Flood Control Improvements within Solano County, CA. The budget 
request includes $700,000 for this important project. The funding will 
complete the feasibility study and design for the proposed 
improvements.
    When the Corp of Engineers studied Ledgewood Creek in preparation 
for the design of the Fairfield Vicinity Streams project improvements, 
the Corp predicted that Ledgewood Creek, within the unincorporated area 
of Solano County, could bifurcate and flood Interstate Highway 80 (I-
80). On Tuesday, February 3, 1998, the prediction came true. Runoff 
from the Ledgewood Creek drainage basin could not be contained within 
the unimproved creek channel and the creek overflowed. At 7:44 a.m. all 
four westbound lanes of I-80 and three of the four eastbound lanes were 
closed. Within an hour after the closure, the freeway became a giant 
parking lot, spanning nearly 15 miles east to Interstate 505. At its 
worst, 18 inches of water covered four westbound lanes for roughly 600 
feet. Caltrans reopened the freeway at 12:38 p.m., the result of 
naturally receding water, lighter showers, and Caltrans' crews pumping 
water back into the creek. The 5 hour closure of I-80 caused some 
commuters to be 3 hours late to work, not to mention the trucking delay 
in delivery of goods.
    Due to a combination of the construction of the Fairfield Vicinity 
Streams project and the construction of developer improvements, 
Ledgewood Creek has been improved to carry a 100-year storm water event 
from the Fairfield City limits to the Suisun Marsh. The solution to the 
flooding problem on I-80 is to extend the 100-year improvements from 
the Fairfield City limits to Abernathy Lane. If the Abernathy Lane 
crossing and the downstream channel of Ledgewood Creek are improved, 
bifurcation will be eliminated and so will the flooding of I-80. Also, 
the Corp of Engineers could submit their design with calculations to 
FEMA and obtain a letter of map revision to remove all of the 
properties below I-80 that are within the AO flood zone. The benefit to 
the community is not only the prevention of the I-80 flooding, but the 
removal of approximately 300 acres of residential, commercial, and 
industrial property from the FEMA flood zone, thereby eliminating the 
need to buy flood insurance.
    Second, I request the Committee's support for additional funding in 
the amount of $500,000, under the Corp of Engineers, Section 206 
program, for the Fairfield Streams and Suisun Marsh watershed 
demonstration project. The project received fiscal year 1998 funding 
for the Corp of Engineers to begin to develop a solution to the problem 
of siltation in Suisun Marsh.
    The Suisun Marsh is the largest tidal wetland in the State of 
California and is considered a natural resource of national importance. 
The marsh includes more than 2,500 acres of managed wetlands and 
uplands that support habitat for migratory waterfowl. It is a critical 
part of the Pacific Flyway. Yet, an estimated 200 acres of valuable 
wetlands in Suisun Marsh have been ruined by the inflow of silt from 
surrounding streams.
    The project will provide for the design and construction of 
sediment containment ponds upstream of Suisun Marsh. Specifically, one 
proposal calls for the construction of a sediment containment pond on 
Hennessey Creek. Hennessey Creek is a tributary to Green Valley Creek, 
which flows directly into the northern portion of Suisun Marsh. The 
city of Fairfield has been monitoring water quality in Hennessey Creek 
during rainfall events. On December 12, 1995, for example, the total 
suspended solids (TSS) in Hennessey Creek were measured at 12,344 
milligrams per liter of water. On January 16, 1996, the TSS were 19,700 
milligrams per liter of water. On March 4, 1996, the TSS were 15,620 
milligrams per liter of water. On February 19, 1998, the TSS were 
13,210 milligrams per liter of water. As a comparison, the California 
Regional Water Quality Control Board has stated that the TSS should not 
exceed 100 milligrams per liter.
    Clearly, construction of a sediment pond on Hennessey Creek would 
significantly reduce one major source of sedimentation in Suisun Marsh. 
And, it is critical that we construct this and other such ponds as soon 
as possible. Continuing to lose 200 acres of valuable wetlands every 
few years is not acceptable. That is why we are seeking to accelerate 
the construction of some portion of the solution.
    A demonstration project like the one I have described clearly 
qualifies for funding under the Section 206 authority. The project is 
environmentally beneficial, economically justified, and in the public 
interest, the three criteria for funding under Section 206. For all of 
the above reasons, we ask that the Committee provide an additional 
$500,000 in fiscal year 1999 for this important project.
    Finally, I request your continuing support for the ongoing 
feasibility study for Northern California Streams, Fairfield Streams, 
and Cordelia Marsh for fiscal year 1999 funding of $300,000. This 
project is complementary and compatible with the above two projects.
    Again, I appreciate the opportunity to testify on behalf of the 
city of Fairfield, and I urge your support for these three priority 
projects for our region.
                                 ______
                                 

Prepared Statement of Joseph L. Campbell, President, Contra Costa Water 
                                District

              contra costa canal (rock slough) fish screen
    The Contra Costa Water District (District) appreciates the funding 
appropriated to the U.S. Bureau of Reclamation (Reclamation) in the 
last three budgets for the Contra Costa Canal (Rock Slough) Fish 
Screen. As a result of that support, the project is on schedule to 
begin construction this coming summer (1998).
    The District requests that Congress appropriate sufficient federal 
funds in fiscal year 1999 for this project to remain on schedule. 
According to Reclamation, the Contra Costa Canal (Rock Slough) Fish 
Screen will require approximately $4 million in federal funds in fiscal 
year 1999 to proceed with construction and to keep it on the current 
schedule. The District encourages the Appropriations Committee to 
recognize the excellent progress being made on the Fish Screen and to 
appropriate at least $4,000,000 in fiscal year 1999.
    The Fish Screen is critical to the needs of 400,000 people who rely 
on the District. The Secretary of Interior is required to screen Contra 
Costa Canal intake under Public Law 102-575 (Sec. 3406(b)(5). The 
intake is the largest municipal and industrial intake in the Central 
Valley project. The urgency of its completion was underscored by the 
U.S. Fish & Wildlife Service (FWS) in a 1993 biological opinion that 
requires the Secretary to complete the screen by October 1, 1998; 
failure to complete it could jeopardize the District's continued 
pumping into the Contra Costa Canal. Obviously that completion date 
will not be met, but the FWS has advised that it will extend the 
deadline through the completion date if there is progress being made on 
the project. Failure to fund the project at a sufficient level in 
fiscal year 1999 could be viewed as lack of progress on this project.
    In 1992 Congress passed Public Law 102-575, requiring the Secretary 
to screen the canal intake. After three years of no action, the 
District stepped in. The District budgeted nearly $200,000 over the 
next 3 years to get the process moving. The District obtained priority 
for the project in Proposition 204, a State of California water bond 
act passed in 1996, enabling the State to provide its 25 percent 
mandated match for the Fish Screen.
    At the District's request, Congress appropriated $80,000 in fiscal 
year 1996; $500,000 in fiscal year 1997; and $1,500,000 in fiscal year 
1998.
    Once the Fish Screen is completed, the District will be responsible 
for operation of the screen, and the costs thereof, under its 1972 
agreement which makes the District responsible for all O&M of the 
Contra Costa Canal system.
    What is the ``Bottom Line?'' Completion of federally-mandated fish 
screen on schedule is critical to assure that there will be no adverse 
impact on the District's water deliveries. An appropriation of 
$4,000,000 in fiscal year 1999 will keep the project on schedule.
    The District appreciates the past support provided by the 
Appropriations Committee, and asks its continued support at the level 
of $4,000,000 in fiscal year 1999 to keep this project on schedule.
                                 ______
                                 

 Prepared Statement of Ross Rogers, General Manager, Merced Irrigation 
                                District

    Mr. Chairman and Members of the Committee: My name is Ross Rogers, 
General Manager of the Merced Irrigation District. I am respectfully 
submitting this statement on behalf of the County of Merced, the city 
of Merced, and the Merced Irrigation District, which jointly form an 
informal coalition commonly known as the Merced County Streams Group 
for the purpose of performing maintenance functions along portions of 
the Merced County Streams project. The county of Merced, together with 
the State of California, is the sponsor of the Merced County Streams 
project. The El Nido Irrigation District and the Le Grand Athlone Water 
District are also concerned in this matter.
    Federal authorization for the project construction was granted as 
part of the Supplemental Appropriations Act of 1985. Authorized 
facilities include constructing dry dams on Canal (Castle Dam) and 
Black Rascal Creeks (Haystack Mountain Dam), enlargement of the 
existing Bear Creek Dam, and modifications of levees and channels along 
more than 25 miles of Fahrens, Black Rascal, Cottonwood, and Bear 
Creeks. The completed project will provide flood protection worth more 
than $10,000,000 per year to 263,000 acres of urban and agricultural 
lands. Total project cost is currently estimated to be $139,000,000 of 
which $40,000,000 or roughly 31 percent will be paid during 
construction by the local beneficiaries.
    When completed, more than 240,000 residents occupying 55,000 
housing units within the greater metropolitan Merced area will live 
with assurance of 125-year flood protection, while the lower rural area 
will receive 25-year protection.
    The first component of the project, Castle Dam, was completed in 
1992. This component was constructed under budget, ahead of schedule, 
and without a lost-time accident. Without Castle Dam during the intense 
storms of January, February, March 1995, January 1997, and January/
February 1998, the city of Merced would have been partially inundated.
    As a result of a request by the county of Merced, the Corps of 
Engineers has reevaluated project components and will extend the 
boundaries of the levee and channel portion of the project to better 
match growth that has taken place in the city of Merced. This 
willingness to remain flexible throughout the lengthy planning and 
design process is also a credit to the Corps and its staff.
    The Merced County Streams project is a modification and expansion 
of an earlier flood project constructed between 1948 and 1957. It has 
undergone considerable review and modification since first authorized 
as part of the Flood Control Act of 1970. Approximately $15,000,000 has 
been spent to date on the Merced County Streams project. This has been 
matched with local contributions of approximately $3,000,000. As 
partners in the construction of this project, the local agency sponsors 
have worked closely with the Corps to establish an economic balance 
between costs and benefits. As a result of this combined effort, 
nonessential project components were first scaled back and eventually 
eliminated. This scaling to fit the economic reality resulted in 
substantial Federal and local savings.
    During the New Year's 1997 flood event experienced throughout 
California, Bear Creek came perilously close to overtopping its banks 
within the city limits of Merced. If not for the newly constructed 
Castle Dam and protection it provided the city of Merced, Bear Creek 
would have surely overtopped and flooded a large area of the city. 
Mariposa and Miles Creeks did overtop their banks during the event, 
flooding valuable agricultural lands and damaging Merced Irrigation 
District facilities. Those project creeks that did not overtop, 
experienced significant damage to embankment slopes due to prolonged 
high flows. A total of 130 individual damage sites along project creeks 
were identified, at a total estimated repair cost of $420,000. Total 
damage to Merced Irrigation District canals adjacent to project creeks 
was estimated at $53,000.
    On January 15, and again on February 3, 1998, Bear Creek did 
overtop its banks in several locations within Merced during several 
severe El Nino-driven storms, flooding 33 homes at an estimated damage 
cost of $500,000. The January 15 event was caused primarily by what the 
National Weather Service called a flash flood event in the headwaters 
of Black Rascal Creek, tributary to Bear Creek, upstream of the site of 
the project's Haystack Mountain Dam and Reservoir. According to the 
Corps of Engineer's preliminary estimates, flows in the project's Black 
Rascal Creek bypass reached in excess of 4,300 cubic feet per second, 
1,300 cubic feet per second above the rated capacity of the facility. 
The Corps estimated that the Black Rascal Creek headwater storm event 
was a 1-in-100 year event. Additional creek bank overtopping was 
experienced approximately 1 mile and 4 miles southwest of Merced, 
causing significant damage to agricultural lands and Merced Irrigation 
District facilities. Total estimated repair costs to District 
facilities reached $160,000. Project creek bank damage is still being 
assessed by the Merced County Streams group. Had Haystack Mountain Dam 
and Reservoir been in place no flooding would have occurred during the 
January 15, 1998, event.
    The project has the support of State and local authorities and 
funding of the non-Federal portion has been addressed.
    We request the Committee's support for the inclusion of $900,000 in 
the 1998-99 budget, as recommended by the California Water Commission 
and the Corps of Engineers, for the orderly progress of the Merced 
County Streams project, which is so vital to the community, State, and 
the Nation.
                                 ______
                                 

    Prepared Statement of Bruce George, Manager, Kaweah Delta Water 
                         Conservation District

    Mr. Chairman and Members of the Subcommittee: My name is Bruce 
George, and I am the Manager of the Kaweah Delta Water Conservation 
District in the eastern San Joaquin Valley of California. Thank you for 
the opportunity to present testimony regarding the fiscal year 1999 
budget for the U.S. Army Corps of Engineers.
    The President's fiscal year 1999 budget request for the Corps of 
Engineers includes $1.165 million for the continuation of pre-
construction engineering and design (PED) of a project to increase the 
water storage capacities of Terminus Dam at Lake Kaweah in California's 
San Joaquin Valley. The project would add approximately 43,000 acre-
feet of flood control and conservation storage space to Lake Kaweah by 
raising the Terminus Dam spillway by 21 feet. The estimated total first 
cost of the project is $33 million.
    The President's budget also provides $1.57 million for operation 
and maintenance of Terminus Dam in fiscal year 1999. The Kaweah Delta 
Water Conservation District and its project cosponsors support these 
PED and operation and maintenance requests.
    In addition to the amounts proposed in the President's budget, we 
respectfully request a General Construction appropriation of $500,000 
to initiate construction of the Terminus spillway project in fiscal 
year 1999.
    The Corps of Engineers has been actively studying and planning this 
modest project for 10 years. During that time, the Kaweah Delta Water 
Conservation District and other local authorities have invested $1.8 
million of their owns funds in the planning and development process. 
The State of California this year committed to be the lead non-Federal 
sponsor of the project. Other local sponsors are the counties of Kings 
and Tulare, the city of Visalia and the Tulare Lake Basin Water Storage 
District.
    Under the Corps' current schedule, pre-construction engineering and 
design will be completed before the end of fiscal year 1999. With an 
additional appropriation of $500,000, the Corps could begin 
construction work late in the fiscal year. A commitment of construction 
funding for fiscal year 1999 would save time and money for all parties 
by allowing formal cost-sharing agreements to be signed sooner, 
clearing the way for the expenditure of State funds and the timely 
acquisition of mitigation lands that may not be available later.
    The California Water Commission supports a $500,000 General 
Construction appropriation for the Terminus project in addition to the 
amounts requested in the President's fiscal year 1999 budget for pre-
construction and operation and maintenance.
                               background
    The Kaweah Delta Water Conservation District was formed in 1927 to 
conserve and protect the surface and groundwater of the Kaweah delta. 
The District serves 337,000 acres, which include the cities of Visalia 
and Tulare and several other incorporated and unincorporated areas in 
Kings and Tulare Counties. Those two counties consistently rank among 
the most productive agriculture counties in the Nation.
    The District's service area encompasses portions of the 
Congressional Districts of Representatives Bill Thomas, Cal Dooley, and 
George Radanovich.
    Terminus Dam and Lake Kaweah, located on the Kaweah River three and 
one-half miles east of the District, was completed in 1962 by the U.S. 
Army Corps of Engineers. The purpose of the project is to provide 
storage space for flood protection and irrigation on the Kaweah River. 
The Conservation District manages the irrigation and flood control 
releases for Lake Kaweah, as well as assisting in the conjunctive use 
of the surface and groundwater of the Kaweah delta.
    Rapid growth, inadequate flood protection and a long-term 
groundwater overdraft in the region have created a need for greater 
reservoir storage space for flood control and irrigation storage. With 
a maximum capacity of 143,000 acre-feet, Lake Kaweah currently provides 
a less than 50-year level of flood protection for communities 
downstream. Raising the spillway at Terminus Dam would significantly 
increase the level of flood protection.
    California's growing population will place ever-increasing demands 
on its water supply. Improving existing facilities such as Terminus Dam 
is one of the most economical and environmentally sensitive ways to 
meet those new demands. It is important for Congress to encourage such 
projects.
    We are grateful for the Committee's continued support of the 
Terminus project.
                                 ______
                                 

Prepared Statement of R.L. Schafer, Secreatery/Watermaster, Tule River 
                              Association

    Mr. Chairman, and Members of the Committee, the Tule River 
Association requests your consideration of an appropriation in the 
fiscal year 1999 Federal budget for the U.S. Army Corps of Engineers, 
in addition to the $103,000 in the President's Budget for General 
Investigation, $500,000 for Preconstruction Engineering and Design for 
the Tule River, Success Reservoir Enlargement project, and an 
additional $500,000 for the preparation of a Design Memorandum under 
the Dam Safety Assurance Program (DSAP) for coverage of remediation 
techniques in the ongoing seismic studies of Success Dam.
    The Draft Success Reservoir Enlargement Feasibility Study and EIS/
EIR are scheduled to be completed in June 1998, after 10 years in the 
preparation, and an expenditure by the Federal Government and local 
sponsor of over 2.2 million dollars. The preferred alternative (NED 
Plan) is a simple project of raising and lengthening the spillway 10 
feet and 100 feet respectively, creating an additional 28,000 acre-feet 
of flood control storage space in Success Reservoir. The increased 
storage space improves the flood protection for the city of Porterville 
and downstream highly developed farmlands from a 1 in 55 year event to 
a 1 in 100 year event, almost double.
    The feasibility study under preparation by the Corps has a 
projected benefit to cost ratio of 1.4:1 and will be submitted to the 
USACE this summer. We anticipate, should the Congress process a Water 
Resources Development Act (WRDA) in 1998, authorization for 
construction in WRDA 98, perhaps conditionally due to the timing and 
completion of the feasibility study.
    With completion of the feasibility study in June 1998, and with 
final review by the USACE in late 1998, the Corps of Engineers will 
need $500,000 in the fiscal year 1998 budget for Preconstruction 
Engineering and Design for an orderly continuation of the Success 
Reservoir enlargement project.
    During the past 6 years, the Corps of Engineers expended over $3.0 
million of Federal funds under the DSAP in the preparation of seismic 
studies of Success Dam. A draft Evaluation Report was issued in 
December 1996 with a summary statement of: ``Remediation of the 
susceptible portion of the dam foundation is the recommended course of 
action. Further definition of remedial requirements would occur in the 
Design Memorandum studies.''
    Consequently, we would also appreciate your consideration of 
funding an additional $500,000 in the fiscal year 1999 budget for the 
Corps' preparation of a Design Memorandum covering remedial techniques 
for the continuation of the Success Dam Seismic Studies.
    In summary, the Tule River Association requests that the 
Subcommittee on Energy and Water provide funding of $500,000 for 
Preconstruction Engineering and Design of the Success Reservoir 
Enlargement Project in addition to the President's Budget of $103,000 
for the General Investigation, and in addition allocate under the DSAP 
$500,000 for the Corps of Engineers preparation of a Design Memorandum 
covering remediation techniques for Success Dam.
                                 ______
                                 

 Prepared Statement of Mark Dellinger, Resources Manager, Lake County 
                          Sanitation District

    Thank you for this opportunity to submit the following testimony in 
support of the Lake County, CA, request for funding in the fiscal year 
1999 Energy and Water Appropriations Bill. I am Mark Dellinger, 
Resources Manager for the Lake County Sanitation District.
    Lake County is requesting, through the Corps of Engineers, $500,000 
in Section 503 funds and $2 million in Section 206 funds for two 
components of the Clear Lake Basin 2000 initiative. Our fiscal year 
1999 request is a continuation of assistance initiated by the Corps 
during fiscal year 1998.
    The Clear Lake Basin 2000 initiative is a cost-shared 
intergovernmental partnership aimed at restoring the watershed of Clear 
Lake, the largest freshwater lake completely within California's 
border. Specifically, the initiative will establish a 25-mile corridor 
of wetlands supplied with recycled wastewater effluent. Since the turn 
of the century, the watershed has lost over 80 percent of its wetlands 
and suffered corresponding declines in wildlife habitat, flood control, 
and lake water quality. The Basin 2000 initiative will begin to reverse 
these trends, while also supporting the increasingly important 
recreation and tourism sectors of our regional economy.
    The initiative's $29 million cost is being shared by a partnership 
of local, State, and Federal agencies that have a significant stake in 
the watershed's ecological health. The requested Corps of Engineers 
funding, including out years, is approximately 18 percent of total 
project costs. Corps funds will be used in two of the initiative's 
projects: Section 503 funds will help design a pipeline that delivers 
effluent to the wetlands; and Section 206 funds will help design and 
construct wetlands and a related effluent flow control facility.
    We appreciate the support and assistance already provided by the 
Corps, and look forward to initiating construction in 1999 with the 
help of the funds requested herein. Thank you for your consideration.
                                 ______
                                 

 Prepared Statement of Vince Ferriole, Chairman, Board of Supervisors, 
                              Napa County

                    napa river flood control project
                               background
    The Napa River is the main waterway into which all tributaries of 
the Napa Valley flow. The river reaches its highest flow and the main 
point of concentration of stormwater in the heart of the downtown city 
of Napa. The original town of Napa was established at the head of the 
navigable Napa River channel in 1848 as its only port for 
transportation and commerce until the railroad extended from Benicia to 
Napa in 1902.
    The project is located in the city and county of Napa, CA. The 
population in the city of Napa, approximately 67,000 in 1994, is 
expected to exceed 77,000 by the year 2000. Excluding public 
facilities, the present value of damageable property within the project 
floodplain is well over $500 million. The Napa River Basin, comprising 
426 square miles, ranging from tidal marshes to mountainous terrain, is 
subject to severe winter storms and frequent flooding. In the lower 
reaches of the river, flood conditions are aggravated by high tides and 
local runoff. Floods in the Napa area have occurred in 1955, 1958, 
1963, 1965, 1986 (flood of record), 1995, 1997 and in February of this 
year.
    Over the years, the community has expressed a strong desire for 
increased flood management. Since 1862, 27 major floods have struck the 
Valley region, exacting a heavy toll in loss of life and property. The 
flood of 1986, for example, killed three people and caused more than 
$100 million in damage. The city of Napa is particularly vulnerable to 
floods: during a typical 100-year flood, more than 325,000 gallons flow 
through downtown per second, with the potential of inundating 2 million 
square feet of businesses and offices and nearly 3,000 homes.
    Flood damage in downtown Napa has recurred in January 1993, March 
1995, January 1997, and February 1998, resulting in disaster 
declarations and substantial Federal assistance and economic losses, 
reaffirming the urgent need to implement the cost-effective project. In 
March 1995, January 1997, and February 1998, additional flood disasters 
occurred and FEMA is reviewing the damage claims.
    Damages throughout Napa County totaled about $85 million from the 
January and March 1995 floods. The floods resulted in 227 businesses 
and 843 residences damaged countywide. Almost all of the damages from 
the 1986 and 1995 floods within the project area would have been 
prevented by the project, as would several million dollars of damage 
from flooding in early 1998. This was just the latest in a long history 
of flooding disasters. During the past 36 years of flooding, Napa 
County residents have suffered devastating loss of lives and 
livelihoods, and over $542 million in property damage alone. According 
to the most up-to-date models, uncontrolled flooding over the next 100 
years will likely cause $1.6 billion worth of property damage.
    Locally developed flood measures currently in place provide minimal 
protection and include levees, floodwalls, pump stations, upstream 
reservoirs, restrictive flood plain management ordinances, and 
designated flood evacuation zones. Vast areas of flood plain are 
restricted to agricultural and open space uses, precluding development 
which would be damaged by flooding. These local measures still leave 
most of the city of Napa vulnerable to frequent damaging floods. Flood 
control projects have been authorized by Congress since 1944 but due to 
their expense, lack of public consensus on the design, and concern 
about environmental impacts, a project has never been realized. The 
most recent Corps of Engineers project plan consisted of a deepening 
and channelization project. In mid-1995, Federal and State resource 
agencies reviewed the plan and gave notice to the Corps that this plan 
had significant regulatory hurdles to face.
                     revised plan--project overview
    In an effort to identify a meaningful and successful plan, a new 
approach emerged which looked at flood control from a broader, more 
comprehensive perspective. Citizens for Napa River Flood Management was 
formed, bringing together a diverse group of local engineers, 
architects, aquatic ecologists, business and agricultural leaders, 
environmentalists, government officials, homeowners and renters, and 
numerous community organizations.
    Through a series of public meetings and intensive debate over every 
aspect of Napa's flooding problems, the Citizens for Napa River Flood 
Management crafted a flood management plan offering a range of benefits 
for the entire Napa region. The Corps of Engineers served as a partner 
and a resource for the group, helping to evaluate their approach to 
flood management. The final plan produced by the Citizens for Napa 
River Flood Management was successfully evaluated through the research, 
experience, and state-of-the-art simulation tools developed by the 
Corps and numerous international experts in the field of hydrology and 
other related disciplines. The success of this collaboration serves as 
a model for the Nation.
    Acknowledging the river's natural state, the project utilizes a set 
of living river strategies that minimize the disruption and alteration 
of the river habitat, and maximizes the opportunities for environmental 
restoration and enhancement throughout the watershed. This strategy 
replaces the former project and now entails floodplain acquisition and 
restoration, restoration of a geomorphically stable river channel, 
replacement of bridges and environmentally sensitive stream bank 
treatment in the urban reaches of the city of Napa.
    The revised plan which provides 100-year protection, has been 
developed by the Corps with the assistance of the community and its 
consultants into the draft Supplemental General Design Memorandum 
(SGDM) and its accompanying draft Environmental Impact Statement/
Environmental Impact Report (SEIS/EIR). These reports were released for 
public comment in December 1997 and are now under review by Corps 
Headquarters. Land acquisition is planned beginning in 1999 with a goal 
of a new construction start in spring of 1999.
    The coalition plan now memorialized in the Corps draft SGDM 
includes the following engineered components: lowering of old dikes, 
marsh plain and floodplain terraces, oxbow dry bypass, Napa Creek 
floodplain terrace, upstream and downstream dry culverts along Napa 
Creek, new dikes, levees and floodwalls, bank stabilization, pump 
stations and detention facilities, and bridge replacements. The 
benefits the plan will provide include reducing or eliminating loss of 
life, property damage, cleanup costs, community disruption due to 
unemployment and lost business revenue, and the need for flood 
insurance. The plan will protect access to business, public services, 
and create opportunities for recreation and downtown development, 
boosting year-round tourism. As a key feature, the plan will improve 
water quality, create urban wetlands and enhance wildlife habitats.
    The plan would protect over 5,000 people from the 100-year flood 
event on the Napa River and its main tributary, the Napa Creek, and the 
project has a positive benefit-to-cost ratio under the Corps 
calculation. The Napa County Flood Control District is prepared to meet 
its local cost-sharing responsibilities for the project. A countywide 
sales tax, along with a number of other funding options, has just been 
approved by a majority of the county's voters for the local share.
                            project synopsis
Fiscal year 1998 funding
    The 1998 budget included $1,600,000 to revise the key draft SGDM 
and SEIS/EIR documents.
Necessary fiscal year 1999 funding
    Funding for the Napa River project during 1999 in the amount of 
$1,000,000 (in addition to the budgeted $744,000 for PED) is needed to 
finalize the Project Cooperation Agreement (PCA) and begin construction 
of the project in fiscal year 1999.
Recommendation
    Based on continuing high flood risk and severe damage from the Napa 
River, we request that the Committee support $1,000,000 (in addition to 
the budgeted $744,000 for PED) to complete preconstruction activities 
and to initiate construction of the Napa River project.
                            project elements
    The current plan, which is the result of the Coalition effort in 
concert with the Corps of Engineers, includes land acquisition for 
river widening, levee and flood wall construction, recreational 
facilities, open space and an oxbow dry bypass, among other items. The 
Corps has now incorporated the refined design into its key 
preconstruction documents. After the design documents are approved and 
the construction drawings prepared, the PCA will be negotiated and 
signed by the local sponsors and the Corps. Once real estate is 
acquired and construction funds are appropriated, construction will 
begin. The county is working to ensure that construction of the project 
will start in fiscal year 1999.
                     redesigned project components
    The following redesigned project components were developed by the 
Community Coalition, incorporated by the Corps and are listed here with 
a brief description. These components are included in the Corps' draft 
SGDM.
Marsh Plain and Floodplain Terraces
    Providing room for rising flood waters, terraces are natural 
attributes of all river systems. Two types of terraces are included in 
the project, beginning near Kennedy Park and extending to the southern 
end of the oxbow. Marsh plain terraces are submerged during the twice 
daily high tide cycles, creating a diverse wetland habitat. Elevated 
slightly from the marsh plain terraces, floodplain terraces are 
inundated by floods every several years, providing room for large 
floods.
New and Restored Wetlands
    Through concerted planting efforts and the removal and lowering of 
levees, the project will create 108 acres of new wetland habitat, 
including emergent marsh, riparian and seasonal wetlands.
                   bank stabilization and protection
    Bank stabilization techniques combined with native vegetative cover 
in both marsh and floodplains; maintenance of existing trees; planting 
of new trees; the addition of rock bank toe protection, and a grade 
control structure all are included in this component.
                         napa creek conveyance
    Napa Creek conveyance will be increased by the construction of a 
flood terrace on the north bank of the creek, removal of a number of 
bridges and the construction of culvert dry bypasses.
Napa River Dry Bypass
    A dedicated dry bypass allows the safe flow of excess water and 
serves as recreational and open space during normal flows, when the 
river returns to the meandering oxbow.
Napa Creek Bypass Culverts
    Two concrete dry bypass culverts will be constructed, each designed 
to convey 100-year flood flows.
Roadway Bridge Reconstruction
    Overall, a total of seven bridges will be removed and replaced to 
allow the safe passage of water and debris during a 100-year flood.
Pump Stations and Detention Facilities
    During large events, the new floodwalls and levees will trap local 
stormwater. The project includes the construction of three pump 
stations to safely return this water through the floodwalls into the 
Napa River.
Floodwalls
    Located at the tops of the river banks, floodwalls offer 
substantial protection from large floods.
                                 ______
                                 

 Prepared Statement of Roderick J. Wood, City Manager, City of Novato, 
                                   CA

  proposed city of novato urban flood control project--section 205 of 
    water resources development act of 1986 for small flood control 
                                projects
    The completion of this project would resolve chronic flood control 
problems in two areas of the city. Construction of a channel carrying 
flood overflows from the Baccaglio Flood Control Basin to Scottsdale 
Marsh, and then to the floodplain downstream from Highway 101 in 
Novato, will remove the flood threat to homes and businesses in the 
Hill Road/Yukon Way neighborhoods during major storm events. The 
project also includes additional improvements needed to protect both 
residential and commercial properties in the low-lying downtown areas 
of the city of Novato.
    In the recent February storms, a new community teen and gymnastics 
center was flooded in the downtown area--damage that would be prevented 
in the future with these proposed flood control improvements. The 
city's total damage to date in the 1997-98 water year is estimated to 
be $650,000.
    The expected cost for this Section 205 small flood control project 
in fiscal year 1999 is $600,000 (for both study and construction). The 
total project cost is $1.8 million. The city of Novato is prepared to 
cost share this project at the required 35 percent.
    In 1985, an election approved benefit assessment funds to locally 
finance flood control improvements for the city of Novato. These funds 
are completely expended with a portion of the work left uncompleted.
    The January 4, 1982, flood devastated the city of Novato downtown 
and residential areas located near the downtown area. The community 
sustained $1.5 million of damage (1982 dollars). The community pays 
more than $100,000 annually in flood insurance premiums. Two thousand 
nine hundred and fifty-eight parcels are located within the special 
flood hazard area based on the flood insurance rate maps prepared by 
the Federal Emergency Management Agency.
    Subsequent to the January 4, 1982, flood, the community approved a 
$9 million property assessment process to pay for local creek 
improvements. No Federal funds were utilized for those channel 
improvements. Federal funds needed at this time are to complete the 
flood control works started with the assessment monies. Additional 
channel improvements, bypass culverts, and perhaps a pumping station 
will be required to protect the remaining flood-prone areas in the 
downtown area.
    The attached letter from the Marin County Department of Public 
Works supports the proposed project.
    The city of Novato sincerely requests approval of an appropriation 
to complete the study and construction of the subject project.
                                 ______
                                 

                     Letter From Richard A. Carlsen

                   Marin County Department of Public Works,
                                     San Rafael, CA, March 2, 1998.
Roderick J. Wood,
City Manager,
City of Novato, Novato, CA.
    Dear Mr. Wood: I have been notified of your request for Federal 
funding for two projects to reduce flooding in the city of Novato.
    It is noteworthy that the residents of Novato have been very 
proactive in taking tremendous steps to reduce or eliminate a historic 
flooding problem in the city. As you know, in 1985 Novato area 
residents approved a substantial self-assessment to construct major 
flood improvements. That project is virtually complete. Two areas not 
included in the 1985 election, which are certainly worthy of funding 
and construction, are the downtown flood control improvements and 
construction of a connection between Baccaglio Pond and Scottsdale 
Marsh. Both projects are timely, logical, and necessary extensions of 
the 1985 flood control project.
    Therefore, on behalf of the Flood Control District, I offer this 
letter as an indication of support by the District, and applaud your 
efforts to acquire critical funding.
            Very truly yours,
                                      s/Richard A. Carlsen,
                                                Assistant Director.
                                 ______
                                 

Prepared Statement of Carl W. Mosher, Director, Environmental Services 
                    Department, City of San Jose, CA

    My name is Carl Mosher, and I am Director of Environmental Services 
for the City of San Jose, California. I am testifying on behalf of the 
San Jose Water Reclamation and Reuse Program, now known as South Bay 
Water Recycling. We are requesting your assistance in increasing the 
Bureau of Reclamation (BOR) funding for South Bay Water Recycling from 
the $3.0 million in the President's budget to $10.0 million.
    San Jose is the lead agency for a joint powers authority which owns 
and operates the San Jose/Santa Clara Water Pollution Control Plant, a 
regional wastewater treatment facility serving more than 1.25 million 
residents, businesses and industries in California's Silicon Valley.
    During the past 4 years, with BOR's assistance, we have designed 
and built the largest nonpotable water recycling project in Northern 
California, with three pumping stations, a four-million gallon 
reservoir and nearly 60 miles of pipe. South Bay Water Recycling was 
constructed to protect endangered species by reducing wastewater 
discharge to San Francisco Bay in compliance with a mandate from the 
EPA and the California Water Resources Control Board.
    The first phase of South Bay Water Recycling will be completed this 
year at a construction cost of $140 million. In 1992, Congress 
authorized BOR to participate in the program by funding up to 25 
percent of eligible costs, or $35 million. However, appropriations to 
date have totaled $9 million--only 6 percent of project costs--leaving 
a funding gap of $26 million between authorization and appropriation. 
To help close that gap, and to allow our community to continue to 
develop its program of sustainable urban water use, we request an 
appropriation of $10 million in the 1999 fiscal year.
    The environmental mandate from the San Francisco Regional Water 
Quality Control Board clearly requires the regional wastewater 
treatment facility to reduce discharges to less than 120 million 
gallons per day (mgd) without delay. Current discharges exceed 135 mgd, 
despite intensive water conservation efforts throughout the area. 
Without this project, the protected salt marsh environment may continue 
to degrade, and endangered species may become extinct. With no place to 
discharge their treated wastewater, San Jose, Santa Clara, and other 
Silicon Valley cities would be unable to provide basic services or 
manage their development consistent with their publicly adopted general 
plans. A moratorium on sewer connections, if necessary, would stop the 
growth of new business and force many industries to relocate overseas.
    In response to the urgent need to preserve the environmental and 
economic health of the region, South Bay Water Recycling was 
constructed in record time. It was commissioned with the connection of 
the northern portion of the pipeline in October 1997, only 30 months 
after inception. When the system is fully operational this summer it 
will initially deliver approximately 15 mgd of high quality recycled 
water for landscape irrigation and industrial use, supplementing 
supplies of potable water in this semi-arid region.
    The benefits of South Bay Water Recycling, however, are not limited 
to San Jose, Silicon Valley, or even the San Francisco Bay area. Since 
California's watersheds are all linked together through a massive 
system of dams, pipes and canals, recycled water from this project can 
help relieve the State's chronic water shortage. This shortage is now 
projected to exceed 6 million acre feet per year in 2020. The city of 
San Jose is energetically investigating opportunities to link our 
program with other water reuse projects in our region. We have taken a 
lead role in developing a regional master plan, in cooperation with the 
Bureau and other local agencies, including the Santa Clara Valley Water 
District.
    Furthermore, the technical and institutional lessons learned in 
implementing South Bay Water Recycling can be applied to projects 
throughout the country. To that end, we have actively pursued 
opportunities to share information about our project in professional 
conferences, seminars, and publications. We are also proposing to 
perform pilot work under BOR's ``Desalination Research and Development 
Program.''
    With the continued assistance of BOR, and the support of this 
Congressional committee, we will be able to proceed with our efforts to 
create an innovative, sustainable water reuse system on a scale 
required to meet regional needs. The $10 million requested in fiscal 
year 1999 is well within the current authorization, and is on a par 
with appropriations for projects of similar size in other communities 
supported by the Bureau of Reclamation's Title XVI program.
    Thank you for your past support, and for your continued help in 
making South Bay Water Recycling a reality in our community.
                                 ______
                                 

Prepared Statement of Robert W. Gross, Ph.D., Chair/Board of Directors, 
                   Santa Clara Valley Water District

                        guadalupe river project
Background
    The Guadalupe River is one of the major waterways that flow through 
the highly developed area of San Jose, CA. Historically, the river has 
flooded the downtown areas of San Jose and Alviso beyond local 
prevention capabilities. For example, estimated damages from a 1-
percent flood that would inundate the urban center of San Jose is over 
$526 million. The Guadalupe River started to overflow its banks in 
April 1982 and January 1983 before the storms receded and avoided major 
damage. The Guadalupe River overbanked in February 1986, January 9, 
1995, and March 10, 1995, causing damage to residences and businesses 
in the St. John and Pleasant Street areas of the downtown.
Project synopsis
    In 1971, the community requested the Corps reactivate its earlier 
study. Stage 1 started with the Plan of Study and was completed in 
1973. The initial problem definition and alternative screening were 
completed in 1974. More detailed problem definition and alternative 
studies for the Guadalupe River were completed in 1978. The Stage 2 
report was completed in 1980 for the combined Guadalupe River, Coyote 
Creek and Baylands, establishing the economic feasibility and Federal 
interest in the Guadalupe River.
    The Guadalupe River project received authorization for construction 
under the Water Resources Development Act of 1986; the final General 
Design Memorandum was completed in 1992; the local cooperative 
agreement was executed in March 1992; construction of the first phase 
of the project was completed in August 1994; construction of the second 
phase of the project was completed in August 1996.
    In an effort to accelerate completion of this project, the local 
community through the Santa Clara Valley Water District has been 
providing a substantial technical and financial assistance since 1972. 
The local community has completed local projects within the Corps' 
project reach and reaches downstream of the Corps limits. More than $64 
million in local funds has been spent on the planning, design, land 
purchases for, and construction of such improvements.
Fiscal year 1998 funding
    Funding for the Guadalupe River project during 1998 was authorized 
in the amount of $17.2 million to continue construction.
Fiscal year 1999 funding
    Funding for the Guadalupe River project during 1999 in the amount 
of $8 million is necessary to continue project construction and provide 
critically needed flood protection in the city of San Jose from 
downtown north to the community of Alviso.
Recommendation
    Based upon the present high flood risk and potential damage from 
the Guadalupe River, it is requested that the Committee support an 
additional appropriation of $4 million to the $4 million included in 
the Administration's budget, for a total of $8 million to continue 
construction of the Guadalupe River project in 1999.
                     upper guadalupe river project
Background
    The Guadalupe River is one of the two major waterways flowing 
through the highly urbanized area of Santa Clara County, CA. 
Historically, the river has flooded the central district of San Jose 
and areas south beyond local prevention capabilities. Damages in the 
Upper Guadalupe River's densely populated residential floodplain south 
of Interstate 280 would exceed $200 million. The probability of a large 
flood occurring before implementation of flood prevention measures is 
quite high. The Upper Guadalupe River overbanked in March 1982, January 
1983, February 1986, January 9, 1995, and March 10, 1995 causing damage 
to several residences and businesses in the Alma Street and Willow 
Street areas. The flooding of January and March 1995 floods each closed 
Highway 87, a major commuter thoroughfare.
Project synopsis
    In 1971, the Santa Clara Valley Water District (District) requested 
the Corps to reactivate its earlier study. From 1971 to 1980, the Corps 
established the economic feasibility and Federal interest in the 
Guadalupe River only between Interstate 880 and Interstate 280. In 
light of flooding in 1982 and 1983, the District requested that the 
Corps reopen its study of the Upper Guadalupe River (upstream of 
Interstate 280). The Corps completed a reconnaissance study in November 
1989 which established an economically justifiable solution for flood 
prevention in this reach. The report recommended proceeding to the 
feasibility study phase which began in 1990. The Milestone F4 
conference resulted in a reformulation of the project alternatives with 
a new Feasibility Cost Sharing Agreement signed in July 1995 and 
scheduled for completion by 1997. In January 1997, the Corps determined 
that the National Economic Development plan would be sized to only 
provide a 2-percent or 50-year level of flood protection rather than 
the 1 percent or 100 year level. The District strongly emphasized 
overriding and compelling reasons to select a higher level of 
protection (1 percent or 100 year) as the proposed project plan. The 
Corps will be requesting a waiver in the Feasibility Report to select 
the 1 percent or 100 year plan as the basis for cost sharing.
Fiscal year 1998 funding
    Funding for the Upper Guadalupe River project during 1998 was 
authorized in the amount of $750,000 to proceed with the feasibility 
study that will lead to providing critical flood protection.
Recommendation
    Based upon the present high flood risk and potential damage from 
the Upper Guadalupe River, it is requested that the Committee support 
the amount of $575,000 as included in the Administration's budget.
                    coyote/berryessa creek projects
Background
    The Coyote and Berryessa Creeks investigation was authorized by 
Congress in 1941 under the Guadalupe River and Adjacent Streams 
authority. Coyote Creek is one of two major waterways that flow through 
the highly urbanized areas of San Jose and Milpitas within Santa Clara 
County, CA. Berryessa Creek flows through a small portion of San Jose 
and the growing community of Milpitas. Historically, Coyote Creek 
flooded the north San Jose community of Alviso beyond local prevention 
capabilities. A 1-percent flood in the Berryessa area would result in 
damages of $52 million to the homes and industries of Milpitas and San 
Jose. The probability of a large flood occurring before implementation 
of flood prevention measures was quite high. A 2-percent flood has an 
18-percent chance of occurring during a 10-year period, and a 1-percent 
flood has about a 10-percent chance of occurring during this same 
period. Based on the percent flood estimates, there is a strong 
potential that a damaging flood will occur in the near future.
    In January 1983, floodwaters escaped from Berryessa Creek and 
caused damage to several homes and businesses. Coyote Creek overbanked 
in April 1982 and again in March 1983 causing damages amounting to 
several million dollars. Hundreds of people were forced to evacuate 
their homes where floodwaters stood for many days. Flood damages were 
avoided in January, March 1995, and again in January 1997 due to the 
protection offered by project improvements made on the Coyote Creek.
Project synopsis
    In 1971, the community requested the Corps to reactivate its 
earlier Guadalupe River and Adjacent Streams Study which included 
Coyote Creek. The Plan of Study was completed in 1973. The first phase 
of work included initial problem definition and alternative screening 
and was completed in 1974. The second phase of work included more 
detailed problem definition and alternative studies and was completed 
in 1978. The third phase, study of freshwater flooding in the Baylands, 
(which included the lower reaches on Coyote Creek) was completed in 
1979. The Stage 2 report could not establish the economic feasibility 
and Federal interest in Coyote Creek. In light of flooding in 1982 and 
1983, the Corps refocused its study on Coyote Creek to address the 
inadequate level of protection provided by unstable levees. Berryessa 
Creek originally was a Section 205 study but was combined with Coyote 
Creek when the project cost exceeded the limits of that program.
    In an effort to accelerate the completion of this overall program, 
the local community through the Santa Clara Valley Water District 
(District) has provided a substantial amount of technical and financial 
assistance since 1972. Special planning studies have been completed by 
the District for inclusion into the Corps' studies. The Coyote/
Berryessa Creek project received authorization for preconstruction, 
engineering and design under the Water Resources Development Act of 
1986. The project was authorized for construction under the Water 
Resources Development Act of 1990. The Project Cooperation Agreement 
for Coyote Creek was executed in August 1994.
    The severe flood problem and the ominous threat of future damages 
forced the local community to initiate a local project on Coyote Creek 
in anticipation of future Federal participation. Over $30 million has 
been spent on the planning, design and construction of improvements on 
Coyote Creek to date, which are planned for augmentation of and 
incorporation into the Federal project. The Chief of Engineer's 
February 1989 report contained $8.63 million Section 104 credit for 
flood control measures undertaken by the District from San Francisco 
Bay to Milpitas Sewage Treatment Plant. Congress authorized, in the 
Water Resources Development Act of 1988 (Public Law 100-676), $3 
million in reimbursement to the District for construction of flood 
control measures upstream of the Milpitas Sewage Treatment Plant. The 
District has completed this work. A Section 215 agreement was executed 
with the Corps in December 1993 which provided an additional $3 million 
for the sponsor to design and construct approximately 7,000 feet of 
offset levees and overflow channel excavation along of Coyote Creek 
upstream of Highway 237 in the cities of San Jose and Milpitas. The 
flood control improvements were completed in July 1996. The remaining 
project work consists of establishing over 20 acres of riparian 
mitigation plantings.
    The Corps completed the Draft General Design Memorandum in November 
1993 for Berryessa Creek which indicated an economically infeasible 
plan with a benefit/cost ratio of less than one. The District commented 
that a more environmentally protective project design is necessary to 
garner support of the local community; the District identified 
insufficient channel capacity existing downstream of the General Design 
Memorandum project limit at Calaveras Boulevard. Based on the Corps' 
and District's assessment, the Berryessa Creek downstream reach between 
Calaveras Boulevard and Lower Penitencia Creek does not have 1 percent 
capacity. Improvement of this downstream reach must be made prior to 
the upstream reaches identified in the General Design Memorandum to 
avoid induced flooding. Therefore, extension of the original General 
Design Memorandum project scope may be needed to include the downstream 
reach, which requires the preparation of a General Reevaluation Report.
Fiscal year 1998 funding
    Construction funding for the Coyote/Berryessa Creek projects during 
1998 in the amount of $1.0 million was authorized to complete 
mitigation planting construction of the Coyote Creek project.
Recommendation
    Based on the need to ensure the success of mitigation revegetation, 
it is requested that the Committee support the amount of $100,000 as 
included in the Administration's budget.
                     upper penitencia creek project
Background
    The Upper Penitencia Creek watershed is located in the northeast 
part of Santa Clara County, CA, near the southern end of San Francisco 
Bay. Since 1978, the creek has flooded in 1980, 1982, 1983, 1986, and 
1995. The January 9, 1995, event caused damage to a commercial nursery 
and deposited mud in a condominium complex and a business park.
    The proposed project on Upper Penitencia Creek, from Coyote Creek 
confluence to Dorel Drive, will protect portions of the cities of San 
Jose and Milpitas. The watershed is completely urbanized; undeveloped 
land is limited to a few scattered parcels still used for agriculture 
and the corridor along Upper Penitencia Creek. Based on the 1995 
Reconnaissance Report, 4,300 buildings are located in the floodprone 
area, 1,900 of which will have water entering the first floor. The 
estimated damages from a 1-percent or 100 year flood is $121 million.
Study synopsis
    The National Resource Conservation Service under the authority of 
the Watershed Protection and Flood Prevention Act, Public Law 83-566, 
completed a study of the economic feasibility of constructing flood 
damage reduction facilities on Upper Penitencia Creek. However, the 
National Resource Conservation Service watershed plan has been stalled 
since 1990 by the U.S. Department of Agriculture because the benefits 
to agriculture are less than 20 percent of the total benefits of the 
project.
    The Santa Clara Valley Water District requested that the Corps 
proceed with a reconnaissance study in April 1994 while the National 
Resource Conservation Service plan was on hold. Funds were appropriated 
by Congress for fiscal year 1995 and the Corps started the 
reconnaissance study in October 1994. The Reconnaissance Report was 
completed in July 1995, with the recommendation to proceed with the 
Feasibility Study Phase. The Feasibility Study is scheduled to be 
completed in September 1999.
Fiscal year 1999 funding
    Funding for the Upper Penitencia Creek project during fiscal year 
1999 in the amount of $475,000 to continue the Feasibility Study is 
essential to provide needed flood protection to citizens in the cities 
of San Jose and Milpitas.
Recommendation
    Based upon the present high flood risk and potential damage from 
Upper Penitencia Creek, it is requested that the Committee support an 
additional appropriation of $225,000 to the $250,000 included in the 
Administration's budget for a total of $475,000 to conduct the 
feasibility study of the Upper Penitencia Creek Project.
                          llagas creek project
Background
    The Llagas Creek watershed is located in the southern part of Santa 
Clara County, CA, serving the communities of Gilroy, Morgan Hill, and 
San Martin. The creek has flooded in 1937, 1955, 1958, 1962, 1963, 
1969, 1982, 1986, 1996, and 1997. The January 1997 flooding caused 
damage to a recreational vehicle park and many businesses and house in 
the Morgan Hill and San Martin areas where protection is proposed.
    The proposed project will provide flood protection for 
approximately 1,100 residential buildings, 500 commercial buildings, 
and 1,300 acres of agricultural land. The project was started in 1954, 
and is not scheduled for completion until 2012, unless funding is 
accelerated.
Project synopsis
    The National Resource Conservation Service (NRCS) under the 
authority of the Watershed Protection and Flood Prevention Act, Public 
Law 83-566, completed a study of the economic feasibility of 
constructing flood damage reduction facilities Llagas Creek. The NRCS 
completed construction of the last segment of the channel for the Lower 
Llagas Creek in 1994, which provides protection to the Gilroy portion 
of the project area. The NRCS is currently updating the 1982 
environmental assessment work and applying for a Corps 404 permit for 
the Upper Llagas Creek, serving the Morgan Hill and San Martin areas of 
the project.
    Until recently, the project was funded through the traditional 
Federal project funding agreement (Public Law 566) in which NRCS pays 
for the cost of channel improvements and the District is responsible 
for local costs that include relocation, bridge construction and right 
of way acquisition. Due to the Federal deficit and goals for achieving 
a balanced budget, funding for the Public Law 566 program has been 
reduced since 1985. Between 1982 and 1990, NRCS has allocated between 
$1 and $2 million annually for the Llagas Creek construction project. 
In fiscal year 1995, Congress did not make any appropriations for the 
program.
Fiscal year 1999 funding
    Funding for the Llagas Creek project during fiscal year 1999 in the 
amount of $4 million to continue construction is essential to provide 
needed flood protection to citizens in the cities of Morgan Hill and 
San Martin.
Recommendation
    Based upon the present high flood risk and potential damage from 
Llagas Creek, it is requested that the Committee support the addition 
of $4 million in the Administration's budget to continue construction 
of the Llagas Creek Project.
                  san francisco bay shoreline project
Background
    After much effort by local agencies and legislators, Congress 
authorized the San Francisco Bay Shoreline Project tidal flooding study 
in its passage of Public Law 94-587, the Water Resources Development 
Act of 1976. The Santa Clara Valley Water District (District) is one of 
the project sponsors. Santa Clara County was originally included in the 
first phase of the study, which proposed facilities in Santa Clara 
County to protect portions of the cities of Palo Alto, Sunnyvale, and 
San Jose. In 1990, the Corps concluded levee integrity was sufficient 
and the project has been suspended until adequate economic benefits are 
proven under Federal criteria. Tidal flooding potential in Santa Clara 
County has been aggravated by significant land subsidence, as much as 6 
feet near Alviso. During periods of high tide and coincident high storm 
water runoff in the local streams, levee overtopping occurs.
Project synopsis
    In 1984, the Corps study identified $15 million to $20 million in 
needed flood control construction in three areas (Palo Alto, Sunnyvale, 
and Alviso). The Corps determined the most likely mode of tidal 
flooding was overtopping and not erosion or levee failure. The Corps 
attributed significantly fewer potential benefits in making levee 
improvements because existing non-Federal and nonengineered levees have 
historically withstood overtopping without stability or erosion 
failures. The position of the District is that the lack of incidence of 
levee failure has been because of luck and diligent private and public 
maintenance programs. The District is concerned existing maintenance 
programs may not continue under the present regulatory environment. The 
trend toward tougher regulatory controls restricts levee maintenance, 
potentially making it economically unfeasible to continue historic 
levels of maintenance activities.
    The project has been temporarily suspended and will not be 
continued by the Corps until there is evidence of adequate economic 
benefits under Federal criteria. Corps staff in Washington D.C., has 
attempted unsuccessfully to resolve the differences in their standards 
for freeboard and stability of levees with the Federal Emergency 
Management Agency. The experiences in California's Central Valley in 
the winter of 1997 with levee failures and flooding increased the 
District's concern about protection provided by existing bayland 
levees. In April 1997, the District sent a letter to the San Francisco 
District Corps of Engineers requesting they review their 1990 
conclusions in light of recent experiences of catastrophic failure. The 
Corps proposed a new schedule for development fiscal year 1999.
Fiscal year 1999 funding
    Funding for the San Francisco Bay Shoreline project during fiscal 
year 1999 in the amount of $300,000 is essential to review their 1990 
report conclusions.
Recommendation
    Based upon the present high flood risk and potential damage from 
levee failure, it is requested that the Committee support the addition 
of $300,000 in the Administration's budget to begin the review of the 
1990 Corps report conclusions.
           san jose area water reclamation and reuse program
Background
    The San Jose Area Water Reclamation and Reuse Program, also known 
as the South Bay Water Recycling Program, will allow the city of San 
Jose and its tributary agencies of the San Jose/Santa Clara Water 
Pollution Control Plant to protect endangered species habitats, meet 
receiving water quality standards, supplement Santa Clara County water 
supplies, and comply with a mandate from the U.S. Environmental 
Protection Agency and the California Water Resources Control Board to 
reduce wastewater discharge to San Francisco Bay.
    The Santa Clara Valley Water District (District) is participating 
with the city of San Jose in the development of the reclamation and 
reuse program. Towards that end, the District is assisting the city of 
San Jose in providing financial support and technical assistance for 
program planning, liaison with water retailers, design, construction, 
inspection, and other services for the Program. Design, construction, 
construction administration, and inspection for the Program's 
Transmission Pipeline and Milpitas 1A Pipeline are being performed by 
the District under contract to the city of San Jose. The city of San 
Jose is the program sponsor for Phase 1, now under construction, which 
involves construction of nearly 60 miles of transmission and 
distribution pipelines, pump stations and reservoirs, and has an 
estimated capital cost of $140 million. It is anticipated that Phase 1 
will begin operation in March 1998, and will deliver an estimated 15 
million gallons per day of nonpotable recycled water for landscape 
irrigation and industrial use, providing a drought-proof supplemental 
water supply for this semi-arid region..
    In 1992, Public Law 102-575 authorized the Bureau of Reclamation to 
participate with the city of San Jose and the District in the planning, 
design, and construction of demonstration and permanent facilities to 
reclaim and reuse water in the San Jose metropolitan service area. 
Although authorized to participate in this program by funding up to $35 
million (15 percent of the Phase 1 costs), appropriations by the Bureau 
to date have only been $6 million.
Fiscal year 1998 funding.
    The Administration's fiscal year 1998 Budget included $3 million to 
continue construction of the San Jose Area Water Reclamation and Reuse 
Program.
Fiscal year 1999 funding
    The Administration's proposed budget of $3 million for fiscal year 
1999 leaves a ``funding gap'' of $23 million between authorization and 
appropriation. By comparison, the Bureau has budgeted more than $20 
million per year for similar projects in southern California for each 
of the past three years.
Recommendation
    Based on the San Jose Area Water Reclamation and Reuse Program's 
water supply and environmental benefits to the area, it is requested 
that the committee support the $10 million recommended by the city of 
San Jose. Receipt of fewer funds than required will curtail the 
program.
               san francisco area water reclamation study
Background
    The purpose of the San Francisco Area Water Reclamation Study, also 
known as the Central California Regional Water Recycling Project, is to 
develop a Regional Water Recycling Master Plan for maximizing local 
reuse of recycled water and identify regions in California outside the 
Bay Area that could use high-quality recycled water for such purposes 
as agricultural irrigation or salinity control. The master plan will 
identify sources of freshwater and what potential exchange could result 
to benefit environmental, urban, or industrial needs. This plan will 
also include preparation of a technical memorandum to CALFED to 
summarize recycled water projects for implementation into their 
Environmental Impact Report.
    The feasibility study was completed in 1996. The master plan is 
expected to be completed in 3 years. The Santa Clara Valley Water 
District is participating in the master plan and is providing 
financial, technical, and project management support along with other 
local water and wastewater agencies.
Fiscal year 1998 funding
    Funding in the amount of $375,000 was included in the 
Administration's fiscal year 1998 Budget for the San Francisco Area 
Water Reclamation Study to develop the water recycling master plan.
Recommendation
    Based on the important water supply and wastewater discharge 
benefits to the region, it is requested that the committee support the 
$500,000 recommended by the California Water Commission as an addition 
to the Administration's budget for 1999.
  central valley project operations and maintenance of san luis unit 
                          joint use facilities
Background
    The San Luis Unit of the Central Valley Project is located near Los 
Banos on the west side of the San Joaquin Valley in Fresno, Kings, and 
Merced Counties. The San Luis Unit is an integral part of the Central 
Valley Project, delivering water and power supplies developed in the 
American River, Shasta, and Trinity River Divisions to users located in 
the service area.
    Certain facilities of the San Luis Unit are owned, operated, and 
maintained jointly with the State of California. These Joint Use 
facilities consist of O'Neill Dam and Forebay, San Luis Dam and 
Reservoir, San Luis Pumping-Generating Plant, Dos Amigos Pumping Plant, 
Los Banos and Little Panoche Reservoirs, and the San Luis Canal. These 
facilities are essential to the State Water Project's ability to serve 
numerous agricultural and municipal and industrial water users in the 
San Joaquin Valley and Southern California. Costs of the Joint Use 
facilities are funded 55 percent State and 45 percent Federal, under 
provisions of Federal-State Contract No. 14-06-200-9755, December 31, 
1961.
    Within the Central Valley Project, the Joint Use Facilities of the 
San Luis Unit are an important link to the San Felipe Division, which 
serves as the largest source of water imported into the Santa Clara 
Valley Water District (District) and the San Benito County Water 
District. All of the Central Valley Project water delivered through the 
San Felipe Division must be pumped through O'Neill Dam and Forebay and 
San Luis Dam and Reservoir.
Fiscal year 1997 funding
    In fiscal year 1997, approximately $6 million was appropriated for 
San Luis Joint Use facility operation and maintenance costs.
Fiscal year 1998 funding
    The Administration provided sufficient funding to cover its portion 
of the annual operation and maintenance costs.
Recommendation
    It is requested that the Committee support the amount of $3.5 
million as included in the Administration's budget to continue 
operation and maintenance of the San Luis Unit Joint Use facilities.
                 calfed san francisco bay-delta program
Background
    In an average year, half of Santa Clara County's water supply is 
imported from the Bay-Delta watersheds through three water projects: 
the State Water Project, the Federal Central Valley Project, and San 
Francisco's Hetch Hetchy project. In conjunction with locally-developed 
water, this water supply supports the 1.6 million residents of the 
county and the capitol of the high-tech industry. In average to wet 
years, there are enough water supplies to meet the county's long-term 
needs. In dry years, however, the county could face a water supply 
shortage of as much as 100,000 acre-feet per year, or roughly 20 
percent of the expected demand. In addition to shortages due to 
hydrologic variations, the county's imported supplies have been reduced 
due to regulatory restrictions placed on the operation of the State and 
Federal water projects.
    There are also water quality problems associated with using Bay-
Delta water as a source of drinking water supply. Organic materials and 
pollutants discharged into the Delta, together with salt water coming 
in from San Francisco Bay, have the potential to create disinfection-
by-products that are carcinogenic. Santa Clara County's imported 
supplies are also vulnerable to extended outages due to catastrophic 
failures such as major earthquakes and flooding. As demonstrated by the 
recent flooding in Central Valley, the levee systems can fail and the 
water quality at the water project intakes at the Delta can be degraded 
to such an extent that the projects cannot pump from the Delta.
Project synopsis
    The CALFED Bay-Delta Program is an unprecedented cooperative effort 
among Federal, State and local agencies to restore the Bay-Delta. With 
input from urban, agricultural, environmental, fishing, and business 
interests, and the general public, CALFED is developing a 
comprehensive, long-term plan that will address ecosystem and water 
management problems in the Bay-Delta.
    Restoring the Bay-Delta ecosystem is important not only because of 
its significance as an environmental resource, but also because failing 
to do so will stall efforts to improve water supply reliability for 
millions of Californians and the State's $700 billion economy and job 
base.
    Although the CALFED Bay-Delta Program is a long-range planning 
process, ecosystem restoration is an immediate priority because of the 
substantial lead time needed to produce ecological benefits. Species in 
the Bay-Delta continue to be proposed for listing under the Endangered 
Species Act (ESA). Recovery efforts cannot begin until adequate funding 
becomes available to implement the array of critical ecosystem 
restoration and water quality projects.
Recommendation
    It is requested that the Committee support $143 million in the 
Administration's fiscal year 1999 Budget for ecosystem restoration.
           santa clara basin watershed management initiative
Background
    The Watershed Management Initiative (Initiative) is a stakeholder-
driven effort, led by the San Francisco Regional Water Quality Control 
Board, that commenced in April 1996. The goal of this effort is to 
establish an on-going process of managing activities and natural 
processes in the Santa Clara Basin Watershed by maximizing the benefits 
and minimizing the adverse impacts on the environment for the benefit 
of the community and recognizing the quality of life and diversity. The 
Santa Clara Basin Watershed includes the northern Santa Clara county 
areas which drain to San Francisco Bay, and also includes portions of 
Alameda and San Mateo Counties.
    The Initiative will address integration of activities within the 
watershed with a focus on water quality protection. Specific activities 
being addressed include land use and development, water supply, flood 
management, environmental restoration, and regulatory processes, to 
name a few.
    The District is one of many stakeholders who continue to 
demonstrate commitment to this multi-year process by providing funds 
and actively participating on the Initiative's Core and working group. 
The Core Group provides direction for the Initiative and includes 
representatives of the business community, local governments, 
environmental groups, agriculture, resource and regulatory agencies, as 
well as other interests.
    The Initiation Phase was completed in December 1996, and the 4-year 
Planning Phase has commenced. The schedule for deliverables during the 
Planning Phase is as follows:
    1. Inventory Document--December 1998.--Utilizes available data to 
document the existing physical, chemical, and biological 
characteristics of the watershed.
    2. Assessment Report--June 1999.--Provides a preliminary assessment 
of the condition of the watershed based on available data.
    3. State of the Watershed Report--December 2000.--Describes 
alternatives to managing the watershed which address the problems 
identified in the Assessment Report.
    4. Watershed Management Plan--December 2001.--This documents the 
final action plan to manage the watershed, including a program to 
measure progress and allow for flexible responses to changing community 
needs.
    The final product of the Planning Phase will be a comprehensive 
watershed plan that incorporates stakeholder input and extensive public 
outreach, which will guide watershed management activities into the 
next century as the Santa Clara Basin Watershed Management Initiative 
moves into its Implementation Phase.
    Section 503 of the 1996 Water Resources Development Act, authorizes 
the Army Corps of Engineers to provide technical and planning 
assistance in the development of a watershed plan for the Santa Clara 
Valley. The Initiative has progressed to the point where Corps 
assistance is needed to participate in the watershed assessment and 
addressing pressing regulatory issues.
Initiative funding
    Approximately $400,000 has been spent on the Initiative project 
since the project commenced in April 1996. Some of the funding agencies 
for this effort include the Santa Clara Valley Water District, city of 
Sunnyvale, and city of San Jose. Costs estimates for the Initiative 
project are estimated between $4,500,000 and $5,000,000 over the next 4 
years.
District funding
    The District approved funds totaling $286,562 in fiscal year 1997-
98, with an additional $870,000 commitment approved by the Board in 
September 1997 to support the District's expanded role in the project 
over the next 2 years. The District's cost to participate in the 
Initiative process for fiscal year 1998-99 is approximately 1 million 
dollars, including labor, materials and supplies. This amount has been 
requested in the District's fiscal year 1998-99 budget process.
Recommendation
    In order to continue the progress made to date with the Initiative, 
the District requests that the Congressional Committee support 
additional Federal appropriations in the amount of $500,000 in fiscal 
year 1998-99 to cost-share the Santa Clara Basin Watershed Management 
Initiative.
                                 ______
                                 
  Prepared Statement of Jim Venables, Chairman, Board of Supervisors, 
     Riverside County Flood Control and Water Conservation District
   resolution no. f98-3 supporting federal appropriations for flood 
                 control projects for fiscal year 1999
    WHEREAS, the United States House of Representatives Committee on 
Appropriations, Sub-Committee on Energy and Water Development, and the 
United States Senate Committee on Appropriations, Sub-Committee on 
Energy and Water Development are holding hearings to consider 
appropriations for Flood Control and Reclamation Projects for fiscal 
year 1999 and have requested written testimony to be submitted to the 
committees prior to March 31, 1998; and
    WHEREAS, the Riverside County Flood Control and Water Conservation 
District supports the continuation of construction of the Santa Ana 
River Mainstem project, the completion of design and construction for 
the project to reduce flooding and bank destruction along the Santa Ana 
River at Norco Bluffs, California, the initiation of land acquisition 
and construction for the Section 1135 environmental enhancement project 
at Gunnerson Pond, Lake Elsinore, California, the initiation of a flood 
control reconnaissance study for the San Jacinto River, and the 
completion of a feasibility study for a flood control project on 
Murrieta Creek, a sub basin of the Santa Margarita River watershed in 
Riverside and San Diego Counties, California; now, therefore,
    BE IT RESOLVED by the Board of Supervisors of the Riverside County 
Flood Control and Water Conservation District in regular session 
assembled on March 3, 1998, that they support appropriations by 
Congress for fiscal year 1999 for the following projects:

U.S. ARMY CORPS OF ENGINEERS:
    Construction--General Santa Ana River Mainstem......     $76,000,000
    Construction--General Santa Ana River at Norco 
      Bluffs............................................       4,400,000
    Feasibility Study--Flood Control Murrieta Creek Sub-
      basin, Santa Margarita River Basin................         800,000
    Section 1135, Environmental Enhancement Projects 
      Lake Elsinore, Gunnerson Pond.....................       1,500,000
    Reconnaissance Study--Flood Control and Other 
      Purposes San Jacinto River........................         100,000

    BE IT FURTHER RESOLVED that the General Manager-Chief Engineer is 
directed to distribute certified copies of this resolution to the 
Secretary of the Army, Members of the House of Representatives 
Committee on Appropriations and Sub-Committee on Energy and Water 
Development, the Senate Committee on Appropriations and Sub-Committee 
on Energy and Water Development, and the District's Congressional 
Delegation--Senators Dianne Feinstein and Barbara Boxer, Congressmen 
Ron Packard and Ken Calvert, and the office of the late Congressman 
Sonny Bono.
                       santa ana river--mainstem
    The Water Resources Development Act of 1986 (Public Law 99-662) 
authorized the Santa Ana River--All River project which includes 
improvements and various mitigation features as set forth in the Chief 
of Engineers' Report to the Secretary of the Army. The Boards of 
Supervisors of Orange, Riverside, and San Bernardino Counties continue 
to support this critical project as stated in past resolutions to 
Congress.
    The Local Cooperation Agreement (LCA) was signed in December 1989 
by the three local sponsors and the Army. The first of five 
construction contracts started on the Seven Oaks Dam feature in the 
Spring of 1990. Significant construction has been completed on the 
lower Santa Ana River Channel and on the San Timoteo Creek Channel. 
Construction activities on Oak Street Drain and the Mill Creek Levee 
have been completed. The Seven Oaks Dam construction effort is 
approximately 70 percent complete, and proceeding ahead of schedule. We 
currently anticipate construction on Seven Oaks Dam to be completed in 
the summer of 1999. Design efforts on Prado Dam are sufficiently 
complete that construction of improvements to the outlet works and dam 
embankment can be initiated promptly upon receipt of a fiscal year 1999 
appropriation.
    An appropriation of $35 million is necessary to complete 
construction activities on the Seven Oaks Dam, while $18 million is 
needed to initiate and complete construction of ``Reach 8'', the last 
remaining segment of the lower Santa Ana River Channel. A total of $23 
million is being sought to fund a new construction start on the 
essential Prado Dam project. We, therefore, respectfully request that 
the Committee support an overall $76 million appropriation of Federal 
funding for fiscal year 1999 for the Santa Ana River Mainstem project.
                    santa ana river at norco bluffs
    The Santa Ana River passes along the northerly border of the city 
of Norco. The southerly bank of the river is a bluff varying in height 
from 46 to 96 feet above the streambed, atop which is a residential 
neighborhood. The floods of January and February 1969 caused flow 
impingement on the riverbank, which undermined the toe of the slope, 
causing severe bank sloughing. Although 50 to 60 feet of the bluff 
retreated to the south, and no improvements were lost, the threat to 
improvements from future river actions became apparent. The floods of 
1978 and 1980 impinged further, causing another 30 to 40 feet of bluff 
retreat, and the loss of a single family residence.
    Section 101(b)(4) of the Water Resources Development Act of 1996 
provided for the authorization of the project, dependent upon the 
project receiving a favorable Chief's Report. On December 23, 1996 the 
Corps' Chief of Engineers issued a Chief's Report recommending the 
Norco Bluffs project for construction.
    We are requesting Congress, through the Committee, appropriate 
$4,400,000 to provide sufficient Federal funding to complete 
construction in fiscal year 1999 on the Santa Ana River at Norco Bluffs 
project. The Riverside County Flood Control and Water Conservation 
District is fully prepared to meet its cost-sharing obligation.
      santa margarita watershed--murrieta creek feasibility study
    The Santa Margarita Watershed lies in the south and northwesterly 
areas of Riverside and San Diego Counties, respectively. Murrieta Creek 
passes through the cities of Murrieta and Temecula in Riverside County, 
then confluences with Temecula Creek to form the Santa Margarita River 
which flows into San Diego County, through the Camp Pendleton Marine 
Base, and into the Pacific Ocean.
    Murrieta and Temecula experienced severe flood damage in January 
1993, estimated in excess of $10 million dollars, from Murrieta Creek 
overflow. Camp Pendleton also suffered extensive flood damage, 
estimated at $88 million, to facilities and aircraft due to overflow of 
the Santa Margarita River. For the past several years, a coalition of 
local citizens, community leaders, environmentalists, and developers 
have worked closely with the District to identify solutions to the 
flooding problems within the Murrieta Valley.
    A Feasibility Study addressing flood control, environmental 
enhancement, and recreation for Murrieta Creek was initiated in fiscal 
year 1998. We request that the Committee approve $800,000 in fiscal 
year 1999 appropriations to complete the Feasibility Study for a flood 
control project on Murrieta Creek within the Santa Margarita Watershed.
                             gunnerson pond
    In 1995, the Corps of Engineers, Los Angeles District, began an 
investigation under Section 1135 to evaluate the possibility of a 
wetlands restoration project at Gunnerson Pond. The site is in the 
northerly portion of the city of Lake Elsinore, adjacent to and 
downstream of the Corps-built Lake Elsinore Outlet Channel, a Section 
205 project.
    The proposed modification of the outlet channel would allow 
floodwater from Lake Elsinore and discharge from a nearby wastewater 
treatment plant to flow into Gunnerson Pond, creating a permanent 
wetland in that area. The purpose of this modification would be to 
enhance and develop waterfowl habitat, endangered species habitat, 
emergent wetlands vegetation, and riparian vegetation. The proposed 
project would significantly expand and enhance existing wetland and 
riparian areas along the Temescal Creek flood plain.
    The Corps Headquarters approved the Preliminary Restoration Plan in 
August 1996. The Project Modification Report which will provide final 
definition of the project is complete, and currently awaiting approval 
at Corps Division level.
    We request that the Committee approve $1,500,000 in fiscal year 
1999 appropriations to provide for construction of the project to 
restore a critical wetland and riparian area for the Gunnerson Pond 
project under the authority of Section 1135.
                           san jacinto river
    The San Jacinto River watershed encompasses approximately 730 
square miles that drains into Lake Elsinore in western Riverside 
County. The San Jacinto River originates in the San Jacinto Mountains 
and passes through the cities of San Jacinto, Perris, Canyon Lake and 
Lake Elsinore. The only major flood control structures on the river are 
levees in the city of San Jacinto built by the Corps of Engineers in 
the early 1960's. In the 30-mile reach of the river between Lake 
Elsinore and the city of San Jacinto, only minor channelization exists 
as the river is characterized by expansive overflow areas, including 
the Mystic Lake area. The San Jacinto River has caused major flooding 
damage to agricultural areas and rendered Interstate 215 and several 
local arterial transportation routes impassable. However, the river is 
an important resource that provides water supply, wildlife habitat, 
drainage, and recreation values to the region.
    The District and its co-sponsor Eastern Municipal Water District 
are requesting that the Corps of Engineers conduct a reconnaissance 
study of the San Jacinto River between the city of San Jacinto and the 
city of Lake Elsinore to investigate whether there is a Federal 
interest in flood control, environmental enhancement, water 
conservation and supply, recreation and related purposes.
    We wish to request that the Committee approve $100,000 in fiscal 
year 1999 appropriations to undertake a Reconnaissance Study on the San 
Jacinto River.
                                 ______
                                 
    Prepared Statement of Jerry Eaves, Chairman, Supervisor, Fifth 
                   District, County of San Bernardino
    The Board of Supervisors of San Bernardino County, State of 
California, appreciates the opportunity to bring the following flood 
control and water conservation projects to your attention for 
consideration in the fiscal year 1998-1999 Federal Budget.
Corps of Engineers
    Santa Ana River Mainstem.--Construction on this extremely important 
flood control project for San Bernardino, Riverside, and Orange 
counties began in 1990. Construction of several project features has 
been completed while others are underway. The funding proposed in the 
President's budget, $20,035,000, is $56,000,000 short of funding 
necessary to keep three key project elements, Seven Oaks Dam, Lower 
Santa Ana River Reaches 8 and 9, and Prado Dam from moving ahead with 
construction on schedule and in accordance with the Corps of Engineer 
capabilities. At Seven Oaks Dam alone, the proposed funding is 
$15,000,000 short of the amount needed to keep the contractor working 
for a full year. Failure to provide adequate funding for this feature, 
in its final year of construction, will undoubtedly result in a 
premature shut down of construction and considerable costs to de-
mobilize, re-mobilize, and probable expensive contractor claims for 
both the Federal Government and the local project sponsors. We ask for 
your support of Santa Ana River Mainstem project funding in the amount 
of $76,000,000 for fiscal year 1998-99.
Bureau of Reclamation
    San Sevaine Creek Water Project (Public Law 84-934 Small Watershed 
Project Loan Program).--Upon completion, the project will provide 
environmental enhancements, flood protection, and water conservation in 
the western portion of the San Bernardino Valley. The funding proposed 
in the President's budget is $1,177,000. We ask for your support of the 
President's proposed budget.
    The Board once again wishes to express its deep appreciation for 
your past and present support of these priority programs in San 
Bernardino County.
                    santa ana river mainstem project
Project Description
    The Santa Ana River Project includes seven interdependent features: 
Mill Creek Levee, Oak Street Drain, San Timoteo Creek, Lower Santa Ana 
River, Seven Oaks Dam, Prado Dam and Santiago Creek. Mill Creek Levee, 
Oak Street Drain, San Timoteo Creek Reach 1, and Reaches 1, 2, 3, 4, 5, 
6, 7 and 10 of the Lower Santa Ana River are complete. Completion of 
all of the features will provide (a) the necessary flood protection 
within Orange, Riverside, and San Bernardino Counties; (b) enhancement 
and preservation of marshlands and wetlands for endangered waterfowl, 
fish and wildlife species; (c) recreation amenities; and (d) flood 
plain management of the 30 miles of Santa Ana River between Seven Oaks 
Dam and Prado Dam.
San Bernardino County Features Status
    Seven Oaks Dam.--Intake structure excavation, abutment stripping 
and outlet works/diversion tunnel contract is complete. Embankment and 
spillway construction contract was awarded in March 1994. Construction 
is progressing satisfactorily and is 77 percent complete as of February 
1998. Construction can be completed in fiscal year 1999 if $35,000,000 
in Federal funding is provided.
    San Timoteo Creek.--San Timoteo Creek/Reach 1 construction was 
completed in September 1996. Construction has been proceeding on 
Reaches 2 & 3A and is scheduled for completion by March 1998. Overall, 
construction is approximately 50 percent complete as of February 1998.
Funding Required
    To continue construction of the Mainstem Project on schedule in 
fiscal year 1998-99, Federal funding in the amount of $76,000,000 would 
be required as follows: Seven Oaks Dam--$35,000,000; Lower Santa Ana 
River--$18,000,000; Prado Dam--$23,000,000. The funding amount required 
exceeds the President's proposed budget by $56,000,000. The funding 
required for the Seven Oaks Dam feature alone exceeds the proposed 
budget by $15,000,000. This feature can be completed in fiscal year 
1998-99 with adequate funding. Failure to provide full funding for this 
feature will probably result in a cessation of construction and 
substantial cost (in $millions) to demobilize and re-mobilize at a 
future time.
    Project authorized: Public Law 94-587, Section 109, Approved 
October 22, 1976, Public Law 99-662, Water Resources Development Act of 
1986
    Total project cost: $1.4 billion--Includes $473 million local 
share.
    President's budget Fiscal Year 1998-99: $20,000,000
    Funding shortfall Fiscal Year 1998-99: $56,000,000
    Required funding: Fiscal Year 1998-99: $76,000,000
    Requested action: Approval of $76,000,000 for Santa Ana River 
Mainstem, fiscal year 1998-99.
                           san timoteo creek
Project Description
    The San Timoteo Creek is a major tributary to the Santa Ana River 
in the east San Bernardino Valley. A large watershed of approximately 
126 square miles drains into the creek which flows through the cities 
of Redlands, Loma Linda, and San Bernardino before discharging into the 
Santa Ana River. The existing creek in all three cities has an earthen 
bottom and partially improved embankments reinforced with rail and wire 
revetments.
    Major storm flows along the creek in 1938, 1961, 1965, 1969, and 
1978 caused considerable damage to the creek itself as well as over-
topping the banks and causing loss of life and severe property damage. 
The Energy and Water Development Appropriations Act of 1988 authorized 
improvement of San Timoteo Creek as part of the Santa Ana River 
Mainstem Project. The improvements include the construction of 
approximately 5.5 miles of concrete lined channel from the Santa Ana 
River upstream through the cities of San Bernardino, Loma Linda, and 
Redlands plus the construction of debris retention facilities at the 
upstream end of the project in the form of in-channel sediment storage 
basins.
Project Status
    Overall project construction is 50 percent complete. An alternative 
is being investigated that would re-configure the sediment storage 
basins, currently located in the final Reach 3B, by decreasing their 
overall length. Plans for the final phase will be developed during the 
remaining 1998 fiscal year with completion anticipated during the early 
1999 fiscal year.

Completed Phases:
    Reach 1:
        0.7 Mile of Channel............  September 1996
        Waterman Avenue Bridge.........  September 1996
    Reach 2:
        1.9 Miles of Channel...........  December 1997
        Redlands Boulevard Bridge......  March 1998
    Reach 3A: 0.8 Mile of Channel......  April 1998
 

Remaining Construction and Schedule:
    Reach 3B: 3.0 to 3.6 Miles of Channel and/or Sediment Basins, 
depending on the option chosen.

Plans and Specifications.....  June 1998-February 1999
Right-of-Way Acquisition.....  August 1998-September 1999
Construction Start...........  April 2000
Construction Completion......  September 2001
 

Estimated Project Cost
    The total estimated project cost is $58,000,000 with the Federal 
participating cost at 75 percent or $43,500,000 and the local 
participating cost at 25 percent or $14,500,000. The cost of the 
remainder of the project is estimated to be $29,000,000, with the 
Federal share at $21,750,000 and the local share at $7,250,000
    Requested action: Approval of continued funding for the San Timoteo 
Creek Project.
              san antonio creek channel feasibility study
    Project History.--The San Antonio Creek Channel was constructed by 
the Corps of Engineers in the 1950's. Its watershed encompasses an area 
of approximately 89 sq. miles at the western border of San Bernardino 
County. Most of this channel is concrete lined or improved with rock 
slope protection. Approximately one-third of the primarily undeveloped 
watershed is tributary to the San Antonio Dam, which is located about 
11 miles downstream from the headwaters of the watershed.
    Current Status.--The feasibility study found that the existing 
channel will be sufficient to convey 100-year flows if a re-operation 
plan of the existing San Antonio Dam is developed and implemented. The 
County of San Bernardino Flood Control District thanks you for your 
past support of this project. The information gleaned during this study 
will be of great use in our maintenance of the floodway for the San 
Antonio Creek System.
    Requested action: No further funding required
                    san sevaine creek water project
Project Description
    The San Sevaine Creek Water Project, will provide environmental 
enhancements, water conservation and flood control facilities in the 
western portion of the San Bernardino Valley. A 132-acre area is being 
set aside to protect a sensitive plant community, wetlands and wildlife 
enhancement. In addition, several water conservation basins will 
percolate an estimated 25,000 acre-feet of storm water runoff per year 
into the Chino Groundwater Basin benefiting agricultural, municipal and 
industrial water users in the Valley. This increased water conservation 
will occur as the result of an additional 5,400 acre-feet of water 
storage which will reduce the need to purchase imported water.
Project Status
    The loan application was signed by Commissioner Eluid Martinez on 
April 11, 1996, and approved by the Secretary of Interior, Bruce 
Babbitt, on May 9, 1996, starting the 60-day congressional approval 
process. As of July 25, 1996, the San Sevaine project completed the 60-
day calendar for review by Congress as required under the Small 
Reclamation Loan Act. On December 17, 1996, the project Repayment 
Agreement was approved by the Board of Supervisors San Bernardino 
County and approved on January 8, 1997, by Robert Johnson, Regional 
Director of the Bureau of Reclamation. The 1998 fiscal year Federal 
Budget included $1,333,000 for a project new start, and the Bureau has 
indicated an 8-year construction schedule with project completion by 
the year 2006. Although considerable levee, channel and interim basin 
work has already been completed at various locations on this major 
water project, continued Federal assistance in the form of a Small 
Project Loan is urgently needed to allow for the construction of major 
improvements that will provide a fully integrated and functional 
project. Without these funds, it will be decades before local interests 
can accrue sufficient funds to construct this vital project. The 
California Water Commission has consistently since the late 1980's 
supported the construction of this project.
    Federal authority: Public Law 84-984, as amended 1956.
    Bureau of Reclamation grant contribution: Approximately $27.4 
million.
    Bureau of Reclamation loan contribution: Approximately $19.2 
million.
    Total B of R project (not additive): Approximately $52.9 million.
    Total local contribution: $33.7 million
    1997-98 Fiscal year Federal budget: $1.3 million.
    President's budget fiscal year 1998-99: $1.177 million.
    The County coordinated with the Bureau of Reclamation and the 
National Water Resources Agency (NWRA) in a cooperative effort to 
obtain a project new start in the amount of $1,333,000 end fiscal year 
1998. Due to the size and complexity of the project, the Bureau has 
estimated an 8-year construction funding schedule with project 
completion by year 2006. We appreciate the continuing support provided 
by the Bureau of Reclamation for this project.
    Requested action: Support President's proposed fiscal year 1998-99 
budget in the amount of $1.177 million.
                                 ______
                                 

   Prepared Statement of John E. Hoagland, General Manager, Elsinore 
                    Valley Municipal Water District

    Mr. Chairman and Members of the Subcommittee, my name is John 
Hoagland, and I'm the General Manager of the Elsinore Valley Municipal 
Water District (EVMWD). The District serves the city of Lake Elsinore 
and the surrounding communities in western Riverside County in southern 
California.
    I respectfully request the Committee's continued support for the 
Bureau of Reclamation's Temescal Valley Project and for two modest new 
efforts under the Corps of Engineers to enhance both the environment 
and the reliability of the region's domestic water supplies. These 
requests have the full support of the California Water Commission.
    Mr. Chairman, first, I request the Committee's continued support 
for the Temescal Valley Project under the Bureau of Reclamation's Loan 
Program Account. Specifically, for this important project, which will 
dramatically improve the EVMWD's ability to service the water supply 
needs of the Temescal Valley, I request the Committee's approval of 
$2,770,000, the same as the budget request.
    Second, I request $300,000 for the Corps of Engineers, under 
General Investigations, for a special study to improve the seismic 
reliability of the EVMWD water system. Much of the water system 
infrastructure is in a seismically active area. The Corps of Engineers 
assistance under Public Law 101-640 and Public Law 104-303 will help 
the District to develop the means to minimize the likelihood that water 
supply interruptions will occur during an earthquake event in our area.
    Third, and finally, Mr. Chairman, I request your support for 
$100,000 under the Corps of Engineers, Construction General, Section 
206, Aquatic Ecosystem Restoration program. These funds will be used to 
initiate work on a small, but important environmental restoration 
project on the San Jacinto River. The project involves clearing 
invasive plant growth and replanting native growth along approximately 
4,000 linear feet of the San Jacinto River. The work will be cost-
shared by the District, and the entire project can be completed for an 
estimated $300,000.
    Mr. Chairman, the Committee's favorable consideration of these 
requests would be greatly appreciated.
                                 ______
                                 

  Prepared Statement of Carl L. Blum, Deputy Director, Department of 
                  Public Works, Los Angeles County, CA

    Summary of recommendations by Los Angeles County Department of 
Public Works concerning budget allocations to the U.S. Army Corps of 
Engineers.
    We strongly support the California Water Commission's 
recommendation to the Committee for $60 million to fund the continuing 
construction phase of the Los Angeles County Drainage Area (LACDA) 
project.
    Mr. Chairman and Members of the Committee: We appreciate your 
Committee's continued support of critical flood control and water 
conservation projects in Los Angeles County, CA.
                               background
    Floods are a part of the history of the Los Angeles area. 
Widespread floods have periodically devastated vast areas of the region 
and were responsible for taking lives, damaging property and 
interrupting commerce and trade.
    The U.S. Army Corps of Engineers and county of Los Angeles, acting 
on behalf of the Los Angeles County Flood Control District, have built 
one of the most extensive flood control systems in the world. 
Construction of the major elements of the system began in the 1920's 
and consisted of 20 major dams, 470 miles of open channels, and many 
other appurtenant facilities. Fifteen of these major dams are owned 
and/or operated by the county while the remaining five dams (Hansen, 
Lopez, Santa Fe, Sepulveda and Whittier-Narrows), are owned and 
operated by the Corps. Since the major segments were completed, it is 
estimated that the system has prevented $3.6 billion in potential flood 
damage.
    Development which occurred after World War II exceeded the 
projections the Corps used in the 1930's and has increased runoff to 
the point where, even in a moderate storm, the runoff could exceed the 
design capacity of portions of the system. For example, the lower Los 
Angeles River in the city of Long Beach can only provide protection 
from a 25-year flood and came close to overtopping in 1980. A storm of 
greater magnitude would have a tremendous impact, both personal and 
economic, on Los Angeles County, the nation's second largest 
metropolitan area.
    At the request of the county of Los Angeles, the U.S. Army Corps of 
Engineers analyzed the adequacy of the existing major flood control 
facilities serving the Los Angeles basin in the LACDA Review study. In 
1990, a project to upsize a portion of the LACDA system received 
Congressional approval subject to a favorable report by the Chief of 
Engineers (received in 1995), and signature of the Record of Decision 
by the Secretary of the Army, which was obtained in July 1995.
    The final report by the Corps identified 100-year flood damages 
totaling $2.25 billion covering an 82-square-mile area which houses 
over 500,000 people. These damages would occur in the heavily-urbanized 
Los Angeles basin, where adequate protection from a 100-year flood was 
previously provided.
    The LACDA project is a critical modification to existing 
facilities. Obtaining funds to do the modification is critical for two 
reasons: first, because of the threat of flooding to over one-half 
million people; and second, because FEMA's final Flood Insurance Rate 
Maps (FIRM's) for the area that would be affected by overflows from the 
lower Los Angeles River and Rio Hondo Channel will be in affect 
starting July 6, 1998. The financial impact on the affected property 
owners could reach as high as $131 million annually for flood insurance 
premiums. Any delay in construction causes a great financial hardship 
on thousands of people, who thought the existing river provided 
adequate protection and will now need to buy flood insurance until such 
a project is completed. An economic impact study done by the University 
of Southern California also indicated that failure to construct the 
needed flood control measures will result in the loss of as many as 
120,000 jobs. Economic losses in the region of over $30 billion over a 
10-year period could also be realized due to stringent building 
restrictions.
    This project, currently estimated to cost approximately $240 
million, is scheduled, pending adequate funding, to be completed within 
the next 4 years. The 1994-95 budget included $500,000 to initiate the 
first construction contract awarded in September 1995. The 1995-96 
budget included $11.3 million to continue the first contract. The 1996-
97 budget included $14.4 million to complete the first contract and two 
other contracts awarded in August and September of 1996. The current 
1997-98 budget includes $20.7 million to complete two new construction 
contracts. Additional construction contracts will be ready for 
advertising later this fiscal year and design of the entire project 
should be completed by the end of 1998. In order to complete the 
project within an appropriate schedule in light of the serious flood 
threat and the devastating financial impacts of the mandatory flood 
insurance premiums, it is critical to move the level of construction 
activity to $60 million a year. As a result, we strongly support the 
California Water Commission's recommendation for $60 million of Federal 
funds to continue construction of the LACDA Project.
                                 ______
                                 

   Prepared Statement of the Ventura County and Ventura County Flood 
                            Control District

    Project: Santa Paula Creek flood control project, Ventura County, 
CA.
    Action requested: Inclusion of sufficient funds in the Federal 
Budget for completion of the Santa Paula Creek Project
    The Santa Paula Creek project in Ventura County is unusual in the 
annals of the Corps of Engineers. It was authorized by Congress in 1948 
and construction of the first phase was completed in 1974. However, 
after bids for the second phase had been received and a contract 
awarded in 1974, a preliminary injunction was issued which prevented 
this contract from proceeding. Subsequently, construction of the 
project was permanently enjoined for failure to comply with the 
National Environmental Policy Act.
    In the ensuing years the first phase facility, which was dependent 
on upstream debris retention that was not constructed, had been 
severely damaged and deteriorated to the point where it constituted a 
hazard and could have caused damages to adjacent property including the 
Route 126 freeway which passes over it. Although the first phase 
facility was within right-of-way owned by the Ventura County Flood 
Control District (VCFCD), it had not been accepted for maintenance and 
remained the responsibility of the Corps.
    As provided in the original project cooperation agreement, the 
Flood Control District acquired more than 2.7 miles of right-of-way but 
the Corps had not fulfilled its obligations under the agreement, since 
the project remained to be completed. During the declared disaster of 
1995, it was necessary for VCFCD to spend more than $300,000 for 
emergency measures within this right-of-way beyond the limits of the 
original first phase facility.
    During the almost 25 years since the project was enjoined, the 
Corps attempted to develop an environmentally sensitive project, and 
prepared a General Reevaluation Report which, along with a new EIS, was 
completed in the spring of 1996.
    Because of the dismal condition of the first phase facility, it was 
essential that construction of the project be reinitiated at the 
earliest possible date, and the Corps commenced replacement of the 
deteriorated first phase facility with a new facility consistent with 
the project recommended in the General Reevaluation Report. That 
project, also referred to as Phase 1, is currently underway. However, 
as a result of the severe storms of February, 1998, the Phase 1 
construction was seriously damaged, and the channel was substantially 
filled with debris. The Corps was required to spend approximately 
$300,000 for emergency repairs and to excavate a pilot channel through 
the debris. The balance of the debris will have to be removed before 
Phase 1 can be deemed complete. We also believe the Corps will discover 
other damage beneath this debris.
    During the recent storms, the existing streambed just upstream of 
Phase 1 threatened to overtop its banks on February 23, 1998. Because 
of this threat, the city of Santa Paula ordered evacuation of 2000 
residents in harm's way.
    The VCFCD subsequently spent approximately $40,000 to buttress the 
reach where overtopping was threatened. (This amount does not include 
costs for emergency response on February 23, 1998, borne by the VCFCD 
and the city of Santa Paula.)
    The Corps also authorized expenditure of approximately $110,000 for 
emergency activities in the area upstream of the work performed by 
VCFCD, under its Public Law 84-99 authority, and is considering 
additional expenditures.
    Unless the project is completed at the earliest possible date, 
VCFCD, the city of Santa Paula, and the Corps will continue to bear 
substantial expense for emergency actions, and the citizens of Santa 
Paula remain at grave risk.
    As another indicator of the importance of completing this project 
the city of Santa Paula, the following figures are pertinent. About 
4,000 homes are located, and about 13,000 people live, in the flood 
plain mapped by the Federal Emergency Management Agency. This flood 
plain also includes the entire downtown area, the city's historic 
neighborhoods, and five of seven schools in the elementary school 
district.
    The problem is that only $2.7 million is proposed for appropriation 
in the President's budget for fiscal year 1999, and $2.1 million from 
funds previously appropriated has been reprogrammed to other projects. 
The result is that sufficient funds are not available to enable the 
Corps to complete the project, which is imperative for the reasons 
stated above. We are, therefore, requesting that sufficient funds to 
ensure completion be included in the budget and would sincerely 
appreciate the subcommittee's consideration in this regard.
                                 ______
                                 

     Prepared Statement of Dick Lyon, Mayor, City of Oceanside, CA

    The City of Oceanside requests that the Subcommittee support an 
appropriation of $1.5 million in the fiscal year 1999 Federal budget 
for 25 percent of the Mission Basin Groundwater Desalting Research and 
Development Project.
    The city of Oceanside currently owns and operates the Mission Basin 
Groundwater Desalting Facility. It is the only project of its kind in 
San Diego County. The current operation produces about 2 million 
gallons per day (MGD) of potable water by treating brackish groundwater 
through a reverse osmosis process. Based on the successful operation of 
the existing plant over the past 4 years, the city plans to expand 
production capacity of the groundwater desalting program to 6.3 MGD, or 
22 percent of the city's average daily demand. The cost for the 
expansion is estimated to be $6 million. The additional water supply is 
expected to be available by early 2000.
    The city of Oceanside is fortunate that the Mission Basin aquifer 
holds about 30 billion gallons or 92,000 acre feet of water. Water 
rights to this dependable aquifer were established over 100 years ago. 
Eventually, the city would like to utilize its reclaimed water to 
recharge the Mission Basin and maintain an environmentally safe water 
level in the aquifer. Oceanside anticipates that at least 50 percent of 
its future water supply can ultimately be derived from this source.
    Expansion of the Mission Basin Desalting Facility has several 
important benefits:
  --It provides the city of Oceanside with an independent water source 
        that will serve the community in the event of a natural 
        disaster, such as an earthquake.
  --It reduces the city's reliance on imported water, thereby reducing 
        the region's demand for imported water from the Colorado River 
        and the environmentally sensitive Sacramento/San Joaquin River 
        Delta.
  --It produces a water of significantly better quality than that of 
        the city's imported source (400-500 total dissolved solids 
        [TDS] versus 600-700 TDS for imported water).
  --It creates a new, highly reliable water supply which is critical to 
        the San Diego region's long-term economic health and its 
        ability to attract and retain businesses.
  --It provides an emergency water supply for Marine Corps Base Camp 
        Pendleton, which receives no imported water. The city recently 
        signed an agreement to provide Camp Pendleton with up to two 
        MGD of emergency water.
    The local water supply produced through the Mission Basin Desalting 
Facility saves the city of Oceanside $150,000 per year today and will 
save at least $500,000 per year when it is expanded to its 6.3 MGD 
capacity. These cost savings are amplified by the environmental 
benefits of utilizing an existing resource that can be sustained 
through reclamation.
    The city of Oceanside respectfully requests your support for this 
vital project.
                                 ______
                                 

            Prepared Statement of the City of San Diego, CA

    The city of San Diego provides water service as well as wastewater 
collection, treatment and disposal service to a growing metropolitan 
area of two million people. The city receives 90 percent of its water 
supply from the Colorado River and northern California sources, 
hundreds of miles distant from the city. Located at the tail end of 
this extensive aqueduct supply system, San Diego is most vulnerable to 
outages or reductions in supplies from these sources. In conjunction 
with its wholesale water supplier, the San Diego County Water 
Authority, the city is engaged in a long-term effort to reduce regional 
reliance on imported water supplies. The San Diego Water Reclamation 
Program is critical to the success of this effort.
    The city will have invested over $350 million in water reclamation 
facilities through this fiscal year, and has programmed another $70 
million in fiscal year 1999 to continue these efforts. Upon completion 
of the water reclamation and recycling projects in the next 20 years, 
the city will have an estimated $1 billion of capital investment in 
this program. The city's projects include 4 new water reclamation 
plants with a combined capacity of 57 million gallons per day 
(construction of the 30 mgd North City Water Reclamation Plant was 
completed last year) and over 100 miles of reclaimed water distribution 
system pipelines; an innovative water repurification project to treat 
reclaimed water to a quality suitable for potable reuse; and a 
groundwater project providing for conjunctive use of reclaimed water 
and other sources of supply.
    Section 1612 of Public Law 102-575, the Central Valley Project 
Improvement Act, authorizes the Secretary of the Department of Interior 
to provide financial support for water reclamation projects in the San 
Diego area. The U.S. Bureau of Reclamation is authorized to participate 
in the planning, design and construction of water reclamation projects 
serving the San Diego area at a Federal cost-share of up to 25 percent. 
Based on the criteria established by the Bureau of Reclamation 
regarding funding eligibility, approximately $110 million through this 
fiscal year, and $157 million of the projected expenditures through 
fiscal year 1999 are eligible for Federal funding. Nearly half of the 
$1 billion of projected expenditures over the next 20 years would be 
eligible for the 25 percent Federal funding.
    These costs represent a heavy financial burden for the city to bear 
alone. Federal participation will help make this innovative water 
supply program a reality. Therefore, the city of San Diego respectfully 
requests the Committee to recommend appropriating funds in the amount 
of at least $13 million in fiscal year 1999 for the San Diego region 
through the Bureau of Reclamation program.
                san diego area water reclamation program
    The San Diego Area Water Reclamation Program is an ambitious, long-
term program designed to decrease regional reliance on imported water 
supplies. The Program is a cooperative effort by the cities of San 
Diego, Escondido, and Poway; the Otay Water District; the Padre Dam 
Municipal Water District; the Sweetwater Authority; the Tia Juana 
Valley County Water District; and San Diego County Water Authority. 
Together, these agencies have developed a system of interconnected 
water reclamation projects that will make the best use of existing and 
planned water reclamation facilities and result in a cost effective and 
efficient use of local water resources.
    When completed, the San Diego Area Water Reclamation Program will 
serve an area of more than 700 square miles, from the agricultural 
valleys near the city of Escondido in the north to the expanding 
business centers along the international border with Mexico in the 
south. Ultimately, almost 20 billion gallons (61,550 acre-feet) will be 
added annually to the region's scarce local water supply, more than 
doubling the current average local water supply. Facilities to be 
constructed include up to ten new or expanded water reclamation plants, 
a state-of-the-art water repurification facility, and hundreds of miles 
of reclaimed water delivery pipeline.
    Implementation of the San Diego Area Water Reclamation Program will 
produce both economic and environmental benefits. The development of 
local reclaimed water supplies will provide opportunities for 
environmental enhancement projects within San Diego County and reduce 
the demand for imported water from the Sacramento-San Joaquin River 
Delta, an environmentally sensitive water body of national 
significance. The availability of a reliable local water supply is also 
critical to the region's long-term economic health and its ability to 
attract and retain employers. In the near-term, construction of the 
reclamation facilities will stimulate the local economy by creating 
jobs in construction-related industries. After the facilities are 
completed, many high-wage, high-skill jobs will be created in the 
operation and maintenance fields.
    Construction is already under way for a number of these reclamation 
facilities. The city of San Diego has completed the construction of its 
flagship reclamation facility, the North City Water Reclamation Plant. 
While still in the planning stages, the proposed Water Repurification 
Program could have far-reaching consequences for both the San Diego 
region and the State of California. This innovative water supply 
project will treat reclaimed water to a quality standard equal to that 
of untreated water supplies. The repurified water would be stored in a 
local reservoir for subsequent potable uses. If implemented on a wide 
scale, water repurification technology could help to solve California's 
long-term water supply problem.
    With an annual cost in the range of $900-$1,200 per acre-foot, the 
San Diego Area Reclamation Program is competitive with the development 
of new imported or other local water supplies. However, the level of 
capital investment makes it a heavy financial burden for the local 
agencies. The vast majority of the capital costs would have to be 
funded by local ratepayers. The financial feasibility of this ambitious 
water supply development project, if funded solely with local 
resources, is questionable. Federal participation would provide the 
means to ensure the project is constructed and the benefits realized.
          city of san diego regional water reclamation project
    The city of San Diego is undertaking a regional water reclamation 
program which will ultimately provide over 9.5 billion gallons (29,200 
acre-feet) of reclaimed water annually to users within the city of San 
Diego and surrounding communities. The proposed regional reclamation 
system will include four new water reclamation plants: one in northern 
San Diego, one in central San Diego, and two in southern San Diego near 
the international border with Mexico. These water reclamation 
facilities will serve commercial, industrial and residential customers 
through a network of over 125 miles of distribution pipeline.
Northern/Central Regional Water Reclamation System
    The city of San Diego completed construction of its flagship 
reclamation facility, the 30-million-gallon-per-day (mgd) North City 
Water Reclamation Plant (North City WRP), in April 1997. The North City 
WRP could ultimately provide over 2.8 billion gallons (8,700 acre-feet) 
of reclaimed water annually to meet commercial, industrial and 
landscape irrigation demands in northern and central San Diego and the 
southern portions of the neighboring city of Poway. Reclaimed water 
will be delivered to over 750 user sites via an extensive network of 
pump stations and pipelines. The city of Poway has completed a portion 
of its southern reclaimed water distribution system and will complete 
the remaining portions of the system in time to take deliveries from 
the North City WRP. Initial users will include the internationally 
known Torrey Pines Golf Course, Miramar Naval Air Station, and 
CalTrans, as well as numerous schools, parks, nurseries and residential 
homeowner associations.
    Construction of the North City WRP created badly needed jobs in San 
Diego's construction-related industries. The city estimates that this 
project alone generated 4,400 job-years of work for the local 
community. Construction of the northern/central distribution system is 
expected to generate an additional 4,200 job-years of work. Now that 
the plant is completed, many high-wage, high-skill jobs have also been 
created in the operation and maintenance fields. The development of a 
reliable local water supply will improve the long-term health of the 
San Diego economy by enhancing the region's ability to attract and 
retain employers.
    A future reclamation plant is planned for the commercial center of 
San Diego to supplement reclaimed water from the North City WRP. The 
proposed 8-mgd Mission Valley Water Reclamation Plant (Mission Valley 
WRP) could provide 1.3 billion gallons (4,000 acre-feet) of reclaimed 
water annually for the irrigation of schools, parks, commercial and 
tourist facilities, cemeteries, nurseries, golf courses, freeway 
embankments and street medians. This supplemental source of reclaimed 
water would allow the North City WRP to serve new customers in the 
developing communities in northern San Diego.
South Bay Regional Water Reclamation System
    Construction of the North City WRP will be followed by the 
construction of the 7-mgd South Bay Water Reclamation Plant (South Bay 
WRP) near the international border with Mexico. The South Bay WRP will 
provide almost one billion gallons (3,000 acre-feet) of reclaimed water 
annually to approximately 50 commercial, industrial, and agricultural 
users in Southern San Diego County. The South Bay WRP and southern 
distribution system, currently scheduled for completion by 2001, will 
complement reclamation projects proposed by Otay Water District, the 
Sweetwater Authority, and the Tia Juana Valley County Water District.
    The estimated costs (in 1998 dollars) for the city of San Diego 
Water Reclamation Program are as follows:

Northern/Central Regional Water Reclamation System:
    North City WRP......................................     $48,108,000
    Mission Valley WRP..................................      17,040,000
    Optimized Northern San Diego Distribution System....      94,213,000
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal..........................................     159,361,000
South Bay Regional Water Reclamation System:
    South Bay WRP.......................................      22,049,000
    Southern San Diego Distribution System..............      25,768,000
    Otay Valley WRP.....................................      14,880,000
                    --------------------------------------------------------
                    ____________________________________________________
      Subtotal..........................................      62,697,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................     222,058,000
                 san diego water repurification program
    The city of San Diego, with assistance from the San Diego County 
Water Authority (SDCWA), is planning to use cutting-edge technology to 
purify almost 4.9 billion gallons (15,000 acre-feet) of reclaimed water 
annually to a level equivalent to that of existing imported water 
supplies. The Water Repurification Project is the natural outgrowth of 
a multi-year health effects study conducted by the city of San Diego. 
The health effects study showed that the quality of repurified water is 
comparable to the quality of imported raw water supplies and has no 
health effects.
    The city of San Diego proposes to construct a water repurification 
facility with a capacity of 18-million-gallons-per-day (mgd) to treat 
reclaimed water from the North City Water Reclamation Plant. The 
repurified water would be transported over 20 miles to the San Vicente 
Reservoir for blending with imported raw water supplies. The blended 
water would eventually be conveyed via the existing El Monte Pipeline 
to the Alvarado Filtration Plant. There the water would undergo 
additional filtration and disinfection before being introduced into the 
city's potable water delivery system.
    The city of San Diego and the SDCWA conducted a detailed 
feasibility study which indicated the proposed project is both 
technically and economically feasible. The State of California 
Department of Health Services reviewed the feasibility study and 
conceptually approved the proposed project. A citizens advisory 
committee convened by the city and the SDCWA concluded that there is 
sufficient information available to establish the suitability of water 
repurification as a supplement to the San Diego region's water supply. 
The city of San Diego has begun design and environmental review of the 
project.
    The Water Repurification Program is expected to replace the less 
cost-effective elements of the city of San Diego's proposed non-potable 
distribution system. Implementation of the Water Repurification Program 
in combination with selected elements of the non-potable distribution 
system would allow the city to achieve the most efficient use of water 
from its North City WRP. Should the Water Repurification Program prove 
feasible, it could begin operation in late 2001.
    The proposed Water Repurification Program has potentially far-
reaching consequences for both the San Diego region and the State of 
California. California has a wastewater stream of some 2.5 to 3 million 
acre-feet per year, the vast majority of which is going unused. By 
providing for the near total recovery of this non-traditional resource, 
the Water Repurification Program could help to solve California's 
chronic water supply problem.
    The estimated cost of the Water Repurification Program in 1998 
dollars is $169,349,000. Cumulative expenditures through fiscal year 
1999 are projected to total $46,098,000.
                    san pasqual groundwater project
    The city of San Diego recently completed a comprehensive Water 
Resource Management Plan for the San Pasqual Valley. The San Pasqual 
Valley (Valley) is an agricultural preserve located within the 
incorporated limits of the city of San Diego. The majority of the land 
is owned by the city of San Diego and is located between the city of 
Escondido to the north and the community of Rancho Bernardo and city of 
Poway to the south. Based on recommendations resulting from the 
Management Plan, San Diego plans to upgrade the existing 1 mgd San 
Pasqual Reclamation Plant to 5 mgd. The reclaimed water from the 
treatment facility would provide a reliable and noninterruptible water 
supply for agricultural irrigation purposes within the Valley and 
residential and commercial markets within the surrounding community of 
Rancho Bernardo and the northern region of the city of Poway. The 
reclaimed water would also be recharged into the 50,000 acre-foot 
alluvial groundwater basin within the Valley. Groundwater would then be 
extracted and used as peaking water for the reclaimed system in the 
summer months, as well as for domestic potable water supply.
    The San Pasqual Reclamation Plant would include advanced water 
treatment in addition to tertiary treatment. Injection of the high 
quality water from the plant would reduce the salinity of the 
groundwater within the basin. This will enhance sensitive environmental 
habitats as well as help farmers reliant on groundwater supplies remain 
economically viable and maintain the San Pasqual Valley's agricultural 
identity. This reuse/groundwater regional project will add 
approximately 2.6 billion gallons (8,000 acre-feet) to local water 
supplies. Design of the project is expected to start in 1998.
    The estimated cost of the city of San Diego San Pasqual Groundwater 
Project in 1998 dollars is $66,547,000.
                                 ______
                                 

Prepared Statement of Jerry C. Harmon, Council Member and Former Mayor, 
  City of Escondido, CA, and Keith E. Beier, Council Member, City of 
                             Escondido, CA

    Mr. Chairman and members of the subcommittee, as representatives of 
the city of Escondido, we are pleased to submit this testimony in 
support of funding for the San Diego Area Water Reclamation Program, 
including the Escondido portion. We are delighted again to be able to 
thank you for your efforts last year to continue funding for this 
important and critical project. Last year you provided $13 million for 
the full project which has allowed all segments to go forward in 
accordance with our agreement with the Bureau of Reclamation. We hope 
you will be able to provide at least the same level of funding this 
year, $13 million, as is contained in the President's fiscal year 1999 
budget request.
    For the last 4 years, you have demonstrated a commitment to our 
project to benefit the people of San Diego County and its surrounding 
environment. Despite recent El Nino-related storms and flooding in 
California and even in the San Diego area, the fact remains that much 
of our area is still a desert with very limited access to usable water. 
The Escondido Water Reclamation Program continues our proactive effort 
to make the most of our very limited water resources by reclaiming and 
using much of it again and again instead of pumping it into the Pacific 
Ocean.
                the escondido water reclamation program
    San Diego County, especially the north county where Escondido is 
located, continues to experience a tremendous population influx that 
has gone on since the early 1960's. With the population growth that 
Escondido continues to experience, has come dramatic new economic 
development, both in the number of new businesses and our existing, 
historical agriculture industry. All place new demands on our 
infrastructure and our water supply--both potable and nonpotable. 
Through local planning and leadership, Escondido continues to attempt 
to meet the challenge of maintaining a high quality of life for its 
people, and, with this subcommittee's continued support, can make it a 
reality.
    While our specific program is important to the citizens of 
Escondido, we remain a key part of the overall water planning effort of 
San Diego County. As part of the San Diego Area Water Reclamation 
Program, we are pleased with the increased amount of water that will be 
made available to the county as a result of this program.
    As you may know, we have had to change the nature of the project to 
reflect the fact that we have lost one of our major projected 
customers, the city of San Diego. The city of San Diego conducted 
studies that lead them to the decision to withdraw from the Escondido 
Regional Water Reclamation Program. San Diego has chosen to conduct the 
San Pasqual Valley water repurification project without using tertiary 
effluent from the city of Escondido. Instead San Diego will construct 
treatment facilities in the San Pasqual Valley. As a result, Escondido 
has been required to reduce the capacity of both the advanced treatment 
processes at our Hale Avenue Resource Recover Facility (HARRF) and 
reclaimed water transmission pipelines from those planned for the 
Escondido Regional Water Reclamation Program and discussed in past 
years.
    The Escondido Regional Water Reclamation Program of reduced size 
will now serve the city of Escondido and the Ricon del Diablo Municipal 
Water District. Advanced treatment processes at the HARRF will be 
downsized from 18 million gallons per day to 9 million gallons per day. 
The pipelines carrying reclaimed water in a southerly direction, toward 
the San Pasqual Valley will be downsized considerably. Detailed 
engineering and financial studies of the downsized project indicate 
that it remains a financially viable project, and, of course, it 
remains a necessary project for our area.
                         cost and funding data
    Through fiscal year 1997, Escondido has spent more than $10 million 
on design, preliminary studies, environmental documents, right of way 
purchases and construction of reclaimed water pipelines. With your 
approval, since fiscal year 1994, the Bureau of Reclamation has 
provided $2.5 million of the total monies spent. We have reduced the 
total cost of our project to $61.6 million, with the Bureau's share 
reduced to $15.4 million.
                                schedule
    Phase I of the project is scheduled to advertise for construction 
bids in March 1998. This portion will provide new aeration facilities 
necessary to insure water quality for the advanced treatment processes 
to be constructed in Phase II. Phase I will be completed in March 1999, 
and at that time Phase II will advertise for construction bids. Phase 
II will complete the Escondido Regional Water Reclamation Program, and 
will take 2 years to construct. Reclaimed water deliveries are 
anticipated in early 2001.
    The Bureau of Reclamation's fiscal year 1999 budget request 
includes $3.195 million for the Escondido Water Reclamation Program, as 
part of a larger appropriation for the San Diego Area Water Reclamation 
Program. That funding will support the major construction under Phase 
II of the project.
    We are pleased that the California Water Commission again has 
supported our program as a recommended program, and continue to be 
thankful for the support of our sister agencies that comprise the San 
Diego Area Water Reclamation Program. This program has been favorably 
reviewed by this subcommittee and your counterpart in the other body, 
the Bureau of Reclamation, the California Water Commission, and 
regional officials back home in San Diego County.
    We respectfully request your continued support.
                                 ______
                                 

Prepared Statement of Mark Holmes, Executive Director, Partnership for 
                           San Pablo Baylands

    Mr. Chairman, Members of the Subcommittee, my name is Mark Holmes. 
I am the Executive Director of the Partnership for San Pablo Baylands. 
The Partnership for San Pablo Baylands works to preserve, restore and 
enhance wildlife habitats and agriculture in the San Pablo Baylands 
Region.
    The Partnership believes that it is critical to preserve 
agriculture in the region not only because it provides significant 
extensive economic benefits, but also because it enhances habitat 
values and preserves the area's open space and scenic beauty.
    To help meet our program mission and goals, the Partnership is 
seeking the assistance of the Committee on two funding requests for 
fiscal year 1999.
    First, the Partnership is seeking $500,000 in fiscal year 1999 from 
the Corps of Engineers under Section 503 of the Water Resources 
Development Act of 1996. Section 503 authorized the Corps to join with 
the Partnership to develop a watershed restoration-protection project 
in the San Pablo Bay watershed. Last year, $100,000 was appropriated to 
initiate this work. In fiscal year 1999, the Corps will continue to 
assist the Partnership in examining opportunities for wetlands and 
riparian restoration activities on public and private land, develop a 
regular maintenance program for management of public lands and water 
resources, and the need to stabilize and/or change the existing levee 
system for the benefit of wildlife habitat and continued agricultural 
uses.
    Your favorable consideration of this appropriation would be 
appreciated.
    Our second request for the San Pablo Baylands Partnership is for 
$500,000 for the Bureau of Reclamation, under Water and Energy 
Management Development (Mid-Pacific Region), to prepare a study of 
water reclamation and reuse opportunities in Sonoma County. The San 
Pablo Baylands area, like so many areas in the State, is water short. 
While recycled water may provide a new source of supply, there are a 
number of implementation issues that must be addressed to determine the 
practicality of increasing development and use of recycled water. These 
include the proximity of the supply to the potential users, the cost of 
delivered recycled water, water quality and the flexibility and 
reliability of the supply.
    The funds requested in fiscal year 1999 are needed to enable the 
Bureau of Reclamation to assist the Partnership and its partners, 
Sonoma County Water Agency, to address these technical issues that must 
be addressed before the use of recycled water in the region can be 
expanded.
    Again, the Partnership would appreciate the Committee's favorable 
consideration of these requests, and I appreciate the opportunity to 
submit this testimony on behalf of the Partnership.
                                 ______
                                 

            Prepared Statement of the City of Seal Beach, CA

       surfside colony shoreline protection reconnaissance study
    The city of Seal Beach appreciates this opportunity to ask for your 
support and assistance in conjunction with its infrastructure 
reliability program. We request the subcommittee appropriate $100,000 
in fiscal year 1999 for a Special Reconnaissance Study which will focus 
on the prevention of coastal flooding/storm wave damage and related 
emergency response infrastructure in the city of Seal Beach.
    During WWII, the U.S. Navy built two rubblemound arrowhead jetties 
at the entrance of Anaheim Bay to provide port facilities for the Naval 
Weapons Station. The Surfside Colony beach has experienced major 
erosion problems since the construction of the jetties. The erosion is 
caused by increased wave energy directed at Surfside Beach from the 
combination of reflected waves with incident waves as a result of the 
installation of the East Anaheim Bay Jetty. A great amount of beach 
nourishment has been required to replenish the beach. Since 1947, 
approximately 15,850,000 cubic yards of beach sand has been deposited 
on the Surfside-Sunset beach to mitigate the erosion caused by these 
jetties. The present value of this work totals over 80 million dollars. 
Under current Congressional authorization, the U.S. Army Corps of 
Engineers has conducted replenishment projects every 4 to 6 years 
ranging in size from 1 to 1.5 million cubic yards each project.
    Much of the early replenishment work during 1947 through 1964 was 
the result of harbor construction and channel deepening. Recent work 
includes maintenance dredging and offshore borrow. The majority of the 
large replenishment projects since 1979 have utilized offshore 
borrowing. The sand quality of the offshore material, in terms of grain 
size, seems to be steadily declining. The grain size of the sand is 
directly related to the littoral transport of the beach sand along the 
coast through wave action. Sand with smaller grain size will be 
transported down the coast faster than larger grain size. The quality 
of the sand from the most recent project (1996) was significantly lower 
than previous projects. Also of concern is the need to go offshore 
approximately three miles to find acceptable sources of sand. The 
quality of sand as it relates to its longevity on the beach and the 
overall cost effectiveness of these projects should be reviewed.
    Although the replenishment project seems to be meeting the overall 
goal of nourishing the coastal beaches from Surfside-Sunset to Newport 
Beach, isolated erosion immediately adjacent to the jetty poses a 
hazard for the Surfside Colony. After only one winter storm season 
(since the recent replenishment project in 1996), the present condition 
of the beach is severely eroded. It is highly likely that Surfside 
Colony will experience coastal flooding and high surf problems before 
the next scheduled beach replenishment project by the Corps of 
Engineers. The city of Seal Beach is extremely concerned about the 
potential shoreline hazards to the Surfside Colony. Potential private 
and public infrastructure damage could total into millions of dollars.
Reconnaissance Study Overview
    This special shoreline protection reconnaissance study would 
conduct a research and assessment of conditions and parameters 
affecting the shoreline within the city of Seal Beach at Surfside 
Colony and the causation of and remedies for shoreline erosion due to 
the adjacent Federal project, Anaheim Bay/U.S. Naval Weapons Stations 
harbor entrance jetties. The specific limits of this study will include 
the portion of the San Pedro littoral cell immediately southeasterly of 
the Anaheim Bay/U.S. Naval Weapons Station harbor entrance jetty.
Conceptual Scope of the Reconnaissance Study
    The primary objectives of this study would include:
    Analysis of Existing Conditions and Historical Records.--Research 
and assessment of existing potential shoreline erosion hazards and 
historical damage costs.
    Data Collection.--Various data would be collected to establish the 
effects of shoreline erosion elements including historical ocean swell 
data, wave energy, wave runup, wave direction, sand transport, and 
beach sand grain size.
    Existing Facilities Assessment.--Assessment and evaluation of the 
existing Anaheim Bay/U.S. Naval Weapons Station harbor entrance jetty 
(originally constructed by the U.S. Army Corps of Engineers, 1945-47) 
and its effect on adjacent beaches.
    Deficiency Analysis.--Define specific deficiencies in shoreline 
protection including primary causation factors.
    Alternatives Analysis.--Develop and prioritize potential strategies 
to mitigate shoreline erosion.
    Economic Base Study.--Conduct an economic study to ascertain the 
benefit versus cost of the various alternative mitigation strategies on 
an avoided cost basis, due to potential damage to private and public 
infrastructure as a result of a major winter storm event.
    Action Plan.--Research and evaluate potential comprehensive action 
plans to implement mitigation strategies.
    Technical assistance, in the form of this Special Reconnaissance 
Study, from the Corps of Engineers will enable the city of Seal Beach 
to embark on a program which will significantly improve public safety 
and reduce damage costs in the event of a major coastal winter storm 
event. The Federal Government has paid billions of dollars for 
emergency response and restoration costs after major winter storm 
events in coastal areas. Similar events in our region could cause 
similar levels of damage and potential loss of life. The funding and 
implementation of programs such as this can prevent loss of life and 
costly damage and recovery efforts.
    Thank you for your consideration of this funding appropriation 
request. We are looking forward to your continued support of these and 
other programs that prevent loss of life and expend taxpayer dollars in 
a cost-effective manner.
          east beach shoreline protection reconnaissance study
    The city of Seal Beach appreciates this opportunity to ask for your 
support and assistance in conjunction with its infrastructure 
reliability program. We request the subcommittee appropriate $100,000 
in fiscal year 1999 for a Special Reconnaissance Study which will focus 
on the prevention of coastal flooding/storm wave damage and related 
emergency response infrastructure in the city of Seal Beach.
    During WWII, the U.S. Navy built two rubblemound arrowhead jetties 
at the entrance of Anaheim Bay to provide port facilities for the Naval 
Weapons Station. The East Beach in the city of Seal Beach has 
experienced continuous erosion problems since the construction of the 
jetties. The erosion is caused by increased wave energy directed at 
East Beach from the combination of reflected waves with incident waves 
as a result of the installation of the West Anaheim Bay Jetty. In 1959, 
the U.S. Army Corps of Engineers constructed a concrete sheet pile 
groin to mitigate the erosion caused by the West Anaheim Bay Jetty. 
Although the groin does slow the migration of sand, East Beach still 
sustains a net loss of about 8,000 cubic yards of beach sand annually. 
This causes the beach to recede at approximately 1.75 to 3.25 feet per 
year. The city of Seal Beach has facilitated protection of adjacent 
private and public infrastructure from winter storms by constructing a 
sand dike on the beach each year. This practice has generally been 
successful but reduced beach widths lessen the effectiveness of the 
dike. Severe storm waves have often overtopped the dike and flooded 
adjacent residences and public facilities causing extensive damage in 
the past.
    Recent inspections of the existing groin have revealed that the 
groin is deteriorating and is in danger of failing. Existing gaps allow 
the transmission of sand to the West Beach which further reduces 
available sand on East Beach. The city of Seal Beach is extremely 
concerned about the potential shoreline hazards to the failure of the 
groin and the continuing shoreline erosion problems. Potential private 
and public infrastructure damage from severe winter storm waves could 
total into millions of dollars.
Reconnaissance Study Overview
    This special shoreline protection reconnaissance study would 
conduct a research and assessment of conditions and parameters 
affecting the shoreline within the city of Seal Beach and the causation 
of and remedies for shoreline erosion due to the adjacent Federal 
project, Anaheim Bay/U.S. Naval Weapons Stations harbor entrance 
jetties. The specific limits of this study will include the portion of 
the San Pedro littoral cell between Anaheim Bay and the San Gabriel 
River.
    The primary objectives of this study would include:
    Analysis of Existing Conditions and Historical Records.--Research 
and assessment of existing potential shoreline erosion hazards and 
historical damage costs.
    Data Collection.--Various data would be collected to establish the 
effects of shoreline erosion elements including historical ocean swell 
data, wave energy, wave runup, wave direction, sand transport, and 
beach sand grain size..
    Existing Facilities Assessment.--Assessment and evaluation of the 
existing Anaheim Bay/U.S. Naval Weapons Station harbor entrance jetty 
(originally constructed by the U.S. Army Corps of Engineers, 1945-47) 
and the existing shoreline protection groin at the Seal Beach Pier 
(originally constructed by the U.S. Army Corps of Engineers in 1959) 
and their effect on adjacent beaches.
    Deficiency Analysis.--Define specific deficiencies in shoreline 
protection including primary causation factors.
    Alternatives Analysis.--Develop and prioritize potential strategies 
to mitigate shoreline erosion.
    Economic Base Study.--Conduct an economic study to ascertain the 
benefit versus cost of the various alternative mitigation strategies on 
an avoided cost basis, due to potential damage to private and public 
infrastructure as a result of a major winter storm event.
    Action Plan.--Research and evaluate potential comprehensive action 
plans to implement mitigation strategies.
    Technical assistance, in the form of this Special Reconnaissance 
Study, from the Corps of Engineers will enable the city of Seal Beach 
to embark on a program which will significantly improve public safety 
and reduce damage costs in the event of a major coastal winter storm 
event. The Federal Government has paid billions of dollars for 
emergency response and restoration costs after major winter storm 
events in coastal areas. Similar events in our region could cause 
similar levels of damage and potential loss of life. The funding and 
implementation of programs such as this can prevent loss of life and 
costly damage and recovery efforts.
    Thank you for your consideration of this funding appropriation 
request. We are looking forward to your continued support of these and 
other programs that prevent loss of life and expend taxpayer dollars in 
a cost-effective manner.
                    infrastructure reliability study
    The city of Seal Beach appreciates this opportunity to ask for your 
support and assistance in conjunction with its infrastructure 
reliability program. We request the subcommittee appropriate $600,000 
in fiscal year 1999 for a special study which will focus on the water, 
sewer, and drainage systems and related emergency response 
infrastructure in the city of Seal Beach.
    Present Authorization under Public Law 101-60, enacted by Congress 
on November 28, 1990, and reauthorized in 1996 exists for the U.S. Army 
Corps of Engineers (Corps) to conduct in consultation with the Federal 
Emergency Management Agency (FEMA) special studies in southern 
California. These studies are related to protecting infrastructure 
assets including water, sewer and drainage systems as well as the 
restoration of these systems to full service following major seismic 
events.
    It is our understanding that the House of Representatives is 
currently considering the subject supplemental appropriations Bill, 
which could allow for the addition of language for a comprehensive 
Infrastructure Reliability Study in the Seal Beach area of Orange 
County, California. This special study will provide for a conceptual 
feasibility level review of conditions and parameters affecting the 
city's water, sewer and drainage systems as well as the Emergency 
Response Infrastructure related to each element. Funding of the water, 
sewer and drainage system study of these elements of the city's 
infrastructure is the subject of this request to Congress.
Study Overview
    The special study will focus upon water, sewer and drainage systems 
and related emergency response infrastructure in the city of Seal Beach 
that will potentially be affected by major seismic activity on the 
Newport/Inglewood Fault which is in near proximity to the community. 
Primary elements of the study effort would include: groundwater basin 
optimization and effects of fault systems thereon, seismic reliability 
of water storage facilities and water systems, seismic reliability of 
sewerage system elements including collection and trunk facilities and 
pumping stations, seismic reliability of closed and open channel storm 
drain systems and pumping stations, and development of alternative 
recycled and imported water backup supplies for the area.
Conceptual Scope of Study
    A more detailed breakdown of the potential range and scope of the 
Special Study would include:
    Seismic Reliability of Water System.--Analysis and assessment of 
seismic upgrading of water system facilities in the area including: 
reservoirs, transmission and distribution pipelines, bridge crossings, 
pump stations, wells, control centers and imported supply facilities.
    Groundwater Supply Reliability.--Evaluation of the potential 
effects upon groundwater supply reliability in the Seal Beach area due 
to faulting and major seismic events.
    Hydraulic System Model.--Prepare a complete hydraulic system model 
of the city's domestic water system in order to ascertain its ability 
to provide fire suppression flows to the city's residential, commercial 
and industrial developments in the event of a Design Base Earthquake 
(DBE) event. The model platform shall be computer based, tied to a 
Geographic Information System (GIS) base map.
    Backup Emergency Water Supplies.--Assessment of the potential to 
provide backup level fire protection in high value areas of the city 
through the backup source of recycled water through the Green Acres 
Regional system of the Orange County Water District or other nonpotable 
sources.
    Regional Water Supply Augmentation.--Analyze the feasibility of 
expanded use of regional imported and groundwater supplies through the 
West Orange County Water Board facilities or private water companies as 
additional firm backup supply to the area.
    Seismic Reliability of Sewer System.--Completion of the analysis 
and assessment of seismic upgrading of sewer system facilities in the 
area including: collection and trunk pipelines, siphons and channel 
crossings, pump stations and control systems.
    Seismic Reliability of Drainage System.--Analysis and assessment of 
seismic upgrading of drainage system facilities in the area including: 
lateral and main pipeline systems, open channels, pump stations and 
control systems.
    Temporary and Standby Power Assessment.--Evaluate and ascertain 
temporary and standby power requirements for all water, sewer and 
drainage pumping system and emergency response infrastructure load 
demands.
    Comprehensive Emergency Preparedness Plan.--Develop a comprehensive 
Emergency Preparedness Plan in conjunction with the city's Fire and 
Police Departments to ensure that fully coordinated efforts of staff, 
materials, equipment and communications systems are brought to the fore 
in the event of a major seismic occurrence. An evaluation of the 
physical infrastructure reliability of the city's Emergency Operations 
Center and related physical plant elements such as Corporation Yard 
Facilities, Fire and Police Facilities will be conducted.
    Capital Outlay Requirements.--Develop a complete Capital 
Improvement Program (CIP) based upon the results of the analyses and 
study elements noted above to bring seismic protection reliability to 
the areas water, sewer and drainage systems and emergency response 
infrastructure. The CIP would have a planning horizon of no less than 
20 years for full program implementation. Funding strategies for 
Federal, State and Regional assistance to finance infrastructure system 
improvements would be developed, including new legislative strategies 
where deemed appropriate.
    Economic Base Study.--Conduct a survey level economic base study to 
ascertain the benefit versus cost of planned improvements on an avoided 
cost basis, due to potential damage to water, sewer and drainage system 
elements and EOC facilities from a major seismic event.
    Technical assistance, in the form of this special study, from the 
Corps of Engineers will enable the city of Seal Beach to embark on a 
program which will significantly improve public safety and reduce 
damage costs in the event of a major seismic event. The Federal 
Government has paid billions of dollars for emergency response and 
restoration costs after major seismic events such as the 1994 
Northridge Quake. Similar events in our region and the proximity of 
Seal Beach to the Newport-Inglewood fault could cause similar levels of 
damage and loss of life. The funding and implementation of programs 
such as this can prevent loss of life and costly damage and recovery 
efforts.
    Thank you for your consideration of this funding appropriation 
request. We are looking forward to your continued support of these and 
other programs that prevent loss of life and expend taxpayer dollars in 
a cost-effective manner.
                                 ______
                                 

   Prepared Statement of Pat Malloy, Maintenance Services Director, 
          Maintenance Service Department, City of Arcadia, CA

    The cities of Arcadia and Sierra Madre, CA, appreciate continuing 
Congressional support of the Water System Seismic Reliability Project. 
This project began in 1996 with the reappropriation of the Water 
Resources Development Act (WRDA) (Public Law 104-303), and is now 
entering its third year. To this point, Federal, State and local 
government have invested $1,125,000 in the technical research and 
analysis of this critical project through the Arcadia/Sierra Madre 
Water Reliability Study (ASMWSRS) . For fiscal year 1999 the cities of 
Arcadia and Sierra Madre are requesting funding in the amount of 
$1,000,000 for the subsequent design and development phase of this 
project (Stage 4 Technical Assistance for Phase 2 Project Development).
                               background
    The preliminary stages of this project consisted of the Arcadia/
Sierra Madre Water System Reliability Study which was conducted jointly 
by the U.S. Army Corps of Engineers and State, local, and regional 
water agencies. This study evaluated the performance of the water 
systems that serve our communities, and specifically the vulnerability 
of our systems to disruption after a major earthquake. It evaluated the 
ability of the water systems to function properly following a seismic 
event. Following the evaluation stage of the study necessary system 
improvements were identified to increase reliability and reduce 
property damage and economic losses resulting from a major seismic 
event in, or near, the cities of Arcadia and Sierra Madre. Some of the 
structural deficiencies and system inadequacies identified in the 
report included; emergency power supply sources, inadequate storage 
facilities and system breaks that would prevent adequate local fire 
suppression capabilities.
    Stage 3 Technical Assistance for Phase 1 project development was 
approved by Congress in fiscal year 1998. Arcadia and Sierra Madre are 
requesting that necessary funding be appropriated for Stage 4 Technical 
Assistance for Phase 2 project development in fiscal year 1999.
                       phase 2--project overview
    As mentioned earlier, several system deficiencies and inadequacies 
were identified in the special study. The study determined that the 
problem areas would be exacerbated in the event of a major earthquake. 
Storage capacity in Sierra Madre is insufficient; conveyance pipes are 
undersized, antiquated and composed of brittle materials. 
Interconnections between purveyors are inadequate and there is 
insufficient standby power to maintain pump operation when electrical 
service is disrupted. In addition, individual components of both 
systems, i.e. Arcadia and Sierra Madre, are susceptible to failures 
such as; regional power grid, pipeline leaks and breakage, and valve 
shearing at key storage facilities. The combined effect of these 
deficiencies and inadequacies would likely result in reliability 
problems ranging from limited water flow at reduced pressure to total 
system failure. These type of failures could in turn result in the 
inability to provide potable water to local residents and to provide 
emergency fire suppression capabilities.
    To mitigate the deficiencies found in the special study, a 
comprehensive project of system improvements has been identified. The 
primary elements of the improvement project include the construction of 
high capacity water supply wells in the Main San Gabriel Basin within 
the city of Arcadia sufficient to provide emergency water supply to 
neighboring Sierra Madre in the event of a partial or complete collapse 
of the domestic water system following an earthquake. Creating adequate 
capacity in the well supply system also allows for full back-up supply 
of Arcadia's key area wells. A transmission main facility to deliver 
water back and forth between Arcadia and Sierra Madre is included with 
metering structures and associated control equipment. A loop 
transmission main within Sierra Madre is also included to deliver 
emergency back-up water supply to the city's main plant facility. The 
proposed project continues the development of policies and programs to 
improve emergency response including standby and temporary power 
sources and design of seismic protection components needed to maximize 
water system function following a major earthquake.
    It must be reemphasized that available and adequate water supply in 
the time immediately following a seismic emergency is critical not only 
to general public health and safety but is also directly linked to 
local fire suppression efforts. The consistent availability of water 
during these emergencies, particularly for the purposes of fire 
suppression can assist in the localities in preventing of hundreds of 
millions of dollars in economic losses and property damage to the two 
communities. During the last major area earthquake economic losses were 
estimated at $330,000,000. An investment of $30,000,000 in design and 
construction of adequate facilities will reduce the potential for 
localized economic losses to an estimated $42,000,000 which results in 
a potential savings of nearly $260,000,000. The continuing support of 
the U.S. Congress in funding the Water System Seismic Reliability 
Project is imperative to the safety, welfare and economic well being of 
the southern California communities of Arcadia and Sierra Madre in the 
event of future major seismic event.
    Again, we greatly appreciate past Congressional support of this 
project and we are prepared to match the requested funding amount of 
$1,000,000 in Federal technical assistance with $330,000 of non-Federal 
funding sources.
                                 ______
                                 

           Prepared Statement of the City of Sierra Madre, CA

    The cities of Sierra Madre and Arcadia, CA, appreciate your 
continuing support for the Water System Seismic Reliability Study and 
request that the Subcommittee appropriate $1,000,000 in fiscal year 
1999.
    The Water Resources Development Act of 1996 (Public Law 104-303) 
authorizes the Corps of Engineers to provide technical assistance for 
public infrastructure seismic reliability projects. These funds will be 
used to design improvements identified in the seismic reliability study 
which the Corps completed last year.
    Improvements recommended by the special study include high capacity 
water supply wells, reconstruction of reservoirs, and a transmission 
main facility along with metering structures and associated control 
equipment. A loop transmission main is recommended to deliver emergency 
backup water supplies. Also provided for is the rehabilitation of the 
two area replenishment basins and the development of policies and 
programs for enhancing emergency response. Such emergency response 
includes standby and temporary power and the design of the seismic 
protection components needed to maximize the ability of these water 
systems to function properly following a major seismic event.
    The study and the next stage of technical assistance provided by 
the Corps of Engineers will significantly improve public safety and 
reduce damage costs in the event of an earthquake. Damage resulting 
from the 1994 Northridge earthquake, which measured 6.7 on the Richter 
Scale, totaled more than $20 billion. The Federal Government paid 
billions of dollars for emergency response and restoration costs. Large 
quakes predicted for our region could cost thousands of lives and as 
much as $70 billion in property damage. Lives can be saved and damages 
reduced if steps are taken to improve public infrastructure and prepare 
for emergency response.
    Again, we appreciate your past support. We understand that the 
$1,000,000 in Federal funds are to be matched by $333,000 in non-
Federal funds. We are exploring the various options available to the 
city of Sierra Madre to provide our share of the matching funds. We 
look forward to your continued support.
                                 ______
                                 

          Prepared Statement of the City of Beverly Hills, CA

    The city of Beverly Hills appreciates your support of water system 
seismic reliability programs in the Los Angeles basin. We request that 
the subcommittee appropriate $600,000 in fiscal year 1999 for our Phase 
1 ``Water Infrastructure Reliability Study'' project.
    The city of Beverly Hills owns and operates an aging water 
distribution system that supplies water to the city's of Beverly Hills 
and West Hollywood. This system has many deficiencies with regard to 
its ability to withstand a major seismic event. Our Engineering staff 
has determined that a study to assess/suggest seismic upgrades to the 
system would improve the city's ability to provide water for both fire 
protection and public use following a seismic event.
    The city of Beverly Hills water supply relies primarily upon 
imported sources through the Metropolitan Water District of Southern 
California (MWDSC) system. The major facilities of the water system 
include two connections to the MWDSC's Santa Monica Feeder, 11 booster 
stations, 11 storage reservoirs, 9 pressure reducing stations and a 
network of distribution and transmission lines. This system feeds 11 
pressure zones in Beverly Hills and two pressure zones in West 
Hollywood.
    Five of the reservoirs are above-grade steel tanks that may require 
seismic retrofitting along with the appurtenant valve and piping 
structures. These tanks were constructed in the 1950's. Two partially 
exposed concrete reservoirs, 7 million and 2 million gallons, 
respectively, may also require upgrading. In addition to the reservoir 
facilities, the distribution system may require installation of one new 
pumping station and eight new pressure-reducing stations to allow for 
critical water redistribution in the event of a failure in any one of 
the 13 pressure zones. This is especially critical to provide fire 
protection in the city's previously identified high fire severity 
zones; hillside areas that are located above the major storage 
facilities.
    Study Scope.--To review the existing facilities in the water supply 
system to determine the susceptibility to structural damage and to 
optimize water supply capabilities during a significant seismic event. 
Specifically, the study will evaluate the individual reservoirs and the 
water supply distribution system and recommend improvements that will 
ensure better system reliability. In addition, the city is currently in 
the final stages of developing a program to utilize the city's 
groundwater supplies. The study will analyze and recommend an 
operational plan for the proposed water treatment plant and the system 
improvements to maximize that facility for optimal water delivery.
    The study will include emergency operational procedures for city 
staff in the event of disruption of import supply from the Metropolitan 
Water District and the emergency connections to the city of Los 
Angeles, Department of Water and Power. The procedures will include 
augmenting imported water with local groundwater following a seismic 
event. This will improve the city's ability to provide water to any of 
the 13 pressure zones if the connections to primary water sources are 
severed.
    The city of Beverly Hills water system storage lies near the 
Hollywood, Santa Monica and Newport-Inglewood faults. In addition, most 
of the city's reservoirs are located in the hillside portion of the 
city; some of them are adjacent to steep inclines and located above 
residential properties. Experts predict these faults are capable of a 
maximum credible earthquake of magnitude 7.0. During a seismic event of 
this size, the city will most likely experience ground accelerations 
similar to those of the 1994 Northridge Earthquake, which was a 
magnitude 6.7 earthquake and resulted in over $20 billion worth of 
damages in the region.
    The city intends to conduct structural evaluations of the city's 
existing reservoirs and perform additional geotechnical studies as 
well. Ultimately, the study should supply recommendations for future 
Capital improvement programs and an emergency operation plan.
    The city is prepared to partner with the Federal Government to 
provide a $200,000 match from non-Federal sources. We are looking 
forward to your support of this program and thank you for your 
consideration.
                                 ______
                                 

         Prepared Statement of the City of Huntington Beach, CA

                      beach shore protection study
    The city of Huntington Beach requests $300,000 and the enclosed 
language be included in the fiscal year 1999 Energy and Water 
Development Appropriations Bill for the Corps of Engineers to initiate 
a cost-shared Feasibility Study for Federal assistance in a project to 
protect the Huntington Cliffs coastline, in Huntington Beach, CA.
    The Corps of Engineers completed a reconnaissance study in 1995 on 
the Federal interest in improvements to reduce the potential for 
coastal erosion and storm damage to city facilities and Pacific Coast 
Highway. This study indicated that there is potential for substantial 
erosion and storm damage to public properties and uses of the bluff 
area, and that plans to reduce damage potential appear to be justified. 
However, the Corps did not recommend proceeding to the feasibility 
study phase because the most cost-effective plan identified at that 
time was relocation of public facilities, which they claimed is a local 
responsibility. They also claimed that most of the benefits that would 
result from the shore protection improvements were associated with 
reducing the loss of public access and use of the bluff for recreation, 
which they claimed is a low priority for the Administration.
    Since completion for the Corps of Engineers reconnaissance report, 
the cliffs have experienced further significant erosion during coastal 
storms. This erosion created eight new embayments, resulting in the 
undermining of pedestrian, and bike trails, and damaging other public 
facilities. This was required the city to close public access to these 
popular coastal areas, which were being used by about a million people 
a year. We are concerned that additional storms will continue to damage 
these facilities, as well as adjacent parking areas, utilities, and 
perhaps in the not so distant future, threaten Pacific Coast Highway. 
The significant erosion that occurred during recent events also 
demonstrated that relocation of the facilities, which was considered in 
the Corps of Engineers study, is no longer a reasonable alternative. 
Accordingly, the city would like the Corps to proceed with a modified 
Reconnaissance Study.
    City of Huntington Beach Shore Protection Study, California.--
$300,000 is appropriated for the Corps of Engineers to initiate a 
reconnaissance study for Federal participation in a project to reduce 
erosion and storm damages along the Huntington Beach coastline. The 
corps shall consider the reduction damages to the existing public 
facilities and the associated loss of public access and use of these 
facilities as benefits in determining economic justification of a 
project.
          infrastructure seismic reliability/restoration study
    Mr. Chairman and members of the Subcommittee, the city of 
Huntington Beach appreciates your past support for the Infrastructure 
Seismic Reliability/Restoration Study which was initiated in fiscal 
year 1996. The city requests $700,000 to complete the study in fiscal 
year 1999.
    The Water Resources Development Act of 1990 (Public Law 101-640) 
and amendments in 1996 (Public Law 104-303) authorized the Corps of 
Engineers to address the seismic reliability and restoration of 
Southern California's public works infrastructure to ensure full 
service levels in the event of a major seismic event. The Huntington 
Beach study includes an assessment of conditions and parameters 
affecting the city's water, sewer, and drainage systems, as well as the 
emergency response infrastructure related to each of these systems. 
Conducting this study now and constructing the necessary improvements 
will significantly improve public safety and reduce damage repair costs 
after a major earthquake.
    Two faults run through the city of Huntington Beach, leaving the 
city vulnerable to significant earthquake damage. Application of 
generic principles to the unique nature of seismic activity in southern 
California is not a cure. Obviously, this information is helpful, but 
real cost benefit will be derived only through an evaluation of 
Huntington Beach's needs and studying that mitigation which will 
guarantee the delivery of essential water related services to our 
citizens.
    The third phase of the study to be conducted with fiscal year 1999 
funds will focus on the following six elements:
  --Seismic upgrading of water system facilities, including reservoirs, 
        transmission and distribution pipelines, bridge crossings, pump 
        stations, wells, control centers and imported supply 
        facilities.
  --Backup emergency water supplies, including regional water supply 
        augmentation.
  --Seismic reliability of sewer and drainage systems.
  --Temporary and standby power requirements for all water, sewer, and 
        drainage pumping systems and emergency response.
  --Capital outlay requirements.
  --Economic base study to ascertain the benefit versus cost of planned 
        improvements on an avoided cost basis due to potential damage 
        to public infrastructure.
    Natural disasters cost the economy and local, regional, State, and 
Federal Governments billions of dollars in damage, emergency response, 
and reconstruction of public infrastructure. The 1994 Northridge 
earthquake in our region was the most costly natural disaster in U.S. 
history. A larger quake on the San Andreas fault or the Newport-
Inglewood fault near Huntington Beach could cost thousands of lives and 
approximately $70 billion in property damage. This type of disaster 
would be significantly exacerbated if water systems did not survive the 
quake, or were not restored quickly afterwards.
    The Huntington Beach study will result in more reliable water 
systems for hundreds of thousands of residents in southern California. 
We urge the Subcommittee to provide funds for this critical work.
                                 ______
                                 

   Prepared Statement of Thomas Cole Edwards, Mayor, City of Newport 
                               Beach, CA

         water and wastewater system seismic reliability study
    The city of Newport Beach requests your support for the Water and 
Wastewater Seismic Infrastructure Reliability Study and the 
Subcommittee's appropriation of $600,000 in fiscal year 1999.
    The Water Resources Development Act of 1996 (Public Law 104-303) 
authorized studies and design assistance to safeguard water, wastewater 
and other public infrastructure systems in southern California from 
earthquake damage. The Act also authorized the Corps of Engineers to 
provide technical assistance for these projects.
    The city of Newport Beach's water supply relies upon both imported 
sources from the Metropolitan Water District of Southern California 
(MWDSC) and groundwater supplies pumped from the Orange County 
Groundwater Basin, managed by the Orange County Water District (OCWD). 
The water system consists of the following major components: terminal 
reservoir, treatment facilities, wells, booster pump stations, storage 
reservoirs, transmission and distribution systems and meter facilities. 
All of these systems are served by emergency operations facilities 
situated in the city's Utilities Corporation Yard. The city's 
wastewater system is comprised of local and collector wastewater system 
elements and wastewater pump station facilities serving this coastal 
community connecting to trunkline wastewater facilities operated by the 
County Sanitation Districts of Orange County (CSDOC) of which the city 
is a member agency. All of these water and wastewater system components 
could be vulnerable in varying degrees to potential seismic activity 
and its resultant ground movement. The Newport-Inglewood fault crosses 
through the western portion of the city. A major seismic event along 
this fault or other nearby fault could cause significant disruption in 
the city's infrastructure providing domestic water and fire protection 
to the community. In addition, the potential exists for significant 
property damage from fires, breaching of reservoir facilities, water 
main breaks, and sewage spills to the adjacent ocean, bays and 
estuaries abutting the city.
    The study begins with a research and assessment phase that involves 
collection and review of all known existing data and information about 
the city's water and wastewater infrastructure systems. The study 
concludes with the technical and economic phase that develops an 
improvement plan to enhance infrastructure reliability to minimize 
losses, protect public health and safety, and to avoid environmental 
damage in the event of an earthquake.
    Thank you for your consideration of this request. The city looks 
forward to partnering with the Corps of Engineers in the development 
and implementation of this program.
                                 ______
                                 

     Prepared Statement of Eleanor L. Zimmerman, Mayor, Norwalk, CA

             water system seismic reliability improvements
    The city of Norwalk appreciates your continued support and 
assistance for technical assistance in conjunction with its water 
system seismic reliability program. We request that the subcommittee 
appropriate $1,000,000 in fiscal year 1999 for our Phase 2 project 
under the program.
    The Water Resources Development Act (WRDA) of 1990 (Public Law 101-
640), authorized a study in southern California to address the 
restoration of this region's public works infrastructure to full 
service following major earthquakes. WRDA 1996 (Public Law 104-303) 
authorized the Corps of Engineers to provide technical assistance to 
public infrastructure seismic reliability projects. Federal funds are 
matched by a factor of 25 percent by the local sponsor. These funds 
will be utilized to design improvements identified in the seismic 
reliability study conducted by the U.S. Army Corps of Engineers (Corps) 
in 1996 entitled, the ``Southeast Los Angeles County Water Conservation 
and Supply Study''--Special Study (SELAWS). This special study 
evaluated the performance of water systems that serve communities in 
southeast Los Angeles County, and the vulnerability of these systems to 
disruption following a major earthquake. The Special Study focused on 
the six water systems that serve the city of Norwalk and assessed the 
ability of these systems to function adequately following a major 
earthquake. The special study identified improvements to these systems 
to increase their reliability and reduce damage losses. In addition, a 
companion document to the Special Study report, entitled ``Capital 
Improvement Program for Water System Seismic-Reliability Improvements'' 
was also prepared estimating the preliminary costs and proposed 
schedule of implementation for the improvements. Stage 2 Technical 
Assistance for Phase 1 project development was approved by Congress in 
fiscal year 1998. Preparation of design related documents for Phase 1 
is underway in fiscal year 1998 and will complete in fiscal year 1999.
    Based on the Special Study, the Corps of Engineers concluded that 
there is a need and opportunity for the seismic upgrading of the water 
supply facilities for the city of Norwalk. The study concluded that 
there are inadequacies and structural deficiencies in the water system 
which would increase in severity after a major earthquake. Storage 
capacity is inadequate; conveyance pipes are undersized, old, and 
composed of brittle materials; interconnections between purveyors are 
inadequate; and there is insufficient standby power to keep pumps 
operating when electrical service is disrupted. Furthermore, the 
evaluation indicates that the flow of water throughout the city will be 
disrupted following a major earthquake because individual components of 
each system are susceptible to failure, including pipeline leaks and 
breakage, and valve shearing at storage facilities.
    The resulting disruption will likely range from a total loss of 
water to limited flow at reduced pressure. This lack of water could 
lead to widespread property damage by fire.
    Adequate water for fire suppression is the most important factor in 
minimizing direct economic damage caused by an earthquake-induced water 
system failure. The principal damage resulting from inadequate water 
for fire suppression is the loss of property and the loss of business 
and residential service. Other costs include repair of the damaged 
water system, loss of revenue from lack of water consumption, and loss 
of business revenue due to lack of adequate water. This cost is 
estimated at $219 million.
    To reduce the damage associated with a major earthquake, three 
alternatives have been developed to enhance the ability of the water 
system. The improvements in the three alternatives range in cost from 
an estimated $23 million to $105 million. The $219 million in repair 
costs could be reduced by an estimated $74 million to $101 million, if 
these improvements are made. The proposed Phase 2 project follows upon 
the current Phase 1 project and also includes the continued development 
of policies and programs for enhancing emergency response, and the 
design of the components needed to maximize the ability of these water 
systems to function properly following a major earthquake as 
recommended in the special study.
    Technical assistance from the Corps of Engineers, for the Phase 2 
project, will significantly improve public safety in the area and 
reduce damage costs in the event of a major seismic event. Damages from 
the 1994 Northridge Earthquake, which was 6.7 on the Richter Scale, 
totaled over $20 billion. The Federal Government then paid billions of 
dollars for emergency response and restoration costs in that area. 
Similar large quakes in our region and in the proximity of Norwalk 
could cause similar levels of damage and loss of life. Lives can be 
saved and damages reduced through the funding and implementation of 
programs such as this.
    Thank you for your past support of our program. The city is 
prepared to partner with the Federal Government to provide a $333,333 
match from non-Federal sources. We are looking forward to your 
continued support of this program.
                                 ______
                                 

Prepared Statement of Craig Perkins, Director, Environmental and Public 
             Works Management Department, Santa Monica, CA

    The city of Santa Monica appreciates your continued support for 
technical design assistance in conjunction with the water system 
seismic reliability program. We request that the subcommittee 
appropriate $1,000,000 in fiscal year 1999 for our stage 3 project 
under the program.
    The Water Resources Development Act (WRDA) of 1990 (Public Law 101-
640), authorized a study in southern California to address the 
restoration of this region's public works infrastructure to full 
service following major earthquakes. WRDA 1996 (Public Law 104-303) 
authorized the U.S. Army Corps of Engineers (Corps) to provide 
technical assistance to public infrastructure seismic reliability 
projects. Federal funds are matched by a factor of 25 percent by the 
local sponsor. These funds will be utilized to design improvements 
identified in the seismic reliability study conducted by the U.S. Army 
Corps of Engineers in 1997 entitled, ``City of Santa Monica Water 
Infrastructure Restoration Special Study, Los Angeles County, 
(Reconnaissance Phase),'' and the Stage 2 work of the study currently 
being conducted by the Corps. The study evaluates the performance of 
the city of Santa Monica's water system and the vulnerability of the 
system to disruption following a major earthquake. The special study 
identifies necessary improvements to the system to increase water 
reliability and reduce damage losses.
    The special study concluded that there is a clear need for the 
seismic upgrading of the city of Santa Monica water supply facilities. 
The study points out that there are inadequacies and structural 
deficiencies in the water system which would increase in severity after 
a major earthquake. The deficiencies which were identified include 
insufficient and unreliable local and imported water resources, 
insufficient water storage capacity, old and undersized sections of the 
conveyance system, inadequate interconnections with adjacent local 
retailers and insufficient standby power. The vulnerability of the 
city's water system was demonstrated during the Northridge earthquake 
when the Metropolitan Water District supply system was disrupted and 
the city had to rely entirely on groundwater pumping. Due to the recent 
contamination of groundwater by MtBE (a chemical in reformulated 
gasoline), the groundwater supply is now severely limited and the city 
must rely upon imported water sources for over 80 percent of the water 
demand. In addition, the flow of water throughout the city may be 
disrupted following a major earthquake because individual components of 
the system are susceptible to failure, including transmission pipe 
breaks, valve shearing and failures at storage facilities.
    Adequate fire suppression is the most important factor in 
minimizing direct economic damage caused by an earthquake-induced water 
system failure. The principal damage resulting from inadequate water 
for fire suppression is the loss of property. Other potential damage 
costs include repair of the damaged water system and loss of business 
revenue due to lack of water service for commercial and manufacturing 
activities.
    In order to reduce potential damages from a Design Base Earthquake 
(DBE) event, a project has been conceptually identified as a result of 
the Corps of Engineers study. The projects' primary elements include 
the construction of new high-capacity groundwater supply wells in the 
Santa Monica Groundwater Basin to provide sufficient capacity for a 
backup emergency water supply in the event of a partial or full loss of 
the existing water supply sources. A parallel transmission main 
facility to deliver water from the city's most important water wells in 
the Charnock Sub-Basin would be included along with associated 
metering, pumping and control equipment. Transmission main improvements 
within the city are identified as well in order to deliver emergency 
water to the city's treatment plant from the proposed new backup 
groundwater supply wells.
    Also provided for in the proposed project is the rehabilitation of 
the city's Arcadia Water Treatment Complex in order to guarantee the 
city's ability to treat and deliver a safe and dependable water supply 
following a seismic emergency. The construction of groundwater 
injection wells to allow replenishment of the city's groundwater 
resources is also included in the plan. These facilities would utilize 
off-peak water supplies delivered from the Metropolitan Water District 
of Southern California. Utilization of these injection facilities would 
assist in replenishment of the groundwater basins and increase the 
available emergency supply from the city's wells. The proposed project 
also includes the development of policies and programs for enhancing 
emergency response including installation of standby emergency power 
supplies and the design of the seismic protection components needed to 
maximize the survivability of the water system following a major 
earthquake.
    Santa Monica greatly appreciates your past support of our efforts. 
The city is prepared to partner with the Federal Government to provide 
a $250,000 match from non-Federal sources for the requested technical 
design assistance. We are looking forward to your continued support of 
this critically important program.
                                 ______
                                 

 Prepared Statement of Philip C. Cisneros, President, Twentynine Palms 
                             Water District

    Mr. Chairman and Members of the Subcommittee, the Twentynine Palms 
Water District is requesting $700,000 for the continued development of 
the Water Infrastructure Restoration Study--Feasibility Report (Stage 
2) to be conducted by the Corps of Engineers Los Angeles District--
Planning Division. The Feasibility Study Phase shall be based upon the 
results of the Financial Special Study Report (Reconnaissance--Stage 1) 
currently underway.
    Critical information pertaining to the continued provision of water 
to the inhabitants of the District in the event of a seismic event will 
be supplied through this study phase. The information gained will 
enable the District, the sole provider of water in a somewhat isolated 
high desert area, to prepare its infrastructure for maximum service 
capabilities.
    The feasibility stage of the Special Study effort shall provide for 
the following elements:
Groundwater Supply Reliability Analysis
    A definitive groundwater supply reliability analysis shall be 
conducted which shall include the development of a groundwater model 
capable of emulating both groundwater flow and quality regimes for the 
Twentynine Palms Groundwater Basin. Areas of the groundwater basin 
subject to high mineral content of VOC contamination shall be 
identified and cataloged in terms of treatment requirements under the 
Safe Drinking Water Act and related Federal and State drinking water 
standards. An investigation shall be made into the potential to 
optimize the reliability of groundwater supplies to the District. An 
assessment shall also be made in terms of alternative groundwater 
supply options to augment the District's existing supplies. A draft AB 
3030 Groundwater Management Plan document shall be prepared in 
accordance with State of California law.
Treatment Facility Reliability Analysis
    Reliability issues related to the District's new water treatment 
plant, and potentially well head treatment facilities which may be 
required, shall be identified. Conceptual level designs to upgrade, 
expand or construct such facilities shall be prepared. The consultant 
shall coordinate its efforts during this phase of the work with the 
District's Engineer and consultants working on the design and 
construction of the new defluoridation plant.
System Hydraulic Model Development
    A hydraulic network model, utilizing an H20 Net or equivalent 
software platform, shall be prepared for the District's domestic water 
system. The model shall be based upon current land use conditions as 
identified in the city of Twentynine Palms or the county of San 
Bernardino's General Plan and any Specific Plans related to development 
or redevelopment in the District's service area over a 20-year planning 
horizon. The model shall be based upon existing production and 
distribution conditions as a baseline level to allow the determination 
of effects upon the system due to the occurrence of the Design Basis 
Earthquake (DBE) event utilized in the study.
Seismic Hazard Study of Water System Facilities
    A seismic hazard study shall be conducted based upon the 
development of a DBE event occurring in the proximity of the District. 
Both deterministic and probabilistic methodologies shall be employed to 
ascertain maximum horizontal and vertical ground acceleration 
parameters for use in the analysis. An assessment of the effects upon 
the District's water system components shall be made in order to 
establish baseline level damage conditions for use in the study.
Temporary Power Analysis
    An evaluation of the District's existing stationary and portable 
power generation facilities shall be conducted to determine if 
sufficient generation capacity is available to provide for full backup 
power capability, in the case of a broad scale grid power outage of 
primary electrical power, to the District. The consultant shall take 
into consideration the potential that portable generation equipment may 
not be able to cross the District' service area in the event of ground 
rupture conditions associated with the DBE event.
Water System Deficiency Analysis
    The water system shall be analyzed to determine its potential 
deficiencies related to seismic reliability following the DBE event. 
Potential damages shall be identified and cataloged in a site specific 
manner, based upon an assessment of ground acceleration in the 
horizontal and vertical direction. The analysis shall also include a 
determination of deficiencies related to power system reliability of 
Southern California Edison's electrical system grids providing power to 
the District's water production and treatment facilities. The hydraulic 
model shall be utilized to assess the ability of the existing water 
system to suppress fire events occurring on a widespread basis 
following the DBE event. Specific consideration shall be given to the 
potential to hydraulically isolate separate zones of the systems to 
assure individual integrity in each zone.
Water System Improvement Programs
    Program level conceptual designs and estimates shall be prepared to 
construct retrofits and betterments to the District's water system 
infrastructure to mitigate operational and structural deficiencies 
identified in the water system deficiency analysis. These proposed 
improvements shall be cataloged in a System Improvement Program (SIP) 
utilizing a minimum of a 20-year planning horizon for planning, 
designing and constructing said improvements. The location of the 
proposed system improvements shall be incorporated into a Geographical 
Information System template compatible with the District's GIS database 
platform. The SIP shall be available in an electronic format utilizing 
Microsoft Office platform elements for word processing, spreadsheets, 
database and presentation formats.
Institutional and Regulatory Strategy Development
    An assessment of institutional and regulatory constraints which may 
present themselves at the Federal, State and regional level shall be 
conducted as related to program development and implementation.
Comprehensive Emergency Response Plan
    A focused and comprehensive Emergency Response Plan (ERP) shall be 
prepared to optimize its effectiveness in cooperation with local, 
regional, State and Federal agency support to the District. This work 
shall be conducted in concert with the District's SERS (State Emergency 
Response System) program.
Economic Base Study
    An economic base study, employing methodologies utilized in 
previous Corps Special Study efforts conducted for the cities of 
Norwalk, Arcadia and Sierra Madre California shall be performed to 
ascertain the benefits of the planned improvements through an avoided 
cost basis economic analysis.
                                 ______
                                 

          Prepared Statement of the West Chino Water District

                               background
    The Water Resources Development Act (WRDA) of 1990 (Public Law 101-
640), authorized studies in southern California to address the 
restoration of this region's public works infrastructure to assure 
full-service levels following major earthquakes. This special study 
would conduct a research and assessment of conditions and parameters 
affecting the water system infrastructure and local water supplies 
providing baseline and supplemental resources to the water systems in 
West San Bernardino County and Los Angeles County, including water and 
wastewater service areas of the cities of Chino, Chino Hills, 
Claremont, Montclair, Upland, and the Monte Vista Water District. The 
effort will also include the preparation of a special study defining 
the primary elements of a Water Infrastructure Reliability program 
which would complete the study efforts in fiscal year 1999.
                            program overview
    The primary study objectives for the State 1 efforts include the 
following:
Program Research and Assessment
    Work under this task would involve the conduct of a Research and 
Assessment phase of the Chino Basin Water Infrastructure Reliability 
Study (WCB-WIRS). Research efforts would focus on the following areas:
  --Identification of the Design Base Earthquake (DBE) event which will 
        serve as the basis for assessing seismic damage risk in the 
        study area.
  --Data Collection for Water Infrastructure Elements to be analyzed, 
        including mapping, as-builts, reports, and operational data 
        relevant to the water and wastewater systems in the area.
  --Collection of Extant Literature and Studies relative to local 
        groundwater conditions as they relate to faulting features and 
        groundwater supply conditions in the area.
  --Assembling Relevant Report, Regulatory, and Study Materials from 
        Regional, State, and Federal agencies relevant to planned 
        programs affecting District water supplies.
  --Developing a Compendium of Information relative to existing 
        emergency preparedness programs of the District and other 
        responsible public entities.
  --Ascertaining the Nature of the Regional Power Grid serving the 
        study area and determining the Nidre and extent of portable and 
        standby power equipment serving the water infrastructure 
        elements under consideration.
  --Conducting a Field Review and Defining System Deficiencies from the 
        perspective of the District's and participating agencies 
        Administrative, Operational, and Engineering staff.
  --Researching and Evaluating the Water Master Plans and Capital 
        Improvement Programs relative to the study elements and 
        establishing a baseline for future augmentation of the CIP's 
        through later studies which will identify new programs and 
        projects.
    The results of the Research and Assessment phase of the work will 
be summarized in a Summary Technical Memorandum compiled with 
appropriate appendices of hard copy and electronic data and information 
assembled.
Preparation of Special Study
    Following the completion of the Research and Assessment phase of 
these efforts, a Special Study shall be prepared which define and 
assess the major study elements to be considered in the establishing 
the WIRS Program. The primary focus areas in the Special Study should 
include but not be limited to the following:
    Summary of research and assessment phase findings.
    Definition of the study area setting: General characteristics; 
Primary study issues; Water system infrastructure components; Water 
system baseline parameters; Groundwater conditions/water supply; 
Emergency response conditions; and Federal authority and 
responsibility.
    Assessment of without project conditions: Establishment of seismic 
criteria--hazard assessment; Water system infrastructure system 
evaluation criteria; and Water system assessment.
    Economic analysis: Damage repair costs; Revenue impacts; Business 
losses; Property loss--residential, commercial, institutional; and 
Summary of Economic Damage from Design Base Earthquake.
    Plan formulation: Statement of problem; Federal interest 
determination; Program opportunities and constraints; Alternatives 
determination; and Evaluation of alternatives.
    Program conclusions and recommendations; System improvement plan; 
and Emergency Response Program.
    The results of the special study will be presented along with a 
comprehensive appendix in a format which clearly identifies the scope 
and extent of future technical assistance leading to project design.
Requested Funding
    The requested funding for fiscal year 1999 for the development of 
the special study for the West Chino Basin Water Infrastructure 
Reliability Study is $800,000.
                                 ______
                                 

           Prepared Statement of the Hi-Desert Water District

    Authority.--Public Law 101-640, Public Law 104-303. Fiscal Year 
1999 Funds Request $150,000. Southern California Infrastructure Study.
    Project.--This study will conduct research and assessment of 
conditions and parameters affecting the water system infrastructure and 
local water supplies providing baseline and supplemental resources for 
the area served by Hi-Desert Water District, i.e. Town of Yucca Valley 
and surrounding area.
                       project primary objectives
    1. Identify Design Base Earthquake. Geologist will identify what 
level of movement will occur on specific portions of the delivery 
system and storage facilities.
    2. Data Collection of Water Infrastructure Elements. This will 
provide a physical inventory and identify all elements of the system 
and location of each element.
    3. Develop Compendium of Existing Emergency Response Information. 
The inventory will assist in developing a timely emergency response 
procedure.
    4. Ascertain the Nature of Regional Power Grid Serving Water 
Infrastructure Elements. It is important to the continued service 
during a seismic event that there be an inventory of where power is 
located to serve the system.
    5. Define System Deficiencies from the Perspective of 
Administrative, Operations and Engineering Staff to Optimize 
Administration and Continued Operation.
    6. Research and Evaluate Water Master Plan and Capital Improvement 
Program. The review of existing master plan will assist in developing 
an emergency plan to assure continued service.
    Background.--Hi-Desert Water District (HDWD) serves an area of 50 
square miles. In June 1992, the area experienced a 7.5 earthquake with 
the epic center only 6 miles from the center of the HDWD service area. 
Forty percent of the delivery system was destroyed and one major 
storage tank moved during the quake.
    Tens of thousands of aftershocks have been experienced over the 
past five and one-half years. Each has taken its toll on the system 
costing the residence hundreds of thousands of capital dollars.
    HDWD serves a population of nearly 25,000. Thirty-six percent of 
the population are senior citizens living on a fixed income. About the 
same percentage of the population are living within the Federal poverty 
level.
    With all the ongoing seismic activity and continued improvements 
needed to protect the system from future destruction should another 
major event is experienced, a plan needs to be developed to identify 
the weak links in the system.
    Results of the Study.--The study will identify the problem areas, 
assist in the planning of the infrastructure improvements and will be a 
useful tool to assist in responding to emergencies based on the end 
result model that will be developed from the data gathered during the 
study.
                                 ______
                                 

          Prepared Statement of the Karuk Tribe of California

    The Karuk Tribe of California (Karuk Tribe) is requesting that 
$500,000 be added to appropriations for the Karuk Tribe as part of the 
Bureau of Reclamation's budget for Klamath Basin Area Office 
operations. The funds requested will enable the Karuk Tribe to continue 
to government-to-government agreement signed with the Bureau of 
Reclamation and other Interior agencies in November 1995. Increased 
costs are due to the Karuk Tribe's dependence on water deliveries from 
Bureau of Reclamation facilities (average 80 percent in summer months), 
and the growing need for Tribal participation in development of an 
Environmental Impact Statement beginning this up-coming fiscal year. 
The Memorandum of Agreement provides for the implementation of 
government-to-government responsibilities that will lead to the 
operation of Reclamation facilities involving:
  --Identification of Tribal Water and Fishing Rights affected by 
        Project Operations.
  --Assessment of the impacts of Project operations on Tribal trust 
        resources and species of concern under the Endangered Species 
        Act.
  --Direct and effective communications with the Tribal governments and 
        their authorized representatives in developing and completing 
        Project operations plans.
  --Conducting scientific research and data collection regarding stream 
        flows, lake levels, water quality, fish populations, water 
        needs and supply forecasts, and evaluating and assessing 
        overall river and lake operations.
  --Management decisions and actions implementing the Project 
        Operations Plan, including the technical evaluation of the data 
        used, collected and analyzed, and technical conclusions drawn 
        form such data.

Funds Requested:
    Tribal and Project Operations Planning (Items 1, 2, and 3)  $250,000
    Scientific Research and Project Implementation (Items 4 & 
      5)......................................................   250,000
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................   500,000
 memorandum of agreement for the government-to-government relationship 
       in the development of the klamath project operations plan
    This Memorandum of Agreement (Agreement) provides a guide for the 
implementation of the government-to-government relationship between the 
United States, acting through the Bureau of Reclamation (Reclamation), 
in coordination with the Fish and Wildlife Service, National Marine 
Fisheries Service, and the Bureau of Indian Affairs (these four will 
hereinafter be referred to, separately and together, as the United 
States), and the Klamath, Yurok, Hoopa, and Karuk Tribes (Klamath Basin 
Tribes or Tribes), with respect to the development of the long-term 
operations plan, the Klamath Project Operations Plan (KPOP), for 
Reclamation's Klamath Project. Several meetings have been conducted 
between the Tribes and the United States with regard to the KPOP. These 
meetings have served to clarify the proposed structure of the 
government-to-government relationship.
    The United States Government has a unique legal relationship with 
Native American tribal governments as set forth in the Constitution of 
the United States, treaties, statutes, and court decisions. The 
elements of this unique relationship include: (a) recognition of the 
rights of tribes as sovereign entities; (b) recognition of the right of 
tribes to delegate representation; (c) consultation with tribal 
governments prior to taking actions that affect tribal governments, 
rights, or trust resources; and (d) participation by tribes in planning 
and managing the trust resource base. Recent expressions of the 
relationship between the United States Government and Native American 
tribal governments are found in President Clinton's Memorandum of April 
29, 1994, and order No. 3175 of the Secretary of the Interior, issued 
November 8, 1993. These documents are attached as Exhibits A and B, 
respectively.
(A) Tribes as Sovereigns
    The President's Memorandum and the Secretarial Order recognize the 
sovereign nature of tribal governments and are intended to ensure that 
the rights of sovereign tribal governments are fully respected.
    A memorandum prepared by the Regional Solicitor, Pacific Southwest 
Region, of the Department of the interior dated July 25, 1995, provides 
the legal framework developed by the Regional Solicitor for the 
guidance of the United States regarding the Tribal water rights, among 
others, that may be affected by development of the KPOP and Project 
operations. The Regional solicitor's memorandum describes certain 
rights of the Tribes, including water and fishing rights recognized by 
treaty, statute, executive order and case law, and sets out the 
relative priority of the Tribes' water rights. The Regional Solicitor's 
memorandum is attached as Exhibit C.
    With respect to the development of the KPOP, the government-to-
government relationship involves the following:
  --Identification of Tribal water rights and hunting, fishing and 
        rights that may be affected by Project operations.
  --Assessment, in consultation with the Tribes, of the impacts of the 
        KPOP on Tribal trust resources and species of concern under the 
        Endangered Species Act, and assurance that Tribal governments' 
        rights and concerns are considered during the development of 
        the KPOP.
  --Direct and effective communications with the Tribal governments and 
        their authorized representatives in developing and completing 
        the KPOP.
(B) Tribal Delegation of Authority
    The Tribes have delegated certain responsibilities to the Klamath 
River Inter-Tribal Fish and Water Commission (the ``KRITFWC''), which 
is an inter-tribal resources management entity comprised of 
representatives of each of the Tribes. The United States will 
communicate and coordinate with the KRITFWC and the Tribes. 
Communications will be directed to those listed on Attachment D.
(C) Consultation
    Consistent with the responsibilities of Federal agencies to respect 
the government-to-government relationship with tribal governments, in 
developing the KPOP, the United States will consult with the Klamath 
Basin Tribes prior to taking actions that affect these Tribal 
governments, and will consider the comments and concerns of the Tribes 
in a timely and meaningful way, before decisions are made.
    A consultant has been hired to conduct the bulk of the technical 
work related to developing the KPOP. The consultant will communicate 
with the Tribes and their representatives, seek data and other 
information from the Tribes, and include the comments and program of 
the Tribes in its analysis related to the KPOP. The United States will 
consider the data and information submitted by the Tribes and will 
either incorporate the data and information, or provide reasons for not 
doing so.
    Consultation with respect to the development of the KPOP will take 
the following form:
  --The United States, together with the consultant, will meet with the 
        Tribes and provide copies of working documents for tribal 
        review and comment to further the government-to-government 
        relationship.
  --The United States will communicate on a monthly or more frequent 
        basis with the designated representatives of each Tribe. 
        Written communications and reports shall be sent to the 
        representatives of the Tribes and the United States, as 
        identified in Attachment D.
(D) Tribal Management and Participation in the KPOP Process
    Water resources management involves extensive decision making. 
Building Tribal participation into agency planning and decision making 
is a necessary, foundational component of the government-to-government 
relationship and future decision making, as it is essential to 
incorporate the perspective that only the Tribes can provide regarding 
the impact of management decisions on Tribes and their resources.
    The KPOP is being developed and will be adopted by Reclamation as a 
means of managing water resources within its authority related to the 
Klamath Project. The Tribes have responsibility for the management of 
trust resources within their authority. Tribal involvement in the 
development of the KPOP is an important component of the government-to-
government relationship. This involvement of the Tribes is a major 
means of assuring that the development of the KPOP reflects the United 
states' trust obligation and Tribal rights.
    With respect to the KPOP, Tribal involvement will include the 
following:
  --Reclamation and the Tribes will, to the maximum extent practicable, 
        coordinate their resource management activities as they affect 
        on another.
  --Tribal involvement will include but not be limited to conducting 
        scientific research and data collection regarding stream flows, 
        like levels, water quality, fish populations, water needs and 
        supply forecasts, and evaluating the assessing overall river 
        and lake operations.
  --The Tribes will provide data and input to Reclamation in a timely 
        fashion for development of the KPOP.
  --The Tribes will be involved in the technical evaluation of the data 
        used, collected and analyzed, and technical conclusions drawn 
        from such data.
  --The Tribes will participate with the United States regarding 
        management decisions and actions implementing the KPOP that 
        affect Tribal trust resources.
  --The United States will seek Tribal involvement at the earliest time 
        to assure an opportunity for the Tribes to provide input 
        regarding data collection, analysis and management decisions.
    In developing and implementing the KPOP, Reclamation, consistent 
with its trust responsibility, will protect Tribal rights, including 
the Tribes' water rights and rights to other trust resources.
(E) Effect of Agreement
    This agreement is to provide for the effective implementation of 
the government-to-government relationship between the parties, and is 
in furtherance of the responsibility of the United States to protect 
Tribal trust resources. It does not by itself create, change, or alter 
any rights of any of the parties to the Agreement, nor by itself does 
it create an independent right subject to Judicial review. Nothing in 
this Agreement is intended to or shall have the effect of constraining 
or limiting the United States in carrying out its obligations under 
law, including its trust obligations. All communications under this 
Agreement are in furtherance of federal responsibilities.
    Nothing in this Agreement is intended to or shall apply to the 
relations of the parties in connection with the Klamath Basin Water 
Rights Adjudication pending before the State of Oregon.
    This Agreement may be modified or amended upon the mutual consent 
of the parties.
    This agreement may be executed in counterparts.
                                 ______
                                 

Prepared Statement of David Johnson, Director of Public Works, City of 
                           Santa Barbara, Ca

    As your distinguished Subcommittee writes the fiscal year 1999 
Energy and Water Resources Appropriations bill, I would like to bring 
the Santa Barbara County Streams, Mission Creek flood control project 
to your attention.
    The Santa Barbara County Streams, Mission Creek flood control 
project, which runs through downtown Santa Barbara, would construct a 
natural bottom channel with vegetated stabilized sides. The City of 
Santa Barbara paid for an extensive Alternatives Analysis that defined 
the project. It has been approved by the Santa Barbara City Council, 
the Santa Barbara County Board of Supervisors and local environmental 
and business representatives.
    The Mission Creek project will improve protection for 94 
residential and 45 commercial properties in the 100-year flood plain. 
Funding in the amount of $129,000 was recommended for the feasibility 
study in the President's fiscal year 1999 Budget Request. I 
respectfully request that your distinguished Subcommittee maintain that 
amount in the fiscal year 1999 Energy and Water Development 
Appropriations bill.
                                 ______
                                 

  Prepared Statement of David Skidmore, Project Manager for the Santa 
                           Cruz Joint Venture

    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for inviting me to submit testimony on behalf of the Santa 
Cruz Joint Venture (SCJV) regarding the In Situ Technology Development 
program managed by the Bureau of Reclamation.
    I would also like to commend the committee for its support in 
providing funds, $1,300,000, for fiscal year 1998 to conduct the final 
phase of research and complete the field test.
    As you know, President Clinton exercised his line-item veto 
authority and rejected the appropriation of $1.3 million. That funding 
would have provided $300,000 for Bureau oversight, $1,000,000 for the 
field test, and would have required an additional cost-sharing 
contribution by the SCJV of 25 percent. The reason provided by the 
President was that enough research had been accomplished and that the 
funding wasn't justified.
    However, it had been the judgement of the SCJV, and others closely 
associated with the management of the project, that an additional year 
of research related to the circulation of mining fluids and a 
determination of the economic viability of the technology was necessary 
to meet the original goals of the research program. There was certainly 
no intent to simply extend the project. It has always been in our 
interest to complete the program as soon as possible and, if feasible, 
commence a separate commercial-scale in situ mining operation.
    The in situ project has been, from the beginning, an agency-
initiated program with agency oversight and separate agency research. 
Its purpose was to introduce, test and validate technology that could 
produce copper metal, specifically from copper oxide minerals--with 
minimum environmental impacts--without open-pits, underground mines, or 
smelting! The congress first provided funding in fiscal year 1986 to 
the Bureau of Mines to examine the concept. In fiscal year 1987, 
funding was provided to develop the ``design manual'' which outlined 
the goals and objectives of a research program. It was at this point 
that the agency sought out the SCJV to participate in the research 
program. It was understood from the beginning that this was a federal 
project. None of the research data was to be the exclusive property of 
the SCJV. All information would be shared publicly.
    Congress concluded in 1987 that the objectives of the program were 
in the national interest and the field test was funded for fiscal year 
1988. The appropriations committee determined that the program would be 
cost-shared at 75 percent federal and 25 percent non-federal--using a 
private mineral deposit for the research program. We then accepted 
those terms, despite our concerns about a lack of multi-year commitment 
on the part of the federal government.
    In each successive year, the Congress has taken the initiative to 
continue the project.
    The recent veto report from the President stated that funds were 
included in the fiscal year 1996 appropriation bill to ``close out'' 
the project. That is inaccurate. As the congress was closing out the 
Bureau of Mines in fiscal year 1996, funds were included in the bill to 
continue the in situ project `` * * * through a logical completion 
point to ensure that the federal investment is not lost.'' Additional 
funds were subsequently added by the congress in fiscal year 1997 and 
fiscal year 1998 to reach that logical completion point.
    The veto report also noted, accurately, that the project 
expenditures are under original budget estimates. This is because both 
partners have been very conscious of costs and have guided a research 
program on new technology carefully through a very lengthy and 
uncertain permitting requirement with the Arizona Department of 
Environmental Quality, including input from EPA. We were also faced 
with comprehensive testing in the Environmental Assessment (EA) to 
verify environmental protection. As a result, the research effort has 
taken longer than expected, but costs are still well under original 
estimates.
    After the veto by the President, several news reports suggested 
that the project was halted because of environmental concerns. There 
were even quotes from some groups insinuating that causal relationship 
and claiming credit. The fact is that the SCJV sponsored one of the 
most comprehensive and elaborate public information efforts ever 
associated with a federally funded project. Additionally, the Arizona 
DEQ had an extensive public comment strategy as part of the permitting 
process and the Bureau of Mines had two well-publicized public 
meetings--and an extensive mailing for comments--as part of the formal 
Environmental Assessment. Not one negative comment, or ``concern,'' was 
expressed by anyone. Not one!
    As a result of the President's veto, the research program is being 
terminated. Comments in the ``veto report'' to the effect that the 
private sector partner might continue the program independently reveal 
a thorough misunderstanding of the program and the partnership 
relationship. Additionally, the prospect of a Supreme Court action 
overturning the veto is months away and speculative. As a consequence, 
the final piece of the puzzle--data as to conclusive economic 
feasibility--will remain elusive.
    However, we are pleased to report that virtually all of the 
technical goals of the project were met. We encountered numerous 
technical problems related to adapting oil well technology to the in 
situ mining of a deep undisturbed ore body. The unanticipated obstacles 
were studied and resolved, adding significantly not only to the 
knowledge of the technology, but also to the efficiencies of research 
instruments and methods employed. Ultimately, thirty-five thousand 
pounds of copper were recovered during the test phase, demonstrating 
unequivocally that copper can be mined using this technology.
    Of equal, if not greater, importance is the assurance of 
environmental protection demonstrated in the tests. This was evaluated 
in the formal NEPA process conducted by the agency. And, after nearly 
two years of injection of the acid solution, no undesirable or 
unanticipated effects have been detected in the monitor well system.
    The project was also valuable in establishing a permitting pathway 
for in situ mining with the Arizona Department of Environmental 
Quality. It was a lengthy and complex procedure with a new department, 
but it answered questions and established procedures, protocols and 
parameters that are becoming standards in the industry. Development of 
a closure plan for in situ mining will also be a first for the 
industry.
    One of the unstated benefits of the research is the ``spinoff'' 
applications to other water-related disciplines. The technology can be 
utilized in environmental clean-up in the containment and remediation 
of deep groundwater contaminants, or in other efforts to manipulate 
sub-surface flows. The committee has included Report language in the 
past to encourage the Bureau of Reclamation to explore the 
opportunities to utilize the technology in applicable programs. We 
would strongly recommend that the committee continue to encourage the 
Bureau, and other government agencies, to apply the valuable knowledge 
accumulated over this ten year effort.
    Mr. Chairman, the federal and non-federal managers have available 
funds from previous appropriations to meet expected project close-out 
obligations. We believe sufficient funds are on hand. However, 
negotiations with the Arizona DEQ have not yet begun, so long-term 
closure and monitoring requirements, and costs, are not yet fully 
determined.
    We are in the process of completing a closure plan which we will 
submit to the Arizona DEQ by the end of April. The plan will include 
measures to ensure protection of the overlying aquifer by continued use 
of the monitor well system. We will then begin negotiations on the 
plan. Anticipating that our proposed plan is generally acceptable to 
DEQ, the closure operations could last 4 to 6 years. In keeping with 
project agreements, the close-out costs are apportioned 75 percent 
federal, and 25 percent non-federal.
    Post-injection pumping of the well field to reduce the copper 
bearing leach solutions was completed. The SXEW plant and other surface 
facilities are being ``mothballed,'' and on-site personnel and 
operations are all but terminated. Only monitoring and closure 
activities will continue until the final closure is approved by Arizona 
DEQ.
    The Bureau has the further responsibility of technology transfer. 
The final reports will be written and disseminated during this calendar 
year.
    Mr. Chairman, if the Supreme Court should overturn the President's 
line-item veto authority, it should be clear that the in situ project 
is being closed-out and terminated. The $1 million which was 
appropriated for the project for fiscal year 1998 would obviously not 
be reinstated for the field test. And, although it was the original 
intent that the funds be cost-shared by the non-federal partner, that 
would no longer be applicable. The SCJV would not be, in any way, the 
recipient or beneficiary of those funds. However, the funds should 
remain available within the Bureau's research program to cover longer 
term close-out costs and liability.
    Those funds could also be utilized within the Bureau's research 
effort to look at applications of the in situ technology to the cleanup 
and protection of groundwater. In this way, the very significant 
federal investment could be more fully recaptured.
    Finally, Mr. Chairman, I would like to comment on the nature of a 
federal/non-federal cost-sharing partnership in a program of this kind. 
In news articles about the veto, the project was sometimes 
characterized as ``corporate welfare'' or ``pork.'' These misplaced 
comments come from individuals who demonstrate ignorance of the history 
of the in situ project. They also undermine the potential of generating 
interest in the private sector to participate in research programs with 
the federal government in the future.
    This research program was underway for two years--and was advanced 
and funded by congress--before there was any decision to even conduct a 
field test. After the ``Design Manual'' was funded and completed by the 
Bureau of Mines, the agency approached the SCJV because we had 
ownership of ore bodies that fit the characteristics required by the 
research.
    We were very wary of any participation with the federal government 
under any terms. Although we would be expected to make a commitment to 
see the program through, the government exempted itself from any 
commitment to future appropriations. The government could simply decide 
to terminate the program at any point, regardless of the investment of 
public funds or the expenditure of private funds.
    In fact, that is exactly what happened! Our fears were indeed 
realized. After ten years and a total of $15,508,000 million for the 
field test by the Bureau, and an SCJV expenditure of $5,169,201, the 
President simply said, ``enough.'' The private sector ``partner'' was 
never consulted. The important, low cost and final increment was vetoed 
and the critical information about the viability of the technology was 
simply lost. And, ironically, a very promising mining technology that 
provided the level of environmental protection that is publicly 
championed by this administration might also be lost.
    Mr. Chairman, in joining a federally funded program, a company 
gives up whatever privacy or proprietary rights it might otherwise 
have. Inevitably, it provides international and domestic competitors 
with an uncomfortable amount of information about its holdings and 
operations. We participated in a joint effort that was often described 
as a ``model,'' but it may ultimately be perceived negatively 
throughout the private sector.
    We sincerely commend the congress for its annual support and 
willingness to judge the program on its merits. The support by members 
of the Arizona congressional delegation has been bi-partisan and very 
strong. Former Senator Dennis DeConcini, former Congressman Morris 
Udall, Rep. Jim Kolbe, Rep. Ed Pastor, and Rep. J.D. Hayworth have been 
particularly active in taking the lead for the project.
    We would also commend the professionals in the Bureau of Mines and 
the Bureau of Reclamation, particularly Steve Swan, the project 
manager, for close cooperation with me and other non-federal managers 
and for striving always to serve the public interest.
    Again, Mr. Chairman, our thanks to you, the members of the 
committee, and your professional staff for all of their time and 
interest.
                                 ______
                                 

     Prepared Statement of Steve Miklos, Mayor, City of Folsom, CA

    Mr. Chairman, and distinguished members of the committee, my name 
is Steve Miklos and I am Mayor of the City of Folsom, California. I 
appreciate the opportunity to speak today regarding the City of 
Folsom's Water Quality and Storm Drainage Improvement Project. This 
project is vitally important to our city and to water quality in our 
region, and it is my hope that the committee will view favorably our 
request. Specifically, we request that the Congress provide $500,000 
under the Corps of Engineers, General Investigations, in fiscal year 
1999 for technical assistance to the City of Folsom for water quality-
related improvements to the City's storm drainage system. The authority 
for this action can be found in Section 503 of the Water Resources 
Development Act of 1996.
    The City of Folsom has committed over $2 million in local funds to 
storm drainage improvements throughout the community. While this work 
has greatly improved storm drainage in certain areas, additional work 
is still needed to provide further protection against flooding, 
property damage and the degradation of water quality in the Sacramento 
River watershed. Recent hydrology studies suggest that the existing 
storm drainage systems should be upgraded to handle heavier and 
sustained water runoff. Left unresolved, these storm drainage problems 
will continue to pose a threat to water quality in the American River 
and the Sacramento River watershed.
    While our drainage infrastructure in many parts of Folsom has 
remained relatively unchanged for many years, our city has changed 
dramatically in the last decade. Folsom was once a small town at the 
edge of the Sierra Nevada foothills. Our population has approximately 
tripled and our city is one of the fastest growing in the state in 
terms of both population and corporate and industry presence. Our 
city's infrastructure has not kept pace with needs, creating a 
potentially hazardous situation with respect to the American River 
which runs through the heart of Folsom. As the committee is well aware, 
the American River is a critical part of the Sacramento River 
watershed, with water flowing through the Delta and ultimately into the 
San Francisco Bay. The importance of maintaining and improving American 
River water quality cannot be underestimated, and we believe this 
project is an important part of overall efforts to ensure the 
protection of the watershed.
    The City of Folsom has identified $1 million in design and 
inspection work that needs to be accomplished during fiscal year 1999 
in four separate areas of the City. Work will be carried out in the 
City's historic district, which dates back to the gold rush days of the 
mid-1800's, and several other areas immediately adjacent to the 
American River.
    Mr. Chairman, on behalf of the City of Folsom, I thank you for the 
opportunity to testify regarding the City of Folsom's Water Quality and 
Storm Drainage Improvement Project. We sincerely hope you and your 
committee will provide funding as I previously outlined, and we thank 
you for your assistance.
                                 ______
                                 

   Prepared Statement of Dennis M. Diemer, General Manager, East Bay 
                Municipal Utility District, Oakland, CA

    Mr. Chairman, on behalf of the East Bay Municipal Utility District 
(EBMUD), I request that this statement be included as part of the 
Subcommittee on Energy and Water Development's fiscal year 1999 
appropriations hearing record on the U.S. Corps of Engineers budget.
    EBMUD is requesting that the Subcommittee approve an appropriation 
of $4 million to permit the U.S. Corps of Engineers to continue 
participating in a 50-percent cost-shared cleanup and environmental 
restoration of the abandoned Penn Mine site in Calaveras County, 
California. This is supported by the State of California, the 
California Water Commission, and other stakeholders who consider this 
project an important step in the effort to correct environmental 
threats created over several decades for which no responsible party 
exists. The request is made pursuant to Section 206 of the Water 
Resources Development Act of 1996, which authorizes the Corps of 
Engineers to provide up to a 65-percent cost share to conduct aquatic 
ecosystem restoration projects.
    This project will serve as a national model to respond to other 
similar sites that are scattered throughout the country and which are 
concentrated throughout the West. Polluted runoff from abandoned 
hardrock mines poses serious ecological threats to water quality, 
aquatic habitat, and other environmental resources. The history of the 
Penn Mine site vividly illustrates the importance of developing a model 
that will allow a cost-effective solution to be implemented at the 
numerous abandoned mine sites that threaten our aquatic ecosystems.
    Under Section 206, federal funding is authorized only for those 
projects that will improve the quality of the environment, are in the 
public interest, and are cost effective. Last year, Congress approved 
funding for the abandoned Penn Mine site based on the anticipated 
benefits to the aquatic ecosystem and the ability to implement the 
restoration plan of action in a timely manner. To date, we have begun 
the process of implementing a cleanup and environmental restoration 
plan. Working with the Corps of Engineers, EBMUD and the State of 
California have completed the Proposed Remediation Plan and have 
already initiated preliminary cleanup plan implementation. The key 
activities we have initiated include: preliminary cleanup and 
restoration design; obtaining the necessary federal and state permits; 
development of water quality monitoring plans; development of 
mitigation plans; and completion of temporary road access construction.
    Funding for fiscal year 1999 is vital to the success and timely 
completion of this project. The request for $4 million in federal 
assistance represents the final phase of federal assistance. This 
assistance will ensure that the site cleanup can be completed within 
our projected deadline of December 1999. Among the planned activities 
for fiscal year 1999 are: removal of approximately 408,000 cubic yards 
of waste material; construction of a landfill in which to dispose the 
excavated waste material; soil application over areas disturbed by 
waste excavation; and revegetation of the site with native grasses.
    EBMUD and the State of California have taken the necessary steps 
that are required under Section 206 by entering into binding agreements 
to meet the obligations to provide the non-federal share of the 
project's construction costs as well as site rehabilitation and runoff 
monitoring costs associated with the project.
    EBMUD is a public agency responsible for providing water supply and 
wastewater treatment services to more than 1.2 million people of the 
East Bay in California, including residents of Oakland and Berkeley, 
stretching south to Castro Valley and north to Crockett. EBMUD's 
principal source of water is supplied by the Mokelumne River, which is 
located in Calaveras County, California. As part of its watershed 
buffer zone to protect this water supply, EBMUD property includes an 
area that is contiguous to an abandoned hard rock mine known as Penn 
Mine. This abandoned copper and zinc mine sits along the upper reaches 
of EBMUD's Camanche Reservoir.
    The mine was opened in 1861, and its periods of major activity 
occurred between 1899 and 1919 at the direction of the federal 
government. It was also operated during World War II to support the 
nation's demand for strategic metals. When the mine ceased operations 
after World War II, it was left in a state of disrepair and abandoned 
as uneconomic. Based on known records, beginning in the 1930's heavy 
metals, such as copper and zinc, were discharged from the mine site 
into the river, killing all aquatic life for 40 miles downstream. 
Despite the end of active mining in the late 1940's, environmental 
damage continued because of more than 250,000 cubic yards of mine waste 
consisting of unprocessed ore and mill tailings, covering 15 acres.
    Although EBMUD was never involved in the mining activities, nor has 
it benefitted in any way from the mining activities, EBMUD's Good 
Samaritan efforts have created an untenable and inequitable situation 
whereby EBMUD and the State of California are being asked to pay for 
the site's cleanup. Specifically, with the history of the site and 
federal involvement, as well as the importance of having a proven 
cleanup plan that could be used elsewhere, it is only reasonable that a 
cost sharing arrangement be made available to ensure that EBMUD is not 
asked to shoulder the entire cleanup burden for something for which it 
had no responsibility.
    Responding to the State of California's request, EBMUD began a 
cooperative program in 1978 to minimize the adverse effects of the mine 
site. Several reconstructed channels and holding ponds were created on 
the Penn Mine site. EBMUD, acting as a Good Samaritan, constructed Mine 
Run Dam Reservoir on its property that was experiencing acid mine 
drainage runoff which was then entering the Mokelumne River. Mine Run 
Dam Reservoir effectively served as a final defensive line to ensure 
that mine drainage would be controlled and treated to avoid 
uncontrolled fish kills and other ecosystem degradation. These actions 
contained about 90 percent of the drainage and, most importantly, 
prevented acidic runoff from entering the river between 1987 and 1992. 
There were no reported fish kills with the operation of the EBMUD 
facility.
    In 1993, EBMUD took several steps to meet water quality concerns of 
federal regulators, including developing a plan to divert and treat 
potential overflows from the site. In addition, EBMUD installed a batch 
treatment system to neutralize the toxic mine drainage and implemented 
a pumping operation to ensure that mine drainage would not overflow and 
react with mine wastes, thereby creating serious environmental threats. 
As a result of these actions, more than 15 million gallons of polluted 
runoff have been treated, resulting in greater than 98 percent removal 
of metals from water released from the site. Based on monitoring data, 
this temporary action has reduced Penn Mine metals loading to 
background levels.
    EBMUD, in cooperation with federal, state, environmental and other 
stakeholders, has developed a plan of action to remediate the site and 
return it to its original landscape condition. After much study and 
review, a cost-effective cleanup plan embodying environmental 
restoration and protection components was accepted. The U.S. EPA, the 
Committee to Save the Mokelumne River, the California Sportfishing 
Protection Alliance, the State Water Resources Control Board, the 
Central Valley Regional Water Quality Control Board, and EBMUD signed 
an agreement to accept the preferred alternative cleanup plan. The 
Environmental Impact Report identifying the final cleanup plan was 
certified by the State of California and EBMUD in February 1997.
    The fiscal year 1998 appropriations for the Corps of Engineers 
included $1 million toward the Penn Mine site cleanup and environmental 
restoration effort. EBMUD, the Central Valley Regional Water Quality 
Control Board, and the Corps of Engineers have all agreed that Corps of 
Engineers' experience would greatly support the restoration work for 
the project. To this end, an aggressive action plan has been developed 
identifying specific tasks for the Corps of Engineers' involvement in 
the project in fiscal year 1998: environmental documentation; 
preliminary restoration plan design; implementation of a demonstration 
restoration project; and purchase and storage of soil amendments. All 
parties involved in the cleanup and restoration activities are 
anticipating the Corps of Engineers' work elements to be underway by 
April 1998.
    Because the site was created to support national objectives, and in 
some instances activities were directly related to federal contracts, 
it is only reasonable that federal assistance be provided to support 
cleanup plan implementation. It is important to reiterate that despite 
the fact that EBMUD never created the situation or benefitted from the 
mining activities, it has expended a considerable amount of time and 
resources. The continued cleanup and environmental restoration 
activities will support ongoing efforts to develop a model that will 
demonstrate successful abandoned mine cleanups can be undertaken 
through consensus-based, cooperative processes in a cost-effective and 
environmentally sensitive manner.
    We therefore strongly request that the Subcommittee provide $4 
million for the U.S. Army Corps of Engineers fiscal year 1999 budget 
that will represent the final federal share of this 50 percent cost-
shared cleanup program at the abandoned Penn Mine.
                                 ______
                                 

 Prepared Statement of Melissa Paulson, Mayor, Town of Corte Madera, CA

    The Town of Corte Madera, California requests that the Subcommittee 
support the current budget request in fiscal year 1999 to complete the 
Feasibility Report for the San Clemente Creek Tidal Storm Damage 
Reduction Study. The project is listed under Marin County Shoreline--
San Clemente Creek
    The Town of Corte Madera is located on San Francisco Bay just north 
of the Golden Gate Bridge. The Town's location on San Francisco Bay has 
placed it at the mercy of serious flooding from high tides. This 
flooding occurs in the area adjacent to San Clemente Creek and is 
caused by a combination of ground subsidence, high tides and storm 
water runoff. Tidal flooding can even occur in dry weather and is 
predicted to increase with the passage of time because the area is 
settling, as the bay mud which lies underground continues to 
consolidate. Recently, the flooding has been especially bad, even 
closing U.S. Highway 101, due to ``El Nino'' storms.
    The Town of Corte Madera is committed to maintaining the 
community's safety and quality of life. To that end, the Town and the 
U.S. Army Corps of Engineers negotiated a Cost Sharing Agreement to 
conduct a Feasibility Study to define the flooding problem and to 
develop a plan for Congressional action.
    The Town Council has approved the Cost Sharing Agreement and has 
paid its full share of all local costs.
    With the assistance of the Subcommittee in the past, the Town has 
secured funding to initiate the Feasibility Study. This year, $50,000 
is included in the President's fiscal year 1999 Budget to complete the 
Feasibility Report.
    I respectfully request that you support a fiscal year 1999 budget 
allocation that is included in the current budget request for the Marin 
County Shoreline--San Clemente Creek Study.
    Thank you very much for your continuing support for this important 
project.
                                 ______
                                 

 Prepared Statement of Barbara J. Ferraro, Mayor, City of Rancho Palos 
                               Verdes, CA

    As your distinguished Subcommittee writes the fiscal year 1999 
Energy and Water Resources Appropriations bill, I would like to bring a 
very important environmental restoration project to your attention.
    The Corps of Engineers and the City of Rancho Palos Verdes have 
been working on a cost-sharing feasibility study to investigate Federal 
improvements to restore pristine environmental areas along the Pacific 
coastline since 1995. The President's fiscal year 1999 Budget Request 
does not contain any money to continue the feasibility study. Funding 
is necessary so that the feasibility study can be completed next year. 
If this item remains unfunded, the Federal monies and local matching 
funds that have been spent to date would be wasted, since the project 
could not be completed without this support.
    I would like to take this opportunity to request that your 
distinguished Subcommittee include $300,000 in the fiscal year 1999 
Budget Request for the completion of the feasibility study. The City of 
Rancho Palos Verdes is prepared to commit their portion of the cost-
share to complete the study next year.
    The area along the Rancho Palos Verdes coastline that is being 
studied has been severely degraded as a result of landslide movement of 
material and coastal erosion causing sediment and continuous turbidity 
that has buried sensitive habitat. The study involves investigations to 
define landslide and erosion relationships, impacts on the environment 
and potential restoration benefits. This project should be considered 
as essential mitigation for large local port projects.
    Thank you for the opportunity to submit this request.
                                 ______
                                 

  Prepared Statement of Merv George, Jr., Chairman, Hoopa Valley Tribe

    On behalf of the Hoopa Valley Tribe of California, I express our 
appreciation for the opportunity to submit testimony regarding the 
fiscal year 1999 Bureau of Reclamation (BOR) budget. A summary of our 
fiscal year 1999 funding request follows:
  --Support Administration's position that existing laws provide 
        authority to support Trinity River Division fish and wildlife 
        management and restoration activities.
  --Request that $13,000,000 be provided for Trinity River fishery 
        management requirements within the Trinity River Division of 
        the Central Valley Project for continuing fish and wildlife 
        management programs of tribal, state, Federal, and local 
        entities and for the Comprehensive Co-Management Agreement 
        between Hoopa Valley Tribe and BOR.
  --Support proposed funding increase for the Klamath Project and 
        request an additional $900,000 for the Karuk and Klamath 
        Tribes.
  --Request $175,000 from the General Activities Planning budget for a 
        feasibility study for upgrading the Lewiston generator, and for 
        Trinity River green sturgeon and Pacific Lamprey population 
        studies.
  --Support the Native American Affairs proposed budget and request an 
        increase of $1,000,000 for additional assistance to Indian 
        tribes.
                               background
    The Trinity River in northern California is the largest tributary 
to the Klamath River, the second largest river system in California. 
Since time immemorial, the Klamath Basin provided sustenance to Native 
Americans of the region. The Klamath River Basin is the aboriginal 
territory of Hoopa Valley, Karuk, Klamath, and Yurok Tribes. Further, 
the Klamath River was fundamental to the economic health of northern 
California providing viable recreational and commercial salmon 
fisheries.
    In 1963, BOR completed construction of the Trinity River Division 
of the Central Valley Project (CVP). The Trinity River Division 
provides an estimated fourteen percent of the total water yielded by 
the CVP.
    Shortly after completion of the Trinity Dam, and subsequent 
diversion of up to 90 percent of the stream flows at the diversion 
point (near Lewiston, California) from the Trinity River, the fishery 
began to seriously decline. Through the 1980's, corresponding declines 
of up to 80 percent of the salmon and steelhead populations occurred. 
In response to dramatic declines in Trinity fish stocks, the Secretary 
of Interior approved development of a flow evaluation study in 1981 to 
determine stream flow needs for fish restoration. Further, Congress 
recognized the seriousness of the problem, and enacted the Trinity 
River Restoration Act (Public Law 98-541, 1984) which, with subsequent 
amendments, authorized approximately $70,000,000 in an attempt to 
reverse the decline of the fishery resources within the Trinity River 
Basin. Moreover, the downward trend in Trinity fish populations is best 
reflected by recent listing of coho salmon under the Endangered Species 
Act (ESA) and proposed listings of steelhead and chinook fish stocks of 
the Klamath/Trinity Rivers.
    While much work has been accomplished to date, it is recognized 
that continual monitoring will be necessary to provide insight on 
status of resources, evaluation of restorative measures, and 
recommendations for further restoration. Primary among the scientific 
achievements to date has been the development of in-stream flow 
criteria which quantify the benefits to salmonids of retained flows in 
the Trinity Basin. These criteria, developed over the entire course of 
the Restoration Program, provide a basis for the Secretary's flow 
decision, due in fiscal year 1999. These criteria are not static, 
continual monitoring shall be necessary to evaluate the 
interrelationship between flow volume and timing and the influence on 
fishery habitat.
    In spite of many years of research into Trinity River ecosystem 
processes, considerable uncertainty persists in regard to downstream 
impacts of water releases from Lewiston Dam. These uncertainties are to 
be addressed via an Adaptive Management Plan (AMP) under the direction 
of the Interior Secretary. Long-term monitoring and research are 
essential to the AMP, and would measure how well river ecosystem health 
objectives identified in the Trinity River Flow Evaluation Study are 
met.
              narrative justification and funding requests
    1. The Tribe is in agreement with the Administration's legal 
conclusions contained in the fiscal year 1999 Budget Justification and 
Annual Performance Plan--Trinity River Division--that existing 
authorities provide ample justification for expenditures on fish and 
wildlife restoration within the Trinity River. The 1955 Act creating 
the Trinity River Division, Trinity River Fish and Wildlife Restoration 
Act as amended, and the Central Valley Project Improvement Act (CVPIA) 
mandate that the Department of the Interior restore and maintain fish 
and wildlife populations with CVP funds. Furthermore, Congress 
acknowledged the reserved fishing rights of the Hoopa Valley Tribe in 
the CVPIA.
    Therefore, the Tribe supports the legal conclusions contained in 
the fiscal year 1999 Budget Justification and Annual Performance Plan 
for the Bureau of Reclamation.
    2. Funding Request for Fish and Wildlife Management. While the 
fiscal year 1999 Bureau of Reclamation Budget Justification and Annual 
Performance Plan provides supportive language for the Trinity River 
Division, it proposes to reduce the fiscal year 1999 Trinity Division 
Fish and Wildlife Management and Development by 53 percent compared to 
fiscal year 1998 funding ($6.383 million), the largest reduction of any 
Division in the CVP. If implemented, the proposed budget will result in 
significant reduction or elimination of critical programs in which the 
Trinity River Restoration Program's $70,000,000 were invested over the 
past decade. Furthermore, the proposed budget would eliminate most of 
the benefits expected from the Secretary's upcoming Trinity River flow 
decision and implementation of the AMP.
    In January 1998, agencies responsible for managing the Trinity 
River fishery resources determined that $13,000,000 was needed annually 
to fund a comprehensive management approach within the Trinity River 
Basin in order to restore the fishery resources to pre-dam levels. The 
Hoopa Tribe participated in the development of this effort and 
recommends that it be fully funded in fiscal year 1999.
    Therefore, the Tribe requests that the Committee provide 
$13,000,000 for Fish and Wildlife Management and Development within the 
Trinity River Division budget.
    Further, the Tribe requests that the Committee continue support for 
the Co-Management Agreement between the Tribe and BOR at a level of 
$2,500,000 for implementation in fiscal year 1997. The requested 
funding would enable Hoopa to continue its involvement in water project 
operations planning, environmental impact analysis, hatchery 
investigations, fisheries management, and facilitate inter-governmental 
forums to accelerate resource restoration through unified management 
actions.
    In its sixth year, the Co-Management Agreement between Hoopa and 
BOR has contributed not only to the fulfillment of the Federal trust 
responsibility to Native Americans, but has also served to bring 
Federal, State, Tribal, and local management agencies together into a 
constructive and cooperative forum for managing fishery and water 
resources within the Trinity River Basin.
    3. Support proposed funding increase for the Klamath Project and 
request an additional $900,000 for the Karuk and Klamath Tribes. Both 
Tribes are involved with the restoration and protection of Trust 
resources in the Klamath River including active technical and policy 
involvement in water quality and quantity studies designed to improved 
the ecosystem health of the upper Klamath Basin. Endemic suckers are 
listed under the ESA in upper Klamath Lake as well as the depressed 
status of salmon and steelhead would benefit from increased Tribal 
involvement.
    4. Request $175,000 from the General Activities Planning budget for 
a feasibility study for upgrading the Lewiston Hydro-power generator, 
green sturgeon and Pacific Lamprey studies. Of the flow recommendations 
for future management of the Trinity River Division, it is expected 
that the decision of the Secretary of the Interior will result in 
reduced diversions of Trinity River flows into the CVP. While being 
greatly beneficial for the Trinity River fishery resources and 
upholding the Federal trust obligations to Indian tribes, the decision 
will likely result in reducing the amount of electricity presently 
being generated by diversion of Trinity River flows. To compensate for 
this situation, the Tribe requests that $100,000 be provided from 
Reclamation's General Activities Planning budget for determining the 
feasibility of increasing the capacity of the Lewiston generators in 
anticipation of the increased flows in the Trinity River. Another 
expected benefit of increased generation of electricity from the 
Lewiston generator is the possibility of using its revenues to pay for 
future fish and wildlife restoration activities within the Trinity 
River Basin, thereby reducing the long-term costs to the Federal 
Government.
    In addition, the Tribe requests that $75,000 be provided for 
conducting population and survival studies for Trinity River green 
sturgeon and Pacific Lamprey, both of which are important species to 
the Klamath and Trinity River Indian tribes and have been negatively 
impacted by the construction and management of the Trinity River 
Division.
    5. Support the Native American Affairs proposed budget request and 
an increase of $1,000,000 for additional assistance to Indian tribes. 
The Reclamation Native American Affairs program has proven to be a very 
beneficial program for both the Federal Government and Indian tribes 
while trying to resolve tribal and Federal water and fishery management 
issues. Without a doubt, the Native American Affairs Program has been 
instrumental in reducing the possibility of costly litigation and 
disputes between Reclamation and Indian tribes.
    The Tribe fully supports the continuation of the Native American 
Affairs Program and requests that the budget be increased by $1,000,000 
in order to provide further assistance to Indian tribes and Reclamation 
offices.
                          results anticipated
    Trinity Restoration Program.--Effective protection of fisheries, 
critical to the Hoopa Valley and Yurok tribes and the economic 
stability of the fishery dependent communities of northern California 
and southern Oregon, is promoted through collective forums and habitat 
improvement actions of the Trinity Restoration Program. Identification 
and implementation of specific remedies and monitoring of fishery 
trends are expected results of Restoration Program.
    While many on-the-ground achievements have already been realized, 
many critical elements have yet to be completed. Among the expected 
outcomes of the Program for 1998 is the completion of the Environmental 
Impact Statement to assist the Secretary with implementation of in-
river flows required for full restoration of salmonid populations in 
the Trinity River as mandated under Public Law 102-575. This decision, 
originally mandated for fiscal year 1998, was delayed due to incomplete 
environmental impact analysis. It is now anticipated that completed 
environmental documentation shall be available to support the 
Secretary's Decision expected in fiscal year 1999.
    Tribal/Reclamation Co-Management Agreements and Native American 
Affairs Program.--The Co-Management Agreements will continue to assist 
in the coordination of Federal, State, Tribal and local activities 
(management and research) impacting salmon fisheries and salmon habitat 
of the Klamath and Trinity rivers. By illustration, accomplishments 
under this agreement in fiscal year 1997, included maintenance of data 
collection and analysis programs critical to the integrated management 
of the Klamath and Trinity fishery resources. Both Reclamation and the 
Tribe agree that a wise investment has been made to develop a 
comprehensive foundation for fishery restoration. This foundation 
includes on-the-ground restoration work, assembly of scientific data on 
fisheries and habitat, and the integration of multiple jurisdictions 
affecting salmon survival. It is now important to insure that this 
investment provides the desired results of a fully restored Trinity 
River Basin.
    The General Activities Planning budget request will assist the 
Tribes, agencies and private interests to develop opportunities for 
compensating for the loss of electricity caused by increased Trinity 
River flows. The Green Sturgeon and Pacific Lamprey population and 
survival studies will provide some of the first information for 
development long-term management programs for the species. While green 
sturgeon and Pacific Lamprey are important species to Indian tribes, 
and their maintenance is part of the Federal Government's trust 
obligations, limited funding has prevented the development of 
management programs for the stocks.
                               conclusion
    Although Hoopa's relationship with BOR has improved significantly 
in recent years, it is clear that the fishery management problems 
associated with the Central Valley Project and Klamath Project 
operations persist. Resolution of these issues may only be assured 
through the continued commitment by the Tribe and BOR to ongoing co-
management of these important resources.
    Again, I appreciate the opportunity to submit testimony regarding 
BOR's fiscal year 1998 budget. I am available to discuss these matters 
with you in more detail at your convenience.
    Thank you.
                                 ______
                                 

     Prepared Statement of the Sacramento Area Flood Control Agency

    We appreciate the opportunity to provide testimony to this 
Subcommittee, and extend our sincere appreciation for your past support 
of this community's efforts to protect the citizens and properties in 
the capital city of California. In our continuing efforts to protect 
the Sacramento metropolitan area, Sacramento Area Flood Control Agency 
(SAFCA), and its member agencies, supports the following Federal 
appropriations:
    American River (Common Elements).--$26.0 million for funding of the 
American River Common Elements construction, following funding for last 
year's new start, to maintain an efficient construction schedule.
    American River (Comprehensive Plan).--$4.0 million for continued 
Preconstruction, Engineering, and Design and $1.0 million Construction 
funds in anticipation of Congressional authorization in the 1998 WRDA 
for the next element in the comprehensive plan to reduce the 
significant flood risk on the American River.
    American River (Natomas).--$10.6 million for Construction 
reimbursement to SAFCA for the Federal cost share of flood control 
improvements, constructed locally, protecting portions of Sacramento; 
and supporting the City of Sacramento's Construction funding request 
for the Corps to build the recreational components of the project in 
the Ueda Parkway, all consistent with the federally authorized project.
    Sacramento River bank protection.--$10.1 million for Construction 
of bank protection sites along Sacramento and American Rivers 
throughout Northern California protecting the adjacent levees (includes 
$7.1 million for American River sites through Sacramento).
    South Sacramento streams group.--$900,000 to continue Pre-
construction, Engineering, and Design efforts on the project protecting 
over 100,000 residents in South Sacramento.
    Magpie Creek.--Funding under Section 205 Continuing Authorities to 
initiate Construction of improvements along Magpie Creek Diversion 
Channel which convey flood flows from McClellan Air Force Base safely 
downstream through North Sacramento.
    Strong Ranch and Chicken Ranch Sloughs.--$100,00 for a 
Reconnaissance study of the flood risk and alternatives along the lower 
reaches of these creeks which feed into the American River.
    Sacramento sits at the confluence of two major rivers with over 
400,000 residents, 150,000 homes, 5,000 businesses, the State Capitol, 
and 1,300 government facilities at risk in a major flood. The U.S. Army 
Corps of Engineers (Corps) has characterized Sacramento as the urban 
area with the worst flood risk in the nation and addressing this 
problem is our region's most critical infrastructure issue. A major 
flood on the American River which exceeds the capacity of the existing 
flood control system would cause a minimum of $7 billion in damages and 
could reach as high as $16 billion depending on the size of the flood. 
The five largest recorded floods of the century on this watershed have 
all occurred after 1950, including the two largest floods within the 
last eleven years (1986 and 1997). It is unclear if this signals a 
shift in our meteorologic climate, but it is clear the flood risk today 
is much greater than was thought 50 years ago when the original flood 
control system was built. In fact, our existing infrastructure (Folsom 
Dam and the downstream levees), which was designed to protect 
Sacramento from a 250-300 year flood, provides only 77-year flood 
protection. This means there is a 33 percent chance of having a $7 to 
$16 billion disaster over the next 30 years which would be the worst 
flood disaster in this nation's history.
    We as a community have not been sitting idly by since our near 
disaster in 1986. Over $75 million in local funds have gone into 
engineering studies and flood control improvements in our region. 
Accomplishments include strengthening levees along the Sacramento 
River; raising and constructing new levees in North Sacramento and 
Natomas; negotiating an agreement for more flood space at Folsom; and 
restoring bank erosion sites along the Lower American River before they 
impact the adjacent levees. These improvements played an important role 
in avoiding the devastating flood damages experienced by our neighbors 
to the north and south during the last two years. In addition, we have 
systematically re-evaluated the flood control system protecting this 
region and identified the projects necessary to avoid the catastrophic 
impact of a major flood. SAFCA hereby supports the following Federal 
appropriations for fiscal year 1999 to advance these critical flood 
control projects in the metropolitan Sacramento area:
American River Project
    When Folsom Dam was completed along the American River in 1955, 
Sacramento was thought to have a very high level of flood protection 
(250 to 300 year) consistent with other urban areas in the nation. 
However, as described above, the five largest floods of this century on 
the American River have all occurred in the last 50 years which has led 
to a reduction in our credited flood protection provided by Folsom and 
the downstream levees to only a 77-year level; significantly less than 
the authorized project in the 1950's and substantially less than other 
similarly situated major urban areas around the nation including St. 
Louis, Kansas City, Dallas, Omaha, Minneapolis, and Pittsburgh.
    Following exhaustive feasibility studies by the Corps looking at 
all the flood control alternatives, Sacramento unsuccessfully sought 
Congressional authorization of a comprehensive flood control project on 
the American River in 1992 and again in 1996. We will return to 
Congress this year requesting authorization for additional measures to 
improve our flood protection on the American River as part of the 1998 
Water Resources Development Act. Therefore, we are requesting $4.0 
million in Pre-Construction Engineering and Design so the Corps may 
expeditiously advance implementation of this element. In addition we 
are seeking $1.0 million in Construction funds to begin construction 
next year on appropriate elements of the project, based on anticipated 
Congressional authorization of the additional flood control measures. 
Any delays in design due to funding constraints will mean another 
year's delay in providing improved flood protection and exposure to a 
multi-billion dollar flood disaster.
    Common elements.--As part of the 1996 WRDA, Congress did authorize 
additional levee improvements around Sacramento, including 26 miles of 
levee stabilization along the lower American River, raising and 
strengthening 12 miles of the east levee of the Sacramento River south 
from the Natomas Cross Canal, three new telemetered gauges and other 
early flood warning improvements along the American River. As the 1997 
floods in Northern California have demonstrated, we must continue to 
stabilize and rehabilitate our existing system of levees to carry even 
their intended design flows. The levee modifications authorized under 
this project complement work done by the Corps in the early 1990's 
along the Sacramento River and will complete the job of stabilizing the 
existing levees protecting this community. Notwithstanding a $9.4 
million budget and appropriation in fiscal year 1998, the Clinton 
Administration has included only $1.0 million in construction funds for 
fiscal year 1999 which is substantially less than the $26.0 million 
needed to allow completion of the project on an efficient construction 
schedule. We are requesting this Committee's support for the full $26.0 
million to keep this critical project on schedule.
    North area (Natomas) Levee improvements.--In 1992, when Congress 
opted not to authorize the full locally preferred comprehensive project 
for the American River, it did authorize the levee elements in and 
around the Natomas basin and North Sacramento. The authorizing language 
included Federal authorization for reimbursement for locally 
constructed levee improvements consistent with the Federal project. By 
borrowing heavily and assessing affected communities SAFCA proceeded 
with construction of the authorized improvements and has rapidly 
completed $60 million in flood control improvements which helped to 
prevent flooding in 1997 and again in February of 1998. This borrowing, 
coupled with additional future flood control obligations, has severely 
strained SAFCA's financing capability to the point we must now seek 
Federal reimbursement for this project as provided for under Federal 
legislation. The Assistant Secretary of the Army has directed the Corps 
to negotiate and execute a crediting/reimbursement agreement with 
SAFCA. This agreement, which will be ready for execution later this 
year which will provide the basis for reimbursement of not less than 
$20 million agreed to by the Corps, and ultimately allow SAFCA to 
obtain up to approximately $39 million in Federal reimbursement. 
Congress included $10 million in fiscal year 1998 ($9.4 million net of 
savings and slippage) and we are seeking an additional $10.6 in fiscal 
year 1999 to complete the Federal share of the improvements described 
in the Chief's Report. These funds can be used to stabilize SAFCA's 
financing capability so that additional flood control improvements 
could be planned and constructed.
    In addition, SAFCA supports the City of Sacramento's efforts to 
obtain $3.9 million in construction funds for implementation of the 
recreational improvements along the City's Ueda Parkway which were 
included as part of the federally authorized project described above. 
The recreational components are an integral part of making this 
floodway a comprehensive multi-use parkway for the citizens in North 
Sacramento and Natomas.
Sacramento bank protection project (American River Levees)
    SAFCA, the State of California and the Corps have found that bank 
protection improvements are needed to stop erosion which threatens 
urban levees along the lower American River. Over the last three years, 
SAFCA has led a collaborative process through which flood control, 
environmental, and neighborhood interests have reached agreement on how 
to complete this work in a manner which protects the sensitive 
environmental and aesthetic values of the American River. As a result, 
a bank protection program for the next several years has been 
established which will address the serious erosion problem before it 
impacts the levee system. Construction on this project commenced in 
1996. The President's proposed budget includes $7.1 million in 
construction funds which includes funding for the American River sites 
in fiscal year 1999. The State has identified additional bank 
protection sites outside the Sacramento area which increases the 
construction funds needed in fiscal year 1999 to $10.1 million. SAFCA 
supports this funding which provides for an efficient construction 
schedule on the lower American River sites.
South Sacramento streams project
    In 1995, over 300 homes in the South Sacramento area were flooded 
as rain swollen creeks could not accommodate the local runoff from 
nearby subdivisions. The water in the adjacent creeks reached to within 
a foot, and in some areas less, of overtopping the levees and channels 
and flooding adjacent residential subdivisions. The recently completed 
Feasibility Study by the Corps shows much of the urban area of South 
Sacramento has less than 50-year flood protection from these urban 
streams. There are over 100,000 people and 41,000 structures in the 
floodplain of Morrison, Unionhouse, Florin and Elder Creeks which make 
up the study area. Because of the significant flood risk, SAFCA 
constructed a portion of the levee improvements using local funds in 
1996 under the U.S. Army Corps of Engineers Section 104 crediting 
provisions. SAFCA, as the local sponsor, has selected a project which 
provides the entire area with a consistent 500-year level of flood 
protection. We are seeking authorization of this project as part of the 
1998 WRDA and are urging your Committee's support for the President's 
budget request of $900,000 for continued Pre-construction, Engineering 
and Design in fiscal year 1999.
Magpie Creek (Section 205 Continuing Authorities Program)
    The City of Sacramento and American River Flood Control District, 
both member agencies of SAFCA, have been the local sponsors of a 
Section 205 study on Magpie Creek in northeastern Sacramento. The 
Magpie Creek Diversion Project, constructed by the Corps in the 1950's 
as an extension of the Sacramento River Flood Control Project, is 
inadequate for even the 100-year flood event using new hydrologic data. 
The resulting floodplain impacts residential and commercial 
developments downstream as well as impacts Interstate 80, the major 
east-west transportation route through Sacramento. These improvements 
have a benefit to cost ratio of 2.5 to 1 and not only protect existing 
urban development but are essential to provide capacity for future on-
base improvements to allow for orderly redevelopment activities as part 
of the base conversion process. Congress earmarked funds in last year's 
Energy and Water Appropriations bill to initiate work on this project, 
but construction has been delayed. SAFCA supports the Administration's 
proposed fiscal year 1999 budget for the Section 205 Program and 
requests the Corps be directed to initiate construction of the Magpie 
Creek Diversion Project within these available funds.
Lower Strong and Chicken Ranch Sloughs
    SAFCA, in cooperation with Sacramento County, request this 
Committee's support for inclusion of $100,000 in the fiscal year 1999 
Federal budget for a Reconnaissance Study of the Lower Strong and 
Chicken Ranch Sloughs. Floodwaters from these urban streams are 
collected at the base of the American River levees and pumped into the 
river. In 1986 and again in 1997, the limited channel and pumping 
capacity led to significant flood damages to a number of residential 
and commercial structures. Most of the flooding occurs when the 
American River is at a high stage due to releases from Folsom Dam. The 
original pump station was built by the Corps as part of the American 
River and Folsom project in the 1950's but has proven inadequate with 
the revised hydrologies. The County has done some limited studies; 
however, the scope of the potential solutions and the direct relation 
to the Federal project have led to the conclusion the Corps is the most 
appropriate agency to conduct the study.
                                 ______
                                 

  Prepared Statement of Beverly O'Neill, Mayor, City of Long Beach, CA

    Chairman Domenici, thank you for the opportunity to submit written 
testimony regarding the fiscal year 1999 Energy and Water 
Appropriation's requests for the City of Long Beach. Long Beach is a 
City of 440,000 people, the second largest City in Los Angeles County 
and home to the nation's busiest Port.
    The City's number one priority is an appropriation of $60 million 
for the Los Angeles County Drainage Area (LACDA) flood control project. 
The LACDA flood control project, under which the United States Army 
Corps of Engineers is the Federal sponsor and the County of Los Angeles 
is the local sponsor, is the largest flood control project in the 
nation.
    The LACDA project has been endorsed by the County of Los Angeles, 
the City of Long Beach and the Los Angeles County Drainage Area (LACDA) 
Alliance--an organization made up of the seven floodplain cities 
(Bellflower, Carson, Downey, Lakewood, Paramount, Pico Rivera, and 
South Gate). This project is the result of more than ten years of 
study, during which time more than 20 alternative plans were evaluated. 
The LACDA project will provide the necessary flood protection from a 
133-year storm event. Without the level of flood protection that this 
cost-effective project will provide, our region remains vulnerable to 
as much as 82 square miles of flooding in the event of a 100-year 
storm--affecting more than half a million people in 11 cities. The 
damage could total more than $2.3 billion.
    Unfortunately, the fiscal year 1996, 1997 and 1998 Budget 
recommendations greatly under-funded the LACDA project, with only $11 
million recommended in fiscal year 1998. It was only after Congress 
added to the appropriations bill last year that the total Federal 
commitment for LACDA reached $21 million. Due to a consistently 
inadequate level of funding, the original four-year construction 
schedule has been extended to at least six years. The $60 million 
request for fiscal year 1999 will put the project back on a schedule 
that is closer to the original completion date. The Corps has assured 
City officials that they are capable of conducting $60 million of work 
in fiscal year 1999.
    Recent action by another Federal agency has made it even more 
imperative that completion of the LACDA project remain on schedule. At 
the end of October, 1997, the Federal Emergency Management Agency 
(FEMA) promulgated new rules that will require property owners within 
the Los Angeles floodplain to purchase flood insurance and impose 
severe building restrictions slowing the region's economic recovery. 
Timely construction of the LACDA project will lessen the amount of 
economic dislocation caused by the FEMA-imposed rules and ultimately 
will eliminate the need for the insurance and building restrictions. As 
it exists now, property owners in the region will be required to pay up 
to $130 million annually for flood insurance, while there exists no 
Federal commitment to fully fund the project to a timely completion.
    Mr. Chairman, the President's fiscal year 1999 Budget 
recommendations greatly under-funded the project at $11 million. On 
behalf of the citizens of Long Beach and the region, it is respectfully 
requested that you add $49 million for construction in the fiscal year 
1999 Energy and Water Appropriations bill for a total of $60 million 
for this vital flood control project. This will help to minimize the 
economic hardship to our citizens and to prevent potential flooding.
    The City of Long Beach also requests $6 million for the dredging of 
one million cubic yards of sediment from the channel of the Los Angeles 
River estuary. Due to the annual storm season and the El Nino 
condition, the channel has been impacted by an unusually high level of 
sediment accumulation at the Los Angeles River estuary. This 
accumulation is now threatening the navigation channel that provides 
water transportation for vital goods and services to Catalina Island.
    The threatened situation of the Los Angeles River could not come at 
a worse time for the City of Long Beach. On June 20, 1998, the City 
will open the Queensway Bay Project to the public. The Queensway Bay 
Project is a 300-acre oceanfront development that will include a major 
retail area, Rainbow Harbor, and the Long Beach Aquarium of the 
Pacific. This project is the focus of the City's economic recovery 
program as we seek to overcome the loss of over 500,000 jobs due to the 
Navy Station and Shipyard closure and the cutback in aerospace. The 
closure of the navigation channel and the loss of the Catalina Island 
ferry service would deal a serious blow to the City's tourism and 
convention business.
    Another important component of the City's economic recovery plan is 
a request for $10.5 million for the completion of the Queens Gate 
Navigation Project at the Port of Long Beach. This project is of 
national economic significance and is critical to the Port and the 
Federal Civil Works mission. Construction will consist of deepening the 
channel to 76 feet to accommodate larger ships and allow them access to 
the already deepened channels inside the breakwater. By deepening the 
channel, significant economies will be achieved and thus, allow the 
Port of Long Beach to remain the largest customs revenue contributor to 
the U.S. Treasury of any other port in the nation. We respectfully urge 
your assistance in providing the $10.5 million needed to complete 
construction of the approach channel.
    Mr. Chairman, that concludes my written testimony. The City of Long 
Beach greatly appreciates the subcommittee's attention to these three 
vital funding requests.
                                 ______
                                 

    Prepared Statement of Gloria Exline, Mayor, City of Vallejo, CA

    On behalf of the citizens of Vallejo, please accept the enclosed 
written testimony for consideration in the establishment of the fiscal 
year 1999 Corps of Engineers Maintenance Dredging Budget. As indicated 
in the enclosed testimony, the funding of this project is critical to 
the continued recovery of the City of Vallejo and the surrounding 
communities of the San Francisco Bay Area from the effects of the 1993 
Base Closure and Realignment Process.
    Thank you for your consideration of this project and I look forward 
to your approval in the near future.
                  federal maintenance dredging project
    As you are aware, under the 1993 BRAC the Mare Island Naval 
Shipyard was closed in April 1996. This closure resulted in the loss of 
over 7,000 jobs and had a detrimental economical impact on our 
community with the ensuing loss of numerous businesses. The economic 
impact to Vallejo and neighboring communities was nearly one-half a 
billion dollars annually. In anticipation of the closure of Mare Island 
Naval Shipyard, the City initiated an aggressive program plan for the 
reuse of this facility. The City has been a leader in the development 
of a conversion plan with the Final Reuse Plan approved by the Vallejo 
City Council on July 6, 1996, and its environmental certification to be 
scheduled to be completed by the U.S. Navy by July 1998.
    In response to the need to provide for the reuse of Federal 
military bases that were closed, Congress approved the Water Resources 
Development Act of 1996. Section 509 of this Act specifically 
designates Mare Island as one of eleven waterways that the Corps of 
Engineers assumed dredging responsibilities. The Corps included the 
dredging of the main channel of Mare Island Strait in their yearly 
dredging maintenance program. This dredging project, however, does not 
include the dredging of critical public and private facilities on the 
eastern shore of Mare Island Strait. The City of Vallejo is seeking 
support for the inclusion of $100,000 in the fiscal year 1999 Corps of 
Engineers budget for the preparation of a Reconnaissance Study that 
will provide the economic justification for the dredging of five 
critical areas on the eastern shore of Mare Island Strait as part of 
the Federal Maintenance Dredging Project for the Strait.
    The proposed expansion for the Mare Island Federal Maintenance 
Dredging Project would expand the existing project to include dredging 
access from the existing Federal Channel to the City Marina, City Ferry 
Dock, adjacent commercial areas, small boat launch area, and two 
important private commercial industrial properties along the waterway. 
The dredging of these areas is critical to the commercial development 
of both shorelines of the Mare Island Strait and will generate jobs 
throughout the San Francisco Bay Area. As indicated in the 1997 
California Marine Affairs and Navigation Conference Study, for each 
dollar of investment in California's ports and harbors, $812 is added 
to the Gross Domestic Product of the nation. Additionally, for each 
$4,056 spent on dredging, one permanent job is developed.
    The benefits of this proposed project to Vallejo's waterfront and 
downtown area cannot be overstated. Some specific benefits are:
  --Provide for continued vessel access to public facilities and 
        commercial/industrial properties along the Strait.
  --Ensure the continued and safe operation of the City's ferry system 
        which provides a critical transportation link for the citizens 
        of Vallejo and surrounding cities throughout the San Francisco 
        Bay Area.
  --Promote the economic development of commercial and industrial 
        properties along the eastern side of the Mare Island Strait.
  --Mitigate any potential adverse impact of the existing Federal 
        Maintenance Dredging Project will have on the eastern portion 
        of the Mare Island Strait.
  --Help preserve water quality in San Francisco Bay by providing 
        access to sewer pump facilities at the Vallejo Marina and Ferry 
        Terminal.
  --Enhance the conversion of Mare Island from military to civilian 
        use, as well as the Vallejo waterfront and adjacent downtown 
        area by generating new jobs that would replace those lost by 
        the closure of the Mare Island Naval Shipyard in April 1996.
    In closing I would like to thank Chairman Domenici and members of 
the Subcommittee on Energy and Development for their support and the 
opportunity to provide the above information for consideration. If you 
have questions or require additional information, please do not 
hesitate to contact the Alvaro P. da Silva, Director of Community 
Development, City of Vallejo, at (707) 648-4579.
                                 ______
                                 

    Prepared Statement of Donald Bransford, President, Glenn-Colusa 
                          Irrigation District

    Mr. Chairman, Members of the Subcommittee, my name is Don 
Bransford. I am a rice farmer from Colusa County, California, and I am 
President of the Board of Directors of the Glenn-Colusa Irrigation 
District (GCID).
    I appreciate the opportunity to testify before you this morning 
regarding the federal funding priorities for GCID. I also appreciate 
the Subcommittee's past efforts to address our concerns.
    GCID is the largest and one of the oldest diverters of water from 
the Sacramento River with water rights that date back to 1883. The 
District delivers water to more than 1,200 families who have about 
141,000 acres of valuable, productive agricultural land in Glenn and 
Colusa Counties. More than $270,000,000 in agricultural commodities are 
produced annually on GCID farms, helping to sustain an estimated 12,000 
jobs in the region.
    The District also wheels surface water to three wildlife refuges--
the Sacramento, Delevan and Colusa National Wildlife Refuges--that 
cover some 20,000 acres in the heart of the Sacramento Valley. Winter 
water supplied by the District to thousands of acres of rice land also 
provides a rich oasis for migrating waterfowl.
    The District is firmly committed to obtaining lasting protection of 
the winter-run salmon and other fishery resources at the Hamilton City 
Pumping Plant. Over the last several years, the District has invested 
over $3,500,000 in the construction of an interim flat-plate fish 
screen and other improvements to provide immediate protection to the 
endangered winter-run chinook salmon and other fish species. Since the 
installation of the flat-plate fish screen, there have been no fish 
taken into the GCID pumping plant. We are operating under a zero take 
limit for the winter-run chinook salmon, and constant monitoring has 
revealed no evidence of take having occurred at the plant.
    While the new flat-plate screen, installed in late 1993, has been 
very effective, it is only an interim solution. Permanent protection is 
needed. Without a new permanent fish screen, the District will continue 
to face pumping restrictions that will hold water deliveries by the 
District to just 65 percent of the District's full water entitlement.
    On behalf of GCID, the fishery and all of those whose economic fate 
is tied to the recovery of the winter-run salmon, I respectfully 
request that you provide $10,000,000 for the Bureau of Reclamation in 
fiscal year 1999 to advance work on a permanent new fish screen at the 
Hamilton City Pumping Plant. This is $2.1 million above the budget 
request of $7.9 million, and it is critical to the timely completion of 
this essential fish protection project.
    Without such a commitment of funds, construction will be delayed. 
That will mean less water for the farmers, a less speedy recovery of 
the fishery and less revenue for the federal Treasury, all because of 
reduced water deliveries. Failure to provide the funds necessary to 
advance the project represents a lose-lose-lose proposition. It is bad 
for the taxpayers, it is bad for the farmers and it is bad for the 
fishery resource. Again, I urge you to provide an allocation of 
$10,000,000 to keep the project moving forward on an optimum schedule.
    For the U.S. Army Corps of Engineers, GCID requests the Committee's 
support of an appropriation of $2,000,000, under Corps of Engineers, 
Construction, for the Sacramento River, Glenn-Colusa Irrigation 
District, gradient restoration project. This request, which is $1.3 
million above the amount provided in the budget request, is needed to 
keep this important component of the GCID fish protection program on 
schedule. In addition, the gradient facility is critical to ensuring 
the long-term viability of the new fish screen structure under changing 
river conditions.
    Finally, Mr. Chairman, GCID requests that the Subcommittee provide 
$8,000,000, under the Bureau of Reclamation, CVP, Miscellaneous Project 
Programs, Refuge Water Supply, an increase of $3,500,000 above the 
budget request, to expedite work on the facilities needed to convey a 
continuous, year-round water supply to three National Wildlife Refuges 
in the Sacramento Valley (the Sacramento, Delevan and Colusa National 
Wildlife Refuges). These funds will enable year-round deliveries of 
water to the refuges to start in calendar year 1999, and, at the same 
time, allow water to be made available for the creation of additional 
waterfowl habitat. The project will also have fishery benefits. And, it 
will allow local groups to work with the federal agencies to pursue the 
creation of fish spawning habitat in Stoney Creek. This project is the 
most efficient and least costly way to provide expanded water service 
to the Sacramento Refuge complex, as required by the Central Valley 
Project Improvement Act.
    Mr. Chairman, Members of the Subcommittee, on behalf of GCID, I 
would like to express my appreciation for your past support of our 
efforts to address the GCID-related fish and wildlife protection 
projects, and I respectfully request your support once again in the 
fiscal year 1999 Energy and Water Development Appropriations Act.
    Thank you for your consideration.
                                 ______
                                 

 Prepared Statement of Michael D. Armstrong, General Manager, Monterey 
                     County Water Resources Agency

    Mr. Chairman, thank you for the opportunity to provide testimony 
for inclusion in the hearing record of the fiscal year 1999 Energy and 
Water Development Appropriations bill. The people of the Salinas Valley 
in California's 17th Congressional District appreciate your willingness 
to accept our statements in support of the Castroville Seawater 
Intrusion Project. I would further like to express our deep 
appreciation for this Subcommittees' efforts on past Energy and Water 
Development Appropriations bills. I am pleased to report that the 
project is complete and operational.
    As with the past four years the Monterey County Water Resources 
Agency has worked diligently to present the Subcommittee with a fiscal 
year 1999 funding request that is supported by the Administration as 
well as all the other Small Reclamation Loan Program participants. 
Through close consultation with the Bureau of Reclamation and other 
Program participants, we have developed the funding plans that were 
included in the President's fiscal year 1999 budget for the Public Law 
84-984 Small Reclamation Loan Program. I, therefore, respectively 
request that the Subcommittee provide the full Administration request 
for the project of $2.6 million.
    This is the fifth year of an eight year fiscal strategy designed to 
meet the requirements of all the projects in the Program while 
recognizing the fiscal constraints facing all levels of government. 
Originally, the Program was to provide all appropriations ($16,500,000) 
over a three year period. During the past four years this Subcommittee 
provided $6.664 million for our project. The current appropriation 
amount of $2.6 million, when combined with other federal funding which 
is available from the U.S. Treasury in the amount of $2.94 million 
pursuant to the Federal Credit Reform Act of 1990, should yield a total 
loan amount of $5.54 million for fiscal year 1999 that will allow the 
project to proceed on schedule.
    The Monterey County Water Resources Agency (MCWRA) is a local 
government entity formed under the Monterey County Water Resources 
Agency Act. It is an agency with limited jurisdiction involving matters 
related primarily to flood control and water resources conservation, 
management, and development. The Salinas Valley is a productive 
agricultural area that depends primarily on ground water as a water 
supply. The combination of the Valley's rich soils, mild climate, and 
high quality ground water makes this Valley unique among California's 
most fertile agricultural lands and has earned the Valley the 
distinction as the ``Nation's Salad Bowl''. As agricultural activity 
and urban development have increased in the past forty years, ground 
water levels have dropped allowing seawater to intrude the coastal 
ground water aquifers. Seawater intrusion is extensive adjacent to the 
coast near the town of Castroville. The Castroville Seawater Intrusion 
Project will provide 19,500 acre-feet of recycled water annually for 
agricultural irrigation to over 12,000 acres and help solve the 
seawater intrusion problem by greatly reducing groundwater pumping in 
the project area. The Castroville Seawater Intrusion Project is an 
essential component in the MCWRA's plan to deal with basin-wide ground 
water overdraft and seawater intrusion.
    The amount requested in fiscal year 1999, when combined with the 
additional Treasury portion, is intended to fulfill the Bureau's fifth 
year loan commitment for assistance to construct the project. As stated 
above, the funding request that we anticipate is the result of a 
lengthy and complex financial agreement worked out with the other Loan 
Program participants and the Bureau. The agreement recognized the tight 
federal budgetary constraints and represents the absolute minimal 
annual amount necessary to proceed with the project. The MCWRA has been 
extremely accommodating of the Bureau's budgetary constraints and has 
agreed to expend considerable local funds to bridge the federal 
government's budgetary shortfall. Any additional cuts in federal 
funding will jeopardize the complex financing plan for the project.
    In August 1992, the original loan request was submitted to the 
Bureau. Subsequent approval was received from the Secretary of the 
Interior in May 1994. Through extensive discussion and negotiations 
between the MCWRA and the Bureau, a project financing plan was created. 
The Bureau made it quite clear that the original provisions in the loan 
application of full disbursement during the three years of construction 
could not be met due to federal budget shortfalls. As defined in the 
repayment contract, the Bureau will disburse funds to the MCWRA over an 
eight-year period. This means that the MCWRA will receive these funds 
for five years after the project is operational. The fiscal year 1998 
funding provided monies for the first year after completion of the 
project. The MCWRA had to acquire ``bridge financing'' to meet the 
needs of the Castroville Seawater Intrusion Project construction costs. 
Even though the additional private debt service has increased the 
project costs, the critical problem of seawater intrusion demanded that 
the project proceed. The Bureau loan is a crucial link in project 
funding, and it is imperative that the annual appropriations, even at 
the planned reduced rate over eight years, continue. Federal 
appropriations have been received in fiscal years 1995, 1996, 1997, and 
1998 as shown in the table below and must continue in subsequent years 
in accordance with the negotiated agreement in order for the projects 
to be successful. The federal funds requested under the Public Law 84-
984 program will be repaid by landowners in the Salinas Valley with 
assessments that are currently in place. The MCWRA has spent 
approximately $36.0 million of its own funds getting to this point.

                                           FEDERAL APPROPRIATIONS \1\
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                             Received                Requested
                                                                 -----------------------------------------------
                                                                   1995    1996    1997    1998    1999    Total
----------------------------------------------------------------------------------------------------------------
CSIP............................................................   1.064     1.5     2.0     2.1     2.6   9.264
----------------------------------------------------------------------------------------------------------------
\1\ Does not include Treasury portion.

    Mr. Chairman, we urge you and the members of the Subcommittee to 
give your continued support to the Small Reclamation Program and we 
urge the inclusion of funds for the Castroville Seawater Intrusion 
Project. Without your continued support, we will not be able to realize 
the benefit of the work completed over the past several years and the 
Salinas ground water basin will continue to deteriorate, creating a 
significant threat to the local and state economies as well as to the 
health and welfare of our citizens.
    Again, thank you for your support and continued assistance.
                                 ______
                                 

Prepared Statement of Keith Israel, General Manager, Monterey Regional 
                     Water Pollution Control Agency

    Mr. Chairman, thank you for the opportunity today to provide this 
testimony for inclusion in the hearing record on the fiscal year 1999 
Energy and Water Development appropriations bill. But most importantly, 
let me express my sincere appreciation for your continued support for 
the Small Reclamation Projects Loan Program, and specifically, the 
funding for the Salinas Valley Reclamation Project. During the past 
four years, this subcommittee provided $4.8 million for our project. I 
am pleased to report that the funds appropriated thus far have been 
well spent on our project, which began construction in August 1995. The 
new facility was dedicated in October 1997 with full operation planned 
for April 1998.
    The project will ultimately provide 19,500 acre-feet of recycled 
water to land south and west of Castroville where abandonment of wells 
threatens agricultural production and the loss of a portion of rural 
America. It will also reduce discharge of secondary treated wastewater 
to the recently-created Monterey Bay National Marine Sanctuary. In 
addition, the California State Water Resources Control Board 
specifically indicated its strong support for the Salinas Valley 
Reclamation Project in a prior letter to the U.S. Bureau of 
Reclamation.
    The Monterey Regional Water Pollution Control Agency (MRWPCA), a 
joint-powers entity formed under the laws of the State of California, 
was created in 1971 to implement a plan that called for consolidation 
of the Monterey Peninsula and northern Salinas Valley wastewater flows 
through a regional treatment plant and an outfall to central Monterey 
Bay. The plan also required studies to determine the technical 
feasibility of using recycled water for irrigation of fresh vegetable 
food crops (artichokes, celery, broccoli, lettuce, and cauliflower) in 
the Castroville area. These studies were initiated in 1976 and included 
a five-year full-scale demonstration of using recycled wastewater for 
food crop irrigation. California and Monterey County health departments 
concluded in 1988 that the water was safe for food crops that would be 
consumed without cooking. Subsequently, the Salinas Valley Seawater 
Intrusion Committee voted to include recycled water in their plan to 
slow seawater intrusion in the Castroville area.
    In addition, a supplemental water testing program (October 1997 
through March 1998) was initiated to confirm the new plant's removal of 
what are termed ``emerging pathogens.'' These organisms, which include 
Cryptosporidium, Giardia, Cyclospora, and E. Coli, were not evaluated 
in the original study. The preliminary results of the follow-up testing 
program again verify that the water is safe for irrigation of food 
crops.
    As in the past, we have been in close consultation with the Bureau 
of Reclamation and the other Small Reclamation Projects Loan Program 
participants in an attempt to provide the Committee with a consensus 
budget request that has the support of the Administration and the Loan 
Program participants. Based on these discussions, the Administration 
requested, with our support and endorsement, sufficient funding for the 
Salinas Valley Reclamation Project as part of the Bureau of 
Reclamation's Public Law 84-984 Small Reclamation Projects Loan Program 
for continuation of loan obligations. This appropriation amount, $1.7 
million, when combined with other federal funding which is available 
from the U.S. Treasury pursuant to the Federal Credit Reform Act of 
1990, will yield a total loan amount that we believe will meet the 
federal government's commitment for fiscal year 1999. The amount 
requested, when combined with the additional Treasury portion, is 
intended to fulfill the Bureau's fifth-year loan commitment for 
assistance to construct the project.
    As I indicated, the funding request is the result of a lengthy and 
complex financial agreement worked out with the other Loan Program 
participants and the Bureau. The agreement represents the absolute 
minimum annual amount necessary to continue with the project. The 
MRWPCA worked under the premise of accommodating the Bureau of 
Reclamation's budgetary constraints and is expending considerable local 
funds to bridge the federal government's budgetary shortfall. Any 
additional cuts in federal funding will jeopardize the complex 
financing plan for the project.
    The MRWPCA has received Federal Grant and Loan Funds in Federal 
fiscal year 1995, fiscal year 1996, fiscal year 1997, and fiscal year 
1998 through February 23, 1998, as follows:

----------------------------------------------------------------------------------------------------------------
                                                                             Fiscal year
                                                   -------------------------------------------------------------
                                                       1995        1996        1997        1998         1999
----------------------------------------------------------------------------------------------------------------
SVRP..............................................    $900,000  $1,000,000  $1,500,000  $1,300,000  \1\ $1,700,0
                                                                                                              00
SVRP Treasury.....................................     570,000     880,000   1,561,000   1,300,000  ............
FEMA..............................................  ..........      16,805       1,492      35,554  ............
EPA...............................................  ..........      30,144  ..........  ..........  ............
----------------------------------------------------------------------------------------------------------------
\1\ Requested.

    Even though the additional private debt service and bridge 
financing will increase the project costs, the critical problem of 
seawater intrusion demands that the project be continued. The Bureau of 
Reclamation loan is a crucial link in project funding, and it is 
imperative that annual appropriations, even at the planned reduced rate 
over eight years, continue. The federal funds requested under the 
Public Law 84-984 program will be repaid by landowners in the Salinas 
Valley with assessments that are currently in place. Local funds 
totaling $24.2 million have already been spent getting to this point.
    Mr. Chairman, we urge you and the members of the subcommittee to 
give your continued support to the Small Reclamation Projects Loan 
Program, and specifically, funding for the Salinas Valley Reclamation 
Project. Your support and continued assistance for this critical 
project is greatly appreciated.
                                 ______
                                 

  Prepared Statement of Joe Serna, Jr., Mayor, City of Sacramento, CA

    On behalf of the City of Sacramento, I would like to thank you for 
the opportunity to provide testimony to the Senate Appropriations 
Subcommittee on Energy and Water Development in support of fiscal year 
1999 funding for vital flood control protection projects in Sacramento. 
First, I would like to express my appreciation to the Subcommittee for 
all of your efforts in past years to fund flood protection measures for 
the City. As you know, the City is located in the most dangerous flood 
plain in the United States. Despite the efforts of Federal, State, and 
local flood control agencies to counter this threat, the floods of 1995 
and 1997, and this year's heavy El Nino rains have continued the 
concern about the efficacy of present flood control measures.
    Congress in 1996 recognized the potential for immense flood losses 
and damages in Sacramento by including authorization in the Water 
Resources Development Act of 1996 (WRDA 96) for the ``Common Elements 
Project.'' This project includes 24 miles of levee improvements to the 
American River and an additional 12 miles of improvements along the 
Sacramento River levees which protect the City of Sacramento, flood 
gauges upstream of Folsom Dam and Reservoir, and improvements to the 
Flood Warning System along the lower American River. Finally, the 
legislation mandated that Folsom Dam should continue to be operated in 
a manner that increases flood protection for the City, and established 
a federal-local cost share arrangement for replacing any lost power 
and/or water resources.
    Final plans for many of the authorized common elements are 
proceeding on schedule and construction on the major elements (i.e., 
levee strengthening) will begin this summer.
    The U.S. Army Corps of Engineers proposed budget for fiscal year 
1999 recently submitted to Congress provides only $1 million for 
continuation of construction of the Common Elements Project. This level 
of funding is clearly inadequate to keep the project moving forward. In 
fact, the Corps of Engineers' budget accompanying the Project 
Completion Agreement shows that $26 million in Federal funds are needed 
in 1999 to keep this project on schedule. The Common Elements Project 
is a vital first step in our flood control efforts and full funding to 
keep this project on track is essential. Therefore, the City strongly 
recommends and supports approval of $26 million for the Common Elements 
Project so that this vital construction can continue without delay.
    The City of Sacramento has been working in cooperation with the 
Sacramento Area Flood Control Agency (SAFCA) on the construction of 
bank protection improvements which are vital to correct harmful erosion 
along the banks of the American River which threatens the integrity of 
our existing levees. Additional improvements will be needed over the 
next several years to prevent erosion at three other American River 
sites. This work is already authorized under the Sacramento River Bank 
Protection Project which is used to fund erosion control projects 
throughout the Sacramento River System. The President's budget proposes 
$7.08 million for the Sacramento River Bank Protection Project, which 
we fully support and urge the Subcommittee to support.
    Due to the significant flood risk along creeks in the South 
Sacramento area, the U.S. Army Corps of Engineers, SAFCA, and the City 
have been studying ways to reduce potential flooding in this highly 
urbanized area. Reconnaissance and feasibility studies have been 
completed and the President has proposed $900,000 to initiate 
preconstruction engineering and design for the South Sacramento Streams 
project. We urge the Subcommittee to include these funds in the fiscal 
year 1999 Corps of Engineers' budget.
    Under the Corps' Section 205 program, a feasibility study and 
environmental documentation have been completed for a project that 
would provide a high degree of flood protection on Magpie Creek. 
Congress funded this project at $1.44 million last year. This year the 
President has requested $26.5 million for all Section 205 flood control 
projects. We urge the Subcommittee to support Section 205 funding in 
the fiscal year 1999 budget and recommend that the Corps of Engineers 
be directed to provide sufficient funds for completion of the Magpie 
Creek project in its distribution of Section 205 funds.
    For the American River Watershed (Natomas) improvements which were 
authorized by Congress in 1992, we are seeking continued construction 
appropriations for reimbursement to SAFCA for the Federal share of the 
flood control improvements, as well as construction appropriations to 
complete the recreation elements of the project. The Federal share for 
this project which was completed using local funds, is considerably 
higher than the $10 million included in the fiscal year 1998 budget. 
Therefore, we urge the Subcommittee to fund an additional $10.6 million 
in fiscal year 1999 for reimbursement to SAFCA for the flood control 
improvements which have been constructed and $3.9 million for 
completing the recreational improvements which are part of the Ueda 
Parkway.
    The President's Budget for fiscal year 1999 provides for $50,000 in 
Preconstruction, Engineering and Design (PED) funds for the American 
River Watershed comprehensive plan. The City, SAFCA, and the 
Reclamation Board will seek Congressional authorization of additional 
improvements on the American River system as part of the 1998 Water 
Resources Development Act. Once authorized, the Corps of Engineers will 
need significantly more funds to proceed with any meaningful design in 
1999 and not lose a year in the schedule to implement these 
improvements. Therefore, we urge the Subcommittee to support $5 million 
in PED funds for the American River Watershed comprehensive plan.
    In summary, the specific request from the City of Sacramento for 
fiscal year 1999 appropriations for the U.S. Army Corps of Engineers' 
flood control programs are as follows:

American River Common Elements Project..................     $26,000,000
Sacramento River Bank Protection Project................       7,080,000
South Sacramento Streams Group PED......................         900,000
Magpie Creek Project....................................         ( \1\ )
North Area Reimbursement (Natomas)......................      10,600,000
North Area Project (Ueda Parkway).......................       3,900,000
American River Watershed Investigation (PED)............       5,000,000

\1\ Continued necessary funding.

    Thank you for the opportunity to submit this statement and for your 
consideration of the funding that the City of Sacramento needs to 
protect its citizens. Adequate flood protection is essential in this 
most flood-prone of American cities. We thank you again for your 
commitment in previous years to providing this vital protection, and we 
ask for your renewed support in assuring its continuation.
                                 ______
                                 

                     CALIFORNIA NAVIGATION PROJECTS

 Prepared Statement of Alexander Krygsman, Director, Port of Stockton, 
                                   CA

    Mr. Chairman: I am Alexander Krygsman, Port Director of the Port of 
Stockton in Stockton, California.
    The San Francisco Bay to Stockton Ship Channels Project is an 
authorized project.
    The Port of Stockton is primarily a bulk port that serves industry 
and agriculture in the San Joaquin Valley in California, and the bulk 
imports and exports of the Western States, including the coal areas of 
these States.
    The Port of Stockton recognized as far back as 1952 that deeper 
channels would be needed for the movements of bulk cargoes and 
requested the Corps of Engineers to deepen the channel in 1952. Coal, 
grain, fertilizers and many other bulk materials require deeper 
channels to serve the larger bulk carriers.
    The Nation needs ports that can handle larger, more economical and 
more fuel-efficient vessels close to the production areas, both 
agricultural and industrial.
    The Port of Stockton is such a port.
    The dredging of the Stockton Channel portion of the project to 35 
feet was completed in 1987. A copy of the Port of Stockton's most 
recent annual report is attached. Cargo volume has increased since the 
dredging of the Stockton Channel was completed; and the project is 
certainly paying off.
    Therefore, we requested the Corps of Engineers for a new navigation 
study (reconnaissance study) to deepen the Channel further, to 40 feet 
or more, if economically feasible. The funding for this study was 
appropriated in fiscal year 1998.
    For the 1999 fiscal year, we are requesting $300,000 for the 
feasibility study. Because this study has to be coordinated for proper 
timing with the U.S. Navy's project to deepen the Channels to the 
Concord Weapons Station, this study needs to be done now. The 
feasibility study is 50 percent cost shared.
    The President's proposed budget only contains $30,000 to complete 
the reconnaissance study, but the feasibility study and the eventual 
construction, needs to be closely tied to the deepening of the Channel 
through San Pablo Bay, and this project needs to be timed appropriately 
with that construction. Deferring $300,000 now could cost millions in 
extra cost later.
    We urge you to appropriate $300,000 for the Stockton Deep Water 
Channel Feasibility Study. We also strongly urge that $3,004,000 be 
appropriated to maintain the Channels so that the present benefits also 
may continue to accrue.
              stockton deepwater ship channel information
Channel Depth
    35 feet--At mean lower, low water
    37 feet--At average low tide
    40 feet--At average high tide
Channel Capacity
    Up to Panamax-size vessels fully loaded sailing at high tide.
    The waterway has no width restriction, and will handle 45,000 to 
55,000 ton class ships fully loaded. Up to 80,000 ton class vessels can 
transit the channel partially loaded.
Navigation Aids
    Usual channel markers and lights.
Pilotage
    $827.00 each way, subject to 14 percent surcharge on vessels over 
600 feet but less than 625 feet in length. Thereafter an additional 4 
percent is charged for each increment of 25 feet.
Tugs
    Three: One--1,350 H.P., One--1,000 H.P., and One--650 H.P.
Bridges
    There is a fixed span high level toll bridge across Carquinez 
Strait, with a minimum clearance of 134 feet above mean high water. The 
Southern Pacific Railroad lift span bridge crosses Suisun Bay 6.5 miles 
upstream from the Carquinez Bridge, with a minimum clearance above mean 
high water of 70 feet when closed and 135 feet when open. The 
horizontal clearance on the lift span is 291 feet. A third bridge, 22 
miles above the Southern Pacific bridge, is near Antioch. It is a fixed 
span bridge with a minimum clearance above mean high water of 135 feet.
    Located on the Stockton Deepwater Ship Channel, 75 nautical miles 
due east of the Golden Gate Bridge, the Port of Stockton, California, 
owns and operates a diversified and major transportation center that 
encompasses a 600-acre operating area.
    The Port has berthing space for 10 vessels, 500,000 square feet of 
dockside transit sheds and shipside rail trackage, 2.7 million square 
feet of warehousing for both dry bulk and general cargoes, including 
steel. Each warehouse is also served by rail.
    Stockton's deepwater channel has an average depth of 37 feet at 
average low tide (35 feet MLLW), and an average depth at high tide of 
40 feet--PANAMAX.
    Vessels in the 45,000 to 55,000 ton class, and maximum 60,000 ton 
class (for certain wide-beam vessels) can use the channel fully loaded. 
Up to 80,000 ton class vessels can transit the channel partially 
loaded. There is no width restriction of vessels, and ships up to 900 
feet in length can navigate the Stockton Ship Channel.
    The Port is one mile from Interstate 5, and all interconnecting 
major highway systems. Rail service is provided by three 
transcontinental railroads, Union Pacific/Missouri Pacific, Southern 
Pacific and the Santa Fe.
    The Port of Stockton maintains flexibility in planning, 
construction and modification of its facilities and equipment. 
Continuously seeking better and more productive ways to handle a 
diversified aggregation of cargoes, the Port has installed three 
traveling, multi-purpose, 30-ton Bridge Cranes--one on Dock No. 3/4 and 
two on Dock No. 10/11. All three cranes handle dry bulk cargoes as well 
as containers and steel products and are equipped with 15-cubic yard 
grabs and container frames. Both facilities can handle cargo from 
vessels direct to truck, rail (one of two loop railroad tracks serves 
Dock 10/11), dockside storage and by conveyor.
    As a fully operating Port, a fleet of 30,000 to 60,000 lb. fork 
lift trucks, slings, spreader bars, coil rams, front-end loaders, 
hoppers and conveyor belts and other equipment are maintained for 
handling and storing steel products, other general cargoes and bulk 
materials. The Port also offers stevedoring services to customers.
    The Port is well-suited and situated to handle heavy steel and 
project cargo with its excellent overland transportation connections. 
Five acres of paved surface on Dock No. 10/11 allows easy assembly and 
pre-staging of this type of cargo. In addition to the three bridge-type 
cranes and two gantry cranes, floating cranes and mobile truck cranes 
are available to handle these cargoes. The bridge and gantry cranes can 
also unload any kind of import bulk material, and two bulk loading 
towers are used to load all types of export bulk material such as coal, 
petroleum coke, ores, clay and sulfur.
    Recounting the Port of Stockton's assets, it has first class 
warehouse storage and handling facilities for both dry and liquid bulk 
materials, facilities and equipment to handle break-bulk and 
containerized cargoes by land or by sea. Immediate access to three 
transcontinental railroads is complemented by two loop railroads, one 
on-dock, for accommodating unit trains for export of coal, petroleum 
coke, and ores, plus consolidation of rail shipments of inbound and 
outbound steel coils. All of these components place the Port in an 
ideal position for domestic as well as national and international 
distribution.
    Relative to industrial development, the Port is especially 
attractive to, and interested in, attracting projects that require 
waterborne transportation for delivery of raw or finished goods.
    All of the Port's services are directed by experienced people 
through one administrative complex. This provides a unique advantage 
for flexibility as well as efficiency. The Port of Stockton publishes 
tariffs, stevedores cargoes, assigns berths, supervises cargo activity, 
provides shipping documentation, accounting and rate quotations. It is 
a broad hands-on effort that includes marketing, traffic, property 
management, warehousing, distribution, data processing and police 
protection services to its customers.
    Director Alexander Krygsman and his staff welcome your interest and 
invite your inquiries concerning the Port's services and facilities.
                                 ______
                                 

    Prepared Statement of David L. Malcolm, Chairman, Board of Port 
                  Commissioners, Port of San Diego, CA

    The following testimony is provided by the San Diego Unified Port 
District, which represents the California cities of Chula Vista, 
Coronado, Imperial Beach, National City and San Diego, to obtain 
support from the Senate Energy and Water Development Subcommittee to 
include in the fiscal year 1998-99 Water and Energy Development 
Appropriations Bill $260,000 for the Corps of Engineers to continue the 
Feasibility Study of Deepening the San Diego Harbor, and $300,000 for 
the Corps of Engineers to initiate a Feasibility Study for San Diego 
Harbor, National City.
    The Port District has previously entered into a 50/50 Cost Sharing 
Agreement with the Corps for the San Diego Harbor Deepening project and 
is willing and able to enter into a similar Cost Sharing Agreement for 
the San Diego Harbor, National City project.
    The San Diego Unified Port District operates and maintains two 
marine terminals and engages in other maritime related business and 
economic activities. These economic activities result in regionally 
significant fiscal impacts including: economic output, high value 
employment and associated payroll taxes, and federal revenue in the 
form of income taxes, as well as various duties and trust fund 
contributions.
    A timely and unique opportunity has presented itself to the Port 
District. The U.S. Navy has initiated a major channel deepening project 
to accommodate its nuclear aircraft carriers. The Navy's dredging 
project deepens the existing channel to about -50 feet all the way from 
the ocean to the carrier turning basin, approximately seven miles. It 
is only an additional two miles to the Port District's 10th Avenue 
Marine Terminal and an additional six miles to the National City Marine 
Terminal. The Port District perceives this as a ``partnering'' 
opportunity between the Navy, Corps of Engineers, Port District and 
private sector interests to lower maritime shipping costs at the Port 
of San Diego.
    The Port District is committed to working with the Corps of 
Engineers and the maritime industry to maintain and enhance our ability 
to contribute to the region's economic stability by providing the 
physical infrastructure needed to provide competitively priced maritime 
shipping opportunities. To that end, the Port District has commenced 
several strategic initiatives including: $16,000,000 to repair berths 
at the 10th Avenue Marine Terminal (completed in 1997); $30,000,000 
land-side and railroad improvements at the National City Marine 
Terminal in partnership with the BNSF Railroad (completed in 1997); 
$27,000,000 to extend and expand the wharf at the National City Marine 
Terminal (preliminary design completed in 1998); and the commitment to 
cost share with the Corps of Engineers the cost of deepening the 
federal navigation channel to the 10th Avenue and National City Marine 
Terminals.
    San Diego is geographically positioned to competitively serve new 
and existing maritime shipping needs between the Pacific Rim and the 
southwestern United States. However, current channel depth limitations 
preclude many ships from entering the federal shipping channel fully 
loaded. In order to provide cost efficient shipping rates to the San 
Diego market, a deeper federal channel is needed.
    In conclusion, the San Diego Unified Port District requests your 
support and appropriation of $260,000 to continue the Feasibility Study 
for the San Diego Harbor Deepening, and $300,000 for the initiation of 
a Feasibility Study for the San Diego Harbor, National City. The Port 
District and its maritime partners have made, and will continue to 
make, significant financial investments in the land-side 
infrastructure. We request only that the Corps of Engineers be provided 
the financial resources to modify the federal navigation channel so 
that potential shipping cost reductions can be realized. With almost 
half the distance of the federal channel being deepened by the Navy, it 
only makes economic sense to extend the deepening to the marine 
terminals so that nonmilitary benefits can also be realized.
                                 ______
                                 

  Prepared Statement of Richard W. Parsons, Dredging Program Manager, 
                         Ventura Port District

    The Ventura Port District respectfully requests that the Congress:
    1. Include $2,705,000 in the fiscal year 1999 Energy and Water 
Development Appropriations Bill as requested by the Administration for 
the U.S. Army Corps of Engineers maintenance dredging of the Ventura 
Harbor Federal channel and sand traps.
    2. Include $250,000 in the fiscal year 1999 Energy and Water 
Development Appropriations Bill as requested by the Administration to 
initiate a cost shared Feasibility Study to determine the advisability 
of modifying the existing Federal navigation project at Ventura Harbor 
to include a sand bypass system.
    3. Include $2,500,000 in the Supplemental Fiscal Year 1998 
Appropriations Bill for the U.S. Army Corps of Engineer's repair of 
extensive El Nino related storm damage to the north head of the Federal 
breakwater and to the South Beach Groin.
                               background
    Ventura Harbor, homeport to 1,500 vessels, is located along the 
Southern California coastline in the City of San Buenaventura, 
approximately 60 miles northwest of the City of Los Angeles. The harbor 
opened in 1963. Annual dredging of the harbor entrance area is usually 
necessary in order to assure a navigationally adequate channel. In 
1968, the 90th Congress made the harbor a Federal project and committed 
the U.S. Army Corps of Engineers to provide for the maintenance of the 
entrance structures and the dredging of the entrance channel and sand 
traps.
    The harbor presently generates more than $40 million in gross 
receipts annually. That, of course, translates into thousands of both 
direct and indirect jobs. A significant portion of those jobs are 
associated with the commercial fishing industry (over 30 million pounds 
of fish products were landed in 1996), and with vessels serving the 
offshore oil industry. Additionally, the headquarters for the Channel 
Islands National Park is located within the harbor, and the only 
commercial vessels transporting the nearly 100,000 visitors per year to 
and from the Park islands offshore, operate out of the harbor. All of 
the operations of the harbor, particularly those related to commercial 
fishing, the support boats for the oil industry, and the visitor 
transport vessels for the Channel Islands National Park are highly 
dependent upon a navigationally adequate entrance to the harbor.
                    operations and maintenance needs
Dredging
    The Corps of Engineers has determined that $2,705,000 will be 
required to perform routine maintenance dredging of the harbor's 
entrance channel and sand traps during fiscal year 1999. This dredging 
work is absolutely essential to the continued operation of the harbor 
given the large volume of material that was deposited in the harbor's 
entrance area by the severe El Nino storms of 1998.
Rock Structure Repairs
    It is estimated that $2,500,000 will be required in the 
Supplemental Fiscal Year 1998 Appropriations Bill for the Corps of 
Engineers to repair extensive El Nino related storm damage to the north 
head of the Federal breakwater and to the South Beach Groin. These 
structures are important components of the harbor's entrance system and 
their repair must be accomplished expeditiously in order to assure the 
maintenance of a navigationally adequate entrance channel. 
Additionally, it should be noted that the failure to repair these 
structures will result in increased maintenance dredging costs in 
subsequent years.
                              study needs
    The Corps of Engineers has determined that $250,000 will be 
required during fiscal year 1999 to initiate a cost shared Feasibility 
Study to determine the advisability of modifying the existing Federal 
navigation project at Ventura Harbor to include a sand bypass system. 
Given the continuing need for maintenance dreading, it is appropriate 
to determine if a sand bypass system or other measures can accomplish 
the maintenance of the harbor in a manner that is more efficient and 
cost effective than the current contract dredging approach.
                                 ______
                                 

 Prepared Statement of Leland Wong, Commission President, Los Angeles 
       Board of Harbor Commissioners for the Port of Los Angeles

    Chairman Domenici and Members of the Subcommittee: I am Leland 
Wong, President of the City of Los Angeles Board of Harbor 
Commissioners which oversees the activities of the Port of Los Angeles. 
My testimony, for the City of Los Angeles and its Board of Harbor 
Commissioners, speaks in support of continuation of the federal role in 
the implementation of the major navigation improvements underway at the 
San Pedro Bay, California. Specifically, I am speaking of the Pier 400 
Dredging and Landfill Navigation Project and our request for an 
appropriation of $69 million for fiscal year 1999.
        pier 400 implementation under the 2020 development plan
    The San Pedro Bay ports of Los Angeles and Long Beach, and the U.S. 
Army Corps of Engineers, years ago acknowledged the dramatic increase 
in Pacific Rim trade volumes forecast to take place over the next 
decades. To meet the resulting international trade needs of the region 
and the Nation, the Port of Los Angeles engaged in a long-term, 
cooperative planning effort known as the 2020 Development Plan. The 
2020 Plan accurately predicted the phenomenal growth of trade through 
the San Pedro Bay ports and is a blueprint for the ports' 
infrastructure development that would accommodate the projected growth 
well into the 21st century. Divided into phases, Stage II of the 2020 
Plan is a federal deep-draft navigation project--known as the Pier 400 
Dredging and Landfill Navigation Project--which is currently under 
construction. The Commissioners, management and staff of the Port of 
Los Angeles have been working since 1985 with the Corps of Engineers 
toward the implementation of the 2020 Plan which was authorized in the 
Water Resources Development Act (WRDA) of 1986 (Public Law 99-662), and 
was further sanctioned in WRDA 1988 (Public Law 100-371) and WRDA 1990 
(Public Law 101-640).
    The contracts for Stage II construction were completed by the Port 
of Los Angeles in 1997. Stage I includes advance constructing the 
dredging of new federal navigation channels that abut existing land at 
Pier 300 and the reclamation of 265 acres of new land at Pier 400. 
Stage II includes the dredging of new and deeper channels to Pier 300 
and Pier 400, and the creation of an additional 315 acres of new land 
at Pier 400.
                         stage ii construction
    I am pleased to inform the Subcommittee that on July 14, 1997 the 
Corps of Engineers issued the Notice to Proceed for construction of 
Stage II. Construction is on schedule with completion expected in 
January 2000.
    We are also pleased to inform you that the Port of Los Angeles 
completed restoration of the Bataquitos Lagoon Wetlands and the Bolsa 
Chica Wetlands. These environmental restoration projects were completed 
by the Port of Los Angeles at a cost of nearly $100 million and gave 
the Port sufficient environmental mitigation credits to construct Stage 
II.
    Mr. Chairman, the Port of Los Angeles appreciates the appropriation 
of $26.1 million by Congress for fiscal year 1998, which was $10 
million over the budget request. However, there remains a shortfall of 
approximately $50 million in construction funds which threatens to 
delay Stage II construction for as long as two years. According to 
Corps of Engineers' estimates such a delay could cost as much as $30 
million. The additional cost would be borne by the Port of Los Angeles 
and would provide no value to the project. You should know, Mr. 
Chairman, that the contractor has been working apace and has fully 
utilized the amount appropriated for fiscal year 1998, including a 
small amount which the Corps recently reprogrammed. Therefore, to keep 
the project on schedule and to avoid the additional costs of delays, 
the Port has advanced most of the shortfall amount. However, this 
advance has significantly affected the Port's finances and may 
jeopardize its ability to make further advances that may be required to 
maintain schedule.
    Consequently, Mr. Chairman, the Port of Los Angeles requests your 
Subcommittee to appropriate $69 million for the Pier 400 Project for 
fiscal year 1999. This appropriation would make it possible for the 
Corps of Engineers' Los Angeles District to maintain schedule on Stage 
II construction next year and ensure completion of the Pier 400 Project 
no later than fiscal year 2000. Just as importantly, our request is 
based on a construction schedule that is directly linked to proposed 
agreements with prospective new tenants for the early use of Pier 400 
facilities early in the year 2000.
    The Port of Los Angeles' funding request for Stage II construction 
is consistent with the Project Cooperation Agreement (PCA) executed 
between the Port of Los Angeles and the Corps of Engineers on March 19, 
1997. The PCA establishes the federal government's financial interest 
in the Pier 400 Project pursuant to WRDA 1986 and existing Corps 
policy, and confirms the federal share to be $116 million out of an 
estimated total project cost of $625 million. The federal share of 
Stage I construction was $63.8 million. Construction was completed last 
year and the Port advance-funded the full federal share of Stage I 
through debt financing. The federal share of Stage II construction was 
established by the PCA as the first $97 million so that the Port could 
receive credit toward Stage II from the funds previously advanced the 
federal government during construction of Stage I. The Port's request 
for an appropriation of $69 million for fiscal year 1999, therefore, is 
consistent with the provisions of the Project Cooperation Agreement and 
would make the federal government current on its financial obligations 
to the Pier 400 Project.
                economic impact of the pier 400 project
    As the Port of Los Angeles has testified in previous years, cargo 
throughput for the San Pedro Bay is expected to more than triple in the 
decades between 1990 and the year 2020. Actual growth rates in cargo 
handling, from 1990 through 1997, have already exceeded the forecast 
growth. The ability of the Port to meet the demands of this phenomenal 
growth is dependent upon deep water channels (such as those being 
constructed under the Pier 400 Project) that can accommodate the 
largest state-of-the-art deep-draft vessels now on line in the world 
fleet. These new vessels provide greater efficiency in cargo 
transportation and offer consumers lower prices on imported goods and 
more competitive exports. In fact, approximately 15 percent of all 
consumer goods enter the United States through the Port of Los Angeles 
before being transported into the stream of American commerce by rail 
and by truck.
    The Pier 400 Project is clearly a project of national significance, 
conferring economic benefits in many ways:
  --Over $74 billion annually in trade that supports meaningful 
        permanent employment for over one million Americans across the 
        country;
  --The generation of $84.8 billion in industry sales;
  --$24.3 billion in wages and salaries;
  --$12 billion in annual tax revenues;
  --The generation of $1.8 billion annually in U.S. Customs revenues.
    The return on the federal investment is real and quantifiable, and 
is expected to exceed the cost-benefit ration as determined by the 
Corps of Engineers in the project feasibility study. The federal 
investment in the Pier 400 Project will ensure that one of the Nation's 
most important ports remains competitive into the 21st century.
 ongoing maintenance of existing federal channels and harbor breakwater
    Related to the efficient operation of the completed Pier 400 
Project is the required ongoing maintenance of the existing federal 
navigation channels at the Port of Los Angeles. The Port requests your 
Subcommittee to include an appropriation of $350,000 to enable the 
Corps to conduct a condition survey of the federal channels, evaluate 
the Port's rehabilitation of the breakwater, and perform engineering 
design for maintenance dredging of the West Basin. This work is 
necessary to determine the future maintenance needs of the channels and 
any rehabilitation that may be required for the breakwater. Ongoing 
maintenance will ensure that the channels remain at depths at which 
fully loaded container and tanker ships could safely navigate, and 
guarantee the stability of the breakwater during severe storms. I might 
add, Mr. Chairman, that a very small amount of Operation and 
Maintenance dollars are required each year at the Port of Los Angeles, 
in contrast to the $70 million in Harbor Maintenance Tax revenues 
collected annually at the Port.
                        vicksburg model funding
    The Port of Los Angeles further requests your Subcommittee to 
provide an appropriation of $165,000 for ongoing maintenance of the 
Port's harbor model at the Corps of Engineers' Waterways Experiment 
Station (WES) at Vicksburg, Mississippi. In addition, $335,000 is 
required for continued wave data collection. This information is 
necessary to validate the numerical and physical models used for 
project design. During the state-of-the-art design phase for the Pier 
300 channel and the Pier 400 land reclamation, eight separate, but 
related models, were used by the engineers and maintained by the 
scientists and engineers of WES and were, likewise, used by the 
engineers at the Port of Los Angeles and the Los Angeles District 
Corps. Maintenance of the hydraulic and physical models at Vicksburg, 
and their prototype data acquisition facilities remain an essential 
resource for the Corps' Los Angeles District and for the Port of Los 
Angeles.
                               in summary
    Mr. Chairman, the Port of Los Angeles respectfully urges your 
Subcommittee to include in the Corps of Engineers' fiscal year 1999 
appropriation:
  --$69 million for the Pier 400 Dredging and Landfill Navigation 
        Project;
  --$350,000 to conduct surveys of the federal channels and the 
        rehabilitation of the breakwater in the San Pedro Bay;
  --$165,000 for ongoing maintenance of the Vicksburg Harbor Models; 
        and
  --$335,000 for continued wave data collection.
    The Port of Los Angeles has long valued your Subcommittee's 
demonstrated understanding the importance of the port industry to the 
economic vitality of the United States. This understanding has been 
evidenced by the appropriation of scarce federal dollars for harbor and 
navigation projects such as the Pier 400 Project.
    Thank you, Mr. Chairman, for the opportunity to submit this 
testimony in support of continued funding for the federal navigation 
activities at the Port of Los Angeles.
                                 ______
                                 

    Prepared Statement of Cathy Novak, Mayor, City of Morro Bay, CA

    Morro Bay Harbor is the only all-weather harbor of refuge between 
Santa Barbara and Monterey on the West Coast. Our Harbor directly 
supports almost 250 home-ported fishing vessels and marine dependent 
businesses. We provide irreplaceable maritime facilities for both 
recreational and commercial interests. Businesses that depend on the 
harbor generate $53,500,000 and employ over 700 people. The United 
States Coast Guard (USCG) maintains a 15 person search and rescue 
station at Morro Bay Harbor to provide the Coast Guard services for the 
entire Central California Coast.
    During World War II the Army Corps of Engineers (ACOE) designed and 
constructed a new harbor entrance at Morro Bay with two rock 
breakwaters. Since the initial construction the Federal government has 
maintained the harbor entrance, breakwaters and navigational channels, 
and in fiscal year 1995 the ACOE completed the Morro Bay Harbor 
entrance improvement project to improve safety for commercial fishing 
and navigation. The City of Morro Bay was the local sponsor and 
contributed over $900,000 in cash and in-kind services.
    Morro Bay is a small city of 10,000 with very limited resources but 
has made this project one of its highest priorities for almost 10 years 
because of the regional importance of the harbor. Without continued 
Federal maintenance, all of the past local and federal investment will 
be lost.
    Last year, the President's budget failed to recommend funding to 
maintain our harbor. We deeply appreciate the funding your 
distinguished Subcommittee added for this purpose. Maintenance dredging 
funded in fiscal year 1998 began in January and will be completed this 
spring.
    Exposure to the open ocean and its brute force over the years has 
caused the rocks on the south breakwater to dislodge and slough into 
the water. This situation has probably been exacerbated by the fact 
that the breakwater has not been repaired in over 30 years. It is an 
essential component of a safe harbor and $2,000,000 is needed in fiscal 
year 1999 to conduct badly needed repairs. The President's budget did 
not recommend funding for this purpose. We have enclosed a photograph 
from this winter's storms showing the USCG personnel transiting the 
harbor entrance during breaking wave conditions.
    Finally, in 1995 part of Morro Bay was designated a national 
estuary by EPA. Reduced tidal circulation due to sedimentation of the 
bay threatens not only the harbor but many sensitive habitat areas in 
this very unique environment. In fiscal year 1998 Congress also added 
$100,000 for an ACOE reconnaissance study of potential projects that 
could reduce navigational channel dredging costs and restore sensitive 
habitat through improving tidal circulation. Our thanks again for your 
actions.
    This habitat restoration reconnaissance study is underway and we 
are encouraged. This project may benefit both our marine dependent 
economy and the environment. Therefore, I support the fiscal year 1999 
Presidential request of $100,000 to continue the study.
    I am grateful for the opportunity to present these requests to your 
Subcommittee on behalf of the citizens of the City of Morro Bay.
                                 ______
                                 

Prepared Statement of John Bridley, Waterfront Director, City of Santa 
                              Barbara, CA

    As your distinguished Subcommittee writes the fiscal year 1999 
Energy and Water Resources Appropriations bill, I would like to bring a 
very important Corps of Engineers project to your attention.
    About 400,000 cubic yards of sand piles up every winter at Santa 
Barbara Harbor, and in years of severe storms, the accumulated sand can 
close the channel bringing local fishing and other businesses in the 
Harbor to a standstill.
    There is an important Federal interest in maintaining dredging at 
the Harbor. It provides slips and moorings for over 1,000 commercial, 
emergency and recreational boats. It is also an important part of Coast 
Guard operations on California's central coast.
    The President's fiscal year 1999 budget request includes $1,541,000 
for operations and maintenance for Santa Barbara Harbor. I respectfully 
request that the U.S. Senate, through your Subcommittee, maintain that 
level of funding.
    Thank you for the opportunity to submit this statement.
                                 ______
                                 

     Prepared Statement of Dick Lyon, Mayor, City of Oceanside, CA

    The City of Oceanside and the Oceanside Harbor District request 
your support of $839,000 as an addition to the fiscal year 1999 budget 
for the Oceanside Harbor Maintenance and Operation Dredging Program. 
The Administration's budget includes $622,000 for dredging Oceanside 
Harbor. Due to a miscalculation in the dredge quantity performed by the 
Corps of Engineers, the Administration's level of funding falls well 
short of the required $1,461,000 to correctly perform the necessary 
dredging.
    In 1960, Congress authorized full federal funding for maintenance 
of the Oceanside Harbor entrance (House Document 456, 86th Congress, 
2nd Session, Public law 85-500) in recognition of the fact that the 
Harbor entrance was constructed as an emergency wartime measure in 
1942. To this day, the Oceanside Harbor entrance continues to serve the 
vital military installation of Camp Pendleton Harbor. In 1992, the 
Harbor District partnered with the federal government in a local cost 
share agreement to modify the harbor entrance and the authorized 
channel depth to reduce storm damage, provide surge protection to the 
harbor's infrastructure and provide significant reduction of 
navigational hazards that have produced 11 deaths, 49 serious injuries, 
134 boating accidents and $1,500,000 in damage to vessels in the harbor 
entrance.
    It is imperative that the federal government uphold the long-
standing legislative commitment that it made. It was because of this 
commitment that the Harbor District agreed to fund the local cost share 
($1,600,000) of the harbor modification project.
    Historically, the Harbor experiences sand infilling after the 
winter season. This infilling problem will be drastically compounded by 
the ``El Nino'' condition currently present on the existing shoaling 
problem.
    Oceanside Harbor will experience severe negative impacts should the 
dredging project not be appropriately funded. Such action would 
restrict access to the Pacific Ocean to the United States Navy and 
Marine Corps as joint users of the entrance channel, as well as the 
U.S. Coast Guard Cutter Point Hobart, which is also based in Oceanside. 
The economic impact upon the local fishing fleet, the commercial 
sportfishing fleet and the 1,000 recreational vessels berthed here, as 
well as the businesses supported by the harbor, would be significant.
    The maintenance program is essential for the safe navigation into 
Oceanside Harbor and the U.S. Marine Corps Base Camp Pendleton Harbor. 
The program also provides the associated commerce and recreational 
benefits to our community.
    Thank you for the opportunity to provide this testimony and for 
your consideration of the request.
                                 ______
                                 

  Prepared Statement of Roberta Goulart, Contra Costa County Board of 
                  Supervisors, Contra Costa County, CA

       san francisco to stockton (baldwin) ship channel phase iii
Background
    As the primary navigation channel for most of the oil tanker 
traffic in San Francisco Bay, JFB provides a vital part of the economic 
infrastructure in the San Francisco Bay Area. The channel extends from 
the West Richmond channel through San Pablo Bay and Carquinez Strait 
and into Suisun Bay. At a current depth of -35 feet, the channel 
provides only minimum navigable depth for a world tanker fleet which 
boasts drafts up to 70 feet in its largest ships. With the San 
Francisco Bar Channel, the entrance to San Francisco Bay, at a depth of 
-55 feet, tanker traffic entering the Bay is already limited to a 
maximum of -50 feet because of underkeel clearance requirements. The 
tankers entering the Bay are anchored south of the Bay Bridge and 
partially off-loaded (lightered) into smaller ships until favorable 
tides or reduced draft allow them to proceed to the shallower channel 
and upstream berths. This in-bay transfer process is costly and is an 
increased environmental risk when compared to entering the Bay and 
proceeding directly to a berth for off loading as in the proposed 
project.
    There are three alternatives being considered to reduce 
environmental risk and increase economic benefit to the process of 
moving petroleum in the Bay. The first alternative is deepening the 
existing -35 foot channel to -45 feet from the central bay up into 
Suisun Bay. The second (and preferred), RMPLS alternative involves 
deepening of a short channel section to -45 feet and the construction 
of a pipeline terminal near Point Molate north of the Richmond/San 
Rafael bridge. The pipeline terminal connects to an existing common 
carrier utility pipeline that is linked to the refineries. The third 
alternative is a combination of the first two, involving construction 
of the pipeline terminal and dredging the deep draft channel to a depth 
of -40 feet.
There is no request for funding at this time
    The Local Sponsor, Contra Costa County, thanks you for years of 
support for this project. We expect to commence construction of the 
second alternative (the RMPLS described above), this fiscal year with 
existing funding. We respectfully request your continuing support (non-
monetary at this time) in our continuing efforts to construct and 
maintain the channel associated with this alternative. If, however, the 
second (RMPLS) alternative cannot be implemented, and another 
alternative is chosen, there may be a need for future project funding.
    san francisco bay bar channel and southampton shoal channel and 
                      extension feasibility study
    The San Francisco Bay Bar Channel and the Southampton Shoal Channel 
form the entrance into the San Francisco Bay and Delta, providing 
foreign and domestic deep draft merchant, military, commercial fishing 
and other vessel access to ports within the region. Changing deep draft 
vessel operations and design requires deepening the -55 foot Bar 
Channel and -45 foot Southampton Shoal channel. Deepening the Bar and 
Southampton Shoal Channel will provide safer and more efficient 
navigation of oil tankers entering the bay by allowing vessels to be 
loaded more fully, which will require fewer vessel trips to deliver the 
same amount of cargo. In addition, deepening of the Southampton Shoal 
Channel and Extension to -50 feet will allow heavily laden vessels to 
proceed directly to off loading facilities, rather than lightering (off 
loading) onto smaller ships at open water anchorages in south San 
Francisco Bay. The priority is for deepening of the Southampton Shoal 
Channel and Extension first, as the greatest benefit occurs as a result 
of this deepening. Language incorporating the Southampton Shoal and 
Extension with the San Francisco Bar study area was introduced into the 
1997 House Report by Congressman Fazio and subsequently approved with 
the concurrence of Chairman Myers.
Funding request
    Funding of $460,000 is currently contained in the President's 
fiscal year 1999 budget. Contra Costa County, the Project's Local 
Sponsor, has recently been working with contractors on bids for 
portions of the feasibility study, and has found recent estimates are 
higher than those contained in the Project Study Plan completed for the 
project last year. Therefore, the County, as Local Sponsor is 
requesting a fiscal year 1999 budget allocation of $600,000 to complete 
the feasibility study.
Purpose of fiscal year 1999 funding
    The purpose of fiscal year 1999 funding would be to continue the 
Feasibility Study. Feasibility Study activities include sediment 
environmental testing, navigation simulation, cultural resources 
analysis, study and project management, environmental and economic 
studies, geotechnical analysis of the channel, real estate, plan 
formulation activities, surveying and mapping, and design and cost 
estimates. In fiscal year 1998, a $600,000 allocation was made to 
initiate the Feasibility Study. We are requesting a fiscal year 1999 
allocation of $600,000 due to study activities necessary to comply with 
new environmental and regulatory requirements.
                                 ______
                                 

 Prepared Statement of E.D. Allen, Chief Harbor Engineer, Port of Long 
                               Beach, CA

    I am E.D. Allen, Chief Harbor Engineer for the Port of Long Beach, 
California. I have been authorized by the Board of Harbor Commissioners 
of the City of Long Beach to represent the Port of Long Beach in regard 
to appropriations for the Los Angeles and Long Beach Harbors Model 
Study; Planning, Engineering, and Design for our on-going 2020 Plan; 
Los Angeles River maintenance dredging; and Reconnaissance and 
Feasibility Studies for beach erosion.
    In addition to the following specific project appropriation 
requests, I am recommending the committee recognize the need for 
standby Corps dredging capability to supplement private contractors in 
the event of emergencies coinciding with available environmental 
windows for normal dredging. I specifically recommend a standby/
training capability be funded without a minimum dredge quantity per 
year quota. This will allow (1) private contractors to benefit from 
receiving previous corps annual dredging quantities and (2) Corps of 
Engineers equipment to be able to be used without a project funding 
appropriation. As a result, minor maintenance dredging could be 
undertaken at the Corps' discretion for training purposes which would 
provide a tremendous benefit to the smaller ports and harbors. Many of 
the needs of the smaller ports have not been met due to the lack of a 
program such as this.
    My more specific requests follows for listed projects.
Harbors Model Maintenance (Civil Works Budget Category--O&M)
    The Water Resources Development Act of 1976, Section 123, 
authorized the Chief of Engineers to operate and maintain the Los 
Angeles-Long Beach Harbor Hydraulic Model at the U.S. Army Corps of 
Engineers Waterways Experiment Station in Vicksburg, Mississippi as 
part of the Los Angeles and Long Beach Harbors Model Study. This model 
encompasses both port complexes in San Pedro Bay, which, as you are 
aware, are ports of national significance. The hydraulic model, along 
with several numeric models, provide state-of-the-art methodology that 
can be used on the San Pedro Bay ports and on many other harbor 
complexes. In addition, the Port, as the local agency, is assisting in 
the Corps effort to provide continuous wave-gauge data by providing 
necessary support personnel and equipment for the maintenance of 
portions of the systems located at the Port.
    In fiscal year 1998, $165,000 was appropriated for maintenance of 
the physical model of San Pedro Bay. During this time, the Port also 
used the model to analyze necessary navigation-related modifications to 
the recently completed portion of our expansion plan, as well as our 
upcoming expansion within the Navy Basin. This effort is being funded 
by the Port and is currently on-going. It is necessary that the model 
remain ready for service such as this. Funding in fiscal year 1999, in 
the amount of $165,000, would continue annual maintenance on the model. 
Additionally, we are requesting $400,000 of continued funding for the 
wave gage (prototype) data acquisition and analysis program. This 
program began in 1987 to develop data for the design of the 2020 Plan 
port expansion and navigation improvements. This program has now 
evolved to construction monitoring and model verification which needs 
to continue in order to confirm expected levels of impacts of the 
expansion plans. Therefore, Congress is respectfully requested to 
appropriate $565,000 for fiscal year 1999 to perform this work.
Port of Long Beach Deepening, Queens Gate (Civil Works Budget 
        Category--Construction)
    The Port of Long Beach developed a long-range master plan, referred 
to as the 2020 Plan, which demonstrates the need for new navigation 
channels (Queens Gate Deepening) and additional landfill development 
through the year 2020.
    Section 201(b) of the Water Resources Development Act of 1986 
authorized construction of the 2020 Plan upon recommendations of a 
feasibility report and completion of a favorable Chief of Engineers 
Report. The Chief's Report was issued July 26, 1996 and the Office of 
Management of Budget has approved the Report. The first phase of the 
Plan was begun with the construction of the Pier J expansion project, 
which includes dredging the Long Beach Main Channel to at least a depth 
of 76 feet. This project is known as the Port of Long Beach Deepening. 
Together with the approach channel deepening outside the Federal 
breakwater, the dredging was evaluated for Federal interest in the 
feasibility study because it permits deeper draft crude petroleum 
vessels to call at the Port of Long Beach.
    This project provides environmental benefits in addition to the 
economic benefit of transportation savings. Environmental benefits of 
the deepening project include a projected improvement in air quality. A 
deeper channel will mean that crude oil can be transported in larger, 
and therefore fewer, vessels. Fewer vessels, in turn, mean an estimated 
25 percent reduction in air emissions compared to no project, which is 
a net environmental benefit. A portion of the Federal share funds were 
appropriated in fiscal year 1998, however an additional amount is 
required to complete the project. We have proceeded with our work and 
now are requesting the remaining Federal share to be appropriated.
    Completion of Pre-construction, Engineering, and Design (PED) and 
construction of the first dredging increment (to a depth of 69 feet) is 
scheduled for fiscal year 1998 with total appropriation of $5,635,000. 
It is urged that the Committee approve an appropriation of $10,500,000 
to fund the final increment of the Long Beach Deepening Project, which 
will make good on the Federal cost share and complete this project. 
This will allow continuous construction and dredging to the full 
project depth. This is the Port's highest priority project.
    The landfill development of the 2020 Plan as a whole provides other 
environmental benefits as well. Restoration of the Bolsa Chica wetlands 
in nearby Orange County is a prime example. As mitigation for the 
creation of future port landfills, the Port of Long Beach provided over 
$40 million to the Federal and state agencies that are restoring the 
wetlands. Nearly 1,000 acres of degraded lowlands currently in oil 
production will be cleaned up and reintroduced to tidal influence. The 
restored wetlands will be one of the largest in southern California, 
providing valuable fish and migratory bird habitat in the midst of the 
heavily urbanized greater Los Angeles area.
Los Angeles River Maintenance Dredging (Civil Works Budget Category--
        O&M)
    The Port of Long Beach also concurs with and supports the 
recommendation of C-MANC and the City of Long Beach with respect to 
Federal funding for remedial maintenance dredging to remove accumulated 
flood-deposited silt in the mouth of the Los Angeles River. During the 
storms of 1995, flood-deposited silt closed the mouth of the Los 
Angeles River to navigation. This restricted regularly scheduled water 
route transportation between the cities of Long Beach and Avalon, 
creating an economic emergency. Reacting to this, the U.S. Army Corps 
of Engineers removed 300,000 cubic yards from the channel which allowed 
for minimal resumption of navigation.
    However, substantial quantities of silt remain in the channel, 
especially since the recent storms we have experienced. These silt 
deposits create the likelihood of future serious restrictions and 
safety hazards to commercial and recreational boating activity in, and 
adjacent to, the Long Beach Harbor District and the associated 
businesses in Long Beach. Such restrictions and hazards have resulted 
in accidents and litigation.
    The Port supports the City in recommending that these silt deposits 
be removed on an annual basis as a scheduled work item. In the draft of 
``Project Plan for Los Angeles River Estuary Maintenance Dredging, Long 
Beach, CA, October 1994'' (Draft Project Plan-1994), the Corps of 
Engineers estimated an average annual deposit of silt in the estuary of 
485,000 cubic yards. The rate of such deposits is influenced by 
operational decisions at the Corps of Engineers' dams located at the 
headwaters of the river. It is imperative for our current operations, 
that a long range remedy be found for the Los Angeles River mouth, if 
navigational utility and effective flood control capability is to be 
maintained.
    It is estimated by the Corps of Engineers, that maintenance 
dredging of the channel to a minimum usable width requires removal of 
approximately 185,000 cubic yards at an annual cost of over $2,000,000. 
Clearing a minimum usable width does not, however, remove all shoaling 
that hinders navigation. An expenditure of $6,000,000 is necessary to 
clear silt deposits and prevent an immediate re-accumulation of 
material to a critical level. Congress is requested, therefore, to 
appropriate $6,000,000 for accomplishment of this vital removal of 
sediment. This work is included in the line item known as Los Angeles 
Long Beach Harbors in the Civil Works Budget. Please note, if there was 
a standby/training budget for Corps dredges that I earlier proposed, it 
is possible that this type of work could be more easily scheduled at 
Corps' discretion rather than via emergency provisions.
Reconnaissance/Feasibility Study Beach Erosion (Civil Works Budget 
        Category--Surveys)
    The Port of Long Beach also supports C-MANC and the City of Long 
Beach on their request for Federal funding to complete a Corps of 
Engineers reconnaissance study on beach erosion. In southeastern Long 
Beach, east of the Port's land and channels, and directly opposite the 
Federal breakwater, a beach and seawall protects approximately 
$200,000,000 worth of homes. Steady erosion had reduced the beach from 
an optimum of 175 feet to 30 feet prior to City's efforts in late 1994 
to rebuild the beach. Winter storms continue to reduce the beach width.
    The City has also experienced erosion in the west beach area. 
Although homes are not endangered, public improvements, including 
lifeguard stations, public restrooms, a bicycle and pedestrian trail, 
and a parking lot, are at risk. The cause of the new problem is 
unclear, indicating the need for a thorough study of the beach erosion 
problem inside the Federal breakwater.
    The primary method of protecting the homes has been annual 
rebuilding, with the building of sand berms during high tides or 
expected storms. The City has invested over $5,300,000 in capital 
improvement projects, annual beach rebuilding, and storm protection to 
control the beach erosion over the past 16 years. Despite this effort, 
in 1989 and 1993, storm waves eroded the beach and breached the 
protective seawall, causing damage to homes. The City is also defending 
itself against a lawsuit by one of the homeowners who is claiming that 
the City failed to halt erosion that narrowed the beaches in front of 
his home to less than the desired width adopted in the 1980 Local 
Coastal Plan.
    In fiscal year 1997, $252,000 was appropriated to complete the 
reconnaissance study of the beach erosion problem within the City of 
Long Beach. It is now requested that Congress appropriate $500,000 in 
fiscal year 1999 to initiate the feasibility study.
    This beach erosion problem is directly related to the focusing 
affect the Federal breakwater has on our large commercial harbor 
complex and surrounding beaches.
    Attached hereto is a Resolution to be adopted by the Board of 
Harbor Commissioners of the City of Long Beach on March 23, 1998, which 
contains data relating to the background of the Los Angeles and Long 
Beach Harbors Model Study, the 2020 Plan implementation, the Los 
Angeles River dredging, the beach erosion problem in Long Beach, and 
other related navigation and economic matters. The resolution stresses 
the need for Federal assistance in developing economic, technical and 
environmental background information essential to the design and 
permitting of Port facilities vital to regional and national interests. 
The Port of Long Beach is the largest container port in the United 
States and is the economic engine bringing $3.7 billion in customs 
receipts from both Los Angeles and Long Beach ports and jobs for 
500,000 people. We are truly a port and harbor of national 
significance.
    We kindly ask that Congress continue its support of these projects 
in fiscal year 1999 by appropriating the requested funds.
    Thank you for permitting me the privilege of this presentation.
                                 ______
                                 

 Prepared Statement of Don Knabe, Supervisor Fourth District, Board of 
                   Supervisors, County of Los Angeles

  fiscal year 1999 funding for marina del rey dredging and navigation 
                                 study
    Los Angeles County respectfully requests that the Congress of the 
United States include funds in the fiscal year 1999 Energy and Water 
appropriations bill for the following projects, which are urgently 
required to preserve public safety in Marina del Rey.
Marina del Rey Entrance Channel Dredging ($6,000,000)
    The U.S. Army Corps of Engineers is responsible for maintenance 
dredging of the Marina del Rey's entrances and main channel, pursuant 
to a perpetual right of way and easement agreement with the County. The 
last design-depth dredging of Marina del Rey occurred in 1981, with 
217,000 cubic yards of material removed. Since then, contaminants in 
some of the Marina's sediments have prevented thorough dredging. 
Emergency dredging projects were conducted in 1987, 1994, and 1996, 
removing just enough sediment to make the entrances navigable.
    This winter's severe storms have caused another emergency 
situation, with the south entrance being 85 percent closed and the 
north entrance being 75 percent closed. To reopen the north entrance, 
the Corps plans to remove 143,000 cubic yards of clean sediments in 
March and April, 1998. If the most recent shoaling in the south 
entrance is found suitable for open ocean disposal, that entrance may 
be reopened to 50 percent of its width.
    The Corps is currently engaged in a feasibility study (see below) 
that will establish short and long-term solutions to the Marina's 
dredging problem. An integral part of that study is a dredged material 
management plan which involves removing approximately 600,000 cubic 
yards of sediment in 1999, returning the Marina's entrances and main 
channel to their design depth. The contaminated sediments will be used 
in a demonstration project intended to establish an environmentally 
safe and economically feasible solution to the Los Angeles region's 
contaminated sediment problem. The clean sediments will be used for 
beach renourishment.
    The President's fiscal year 1999 budget does not include any funds 
to perform maintenance dredging at Marina del Rey. We are, therefore, 
requesting your support for an appropriation of $6.0 million to remove 
the 600,000 cubic yards of sediment. Without a thorough dredging in 
1999, the Marina's entrances will continue to close, which could 
threaten the ability of the U.S. Coast Guard, the County Sheriff's 
Harbor Patrol, the County Lifeguards and the City and County Fire 
Departments to respond to emergencies. As these agencies are the 
critical core of the LAX Air-Sea Disaster Response Team, it is 
imperative that the Marina's entrances remain open and safely 
navigable.
Marina del Rey and Ballona Creek Feasibility Study ($520,000)
    Some of the sediments creating navigational hazards in Marina del 
Rey's entrances contain contaminants that make dredging and disposal 
difficult and costly. The U.S. Army Corps of Engineers completed a 
reconnaissance study in 1996, which established that there is a Federal 
interest in solving this problem. The feasibility phase of the study is 
now underway with the County providing 50 percent of the necessary 
funding.
    The study is focused on an economical and environmentally safe 
disposal option for the contaminated sediments, as well as on actions 
that can be taken in the Ballona Creek watershed that will eliminate or 
reduce the flow of contaminated sediments into Marina del Rey's 
entrance. Dedicated staff from the County, the Corps, the City of Los 
Angeles, the Santa Monica Bay Restoration Project, Heal the Bay, and 
other environmental and regulatory agencies have worked to limit the 
scope, time, and cost of this study. Based on the approved plan, the 
study will require three years to complete, at a cost of $2.7 million. 
As the Los Angeles County Board of Supervisors has agreed to pay 50 
percent of the study's costs, we are pleased that there are funds in 
the President's fiscal year 1999 budget for this study. We, therefore, 
ask your support of the President's budget request of $520,000, for the 
Federal share of the cost in fiscal year 1999.
Regional Contaminated Sediment Task Force ($100,000)
    A task force has been established to solve the Los Angeles region's 
contaminated sediment problem. To ``authorize'' the Corps' essential 
participation in the task force, a reconnaissance study, or other line 
item, must be approved in the fiscal year 1999 budget. Following 
current policy, the reconnaissance study should be funded for $100,000. 
As the work of this task force is critical to Marina del Rey, Los 
Angeles County requests your support for this item.
                                 ______
                                 

  Prepared Statement of Brian E. Foss, Port Director, Santa Cruz Port

    In 1986, the United States Congress and the Santa Cruz Port 
District signed a Memorandum of Agreement ``M.O.A.'' (joint-venture 
L.C.A.) on the acquisition of a sand bypass system for Santa Cruz Small 
Craft Harbor. This $2.7 million agreement, authorized under the Water 
Resources Development Act of 1984, provided that, once in place, the 
system would be operated and maintained by the Port District.
    The bypass project has been extraordinarily successful. The harbor, 
once the scene of long closures and countless accidents because of 
shoals and breaking surf, is now 100 percent open to navigation all 
year round. The federal government no longer has to appropriate yearly 
O&M funds as it did from 1964 to 1986. The savings over the past ten 
years is estimated at $9+ million. The savings over the life of the 
project (2014) is estimated to be well in excess of $28 million in 1986 
dollars.
    The Port District is quite satisfied with the operational project 
and will carry out its responsibilities through 2014. However, an 
inequity exists in the original cost-share formula, which the Port 
District asks Congress to give redress.
    The original legislative act of 1958, H.D. 357, provided for a 64.9 
percent federal share and a 35.1 percent local share of the Santa Cruz 
Harbor jetty and basin construction, as well as a sand bypass system to 
be built subsequently. It also provided for a yearly contribution by 
the federal government of $35,000 for operation of the bypass system.
    The 1986 M.O.A. was formulated using the present value of the 
$35,000 yearly operating contribution through 2014. That amount was 
given to the Port District in a lump sum ($389,000). That amount is the 
subject of our request. It should have been adjusted for inflation over 
the period from 1958-2014.
    The 1997 Congressional Energy and Water Appropriation Bill (O&M 
General) directed the Corps of Engineers to study this issue and report 
back to Congress. The Corps' San Francisco District completed that 
study and determined that no adjustment could be made within existing 
enabling language. This finding was made without prejudice, as the 
equities involved may indeed validate the Port District's request. 
Procedurally, the Port District seeks correcting language in the 
anticipated 1998 Water Resources Development Act.
    The estimated value of the Port District's request is $1,071,000. 
This value excludes credit for operating funds already received 
($389,000).
    In exchange for correcting this financial inequity the Port 
District would agree to extend its operational responsibility to year 
2024. The estimated O&M savings to the federal government over the 
period from 1986 to 2024 is estimated to exceed $38 million in 1986 
dollars.
    The Port District requests that $1,071,000 be appropriated 
contingent upon appropriate, enabling language in the 1998 Water 
Resources Development Act.
                                 ______
                                 

        Prepared Statement of the Crescent City Harbor District

    Chairman Domenici and Members of the Subcommittee: The Crescent 
City Harbor District would like to take this opportunity to thank our 
local Congressman, the Honorable Frank Riggs, and you, Mr. Chairman, as 
well as other members of the subcommittee and staff for their continued 
efforts to maintain funding for our much needed project.
    For those unfamiliar with the our area, Crescent City Harbor is the 
most northerly port in California and one of California's strongest 
fishing harbors. Crescent City was ranked nationally as 31st in tonnage 
of fish landed and 43rd in the value of its catch last year by the 
national marine fisheries service. We were ranked higher than either 
Eureka/Humboldt Bay, to our south, or Brookings, Oregon, to our north.
    The commercial fishermen of our area have been experiencing tidal 
delays in leaving the harbor because of the shallow areas in the 
channel between the existing federal inner harbor channel and the small 
boat basin where they moor. These delays also make safely accommodating 
larger vessels and efficient use of the harbor difficult. A 
reconnaissance study to determine federal interest in this project was 
completed in March of 1995 and has been certified by the Corps of 
Engineers. The general re-evaluation report has been drafted and should 
be submitted to South Pacific Division for approval on April 21, 1998. 
It calls for a 14 ft. MLLW depth. Construction is now scheduled to 
begin in October of 1998 as long as funding is available.
    Del Norte County's economy has been seriously impacted by the 
decline in the timber industry and the recent federal cuts to fishing. 
Our unemployment rate is already at 11.9 percent. We need this funding 
to maintain our place among the nation's fishing ports and support our 
declining economy.
    The Board of Commissioners of the Crescent City Harbor District 
asks that your subcommittee add $370,000 to the U.S. Army Corps of 
Engineers budget for completion of the project at Crescent City.
    Thank you Mr. Chairman and members of the subcommittee for this 
opportunity to submit testimony.

                            Attachment No. 1

                [From the Times Standard, Aug. 6, 1997]

                      Crescent City, Eureka Ranked

                          (By David Anderson)

    Two North Coast fishing ports are among the top 60 in the nation, 
according to figures released this week by the National Marine 
Fisheries Service.
    Crescent City ranked 31st in tonnage of fish landed and 43rd in the 
value of its catch. Eureka was 47th in tonnage and 54th in value.
    No California port except Los Angeles' ranked in the top 10. 
Alaskan and Gulf Coast ports took most of the top spots.
    Crescent City landed 26.3 million pounds of fish valued at $16.4 
million in fish valued at $16.4 million in 1996, up from 21.8 million 
pounds worth $11.5 million in 1995--but down from the 28.4 million 
pounds and $18.4 million it reported in 1994.
    Eureka landed 18 million pounds valued at $12.3 million in 1996. In 
1995 it landed 15.1 million pounds worth $10.3 million, and in 1994 it 
landed 18.4 million pounds valued at $13 million.
    Fort Bragg and Trinidad did not make the top 60 list, but 
Brookings, OR, just barely did, ranking 56th in weight and 60th in 
value with 13 million pounds of fish worth $11 million.
    Since the decline of the salmon fishery, most of the North Coast 
lands have been groundfish such as Dover sole, sablefish, ling cod and 
rockfish. Crescent City also has a shrimp fishery.
    The tiny, isolated Aleutian island port of Dutch harbor, was tops 
in the nation, as it has for many years. With a permanent population of 
less than 2,000, Dutch Harbor registered landings of 699.6 million 
pounds in 1996, valued at $224 million.
    Runner-up was almost equally small Empire, LA, which registered 
431.7 million pounds--but worth only $60 million.
    Gordon Helm, spokesman for the fisheries service, said Dutch Harbor 
landings are high because it is the port of registry for all Bering Sea 
and Aleution islands fishing boats. Pollock is the major fish landed, 
he said, and most of it is processed by factory ships, but in the small 
community.
    The large Gulf Coast fishery is mostly shrimp and Menhaden, Helm 
said.
    In descending order, the top fishing ports are Dutch Harbor; 
Empire; Cameron, LA; Seattle; Kodiak, AK; Intercoastal City, LA; 
Berwick, LA; Los Angeles; Pascagoula, MS; and Ketchikan, AK.
[GRAPHIC] [TIFF OMITTED] TCORPS.010

                                 ______
                                 

               PACIFIC NORTHWEST WATER RESOURCE PROJECTS

 Prepared Statement of the Northwest Power Planning Council, Portland, 
                                   OR

    Mr. Chairman and members of the subcommittee, my name is John 
Etchart, and I am chairman of the Northwest Power Planning Council. I 
appreciate the opportunity to submit written testimony in support of 
the Clinton Administration's fiscal year 1999 budget request for 
several programs under the jurisdiction of the Energy and Water 
Development Subcommittee. The Council was established by Congress in 
1980, and created as an interstate compact by the states of Idaho, 
Montana, Oregon and Washington. Its purpose is to develop a 20-year 
regional electric power plan to ensure for the Pacific Northwest an 
adequate supply of power at the lowest possible cost. The plan is 
designed to ensure that the region only acquires resources it needs and 
that it acquires the lowest-cost resources first. The Council also was 
directed to develop a major program to rebuild fish and wildlife 
resources that have been harmed by hydroelectric development in the 
Columbia River Basin. The Council carries out its responsibilities 
under the Pacific Northwest Electric Power Planning and Conservation 
Act of 1980 (Northwest Power Act), Public Law 96-501.
    In 1996, Congress amended the Northwest Power Act in section 512 of 
the fiscal year 1997 Energy and Water Development Appropriations Act. 
That new provision of law, section 4(h)(10)(D) of the Northwest Power 
Act, extended the Council's responsibilities by requiring that it make 
recommendations to the Bonneville Power Administration for annual fish 
and wildlife expenditures in the Columbia River Basin. The Council is 
directed to base its recommendations to Bonneville on the findings of 
an 11-member independent scientific review panel that was established 
pursuant to section 4(h)(10)(D). Currently the amount of funding 
available from Bonneville for these direct fish and wildlife 
expenditures averages about $127 million per year.
    Congress recognized in the Northwest Power Act that the resources 
of the Columbia River Basin are important to the region and the nation. 
Both the Council's power plan and its fish and wildlife program were 
developed under the mandates of the Act, in which Congress provided 
direction and the framework for the Council as a policy and planning 
body. Three Federal agencies under the jurisdiction of the 
Subcommittee, the U.S. Army Corps of Engineers, the Bureau of 
Reclamation, and the Bonneville Power Administration, all administer 
programs that are critical to the Columbia River Basin. The Council 
works closely with all three agencies in fulfilling its statutory 
responsibilities to develop its regional power plan and implement its 
Columbia River Basin Fish and Wildlife Program. The relationship among 
the Council and the agencies is unique and reflects Congress' desire to 
provide an effective management structure for the resources in the 
basin. Through this arrangement, the Federal agencies and the four 
Northwest states share funding, implementation and regulatory 
responsibilities in the management of the basin's power and fish and 
wildlife resources.
    Because of these shared and sometimes overlapping responsibilities, 
the Council has a continuing interest in the budgets of the three 
Federal agencies. The Council's fish and wildlife program is funded by 
a combination of revenues from electricity sales and Federal 
appropriations. While a significant portion of the fish and wildlife 
program is funded by Bonneville, the other Federal agencies also are 
requesting to commit approximately $150 million in appropriated funds 
in the basin in fiscal year 1999. A large portion of these funds, 
especially those appropriated to the Corps and Bureau of Reclamation 
for construction, operations and maintenance, will be repaid by the 
region's electric ratepayers through Bonneville.
Columbia River Basin Fish and Wildlife Program
    The Council's fish and wildlife program is designed to protect, 
mitigate and enhance fish and wildlife, and related spawning and 
rearing grounds of the Columbia River Basin that have been adversely 
affected by the construction and operation of hydropower facilities. 
Unlike the National Marine Fisheries Service, which has specific 
statutory authority to recover Endangered Species Act--listed salmon 
runs in the Snake River, the Council's focus is much broader. The 
Council's mandate under the Northwest Power Act is to protect, mitigate 
and enhance all populations of fish and wildlife that are affected by 
the operation of hydroelectric facilities in the Columbia River Basin.
    The Council last amended the program in December 1994. As required 
by the Northwest Power Act, measures in our program are based on the 
best available scientific knowledge and were developed with broad 
public involvement.
    Currently, the Council is considering amending its fish and 
wildlife program. One primary impetus for this is a draft scientific 
report on the program that was released in September of 1996. In March 
1995, the Council asked the Independent Scientific Group (later 
reconfigured and renamed the Independent Scientific Advisory Board) to 
review the science underlying the Columbia River Basin Fish and 
Wildlife Program and to propose a conceptual foundation for that 
program. The scientists spent more than a year and analyzed more than 
4,000 pieces of literature before drawing the conclusions contained in 
the prepublication report that was issued last September. The report 
describes an approach to fish recovery that would emphasize the 
ecosystem inhabited by the fish at every stage in their life cycles. 
This approach, deemed ``the normative ecosystem,'' would shift recovery 
efforts toward restoring the kind of conditions that nurture salmon and 
steelhead and other fish and wildlife in less-developed habitat. At the 
same time, the report acknowledges that development has occurred and 
will continue, and fish and wildlife recovery measures will require 
policy calls on the trade-offs among ecological needs and the cultural 
and economic needs of society. The report stresses the importance of a 
continuum of habitats from freshwater streams, through the estuary and 
out into the ocean. It also suggests that core populations of salmon in 
particularly healthy habitat, such as the Hanford Reach in Washington 
State, can be used to recolonize adjacent habitat areas where salmon 
are in decline. The report was released for public comment, and 
currently is being finalized by its authors. The final report is 
expected to be available sometime this summer.
    At the present time, the Council is in the initial stages of 
developing a scientific foundation for future amendments to the 
Columbia River Basin Fish and Wildlife Program. The scientific 
foundation is a set of principles that helps translate goals into 
ecological objectives and strategies. The Council intends to develop a 
foundation that will underlie and help connect the goals, ecological 
objectives and strategies in an amended Program. Through the scientific 
foundation, goals shape ecological objectives, which shape strategies. 
Finalizing the Independent Scientific Advisory Board's report and 
developing a scientific foundation will help prepare the way for the 
formal amendment process, which may begin later in the year.
    The Northwest Power Act imposed responsibilities on Federal river, 
land and power agencies to act in a manner consistent with the 
Council's power plan and fish and wildlife program or to consider the 
plan and program in their decision-making ``to the fullest extent 
practicable.'' The ability of Federal agencies to meet their objectives 
under the Act is tied directly to their funding levels and budget 
priorities.
                      u.s. army corps of engineers
    The Council continues to support the Corps' Columbia River Fish 
Mitigation Program. The primary focus of the program is to reduce the 
mortality of juvenile salmon and steelhead as they migrate down the 
Snake and Columbia rivers to the ocean from their spawning grounds. 
While significant sums of money have been appropriated for the program 
over the past decade, and many improvements have been made, much work 
still remains. The Corps' fiscal year 1999 budget proposal for the 
program is $117 million, and includes funding for several critical 
studies and activities that are crucial to recovering, rebuilding and 
maintaining the anadromous fish runs in the Columbia River Basin. The 
budget includes adequate funding for continued testing and installation 
of new or improved juvenile bypass and related transportation 
facilities at the mainstem dams: Lower Granite, Little Goose, Lower 
Monumental and Ice Harbor dams on the Snake River, and McNary, John 
Day, The Dalles and Bonneville dams on the Columbia. The Council 
supports the Corps' full budget request of $117 million.
Juvenile Fish Passage Improvements
    In 1987, the Council helped develop a consensus among private and 
public utility interests, Indian tribes, fish and wildlife interests 
and the Bonneville Power Administration on the need for expedited 
completion of new and improved fish bypass facilities at all the 
mainstem dams. This regional consensus resulted in an original schedule 
for completing these facilities by 1994. Unfortunately, several 
unforeseen factors have made the original schedule impossible to keep. 
Escalating costs and unexpected, dramatic declines in the population of 
several of the basin's anadromous fish runs have contributed to a 
longer implementation schedule for the program. This has led to new 
demands on the Corps to develop, test and install facilities not 
envisioned initially, such as extended-length bypass screens, surface 
bypass facilities, structural improvements in the projects to reduce 
dissolved gas levels when water is spilled at the projects to assist 
the migrating fish, and installation of passive integrated transponder 
(PIT) tag detectors (electronic devices being installed at some 
hydroelectric projects that can identify tiny electronic transmitters 
implanted in the bodies of some of the passing salmon).
    The Corps is requesting a total of $62.707 million in fiscal year 
1999 for juvenile fish passage improvements. This includes $15 million 
for the construction and installation of extended length screens at 
John Day Dam, and $31.95 million for the construction of juvenile 
monitoring and outfall facilities at powerhouses 1 and 2 at Bonneville 
Dam. The request also includes $23.2 million relating to surface bypass 
facilities. Of that amount, $5 million is for continued evaluation of 
the prototype surface bypass at Lower Granite Dam, and $9.7 million 
would go for the design and construction of test facilities at 
Bonneville Dam. In addition, the Corps' request includes $11.77 million 
for dissolved gas abatement activities, $8.57 million for adult fish 
passage improvements, $4.028 million for Snake River drawdown 
feasibility studies, and $3.730 million for John Day drawdown studies. 
The Council believes that making the Federal projects safer for 
juvenile and adult migrating continues to be of the highest priority, 
and encourages the Subcommittee to continue funding the program at the 
highest possible level to ensure the planned facilities are in place at 
the earliest possible date.
Surface Bypass Facilities
    The Council supports continued testing, and if beneficial, the 
development and installation of surface bypass facilities at the 
mainstem hydroelectric dams. These new systems direct juvenile fish 
over spillways and may help salmon pass the dams more quickly and avoid 
the pressure changes that occur when the salmon go through conventional 
bypass systems. The Corps has included $23.2 million in the fiscal year 
1999 budget to design, test and develop surface collection and bypass 
systems at Lower Granite, John Day, The Dalles and Bonneville dams. The 
Council supports moving forward at these projects, as proposed by the 
Corps, and believes that surface collection facilities may offer a more 
efficient solution to passage difficulties at the dams.
John Day, McNary and Lower Snake River Drawdown Studies
    For fiscal year 1999, the Corps is requesting $4.028 million and 
$3.73 million, respectively, for reservoir drawdown studies on the 
Lower Snake River and at John Day Dam. The funds requested for the 
Lower Snake River will be used to gather additional biological 
information and to continue detailed engineering and economic studies 
on drawdown alternatives, with a final decision by the Federal 
government expected in late 1999 or early 2000.
    The activities associated with the John Day study are identified in 
the Corps' ``John Day Drawdown Phase I Scope of Study'' document that 
was released last December. Actual Phase I studies, if funded by 
Congress, will include biological, social and economic studies, as well 
as cost estimates of the two proposed alternatives, spillway crest and 
natural river, and will identify the potential physical impacts of 
drawdown. Provided Congress approves funding during fiscal year 1998, 
the Corps hopes to commence its Phase I study this spring, and expects 
to have it completed by the spring of 1999. The total cost of the Phase 
I study is expected to be $3.3 million. Phase II, the feasibility study 
phase, would be conducted following Phase I. The Council is aware of a 
considerable amount of controversy surrounding these proposed 
activities. The Council believes, however, that it is in the public's 
best interest to proceed with the studies so that valuable scientific 
and economic information regarding the regional effects on fish and 
wildlife, agriculture, local commerce, community stability, navigation, 
and system reliability can be compiled. This will provide a sounder 
basis for future decisions on whether to proceed with reservoir 
drawdowns.
    The Council also recommends that a portion of the money requested 
by the Corps for John Day drawdown studies be used to investigate the 
feasibility of modestly lowering the reservoir behind McNary Dam. 
Insufficient information exists to determine whether the benefits for 
salmon from a minimal pool lowering at McNary Dam, which could increase 
spawning habitat upriver in the Hanford Reach, would be more or less 
than from a deeper drawdown at John Day. Accordingly, the Council 
believes that both should be examined by the Corps.
Council Review of the Corps' Capital Program
    In the Subcommittee's fiscal year 1998 Conference Report, a 
provision in the joint explanatory statement was included directing the 
Council to conduct a review of the Corps' major fish mitigation capital 
construction activities proposed for implementation at the Federal dams 
in the Columbia River Basin. The language directed the Council to seek 
the assistance of the Independent Scientific Review Board in its 
effort, and to complete a report for Congress by June 30, 1998. We are 
pleased to report that we have initiated the review and are working 
with the Independent Scientific Advisory Board. The scientists have 
informed the Council, however, that they will be unable to complete 
their portion of the review by June 30. Due to their current heavy 
workload, they will complete their work in three separate installments 
between now and next January. The scientists are scheduled to provide 
the Council the first installment on May 20, 1998, and their report 
will include their views on the role of mainstem bypass measures in an 
ecosystem approach, the installation of extended length screens at John 
Day Dam and a review of the juvenile outfall placement and bypass 
system at Bonneville Dam. The second installment is scheduled for 
August 1998 and will include a review of surface bypass systems, 
especially the prototype at Lower Granite Dam, and a report on 
dissolved gas abatement projects. The scientists' final report is 
scheduled to be submitted in January 1999, and will include discussions 
of adult fish passage improvement projects and an integration of the 
major fish mitigation capital construction strategies in the context of 
the overall Corps program.
    Although this schedule does not comply with Congress' original 
direction, it should still be helpful to the Subcommittee as you 
prepare your fiscal year 1999 bill. The two most controversial projects 
under review are the extended length screens at John Day Dam and the 
juvenile outfall project at Bonneville Dam. The Independent Scientific 
Advisory Board expects to complete a review of both of these projects 
by May 20th, and we intend to provide a report to you on these elements 
of the program soon thereafter. If this schedule and arrangement is not 
workable for the Subcommittee, please inform us of this at the earliest 
possible date.
Willamette River Temperature Control, Oregon
    The Willamette River Basin is located in northwestern Oregon. 
During the last 40 years, 13 Corps of Engineers reservoirs have been 
constructed in the Basin to control floods, generate electricity and 
provide water for navigation, irrigation, improved water quality, 
recreation, and fish and wildlife. State and Federal agencies, 
including the Council, have been seeking modification of water 
temperatures downstream from Blue River and Cougar Lakes reservoirs to 
achieve more beneficial temperatures for wild spring chinook salmon, 
bull trout and rainbow trout. The Corps' feasibility study for the 
project was completed in 1995. The current estimated cost to install 
multi-level intake towers at the two projects is $45.2 million, which 
is 100 percent federally funded.
    The Corps' current focus is on the Cougar Lake reservoir intake 
tower. The estimated cost of preconstruction, engineering and design 
for Cougar Lake is $4.433 million. Approximately $3 million of that has 
been appropriated already. Unfortunately, the Corps is requesting only 
$29,000 for preconstruction work in fiscal year 1999, which is far 
below its actual performance capability. The Council understands that 
the Corps has the capability to use as much as $1.7 million in fiscal 
year 1999. Of that amount, about $1.2 million would be used for 
preconstruction activities and about $500,000 to initiate construction. 
If the project is not allocated more than $29,000 in the next fiscal 
year, the Council fears that it may become sidetracked permanently. 
Accordingly, the Council supports a funding level of $1.7 million for 
this critical project during fiscal year 1999.
                         bureau of reclamation
    The Bureau is proposing to spend $8.98 million in fiscal year 1999 
on the Yakima River Basin Water Enhancement Project. The Council also 
supports this project, which will employ structural and non-structural 
water conservation measures to increase the reliability of the 
irrigation supply and enhance streamflows in the Yakima River. In 
addition, tribal water supply facilities will be improved and tribal 
economic development, fish and wildlife, and cultural programs will be 
enhanced.
    The Council also supports the Columbia and Snake River Salmon 
Recovery Project, which the Bureau is proposing to fund at $13.116 
million for fiscal year 1999. The majority of the funds will be used 
for water conservation and water acquisition (in accordance with state 
water law) projects in the Snake River Basin.
                    bonneville power administration
    The Bonneville Power Administration provides electric power (about 
half of the power consumed in the Pacific Northwest), transmission 
(about 80 percent of the region's high voltage capacity), and energy 
services throughout the Pacific Northwest, a 300,000 square mile 
service area. Bonneville markets the power produced at 30 Federal 
hydroelectric dams in the region, which are operated by the Army Corps 
of Engineers and the Bureau of Reclamation, and acquires non-Federal 
power and electric energy conservation resources to meet the needs of 
its customer utilities. Bonneville receives no annual appropriations 
from Congress, funding the expense portions of its budget and repaying 
the Federal investment in the Federal Columbia River Power System with 
revenues from electricity sales. During fiscal year 1999, Bonneville 
plans to pay the Treasury its total annual scheduled payment, which is 
estimated to be $614 million.
    Bonneville is the primary implementor of the Council's fish and 
wildlife program. The budget proposed by Bonneville for fiscal year 
1999, which includes operating and capital expenses, totals $2.313 
billion. This is consistent with Bonneville's revised estimate of its 
fiscal year 1998 budget, and is consistent with its 1996 Final Rate 
Proposal.
Fish and Wildlife
    In the fall of 1995, the Administration and Congress agreed on a 
fixed budget for Bonneville's fish and wildlife recovery efforts in the 
Columbia River Basin. Under the terms of that agreement, which was 
further defined and formalized last September in a memorandum of 
agreement signed by the secretaries of the Army, the Interior, Commerce 
and Energy, Bonneville will incur costs, on average, of $435 million 
per year for five years on fish and wildlife activities. These funds 
fall under a number of different categories, including direct 
expenditures on fish and wildlife projects, power purchases, 
reimbursements of appropriated funds to the Corps of Engineers and the 
Bureau of Reclamation, capital repayment and foregone revenues. For 
fiscal year 1999, Bonneville estimates that its total fish and wildlife 
budget will be $408.9 million.
    Under the agreement, the portion of the budget related to direct 
expenditures, reimbursements and repayments is set at $252 million per 
year. The hydropower portion, however, will vary from year to year 
depending on winter precipitation. Based on historic water records, the 
value of lost hydropower in an average year was calculated at the time 
of the agreement to be about $183 million, bringing the total to $435 
million. For fiscal years 1997 and 1998, Bonneville has estimated its 
total fish and wildlife program costs to be $300.8 million and $401.3 
million, respectively, a significant reduction from the expected 
average of $435 million. This is largely due to the fact that costs 
attributed to lost hydropower (foregone revenues and power purchases) 
were much lower than expected due to a higher than average snowpack in 
the basin.
    As mentioned earlier, in the Energy and Water Development 
Appropriations Act for fiscal year 1997, the Committee added a new 
section, (4)(h)(10)(D), to the Northwest Power Act, which requires the 
Council to appoint an 11-member Independent Scientific Review Panel to 
review fish and wildlife projects proposed to be funded through 
Bonneville's direct program. For fiscal year 1999, Bonneville expects 
to spend $110 million on this part of its program.
    Relying on recommendations from the National Research Council, the 
Power Planning Council appointed 11 scientists to its Independent 
Scientific Review Panel last year. Also in accordance with the Act, the 
Council is in the process of establishing scientific peer review groups 
that will assist the Panel in its review process. The peer review 
groups and the scientific panel will review proposed projects and make 
recommendations to the Council no later than June 15 of each year. 
Recommendations are to be based on a determination that projects are 
based on sound scientific principles, benefit fish and wildlife, and 
have clearly defined objectives and outcomes with provisions for 
monitoring and evaluation of results. The Council must make the 
scientific panel's recommendations available to the public for review 
and comment, and also must consider the impact of ocean conditions and 
determine whether the projects employ cost-effective measures, before 
making its final recommendations to Bonneville for project funding. The 
Council is aiming to adopt its final recommendations for Bonneville in 
late August.
    The Council takes seriously the Committee's concern that fish and 
wildlife funds be spent judiciously. Consequently, we are continuing to 
work with Bonneville and the region's fish and wildlife managers to 
implement the requirements of section (4)(h)(10)(D), which will help 
ensure that Bonneville's ratepayers' funds are spent on projects that 
have the greatest value in recovering and providing mitigation for the 
Columbia River Basin's fish and wildlife populations.
    Mr. Chairman, thank you for this opportunity to share our views 
with you. We sincerely appreciate the thorough consideration that this 
subcommittee has given to the needs of the Pacific Northwest over the 
years.
                                 ______
                                 

    Prepared Statement of Mike Thorne, Executive Director, Port of 
                              Portland, OR

    Mr. Chairman and Members of the Subcommittee: Thank you for the 
opportunity to comment on the fiscal year 1999 Energy and Water 
Development Appropriation. On behalf of the Port of Portland, I want to 
thank subcommittee members for their recognition of water resource 
needs.
               columbia river channel improvement project
    First, I want to underscore the strong support from our region for 
two budget requests for the Columbia River deep-draft channel project. 
Included in the budget under consideration by your subcommittee are two 
items: $335,000 for the feasibility study in fiscal year 1999 and 
$300,000 for Preconstruction Engineering and Design (PED). The Port of 
Portland encourages the subcommittee to include full funding for both 
amounts. As you know, the local sponsor ports provide an equal amount 
for a 50-50 match for the feasibility study.
    To give you a measure of the importance of the Columbia/Snake River 
system, here are some statistics:
  --Largest wheat export gateway in the U.S.
  --Second largest grain export system in the world
  --Handles containers from manufacturers in more than 40 states
  --Unique inland container-on-barge system that makes Lewiston, Idaho 
        a port critical in increasing the quantities of agriculture 
        products reaching overseas markets.
    If all the wheat, barley and corn exported from the Pacific 
Northwest in a typical year were delivered to our docks in Portland by 
rail, it would require a train consisting of nearly 300,000 hopper car 
units stretching from Portland, Oregon to Portland, Maine. Because our 
region relies on a balanced rail and waterway system, I am glad to 
report that we have the capacity to handle these volumes easily.
    But a key is an extensive waterway system, featuring deep-draft 
ports and an inland system reaching all the way to Idaho, to move these 
volumes. In fact, 41 percent of this grain tonnage moves by barge. We 
must have both rail and waterway to get the job done efficiently and 
cost-effectively.
    The stakes in improving and maintaining the deep-draft outlet for 
this waterway system are high. All of our shipping customers will 
require substantial waterway expansion and efficiency improvements in 
order to keep pace with growing demand and increasing competition from 
foreign producers. This is nowhere more apparent than in the bulk and 
gain shipping business, where low margins mean price differentials can 
move the market from our domestic producers to foreign competitors.
                      national agriculture picture
    The importance of our nation's inland and deep-draft waterways 
clearly is not just an issue in the Pacific Northwest. There are plenty 
of examples, but I will concentrate on agriculture for this statement.
    As you know, the 1996 Farm Bill is phasing out the nation's 
agriculture program by 2002. The result is that exports, already a key 
to farmers, will now be even more critical for agricultural vitality in 
the future. Today, one-third of all farm production goes into the 
export market. That percentage is likely to climb.
    Ports will move aggressively to meet demands of shippers. A recent 
study by the Department of Agriculture and the U.S. Feed Grain Council 
documents the transportation advantages of the waterway system in the 
Pacific Northwest, further underlining the national benefits of an 
improved Columbia River Channel. The review also makes the point that 
ports will need to make investments to handle the growth in grain 
movements in the future. Implicit in this analysis is the same point 
for the Corps of Engineers: Ports can do their part to invest, but 
those investments are wasted if the nation's basic system, as 
maintained by the Corps, falls into disrepair.
    To remain competitive, our low-cost waterway transportation system 
is essential. Competition from Australia and Latin America is keen and 
likely to get sharper. As one example, Argentina is making large 
investments in its waterways to improve the competitive position of its 
agriculture community.
    Today, we have the best commercial waterway system in the world. 
But we take that system for granted at our peril.
                       administration budget cuts
    Strong growth in U.S. foreign trade in recent years, coupled with 
innovations by the shipping lines, has produced an even more 
competitive environment in the maritime industry. U.S. ports operate in 
a complex legal framework that has placed considerable financial 
pressure on port expansion. That same restraint is not felt to the same 
degree by our overseas competitors. My point is not to argue that we 
undo the proliferation of environmental rules and regulations facing 
U.S. ports. Instead, I emphasize that Congress needs to pay even more 
attention to the Corps of Engineers O&M budget in the years ahead.
    All of these competing pressures bring me to discuss the Corps of 
Engineers budget submitted by the White House. The numbers, to me, are 
appalling. To find a number like $700 million for new construction, you 
have to go back to a budget in the early 1970's. And that was in 1970 
dollars.
    Administration funding for all Civil Works programs will not allow 
the Corps to efficiently complete ongoing flood control, navigation 
construction, shoreline protection and mitigation programs around the 
country. Where the number is $3.2 billion for Civil Works, we should 
see an amount closer to $4.5 billion
    By extending the time required to complete water resource projects, 
the Administration is simply expanding the eventual costs of all of 
these projects. Do we really think we can ultimately save money by 
neglecting capital assets and maintenance or by extending the time it 
takes to complete a project?
    Before you conclude I am arguing the case for a deep-draft port 
alone, let me point out that my own reading of the budget this year 
does not create real problems for Oregon's deep-draft system. The pain 
this year is felt elsewhere in locks and dams, flood control and 
shoreline protection. But you can be sure that the farther we get 
behind in these needs each year, the more pressure there will be in all 
elements of the water resource system in future years.
    I worry that, as a nation, we are complacent about our economic 
well-being. A deteriorating waterway system will be a broadside hit to 
our livability in all regions. I hope we don't have to sustain that 
kind of pain to get the administration to wake up. The Corps of 
Engineers should be serving as the trustee of the navigation system. 
Unfortunately, the Corps has had too few budgetary tools to be an 
effective trustee of harbors and channels.
                   corps of engineers hopper dredges
    Another issue that has come before your subcommittee in the past is 
the operation of the Corps of Engineers Hopper dredge fleet. The Port 
of Portland continues to feel having the four Corps hopper dredges 
operating at full capacity is essential for navigation safety and the 
most efficient use of the nation's authorized channels. We will 
continue to work with the Corps and other interested parties, as well 
as your committee, to assure cost effective and timely dredging with 
the nation's hopper fleet.
    Late last year, port personnel reviewed a draft report on hopper 
dredges by the Corps. As a general perspective, we were disappointed at 
what appears to be a lack of analysis in this preliminary study. For 
example, we saw little examination of private sector dredging capacity, 
overall hopper dredge use during the year or dredging capability during 
peak demand periods. Because of our concerns for quick response to 
dredging emergencies, this type of information is critical. We would 
hope to see this information in any follow-up Corps review.
    To meet the needs of the nation's manufacturers, producers and 
shippers, assuring adequate channels for trade is the clear priority 
for the Corps dredging mission. If the Corps fleet is not maintained in 
an active, operations status, navigation safety and the effectiveness 
of our national transportation system will be at risk.
                               conclusion
    Thank you for your attention to the views of the Port of Portland. 
We appreciate the opportunity to discuss the importance of the Columbia 
River deep-draft channel, the Corps budget and the hopper dredge fleet.
                                 ______
                                 

   Prepared Statement of Ken O'Hollaren, Executive Director, Port of 
                              Longview, WA

    Mr. Chairman and Members of the Subcommittee: From the earliest 
days of the nation, ports have had the primary responsibility for 
developing, operating and financing marine facilities and docks. Today, 
this marine infrastructure is central to our national and local 
economies and the linchpin for efficient transportation of goods.
    Ports, whether large or small, are the economic engines that 
generate and support local economic development by providing 
transportation services, stimulating business activity and promoting 
investment and job creation. Ports also must generate revenue in order 
to be self-sufficient, a responsibility that has become increasingly 
challenging in recent years.
    While local ports attend to the business of port terminal and 
industry development, we rely on the Corps of Engineers for maintenance 
of the navigation system and necessary expansion.
                columbia river channel deepening project
    We appreciate this committee's support to date for the Corps of 
Engineers study of improvements to the Columbia River deep-draft 
channel. This project is our region's highest marine priority and we 
are requesting full funding from the committee for the feasibility 
study in fiscal year 1999, the $335,000 requested in the President's 
budget. As you know, the local sponsor port provide an equal amount for 
a 50-50 match. In addition, we encourage the subcommittee to provide 
the $300,000 requested for the start-up of Preconstruction Engineering 
and Design (PED). This step is a key to keeping the construction 
schedule on time.
    Greater effort to increase the capacity of this waterway is 
warranted in light of the preliminary economic analysis completed by 
the Corps to date. As another indicator of the economic and 
transportation vitality of our system, we have only to look at the size 
and volume of shipping traffic in the channel.
    In fact, the marketplace demands that we act to increase the 
capacity of the Columbia River system. We are seeing the evidence in 
many ways:
    Deeper Draft Vessels, Grain and Container--Increasing Vessel 
Size.--Since 1981, we have witnessed a 400 percent increase in the 
number of vessels requiring drafts deeper than the current 40 foot 
authorized channel. And more larger ships are being designed and built 
each year.
    National export gateway.--The Columbia River system is the nation's 
largest wheat exporting gateway and the second largest grain port 
system in the world. We are also home to an innovative container-on-
barge system that brings cargo downstream from Lewiston, Idaho. We 
handle bulk commodities from around the nation. On the container side, 
manufacturers from more than 40 states see their cargo depart from 
Columbia River terminals. Improving the Columbia River system means we 
can continue to provide these efficient trade outlets for these 
shippers.
    Bulk import volumes and vessels grow.--Deep-draft vessels also 
carry import bulk commodities vital to the nation's manufacturing 
sectors. Channel improvement will also increase the import capacity of 
the Columbia River system.
    Cost-effective, timely transportation.--Our customers and the 
marketplace demand a totally integrated, transportation logistics 
system. Today, ports in our region provide that competitive advantage 
to a number of U.S. export firms. Expansion of the Columbia River 
channel is a key to assuring that same level of service in the future.
    Integrated system.--On the Columbia/Snake river system, we connect 
barge, rail and trucking with the deep-draft system. Connecting these 
modes creates a transportation network that works efficiently and 
effectively for manufacturers and producers throughout our region and 
around the country. Our balanced system provides essential capacity, 
giving shippers a valuable option when congestion is an issue at other 
trade gateways.
                          minimum dredge fleet
    On a related issue, let me express our strong support for the 
operation of the Corps of Engineers hopper dredge fleet. The Minimum 
Dredge Fleet hopper dredges are of great importance to ports around the 
country and our customers include shippers, commercial and recreational 
fishermen. This interest is particularly keen in the Northwest, where 
we have a relatively small private hopper dredge sector.
    The Corps' hopper dredges play a substantial role in support of 
those trade volumes by helping to assure safe navigation. These dredges 
provide responsiveness, flexible service and help assure competitive 
bidding to conserve federal dollars.
    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to share the views of the Port of Longview on this 
critically important water resource project. Our nation needs a world-
class transportation system and we pledge our assistance in moving 
ahead to keep it that way.
    Thank you.
                                 ______
                                 

   Prepared Statement of Glenn Vanselow, Executive Director, Pacific 
                    Northwest Waterways Association

    Mr. Chairman and members of the Subcommittee: My name is Glenn 
Vanselow. I am Executive Director of the Pacific Northwest Waterways 
Association. We appreciate the opportunity to present our views on 
appropriations issues to the Committee. The PNWA membership includes 
nearly 130 organizations and individuals in Oregon, Washington, and 
Idaho. PNWA represents public port authorities on the Pacific Coast, 
Puget Sound, and Columbia/Snake River System; public utility districts, 
investor-owned utilities, electric cooperatives and direct service 
industries; irrigation districts, grain growers and upriver and export 
elevator companies; major manufacturers in the Pacific Northwest; 
forest products industry manufacturers and shippers; and tug and barge 
operators, steamship operators, consulting engineers, and others 
involved in economic development throughout the Pacific Northwest.
    PNWA has a long history of working with the Committee and the U.S. 
Army Corps of Engineers (Corps) on projects of regional and national 
importance, sharing the challenge to maintain and develop our 
transportation infrastructure. Our members wish to thank the Committee 
for its support of Pacific Northwest transportation, hydropower and 
salmon enhancement programs and projects.
                         appropriations request
    Fiscal year 1999 Civil Works Budget.--We strongly oppose the 
overall level of the President's fiscal year 1999 Budget request for 
civil works because it provides inadequate funding for other crucial 
Corps waterways programs nationwide. We believe that a level of funding 
closer to $4.5 billion is needed to maintain the integrity of the civil 
works program.
    Regional Navigation Operations and Maintenance.--We would like to 
thank the Committee for its previous support of navigation O&M 
(operations and maintenance) in the region's shallow, deep draft and 
inland navigation system. We support the Administration's funding 
requests for operations and maintenance (O&M) of the federally 
authorized navigation channels in the Columbia and Snake Rivers, Puget 
Sound and the Oregon and Washington Coasts. However, we encourage the 
Committee to increase funding for Yaquina Bay and Harbor at Newport, 
Oregon by $2.5 million over the $2.891 million requested.
    Navigation is the least cost, most fuel efficient and least 
polluting mode of transportation. Navigation is the critical link that 
keeps the Northwest and the nation competitive in domestic and 
international trade and supports the commercial and recreational 
fishing industry. It provides significant numbers of jobs and other 
economic benefits both within the region and nationally. We support 
maintaining a strong federal role in planning, construction, operation, 
maintenance and funding of navigation on the inland waterways, deep 
draft ports and shallow draft ports. We ask the Committee for full 
funding for ongoing operations and maintenance (O&M) of the federally 
authorized navigation channels in the Columbia/Snake river system, the 
Oregon and Washington coastal ports and Puget Sound. Maximizing O&M is 
a cost-efficient means of fully utilizing the federal government's 
investment in channel operations.
    We urge the Committee to resist those proposals that would 
drastically reduce Corps funding for basic services, including the 
maintenance of shallow and deep draft ports and inland waterways. Some 
20 percent of the employment in the Northwest states is directly 
related to international trade. These navigation projects are among the 
few federal programs that are analyzed to ensure that economic benefits 
exceed the costs. Eliminating these programs would not be cost-
effective.
    Navigation Feasibility Studies and Construction.--We wish to thank 
the Committee for appropriating funds last year for feasibility studies 
on the Columbia River and in Puget Sound. We are opposed to the ``full-
project funding'' proposal for new construction and the downward trend 
in funding included in the President's fiscal year 1999 Budget request 
for the Corps' civil works program.
    The Columbia River deep draft channel is the lifeblood of the 
Columbia/Snake River System, which serves shippers from 40 states. To 
protect future growth and development of the River System, we ask the 
Committee to fund the requested $335,000 for the federal share of the 
feasibility study and $300,000 for preconstruction engineering and 
design for the lower Columbia River Navigation Channel Deepening. This 
funding would pay for the federal government's share of work necessary 
to investigate improving the existing 40-foot navigation channel by 
increasing the channel depth to 43 feet. We support a $3 million dollar 
increase in funding for preconstruction engineering and design and 
construction for the Blair Waterway Channel Deepening at Tacoma. We 
also support increased funding and statutory language directing the 
Corps to reimburse the project sponsor for eligible costs related to 
the East Waterway Channel Deepening at Seattle, which is proposed to be 
carried out during O&M dredging.
    Minimum Dredge Fleet.--We encourage the Committee to maintain all 
four federal hopper dredges operated by the U.S. Army Corps of 
Engineers by rejecting plans to place the dredge WHEELER on stand-by 
status, and by eliminating the set-aside for private dredges. We oppose 
legislation that places artificial limits on the federal hopper dredges 
by directing increasing amounts of maintenance dredging to private 
dredges. Federal hopper dredge costs are artificially higher than 
necessary because of that set aside. We believe that Congress should 
reduce or eliminate the set aside to increase the efficiency of the 
Corps hopper dredges. We also encourage the Committee to find ways to 
make the Corps dredges less expensive to operate by examining recent 
increases in depreciation and plant increment payments.
    We were disappointed in the ``Draft Minimum Dredge Fleet Study'' 
released by the Corps on October 8. We have been waiting for years for 
the Corps' study, expecting it to provide data and analysis that could 
be used to determine the requirements for the federal fleet. Our 
criteria for maintaining the federal fleet has been cost, capacity and 
responsiveness. Capacity and responsiveness were not analyzed in the 
study, and it appears that the Corps considers maintaining navigation 
channels and industry dredging companies to be of equal importance. The 
future of the dredge fleet is an important decision that will affect 
international trade and the economic well being of our region and the 
nation. It should be made with sound analysis. We encourage the 
Committee to direct the Corps to provide it with data and analysis to 
support the various options it described in the October 8 study.
    We believe that the presence of the federal dredges keeps bids for 
dredging work competitive and lower in cost. We are concerned that the 
low number of private industry bids for work in our region could force 
dredging costs higher were it not for the availability of the federal 
dredges.
    There are other ways to cut costs and increase the efficiency of 
the Corps' hopper dredges. Prior to fiscal year 1995, the Corps did not 
collect plant increment for its hopper dredges. The addition of this 
fee added over $4 million to the cost of performing O&M dredging of 
projects with the Corps' hopper dredges. Prior to fiscal year 1993, the 
Corps calculated depreciation of its hopper dredges over 40 years. In 
fiscal year 1994 the Corps changed the calculation to 50 years, 
reasoning that with lessened use, driven by directives to contract more 
work with private industry, the federal hopper dredges would last 
longer. However, beginning in 1995, the Corps changed its depreciation 
calculations again. Prior to 1995, federal hopper dredge charges to 
navigation projects were reduced, or ``discounted,'' in the amount 
proportionate to the cost of the military features added during 
construction. In 1995 the Corps reduced this discount. Navigation 
projects are paying for depreciation on defense-related equipment, 
although their current defense role is not clear. This adds nearly $2 
million annually to the cost of using the Corps' hopper dredges.
    We believe that nearly $6 million could have been saved if the 
Corps had not imposed plant increment and increased depreciation 
charges on its hopper dredges.
    Operations and Maintenance of the Region's Hydropower System and 
the John Day Drawdown study.--We are concerned that the President's 
fiscal year 1999 Budget request for construction on the Bonneville Dam 
powerhouse phase II and The Dalles powerhouse is insufficient. We 
encourage the Committee to increase funding to approximately $14 
million. We also encourage the Committee to increase funding for The 
Dalles powerhouse construction to approximately $8 million. We support 
the President's requests for Operations and Maintenance at these and 
other regional projects. We encourage the Committee to direct the Corps 
to provide clear, compelling biological evidence supporting drawdown 
prior to release of funds for the study. We also encourage the 
Committee to direct the Corps to focus the John Day drawdown study on 
the economic, social and environmental impacts of drawdown.
    We have testified in previous years that we do not believe there is 
biological justification for drawdowns. It is also clear that drawdown 
would have serious economic impacts on the region and the nation. 
Drawdown would eliminate important authorized purposes on the system, 
including navigation, hydropower production and irrigated agricultural 
production. The committee also should be aware that we believe that 
drawdown would reduce the Bonneville Power Administration's revenue 
generating capacity and jeopardize BPA's ability to repay its debt to 
the U.S. treasury after the next subscription process expires. The four 
lower Snake dams and John Day provide 20 to 25 percent of BPA's total 
energy production.
    Salmon Recovery Decision Authority and Funding.--First, we support 
efforts to establish priorities for funding and implementation of fish 
and wildlife recovery projects in the Columbia River Basin Fish and 
Wildlife Program. Second, we support selected salmon recovery actions 
such as improved and enhanced smolt transportation, surface collection 
and other smolt by-pass facilities and habitat restoration and 
protection.
    We support the Senator Slade Gorton's 1996 amendment to the 
Northwest Power Act, approved during consideration of the fiscal year 
1997 Energy and Water Appropriations bill, which establishes a panel of 
scientists to establish priorities for funding and implementation of 
fish and wildlife recovery projects in the Columbia River Basin Fish 
and Wildlife Program. We hope that this, with the Independent Economic 
Analysis Board, will result in programs that will provide maximum 
biological benefits to listed salmon stocks and are more cost-
effective.
    Regional Governance.--The discussion about regional cooperation in 
developing salmon recovery objectives and programs has been expanded 
significantly. Some have proposed a three-sovereigns forum in which the 
federal, state and tribal governments would reach consensus on ``issues 
of regional concern wherever they arise'' within the Columbia Basin 
ecosystem. PNWA believes that improved coordination of federal, state 
and tribal fish programs may be beneficial. However, a recent draft 
Memorandum of Agreement (MOA) demonstrates that the three sovereigns 
are reaching far beyond fish to create a new layer of regional 
government. They intend to be the forum for decisions on land 
management planning, the management and use of water in the Basin, the 
implementation of water quality standards under the Clean Water Act, 
FERC hydro relicensing, and any other issues of regional concern they 
choose, be they fish related or not. They are creating the MOA without 
consulting affected stakeholders and they do not intend to include 
stakeholders in the consensus process. PNWA urges Congress to support 
collaboration within the existing authorities of the federal agencies, 
states and tribes, and, in the strongest terms possible, we urge 
Congress to retain exclusive authority over the authorized purposes of 
the federal projects within the Columbia Basin.
    Hanford Cleanup.--We ask the Committee to continue to adequately 
fund the Department of Energy cleanup of 45 years of accumulated 
defense waste currently stored at the Hanford site. We recognize that 
defense waste cleanup is a long-term project that will be most cost 
effective and most rigorously pursued if Hanford is a viable, operating 
site. Therefore, we strongly urge the Committee to support a complete, 
ongoing Hanford scientifically and technologically based research and 
operations program in order to ensure long-term funding for waste 
cleanup. PNWA also supports a complete and ongoing scientifically and 
technologically based research and operations program, including the 
restart of the Fast Flux Test Facility for the joint missions of 
national defense and medical research and isotope production to meet 
the demands for more effective cancer treatments.
    Conclusion.--On behalf of nearly 130 members from throughout the 
Pacific Northwest, we thank the Committee for giving us this 
opportunity to review a number of issues important to the environmental 
and economic prosperity of our region.
                                 ______
                                 

  Prepared Statement of Ron Nelson, Chairman, Deschutes Basin Working 
                        Group of Central Oregon

    Mr. Chairman and Subcommittee Members: Thank you very much for the 
opportunity to submit testimony regarding the Bureau of Reclamation's 
Budget for fiscal year 1999. I am writing today to request that 
$1,000,000 be included in the Senate version of the fiscal year 1999 
Energy and Water Appropriations Bill for the Deschutes Basin Working 
Group in Central Oregon. This amount has been included in the 
President's Budget request for fiscal year 1999, and we sincerely hope 
it will be included in your subcommittee's version of the Energy and 
Water Bill.
    The Deschutes River is one of Oregon's most treasured resources. It 
drains Oregon's high desert along the eastern front of the Cascade 
Mountains, running from high mountain lakes into deep and dramatic 
canyons before joining the Columbia River. The Deschutes is one of 
Oregon's most important rivers. It is the state's most intensively used 
recreational river. It serves as the principal water sources for 
extensive irrigation projects in Central Oregon. And it supplies the 
municipal demand for one of Oregon's fastest growing cities, the City 
of Bend. In addition, the Deschutes embraces hundreds of thousands of 
acres of productive forest and range lands, serves the treaty fishing 
and water rights of the Confederated Tribes of Warm Springs, and 
harbors Oregon's largest non-Federal hydroelectric project.
    Until now, the Deschutes River has shouldered all of these uses and 
still remained a clean and vibrant stream. If steps are not taken 
today, however, the entire Deschutes River Basin will almost certainly 
suffer beneath these increasing pressures. In fact, the signs of stress 
on the Deschutes River system are already showing. The National Marine 
Fisheries Service recently proposed listing the Deschutes River 
steelhead as a threatened species under the Endangered Species Act.
    Fortunately, we have a forum and an outlet in Central Oregon that 
can contribute significantly toward the resolution of these problems 
and the sustainability of the basin's ecological health, the Deschutes 
Basin Working Group. The working group was originally formed as an ad-
hoc group in 1993 by a wide cross-section of basin interests. The 
purpose of the group was to discuss looming threats to the basin's 
resources and ways of addressing them based on consensus, voluntary 
actions and market-based incentives.
    The working group had some initial successes but lacked the power 
of a Congressional authorization to bring governmental and non-
governmental interests to the table in the spirit of cooperation. Then 
in 1996, then-Senator Mark Hatfield took the ad-hoc group's concept and 
sponsored legislation to formally authorize it and its locally driven 
model as a five-year pilot project.
    Legislation authorizing the Deschutes Basin Working Group was 
enacted in November of 1996 through provisions contained in the Omnibus 
Appropriations Act for fiscal year 1997 (Public Law 104-208, Division 
B, Title III) and the Omnibus Parks Act of 1996 (Public Law 104-333). 
The group was established as a five-year pilot project designed to 
build local consensus around on-the-ground projects that improve 
ecosystem health in the Deschutes River Basin in Central Oregon. The 
legislation authorized $1,000,000 per year for on-the-ground projects, 
which must be matched at least 50/50 with non-Federal funding sources. 
All projects must be concurred with by the Secretary of the Interior.
    The President's Budget request for fiscal year 1999 includes 
$1,000,000 for this group through the Bureau of Reclamation, the 
group's lead Federal agency. The group, which includes irrigators, the 
Warm Springs Indian Tribe, environmentalists, Portland General Electric 
Company, local businessmen, local elected officials and Federal and 
State agency representatives, has already developed project selection 
criteria and identified a number of water quality, water quantity, fish 
passage and habitat improvement projects that could be funded with the 
$1,000,000 appropriation.
    Without this funding, however, the group's main purpose of securing 
on-the-ground ecological restoration projects will not become a 
reality. Therefore, we strongly and respectfully urge you to include 
$1,000,000 for the working group in the Senate Energy and Water 
Subcommittee mark for fiscal year 1999. With your support, the local, 
consensus-based approach being used in the Deschutes River Basin can 
achieve success and possibly serve as a model throughout the West for 
resolving contentious environmental issues before they reach the crisis 
stage.
    Thank you again for the opportunity to testify before the 
subcommittee. Please don't hesitate to contact me if you have any 
further questions or concerns.
                                 ______
                                 

 Prepared Statement of Joe Moses, Chairman, Warm Springs Tribal Council

    On the behalf of the Confederated Tribes of the Warm Springs 
Reservation of Oregon, I, Joe Moses, Chairman of the Warm Springs 
Tribal Council, hereby submit this testimony regarding the fiscal year 
1999 U.S. Army Corps of Engineers Construction Budget Request to the 
Senate Appropriations Subcommittee for Energy and Water Development and 
request that it be made a part of the Subcommittee's formal fiscal year 
1999 hearing record.
    The address of the Confederated Tribes of Warm Springs is P.O. Box 
C, Warm Springs, Oregon, 97761. Our telephone number is 541-553-1161.
                                summary
    The Confederated Tribes of Warm Springs request that fiscal year 
1999 Corps of Engineers construction funding for Columbia River Treaty 
Fishing Access Sites in Oregon and Washington be increased by $4.6 
million to provide the continued development of the fishing access 
sites. Without the increased funds, development of the sites will come 
to a halt during fiscal year 1999.
                               background
    The construction of Bonneville Dam on the Columbia River in the 
1930's caused the inundation of approximately forty traditional Indian 
fishing sites. The right of the Warm Springs Tribes to fish on the 
river is secured in our 1855 Treaty with the United States. In 1939, 
the U.S. Government pledged to the Warm Springs and other Columbia 
River treaty tribes to provide 400 acres of new sites on the Bonneville 
Pool in lieu of those inundated. However, only five ``in-lieu'' sites 
totalling forty acres were provided. In 1973, the U.S. again pledged to 
honor its in-lieu site promise with more and improved sites. But that 
pledge was also not kept, and by the 1980's, the five existing sites 
were even more inadequate, having become seriously overcrowded and run 
down. In 1988, to fulfill the U.S.'s long-standing promises and to 
address the conditions at the five existing sites, legislation was 
enacted (Public Law 100-581, Title IV) directing the U.S. Army Corps of 
Engineers to improve the five existing sites, to acquire and develop up 
to six new in-lieu sites on the Bonneville Pool, and to develop another 
twenty three new access sites up the river.
               site development through fiscal year 1999
    After lengthy planning and evaluation by the Corps, the number of 
appropriate new access sites was modified to twenty. Most of these 
sites are comparatively small, being perhaps two or four acres in size. 
In any event, Public Law 100-581 restricts the total acreage of all 
sites to no more than 400 acres.
    The Corps finally received its initial construction appropriation 
and started on-the-ground work in fiscal year 1994. Since that time, 
three of the existing sites have been refurbished and one new site has 
been completed. Three new sites are expected to be completed in fiscal 
year 1998, and in fiscal year 1999 the two remaining existing sites and 
three Bonneville Pool new sites will be completed. Then, without 
additional funding, construction halts. With no funding requested to 
initiate development of additional sites, the project will essentially 
stop, once again without the U.S. fulfilling its obligation.
    The development of these sites, from design to completion, usually 
spans several years, and it is our understanding that the $1.7 million 
requested by the Corps of Engineers for fiscal year 1999 only provides 
for completion of the two remaining existing sites and three Bonneville 
Pool sites. Beyond that, the $1.7 million does not provide for the 
initiation of any further site development.
                 request for an additional $4.6 million
    We urge the Subcommittee to increase the fiscal year 1999 Corps 
construction budget for Columbia River treaty fishing access site 
development by $4.6 million, which we understand will enable the Corps 
to carry the project forward by initiating construction on five 
additional sites. With hundreds and hundreds of tribal fishermen 
regularly coming to the Columbia to exercise their treaty rights to 
engage in ceremonial, subsistence and commercial fishing, the sites 
rapidly fill up. Most fishermen and their families stay at least 
several days, and many effectively reside at the sites for extended 
periods, often spanning months. Space is needed for boats, cars, boat 
and house trailers, tents, drying nets and cleaning fish. Even with the 
five refurbished existing sites and the seven new sites expected to be 
completed by the end of fiscal year 1999, the space is sharply 
inadequate. In fact, the pressure for additional space is such that 
tribal fishermen often start using new sites before their development 
is complete.
    Mr. Chairman, fishing on the Columbia River has been a mainstay of 
our culture since time immemorial. When the U.S. placed our people on 
reservations many miles removed from the Columbia, we expressly 
preserved the right in our treaties to fish on that river. The U.S. 
Courts have repeatedly affirmed that right, including a determination 
that the right to fish carries with it a right of access to the 
Columbia. Now that the U.S. has spent billions to erect a long series 
of great dams on the Columbia, and in the process moved entire towns to 
accommodate their lakes, we ask that the U.S. appropriate the funds to 
accommodate our far older need for fishing sites, living up to the laws 
and promises it has made to our people.
    Thank you.
                                 ______
                                 

  Prepared Statement of Dave Whitener, Chairman, Squaxin Island Tribe

    On behalf of the Squaxin Island Tribe of Washington State, I 
express our appreciation for the opportunity to submit testimony 
regarding the fiscal year 1999 Bureau of Reclamation (BOR) budget. 
Listed below is our
    Summary of Request.--$4,000,000 for the Fish Barrier Removal and 
Stream Channel Restoration on Goldsborough Creek
    Narrative Justification for the Request: Fish Barrier Removal and 
Stream Channel Restoration on Goldsborough Creek.--We seek support 
funding for Section 206 of the Water Resources Development Act of 1996. 
Section 206 authorizes funding for Aquatic Ecosystem Restoration 
Projects which are in the public interest and improve the quality of 
the environment. Based on our discussions with the Army Corps of 
Engineers at the National and District level, we believe the 
Goldsborough Dam removal and restoration project is eligible for this 
funding source.
    This project entails the demolition of the Goldsborough Dam and 
restoration of natural river processes throughout the impacted reach. 
Goldsborough Creek drains a watershed of over 60 square miles (38,407 
acres) and empties into southern Puget Sound at Shelton, located on 
Oakland Bay, in Mason County, Washington. The dam is located just above 
river mile 2 resulting in a partial or complete blockage of over 90 
percent of the accessible stream miles. In addition to the approximate 
14 foot height of the dam, the structure has resulted in the scouring 
and the degradation of the stream bed immediately below the dam of 
another 16 to 18 feet. This imposing physical barrier sits today where 
previously existed a rapids which was passable by anadromous fish.
    The dam is in a state of disrepair, and requires extensive annual 
maintenance. It could require a complete reconstruction or removal in 
the next few years. Bedload has built up behind the dam, completely 
filling the pool. This could result in a catastrophic release of 
sediment if the dam failed, damaging fish life and imperiling human 
life and property downstream. Simpson Timber Company, the owner of the 
dam, has conducted an engineering feasibility study and determined that 
dam removal is possible and only marginally more expensive than the 
cost of stabilizing the existing dam and providing adequate fish 
passage.
    The solution calls for a three step plan to include removal, repair 
and restoration. This would include complete emergency removal of the 
structurally weakened Goldsborough Dam, construction of a series of 
weirs to form steps in the river to reestablish a more gradual gradient 
in the stream bed, and riparian restoration to improve ecosystem 
functioning along with restoration of natural watershed processes and 
bedload transport.
    The project has the potential to contribute to the recovery of 
endangered fish species by restoration of unimpeded migration access 
for anadromous fish to the entire watershed. In addition, Simpson 
Timber Company, the largest landowner in the watershed, is developing a 
Habitat Conservation Plan for salmon consistent with the Endangered 
Species Act. Thus, any 206 project would contribute to other Federal 
recovery efforts already under way.
    The ACOE is proceeding with development of a Preliminary 
Restoration Plan (PRP), an initial evaluation of the project. On behalf 
of an extended network of project partners, including Mason County, the 
City of Shelton, Washington Department of Fish and Wildlife, Washington 
Department of Ecology, U.S. Fish and Wildlife Service, the U.S. Army 
Corps of Engineers, Trout Unlimited, the South Puget Sound Salmon 
Enhancement Group, Simpson Timber Company, and others, the Tribe is 
seeking to assure that funding will be available to complete this 
project. We request that language be added to Section 206 
appropriations authorization which directs the ACOE to make every 
effort to give special consideration to this project.
    In conclusion, the Squaxin Island Tribe appreciates the Committee's 
consideration of our request and we are hopeful that this cooperative 
effort will be funded to initiate such a worthwhile project.
    Thank you.
                                 ______
                                 

    OHIO RIVER NAVIGATION SYSTEM AND OTHER INLAND WATERWAY PROJECTS

Prepared Statement of Joseph E. Lema, Vice President, Manufacturers and 
             Services Division, National Mining Association

    The National Mining Association represents companies which produce 
coal, metallic minerals, and other nonmetallic minerals, and which are 
engaged in manufacturing and supplying mining and minerals processing 
equipment, machinery, materials, and services.
                   environmental restoration program
    The NMA is proud of its leadership in initiatives to restore 
ecosystems degraded by mines abandoned prior to the passage of the 
Surface Mining and Reclamation Act. With respect to hardrock mining, 
NMA recently signed a memorandum of understanding with the Western 
Governors Association for the Abandoned Mine Lands Initiative, which 
provides an effective framework for partnership for environmental 
restoration between the industry and the states. NMA is pleased that 
the Corps of Engineers is partnering with the Office of Surface Mining, 
other Federal agencies, state agencies, and universities to restore 
streams that have been impacted by acid drainage from abandoned mines. 
The Corps has responded enthusiastically to this mission with the broad 
authority for aquatic ecosystem restoration granted by Section 206 of 
the Water Resources Development Act of 1996 and other project specific 
authorities. Corps partnerships are already working in the Appalachian 
region and new partnerships are forming with state governments for 
restoration of streams in several western states. We urge your 
continued support of these Corps programs. In addition, we request 
funding for the Acid Drainage Technology Initiative (ADTI) in the 
amount of $2 million in fiscal year 1999 to develop the next generation 
of technologies to control acid mine drainage. We believe this research 
is vital to the Corps' work to restore valuable aquatic ecosystems 
throughout the Nation.
                           navigation program
    The NMA requests that fiscal year 1999 appropriations be approved 
for the construction of inland waterways projects, and the completion 
of an important, multi-year feasibility study of projects on the 
mainstem of the Ohio River identified below:

Ohio River:
    Olmsted Locks and Dam...................  Construction of locks and dam incorporating twin, 1,200-foot by
                                               110-foot lock chambers to replace Locks and Dams 52 and 53.
    McAlpine Locks and Dam..................  Construction of a 1,200-foot by 110-foot lock chamber in addition
                                               to a similar chamber now in place.
    Ohio River Mainstem Study, Pittsburgh to  Completion of an ongoing multi-year feasibility study being
     Cairo, Illinois.                          performed by the U.S. Army Corps of Engineers.
Kanawha River:
    Marmet Locks and Dam....................  Construction of an 800-foot by 110-foot lock chamber matching a
                                               similar lock at Winfield downstream, which opened to navigation
                                               in 1997.
    London Locks and Dam....................  Rehabilitation of obsolete structure.
Monongahela River: Locks and Dams 2, 3  and   Construction of replacements for Locks and Dams 2 and 4 and
 4.                                            removal of Lock and Dam 3.
Tennessee River: Kentucky Lock and Dam......  Construction of an additional 1,200-foot by 110-foot lock chamber.
 

the ohio river and connecting segments of the kanawha, monongahela, and 
 tennessee rivers are vital barge freight routes for distributing coal 
                     and other freight commodities
    The Ohio River is a principal corridor for distributing coal and 
mineral commodities carried on intermodal truck-barge and rail-barge 
routes in eastern and midwestern states. It provides a corridor 
especially expansive by virtue of its connections with other commercial 
freight-carrying rivers in the Ohio River Basin, in particular the 
Monongahela, Kanawha, Big Sandy, Green, Cumberland, and Tennessee 
Rivers, together with its important linkage with the Mississippi River 
furnishing continuity of barge traffic to the southern states and the 
Gulf of Mexico. Table 1 below shows how barge freight has been growing 
on selected rivers in the Ohio River Basin from 1987 to 1996.

----------------------------------------------------------------------------------------------------------------
                                                                     Barge Freight Traffic \1\ (million tons)
                                                                 -----------------------------------------------
                          River                            1987        Coal               All Commodities
                                                                 -----------------------------------------------
                                                                       1996            1987            1996
----------------------------------------------------------------------------------------------------------------
Ohio River Mainstem \1\.................................     115             134             197             237
Kanawha River...........................................      12              16              19              25
Monongahela River.......................................      29              33              33              37
Tennessee River.........................................      20              18              42             46
----------------------------------------------------------------------------------------------------------------
\1\ Source: Estimated Waterborne Commerce Statistics for Calendar Year 1996, U.S. Army Corps of Engineers,
  October 1997.
\2\ Includes traffic utilizing all, or part, of the Ohio River. Much Ohio River barge freight traffic originates
  or terminates on other rivers in the Ohio River Basin, including those shown.

    It is likely that power generation will increase at an annual rate 
of 1.5 percent to 3.0 percent in the near term, and coal is the low 
cost fuel of choice for generating 56 percent of the electricity 
consumed in the U.S. Consolidated Rail Corporation (Conrail) will be 
divided among CSX Transportation and Norfolk Southern Corporation 
during 1998. Shippers in the service area formerly served by Conrail 
will likely place new emphasis on seeking intermodal rail-barge 
alternatives to all-rail movements as they search for competition in 
regard to transportation service.
  full utilization of the inland waterways system, in particular, the 
ohio river and its tributaries and connecting rivers, serves the nation 
                              in many ways
    The inland waterways, in particular, the Ohio River and its Ohio 
River Basin tributaries and its waterways connections to points outside 
of the Basin, contribute to many key objectives. They:
  --provide that ``shippers and consumers realize over $2.2 billion 
        annually in savings as a result of using the waterways of the 
        Ohio River System over more costly modes of transportation'' 
        Commerce on the Ohio River and Its Tributaries, Ohio River 
        Navigation System Report, 1996, U.S. Army Corps of Engineers;
  --are responsive to energy and environmental goal, e.g., ``as a 
        consequence of being less energy intensive than other modes, on 
        a ton-mile basis water transport also produces less air 
        pollution--and is usually quieter.'' ``The less energy used, 
        the less air pollution produced.'' Environmental Advantages of 
        Inland Barge Transportation, August 1994, U.S. Department of 
        Transportation, Maritime Administration; and,
  --enhance our Nation's status in relation to international commerce, 
        i.e., ``our ability to compete in the global economy is 
        contingent upon our ability to efficiently transport raw and 
        finished products and commodities.'' ``We have the best, most 
        efficient waterways system in the world.'' Inland Waterways 
        Users Board Eleventh Annual Report to the Secretary of the Army 
        and the United States Congress, August 1997.
    Those views underscore the high benefits of a sound inland 
waterways freight transportation network. It is critical for under-
capacity, obsolete locks and dams, which are the control points for 
safe and efficient use of the waterways system to be upgraded or 
replaced in a timely manner to assure that the benefits of a sound 
waterways system are not lost, and importantly are possible under 
increasing demand for freight transportation service in the years 
ahead.
       barge freight on the ohio river needs higher lock capacity
    Barge freight operations on the Ohio River from its mouth at the 
confluence of the Ohio and Mississippi Rivers at Cairo, Illinois to its 
headwaters at the confluence of the Allegheny and Monongahela Rivers at 
Pittsburgh have demonstrated a need for additional lock capacity. The 
river barge freight tonnage has increase substantially since the mid-
1980's, resulting in costly delays at many of the 21 lock and dam 
projects, which now control navigation by commercial barge tows 
carrying commodities in six states--Illinois, Indiana, Kentucky, West 
Virginia, Pennsylvania, and Ohio--in which the river is located, and in 
the expansive Ohio River Basin where the Ohio River is joined by other 
commercial waterways establishing an extensive freight distribution 
network.
    The replacement of Locks and Dams 52 and 53 with a single, new twin 
1,200 foot by 110 foot lock and dam project located between the Ohio 
River junctions with the Mississippi River and the Tennessee River will 
reduce the number of controlling lock and dam projects to 20. This will 
furnish a significant improvement for barge traffic in the river 
segment just above the mouth of the Ohio River. The river represents a 
lengthy route serving heavy freight movements across eastern and 
midwestern states, and barge tows utilized for moving Ohio River 
commerce perform most efficiently when they consist of 15 barges lashed 
together with three-barge widths and five-barge lengths in tows pushed 
by towboats. Lock chambers 1,200 feet long by 110 feet wide are 
required in order to accommodate barge tows uniformly, enabling single 
passes by the barge tows through each of the projects controlling their 
movements, necessitating a systems approach to the development of 
warranted lock and dam improvements.
    Table 2 shows trends in Ohio River barge freight tonnage from 1986 
to 1996 on four segments of the river from its headwaters to its mouth. 
In 1996, the tonnage passing through eight lock and dam projects 
between Huntington, West Virginia and Paducah, Kentucky was extremely 
high and significantly higher than the tonnage in 1986. Of those eight 
projects, Smithland now has twin lock chambers which are 1,200 feet by 
110 feet and McAlpine is scheduled for similar locks to be built under 
previous project authorization. It is now timely to schedule 
construction projects at the remaining six points in that stretch of 
the lower Ohio River, specifically at the present J.T. Myers, Newburgh, 
Cannelton, Markland, Meldahl, and Greenup projects, which each have 
1,200-foot main chambers and 600-foot auxiliary chambers.

   TABLE 2.--1986-1996 OHIO RIVER TRAFFIC AND LENGTH OF NAVIGATION LOCK CHAMBERS AT SELECTED SEGMENTS BETWEEN
                                             PITTSBURGH & CAIRO, IL
                                        [M = Main and A = Auxiliary lock]
----------------------------------------------------------------------------------------------------------------
                                                                                    Total Freight in Ohio River
                                                                     Locks \1\          barges (1,000 tons)
       Lock and Dam Project on segments of the Ohio River           (Length of   -------------------------------
                                                                       lock)           1986            1996
----------------------------------------------------------------------------------------------------------------
                   Confluence of Allegheny and Monongahela River into Ohio River at Pittsburgh
 
Emsworth to Montgomery..........................................     600 ft. (M)
                                                                     360 ft. (A)          17,649          23,424
New Cumberland..................................................   1,200 ft. (M)
                                                                     600 ft. (A)          24,217          36,584
 
                                Junction of Kanawha and Ohio Rivers at Gallipolis
 
Robert C. Byrd to Greenup.......................................   1,200 ft. (M)
                                                                     600 ft. (A)          36,763          59,406
 
                               Junction of Big Sandy and Ohio Rivers at Huntington
 
Greenup to J.T. Myers...........................................   1,200 ft. (M)
                                                                     600 ft. (A)          44,471          67,262
Smithland.......................................................   1,200 ft. (M)
                                                                   1,200 ft. (A)          75,671          85,077
 
                                Junction of Tennessee and Ohio Rivers at Paducah
 
Olmsted \1\.....................................................   1,200 ft. (M)
                                                                   1,200 ft. (A)          84,355          94,052
 
                        Confluence of the Mississippi and Ohio Rivers at Cairo, Illinois
----------------------------------------------------------------------------------------------------------------
\1\ All lock chambers are 110 feet wide except Emsworth, Dashields and Montgomery below Pittsburgh and above New
  Cumberland are 56 feet wide.
\2\ Olmsted is under construction now and will replace Locks and Dams 52 and 53 with twin 1,200 foot by 110 foot
  lock chambers at the new site.

                                 ______
                                 

Prepared Statement of R. Barry Palmer, Executive Director, Association 
   for the Development of Inland Navigation in America's Ohio Valley

    Mr. Chairman and Members of the Subcommittee: I am Barry Palmer, 
Executive Director of DINAMO, the Association for the Development of 
Inland Navigation in America's Ohio Valley. DINAMO is a multi-state, 
membership based association of business and industry, labor, and state 
government leaders from throughout the Ohio Valley, whose singular 
purpose is to expedite the modernization of the lock and dam 
infrastructure on the Ohio River Navigation System. Largely through the 
leadership of this subcommittee and the professional efforts of the 
U.S. Army Corps of Engineers, we in the Ohio Valley are beginning to 
see the results of 17 years of continuously hard work in improving our 
river infrastructure.
    Lock and dam modernization at Robert C. Byrd Locks and Dam, Grays 
Landing Lock and Dam, Point Marion Locks, and Winfield Locks are 
largely complete. These projects were authorized for construction in 
the Water Resources Development Act of 1986. Last November we stood at 
the site of the Winfield Locks and Dam to dedicate a new, larger lock 
facility. These four projects are fully operational, although some 
final stages of construction are still underway. The Olmsted Locks and 
Dam project, Ohio River, IL/KY, is also fully under construction. 
Construction to build twin 110 foot by 1,200 foot locks is in full 
gear, thanks to the appropriations last year for fiscal year 1998.
    Substantial problems remain, however, for adequate funding of 
improvements at Lower Monongahela River Locks and Dams 2, 3 and 4, PA; 
McAlpine Locks and Dam, Ohio River, IN/KY; Marmet Lock, Kanawha River, 
WV; and for the Kentucky Lock, Tennessee River, KY. The construction 
schedules for all of these projects have been severely constrained. 
Completion dates for the Lower Mon project have been delayed 6 years 
from 2004 to 2010. For McAlpine Lock the completion date has been 
delayed five years from 2002 to 2007. The current completion date for 
the Marmet Lock project is 2009, but this project with adequate funding 
could be completed two years ahead of current schedule and fully 
operational in 2006. For the Kentucky Lock addition, we have seen three 
different construction schedules. Two completion date schedules would 
complete this project in 2012 or in 2017. In fact, if the Kentucky Lock 
project were on an ``efficient,'' or ``optimum'' schedule, the project 
could be completed by 2008.
    All of these construction projects, in addition to the Olmsted 
Locks and Dam, could be completed by 2008 or earlier. Also, monies from 
the Inland Waterways Trust Fund could finance 50 percent of the costs 
of these projects while keeping the Trust Fund in the black. The real 
challenge then is to complete these lock and dam construction projects 
by 2008 or earlier by putting them on an ``efficient'' construction 
schedule.
    Delaying the construction of these vitally needed infrastructure 
investments is a terribly inefficient practice. Inefficient 
construction schedules cost people a lot of money. A recent study by 
the Institute for Water Resources concluded that $1.02 billion of 
cumulative benefits (transportation savings) for the aforementioned 
five lock and dam modernization projects on the Ohio River Navigation 
System and the Inner Harbor project in New Orleans harbor on the Lower 
Mississippi River have been lost forever. The benefits foregone 
represent the cumulative annual loss of transportation cost savings 
associated with postponing the completion of these projects from their 
``optimum,'' or ``efficient'' schedule. In addition, this study 
concludes that $682 million of future benefits that will be foregone 
based on fiscal year 1999 schedules could be recovered if funding is 
provided to accelerate design and construction activities in accordance 
with ``efficient'' schedules.
    In addition the construction cost of these six projects has 
increased by $246 million when compared to the 1995 construction 
schedule. Of this amount, the Corps estimates that $157 million of the 
cost increase associated with three projects (Marmet, Kentucky, Inner 
Harbor) could be avoided if funding is provided to allow their design 
and construction activities to resume under an ``efficient'' schedule.
    Attached to this statement are two charts relating to monies needed 
for construction of Ohio River Navigation System projects on an 
``efficient'' schedule--Chart A and Chart B. Chart B points out two 
construction schedules provided by the U.S. Army Corps of Engineers for 
navigation projects on the Ohio River Navigation System. One schedule 
uses the fiscal year 1999 budget submission as the basis for future 
improvements. The other is an ``Efficient'' or ``Optimum'' schedule, 
whereby each lock and dam modernization project in the region could be 
constructed by 2008 or earlier with adequate funding.
    We ask this distinguished subcommittee to fund lock and dam 
modernization objectives in the Ohio Valley in accordance with the 
``Efficient Construction Schedules'' of the U.S. Army Corps of 
Engineers. For fiscal year 1999 DINAMO is requesting funding for each 
project as follows:
Recommendations for fiscal year 1999
    1. For the Robert C. Byrd Locks and Dam modification project, 
formerly the Gallipolis Locks and Dam on the Ohio River, OH/WV, about 
$10,600,000 for continued construction.
    2. For the Winfield Lock Replacement on the Kanawha River, WV, 
$4,500,000, for continued construction of the lock and relocations 
related to environmental mitigation.
    3. For the Olmsted Locks and Dam, replacing Locks and Dams 52 and 
53 on the Lower Ohio River, IL/KY, $59,000,000, for continued 
construction of the twin 110 foot by 1,200 foot locks and design of the 
new gated dam.
    4. For improvements to Monongahela River Locks and Dams 2,3 and 4, 
PA, $30,00,000, for continued construction of the Dam 2 left abutment 
and river wall, leading to construction of new Dam 2.
    5. For the McAlpine Lock Project on the Ohio River, IN/KY, 
$6,000,000 to continue design of the new 110 foot by 1,200 foot lock 
addition and for construction of wharf improvements.
    6. For the Marmet Lock Replacement on the Kanawha River, WV, 
$9,000,000 for real estate acquisition and for continuing Plans and 
Specifications on the main construction contracts.
    7. For the Kentucky Lock Addition on the Tennessee River, KY, 
$11,500,000 to continue design on the new highway and bridge work and 
for relocation and construction of the TVA tower.
    8. For the Ohio River Mainstem Study, including studies related to 
modifications of John T. Myers, Newburgh, and Cannelton Locks and Dams, 
$10,150,000. This level of funding is needed to complete the 
feasibility studies leading to an authorization report enabling 
construction of additional capacity for the John T. Myers, Newburgh, 
and Cannelton Locks and Dams, Ohio River, IN/KY. Also the Corps of 
Engineers needs to initiate studies to determine where additional 
improvements may be needed in future years along the Ohio River 
Navigation System.
    DINAMO has been a participant in presenting testimony annually to 
this subcommittee for more than fifteen years. We started with requests 
to construct new locks at the Gallipolis Locks and Dam on the Ohio 
River, OH/WV and to initiate funding of feasibility studies for other 
locks and dams on the Ohio River Navigation System. Since 1981 we have 
made considerable headway. Gallipolis is now complete and it has been 
renamed the Robert C. Byrd Locks and Dam because of our great champion. 
Some projects have undergone major rehabilitation, others are complete, 
and still others need to be completed. We have participated fully in 
the process. But at no time has the U.S. Army Corps of Engineers been 
more in peril of losing its major responsibility of providing 
innovative engineering services on tough problems for this nation 
because of an unwillingness of an Administration to provide funds to 
deliver essential government services.
    Expenditures for lock and dam modernization are an investment in 
the fundamental infrastructure of this nation. The Corps of Engineers 
construction budget for fiscal year 1999 is about $840 million less 
than the $1.47 billion Congress provided for fiscal year 1998. Mr. 
Chairman, we have great confidence in the Corps of Engineers and urge 
your support at a funding level more in line with the real water 
resources development needs of the nation. Last year Congress provided 
nearly $4.1 billion for the Corps of Engineers program and 50 new 
construction starts for water resources development projects that 
represent an additional investment of $2.7 billion. It is clear that 
funding for the Corps program should probably be increased to levels 
closer to $4.6 billion.
    We thank you for the opportunity to present this request and our 
thoughts on these matters.

                   FISCAL YEAR 1999 FUNDING OF OHIO VALLEY LOCK AND DAM MODERNIZATION PROJECTS
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year
                                                                    1999 Energy   Administration    Funding at
                                                                     and Water      fiscal year      efficient
                                                                    Development     1999 budget      level of
                                                                  Appropriations      request      construction
                                                                        Act
----------------------------------------------------------------------------------------------------------------
Construction:
    Robert C. Byrd locks and dam, Ohio River,  OH/WV............      $5,356,000      $7,000,000     $10,600,000
    Grays Landing locks and dam, Monongahela River, PA..........       2,900,000  ..............  ..............
    Winfield lock, Kanawha River, WV............................       8,500,000       4,500,000       4,500,000
    Olmsted locks and dam, Ohio River, IL/KY....................      98,440,000      54,500,000      59,000,000
    Locks and dams 2,3, and 4, Monongahela River, PA \2\........  \1\ 18,200,000       4,500,000      30,000,000
    McAlpine lock, Ohio River, IN/KY \2\........................       6,720,000       1,000,000       6,000,000
    Marmet lock, Kanawha River, WV \2\..........................       1,830,000       1,500,000       9,000,000
    Kentucky lock addition, Tennessee River, KY \2\.............       4,000,000  ..............      11,468,000
    London lock, Kanawha River, WV..............................       1,000,000       1,700,000       1,700,000
Surveys: Ohio River Main Stem Study (John T. Myers/Newburgh/
 Cannelton).....................................................       8,800,000      10,150,000      10,150,000
                                                                 -----------------------------------------------
      Totals....................................................     155,746,000      84,850,000     142,418,000
----------------------------------------------------------------------------------------------------------------
\1\ Includes carry over of funds of $5.5 million.
\2\ Targeted priorities by DINAMO.

[GRAPHIC] [TIFF OMITTED] TCORPS.011

                                 ______
                                 

           SOUTHWEST U.S. WATER RESOURCE DEVELOPMENT PROJECTS

    Prepared Statement of Ben H. Nelson, President, Coastal Oyster 
                        Leaseholders Association

    I am Ben H. Nelson, President of the Coastal Oyster Leaseholders 
Association, a group of oyster producers who own, lease and operate 
private oyster leases in the Galveston Bay Complex of Texas (Galveston, 
East Galveston and Trinity Bays). The Galveston Bay Complex is the only 
bay system in Texas where there are private oyster leases.
    By operating a private oyster lease, we are able to provide fresh 
oysters in the shell to the market year round, and can, therefore, 
assure a steady supply of shellstock (oysters in the shell) to the 
consuming public throughout the nation.
    Adequate navigation channels are most essential to our operations, 
as well as to the oyster harvester-gatherers who operate in the bays 
only during the permissible open seasons, as if we cannot get from out 
docks to the oyster leases or reefs and return with our catch, we won't 
be in business long.
    The oyster processors located at Smith Point employ over 200 
employees and harvest, process and ship about 25 percent of the total 
Texas oyster harvest. My wife and I employ 125 of these employees.
    There are several navigation channel improvements that are of prime 
concern to us upon which I would like to offer my comments:
         trinity river channel to liberty-vicinity smith point
    This is an old, authorized channel that runs from the Houston Ship 
Channel, easterly to the east shore of Trinity Bay and along that 
shoreline to Anahuac, passing through the tip of Smith Point en route. 
The oyster luggers working out of the Pix Bayou Docks at Smith Point 
have to traverse a section of this channel on the way to their leases 
and the public oyster reefs. Just across from the Chambers County 
Robbins Park, this channel has shoaled up to the point where it is nigh 
on impossible to get a loaded oyster lugger through it, except at high 
tide, and then the channel is a meandering, weaving, snaky, small ditch 
that causes a lot of boat captains to run aground and when one boat 
gets stuck, then all boats behind them are prevented from going in the 
channel.
    We are working closely with our Congressman, Nick Lampson, to find 
some emergency funding for the immediate clearance of the absolutely 
essential segment, depth and width of this channel, just to get us by 
for the near future. We hope and pray that we can find these funds in 
the very near future, otherwise our operations will be shut down.
    On the longer term, we hope to see the maintenance dredging of this 
channel from out in the bay through Smith Point (the first in 25 years) 
be authorized and funded in the regular course of congressional process 
in time to ``do this job right'', get this important segment of this 
channel on a regular maintenance dredging routine.
    At this point, we would deeply appreciate (a) any assistance you or 
the committee members could give to Cong. Nick Lampson in his search 
for emergency funding, and (b) early approval of the funds necessary 
for the regular maintenance dredging of the required segment of this 
channel.
                 wallisville salt water barrier project
    Although we have mixed emotions about the Wallisville Salt Water 
Barrier Project, we support congressional funding of it's completion. 
We do understand its importance to the raw water supply for the Houston 
metropolitan area, as well as to the agricultural, industrial and 
municipal consumers of our own area.
                         cedar bayou project(s)
    At present, there is an authorized navigation channel from the 
Houston Ship Channel to Mile 3 or 4 of Cedar Bayou, where the Chambers-
Liberty Counties Navigation District is the local sponsor. This channel 
is in pretty good shape, and we are supporters of that project. In 
addition, there is a new navigation district (Chambers County-Cedar 
Bayou Navigation District) has just been created to carry this channel 
from Mile 3 or 4 up to Mile 11 at the State Highway 146 bridge over 
Cedar Bayou.
    This District is in the preliminary phases of investigation and 
planning, and probably will be coming before you during the next 
Session of Congress.
    We support their efforts, as the improvements to Cedar Bayou will 
provide water transportation to a growing industrial base on its East 
bank (in Chambers County) and contribute mightily to our county's 
overall ad valorem tax base, employ hundreds of Chambers Countians, and 
have a significant positive impact on our local economy.
                                summary
    Immediate emergency funding of the severely impacted segment of the 
TRINITY RIVER CHANNEL TO LIBERTY is extremely vital to our economic 
existence in Smith Point and any help you and your Committee can give 
Congressman Lampson in his search for these elusive funds will be 
appreciated.
    We are looking forward to funding for the maintenance dredging of 
the TRINITY RIVER CHANNEL TO LIBERTY in the regular course of business; 
but would be overjoyed with funding this year, as ``our ox is in the 
ditch''.
    We support the completion of the WALLISVILLE SALT WATER BARRIER.
    We support the, yet to be requested, authorization and funding of a 
navigation project for the upper stretch of CEDAR BAYOU.
    We appreciate the opportunity to present our Statement to you.
                                 ______
                                 

Prepared Statement of George Willcox, General Manager, Chambers-Liberty 
                      Counties Navigation District

    Mr. Chairman and Members of the Committee: My name is George 
Willcox, and I am General Manager of the Chambers-Liberty Counties 
Navigation District.
    Chambers-Liberty Counties Navigation District supports the level of 
capability expressed by the U.S. Army Corps of Engineers for projects 
located in the Trinity River Basin and the Trinity-Galveston Bay 
Complex.
                 wallisville saltwater barrier project
    The purpose of the project is to prevent saltwater intrusion from 
the Trinity and Galveston Bay Complex into the freshwater supply from 
the Trinity River. It is vital to the protection of the freshwater 
supplies of the City of Houston as well as several rural canal systems 
including C.L.C.N.D. The C.L.C.N.D. system supplies water for 
agricultural irrigation, to the Anahuac National Wildlife Refuge for 
wildlife enhancement and to the City of Anahuac and the Trinity Bay 
Conservation District for treatment for municipal use.
    The barrier is located on the Trinity River near the Trinity-
Galveston Bay Complex. It is down stream of Lake Livingston, which is a 
joint project of the City of Houston and the Trinity River Authority. 
Currently, during periods of low flow in the river, releases of 
freshwater must be made from Lake Livingston in order to maintain 
freshwater for the intake of the C.L.C.N.D. canal system. This intake 
is located upstream of the barrier and it will be protected upon 
completion of the barrier project. During last year's drought, releases 
of 1,500 cubic feet per second were required from Lake Livingston in 
order to maintain freshwater at the C.L.C.N.D. intake point. This 
equates to approximately 970 million gallons per day during that period 
or an annualized rate of some 260 million gallons per day. Completion 
of the barrier will eliminate the necessity of these kinds of releases.
    Although the project has been long and controversial, the major 
issues of concern from the environmental community have been addressed. 
The downsized project is no longer a storage reservoir, however, its 
importance for the protection of saltwater intrusion has not 
diminished. In addition, it will be providing recreational and tourism 
facilities that will be utilized by local families as well as state, 
national and foreign visitors.
    Construction on this project is proceeding ahead of schedule and 
adequate funding is now essential for completion. We will greatly 
appreciate your consideration in appropriating the funds as requested 
by the Galveston District Corps of Engineers.
                    trinity river channel to liberty
    The Trinity River Channel is an authorized channel located in 
Chambers and Liberty Counties. It commences at the Houston Ship Channel 
in lower Chambers County, ending at the Port of Liberty in Liberty 
County. Maintenance is currently needed near the community of Smith 
Point in lower Chambers County in order to allow oyster tuggers and 
shrimp boats to safely navigate from Galveston Bay into their docking 
facilities at Smith Point. The shell fish industry located there is one 
of the top three employers in Chambers County.
    The Channel to Liberty is also in need of maintenance in order to 
allow navigation of barges into the Port of Liberty. The fertilizer 
industry that is located there is currently barging materials to Cedar 
Bayou, then trucking them to Liberty as the barges are unable to 
navigate to Liberty. The problems with the rail industry has increased 
the need for barge deliveries.
                    cedar bayou navigation district
    The Cedar Bayou Navigation District was recently formed by the 
Texas Legislature to promote dredging and navigation on Cedar Bayou in 
Chambers County. The industries located there are vital to the economy 
of Chambers County, providing employment for many Chambers and East 
Harris County residents. Funding is needed to make planning and 
feasibility studies for this project.
                               conclusion
    The Chambers-Liberty Counties Navigation District thanks this 
committee for the opportunity to provide this testimony. We also thank 
Congress for the funds that have been provided to the Galveston 
District as they have produced great benefits to the public, 
representing a sound investment of federal funds.
                                 ______
                                 

    Prepared Statement of William Hodges, President, Trinity River 
                           Authority of Texas

    Mr. Chairman and members of the committee: My name is William 
Hodges, and I serve as President of the Trinity River Authority of 
Texas Board of Directors.
    TRA supports the level of capability expressed by the U.S. Army 
Corps of Engineers for projects located in the Trinity River Basin.
                 wallisville saltwater barrier project
    After 14 years of bitter litigation with environmental opponents to 
Wallisville, it was reshaped and reborn as an environmentally neutral 
project. Construction on this most important federal project was 
resumed in 1991. Progress on Wallisville has been acceptable since that 
time.
    When completed, Wallisville and Lake Livingston, a 90,000 surface 
acre water supply project completed in 1970 with 100 percent local 
funds, will operate as a system extending the City of Houston's water 
supplies through the year 2035. By eliminating the need to wastefully 
release large amounts of fresh water to hydraulically flush saltwater 
from the intake structures of a series of rice irrigation systems and 
the coastal water authority during low river flow conditions, this 
system operation will make more water available for beneficial use in 
the greater Houston metropolitan area and in the lower Trinity River 
Valley. Until the Federal Government completes Wallisville as specified 
in the 1967 local sponsors' cost-sharing agreement and approved by 
Congress in 1983, the system benefits of these two projects cannot be 
realized.
    The Galveston District of the Corps of Engineers has indicated that 
with adequate funding, the project will be ready to operate later this 
year.
                       upper trinity river basin
    Flooding and flood control have re-emerged as major issues in the 
Dallas/Fort Worth metropolitan area which dominates the upper Trinity 
River Basin. Through nine cities, two counties and two special purpose 
districts, the North Texas Council of Governments serves as local 
sponsor for this much needed flood study. TRA supports the $1 million 
budgeted project in addition to the $600,000 for Johnson Creek in 
Arlington, and the $490,000 for the Fort Worth Sumps 14 and 15.
                       dallas floodway extension
    This federal project would extend the levees that protect Dallas 
southward to protect a section on the metropolitan area that has been 
historically challenged from an economic standpoint. TRA supports the 
$1.33 million contained in the President's budget to begin 
preconstruction and design.
                    operations and maintenance funds
    TRA supports appropriations for fiscal year 1999 operations and 
maintenance funds necessary to maintain operations for federal water 
projects for which the Authority serves as local sponsor within the 
Trinity River Basin. These projects include Bardwell Lake, Joe Pool 
Lake, Navarro Mills Lake and the Wallisville Saltwater Barrier Project.
                               conclusion
    The Trinity River Authority thanks this committee for the 
opportunity to testify. We also thank Congress for the many 
improvements that the Federal Government has funded in the Trinity 
River Basin over the years. They have produced great benefits for the 
public and represent a very sound investment of federal funds.
                                 ______
                                 

Prepared Statement of Gerald R. Zimmerman, Executive Director, Colorado 
                River Board of California, Glendale, CA

    Your support and leadership are needed in securing adequate fiscal 
year 1999 funding for the Department of the Interior with respect to 
the federal/state Colorado River Basin Salinity Control Program. This 
program is carried out through the Bureau of Reclamation pursuant to 
the Colorado River Basin Salinity Control Act and the Clean Water Act. 
California's Colorado River water users are presently suffering 
economic damages estimated at about $800 million per year due to the 
river's salinity, and those damages are expected to increase 
significantly by the turn of the century without salinity control.
    The Colorado River Board of California, the state agency charged 
with protecting California's interests and rights in the water and 
power resources of the Colorado River System, supports the 1999 federal 
funding of $17,500,000 proposed by the Colorado River Basin Salinity 
Control Forum for the Department of the Interior's Colorado River Basin 
salinity control activities.
    The seven Colorado River Basin states, which cost-share with the 
federal government up to 30 percent of the construction costs of 
Interior's salinity control measures, have carefully evaluated the 
federal funding needs of the program and have concluded that an 
adequate budget is needed for the plan of implementation to maintain 
the river salinity standards adopted by the seven Colorado River Basin 
states and approved by the Environmental Protection Agency, pursuant to 
the two federal authorizing Acts.
    In addition, the Colorado River Basin Salinity Control Forum and 
the Colorado River Board of California recognize that the federal 
government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin states with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
be honored, it is essential that in fiscal year 1999 and in future 
fiscal years, the Congress provide funds to the Bureau of Reclamation 
for the operation and maintenance of the Yuma Desalting Plant.
    The Colorado River is, and will continue to be, a major and vital 
water resource for California. Preservation of its quality through an 
effective salinity control program will avoid the additional economic 
damages to river users in California that are expected by the turn of 
the century without such salinity control.
    The Board greatly appreciates your support of the federal/state 
Colorado River Basin Salinity Control Program and again asks for your 
assistance and leadership in securing adequate funding for this 
program.
                                 ______
                                 

  Prepared Statement of Jack A. Barnett, Executive Director, Colorado 
           River Basin Salinity Control Forum, Bountiful, UT

    This testimony is in support of funding for the Colorado River 
Basin salinity control program. Congress has designated the Department 
of the Interior, Bureau of Reclamation (Reclamation), to be the lead 
agency for salinity control in the Colorado River Basin. This role and 
the authorized program was refined and confirmed by the Congress when 
Public Law 104-20 was enacted into law. A total of $17,500,000 is 
requested this year to implement the needed and authorized program. 
Failure to appropriate these funds will result in significant economic 
damage and threaten compliance with adopted basin-wide water quality 
standards in the future. The Forum recognizes that the President's 
request of $12.3 million is an increase of $0.4 million above last 
year's request and the Forum appreciates and supports this increase. 
Nonetheless, studies have shown that implementation of the program has 
fallen behind the needed pace to prevent salinity concentration levels 
from exceeding numeric criteria adopted in connection with water 
quality standards for the River Basin while the Basin states continue 
to develop their Compact apportioned waters of the Colorado River. 
Concentrations of salts in the water above the criteria would cause 
hundreds of millions of dollars in damage in the United States and 
endangers the treaty obligation of the United States to Mexico. For 
every 30 mg/l increase in salinity concentrations, there is $100 
million in additional damages in the United States. The Forum, 
therefore, believes a rate of implementation beyond the President's 
request is necessary.
    The program authorized by the Congress in 1995 has proven to be 
very successful and very cost effective. Proposals from the private 
sector to implement salinity control strategies have far exceeded the 
available funding. Hence, Reclamation has a backlog of proposals and is 
able to select the best and most cost-effective proposals. Funds are 
available for the Colorado River Basin states' cost sharing at the 
level requested by the Forum. Water quality improvements accomplished 
under Title II of the Colorado River Basin Salinity Control Act also 
benefits the quality of water delivered to Mexico. Although the United 
States has always met its treaty commitments to Mexico with respect to 
water quality, the State Department is currently addressing Mexican 
requests for better water quality. All of the above argues for a higher 
level of funding than requested by the President.
                                overview
    The Colorado River Basin salinity control program was authorized by 
Congress in 1974. Title I of the Colorado River Basin Salinity Control 
Act responded to commitments that the United States had made pursuant 
to Minute 242 of the treaty with Mexico with respect to the quality of 
water being delivered to Mexico below Imperial Dam. Title II of the Act 
established a program to respond to salinity control needs of Colorado 
River water users in the United States and to comply with the mandates 
of the then newly legislated Clean Water Act. Initially, the Secretary 
of the Interior and Reclamation were given the lead Federal role by the 
Congress. This testimony is in support of funding for the Title II 
program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress revised the Act in 1984. That revision, while keeping 
the Secretary of the Interior as lead coordinator for Colorado River 
Basin salinity control efforts, also gave salinity control 
responsibilities to the Department of Agriculture, and to a sister 
agency of Reclamation--the Bureau of Land Management. Congress has 
charged the Administration with implementing the most cost-effective 
program practicable (measured as dollars per ton of salt removed). The 
Basin states are strongly supportive of that concept, as the Basin 
states cost share 30 percent of federal expenditures for the salinity 
control program. In addition, under authorities provided in Public Law 
105-27, the states are proceeding to implement their own salinity 
control efforts in the Colorado River system.
    Since the initial Congressional salinity control mandates of nearly 
two decades ago, much has been learned about the impact of salts in the 
Colorado River system. Reclamation has recently completed studies on 
the economic impact of these salts. Reclamation recognizes that the 
damages to United States' water users alone may soon be approaching $1 
billion per year.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of members appointed by the governors of the states of Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
functions as a seven-state coordinating body for interfacing with 
federal agencies and Congress to support the implementation of a 
program necessary to control the salinity of the river system. In close 
cooperation with the Environmental Protection Agency (EPA) and under 
requirements of the Clean Water Act, the Forum prepares a formal report 
every three years analyzing the salinity of the Colorado River, 
anticipated future salinity, and the program necessary to keep the 
salinities at or below the levels measured in the river system in 1972 
(which are the established water quality standards numeric criteria).
    In setting water quality standards for the Colorado River system, 
the salinity levels measured at Imperial, and below Parker and Hoover 
Dams in 1972 have been adopted as the numeric criteria. The plan 
necessary for controlling salinity has been captioned the ``plan of 
implementation.'' The 1996 Review of water quality standards includes 
an updated plan of implementation. The level of appropriation requested 
in this testimony is consistent with the agreed to program 
implementation rate determined necessary in the plan. If adequate funds 
are not appropriated, state and federal agencies involved are in 
agreement that the numeric criteria will be exceeded and damage from 
the high salt levels in the water will be widespread and very 
significant.
                             justification
    The $17,500,000 requested by the Forum on behalf of the seven 
Colorado River Basin states is the level of funding necessary to 
proceed with Reclamation's portion of the plan of implementation. This 
funding level is appropriate if salinity in the Colorado River is to be 
controlled so as not to exceed the established numeric criteria and 
threaten the associated water quality standards. In July of 1995, 
Congress amended the Colorado River Basin Salinity Control Act. The 
amended Act gives Reclamation new latitude and flexibility in seeking 
the most cost-effective salinity control opportunities, and it provides 
for proposals and more involvement from the private sector. Early 
results are indicating that salt loading is being prevented at costs 
often less than half the cost under the previous program. Congress's 
recent review of the program and the amendments it authorized have made 
the program effective in removing salt from the Colorado River in a 
most cost-effective manner.
    The Basin states have agreed to cost sharing annually, which adds 
43 percent in monies to the federal appropriation. The Colorado River 
Basin Salinity Control Forum, working with EPA, has agreed upon a plan 
of implementation for salinity control, and that plan justifies the 
level of funding herein supported by the Forum to maintain the water 
quality standards for salinity adopted by the Basin states. The 
federally chartered Colorado River Basin Salinity Control Advisory 
Council, created by the Congress in the Salinity Control Act, has met 
and formally supports the requested level of funding. The Basin states 
urge the Subcommittee to support the funding as set forth in this 
testimony.
                     additional support of funding
    In addition to the dollars identified above for the implementation 
of the newly authorized program, the Salinity Control Forum urges the 
Congress to appropriate necessary funds, as identified in the 
President's budget, to continue to maintain and operate salinity 
control facilities as they are completed and placed into long-term 
operation. Reclamation has completed the Paradox Valley unit which 
involves the collection of brines in the Paradox Valley of Colorado and 
the injection of those brines into deep aquifers through an injection 
well. The continued operation of the project and other completed 
projects will be funded through Operation and Maintenance funds.
    In addition, the Forum supports necessary funding, as identified in 
the President's budget, to allow for continued general investigation of 
the salinity control program. It is important that Reclamation have 
planning staff in place, properly funded, so that the progress of the 
program can be analyzed, coordination between various federal and state 
agencies can be accomplished, and future projects and opportunities to 
control salinity can be properly planned to maintain the water quality 
standards for salinity so that the Basin states can continue to develop 
Compact apportioned waters of the Colorado River.
                                 ______
                                 

 Prepared Statement of the Southern Ute Indian Tribe, the Ute Mountain 
 Ute Indian Tribe, the San Juan Water Commission, the Animas-La Plata 
  Water Conservancy District, and the Southwestern Water Conservation 
                                District

    The Southern Ute Indian Tribe, the Ute Mountain Ute Indian Tribe, 
the San Juan Water Commission, the Animas-La Plata Water Conservancy 
District and the Southwestern Water Conservation District (referred to 
collectively as ``the project beneficiaries'') support the 
Administration's request for $3 million for the Animas-La Plata Project 
(``ALP'') in southwest Colorado and northwest New Mexico. The project 
beneficiaries are concerned, however, that the Bureau of Reclamation 
will use the funding for additional studies that have as their purpose 
to delay the construction of the project rather than advance the 
implementation of the Colorado Ute Indian Water Rights Settlement Act 
of 1988, 102 Stat. 2973, which has as its foundation the construction 
of Phase I of the ALP to provide a new supply of water in southwest 
Colorado and northwest New Mexico. Indeed, the Bureau has balked at 
providing the project beneficiaries with any assistance with regard to 
the proposal to amend the 1988 Settlement Act to address the 
environmental and fiscal issues that have been raised about ALP. 
Instead, the Bureau has consistently and repeatedly hidden behind its 
fantasized need for yet more studies and yet more discussions. We do 
not want funds dedicated to ALP to be used for such misguided 
activities.
    Over the last year, the project beneficiaries have addressed the 
issues that have been raised about the project and developed a proposal 
to modify the 1988 Settlement Act through legislation. The Bureau has 
refused to assist in these efforts. Under the proposal, the outstanding 
water rights on the Animas and La Plata Rivers of the Ute Mountain Ute 
and Southern Ute Indian Tribes would be resolved by the construction of 
the three facilities, the Durango Pumping Plant, the inlet conduit, and 
Ridges Basin Reservoir that were approved by the United States Fish and 
Wildlife Service under the Endangered Species Act, 16 U.S. C. Sec. 1531 
et seq. The Tribes would receive 33,050 acre feet of the 57,100 acre 
feet of depletion approved by the FWS for use from the three 
facilities. It would also provide much needed water for dry year 
supplies for the New Mexico cities of Farmington, Aztec and Bloomfield. 
The proposal would eliminate the concern over water quality because the 
settlement would no longer require the construction of all of Phase I 
of the Project which includes the facilities to deliver water to the La 
Plata basin for irrigation purposes. It would also ensure that the 
settlement could be achieved consistent with the requirements of the 
Endangered Species Act. Finally, the required federal funding would be 
reduced to less than $260 million with approximately $29 million of 
local and state cost sharing. The proposal has been endorsed by the 
governors of Colorado and New Mexico.
    The proposal was developed in discussions between project 
supporters and opponents initiated by the State of Colorado and 
Secretary Babbitt. Both groups were asked to develop an alternative 
that they believed met the purposes of the ALP. Last summer, both sides 
came forward with proposals. The two Ute tribes have formally rejected 
the project opponents' proposal to provide the tribes with funds (at 
least $115 million) to purchase land and water in the vicinity of their 
reservations. The State and local water users have also strongly 
opposed that concept. The tribal leadership rejected the concept of 
buying existing state water rights because of the uncertainty and 
inflexibility of the resulting water supply as well as the difficulties 
that would arise over the management and taxation of the purchased 
resources. It has always been the tribal objective to obtain a firm 
supply of water to meet their present and future needs without 
displacing the uses of their non-Indian neighbors. As Congress 
recognized in 1988, only a storage project can accomplish that goal.
    Rather than assist the Tribes and the other parties in implementing 
the modifications to the settlement, the Bureau of Reclamation has 
spent the last four months ostensibly studying the two alternatives--
despite the fact that the Tribes have rejected the opponents' proposal 
and despite the clear guidance from this Committee last year that the 
Department was to look at alternatives to the project that would 
provide a new supply of water and which was consistent with the 
original settlement.
    In short, the Bureau has continued its reluctance to implement the 
1988 Settlement Act and has refused to abide by the Committee's prior 
directive to construct the three facilities approved for construction 
by the FWS ``without delay.'' Energy and Water Development 
Appropriations Act, 1996, Public Law No. 104-46, 109 Stat. 402 (Nov. 
13, 1995). In these circumstances, we respectfully request the 
Committee to direct the Bureau of Reclamation to use the $3 million to 
assist in the implementation of the modifications to the project 
required by the proposed amendments to the 1988 Act and to avoid the 
needless study of so-called alternatives which have been rejected by 
the parties to the Colorado Ute Indian Water Rights Final Settlement 
Agreement (Dec. 10, 1986).
                                 ______
                                 

 Prepared Statement of Richard Fulstone, Chairman, Walker River Water 
                           Users Association

    Mr. Chairman, Members of the Subcommittee, my name is Richard 
Fulstone and I am the Chairman of the Walker River Water Users 
Association.
    On behalf of the Walker River Water Users, I would like to request 
$400,000 for the Corps of Engineers, under the General Investigations 
Program, to continue the feasibility phase study on this important 
project. This request represents a $250,000 increase above the amount 
in the budget request for fiscal year 1999.
    The Walker River Basin experienced serious flooding in January 
1997. The town of Yerrington temporarily closed schools and businesses. 
Over 300 people were evacuated and damages were sustained to 
agricultural resources and urban and rural structures. Additionally, 
Walker Lake is becoming increasingly saline caused largely by lower 
levels of freshwater inflow from Walker River into the Lake. This study 
will focus on the overall basin to identify potential solutions to the 
flood risk and other water resources problems
    Second, I request that the Subcommittee approve $300,000 for Walker 
River Basin, Nevada for the Bureau of Reclamation, to continue support 
of a water conservation demonstration program. This is the same level 
of funding approved by the Subcommittee in fiscal year 1998 for this 
important program. The program is being managed by the Walker River 
Water Users Association and is promoting a voluntary approach to water 
conservation. Federal support is needed to identify the universe of 
effective conservation practices in the Walker River Basin and better 
quantify the contribution that conservation can make to solving the 
water resource problems in the Walker Lake and the basin as a whole. 
The demonstration program is being coordinated with the State of 
Nevada, the Mason and Smith Valley Soil Conservation Districts and the 
United States Department of Agriculture's Natural Resource Conservation 
Service.
    Thank you, for the opportunity to testify before the Subcommittee.
                                 ______
                                 

             Prepared Statement of the City of Phoenix, AZ

    Dear Mr. Chairman and Members of the Subcommittee: On behalf of the 
City Council and the 1.2 million citizens of Phoenix and 2.5 million 
residents of our metropolitan area, I am pleased to present this 
testimony which urges funding for three federal/non-federal partnership 
projects in the Phoenix area. We recognize the need to balance the 
federal budget and what that means with respect to funding the many 
worthy water resources development projects across the nation. We 
understand that severe cuts were made in the President's fiscal year 
1999 budget for water projects. We are prepared to absorb some of those 
cuts and have focused our request on only the most critical priorities 
in our region.
    There are three initiatives in the President's budget which are of 
critical importance to the people of Arizona and which meet 
Congressional and Administrative objectives. As important as these 
matters are in our state, they have equal or even greater importance to 
the people of the nation because they each carry forward concepts of 
federal/non-federal government partnerships to gain leverage in 
achieving highly desirable mutually agreed upon public policy 
objectives. They also focus federal resources on the environment in the 
Sonoran desert where water is a scarce resource. The Southwest also 
represents the fastest growing part of the United States where riparian 
habitat is disappearing at an alarming rate.
                               rio salado
    One initiative involves the implementation of an ecosystem 
restoration project in the Salt River (Rio Salado) in the cities of 
Phoenix and Tempe. Federal dam projects since the turn of the century 
have literally dried up Rio Salado. The river once contained thriving 
wetland habitat and was a key ingredient in a diverse desert ecosystem. 
Since the starvation of the river from its source of water, that 
valuable habitat has been lost and dry river bed has become a blight 
which cuts through the cities of Phoenix and Tempe. These two cities 
have joined in partnership with the Army Corps of Engineers to plan and 
design habitat restoration for significant portions of the lost 
wetlands and to reintroduce at least some of the former free flowing 
portion of the river.
    The Corps Feasibility Study is complete and a Chief of Engineers 
Report is expected to be available for transmittal to Congress in June 
1998. We believe that the Rio Salado project is the single most 
necessary ingredient in our cities' goal of revitalizing the river 
corridor in an economically and environmentally beneficial way. The 
Corps has budgeted $938,000 for planning, engineering and design (PED) 
which will be matched by the two cities. This amount is significantly 
lower than the amount needed by the Corps to keep the project on 
schedule. We request $2.1 million in order to match the Corps capacity 
to implement the project and to keep the project on schedule.
                               tres rios
    The second initiative is the continuation of our Tres Rios River 
Management Project that we are developing with the cities of Glendale, 
Mesa, Tempe, and Scottsdale. This project is quite creative and has 
significant implications for how we as a nation handle our waste water 
treatment needs, especially in areas of very low natural water supply. 
As we learn more about the effects of wastewater treatment discharges 
on the environment, discharge criteria are necessarily becoming more 
stringent. There are huge costs involved in meeting these higher levels 
of treatment criteria and we must seek more economical and more 
environmentally beneficial ways to achieve treatment goals. The Bureau 
of Reclamation, the Army Corps of Engineers, the Environmental 
Protection Agency, and the Fish and Wildlife Service along with 
Glendale, Phoenix, Scottsdale, Tempe, and Mesa, Arizona are working 
together on developing the Tres Rios Project under authorities of the 
Bureau and the Corps of Engineers. It is truly rare that so many 
agencies and jurisdictions have come together with common purpose, a 
purpose which can increase the quality of treated water, restore 
valuable ecosystems, and reduce costs of doing both.
    The Bureau has constructed a demonstration wetland at the regional 
wastewater treatment facility serving our communities which has far 
surpassed expectations of wastewater treatment performance and 
ecosystem value. The demonstration project has created twelve acres of 
extremely vital wetlands that contain ecological communities and 
provide the necessary final degree of treatment needed for the 
wastewater.
    The Corps has budgeted $610,000 to continue a Feasibility Study and 
the Bureau has budgeted $400,000 to continue the engineering and 
environmental analyses of the demonstration project. While the Corps 
capacity to continue with the project is $900,000, we are prepared to 
work within the existing budget. This illustrates our understanding of 
current budgetary shortfalls and emphasizes our commitment to ask 
Congress for an increase in the budget only where it is essential to 
keep critical projects on schedule as in the case of Rio Salado. 
Similarly, the Bureau of Reclamation funding for Tres Rios, is far 
below the amount needed to maintain the wetlands and to continue the 
research which is vital to restoration along the entire Salt River. The 
City requests a budget of $1.5 million to continue the Bureau's work at 
Tres Rios. Funding for fiscal year 1999 will be specifically programmed 
for re-vegetation and vector control study.
                      gila river, north scottsdale
    The third initiative is a unique proposal for study of flood 
control needs on currently undeveloped alluvial fan areas in the 
Phoenix metropolitan area. Alluvial fans are those broad, gently 
sloping areas at the base of mountain systems where storm water run-off 
forms many small, ever-changing rivulets. When these areas are 
developed to accommodate population and commercial growth, the water 
drainage patterns change, larger rivulets form, deeper channels occur, 
and eventually a flood threat develops. In this case, the Corps of 
Engineers and Phoenix is planning ahead, using Corps expertise, to 
ensure that development occurs in a manner that does not result in 
increasing flood threats in the future. The Corps and Phoenix are also 
working with the Environmental Protection Agency to incorporate modern 
concepts of watershed based resource management in developing the 
necessary flood control measures. This is the classic win-win situation 
for everyone. Development can be planned and proceed without creating a 
flood threat. When the environmental values so important to the 
ecosystem are fully protected, the federal government avoids the need 
to marshal disaster relief efforts in the future because of the flood 
plain management efforts being taken.
    Last year, the Subcommittee on Water Resources and Environment 
heard from many witnesses who called for significant improvements in 
the way we look at national flood control needs. This project goes a 
long way in looking at innovative ways to improve on our historic 
approach of dealing with a flooding situation only after a disaster has 
occurred. The Corps has $272,000 to continue this study.
                                summary
    All three projects have at their heart the most desirable 
combination of improving environmental quality, enhancing 
intergovernmental cooperation, and achieving governmental costs 
reduction objectives. In summary, the City is requesting that you 
include $2.1 million for Rio Salado, the Salt River ecosystem 
restoration project (as opposed to the budgeted $938,000), and retain 
$610,000 in the Corps budget for feasibility studies at the Tres Rios 
wetlands project and capability funding for the Gila River, North 
Scottsdale project. Additionally, it is critical to maintain the 
federal commitment at the Tres Rios Wetlands Demonstration project and 
add $1.1 million to the Bureau's budget for fiscal year 1999.
    We sincerely appreciate your courtesy in considering this request. 
We would be pleased to provide any additional information you may need.
                                 ______
                                 

  Prepared Statement of Jim Dunlap, New Mexico Rural Water Association

    Mr. Chairman, thank you for allowing me, as a Board Member for the 
New Mexico Rural Water Association and representative for the over 800 
small communities with water systems in New Mexico, to appear before 
this Committee today. I am also here on behalf of all the other State 
Rural Water Associations and rural water folks all over this country to 
thank you for your personal support for small and rural water systems 
over the past twenty years.
    Today, I would like to discuss the importance of the Bureau of 
Reclamation and its water projects to rural communities in the west and 
the need to initiate a new relationship between the Bureau and the 
small and rural water systems in each state. These water projects are 
of growing significance to many small and rural communities in their 
effort to improve the public health and strengthen local economic 
opportunity. I am here today to request the support of you and the 
Committee for providing funding for a Rural Water Technical Assistance 
Demonstration Initiative in three western states.
    Specifically, we are requesting $400,000 for a demonstration 
grassroots on-site technical assistance programs to fund a full time 
person working within each of three state rural water associations. 
This person would assist small systems and rural communities to 
coordinate their short and long range water needs with the broader 
federal and state water supply and conservation programs. This could 
include creation of regional water systems, centralized water 
treatment, tradeoffs for water rights from irrigation supplies, or 
increased use of surface supplies to save groundwater. Also this person 
would be available to work with water system officials on Indian and 
tribal lands.
                               background
    Over the past ten years, rural communities have found themselves to 
be part of a much larger problem involving the securing and 
distribution of increasingly scarce western water supplies. In 
addition, the enforcement of the 1996 Amendments to the Safe Drinking 
Water Act has placed pressure on small systems to improve water quality 
through consolidation or obtaining new water sources.
    As a result, the future of rural water is now tied to emerging 
state and federal water plans in the western states. Depletion of 
aquifers, changing water rights, and construction of distribution 
systems over wide geographic areas are going to be the major issues 
facing rural water systems in the immediate future.
    What is needed is a new focus on integrating the needs of rural 
water systems into the larger strategies of state and federal 
governments for water supply, water conservation and water distribution 
systems. The access and delivery of water will determine the quality of 
drinking water to rural communities.
    There is a need for a full time person working within each state 
rural water association to assist small systems and rural communities 
to coordinate their long range water needs with the broader water 
supply and conservation programs. This could include creation of 
regional water systems, centralized water treatment, tradeoffs for 
water rights from irrigation supplies, or increased use of surface 
supplies to save groundwater.
    The primary objective of the program is to define an approach for 
more effectively integrating the grassroots on-site technical 
assistance of state rural water associations with the major water 
resources responsibility of the Department of the Interior as a 
demonstration project in three western states. Both the Environmental 
Protection Agency and the USDA Rural Utility Service use the state 
rural water associations to improve compliance with the Safe Drinking 
Water Act and to assist high risk small communities in obtaining funds 
for new systems. The Bureau of Reclamation needs to do the same.
    Our initiative is an alternative to increased federal regulations. 
We believe that technical assistance operated by local governments 
provides more environmental benefits than increasing the size of the 
regulatory bureaucracy. We also feel that we are able to work in a 
special environment because we are not the regulators. This ``good 
neighbor'' element allows acceptance in Indian Lands and with local 
elected officials where environmental regulators may have more 
difficulty.
                                proposal
    The Bureau of Reclamation--Rural Water Association Partnership 
would add an important new dimension to the Bureau's efforts to improve 
water management and water use in the more arid western states. The 
program would provide a full-time person in three western states to 
demonstrate the effectiveness of mobilizing the state Rural Water 
Associations resources to:
  --Provide on-site assistance to communities that have access to or 
        are seeking access to BOR water resources. This includes the 
        use of consolidations, new construction and changed operating 
        procedures to improve local water quality.
  --Where appropriate and in some states, provide on-site assistance at 
        the request of and in support of Indian Tribal Reservations and 
        the Indian Health Service in their efforts to improve the 
        delivery of quality drinking water throughout the reservation. 
        This circuit rider would strengthen the capability of the local 
        operation and allow tribes to improve water system management 
        similar to the improvements achieved by small community water 
        systems through similar circuit rider programs funded by the 
        Department of Agriculture.
  --Work with BOR, state government and local communities to develop a 
        simple strategy for improving the use of Bureau of Reclamation 
        water resources for rural domestic consumption. This strategy 
        would tie BOR priorities into the funds spent through the USDA 
        Rural Utilities Service and the EPA drinking water state 
        revolving loan funds.
  --Other primary services provided to water utilities will include 
        water conservation programs for water utilities and irrigation 
        districts, water audits, leak detections, water meter 
        installations/repairs, drought preparedness, regional water 
        supply development, water rates structure, and wastewater 
        system improvements.
                   proposed appropriation for project
    Provide $400,000 for three state rural water association grassroots 
circuit rider technical assistance programs. Each state rural water 
association would receive one full time program and the National Rural 
Water Association would be responsible for managing, evaluating, and 
reporting on the effectiveness of the overall project.
                            examples of work
    The impact of the Bureau of Reclamation on the improvement of 
community water systems in the west is best illustrated by the role 
that the Bureau of Reclamation sponsored multi county rural water 
systems such as Webb, Tricounty and others have played in South Dakota. 
Without these Bureau of Reclamation projects there would be inadequate 
safe drinking water supplies in much of rural South Dakota. The South 
Dakota Bureau projects have increasingly relied on the rural water 
association circuit riders to assist in resolving small system 
relationships with major water supply efforts. It is this growing need 
that establishes the reason for requesting BOR funding for a circuit 
rider in each state with the primary responsibility for coordinating 
small community needs with the BOR water resources available in rural 
areas.
    On a corresponding note, in most states the assistance provided to 
Indian Reservations by these same circuit riders provides the missing 
interface between local governments, water projects, and reservations 
that is so frequently requested. Our experience is that on-site 
discussions solve the vast majority of water supply problems and set 
the groundwork for long range solutions. This is needed if the federal 
government, state and local governments and tribes are going to 
conserve scarce water supplies in the west. The following are examples 
of the type of tribal assistance that would be addressed by this 
demonstration program.
    North Dakota, Trenton.--The city of Trenton is located in Williams 
County and serves 150 connections. The city of Trenton is primarily an 
Indian community and is located on the very western edge of North 
Dakota. Recently they started to purchase their water from the city of 
Williston. Since the city has started purchasing their water, the 
system has been losing money in its water account. After going over the 
system's expenses and water rates, a new rate structure was 
recommended. Previous to this, the system still had a declining water 
rate--as in, the more water used, the cheaper the cost per thousand. 
Now that the system is purchasing water, the rate would remain 
constant. The long-term benefits to the water system in assisting them 
change their water rates will be that they will be able to more easily 
cover all their cost and start building a much needed reserve fund for 
future needs. This shows them that closer attention must be contributed 
to water rates and other charges. Every gallon of water purchased and 
lost is money lost to the system.
    Arizona, Eden.--The Eden Water Company is located in Graham County 
and serves 100 connections. Verna Rae Colvin from the Eden Water 
Company requested assistance from the Arizona Small Utilities 
Association Circuit Rider. The system had been experiencing a water 
loss problem. The system is losing more water than is being sold to 
customers for the last two months. Long transmission lines 
(approximately 8 miles) are carrying water to the distribution systems 
with some customers on transmission lines. The main line and crossing 
valves are buried, and some have never been found in the last 10 to 15 
years. The Circuit Rider assisted with valve location and leak 
detection and customers meter testing throughout the water system. 
Daily meter readings at the source of supply are now being taken. As a 
result of this contact, accounting for water loss and correcting the 
problem will save the Eden Water Company approximately $7,000 per year 
in purchased water. Locating main line water valves will limit 
customers who would be out of water during the water main and service 
line breaks. By conducting a valve exercise program, water line valves 
will be operational when needed. The operator is more aware of the 
system due to valve, meter and service crossing locations.
    Idaho, Harrison, DW.--The City of Harrison is located in Kootenia 
County. The city water source is from metered ground water. There are 
approximately 150 metered connections and the system does not have 
full-time disinfection. The operator, Rhonda Wilcox, is full-time, but 
not certified. The Idaho Rural Water Association Circuit Rider was 
requested to assist the operator. The system was losing approximately 
100,000 gallons of water per day. The Circuit Rider delivered the Idaho 
Rural Water Association's leak detector to the City of Harrison. The 
operator was instructed on the use of the detector and instructions on 
how to survey the distribution system. The Circuit Rider and operator 
began checking every meter on the system. The operator was comfortable 
with using the equipment to proceed with attempting to locate the water 
leak. The following day, the operator located the leak. A one-inch 
water meter had frozen and broken. The repairs were made and the water 
loss eliminated. The operator was trained on the proper use of the leak 
detector and how to survey the water system. In the future, the 
operator will be able to use the training provided to locate water loss 
in the water system.
    Idaho, Shoshone County.--Avery water system is located in Shoshone 
County and serves 29 unmetered connections. The system is supplied by a 
well which is chlorinated and unmetered. The operator is part-time and 
is not certified. Their pump was running almost continually. The Idaho 
Rural Water Association's Circuit Rider reviewed the system and began 
isolating parts of the system. Two leaks were located with the IRWA 
leak detection equipment. A shut-off valve was also located with the 
IRWA locator. The Circuit Rider reviewed their well and made some 
recommendations for improving their system. The recommendations were to 
install a run light, and a meter at the well head. Due to the leaks 
found and repaired, the system will save in excess of $60 per month in 
power savings. The operator will be able to use the leak detector loan 
equipment offered by IRWA. By installing a well head meter and run 
light, the operator will be able to monitor the well production and run 
time. Use of this information will help the operator to recognize the 
next time a leak occurs.
    Montana, Deer Lodge.--The city of Deer Lodge is located in Powell 
County, Montana, and serves nonchlorinated water to 1,230 non-metered 
connections. The system is supplied by a groundwater source consisting 
of two metered wells. The full-time operator, Don Roberts, is 
certified. The operator contacted the Circuit Rider early one Sunday 
morning and requested immediate assistance with locating a water leak. 
The city's 2\1/2\ million water tank had only one foot of water in it. 
The Circuit Rider and the operator began a systematic check of the 
system in an attempt to locate the problem. The Circuit Rider 
determined that the ``leak'' was due to high usage because of hot 
weather and connections that were not metered. At their second well, a 
pilot control valve had been installed, and the pump had not been put 
back into operation. The Circuit Rider immediately checked the 
installation and found everything to be in order. He instructed the 
operator on the operation of the new control valve and the pump was 
started. By 7:00 am the next morning, the tank was three-quarters full. 
The Circuit Rider met with the mayor and recommended installing water 
meters which would save the system approximately $1,000 per month.
    Nevada, Pioche.--Leak detection training was provided for Pioche 
Public Utility. Three leaks were located in a 2-inch distribution line 
which serviced three houses. The repair of leaks will stabilize line 
pressure above the minimum pressure required by the Safe Drinking Water 
Act, plus save utility district money.
    Nevada, Steamboat Springs.--Steamboat Springs System is located in 
Washoe County, Nevada and serves unchlorinated water to 290 connections 
that are not metered. The system is supplied by a groundwater source 
which is metered. Tom Reese is the new full-time operator; he is not 
certified. The water system requested the Circuit Rider's help in 
locating some valves. The Circuit Rider was also asked to explain fire 
hydrant operation and maintenance. The operator received assistance in 
the location of the valves. He now has knowledge of the proper 
operation and maintenance of fire hydrants, including the importance of 
a regular exercise program for valves and fire hydrants.
    North Carolina, Woodfin.--Woodfin Sanitary District is in Buncombe 
County and serves 2,100 connections. The water system was experiencing 
water pressure problems in upper areas and water loss. The State 
Regulatory people were pushing for some results. The problem area was 
located and later pinpointed by process of elimination due to 
interference in attempting to use leak detection equipment. The leak 
was located under a railroad track where an 8 foot water line was in 16 
feet casing. The leak was midway of the encasement and flowed to the 
end drainage directly into a damaged sewer line. This explained some of 
the difficulty in locating the leak. It had become an 11,000,000 gpd 
leak and, when fixed, pressure from the other water system was 
eliminated. The staff is now much better prepared to deal with this 
type of problem due to the on-site assistance and training using leak 
detection equipment and pressure recording equipment, as well as simple 
field tools, and, most importantly, the process of elimination approach 
when necessary.
    South Dakota, Butte-Meade, DW.--The Circuit Rider was requested to 
join the cooperative efforts of the Butte County Extension Office, FmHA 
District Office, and Butte-Meade Sanitary District during a public 
hearing to discuss the water system projected expansion project. The 
Circuit Rider was the main speaker, discussing the benefits, process, 
and potential addition of area ranchers, residents and communities, and 
the funding process needed. This system needed guidance and information 
to present to the attendees who are very concerned and in dire need of 
quality water. The water in this area is difficult to find, and it 
would be very costly to drill a new well. The benefits of the users 
hooking up to this system are many; most of all they would receive good 
quality water. At the present time, many ranchers in the proposed area 
have to haul the water for livestock and household use. Many people who 
live on acreage or just a household are also faced with poor quality 
water and must also haul water. The end result from this meeting was 
the information provided to the attendees of the possibility of a water 
system's capability to serve them a sufficient supply of quality water.
    Colorado, General, DW.--Spread Eagle Water System is located 
approximately sixteen miles northwest of Westcliffe, CO. This system 
serves fifteen year-round connections and uses a ground water source to 
supply the system. Joe Defries, system operator, contacted CO Rural 
Water for assistance. The Circuit Rider conducted leak detection on 
three different sections of water line. Four leaks were found. The 
amount of water being lost was approximately 3.3 gallons per minute. As 
a result of this contact, the system saved approximately $500 in leak 
detection costs and water loss.
    Idaho, Lapwai.--The Circuit Rider worked with the Nez Perce Indian 
tribe on five separate housing developments, investigating meter 
installation and some type of utility billing system. Possible 
connection to the city of Lapwai water system for one of the 
developments was also discussed.
Case Study
    Idaho--The following local water issues represent candidates for 
assistance Lapwai.--The possibility of the City of Lapwai taking over 
the operation and maintenance of the Nez Perce tribe drinking water and 
wastewater systems that are in close proximity to the city.
    Worley.--Currently discussing the possibility of the Coeur D'Alene 
tribe assisting with the construction of a new well and storage tank. 
In return the city would operate the system which is on the reservation 
and includes the city of Worley.
    Kamiah.--Discussions in first stages for the city to take over the 
operation and maintenance of the Indian drinking water system in close 
proximity to the city.
    Fort Hall.--Major contamination problem with the water supply. 
Contamination may be related to chemicals that were used on Indian 
ground that may be used by some farmers in the area. The system has put 
in a charcoal filter but the problem still is being discussed.
                                 ______
                                 

     Prepared Statement of Grady Gammage, Jr., President, Board of 
         Directors, Central Arizona Water Conservation District

    The Central Arizona Water Conservation District (CAWCD) is pleased 
to offer the following testimony regarding the fiscal year 1999 Energy 
and Water Development Appropriations Bill for the Central Arizona 
Project.
    The Central Arizona Project or ``CAP'' was authorized by the 90th 
Congress of the United States under the Colorado River Basin Project 
Act of 1968. We thank the Committee for its continuing support of the 
CAP. The CAP is a multi-purpose water resource development project 
consisting of a series of canals, tunnels, dams, and pumping plants 
which lift water nearly 3,000 vertical feet over a distance of 336 
miles from Lake Havasu on the Colorado River to the Tucson area. The 
project was designed to deliver the remainder of Arizona's entitlement 
of Colorado River water into the central and southern portions of the 
state for municipal and industrial, agricultural, and Indian uses. The 
Bureau of Reclamation (Reclamation) initiated project construction in 
1973, and the first water was delivered into the Phoenix metropolitan 
area in 1985. CAWCD delivered over 1.3 million acre-feet of water to 
project water users in 1997 and anticipates delivering 1.4 million 
acre-feet in 1998.
    CAWCD was created by the Arizona legislature in 1971 for the 
specific purpose of contracting with the United States to repay the 
reimbursable construction costs of the CAP that are properly allocable 
to CAWCD. In 1983, CAWCD was also given authority to operate and 
maintain completed project features. Its service area is comprised of 
Maricopa, Pima, and Pinal counties. CAWCD is a tax-levying public 
improvement district, a political subdivision, and a municipal 
corporation, and represents roughly 80 percent of the water users and 
property taxpayers of the state of Arizona. CAWCD is governed by a 15 
member Board of Directors elected on a population basis from each of 
the three counties it serves. CAWCD's Board members are public officers 
who serve without pay.
    Reclamation declared the CAP water supply system substantially 
complete in 1993, and declared the regulatory storage stage, or Plan 6, 
complete in 1996. Project repayment is provided for through a 1988 
Master Repayment Contract between CAWCD and the United States. Project 
repayment began in 1994 and, in 1997, CAWCD's first payment for the 
regulatory storage stage (other than monies advanced by CAWCD during 
construction) was made. To date, CAWCD has contributed or repaid over 
$420 million toward project construction costs.
    CAWCD and Reclamation disagree about the amount of CAWCD's 
repayment obligation for CAP construction costs. This dispute is the 
subject of ongoing litigation in United States District Court in 
Arizona.
    In CAWCD's view, CAWCD's repayment obligation cannot exceed $1.781 
billion under the repayment ceiling of the Master Repayment Contract. 
Reclamation takes the position that the contract repayment ceiling is 
$2.0 billion. However, Reclamation estimates that it will actually 
incur $2.33 billion in reimbursable construction costs for completed 
CAP features. Reclamation insists that CAWCD must agree to repay this 
larger amount, despite the repayment ceiling of the Master Repayment 
Contract. Otherwise, Reclamation claims that it may deny CAWCD the use 
of project facilities to deliver CAP water supplies to its customers. 
For this reason, CAWCD has scrutinized Reclamation's budget requests 
very carefully over the last two fiscal years and has objected to 
requests for funding of activities that seem unnecessary or which could 
be delayed without harm to the project.
    Reclamation is requesting $49,908,000 for the CAP in fiscal year 
1999 (fiscal year 1999). Of this amount, $25,014,000 is requested for 
the construction of Indian distribution systems, and $8,133,000 is 
requested for completion of construction of sulfur dioxide scrubbers at 
the Navajo Generating Station (NGS). The balance, $16,761,000 is sought 
for other CAP activities.
    All features of the project that are subject to repayment by CAWCD 
and are likely to be constructed (other than reliability features for 
the Tucson area which have been deferred) are now complete, are in 
repayment status, and are being operated and maintained by CAWCD. 
Significant work remains to be done to complete Indian distribution 
systems and some work remains to be done to install sulfur dioxide 
scrubbers at NGS; however, much of this work is being accomplished by 
entities other than Reclamation. For example, the NGS scrubber project 
is being completed by the Salt River Project and, according to 
Reclamation, all CAP Indian distribution systems will be constructed 
under contracts authorized by the Indian Education and Self 
Determination Act (Public Law 93-638). While Reclamation's activities 
and role will likely vary with each Tribe, a significant amount of this 
effort will be performed by the Tribes themselves. CAWCD fully supports 
appropriations necessary to ensure early completion of all Indian 
distribution systems and the NGS scrubbers.
    Of the remaining funds ($16,761,000) that are not related to NGS or 
to Indian distribution systems, over 20 percent is requested to support 
Reclamation's non-contract costs. These non-contract costs total about 
$3,548,000. Non-contract costs typically represent Reclamation's labor 
and associated overhead costs, such as utilities, rent and travel, 
which are incurred for the administration of Reclamation's construction 
program. CAWCD recognizes that some funds are needed to support 
Reclamation's non-contract costs, and that Reclamation's fiscal year 
1999 budget request for such funds is about $1.8 million lower than 
last year. CAWCD congratulates the Bureau of Reclamation for its 
efforts to reduce the size of its workforce and to close out completed 
construction contracts over the past year. However, we believe that 
further reductions in non-contract costs are warranted. Finally, other 
than a very modest amount to enable Reclamation to defend ongoing 
litigation over the validity of a biological opinion regarding delivery 
of CAP water to the Gila River Basin, no funds should be appropriated 
for native fish protection until that litigation is resolved.
    CAWCD urges the Committee to consider the following areas of 
concern in determining fiscal year 1999 appropriations for CAP:
1. New Waddell Dam: $4,302,000
    New Waddell Dam is the central feature of the CAP regulatory 
storage stage. The reservoir formed by New Waddell Dam was first filled 
in early 1994, and the dam was declared substantially complete in 
October 1996. Of the requested $4,302,000, $700,000 is being requested 
to cover non-contract costs to support remaining activities at New 
Waddell. Reclamation has indicated to CAWCD that its remaining 
activities include replacing campgrounds, picnic areas, and access 
roads ($3,450,000), conducting fish limnology studies ($150,000), fish 
and wildlife mitigation activities, and contract close-out work. 
Reclamation has indicated to CAWCD that 11 contracts were closed during 
1997 and that 11 others remain open, of which 3 will be closed in 
fiscal year 1998 and the remainder in fiscal year 1999. Reclamation has 
also informed CAWCD that much of the remaining recreation development 
is being accomplished by Reclamation's local recreation manager 
(Maricopa County). CAWCD supports Reclamation's requests for funds to 
complete recreation development at Lake Pleasant, fish and wildlife 
mitigation activities and contract close out work. However, more work 
needs to be done to reduce non-contract costs. CAWCD supports 
appropriations necessary to cover Reclamation's reasonable non-contract 
costs with the expectation that remaining reimbursable activities at 
New Waddell be concluded as soon as possible. In addition, CAWCD 
objects to an appropriation of funds to conduct fish limnology studies 
($150,000) in fiscal year 1999. In light of ongoing litigation 
regarding the protection of endangered native fish in the Gila River 
Basin from predation by non-native fish, Reclamation should cease 
activities associated with supporting the sport fishery at Lake 
Pleasant.
2. Modified Roosevelt Dam, Non-contract Costs: $7,120,000
    Like New Waddell Dam, Modified Roosevelt Dam was declared 
substantially complete in 1996. Reclamation is requesting $7,120,000 in 
fiscal year 1999 to fund activities associated with protection of the 
endangered Southwestern Willow Flycatcher, completion of public 
recreation facilities at Roosevelt Lake by the U.S. Forest Service, 
completion of remaining fish and wildlife mitigation activities, and to 
cover non-contract costs. CAWCD supports appropriations necessary to 
protect endangered species, to complete remaining recreation 
facilities, to complete fish and wildlife mitigation activities, and to 
support a reasonable level of non-contract costs.
    Out of a total request of $7,120,000, about $5.8 million is for 
work to be done by others, with Reclamation identifying $1.171 million 
of the remaining amount for non-contract activities. Reclamation has 
informed CAWCD that there are currently 14 active contracts or 
agreements for Modified Roosevelt Dam, and its schedule for closing out 
these contracts will stretch from 1999 to 2007, and that one contract 
associated with maintaining the San Pedro Preserve for the Southwestern 
Willow Flycatcher may be perpetual. CAWCD believes that more work needs 
to be done to reduce non-contract spending; however, CAWCD supports 
appropriations necessary to cover Reclamation's reasonable non-contract 
costs with the expectation that remaining reimbursable activities at 
Modified Roosevelt Dam be concluded as soon as possible.
3. Tucson Reliability Division: $560,000
    Reclamation is requesting $560,000 in fiscal year 1999 to fund 
continuing activities associated with assisting the City of Tucson to 
design a system including adequate reliability to efficiently utilize 
project water. CAWCD questions the need for this level of funding, but 
supports a reasonable level of appropriations which will allow planning 
work to continue. Reclamation has estimated that its expenditures 
associated with the Tucson Reliability Division in fiscal year 1998 
will total about $200,000. CAWCD would support a fiscal year 1999 
appropriation at that same level.
4. Other Project Costs, Water Allocations, Non-contract Costs: $224,000
    Reclamation has indicated to CAWCD that these funds are needed to 
support administrative staff activities associated with the overall 
project including cost allocation reports and analysis, water quality 
data collection, responses to various inquiries, archiving historical 
records, budget request support and financial management. First, CAWCD 
questions Reclamation's use of the term ``water allocations'' to 
represent this budget category since no water allocation work is being 
done. CAWCD is not aware of any need to prepare cost allocation reports 
or conduct such an analysis, especially in light of the current status 
of the litigation regarding project repayment. Water quality data 
collection is related to the Gila River, and is not necessary since 
construction of those CAP features has been deferred. Responses to 
various inquiries, archival of records, budget support and financial 
management may be necessary Reclamation activities; however, they 
should not continue to be funded from CAP construction funds. 
Consideration should be given to funding these activities from one of 
Reclamation's administrative appropriations, such as General 
Administrative Expenses.
5. Other Project Costs, Native Fish Protection: $3,558,000
    Of the total $3,558,000 requested, $3,058,000 is earmarked to fund 
activities associated with implementation of a 1994 biological opinion 
of the U.S. Fish and Wildlife Service (FWS) pertaining to delivery of 
CAP water to the Gila River Basin. These funds are requested for 
construction of fish barriers ($1,943,000), payments to FWS for non-
native fish eradication and native fish conservation ($500,000), and 
Reclamation's non-contract costs ($290,000). A local environmental 
organization has sued both Reclamation and FWS on the basis that the 
reasonable and prudent alternatives of the biological opinion are not 
stringent enough, and it is likely that this matter will be at issue 
for some time. Since the litigation may produce a result which is very 
different from that currently provided for in the biological opinion, 
CAWCD continues to believe that Reclamation should cease spending in 
this area until the pertinent issues are resolved. CAWCD supports a 
reasonable level of non-contract funding for Reclamation's litigation 
activities and to continue Endangered Species Act consultation 
activities on the Santa Cruz River.
                               conclusion
    CAWCD welcomes this opportunity to share its views with the 
Committee, and would be pleased to respond to any questions or 
observations occasioned by this written testimony.
                                 ______
                                 

           UPPER MIDWEST WATER RESOURCE DEVELOPMENT PROJECTS

 Prepared Statement of Kurt Pfeifle, General Manager, Mid-Dakota Rural 
                           Water System, Inc.

                    fiscal year 1999 funding request
    First let me thank the Subcommittee for the opportunity to testify 
in support of the fiscal year 1999 appropriations for the Mid-Dakota 
Project and for the Subcommittee's support.
    The Mid-Dakota Project is requesting $32,150,379 in federal 
appropriations for fiscal year 1999. As with our past submissions to 
this subcommittee, Mid-Dakota's fiscal year 1999 request is based on a 
detailed analysis of our ability to proceed with construction during 
the fiscal year. In all previous years, Mid-Dakota has fully obligated 
its appropriated funds, including federal, state, and local, and could 
have obligated significantly more were they available.
    In February the President's Budget recommendations to Congress were 
released. Mid-Dakota Rural Water was included in the proposed budget at 
a level of $10,000,000 for fiscal year 1999. This is the same funding 
level recommended for the project in fiscal year 1998 by the 
Administration. Fortunately Congress in fiscal year 1998 ``disagreed'' 
with the President's budget recommendation for this important project 
and increased the appropriation to $13,000,000.
    The funding provided by the Subcommittee in fiscal year 1998 
provided Mid-Dakota with the opportunity to achieve the most 
significant and exciting accomplishment for fiscal year 1998. The 
beginning of water deliveries to those who need it most. Mid-Dakota has 
begun deliveries to five community water systems; Highmore, Blunt, 
Onida, Gettysburg and the Oahe Plains Rural Water System and a 
significant number of rural household connections. Upon the completion 
of contract 4-1A/B (schedules 1-5) an additional 450 rural households 
will be connected to the system as well as an additional community 
system.
    This year (fiscal year 1999) the project is seeking additional 
funds above the President's budget recommendation in the amount of 
$22,150,000. Mid-Dakota understands and appreciates pressures on 
Congress to pass and maintain a balanced and ostensibly an austere 
budget and in that respect we understand the difficulties before 
Congressional Appropriators to ``find'' additional funds to supplement 
the President's budget request. However, we request and strongly urge 
Congress to closely examine the priorities of the President's budget 
proposal and strive to ``rearrange'' the President's budget 
recommendations in as favorable a manner to Mid-Dakota as is possible.
    As in the past, Mid-Dakota is in ``catch-up'' mode, due to lower 
than expected appropriations in prior years. The $32.15 million request 
for fiscal year 1999 would bring the project close to our prior 
construction schedule. If the additional funds are provided this would 
also make significant strides towards fulfilling a goal outlined in the 
Bureau of Reclamation's own strategic planning document that calls for 
the completion of ALL on-going construction projects within the next 
five years.
    The Project facilities proposed for construction are representative 
of Project design that is currently, or will be far enough along to 
proceed with construction in the fiscal year. Mid-Dakota has a track 
record of high credibility when it comes to our ability to do those 
things we say we are capable of doing. The emergency pipeline to the 
City of Gettysburg, South Dakota is a prime example of this project's 
willingness and ability to GET THINGS DONE. Mid-Dakota invites a close 
examination of this important project from any and all angles and in 
the final analysis we believe that everyone will agree--Mid-Dakota is a 
project of high credibility and ability and is deserving of strong 
endorsement.
                       history of project funding

----------------------------------------------------------------------------------------------------------------
                                                                                                   Award level
             Federal fiscal year                  Project's      President's    Enacted levels  (underfinancing)
                                                   request         budget                            applied
----------------------------------------------------------------------------------------------------------------
1994.........................................      $7,991,000  ..............      $2,000,000        $1,500,000
1995.........................................      22,367,000  ..............       4,000,000         3,600,000
1996.........................................      23,394,000      $2,000,000      11,500,000        10,902,000
1996.........................................             n/a  ..............          ( \1\ )        2,323,000
1997.........................................      29,686,000       2,500,000      10,000,000         9,400,000
1997.........................................             n/a  ..............          ( \2\ )        2,950,000
1998.........................................      29,836,379      10,000,000      13,000,000        12,221,300
1999.........................................      32,150,000      10,000,000          ( \3\ )     (32,150,000)
                                              ------------------------------------------------------------------
      Totals.................................     145,424,379      24,500,000      40,500,000        42,896,300
----------------------------------------------------------------------------------------------------------------
\1\ Additional funding.
\2\ Additional funding and adjustment.
\3\ Fiscal year 1999 requested.
 
Note: Additionally, the State of South Dakota has contributed $8,370,000 in grants to the Mid-Dakota Project, in
  previous years. It is likely that the Project will receive $1,300,000 in grant this Legislative Session. This
  will complete the State of South Dakota's financial commitment to the Mid-Dakota Project.

    The Project was authorized by Congress and signed into law by 
President George W. Bush in October 1992. The federal authorization for 
the project totaled $100 million in a combination of federal grant and 
loan funds (grant funds may not exceed 85 percent of federal 
contribution). The State authorization was for $8.4 million. As of 
October 1996, the total authorized indexed cost of the project was 
$141,535,000. All federal funding considered, the Government is now 33 
percent into its commitment to providing construction funding for the 
Project. South Dakota Legislation has overwhelmingly passed the South 
Dakota House and Senate and contains a grant of $1.3 million, which 
will likely be made available to the Project in March, 1998. This 
latest appropriation by the State Legislature completes the State's 
authorized commitment to Mid-Dakota. When you look at the federal and 
state combined awards, you find that the project is approximately 36 
percent complete. With this progress into total development, we are 
pleased to see that Congress, in particular the Appropriations, Energy 
and Water Development Subcommittees, intend to see the Mid-Dakota 
project through to its completion.
    Mid-Dakota wishes to thank this committee for its support over the 
past five years. Within the limited monetary parameters of current 
federal awards and funds appropriated by the State of South Dakota, we 
have been able to make phenomenal progress on project construction.
                            impacts of award
    The most obvious impact of any significant reduction from Mid-
Dakota's request will be the delay of construction of one or more 
Project components. The $32.15 million dollar request will allow the 
Project to proceed with construction of multiple contracts summarized 
later in this testimony. An award of less than our request will result 
in the deletion or reconfiguration of one or more of these contracts 
from the fiscal year 1999 construction schedule. Further, reduced 
appropriations have the effect of adding more cost to the amount needed 
for completion of the Project.
    An impact not readily apparent, but certainly one that exists, is 
the impact funding has on other States. Many believe that Mid-Dakota is 
a Project that ONLY benefits people who live in South Dakota. Nothing 
could be further from the truth. The Great State of South Dakota is 
blessed with many things, however, industrial resources are not among 
them. Mid-Dakota has made what we consider a conservative estimate, 
stating that more than 70 percent of the total cost of the Mid-Dakota 
Project will be spent outside of our State. By way of example, millions 
of dollars have already been spent in pipe purchases in Alabama and 
Colorado. Similarly, hundreds of thousands of dollars have been 
expended by way of contractor payments to Companies in North Dakota, 
Wyoming, Minnesota, Indiana and Texas. Thousands and hundreds of 
thousands of dollars has been expended in many other States. 
Potentially, States such as Pennsylvania, Louisiana, Washington, Oregon 
and Kentucky will also benefit. Mid-Dakota is truly a ``federal'' 
Project, being constructed and providing benefits to people throughout 
the Nation, from California to Pennsylvania, from Texas to Montana.
    Mid-Dakota has consistently informed members of Congress and the 
various federal agencies, about the detrimental effects insufficient 
funding has on the Project and ultimately the people who will receive 
the water. Always in character with the tough and individualistic 
portrayal of people living in the Great Plains, Mid-Dakota and the 
people we will serve have accepted the hardships imposed on the Project 
with a quiet resolve. However, failure to provide full funding has had 
profound consequences.
                        construction in progress
    Mid-Dakota began construction in September of 1994, with the 
construction of its Water Intake and Pump Station. Since that eventful 
day of first construction start, we have bid, awarded, and completed 
six project components and are into construction on two other major 
Project components. The following bulleted list provides a synopsis of 
each major construction contract:
  --Contract 1-1 (Oahe Water Intake and Pump Station), Contract was 
        awarded to Industrial Builders, Inc., of Fargo, ND, in August 
        of 1994. The Intake structure is of a vertical caisson design 
        and is complete. Cost of the Intake is approximately $3.95 
        million.
  --Contract 2-1 (Oahe Water Treatment Plant), Contract was awarded to 
        John T. Jones Construction Co., of Fargo, ND, in October of 
        1994. The Water Treatment Plant is a ``Direct Filtration'' 
        design, capable of producing 9.0 million gallons of treated 
        water per day. The Treatment Plant is complete. Cost of the 
        Treatment Plant is approximately $10.3 million.
  --Contract 3-1A (Raw Water Pipeline), Contract was awarded to Larry's 
        Construction, Co., of Gillette, WY, in June of 1995. The 
        contract consists of nearly four miles of large diameter (30 
        inch) ``Ductile Iron Pipe.'' The Raw Water Pipeline is 
        complete. Cost of the Raw Water Pipeline is approximately $1.7 
        million.
  --Contract 3-1B (Main Transmission Pipeline--to Blunt, SD), Contract 
        was awarded to Kenko Inc., of Minneapolis, MN, in April of 
        1996. The contract consists of nearly 24 miles of large 
        diameter (30 and 24 inch) ``Steel Pipe.'' The contract is 
        complete. Cost of the contract was $6.9 million.
  --Contract 3-1C (Main Transmission Pipeline--to Highmore Water 
        Storage Tank), Contract was awarded to S.J. Louis Inc., of St. 
        Cloud, MN, in April of 1996. The contract consists of nearly 18 
        miles of large diameter (30 and 24 inch) ``Ductile Iron Pipe.'' 
        The contract is complete. Cost of the contract was $4.8 
        million.
  --Contract 5-1 (Highmore Water Storage Tank), Contract was awarded to 
        Landmark Structures Inc., of Keller, TX, in April of 1996. The 
        contract provides for the erection of a 1.5 million-gallon 
        water storage tank (composite design) near the Town of 
        Highmore, South Dakota. The contract is complete. Cost of the 
        contract was $1.4 million.
  --Contract 4-1A/B schedules 1-5 (Rural distribution and service), 
        Contract was awarded to Eatherly Contractors Inc., of Garden 
        City Kansas. Contact provides for the emplacement of nearly 500 
        miles of rural distribution pipeline and connection to 
        approximately six community water systems and 500 rural homes. 
        Contract is approximately 25 percent complete. Cost of the 
        contract is currently $10.2 million.
  --Contract 5-1A (Onida Water Storage Tank), Contract was awarded to 
        Phoenix Fabricators, of Indianapolis, Indiana in October of 
        1997. The contract provides for the erection of a .250 million 
        gallon water storage tank (multi-column design) near the Town 
        of Onida, South Dakota. The contract is approximately 6 percent 
        complete. Cost of the contract is currently $.4 million.
    Funding for the preceding contracts was reserved from previously 
appropriated and reprogrammed funds.
[GRAPHIC] [TIFF OMITTED] TCORPS.012

                         use of funds requested
    The following numbered items represent the Project's proposed use 
of the $32.15 Million request in fiscal year 1999. Reduction of award 
from our request will cause the Project to delete or modify (depending 
upon size of any reduction) one or more of the delineated Project 
Components:

                 Fiscal Year 1999 proposed construction

                        [In millions of dollars]

1. Basic Services (Admin., Eng., Legal, BOR etc.--)...............  1.13
2. Canning Distribution System, N. CFB............................  0.40
3. Agar Distribution System.......................................  1.88
4. Okobojo Distribution System....................................  1.96
5. Gettysburg Distribution System.................................  6.94
6. Main Pipeline to St. Lawrence, SD..............................  8.13
7. Highmore Central Distribution System...........................  4.80
8. Mac's Corner Distribution System...............................  3.44
9. Collin's Slough Distribution System and WST....................  2.55
10. Rezac Lake Distribution System and WST........................  2.15
11. Orient Distribution System and WST............................  1.51
                        -----------------------------------------------------------------
                        ________________________________________________
      Total fiscal year 1999 Program Requirements..............\1\ 32.15

\1\ Excludes approximately $2.75 Million in current year funds.
---------------------------------------------------------------------------
                          beginning to deliver
    Funding levels provided the Mid-Dakota Project from this point 
forward will have profound consequences on our ability to deliver the 
intended benefits of this project in a timely manner. A very high 
percentage of any appropriation provided by the federal government has 
a direct and proportional effect on the project's ability to connect 
even more users to the water system.
    Mid-Dakota concludes its testimony to the Energy and Water 
Subcommittee with the following excerpts from a letter to Mid-Dakota 
from Mayor William R. Davis, City of Gettysburg, SD:
    ``Our municipal water supply was in serious jeopardy as the main 
line was continually breaking apart due to sloughing of the hillside. 
The cost of constantly repairing these breaks depleted our maintenance 
reserves and left the City struggling to find a solution to the 
problem. Without a reliable source of water, the residents and 
businesses were concerned about [the] future of Gettysburg.''
    ``If outside funds had not been made available to help complete the 
connection to Mid-Dakota Rural Water System, Gettysburg would be 
without water this winter.''
    ``I am sure there are other communities that are facing the same 
reality as Gettysburg and will need speedy connection to Mid-Dakota. 
Providing a source of funding to aid in the construction of this rural 
water system is very important to finish this project for everyone.''
    The comments and observations provided by Mayor Davis speaks 
volumes for the need of this important project--and provides a fitting 
end to our testimony.
    Again, we thank the Subcommittee for your strong support in the 
past.
                                 ______
                                 

    Prepared Statement of the Fort Peck Assiniboine and Sioux Tribes

                fiscal year 1999 appropriations request
    The Fort Peck Assiniboine and Sioux Tribes respectfully request 
funds to continue planning of the Fort Peck Reservation RWS, Montana, 
in the amount of $360,000. The Tribes are joined in fiscal year 1999 by 
the Counties' Water System, a part of the Fort Peck Assiniboine and 
Sioux Rural Water System, that is planning water service to all or 
parts of Roosevelt, Sheridan, Daniels and Valley counties outside the 
Fort Peck Indian Reservation. The request for funds is for continued 
pre-authorization work on the Fort Peck Indian Reservation ($200,000) 
and within the Counties' Water System ($160,000).
    The Tribes are highly appreciative of the work by this Subcommittee 
on the project previously. In fiscal year 1993 and fiscal year 1994, 
$350,000 were appropriated, and in fiscal year 1997, $210,000 were 
appropriated. Last year the Subcommittee appropriated $240,000. The 
funds were line items in the Bureau of Reclamation ``General 
Investigations'' budget.
   accomplishments with prior appropriations and proposed activities
    The work products completed to date by the Bureau of Reclamation 
include a ``Needs Assessment and Feasibility Report'' within the 
boundaries of the Fort Peck Indian Reservation. The Fort Peck Sioux and 
Assiniboine Tribes have continued to work with the Bureau of 
Reclamation and Tribes' engineer to improve upon and update the cost 
estimates for a regional project. The ``Final Engineering Report'' is 
in progress and will be completed in fiscal year 1998, incorporating 
the cost of expanding facilities on the Fort Peck Indian Reservation to 
serve the Counties Water System outside the Fort Peck Indian 
Reservation. The State of Montana, by action of its legislature, 
appropriated $62,000 in fiscal year 1997 to provide for a ``Needs 
Assessment'' and cost estimate of facilities outside the Reservation. 
The needs and facility costs determined for the Counties' Water System 
are being incorporated into the ``Final Engineering Report.''
    Based on the considerable pre-authorization work that has been 
completed, fiscal year 1999 funding will provide for conclusion of 
investigations needed prior to authorization. In the event the project 
is authorized in fiscal year 1998, the fiscal year 1999 appropriations 
will be used, in part, to upgrade the environmental and engineering 
work on the project to meet NEPA compliance requirements and to begin 
design level investigations, respectively.
    Through the efforts of this Subcommittee, planning for the project 
has been adequately advanced and can be concluded with fiscal year 1999 
funds. Specific technical objectives with the fiscal year 1999 funds 
include continued public involvement and coordination with off-
Reservation interests in the Counties' Water System by the Fort Peck 
Assiniboine and Sioux Tribes, continued work with the Bureau of 
Reclamation on the Level I cultural and historic data gathering, 
continued work with the Bureau of Reclamation on the Environmental 
Baseline Report and continued attention to alternatives for project 
improvements that reduce costs of the project and deliver the full 
water requirements. The Counties' Water System funds will be used 
specifically for first time cultural and historic data gathering 
efforts, wetlands analysis, environmental baseline report and revision 
of cost estimates based in increasing refinement of interest by the 
communities of the region and individual farms and ranches. The funding 
request of the Counties' Water Systems ($160,000) is in keeping with 
the cost share provisions of the proposed legislation, in which 25 
percent of the funds would be derived from a non-federal source. The 
State of Montana has previously provided $62,000 or 27 percent of the 
total $222,000 (including $160,000 in fiscal year 1999 and $62,000 from 
Montana) of funding for off-Reservation activities.
         progress of the fort peck assiniboine and sioux tribes
    The Tribes are extremely pleased with progress on the project to 
date. Fiscal year 1997 and 1998 focused on public involvement within 
the Fort Peck Indian Reservation and outside it. The Tribes held 
numerous public meetings to acquaint residents within the boundaries of 
this regional project with capital costs, operation and maintenance 
costs, planning for the establishment of an operation and maintenance 
entity and the potential impact on environmental resources. The Tribes 
have planned the use of water from the Missouri River on the basis of 
their Compact with the State of Montana which assures a dependable 
supply of project water without shortage. The efforts of the Tribes 
have involved members of the Tribal Council, Water Resources staff, the 
Tribes' Water Commission, members of the Fort Peck Assiniboine and 
Sioux Tribes and other residents of the Fort Peck Indian Reservations.
    Detailed cost estimates have been refined and expanded off the 
Reservation by the Fort Peck Assiniboine and Sioux Tribes and Counties' 
Water System to assist water users and communities in an evaluation of 
the costs of participating in the project and improving drinking 
quality.
    The total project cost within the Reservation, sized to carry off-
Reservation water demands, is $103 million. The cost of enlarging the 
facilities to carry water to meet off-Reservation municipal, rural and 
industrial demands is $26 million (included in the $103 million). The 
cost of facilities outside the reservation is $76 million. Therefore, 
total project costs are $179 million. Assuming a cost share of 75 
percent federal and 25 percent local, consistent with the Safe Drinking 
Water Act, as amended, and comparable projects funded by the 
Subcommittee, the local cost share would be $25.5 million. The Tribes 
recognize that the cost share details necessarily require Congressional 
concurrence and authorization.
    The cost of annual operation and maintenance of Fort Peck and 
Counties' facilities is estimated at $2.57 per thousand gallons. Off-
Reservation users will have additional costs to operate and maintain 
off-Reservation transmission and distribution facilities. These costs 
compare favorable with Mid-Dakota costs of $2.50 per thousand gallons.
                   counties' water system activities
    Part of the effort of the Fort Peck Assiniboine and Sioux Tribes 
during fiscal year 1997 and the first two quarters of fiscal year 1998 
was to work with off-Reservation interests in the project to assist 
them with organization and an improved understanding of the project. 
This has resulted in the formation of a Steering Committee for the 
Counties' Water System. The Steering Committee has elected officers and 
meets on a monthly basis. The Counties' Water System is engaged in 
refining the needs of the project outside the Fort Peck Indian 
Reservation, and considerable progress has been made.
      water quality of existing drinking water supplies and needs
    The geologic setting of the Fort Peck Indian Reservation and the 
counties outside the Reservation is comparable to the rest of eastern 
Montana, North Dakota and South Dakota. With the exception of the 
Missouri River, which is a high quality water source, the groundwater 
supplies of the region are of poor quality, derived from shales 
deposited in ancient seas. Some of the worst water on the North 
American Continent lies below the Fort Peck Indian Reservation in the 
Madison Formation. This water is not used for human or livestock 
consumption. It is a brine several times more concentrated than sea 
water. Above this unsuitable aquifer are lesser aquifers that have been 
subjected to oil and gas development and have been contaminated, in 
part, by those activities. Other near-surface aquifers are subject to 
growing nitrogen contamination from agricultural activities within the 
area.
    The Poplar River, which flows through the central portions of the 
Fort Peck Indian Reservation and the region is the subject of an 
Apportionment Agreement between Canada and the United States. Half of 
the water supply is available for Canada as measured at the 
International Boundary, and the balance is available for use in the 
United States. Depletion of this resource by agricultural and coal-
fired power generation on the Canadian side increases the 
concentrations of chemicals and contaminants in the supply for the 
United States. The Poplar River and its principle tributaries are 
neither dependable supplies of water nor are they of suitable quality 
for this project. Thus, the Fort Peck Tribes and the Counties' Water 
System are seeking a regional water project, comparable to Garrison, 
WEB, Mni Wiconi and Mid-Dakota that rely on the high quality waters of 
the Mainstem Missouri River.
    The feature of this project that makes it more cost effective than 
similar projects is its proximity to the Missouri River. The southern 
boundary of the Fort Peck Indian Reservation is formed by the Missouri 
River for a distance of more than 60 miles. Many of the towns in this 
regional project are located two to three miles from the river, 
including Nashua, Frazer, Oswego, Wolf Point, Poplar, Brockton, 
Culbertson, and Bainville. As shown on the enclosed project map, a 
looping transmission system outside the Fort Peck Indian Reservation 
will deliver water 30 to 40 miles north of the Missouri River. 
Therefore, the distances from the Missouri River to all points in the 
main transmission system are shorter than in other projects of this 
nature in the Northern Great Plains.
    For comparison of water quality of this project with other regional 
projects, please refer to Table 1.

                            TABLE 1.--WATER QUALITY INDICATORS OF COMPARABLE PROJECTS
----------------------------------------------------------------------------------------------------------------
                                                           Sulfate
  Dissolved solids project (mg/l)         Community         (mg/l)         Project               Community
----------------------------------------------------------------------------------------------------------------
Lewis and Clark--2,730............  Upper Limit..........    1,500  Fort Peck............  Fort Kipp.
Mni Wiconi--2,600.................  Reliance.............    1,139  Lewis and Clark......  Upper Limit.
Fort Peck--2,332..................  Fort Kipp............    1,120  Mni Wiconi...........  Red Shirt.
Mni Wiconi--2,056.................  Red Shirt............    1,080  Mni Wiconi...........  Reliance.
Mni Wiconi--1,761.................  Murdo................    1,042  Mni Wiconi...........  Murdo.
Mni Wiconi--1,740.................  Kennebec.............      984  Mni Wiconi...........  Kennebec.
Mni Wiconi--1,398.................  Presho...............      644  Mni Wiconi...........  Presho.
Lewis and Clark--1,380............  Lower Limit..........      538  Fort Peck............  Poplar.
Fort Peck--1,180..................  Frazer...............      498  Fort Peck............  Frazer.
Mni Wiconi--1,179.................  Horse Creek..........      410  Lewis and Clark......  Lower Limit.
Mni Wiconi--1,125.................  Wakpamni Lake........      398  Mni Wiconi...........  Wakpamni Lake.
Fort Peck--869....................  Brockton.............      212  Mni Wiconi...........  Horse Creek.
Fort Peck--748....................  Poplar...............      103  Fort Peck............  Brockton.
Mni Wiconi--416...................  Pine Ridge Village...       70  Mni Wiconi...........  Pine Ridge Village.
----------------------------------------------------------------------------------------------------------------

            project authorization sought in fiscal year 1998
    In the first session of the 105th Congress, the Montana delegation 
introduced S. 841 and H. 2306, comparable bills in both houses of 
Congress for authorization of the Fort Peck Assiniboine and Sioux Rural 
Water Project. A hearing was held on the proposed legislation by the 
Senate Water and Power Subcommittee in fall 1997. A hearing before the 
House Water and Power Subcommittee is anticipated in spring 1998.
    The Montana delegation is working with the Tribes and the Counties' 
Water System. This project is building good relationships throughout 
the region as we determine the interests of those outside the 
Reservation in participating in this most important project. The 
community-building aspects of the project have been considerable over a 
short period of time.
    We are working with the Bureau of Reclamation to address some of 
the concerns expressed by its Commissioner in testimony delivered in 
the Senate Hearing of November 1997. These concerns have or will be 
addressed.
    We are hopeful authorizing legislation will be accomplished by Fall 
1998.
                                 ______
                                 

            Prepared Statement of the Crow Creek Sioux Tribe

                              introduction
    The Crow Creek Sioux Tribe is working with the Bureau of 
Reclamation on the development of the Crow Creek Sioux Rural Water 
Supply System. The Tribe has completed the Crow Creek Sioux Rural Water 
Supply System, Needs Assessment Report, and is currently developing a 
feasibility study for this project.
    In fiscal year 1999, the Crow Creek Sioux Tribe shall need $180,000 
for the completion of the feasibility study, including environmental 
and cultural resources compliance, and the acquisition of GIS software 
for predesign and easement planning. In addition, the Bureau of 
Reclamation has informed the Tribe that it requires funds for the 
review and approval of the feasibility study, and $30,000 is requested 
for this purpose. The Tribe requests an appropriation of $210,000 in 
fiscal year 1999 for the Crow Creek Sioux Rural Water Supply System.
                 needs assessment and feasibility study
    The Crow Creek Rural Water Supply System has completed a Needs 
Assessment Report, in which alternatives for the development of a 
Reservation-wide rural water system were evaluated. Three alternatives 
were assessed: (1) upgrading of existing facilities; (2) linkage with 
the nearby Mid-Dakota Rural Water System; and (3) development of a new 
Reservation-wide municipal, rural and industrial (MR & I) water supply 
system.
    The Crow Creek Indian Reservation is located along the Missouri 
River in central South Dakota. Most of the Reservation population of 
3,100 (1997 Tribal Census) is located in the community of Fort 
Thompson. The Fort Thompson public water system, has as its source the 
Missouri River. This system lacks adequate capacity for Fort Thompson. 
During periods of peak demand, water pressure is very low, and there 
are frequent interruptions in service to various users on the system.
    Three other Reservation communities utilize groundwater as their 
source. The water is of poor quantity and quality. There are periodic 
exceedances of the maximum contaminant levels for bacteriological 
contaminants, and volatile organic chemicals including sodium, 
fluoride, manganese, endothall, benzoapyrne and other minerals and 
contaminants.
    Of the various alternatives investigated in the Needs Assessment, 
it has been determined that merely upgrading the existing water systems 
will not substantially improve drinking water supplies, because the 
Fort Thompson system lacks capacity and the other systems have 
inadequate source water. It has been determined that the nearby Mid-
Dakota water system lacks capacity to serve Fort Thompson, where most 
Tribal members live. Moreover, there are operational and water service 
impediments to this alternative. The optimal approach is the 
development of a Reservation-wide MR & I water system for the 
Reservation.
    The Tribe is currently completing a feasibility study for the Crow 
Creek Sioux Rural Water Supply System. It has been determined that the 
cost of this system shall be approximately $24.7 million. This shall 
provide for improvements and increased capacity at the existing water 
treatment plant at Fort Thompson, and construction of a distribution 
system for Fort Thompson, the neighboring community of Bad Nation, and 
the rural communities of Stephan, Big Bend and Crow Creek. The project 
shall require 274 miles of pipeline.
    Rural homesites shall receive service, and pasture taps are planned 
for livestock on Indian allotments on the Reservation. This shall 
improve the livestock grazing economy on the Reservation, which 
constitutes the predominant economic activity on the Reservation.
    The water system as planned shall meet the future water needs of 
the Reservation, for the population estimated in 2020 and beyond. The 
project will meet immediate, serious drinking water needs on the 
Reservation, and will supply safe and adequate drinking water for the 
projected population, the development of commercial and business 
activities and the support of all livestock on the Reservation.
                      fiscal year 1999 activities
    In the next year, the Tribe shall finalize the feasibility study 
and work with the Bureau of Reclamation for approval. The Tribe shall 
commence predesign activities, including establishing the Crow Creek 
Rural Water Supply System Office with adequate computer hardware and 
software to plan for the acquisition of easements and for environmental 
and cultural resources compilations and analyses.
    The Tribe shall establish the Crow Creek Rural Supply System 
Office. Geographic Information System (GIS) computer hardware is 
required to complete the feasibility and for predesign activities. This 
shall require $75,000. An additional $70,000 is needed for a technician 
(one full time equivalent employee) and a project coordinator (one full 
time equivalent employee). The Crow Creek Rural Supply System shall 
require an additional $35,000 to ensure compliance with the National 
Environmental Policy Act, namely, to evaluate the environmental impacts 
of the alternatives that were evaluated in the Needs Assessment Study, 
and to perform a Class I cultural resources survey.
    The information acquired through these activities shall be uploaded 
in the GIS. The feasibility study shall be completed, and the Tribe 
shall work with the Bureau of Reclamation for final approval of the 
feasibility study. The Bureau of Reclamation shall need an estimated 
$30,000 in administrative costs.
                               conclusion
    The Crow Creek Rural Water Supply System shall need an 
appropriation of $210,000 in fiscal year 1999, to finalize the 
feasibility study and for predesign activities. The Crow Creek Rural 
Water System shall complete an Environmental Assessment and Class I 
cultural resources survey, and shall acquire a Geographic Information 
System for the environmental and cultural resources information that is 
obtained and analyzed. The feasibility study shall be completed and the 
Tribe shall work with the Bureau of Reclamation for final approval of 
the planning documents.
    This will provide all of the information that is needed for 
authorization of an MR & I water system for the Crow Creek Sioux Indian 
Reservation. Unemployment on the Reservation is estimated at 60 
percent. The 1994 Bureau of Indian Affairs Labor Force Report 
determined that Buffalo County, in which most of the Reservation is 
located, is the fifth poorest county in America. Drinking water 
supplies are documented by the Bureau of Reclamation and the Indian 
Health Service to be woefully inadequate. The construction of an MR & I 
water system for the Reservation shall meet immediate and dramatic 
public health and economic development needs on the Crow Creek Indian 
Reservation.
                                 ______
                                 

  Prepared Statement of Hon. Jim Geringer, Governor, State of Wyoming

    This testimony is submitted in support of a fiscal year 1999 
appropriation of $17,500,000 for the Bureau of Reclamation's Colorado 
River Salinity Control Programs. This Subcommittee recently received 
testimony from the Colorado River Basin Salinity Control Forum (Forum). 
The Forum's Executive Director, Jack Barnett, submitted that testimony 
on behalf of the Forum's seven member states. The State of Wyoming 
concurs in the fiscal year 1999 funding requests and justification 
statements set forth in the Forum's testimony. While the President's 
recommended budget line-item for the basin-wide Colorado River Basin 
Salinity Control Program is $12,300,000, the State of Wyoming and the 
Forum believe that the Congress should increase appropriation for this 
Program by $5,200,000 to appropriately recognize the need to 
expeditiously implement this important basin-wide program.
    The State of Wyoming is one of the seven member states represented 
on the Forum and the Colorado River Basin Salinity Control Advisory 
Council (Council). The Council was created by Section 204 of the 1974 
Colorado River Basin Salinity Control Act, Public Law 93-320, and like 
the Forum, is composed of gubernatorial representatives of the seven 
Colorado River Basin states. Both the Council and Forum serve important 
liaison roles among the seven states, the Secretaries of the Interior 
and Agriculture and the Administrator of the Environmental Protection 
Agency (EPA). The Council is directed by statute to advise these 
federal officials on the progress of the federal/state cost-shared, 
basin-wide salinity control programs, and annually recommends to the 
Federal agencies what level of funding it believes is required to allow 
the Program to meet its objective of assuring continuing compliance 
with the basin-wide water quality standards.
    The Council last met in October 1997 and developed funding 
recommendations for fiscal years 1999 and 2000 based on the progress 
the salinity control programs being implemented by Reclamation, the 
U.S. Department of Agriculture and the Bureau of Land Management are 
making in managing and reducing the salt loading into the Colorado 
River System. The Council's funding recommendations further considered 
analyses made by the Bureau of Reclamation and the Forum. Each three 
years the Forum updates the plan of implementation for maintaining the 
Colorado River water quality standards for salinity, in accordance with 
Section 303 of the Clean Water Act. The 1996 triennial review of the 
standards identified the need for the Bureau of Reclamation to expend 
$17,500,000 per year in order to carry out its portion of the plan of 
implementation. The plan is intended to assure that the salinity 
concentrations of Colorado River water do not exceed the numeric 
criteria set forth in the standards. Based on its own review of the 
facts, the Council recommended that a minimum of $17,500,000 needs to 
be expended by the Bureau of Reclamation during fiscal year 1999 to 
accomplish salinity control activities.
    If the necessary levels of funding are not provided for the 
Colorado River Basin Salinity Control Programs, there is an increased 
probability that the numeric criteria established in the water quality 
standards for salinity in the Colorado River may be exceeded. Delaying 
or deferring adequate funding for the Program at this time will create 
the need for a much more expensive salinity control effort in the 
future to assure that the Colorado River Basin states are able to meet 
the water quality standards for salinity in the Colorado River. 
``Catch-up'' funding in future fiscal years will require the 
expenditure of greater sums of money, increase the likelihood that the 
numeric criteria for Colorado River water quality are exceeded, and 
create undue burdens and difficulties for one of the most successful 
Federal/State cooperative non-point source pollution control programs 
in the United States.
    We urge this Subcommittee to increase the funding level for the 
Colorado River Basin Salinity Control Program line-item in 
Reclamation's budget, beyond the funds requested by the President's 
budget, to $17,500,000. In addition to the funding needs identified for 
the basin-wide Colorado River Basin Salinity Control Program, the State 
of Wyoming supports the appropriation of Operation and Maintenance 
funds to allow the Bureau of Reclamation to continue to operate 
completed salinity control projects, including the Paradox Valley Unit. 
The State of Wyoming understands that a portion of the General 
Investigation Funds included in the President's budget are intended for 
salinity control activities. Wyoming supports the appropriation of 
funds to accomplish these necessary planning and investigation 
activities.
    Thank you for the opportunity to submit this testimony. I request, 
in addition to your consideration of its contents, that you make it a 
part of the formal hearing record concerning fiscal year 1999 
appropriations for the Bureau of Reclamation.
                                 ______
                                 
                     Letter From Gov. Jim Geringer
                                  State of Wyoming,
                                       Cheyenne, WY, March 3, 1998.
Hon. Pete V. Domenici,
Chairman Subcommittee on Energy and Water Development Senate 
        Appropriations Committee U.S. Senate,
Washington, DC.
    Dear Chairman Domenici: I am writing on behalf of the State of 
Wyoming to request your support for an appropriation in fiscal year 
1999 of $8,687,000 included in the Administration's proposed fiscal 
year 1999 budget for the Bureau of Reclamation under an item labeled 
``Upper Colorado Region--Endangered Species Recovery Programs and 
Activities.'' The bulk of that amount, a sum of $7,628,000, is 
designated in the President's Budget for expenditure on construction 
activities associated with the Recovery Implementation Program for 
Endangered Fish Species in the Upper Colorado River Basin (Recovery 
Program).
    The State of Wyoming, along with the States of Colorado and Utah, 
environmental organizations, power users, water development interests, 
the Bureau of Reclamation, the U.S. Fish and Wildlife Service, and the 
Western Area Power Administration have been actively conducting and 
jointly managing the Recovery Program since its initiation in 1988. Now 
in its tenth year, the Program has as its objectives recovering 
(accomplishing de-listing from the ESA's endangered species listing) 
four endangered fish species native to the waters of the Upper Colorado 
River Basin while water use and development continues in full 
compliance with the Endangered Species Act. The Recovery Program is a 
cooperative partnership that provides, we believe, the best opportunity 
to recover the endangered fish species and is providing regulatory 
certainty for water use and continuing development in the Upper 
Colorado River Basin portion of the three participating States.
    Beginning in fiscal year 1994, the Recovery Program initiated 
specific studies and actions in preparation for the construction 
projects and programs necessary to recover the endangered fish. These 
activities included restoration of fish passage to historical habitat, 
providing instream flow and habitat flow maintenance and protection (in 
full compliance with the involved States' water laws) and changing 
reservoir release patterns or other modification of existing projects. 
Other efforts include fish habitat restoration projects, (flooded 
bottomlands and wetlands in Utah and Colorado that provide habitat for 
young fish) and development of facilities for propagation and genetics 
management. The fiscal year 1999 USBR budget line item that this letter 
is supporting will enable these vital activities to continue and to be 
successfully completed in subsequent fiscal years.
    The State of Wyoming greatly appreciates the Subcommittee's support 
of the Recovery Implementation Program for Endangered Fish Species in 
the Upper Colorado River Basin in past years. We respectfully request 
your continuing funding support for this vitally important multi-state, 
multi-agency program. With the funding support of all participating 
states and the Federal Government, this Program is succeeding in 
meeting the most challenging tasks of accomplishing conservation and 
recovery of the four endangered fish species while allowing water use 
and development to occur in the Upper Colorado River Basin in full 
compliance with the Endangered Species Act. Thank you for your 
consideration of this funding request and for including this letter in 
the hearing record.
            Best regards,
                                              Jim Geringer,
                                                          Governor.
                                 ______
                                 

                     MIDWEST WATER RESOURCE PROJECT

 Prepared Statement of J.M. Peterson, President, and Darrel G. Curry, 
     Vice President, Missouri River Bank Stabilization Association

    Mr. Chairman and Members of the Sub-Committee: The Missouri River 
Bank Stabilization Association, its members, and officers thank you for 
the opportunity to present this statement and request relating to the 
budget for the fiscal year 1999.
    This statement refers to the Missouri National Recreational River 
project authorized by the Congress in 1978 per Section 707 of Public 
Law 95-625. The Association's request for fiscal year 1999 is $350,000, 
an amount to be used for these purposes:
  --operation and maintenance and, in some instances, replacement of 
        structures built prior to 1978 pursuant to Section 32 of the 
        Streambank Erosion Control and Demonstration Act;
  --providing some additional access to the river;
  --acquiring shoreline easements to increase wildlife habitat and 
        preserve the scenic attributes of the river;
  --provide streambank protection where needed;
  --meet such other needs as may be required to achieve the completion 
        of this project.
    This project seeks to preserve and protect the fifty-nine mile 
reach of the Missouri River from near Yankton, South Dakota, to the 
Ponca, Nebraska State Park. This reach of river is the only portion of 
the Missouri lying below the ``main-stem'' dams, which is still in a 
relatively natural state. The river here is neither channelized nor are 
its banks protected by other than isolated areas of bank stabilization. 
The result is continuous and inexorable erosion. Such is a natural 
process. Lacking, however, is yearly flooding which is prevented by the 
``main-stem'' dams. Thus the endless erosion is not offset by the 
accretion which normally accompanied the traditional annual flooding--
the ``June Rise''.
    This decades--old problem was underscored dramatically by the 
record discharges of water from the ``main-stem'' dams through most of 
1997. The run-off resulting from the melting of the massive snowpack 
created by the unbelievably severe winter of 1996-1997 threatened to 
exceed the reservoir capacity available and record discharges of water 
from the impoundments was required. These caused a veritable man-made 
flood inflicting damage along the Missouri National Recreational River. 
The nature of that damage ranged from the loss of or damage to cabins 
and homes to extensive losses of fertile farmland--losses all too often 
measured in yards rather than feet. Beyond that, 1997's massive flows 
damaged, and in some instances, destroyed structures previously 
installed in an attempt to prevent the erosion problems.
    Of the $21,000,000 authorized expenditure for this project, less 
than $4,000,000 has been spent. The review by the National Park Service 
of the existing management plan is nearing an end. Among matters 
considered by the management plan review team are these for which the 
Missouri River Bank Stabilization Association seeks funding.
    Germane to this request, too, is the soon-to-arrive bicentennial 
celebration of the Lewis and Clark Expedition. Interest in the 
expedition is increasing at a significant pace. Such interest is 
evident by increased visitations to this reach of the Missouri, a 
marked increase in inquiries related to the trail, filming of ``wild 
Missouri'' sites, and a variety of other expedition-related activities. 
Preservation and protection of this natural treasure is surely a 
worthwhile endeavor!
    The Association is most appreciative of the support the Congress 
has previously readily provided and we surely thank you for the concern 
and consideration for the farmers, outdoorsmen, environmentalist and 
the many others who love, respect and wish to preserve this unique 
segment of the historic Missouri.
                                 ______
                                 

 Prepared Statement of Don D. Hurlbert, Sr., P.E., Executive Director, 
                        MO-ARK, Kansas City, MO

    Following is the list of projects with the money requested for the 
1999 budget. We ask you to give serious consideration to them in the 
development of fiscal year 1999 Budget. The president's budget 
submittal simply does not get the job done, and breaks faith with the 
Community, particularly with the Blue Valley businesses employing over 
10,000 people.
                requested fiscal year 1999 appropriation
    1. Blue River Channel, Kansas City, Missouri--$24,700,000. Continue 
construction Stage 3. Complete all construction by 2003. The project is 
now 12 years late. This appropriation will expedite completion.
    2. Missouri River Levee System:
  --Restudy KC levees--$553,000. For 100/500 year protection.
  --Unit L-385--$400,000. Revise plans. (Quindaro Bend). Local sponsor 
        funding plan is approved. ROW is being acquired by sponsor, and 
        has CMA approval.
  --Unit L-142--$450,000. (Jeff City) Begin PED. 500 year levee of 
        reduced scope appears feasible since Cedar City buyout.
    3. Turkey Creek, Kansas City, Kansas and Missouri--$400,000. 
Complete Design for a 1999 Construction start. Turkey Creek overflows 
onto Southwest Boulevard almost every three years. This project has 
been studied for over thirty years.
    4. Upper Blue River, Kansas and Missouri--$457,000. Complete Pre-
construction Engineering and Design.
    5. Swope Park Industrial Area, Kansas City, Missouri--
$196,000.Continue feasibility study
    Total--$27,156,000.
    The list has been prepared in order of priority, supported by our 
Board, and other supporters will send separate statements for these 
appropriations. This request means jobs and better life safety. Thank 
you for the opportunity to place this request on the record.
                                 ______
                                 

  Prepared Statement of Terrence J. O'Brien, President, Metropolitan 
             Water Reclamation District of Greater Chicago

    On behalf of the Metropolitan Water Reclamation District of Greater 
Chicago (District), I want to thank the Subcommittee for this 
opportunity to present our priorities for fiscal year 1999 and, at the 
same time, express our appreciation for your support of the District's 
projects in the years past. The District is the local sponsor for three 
Corps of Engineers priority projects of the Chicagoland Underflow Plan: 
the O'Hare, McCook and Thornton Reservoirs. We are requesting the 
Subcommittee's full support for these vital projects. Specifically, we 
are asking that $1,000,000 in construction funding be made available 
for the O'Hare Reservoir in the Subcommittee's Energy and Water 
Development Appropriations Act for fiscal year 1999. Further, we 
request the Subcommittee to include $3,100,000 in construction funding 
for the McCook and Thornton Reservoir projects (beyond the $900,000 in 
fiscal year 1999 budgeted funds) in the bill. The following text 
outlines these projects and the need for the requested funding. Also, 
attached is a booklet indicating the municipalities in our area which 
benefit from these projects and the need for the requested funding. The 
booklet reviews the history of the issues involved, including newspaper 
articles and pertinent data from the Corps of Engineers and the 
Illinois State Water Survey.
                     the chicagoland underflow plan
    The Chicagoland Underflow Plan (CUP) consists of three reservoirs: 
the O'Hare, McCook, and Thornton Reservoirs. The O'Hare Reservoir 
Project was fully authorized for construction in the Water Resources 
Development Act of 1986 (Public Law 99-662). The authorization provides 
for the construction of a 1,050 acre-foot floodwater storage reservoir 
which will be connected to the existing O'Hare segment of the 
District's Tunnel and Reservoir Plan (TARP). Adopted in 1972, TARP was 
the result of a multi-agency effort which included officials of the 
State of Illinois, County of Cook, City of Chicago, and the District.
    TARP was designed to address the overwhelming water pollution and 
flooding problems of the Chicagoland combined sewer areas. These 
problems stem from the fact that the capacity of the area's waterways 
has been overburdened over the years and has become woefully inadequate 
in both hydraulic and assimilative capacities. These waterways are no 
longer able to carry away the combined sewer overflow discharges nor 
are they able to assimilate the pollution associated with these 
discharges. Severe basement flooding and polluted waterways (including 
Lake Michigan which is the source of drinking water for millions of 
people) is the inevitable result. We point with pride to the fact that 
TARP was found to be the most cost-effective and socially and 
environmentally acceptable way for reducing these flooding and water 
pollution problems. Experience to date has reinforced such findings 
with respect to economics and efficiency.
    The TARP plan calls for the construction of new ``underground 
rivers'' beneath the area's waterways. The ``underground rivers'' would 
be tunnels up to 35 feet in diameter and 350 feet below the surface. To 
provide an outlet for these tunnels, reservoirs will be constructed at 
the end of the tunnel system. Approximately 93.4 miles of tunnels have 
been constructed or are under construction at a total cost of $2.1 
billion and are operational. These tunnels capture the majority of the 
pollution load by capturing all of the small storms and the first flush 
of the large storms. Another 15.8 miles of tunnels costing $331 million 
need to be completed. The tunnels currently have no place to discharge 
when they fill up during large rainstorms because the O'Hare, Thornton, 
and McCook Reservoirs have not been built yet. Without these outlets, 
the local drainage has nowhere to go when large storms hit the area. 
Therefore, the combined stormwater and sewage backs up into over 
470,000 homes. This is a reduction from the 550,000 homes impacted 
before the tunnels were put on line.
            the o'hare reservoir--chicagoland underflow plan
    The O'Hare Reservoir project is the first component of CUP, the 
Corps' reservoir plan. Understanding the severe flood threat to the 
densely populated north central Cook County area, Congress authorized 
the project in 1986. The project's 1,050 acre-feet of storage is the 
optimum cost-effective storage capacity for flood control purposes. In 
the fiscal year 1990 Energy and Water Development Appropriations Act, 
Congress provided $1.5 million in first-year construction funds for the 
O'Hare Reservoir and specified that the reservoir be built to at least 
1,050 acre-feet in size as authorized, and in full accordance with the 
cost-sharing percentages specified in Section 103(a) of the Water 
Resources Development Act of 1986. The Fiscal Year 1992 Energy and 
Water Development Appropriations Act provided $4.0 million in third-
year construction funds to continue construction on the O'Hare 
Reservoir project and contained language directing the Corps of 
Engineers to award continuing contracts until construction is 
completed. Total Federal funding contributed since 1990 is $23.5 
million for this project.
    As we have stated to this Committee over the years, the District is 
the local sponsor for this project and is fully committed to it. The 
District purchased the necessary land at a cost of $4.4 million and has 
spent $3.0 million for utility relocations and $2.1 million for 
modifications and betterments. The District will continue to meet its 
remaining cost-sharing obligations under the law, and will contribute 
$2.0 million in cash for this project.
    Based on the present high flood risk and potential damage due to 
inadequate channel capacity, we, along with our supportive 
congressional delegation, are requesting that the Subcommittee make 
$1,000,000 in construction funds available to complete critical 
construction work on the O'Hare Reservoir project in the fiscal year 
1999 Energy and Water Development Appropriations Act. With this funding 
the Corps of Engineers will be completing the first reservoir of the 
overall TARP system.
    Based on two successive Presidentially-declared flood disasters in 
our area in 1986 and again in 1987 and dramatic flooding in the last 
several years, we believe the probability of this type of flood 
emergency occurring before implementation of the critical flood 
prevention measure is quite high. As the public agency for the greater 
Chicagoland area responsible for water pollution control, and as the 
regional sponsor for flood control, we have an obligation to protect 
the health and safety of our citizens. We are asking your support in 
helping us achieve this necessary and important goal of construction 
completion.
     the mccook and thornton reservoirs--chicagoland underflow plan
    The McCook and Thornton Reservoirs of the Chicagoland Underflow 
Plan (CUP) were fully authorized for construction in the Water 
Resources Development Act of 1988 (Public Law 100-676). CUP, as 
previously discussed, is a flood protection plan that is designed to 
reduce basement and street flooding due to combined sewer back-ups and 
inadequate hydraulic capacity of the urban waterways. These projects 
are the second and third components of CUP, they consist of reservoirs 
to be constructed in west suburban Chicago and Thornton in south 
suburban Chicago.
    These reservoirs will provide a storage capacity of 15.3 billion 
gallons and will produce annual benefits of $104 million. The total 
potential annual benefits of these projects are approximately twice as 
much as their total annual cost. The District, as the local sponsor, is 
actively pursuing land acquisition for these projects, and is prepared 
to meet its cost sharing obligations under Public Law 99-662.
    These projects are a very sound investment with a high rate of 
return. They will enhance the quality of life and the safety and the 
peace of mind of the residents of this region. The State of Illinois 
has endorsed these projects and has urged their implementation. In 
professional circles, these projects are hailed for their 
farsightedness, innovation, and benefits.
    We have been very pleased that over the years, the Subcommittee has 
seen fit to include critical levels of funds for these important 
projects. We were delighted to see the $4,900,000 in unobligated 
construction funds included in the Energy and Water Development 
Appropriations bill for fiscal year 1998. However, it is important that 
we receive $3,100,000 in construction funds in fiscal year 1999 to 
maintain the commitment and accelerate these projects. This funding is 
critical to accelerate the detailed design and plans and specifications 
for key project components. The community has waited long enough for 
protection and we need these funds now to move the project forward. We 
respectfully request your consideration of our request.
                                summary
    Our most significant flooding of the last year occurred on February 
20, 1997, when almost four inches of rain fell on the greater 
Chicagoland area. Due to the frozen ground, almost all of the rainfall 
entered our combined sewers, causing sewage back-ups throughout the 
area. When the existing TARP tunnels filled with approximately 1.2 
billion gallons of sewage and runoff, the only remaining outlets for 
the sewers were our waterways. Between 9:00 p.m. and 3:00 a.m. the 
Chicago and Calumet Rivers rose six feet. For the first time since 1981 
we had to open the locks at all three of the waterway control points; 
these include Wilmette, downtown Chicago, and Calumet. Approximately 
4.2 billion gallons of combined sewage and stormwater had to be 
released directly into Lake Michigan.
    A second major storm occurred on August 16 and 17, 1997. 
Approximately 10,000 homes in the City of Chicago received damages and 
once again combined sewage was released into Lake Michigan. The damages 
from this storm were so extensive that a study was conducted by the 
Local Government Committee of the Illinois State Senate.
    Given our large regional jurisdiction and the severity of flooding 
in our area, the Corps was compelled to develop a plan that would 
compliment the uniqueness of TARP and be large enough to accommodate 
the area we serve. With a combined sewer area of 375 square miles, 
consisting of the City of Chicago and 51 contiguous suburbs, there are 
550,000 homes within our jurisdiction which are subject to flooding at 
any time. The annual damages sustained exceed $150 million. If these 
projects were in place, these damages could be eliminated. We must 
consider the safety and peace of mind of the two million people who are 
affected as well as the disaster relief funds that will be saved when 
these projects are in place. As the public agency in the greater 
Chicagoland area responsible for water pollution control, and as the 
regional sponsor for flood control, we have an obligation to protect 
the health and safety of our citizens. We are asking your support in 
helping us achieve this necessary and important goal. It is absolutely 
critical that the Corps' work, which has been proceeding for a number 
of years, be continued on schedule.
    Therefore, we urgently request that $1,000,000 in construction 
funds be made available in the Fiscal Year 1999 Energy and Water 
Development Appropriations Act to complete construction of the O'Hare 
Reservoir and we request that $3.1 million in construction funding for 
the McCook and Thornton Reservoirs (beyond the budgeted $900,000) be 
made available in the appropriations bill.
    Again, we thank the Subcommittee for its support of our projects 
over the years and we thank you in advance for your consideration of 
our request this year.
                                 ______
                                 

           Prepared Statement of the Kickapoo Tribe of Kansas

                fiscal year 1999 appropriations request
    The Kickapoo Tribe of Kansas seeks funds to plan the Pikitanoi 
Rural Water System, Kansas. The amount requested is $250,000, lower 
than last year's request for the reason that the Kickapoo Tribe has 
expended its own funds for preparation of a needs assessment.
    The Administration has not included a line item in its budget for 
the Pikitanoi Rural Water System. Planning of the project began in 1996 
and has proceeded to the point that federal funds are needed for 
continued planning. The Kickapoo Tribe seeks appropriations of $250,000 
for feasibility study of the Pikitanoi Rural Water System and requests 
inclusion in the Corps of Engineers or Bureau of Reclamation budgets 
for water development.
                             need for funds
    The need for funds for feasibility investigation is long standing. 
The Corps of Engineers studied needs of the area as early as 1993 in 
``Partners for Environmental Progress, Type I Feasibility Study, 
Northeast Kansas Water Supply.'' Costs of alternative projects in the 
1993 report ranged from $38.0 to $128.4 million, depending on demand 
assumptions.
    The funds requested for fiscal year 1998 will be used to continue 
investigations by the Kickapoos, rural water districts and communities 
in the northeast corner of Kansas. The work will be conducted by non-
federal entities with oversight by the appropriate federal agency. The 
project boundaries are the Missouri River on the east, the Kansas River 
on the south, the Blue River on the west and the Kansas/Nebraska state 
line on the north. The Kickapoo Indian Reservation is contained within 
the study boundaries. Doniphan, Brown, Nemaha, Jefferson, Pottawatomie, 
Jackson and Atchison counties are also within the boundaries.
    The Kickapoo Tribe has completed a needs assessment of the present 
and future population and their water requirements within the 
boundaries of the Kickapoo Indian Reservation. The needs assessment 
also includes submissions from 10 rural water districts and 11 
communities within the study area. Other systems have expressed 
interest in the project and are supplying information on future needs 
and points of interconnection to the Pikitanoi Rural Water System. The 
Kickapoo Tribe and other entities are coordinating with the State of 
Kansas and the Kansas Rural Water Association. A revised map of the 
proposed project is enclosed for reference as well as Table 1 on basic 
statistics.
    The Kickapoo Tribe has developed a plan for a wholesale water 
supply system to serve the area, including the Reservation. The 
preliminary cost estimate, based on the system shown in Figure 1 for a 
wholesale system diverting from the Missouri River near Atchison, is 
$127 million. The project would include 304 miles of pipeline from 4 
feet to 24 feet in diameter and 15 pumping stations of 1,300 horsepower 
or less. At the current level of interest, the treatment plant and 
transmission lines would be sized for a demand of 11.6 MGD or 9,669 
gallons per minute. The system configuration and the cost estimate are 
expected to change as more of the rural water districts join in the 
feasibility analysis.
    The need for drinking water in northeast Kansas is acute. Local 
groundwater sources are highly developed. When a request of the 
Kickapoo Tribe for additional water from its current supplier, the City 
of Horton, was made, it became clear that the City was without options 
to increase deliveries to the reservation. The Tribe now relies on the 
flows of the Delaware River at a diversion point constructed by the 
Corps of Engineers. The flows of the stream at our point of diversion 
are not dependable and will fall to zero (no flow) during times of 
drought. The lack of adequate water supply to meet the needs of the 
counties included in the service area (total population of 89,462) is 
common throughout northeastern Kansas, as evidenced by the considerable 
interest of rural water districts and communities in this project.
     alternatives for water supply are subject of feasibility study
    Project participants are examining a number of alternatives for 
water source, transmission and distribution. The State of Kansas has 
developed Perry Lake and Tuttle Creek Lake within the boundaries of the 
project. The Kickapoo Tribe has received congressional authorization 
for construction of a reservoir on the Delaware River within the 
Reservation. The Missouri River forms the eastern boundary of the 
project area and constitutes an unlimited high-quality supply of water. 
Each of these alternatives will be investigated for the development of 
a regional rural water project with funds appropriated by the committee 
in the amount of $250,000.
                                summary
    A steering committee of project participants has been formed. A 
scope of work for technical investigations has also been developed. 
Funds appropriated by the committee will be used to assess the needs of 
the region, lay out a transmission and distribution system, consider 
alternatives for intake location and regional treatment plant location 
and determine costs of construction, operation, maintenance and 
replacement. As initially conceived, part of the project facilities 
would be placed in trust on behalf of the Kickapoo Tribes, and other 
parts of the distribution system would be held by off-reservation 
community water systems and rural water districts. Non-reimbursable 
funds will be sought for the cost of the facilities held in trust by 
the United States, and federal and state cost shares will be sought for 
the remaining facilities.
[GRAPHIC] [TIFF OMITTED] TCORPS.013

                                Figure 1

     TABLE 1.--STATISTICAL SUMMARY--PIKITANOI REGIONAL WATER PROJECT
------------------------------------------------------------------------
                Statistic                   1990 Census   2020 Projected
------------------------------------------------------------------------
Kickapoo R. Population..................             477           1,490
Counties Population.....................          90,198          89,462
Median Age:
    Kickapoo............................            25.5  ..............
    Kansas..............................            36.7  ..............
                                         ===============================
Kickapoo School Enrollment:
    Pre-Primary.........................              23  ..............
    Elementary or High..................              80  ..............
    College.............................              15  ..............
                                         -------------------------------
      Total.............................             118  ..............
                                         ===============================
Housing:
    Housing Units.......................             139             527
    Persons per House...................            3.44            2.83
------------------------------------------------------------------------


------------------------------------------------------------------------
                Statistic                    Kickapoo         Kansas
------------------------------------------------------------------------
1990 Household Income...................         $14,464         $27,291
1990 Family Income......................         $16,250         $32,966
1990 Per Capita Income..................          $4,831         $13,300
Percent Families Below Poverty L........            31.3             8.3
1990 Labor Force........................             126         765,003
Unemployed..............................              18          13,419
Percent in Labor Force..................            34.2            48.7
Percent Unemployed......................            14.3             3.6
------------------------------------------------------------------------

                                                                   Value
Average Annual Water Availability, af:
    Missouri River Streamflows, Rulo, af/year...........      29,701,000
    Big Blue River Near Mahattan, af/year, Tuttle.......       1,664,232
    Delaware River Valley Falls, ay/year, Perry.........         280,785
    Groundwater.........................................         ( \1\ )
                    ========================================================
                    ____________________________________________________
2020 Design Needs, gallons per capita per average day:
    In-Residence........................................            81.0
    Water Conservation..................................           -12.0
    Lawns and Gardens...................................            66.0
    School Enrollment...................................             3.0
    Labor Force.........................................             3.0
    Commercial and Industrial...........................             8.0
    System Losses.......................................            22.0
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................           171.0
                    ========================================================
                    ____________________________________________________
2020 Design Needs, Kickapoo and Region:
    Average Day, gallons................................       4,479,755
    Maximum Day, gallons................................      11,602,565
    Maximum Day, gpm....................................           9,669
    Annual, af..........................................           5,086

\1\ Good to Poor.

                            [In 1998 dollars]
------------------------------------------------------------------------
                                           Missouri--Alt
           Construction costs                    A         Perry--Alt C
------------------------------------------------------------------------
Intake..................................       4,000,000       4,000,000
Treatment Plant.........................      13,978,000      13,978,000
Pipelines...............................      49,394,000      49,519,000
Pumping Stations........................       8,203,000      10,090,000
Meters..................................         686,000         686,000
Reservoirs..............................       3,875,000       3,875,000
SCADA...................................       3,000,000       3,000,000
O and M Building........................       1,500,000       1,500,000
O and M Equipment.......................       1,500,000       1,500,000
Easements...............................         321,000         315,000
Mitigation..............................         500,000         500,000
Non-Contract............................      35,123,000      35,933,000
Cost Indexing to fiscal year 1996 to
 1998...................................       5,471,000       5,598,000
                                         -------------------------------
      Total.............................     127,551,000     130,494,000
------------------------------------------------------------------------


    TABLE 1-1.--STATISTICAL SUMMARY--PIKITANOI REGIONAL WATER PROJECT
------------------------------------------------------------------------
                Statistic
------------------------------------------------------------------------
Pipelines, feet:
    24 inch diameter....................          34,975         236,167
    20 inch diameter....................         294,228          93,203
    18 inch diameter....................          47,234  ..............
    16 inch diameter....................          52,619          52,618
    14 inch diameter....................  ..............          15,615
    12 inch diameter....................         489,510         493,887
    10 inch diameter....................         147,369         150,407
    8 inch diameter.....................         172,773         283,661
    6 inch diameter.....................          66,607          17,120
    4 inch diameter.....................         229,042         195,196
    2 inch diameter.....................          71,520          37,267
                                         -------------------------------
      Total.............................       1,605,877       1,575,141
      Miles.............................           304.1           298.3
Pumping Stations:
    Number..............................              15              16
    Maximum Horsepower..................           1,300           1,350
------------------------------------------------------------------------

                                 ______
                                 

 Prepared Statement of Stanley J. Harris, P.E., City Engineer, Public 
                   Works Department, Kansas City, MO

    The City of Kansas City, Missouri welcomes the opportunity to 
provide written testimony to the Subcommittee on Energy and Water 
Development regarding appropriations for fiscal year 1999. Herein we 
discuss our concerns with the President's recommended fiscal year 1999 
budget as it relates to flood mitigation projects in the Kansas City 
area supported by federal funding. All of these projects are essential 
to the sustainment and revitalization of prominent and long standing 
commercial, business, and industrial communities in this region, and 
when complete will provide substantially increased levels of flood 
protection.
    We presently have five major flood mitigation projects underway in 
cooperation with the U.S. Army Corps of Engineers. These include the 
Blue River Channel, Blue River Basin, (also known as Dodson Industrial 
District), and Swope Park Industrial Area, Kansas City, Missouri, all 
located along the Blue River; the Turkey Creek Basin, Kansas and 
Missouri; and the Kansas City (7 Levees), Missouri and Kansas. We are 
providing below the necessary fiscal year 1999 appropriation, along 
with a justification for that request, for each project requiring more 
funding than is recommended in the President's budget.
 blue river channel, kansas city, missouri--$24.7 million--construction
    Our largest project, 12 miles of channel modification along the 
Blue River, has been under construction since 1983. Construction was 
originally scheduled to be finished this year. However, due to year 
after year of severe cuts in federal funding, the project is now just 
barely 50 percent complete. This is the most important of our projects 
and represents our most urgent need, as we are determined to gain back 
as much of the lost schedule as possible. This project includes 
environmental clean-up along the river and will also assist in 
reclamation of a Brownfield area into a once again thriving business 
district.
    The seventh construction contract for the Blue River Channel, 
awarded earlier this year, can be completed over two years, provided 
adequate federal funding is available. The President's budget includes 
a recommendation of $9.6 million for the Blue River Channel project in 
fiscal year 1999. At best, this would allow the contractor to work from 
the beginning of the fiscal year in October of 1998 through May of 
1999. At that point, or before, the $9.6 million will have been 
exhausted and the contractor will be forced to shut down operations. 
Having missed the peak construction season, the contractor will be 
required to remobilize in the fall when the fiscal year 2000 
appropriation becomes available. This is an unworkable situation for a 
number of reasons; the most obvious are the increase in cost due to the 
contractor having to mobilize a second time, the further extension of 
the overall project schedule, and the continued threat of flooding 
resulting in potential loss of life and livelihood in the Blue Valley. 
Additionally, there is coordination required between contractors 
working along the river; 3 bridge projects are currently underway in 
this channel reach and other projects are expected to be forthcoming. 
The requested funding in the amount of $24.7 million in fiscal year 
1999 will enable the contractor to work through the entire fiscal year 
and will allow for a two calendar year construction project.
    kansas city, missouri and kansas (7 levees)--$553,000--surveys 
                         (reconnaissance study)
    Another important effort to address flooding in our area is the 
reconnaissance study of seven existing levee units at the juncture of 
the Kansas and Missouri Rivers, in Kansas City, Missouri and Kansas. 
These levees, namely, Fairfax, Armourdale and Argentine, all in Kansas; 
CID in Missouri and Kansas; and North Kansas City, East Bottoms, and 
Birmingham, all in Missouri; provide the primary flood protection for 
the most densely developed business regions in the Kansas City area. 
Evaluation of how these seven levee units function as an interdependent 
system is needed to determine inadequacies and inconsistencies in the 
current level of protection. There exists a critical need for this 
study as evidenced by the great flood of 1993 when several of the 
levees were nearly overtopped.
    These seven major levee units cross both geographical and 
jurisdictional boundaries: two states and two major rivers, Missouri 
and Kansas, and have five separate local sponsors. The immense scope of 
this study and the complexities presented by the involvement of so many 
entities justifies the concern that the funding heretofore appropriated 
will be insufficient to develop a Project Study Plan adequate to move 
forward into the Feasibility Study phase. Another consideration is the 
current requirement that reconnaissance studies be completed within a 
one-year period. Due to the complexities surrounding this project, it 
is necessary that the study completion date be extended until September 
30, 1999, and that $553,000 be appropriated in fiscal year 1999 to 
enable the Corps to perform the preliminary investigations required to 
develop an effective Project Study Plan and to identify the potential 
involvement of the five local sponsors during the Feasibility Study 
phase. This time extension and the $553,000 requested in fiscal year 
1999, added to the $277,000 in the Corps' fiscal year 1998 budget, will 
provide the $830,000 requested last year to be appropriated over a two-
year period for completion of this reconnaissance study.
    The three remaining major flood control projects in the Kansas 
City, Missouri area which are mentioned above: Turkey Creek Basin, 
Kansas and Missouri; Blue River Basin, Kansas City, Missouri; and Swope 
Park Industrial Area, Kansas City, Missouri, were all also cut 
substantially in the President's fiscal year 1999 recommended budget. 
Although we consider these projects to be very important to the Kansas 
City region we recognize that there is a limited amount of funding 
availability and have respectfully refrained from asking that these 
appropriations be restored to the levels requested last October. The 
funding requested for the Blue River Channel and the 7 Levees projects 
requested above, however, is so critical to our region that we ask that 
these projects be given due consideration for restoration of requested 
funding during the deliberations by the Energy and Water Development 
Subcommittee.
    The City would also like to take this opportunity to express our 
strong support of several other key programs which provide assistance 
for flood mitigation. Among these: Small Flood Control Authority, 
Section 205 of the 1948 Flood Control Act as Amended; Flood Plain 
Management Services, Section 206 of the 1960 Flood Control Act; 
Planning Assistance to States, Public Law 93-251; and Emergency Bank 
Stabilization, Section 14 of the 1946 Flood Control Act as Amended. We 
appreciate the availability of these programs and will continue to seek 
beneficial uses for them within Kansas City, Missouri. Finally, we are 
pleased that the Corps has undertaken the Flow Frequency Study, Upper 
Mississippi, Illinois and Lower Missouri Rivers. This study is 
essential in determining updated quantity of flow data and flood stage 
characteristics for the Missouri River and its tributaries in Kansas 
City and our surrounding areas.
    In closing, Kansas City, Missouri, appreciates the past assistance 
we have received with these very important flood mitigation projects 
and is prepared to provide its share of funding in the future. We 
respectfully request that federal funding to keep the Blue River 
Channel construction moving toward the soonest possible completion, and 
to make the Kansas City 7 Levees study a worthwhile effort, be 
appropriated in the upcoming fiscal year. Thank you for your time, 
attention and consideration.
                                 ______
                                 

Prepared Statement of Wallace Gieringer, Chairman, Arkansas River Basin 
                          Interstate Committee

    Mr. Chairman and members of this distinguished Committee, my name 
is Wallace Gieringer. I have recently retired as Executive Director of 
the Pine Bluff-Jefferson County (Arkansas) Port Authority. It is my 
honor to serve as Chairman of the Arkansas River Basin Interstate 
Committee, members of which were appointed by the governors of the 
great states of Arkansas, Colorado, Kansas, Missouri, and Oklahoma. As 
Chairman, I present this summary testimony as a compilation of the most 
important projects from each of the member states. Each of the states 
unanimously supports these projects without reservation. I also 
respectfully request that the copies of each state's individual 
statement be made a part of the record, along with this testimony.
    Mr. Chairman, the members of the Interstate Committee have again 
agreed to focus on a project which has been our number one priority for 
the past several years. A project that is vital to the five-state area 
and beyond--the urgently needed Montgomery Point Lock and Dam at the 
confluence of the McClellan-Kerr Arkansas River Navigation System and 
the Mississippi River.
    Continuing problems caused by sediment and lowering of the 
Mississippi River plague McClellan-Kerr entrance channel users. 
Construction of Montgomery Point must continue as rapidly as possible 
before limited dredge disposal areas become inadequate. During times of 
low water on the Mississippi River the entrance channel is drained of 
navigable water depth. As the Mississippi River bottom continues to 
lower, the McClellan-Kerr moves toward total shutdown.
    Thus, the entire Arkansas River Navigation System is at risk, and 
its long-term viability is threatened without Montgomery Point. Some $5 
billion in federal and private investments, thousands of jobs, growing 
exports and future economic development are endangered.
    The good news is that you, your associates, the Congress and the 
Administration have all recognized the urgency of constructing 
Montgomery Point!
    Last year Congress appropriated $20 million to begin construction 
of the lock and dam proper; the Corps of Engineers awarded a $186 
million construction contract in July, and work progressed at a rapid 
pace. The bad news is that the contractor has used all the funds 
available from the Corps and, now, has stopped work.
    Mr. Chairman and Members of the Committee, continuing Congressional 
support is essential at this crucial time in the history of the 
project. We respectfully urge this committee to work with the Corps to 
do what is necessary to get this project back on track. An 
appropriation of $44 million is needed for fiscal year 1999 to insure 
that Montgomery Point is in operation as soon as possible at the lowest 
possible cost.
    The Interstate Committee also respectfully urges:
    For the McClellan-Kerr Arkansas River Navigation System, that the 
Corps be directed to complete installation of tow haulage equipment on 
the locks and between Little Rock and Fort Smith, AR. This efficiency 
feature will reduce lockage time by as much as 50 percent while 
permitting tonnage to double in each tow.
    Needed funding for repairs to the Pueblo Reservoir in Colorado's 
Fryingpan-Arkansas Project. The Pueblo Reservoir, a 349,000 acre-foot 
storage facility serving southeastern Colorado, has recently undergone 
investigations as a part of the Bureau of Reclamation's Safety of Dams 
Program. These investigations resulted in the identification of 
concerns with foundations of seven of the dam's buttresses. At the 
present time, the Reservoir is operating under restricted status which 
means temporary loss of 38,000 acre-feet of important M&I and 
irrigation storage space. Congressional support is needed for the 
Bureau's request to access Safety of Dams funds to repair the dam and 
restore Pueblo Reservoir to normal operations. Local water users 
through the Southeastern Colorado Water Conservancy District will pay a 
portion of these repair costs.
    Bureau of Reclamation funding for the Equus Beds Groundwater 
Recharge Demonstration Project in Kansas. This is a jointly sponsored 
groundwater recharge project of the City of Wichita, Groundwater 
Management District No. 2 and the State of Kansas. The Equus Beds 
provides water for one-half million irrigation, municipal and 
industrial users. The demonstration project is confirming the viability 
of protecting existing resources from saltwater intrusion and 
increasing supplies for use to the mid 21st century. Continued Bureau 
of Reclamation funding for this critical demonstration project is 
requested in the amount of $600,000.
    The Interstate Committee also requests your support of the Planning 
Assistance to States Program (Section 22 or the 1974 Water Resources 
Development Act) which authorized the Corps of Engineers to use its 
technical expertise in water and related land resource management to 
help States and Indian Tribes solve their water resource problems. The 
program is used by many states to support their State Water Plans. As 
natural resources diminish, the need to manage those resources becomes 
more urgent. We urge your continued support of this program as it 
supports States and Native American Tribes in developing resource 
management plans which will benefit citizens for years to come. The 
program is very valuable and effective, matching Federal and non-
Federal funds to provide cost effective engineering expertise and 
support to assist communities, states and tribes in the development of 
plans for the management, optimization and preservation of basin 
watershed and ecosystem resources. The Water Resources Development Act 
of 1996 increased the annual program limit from $6 million to $10 
million, however, the fiscal year 1998 appropriation was limited to $3 
million. The committee requests the annual appropriation for this 
valuable program be increased to the full $10 million.
    Mr. Chairman, Members of this Committee, we respectfully request 
that you and members of your staff review and respond in a positive way 
to the attached individual statements from each of our states which set 
forth specific requests pertaining to those states.
    We sincerely appreciate your consideration and assistance. Thank 
you very much for foresight, wisdom and resourcefulness you and your 
colleagues demonstrate each and every year in providing solutions to 
our nation's water resource problems.
                                 ______
                                 

 Prepared Statement of Wallace A. Gieringer, Chairman, Arkansas River 
                       Basin Interstate Committee

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to present testimony to this most important committee. I 
recently retired as Executive Director of the Pine Bluff-Jefferson 
County Port Authority and serve as Arkansas Chairman for the Interstate 
Committee. Other committee members representing Arkansas, in whose 
behalf this statement is made, are Messrs. Wayne Bennett, soybean and 
rice farmer from Lonoke; Colonel Charles D. Maynard, U.S. Army, 
retired, from Little Rock; Barry McKuin, a Director of the Morrilton 
Port Authority at Morrilton; and N.M. ``Buck'' Shell, transportation 
specialist of Fort Smith and Van Buren.
    1997 was a memorable year in the history of the McClellan-Kerr 
Arkansas River Navigation System--and you helped make it so! Last year 
Congress continued to recognize the urgent need for Montgomery Point 
Lock and Dam by appropriating $20 million. This much needed facility is 
under construction near the confluence of the McClellan-Kerr System and 
the Mississippi River. To each of you, your staff and the Congress--our 
most heartfelt thanks!
    The Corps of Engineers awarded a $186 million contract for 
construction of the lock and dam proper on July 19, 1997 and work 
progressed at a rapid pace. However, the contractor has used all the 
funds available from the Corps and, now, has stopped work. We urge this 
committee to work with the Corps to do what is necessary to get this 
project back on schedule. Completion was scheduled for 2003 assuming 
adequate funding.
    When completed, Montgomery Point will protect over $5 billion in 
public and private investments, thousands of jobs and world trade 
created as a result of the McClellan-Kerr Arkansas River Navigation 
System. Without Montgomery Point Lock and Dam the future of our 
wonderful McClellan-Kerr navigation system remains threatened. Time is 
of the essence.
    The absence of Montgomery Point Lock and Dam continues to deter 
economic growth along the entire McClellan-Kerr and the project is 
certainly time sensitive! As the Mississippi River bottom continues to 
lower, the McClellan-Kerr moves toward total shutdown. Existing dredge 
disposal acres are virtually full. Ongoing dredging and disposal of 
material can mean environmental damage. Construction must continue as 
rapidly as possible if the project is to be in place before disposal 
areas become inadequate.
    During construction, and use of a temporary by-pass channel, 
navigation hazards will increase making it imperative that work on the 
lock and dam be completed as quickly and as safely as possible.
    We are very grateful that you, your associates, the Congress, and 
the Administration have all recognized the urgency of constructing 
Montgomery Point. Appropriations of $45.6 million have been made to 
date for engineering, site acquisition and construction for this 
project which should be completed in 2003 according to the Corps' 
optimum construction funding schedule.
    Mr. Chairman and Members of the Committee, continuing Congressional 
support is essential at this crucial time in the history of the 
project. We respectfully request and urge the Congress to appropriate 
$44 million for use in fiscal year 1999 to continue construction. 
Adequate funding will insure that the urgently needed facility is in 
operation as soon as possible at the lowest possible cost.
    Other projects are vital to the environment, social and economic 
well-being of our region and our nation. We recognize the importance of 
continued construction of needed features to the McClellan-Kerr 
Arkansas River Navigation System and strongly recommend that you 
favorably consider the following in your deliberations:
  --Support continued funding for the construction, operation and 
        maintenance of the McClellan-Kerr Arkansas River Navigation 
        System.
  --Continue construction authority for the McClellan-Kerr Arkansas 
        River Navigation Project until remaining channel stabilization 
        problems identified by the Little Rock District Corps of 
        Engineers have been resolved.
  --Provide funding and direct the Corps to complete installation of 
        tow haulage equipment on the locks and dams between Little Rock 
        and Fort Smith. This efficiency feature will reduce lockage 
        time by as much as 50 percent while permitting tonnage to 
        double in each tow with only a minor increase in operating 
        cost.
  --Provide funds and direct the Corps of Engineers to begin 
        construction of the Arkansas River Levees Project as authorized 
        by Section 110 of the Water Resource Development Act of 1990. 
        Continuing engineering and design is needed for these levees 
        which have been previously studied in the cost-shared Arkansas 
        River Arkansas and Oklahoma Feasibility Study.
  --$1.5 million needs to be specifically provided and the Corps 
        directed to begin rehabilitation construction on the Plum Bayou 
        Levee.
  --Fund continued repair and rehabilitation of the power units at the 
        Dardanelle Lock and Dam which first went into operation in 
        1965. After this work is completed, power output will be 
        increased by 13 percent and thus increase income to the Federal 
        Treasury.
    We also urge the Congress to encourage the Military Traffic 
Management Command to continue to identify opportunities to accelerate 
use of the nation's navigable waterways to move military cargoes 
thereby helping contain the nation's defense costs.
    In conclusion, Mr. Chairman, please help prevent a crisis for the 
Arkansas River Navigation System and the multi-state region it serves 
by appropriating $44 million for use in fiscal year 1999 for Montgomery 
Point Lock and Dam.
    The entire Arkansas River Navigation System is at risk, and its 
long-term viability is threatened. The system remains at risk until 
Montgomery Point is constructed. Some $5 billion in federal and private 
investments and thousands of jobs and growing exports are endangered.
    We fully endorse the statement presented to you today by the 
Chairman of the Arkansas River Basin Interstate Committee. We 
appreciate the opportunity to provide testimony to your most important 
subcommittee and urge you to favorably consider our request for needed 
infrastructure investments in the natural and transportation resources 
of our nation.
                                 ______
                                 

 Prepared Statement of Steve Arverchoug, General Manager, Southeastern 
                  Colorado Water Conservancy District

    Mr. Chairman and Members of the Appropriation Subcommittee on 
Energy and Water Development, thank you for the opportunity to present 
these comments and requests on behalf of Colorado as a participant in 
the Arkansas River Basin Interstate Committee.
     voice my support for the Interstate Committee's priority funding 
requests for the 1999 budget--the Montgomery Point Lock and Dam project 
and the other priority projects as listed by the Arkansas River Basin 
Interstate Committee member states.
    Allow me to update the Subcommittee members on one of the most 
pressing needs in Colorado's Arkansas River Basin.
             pueblo reservoir safety of dams investigations
    Background.--The Bureau of Reclamation built the Fryingpan-Arkansas 
Project as authorized by Congress beginning in 1964. The Project was 
completed in the early 1980's as the Bureau put the finishing touches 
on Pueblo Reservoir, the centerpiece of the Fry-Ark Project. Water from 
the Project's west slope collection system began benefiting towns and 
farms in southeastern Colorado in 1972, and since that time the Project 
has delivered over one million acre-feet of valuable water.
    The Southeastern District, as the local sponsor of the Fry-Ark 
Project, assumed the major financial responsibility for the 
reimbursable construction costs ($150 million) and the appropriate 
share of the Project's annual Operation and Maintenance (O&M) costs 
($900,000). The District pays the Bureau of Reclamation approximately 
$4 million each year toward the construction costs repayment obligation 
and the O&M expenses. Revenue to make these annual payments comes from 
a property tax assessment on all property within the Southeastern 
District's nine-county service area (Bent, Chaffee, Crowley, Fremont, 
El Paso, Kiowa, Otero, Prowers, and Pueblo), and from direct charges on 
agricultural and municipal water-user entities.
    Part of the Bureau of Reclamation's responsibility for the Fry-Ark 
Project includes the safe and efficient operation of the Project's five 
reservoirs and dams. Each Project dam is subject to periodic Safety of 
Dams investigations. Pueblo Reservoir Dam underwent such an 
investigation in 1997, and based on the Bureau's current set of 
standards, Pueblo Dam was deemed to be below Bureau standards under 
normal operating configurations.
    Bureau of Reclamation Decisions to Date.--June 1997, following the 
Safety of Dams investigation at Pueblo Dam, the Bureau of Reclamation 
issued a Decision Memorandum which initiated a Corrective Action Study 
and placed a storage restriction on Pueblo Reservoir. The storage 
restriction reduced the effective capacity of the reservoir from 
349,000 acre-feet to 294,000 (the historic maximum storage level), a 
loss of 55,000 acre-feet of conservation pool storage space. After 
discussions with the Corps of Engineer (the Corps has flood control 
responsibility at Pueblo Reservoir), and with the help of members of 
Colorado's Congressional delegation, the Bureau modified the operation 
of the Reservoir so that the storage restriction would reduce 
conservation storage space by just 20,000 acre-feet, instead of the 
full 55,000 acre-feet.
    The restriction was imposed because the Bureau's Safety of Dams 
engineers believe that several of the dam's buttresses, which where 
founded on thin shale seams during the construction of the dam, have 
the potential to slip and cause a dam failure. Even though monitoring 
of the buttresses has indicated no slippage, the Bureau's current risk 
tolerance standards mandate a storage restriction and some form of 
remedial action. The Bureau is in the process of completing the 
required Safety of Dams Corrective Action Study to determine the most 
cost effective remedial action necessary to return the Reservoir to 
normal operations.
    At the January 1998 Board meeting of the Southeastern District, the 
Bureau announced that an additional storage restriction on Pueblo 
Reservoir was awaiting final action by the Regional Director, and would 
further reduce the operational capacity of the Reservoir. This 
additional restriction would cut another 18,000 acre-feet of storage 
capacity from the Reservoir's conservation pool. The Bureau is now 
operating the Reservoir under this additional restriction. The District 
expects the official decision documents from the Bureau shortly.
    Total storage space lost to restriction: 38,000 acre-feet (with 
modified flood control operations).
    Safety of Dams Response.--The Bureau is in the final stages of 
preparing the Corrective Actions Study which is to detail the remedial 
action necessary to repair the dam's foundation and bring the structure 
back within the Bureau's acceptable risk tolerances. To date the Bureau 
is proposing a repair alternative which would fill the dam's plunge 
pool with roller-compacted concrete (RCC) and adhere that RCC to the 
existing surface with a series of bolts and tow blocks. The Bureau's 
analysis and design for this alternative has undergone review by a 
panel of outside engineers. These outside engineers (Consultant Review 
Board) have met with the Bureau's engineers three times, and they now 
appear to be in general agreement with the proposed fix.
    The District has hired engineer's from the firm of Black & Veatch 
to review the final design for the proposed fix. Based upon the 
Bureau's preliminary design and engineering reports, our engineers 
believe the RCC alternative to be a cost effective approach to address 
the stability concern.
    Cost Estimate/Cost Sharing.--The proposed cost estimate for the RCC 
alternative is $23 million to $38 million. That estimate as currently 
presented by the Bureau includes $14 million for the actual 
construction (filed costs), and the remainder for Bureau engineering 
and administration. The Safety of Dams Act requires the Bureau to also 
investigate a non-construction alternative, which in the case of Pueblo 
Dam, would mean the Bureau would simply leave the current storage 
restriction in place indefinitely. That would mean the permanent loss 
of 55,000 acre-feet of storage capacity (with flood control operations 
fully restored).
    Costs for the Safety of Dams repairs at Pueblo Reservoir are to be 
shared between the Bureau and local project beneficiaries. The federal 
Safety of Dams Act requires that the Bureau request funding from 
Congress for 85 percent of the costs and then secure repayment from 
power, irrigation, and municipal and industrial users for the remaining 
15 percent of total project costs. This cost-share arrangement means 
that the Southeastern District, representing irrigation and municipal 
and industrial users would pay about $3 million to $5 million of the 
total costs.
    Impacts on Municipal and Agricultural Water Users.--The most 
immediate impact to the constituents of the Southeastern District from 
the Bureau's decisions to date has been the loss of 38,000 acre-feet of 
conservation pool storage space. That space is used to store Project 
Water for supplemental irrigation and municipal uses, Winter Water 
available for irrigation, and If & When storage accounts for municipal 
users. All of these valuable storage components have been impacted, but 
the Winter Water Storage Program has been hardest hit.
    This year is the first year in many that Arkansas Valley irrigators 
decided not to store their Winter Water in Pueblo Reservoir because of 
the limited space and the likelihood of a spill. For some irrigators 
Pueblo Reservoir is their only storage option under the Winter Water 
Storage Program, which means they will not have Winter Water available 
for late-season deliveries (annual average Winter Water storage in 
Pueblo Reservoir--40,000 acre-feet).
    Over the long term the storage restrictions will reduce the yield 
of the Project, hurt the operation of important exchanges for municipal 
supplies, limit the Winter Water Storage Program, and diminish the 
ability of the District to meet our repayment obligations.
    Next Steps.--Both the Bureau of Reclamation and the Southeastern 
District have many decisions to make before construction can begin to 
fix Pueblo Dam--proposed to begin November 1998. Some of the key 
decision areas are listed below:
    Bureau of Reclamation:
    1. Finalize Preferred Alternative (RCC) design/cost estimate and 
meet with Consultant Review Board.
    2. Complete NEPA compliance requirements.
    3. Finalize Corrective Action Study (including the preferred 
alternative) for presentation to Congress/OMB.
    4. Execute a Repayment Contract with the Southeastern District for 
cost sharing of project costs.
    5. Secure funding support for preferred alternative.
    Southeastern District:
    1. Complete in-house engineering review of Bureau's Preferred 
Alternative Final Design.
    2. Develop a financing plan for repayment of cost-share of Project 
costs--user fees and District reserve funds.
    3. Execute a repayment contract with Bureau for cost-share of 
Project costs.
    District's Outstanding Issues/Congressional Assistance.--As the 
District works to execute a repayment contract for the Safety of Dams 
work at Pueblo Reservoir, we have a set of outstanding issues which we 
believe are important for our members of Congress to consider. First, 
the District supports the Bureau in their effort to bring Pueblo Dam in 
line with current Bureau standards. Our goal is to fully cooperate in 
the Safety of Dams work so that the Reservoir can be restored to normal 
operations, without further restrictions.
    With that goal in mind, the District has the following outstanding 
issues:
    1. The Bureau's total-project cost range is too broad--$23 million 
to $38 million--the Bureau has done extensive study of the preferred 
alternative and should be able to narrow this estimate before the 
District signs a repayment contract;
    2. Non-construction costs (engineering, administration and 
overhead), as a part of the total-project costs, are too high--40 
percent to 60 percent of total costs (based on current Bureau 
estimates)--the District's constituents want to fix Pueblo Dam, but 
don't want to send over 50 percent of their cost-share funds to pay for 
Bureau overhead;
    3. The District has asked the Bureau to consider a fixed-price 
repayment contract so that we can know exactly what our financial 
responsibilities are before we sign a contract. At present, the best 
the Bureau will offer is an ``estimate'' of costs;
    4. The District's water users need some level of assurance that the 
Bureau's proposed fix, when complete, will indeed allow the current 
storage restrictions to be lifted; and,
    5. The Bureau should be held accountable to hold down the proposed 
repair costs and to perform the repairs within a reasonable period of 
time.
    Again, the District supports the Bureau's work to repair Pueblo 
Dam, we're simply asking through this briefing document and our list of 
outstanding issues, that the financial impacts to our constituents be 
given proper consideration. Positive resolution of this Safety of Dams 
repair obligation at Pueblo Dam will benefit both the Bureau and the 
constituents of the District. Such a resolution will serve to maintain 
the intended benefits of the Fry-Ark Project, a valuable project for 
all the citizens of southeastern Colorado.
                               conclusion
    Mr. Chairman and Members, your time and interest in these matters 
is greatly appreciated. As I present these issues and requests to you, 
I recognize the difficulty you have in meeting these needs along with 
the many others you have been presented. Of course, like the others, 
the requests of the Arkansas River Basin Interstate Committee are 
important to us and our constituents. Your fair consideration of the 
needs of the member states of the Interstate Committee is all that I 
can ask.
    Thank you for your commitment to the water resource needs of our 
citizens.
                                 ______
                                 

   Prepared Statement of the Kansas Arkansas River Basin Interstate 
                               Committee

    The water resource projects in the Kansas portion of the Arkansas 
River Basin are summarized below. Many of the projects are safety, 
environmental and conservation oriented. In addition, we state our 
unanimous support for the fiscal year 1999 request of $44 million for 
continued construction of the authorized Montgomery Point Lock and Dam 
Project to maintain viable commerce of navigation on the McClellan-Kerr 
Arkansas River Navigation System.
    We request your continued support for these important Bureau of 
Reclamation projects:
    Equus Beds Groundwater Recharge Demonstration Project.--A City of 
Wichita, Groundwater Management District No. 2 and State of Kansas 
project to demonstrate the feasibility of recharging a major 
groundwater resource supplying water to nearly 500,000 municipal, 
industrial and irrigation users and will also reduce potential 
degradation of the existing groundwater quality by minimizing migration 
of saline water. Continued funding in fiscal year 1999 is requested in 
the amount of $600,000.
    Cheney Reservoir.--On the North Fork of the Ninnescah River 
providing natural treatment of inflows in the upper reaches of Cheney 
Reservoir to control poor water quality due to agricultural runoff. 
Previous funding is appreciated. Bureau funding of $265,000 is 
requested.
    Arkansas River Mineral Intrusion Study.--Between Nickerson and 
Hutchinson to mitigate saltwater intrusion into freshwater supplies. 
Funding in the amount of $135,000 is requested.
    We request your continued support for these equally important 
projects of the Corps of Engineers:
    Arkansas City, Kansas Flood Protection.--To protect homes and 
businesses from catastrophic damages resulting from either Walnut River 
or Arkansas River flooding. Previous funding is appreciated and 
continued funding is needed to complete the project, as authorized.
    Winfield, Kansas Flood Protection.--This project will raise and 
extend an existing levee to provide badly needed flood control for the 
city. Previous funding is appreciated and continued funding is 
requested to complete the project.
    John Redmond Reservoir Reallocation Study.--To ascertain the 
equitable distribution of sediment storage between conservation and 
flood control storage and evaluate the environmental impact of the 
reallocation. Funding requested in the amount of $525,000.
    Continuing Authorities Program.--Several smaller Kansas communities 
are on the waiting list for funding from the Small Flood Control 
Projects Program and the Emergency Streambank Stabilization Program. 
Funding requested to the full programmatic limits.
    Grand/Neosho River Basin.--Corps study nearing completion to 
evaluate the adequacy of federal flood control easements around Grand 
Lake. Solutions to up stream flooding impact both Kansas and Oklahoma. 
Follow-on studies are needed to fully identify/evaluate solutions.
    Arkansas River Reconnaissance Study from Colorado Border to Dodge 
City.--$100,000 study to evaluate high flow carrying capacity in 
western Kansas as has been done in eastern Colorado.
    Kanapolis Lake Water Quality Storage Reallocation.--To reallocate 
existing water quality storage for public supply availability and to 
give the Corps authority to sell existing storage at original 
construction cost and interest rates for a specified time.
    Operation and Maintenance Budgets.--We request increased funding 
specifically for Water Control to eliminate the conflict between 
staffing and gaging support. Reduced funding in Kansas is evident.
    We urge your continued support of the Department of Interior 
project:
    Quivira National Wildlife Refuge.--A study to identify the options 
available for producing the most efficient use of resources for the 
refuge and irrigation needed to support the area agricultural economy. 
Research is 50 percent completed. Future support to implement solutions 
will be appreciated.
                                 ______
                                 

  Prepared Statement of Gerald H. Holman, Chairman, Kansas Interstate 
                               Committee

    Mr. Chairman and members of the committee, I am Gerald H. Holman, 
Senior Vice President of the Wichita Area Chamber of Commerce, Wichita, 
Kansas and Chairman of the Kansas Interstate Committee for the Arkansas 
Basin Development Association. This statement is submitted on behalf of 
the entire Kansas Delegation.
    We are honored to join with our colleagues from the states of 
Arkansas, Colorado, Missouri and Oklahoma, to form the five state 
Arkansas River Basin Interstate Committee. We are unified as a region 
and fully endorse the statement of the Arkansas River Basin Interstate 
Committee.
    In addition to the important projects listed below, we state our 
unanimous support for the continued construction of the authorized 
Montgomery Point Lock and Dam Project to maintain viable navigation for 
commerce on the McClellan-Kerr Navigation System. This inland waterway 
is vital to the economic health of the five state area and your support 
is needed to maintain its future viability. Construction has begun and 
continued funding authorization is needed. We hereby state our 
unanimous support for the $44 million needed by the Corps of Engineers 
to maintain the most economical and cost efficient construction 
schedule.
    The water resources projects in the Kansas portion of the Arkansas 
River Basin have been carefully reviewed by the Kansas delegation and 
reflect accurately the need. Many of the projects are safety, 
environmental and conservation oriented. We are grateful for your past 
commitment and respectfully request your continued commitment.
    We ask for your continued support for these important Bureau of 
Reclamation projects on behalf of the Wichita/South Central Kansas 
area:
    Equus Beds Groundwater Recharge Demonstration Project.--This is the 
continuation of a Bureau of Reclamation project jointly endorsed by the 
City of Wichita, Groundwater Management District No. 2 and the State of 
Kansas. The project is demonstrating the feasibility of recharging a 
major groundwater resource supplying water to nearly one-half million 
irrigation, municipal and industrial users. This model technology has 
application to other areas throughout the nation. The full scale 
project, when implemented, will capture flood flows from the Little 
Arkansas River providing water for use during times of low rainfall or 
dry conditions and will also reduce on-going degradation of the 
existing groundwater quality by minimizing migration of saline water. 
The pilot project is operational with the guidance from the Bureau of 
Reclamation. Early data positively supports predictions that the full 
scale project can be successful and is capable of meeting the 
increasing water resource needs of the area to the mid 21st century. 
Additional data is needed to confirm early findings.
    The Equus Beds provides approximately half of the Wichita area 
regional municipal water supply. This recharge project is vital to the 
future of the metropolitan Wichita area and surrounding farming 
communities. We are grateful for the $1 million funding in fiscal year 
1995 and fiscal year 1996, the $875,000 in fiscal year 1997 and the 
$667,000 authorized in fiscal year 1998. Fiscal year 1999 funding in 
the amount of $600,000 is requested. Cost share funds are provided by 
the City of Wichita for this on-going federally supported project. 
Governor Graves supports this much needed project as a benefit to 20 
percent of the state's population.
    For fiscal year 1998, the Conference Committee also approved the 
following report language: ``The conferees direct the Bureau of 
Reclamation to notify the Committees on Appropriations of the House and 
the Senate before reprogramming any funds from the Equus Beds 
Groundwater Recharge Demonstration Project in Kansas.'' We request this 
or similar language remain for fiscal year 1999.
    Cheney Reservoir.--The reservoir provides approximately 50 percent 
of Wichita's regional water supply. Two environmental problems threaten 
the water quality and longevity of the reservoir. One is sedimentation 
from soil erosion and the other is non-point source pollution, 
particularly the amount of phosphates entering the reservoir resulting 
in offensive taste and odor problems. Potential pollution sites in the 
watershed above the reservoir have been identified along with Best 
Management Practices that can help reduce the pollution from those 
sites. The City of Wichita has committed $1.2 million to this project 
for implementing soil conservation practices consistent with the 
Management Plan. The Bureau of Reclamation constructed the reservoir 
and has remained involved in on-going support. Bureau funding in fiscal 
year 1997 and fiscal year 1998 in the amounts of $235,000 and $131,000 
respectively was approved as cost share support for the local funding 
provided by the City of Wichita. However, of the $131,000 the Bureau 
withheld $30,000 as ``overhead'' expense on the project. Funding, fully 
allocated to the project, in the amount of $265,000 is requested for 
fiscal year 1999.
    Arkansas River Mineral Intrusion Study.--Aggressive and innovative 
treatment techniques must be identified and implemented to protect our 
valuable water resources from increasing environmental problems. 
Authorization of on-going Bureau of Reclamation research is critical to 
protecting existing resources.
    A critically important research project for Kansas is the Mineral 
Intrusion Study in the Equus Beds Aquifer along the Arkansas River 
between the cities of Nickerson and Hutchinson. Ground water pumping in 
the aquifer is inducing saltwater from the river into the freshwater 
supplies of the Equus Beds. The State of Kansas has supported this 
project with cost share monies in the State Water Plan over the last 
four years with the expectation that the Bureau of Reclamation would 
provide the necessary financial support to conduct the modeling of the 
region and ascertain problem areas and management solutions to be 
adopted by Groundwater Management District No. 2. Funding in the amount 
of $135,000 is requested.
    This Committee has given its previous support to local protection 
and other important Kansas projects. A number of projects are now 
completed and we are most grateful for your construction authorization. 
Many of our agricultural communities have historically experienced 
major flood disasters, some of which have resulted in multi-state 
hardships involving portions of the state of Oklahoma. Because of this, 
we are most interested in rapidly moving other needed projects to 
completion. However, our small communities do not have the necessary 
funds nor engineering expertise. Projects in addition to local 
protection are also important and listed below. We request your 
continued support.
    Arkansas City, Kansas Flood Protection.--This project is in 
response to a critical need to protect the environment, homes and 
businesses from catastrophic damages that would result from either 
Walnut River or Arkansas River flooding which could include flood borne 
petroleum products from the Arkansas City refinery. The Corps has 
extensively coordinated with the city and various state agencies in the 
development of this project, which when completed, will eliminate 
damage in a multi-county area and also result in benefits to the state 
of Oklahoma just a few miles south of the project. We appreciate the 
previous funding in the amounts of $700,000 in fiscal year 1996, $1 
million in fiscal year 1997 and $2 million in fiscal year 1998. Also, 
in fiscal year 1997, the Secretary of the Army was authorized to 
construct the project. We request your continued support for the timely 
construction as authorized in fiscal year 1997 at the funding level 
needed by the Corps of Engineers.
    Winfield, Kansas Flood Protection.--This project will raise and 
extend an existing levee to provide badly needed flood control for the 
city. Your authorized funding in the amounts of $670,000 in fiscal year 
1996, $1 million in fiscal year 1997 and $2 million in fiscal year 1998 
is appreciated. All design studies are completed. We urge your 
continued support for project construction at the level needed by the 
Corps of Engineers to insure the safety of Winfield's citizens.
    John Redmond Reservoir Reallocation Study.--John Redmond Reservoir 
remains a primary source of water supply for small communities between 
Burlington Kansas and Grand Lake. It is suffering loss of capacity 
ahead of its design rate because of excessive deposits within the 
conservation pool. The flood pool remains above its design capacity. A 
study would ascertain the equitable distribution of sediment storage 
between conservation and flood control storages and also evaluate the 
environmental impact of the appropriate reallocation. Funding 
requirements are $525,000 and the Corps of Engineers could accomplish 
the study under its General Investigation authority. We request your 
support for this important project.
    Continuing Authorities Program.--We support funding for this 
program including the Small Flood Control Projects Program (Section 205 
of the 1948 Flood Control Act, as amended) as well as the Emergency 
Streambank Stabilization Program (Section 14 of the 1946 Flood Control 
Act, as amended). Smaller communities in Kansas (Iola, Liberal, 
Medicine Lodge, Altoona, Emporia and Parsons) and Oklahoma have 
requested assistance from the Corps of Engineers and are currently on 
the waiting list. We urge you to support these programs to the $40 
million programmatic limit for the Small Flood Control Projects Program 
and $15 million for the Emergency Streambank Stabilization Program.
    Grand (Neosho) River Basin.--The Grand-Neosho River Committee was 
formed at the request of the Kansas and Oklahoma congressional 
delegations to evaluate water resource problems affecting both Kansas 
and Oklahoma. A study, authorized by the Water Resources Development 
Act of 1996, is nearing completion and will evaluate whether the Corps 
of Engineers has adequate flood control easements in the upper reaches 
of Grand Lake. We support continued studies to fully evaluate and 
identify solutions to upstream flooding problems in Kansas which are 
associated with flood control operations of Grand Lake. Changes in 
operations of the Lake or other upstream changes could have a 
significant impact on flood control, hydropower, and navigation 
operations in the overall Grand-Neosho River system. We urge continued 
funding in fiscal year 1999 for follow-on studies for this important 
project.
    Arkansas River Reconnaissance Study from Colorado Border to Dodge 
City.--Environmental problems are increasing the importance of 
continued research to protect our valuable water resources. Aggressive 
and innovative treatment techniques must be identified and implemented. 
Authorization of on-going Corps of Engineers research is essential, and 
as appropriate, demonstration project funding.
    A reconnaissance study of the high flow carrying capacity of the 
Arkansas River from the Colorado State Line to Dodge City is important 
to western Kansas. This study would compliment the research 
accomplished on the Colorado portion of the river below John Martin 
Dam. Lack of flows over the past two decades has allowed vegetation to 
encroach into the river channel thereby restricting its ability to 
convey flood flows during runoff periods. Additionally, the delineation 
of the Ordinary High Water Mark separating the river channel property 
between the public trust and private lands has become muddled because 
of the lack of definition of a permanent channel in the Western Kansas 
reach. We request this project be funded in the amount of $100,000 to 
complete the necessary research.
    Kanapolis Lake Water Quality Storage Reallocation.--Agricultural 
communities in central Kansas are in need of additional public water 
supplies. A cost-effective solution is reallocating existing water 
quality storage in Kanapolis Lake for public supply availability. The 
Kansas Water Office has made a request of the Corps of Engineers to 
authorize the reallocation which is a most expeditious solution for 
central Kansas. We urge you to support our request of the Corps of 
Engineers. We also request that language be added to the Water Resource 
Development Act of 1998 which will give authority to the Corps on 
numerous projects to sell existing conservation storage at original 
costs and interest rates for a specific limited time.
    Operation and Maintenance Budgets.--To effectively manage water 
resources in the state, continued funding from the Corps of Engineers 
for operation and maintenance is needed, specifically for Water 
Control. The Corps has experienced reduced funding and increased 
restrictions on use of in-house funds which is forcing the Tulsa 
District to allocate between staffing needs and stream gaging support. 
A withdrawal of Corps support in Kansas is now evident and a 
corresponding diminished ability to effectively monitor extreme events 
such as flooding is likely. Increased funding, specifically for Water 
Control, is requested along with reduced restrictions on its use.
    Your continued support of a most important U.S. Department of 
Interior, Fish and Wildlife Service project is very much appreciated:
    Quivira National Wildlife Refuge.--This is a joint project 
involving the U.S. Fish and Wildlife Service--Region 6, the State of 
Kansas, the local groundwater management district and the Water 
Protection Association of Central Kansas. Quivira provides a resting 
area for waterfowl and endangered species during their annual 
migrations in the Central Flyway. The Refuge is comprised of a series 
of shallow pools totaling about 6,500 surface acre-feet and is part of 
the Rattlesnake Creek basin. The Rattlesnake Creek basin has 
experienced significant groundwater and streamflow declines in recent 
years due to climatic conditions as well as expansion of irrigated 
agriculture. An engineering feasibility study is underway to identify 
the watershed-based options available for producing the most efficient 
and effective use of the water resources in the Rattlesnake Creek basin 
to protect the Wildlife Refuge as well as the agriculture economy of 
the area. Fiscal year 1996 funding in the amount of $760,000 and 
$1,400,000 in fiscal year 1997 is very much appreciated which along 
with cost share funds from the State of Kansas and area businesses/
organizations, is sufficient for the study which is now approximately 
50 percent complete. Design work could begin later this year. No 
funding was requested for fiscal year 1998 and none is being requested 
for fiscal year 1999. However, future funding requests may be made.
    Finally, we are most concerned with any proposal to limit 
participation of both the Corps of Engineers and Bureau of Reclamation 
in development and protection of water resources infrastructure. It is 
essential to have the integrity and continuity these agencies provide 
on major public projects. Your continued support of these vital 
agencies, including funding, will be greatly appreciated. Our 
infrastructure must be maintained and where needed, enhanced for the 
future.
    Mr. Chairman and Members of this Committee, we thank you for the 
dedicated manner in which you and your colleagues have dealt with the 
Water Resources Programs and for allowing us to present our views and 
recommendations. We look forward with great expectations and hope for 
the future of water resource development in Kansas and the entire 
Arkansas River Basin.
                                 ______
                                 

    Prepared Statement of James M. Hewgley, Jr., Oklahoma Chairman, 
               Arkansas River Basin Interstate Committee

    The water resource needs for the State of Oklahoma have been 
carefully reviewed and the following accurately represents the needs of 
the citizens of our region.
    We hold as our number one priority the construction of the 
Montgomery Point Lock and Dam in Arkansas. The completion of this 
project is critical to the continued use of the navigation system and 
the continued growth of the entire region. We request an appropriation 
of $44 million for fiscal year 1999.
    We also request your continued support of the Planning Assistance 
to States Program which authorizes the Corps of Engineers to use its 
technical expertise in water and related land resource management to 
help States and Indian Tribes solve their water resource problems. This 
committee requests the annual appropriation for this valuable program 
be increased to the $10 million authorization. This is a very important 
program to the states.
    We are pleased that the President's budget includes money for flood 
control projects in Oklahoma. Two of those projects are the Skiatook 
Lake, Dam Safety Assurance project and the Mingo Creek project in 
Tulsa. We also support funding of $5 million for the Tenkiller Lake Dam 
Safety Assurance project.
    We support the ongoing effort to evaluate water resource problems 
in the Grand/Neosho River Basin in Kansas and Oklahoma. We support the 
continued funding of studies to determine the adequacy of existing real 
estate easements necessary for flood control operations of Grand Lake, 
Oklahoma.
    We also support funding for the Continuing Authorities Program, 
including the Small Flood Control Projects Program, and the Emergency 
Streambank Stabilization Program.
    We request your continued support of the Flood Plain Management 
Services Program which authorized the Corps of Engineers to use its 
technical expertise to provide guidance in flood plain management 
matters to all private, local state and Federal entities.
    We have grave concerns about the Administration's proposed, radical 
cuts in the Corps of Engineers budget. We support a funding level equal 
to that of fiscal year 1998.
    On a related matter, we have deep concerns about the attempt to 
reauthorize the Endangered Species Act without significant beneficial 
reforms. We urge further reforms or defeat of S. 1180.
    Finally, the committee supports funding for the Environmental 
Restoration Program.
                                 ______
                                 

    Prepared Statement of James M. Hewgley, Jr., Oklahoma Chairman, 
               Arkansas River Basin Interstate Committee

    Mr. Chairman and members of the committee, I am James M. Hewgley, 
Jr., Oklahoma Chairman of the Arkansas River Basin Interstate 
Committee, from Tulsa, Oklhaoma.
    It is my privilege to present this statement on behalf of the 
Oklahoma Members of our committee in support of adequate funding for 
water resource development projects in our area of the Arkansas River 
Basin. Other members of the Committee are: Mr. Ted Coombes, Tulsa; Mr. 
Lew Meibergen, Enid; Mr. Edwin L. Gage, Muskogee; and Mr. Terry 
McDonald, Tulsa.
    Together with representatives of the other Arkansas River Basin 
states, we fully endorse the statement presented to you by the Chairman 
of the Arkansas River Basin Interstate Committee. We appreciate the 
opportunity to present our views of the special needs of our State 
concerning several studies and projects.
    As we have testified in the past, serious problems exist at the 
waterway entrance to the McClellan-Kerr Arkansas River Navigation 
System. Extensive testing has proven that construction of Montgomery 
Point Lock and Dam is the only acceptable means to correct the problem. 
The project has been started and adequate funding must follow to keep 
the project on its construction schedule.
    Your recognition, as well as that of the Administration, of the 
importance of constructing Montgomery Point Lock and Dam is very 
gratifying. To date, you and your colleagues have appropriated $45.6 
million for engineering, site acquisition and construction. This action 
is very much appreciated.
    We are grateful that the Congress, in Public Law 102-580, directed 
that ``The Secretary shall proceed expeditiously with design, land 
acquisition and construction of the Montgomery Point Lock and Dam on 
the White River, Arkansas, authorized as part of the McClellan-Kerr 
Waterway by section 1 of the River and Harbor Act of July 24, 1946 (60 
State. 635-636).''
    We respectfully request that Congress appropriate $44 million in 
the fiscal year 1999 budget cycle to continue construction of the 
authorized project. This is the amount the contractor has indicated 
they can effectively use during fiscal year 1999. This will help insure 
that the project is completed and in operation as soon as possible at 
the lowest possible cost.
    Mr. Chairman, members of this distinguished Committee, we 
respectfully remind each of you this navigation system has brought low-
cost water transportation to Oklahoma, Arkansas and surrounding states. 
There has been in excess of $5 billion invested in the construction and 
development of the McClellan-Kerr Arkansas River Navigation System by 
the Federal Government and the public and private sectors. There have 
been more than 50,000 jobs created as a result of this partnered 
investment.
    We also request your support of the Planning Assistance to States 
Program (Section 22 of the 1974 Water Resources Development Act) which 
authorizes the Corps of Engineers to use its technical expertise in 
water and related land resource management to help States and Indian 
Tribes solve their water resource problems. The program is used by many 
states to support their State Water Plans. As natural resources 
diminish, the need to manage those resources becomes more urgent. We 
urge your continued support of this program as it supports States and 
Native American Tribes in developing resource management plans which 
will benefit citizens for years to come. The program is very valuable 
and effective, matching Federal and non-Federal funds to provide cost-
effective engineering expertise and support to assist communities, 
states and tribes in the development of plans for the management, 
optimization and preservation of basin watershed, and ecosystem 
resources. The Water Resources Development Act of 1996 increased the 
annual program limit from $6 million to $10 million, however, the 
fiscal year 1998 appropriation was limited to $3 million. The committee 
requests the annual appropriation for this valuable program be 
increased to the full $10 million.
    We are particularly pleased that the President's budget includes 
funds to advance work for flood control in Oklahoma. Of special 
interest to our committee is funding for the Skiatook Lake, Dam Safety 
Assurance Project, and the Mingo Creek, Tulsa, Oklahoma, and Fry 
Creeks, Bixby, Oklahoma, projects. We also support funding for the 
Tenkiller Lake Dam Safety Assurance project which will insure that 
Tenkiller Dam will be able to continue to operate under maximum 
upstream rainfall conditions and will be able to continue to provide 
the important water resource benefits to the region. We are grateful 
the Administration's budget request has included funds for this 
project. however, an appropriation of $5 million will be needed to 
allow the initiation of this important effort. We are also pleased that 
the President's budget includes funding for the Cimarron River Basin 
Reconnaissance study and we support funding to study watershed 
development needs in the Illinois River basin.
    Studies conducted by the Tulsa District in the 1970's identified 
the potential for flood damage reduction measures in the Cimarron River 
Basin. Several potential multiple purpose reservoirs were considered 
for development in response to needs for flood control, water supply, 
fish and wildlife, and recreation. Development and operation of these 
projects in conjunction with the existing system of reservoirs in the 
Arkansas River Basin would provide for flood damage reduction along the 
Cimarron River downstream, as well as along the Arkansas River from 
Keystone Dam, near Tulsa, to Fort Smith, Arkansas. These projects would 
also offer the potential for development of hydropower and navigation 
benefits along the McClellan-Kerr Arkansas River Navigation System. 
Additional water resource development, including restoration of habitat 
lost as a result of Federal construction and rehabilitation of 
federally constructed watershed projects require further evaluation 
within the basin. Considerable local interest has developed in these 
projects, particularly the potential of Crescent Lake which would be 
located about 15 miles north of Oklahoma City. The Tulsa District has 
received letters of support for initiation of reconnaissance studies 
from the Oklahoma Water Resources Board and the mayors of Guthrie, 
Crescent, and Oklahoma City.
    The Illinois River watershed is experiencing continued water 
resource development needs and is the focus of ongoing Corps and other 
agency investigations. There is a significant need to establish minimum 
streamflow levels downstream of the Lake Tenkiller Dam and there are 
increasing watershed influences upstream of Lake Tenkiller which impact 
on the quality of water available for fish and wildlife, municipal and 
industrial water supply users, and recreation users of the Lake 
Tenkiller and Illinois River waters. The committee requests funding to 
initiate reconnaissance studies for the Illinois River Watershed in 
fiscal year 1999.
    We also support the ongoing effort to evaluate water resource 
problems in the Grand-Neosho River basin in Kansas and Oklahoma. We 
support the continued funding of studies to evaluate solutions to 
upstream flooding problems associated with the adequacy of existing 
real estate easements necessary for flood control operations of Grand 
Lake, Oklahoma. A study, authorized by the Water Resources Development 
Act of 1996, is scheduled to be completed in March of 1998 and will 
evaluate whether the Corps of Engineers has adequate flood control 
easements in the upper reaches of Grand Lake. If that evaluation 
indicates inadequate real estate interest is held for flood control 
operations, additional study will be required to determine the most 
cost-effective solution to the real estate inadequacies. Changes in the 
operations of the project or other upstream changes could have a 
significant impact on flood control, hydropower, and navigation 
operations in the Grand (Neosho) River system and on the Arkansas River 
basin system, as well. We urge you to fund follow-on studies for this 
important project in fiscal year 1999.
    We also support funding for the Continuing Authorities Program, 
including the Small Flood Control Projects Program (Section 205 of the 
1948 Flood Control Act, as amended) and the Emergency Streambank 
Stabilization Program (Section 14 of the 1946 Flood Control Act, as 
Amended). We want to express our appreciation for your continued 
support of those programs.
    Although the Small Flood Control Projects Program addresses flood 
problems which generally impact smaller communities and rural areas and 
would appear to benefit only those communities, the impact of those 
projects on economic development crosses county, regional and sometimes 
state boundaries. The communities served by the program frequently do 
not have the funds or engineering expertise necessary to provide 
adequate flood damage reduction measures for their citizens. Continued 
flooding can have a devastating impact on community development and 
regional economic stability. The program is extremely beneficial and 
has been recognized nation-wide as a vital part of community 
development, so much so, in fact, that there is currently a backlog of 
requests from communities who have requested assistance under this 
program. Oklahoma communities that have requested assistance from the 
Corps of Engineers under the Section 205 authority and are currently on 
a waiting list include Bartlesville, Clinton, Dewey, Lawton, McAlester 
and Sayre. Additionally, the Pawnee Indian Tribe has requested the 
Corps' assistance with flooding problems. Kansas communities on the 
waiting list include Iola, Liberal, and Medicine Lodge. We further 
support continued efforts under this program which will ensure that 
Lake Carl Blackwell near Stillwater, Oklahoma, is rehabilitated and 
modified to provide effective downstream flood protection. We urge this 
program be fully funded to the programmatic limit of $40 million.
    Likewise, the Emergency Streambank Stabilization Program provides 
quick response engineering design and construction to protect important 
local utilities, roads and other public facilities in smaller urban and 
rural settings from damage due to streambank erosion. The protection 
afforded by this program helps insure that important roads, bridges, 
utilities and other public structures remain safe and useful. By 
providing small, affordable and relatively quickly constructed 
projects, these two programs enhance the lives of many by providing 
safe and stable living environments. There is also a backlog of 
requests under this program. Counties in Oklahoma that have requested 
assistance under the Section 14 authority and are on a waiting list 
include: Blain, Caddo, Canadian, Choctaw, Cleveland, Garvin, Grady, 
Payne and Woods. Other Oklahoma communities needing assistance include 
Bartlesville and Shawnee. We urge this program be fully funded to the 
programmatic limit of $15 million, as is reflected in the President's 
budget.
    We also request your continued support of and funding for the 
Environmental Restoration Program (Section 1135 of the Water Resources 
Development Act of 1986). The Environmental Restoration Program is a 
relatively new program which offers the Corps of Engineers a unique 
opportunity to work to restore valuable habitat, wetlands and other 
important environmental features which previously could not be 
considered. Local interest has been expressed for potential 
environmental restoration projects located at Great Salt Plains 
Reservoir, Lake Arcadia, Lake Eufaula, Lower Illinois River, Mountain 
Fork River, Meadow Lake, North Canadian River and the Sequoyah National 
Wildlife Refuge. This program is providing significant benefit to the 
states of Kansas and Oklahoma. We urge this program be fully funded to 
the programmatic limit of $25 million.
    We also request your continued support of the Flood Plain 
Management Services Program (Section 206 of the 1960 Flood Control Act) 
which authorizes the Corps of Engineers to use its technical expertise 
to provide guidance in flood plain management matters to all private, 
local, state and Federal entities. The objective of the program is to 
support comprehensive flood plain management planning. The program is 
one of the most beneficial programs available for reducing flood losses 
and provides assistance to officials from cities, counties, states and 
Indian Tribes to ensure that new facilities are not built in areas 
prone to floods. Assistance includes flood warning, flood proofing and 
other flood damage reduction measures. Critical flood plain information 
is provided on a cost reimbursable basis to home owners, mortgage 
companies, realtors and others for use in flood plain awareness and 
flood insurance requirements.
    On a related matter, we would share with you that we are greatly 
concerned that the Administration has not requested sufficient funds to 
meet the increasing infrastructure needs of our nation. The 
Administration's request for $3.2 billion for the Civil Works budget is 
down $839 million (21 percent) from the fiscal year 1998 appropriation. 
Most troubling was the proposed cut in general construction funds, from 
$1.47 billion to $784 million (47 percent).
    At the Administration's proposed level of spending, the Corps of 
Engineers cannot efficiently complete ongoing flood control and 
navigation construction projects throughout the nation because there 
will be enormous shortfalls in funding. This will reduce the economic 
benefits to be generated from construction projects with significant 
economic impact such as rehabilitating antiquated locks and dams on our 
inland waterways and deepening ports and harbors.
    We urge you to work with the Leadership to ensure that sufficient 
resources are included in the fiscal year 1999 Budget Resolution to 
allocate funds for the Corps of Engineers at a level more in line with 
the real water resources development needs of the nation.
    Also concerning another related matter, we have deep concerns about 
the attempt to reauthorize the Endangered Species Act without 
significant beneficial reforms. If the bill is passed through as it has 
been reported out of the Senate Committee, it will be devastating to 
industry and the country as a whole. We urge you to take a hard look at 
S. 1180 and do the right thing in amending this bill to include 
reasonable reforms.
    Mr. Chairman, we appreciate this opportunity to present our views 
on these subjects.
                                 ______
                                 

           SOUTHEAST U.S. WATER RESOURCE DEVELOPMENT PROJECTS

           Prepared Statement of the City of Miami Beach, FL

    Mr. Chairman and Members of the subcommittee: The City of Miami 
Beach would first like to thank the members of the subcommittee for all 
their efforts in the past to provide support for the State of Florida's 
beaches and in particular, those of Miami Beach. Now, as you begin the 
difficult process of crafting the fiscal year 1999 Energy and Water 
Appropriations Bill, the city would like to bring to your attention an 
ongoing erosion problem for which a solution is desperately needed.
    Beaches are Florida's number one tourist ``attraction.'' Last year, 
beach tourism generated more than $16 billion dollars for Florida's 
economy and more tourists visited Miami Beach than visited the three 
largest national parks combined.
    In addition to their vital economic importance, beaches are the 
front line defense for multi-billion dollar coastal infrastructure 
during hurricanes and storms. When beaches are allowed to erode away, 
the likelihood that the Federal government will be stuck with 
astronomical storm recovery costs is significantly increased. The Army 
Corps of Engineers estimated that more than 70 percent of the damage 
caused to upland properties in Panama City Beach by Hurricane Opal 
could have been prevented if their pending beach renourishment project 
had been completed before the storm.
    The Florida Department of Environmental Protection estimates that 
at least 276 miles (35 percent) of Florida's 787 miles of sandy beaches 
are currently at a critical state of erosion. This includes the entire 
six miles of Miami Beach. As a result of the continuing erosion process 
and more dramatically, recent intense storms which have caused 
tremendous damage to almost all of the dry beach and sand dune 
throughout the middle segment of Miami Beach. Two years ago, most of 
the Middle Beach dune cross-overs were declared safety hazards and 
closed, as the footings of the boardwalk itself were in immediate 
jeopardy of being undercut by the encroaching tides. If emergency 
measures, costing approximately $400,000 had not been taken by the 
City, there would have been considerable risk of coastal flooding west 
of the dune line in residential sections of Miami Beach. As you can 
see, this example points to the commitment we as a beach community have 
to our beaches, but Federal assistance remains crucial. While we are 
thankful of the substantial commitment made by the subcommittee in the 
fiscal year 1998 Energy and Water Conference Report, there is still 
much work to be done. Our beaches must be maintained not only to ensure 
that our residents and coastal properties are afforded the best storm 
protection possible, but also to ensure that beach tourism, our number 
one industry, is protected and nurtured.
    In 1987, the Army Corps of Engineers and Metropolitan Dade County 
entered into a fifty year agreement to jointly manage restore and 
maintain Dade County's sandy beaches. Since then, Metropolitan Dade 
County has been responsible for coordinating and funding the local 
share of the cost for the periodic renourishment of our beaches.
    In order to ensure that adequate funding will continue to be 
available, the City of Miami Beach supports and endorses the 
legislative priorities and appropriation requests of Metropolitan Dade 
County, as they relate to the restoration and maintenance of Dade 
County's sandy beaches. Specifically, the City respectfully adds their 
strong support for the efforts of Miami-Dade County and wholeheartedly 
supports their fiscal year 1999 request for beach renourishment funds.
                                 ______
                                 

                Prepared Statement of Volusia County, FL

    On behalf of our citizens and fishermen, Volusia County, Florida, 
is requesting that the Subcommittee appropriate $4,034,000 from the 
U.S. Army Corps of Engineers (COE) Operations and Maintenance account 
to fund an 800-foot landward extension of the North Jetty of the Ponce 
DeLeon Inlet. This funding is essential to protect the existing North 
Jetty and the Inlet. A more detailed case history and description of 
the situation follows below.
    The Ponce DeLeon Inlet is located on the east coast of Florida, 
about 10 miles south of the City of Daytona Beach in Volusia County. 
The Inlet is a natural harbor connecting the Atlantic Ocean with the 
Halifax River and the Indian River North. The Ponce DeLeon Inlet 
provides the sole ocean access to all of Volusia County. Fishing 
parties and shrimp and commercial fisherman bound for New Smyrna Beach 
or Daytona Beach use the Inlet, as well as others entering for 
anchorage. Nearby fisheries enhanced by the County's artificial reef 
program attract both commercial and sport fisherman. Head boat 
operators also provide trips to view marine life and space shuttle 
launches from Cape Canaveral. In addition, there is a U.S. Coast Guard 
Lifeboat Station on the east shore of the Indian River less than a mile 
south of the Inlet.
    Unfortunately, the Inlet is highly unstable and, despite numerous 
navigation projects, continues to threaten safe passage for the charter 
boat operators and commercial fisherman who rely on the access it 
provides for their livelihood. Recreational boaters and Coast Guard 
operations are also at risk passing through this unstable inlet. The 
shoaling of the channels in the Inlet so restricts dependable 
navigation that the Coast Guard no longer marks the north channel in 
order to discourage its use. The Coast Guard continues to move the 
south and entrance channel markers and provides warnings that local 
knowledge and extreme caution must be used in navigating the inlet. 
More seriously, the Coast Guard search and rescue data for fiscal years 
1981-1995 show that 20 deaths have resulted from vessels capsizing in 
the Inlet, the direct result of the Inlet's instability, 147 vessels 
capsized and 496 vessels ran aground in the Inlet during the same 
period.
    The Federal interest in navigation through the Ponce DeLeon Inlet 
dates back to 1884 and continues to the present. The existing 
navigation project was authorized by the Rivers and Harbors Act of 
1965. The construction authorized by that Act, including ocean jetties 
on the north and south sides of the Inlet, was completed in July 1972. 
It became evident soon after completion of the authorized project that 
the project did not bring stability to the Inlet. A strong northeaster 
in February 1973 created a breach between the western end of the North 
Jetty and the sand spit the Jetty was connected to inside the Inlet. 
The breach allowed schoaling to occur that was serious enough to close 
boat yards and require almost $2 million worth of repairs, including 
extending the western end of the North Jetty.
    Under the existing maintenance agreement entered into upon 
completion of the construction, the COE periodically performs 
maintenance on the Inlet. Maintenance projects have included several 
dredging efforts, adding stone sections to the south side of the north 
jetty, extending the westward end of the North Jetty for the second 
time, and closing the North Jetty weir. The COE's last maintenance was 
dredging, completed on the entrance channel in January, 1990. In fiscal 
year 1998, the COE received a $3,500,000 appropriation for emergency 
maintenance on the North Jetty. Migration of the entrance channel 
undermined the North Jetty, seriously threatening its structural 
integrity. The fiscal year 1998 funds will be used to construct a 
granite rock scour apron for the 500 to 600 feet of where the Jetty is 
undermined.
    Current conditions in the Inlet require that the North Jetty 
undergo additional maintenance work as soon as possible. This 
maintenance project, as described below, is estimated to cost 
$4,034,000 to be funded from Operations and Maintenance.
    The COE in the Jacksonville District Office had originally 
determined that the North Jetty must be extended 800 feet landward and 
it must be completed by 2002. However, recent examination has concluded 
that the work must be completed as soon as possible. If the 800-foot 
landward extension is not completed as soon as possible, the COE 
estimates that the erosion it is designed to prevent will cause 
outflanking of the North Jetty. Continued outflanking of the west end 
of the North Jetty could create a new inlet for the Halifax and Indian 
Rivers resulting in major changes to the Ponce DeLeon Inlet. The 
resultant shoaling of both the north and south channels, as well as 
changes to the entrance channel, would make passage through the inlet 
extremely dangerous and unpredictable.
    The Ponce DeLeon Inlet presents a serious engineering challenge; 
the success of which is measured in terms of human life and vessel 
damage. The existing project has failed to stabilize the Inlet. 
Extending the North Jetty is the first step toward correcting the 
failure and meeting the challenge. Funding the 800-foot landward 
extension of the North Jetty in fiscal year 1999 is critical to the 
safe passage of the commercial and recreational boaters in Volusia 
County. In addition, providing these funds at this time is likely to 
prevent the need to a much more substantial maintenance project in the 
near future.
    For purposes of providing a clear picture of the extent of the 
problem in the Inlet, it is important to note that the COE is 
completing a feasibility study regarding the restabilization of the 
Ponce DeLeon Inlet. The COE is likely to seek a contingent 
authorization of a new project in the Inlet in the next Water Resources 
Development Act. The new project is designed to extend the South Jetty 
oceanward 1,000 feet. The COE anticipates that the construction of the 
jetty extensions will help stabilize the Inlet and reduce future 
maintenance costs.
    Thank you for your consideration of this request.
                                 ______
                                 

 Prepared Statement of Ralph O. Clemens, Jr., President, Coosa-Alabama 
                     River Improvement Association

                                summary
    Mr. Chairman and distinguished Committee members: his statement 
includes the following:
    (A) A plea to exercise caution and due deliberation before reducing 
funds for our Nation's transportation infrastructure;
    (B) A request for support in the following areas:
  --O&M funding in the Corps of Engineers' budget for the Coosa-Alabama 
        River Basins as well as Mobile Harbor;
  --Funding for an investigation of alternatives to improve the 
        reliability of the navigation channel below Claiborne Dam on 
        the Alabama River;
  --Reopening the Coosa River Navigation Project;
  --Resisting increases in fuel tax on the Inland River navigation 
        industry;
  --Amending the Endangered Species Act of 1973 with reasonable and 
        effective measures to protect our citizens as well as the 
        environment;
  --Supporting the Sturgeon Conservation Plan in the Mobile River Basin 
        as developed by the Alabama-Tombigbee River Coalition and the 
        Fish and Wildlife Service.
                           expanded statement
    The Coosa-Alabama River Improvement Association represents a large 
and diverse group of private citizens and political and industrial 
organizations spread from Rome, Georgia to Mobile, Alabama. Our 
objective is to develop the Coosa-Alabama Waterway as an economic 
benefit for our region as well as the Nation. Our members consist of 
shippers, towboat operators, businessmen, bankers, and a variety of 
other private individuals who have an interest in the development of 
our region. Some are elected officials and their constituents from the 
twenty-three municipalities and nineteen counties along our waterway. 
These members work diligently to develop our waterway into a productive 
part of the river infrastructure of our State and Nation.
    We are alarmed by the Administration proposal to slash the U.S. 
Army Corps of Engineers' Civil Works funding for fiscal year 1999 by 20 
percent, literally undermining the waterway transportation 
infrastructure of this Nation. America's navigable waterways, ports, 
flood protection, water supply, environmental restoration, 
hydroelectric, and other water resources programs are indispensable to 
our economic development, national security, and general well-being. 
These programs return far more in public benefits than they cost. A 
top-notch navigation system serves both domestic and international 
commerce and is a driving force behind the national economy, accounting 
for more than two billion tons of the nation's internal and foreign 
commerce every year. In Alabama alone, over 60,000 jobs depend on 
industries that use the inland waterways. We cannot allow this valuable 
infrastructure to deteriorate. We must maintain and improve the 
waterways so our economy can continue to grow.
    On the Coosa-Alabama system, the Corps of Engineers manages many 
projects that support navigation, hydropower, and recreational 
activities so critical to our region's economy. The first priority is 
to maintain those projects by providing sufficient funding in 
accordance with the following:

------------------------------------------------------------------------
                                            President's    Association's
                 Project                      budget      budget request
------------------------------------------------------------------------
Alabama-Coosa River, AL (Includes
 Claiborne L&D).........................      $4,900,000  \1\ $4,900,000
Miller's Ferry L&D......................       5,835,000       5,835,000
Robert F. Henry L&D.....................       3,858,000       3,858,000
Lake Allatoona, GA......................       4,900,000       4,900,000
Carters Lake, GA........................       4,600,000       4,600,000
Lower Alabama River Study...............  ..............     \2\ 500,000
                                         -------------------------------
      Total Coosa-Alabama...............      22,300,000      22,800,000
Mobile Harbor...........................      21,000,000      21,000,000
                                         -------------------------------
      Total.............................      43,300,000      43,800,000
------------------------------------------------------------------------
\1\ Includes dredging from the mouth of the Alabama River through
  Claiborne L&D to Miller's Ferry. Coosa River not included.
\2\ First year funding of a three-year $1.4 million feasibility study.

    We must revitalize the economically depressed Alabama River Basin. 
Even in today's relatively good economic climate, the counties on the 
River between Montgomery and the mouth 40 miles above Mobile are 
experiencing unemployment between 8 and 12 percent. We must create 
jobs. One of the ways is to make the Alabama River more attractive to 
prospective industries by increasing the navigation reliability below 
Claiborne Dam. It can be done. A Corps study of May 1997 cited a 
benefits-to-cost ratio of over 2 to 1 if the training works below 
Claiborne are improved. Another Corps study, a draft Navigation report 
in support of the Comprehensive Basin Management Study, stated that one 
of the reasons river-related industries are not locating in the Alabama 
River Basin is the perception the river is unreliable, i.e., the 
authorized depth of nine feet is available on the average only 65-70 
percent of the year. Failure to make every effort to create an 
environment in which river-related industries would want to bring in 
new jobs to this area is unconscionable. Therefore, we ask Congress to 
approve $500,000 for the first year of a feasibility study to improve 
the navigation reliability on the Lower Alabama River.
    A major objective of our Association is the completion of a 
navigable waterway from Mobile to Rome, Georgia. The history of the 
Coosa River Project is well known to this committee, but the proposal 
is well in line with investment in infrastructure and the creation of 
jobs and economic opportunity throughout our region. The Pre-design 
Engineering Surveys are complete, so one of the most time-consuming 
requirements of the project is already on the shelf. We are well aware 
of the restrictive funding for such an undertaking, but ask the 
Committee to recognize that completion of such a project is one of the 
largest and most rapid generators of jobs currently available. We owe 
it to the people of the Coosa-Alabama River Basin, the states of 
Alabama and Georgia, and the entire region to maintain the vision of 
completing the waterway.
    Another mechanism to make the river system attractive to potential 
users is to keep the cost of shipping via waterways down. The 
President's Budget for fiscal year 1999 does not currently include a 
proposal to increase fuel tax, but we are well aware some in the 
Administration think such a tax is a good idea. We have in the past 
listed some of the negative aspects of such a proposal, so suffice it 
to say here that an increase in user fuel tax will have detrimental 
effects in the short run on consumer prices and the trade balance, and 
in the long run on the federal-private partnership and maintenance of 
the waterways system. As one of the most efficient modes of 
transportation this country possesses, the waterways system needs more 
incentive for investment, not obstacles and disincentives.
    One of the national issues that affect the inland waterways system 
is environmental regulation. We cannot support the current proposal to 
revise the Endangered Species Act (ESA), Senate Bill 1180, sponsored by 
Sen Kempthorne. The bill has very little to offer business, industry, 
and private landowners. Two provisions in particular are of great 
concern: protection of ESA given to candidate species and the 
elimination of a requirement to designate a critical habitat 
concurrently with the listing process. Both have the potential of 
shutting down navigable waterways without due regard to the economic 
impact such decisions would bring. These and several other provisions 
in S. 1180, e.g., the peer review process and unfunded mandates to 
federal agencies, will not serve business and private property owners. 
We strongly urge the Committee members to oppose S. 1180 until a full 
hearing on all of the issues associated with this proposal are heard 
and substantive changes are made to address the concerns of business 
and private property owners.
    We ask the Committee to continue funding the Sturgeon Conservation 
Plan in the Department of Interior budget as the best and most 
expeditious way to save sturgeon in the Mobile River Basin. The Plan, 
as developed by the Alabama-Tombigbee Rivers Coalition and the U.S. 
Fish and Wildlife Service, is an excellent example of the compromise 
and cooperation required in the economic-environment debate.
    We sincerely appreciate the opportunity to present our views and to 
thank you for your strong support of the Nation's waterways.
                                 ______
                                 

   Prepared Statement of R. Max Peterson, Executive Vice President, 
        International Association of Fish and Wildlife Agencies

    The International Association of Fish and Wildlife Agencies was 
founded in 1902 as a quasi-governmental organization of public agencies 
charged with the protection and management of North America's fish and 
wildlife resources. The Association's governmental members include the 
fish and wildlife agencies of the states, provinces, and Federal 
government of the U.S., Canada, and Mexico. All 50 states are members. 
The Association has been a key organization in promoting sound resource 
management and strengthening Federal, state, and private cooperation in 
protecting and managing fish and wildlife and their habitats in the 
public interest.
                      bureau of reclamation (bor)
    Over its 96-year history, the BOR has played a vital role in 
harnessing and managing water resources for a young and growing Western 
United States. The fulfillment of those high national priorities has 
not always been accomplished with a long-term vision for the health of 
fish and wildlife resources within BOR project design, construction and 
operational practices. Thus, the development of high priority public 
services has sometimes proven highly detrimental to other public 
values, including certain fish and wildlife resources. The agency's 
publicly stated policy is to sustain the health and integrity of 
ecosystems and protect the environment as it goes about the important 
work of providing dependable sources of water. The agency has embarked 
upon a refreshing new mission that better balances these sometimes 
competing uses of limited natural resources. It is, therefore, 
eminently satisfying to the Association to witness and strongly support 
BOR's efforts to refocus considerable financial resources on 
ameliorating historical water development-related damages to fish and 
wildlife and their habitats.
    California Bay-Delta Ecosystem Restoration.--The BOR seeks $143.3 
million to continue this work. This program, which responds to 
Congressional direction through the California Bay-Delta Environmental 
Enhancement and Water Security Act, provides vital Federal cost-sharing 
dollars for ecosystem restoration in California's Bay-Delta. This 
effort is based on collaborative efforts among several Federal agencies 
and the State of California. Restorative efforts such as fish 
screening, flood plain habitat restoration, instream flow provisions 
and watershed management, typify the work being accomplished. The 
Association fully supports BOR's request for $143.3 million for this 
work for fiscal year 1999.
    Central Valley Project.--Created by Congress in the Central Valley 
Project Improvement Act, the CVP Restoration Fund is expected to 
collect just over $49 million from rate payers for fish and wildlife 
management and development work in the Central Valley Project area of 
California. The BOR is seeking a Congressional appropriation of $49.4 
million from the Fund to undertake important anadromous fisheries 
habitat work, water acquisition, fish screening and other works that 
are necessary to continue efforts to restore the fish and wildlife-
related damages created by this Federal project. The Association 
encourages the Congress to fully fund this work at the requested level 
of $49.4 million.
    Endangered Species Recovery Implementation.--The BOR is requesting 
a total of $15 million for endangered species recovery work spread 
among four BOR Regions. This is six percent above the 1998 
appropriation. This represents a modest increase, particularly when 
viewed in the context of the geographical areas affected by prior BOR 
activities and the complex of imperiled fish, wildlife and essential 
habitats that need attention as a consequence of these earlier actions. 
A significant proportion of the BOR's request for work in the Upper 
Colorado Region and Lower Colorado River Region is directed at 
endangered species recovery. As just one example of the important 
projects planned for fiscal year 1999, in this instance in the Upper 
Colorado, is the work on the Platte River. This multi-agency 
cooperative program is essential to restore endangered and threatened 
species and the requested $2.5 million would allow implementation 
activities such as water conservation and critical habitat restoration. 
The request for $15 million for endangered species recovery projects 
proposed by the BOR for fiscal year 1999, is deemed essential by the 
Association and is strongly supported.
    Pacific Northwest.--As reported by the BOR, ``perhaps the region's 
largest and most visible challenge is the restoration of the anadromous 
fishery.'' The Association concurs with this assessment. The fish and 
wildlife related request of $16.6 million, including $13.1 million for 
Pacific salmon recovery, is supported by the Association.
    Water Reclamation and Reuse.--As the population of the West 
continues to grow at remarkable rates, competition will continue to 
intensify among the many important uses of water. Renewable natural 
resources, including fish and wildlife, are directly dependent upon the 
availability of water. To meet citizens' demands for water and water-
related public services, including healthy natural resources, will 
require intelligent use, conservation and reuse of the limited water 
supplies. The Association is pleased to support efforts designed to 
conserve and reuse water and supports the BOR's fiscal year 1999 
request for $37 million for these purposes.
    Wetlands Development.--An important component of habitat 
restoration within BOR's management area, as elsewhere, is associated 
with wetland habitat. The Association is pleased to note, and to 
support, the increase requested by the BOR of $7.3 million for wetlands 
conservation work.
                    tennessee valley authority (tva)
    TVA requests $76.8 million in appropriations for its nonpower 
programs for fiscal year 1999. The fiscal year 1999 proposal includes 
$70 million for continuing programs, the same amount as the 
appropriation for fiscal year 1998, plus $6.8 million for 
preconstruction activities on a project to replace the lock at 
Chickamauga Dam in Chattanooga, Tennessee. The Association strongly 
supports this request.
    TVA has established itself as a global leader in tailwater 
restoration and technology and has established the national standard 
for such activity. The Association commends TVA for these efforts.
    The Association recommends that TVA actively support and 
participate in the States' Clean Stream Initiative with the Office of 
Surface Mining (OSM) to complete projects in the TVA service area. 
These state-Federal-private cooperative projects are engaged in 
restoring fish, aquatic life, recreational and economic opportunity in 
watersheds damaged by acid mine drainage from past coal mining 
activities.
    The Association recognizes the importance of boating, fishing, 
camping, hunting, wildlife observation, and other conservation-oriented 
activities at Land Between the Lakes (LBL) and supports funding of $6.9 
million for these activities, the same amount as fiscal year 1998. Four 
million dollars in proceeds is expected from user and other sources for 
a total of $10.9 million.
    We are encouraged that TVA has undertaken a serious review of 
public lands along TVA reservoirs and rivers to insure these properties 
are not utilized in such a manner as to exclude reasonable public use. 
Further, we support current and future planning efforts that insure 
conservation and protection of riparian habitat.
    The Association notes that discussions continue regarding TVA 
programs. TVA has utilized appropriated dollars to improve the 
environmental quality of life in the Tennessee Valley. We urge careful 
study of the impacts of funding reductions should they be proposed in 
upcoming years.
                      u.s. army corps of engineers
    The fiscal year 1999 budget proposal for Civil Works Appropriations 
of the U.S. Army Corps of Engineers is $3.4 billion, of which $3.2 
billion is requested in appropriated funds and $0.2 billion would be 
financed through non-Federal funds and trust fund receipts up from 
$3.78 billion in fiscal year 1998. The budget proposal reflects 
continued commitment to proper management of our natural resources, 
through dedication of $671 million to environmental programs (a $79 
million increase over fiscal year 1999) and through $454 million in 
contributions to intergovernmental environmental programs. This 
represents a significant increase from the $520 million funding level 
of 1998. The Association applauds the fact that many of our 
recommendations for recent fiscal years have been incorporated by the 
Corps in their succeeding year's budget request.
    The Association is excited by the potential for significant 
environmental accomplishments in restoration, conservation, and 
sustainable management of water, fish, and wildlife resources through 
the Administration's new Clean Water Initiative. The Association 
remains intrigued with the proposal and eagerly awaits further details 
concerning implementation of such a broad scale, multi-agency approach; 
early reviews of the Action Plan appear encouraging. The Association is 
especially pleased with Federal plans to partner with local, state and 
tribal agencies and with the watershed management emphasis. The States 
are interested in forging a true partnership through sharing ideas, 
plans, design, implementation structure and enforcement in establishing 
a unified, cooperative approach to improving water quality.
    As an example of an earlier recommendation, we had encouraged the 
Corps to expedite design and grant administration associated with 
Section 1135 projects as provided for within the Water Resources 
Development Act of 1986. We are pleased the Corps has taken steps to 
expedite the approval process for those projects through delegation to 
Division Commanders. We note the fiscal year 1999 budget contains a 
request for $5.3 million is far less than the $21.175 million 
appropriated in fiscal year 1998. We question whether this decrease, as 
well as decreases throughout the budget, especially in the construction 
account, provide adequate funding to meet the Corps environmental and 
other responsibilities while retargeting that funding to other new 
programs. As of December 31, 1997, 19 projects were completed, 31 were 
under construction, planning or design and 47 were in the study phase. 
The Association has previously expressed a concern that some projects 
remain in the feasibility phase too long. We believe the Corps provided 
a sincere attempt to address this problem in 1997. However, only 16.5 
percent of these projects have reached completion, and the Association 
fears the rate of project completions seen in previous years will slow 
or stop due to budgetary constraints posed by the fiscal year 1999 
request. The Association questions the overall effectiveness of the 
Section 1135 projects if funding is restricted to the fiscal year 1999 
level of $5.3 million.
    The Association encourages the Corps to cooperate, coordinate, and 
develop civil works and restoration activities with State fish and 
wildlife agencies. The State fish and wildlife agencies are generally 
aware of where Corps projects could most effectively enhance the status 
of fish and wildlife resources through improvements to habitat. An 
example of this partnership is the successful Aquatic Ecosystem 
Restoration program authorized by the Water Resources Development Act 
of 1986 (proposed funding level: $2 million) which is supported by the 
Association.
    Our Association particularly appreciates the leadership of Congress 
in providing funding for mitigation projects. We are especially pleased 
that the Corps is requesting, and the Association supports, $127 
million for Columbia River Fish Mitigation in Washington, $3.4 million 
to complete mitigation of losses associated with the Tennessee-
Tombigbee Waterway in Alabama, $3.9 million for Missouri River fish and 
wildlife mitigation in Iowa, and $363,000 to mitigate fish and wildlife 
issues in the Yazoo Basin in Mississippi. The Association also strongly 
encourages Congress to appropriate necessary funding within the Corps 
budget to facilitate the mitigation feature of the West Tennessee 
Tributaries Project, which is needed to satisfy legal constraints to 
enable initiation of river restoration work within this significant 
watershed. We recommend that the Congress explore the need for generic 
legislative direction to the Corps to ensure that the older projects 
include the authority for fish, wildlife, water quality, and sustained 
minimum flow mitigation and enhancement, and if legislation is 
necessary, to act on that need. Further, the Association recommends 
that mitigation funding for ongoing projects be listed as a separate 
line item within the Civil Works Appropriations. This action would 
separate the funds from routine operations and maintenance and better 
facilitate the separate states' ability to identify the funds and seek 
support for the projects.
    The Association is also generally supportive of the funding 
requested for some of the large river restoration projects. The 
Association supports the fiscal year 1999 request of $27.3 million for 
restoration of meanders and wildlife habitat on the Kissimee River and 
$75 million to restore water flows through the Everglades and other 
areas in Florida. It is in the best interest of the country to restore 
the habitat and hydrologic components of these rivers that have been 
significantly altered under previous Corps projects.
    With regard to the Corps' regulatory authority under the Clean 
Water Act of 1972, we strongly support the request of $117 million for 
implementation of a streamlined program to process, review, issue 
permits and provide an appeals procedure for the permitting of 
activities in waters of the United States, including wetlands 
associated permits and jurisdictional determination. Furthermore, the 
Association believes a strong partnership program with state agencies 
affords the best opportunity for balanced conservation of aquatic 
resources.
    We support activities designed to enhance our environment. The use 
of dredge material to restore habitat in the Chesapeake Bay in an 
excellent example. We support continued funding for this project.
    The Corps' request of $20 million to develop aquatic plant and 
animal (zebra mussel) control methods and strategies, evaluate 
ecological factors affecting control, and coordinate technology 
transfer is strongly supported. The Corps is the only Federal Agency 
directed to conduct research and development for the control of zebra 
mussels and their effects on public facilities. These mussels are 
having significant adverse effects on native shellfish and natural 
habitats.
    The Association recommends that the Corps continue in partnership 
with State fish and wildlife agencies to initiate applicable 
restoration, mitigation and conservation projects. For example, we 
request the Corps continue to participate with State agencies and non-
Federal interests in the North American Waterfowl Management Plan 
through wetlands conservation, wetlands identification, and wetlands 
acquisition. Additionally, we support ongoing coordination of 
activities conducted under the Coastal America initiatives.
    The Association recommends that the Corps continue to work closely 
with and attempt improvement of the relationships between the Corps and 
the State fish and wildlife agencies as well as the state water 
resources agencies to identify priority restoration, mitigation and 
remediation projects needing the Corps' attention. In particular, we 
encourage the Corps to participate in funding projects to meet the 
objectives of the North American Waterfowl Management Plan. Further, we 
recommend that the Corps become a partner in the Appalachian Clean 
Stream Initiative to restore streams damaged by acid mine drainage.
              federal energy regulatory commission (ferc)
    The Association recommends Congressional appropriation of $5 
million to allow FERC to reimburse state fish and wildlife agencies for 
studies and reviews associated with hydropower relicensing activities. 
Section 1701 of the Federal Power Act was amended in 1992 specifically 
to authorize reimbursement to states for this work. FERC has never 
sought appropriated funds for this purpose. If appropriated funds 
cannot be provided, FERC should be instructed to require reimbursement 
for this work by the licensee. Otherwise, projects will be proposed for 
relicensing without adequate studies of appropriate fish and wildlife 
licensing requirements. This invites conflict and possibly more 
stringent requirements, including water releases, than would be needed 
if more adequate studies were made.
                                 ______
                                 

 Prepared Statement of Jan Jones, Executive Director, Tennessee River 
                           Valley Association

    Mr. Chairman, Members of the Committee, thank you for allowing me 
the opportunity to present testimony for your consideration. I am Jan 
Jones, Executive Director of the Tennessee River Valley Association 
(TRVA), a regional, non-profit, non-partisan, economic development 
association serving the seven states which comprise the Tennessee 
Valley. I respectfully submit this testimony on behalf of the 
approximate 350 broad-based membership of TRVA. In addition, some of 
our members have written personal letters to this distinguished 
Committee and copies are attached to this statement.
    TRVA members appreciate the wisdom historically of this Committee 
in funding projects that have served to improve the Nation's economy, 
sustain and improve our Nation's waterway infrastructure and enhance 
the quality of life for its people. As taxpayers, we appreciate the 
problems of dwindling budgets, limited resources and the need to make 
every dollar count. For that reason, TRVA members have asked me to 
submit this statement to express our concerns and visions regarding two 
critical issues under consideration by this Committee.
    Historically, the Tennessee River Valley Association has been a 
supporter, constructive critic, partner and friend of the Tennessee 
Valley Authority. We recognize the tremendous economic impact that TVA 
has made on the Valley, on navigation, business and industry, 
recreation and power production. In the past we have recommended 
various changes in direction for TVA. An agency such as TVA must be 
responsive to the people it serves, and the TRVA has traditionally 
brought the people's concerns to TVA. This has been a productive 
partnership. Today we recognize that major change is inevitable for TVA 
and this change could have significant impact on Valley citizens. 
Therefore, TRVA respectfully submits the following positive ideas for 
consideration by this Committee as it endeavors to formulate plans 
regarding the future of TVA and its non-power program.
         issue one: the future of tva and its non-power program
    Since its creation by the Congress in 1933, TVA has championed the 
wise use of the natural resources of the Tennessee Valley. It harnessed 
a raging, non-navigable river with a series of locks and dams which 
improved navigation, prevented devastating floods and offered hope of 
employment to thousands of destitute people. Today, TVA's integrated 
water control system of dams and reservoirs has transformed the 
Tennessee River and its tributaries into a useful, unified river 
system. Hydropower generation was made possible because of the series 
of dams and lake impoundment areas.
    Funds have been provided to TVA by Congress to operate and maintain 
the Tennessee River system, provide for navigation, water and land 
resource development, flood control, etc. Congressional funding is also 
provided to the U.S. Army Corps of Engineers to provide similar 
services for the other river systems throughout the Nation. The Corps 
and TVA have worked in an excellent cooperative partnership on the 
Tennessee River. The Corps provides the resources and personnel to 
operate the locks. Through a joint effort, TVA provides the primary 
funding for maintenance and repair of the locks, dredge work, mooring 
cells, etc.
    In recent months it has been suggested that TVA's non-power 
programs should be transferred to the Corps. This idea immediately 
raises the question, ``Where would the savings be for the taxpayer?'' 
The Corps would require additional monies in its operation budget to 
assume the responsibilities currently under the auspices of TVA. In 
fact, questions have been raised regarding the amount of money that 
would be necessary should such a change be effected.
    Therefore, the Tennessee River Valley Association supports 
continued funding for TVA's non-power programs. But, I realize that the 
long-term future is not promising. It is important, even critical, for 
this region and the Nation that the current level of activity relative 
to the Tennessee River be continued, and we are confident that this 
distinguished Committee concurs. However, the real question we must all 
struggle with is how will these programs continue to be funded.
    In the event that TVA's non-power program is not funded by 
Congressional appropriation, we earnestly encourage this Committee to 
consider and address the following points:
  --Which programs would continue to be funded and at what level?
  --Who will decide which programs survive and how will this decision 
        be made?
  --What other agency or organization should or could continue these 
        programs?
  --If TVA is required to fund these programs from existing or power 
        funds, what oversight mechanism will be provided to ensure that 
        the level of activity of these programs are carried out in the 
        public interest?
  --Is TEA's current structure adequate or prepared to handle such 
        dramatic program change?
  --If TVA is required to fund these programs from existing or power 
        funds, and if in the future TVA were no longer a federal agency 
        or was privatized, what then would happen to the non-power 
        programs?
    The potential withdrawal of Congressional funding for TVA's non-
power programs, coupled with the financial pressures of electric 
utility restructuring, has raised serious questions about TVA's role as 
the manager of the Tennessee River. As the recipient of Congressional 
funding for these non-power activities, TVA historically was not forced 
to choose between the competing interests of power rates and the public 
interest programs associated with the Nation's fifth largest river 
system, the Tennessee River. Federally appropriated funds to TVA 
annually ensured a clear separation of ratepayer dollars and taxpayer 
dollars. A lack of appropriated funds will require TVA ratepayers to 
fund programs which are funded by federal dollars in other portions of 
the Nation. Under the current TVA management structure, the ratepayers 
would have no mechanism for input into decisions regarding the level of 
activity for the current non-power programs. The interest of the power 
program, with its inherent focus on ``rates'', coupled with new 
pressures of power utility restructuring, will be pitted against the 
interest of flood control, navigation, recreation, water quality, 
public land stewardship, etc.
    There is a need to isolate and make transparent revenues from the 
public waters of the Tennessee River. The Tennessee River and its 
watershed should and could be allowed to fund the essential programs of 
the current non-power programs. The essential nature of an integrated 
system at TVA need not be destroyed but the interest of the non-power 
programs must be protected against the pressures of a much larger and 
more costly power program. Therefore, I propose that the Congress move 
forward with a bold, new approach to funding the non-power programs of 
TVA.
    I propose that Congress direct that TVA's hydropower generation 
revenues be recommitted to address the original charter of TVA, to 
provide for flood control, navigation, water and land resource 
development/management, recreation, water quality, lake impoundment 
management, etc. Hydropower revenues could finance all of the non-power 
programs, as well as provide for capital outlay projects such as lock 
improvement/replacement for the lock at Chickamauga Dam.
    To assure that the hydropower revenues are allocated at a 
sufficient level to maintain the integrity of the aforementioned 
programs, I recommend that Congress establish an independent Board or 
Council to formulate recommendations to TVA and the Congress on how the 
revenues are to be allocated. This Board or Council would be similar in 
nature to the Inland Waterways Users Board which serves in conjunction 
with the Inland Waterways Users Trust Fund. Such a Board/Council would 
balance the need for providing low-cost hydropower for economical rates 
with the economic and public interest of other river related 
activities. The Board/Council would also allow for the continued 
integrated nature of TVA's power program but protect the public 
interest from being eclipsed by the economic pressures of the power 
program.
    This proposal is timely. It would build on past successes and do so 
at no cost to the U.S. taxpayer. This proposal is in concert with the 
historical vision of multipurpose development of rivers * * * the idea 
of wrapping a system of dams into one project to address navigation, 
flood control, river basin management, recreation and economic 
development. It is time to forge a stronger bond between hydropower 
generation and resource development. In other words, let the river pay 
for itself!
    Mr. Chairman, Members of this Committee, the Tennessee Valley 
Authority is very complicated in structure and programs, both power and 
non-power. These programs have tremendous impact on the lives of 
millions of people. I sincerely urge you to consider all ramifications 
associated with any change in TVA's funding structure before making a 
final decision. It is time to create a permanent fix for the funding of 
TVA's non-power programs and at the same time provide true savings for 
the taxpayer. We have a major opportunity today to make this innovative 
move to assure that critical programs continue to provide the region 
and the Nation with innovative ways to manage and conserve the 
resources of a major river system.
            issue two: kentucky lock addition--corps funding
    We sincerely request that this Committee include additional monies 
to the U.S. Army Corps of Engineers for fiscal year 1999 in the amount 
of $11.5M for the Kentucky Lock Addition Project. The Kentucky Lock 
Feasibility report was completed in 1992. The project was authorized 
for construction in WRDA 96. The funding provided for fiscal year 1998 
of $4M will be used to continue WES model studies, lock DM, P&L 
railroad relocation DM, update the project cost estimate and subsurface 
exploration. TVA transmission tower relocations will be the 
construction start this year. Actual construction of the project could 
be complete as early as the year 2007, but funding constraints will 
push this date further into the future and would also tend to increase 
the overall costs associated with the project. Congressional guidance 
and funding of $11.5M for fiscal year 1999 is necessary to continue 
this much needed project.
    Without a new lock in place, delays at the existing lock are 
expected to average 8.5 hours per tow by the year 2010 resulting in an 
increased transportation cost in excess of $24 million per year. 
Average annual benefits attributed to the new lock are $55.1M with a 
benefit/cost ratio of 2.5. With increased forecasted traffic levels, 
the average annual benefits and benefit/cost ratio should increase. An 
additional benefit of the construction project would be the addition of 
approximately 500 construction jobs.
    We earnestly encourage this Committee to support funding to the 
Corps in the amount of $11.5M for the Kentucky Lock Addition Project 
for fiscal year 1999.
    Mr. Chairman, Members of the Committee, I thank you for the 
opportunity to present this testimony for your information and 
consideration. I would welcome any questions or request for additional 
information that you might have.
                                 ______
                                 

                        Letter From Donnie Hall

                             Hunter Marine Transport, Inc.,
                                      Nashville, TN, March 2, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Senator Domenici: This letter serves as endorsement of the 
Tennessee River Valley Association. As an operator on inland rivers and 
in the Tennessee River valley, we strongly believe the work conducted 
by the Association is vitally important to our continued success. Not 
only does the organization serve the needs of our company and other 
waterways operators like us, but (in an indirect manner) it also serves 
the economic interests of our entire region. Through its lobby for 
continued improvement in safety and navigation issues, we can be 
assured that the voice of the valley's commercial interest will be 
heard.
    As the 1999 budget and appropriations battles unfold in our nations 
capitol, the efforts of the TRVA are needed now more than ever. Under 
the ever-present threat of dam closures and decreased channel 
maintenance, the Tennessee River Valley Association serves as the voice 
of prudence and common sense. We at Hunter Marine Transport, Inc. 
wholeheartedly endorse their efforts to maintain funding for the 
Tennessee Valley Authority and Army Corps of Engineers projects, such 
as Chickamauga and Kentucky Lock Projects.
    Through the efforts of the TRVA, America's inland waterways remain 
the safest and most productive in the world.
            Respectfully,
                                               Donnie Hall,
                                  Director of Safety and Personnel.
                                 ______
                                 

                        Letter From K.A. Wheeler

                                 Midland Enterprises, Inc.,
                                 Cincinnati, OH, February 26, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U. S. Senate, Washington, DC.
    Dear Senator Domenici: I am writing with regard to congressional 
support for two water development projects which are critical to the 
Tennessee River:
    First, support for the U.S. Army Corps of Engineers fiscal year 
1999 funding of $11.5 million for the Kentucky Lock addition. This 
project, which was authorized in fiscal year 1998, nevertheless is 
completely absent from the Administrations fiscal year 1999 Budget 
Request. Construction of the addition to Kentucky Lock is vital to 
continued growth of commerce on the Tennessee River. My company, which 
is a major operator of towboats and barges on the Tennessee River, has 
seen a significant growth in business related to low cost river 
transportation over the past several years. These industries will be 
deprived of this national asset if the construction of Kentucky Lock 
addition is delayed, since the long waiting times to transit this lock 
offset the savings from shippers from low cost river transportation.
    Secondly, the construction of a new Chickamauga Lock to replace the 
present obsolete single barge lock which is now scheduled to close in 
the year 2005, due to structural failure. If this navigation lock is 
allowed to close, the entire upper reach of the Tennessee River above 
Chattanooga, Tennessee will no longer have access to commercial water 
transportation. Several large facilities which currently have major 
industrial sites along the Tennessee River in this area will be forced 
to close or shift to higher cost and less environmentally friendly 
modes of transportation. This is the only major reach of river in the 
entire inland waterway transportation system that is currently 
threatened with complete extinction by virtue of a lock closure.
    The United States currently enjoys a distinct economic advantage 
over other countries by virtue of its magnificent inland waterway 
transportation system which permits the movement of bulk material at 
the lowest possible costs. Both of these projects are vital to 
maintaining this competitive advantage that we now enjoy. I can assure 
you that other countries with similar river systems are rapidly 
offsetting this competitive advantage; unless we invest in the 
infrastructure necessary to maintain our river system the best in the 
world we will soon find ourselves unable to compete in world markets.
    Thank you for your consideration in supporting both of these 
projects.
            Yours truly,
                                              K.A. Wheeler,
                                                    Vice-President.
                                 ______
                                 

                        Letter From Tim C. Jones

                                Burkhart Enterprises, Inc.,
                                      Knoxville, TN, March 2, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Mr. Domenici: I am writing to express our continued support 
for funding of the Chickamauga Lock project and operation and 
maintenance of the Tennessee River as part of TVA's non-power programs. 
Also, I support the U.S. Army Corp of Engineers fiscal year 1999 
funding and the additional funding for the Kentucky Lock Project. Any 
change in the integrity of our Inland River System would drastically 
effect our whole economy.
            Sincerely,
                                              Tim C. Jones,
                                                   General Manager.
                                 ______
                                 

                       Letter From Leamon B. Lane

                                          R&W Marine, Inc.,
                                    Paducah, KY, February 24, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Senator Domenici: R&W Marine is a major carrier on the inland 
river system and as a member of the Tennessee River Valley Association, 
we are proud to participate in maintaining and developing the Tennessee 
and Cumberland River systems for commercial navigation. We believe that 
these two river systems are a vital link in transporting goods to 
national and international markets via our inland waterway system.
    We believe it is vital to continue TVA's river management system 
and it must remain integrated. Transfer or privatization would have a 
drastic negative impact. Also, the Corp's budget is being severely cut 
and there are no other provisions for maintaining the Tennessee and 
Cumberland rivers. We fully support the Corps of Engineer's Nashville 
District funding request for fiscal year 1999 of $55.167 million plus 
additional $11.5 million, for the Kentucky Lock project.
    We also support the TVA's request of $76.8 million, which includes 
$57.8 million for land and water management and $6.8 million for 
Chickamauga Lock.
    This region of our country greatly needs your representation and 
support. We respectfully hope we can count on you.
            Sincerely,
                                            Leamon B. Lane,
                                                           Manager.
                                 ______
                                 

                      Letter From William H. Dyer

                             Tennessee Valley Towing, Inc.,
                                    Paducah, KY, February 18, 1998.
Hon. Pete V. Domenici,
U.S. Senate,
Washington, DC.
    Dear Senator: We wish to enlist your support of Tennessee River 
Valley Association's objectives. They are as follows:
  --Support TVA's budget request for sufficient funds to continue their 
        land and water management functions plus the $6.8 million for 
        Chickamauga Lock.
  --Support the Corps of Engineers Nashville District fiscal year 1999 
        funding of $55.167M and the $11\1/2\ million to keep Kentucky 
        Lock construction on schedule.
    The maintenance and upgrading of our river infrastructure is of 
utmost importance to our Nation. It enables our producers to compete in 
the world market due to cheap freight rates. In addition to enabling 
cheap freight rates, waterborne traffic is much cleaner and safer, by 
all comparisons, to alternative modes. Additionally, you must consider 
all the other major benefits of waterways management and improvement; 
hydropower, recreation, flood and erosion control, tourism, wildlife 
habitat, water quality, wetlands management and drought management.
    The Tennessee and Cumberland River Valley's are growing, dynamic 
and a prime example of how investment in and maintenance of 
infrastructure pays high dividends.
            Sincerely,
                                                   William H. Dyer.
                                 ______
                                 

  Letter From John B. Herbert, President, and Thomas C. Herbert, Sr., 
                             Vice President

                                              SanGravl Co.,
                           New Johnsonville, TN, February 18, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, U.S. Senate, 
        Washington, DC.
    Dear Sir: We Support the Corps and TVA fiscal year 1999 budget 
request.
    We support funding requests for Kentucky Lock Project (Corps) and 
Chickamauga Lock Project (TVA).
    We support continuation of navigation, flood control, water and 
land resource development on the Tennessee and Cumberland Rivers at no 
less than the current level no matter which agency has the 
responsibility.
    We support inland waterway navigation as an environmentally sound 
and cost efficient transportation mode in our region, helping to reduce 
freight rates and thus promoting trade and development.
    We support the Tennessee and Cumberland Rivers as a vital natural 
resource (and, therefore, its maintenance) in our region as it pertains 
to our industry, municipality or interest in any number of the 
following ways: navigation, hydropower generation, recreation, flood 
and erosion control, agricultural irrigation, recreation and tourism, 
fish and wildlife habitat, drinking water, ground and surface water 
management, water quality, water supply, wetlands, drought management, 
reservoirs management.
    We support sound economic development efforts to improve the 
Tennessee and Cumberland Rivers as a vital transportation link for the 
Tennessee and Cumberland River Valleys to export goods to other 
national and international markets via our inland waterway system.
            Sincerely
                                    John B. (Jack) Herbert,
                                                         President.
                                    Thomas C. Herbert, Sr.,
                                                    Vice President.
                                 ______
                                 

                      Letter From William H. Hess

                              Parkert Towing Company, Inc.,
                                 Tuscaloosa, AL, February 16, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Senator Domenici: Parker Towing Company is a major regional 
barge transportation company operating towboats, barges, and port 
facilities mainly on the rivers and waterways of the Southeast and Gulf 
Coast. As a member of the Tennessee River Valley Association, we are 
proud to be a part of a collective effort to maintain and develop the 
Tennessee and Cumberland River Systems for commercial navigation. We 
believe that these waterways are vital transportation links for the 
Tennessee and Cumberland River Valleys for exporting goods to national 
and international markets via our inland waterway system.
    We believe it is vital to continue navigation, flood control, water 
and land resource development on the Tennessee and Cumberland Rivers at 
no less than the current level--no matter which agency has the 
responsibility. We fully support the Corps of Engineers' funding 
request for fiscal year 1999 of $55.167M plus an additional $11.5 for 
the Kentucky Lock Project. We also support the TVA's request of $76.8 
million, which includes $57.6 million for Land and Water Management and 
$6.8 Million for Chickamauga Lock. We hope that we can count on your
            Sincerely yours,
                                           William H. Hess,
                                                     Sales Manager.
                                 ______
                                 

                  Letter From Charles J. Sanders, III

                                  Ingram Materials Company,
                                  Nashville, TN, February 26, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Sir: I am asking for your support in favor of TVA's fiscal 
year 1999 budget request of $76.8 million, which includes $57.6 million 
for land and water management and $6.8 million for Chickamauga Lock on 
the upper Tennessee River. I further ask that you support an additional 
$11.5 million for Kentucky Lock on the lower Tennessee River in the 
fiscal year 1999 U.S. Army Corps of Engineers budget.
    While there are numerous issues surrounding continued funding for 
TVA, the fact is that both TVA and the U.S. Army Corps of Engineers 
work together to manage the critical infrastructure necessary to 
support river transportation in my area, the south central region of 
the United States.
    As an alternative mode of transportation, barging on the river 
provides the consumer with the most cost effective and energy efficient 
means for moving millions of tons of bulk freight both within the 
eastern half of the country and for export.
    There is no doubt that dollars invested now in infrastructure 
maintenance and expansion create jobs, economic growth, and will 
continue to support the balanced budget goals and objectives.
            Sincerely,
                                   Charles J. Sanders, III,
                                                         President.
                                 ______
                                 

                      Letter From Jaycee Rawlings

                                      Humphreys County, TN,
                                                 February 26, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Mr. Domenici: As County Executive of Humphreys County, Tennessee I 
strongly support Tennessee River Valley Association's funding request 
for TVA and the Corps for fiscal year 1999. Our County lies in the 
center of the TVA region. The fiscal year 1999 funding of $55.16M for 
the U.S. Army Corps of Engineers for the Nashville District and the 
$11.5M for the Kentucky Lock would continue to be a great benefit to 
our citizens.
    It is important that TVA's river management system remain 
integrated. Transfer or privatization would have drastic negative 
impact. The Corps budget is being drastically cut and there are no 
other provisions for taking care of the Tennessee River.
    Humphreys County is a rural but yet heavy industrialized county 
with several industries located on the banks of the Tennessee River. It 
is a vital resource to us. The Tennessee River provides jobs, and 
allows our residents and those of adjoining counties, to enjoy camping, 
boating, skiing, and fishing. The federal funding for the maintenance, 
operation, capital outlay projects, and flood control is imperative for 
the protection of the nation's inland waterway system.
    I sincerely hope that you will join with me and support TVA's 
fiscal year 1999 funding requests of $76.8M. If you need further 
information please give me a call.
            Sincerely,
                                           Jaycee Rawlings,
                                                  County Executive.
                                 ______
                                 

                       Letter From David C. Cole

                                Itawamba Community College,
                                     Fulton, MS, February 23, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Senator Domenici: On behalf of Itawamba Community College and 
the citizens of Northeast Mississippi, I am writing to request your 
support of adequate funding for TVA and the CORPS for fiscal year 1999. 
Having lived my entire life in the region served by the Tennessee River 
Valley Association, I can attest to the vast improvements these 
organizations have made in the quality of life of those who live in 
this region. I sincerely believe we would be neglecting our 
responsibilities if we fail to adequately fund organizations that have 
clearly demonstrated their effectiveness.
    Specifically, I also strongly feel that TVA's river management 
system should continue an integrated approach toward accomplishing its 
mission. Transfer or privatization leaves too many important questions 
to be answered. Budget reductions will certainly result in a negative 
impact. Adequate federal funding for maintenance, operation, capital 
outlay projects, flood control and protection of the nation's inland 
waterway system and infrastructure must be continued now and well into 
the future. I urge you not to take chances on a region and a people 
who, for the first time in generations, are reaping the benefits of a 
better quality of life for themselves and their children.
    In conclusion, I wholeheartedly and enthusiastically support the 
Tennessee River Valley Association's funding request for TVA and the 
CORPS for fiscal year 1999.
            Sincerely,
                                             David C. Cole,
                                                         President.
                                 ______
                                 

                 Letter From James R. ``Kenny'' Gillum

                          Kentucky-Cumberland Coal Company,
                                 LaFollette, TN, February 20, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Chairman Domenici: I am in full support for TVA's fiscal year 
1999 Budget request for $76.8 million of which includes land and water 
management of $57.6 million and the Chickamauga Lock $6.8 million.
    I feel that it is an absolute that TVA's river management system 
remain integrated. Privatization or any other reorganization would have 
a very negative result. The budget for corps is currently being cut and 
there isn't any provisions for assisting the Tennessee River.
    Chairman, we need your full support for U.S. Corps of Engineers 
(Nashville District) fiscal year 1999 for funding of $55.167 million, 
plus support for the additional request of $11.5 million for the 
Kentucky Locks.
    Also, my request is that you support federal funding for 
maintenance, operation, capital overlay projects, flood control, and 
for the protection of our nation's inland waterway system and 
infrastructure, now and for all future generations. We definitely need 
your support of TRVA's funding request for TVA and the corps for fiscal 
year 1999.
    I also request that you support the Tennessee and Cumberland 
Waterway as a vital natural resource land, therefore, it's maintenance 
in our region as it pertains to all industry/municipality/interest in 
any number of the following ways; navigation, hydropower generation, 
recreation and tourism, fish and wildlife habitat, drinking water, 
ground, and surface water management, water quality, water supply, wet 
lands, drought management, and reservoir management.
    Please understand the importance of my request and we are depending 
upon your support totally.
            Sincerely,
                                 James R. ``Kenny'' Gillum,
                                          Executive Vice President.
                                 ______
                                 

                        Letter From Frank McKee

                                             Hermitage, TN,
                                                 February 23, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Senator Domenici: The Tennessee River and the Cumberland River 
are vital natural resources for this region of our nation. They provide 
for navigation, hydro-power, municipal water supplies, recreation, fish 
and wildlife habitat, irrigation, and other important services that 
cross local and state boundaries.
    It is most respectfully requested that favorable consideration be 
given for:
    1. TVA's fiscal year 1999 budget request of $76.8 million, which 
includes $57.6 million for Land and Water Management and $6.8 million 
for the Chickamauga Lock.
    2. U.S. Army Corps of Engineers (Nashville District) fiscal year 
1999 funding of $55.2 million with the addition of $11.5 million for 
the Kentucky Lock.
    It is essential that federal funding continue to be provided for 
the operation, maintenance and improvement of the nation's inland 
waterway system to serve present and future generations.
    You can be assured that the people of this region want the TVA 
river management system to remain as it now exists. It is an excellent 
operation with dedicated employees providing an exemplary service.
            Sincerely,
                                                       Frank McKee.
                                 ______
                                 

                      Letter From Robert M. Brewer

                                       Crounse Corporation,
                                    Paducah, KY, February 25, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Senator Domenici: As a member of the Tennessee River Valley 
Association, Crounse Corporation strongly asks for your support and 
influence on the following very important issues:
    1. Support TVA's fiscal year 1999 budget request of $76.8 million, 
which includes $57.6 million for Land and Water Management and $6.8 
million for Chickamauga Lock. The closing of Chickamauga Lock would 
devastate the upper Tennessee River system.
    2. Support the fact that TVA's river management system must remain 
integrated. Transfer or privatization would have a drastic negative 
impact, and the Corps' budget is being drastically cut and there are 
not other provisions for taking care of the Tennessee River.
    3. Support the Corps of Engineers (Nashville District) fiscal year 
1999 funding of $55.167 million, and the $11.5 million for the Kentucky 
Lock Project.
    4. Support federal funding for the maintenance, operation, capital 
outlay projects, flood control and protection of our nation's inland 
waterways system and infrastructure, now and for our future 
generations.
    5. Support the Tennessee and Cumberland Waterway as a vital natural 
resource (that must be maintained) for our region's interests in any 
number of the following ways; recreation and tourism, fish and wildlife 
habitat, drinking water, water supply and quality, wetlands, flood and 
erosion control, agriculture, energy needs and demands, etc.
    The Tennessee and Cumberland River System provides low-cost rates 
to domestic and world markets, and by comparison, river transportation 
is much safer and cleaner than other modes of transportation. This 
region of our country greatly needs your representation and support. We 
respectfully hope we can count on you.
            Very truly yours,
                                             Robert Brewer,
                                                      Port Captain.
                                 ______
                                 

                    Letter From J. Richard Hommrich

                         Volunteer Barge & Transport, Inc.,
                                  Nashville, TN, February 27, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Senator Domenici: We are members of the Tennessee River Valley 
Association and are a regional barge transportation company serving the 
needs of shippers on the Tennessee, Cumberland, Tenn.-Tom. and other 
inland waterways.
    Numerous of our shippers are directly located on water and many 
others use the system to move products with intermodal connections to 
states not on these waters--i.e. Georgia, North Carolina, Virginia, 
etc. Our rivers and waterways are a vital natural resource and are 
required for our markets worldwide and sources of supply to our 
agriculture and our industry.
    Besides navigation, all other natural benefits of these waterways 
are highly beneficial and crucial to our people. Some of these benefits 
are hydropower, recreation, flood control, agriculture, recreation and 
tourism, fish and wildlife habitats, drinking water, and water for 
industry.
    We support TVA's fiscal year 1999 budget request of $76.8 million, 
which includes $57.6 million for land and water management and $6.8 
million for Chickamauga lock. TVA's river management system should 
remain in place and transfer or privatization would have drastic 
negative impact. The Tennessee River should not be treated as a poor 
step child because of recent differences because of TVA actions and 
proposals. These issues can and should be resolved.
    The history of our country shows early and consistently strong 
support of federal funding for development and maintenance of all of 
our valuable waterways. The needs are so much greater now than ever due 
to the large volume of traffic transported which keeps these tonnages 
off our roads and highways.
    We also support the U.S. Army Corps budget and urge that all of its 
maintenance and operation budgets be restored to adequate levels. The 
Kentucky Lock addition should be funded for $11.5 million as it is 
crucial to all of the Southeast including the Tenn.-Tom. Many other 
nations are recognizing the waterways as a valuable tool for survival 
in world competition and for development of their nations. We cannot 
afford to let our advantage escape us because of our failure to do 
likewise.
            Sincerely,
                                       J. Richard Hommrich,
                                                         President.
                                 ______
                                 

                    Letter From Barry E. Parks, Jr.

                                    Philip Services, Corp.,
                                  Nashville, TN, February 24, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: I am a member of the Tennessee River Valley 
Association (TRVA). I am writing to convey a sincere concern in the 
upcoming budget requests for fiscal year 1999 regarding our inland 
waterways. Their management and maintenance is crucial to the economic 
growth and development of our country, more specific to the eastern 
half of the United States.
    There are many projects that require funding on our inland waterway 
system. Of those projects, the Chickamauga Lock and the Kentucky Lock 
are of great importance to our recycling, sales, and shipping of 
ferrous metals. Without the use of these locks, much of the materials 
shipped by barge would then be transported by truck to market. You must 
agree, that the increase in truck traffic on our nations highways is 
already at a critical level. There is a labor shortage of drivers 
already and more would be needed to operate these trucks, and the 
drivers that are on the road have only a few short years of experience. 
This combination of a labor shortage and lack of experience adds up to 
only one thing, traffic accidents and/or fatalities. Who knows, it may 
be my wife and children or yours in the vehicle involved in that 
accident.
    There are other modes of transportation available for use such as 
truck and rail, but none are as economical as by barge. I am sure you 
would agree that maintaining the lowest transportation cost on shipping 
our raw materials into the consumer market is most important to remain 
competitive as a country and to keep the American people and economy at 
a prosperous level. Without the use of our inland waterways, our most 
precious resource, we open ourselves for competition in foreign trade 
which usually results in poor quality raw materials and finished 
products.
    It is vital that you support the projects that are being presented 
to you by the TRVA, Corps of Engineers, and the TVA. These projects not 
only serve to keep an economic balance of our country, they serve to 
protect our inland waterways for things such as recreation, 
agriculture, tourism, flood control, hydropower generation, drought and 
reservoir management, and the list goes on. The monies needed to 
facilitate the restoration and completion of these projects are minimal 
compared to the economic impact our country could see, and the 
increased loss of human lives on our nations highways, if help does not 
arrive soon.
    I would be most appreciative of an opportunity to discuss this 
matter with you or individuals of your choice. Thank you for your time 
and assistance in this matter.
            Respectfully,
                                       Barry E. Parks, Jr.,
                                            Transportation Manager.
                                 ______
                                 

                       Letter From Gary G. Brown

                                  Vulcan Materials Company,
                               Grand Rivers, KY, February 18, 1998.
Hon. Pete V. Domenici,
Chairman, Subcommittee on Energy and Water Development, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
    Dear Sir: We at the Vulcan/Reed Quarry in Kentucky wish to express 
our support of TVA's budget request for fiscal year 1999 which includes 
funds for Land and Water Management and for the Chickamauga Lock.
    We further ask that you support the budget requests for the 
rehabilitation of 50 year old Kentucky Lock for fiscal year 1999. Our 
company has utilized our nations inland waterway system since the mid 
years of this century. We have also functioned as a partner in our 
business relationships with TVA, the Corps of Engineers, and various 
other Federal and State agencies in the maintenance, preservation, 
supply, and construction on the rivers of our nations inland waterway 
system. We have the opportunity to utilize and witness the success of 
this great water system as it impacts all the lives of our citizens. We 
can also attest to the serious deficiency and irrevocable failures that 
can result from the lack of continued maintenance and upgrading of 
existing infrastructures.
    We at Vulcan perform as one of the many stewards who work to 
preserve our valuable inland waterway system of transportation, water 
quality, navigation, and the maintenance of its infrastructure through 
our supply of construction materials and transportation relationships 
with the various State and Federal agencies. Our nations industry and 
world market participation depends on the well being this great 
national resource.
    We ask that you support TVA's budget request for fiscal year 1999 
and that in view of the large Corps of Engineer budget cuts for fiscal 
year 1999 that it is imperative we have a Federal Agency that can 
continue to maintain the Tennessee River and its infrastructure.
    We ask that you support the integration of TVA's non-power river 
management of the Tennessee River through continued funding and support 
of the TVA program.
    We at Vulcan Materials will always support your committee's efforts 
and will always be mindful of the struggle to fund all our nation's 
needs.
            Sincerely,
                                             Gary G. Brown,
                                                Mid River Division.
                                 ______
                                 

         LOWER MISSISSIPPI RIVER VALLEY FLOOD CONTROL PROJECTS

    Prepared Statement of Donald T. Bollinger, Chairman, Louisiana 
               Governor's Task Force on Maritime Industry

      ports on the lower mississippi river and red river waterway
    Mississippi River ship channel, Gulf to Baton Rouge, LA. 
(construction general).--Recommend Corps be funded to full capability 
in fiscal year 1999 to perform required work on the saltwater intrusion 
mitigation plan and complete design studies for potential phase III 55-
foot channel.
    Mississippi River, Baton Rouge to the Gulf, maintenance dredging 
and GI funds for navigation study.--Recommend approval of President's 
fiscal year 1999 Budget of $46,220,000 under O&M General and $415,000 
in GI funds.
    Mississippi River-Gulf outlet (MR-GO), LA., maintenance dredging.--
President's fiscal year 1999 Budget is $11,580,000 under O&M General. 
Recommend that Corps be funded increased capability for bank 
stabilization and maintenance dredging.
    Inner harbor navigation canal (IHNC) lock, LA.--President's fiscal 
year 1999 Budget only includes $2,000,000 in construction funds for the 
IH-NC New Ship Lock. Recommend that Corps be funded to full capability 
to initiate lock construction and fully fund the community impact 
mitigation plan.
    Mississippi River outlets at Venice, LA.--President's fiscal year 
1999 Budget is $1,095,000 under O&M General. Recommend that Corps be 
funded increased capability for repair of jetty-breakwaters (Baptiste 
Collette Bayou and Grand and Tiger Passes).
    Intracoastal waterway locks, LA.--Urge approval of GI funds for 
fiscal year 1999 to continue the feasibility study to address need for 
and timing of replacement of Bayou Sorrel Lock on the GIWW, Morgan 
City-to-Port Allen alternate route.
    Gulf intracoastal waterway, LA, and TX.--President's fiscal year 
1999 Budget is $19,561,000 under O&M General. Recommend that Corps be 
funded increased capability for dewatering and maintaining Leland 
Bowman Lock; new cranes at IHNC Lock; dredging Forked Island Wiggles 
(Bendway easing); and dredging Franklin Canal.
    Red River waterway, Mississippi River to Shreveport, LA.--
President's fiscal year 1999 Budget is $5,392,000 in Construction 
General and $8,337,000 for Operations and Maintenance. Recommend that 
Corps be funded to full capability to complete work already underway.
                               statement
    As Chairman of the Louisiana Governor's Task Force on Maritime 
Industry, I hereby submit testimony to the Senate Subcommittee on 
Energy and Water Development on behalf of the ports on the lower 
Mississippi River and the maritime interests related thereto of the 
State of Louisiana relative to Congressional appropriations for fiscal 
year 1999 for ports on the lower Mississippi River and the Red River 
Waterway.
    The U.S. Army Corps of Engineers reports that in 1996 a total of 
421 million tons of foreign and domestic waterborne commerce moved 
through the consolidated deepwater ports of Louisiana situated on the 
lower Mississippi River between Baton Rouge and the Gulf of Mexico. The 
deepening of this 232-mile stretch of the River to 45 feet has been a 
major factor in tonnage growth at these ports. Thanks to the efforts of 
Congress and the New Orleans District of the Corps, Louisiana's ports 
and the domestic markets they serve can compete more effectively in an 
increasingly global marketplace. Ninety-one percent of America's 
foreign merchandise trade by volume (two-thirds by value) moves in 
ships, and more than 19 percent of the nation's foreign waterborne 
commerce passes through Louisiana's ports. Given the role foreign trade 
plays in sustaining our nation's growth, maintaining the competitive 
posture of Louisiana's ports is essential to our economic well-being.
    In terms of transportation services and global access, Louisiana 
ports enjoy a distinct competitive advantage. Hundreds of barge lines 
accommodate America's waterborne commerce on the lower Mississippi 
River. The high level of barge traffic on the river is indicated by the 
passage of more than 246,000 barges through the Port of New Orleans 
annually. In 1996, 2,441 ocean-going vessels operated by more than 75 
steamship lines serving U.S. trade with more than 150 countries called 
at the Port of New Orleans. The Port's trading partners include: Latin 
America (32.1 percent); Asia (31.2 percent); Europe (23.8 percent); 
Africa (11.3 percent) and North America (1.6 percent). During the same 
year, more than 6,200 vessels called at Louisiana's lower Mississippi 
River deepwater ports.
    While the foreign markets of Louisiana's lower Mississippi River 
ports are worldwide, their domestic market consists primarily of mid-
America. This heartland region currently produces 60 percent of the 
nation's agricultural products, one half of all of its manufactured 
goods and 90 percent of its machinery and transportation equipment.
    The considerable transportation assets of Louisiana's lower 
Mississippi River ports enable them to play a vital role in the 
international commerce of this nation. In 1996, the region's ports and 
port facilities handled 187 million tons of foreign waterborne 
commerce. Valued at $37.9 billion, this cargo accounted for 16.6 
percent of the nation's international waterborne trade and 24.9 percent 
of all U.S. exports. Bulk cargo, primarily consisting of tremendous 
grain and animal feed exports and petroleum imports, made up 
approximately 86 percent of this volume. More than 51.4 million tons of 
grain from 17 states, representing 53.1 percent of all U.S. grain 
exports, accessed the world market via the 10 grain elevators and 
midstream transfer capabilities on the lower Mississippi River. This 
same port complex received 49.4 million short tons of petroleum and 
petroleum products, approximately 10.88 percent of the U.S. waterborne 
imports of petroleum products.
    In 1996, public and private facilities located within the 
jurisdiction of the Board of Commissioners of the Port of New Orleans, 
the fourth largest port in the United States, handled a total of 70 
million tons of international cargo worth $18.4 billion (included in 
lower Mississippi River statistics). General cargo totaled 10 million 
tons. Although statistically dwarfed by bulk cargo volumes, the 
movement of general cargo is of special significance to the local 
economy because it produces greater benefits. On a per ton basis, 
general cargo generates spending within the community more than three 
times higher than bulk cargo. Major general cargo commodities handled 
at the Port include: iron and steel products; coffee; forest products; 
copper; aluminum products; and natural rubber.
    Fostering the continued growth of lower Mississippi River ports is 
essential to assure the competitiveness of our nation's exports in the 
global marketplace and, consequently, the health of our national 
economy. Assuring deep water access to ports has been a priority of our 
trading partners around the world. Moreover, an evolving maritime 
industry seeking greater economies of scale continues to support 
construction of larger vessels with increased draft requirements. 
Because it has facilitated the provision of deepwater port access, 
passage of the Water Resources Development Act of 1986, has played a 
most significant role in assuring the competitiveness of ports on the 
lower Mississippi river and throughout the U.S.
    By December, 1994, the Corps completed dredging of the 45-foot 
channel from the Gulf of Mexico to Baton Rouge, LA (Mile 233 AHP). 
Unfortunately, mitigation features associated with the first phase of 
the channel deepening project, completed in 1988, have yet to be 
accomplished. It is very disappointing that funding for this vitally 
important project was not included in the President's fiscal year 1999 
Budget. We urge the inclusion of funding and support for this effort in 
the budget, which will include part of approximately $15 million in 
payments to the State of Louisiana for construction of a pipeline and 
pumping stations to deliver potable fresh water to communities affected 
by saltwater intrusion. We further urge that the Corps be provided 
funding to proceed with design studies for Phase III which will allow 
deepening of the river to the 55-foot authorized depth.
    The Port of South Louisiana, the nation's largest port with 189.8 
million tons of foreign and domestic cargo in 1996, and the Port of 
Baton Rouge, the nation's fifth largest port with 81 million tons of 
foreign and domestic cargo in 1996, and other lower Mississippi River 
ports are dependent upon timely and adequate dredging of Southwest Pass 
to provide deep draft access to the Gulf of Mexico. Based on past 
experience--spring thaws bringing higher river stages and higher 
siltation rates--we strongly urge full funding of the President's 
fiscal year 1999 Budget amount of $46,220,000 under O&M General for 
maintenance of the 45-foot project channel. Funding includes monies for 
both dredging and repairs to foreshore dikes; repairs to lateral dikes; 
and jetty repairs. Revetment construction has reduced the number and 
size of deep draft anchorages. To mitigate this loss, we recommend that 
the Corps be authorized under the O&M General appropriation to 
construct new anchorages and maintain new and existing anchorages to 
accommodate increased ship traffic.
    Approval is also recommended for the President's fiscal year 1999 
Budget amount of $415,000 for the Corps to continue the reconnaissance 
study of the long-term navigational needs of the Mississippi River and 
its outlets, to include anchorage areas, between Baton Rouge, LA, and 
the Gulf of Mexico.
    Maintenance of adequate depths and channel widths in the 
Mississippi River-Gulf Outlet Channel (MR-GO) is also of great concern. 
This channel provides deep draft access to the Port of New Orleans' 
principal container terminals and generates an annual economic impact 
of nearly $800 million. In 1996, 518 general cargo vessels calling on 
the MR-GO Tidewater facilities accounted for 30.8 percent of the 
general cargo tonnage handled over public facilities at the Port of New 
Orleans and 88.5 percent of Louisiana's containerized cargo.
    Because of the MR-GO's demonstrated vulnerability to coastal storm 
activity, annual channel maintenance dredging and bank stabilization 
are essential to assure unimpeded vessel operations. In 1996, heavy 
shoaling related to Tropical Storm Josephine resulted in the imposition 
of a draft restriction from the project depth of 36 feet to 30 feet. 
The President's fiscal year 1999 Budget Amount is $11,580,000 under O&M 
General. We, however, strongly recommend that the Corps be funded 
increased capability to carry out annual maintenance dredging and north 
and south bank stabilization projects.
    The Inner Harbor Navigation Canal (IHNC) Lock is a critical link in 
the Gulf Intracoastal Waterway (GIWW) and provides a connection between 
the Port of New Orleans' Mississippi River and IHNC terminals. In 1998, 
the Corps approved a plan for replacement of this obsolete facility. 
The Corps estimates that the lock replacement project will have a cost-
benefit ratio of 1.7 to 1 and will provide $110 million annually in 
transportation cost savings. In addition to minimizing adverse impacts 
to adjacent neighborhoods, a Community Impact Mitigation Program 
totaling $33 million is included. The President's fiscal year 1999 
Budget amount of $2,000,000 for the IHNC New Ship Lock will pay for 
continued engineering and design work, but will not cover early 
construction activities such as clearing land or mitigation program 
initiation. We, therefore, recommend that the Corps be funded to full 
capability to enable the timely start of construction and mitigation 
program implementation. We particularly recommend that the mitigation 
program be fully funded at the start of project construction.
    The operation and maintenance of the Mississippi River Outlets at 
Venice, LA are essential to providing safe offshore support access to 
energy-related industries. In 1996, these channels accommodated cargo 
movements exceeding 3.8 million tons. In addition to routine traffic, 
Baptiste Collette Bayou is used by shallow draft vessels as an 
alternate route between the MR-GO, GIWW and the Mississippi River. 
Because of a scheduled 60-day closure of the IHNC lock for dewatering 
and repair in June and July, 1998 (depending on River stages), 
maintaining Baptiste Collette Bayou's channel is especially critical. 
The President's fiscal year 1999 Budget amount is $1,095,000 under O&M 
General. We recommend that the Corps be funded increased capability for 
the repair of jetty breakwaters (Baptiste Collette Bayou and Grand and 
Tiger Passes).
    More than 100 million tons of cargo transverse the GIWW in the New 
Orleans District annually. To assure the efficient flow of commerce on 
this key waterway, approval is urged for fiscal year 1999 GI funds to 
continue the feasibility study of the need for and the timing of 
replacement of Bayou Sorrel Lock on the GIWW, Morgan City-to-Port Allen 
alternate route. In addition, we recommend that the New Orleans 
District be funded an increased capability for continued maintenance of 
the Louisiana and Texas sections of the GIWW.
    One additional project warrants consideration. The Red River 
Waterway, Mississippi River to Shreveport, LA Project provides 236 
miles of navigation improvements, 225 miles of channel stabilization 
works and various recreational facilities. Project completion will 
stimulate economic growth along the Red River Basin and increase cargo 
flows through the Port of New Orleans. The President's fiscal year 1999 
Budget is $5,392,000 in Construction General for substantial project 
completion and $8,337,000 for Operations and Maintenance. Work already 
underway on this project should be completed. We, therefore, recommend 
that the Corps be funded to full capability for this project.
    The need and impetus to reduce the Federal budget is certainly 
acknowledged; however, reduced funding on any of the above projects 
will result in decreased maintenance levels which will escalate 
deterioration and, ultimately, prevent them from functioning at their 
full authorized purpose. Reduction in the serviceability of these 
projects will cause severe economic impacts not only to this region, 
but to the nation as a whole that will far outweigh savings from 
reduced maintenance expenditures. Therefore, we reiterate our strong 
recommendation that the above projects be funded to their full 
capability.
    Supporting statements from Mr. J. Ron Brinson, President and CEO of 
the Port of New Orleans; Mr. Channing Hayden, President of the 
Steamship Association of Louisiana; Capt. John Levine, President of the 
Associated Bar Pilots and Capt. Mark Delesdernier, President of the 
Crescent River Port Pilots Association and others are attached. Please 
make these statements along with my statement part of the record. 
Supplemental graphics relating to my statement have been furnished 
separately for staff background use. Thank you for the opportunity to 
comment to the subcommittee on these vital projects.

Congressional Appropriations for Fiscal Year 1999 for Ports on the Lower 
              Mississippi River and the Red River Waterway

        Project                              Fiscal year 1999 budget \1\
Mississippi River Ship Channel Gulf to Baton Rouge, LA. 
    (Construction General)..............................................
Mississippi River, Baton Rouge to the Gulf, Maintenance 
    Dredging, and Stabilization (O&M General)...........     $46,220,000
Mississippi River-Gulf Outlet (MR-GO), LA. (O&M General)      11,580,000
Inner Harbor Navigation Canal Lock LA., (Construction 
    General)............................................       2,000,000
Mississippi River Outlets at Venice, LA. (O&M General)..       1,095,000
Intracoastal Waterway Locks, (GI Funds).................         550,000
Gulf Intracoastal Waterway LA, and TX (O&M General).....      19,561,000
Red River Waterway:
    Construction General................................       5,392,000
    O&M General.........................................       8,337,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total Red River Waterway..........................      13,729,000
      Grand total.......................................      94,735,000

\1\ Amount in President's fiscal year 1999 budget.

  Prepared Statement of Channing F. Hayden, Jr., President, Steamship 
                        Association of Louisiana

    Summary of testimony of Channing F. Hayden, Jr., President of the 
Steamship Association of Louisiana (formerly known as the New Orleans 
Steamship Association), for the record of the Senate Energy and Water 
Development Subcommittee on Appropriations in reference to projects of 
public interest that affect Louisiana's deep-water ports.
    Mississippi River ship channel, Gulf to Baton Rouge, Louisiana 
(construction general).--We recommend continuation of the work on the 
saltwater intrusion mitigation plan and the design studies for Phase 
III of the 55-foot channel. Funding to full capability in fiscal year 
1999 is necessary for this required work.
    Maintenance dredging of the Mississippi River from Baton Rouge to 
the Gulf of Mexico, plus GI funding for navigation improvement study.--
We urge approval of the $46,220,000 in the President's fiscal year 1999 
budget under O&M General, with GI funds of $415,000 in fiscal year 1999 
for a reconnaissance study to improve navigation needs and to include 
ways to reduce long-term maintenance costs and the authorization to 
construct and maintain anchorages.
    Mississippi River-Gulf outlet maintenance dredging and bank 
erosion.--In addition to the $11,580,000 in the President's fiscal year 
1999 budget under O&M General, we urge that the Corps be funded an 
increased capability in fiscal year 1999 to maintain this channel, 
which should include bank stabilization on both banks and jetty 
maintenance.
    New inner harbor navigation canal ship lock.--Recognizing that only 
$2,000,000 is included in the President's fiscal year 1999 budget for 
construction funds, we urge that the Corps be funded to full capability 
in fiscal year 1999 for this project, which is essential to begin 
construction and the community impact mitigation plan.
    Red River waterway, Mississippi River to Shreveport, Louisiana.--
Recognizing that $5,392,000 is in the President's fiscal year 1999 
budget to substantially complete this vital project and $8,337,000 for 
O&M in fiscal year 1999, we urge that the Corps be funded to full 
capability for fiscal year 1999. This project will result in 
stimulating economic growth along the Red River Basin and increase 
cargo movements through Louisiana ports. Funding is essential to 
complete the work already underway.
    To provide access to the harbor maintenance fund to address 
dredging emergencies.--To address dredging emergencies, Congress should 
provide the Corps limited access to the funds in the Harbor Maintenance 
Fund. Proper safeguards should be built in to restrict access to 
emergencies caused by floods, storms, and other natural disasters.
    Calcasieu River and pass, Louisiana.--We urge approval of the 
$6,980,000 in President's fiscal year 1999 budget under O&M General and 
recommend that the Corps be funded an increased capability in fiscal 
year 1999 to maintain rock protection at Dugas Landing Embankment.
    National waterways alliance initiative.--We support the National 
Waterways Alliance's initiative to realistically fund the Corps at 
$4,540,000,000.
                               statement
    Testimony of Channing F. Hayden, Jr., President of the Steamship 
Association of Louisiana (formerly known as the New Orleans Steamship 
Association), for the record of the Senate Energy and Water Development 
Subcommittee on Appropriations in reference to projects of public 
interest affecting Louisiana's deep-water ports.
    Mr. Chairman: I am President of the Steamship Association of 
Louisiana. Our Association represents ship owners, operators, agents, 
and stevedores that represent the majority of the 7,000+ deep-draft 
vessels in foreign commerce that call Louisiana's deep-water ports each 
year. We are dedicated to the safe and efficient movement of maritime 
commerce through the state's deep-water ports. We endorse the testimony 
of Mr. Donald T. Bollinger, Chairman of the Governor's Task Force on 
Maritime Industry and the statements of the other organizations 
attached to his testimony.
    Channel stabilization and maintenance dredging in Southwest Pass 
are critical to keep project draft. Project draft ensures the 
Mississippi River's deep-water ports will handle the country's foreign 
waterborne commerce in the most cost-effective way possible.
    For years we have urged this Committee to provide funds to maintain 
project draft at Southwest Pass. You have responded, and your wisdom 
has benefitted the entire American heartland served by the Mississippi 
River system. Southwest Pass was greatly restricted throughout the 
1970's. From 1970 to 1975, the channel was at less than project draft 
46 percent of the time. In 1973 and 1974, the channel was below the 40-
foot project draft 70 percent of the time. During some periods, drafts 
were limited to 31 feet. Fortunately, those conditions have not 
recurred because of a combination of factors: Your help, and the 
constant vigilance of the Pilots, the Corps, and the maritime 
community. The years 1990 through 1997 show a tremendous improvement in 
channel stability. We have only been below project draft 3 percent of 
the time for vessels under 100,000 deadweight tons and 8 percent of the 
time for vessels 100,000 deadweight tons or greater. The funding you 
provided was money well spent. The repairs to the jetties and dikes and 
the Corps' ability to rapidly respond to shoaling have been 
instrumental in maintaining project dimensions.
    To enhance the safe and efficient movement of ships and cargo, we 
recommend mining sediment from the Pilottown Anchorage to create and 
enhance wetlands. Each 800,000 cubic yards of dredged material creates 
115 acres of wetlands and enhances 256 more. In the process, much-
needed Pilottown Anchorage at fog-prone Head of Passes would be dredged 
to accommodate the increasing number of deeply-ladened ships attracted 
by the 45-foot channel. Dredging Pilottown Anchorage would also 
mitigate anchorage space lost in this area to the proposed West Bay 
Diversion Project.
    The Pilots have taken advantage of tidal flows and other factors to 
recommend the maximum draft possible consistent with safe navigation. 
This stability represents additional sales and increased 
competitiveness for U.S. products on the world market. Industry's 
partnership with you has kept Mississippi River ports competitive. 
Stability is reflected in draft footage. Twelve inches to a large 
vessel with a loading capacity of 250 tons per inch is an additional 
3,000 tons of cargo. As of this writing, freight rates for grain moving 
from the Mississippi River to the Far East and Europe are ranging from 
$22 per ton to $13 a ton. Using the average, $17.50, each foot of draft 
represents an additional $52,500 in vessel revenue, or $262,000 for 
additional feet over the old 40-foot project draft.
    The funds we request for maintenance dredging and other works are 
essential for the Corps to maintain a reliable channel and respond 
rapidly to potential problems. This builds the confidence of the bulk 
trade in a reliable Mississippi River draft, which is critically 
important. Much of Louisiana's bulk trade is export agricultural 
products and coal. These commodities are neither captive to Louisiana 
nor the United States if they can be shipped from competing countries 
at a consistently lower cost.
    The deeper the channel, the more important channel stabilization 
is. Adequate channel stabilization work minimizes the maintenance cost 
of the deeper channel--a cost-effective investment. The faster the 
project is stabilized, the faster and greater the benefits of reduced 
O&M costs will be realized. Also, we recommend that the Corps conduct 
research on prototype dredging techniques. Experimental dredging would 
not replace routine dredging but would permit, for example, testing 
dustpan dredges in Southwest Pass and Water Injection Dredge at the 
crossings above New Orleans.
    Funds are also needed for dustpan dredges to work the crossings 
above New Orleans. These crossings control the draft to eight of our 
ten major grain elevators, plus many mid-stream loading facilities. 
This area caters to the bulk trade and must have a stable channel depth 
consistent with the depth at Southwest Pass. Only two dredges in the 
world are available to maintain the deep-draft crossings between New 
Orleans and Baton Rouge. There are times when a high river is followed 
by a rapid drop in the river's stage. In such cases, the dustpan 
dredges may not be available, or both dredges may not be capable of 
restoring the 12 crossings within a reasonable time. When this happens, 
hopper dredges are used to assist in the work.
    The Corps is studying the makeup of their ``minimum fleet''--the 
number of dredges the Corps owns and operates. Corps-owned dredges 
working the lower Mississippi River are the hopper dredges WHEELER, 
MACFARLAND, and ESSAYONS, and the dustpan dredge JADWIN. The WHEELER 
and MACFARLAND, and from time to time the ESSAYONS, provide much-needed 
capacity and immediate response to keep Southwest Pass opened, 
especially when the river is abnormally high. The action by Congress to 
reduce the government hopper fleet will drastically diminish the Corps' 
ability to maintain reliable project dimensions and adversely affect 
our country's standing in world bulk markets. We urge Congress to 
reconsider its decision to place the WHEELER on stand-by status. Even 
when the WHEELER is available, the combined Corps/private fleet does 
not have enough Mississippi River-qualified hopper dredges to meet peak 
dredging requirements. The Corps' Minimum Dredge Fleet studies, we 
feel, neither justify a reduction in the fleet nor the lay-up/stand-by 
status of the WHEELER or any other Corps-owned dredge. The Army Corps 
of Engineers' records will show that for the 1997 high-water season 
there was a shortage of hopper dredges. Besides the Mississippi River 
ports, this shortage of dredges also impacts many of our nation's deep-
draft ports and is particularly disruptive to the Port of Lake Charles, 
Louisiana, where dredging suffers practically every year.
    For all of the above reasons, we request full funding for the 
mitigation features of the O&M General, 45-foot Mississippi River 
project.
    In December 1994, the Corps completed the 45-foot deep channel to 
Baton Rouge. Proper maintenance now provides uniform drafts for all the 
ports on the lower Mississippi River. This makes U.S. exports through 
Louisiana more competitive, and adequate federal maintenance funds to 
keep the channel open must be available. In addition, the Corps needs 
authorization to construct and maintain anchorages to improve safety. 
Over the years, revetment work and changes in the river itself have 
caused serious negative impacts on our anchorages. Therefore, we 
encourage full funding capability in fiscal year 1999 to complete the 
reconnaissance study of navigation needs on the Mississippi River and 
its outlets between Baton Rouge and the Gulf.
    We also support Phase III of the Mississippi River channel 
deepening project and urge that the Corps be funded to proceed with 
design studies for the 55-foot channel, Baton Rouge to the Gulf of 
Mexico.
    The growth of the Port of New Orleans depends, in large measure, on 
the Port's container and other facilities on the Mississippi River-Gulf 
Outlet (MR-GO). The funds you provided in past fiscal years have 
allowed the Corps to improve the channel considerably. However, the 
channel width has remained limited primarily because of erosion. This 
seaway has a project depth of 36 feet. For safety reasons in this 
narrow channel, restrictions apply to vessels with a draft of 30 feet 
or more, causing delays to the tightly scheduled container traffic 
using the MR-GO. These specialty vessels serving the Port's facilities 
are becoming larger. This channel, with less than stable full project 
dimensions, causes problems for larger vessels, reducing our ability to 
grow with the trade. The highest wages under the International 
Longshoreman's Association's contract ($23 per straight-time hour) is 
paid for work at the MR-GO container facilities. Anything that 
threatens the MR-GO jeopardizes these high-paying jobs, which are held 
mostly by minority workers.
    To improve safety on the MR-GO and protect Louisiana's container 
trade (and the well-paying, minority employment it produces), we 
request that the Corps be funded to an increased capability for the MR-
GO in fiscal year 1999. This will allow annual maintenance dredging, 
north and south bank stabilization, and jetty maintenance.
    With facilities located on both the MR-GO and the Mississippi 
River, an adequate route between the two is essential for efficient 
transit between these facilities. The shortest route is the inadequate, 
antiquated Inner Harbor Navigation Canal (IHNC) Lock built in the 
1920's with a width of 75 feet and limited depth of 30 feet. Its 
maximum capacity has long been exceeded. The average waiting time for 
passage through the Lock has increased from 8\1/2\ hours in 1985 to 
about 12 hours at present; however, we understand that waiting time can 
be more than a day in some instances. A much larger ship lock is 
necessary to accommodate today's traffic.
    The replacement project for the IHNC Lock is important to the ports 
on the lower Mississippi River and to the nation's commerce since it is 
on the corridor for east/west barge traffic. The President's fiscal 
year 1999 budget of $2,000,000 only covers continued engineering and 
design work. Without full funding, the project will be delayed and 
increase the overall cost of the project. We urge Congress to provide 
the Corps' full fiscal year 1999 capability for this important project 
to insure its completion. Delays are unthinkable since the new lock is 
long overdue.
    The Red River Waterway, Mississippi River to Shreveport, Louisiana, 
Project is directly related to our deep-water ports. The continuation 
and completion of this work will stimulate the economy all along the 
Red River Basin with jobs and additional international trade. This 
stimulated trade will service the Port of Shreveport and the ports on 
the lower Mississippi River, providing needed growth and benefitting 
the states of Louisiana, Texas, Oklahoma, and Arkansas, which are 
served through the Shreveport distribution center. Therefore, we 
strongly recommend that the Corps be funded to full capability for 
fiscal year 1999.
    The Port of Lake Charles, Louisiana, is served by the Calcasieu 
River, which is often below project depth and width. This is another of 
Louisiana's major deep-water ports that benefits the economy of the 
state and the nation. According to the Port's figures, 33.139 million 
tons of import cargo and 16.674 million tons of export cargo were 
handled in 1997. The Port and private facilities along this waterway 
provide thousands of jobs for the Lake Charles area. In 1997 there were 
945 ships and 6,834 barges that used this waterway. The Port area's 
growth and continued success depends on a reliable and safe channel 
that should be at full project. This channel, because of its project 
deficiencies, requires one-way traffic for many ships, causing delays 
that disrupt cargo operations. This is costly and inefficient for 
industry. We request funding to the full capability of the Corps to 
maintain the channel.
    We urge Congress to provide for emergency navigation dredging 
needs. An appropriate solution would be for Congress to take action 
that would provide the mechanics for the immediate release of Harbor 
Maintenance Funds to the Corps of Engineers. Such funding would be 
specifically for emergencies to prevent hazards to navigation and avoid 
impeding the flow of our nation's commerce.
    In addition, we are concerned that the President's overall fiscal 
year 1999 budget for the Corps' Civil Works Program does not adequately 
fund the nation's waterways needs. The $3.2 billion for the Corps' 
civil works program is $800 million less than fiscal year 1998. The 
drop in Construction, General and O&M funding will result in added 
costs in later years. Slow downs in construction projects that are 
already underway, such as the IHNC Lock replacement in Louisiana, will 
incur cost increases because of the delay caused by the lack of 
funding. Further, any delay of maintenance work will impact the safe 
and efficient movement of our nation's waterborne commerce. For the 
above reasons, we support the National Waterways Alliance's initiative 
to fund the Corps' Civil Works Program at $4,540,000,000.
    Thank you for allowing the Association to submit testimony on the 
Corps' funding needs.
                                 ______
                                 

 Prepared Statement of J. Ron Brinson, President and CEO, Port of New 
                        Orleans, New Orleans, LA

    The Port of New Orleans enjoys a location at the terminus of the 
14,500 mile inland waterway system of the United States, the most 
extensively developed waterway system in the world. The Port, via the 
Mississippi River and the Mississippi River-Gulf Outlet, serves as the 
gateway between America's heartland and the global marketplace.
    We fully support the March 13, 1998 testimony of the Louisiana 
Governor's Task Force on Maritime Industry on behalf of the ports on 
the lower Mississippi River and Louisiana's related maritime interests.
    We greatly appreciate the outstanding support and cooperation 
received over many years from you and your Subcommittee.
                                 ______
                                 

Prepared Statement of Clyde A. Giordano, Parish President, Plaquemines 
                  Parish Government, Belle Chasse, LA

    In my official capacity as Parish President of Plaquemines Parish 
Louisiana, I am herein requesting the following appropriations be made 
for fiscal year 1999:
    Mississippi River ship Channel, Gulf to Baton Rouge, Louisiana 
(construction general).--We recommend that the Corps be funded to full 
capacity in fiscal year 1999 to perform required work on the saltwater 
intrusion mitigation plan.
    Mississippi River, Baton Rouge to the Gulf, maintenance dredging 
and GI funds for navigation study.--We recommend that approval of the 
fiscal year 1999 Budget of $46,220,000 under O&M General and $415,000 
in GI funds.
    Mississippi River outlets at Venice, Louisiana.--The President's 
fiscal year 1999 Budget is $1,095,000 under O&M General. Recommend that 
Corps be funded increased capably for repair of jetty-breakwater 
(Baptiste Collette and Grand and Tiger Pass).
    We would certainly appreciate your consideration and the assistance 
you can give us in these projects.
                                 ______
                                 

 Prepared Statement of John Levine, Jr., President, Associated Branch 
                                 Pilots

    The Associated Branch Pilots is an Association of Pilots that have 
been guiding oceangoing vessels into the entrances the Mississippi 
River system for over 125 years. We are called Bar Pilots because we 
guide the ships past constantly shifting and shoaling sand bars in the 
area.
    Southwest Pass of the Mississippi River is the main entrance for 
deep draft oceangoing vessels entering the Lower Mississippi River 
System. It is the shallowest stretch of the Lower Mississippi River 
System and the area that requires the greatest effort by the Corps of 
Engineers to maintain project depth.
    In 1997, the Associated Branch Pilots made 11,893 transits on 
oceangoing vessels through Southwest Pass. Of these ships, 3,493 were 
of 50,000 deadweight tons or greater and 557 had a draft in excess of 
40 feet.
    This number of heavily laden vessels calling on the Lower 
Mississippi River System is a direct result of the completion by the 
Corps of Engineers of the deepening of the channel from 40 feet to 45 
feet.
    This first phase has proven to be extremely well designed and well 
maintained by the fact that the maximum draft recommended by my 
Association for vessels using Southwest Pass has been 45 feet or 
greater, except for periods of extremely high water that caused 
shoaling that overwhelmed the dredging efforts. This is in stark 
contrast to the late 1970's and early 80's when we often had to 
recommend drafts less than the project depth due to shoaling.
    To the world shipping community, this means that calling at ports 
on the Mississippi River system will be more profitable because larger 
ships can enter and carry greater amounts cargo.
    This is beneficial to the entire United States because it makes the 
large quantities of petroleum, Agricultural, and manufactured products 
shipped from the Mississippi Valley more desirable due to increased 
profitability.
    I would also like to comment briefly on the East-West navigation 
channels near Venice, Louisiana. Tiger Pass and Baptiste Collette 
provide a shorter, more direct route to Breton Sound and the Gulf of 
Mexico for offshore supply boats and small tugs and barges. These 
channels not only represent a savings in time and money for these 
vessels, but reduce the traffic in the main shipping channel, the 
Mississippi River and its passes, which is one of the most congested 
waterways in the country.
    The dredging and maintaining of South Pass would contribute to the 
safety of the overall waterway and, in my opinion, be of greater value 
than the much discussed Vessel Traffic System planned for the area.
    The Associated Branch Pilots also pilot vessels in the Mississippi 
River Gulf Outlet, a man-made tidewater channel 75 miles long, 
stretching from the Gulf of Mexico to an intersection of the 
Intercoastal Waterway in New Orleans.
    This channel leads to the Main Container Terminals for the Port of 
New Orleans, the Roll On, Roll Off Terminal, the Port of New Orleans 
Bulk Handling Plant, and additional General Cargo Docks. For the Port 
of New Orleans to remain competitive in the ever growing container 
trade, the continued maintenance of this channel is crucial. In 1997, 
628 ships called on the part using the Mississippi River Gulf Outlet.
    Much is being said pro and con concerning the Mississippi River 
Gulf Outlet. There is, admittedly, an erosion problem in the 
Mississippi River Gulf Outlet, but any curtailment of shipping traffic 
in the channel without regard to the long term effect upon the Port of 
New Orleans would be disastrous. I strongly support approval of funding 
for both the maintenance dredging/jetty repair project and the erosion/
rip rap study for the Mississippi River Gulf Outlet.
    I would also like to make a brief statement on behalf of the 
Mississippi Valley Coal Export Council. Over 62 million tons of coal 
have been exported using the Mississippi River System during the past 
five years. Coal miners, tugboat captains, barge owners, shippers and 
many other coal related workers have benefited by using the consistent 
and efficient Mississippi River System. This also represents a 
significant contribution towards the trade balance between the United 
States and other industrialized nations.
    Funding of the Corps of Engineers' projects in the Lower 
Mississippi River System has proven to be money well spent. It has 
increased exports and imports that have benefited the entire United 
States. I urge your support of the funding requested to enable the 
Corps to continue to maintain and improved the most efficient and 
productive waterway system in the country.
                                 ______
                                 

  Prepared Statement of Capt. Mark Delesdernier, President, Crescent 
                     River Port Pilots Association

    I have served as President of the largest pilot association in the 
United States for the past sixteen years. The Crescent River Port 
Pilots furnish pilots for ships destined to the Port of Baton Rouge, 
Port of South Louisiana, Port of New Orleans, Port of St. Bernard, and 
the Port of Plaquemines.
    The Crescent River Port Pilots piloted and shifted over 17,000 
ships during 1997. We pilot deep draft vessels on more than 100 miles 
on the lower Mississippi River and 35 miles on the Mississippi River 
Gulf Outlet.
    The lower end of our route on the Mississippi River has a shoaling 
problem starting with the high water season each year. The shoaling 
requires daily attention by the United States Army Corps of Engineers 
to maintain project depth.
    Heavy laden vessels call on the lower Mississippi River system as a 
direct result of the completion by the Corps of Engineers of the 
deepening of the channel from 40 to 45 feet.
    For several years now, we have had extraordinary success in keeping 
the river dredges to project depth. This success is a direct result of 
an experienced and vigilant Corps of Engineers that, through 
experience, is able to timely bid in dredges to avoid extra dredging 
cost by waiting too long to start maintenance dredging.
    Channel stability sends a positive message to the world's shipping 
community that schedule cargo for deep draft vessels months in advance 
is reliable. This makes the port call on the Mississippi River very 
profitable since the ships can lift greater tonnage.
    Keeping project depth is beneficial to twenty-seven states that are 
directly tied to the Mississippi River Port Complex.
    Additionally I would like to comment on the east and west 
navigation channels near Venice, Louisiana. Baptiste Collette and Tiger 
Pass provide a shorter and more direct route to Breton Sound and West 
Delta in the Gulf of Mexico for oil field support vessels.
    The Crescent River Port Pilots also pilot ships in the Mississippi 
River Gulf Outlet. A man-made channel approximately 75 miles long 
starting in Breton Sound in the Gulf of Mexico and ending in New 
Orleans where it intersects with the Intercoastal Waterway.
    The Mississippi River Gulf Outlet feeds the main container 
terminals in the Port of New Orleans. Additional docks such as Bulk 
Terminal and general cargo facilities depend on this channel which 
handled approximately 700 ship calls last year.
    The Mississippi River Gulf Outlet has been a controversial channel 
since its inception, but being an integral part of the Port of New 
Orleans, it would be disaster if it is not kept at project width and 
depth. The Crescent River Pilots strongly support approval of fueling 
for both the maintenance dredging, jetty repair projects.
    Funding of the United States Army Corps of Engineers projects in 
the lower Mississippi River system which includes the Mississippi River 
Gulf Outlet, Tiger Pass, Baptiste Collette and Southwest Pass has 
proven to be money well spent.
    I urge your support of the funding requested to allow the Corps of 
Engineers to continue to maintain and improve the most productive 
waterway system in the world.
    Mr. Chairman, thanks for allowing me the opportunity to submit my 
comments to your subcommittee.
                                 ______
                                 

Prepared Statement of Gary K. Pruitt, Executive Director, Greater Baton 
                         Rouge Port Commission

    The Port of Greater Baton Rouge respectfully requests that your 
committee give favorable consideration to the following projects.
    Mississippi River Ship Channel--Gulf to Baton Rough, Louisiana.--We 
support full funding in fiscal year 1998-99 to the Corps of Engineers 
General Construction Budget. This will allow for the completion of the 
saltwater intrusion mitigation plan and the design studies for the 
fifty-five foot channel.
    Mississippi River--Baton Rouge to the Gulf--Maintenance Dredging 
and GI funds for navigation study.--We support maximum funding for 
maintenance dredging on this stretch of the river and for the 
navigation improvement study to reduce long-term maintenance cost.
    As stated in previous correspondence, these two projects are vital 
not only to the Port of Greater Baton Rouge, but to the entire nation, 
The great Mississippi River is the premier national waterway, providing 
accessibility to and from foreign countries for the transportation of 
goods and services used by countless numbers of U.S. companies and 
individual citizens. The channel must be properly designed and 
maintained for the benefit of all.
    We also earnestly request your support for funding of the other 
projects included in testimony prepared and submitted by Mr. Lawrence 
T. Bollinger. There projects are also extremely important to the 
overall viability of the Mississippi River system and its tributaries. 
We must properly maintain our waterway infrastructure if we are to 
increase trade and have the confidence of our trading partners around 
the world.
    Your cooperation in these matters is greatly appreciated.
                                 ______
                                 

  Prepared Statement of Gary P. LaGrange, Executive Director, Port of 
                      South Louisiana, LaPlace, LA

    The South Louisiana Port Commission very much appreciates being 
given the opportunity to submit this statement and supportive material 
to signify its endorsement of the statement of Mr. Donald T. Bollinger, 
Chairman of the Louisiana Governor's Task Force on Maritime Industry.
    The Port of South Louisiana is comprised of nearly 54 miles of 
Mississippi River north of New Orleans and south of Baton Rouge, with 
more than fifty private and public docks and wharves. The Port of South 
Louisiana is the largest tonnage port in the United States and fourth 
largest in the world, handling more than 220 million short tons of 
cargo during 1997. Of this total tonnage, more than 100 million tons 
are shipped in international trade by deep water vessel and 120 million 
tons are shipped in domestic trade by vessels and barges. Each year 
more than 100,000 barges transport cargo at the Port of South Louisiana 
and more than 4,000 ships call at the public and private wharves of our 
Port.
    A recent study by Dr. Tim Ryan of the University of New Orleans 
indicates that nearly 20 per cent of the domestic gross product of the 
State of Louisiana is dependent upon the maritime industry and one of 
twelve jobs is created frown the economic activity of the maritime 
industry. Attached you will find statistics which have been developed 
from the records of the South Louisiana Port Commission.
    The Port of South Louisiana strongly urges the Congress to fund all 
of the following projects.
  --Mississippi River Ship Channel, Gulf to Baton Rouge, LA 
        (Construction General)
  --Mississippi River, Baton Rouge to the Gulf, Maintenance Dredging 
        and GI Funds For Navigation Study
  --Mississippi River-Gulf Outlet (MR-GO), I-A., Maintenance Dredging
  --Inner Harbor Navigation Canal (IHNC) Lock, LA
  --Mississippi River Outlets at Venice, LA
  --Intracoastal Waterway Locks, LA
  --Gulf Intracoastal Waterway, LA and TX
  --Red River Waterway, Mississippi River to Shreveport, LA
    The Port of South Louisiana strongly believes that the funding and 
completion of the above maritime projects will enhance the ability of 
the ports in the region to be competitive in the global economy and 
will enhance the ability of domestic industry and agriculture to 
compete in the export of its products.
    If we can provide any further information, please feel free to call 
upon me.

                               Exhibit A

            Summary of Trade--Year Ending December 31, 1997

                              [Short tons]

Exports.................................................      63,427,557
Imports.................................................      34,881,460
Domestic receipts.......................................      89,435,110
Domestic shipments......................................      32,350,670
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................     220,094,797

                     World Port Tonnage Comparison

                    [Year ending December 31, 1997]

Port of Singapore.......................................     327,500,000
Port of Rotterdam.......................................     307,300,000
Port of Kaohsiung.......................................         ( \1\ )
Port of South Louisiana.................................     220,094,797
Port of Houston.........................................         ( \1\ )

\1\ Unavailable at printing.

Source: Finance Division, Business Development Division, Port of South 
Louisiana.
---------------------------------------------------------------------------

                               Exhibit B

                 Exports--Year Ending December 31, 1997

                              [Short tons]

        Commodity                                                Shipped

Animal feed.............................................       9,488,615
Barley..................................................          19,953
Chemicals or fertilizer.................................       2,067,700
Crude oil...............................................          36,687
Edible oils.............................................       1,340,941
Maize...................................................      24,721,960
Milo....................................................       1,969,310
Ores....................................................          16,000
Petroleum Products......................................       2,559,924
Rice....................................................         581,779
Soybeans................................................      15,554,336
Wheat...................................................       4,424,749
Wood/wood chips.........................................         645,603
                    --------------------------------------------------------
                    ____________________________________________________
      Total exports.....................................      63,427,557

Source: Finance Division, Business Development Division, Port of South 
Louisiana.
---------------------------------------------------------------------------

                               Exhibit C

                 Imports--Year Ending December 31, 1997

                              [Short tons]

        Commodity                                               Received

Chemicals or fertilizer.................................       1,695,269
Coal, lignite, coke.....................................           6,569
Crude oil...............................................      14,783,704
Edible oils.............................................         579,898
Grain...................................................          22,826
Ores....................................................       3,399,154
Petroleum Products......................................      10,661,594
Rice....................................................          22,000
Steel, iron, metals.....................................       1,605,599
Sugar, molasses, honey..................................         101,639
Stone, earth, or concrete...............................       2,003,208
                    --------------------------------------------------------
                    ____________________________________________________
      Total imports.....................................      34,881,460

Source: Finance Division, Business Development Division, Port of South 
Louisiana.
---------------------------------------------------------------------------

                               Exhibit D

              DOMESTIC TRADE--YEAR ENDING DECEMBER 31, 1997
                              [Short tons]
------------------------------------------------------------------------
                Commodity                    Received         Shipped
------------------------------------------------------------------------
Animal feed.............................       4,485,887         405,079
Barley..................................          18,068  ..............
Chemicals or fertilizer.................       2,672,382       5,921,968
Coal, lignite, coke.....................          15,000  ..............
Crude oil...............................       4,610,323       2,729,885
Edible oils.............................         559,004         215,235
Maize...................................      24,375,854  ..............
Milo....................................         649,240  ..............
Ores....................................       4,307,258       1,015,382
Petroleum products......................      23,303,370      21,567,298
Rice....................................         530,057          27,795
Soybeans................................      18,978,475           1,100
Steel, iron, or metals..................         513,032         266,116
Stone or concrete.......................         125,095          65,618
Sugar, molasses, honey..................          95,786           2,959
Wheat...................................       3,586,062           9,241
Wood/wood chips.........................         610,217         122,994
                                         -------------------------------
      Total domestic trade..............      89,435,110      32,350,670
------------------------------------------------------------------------
Source: Finance Division, Business Development Division, Port of South
  Louisiana.

                                 ______
                                 

 Prepared Statement of Gov. Murphy J. ``Mike'' Foster on behalf of the 
 Louisiana Department of Transportation and Development, Public Works 
                     and Flood Control Directorate

    The Louisiana Department of Transportation and Development, Public 
Works and Flood Control Directorate, is the agency designated to 
represent the State of Louisiana in the planning and orderly 
development of its water resources. This statement is presented on 
behalf of the State of Louisiana and contains recommendations for 
fiscal year 1999 appropriations for work in Louisiana under the 
Mississippi River and Tributaries Project.
    Louisiana contains the terminus of the Mississippi River, which has 
the third largest drainage basin in the world, exceeded only by the 
watersheds of the Amazon and Congo Rivers. The Mississippi River drains 
41 percent, or 1\1/4\ million square miles, of the contiguous United 
States and parts of two Canadian provinces. All of the runoff from 
major river basins, such as the Missouri and Upper Mississippi, the 
Ohio including the Tennessee and others, and the Arkansas and White, 
flow into the Lower Mississippi, which empties into the Gulf of Mexico 
through Louisiana.
    The jurisdiction of levee boards in Louisiana includes one-third of 
the State's total area. However, the importance of this one-third of 
the State can be seen by the fact that it contains nearly 75 percent of 
the State's population and about 97 percent of the State's disposable 
personal income. Traditionally, the levee district areas are water rich 
and have fallen heir to industrial development that ranks high in the 
nation. It has been estimated that about 60 percent of the State's 
agricultural products come from levee district areas. So you can see 
why Louisiana and its twenty levee districts are so interested in 
seeing the completion of the Mississippi River and Tributaries Project.
    In making the following recommendations regarding construction, 
studies, and some selected operation and maintenance items, the State 
of Louisiana understands the Administration's need to reduce the 
Federal deficit, but would hope that Congress and the Administration 
will honor their prior commitments to infrastructure development and 
fund our requests.
    The following Louisiana projects are those for which we are 
requesting an increase to the President's budget request. For those 
Louisiana projects not listed we agree with the President's budget 
request. See the attached ``Summary of Recommended Appropriations'' for 
a complete listing.
Operation and maintenance

                                                                 Request

Atchafalaya Basin.......................................     $16,246,000
Old River...............................................      12,485,000
Bonnet Carre............................................       2,357,000

    The operation and maintenance of completed works are essential to 
achieving the full benefits of the projects. In times of budget 
constraints it is essential that operation and maintenance not be 
delayed which would hamper the effectiveness of the projects and cause 
more expensive maintenance at a later date. The above listed projects 
have reached a point where delayed maintenance is now essential and we 
urge you to fund these projects in the amounts requested.
Bayou rapides drainage structure and pumping plant

                                                                 Request

Lower Red River, South Bank Levees......................      $2,773,000

    The Bayou Rapides Drainage Structure and Pumping Plant Project is 
authorized under the Lower Red River, South Bank Levees of the 
Mississippi River and Tributaries Project. An additional $1 million is 
requested to complete plans and specifications and to begin 
construction. These additional funds will maintain the scheduled 18 
months allowed for major maintenance projects. We urge your support for 
funding and request that specific language be included in the 
appropriations bill to direct the Secretary of the Army to construct 
this project.
Mississippi River levees (LA only)--Request: $15,200,000
    The Mississippi River and Tributaries Project above Louisiana is 
about 90 percent complete, but in Louisiana to a much lesser extent. 
Because of the improvements upstream, increased flows are a major 
problem in Louisiana where the project is lagging behind the 
construction in the upper valley. We request funds for levee 
enlargement work within the Fifth Louisiana Levee District where there 
is a deficiency of 4 to 7 feet on mainline Mississippi River levees. It 
is also requested that Federal funds be provided to purchase rights-of-
way for this critical work as the Levee District is in an economically 
depressed area and does not have a tax base capably of producing the 
funds necessary for both maintenance and rights-of-way.
Louisiana State Penitentiary levee--Request: $10,000,000
    The Louisiana State Penitentiary Levee is the only section of 
Mississippi River levee in Louisiana that is not currently constructed 
to Federal standards. It was authorized under the Mississippi River and 
Tributaries Project in 1986 and re-authorized in 1990. We urge your 
support in funding this project and request that specific language be 
included in the appropriations bill to direct the Secretary of the Army 
to construct this project before an emergency situation arises during a 
major river flood and also to authorize credit for work accomplished by 
non-Federal interests.
Atchafalaya basin--Request: $24,600,000
    This project is a main stem component of the flood control plan for 
the Mississippi River and Tributaries Project. The Mississippi River 
can safely carry only one-half of the project flood, or 1,500,000 cubic 
feet per second, below Old River; the other 1,500,000 cubic feet per 
second must be discharged through the Atchafalaya Basin. The levees 
which must confine this flow to the basin are now deficient because 
they have settled below original design grade due to consolidation of 
the underlying soils, and the design has been revised upward. This 
places the lives and welfare of approximately 650,000 people and their 
property and improvements in 13 parishes in the immediate vicinity of 
the Atchafalaya Floodway in jeopardy each flood year. The tax 
assessment records indicate the value of potential flood losses to be 
approximately $8 billion, not including public improvements. Over the 
past half century, we have supported the Mississippi River and 
Tributaries Project and have agreed that construction of flood 
protection works should start upstream and progress downstream. As a 
result, the Mississippi River and Tributaries Project is now more than 
90 percent complete in sites upstream from Louisiana, while the levees 
in the Atchafalaya Basin can contain approximately only 90 percent of 
the project flood. Work on this project has been underway since 1928 
and isn't scheduled for completion until the year 2031--a date that 
continually keeps moving further into the future. With the reduced 
budgets being enacted, Louisiana could possibly never realize the full 
benefits of this project before the dreaded project flood occurs. We 
urge your support for funding this effort to the full capability of the 
Corps. In addition, authorization is needed to provide Federal funds 
toward the construction of a replacement facility for the Bayou Yokely 
Pump Station in St. Mary Parish.
Channel improvement (LA only)--Request: $16,120,000
    Channel improvements and stabilization provide protection of the 
levees and the development behind them, as well as preventing 
unsatisfactory alignment where the river's bank is unstable. We are 
requesting an additional $3,620,000 ($2 million New Orleans District 
and $1.62 million for the Vicksburg District) for fiscal year 1999 to 
keep the program moving forward. The funds we are requesting will 
provide for the dredging and revetment work necessary to accommodate 
increased flows caused by upstream improvements.
Tensas basin, Red River backwater area (Sicily Island Area Levee 
        Project)--Request: $11,400,000
    The funds for fiscal year 1999 are to be used to continue 
construction of levee Items 1E and 2A, the HaHa Pumping Plant and to 
complete relocations for levee Item 2A and construction of levee Item 
3B. An additional $1.3 million is requested to advance the award of 
Item 2B.
Morganza, LA to the Gulf of Mexico--Request: $755,000
    This study area of approximately 4,000 square miles lies in the 
corridor between the Mississippi and the East Atchafalaya Basin Levees 
and is part of the alluvial floodplain of the Mississippi River. These 
levees intercepted the drainage which now must flow approximately 125 
miles to the Gulf of Mexico. The area is affected by backwater flooding 
from the Atchafalaya Basin and is also affected by tides. This is a 
very important project to the State and we urge your continued support.
Atchafalaya basin floodway system--Request: $10,000,000
    The project consists of acquiring real estate interests, excluding 
minerals, in the lower floodway for flood control, environmental 
protection, and public access purposes. The timing of the acquisition 
of land necessitates the increased funding request.
Donaldsonville to the Gulf of Mexico--Request: $1,000,000
    This is a new reconnaissance study for the area between Bayou 
Lafourche and the Mississippi River to determine solutions to the 
flooding and environmental degradation caused in part by the leveeing 
of the Mississippi River. Flooding caused by hurricane storm surge 
would also be investigated. The size of the area that the study will 
encompass and the complexity of the flooding problems therein will 
require a greater effort by the Corps in the reconnaissance phase. We, 
therefore, request your support to direct the Secretary of the Army to 
conduct a 24-month reconnaissance study at a $1,000,000 appropriation 
in lieu of the Corps' normal 6-month $100,000 limitation.
Mississippi delta region project, Davis Pond--Request: $16,000,000
    Davis Pond Freshwater Diversion Project is necessary to aid in the 
fight against coastal erosion and land loss. The State of Louisiana's 
commitment to this project is demonstrated by our agreement to provide 
25 percent of the cost of construction, operation and maintenance of 
the Davis Pond structure despite Congressional project authorization at 
100 percent Federal cost.
Local contributions for flood control improvements
    Historically, Louisiana has always done its part in cooperation 
with the Federal agencies concerned with flood control. The Louisiana 
State Board of Engineers, the forerunner of the Department of 
Transportation and Development, Public Works and Flood Control 
Directorate, was created in 1879, the same year as the Mississippi 
River Commission, to coordinate the planning and construction of the 
required flood control facilities to protect the State. Since that 
time, local expenditures for flood control have exceeded $730,000,000. 
This amount adjusted to 1979 dollars represents expenditures in excess 
of $5.3 billion. Nearly one-half of the potential flooded area of the 
Lower Mississippi River Valley lies in Louisiana. Local expenditures 
for flood control have increased with the growth of the valley. This 
record not only meets, but exceeds any National Water Policy local 
participation requirement ever put into practice.
                               conclusion
    The President's budget for civil works projects again proposes a 
transition from annual incremental funding of all project construction 
requirements to full funding of those requirements. Once again we feel 
this is fool hardy. Federal dollars would be tied up for future work 
instead of constructing much needed projects which have already been 
committed to by the Federal government and the local sponsor. In many 
cases the local sponsor has sold bonds to come up with their share of 
the funds. These advance appropriations are being requested for only a 
few selected projects. The unlucky remainder will have to wait, having 
their projects dragged out indefinitely, or stopped altogether because 
there is no money to continue them. This budget also does not allow for 
any new contracts to be let in fiscal year 1999, not ``new construction 
starts,'' but contracts to continue projects already under 
construction. This is truly not fiscally responsible.
    The Mississippi River and Tributaries Project has been underway 
since 1928 and isn't scheduled for completion until the year 2031--a 
date that continually keeps moving further into the future. We 
understand the need for budget constraints, but the President's budget 
request of $280,000,000 for the total MR&T Project is not adequate. We 
endorse the recommendation of the Lower Mississippi Valley Flood 
Control Association in their request for a minimum of $325,000,000 MR&T 
budget for funding to the full capability of the Corps.
    The State of Louisiana, Department of Transportation and 
Development, Public Works and Flood Control Directorate, in particular, 
wishes to commend the Appropriations Subcommittees on Energy and Water 
Development, and express our appreciation for the foresight and 
understanding exhibited for water resources projects which are vital to 
the national interest. We solicit your further consideration of the 
recommendations presented herein.

 MISSISSIPPI RIVER AND TRIBUTARIES SUMMARY OF RECOMMENDED APPROPRIATIONS
------------------------------------------------------------------------
                                                             Louisiana
           Louisiana projects             Budget request      request
------------------------------------------------------------------------
Operation and Maintenance:
    Mississippi River Levees (total
     MR&T)..............................      $6,271,000      $6,271,000
    Atchafalaya Basin...................       9,425,000      16,246,000
    Channel Improvement (total MR&T)....      53,329,000      53,329,000
    Old River Control Structure.........       4,100,000      12,485,000
    Lower Red River--South Bank Levees,
     Bayou Rapides Drainage Structure
     and Pumping Plant..................       1,773,000       2,773,000
    Tensas Basin:
        Boeuf and Tensas Rivers, AR, LA.       2,374,000       2,374,000
        Red River Backwater Area........       2,820,000       2,820,000
    Bonnet Carre Spillway...............         975,000       2,357,000
    Atchafalaya Basin, Floodway System,
     LA.................................         613,000         613,000
    Baton Rouge Harbor--Devil Swamp, LA.         146,000         146,000
    Bayou Cocodrie and Tributaries......          90,000          90,000
    Mississippi Delta Region,
     Caernarvon, LA.....................         402,000         402,000
Construction:
    Mississippi River Levees (LA only)..       8,600,000      15,200,000
    Louisiana State Penitentiary Levee..         400,000      10,000,000
    Atchafalaya Basin...................      21,023,000      24,600,000
    Channel Improvements (LA only)......      12,500,000      16,120,000
    Tensas Basin, Red River Backwater
     Area...............................      10,100,000      11,400,000
    Atchafalaya Basin, Floodway System..       7,500,000      10,000,000
    Mississippi Delta Region, Davis Pond      14,000,000      16,000,000
    Mississippi and Louisiana Estuarine
     Area (Bonnet Carre)................         250,000         250,000
General Investigations:
    Morganza to the Gulf of Mexico......         755,000         755,000
    Alexandria to the Gulf of Mexico....         500,000         500,000
    Donaldsonville to the Gulf of Mexico  ..............       1,000,000
------------------------------------------------------------------------
Note: The projects listed above are only those in Louisiana and directly
  affecting the State. We realize that there are other projects in these
  areas. We endorse the recommendations of the Lower Mississippi Valley
  Flood Control Association.

                                 ______
                                 

  Prepared Statement of James E. Wanamaker, Chief Engineer, Board of 
                    Mississippi Levee Commissioners

    Mr. Chairman and members of the committee: I am James E. Wanamaker, 
Chief Engineer for the Board of Mississippi Levee Commissioners, 
Greenville, Mississippi, and I have the privilege of presenting this 
statement on behalf of this Board and the citizens of the Levee 
District. This District consists of the counties of Bolivar, Issaquena, 
Sharkey, Washington, and parts of Humphreys and Warren in the Lower 
Yazoo Basin in Mississippi.
    As in past years, we remind you that the Mississippi River and 
Tributaries Project is one of if not the most cost-effective projects 
ever under taken by the U.S. The foresight used by the Congress in 
their authorization of the many features of this project is exemplary. 
Annual funding for this project needs to be $350,000,000 for 
construction to stay on schedule. We are all aware of the desire of the 
Congress to balance the Federal budget and we appreciate the effort 
made by the Congress to provide the maximum funding available for this 
work. The Lower Mississippi Valley Flood Control Association will be 
submitting a general statement in support of the appropriation of 
$325,000,000 for fiscal year 1999 for the construction, surveys, 
advanced engineering and the operation and maintenance of the 
Mississippi River and Tributaries Project. As many areas of our Nation 
are experiencing the devastation of floods from the El Nino weather 
system, we are reminded that without the comprehensive Mississippi 
River and Tributaries Project, our areas could be experiencing the same 
devastation. The Lower Mississippi River receives flood water from 41 
percent of the continental United States, with the Lower Mississippi 
River having experienced water levels above flood stage for the past 5 
years.
    Last year the Congress rejected the concept of full funding of 
flood control projects, yet again the administration's budget includes 
advanced appropriation of $530,992,000 for a number of projects 
scheduled for completion by the year 2003. This policy, if adopted will 
hold back money needed for the construction of many flood control, 
navigation, and environmental restoration projects that are under 
funded in this year's Budget. The current policy of continuing 
authority has worked for decades to assure that the country's economic 
and environmental status remains the envy of the World.
    The President's Budget request falls far short of the needs and 
capabilities of the Corps of Engineers for the Mississippi River and 
Tributaries Project that includes work on the Mainline Mississippi 
River Levees and the Yazoo Basin Projects. The following table outlines 
what the Congress appropriated last year, the President's Budget 
request and our request for your consideration while deliberating the 
appropriation for this year.

----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal year     Fiscal year
                                                                    Fiscal year        1999         1999 levee
                             Project                                   1998         President's    board (local
                                                                  appropriations  budget request     sponsor)
----------------------------------------------------------------------------------------------------------------
Construction:
    Yazoo Backwater.............................................        $520,000  ..............        $500,000
    Upper Steele Bayou..........................................       3,862,000      $3,450,000       6,000,000
    Demonstration Erosion Control...............................      15,000,000       3,900,000      18,000,000
    Tributaries.................................................         200,000         200,000         200,000
    Upper Yazoo Project.........................................      11,000,000       9,250,000      12,500,000
Maintenance:
    Big Sunflower...............................................       2,237,000  ..............       4,500,000
    Arkabutla...................................................       3,514,000       3,193,000       4,600,000
    Enid........................................................       3,556,000       3,272,000       4,500,000
    Grenada.....................................................       4,662,000       4,330,000       6,200,000
    Sardis......................................................       6,666,000       4,320,000       8,100,000
    Tributaries.................................................       1,343,000       1,238,000       1,300,000
                                                                 -----------------------------------------------
      Total \1\.................................................      52,560,000      33,153,000      66,400,000
                                                                 ===============================================
Mississippi River levees:
    Construction:
        Vicksburg District \1\..................................      13,100,000       7,850,000      19,000,000
        Lower MS River Valley Division \2\......................      28,143,000      23,750,000      40,900,000
    Maintenance:
        Vicksburg District \1\..................................       2,136,000       2,200,000       2,600,000
        Lower MS River Valley Division \2\......................       6,818,000       6,271,000       6,800,000
----------------------------------------------------------------------------------------------------------------
\1\ Vicksburg District includes portions of the states of Mississippi, Arkansas, and Louisiana.
\2\ Lower MS Valley Division includes portions of the states of Illinois, Missouri, Kentucky, Tennessee,
  Arkansas, Mississippi, and Louisiana.

    It is imperative that the work on the Mainline Mississippi River 
Levee Enlargement Project move forward as fast as funding will allow. 
We are requesting an appropriation for this item of $40.9 Million, 
which will allow the continuation of ongoing construction contracts, 
and is critical for the award of the contract on our most deficient 
section of levee in Mississippi. We are also requesting additional 
funding for maintenance on the Mainline Mississippi River Levees. An 
additional $598,000 is required for maintenance gravel on the levee 
roadways in the Vicksburg District to allow access for inspection and 
flood fighting during high water. Several reaches of our levee are 
becoming difficult to travel during wet weather conditions.
    The Reformulation of all remaining work in the Yazoo Basin has 
delayed construction for as much as 5 years on the Upper Steele Bayou 
and Upper Yazoo Projects. Our request includes $6.0 Million for the 
Upper Steele Bayou Project needed to insure that the contracts leading 
into the City of Greenville continue on schedule. An appropriation of 
$12.5 Million for the Upper Yazoo Project is needed to allow this work 
to proceed upstream toward Greenwood. Our request also is made in 
support of Yazoo Backwater Project, Demonstration Erosion Control and 
Tributaries features of the Yazoo Basin Appropriation as outlined in 
the preceding table.
    With the funding that you have so generously provided over the last 
several years, we find that the President's Budget did not include any 
funding for the continuation of contracts to be awarded this year on 
the Big Sunflower River-Bogue Phalia Operation and Maintenance Project. 
The need for this maintenance was identified in 1989, and the residents 
of south Washington County continue year after year to wait for the 
restoration of the protection provided in the 1960's when construction 
was completed on the work authorized by the Congress. We ask that $4.5 
Million be include in this year's appropriation for the Big Sunflower 
River Maintenance Project to allow the Corps of Engineers to fulfill 
the Federal responsibility for this work. Additional funds outlined in 
the above table are also needed over those included in the President's 
Budget for the Reservoirs that hold back flood water from ravaging 
Greenwood, Marks, Lambert and many other Mississippi Cities.
    We are grateful for the consideration given to us each year by the 
Committee and appreciate the opportunity to present our requests to you 
at this time.
                                 ______
                                 

    Prepared Statement of M.V. Williams, President, West Tennessee 
                        Tributaries Association

    My name is M.V. Williams and my home is in Friendship, Tennessee 
between the Middle and South Forks of the Forked Deer River. I am the 
President of the West Tennessee Tributaries Association. It is also my 
pleasure to serve as Chairman of the Executive Committee of the Lower 
Mississippi Valley Flood Control Association with headquarters in 
Memphis, Tennessee. This statement on behalf of the Association 
presents their views on fiscal year 1999 Budget for the Mississippi 
River and Tributaries Project. I will present several items of general 
interest to all our Membership. Other Members of the Association will 
present statements that will concern specific items of interest.
    I will briefly discuss the Lower Mississippi Valley Flood Control 
Association which is an Agency composed almost entirely of public 
bodies having local responsibility for flood control, drainage, bank 
stabilization and navigation improvements in parts of Illinois, 
Kentucky, Mississippi, Tennessee, Arkansas, Missouri and Louisiana. Our 
members are public officials who for the most part are elected by the 
people. The Association represents practically all of the levee and 
drainage districts, municipalities, port and harbor commissions and 
other state agencies in the Lower Mississippi Valley, extending from 
Cape Girardeau, Missouri to the Gulf of Mexico. These organizations and 
agencies are political subdivisions of the various states in which they 
are organized and function. We provide an agency through which the 
people of the Lower Mississippi Valley may speak and act jointly on all 
flood control, navigation, bank stabilization and major drainage 
problems. We have appeared before the Sub-Committee and served the 
people in the Lower Mississippi Valley for well over sixty years.
    The value of flood control and economic reality of the need for 
navigation is well known by the Congress therefore I shall not go into 
details but for the sake of confirming what is already known let me 
tell you that for every federal dollar invested in the Mississippi 
River and Tributaries project twenty-four dollars have been returned in 
damages prevented. In addition river navigation has produced annual 
benefits of almost nine hundred million dollars. What a wonderful 
investment of tax-payer's dollars.
    Fortunately for us and the other citizens of this great Nation, the 
Congress in it's wisdom has always recognized the value of such an 
investment and has consequently, with only very, very rare exceptions, 
appropriated more dollars for the Mississippi River and Tributaries 
Project that has been requested by the Executive Department.
    The Office of Management and Budget has for many years been our 
greatest problem and concern. Each year they reduce, cut and manipulate 
the Corps of Engineers' Budget that only serves to slow or stop 
construction and/or delay vitally needed maintenance work. This forces 
the extension of the completion date further into the future and 
endangers the integrity of the in-place flood control structures and 
the navigation channel. This is very expensive and reflects poor 
management of the assets of this Nation plus it endangers the life and 
property of the citizens of this Nation, especially the eight and a 
half million living in the Lower Mississippi Valley.
    This year the President's Budget request is no different. Without 
an increase of funds by the Congress, there is a very strong 
probability that on-going contracts will have to be stopped and 
required maintenance work will be postponed.
    As we have done for over 60 years, this Association has carefully 
reviewed the budget submission and find not only inadequate funds but 
we also note that the Executive Department has again this year 
attempted to initiate the concept of ``Full Funding'' even though the 
Congress strongly rejected that ill-advised and un-wise policy last 
year. We urge you to take similar actions this year.
    For several years this Association has been steadfast in it's 
position that a minimum annual Appropriation of Four Hundred Million 
Dollars for the Mississippi River and Tributaries Project is required 
in order that the Project may be completed in the most economically and 
engineeringly feasible manner. Since the Mississippi River and 
Tributaries Appropriation includes funding for maintenance, these funds 
would permit orderly repairs and improvements required to insure the 
integrity of our levee system and the assurance of the authorized 
navigation channel on the Lower Mississippi River as well as the 
protection and enhancement of the environment.
    We note that the Corps of Engineers capabilities for the 
Mississippi River Tributaries Project in fiscal year 1999 exceeds the 
Four Hundred Million Dollars.
    We are all involved in the Country's business in some manner and we 
are fully aware of the limitation of funds and the need to balance the 
federal budget, but investing in capital improvements has made this 
Country great and if we allow those capital investments to lag we will 
surely pay a dear price in the future. In order merely to keep the 
Mississippi River and Tributaries Project on schedule and protect our 
past investments will require a minimum commitment from the Congress of 
Three Hundred Fifty Million Dollars.
    It appears that our request for funding continues to decrease so 
let me put the bottom line on the absolute minimum Appropriations for 
the Mississippi River and Tributaries Project for fiscal year 1999.
    In order to merely preserve the integrity of our flood control and 
navigation systems, protect the natural environment of the Lower 
Mississippi River and to continue the work that is underway, the 
minimum Appropriation we will request is Three Hundred Twenty-Five 
Million Dollars.
    What price are we willing to pay? Do we ignore our infrastructure 
that we have invested so much time and money in? Do we have a balanced 
budget but no real wealth? Do we have a zero deficit but no good 
highways and bridges, no dependable navigation systems, no safe flood 
control projects, no real wealth? Do we continue to reduce the 
Appropriations for capital improvements to the point that the barge 
loaded with heating oil cannot get to Chicago so that our citizens can 
be warm in wintertime or the barge loaded with grain cannot get to New 
Orleans so that our farmers can be competitive in the world market or 
our citizens must live in fear of floods that will destroy their 
property or worse yet take their lives?
    Only Congress can answer these questions.
    The Mississippi River and Tributaries Project more than paid for 
itself in reduced monetary losses in only one flood, but this is not 
the complete story. The real benefits of this project are the reduction 
in human suffering, the improved health and the well being of the 
citizens. All of the approved methods known to us for making economic 
and environmental project analysis fall far short of fully evaluating 
these human needs. Since the productivity of the millions of acres of 
low lying lands adjacent to the main stem of the Lower Mississippi 
River are totally dependent upon the integrity of the flood control 
works, any major slow down in the completion of this project will 
represent economic strangulation to this productive portion of our 
nation. We are aware of the ever increasing demand on the federal 
dollar and the many complex problems that the Congress is confronted 
with, but we believe that this project is economically sound, 
environmentally necessary, and we urge its completion with all 
deliberate haste.
    The ultimate goal to be accomplished with the passage of the Act of 
1928 was that the lower valley would never again be destroyed by a 
flood such as that of the fateful year of 1927. When completed, our 
project will afford adequate protection to the people and lands of the 
alluvial valley against a ``project flood'' that is, the maximum flood 
which meteorologists estimate may occur. The project would also insure 
the permanency of location for harbor facilities and industrial sites 
and to obtain deeper and more reliable navigation channels. With the 
help of the Congress we have made progress in the Lower Mississippi 
Valley but the job has not been completed. The people of the valley 
will not feel or be safe until the job is completed.
                                 ______
                                 

     Prepared Statement of Lynn Lowe, President, Red River Valley 
                              Association

                              introduction
    The Red River Valley Association is a voluntary group of citizens 
banded together to advance the economic development and future well-
being of the citizens of the four state Red River Basin area in 
Arkansas, Louisiana, Oklahoma and Texas.
    For the past 73 years, the Association has done notable work in the 
support and advancement of programs to develop the land and water 
resources of the Valley to the beneficial use of all the people. To 
this end, the Red River Valley Association offers its full support and 
assistance to the various Port Authorities, Chambers of Commerce, 
Economic Development Districts and other local governmental entities in 
developing the area along the Red River.
    The Resolutions contained herein were adopted by the Association 
during its 73rd Annual Meeting in Shreveport, Louisiana on February 19, 
1998, and represent the combined concerns of the citizens of the Red 
River Basin area as they pertain to the goals of the Association, 
specifically: Economic and Community Development; Flood Control; Bank 
Stabilization; A Clean Water Supply for Residential, Commercial, 
Industrial and Agriculture Uses; Solar and Hydroelectric Power 
Generation; Recreation; Navigation; and Environment.
    The Red River Valley Association is aware of the constraints on the 
federal budget, and has kept those restraints in mind as these 
Resolutions were adopted. Therefore, and because of the far-reaching 
regional and national benefits addressed by the various projects 
covered in these Resolutions, we urge the members of Congress to review 
the materials contained herein and give serious consideration to 
funding the projects at the levels requested.
                             rrva statement
    Mr. Chairman and members of the Committee. I am Lynn Lowe, and I am 
pleased to represent the Red River Valley Association as its President. 
Our organization was founded in 1925 with the express purpose of 
uniting the citizens of Arkansas, Louisiana, Oklahoma and Texas to 
develop the land and water resources of the Red River Basin.
    The civil works budget has been drastically cut by the 
Administration for fiscal year 1999. The overall reduction is 21 
percent; however, most disturbing is the 47 percent cut in general 
construction. Civil works projects are the backbone to our nation's 
infrastructure for waterways, flood control and water supply. We remind 
you that these projects are a true `jobs program' in that 100 percent 
of the construction is contracted to the private sector as is much of 
the architect and engineer work. Not only do these funds provide jobs, 
but provide economic development opportunities for our communities to 
grow and provide permanent jobs.
    The civil works program is a catalyst that is responsible for the 
great economy we now experience. It would be irresponsible to allow our 
nation's infrastructure to deteriorate, or worse, stop its growth in a 
time when America must be the leader in the world market. Our inland 
waterways is the key to our dominance in world trade. This is a pivotal 
budget year where critical decisions must be made which will determine 
our future economic strength.
    The Administration has clearly made the wrong decision. We ask you 
to correct this and to fund the Corps of Engineers at a realistic level 
as you did in fiscal year 1998. We also request you place in your 
budget language that recognizes the importance of our nation's 
waterways and the positive economic impact civil work activities have 
to our citizens.
    I would like to comment on our requests for the future economic 
well-being of the citizens residing in the four state Red River Basin 
area.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. The average tonnage moved in 
1995 and 1996 was 3,279,000 tons and the projected tonnage to justify 
the project was 3,327,000 tons. We are extremely proud of our public 
ports, municipalities and state agencies who have created this success. 
An international ship building company has moved into the Shreveport-
Bossier City Port hiring a work force of 400 with an annual salary base 
of $25 million. This is just an example of one of the many companies 
now operating on the Waterway. You are reminded that the Waterway is 
not complete. In order to keep the waterway safe and reliable we must 
continue at a funding level higher than the President's Budget. We can 
not sacrifice what has been accomplished by inadequate funding levels.
    In fiscal year 1999 you provided funds to initiate the feasibility 
study to extend navigation from Shreveport-Bossier City, Louisiana into 
the State of Arkansas. It is imperative that you continue funding this 
important study. Many areas continue to suffer major unemployment, and 
the navigation project, although not the total solution, will help 
revitalize the economy in this region. The U.S. Fish and Wildlife 
Service Planning Aid Report indicated minimal impact and most probably 
an enhancement to environmental value. Last summer colonies of least 
terns (an endangered species) were found on stabilized sandbars in the 
completed waterway as well as increased migratory birds due to the 
newly formed pools. I want to stress that the local sponsor, the Red 
River Commission of Arkansas, has available their 50 percent cost share 
for the complete feasibility study. Few local sponsors have funds `in 
the bank' and are also willing to fund additional studies to insure a 
complete analysis is made.
    Bank Stabilization.--One of the most important continuing programs 
on the Red River is bank stabilization. We must stop the loss of 
valuable farmland that erodes down stream and interferes with the 
navigation channel. In addition to the loss of farmland is the threat 
to public utilities such as roads, electric power lines and bridges; as 
well as increased dredging cost in the navigation part of the river.
    These revetment projects are compatible with subsequent navigation 
and we urge that they be continued in those locations designated by the 
Corps of Engineers to be the areas of the worst erosion.
    It is essential to protect the banks from caving and erosion along 
the Red River below Denison Dam to Index, Arkansas. The Federal 
Government constantly encourages its farmers to protect their lands 
against all forms of erosion, so it only makes sense to be consistent. 
An authorized project exists; `Red River Waterway, Index, AR to Denison 
Dam, TX, Bank Stabilization', so the issue lies with the benefit/cost 
ratio. We believe that the authorized, on going `Sediment Transport 
Study' will identify benefits due to reduced dredging cost to the 
Navigation Waterway in Louisiana.
    There is a new technique for bank stabilization which could be 
tested as a demonstration project under this authorization. This new 
technique, underwater bendway weirs, has proven to be less expensive 
than conventional methods and more efficient in controlling the energy 
of the river as well as providing environmental benefits. Much prime 
farmland in Oklahoma and Texas is lost each year to river erosion and 
we must investigate all avenues to correct this problem.
    Flood Control.--You will recall that in 1990 major areas of 
northeast Texas, Southwest Arkansas and the entire length of the Red 
River in Louisiana were ravaged by the worst flooding to hit the region 
since 1945 and 1957. More than 700,000 acres were flooded with total 
damages estimated at $20.4 million. However, it could have been much 
worse. The Corps of Engineers estimates that without the flood control 
measure authorized by Congress over the past several decades an 
additional 1.3 million acres would have been flooded with an estimated 
$330 million in additional flood damage to agricultural and urban 
developments. We continue to consider flood control a major objective 
and request you continue funding the levee rehabilitation projects 
ongoing in Arkansas and Texas.
    Clean Water.--Nearly 3,500 tons of natural salts, primarily sodium 
chloride, enter the upper reaches of the Red River each day, rendering 
downstream waters unusable for most purposes. The Truscott Brine Lake 
project, which is located on the South Fork of the Wichita River in 
King and Knox Counties, Texas became operational in 1987. An 
independent panel of experts found that the project not only continues 
to perform beyond design expectations in providing cleaner water, but 
has an exceptionally favorable cost benefit ratio. Sixteen million 
dollars was appropriated in fiscal year 1995, by the Administration, to 
accelerate engineering design, real estate acquisition and initiate 
construction of the Crowell Brine Dam, Area VII and Area IX. Due to a 
conflict over environmental issues, raised by the U.S. Fish and 
Wildlife Service, completion of the SFEIS was delayed pending further 
study to determine the extent of possible impacts to fish and wildlife, 
their habitats and biological communities along the Red River and Lake 
Texoma. In an effort to resolve these issues and insure that no harmful 
impact to the environment or ecosystems would result, a comprehensive 
environmental and ecological monitoring program was implemented. It 
evaluates the actual impacts of reducing chloride concentrations within 
the Red River watershed. This base line date is crucial to 
understanding the ecosystem of the Red River basin west of Lake Texoma 
and funding for this must continue.
    The Supplement to the Final Environmental Impact Statement was 
completed in August 1996; however, has yet to be released. The 
Assistant Secretary of the Army (Civil Works) directed that a 
Supplemental Assessment Report (SAR) be conducted and completed by 
February 1997. In November 1997 the ASA(CW) agreed to support the 
continuation of the Wichita River Basin features of the project to 
reclaim Lake Kemp. This would provide a great water source for a large 
region in need of usable water.
    The Association urges Congress to continue supporting the Chloride 
Control Project in order to assure a clean water supply for 
residential, commercial, industrial and agricultural uses. This 
requires a Federal project; as the benefits affect all four states in 
the Red River basin.
    Operation and Maintenance.--We appreciate the support of your 
subcommittee to support the completion of navigation to Shreveport/
Bossier City which is now providing an increase to our industrial base, 
creating jobs and providing economic growth. We request that O&M 
funding levels remain at full Corps capability to maintain a safe, 
reliable and efficient transportation system.
    Full O&M funding levels is not only important for the Waterway 
Project but for all our Corps projects and flood control lakes.
    We are sincerely grateful to you for the past support you have 
given our various projects. We hope that we can count on you again to 
fund our needs and complete the projects started that will help us 
diversify our economy and create the jobs so badly needed by our 
citizens.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations and citizens we represent throughout the four 
state Red River Valley region. We believe that any federal monies spent 
on civil work projects are truly investments in our future and will 
return several times the original investment in benefits that will 
accrue back to the federal government.
    I am always available to provide you and your staff additional 
information or clarification on any issue presented.
                            grant disclosure
    The Red River Valley Association has not received any federal 
grant, subgrant or contract during the current fiscal year or either of 
the two previous fiscal years.
                  summary of fiscal year 1999 requests
    NOTE: Projects are not in any order of priority. Project number 
correspond to the backup information in Section IV.
A. Studies (General Investigations)
    1. Navigation on the Red River in Southwest Arkansas: WRDA 96 
authorized a feasibility study for this project. Funding was 
reprogrammed in fiscal year 1998 to initiate the study. The Project 
Study Plan (PSP) will be completed and the Feasibility Cost Sharing 
Agreement (FCSA) will be signed in fiscal year 1998. The study will 
commence with full participation from the communities in the project 
area which includes counties and parishes of Arkansas, Louisiana, Texas 
and Oklahoma. It is imperative that this study continue to be funded.
    NOTE: The local sponsor is prepared to cost share the study, 50 
percent and has funds available.

Total Funds Required....................................      $1,400,000
Fiscal Year 1999 Federal Share..........................         700,000
Local Sponsor Share.....................................         700,000

    2. Cypress Valley Watershed Ecosystem Restoration, TX: Request a 
feasibility study be initiated. A local sponsor has been identified and 
willing to participate.
    This study will demonstrate the benefits in flood damage reduction, 
environmental restoration, recreation and water supply to the Cypress 
Valley Watershed system. The total feasibility cost is estimated to be 
$2.2 million; cost shared 50/50 with the local sponsor.

Total Funds Required....................................        $600,000
Fiscal Year 1999 Federal Share (President's Budget......         300,000
Local Sponsor Share.....................................         300,000

    3. Grassy Lake, AR: Project Modifications for Improvement of the 
Environment (Section 1135). The Secretary of the Army acting through 
the Chief of Engineers is requested to expend, within the funds 
provided for the Section 1135 Program; $200,000 for planning and design 
of modifications to restore the environmental quality of Grassy Lake, 
Hempstead County, Arkansas, degraded by the construction of Millwood 
Lake, Arkansas.

Fiscal Year 1999 Funds Required.........................        $200,000

    4. Southwest Arkansas, Arkansas: Provided further, that the 
Secretary of the Army is directed to initiate a reconnaissance study in 
Southwest Arkansas utilizing $300,000 appropriated herein to develop an 
ecosystem restoration plan that integrates flood control, water supply, 
releases for navigation and wildlife habitat. The study will 
investigate adverse results caused by construction of Millwood, 
DeQueen, Dierks, and Gilham Lakes. Navigation has been extended to 
Shreveport/Bossier City, Louisiana, on the Red River, flooding remains 
a problem and the lakes' water supply is not being used.

Fiscal Year 1999 Funds Required.........................        $300,000

    5. Wallace Lake Flood Plain Study: Support the flood plain study, 
for Wallace Lake, Caddo Parish, Louisiana as included in the 
President's Budget.
B. Construction
    6. Red River Waterway Project, LA:
    a. We support the $5,392,000 included in the President's budget and 
items of work proposed by the Corps.
    b. In addition, we request additional funding, to insure the 
integrity and safety of the Red River navigation channel is maintained 
for reliable barge transportation as well as continuing with recreation 
features. Complete construction on Ben Routh/Dupree and Saline 
Reinforcement ($3,600,000), Cotton Reinforcement ($1,200,000), Ille Au 
Vaches Dikes ($700,000), Lower Campti Dikes ($1,600,000), Cognac ACS 
($500,000), Poisson ACS ($800,000) and Eagle Bend Capout PH II 
($1,000,000). Construction management cost are $600,000.

Fiscal Year 1999 Funds Required.........................     $10,000,000

    c. Design Federal Recreation Sites at Locks and Dams 3, 4 & 5 are 
required for additional access for safety. Local sponsor funds are 
available to cost share.

Total Funds Required....................................        $300,000
Fiscal Year 1999 Federal Share..........................         150,000
Local Sponsor Share.....................................         150,000

    d. Mitigation: We support all efforts to meet this obligation of 
the project. Existing funds must be carried forth to continue land 
purchase actions.
    e. Request the Corps cost share in the design and construction of 
boat launch facilities in Pool 3; one at Natchitoches, LA and one at 
Colfax, LA. There is limited access to the Red River in Pool 3 and as 
commercial traffic increases it is imperative that there be access for 
safety. These sites will be cost shared 50/50 with the Red River 
Waterway Commission who is prepared to design and construct these 
sites.

Total Funds Required....................................      $1,700,000
Fiscal Year 1999 Federal Share..........................         850,000
Local Sponsor Share.....................................         850,000

    f. Following is the total requirement for the Red River Waterway 
Project (a thru e above):

President's Budget......................................      $5,392,000
Navigation Construction Adds............................      10,000,000
Federal Recreation Sites................................         150,000
Public Recreation Sites.................................         850,000
Mitigation..............................................................
                    --------------------------------------------------------
                    ____________________________________________________
      Total Required for Fiscal Year 1999...............      16,392,000

    7. Red River Chloride Control Project:
    a. In November 1997 the Assistant Secretary of the Army (Civil 
Works) agreed to support a thorough re-evaluation of the Wichita River 
Basin features. Three out of four options have a positive benefit to 
cost ratio.
    b. Most of the features in the Wichita River basin have been 
completed and completion of this system would reclaim Lake Kemp which 
would become a major water source for the region.
    c. It is extremely important that the ongoing water quality and 
environmental monitoring continue. This is critical to establishing a 
baseline in which to evaluate the effects of the project.

Fiscal Year 1999 Funds Required.........................      $2,000,000

    8. Red River Below Denison Dam, Red River; Arkansas Levees: 
Continue funding levels for fully funded construction and restoration 
of Levee Item # 5 (Miller County Levee District) and design Levee Item 
# 6 (Garland Levee District).

Fiscal Year 1999 Funds Required.........................      $3,000,000

    9. Red River Emergency; Bank Protection; AR and LA: Fully Fund 
Construction of Finn Phase II ($3.9 mil) revetment. Complete design and 
fully fund construction on Black Lake ($3.5 mil). Canale Revetment 
($650,000) and Hurricane Revetment ($2,500,000) have been constructed; 
however, adjustments are required to eliminate unanticipated bank 
erosion problems.

Fiscal Year 1999 Funds Required.........................     $10,550,000

    10. Red River Emergency; Bank Stabilization between Denison Dam and 
Index, AR: We request the following two items:
    a. Investigate incorporating an environmental restoration corridor 
in conjunction with bank stabilization.
    b. To design and initiate construction for a `demonstration 
project' at two sites to analyze the effectiveness of a new technique, 
bendway weirs.

Fiscal Year 1999 Funds Required for a and b.............      $1,600,000

    11. Aloha-Rigolette Project, LA: Construction is underway and the 
funding should continue at full Corps capability to complete the 
project in fiscal year 1999.

President's Budget......................................        $320,000
To Complete the Project.................................       1,010,000
Total Required for Fiscal Year 1999.....................       1,330,000

    12. McKinney Bayou, AR: The reconnaissance study was completed and 
determined to be economically feasible. This project will go directly 
into PED and cost shared with the local sponsor (Federal 75 percent; 
local sponsor 25 percent) over a three year period. There are adequate 
carry over funds for fiscal year 1999.
    13. Bowie County Levee, TX: The plans and specifications have been 
completed. We request construction funding for the `locally preferred' 
option under the Flood Control Act of 1946 with assurances of support 
and maintenance from the local sponsor.

Fiscal Year 1999 Funds Required.........................        $900,000

    14. McGrath Creek, TX: Continue construction funding at the level 
of full Corps capability. This is supported by the Administration.
    15. Ogden Levee, Little River County, AR: This levee was authorized 
to be incorporated into the Federal Levee System by the Flood Control 
Act of 1946. The levee is in need of rehabilitation and has yet to be 
incorporated into the Federal Levee System. The Secretary of the Army 
acting through the Chief of Engineers is directed to design and 
initiate construction of the Ogden Levee along the Red River. Request 
that the Corps conduct PED at a cost share of 75 percent Federal and 25 
percent local sponsor. A sponsor has been identified and is prepared 
with its share. The Ogden Levee is to be designed to the same 
specifications as the opposite bank levees in Bowie and Miller 
Counties.

Total Funds Required....................................        $253,000
Fiscal Year 1999 Federal Share..........................         190,000
Local Sponsor Share.....................................          63,000

    16. Bossier Levee System, LA: Have the Corps clear and grub the 
channel of Loggy Bayou from its confluence of the Red River for 7.8 
miles. This channel has a serious impact on flooding in the upstream 
reaches.

Funds Requested.........................................        $500,000

C. Operation and Maintenance
    17. Red River Waterway, O&M:
    a. The President's budget included $8.337 million for the O&M of 
this project which falls short of capability and needs. As a new 
waterway it is important to allow commerce to move to encourage 
industry to develop and maintaining existing navigation structures is 
crucial to the safety of the system.
    b. WRDA 96 authorized the Corps to insure the oxbows remain 
accessible to the Red River for environmental purposes. The oxbow study 
report is completed and approved. Work should commence immediately. The 
O&M funding level must be adequate to address this issue.
    c. $2.5 million is required for revetment repairs to maintain the 
integrity and safety of the channel. Again, this new waterway must be 
given the full opportunity to develop.

Fiscal Year 1999 President's Budget.....................      $8,337,000
Revetment Repair........................................       2,500,000
Total Fiscal Year 1999 O&M Funds Requested..............      10,837,000

    18. Operations and Maintenance at Corps Projects: Request that all 
O&M funded projects remain at the level of Full Corps Capability.
                    backup information for requests
    Following is backup information and a historical perspective on 
each project request. They are numbered to correspond to each numbered 
project in the Summary of Request, Section III.
    1. Navigation on the Red River in Southwest Arkansas.--Twenty-one 
years ago the Arkansas General Assembly created the Red River 
Commission upon the recommendation of Governor Dale Bumpers, now the 
Senior United States Senator for the State of Arkansas. The Commission 
was vested with the authority to furnish the local cooperation 
necessary for the construction and study of projects and to coordinate 
with the Corps of Engineers and the Congress to develop the water 
resources of the Red River in Arkansas. With navigation now a reality 
to Shreveport, Louisiana, we are prepared to extend water 
transportation into Arkansas. Southwest Arkansas and East Texas are 
economic depressed regions. This project would provide multi-purpose 
opportunities for industries and increased employment. A regional 
impact study would clearly demonstrate the great benefits not realized 
to date. The local sponsor, Red River Commission of Arkansas, has 
initiated and will fully fund a Regional Economic Impact Study.
    There is no doubt that this project is feasible and only a full 
feasibility study will prove that. Most importantly, the local cost 
share, 50 percent, is available now for this study. The feasibility 
study was funded to start in fiscal year 1998 and has been initiated. 
It is imperative to continue that funding.
    2. No additional information.
    3. No additional information.
    4. No additional information.
    5. No additional information.
    6. Red River waterway project navigation to Shreveport-Bossier 
City.--The Red River Valley Association and Louisiana delegation are 
appreciative for the completion of Locks and Dams 4 and 5. Navigation 
to Shreveport-Bossier City has significantly boosted the economy 
throughout the river basin.
    There is still work ahead of us to maintain and develop the 
navigation channel. It is also imperative that funds be appropriated to 
continue construction on navigation structures for this waterway to 
insure reliable, safe commercial navigation.
    The Red River Valley Association encourages and supports the 
continuation of the Loggy Bayou mitigation project and the mitigation 
commitment for the whole project. These are important environmental 
projects for the overall system of the Red River.
    Recognizing that recreation is an integral component of the Red 
River Waterway Project, the Red River Valley Association supports the 
development of recreational facilities as a part of the overall project 
construction. The Master Plan for Recreation has been submitted to the 
Mississippi Valley Division for final review and approval. We support 
approval of this re-evaluation and funding to construct the recommended 
sites.
    7. Red River basin chloride control project.--Natural mineral 
pollutants in the upper reaches of the Red River Basin are rendering 
downstream waters unusable for most purposes. The primary pollutants 
are chlorides and sulfates.
    The U.S. Public Health Service initiated a study in 1957 to locate 
the natural pollution areas and determine the contribution of 
pollutants from the individual areas to the Red River. It was 
determined that 10 natural salt source areas located in the basin 
contribute a daily average of about 3,600 tons of salt (as NaC1) to the 
Red River. The U.S. Army Corps of Engineers, Tulsa District, entered 
the study in 1959 to recommend measures to control the natural 
pollution. Structural measures were recommended for 8 of the 10 salt 
source areas.
    An experimental project at Area V near Estelline, Texas was 
authorized by the Flood Control Act of 1962. The project consists of a 
9-foot-high by 340 foot diameter earthen dike encompassing a brine 
spring and a 4-foot-wide concrete outlet flume with stoplogs to control 
flow. With the project in operation since January 1964, surface flow 
from the spring has been suppressed, thus preventing over 240 tons of 
chlorides per day from entering Prairie Dog Town Fork of the Red River.
    Structural measures for chloride control at Areas VII, VIII, and X 
in the Wichita River Basin above Lake Kemp were authorized by the Flood 
Control Act of 1966 (Public Law 89-789), and structural measures for 
Areas VI, IX, XIII, and XIV were authorized by the Flood Control Act of 
1970 (Public Law 91-611). Actual construction, however, was not to be 
initiated until approved by the Secretary of the Army and the 
President. The Flood Control Act of 1970 was amended by the Water 
Resources Development Act of 1976 to eliminate the required approval of 
the President to initiate construction.
    The Water Resources Development Act of 1974 (Public Law 93-251), 
specifically authorized construction of chloride control measures at 
Area VIII, located on the South Fork of the Wichita River in King and 
Knox Counties, Texas. The project includes a low-flow dam with a 
deflatable weir to collect brine flows emitting from the area, Truscott 
Brine Reservoir, located near Truscott, Texas, for brine storage, and a 
pump station and pipeline to deliver the brine to the impoundment. 
Construction began in the fall of 1976 and the project was placed in 
operation in May 1987. Area VIII continues to exceed design 
specifications and currently controls over 168 tons of chlorides daily. 
The Water Resources Development Act of 1986 (Public Law 99-662) 
required that a special panel evaluate the improvement in water quality 
downstream of Area VIII to determine its consistency with the water 
quality assumed in the development of project benefits. A favorable 
report was submitted to the Assistance Secretary of the Army (Civil 
Works) and the Committee on Environment and Public Works of the Senate 
and the Committee on Public Works and Transportation of the House of 
Representatives in August of 1988. Public Law 99-662 authorizes 100 
percent federal funding and construction of the remaining control 
features contingent upon the favorable evaluation of the panel.
    Congress appropriated $5 million in fiscal year 1991, $3 million in 
fiscal year 1992, $6 million in fiscal year 1993, $4 million in fiscal 
year 1994 and $16 million in fiscal year 1995 which was in the 
President's Budget for the first time ever. These funds were to 
continue design and construction of Areas VI, VII, IX and X and the 
Crowell Brine Reservoir. Construction of part of the brine collection 
facilities (pump station and low flow dam) at Area X was initiated in 
September 1991 and is complete. Accelerated design of the remaining 
chloride control features was approved in fiscal year 1994 to permit 
construction as additional funds become available.
    Real estate acquisition for Area VI, VII, IX, and the Crowell Brine 
Reservoir was scheduled to begin in fiscal year 1993, but was postponed 
pending the outcome of the economic re-evaluation report ordered by the 
Assistant Secretary of the Army for Civil Works which was subsequently 
approved in November 1993 and further instructed the Corps of Engineers 
to complete all remaining areas of the project.
    As part of the process to complete a Supplemental Environmental 
Impact Statement (SEIS) USFWS objected to the project in August 1994. 
This was unexpected by the Corps of Engineers since they had been 
coordinating with USFWS since 1991 and there was no indication they 
would deliver a negative opinion. This has stopped all construction 
work and effectively delayed the project.
    The SFEIS was completed in August 1996; however, the ASA(CW) 
directed that a Supplement Assessment Report (SAR) be completed by 
February 1997. The ASA(CW) in November 1997, directed the Corps to 
proceed with the Wichita River Basin features of the project. The SFEIS 
will be modified and approved in fiscal year 1998. Continued funding is 
needed to maintain the environmental monitoring program in place and to 
initiate work on the Wichita River.
    8. Red River below Denison Dam.--Red River Levees and Bank 
Stabilization Below Denison Dam is the authorization for constructing 
levees, flood control structures and bank stabilization below Denison 
Dam. The facilities constructed under this authorization are the first 
lines of flood protection for the Red River Valley and its citizens. 
Accelerated and new caving of the river banks of the Red River continue 
to endanger existing flood control structures and levees as well as 
valuable agricultural lands, highways, railroads, utilities, home and 
other valuable resources and improvements within the Red River Valley.
    A systematic program of bank stabilization and other flood control 
measures can prevent these disastrous losses that are presently 
occurring.
    Because of the construction of the Red River Waterway Project, a 
dangerous tendency has developed to de-emphasize construction of flood 
control and bank stabilization works under the Red River Levees and 
Bank Stabilization program. This tendency should be halted and reversed 
least the impression be created that the program is no longer needed or 
has been completed. Following the disastrous flood of May 1990, there 
can be no doubt of the importance of properly maintained levees and of 
bank stabilization. All areas not protected by properly maintained 
levees were flooded and the only protection from enormous bank caving 
was where revetment projects have been constructed by the Corps.
    The Red River Levees and Bank Stabilization Below Denison Dam 
Project is the only comprehensive flood control program on the Red 
River containing authorization for construction of a variety of flood 
control measures, levees and other flood control works. Some of the 
projects planned in the original authorization project have not been 
completed and these must be constructed in order for the citizens of 
the Red River to derive necessary flood protection.
    Only minimal funds have been appropriated by Congress for the Red 
River Levees and Stabilization Below Denison Dam in recent years. Bank 
caving on Red River has progressed in several locations to a critical 
state. Railroads, major public highways, levees and other flood control 
works are threatened, and unless action is taken in the near future, 
these facilities will be destroyed, endangering lives and property of 
the citizens of the Red River Valley.
    Another example of flood control work needed is levee reshaping 
along the main stem of Red River in the state of Arkansas. Many of 
these levee sections were severely tested by the May 1990 flood, and it 
is apparent that reshaping is needed to increase their integrity, 
substantially reduce maintenance costs, and provide additional 
structural strength at appropriate elevations needed to protect 
citizens, agricultural land and transportation systems. The Corps has 
completed an engineering study of the Levees on the Red River from 
Index, AR to the Louisiana State Line to establish and prioritize levee 
locations that have deficient grades, slopes and crown. This report 
included the recommendations with construction costs for all identified 
area. Any funds not expended for the engineering study should be 
applied to the highest priority area to develop contracts and 
construction plans and drawings. The first phase of construction at the 
Miller County Levee System was completed in 1995 and a follow on phase 
will be completed in fiscal year 1998. In summary, it is imperative 
that Red River Levees and Bank Stabilization Below Denison Dam continue 
as authorized by Congress and that adequate funding be appropriated to 
accomplish the construction of this needed protection.
    9. Emergency bank protection.--Although Federal projects have been 
authorized for flood control and navigation, many active caving banks 
cannot be stabilized because they are not yet sufficiently advanced or 
not included in earlier authorizations. The result is continuing, 
rampant destruction of valuable lands, threatening vital flood control 
facilities and endangering high-cost improvements such as bridges, 
pipelines, highways, railroads, utilities, cities and towns.
    It is urgent that adequate funding of the item ``Emergency Bank 
Protection'' be continued to construct bank stabilization work as early 
as possible in the most critical locations instead of waiting several 
more years and experiencing the loss of millions of dollars due to 
damages. Further, continued neglect of these caving banks will 
substantially worsen alignment of the River, making future navigation 
realignment and stabilization much more costly and difficult. Many 
presently caving banks have an existing alignment that is usable for 
the navigation channel and should be preserved now.
    10. Bank stabilization--Index, Arkansas to Denison Dam.--Widely 
fluctuating stages and high flows during the past several years have 
caused sharp increases in bank caving along the Red River from Index, 
AR to Denison Dam. This accelerated bank caving has caused the loss of 
valuable, vital improvements and non-replaceable prime agricultural 
lands. Flood control structures and levees which protect the Valley 
from disastrous floods are also endangered. These disastrous losses can 
be stopped by a systematic program of bank stabilization. Progressive 
construction of such a program is absolutely essential to the safety 
growth and well-being of the Red River Valley. To further delay this 
vitally needed protection would be short-sighted.
    In view of the fact that construction of bank stabilization is so 
important to the citizens along the Red River boundary of Oklahoma and 
Texas we strongly recommend allowing the Corps of Engineers to proceed 
with a ``demonstration project.'' There are new techniques which we 
believe are less expensive with better results than the traditional 
methods. One new technique is the underwater bendway weir. This 
demonstration project will be evaluated along with the ongoing 
`sediment transport' study to determine the potential for a large scale 
bank stabilization project.
    11. Aloha-Rigolette project.--This project, initially authorized in 
1941 and constructed during the 1948-54 period, provides for the 
protection during high stages of the Red River of some 58,000 acres of 
alluvial land. Drainage from 340,000 acres that must flow through 
protected areas during lower river stages is disposed of by gravity 
flow through two 10 foot by 10 foot gated concrete drainage structures 
in the levee at the lower end of the project. This protected area has 
continued to develop agriculturally since construction of the project 
and now additional gates are needed to allow adequate gravity drainage 
during low river stages. As a result, local interests requested that 
additional studies be made of the project, paying particular attention 
to the adequacy of the flood gate which has now been determined to be 
significantly inadequate for current conditions.
    A feasibility study was completed by the New Orleans District, 
Corps of Engineers in June 1989. The Red River Valley Association urges 
that Congress appropriate the full capability of the Corps fiscal year 
1999 budget to complete construction activities for the project on the 
Bayou Darrow flood gate, clearing and snagging of channels, the low 
flow structure and mitigation.
    12. McKinney Bayou project, AR.--The Corps of Engineers completed a 
reconnaissance study of drainage in Miller County, Arkansas. The 
project is known as the McKinney Bayou Project as it is the principal 
drainage ditch in the County. Due to the thousand of acres of land 
cleared in Miller County during the past 25 years, the ditch is grossly 
inadequate to handle the drainage after heavy rains. The Reconnaissance 
study had a high B/C ratio and therefore was recommended to go directly 
to Planning, engineering and design (PED). A local sponsor has been 
identified to cost share PED; Federal 75 percent/local sponsor 25 
percent.
    13. Bowie County levee, TX.--Major flooding along the Red River in 
May 1990 severely tested the integrity of the Bowie County Levee 
located along the right bank of the Red River north of Texarkana, 
Texas. Had it not been for emergency measures taken by the U.S. Army 
Corps of Engineers and local interests, the levee would have been 
destroyed during the flood. It is the opinion of the Corps that the 
levee would fail if subjected to another flood of the magnitude 
encountered in May 1990. Replacement or restoration of the levee is 
necessary to protect approximately 7,000 acres of prime agricultural 
land as well as residential and farm structures.
    Additionally, this levee system protects the land side of the 
Miller County levees in Arkansas. The Arkansas levees are being 
rehabilitated at full federal expense; therefore, a case has been made 
that the Bowie County levee should be funded the same as these levees. 
Again, the Arkansas levees would not be of any value should the Bowie 
County levee fail. In fiscal year 1997 Congress directed the Corps to 
complete designs and specifications for two options; federally 
preferred and locally preferred options. It is our intention to have a 
fully funded federal project for the locally preferred option.
    14. McGrath Creek project.--McGrath Creek is a tributary stream to 
Holliday Creek, and has a highly urbanized 5.6 square mile drainage 
area located in the heart of the City of Wichita Falls. On May 12 and 
13 of 1982, a flood occurred which resulted in flood damage in the 
amount of 21.5 million dollars. Floods have reoccurred on the average 
of twice per year with annualized damage of approximately 1.6 million 
dollars each and every year. In 1986, floods in the Wichita Falls 
region resulted in two fatalities, one being at the juncture of 
Holliday Creek and McGrath Creek.
    The City of Wichita Falls supports the construction of the 
$12,100,000 McGrath Creek Flood Control facility, and entered into a 
cost-sharing agreement with the federal government for the local match 
of 25 percent. Final plans and specifications have been completed by 
the Corps of Engineers. Construction has commenced and is a project 
supported by the Administration.
    15. Little River County, Ogden levee, AR.--The Congress 
appropriated $150,000 in fiscal year 1992 and $237,000 and $400,000 in 
the ensuring fiscal years to conduct in Little River County a 
feasibility study. The feasibility study is to explore the modification 
of existing levees and the construction of new levees to avoid a 
possible repeat of the devastating flood in May of 1990. The PED cost 
will be 100 percent federally funded. We request funding and direction 
for the Corps to initiate and complete plans, engineering and design 
(PED).
    16. Bossier levee district, Bossier Parish, LA.--There is a 
drainage channel issue which should be the responsibility of the Corps 
of Engineers to maintain. This is Loggy Bayou with its confluence on 
the Red River, river mile 194.1, with the channel in question extending 
approximately 8 miles upstream into Loggy Bayou.
    Loggy Bayou is the final and only channel that drains a vast area 
of Northwest Louisiana and part of Arkansas water into the Red River. 
The headwaters start in Columbia County, Arkansas and the drainage area 
includes large parts of Webster, Beinville and Bossier Parishes in 
Louisiana. There are no other diversions for these waters to the Red 
River except through Loggy Bayou. In 1943 the Bossier Levee District 
agreed to maintain the last 7.8 miles of Loggy Bayou before it enters 
the Red River. Conditions have changed drastically since 1943, to 
include: the diversion of Coushatta Bayou into the Loggy Bayou; the 
channel is now approximately 20 feet deeper due to increased drainage 
flows and the Red River Waterway Project has pooled the water into this 
section of Loggy Bayou permanently raising the water level. The Bossier 
Levee District does not have the equipment, expertise or funding to 
keep the channel maintained so there is now a real threat for increased 
flooding upstream. Since there have been considerable changes to the 
Loggy Bayou Watershed, beyond the control of the Bossier Levee 
District, and the waters drained are multi-state it is requested that 
the Corps of Engineers be directed to maintain the channel in Loggy 
Bayou, under the `Red River Waterway Project', Operations and 
Maintenance, from its confluence with the Red River upstream for 
approximately 8 miles.
    17. No additional information.
    18. No additional information.
           support resolution: shreveport chamber of commerce
            transportation-water--port of shreveport-bossier
    Issue.--Development of the Port of Shreveport-Bossier complex to 
access usage of the $1.8 billion Red River Waterway Project and to take 
advantage of the $68,000,000 annual transportation savings projected by 
the U.S. Army Corps of Engineers. Public investment is now at 
$70,000,000 and private investment continues to grow. Operational 
status on a regular basis was achieved in 1997 as some 148 barges 
carried 208,684 tons of cargo handled at the Port's two terminals.
    Why important.--
  --Create 5,000 direct jobs, coupled with up to 15,000 indirect jobs 
        in our communities over a 20 year period.
  --To complete in a global economy.
  --Lower transportation costs (annual savings $68,831,000).
  --Private investment potential. The first companies to locate at the 
        Port are successfully operating and showcasing that potential. 
        The most recent addition, Shreveport Fabricators, is an 
        expansion of Edison Chouest Offshore's shipbuilding companies 
        based in South Louisiana. They began operation at the Port in 
        February, 1998. Red River Terminals, a joint project of 
        Pennzoil Products Company and Hollywood Marine, began 
        successful operation at the Port in April, 1997.
  --A multi-transportation network is now in place with I-49, I-20, 
        proposed I-69, Shreveport Regional Airport, two railroads and 
        barge transportation.
    Our position.--Support the continuation of adequate funding for Red 
River Waterway maintenance in order to insure navigation to the Port of 
Shreveport-Bossier.
            transportation-water--red river waterway project
    Issue.--The Red River Waterway Project has been completed from the 
Mississippi River to Shreveport/Bossier City, Louisiana. Over the next 
few years the navigation structures (Dykes and Revetments) need to be 
adjusted and some may be added. In addition, it will take approximately 
$11 million per year to operate and maintain the system.
    Why important.--For economic development to be fully realized we 
must operate the Red River in a reliable manner for industry to use it 
as a major transportation system. The navigation channel must be 
maintained at a 9-foot draft for safe use. If the channel is not 
properly maintained, industry will be reluctant to use the Red River.
    The project Recreational Master Plan has been completed and it is 
important to execute the plan as soon as possible. There is limited 
access to the Red River and these sites are necessary for safety as 
well as the economic benefits of recreation.
    Our position.--We thank you for the funds which completed the Red 
River Waterway Project and we request funding for continuing on 
projects for navigation and recreation.
    It is imperative that $11 million be appropriated for Operation and 
Maintenance functions for a safe, reliable waterway. This is $2,500,000 
above the President's budget.
    We support the recreation development of the waterway and request a 
commitment of $1,200,000 for federal recreation sites at Locks and Dams 
3, 4 and 5.
    To continue with completion of the channel improvement structures 
we support an additional $11,200,000 to the President's budget for 
``Construction General'' projects.
     transportation-water--red river basin chloride control project
    Issue.--The first comprehensive study of the water quality of the 
Red River basin was initiated in 1957 by the U.S. Public Health Service 
under the authorization of the Federal Water Pollution Control Act. It 
was determined that ten natural salt source areas contribute a daily 
average of 3,600 tons of salt per day to the river. This renders 
downstream waters unusable for most purposes. Structural measures to 
help control the chloride pollution at 8 of the 10 sites were developed 
by the Tulsa District, Corps of Engineers. These plans led to 
Congressional authorization in the Flood Control Acts of 1962, 1966 and 
1970. The first structure was completed in January 1964 and the second 
in May 1987. The Water Resources Development Act of 1986 authorized the 
construction of the remaining sites.
    Approximately one-third of the project cost has been expended. The 
total project is expected to cost $303 million.
    The Tulsa District Corps of Engineers has completed the Supplement 
to the Environmental Impact Statement (SEIS). The Assistant Secretary 
of the Army (CW) directed the District to submit a Supplemental 
Assessment Report on alternatives by January 31, 1997.
    Why important.--Natural mineral pollutants (primarily chlorides and 
sulfates) in the upper reaches of the Red River Basin are rendering 
downstream waters unusable for most purposes; therefore, the Red River 
Chloride Project is imperative in order to realize full utilization of 
the surface water supplies in Louisiana (as well as Texas, Oklahoma and 
Arkansas). More than 1,000 miles of streams in the river system are 
severely contaminated by naturally occurring brine and is not suitable 
for municipal, industrial or agricultural purposes.
    The benefits of the Red River Basin Chloride Control Project will 
be improvements in water quality that will allow use for municipal, 
industrial, agricultural and recreational purposes. The added benefit 
will be the jobs created resulting from the implementation of the 
Chloride project.
    Our position.--We support this project in its present form and 
request the release of the SEIS for public review and comment. We 
support and encourage funding at the levels necessary to complete the 
remaining costs of the project by the year 2003. Construction must 
resume in 1999. It is imperative the Wichita River position be 
completed to reclaim Lake Kemp as a fresh water lake.
            transportation--water--inland waterway fuel tax
    Issue.--The inland waterways of this country move vast quantities 
of commodities at low rates. For almost two centuries, the federal 
government improved navigation channels at public expense to expedite 
the exchange of commerce at the lowest possible cost, relying 
competition to guarantee that producers and consumers would share in 
the benefits of the channel improvements. In 1980 a fuel tax on inland 
waterway commerce was established and it has been raised many times 
since. Efforts to dramatically escalate this tax in recent years have 
been made, but so far Congress has rejected them.
    Why important.--Proposals to greatly increase the tax would be 
self-defeating, not only for the Port of Shreveport-Bossier and the 
entire waterway transportation system, but for the economies of these 
interior regions. The availability of low-cost water transportation 
helps to maintain these economies. The impact on American industry and 
agriculture must be carefully studied, for economic growth and 
prosperity has always been the impetus for water development programs 
through the years. With world markets now within reach by these 
regions, we can not afford to severely disadvantage our ability to 
compete.
    Our position.--The Inland Waterway Fuel Tax should remain status 
quo.
              support resolution: shreveport/bossier port
    On behalf of the citizens of Northwest Louisiana, the Caddo-Bossier 
Parishes Port Commission strongly urges the Congress of the United 
States to allocate the necessary monies for the Red River Waterway 
Project for fiscal year 1999 so the Red River can be operated in a 
reliable manner for industry to use it and in order to ensure the 
viability of the $1.8 billion investment made over the last twenty 
years by the taxpayers of this country.
    The Port of Shreveport-Bossier began regular operations at the Port 
complex site in 1997. It stands today as a longtime dream with a 
potential proving to exceed even the most optimistic projections. With 
local taxpayer investment guaranteed by a 1993 property tax in the two 
parishes of Bossier and Caddo, the Port's infrastructure is growing to 
meet the demands of a rapidly expanding customer base. Public 
investment in the Port complex today stands at more than $65,000,000. 
Businesses located at the complex are Olin Chemical, Re-Claim 
Environmental, Red River Terminals and Shreveport Fabricators.
    Progress toward our goal of becoming a premier multi-modal 
transportation system is excellent. Attached for your information is 
Port background information, highlights of 1997 accomplishments and the 
Board of Commissioner's 1998 program of work.
    Results of these efforts should provide a sense of pride to all 
members of Congress who believed in the Red River Navigation Project. 
You recognized the possible benefits, the job-generating capabilities, 
the advantageous cost benefit ratios. And these are now becoming 
reality at The Port of Shreveport-Bossier.
                                mission
    The mission of the Caddo-Bossier Parishes Port Commission is to 
provide water transportation and economic development for the region 
through the Port of Shreveport-Bossier.
                       location/size of the port
    The Port of Shreveport-Bossier owns (1) 2,000 acres located just 
south of Shreveport's city limits, bordered on the east side by the Red 
River and on the west side by Louisiana Highway 1 and the Union Pacific 
main line, and (2) a 10-acre site in southwest Shreveport, the Ark-La-
Tex Intermodal Center.
             river port site characteristics and facilities
    Shallow draft navigation channel 9 feet deep by 200 feet wide.
    Union Pacific main line rail, connection with KCS.
    19,500 linear feet rail spur Pack and on-dock rail.
    Rapid access to I-20 and I-49.
    Two 24 feet wide access roads off of LA Highway 1, both of which 
exceed state highway load limits.
    General cargo wharf assigned to Logistic Services, Inc./SSA.
    30 ton overhead cantilevered bridge crane with magnet and 
clamshell.
    2.5 acre concrete open storage.
    Coal pile/open storage.
    Truck/rail certified weigh scales.
    300 feet water frontage liquids wharf, services 2 standard river 
barges simultaneously; manifolds, pumps and pipe customer owned/
operated.
    Two additional liquids wharfs.
    Stevedoring, fleeting and rail switching services.
    Full utilities, economical rates.
    Security on site.
    Land available for lease; suitable for industrial development.
    Businesses in operation at the Port: Olin Chemical Corporation, Re-
Claim.
    Environmental Louisiana, Red River Terminals and Shreveport 
Fabricators.
    Thank you for your interest in the Port of Shreveport-Bossier. If 
you have any questions about Your Port, please call or write.
               board of commissioners 1998 plan of action
    The Caddo-Bossier Parishes Port Commission was established and 
exists to provide water transportation and economic development for the 
region through the Port of Shreveport-Bossier.
  --The Port will provide cost effective and efficient facilities for 
        its users.
  --The Port shall operate in a fiscally-responsible manner.
  --The Port will maximize utilization of the public assets entrusted 
        to it for the economic benefit of the citizens of Caddo and 
        Bossier parishes and partners of interest.
    1. Continue to develop necessary infrastructure and facilities, 
noting customers needs and financial situation.
    (a) Close out rail extension south, transit warehouse, Quaker State 
dock.
    (b) Facilitate development of customer-driven infrastructure 
demands.
    (c) Consider environmental enhancements.
    (d) Develop sufficient infrastructure to support minimal initial 
physical security.
    (e) Negotiate 200+ acre land purchase.
    (f) Continue to maximize use of grant program funding to support 
infrastructure.
    2. Attract users for Port multimodal transportation services and 
business/industries for Port complex location.
    (a) Continue to work closely with local and Ark-La-Tex Port users 
and potential Port users.
    (b) Forge an alliance with one or two logistics firms.
    (c) Evaluate a Port Development Program.
    (d) Investigate establishing the port complex as a rail reload 
center.
    (e) Update promotional materials, printed and video.
    (f) Continue to work with other economic development agencies.
    (g) Participate in regional/national business promotions of 
Shreveport-Bossier.
    (h) Facilitate foreign investment/international industrial 
recruitment.
    3. Monitor Port operations, emphasizing the transfer from 
construction activities to full operation.
    (a) Fill operating equipment needs; specifically fleet boat, 
locomotives, safety boat, tractor/bushhog, POL spill equipment and fire 
station rolling stock.
    (b) Make appropriate staffing arrangements.
    (c) Confirm operating procedures/parameters/tariffs in concert with 
Port Safety Council/Logistic Services.
    (d) Monitor FTZ # 145, FTZ # 145 subzone, and oversight and 
interaction of U.S. Customs Port of Entry.
    4. Maximize available financial resources, continuing to leverage 
local tax dollars to maximize taxpayer investment.
    5. Communicate activities to all citizens of Caddo and Bossier 
Parishes; (1) continuing minutes and ``Port Report'' mail-outs, tours, 
speaking engagements, and Internet information; and (2) initiate grade 
school Port tours for school year 1998-1999.
    6. Continue interaction with city, parish, state, and federal 
authorities/agencies on legislative issues of importance.
    7. Continue participation in industry seminars, programs and 
events.
                          1997 accomplishments
    1. Operational status on a regular basis achieved as cargo began 
moving in April. Unusually heavy spring rains/high river conditions 
prohibited barge traffic before April. Some 148 barges carried 208,684 
tons of cargo handled at the Port's two terminals. Commodities included 
liquid petroleum products, aggregate, scrap steel and pressure vessels 
manufactured at Shreveport's Beaird Industries.
    2. Lease signed with Edison Chouest Offshore (ECO), a Louisiana 
company involved in marine vessel operations. Expansion of ECO's 
shipbuilding operations to the Port announced by U.S. Senator John 
Breaux and Congressman Jim McCrery at a press conference December 15. 
This lease will mean up to 400 skilled jobs with an annual payroll of 
$24 million; annual economic impact to our area will be more than $85 
million. The Red River Waterway Commission agreed to assist with $2.25 
million in funding of improvements to the transit shed/dock areas.
    3. Progress on Port complex infrastructure and facilities 
continued.
    A. Construction essentially completed in 1997: (1) 7,500 If rail 
track extension south; (2) 30,000 sf general cargo transit warehouse; 
(3) 2.5 acres open storage; (4) fire booster station on south side.
    B. Under construction: (1) liquid dock (for Quaker State and other 
users); (2) road (3,000 If) and rail (3,000 If) north extension.
    C. In design: (1) road (3,200 If) and rail (7,800 If) extension 
further north; (2) fleeting dolphins; (3) tank farm/unload facility; 
(4) 4 acre hard stand; (5) road (1,850 If) and rail (4,142 If) 
extension further south.
    4. Horseshoe Casino's ``King of the Red'' riverboat arrived April 
26 at the Port. During the six months the boat was under construction, 
more than 200 employees worked 16-24 hours per day in order to move the 
completed boat upriver on November 2.
    5. City of Shreveport Fire Station # 20, which will serve the Port 
Complex and southeast Shreveport, began operation in temporary 
facilities at Flournoy Lucas Road and Highway 1, site of the permanent 
station, on October 1. Fire Station # 20 is truly an example of 
government cooperation at its finest. In an unprecedented cooperative 
endeavor agreement, the City and Port will share 50-50 operational 
funding. The Red River Waterway Commission will pay for station 
construction, a fire truck and medic unit--at a cost of $1.6 million.
    6. Received fiscal year 1997-98 Capital Outlay approval for 
$500,000/$500,000 local match for land acquisition and $6.3 million for 
a tank and storage facility. Fiscal year 1997-98 Port Priority Program 
funding approval was received for $2,845,000 for further northern road 
and rail extensions ($4,080,000 total project) and $594,000 for 
fleeting dolphins ($725,000 total project).
    7. Applications turned in for 1998-99 Port Priority consideration: 
south road and rail extension and concrete hardstand addition. Pre-
application to U.S. Department of Commerce E.D.A. submitted for $1 
million for a vessel launch pad.
    8. The Strategic Master Planning process continued throughout the 
year. In January the BYL consultant team was selected by the Board to 
write a new Strategic Master Plan. The three team members immediately 
began work on Phase I; it was presented in March. Phase II, the actual 
master plan document, was presented to the Board of Commissioners in 
September. Master Plan recommendation implementation was considered by 
the Board during the fall's annual goal-setting and budget meetings.
    9. The U.S. Department of Commerce E.D.A. granted The Port $25,000 
for Strategic Master Plan funding assistance.
           support resolution: red river waterway commission
    On behalf of the citizens of the Red River Waterway District of 
Louisiana, the Red River Waterway Commission strongly urges the 
Congress of the United States to allocate the funds necessary for 
fiscal year 1999 for Red River Waterway Project to continue 
construction toward actual completion and also allow totally reliable 
operation for continued industrial and recreational development. The 
infrastructure investment of $1.8 billion can only be justified if 
industry and recreation interests can rely on an efficient, functional 
and user friendly river system.
    Construction on Red River is approximately 89 percent complete, 
however, it is vitally important that we understand the importance of 
steady progress toward project completion with full knowledge of the 
financial constraints this country, the President and the Congress are 
wrestling with during the budget process.
          areas of concern with the red river waterway project
    Recreation Development.--Design and Construction in Pools 3, 4 and 
5 needs to begin immediately, resolution of the Project Cooperation 
Agreement is first step.
    Aids to Navigation.--Coast Guard needs increased presence and 
resources to adequately maintain the buoy system on the Red River.
    Construction/Maintenance Program.--The Corps of Engineers needs 
resources available to react quickly to landowner bank caving 
complaints that are a result of the project and are fully justified.
    Channel maintenance on the Red River.--Corps of Engineers needs 
sufficient resources to adequately maintain a 200 ft. by 9 ft. 
navigation channel to provide dependable and reliable transportation 
for industries locating on Red River.
    Mitigation and Bendway Dredging.--Continue with land acquisition 
and developmental cost analysis associated with the mitigation portion 
of the project and as soon as practical begin the bendway dredging 
operations to reestablish the connection to the channel of Red River.
                                 ______
                                 

     Prepared Statement of Aubrey J. LaPlace, President, Board of 
              Commissioners, Pontchartrain Levee District

        mississippi river and tributaries flood control project
          fiscal year 1999 recommendations for appropriations
    These three items are of indispensable importance to the State of 
Louisiana. There are serious project deficiencies in the Pontchartrain 
Levee District. Federal appropriations must continue at adequate levels 
to move forward.
$41,518,000 for Mississippi River levees (Budget contains $23,750,000)
    In the Pontchartrain Levee District several reaches of main line 
levee must be enlarged and slope paved to advance from the current 
status of partial flood protection. During the 1997 high water an 
emergency levee cap was constructed at Marchand to prevent overtopping 
and a possible crevasse. Currently the reach Marchand to Darrow is 
being constructed to finish emergency work of last year, and two other 
reaches are also under construction, Romeville to Remy and Remy to 
Garyville. The fiscal year 1999 schedule calls for Carville to Marchand 
to be contracted.
    Future levee enlargements and slope paving are required in the 
Levee District. The Board of Commissioners, Pontchartrain Levee 
District, urges the Subcommittees to appropriate $41,518,000 in fiscal 
year 1999 for Mississippi River levees.
$49,299,000 for channel improvement (Budget contain $44,599,000)
    Main line levees must be protected from caving banks throughout 
this lower river reach where extremely narrow battures are the last 
line of defense against levee crevasses and failures. If caving banks 
are not controlled the only answer is ``setback''. Simply stated there 
is no room remaining for levee setbacks in the Pontchartrain Levee 
District. Revetment construction must be annually funded to prevent 
levee failures, land losses and relocations. This item also benefits 
the 55-foot depth navigation channel. The Pontchartrain Levee District 
recommends at least $49,299,000 be appropriated for fiscal year 1999.
$10,000,000 for Louisiana State Penitentiary (Budget contains $400,000)
    Angola, Louisiana's State Penitentiary, has been under River attack 
for more than ten years, lost its front line levee and hundreds of 
acres agricultural areas to caving banks. The Setback levee is 
extremely unstable, likely to fail under stress of the next high water. 
Warden Burl Cain describes the situation as an acute emergency. Inside 
the prison the City of Angola does exist, has its own Post Office, a 
population of 627 tax paying citizens, and 138 residences. With a levee 
failure potential damages amount to $500,000,000. Currently, the only 
alternative is to move 5,000 maximum security inmates into tents on 
higher ground. It is urgently recommended that $10,000,000 be 
appropriated for fiscal year 1999.
                           the levee district
    The Pontchartrain Levee District extends downstream from the City 
of Baton Rouge to the New Orleans area, a distance of 115 river miles, 
includes the east (left descending) bank of the Mississippi River, and 
is comprised of portions of East Baton Rouge, Iberville, Ascension, St. 
James, St. John the Baptist and St. Charles Parishes. The Mississippi 
River east bank levee is continuous throughout the Levee District, 
including the Bonnet Carre Floodway. We serve as the local sponsor for 
the St. Charles Parish Hurricane Protection Levee, now in the fifth 
year of construction, designed to protect the Parish, a portion of New 
Orleans and its International Airport from hurricane tides.
    Extensive development of major industries has taken place in the 
Pontchartrain Levee District and is continuing. Along with industrial 
growth, our Levee District is experiencing dramatic increase in 
residential and urban expansions. Substantial portions of the Levee 
District area are used for agriculture. Three nationally ranked deep-
water ports are companions to the Pontchartrain Levee District--the 
Baton Rouge Port, South Louisiana Port, and New Orleans Port. The New 
Orleans International Airport is also located within the district.
    All these features and many other improvements along with more than 
one million residents are protected by the Mississippi River and 
Tributaries Flood Control Project in this Levee District. Only through 
continuous, effective flood control improvements and maintenance can 
this area and the Lower River Valley meet requirements to serve 
national needs for its economy and continued growth.
                                comments
    The Pontchartrain Levee District has full realization of the 
necessity of keeping this Subcommittee advised of current and future 
needs for federal monetary support on vital items of the MR&T Flood 
Control Project. In 1995, 1996 and 1997 the Subcommittees refused to 
give audience to the Lower Mississippi Valley Flood Control Association 
seven state delegation. This year we have been advised that no oral 
testimony will be heard. Again, this is a great travesty of justice. 
Such actions seriously erode the partnership that has been built 
between the Corps of Engineers and local sponsors. We trust that this 
pattern will revert back to the sixty-three year practice of hearing 
our delegation. Three representatives from the Pontchartrain Levee 
District are present today desiring to present views to the 
Subcommittees--they are Commissioner Joseph Gautreau, Vice President; 
Commissioner Michael Reames; and Gerald Dyson, Executive Assistant.
              near future is uncertain--its up to congress
    In the search for new ways to accomplish required flood control and 
other water resources projects, Congress must remain mindful not to 
jerk the rug out from under its own feet and our own. Without 
protection there will be few jobs, farms, industries, businesses, 
voters and related activities. Congress should know that we in the 
Lower Mississippi Valley do not have the option to say ``No''. Also it 
stands that Congress should not have the option to reduce, remove or 
stop federal responsibility for controlling national water, whether in 
flood or drought. With respect to Louisiana most of its runoff is 
generated outside the State area for all its main carrier rivers, 
including Mississippi, Red, Ouachita, Black, Atchafalaya Floodway, 
Pearl and Sabine Rivers. In Louisiana we have a comprehensive flood 
control plan sponsored, operated and maintained by some 23 Levee 
Districts to handle and provide for safe passage of almost one half the 
nation's waters. This invokes federal involvement, don't mess up the 
system.
                               conclusion
    The Board of Commissioners, Pontchartrain Levee District, 
compliments the Subcommittee on Energy and Water Development for its 
keen understanding of real needs for the MR&T Flood Control Project and 
efficient, alert actions taken to appropriate funds for its many 
complex requirements. We endorse recommendations presented by the 
Association of Levee Boards of Louisiana, Louisiana Department of 
Transportation and Development, Lower Mississippi Valley Flood Control 
Association and Red River Valley Association.
                                 ______
                                 

      NEW JERSEY AND NEW YORK WATER RESOURCE DEVELOPMENT PROJECTS

  Prepared Statement of Vernon A. Noble, chairman, Green Brook Flood 
                           Control Commission

    Mr. Chairman and Members of the Subcommittee: My name is Vernon A. 
Noble, and I am the Chairman of the Green Brook Flood Control 
Commission. I submit this testimony in support of the Raritan River 
Basin--Green Brook Sub-Basin project, which we request be budgeted in 
fiscal year 1999 for $12,000,000 in construction general funds.
    The Commission was established in 1971, pursuant to an Act of the 
New Jersey Legislature, following disastrous flooding which took place 
in the Green Brook Basin in the late Summer of 1971. That flood caused 
$304,000,000 in damages (April 1996 price level) and disrupted the 
lives of thousands of persons.
    In the late Summer of 1973, another very severe storm struck the 
area, and once again thousands of persons were displaced from their 
homes. $482,000,000 damage was done (April 1996 price level) and six 
persons lost their lives.
    Thanks to the efforts of New Jersey's Representatives and Senators 
in Congress, the Corps of Engineers was authorized by Congress in 1986 
to design a solution to this problem of flooding. The floods of 1971 
and 1973 were only the most recent in a long series of severe floods. 
Flooding in this Sub-Basin dates back to the late 1800's when they were 
first recorded, and has become more damaging as the population of the 
area has grown.
    The Green Brook Flood Control Commission is made up of appointed 
representatives from Middlesex, Somerset and Union Counties in New 
Jersey, and from the 13 municipalities within the Basin. This 
represents a combined population of almost one-quarter of a million 
(248,084) people.
    The Members of the Commission are all volunteers, and for 27 years 
have served, without pay, to advance the cause of flood protection for 
the Basin. Throughout this time, the Corps of Engineers, New York 
District, has kept us informed of the progress of the project, and a 
representative from the Corps has been a regular part of our monthly 
public meetings.
    Thanks to the vigorous support of New Jersey's Congressional 
Delegation, the Congress in 1986 authorized a comprehensive flood 
control project for the protection of the entire Green Brook Basin at a 
then established estimated cost, in 1985 dollars, of $203,000,000.
    In the Energy and Water Appropriations Act of 1988, Congress 
included a provision making it clear to the Corps of Engineers that 
protection is to be designed for the entire Green Brook Basin, rather 
than only the lower portion of the Basin, as had at one time been 
studied by the Corps of Engineers. During 1997, the Congress, with the 
agreement of the President, appropriated $3,100,000 to initiate 
construction of the project. Final preparations are now underway, and 
it is expected that actual construction will begin in Bound Brook 
Borough and in western Middlesex Borough this year.
    We believe that it is essential that the Green Brook Flood Control 
Project be carried forward, and pursued vigorously to achieve 
protection at the earliest possible date. This project is needed to 
prevent loss of life and property, as well as the trauma caused every 
time there is a heavy storm. The General Reevaluation Report of the 
Corps of Engineers dated 1997 points out some sobering facts. It shows 
that the damages which would occur in a repetition of the flood 
experienced here in 1973, measured in today's dollars, would be 
$582,700,000.
    New Jersey has programed budget money for its share of the project 
for fiscal year 1999.
    Actual construction will begin this year. We believe that your 
decision of last year to authorize the initiation of construction was a 
wise and prudent decision. It is essential that construction be 
continued in fiscal year 1999.
    We urgently request an appropriation for the project in fiscal year 
1999 of $12,000,000.
    The more quickly the construction of this project is completed, the 
less will be the total cost, and the sooner the project will provide 
protection.
    Economics and costs are of course important, but personal human 
tragedy, and the loss of life, is more important.
    As you may know, an independent Task Force has been formed, 
consisting of representatives of the affected municipalities and 
counties, to examine the options for providing flood protection in the 
upper portion of the Basin. We are optimistic that this Task Force will 
reach conclusions which will enable the Corps of Engineers to modify 
its plans for protection in the upper portion of the Basin in ways it 
will be found acceptable to the preponderant majority of the elected 
leaders of the area, as well as Federal and State environmental 
regulators, and public interest groups.
    Actual construction work in the upper-most portion of the Basin 
does not need to begin for a number of years, and accordingly we are 
confident that acceptable and workable project plans can be developed 
in ample time to meet the approximate ten year construction schedule.
    Thank you, Mr. Chairman, and Members of the Subcommittee, for your 
vitally important past support for the Green Brook Flood Control 
Project; and we thank you for the opportunity to submit this testimony 
to you.
[GRAPHIC] [TIFF OMITTED] TCORPS.014

                                 ______
                                 

  Prepared Statement of Glenn A. Grant, Esq., Business Administrator, 
                           City of Newark, NJ

    Mr. Chairman and members of the Subcommittee, thank you for giving 
me the opportunity to submit testimony about a project under your 
jurisdiction which is very important to the people of Newark, New 
Jersey and the surrounding region. The Passaic River Streambank 
Restoration Project, known as the Joseph G. Minish Passaic River 
Waterfront Park and Historic Area, is an important part of the overall 
economic and transportation development plan of the City of Newark.
    The project was authorized at a level of $75 million in the 1996 
Water Resource Development Act, and has been fully planned by the Army 
Corps of Engineers. The streambank restoration and bulkhead 
replacement, which is the first phase of the overall project, is set to 
begin within two months utilizing last year's appropriation of 
$3,000,000. A supplemental appropriation of $15 million is requested so 
that this integral element in Newark's revitalization can move from 
partial construction to the beginning of full project build-out.
    This investment in Newark's future will help us to improve the 
economic status of our nation's third oldest major city. The 
development of the riverfront now is a critical element in the overall 
plan for Newark's downtown revitalization. This linear park will serve 
as a visual and physical linkage among several key and exciting 
development projects. It is adjacent to one of the oldest highways in 
the nation, Route 21, which is undergoing a multi-million dollar 
realignment. The planned Newark-Elizabeth Rail Link, which will connect 
Newark's two train stations, and ultimately, Newark International 
Airport and the neighboring City of Elizabeth, will provide users with 
access to mass transportation. The riverfront development will 
complement and provide a visual and physical connection with the new, 
$170 million New Jersey Performing Arts Center, which opened in the 
Fall of 1997 and has been incredibly successful. Further north along 
the riverfront, the City of Newark and Essex County are moving ahead 
with plans to construct a minor league baseball facility along Route 
21, at Riverbank Park, along with an enhanced replacement playground 
facility, also accessible from the riverfront walkway.
    The riverfront will be the nexus of these activities, creating a 
vibrant downtown center that will provide economic development 
opportunities for the citizens of Newark and our region. Visitors from 
throughout the nation are expected to come to visit our revitalized 
city, and participate in the exciting growth and development taking 
place. There is tremendous potential for Newark's riverfront to mirror 
the success of other riverfront developments throughout the country, 
and Newark stands ready to accept the challenges such developments 
present.
    We have a once-in-a-lifetime opportunity to coordinate several 
major development activities into a virtually seamless development 
plan. The appropriation of $10 million which I am requesting will serve 
to incorporate the Army Corps of Engineers' construction into our 
overall economic development plan to reinvigorate Newark. I urge you to 
support this appropriation request.
    In closing, I would like to extend my thanks to the entire New 
Jersey delegation for its ongoing support. The time and attention of 
this subcommittee are deeply appreciated.
                                 ______
                                 

         DEPARTMENT OF ENERGY RESEARCH AND DEVELOPMENT PROGRAMS

   Prepared Statement of Robert L. McCrory, Professor and Director, 
        Laboratory for Laser Energetics, University of Rochester

                      summary and requested action
    The inertial confinement fusion (ICF) program is a key element in 
the Department of Energy's (DOE) Stockpile Stewardship Program (SSP) to 
ensure the reliability and credibility of the U.S. nuclear weapons 
stockpile. The ICF program provides access to high-energy-density 
physics data important in nuclear weapon design and understanding. The 
program is focused on the use of available unique laboratory 
facilities: Nova at Lawrence Livermore National Laboratory (LLNL), Z at 
Sandia National Laboratories (SNL), OMEGA at the University of 
Rochester's Laboratory for Laser Energetics (LLE), and the Nike laser 
at the Naval Research Laboratory (NRL). Experiments on these facilities 
support the demonstration of thermonuclear ignition and gain on the 
National Ignition Facility (NIF) now under construction. They also 
provide data in support of the nuclear weapons science-based 
stewardship activities of the Nation.
    LLE has been a participant in ICF research since the 1970's. It is 
the only ICF program that has been jointly supported by the Federal 
government, State government, industry, utilities, and a university. At 
relatively small comparative cost, LLE makes fundamental scientific 
contributions to the National program and the Laboratory transfers 
technology to the public and private sectors through the training of 
graduate students and interactions with industry and other Federal 
laboratories. The Laboratory serves as a National laser users' facility 
benefiting scientists throughout the country. The OMEGA laser, the 
highest power ultraviolet fusion laser in the world, will be the 
principal laser facility for SSP activities when Nova operations are 
terminated in 1999.
    The Laboratory's primary ICF mission is to validate the direct-
drive option for ICF. There is a close collaboration among LLE, LLNL, 
LANL, and NRL to support the demonstration of ignition and gain in the 
laboratory, the objective of the NIF program. OMEGA with its 60 beams 
has also been used for indirect-drive experiments in collaboration with 
the National laboratories. During fiscal year 1998, OMEGA is being used 
for SSP experiments in preparation for the transition from Nova to 
OMEGA in fiscal year 1999. Some of the experiments to be conducted by 
LLNL and LANL on OMEGA during the current year will be classified 
experiments.
    OMEGA is the only facility that can demonstrate the scientific 
potential of direct drive to provide a modest- to high-gain energy 
option for the Nation. ICFAC \1\ emphasized the priority of conducting 
cryogenic experiments on OMEGA beginning in fiscal year 1999. Further, 
OMEGA will be the principal ICF facility in the National program for 
ICF-based stockpile stewardship experiments until the NIF is completed 
at the end of 2003.
---------------------------------------------------------------------------
    \1\ Inertial Confinement Fusion Advisory Committee Report to 
Assistant Secretary Reis (February 21, 1996).
---------------------------------------------------------------------------
    To provide the operations support for program deliverables and 
operation of OMEGA (for both cryogenic experiments and SSP 
experiments), and maintain the training programs at Rochester, a total 
authorization and appropriation of $29,000,000 is requested for the 
University of Rochester for fiscal year 1999, as contained in the 
Administration's budget request for DOE.
                               background
    Thermonuclear fusion is the process by which nuclei of low atomic 
weights, such as hydrogen, combine to form higher atomic weight nuclei 
such as helium. In this process some of the mass of the original nuclei 
is lost and transformed to energy in the form of high-energy particles. 
Energy from fusion reactions is the most basic form of energy in the 
universe; our sun and all other stars produce energy by thermonuclear 
fusion reactions occurring in their interior. Fusion is also the 
process that provides the vast destructive power of thermonuclear 
weapons.
    To initiate fusion reactions, the fuel must be heated to tens of 
millions of degrees. In stellar bodies, containment is possible because 
of the large gravitational force. On earth, ICF involves the heating 
and compression of fusion fuel by the action of intense laser or 
particle beam drivers. There are two approaches to ICF, direct and 
indirect drive: indirect drive involves the conversion of beam energy 
to x rays to compress a fuel capsule in an enclosure called a hohlraum; 
direct drive involves the direct irradiation of a spherical fuel 
capsule by energy from a laser and may be more efficient energetically 
than indirect drive. For either approach, if very extreme density and 
temperature conditions are produced, it is possible to produce many 
times more energy in these fusion reactions than the energy provided by 
the drivers.
               inertial confinement fusion program focus
    Numerous reviews of the ICF program have identified the glass laser 
program as the best path to demonstrate ignition (initiation of a 
thermonuclear reaction that can be self-sustaining) and propagating 
thermonuclear burn. A recent independent review completed by the JASONS 
\2\ stated ``The inertial fusion program represents the closest 
approach we know of to a number of critical parameters in the weapon 
environment * * *. Naturally we expect continued progress in further 
evaluating ignition prospects from experiments on Nova and on OMEGA 
Upgrade, a direct-drive laser facility at the University of Rochester * 
* *.''
---------------------------------------------------------------------------
    \2\ ``Science Based Stockpile Stewardship'', JASON Report JSR-94-
345 (The MITRE Corporation, McLean, Va, November 1994).
---------------------------------------------------------------------------
    DOE has accepted the recommendations of the reviews and 
construction of the NIF is in progress. The purpose of the NIF, in its 
SSP mission, includes the demonstration of ignition, propagating burn, 
and modest gain in the laboratory. The NIF project completion is 
projected to be 2003. While NIF is under construction, OMEGA will be 
the principal ICF facility that will be used for nuclear weapons 
stewardship experiments by LLNL and LANL, and for direct- and indirect-
drive ICF experiments when NOVA ceases operation in fiscal year 1999. 
Furthermore, under the DOE bilateral agreement with the French Atomic 
Energy Commission, OMEGA will be used to support experiments under the 
agreement as approved by DOE.
    LLE is the primary focus in the U.S. for the direct-drive approach 
to ICF. Direct drive may ultimately prove to be the best approach to 
ICF and provide the most efficient path to a laboratory-scale 
thermonuclear capability for both energy research and defense 
technology needs. OMEGA is the only facility that can demonstrate the 
scientific potential of direct drive to provide modest- to high-gain on 
the NIF.
    An extensive collaborative program between LLNL, LANL, and LLE has 
provided data on basic physics, beam smoothing, and unstable 
hydrodynamics using available lasers. This collaboration on OMEGA 
includes both nuclear weapons physics experiments (including classified 
experiments to prepare for the transition from Nova to OMEGA in fiscal 
year 1999 that are being conducted by LLNL and LANL during fiscal year 
1998) and ICF experiments. Physics issues for both ICF and weapons 
issues for the SSP fall into five broad categories: irradiation 
uniformity, laser energy coupling and transport, laser-plasma 
interaction physics, hydrodynamic stability, and hot-spot and main-
fuel-layer physics. The OMEGA and NIF programs are complementary. 
Figure 1 illustrates the schedule for the glass laser facilities to be 
used in the National program plan for inertial fusion, and shows the 
phased availability plan for the NIF.
[GRAPHIC] [TIFF OMITTED] TCORPS.015

    The figure illustrates how the National program has been structured 
to provide a full complement of mature experimental facilities from the 
present to the future. With a shut down of the Nova laser in fiscal 
year 1999, OMEGA is the Nation's principal facility to continue 
experimental work during NIF construction. Although the LLE program is 
focused on direct drive, OMEGA is capable of indirect-drive (hohlraum) 
experiments that were first conducted by LANL and LLNL in fiscal year 
1996. Both LANL and LLNL will continue to use OMEGA for indirect-drive 
experiments for ICF and SSP experiments for the foreseeable future. It 
is because of termination of Nova operations and the high interest in 
the use of the OMEGA facility by the weapons laboratories, that DOE's 
budget request includes funds for extended operations on OMEGA for SSP 
experiments. Because the per-shot cost of OMEGA is considerably less 
than the cost of a shot on NIF, OMEGA will be a very important 
supporting facility for proof-of-principal experiments and further 
diagnostic development for the NIF after it is complete in 2003 (see 
Fig. 1).
           the lle direct-drive program for fiscal year 1999
    The goal of the glass laser direct-drive target physics program is 
to evaluate the performance of fuel capsules near ignition conditions. 
In addition to providing data for the NIF, these experiments can 
validate the direct-drive configuration on the NIF that could result in 
two to three times higher fusion gains (gain > 50) than those available 
with the baseline (indirect drive) NIF design.
    An important element of the direct-drive program on OMEGA is to 
demonstrate beam smoothing techniques that ultimately will produce on-
target irradiation nonuniformity of 1 percent to 2 percent. The 
achievement of this goal is a principal objective for fiscal year 1999. 
OMEGA will also be used to develop advanced diagnostics for NIF. The 
implementation of cryogenic fueling will begin in fiscal year 1999. 
This capability is necessary for hydrodynamically equivalent target 
experiments to be conducted on OMEGA to demonstrate the likelihood of 
success of the direct-drive option of NIF. In collaboration with LANL 
and General Atomics, a cryogenic capability will be completed in fiscal 
year 1999 for OMEGA. The first fully cryogenic capsule experiments are 
planned for OMEGA in fiscal year 2000. The ICFAC \1\ recommended in 
their final report: ``The committee believes that experiments are 
essential to assessing real target performance and benchmarking code 
calculations. The first opportunity to do such experiments on cryogenic 
targets approaching NIF size will be on OMEGA * * *. It is very 
important that this effort be kept on track with proper priority and 
not delayed further \1\.'' Cryogenic capability, advanced diagnostics 
development, and beam smoothing are all required for the NIF. LLE will 
be the principal National facility to develop these technologies for 
the program.
---------------------------------------------------------------------------
    \1\ Inertial Confinement Fusion Advisory Committee Report to 
Assistant Secretary Reis (February 21, 1996).
---------------------------------------------------------------------------
    LLE attaches a high priority to providing education and training in 
the field of ICF and related area, thereby providing a source of 
personnel and expertise in areas of critical National needs. These 
include theoretical and experimental plasma physics, laser-matter 
interaction physics, high-energy-density physics, x-ray and atomic 
physics, ultrafast optoelectronics, high-power laser development and 
applications, nonlinear optics, optical materials, and optical 
fabrication technology. A total of 44 graduate students and 14 faculty 
members of the University of Rochester are currently involved in the 
unique research environment provided at LLE and represent many 
departments within the University, including Mechanical Engineering, 
the Institute of Optics, Physics and Astronomy, Electrical Engineering, 
and Chemical Engineering. Beyond this, more than 50 undergraduate 
students receive research experience annually at LLE. Additionally, a 
high-school summer science program exposes ten talented students each 
year to the research environment and encourages them to consider 
careers in science and engineering. Many LLE graduates have made 
important scientific contributions in National laboratories, 
universities, and industrial research centers.
                                 ______
                                 

  Prepared Statement of Father William L. George, S.J. and Father T. 
Byron Collins, S.J., Special Assistants to the President of Georgetown 
                               University

    Mr. Chairman and Members of the Committee: We are Father William L. 
George, S.J. and Father T. Byron Collins, S.J., Special Assistants to 
the President of Georgetown University, the Father Leo J. O'Donovan, 
S.J. We appreciate this opportunity to testify before your 
Subcommittee.
    Currently, the Senate has passed Bill S. 965 which amends Section 
202 of the Hydrogen Future Act of 1996 (Public Law 104-271) as follows: 
Section 202 of the Hydrogen Future Act of 996 (public Law 104-271) is 
amended by striking ``1997 and 1998, to remain available until 
September 30, 1999'' and inserting ``1998, 1999, 2000, and 2001, to 
remain available until September 30, 2002''.
    We believe that this Bill will be similarly passed by the House in 
appropriate time. Through this authorization extension, we will now be 
requesting the necessary appropriations.
    We are requesting funds to be appropriated for a cost-shared fuel 
cell demonstration program entitled the National Exemplar Renewable 
Energy System (NERES). The funds appear to be available for this 
program as stated on page 360 of the President's Budget Report Appendix 
Fiscal Year 1999, which describes Site/project completion and Post 2006 
completion. These program activities are allocated $1,047M and $2,674M, 
respectively.
    Likewise, the Budget of the United States Government provides 
$1,060M in fiscal year 1999, an increase of $331M from the $729M 
provided in fiscal year 1998, for: ``the deployment of new technologies 
in the industrial sector to capture waste heat and convert it into 
electricity; and R&D spending and incentives for renewable energy 
sources like biomass, wind, photovoltaics, and fuel cells (See Tables 
6-2 and 6-3), [Budget of the United States Government, fiscal year 
1999] [Page 93-103] [DOCID: f:1999--bud.bud06.wais] [From the Budget of 
the U.S., fiscal year 1999 Online via GPO Access [wais.access.gpo.gov] 
as noted in Section 6, Promoting Research, within Energy & Water 
Development''.
    The attached letter to Congress explains in detail the 
participation of the consortium sites within NERES. We are requesting 
$40M out of $50M in fiscal year 1999 in order to get the various 
programs substantially underway. We will be requesting the final funds 
in subsequent appropriations. The allocation will be divided as 
follows: the central site will receive $28M, and each of the other 
participating sites at Albuquerque, NM, Billings, MT, and the 
University of Fairbanks, Alaska would each receive $4M.
    The Department of Energy organizational chart has designated that 
NERES should be under the jurisdiction of the Director of the Federal 
Energy Technology Center, located in Morgantown, WV. The consortium 
would place an application under the requirements of S. 965 in 
accordance with its extension of time.
    Title II of Public Law 104-271 authorizes a project that processes 
solid waste through existing devices to create hydrogen as a fuel cell 
energy source. Fuel cells, in turn, will produce heat and electricity. 
This solid waste reduction process results in the production of 
hydrogen and water. The national benefit is the development of the fuel 
cell industry to where the cost per kW is competitive in the power 
industry. Moreover, this project leads to the commercialization of U.S. 
advanced technology.
    In accordance with Public Law 104-271, which states that ``the 
Secretary shall give preference, in making an award under this section, 
to proposals that are submitted jointly from consortia including 
academic institutions, industry, State or local governments and Federal 
laboratories,'' a consortium of four sites is ready to develop this 
project. The central, exemplar site will be at Georgetown University. 
$35 million of the proposed $50 million appropriation will be allocated 
to the central site.
    One participating site will be at the City of Albuquerque, New 
Mexico. The city of Albuquerque's planners are considering numerous 
projects. Albuquerque has a vast solid waste, sewage and water 
treatment system that could be used to produce electricity and water. 
This process would be an exemplar for other cities where the water 
table is shrinking. In addition to its ecological benefits, the project 
could bring new manufacturing business entities into the Albuquerque 
area that will create jobs and utilize local raw materials. The project 
proposes to use $5 million in federal funds for planning. Non-federal 
funds will purchase a large number of fuel cells.
    Another site is at the Institute of Northern Engineering at the 
University of Alaska, Fairbanks. It is also the only institute able to 
provide the research and demonstration necessary for smaller 
applications of the system for villages in Alaska. $5 million of 
federal funds is also proposed for this section of the program.
    The final site is at the Montana Tradeport Authority in Billings, 
Montana. Billings is an essential site since it is the sole site in the 
U.S. that has an ample source of platinum, palladium, copper and carbon 
block to produce fuel cells at a manufacturing plant economically 
without federal funds. The governor's office is planning a major 
site(s) using the solid waste-to-total energy solar regeneration power 
system. Once again, $5 million in federal funds will be used for 
planning only. Non-federal funds will be used to purchase two to four 
hundred fuel cells at the Billings site.
    The project at Billings plans to develop this regeneration power 
system along with a Science and Technology Park. This technology 
mitigates and utilizes carbon dioxide in such a way that alleviates 
global warming caused by such emissions. The project could also address 
commercial, industrial, and municipal wastes.
    As far as we know, our project is the sole program ready to be 
launched into operation. The program was validated as final proof-of-
concept on August 14, 1996 at Edwards Air Force Base in California 
under the sponsorship of various institutions including JPL and NASA.
    Unfortunately, the Energy Appropriations Subcommittee was not able 
to provide any funding for the project in fiscal year 1997. However, S. 
965 recently passed in the Senate. This bill extends the authorization 
of funds to this project until September 2002. Currently, we are 
seeking the support of Congressman Calvert's committee to ensure its 
passage in the House.
    We also believe that there was a misunderstanding on behalf of the 
Deputy Secretary of Energy, Allan Hoffman. Secretary Hoffman thought 
that the $50 million would have to be taken from the Hydrogen Research 
Account. However, we did not seek the funds from the Hydrogen Research 
Account, but proposed instead to have the funds taken from the Waste 
Management Account, thereby leaving the account for other hydrogen 
research programs intact. It is our contention that the Waste 
Management Account is the more appropriate source for funds since our 
program converts waste to energy.
    We are prayerfully grateful for your time and consideration.
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States. Collectively, public power utilities deliver electric energy to 
one of every seven U.S. electric consumers (about 35 million people), 
serving some of the nation's largest cities. The majority of APPA's 
member systems are located in small and medium-sized communities in 
every state except Hawaii.
    APPA looks forward to working with you during the second session of 
the 105th Congress. We appreciate the opportunity to submit this 
testimony outlining our fiscal year 1999 appropriations priorities 
within your Subcommittee's jurisdiction.
                       renewable energy programs
    APPA believes it is important to continue development and 
commercialization of clean, renewable energy resources as we face the 
prospect of increased competition in the electricity marketplace. Two 
of the most significant barriers to greater renewable energy use are 
cost and lack of demonstrated experience. Because of the requirement to 
supply electricity to customers on demand, with high reliability at a 
reasonable cost, electric utilities often are conservative when 
evaluating new technologies. Evolving deregulation, coupled with stable 
fuel prices, now adds a further challenge to greater adoption of 
relatively unproved renewable technologies.
    We applaud the Administration's emphasis on DOE energy efficiency 
and renewable programs and ask that this Subcommittee work to ensure 
that renewable energy remains part of the full range of resource 
options available to our nation's electric utilities. APPA supports a 
minimum of $372.3 million for renewable energy technologies in fiscal 
year 1999. This funding level will go a long way in furthering the call 
for significant expansion of renewable energy R&D programs in order to 
meet the energy challenges and opportunities of the 21st century.
          renewable energy production incentive program (repi)
    APPA urges this subcommittee's continued support for REPI, 
authorized by the Energy Policy Act of 1992, in Section 1212, at $8 
million. Although twice the level requested by the Administration for 
fiscal year 1999, it is considerably less than the $20 million level 
DOE identifies as needed for full funding in fiscal year 1999 of all 
electricity generated by qualified facilities. REPI permits DOE to make 
direct payments to publicly and cooperatively owned electric utilities 
at the rate of up to 1.5 cents/kWh of electricity generated from solar, 
wind, certain geothermal and biomass electric projects. Because 
projects of this nature often require a long lead time for planning and 
construction it is imperative that stable and predictable funding be 
provided.
    REPI was established to ensure equity between investor-owned 
utilities that utilize renewable energy tax credit and production 
payments and publicly and cooperatively owned electric utilities that 
are unable to do so. Several electric utility restructuring bills 
introduced in the 105th Congress as well as in the state legislatures 
mandate use of renewable energy sources. REPI payments provide the 
singular financial incentive for publicly and cooperatively owned 
utilities to meet these increasing demands. In addition, production 
payments to utilities are an excellent market-based method to spur 
greater interest in renewables. They fit well with DOE's emphasis on 
market-led commercialization.
                  storage for high-level nuclear waste
    We support the Administration's budget request of $380 million for 
DOE's Office of Civilian Radioactive Waste Management. These funds will 
enable DOE to continue preparations to accept used fuel as well as to 
continue scientific studies at Yucca Mountain leading to a viability 
assessment in late 1998.
                  advanced hydropower turbine program
    The Advanced Hydropower Turbine Program is a joint industry/
government cost-share effort to develop a new, improved hydroelectric 
turbine superior in its ability to protect fish and aquatic habitat and 
operate efficiently over a wide range of flow levels. We support 
funding this program at $4 million in fiscal year 1999.
    During the next decade over 100 hydroelectric projects will seek 
new licenses from the Federal Energy Regulatory Commission (FERC). Many 
of these projects were originally licensed over 50 years ago. Newly 
imposed licensing conditions can cost hydro projects 10 to 15 percent 
of power generation. A new, improved turbine could help assure any 
environmental conditions imposed at relicensing in the form of new 
conditioning, fish passages or reduced flows are not accomplished at 
the expense of energy production. This is particularly important due to 
the increasingly competitive electric market in which utilities operate 
today. Flow levels will affect the economics of each of these projects 
and many will be unable to compete if the current trend toward flow 
reductions continues.
    The Advanced Hydropower Turbine Program is planned in three phases: 
(1) design development; (2) model design and testing, and (3) 
development of the final prototype. It is important that the prototype 
be in place in order to accommodate the many hydroelectric projects 
that will be up for relicensing after the year 2000.
            federal power marketing administrations (pma's)
    We appreciate this subcommittee's continued support of the federal 
power program.
    APPA favors increased efficiency in PMA operations. However, we 
believe Congress also must recognize that federal power sales cover all 
PMA operating expenses plus all Corps of Engineers and Bureau of 
Reclamation operations, maintenance, replacement and rehabilitation 
expenses for hydropower and repayment of the federal investment in the 
construction of the projects. Power sales also support many nonpower-
related expenses associated with these projects. Budget ``scoring'' 
rules aside, because the PMA's charge cost-based rates, reducing 
discretionary appropriations to PMA's actually saves the government 
nothing. As appropriations are lowered, power rates fall accordingly 
thus reducing mandatory receipts on the other side of the ledger. APPA 
supports the Department of Energy's request of $234 million in fiscal 
year 1999 for the PMA's; this funding excludes BPA because it does not 
require appropriations to finance its day to day operations. Of this, 
the Western Area Power Administration would get $223 million; 
Southwestern Power, $26 million; and Southeastern, $10 million.
    BPA, the biggest of the PMA's and the leading power producer in the 
Pacific Northwest, operates on a self-financed revolving fund basis. 
BPA uses borrowing authority for its capital investment activities. 
BPA's fiscal year 1999 budget request includes $258 million in 
borrowing authority for capital investment. Nearly half of the 
investment is for transmission services ($136 million); the proposed 
funding for fish and wildlife activities is $27 million and for 
conservation programs the request is $9 million. APPA urges the 
Subcommittee to support BPA's funding request.
              corps of engineers and bureau of reclamation
    More than 500 public power systems purchase power generated at U.S. 
Army Corps of Engineers and Bureau of Reclamation dams and marketed by 
the five PMA's. APPA asks this subcommittee's support in assuring 
adequate appropriations are provided to the Corps and Bureau for 
operation, maintenance, major rehabilitation, upgrading and replacement 
of the equipment needed at the powerhouses. The Administration has 
requested reductions in several of these accounts for fiscal year 1999. 
Unfortunately, budget realities in the past often have required the 
Corps and Bureau to defer upgrades and maintenance resulting in 
efficiency losses affecting hydropower production.
    Discussions are continuing in various project areas between 
customers and the operating agencies seeking alternatives to relieve 
the stress caused by the spiraling effects of deferred maintenance. We 
will keep this subcommittee apprised of our progress in this regard and 
look forward to working with you and the authorizing committees in 
seeking remedies to increase efficiencies and deal with ongoing 
maintenance problems.
              federal energy regulatory commission (ferc)
    APPA supports the Administration's budget request of $168.9 million 
in fiscal year 1999 for FERC, an increase of four percent over last 
year. Adequate funding for the agency is particularly necessary at this 
time in order to provide the resources needed to continue 
implementation of electric utility industry restructuring and to 
address major issues such as open-access and stranded costs.
                                 ______
                                 

Prepared Statement of Joe L. Mauderly, Senior Scientist and Director of 
       External Affairs, Lovelace Respiratory Research Institute

    It is proposed that the U.S. Department of Energy participate in 
the National Environmental Respiratory Center. It is also proposed that 
the Department support development of a novel plasma-based hazardous 
waste treatment technology and other research activities at the 
Lovelace Respiratory Research Institute important to the mission of the 
Department.
     participation in the national environmental respiratory center
Purpose and Status of the Center
    The National Environmental Respiratory Center was established 
through the fiscal year 1998 EPA appropriation. The mission of the 
Center is to catalyze, facilitate, and participate in a long-range 
national initiative to understand respiratory health risks from 
combinations of inhaled airborne environmental pollutants and 
occupational air contaminants. The Center's goal is to place the 
respiratory health risks from combined exposures to multiple pollutants 
in their appropriate context as a basis for regulatory and 
technological decision making. The Center is operated by the Lovelace 
Respiratory Research Institute in Albuquerque, New Mexico, and is 
located in the DOE-owned, now privatized, Inhalation Toxicology 
Research Institute (ITRI) facility, which is leased by Lovelace.
    The establishment of the Center is well underway at the midpoint of 
its first year. The infrastructure of the Center has been developed, 
and the information resources are under development. Agencies, health 
advocacy organizations, industry stakeholders and their trade 
associations are being briefed on the Center and their support is being 
enlisted to fulfill the Center's intent as an interagency, government-
industry initiative. Selection of the initial series of specific 
research projects is underway, and research will be initiated in this 
fiscal year. The goals of the Center and its research resources are 
being communicated to the scientific community, and collaborative 
projects are under development. A budget and plan of work has been 
prepared for the second year, the core funding for which is being 
requested in the EPA appropriation. The level of funding requested will 
maintain the core infrastructure of the Center, but will support very 
little research. It is expected that research funding will largely be 
obtained from other agencies and non-federal stakeholders.
The Department has Important Health Concerns that the Center is Ideally 
        Suited to Addressing
    Inhalation exposures occur as combined exposures to multiple 
agents. Concerns for the health effects of exposure to hazardous agents 
should be viewed as concerns for combined exposures to multiple 
hazardous agents. Over the years, some workers in the DOE complex have 
been inadvertently exposed by inhalation to hazardous radionuclides, 
metals, and chemicals in development, production, waste handling, and 
cleanup activities. Most exposures occur as combined exposures to 
multiple agents, rather than to single hazardous species. Further, many 
of these individuals received exposures to multiple hazardous agents at 
different times. Finally, many of these individuals have lifestyle risk 
factors for disease, such as tobacco and alcohol use. There is also 
concern for public inhalation exposures to hazardous agents as a result 
of DOE activities. It may be presumed that to the extent that such 
exposures have occurred, they have also occurred as exposures to 
mixtures, exposures in sequence with contact with other hazardous 
agents, and exposures of individual with other risk factors. The DOE 
workplace, for example, has involved potential for inhalation exposures 
to radionuclides of several types, solvents and other chemicals, smoke 
(during accidents involving pyrolysis or combustion), beryllium, 
machining fluid aerosols, and other gases, vapors, dusts, and fibers.
    We know that combined exposures are an important health issue. We 
know that multiple agents can cause common effects, such as 
inflammation or cancer. We often assume that these common effects are 
additive, but we know that this is not necessarily the case. We know 
that some agents amplify the effects of others, but have little ability 
to predict the magnitude of amplification or to understand the 
amplification processes. We can presume that exposure to a mixture of 
hazardous agents, each within its acceptable limit, can present an 
unacceptable aggregate health risk, but do not know how to predict or 
control the aggregate risk. We continually face the possibility that an 
agent encountered in combination with others might be wrongly assigned 
sole responsibility for an adverse health effect that, in fact, 
resulted from the mixture or an unrecognized co-pollutant or cofactor 
that varied in concert with the accused agent.
    Combined exposures present difficulties in estimating risk and 
assigning causality. Although it is broadly recognized that most 
exposures to hazardous agents in the workplace, general environment, 
and home occur as mixtures or in sequences, there has been very little 
research or standard-setting based on the influence of combinations of 
exposures on health risks. The design, conduct, and interpretation of 
studies of the health outcomes of combined exposures are potentially as 
complex as the possible range of combinations of agents and 
individuals. Most research involves stretching investigative 
technologies to their limit of interpretation for even single agents; 
thus, there are few attempts to extend efforts to mixed exposures. 
Because of the limitations of the scientific and medical information, 
environmental and occupational pollutant concentration limits and 
exposure limits deal almost exclusively with single agents and are 
based on known or presumed health risks from the intake of each agent 
alone. Radiation exposure limits are one of the few notable exceptions 
in which the proximal agent, radiation energy, is addressed rather than 
the physical-chemical source of the radiation. However, exposures to 
radiation also occur most often in the presence of other exposures or 
risk factors.
    The Department has poor ability to assess risk, set limits, or 
assign causality in cases of combined exposures. This creates two key 
problems: (1) protective standards may not be adequate in the face of 
combined exposures; and (2) agencies and the courts have little ability 
apportion causality of health effects among exposures occurring within 
and outside of the workplace, from different sources, or including 
exposures of personal choice. A readily-recognized example of his 
dilemma is the fact that health effects of occupational inhalation 
exposures, such as cancer from asbestos or radon, most often occur in 
smokers; so much so, in fact, that the existence and magnitude of 
significant risk in the absence of smoking is often uncertain. 
Following this example as a further illustration, we can predict that, 
of the more than 1 million ``radiation workers'' in DOE operations over 
the years, 25 percent (250 thousand) will die from cancer regardless of 
their workplace exposure, lung cancer will be the most prevalent type, 
and a significant number of cases will result in claims which will be 
paid, negotiated, or litigated.
The Department Should Support the Work of the Center
    Lovelace has demonstrated its ability to address DOE combined 
exposure issues. The Institute began researching DOE combined exposures 
issues in 1986, funded by the Office of Defense Programs through the 
Albuquerque Operations Office, and has produced a number of important 
findings. This program focused on lung cancer risk from combined 
exposures to pairs of agents significant in the DOE workplace. Five 
studies have addressed the combination of a single simulated accidental 
inhalation exposure to plutonium dioxide particles and: (1) repeated 
external irradiation (X ray); (2) long-term cigarette smoking; (3) 
repeated intake of a chemical carcinogen by a non-inhalation route; (4) 
single inhalation of beryllium; and (5) repeated inhalation of carbon 
tetrachloride (chemical solvent). A study of repeated external 
radiation and long-term cigarette smoking is underway.
    Several key findings have already been produced. Findings which 
have direct bearing on the estimation of risks from combined exposures 
and apportionment of causality include: (1) cigarette smoking markedly 
increases the lung cancer risk from inhaled plutonium; (2) external 
irradiation does not increase the lung cancer risk from inhaled 
plutonium; (3) a common class of chemical carcinogen (nitrosamine) 
taken up by a non-inhalation route does not increase the lung cancer 
risk from inhaled plutonium; (4) exposure to inhaled beryllium metal 
particles is highly carcinogenic in the rat, and increases the lung 
cancer risk from inhaled plutonium; and (5) liver damage from inhaled 
carbon tetrachloride can alter the radiation dose to liver and bone 
from translocation of inhaled plutonium particles, but has no 
interactive effect at the current exposure standard.
    Through the new Center, which was intended as an interagency 
initiative, research to resolve the Department's combined exposure 
concerns can continue. The DOE combined exposures program at Lovelace 
served to demonstrate that such issues could be addressed successfully 
in the laboratory, thereby setting the stage for the formation of the 
National Environmental Respiratory Center. The Center was intended as 
an interagency effort, acknowledging that multiple agencies share 
concerns and responsibilities for combined exposure issues. The 
Department continues to have unresolved combined exposures issues, and 
can thus benefit by the success of the Center. It is proposed that the 
Department support the Center through: (1) funding combined exposures 
research specific to its needs; (2) contributing to the core support of 
the Center; (3) enlisting the Center's personnel and information 
resources in meeting its interagency working group obligations; and (4) 
waiving ITRI facility use fees for Center operations funded by other 
federal agencies.
           innovative plasma technology for waste destruction
Environmental Remediation and Waste Disposal are Important DOE Issues
    The Department's Strategic Plan give high priority to environmental 
remediation and reduction of hazardous wastes. In addition to 
radioactive wastes, DOE sites contain volatile and heavy organic 
compounds, chlorinated hydrocarbons, contaminated materials, and mixed 
wastes. The Department is committed to supporting research to 
``validate performance of thermal and nonthermal technologies in fiscal 
year 2000 for the treatment of more than 90 percent of the DOE mixed 
waste inventory''. Reviews by the Department reveal that all current 
technologies have flaws and limitations which must be overcome by 
refinements and identification of alternate technologies.
Plasma Technology is Recognized as Having High Potential for 
        Advancement, but Past Approaches Have Not Resolved Key Problems
    Of all the thermal treatment strategies, high-temperature plasma 
technology has been recognized as potentially the most promising for 
waste destruction. Plasma arc devices have been used for generating 
super-high temperatures that degrade toxic wastes into atoms and ions, 
thus completely destroying the composition of the agent without 
generating toxic intermediate molecules. If this process is complete, 
only harmless materials remain as residues. If the waste contains 
radionuclides, the radioactivity is not destroyed, but the volume of 
the material is reduced markedly, requiring transport or storage of 
only a fraction of the original volume of waste.
    Existing plasma technologies have some key shortcomings that have 
not yet been overcome. Temperatures are often unstable because the high 
electrical power necessary to sustain the arc is sensitive to voltage 
drops. The arc electrodes require considerable maintenance. Chemicals 
precipitate and collect on the electrodes, and the double chambers used 
to correct this increase the contamination factor. Finally, the 
electrodes are prone to burning out.
Lovelace and its Collaborators Propose that DOE Support Development of 
        a New Plasma Technology Which Will Resolve the Present 
        Shortcomings
    Through its interests in technology transfer and the reduction of 
respiratory health risks from airborne pollutants resulting from waste 
combustion, Lovelace has joined with a small start-up technology 
company proposing an approach to plasma destruction of waste which 
resolves existing roadblocks. This technology employs plasma formation 
and control by radio frequency/laser coupling. Three years of research 
and simulation on a Cray computer have confirmed the theory for a new 
confined high-temperature plasma technology, and preliminary laboratory 
experiments have supported the practicality of developing a bench-scale 
trial of the device. Compared to previous approaches, higher 
temperatures can be developed with greater power efficiency, without 
high pressures, and in a volume capable of containing an entire 55 
gallon drum and its contents. A new plasma confinement design will 
eliminate the need for a second chamber, and no toxic substances (other 
than residual radioactivity) will be precipitated in the device or 
released to the atmosphere.
    Lovelace and its collaborators seek funding from DOE to design and 
develop the bench-scale device necessary to prove and refine the 
technology, which theory and preliminary work indicate will be 
successful. The testing of this approach is entirely consistent with 
the Department's mission and Strategic Plan.
  national defense research: improved chemical and biological defenses
    Technology development and transfer activities supported by the 
Department at the Inhalation Toxicology Research Institute, operated by 
Lovelace, and at Sandia National Laboratories have resulted in 
opportunities to make significant gains in the ability to defend 
against chemical and biological threats. The Department a stakeholder 
in this issue because of threats to DOE laboratory, production, and 
holding and waste facilities, threats to nuclear power, and nuclear 
defense facilities, and the Department's national security and 
technology development and transfer roles.
    A key problem in the development of new technology to deal with 
chemical and biological threats is the basic multi disciplinary nature 
of the required research. Detection, mitigation, and countermeasures 
inevitably require new microelectronic devices, laser technology, 
software, analytical chemistry, aerosol science, microbiological 
expertise, respiratory physiology, inhaled drug delivery, and 
infectious disease management. No single institution is expert in all 
of these fields.
    Recognizing the importance of the chemical/biological threat, not 
only on distant battlefields, but also for internal national security, 
three New Mexico research organizations have proposed to pool their 
laboratory resources, technical experience, and intellectual 
capabilities to develop new measures to deal with these threats. LRRI, 
Sandia National Laboratories, and the University of New Mexico Health 
Sciences Center have pooled their remarkable and complementary 
resources to partner successfully on other issues, and are confident 
that their synergy can help the Department meet its security mission in 
the chemical/biological defense arena. All have previous experience in 
addressing issues key to this field.
    The functions of this collaborative research team would be to 
evaluate threats, develop new technologies, and improve existing 
technologies to identify and mitigate chemical/biological threats. Key 
themes would be remote detection of specific agents, personnel 
protection, threat elimination, and treatment of affected individuals. 
Although not yet formalized, a consortium of these research 
organizations would offer significant resources to the Department.
    It is proposed that the Department support the formation and 
activities of this unique research team.
                                 ______
                                 

 Prepared Statement of David K. Wehe, Professor, University of Michigan

    The U.S. Department of Energy (DOE) has provided support to the DOE 
University Research Program in Robotics during the period fiscal year 
1987-98 to pursue long range research leading to the: ``development and 
deployment of advanced robotic systems capable of reducing human 
exposure to hazardous environments, and of performing a broad spectrum 
of tasks more efficiently and effectively than utilizing humans.''
    The DOE University Research Program in Robotics (URPR) has proven 
highly effective in technology innovation, education, and DOE mission 
support. The URPR incorporates mission-oriented university research 
into DOE EM's Office of Science and Technology (OST) and, through close 
collaboration with the DOE national laboratories, provides an avenue 
for applying novel solutions to problems of vital importance to DOE.
    The URPR would like to thank the Committee members for their 
historically strong support of this successful program and are pleased 
that the URPR is included in the DOE Budget Request for fiscal year 
1999. To ensure the continuation of this support, we respectfully 
request the Committee to explicitly include language endorsing the DOE 
request.
Request for the Committee
    We request the Committee endorse DOE's request for $4 million of 
ER&WM (EM-50) research funds to continue the University Research 
Program in Robotics (URPR) progress in developing safer, less 
expensive, and more efficient robotic technology for environmental 
restoration and waste management.
          developing advanced robotics for doe and the nation
Develop robotic solutions for work in hazardous environments and 
        facilitate cleanup operations
    The goal of this program is to advance and utilize state-of-the-art 
robotic technology in order to remove humans from potentially hazardous 
environments and expedite remediation efforts now considered essential. 
Established by DOE in fiscal year 1987 to support advanced nuclear 
reactor concepts, the project was moved to EM to support the higher 
priority needs in environmental restoration. The project has produced 
an impressive array of technological innovations which have been 
incorporated into robotic solutions being employed across federal and 
commercial sectors. This successful program demonstrates efficient 
technology innovation while educating tomorrow's technologists, 
inventing our country's intelligent machine systems technology of the 
next century, and meeting today's technology needs for DOE.
Robotics: Cited as strategic national technology
    R&D funding is the most effective use of federal funds to promote 
the nation's well-being according to a 1997 published poll of respected 
academic economists. And, as documented in previous testimonies, key 
national studies (by the Council on Competitiveness, DOD, and former 
OTA technology assessment reports) consistently list robotics and 
advanced manufacturing among the five most vital strategic technologies 
for government support. The national need for an investment in the 
development of intelligent machines which can interact with their 
environment has been universally recognized.
Intelligent Machines: Grand Challenge for the Next Millennium
    Significant advances in computing power, sensor development and 
platform architectures (including unmanned airborne vehicles) have 
opened new opportunities in intelligent machine technology. The long-
range implications of intelligent mobile machines which can assist 
humans to perform life tasks are clearly significant and represent one 
of technology's Grand Challenges for the next millennium. We can expect 
to see intelligent prosthetic devices, smart transport vehicles, and 
mobile devices capable of assisting or replacing the human, not only in 
potentially hazardous situations, but in daily life.
          urpr: innovation, education, and doe mission support
URPR Paradigm: NSB Recommendations to OSTP
    In a response to a request from White House Office of Science and 
Technology Policy (OSTP) director Jack Gibbons, the National Science 
Board (NSB) released on 3/6/98 a policy paper entitled, ``The Federal 
Role in Science and Engineering Graduate and Postdoctoral Education.'' 
The paper reaffirms the basic principle of a government-university 
partnership in graduate and postdoctoral education, but voices concern 
that the government ``tends to emphasize short-term research `products' 
and to de-emphasize benefits to graduate education.'' The Board 
recommends better integration of research and education, which has been 
the paradigm of the URPR for providing DOE mission support. A detailed 
summary is available on the National Science Foundation's World Wide 
Web site at: http://www.nsf.gov/od/pa/news/press/pr9814.htm.
URPR: Refining the Right Paradigm
    The URPR instantiates the paradigm that NSB recommends for Federal 
investment in national S&T. The URPR's strategic mission is to make 
significant advances in our nation's robotic and manufacturing 
technology base while emphasizing: education, technology innovation 
through basic R&D, and DOE mission support. While accomplishments in 
each of these areas for DOE are detailed below, a new organizational 
structure being embraced by DOE EM-50 will give the URPR greater 
freedom to make more substantial contributions to technology areas of 
importance to DOE and the nation. Over the past few years, the URPR had 
been used largely as a collection of universities providing short-term 
deliverables to augment national laboratory RTDP projects. Under the 
new vision, the Consortium of Universities (Universities of Florida, 
Michigan, Tennessee, Texas, and New Mexico) are united as a powerful 
technology team, governed by a national Board of Directors, advised by 
a Technical Advisory Committee, and managed by a DOE HQ officer.
    The URPR has demonstrated in earlier years that the advantages of 
operating as a consortium are significant: The institutions of the URPR 
partitioned the technical development into manageable sections which 
allows each to concentrate within their area of expertise (efficiently 
maintaining world-class levels of excellence) while relying on their 
partners to supply supporting concentrations. With full cooperation of 
the host universities, this effort naturally generated the in-depth 
human and equipment capital required by the EM community. Practically, 
the long-term distributed interaction and planning among these 
universities in concert with the DOE labs and associated industry 
allows for effective technology development (with software and 
equipment compatibility and portability), for a vigorous and full 
response to application requirements (component technologies, system 
technologies, deployment issues, etc.), and for the supported 
application of the technology.
    DOE's reorganization of the URPR to its previous structure as an 
operating consortium will enable more substantial contributions than 
have been possible under its recent operating structure. Considering 
the remarkable achievements of URPR over its history and the 
enlightened commitment of EM-50 to this technology development, the 
URPR will be in a position to enhance its role in education, technology 
innovation, and DOE mission support.
Educating 21st Century Technologists
    The URPR has already educated about 400 advanced degree students in 
the critical engineering fields, including many with earned doctoral 
degrees. These students have entered the work force, and help lead the 
industrial resurgence based on intelligent machines, advanced 
manufacturing technology, and related fields. Graduates from this 
project have built successful startup companies and made industrial 
technology transfers in computer vision and robotic technology (MI, TN) 
and medical imaging (MI), video databases (CA), and intelligent 
manufacturing (MI, FL, TX). We have seen a consistently strong demand 
for graduates educated through this project, even during past lean 
times.
DOE Mission Contribution--Environmental Cleanup
    Since its inception, EM has recognized robotics as an essential 
technology to accomplish its mission. The motives for undertaking a 
comprehensive R&D effort in the application of advanced robotics to EM 
tasks in hazardous environments reflect both economic considerations, 
efficiency, and health and safety concerns. The RTDP is a national 
laboratory program which primarily applies existing technology (often 
commercially available) to current problems. In contrast, the URPR 
supports needs-driven applied research to develop innovative and 
synergistic technologies in support of EM thrust areas.
    URPR progress is routinely evaluated by a thorough review of 
technical accomplishments, and the anticipated DOE technology needs are 
used to set the program's directions. The URPR has consistently 
received high rankings for providing both outstanding technical 
contributions and value. Future success of this program is expected to 
continue based upon the Consortium's productive history.
    Over the past few years, the URPR projects successfully supported 
the:
    1. Deployment and testing of SWAMI, an autonomous inspection robot 
for Fernald stored waste drums,
    2. Design, construction and testing of a robot to precisely map 
large DOE facilities, such as K-25 and K-27 in Oak Ridge, in 
preparation for decontamination and decommissioning (D&D),
    3. Delivery of a robotic handling system for an automated chemical 
and radiological analysis system to Los Alamos, and
    4. Remote radiation mapping of the MSRE facility at ORNL prior to 
D&D.
    During fiscal year 1998, the URPR achievements have included:
  --a system (RADDS) for remote cleanup and remediation of hazardous 
        waste sites to reduce the time between a site-defined need and 
        a site-delivered implementation of the robotic and/or 
        automation hardware. The system uses simulation of robots, 
        grippers, sensors, controllers, conveyors and other components 
        to meet the requirements of the application, followed by direct 
        conversion to actual controllers,
  --a portable radiation imager with high efficiency and wide energy 
        range for EM cleanup applications,
  --sensors and navigation algorithms invented, built, and delivered to 
        ORNL's D&D mapping robot to permit autonomous operation,
  --a program for design, fabrication, and testing of intelligent 
        actuators for environmental robot systems.
    As shown above, these efforts are directly linked to cleanup 
operations in the DOE complex. During fiscal year 1999, the URPR plans 
to continue its focussed efforts on DOE field cleanup applications, 
while maintaining our commitment to research and education.
Innovation--the seed of future technology
    The URPR has produced prodigious levels of innovation in research 
and development. While recent demonstrations reveal next-generation 
technologies, even more advanced capabilities are emerging from the 
laboratories. These include new types of locomotion, navigation 
techniques, sensing modalities (radiation cameras and laser imaging 
devices), environmentally hardened components, and dextrous open 
architecture manipulators. These new machines will have an unparalleled 
man-machine interface and inherent intelligence, with the capability of 
being able to integrate many diverse sensors simultaneously. These 
devices will evolve and inspire the intelligent machines of the future, 
including smart automobiles, obstacle avoidance aids for the disabled, 
and advanced manufacturing cells assembled on demand.
    This level of innovation can also be seen in the following 
statistics:
  --Approximately 15 patents awarded or pending.
  --Over 650 technical papers published in technical journals and 
        conferences.
  --The standard technical books for vision, radiation detection and 
        imaging, and mobile robots are authored by researchers who have 
        worked with this project. Faculty and senior scientists 
        dedicated to this project are internationally renowned 
        technologists of their fields.
  --A suite of world-class robots (including CARMEL, winner of the AAAI 
        Mobile Robot Competition) serve as the research testbeds for 
        this project. (Cousins of CARMEL have performed autonomous 
        radioactive surveys at Savannah River and Idaho National 
        Engineering Laboratories). Our newest innovation, OmniMate, was 
        commercialized by HelpMate, Inc. and supplied to DOE for 
        autonomous mapping applications in the DOE complex.
                            program request
    During fiscal year 1998, the URPR provided vital contributions to 
education and research while meeting DOE technology needs. The 
motivation for this project remains steadfast--removing humans from 
hazardous environments while enhancing safety, reducing costs, and 
increasing cleanup task productivity. EM-50 has recognized the URPR's 
role and mission and have included full funding for the URPR for fiscal 
year 1999. However, strong Congressional support is requested to ensure 
this highly successful program and its base funding remains intact and 
unperturbed.
Request for the Committee
    To continue this vital program, we request that the Committee 
include the following language into the fiscal year 1999 Energy and 
Water Appropriations Bill:
  --The committee supports the DOE Budget Request for $4 million of 
        ER&WM (EM-50) funds to continue the University Research Program 
        in Robotics (URPR) progress in safer, less expensive, and more 
        efficient robotic technology for environmental restoration and 
        waste management.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

                          department of energy
    The American Society for Microbiology (ASM), the largest single 
life science organization in the world, comprised of more than 42,000 
members, appreciates the opportunity to provide written testimony on 
the fiscal year 1999 budget for the Department of Energy's (DOE) 
research programs.
    The ASM represents scientists who work throughout academic, 
governmental and industrial institutions worldwide. Microbiologists are 
involved in research to improve human health and the environment. The 
ASM's mission is to enhance the science of microbiology, to gain a 
better understanding of basic life processes, and to promote the 
application of this knowledge for improved health, and for economic and 
environmental well being.
    The ASM strongly supports the inclusion of basic science programs 
within the DOE. While relatively small in terms of the overall DOE 
appropriation, these programs provide important fundamental discoveries 
that establish the foundation for subsequent developments in 
biotechnology related to energy and the environment. It is imperative 
for the United States to maintain a strong science budget that supports 
basic research.
    Along with enhanced appropriations to fund specific program areas, 
it is important that the DOE receive increases in administrative 
budgets to properly staff and manage fundamental science programs. 
Investments in well-managed basic and applied science programs can 
produce long term benefits. Over the past decade, scientific research 
has become more interdisciplinary. It is essential that DOE have the 
resources necessary to adapt to these changes in science and to hire 
the necessary experts to manage programs effectively. This will allow 
the Agency to make educated program and funding decisions based on 
cross-disciplinary scientific expertise.
    Many DOE scientific research programs share the common goal of 
producing and conserving energy in environmentally responsible ways. 
Areas of research include basic research projects in microbiology, as 
well as, extensive development of biotechnological systems to produce 
alternative fuels and chemicals, to recover fossil fuels, to improve 
the refinement process of fossil fuels, to remediate environmental 
problems, and to reduce wastes and pollution.
    Last year, the United States signed the Kyoto Protocol and 
committed to reduce the nation's carbon dioxide emissions to eight 
percent below 1990 levels. The Administration has proposed a 
government-wide Climate Change Technology Initiative (CCTI) to 
implement this commitment and help to find solutions to problems 
associated with greenhouse gasses. The President's budget proposes $331 
million to the DOE for this initiative. These funds will be allocated 
throughout the Agency's programs including the Office of Energy 
Research (OER). Biological research is slated to receive a significant 
boost from this initiative. As part of the CCTI, DOE will support 
microbiological research on carbon sequestration including 
microorganisms that consume carbon, and other microbes that assist in 
the development of carbon free energy sources. This research will be 
supported throughout the program offices of the OER. Combating global 
warming is critical and these programs will make significant 
contributions to the long-term battle to maintain the quality of our 
atmosphere.
    The ASM is encouraged by the President's request for DOE's science 
programs. The Administration's proposed budget for fiscal year 1999 
requests $18 billion for the DOE overall. Included in that request is 
$2.7 billion for programs supported by the OER. The following comments 
will highlight research supported by the Office of Health and 
Environmental Research (OHER), and the Division of Energy Biosciences 
in the Office of Basic Energy Sciences (BES). The following statement 
makes recommendations related to genomics, bioremediation, ocean 
science, and basic energy science. Federal investment in these programs 
today will help to ensure fundamental research to find solutions to 
future environmental and energy problems while maintaining U.S. 
scientific leadership worldwide.
                                genomics
    DOE supports the Microbial Genome Program (MGP) within the Office 
of Biological and Environmental Research (BER). The program, developed 
in 1994 as a compliment to the Human Genome Program, already provides 
complete sequence information on important microorganisms. The 
Administration has proposed $13 million for fiscal year 1999, about $7 
million more than last year. About $5 million of this increase are new 
funds associated with the CCTI. Last year the ASM urged Congress to 
double the microbial genome budget in an effort to increase research in 
this critical area of science.
    The ASM recommends that Congress provide $15 million, for the MGP. 
A base funding level of $10 million to sequence critical organisms 
within the scope of DOE's mission should be provided to the MGP. 
Funding from the CCTI should serve as an add-on to the program for 
specialized sequences of organisms related to the mission of the CCTI.
    Researchers supported by the MGP have already sequenced several 
complete microbial genomes, including ones from methanogens living in 
deep-sea thermal vent regions. Shortly, the genome of ``Deinococcus 
radiodurans'', a bacterium that is extremely resistant to radiation, 
will be completely sequenced. This sequence information provides clues 
into how we can design biotechnological processes that will function in 
extreme conditions, including ones that will generate fuels and help 
clean up the environment. With each new genome that is sequenced we 
gain a greater understanding of microbial evolution and diversity. 
Also, each sequenced genome has revealed how much more science needs to 
learn. Thirty percent of each genome has no known function. This 
presents a great challenge for scientists to unravel the genomes 
significance for understanding microbial evolution and the potential 
for biotechnological developments.
    The MGP contributes to the overall health and environmental quality 
of the nation by researching solutions to some of the nation's most 
complex environmental problems such as toxic waste cleanup and 
processing, future alternative energy production and efficiency, and 
the reduction of carbon gasses from our atmosphere. This program 
provides essential research in biotechnology, and a better 
understanding of the energy process, and bioremediation. The MGP is at 
the cutting edge of microbiological research. As part of the CCTI the 
MGP will support more research into methane and hydrogen production and 
reduction. As scientists learn more about the diversity of 
microorganisms, especially those that live in extreme conditions, they 
learn more about how to develop newer, cleaner forms of energy, 
technologies to clean up the waste associated with energy production 
and consumption, and protective technologies from radiation.
    The DOE has established the necessary peer review and advisory 
program to the MGP to ensure that the microorganisms selected for 
sequencing will yield the greatest scientific informational benefits 
and that the research is of the highest quality. Important new 
knowledge has been gained from each and every genome sequenced. The ASM 
believes that even greater benefits would be achieved if the program 
were funded at the requested level of $13 million and strongly urges 
this Subcommittee to consider adding these funds to the Microbial 
Genome Program for support of competitive research.
    The DOE has expanded its research into microbial diversity, and 
will begin sequencing the genomes of bioremediative microorganisms. Due 
to a scientific approach called sequence leveraging, a practice of 
using previously sequenced microbes to build the sequences of similar 
non-sequenced microbes, the results of these initiatives will be more 
readily available to other scientists, through the use of databases. 
All genome sequences supported by the MGP are available to the public 
and as such contribute to further scientific exploration. The public 
disclosure of genomic data will aid scientists in their research into 
new biotechnologies such as bioremediation, a technology that is 
proving to be a practical and a cost-effective way of eliminating 
pollutants.
                             bioremediation
    The MGP's research into bioremediative microoganisms compliments 
the research supported by the DOE's Natural and Accelerated 
Bioremediation Program (NABIR) and other DOE bioremediation research 
initiatives. The Administration's request for DOE bioremediation 
research is $28.0 million for fiscal year 1999. This program is level 
funded from fiscal year 1998. For fiscal year 1999, included in this 
request is nearly $22 million for the NABIR program, and $1.5 million 
for the Microbial Genome Program. The ASM supports the Administration's 
request for bioremediation research. However, the ASM believes that 
greater benefits will be achieved if the NABIR program is increased to 
$30 million, providing about $41 million for bioremediation overall.
    Bioremediation scientists are searching for cost-effective 
technologies to improve current remediation methods to clean up DOE's 
contaminated sites. This research will lead to new discoveries into 
reliable methods of bioremediation of metals and radionuclides as well 
as organic pollutants in soils and groundwater. The fiscal year 1998 
appropriation included funds for one field research site. The ASM's 
recommendation of $30 million for NABIR will provide the funds 
necessary to sustain two field research sites. The NABIR program 
supports real world field research that works to determine the 
practical applications of bioremediation for cost-effective cleanup of 
pollutants at DOE sites. Field research is a critical phase of this 
program. The ASM strongly recommends that additional funding be 
allocated to this effort with the aim of ensuring that two field 
research sites be established that span the breadth of pollution 
problems faced by the sites managed by the DOE and others.
                             ocean science
    Other exciting new microbiological research supported by BER is in 
the Ocean Sciences Program. The Administration's budget request 
includes $2.1 million for this program in fiscal year 1999. 
Microbiological research supported by the Ocean Sciences Program 
investigates the effects global change has on marine microbes. The 
findings from this program will be crucial to understanding the 
responses of marine biological systems to changes in their 
environments. The ASM fully supports the Administration's request for 
this program.
                         basic energy sciences
    The Administration's requested funding level for the Office of 
Basic Energy Sciences is $836.1 million for fiscal year 1999. This 
funding level is an $168.8 million increase over last year. BES funds 
important microbiological basic research programs through the Energy 
Biosciences Division. In fact, about one-fifth of all BES funds go 
directly to support research at academic institutions across the 
nation.
    For fiscal year 1999, the budget proposal has funded the Energy 
Biosciences Division within the BES at about $32 million, an increase 
of $5.1 million over last year. This program focuses on research in 
both microbiological and plant sciences. The exciting research 
supported by DOE's Energy Biosciences will lead to new discoveries in 
producing energy without risk to the environment and finding effective 
methods of cleaning up existing contamination. This year Energy 
Biosciences will focus on research into the reduction of carbon 
emissions as part of the CCTI. One area related to microbiology will be 
research into carbon consuming microorganisms.
    Other microbiological research supported by this program includes 
biotechnology related to energy, mechanisms occurring in 
microorganisms, biofuel production, and technologies to aid in the 
restoration of contaminated environmental sites. More basic research on 
hydrogen, methane, and ethanol production is needed if we are to meet 
future energy needs and to have fuels that will minimize environmental 
pollution. The ASM supports the proposed funding level for this program 
and urges Congress to allocate these funds for the Energy Biosciences.
                               conclusion
    DOE's research programs help to keep the United States at the 
forefront of scientific discovery and competitive in the world 
marketplace. The ASM encourages Congress to maintain its commitment to 
the Department of Energy research programs to maintain the United 
States' leadership in these vital industries and continue our 
commitment to a strong basic science program.
    The debate over the effect of greenhouse gasses on the environment 
is complex. While some may disagree about the severity of the 
greenhouse problem, most will agree that the reduction of industrial 
gasses into the atmosphere will provide more long-term environmental 
benefits than continuing to increase the rate these gasses enter our 
atmosphere. In Kyoto, the United States committed to significantly 
reduce carbon dioxide emissions into the atmosphere. DOE's basic 
research programs support research that investigates solutions to 
existing and future environmental and energy problems. Through the 
leadership of DOE's basic research science in clean fuels, and 
environmental processes, new technologies will be developed to enable 
the U.S. to be better prepared to meet environmental problems and the 
economic challenges associated with them.
    In summary, the ASM makes the following recommendations:
    The ASM believes that it is imperative for the United States to 
maintain a strong science budget that supports basic research.
    It is essential that the DOE receive sufficient increases in 
administrative budgets to properly staff and manage biological science 
programs.
    The ASM recommends that Congress provide $15 million, $9 million 
more than fiscal year 1998 funding, for the Microbial Genome Program. 
The MGP should have a base funding level of $10 million to sequence 
critical organisms within the scope of DOE's mission. Funding from the 
Climate Change Technology Initiative should serve as an add-on to the 
program for specialized sequences of organisms related to the mission 
of the CCTI.
    The ASM's recommends $30 million be appropriated for the NABIR 
program to provide the funds necessary to sustain two field research 
sites and an increase in bioremediation research. This recommendation 
would bring DOE's overall bioremediation budget to $41 million for 
fiscal year 1999.
    The ASM fully supports the Administration's request for $2.1 for 
the Ocean Sciences Program.
     The ASM recommends the Energy Biosciences Division within the BES 
receive $32 million for fiscal year 1999, an increase of $5.1 million 
over last year's funding.
    Thank you for the opportunity to provide testimony in support of 
the DOE basic life sciences programs. The ASM hopes that its 
recommendations will be useful to the Subcommittee. We would be pleased 
to respond to any questions.
                                 ______
                                 

   Prepared Statement of the Business Council for Sustainable Energy

                              introduction
    The Council is pleased to offer testimony to the Energy and Water 
Subcommittee of the Senate Appropriations Committee on the proper role 
for government in promoting energy research and development, as it 
relates to renewable energy programs at the Department of Energy (DOE).
    The Council was created in 1992 and is comprised of businesses and 
industry trade associations which share a commitment to pursue an 
energy path designed to realize our nation's economic and national 
security goals through the rapid deployment of efficient, non- and low-
polluting energy technologies. Council members include a diverse range 
of manufacturers, energy producers, suppliers of energy resources and 
energy service companies. Our member companies range in size from 
Fortune 500 enterprises such as Enron, Honeywell, Maytag and Southern 
California Edison, to small entrepreneurial businesses, to industry 
trade associations representing the natural gas, wind, solar and 
insulation industries.
         federal programs to promote renewable energy resources
    The Council recognizes that it is the suppliers and users of 
energy--not the federal government--that ultimately will decide which 
energy sources will meet our future energy needs. However, the federal 
government does play an important role in helping the private sector 
share the risk of investing in deployment of clean technologies that, 
while at or near economical viability, face financial, informational or 
institutional obstacles to their wide market availability.
                                  wind
    World markets for wind energy are growing at an unprecedented rate. 
Figures for 1997 indicate that total worldwide installed wind capacity 
stands at 7,758 megawatts (MW), up 25 percent from a year earlier. This 
figure includes approximately 1,524 MW installed in 1997. The Council 
supports DOE's total request of $43.5 million for wind energy research 
and development in the fiscal year 1999 to fund projects in turbine 
research ($24.8 million), cooperative research ($8.0 million 
recommended) and applied research ($10.7 million). This level of 
funding is particularly important to continue development of next 
generation wind turbine technologies needed to keep the U.S. industry 
competitive in restructured domestic markets and in the fast growing, 
highly competitive international markets.
    Although wind is making headway in the electric power generation 
market, U.S. markets for wind energy have plateaued, with only 11 MW 
installed in 1997, 10 MW in 1996 and 41 MW in 1995. Clearly, there are 
opportunities to reverse this recent decline in wind energy production 
and resume growth in the world markets as wind power costs continue to 
fall. The goal of cost-shared DOE/Wind Industry efforts is to develop 
the next generation aimed at delivering electricity in the range of 2.5 
cents/kWh.
    The Council supports DOE's programs focusing on small wind turbines 
up to 50 kW, including the cost-shared Advanced Small Wind turbine 
project. Small wind turbines are used for smaller on-grid and off-grid 
applications where the value of the energy is high. Presently, U.S. 
small wind turbine manufacturers are the world's leading suppliers but 
they must rely on exports for approximately three-quarters of their 
business. The absence of domestic markets makes this industry 
vulnerable to foreign competition, particularly from countries with 
more developed markets. For this reason, the Council is encouraging DOE 
to expand its small wind turbine market development programs by 
creating initiatives similar to PV-COMPACT, PV-BONUS and the Million 
Solar Roofs program. Such initiatives would lower the costs of small 
wind turbines, create thousands of new jobs and give more opportunities 
for the marketplace to choose the most competitive small-scale 
renewable energy technologies.
    The DOE has also been effective in helping U.S. small wind turbine 
companies overcome barriers to important international markets. While 
the DOE expenditures in this area have been very modest, support work 
by the National Renewable Energy Laboratory in the areas of wind 
resource studies, economic analyses and pilot projects has created 
substantial new markets in South America, Asia and Russia. Throughout 
the world, rural villages are being electrified or provided with clean 
water by small wind turbines exported from the U.S., at costs that are 
lower than the conventional alternatives of extending the grid or 
running diesel generators.
    Funding for Cooperative Research and Testing will provide support 
for industry testing at the National Wind Technology Center (NWTC) in 
Rocky Flats, CO. This will allow for continued development of a U.S.-
based certification capability for wind energy technologies. 
Ultimately, streamlined certification criteria will make it easier for 
U.S. businesses to market and sell American-made wind turbine 
technologies in international markets.
    The main focus of the applied research program is development of 
models to better understand aerodynamics (through wind tunnel tests), 
fatigue damage prediction and structural reliability capabilities. 
Modeling and code design work is underway at both the National 
Renewable Energy Laboratory (located in Golden, CO) and the Sandia 
National Laboratory (New Mexico).
    More and more electric utilities are becoming interested in 
generating power from large-scale wind power plants. The global market 
for wind power is expected to further grow over the next few years. New 
wind power markets are driven by the fact that at least one-third of 
the world's population--over 2 billion people--do not have access to 
reliable energy. Maintaining a U.S. presence in this growing industry 
is a valuable investment of federal resources--one that will pay off 
many times in the next several decades.
    The global wind energy market has been growing at a remarkable rate 
over the last several years and is the world's fastest growing energy 
technology. The growth of the market offers significant export 
opportunities for U.S. wind turbine and component manufacturers. The 
World Energy Council has estimated that new wind capacity worldwide 
will amount to $150 to $400 billion worth of new business over the next 
twenty years. Experts estimate that as many as 157,000 new jobs could 
be created if U.S. wind energy equipment manufacturers are able to 
capture just 25 percent of the global wind equipment over the next ten 
years.
                              solar energy
    The United States currently leads the world in the diverse 
portfolio of solar technologies: photovoltaics (PV) for manufacturing, 
thin films and energy services, solar thermal power in advanced 
concentrations (solar power towers, parabolic troughs, and dish-
engines) and solar buildings in integrated systems and energy services 
delivery. However, our international competitors are positioning 
themselves to take market share from the U.S. in vast, multi-billion 
dollar world markets, as a result of strong support provided by their 
respective governments--especially in Japan and Germany--through a 
variety of aggressive development and deployment programs. Maintaining 
our lead will require strong and focused U.S. government action, not 
only to support international activities but also to secure a position 
in growing domestic markets.
    Solar technologies available today include PV, solar water and pool 
heating, solar process heating and solar thermal power technologies. 
Faster integration of solar energy systems in both supply-and demand-
side applications in our domestic economy, combined with support for 
increased exports of U.S. solar technologies, will have the parallel 
benefits of creating thousands of new high-technology manufacturing 
jobs while improving our environment. The Council supports the trend 
toward market-driven, industry cost-shared programs designed to 
leverage federal dollars with private-sector participation to enhance 
private-sector understanding and use of these technologies.
    Improving conversion efficiency of solar panels and reducing 
manufacturing costs will play a key role in sustaining U.S. dominance 
in the area of PV. The Council supports the DOE's photovoltaic system 
program. PV programs are among the best leveraged (the PV-COMPACT 
program, for example, leverages $4 and $5 for every federal dollar 
expended) in DOE. Our two most formidable competitors, Japan and 
Germany, are outspending DOE's investment in PV research and 
development and PV commercialization programs. While U.S. industry is 
exporting a significant amount of its products to these countries, most 
expect this surge in demand to rapidly diminish as in-country 
manufacturing capabilities are increased. As an example, the Japanese 
Ministry of International Trade and Industry has set a domestic 
deployment goal of 400 megawatts of PV by the year 2000 and its 
manufacturers are responding to the challenge.
    Japanese manufacturers are expected to expand their annual 
production capacity four-fold to 80 megawatts over the next three 
years. Not only will this expansion allow the Japanese industry to meet 
its domestic demand for PV, it will enable Japan to overtake the U.S. 
in terms of global market share. The Council also supports the 
Administration's Million Solar Roofs Initiative (MSR).
    The Council supports DOE cost-shared initiatives in R&D (thin films 
and other advanced materials, manufacturing and other solar initiatives 
which address these issues. Equally important is the concept of 
building integrated PV programs where PV manufacturers, systems 
integrators and utilities are working together to reduce the cost of PV 
generated electricity. The Council also supports the Department's PV-
COMPACT program. PV-COMPACT is a collaborative effort involving more 
than 80 electric utilities, representing over half the electricity 
produced in the U.S., and other interested organizations to garner the 
economic, commercial and environmental benefits of PV technologies.
    PV's and other solar technologies offer the U.S. environmentally 
benign and cost-effective energy supply options in a variety of market 
applications. The market viability of these technologies is 
demonstrated in growing private sector interest in developing new 
manufacturing facilities related to solar industries. In the area of PV 
production alone, the last three years have witnessed six U.S. 
companies--including Council members United Solar Systems Corporation 
and Amoco/Enron Solar--announce plans to construct new photovoltaic 
plants. This activity is a unique example of DOE funding encouraging 
significant private-sector investment that creates new jobs. The 
Council strongly urges Congress to continue its support of public/
private partnerships that help ensure that U.S. companies can compete 
effectively in rapidly emerging world renewable energy markets.
    The Council supports DOE's Solar Thermal Buildings program, a 
research and development program focusing on materials and components 
for solar water and space heating technologies for building 
applications. Based at the National Renewable Energy Laboratory and the 
Florida Solar Energy Center, the program also has a strong technology 
standard and certification component. Activities in fiscal year 1999 
should include ongoing cost-shared technology validation projects, 
laboratory R&D and customer-oriented applied R&D of solar building 
technologies with universities and industries.
    The Council supports the Solar Thermal Electric and Process Heat 
programs, an R&D program on materials and components with a heavily 
cost-shared technology validation component. Over the past five years, 
the primary program focus has been collaboration with industry to 
develop advanced solar thermal electric technologies to the point of 
commercial readiness.
                 renewable energy production incentive
    As part of the Energy Policy Act of 1992 (Sec. 1212), the Congress 
passed the Renewable Energy Production Incentive (REPI) to encourage 
the development of renewable energy projects in tax-exempt municipal 
utilities. This program has been successful in helping municipal 
utilities such as Sacramento Municipal Utility District develop wind 
and solar generating facilities. We strongly support the 
Administration's request of $4.0 million as a modest, cost-effective 
step toward renewable energy project development.
                        international activities
    Finally, the Council would like to offer its support of federal 
programs designed to help open important international markets for 
renewable energy technologies. The Council is extremely supportive of 
the fiscal year 1999 increases in funding for international energy 
programs such as the International Solar Energy Program.
    The developing world--Eastern and Central Europe, the former Soviet 
Union, Asia, Africa and Latin America--presents tremendous 
opportunities for the deployment of renewable energy technologies. 
Renewables offer great flexibility to developing countries looking for 
economically viable, reliable and clean energy supply options that can 
be used to serve growing metropolitan areas and remote rural regions 
where power is otherwise unavailable. Renewables can also help support 
the development of commercial activities such as agriculture and 
telecommunications through remote power source applications. 
Competition in rapidly growing developing country markets is intense; 
U.S. renewables manufacturers face the dual obstacles of competition 
from conventional energy sources and foreign renewables manufacturers 
buoyed by government assistance.
    In this regard, it is important to note that major U.S. competitors 
are now making aggressive moves into the renewables market. When 
measured against the relative size of their economies, Japan, Germany 
and Sweden are each now making larger government R&D investments in 
renewables than is the U.S. In fact, the U.S. taxpayer spends a lower 
portion of its R&D budget on energy than any other taxpayer in an 
industrialized, market-based economy.
    U.S. government assistance in identifying market opportunities, 
providing education and training for energy decision-makers in the 
developing world and supporting demonstrations of renewable 
technologies in overseas applications promises to help ensure that U.S. 
renewables manufacturers will be successful in capturing market-share 
throughout the expanding global market for clean energy technologies 
and services.
                               conclusion
    Promoting research, development and validation of emerging 
renewable energy technologies will result in the near-term creation of 
thousands of new jobs, a stronger economy, enhanced export 
opportunities for domestic manufacturers and a cleaner environment. 
DOE's budget request continues federal emphasis on developing low- and 
non-polluting energy technologies and services as a means of achieving 
these goals. It utilizes cost-shared collaboratives with industry to 
leverage limited federal funds in recognition that cooperation with 
industry is vital for addressing market imperfections impeding the 
widespread use of renewables. The Council strongly supports this 
approach and urges Congress to continue its support of federal 
research, development and validation programs for renewable energy 
technologies.
                                 ______
                                 

  Prepared Statement of W. Ron Allen, President, National Congress of 
                            American Indians

                              introduction
    Good morning Chairman Domenici, Vice-Chairman Reid and 
distinguished members of the Appropriations Subcommittee on Energy and 
Water Development. Thank you for the opportunity to present testimony 
regarding the President's budget request for fiscal year 1999 Indian 
programs and services. My name is W. Ron Allen. I am President of the 
National Congress of American Indians (``NCAI''), the oldest, largest 
and most representative Indian advocacy organization in the nation, and 
Chairman of the Jamestown S'Klallam Tribe located in Washington State. 
The National Congress of American Indians was organized in 1944 in 
response to termination and assimilation policies and legislation 
promulgated by the federal government which proved to be devastating to 
Indian Nations and Indian people throughout the country. NCAI remains 
dedicated to advocating aggressively on behalf of the interests of our 
230 member tribes on a myriad of issues including the critical issue of 
adequate funding for Indian programs.
            the president's fiscal year 1999 budget request
Department of Energy
    The Department of Energy (DOE) manages programs to mitigate and 
remediate ceded and former Indian lands contaminated by the Cold War 
legacy. However, funding for these programs are inadequate for 
activities such as: tribal involvement in decision- making processes; 
shipping of high and low level radioactive waste through Indian country 
whose jurisdictions do not have adequate emergency response programs in 
place to protect people, lands and resources; and, siting of a 
permanent repository for spent nuclear on former traditional lands 
under an arbitrary policy which does not involve local tribes but 
supports non-Indian state and county governments for oversight 
activities.
    The DOE Office of Civilian Radioactive Waste Management (OCRWM) is 
performing scientific and technical studies at Yucca Mountain on the 
Nevada Test Site for a proposed high-level spent nuclear fuel and 
radioactive waste permanent repository. The Nevada Test Site is within 
the traditional homelands of the Shoshone and Paiute peoples whose 
culture, environment, and health already has been impacted by federal 
government-sponsored atomic testing and other activities. However, DOE-
OCRWM did not request fiscal year 1999 funding for oversight activities 
for the tribes indigenous to this area. The fiscal year 1999 budget 
request of the DOE-OCRWM program is $380 million from which $16 million 
is for the state of Nevada, nine Nevada counties, and one California 
county (designated local units of government under the Nuclear Waste 
Policy Act of 1987, as amended [Public Law 100-203]) for oversight 
activities at Yucca Mountain. (Under the current fiscal year 1998 
budget, the ten counties are receiving $5 million and the area tribes 
are not included in this allocation). We ask that this Committee ensure 
that funds are made available for tribal involvement and examine DOE's 
arbitrary policy of ignoring the tribes who remain in their homelands 
but are left out of the oversight process at Yucca Mountain.
    The NCAI Nuclear Waste Program, funded through a DOE-OCRWM 
cooperative agreement, is a national information dissemination effort 
to provide tribal governments with updates on the implementation of the 
Nuclear Waste Policy Act of 1982 (Public Law 97-425). The long-range 
issues and impacts to Indian country are significant and national in 
scope, but tribes do not have adequate staff or resources to track this 
program. This year, the NCAI Nuclear Waste Program operated under funds 
from a renewed five-year cooperative agreement. The Program budget is 
almost at its lowest funding level since its inception in 1982 and is 
slated to stay at the fiscal year 1999 requested funding level of 
$148,000 in the out years. Considering inflation, cost of living and 
other factors, continued level funding results in further reductions 
annually. In order to sustain a viable program and provide tribal 
leaders with relevant and current information and assist in the 
interactive DOE process, NCAI requests increased DOE-OCRWM annual 
funding to the NCAI cooperative agreement as part of its trust 
responsibility to keep tribes informed on programmatic impacts and 
maintain an open dialogue with impacted tribal communities.
    The Office of Nuclear Energy, Science and Technology has requested 
$10 million in fiscal year 1999 for research and development 
collaboration to refurbish and upgrade those nuclear utilities whose 
licenses will soon expire and will have to apply to the Nuclear 
Regulatory Commission for relicensing. This request reflects a 44 
percent increase for nuclear energy research and development. We 
request the DOE direct a portion of this funding to be shared with 
tribes within the 10-mile Emergency Planning Zone and the 50-mile 
Ingestion Pathway Zone around commercial nuclear reactors.
    Under the Office of Environmental Management Office of Public 
Accountability (EM-22), nine tribes have cooperative agreements to 
participate in site cleanup and waste management oversight activities. 
The current fiscal year 1998 tribal allocation of $4.2 million is $1 
million less from the fiscal year 1997 authorization. The fiscal year 
1999 EM-22 budget has been reduced by 20 percent and it is not clear 
whether tribal budgets will stay at level funding. Adequate tribal 
program funding has always been a problem despite the fact that many 
federal sites slated for cleanup are former tribal lands or ceded 
territory and contain significant cultural sites. DOE-EM officials have 
suggested they are working to avoid negative impact on tribal budgets. 
We request an increase in tribal funding and ask this Committee to 
ensure that the DOE-EM not undermine these small tribal allocations.
    The Office of Energy Efficiency and Renewable Energy (EERE) Solar 
and Renewable Resources Technology budget supports research and 
development programs in energy efficiency and renewable technologies in 
utility, building transportation, and industry sectors. Part of the 
EERE Solar Program Support budget request is for $10 million for a 5-
year Open Solicitation for Renewable Energy Technologies. The program 
provides up to $3 million for tribes in the open competition for 
deployment of renewable energy. The fiscal year 1999 request includes 
$4 million to develop a fish-friendly turbine. We support this effort 
and ask this committee's support on this budget category.
                               conclusion
    Mr. Chairman, we urge the Congress to fulfill its fiduciary duty to 
American Indians and Alaska Native people and to uphold the trust 
responsibility as well as preserve the Government-to-Government 
relationship, which includes the fulfillment of health, education and 
welfare needs of all Indian tribes in the United States. This 
responsibility should never be compromised or diminished because of any 
Congressional agenda or party platform promises. Tribes throughout the 
nation relinquished their lands as well as their rights to liberty and 
property in exchange for these on-going services as well as this trust 
responsibility. The President's fiscal year 1999 budget is a positive 
step towards acknowledging the fiduciary duty owed to tribes.
    We ask that the Congress consider the funding levels in the 
President's budget as the minimum funding levels required by Congress 
to maintain these services and the federal trust responsibility. The 
consensus of Indian country is that the federal government's budgetary 
process has failed to provide for effective services and minimum to 
raise the living standards of Indian communities consistent with non-
Indian communities. In order for federal government to reasonably 
expect tribal government to truly achieve the self-determination, self-
governance and self-sufficiency goals mutually identified by the 
federal government and the tribal governments will not be achieved 
unless meaningful increases are provided for Indian programs and 
services.
    Mr. Chairman, this concludes my statement. Thank you for allowing 
me to present for the record, on behalf of our member tribes, the 
National Congress of American Indians' initial comments regarding the 
President's fiscal year 1999 budget.
                                 ______
                                 

 Prepared Statement of Jeff Seemann, Project Director, Nevada National 
                   Science Foundation EPSCoR Project

    Mr. Chairman: I am Jeff Seemann, Project Director of the Nevada 
National Science Foundation EPSCoR Project, and Chair of the Department 
of Biochemistry at the University of Nevada, Reno. I am submitting this 
statement on behalf of the eighteen states \1\, plus the Commonwealth 
of Puerto Rico, that are eligible to participate in the Experimental 
Program to Stimulate Competitive Research (EPSCoR).
---------------------------------------------------------------------------
    \1\ Alabama, Arkansas, Idaho, Kansas, Kentucky, Louisiana, Maine, 
Mississippi, Montana, Nebraska, Nevada, North Dakota, Oklahoma, Puerto 
Rico, South Carolina, South Dakota, Vermont, West Virginia, and 
Wyoming.
---------------------------------------------------------------------------
    The Coalition of EPSCoR States supports the Energy Department's 
budget request for EPSCoR, but we respectfully urge the Subcommittee to 
consider appropriating an additional $3 million for this productive 
program. The Department request for $6.815 million is included in the 
Basic Energy Sciences budget.
    The Experimental Program to Stimulate Competitive Research (EPSCoR) 
is a research and development program established by the National 
Science Foundation. Through a merit review process, EPSCoR is improving 
our Nation's science and technology capability by funding research 
activities of talented researchers at universities and non-profit 
organizations in states that historically have not received significant 
Federal R&D funding. EPSCoR helps researchers, institutions, and states 
improve their research capabilities and quality in order to compete 
more effectively for non-EPSCoR research funds. EPSCoR is a catalyst 
for change and is widely viewed as a ``model'' Federal-state 
partnership.
    In 1992 Congress authorized the Energy Department to conduct an 
EPSCoR program in Section 2203 of the Energy Policy Act (Public Law 
102-486). The Department designed its EPSCoR program based upon the 
National Science Foundation's model developed with the overriding 
purpose of enhancing the capabilities of the eligible states to conduct 
nationally competitive energy-related research and to develop science 
and engineering manpower to meet current and future needs in energy-
related areas.
    Building a world class scientific research base in Nevada has been 
one of the major goals of our EPSCoR Program. The foundation for 
building this research enterprise will always be the hard work of our 
talented science and engineering faculty in the University and 
Community College System of Nevada (UCCSN). One of the major objectives 
in growing the research competitiveness of our faculty is to build a 
solid base of infrastructure that supports their research activities. 
EPSCoR has been and will continue to be a major catalyst in building 
the research infrastructure in Nevada. It operates on several 
principles:
  --to stimulate high quality research;
  --to promote cooperation across traditional disciplinary lines and 
        across institutional lines;
  --to build permanent, systematic improvements in the research 
        environment; and
  --to obtain funding from non-EPSCoR sources to sustain research 
        initiated through the EPSCoR program.
    Nevada's DOE EPSCoR project was established in October 1994. It was 
one of nine states selected to receive grants following merit-based 
competition. The other states that currently hold DOE awards are 
Alabama, Kentucky, Louisiana, Maine, Montana, Puerto Rico, South 
Carolina and Wyoming. Each state must match its DOE grant with state, 
university or other non-federal funds.
    The current DOE EPSCoR grant to Nevada is for $3,920,000 over four-
year period. This grant is matched with funds from participating units 
of the University and Community College System of Nevada (UCCSN). The 
purpose of our DOE EPSCoR program is to improve capabilities and 
production of high quality research in order to help serve the needs of 
DOE, the nation, and the state. The Nevada DOE EPSCoR program 
encompasses the following components, all of which have been 
established and are now operating smoothly and productively.
    There are two primary focuses of our project. One is the Chemical 
Physics Research Cluster that encompasses the activities of 9 faculty, 
3 postdocs, 7 graduate students and 9 undergraduates at the University 
of Nevada, Las Vegas (UNLV) and University of Nevada, Reno (UNR) 
working on three related research projects. This cluster is studying 
chemical physics processes with applications ranging from understanding 
hot, dense plasmas to developing short-wavelength lasers. Researchers 
in this cluster have developed unique opportunities to work with four 
of the Department's National Laboratories, Sandia National Laboratory, 
Lawrence Livermore National Laboratory, Los Alamos National Laboratory, 
Lawrence Berkeley National Laboratory.
    I should note that one of our young faculty members, Dr. Bruno 
Bauer, a Presidential Young Investigator award winner, has garnered a 
$2 million ``High Density Z-Pinch'' fusion energy device that has been 
transferred to UNR from Los Alamos National Laboratory. It will be used 
to investigate fundamental questions in plasma and atomic physics, to 
advance techniques of radiography, and to develop practical 
applications in medical, materials and environmental sciences.
    The second research cluster focuses on Responses of Desert 
Vegetation to Elevated Atmospheric Carbon Dioxide. It supports the work 
of twelve faculty, 5 postdocs, 7 graduate students and 10 
undergraduates at UNR, UNLV, and the Desert Research Institute (DRI). A 
substantial portion of the DOE EPSCoR funding for this cluster has been 
utilized to establish a dedicated state-of-the-art facility on the 
Nevada Test Site to study the effect of 21st century atmospheric carbon 
dioxide concentrations on desert ecosystems. This is the Nevada Desert 
Free Air CO<INF>2</INF> Enrichment Facility or FACE, an excellent 
example of the kind of scientific infrastructure building that EPSCoR 
is designed to stimulate. It is the only one of its kind in a desert 
environment.
    The research conducted by this cluster is particularly important to 
Nevada. It is well-established that the levels of carbon dioxide in the 
atmosphere have been increasing steadily, primarily as a result of 
consumption of fossil fuels. The percentage has increased by 30 percent 
since the pre-industrial era, and will double by the end of the 21st 
century. The research is aimed at determining what effect these 
increasing carbon dioxide levels will have on desert ecosystems. In a 
desert, plants are already under a great deal of stress from heat and 
from limited water. It is of great interest to Nevada to determine the 
response of desert ecosystems to increased carbon dioxide levels. The 
FACE facility came about as a result of coordination between the Energy 
Department, the National Science Foundation, Nevada EPSCoR, and 
Brookhaven National Laboratory. It has been critical to the support of 
increasing the knowledge base of this research.
    There also is a human resource development component of our DOE 
EPSCoR project. Operating primarily at UNR and UNLV, it also has major 
outreach activities involving DOE-NV Education Outreach and Office of 
External Affairs, and Nevada K-12 and Community College institutions.
    The Energy Department conducted a formal review of our research 
efforts in 1997 and determined to extend support for our clusters with 
$1.5 million for another two years.
    In May, the Department, in conjunction with representatives of the 
Federal agencies who sponsor EPSCoR programs, hosted workshops and a 
round table meeting at Argonne National Laboratory. The program 
included a series of workshops to promote the formation of 
collaborations between the faculty from the EPSCoR states and the 
scientific and engineering staff at the national laboratories and 
facilities. The Coalition found this to be a successful first session 
and encourages the Department to continue to host such events.
    Recently the Office of Energy Research, acting through the DOE 
EPSCoR office, initiated another new program to support collaborative 
partnerships between academic or industrial researchers from eligible 
states and DOE's National Laboratories, facilities, and centers. 
Undergraduate and graduate students who are active members of the 
research teams were encouraged to apply to spend a summer or academic 
year at a national laboratory or DOE facility. This initiative will 
further efforts to enhance the capability of EPSCoR states to conduct 
nationally competitive energy-related research and to develop science 
and engineering manpower in energy-related areas to meet current and 
future needs. In addition, it helps DOE to recruit young scientists and 
engineers.
    These are the types of activities the Coalition believes the 
Department should strengthen and expand. This is why we believe 
additional funds should be made available for fiscal year 1999. 
Increased funding would also permit DOE to select for implementation 
grants more than the two or three states contemplated in the budget.
    Given the success of the EPSCoR programs in Nevada, it is not 
surprising that we are very interested in and enthusiastic about the 
future of the DOE EPSCoR program. It has been our experience that the 
EPSCoR programs yield a return far beyond the original investment. 
EPSCoR allows the states to accomplish more than is possible through 
the regular research programs. It has helped Nevada attract and retain 
young researchers, such as Bruno Bauer, who are able to demonstrate 
through EPSCoR support of their research, that they have bright future 
in the fields of plasma and atomic physics. It has enabled Nevada to 
develop a unique, state-of-the-art research facility at the Nevada Test 
Site. This is what EPSCoR is intended to do.
    At its core, DOE EPSCoR supports quality peer-reviewed research, 
but also builds the research infrastructure that improves our overall 
competitiveness. It stimulates collaboration, strategic thinking and 
broad scale planning, and development of a shared research vision by 
the state. Nevada is making good use of EPSCoR in concert with and 
complementary to the other agency research initiatives.
    Mr. Chairman, on behalf of the Coalition of EPSCoR States, I urge 
this Subcommittee to continue to support the DOE EPSCoR program. 
Recognizing the very tight fiscal constrains this Subcommittee faces in 
the new era of a balanced federal budget, we request that the 
Subcommittee provide $10 million to the Energy Department for its 
EPSCoR program in fiscal year 1999 as part of the Basic Energy Sciences 
budget. The additional funds should be used to support new research 
implementation awards, support collaborations with the national 
laboratories, and co-fund meritorious applications submitted to DOE's 
regular grant programs by researchers in EPSCoR states.
    The Energy Department's Experimental Program to Stimulate 
Competitive Research is a wise and worthwhile investment of scarce 
public resources. It will continue to contribute significantly to 
efforts to build the scientific and engineering research efforts of 
eligible states and the Nation.
    Thank you for your consideration of this request.
                                 ______
                                 

     Prepared Statement of Kerry L. Sublette, Sarkeys Professor of 
             Environmental Engineering, University of Tulsa

    It is proposed that the U.S. Department of Energy support a 
focused, university-based program, the Integrated Public/Private Energy 
& Environmental Consortium (IPEC), with the goal of increasing the 
competitiveness of the domestic energy industry through a reduction in 
the cost of compliance with U.S. environmental regulations. Federal 
support is specifically requested as part of the fiscal year 1999 
appropriation for the Department of Energy through the Biological and 
Environmental Research account or other source the Subcommittee may 
determine to be appropriate.
    Last year the Congress provided $1.5 million in funding for the 
Integrated Public/Private Energy & Environmental Consortium (IPEC) 
(formerly the Integrated Petroleum Environmental Consortium) in the 
fiscal year 1998 appropriations bill for the Environmental Protection 
Agency (EPA). Specially this funding was provided for the development 
of cost-effective environmental technology, improved business 
practices, and technology transfer for the domestic energy industry. 
With initial funding under the Science and Technology account of EPA, 
IPEC will implement a comprehensive mechanism (Center) to advance the 
consortium's research expertise in environmental technology. The 
consortium includes the University of Tulsa, the University of 
Oklahoma, Oklahoma State University, and the University of Arkansas.
    IPEC's operating practices and linkages to the independent sector 
will ensure that real problems in the domestic energy industry are 
addressed with real, workable solutions. Indeed this Subcommittee 
highlighted and supported these efforts by including strong support 
language in the committee report. We thank you for your support and 
would also like to express our appreciation to those members and their 
staff who provided valuable advice and guidance during the last session 
of Congress. As envisioned and proposed by the consortium, State-level 
matching funds have been pledged to support IPEC, creating a true 
Federal-State partnership in this critical area. In fiscal year 1998, 
IPEC has secured a pledge of $375,000 in matching funds from the 
Chancellor of Higher Education of the State of Oklahoma.
    IPEC officers have met with the Director of the Environmental 
Engineering Research Division of the EPA National Center for 
Environmental Research and Quality Assurance. The Consortium is working 
with EPA to ensure that we meet the agency's requirements for funding 
as a research center and the successful funding of IPEC.
    IPEC is proceeding in its solicitation and review process so that 
we will be in a position to fund projects as soon as possible. The IPEC 
Industrial Advisory Board (IAB) has been formed and met for the first 
time on January 20, 1998. This twenty-member Board is composed of 
environmental professionals from the domestic energy industry and is 
dominated by representatives of independent producers. We are pleased 
to report that IPEC's Industrial Advisory Board has approved five 
programs for funding and more are expected in the coming months. These 
five projects include the following:
    (1) Intrinsic bioremediation of whole gasoline.--This project seeks 
to develop a scientific basis for a risked-based approach to management 
of sites contaminated with gasoline. The project will investigate the 
mechanism and rate of the natural attenuation of gasoline via 
biodegradation by microorganisms which occur naturally in soil (termed 
intrinsic bioremediation). If all of the regulated components of 
gasoline can be naturally biodegraded, then contaminated sites which 
pose no immediate threat to human health or environmental receptors can 
be given a low priority for active intervention freeing precious 
resources to be allocated to sites where the threat is more acute.
    (2) Microflora involved in phytoremediation of polyaromatic 
hydrocarbons.--Phytoremediation is the term applied to the use of 
plants and microorganisms that thrive in the plant's root zone to 
biodegrade soil pollutants such as polyaromatic hydrocarbons (PAH's). 
PAH's are a major class of recalcitrant pollutants and are a 
significant byproduct of petroleum processing and refining. PAH's are 
concentrated in food chains, are toxic, and some are recognized 
mutagens and carcinogens. This project will determine the feasibility 
of using plants to degrade these PAH's in contaminated soil by creating 
a ``living cap'' of plants and associated microorganisms over 
contaminated sites. The costs of such waste treatment are far below 
those required for conventional treatment such as excavation and 
incineration of contaminated soil.
    (3) Passive sampling devices (PSD's) for bioavailability screening 
of soils containing petrochemicals.--The concept of a risk-based 
corrective action applied to the management of contaminated soil or 
groundwater requires that a regulator assess human risk. Soil 
contaminants can be detected by chemical analysis, but this provides 
little information on the actual hazard presented to ecological and 
human receptors. In some cases, contaminant levels above current soil 
quality guideline levels exists, but not toxicity. In other cases, 
chemical levels are below soil quality guidelines, yet toxicity 
persists. This project seeks to develop a rapid, cost-effective 
screening tool or passive sampling device (PSD) to determine the actual 
toxicity of contaminants in soil and their bioremediation potential. 
Use of such a device to determine the actual risks to human health 
presented by a site and its amenability to bioremediation would allow 
regulators to better prioritize contaminated sites needing immediate 
remedial action.
    (4) Using plants to remediate petroleum-contaminated soil.--This 
project also proposes to use plants and associated microorganisms in 
the plants root zone to effect the remediation of soil contaminants. 
This project specifically seeks to conduct field studies to develop 
protocols suitable for phytoremediation of petroleum-contaminated 
secondary containment berms. These earthen berms are designed to 
contain fluids in the event of a major spill or leak in a tank. Many of 
these berms become contaminated with oil through leaks, spills, and 
normal transfer operations. This project envisions the continuous 
cultivation of suitable plants on these berms to keep oil contamination 
under control.
    (5) Probabilistic risk assessment of petroleum contamination using 
detailed physical models.--Like all human endeavors the exploration and 
production (E&P) of oil and gas has associated with it some risk of 
damage to human or environmental health. Response to this risk can be 
reactive or proactive. The latter is of course preferred since 
proactive management prevents environmental damage and injury and is 
less costly. This project will develop a proactive risk management 
program for E&P operations to minimize the potential for environmental 
damage. This risk-based approach makes resource allocation more 
effective based on the probability that a scenario will occur and the 
potential severity of the associated damage. Proactive risk management 
in the domestic petroleum industry has the potential for both 
significant cost savings and enhanced environmental protection.
    The use of the Industrial Advisory Board to measure the relevancy 
of research within the Consortium is truly unique and ensures that the 
Consortium is meeting the needs of the domestic energy industry. IPEC 
has secured significant matching funds from industry for these first 
five programs. The combined funding request for these five projects is 
$492,000; however, the investigators have secured another $502,000 in 
matching funds from industry for these projects from individual 
companies and industry organizations such as the Gas Research 
Institute, the American Petroleum Institute and the Petroleum 
Environmental Research Forum. IPEC is well on its way to becoming a 
true public/private partnership.
    As we have previously testified, the ability of small and medium 
sized producers to compete in a global market is complicated by two 
factors: the cost of regulatory compliance and the declining cost of 
crude oil. With your help IPEC is developing cost-effective solutions 
for the environmental problems that represent the greatest challenge to 
the competitiveness of the domestic energy industry. However, the 
fiscal year 1998 appropriation is only a beginning. For example, the 
IPEC Industrial Advisory Board has identified 26 critical research 
needs. With the current funding we can begin to address only a fraction 
of these needs. There is much work to be done and we respectfully 
request that the Subcommittee provide $2 million in funding for IPEC in 
fiscal year 1999.
         the continuing crises in the domestic energy industry
    The crisis in the domestic energy industry that we described in 
testimony in the last session of Congress has only gotten worse as the 
price of crude oil continues to fall to below $13 per barrel. The 
independent producers are producing from mature fields left behind by 
the majors. Although there is a significant resource base in the fields 
this is the most difficult and the most costly oil to produce. The 
independent producer has only one source of revenue--the sale of oil 
and gas. There is no vertical depth to his business. With the price of 
oil this low the independent producer is extremely vulnerable to the 
costs of environmental compliance. This latest drop in oil prices will 
no doubt result in another wave of business closures, plugged and 
abandoned wells, and reduced new well completions. The problem is so 
acute that the Governor of Oklahoma has recently formed an emergency 
task force to determine what the state can do to help Oklahoma 
producers survive the current plunge in prices. A similar price crash 
in the 1980's triggered a prolonged statewide recession. Clearly this 
trend is not in the best interest of the U.S. in terms of energy self-
sufficiency or national security. We are turning over control of our 
cost of production in terms of energy costs to foreign interests. If 
domestic exploration and production and refining are to continue to 
play a strategic role in meeting U.S. energy needs, the domestic 
petroleum producer will continue to require access to cost-effective 
technology for pollution prevention, waste treatment and remediation in 
exploration and production (E&P) and refining.
               ipec's response to critical research needs
    IPEC will continue to work with the domestic energy industry to 
provide solutions to those environmental problems that represent the 
greatest challenge to the competitiveness of the industry. Specifically 
in fiscal year 1999 IPEC will continue to work with our Industrial 
Advisory Board to address the remaining critical research needs they 
have identified as well as address new needs that develop. These 
research needs include the following:
    (1) Bioremediation and other remediation technologies.--Reducing 
toxicity of hydrocarbon-contaminated soils; development of rapid, on-
site remediation technologies; control of salt migration in the 
subsurface; developing methodologies for phytoremediation.
    (2) Risk Assessment.--Development of cost-effective ecological risk 
assessment methods for petroleum impacted sites; development of cost-
effective and relevant terrestrial (animal/plant) bioassays for use in 
ecological risk/impact assessment; development of field methods for 
ecological risk assessment; development of methods to evaluate actual 
and future environmental risk of petroleum impacted soils; determining 
the correlation between ecological risk assessment and human health 
risk assessment; determining the impact of intrinsic bioremediation on 
risk-based closures; development of risk-based guidelines for handling, 
disposal and storage of NORM-contaminated solids, pipe, and equipment.
    (3) Measurement Technology.--Development of cost-effective methods 
(direct and indirect) for measuring the amount and extent of petroleum 
hydrocarbon sources in unsaturated and saturated soils; development of 
useful and easy to implement field and analytical methods and protocols 
for demonstrating intrinsic bioremediation; validating current models 
for predicting flash emissions of hydrocarbons in E&P operations.
    (4) Process Technologies.--Control or treatment of flash gas 
emissions from stock tanks; use, treatment or disposal of oil tank 
bottoms; development of cost-effective methods for capture, recycling/
destruction of volatile organic compound emissions from hydrocarbon 
processing and storage tanks; development of improved water treatment 
methods--particularly those methods; development of methods to for 
treatment of hydrogen sulfide in the reservoir.
    (5) Management and Decision Tools.--Development of methods to 
predict plume migration of salt water from pits; development of methods 
to calculate the full life cycle cost of material and waste handling in 
the petroleum industry; development of proper pit closure methods using 
a clay or compacted soil cap; development of improved methods for 
disposal of drilling wastes; development of methods to distinguish 
between historical oil field pollution and recent, current and/or 
ongoing pollution.
    In addition to working with our Industrial Advisory Board, IPEC 
will continue in fiscal year 1999 to build linkages with organizations 
which provide services to the domestic energy industry. As IPEC begins 
to fund technology development projects the Directors will work with 
the leadership of these organizations to develop a synergy between 
their efforts and those of IPEC. These organizations form the IPEC 
Affiliates Group and include the National Petroleum Technology Office 
(NPTO) of the U.S. Department of Energy, the Interstate Oil and Gas 
Compact Commission (IOGCC), the Petroleum Environmental Research Forum 
(PERF) the Oklahoma Energy Resources Board (OERB), the Oklahoma 
Independent Petroleum Association (OIPA), the Gas Research Institute 
(GRI), the Office of the Oklahoma Secretary of Energy, the Osage Agency 
of the Bureau of Indian Affairs and the Oil Producers of Arkansas 
(OPA). Recently, Governor Frank Keating of Oklahoma named the IPEC 
Director to the Environmental and Safety Committee of the IOGCC.
how ipec's objectives are consistent with the mission of the biological 
                   and environmental research program
    Although IPEC's close ties to the independent sector of the 
domestic energy industry have resulted in a strong working relationship 
with the National Petroleum Technology Office in the Office of Fossil 
Energy, IPEC continues to have broad applicability across the 
Department of Energy. Biological treatment of waste materials and 
bioremediation of contaminated media such as water, air and soil are 
widely recognized as potentially the most cost-effective treatment 
methodologies available for many types of wastes. Petroleum 
hydrocarbons are both the most widely distributed class of 
environmental pollutants and the most amenable to biological treatment. 
These facts have certainly been recognized by the IPEC Industrial 
Advisory Board in that of the five research projects approved thus far 
by the IAB as relevant to IPEC's mission, four concern the use of 
plants and microbes to treat contaminated soils. Further, of the 
critical research needs identified by IPEC's Industrial Advisory Board 
fully half concern bioremediation, phytoremediation, ecological risk 
assessment, and toxicity issues. These topics are clearly within the 
mission of the DOE BER Program.
    The mission of the Biological and Environmental Research (BER) 
Program under Environment, Safety and Health is to ``develop the 
knowledge needed to mitigate or correct the consequences of energy use 
while contributing to the education and training of the scientific work 
force''. This is identically the mission of IPEC when applied to the 
domestic energy industry. IPEC will use academic scientists and 
engineers in partnership with industry to develop new, cost-effective 
technology to solve environmental problems which are having a major 
economic impact on the domestic energy industry. These academic 
investigators will utilize undergraduate and graduate students in the 
sciences and engineering in these projects resulting in the training of 
new environmental professionals.
    An example of an innovative petroleum environmental technology 
which fulfills the mission of the BER Program is intrinsic 
bioremediation of petroleum hydrocarbons. Intrinsic bioremediation is 
the application of indigenous microorganism to the attenuation of 
hydrocarbons which contaminate soil and groundwater. It has recently 
been shown that many petroleum hydrocarbons will be biologically 
degraded in soil and groundwater even in the absence of oxygen and 
without active intervention. These observations suggest that if no 
environmental receptor (drinking water aquifer, stream or lake) is 
immediately threatened, no intervention may be necessary to remediate 
certain spills. This conserves financial resources for application to 
other problems where the actual risks to public health are significant. 
However, intrinsic bioremediation is not sufficiently well understood 
at present to safely make these types of judgments. A better 
understanding of the rate and extent of natural attenuation of 
petroleum hydrocarbons in the subsurface will require a multi-
disciplinary approach analogous to the BER subsurface science program. 
The response of ``biological systems to local disturbances resulting 
from energy-related activities'' is a key element of both the BER 
Program and IPEC's investigations of intrinsic bioremediation.
    IPEC is in the second year of a major three-year effort to address 
an important problem in the exploration and production of petroleum and 
natural gas: the remediation of hydrocarbon-impacted soil and 
groundwater. The project is funded by the Biological and Environmental 
Research (BER) Program of DOE ($973,000) with cost share from Amoco 
Production Co. Specifically this research is investigating the 
mechanisms of the natural biodegradation or intrinsic bioremediation of 
hydrocarbons in the subsurface with the goal of providing a sound 
scientific basis to support risk-based regulatory decisions at 
hydrocarbon-contaminated sites.
                            funding of ipec
    IPEC is seeking appropriations of $2 million for fiscal year 1999 
and the succeeding fiscal years 2000, 2001, and 2002 through the 
Department of Energy. The consortium will be responsible for at least a 
50 percent match of federal appropriations with private sector and 
state support over a four year period. The Consortium will be subject 
to annual review to ensure the effective production of data, regulatory 
assessments, and technology development meeting the stated goals of the 
Consortium.
                                 ______
                                 

             Prepared Statement of the New York University

      a center for cognition, learning, emotion and memory (clem)
    New York University respectfully seeks the Subcommittee's support 
for a project of scientific research which is not only an important 
priority for the University, but which we believe will advance national 
interests through enhanced scientific understanding of normal brain 
development as well as the many disabilities, disorders and diseases 
that erode our ability to think and learn.
    The University proposes to establish a Center for Cognition, 
Learning, Emotion and Memory. This Center will draw on the University's 
strengths in the fields of neural science, biology, chemistry, 
psychology, computer science, and linguistics to push the frontiers of 
our understanding of how the brain develops, function malfunctions, 
matures, and ages. In addition, as a major training institute, the 
Center will help prepare the next generation of interdisciplinary brain 
scientists.
    Our project addresses the research and programmatic priorities of 
this subcommittee and the Congress. For example, we strongly support 
the goals presented in the Conference Report accompanying the fiscal 
year 1998 Appropriations bill for the Departments of Labor, Health and 
Human Services and Education, in which the Congress encouraged the 
National Institute of Child Health and Human Development to support, 
and I quote, ``research in the area of brain development, mechanisms 
that underlie learning and memory, the acquisition and storage of 
information in the nervous system, and the neural processes; underlying 
emotional memories as they relate to intellectual development and 
cognitive growth.'' We thank the Congress for taking the time to 
consider and give its support to the important research being conducted 
in this area. We at New York University firmly believe that in the 
coming decades, a federal investment in mind and brain studies will 
repay itself many times over.
    To establish this Center, New York University is seeking $10.5 
million over five years to support and expand the research programs of 
existing faculty, attract additional faculty and graduate and 
postgraduate trainees, and provide the technical resources and 
personnel support that will allow us to create a premier, world class 
scientific enterprise. Individual researchers in the science programs 
at NYU compete for investigational support through traditional routes, 
quite effectively. However, these traditional funding sources do not 
address the specific need for establishment of a new cross-disciplinary 
area of scientific study, particularly one that transcends biomedicine, 
psychology, education, computer science, cognitive science, and 
linguistics. Nor do they provide the extensive funding necessary for 
faculty and student support and personnel and technical resources.
    Exploration into the fundamental neurobiological mechanisms of the 
nervous system can help educators, scientists, health care providers, 
policy makers, work force managers, and the general public by enhancing 
our understanding of normal brain development and function in both 
children and adults, thereby helping us to detect and correct 
impediments that affect our ability to learn, to think, and remember, 
and to mature as productive members of family and society. Research in 
this area will ultimately contribute to a better understanding of how 
children learn at different stages; how childhood and adult learning is 
shaped by different cognitive styles; how aging affects memory; and how 
diseases alter memory.
    New York University is well poised to make important contributions 
in this area. Founded in 1831, the University today is the largest 
private university in the United States, with over 49,000 students 
representing a broad range of backgrounds and coming from every state 
and over 120 foreign countries. NYU comprises thirteen schools, 
colleges, and divisions and is known for the excellence of its schools 
of law, medicine, film, and business; the Institute of Fine Arts; the 
Courant Institute of Mathematical Sciences; and departments in the 
Faculty of Arts and Science, notably neural science, chemistry, 
biology, psychology, French, English, philosophy, anthropology and 
economics. Located in the heart of the world's most cosmopolitan and 
diverse city, New York University is a leading national--and in many 
fields, international--center of scholarship, teaching and research. It 
is one of twenty-nine private institutions constituting the 
distinguished Association of American Universities, and is consistently 
among the top U.S. universities in funds received from federal sources 
and from private foundations.
    The Center for Cognition, Learning, Emotion, and Memory will be an 
interschool, interdisciplinary unit linking faculty, students, programs 
and resources from several schools of New York University. These are 
the Faculty of Arts and Science, Courant Institute of Mathematical 
Sciences, School of Medicine, School of Education, and Center for 
Digital Multimedia. CLEM, to be housed at the University's Washington 
Square campus within the Faculty of Arts and Science, will be the locus 
for laboratory research and training in fundamental neurobiological, 
psychological and computational studies of the nervous system. In 
addition, CLEM will be a point of convergence for faculty and students 
seeking to incorporate these research perspectives into their own work 
in education, medicine, and technology, and seeking as well to enrich 
laboratory research with interdisciplinary collaboration and conceptual 
bridges.
    The new Center will be administratively housed within the NYU 
Department of Neural Science. This department includes affiliated 
investigators from biology, chemistry, psychology, physics, computer 
science, medicine, and mathematics. It is a national center of research 
and teaching, encompassing a pre-eminent faculty, and generating 
substantial external funding from federal and state agencies as well as 
the private sector. The department holds world-class stature in the 
study of the nervous system as a sensory communications system, as a 
controller of motor activity and as a neural network that generates the 
emotional foundation of voluntary behavior. The neural sciences at NYU 
have attracted millions of dollars in generous support from, for 
example, the NIH, NSF, and EPA, the Howard Hughes Medical Institute, 
the W.M. Keck Foundation, and the Alfred M. Sloan Foundation. Its 
faculty have won prestigious awards, being named National Institutes of 
Health (NIH) Merit Awardee, Howard Hughes Medical Institute 
Investigator, National Science Foundation (NSF) Presidential Faculty 
Fellow, McKnight Foundation Scholar in Neuroscience, and MacArthur 
``Genius'' Fellow. The department cultivates productive linkages with 
investigators from other disciplines, educational institutions, and 
research sectors. Thus, linkages between neural scientists, and 
educators in the NYU School of Education, clinicians in the NYU School 
of Medicine, and software designers, computer scientists, and graphic 
artists in the NYU Center for Digital Multimedia facilitate the 
application of scientific discoveries in the classroom, in the clinic, 
and in new technologies.
    The new Center for Cognition, Learning, Emotion, and Memory Studies 
will bring the University's many strengths in these areas more fully to 
bear on the challenges and opportunities that multi-disciplinary 
studies present. The Center will provide an organizational identity, 
core resources, and common focus for the university's efforts. For 
students, it will provide an educational forum to apply knowledge 
gained in one discipline to problems in other disciplines. For 
researchers, the Center's synergistic linkages between basic science 
departments, biomedical departments, and mathematical and computational 
units will encourage intellectual cross fertilization and will permit 
the consolidation of individual efforts in multi-disciplinary but in 
conceptually coordinated efforts. For colleagues in the fields of 
education, medicine, and technology, the Center will facilitate 
connections with laboratory scientists and enhance the translation of 
research knowledge into health care, educational, and commercial 
applications. The enhanced research and training that will be possible 
at the Center will attract public and private funding above and beyond 
the substantial funds, honors and recognition already awarded to the 
University's researchers, and will support the Center's continued 
growth and development.
The Case for the New Center at New York University
    New York University has the resources necessary for the successful 
creation and operation of a major multi-disciplinary research and 
training center. There is top-level administrative leadership, a 
commitment to science, intellectual and administrative resources, 
established frameworks for interdisciplinary and interschool 
collaboration, strengths in neuro-biological, psychological and 
computational sciences, and standing in the international scientific 
community. The Faculty of Arts and Science, which encompasses the 
College and the Graduate School, has a preeminent faculty of 560, an 
annual operating budget of $197 million, a student population of 
approximately 9,200, and over 450,000 square feet of dedicated space 
apart from shared University facilities, making it a vital center of 
teaching and research. The science enterprise is especially vigorous, 
the result of a decade-long multi-million dollar development plan to 
renovate research and teaching laboratories and recruit distinguished 
junior and senior faculty, a pioneering science curriculum for 
undergraduate non-science majors, extensive research experiences for 
undergraduate science students, and an enhanced graduate student 
training program of supervised research and teaching assistantships.
    New York University has, as part of its multi-year science 
development plan, created a world-class and widely recognized 
neuroscience program. Neural science at NYU is particularly well known 
for research in visual processing and perception, theoretical 
neurobiology, molecular and developmental neurobiology, and cognitive 
neuroscience. It has outstanding researchers and well-established 
strengths in visual neuroscience, auditory neuroscience, cognitive 
science, neuromagnetism, neurochemistry, neurobiology, behavioral 
neuroscience, mathematical modeling, and computer simulation. Recently, 
these faculty have begun to unravel the biological mechanisms 
underlying cognition, learning and memory. As an example, NYU 
scientists have made important contributions to visual processing, 
deriving the most successful methods available for studying nonlinear 
interactions in neuronal information processing; emotion, giving the 
first real glimpse into the neuroanatomy of fear; neural development, 
with landmark work on the vision system; and the neural bases for 
auditory function, including neural sensitivity to auditory motion 
stimuli.
    With these strengths, New York University is strategically placed 
to create a new and distinctive center that will produce a new 
understanding of the brain, and new ways of using that knowledge for 
improving human health and welfare. The Center for Cognition, Learning, 
Emotion, and Memory will capitalize on our expertise in physiology, 
neuroanatomy, and behavioral studies, and will build on active studies 
that range from the molecular foundations of development and learning 
to the mental coding and representations of memory. The Center will 
encompass diverse research approaches, including mathematical and 
computational modeling, human subject psychological testing, use of 
experimental models, and electrophysiological, histological, and 
neuroanatomical techniques. Examples of the kinds of research that will 
be conducted are taken from our current research efforts, which are now 
dispersed in the departments of biology, chemistry, neural science, 
psychology, and computer science: Neural scientists are investigating 
the anatomical and physiological pathways by which memory can be 
enhanced; the conditions that facilitate long-term and short-term 
memory; and the brain sites where all these memories are processed and 
stored.
    Neural scientists, working with computational scientists, are using 
digital imaging to characterize normal and pathological mental 
processes in humans. Developmental biologists are studying the 
molecular basis of development and learning. Vision scientists are 
studying form, color and depth perception; visual identification; the 
varieties of visual memory; and the relationship of vision and 
perception to decision and action. Neural scientists are studying the 
neuroanatomy and physiology of emotion. Physicists are taking magnetic 
measurements of brain function that trace the decay of memories. 
Behavioral scientists are studying learning and motivation, acquisition 
of language, memory and aging. Neurobiologist and psychiatrists are 
conducting clinical studies of patients with nervous system disorders, 
especially memory disorders. These existing researchers are well 
recognized by their peers and have a solid track record of sustained 
research funding from federal agencies and private foundations.
    As we move through the last years of the ``Decade of the Brain,'' 
NYU, through this new Center, is strategically positioned to lead and 
contribute to accomplishment of the goals of this important initiative. 
Establishment of this Center requires support to bring together 
investigators in the different disciplines that address cognition, 
learning, and memory. Centralized core resources are required to 
facilitate collaboration and add efficiency to the research and 
training functions. New faculty who specifically bridge the disparate 
areas of knowledge and expertise need to be hired and ``set up.'' 
Support must be provided to attract students to this new area and to 
promote work in this area, especially for those from groups 
traditionally under represented in the sciences.
    While other academic institution are also conducting research into 
brain studies, New York University has special strengths in important 
emerging research directions that are central to this Subcommittee's 
priority areas. To elaborate, vision studies at NYU follow an 
integrated systems approach that has been shown to be the only 
successful approach to unraveling this complex system, and that has 
established NYU as an internationally known center for neuroscience 
studies in vision. The interest in vision, a key input to learning, is 
associated with focused studies on the learning process, particularly, 
the interaction with memory and behavior. These researchers are 
exploring hard and exciting questions: How does vision develop in 
infancy and childhood? How does the brain encode and analyze visual 
scenes? What are the neural mechanisms that lead to the visual 
perception of objects and patterns? How do we recognize letters and 
numbers? How do we perceive spaces, depth, and color? How does the 
brain move from vision and perception to planning and action? How does 
the brain process what we see?
    Advances in Biomedical and Behavioral Research.--Research conducted 
in our Center will by its nature address the loss of memory through 
aging or disease (including Alzheimer's), as well as disorders of 
emotional systems that commonly characterize psychiatric disorders. 
Many of the most common psychiatric disorders that afflict humans are 
emotional disorders--malfunctions in the way emotional systems learn 
and remember--and many of these are related to the brain's fear system. 
Neurobiological studies of emotion and emotional memory in the brain 
will generate important information about the brain systems that 
malfunction in, for example, anxiety, phobias, panic attacks, and post-
traumatic stress disorders. Research into the brain mechanisms of fear 
will help us understand where our emotions come from, why these 
emotional conditions are so hard to control, and what goes wrong in 
emotional disorders. Ultimately, the research will generate clues for 
prevention and treatment of emotional disorders, focusing perhaps on 
the ways in which unconscious neural circuitry can in effect, be 
altered or inhibited.
    Accordingly, we believe that the work of this Center is an 
appropriate focus for the Department of Energy, given the Department's 
long-term involvement and investment in computer science technology 
through its Basic Energy Sciences program. The focus of the Center for 
Cognition, Learning, Emotion, and Memory is entirely consistent with 
the Department's commitment both to the Basic Energy Sciences, 
including computer science, and to its commitment to Biological and 
Environmental Research. We believe the Center will help enhance the 
Department's commitment to education, and especially science. Thank you 
for the opportunity to submit this testimony for the hearing record.
                                 ______
                                 

     Prepared Statement of Cyrus M. Jollivette, Vice President for 
               Government Relations, University of Miami

    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to present testimony on behalf of the University of Miami. 
We are most appreciative of your support in the past for our various 
programs, and hope that the Committee will look favorably on funding 
the following programs in the fiscal year 1999 appropriations cycle. 
The University is seeking your support for a joint program with the 
U.S. Army Corps of Engineers which is addressing some of the urgent 
problems of South Florida's declining environment, and for an 
innovative project to treat infectious hospital waste.
    We respectfully request that you allocate $5 million for the U.S. 
Army Corps of Engineers (USACE) Waterways Experiment Station (WES) in 
support of the Environmental Modeling, Simulation, and Assessment 
Center (EMSAC). The purpose of these funds is twofold: (1) to provide 
core support of $2.5 million to EMSAC, including $500,000 to involve 
minority academic institutions, their faculty, and students in research 
activities of the center; and (2) to provide $2.5 million to establish 
a cooperative agreement with a major research institution involved in 
complementary interdisciplinary scientific research relevant to 
ecosystem management and ecological risk assessment. From these latter 
funds, the academic partner would also commit an additional $500,000 to 
involve minority academic institutions, their faculty, and students in 
academic research activities.
    An academic partnership with a major research institution will 
enable EMSAC to draw on a broader spectrum of intellectual and 
scientific resources for environmental modeling and problem solving, 
ecological risk assessment, and scientific support to the environmental 
decision-making process. Minority partnerships initiated from EMSAC and 
its academic partner will promote broader involvement of traditionally 
under-represented groups in the environmental sciences and management.
    We are convinced that only through consistently funded, long-term 
partnerships of government and academic scientists developing the 
scientific bases for improved environmental decision-making can this 
nation make the next major advance in improving the health of the 
environment and protection of our unique natural resources while 
enjoying economic prosperity.
    The mission of EMSAC is to advance the development of environmental 
modeling, simulation, and assessment tools for the study of large 
regional ecosystem management problems. EMSAC's activities are focused 
around the methodologies of ecosystem management and ecological risk 
assessment and include assessment and forecasting of the effects of 
human uses and impacts on the environment; assessment and forecasting 
of ecological conditions under pre- and post-restoration scenarios; 
habitat restoration; and the development of computer systems to support 
management and restoration activities. EMSAC also implements the USACE 
Land Management Systems (LMS) Program, which is an important R&D 
activity of the Corps. In particular, LMS is a key vehicle for the 
development and implementation of the ecosystem management framework. 
EMSAC is a broadly interdisciplinary research unit within the USACE 
framework of personnel resources, computer infrastructure, and 
experimental facilities. Core support will strengthen EMSAC's ability 
to collaborate in solving environmental problems within the USACE and 
the Department of Defense, as well as with other Federal, state, and 
international partners.
    This cooperative research activity will build upon the unique 
strengths of USACE WES and its academic partners to develop the next 
generation of assessment and management tools for support of 
environmental decision-making. These new approaches to ecological risk 
assessment and management are especially promising for solving regional 
environmental problems in which the quality of life of the human 
population must be advanced and sustained while mutually improving the 
health of the associated ecosystems and achieving long-term ecological 
sustainability. Examples of initial applications of an ecosystem 
management approach include the restoration and sustenance of critical 
environments in the South Florida regional ecosystem and in the Upper 
Mississippi River System with attention to multiple demands on these 
nationally important resources.
    continuation funding for innovative electron beam medical waste 
                            treatment system
    Appropriations from the Department of Energy over the past three 
years of approximately $1.5 million have been utilized for the 
development and commercialization of a high energy electron beam 
treatment system to treat infectious medical waste. These monies from 
DOE were matched by approximately $750,000 from Florida Power & Light 
Company, the principal electric utility in South Florida. The 
combination of these funds were used to research the efficacy of 
electron beams for disinfecting medical waste after proving the 
validity of the concept. The world's first full scale electron beam 
treatment facility was constructed at the Jackson Memorial Hospital/
University of Miami Medical Complex in Miami, Florida. The facility 
includes an eight million volt electron accelerator, coupled with a 
conveyor and medical waste shredding system. This prototype system was 
inaugurated in 1997 and is currently ready for full scale testing. The 
electron beam medical waste treatment system has recently received a 
license for operation from the State of Florida. This is the first 
licensed medical waste treatment facility utilizing electron beam 
technology in the world. Results from over two years of testing prior 
to building the full scale system, generated data that was utilized in 
the license approval process.
    It is requested that $1.5 million be allocated in fiscal year 1999 
to the medical waste treatment project in Miami, Florida. These 
continuation funds will finish verification of the process and allow 
for commercial exploitation of this new and exciting technology. 
Specifically, analyses to determine dosimetry, that is the efficiency 
of treatment, need to be undertaken in 1998. These dosimetry 
experiments must be performed on actual medical waste, which can be 
obtained in the Jackson Memorial Medical Hospital Complex. These 
analyses and full scale operation of the facility are crucial for 
commercial and therefore, public acceptance of this technology.
    Federal regulations tightening emission standards on medical waste 
incinerators issued in 1997 have forced all hospitals to re-evaluate 
their medical waste disposal treatment techniques. Currently, there is 
a huge need for alternative technologies to incineration and 
autoclaving. Both of these processes produce either unwanted 
environmental emissions, or are not easily operated in a hospital 
environment. Work over the past three years utilizing DOE and FPL 
funding has shown that the electron beam process has the potential to 
be an efficient, energy-saving and emissionless waste treatment system, 
which can render infectious medical waste harmless and allow it to be 
disposed of in a manner similar to normal solid waste. After the 
disinfection step, the waste can be easily processed by commercial 
shredders to reduce the volume by up to 80 per cent if landfill space 
is at a premium.
    Without additional funding at a level of approximately $1.5 
million, required testing of the full scale system cannot be 
accomplished. Thus, critical demonstration of efficiencies of the 
treatment system cannot be made and thus, commercial exploitation will 
not be possible. It is therefore crucial that these extra funds be 
allocated to this project, so that the final step in development of 
this new and exciting technology can be made, allowing for its 
commercialization and subsequent utilization by society.
    Thank you again for your consideration of these exciting research 
projects.
                                 ______
                                 

 Prepared Statement of David E. Baldwin, Senior Vice President, Fusion 
Group, General Atomics; Charles C. Baker, Adjunct Professor, University 
of California, San Diego, US ITER Home Team Leader; Robert J. Goldston, 
Professor and Director, Princeton Plasma Physics Laboratory; Michael E. 
  Mauel, Professor, Columbia University, President, University Fusion 
 Association; Miklos Porkolab, Professor and Director, Plasma Science 
 and Fusion Center, Massachusetts Institute of Technology; Michael J. 
    Saltmarsh, Director, Fusion Energy Division, Oak Ridge National 
   Laboratory; Keith I. Thomassen, Deputy Associate Director, Energy 
            Programs, Lawrence Livermore National Laboratory

    Chairman Domenici, Senator Reid, and Members of the Subcommittee: 
Thank you for allowing us the opportunity to present testimony to the 
Subcommittee on fiscal year 1999 funding for the Department of Energy's 
(DOE) Fusion Energy Sciences Program. We offer a unified view as 
leaders of five of the nation's largest plasma science and technology 
laboratories, the president of the University Fusion Association, and 
the leader of the US Home Team for the International Thermonuclear 
Experimental Reactor (ITER) project--all funded by the DOE Office of 
Fusion Energy Sciences, representing over sixty research groups, 
comprising over one thousand scientists, engineers and technicians. We 
believe that we can provide substantive insight into the DOE Fusion 
Energy Sciences program and its needs for the coming fiscal year.
    In short, we recommend that the fiscal year 1999 budget for Fusion 
Energy Sciences be increased to at least $250 million. This figure is 
based on two specific requirements: (1) to accelerate restructuring of 
the domestic fusion effort around the goals of science and innovation, 
and (2) to develop rapidly more cost-effective approaches to the 
international pursuit of fusion energy science and technology. Our 
recommendation is consistent with the September 1997 report of the 
President's Committee of Advisors on Science and Technology (PCAST) and 
with recent reviews by the Fusion Energy Science Advisory Committee 
(FESAC).
    Fusion has long been recognized as one of mankind's most exciting 
scientific grand challenges, seeking to harness the power of the stars 
on earth. This research has been conducted as a highly collaborative 
international scientific effort with participation by most of the 
developed nations of the world. It has been widely recognized that if 
fusion energy can be successfully developed, it will have an enormous 
beneficial impact on the world. Furthermore, the scientific and 
technological spin-offs from fusion research have had a strong, 
ongoing, beneficial impact on the nation.
    The current success of our economy is, in part, due to our ability 
to obtain cheap petroleum on demand. However these resources are finite 
and, as recent events in the Middle East have shown, the concentration 
of these energy resources in a politically unstable region of the globe 
has undesirable strategic implications. As oil and natural gas reserves 
are consumed in the next century, the economic and strategic importance 
of energy resources will only grow. In addition, as the world 
population increases and a larger fraction of countries develop more 
energy intensive, industrialized economies, the world will need new, 
environmentally acceptable energy sources. The nation or nations that 
are prepared to provide the necessary technologies will be at a 
substantial economic advantage. Increased federal investment in R&D for 
fusion and other emission-free energy technologies, as recommended by 
PCAST, is clearly prudent.
    Plasma science is an important element of the nation's science and 
technology portfolio. As pointed out by the National Research Council 
(NRC) in its 1995 report, the rewards from the field of plasma science 
to our national science and technology base have been, and will 
continue to be, very strong. The Fusion Energy Sciences Program has 
stewardship of the nation's plasma science effort, and it is the 
advance of fusion research that has driven that field forward. The 
science developed for fusion research is key to our understanding of 
solar physics and of the space environment, including the ``space 
weather'' which affects our satellites and astronauts. Commercial 
applications derived from plasma science and technology, or developed 
by experts trained in the fusion program, include: plasma spray 
coatings and ion implantation in metals used for machine tools, ball 
bearings, and medical implants; application of polymer films to 
recording media; manufacture of computer chips and integrated circuits, 
where 40 percent of the steps involve plasma processing; semiconductor 
and textile defect detection using laser imaging techniques developed 
for plasmas; plasma flat panel television displays; plasma switches for 
electricity transmission, part of a new industry using plasma 
electronics; environmental remediation of chemical and radioactive 
waste; high-efficiency lighting; applications of superconducting magnet 
development to magnetic resonance imaging systems; and applications of 
plasma diagnostics to other complex imaging problems. There is no doubt 
that the investment the federal government has made in plasma science 
and fusion is paying increasingly rich technological dividends today 
while making strong progress in the development of a practical fusion 
power source for tomorrow.
        the fusion program is focused on science and innovation
    The U.S. Fusion Energy Sciences Program is being restructured to 
focus on science and innovation within the domestic program, while the 
pursuit of energy-producing plasmas and fusion technology is undertaken 
through international collaboration. We appreciate the Committee's 
recognition in last year's Report of the fusion community's efforts to 
become more efficient and to develop a new strategy for the future. 
This new strategy for the Fusion Energy Sciences Program comprises 
three parallel elements:
  --Stewardship of basic plasma science
  --Innovative approaches to plasma confinement
  --Energy-producing plasmas, pursued internationally
    Important scientific progress was made in each of these three areas 
last year. For example:
  --Basic Plasma Science.--Observations of colliding rings of plasma 
        made in laboratory experiments have shed new light on the 
        processes by which massive amounts of solar material can be 
        torn from the magnetized surface of the sun and hurled toward 
        the earth.
  --Plasma Confinement.--A first-principles theoretical understanding 
        of how sheared plasma flows stabilize turbulence in tokamak 
        plasmas has emerged. A small spherical torus experiment in 
        Europe has demonstrated a 3-fold increase in plasma pressure, 
        relative to the confining magnetic pressure, as compared with 
        the tokamak record.
  --Energy-producing Plasmas.--Experiments on the Joint European Torus 
        (JET) with DT plasmas have moved the world closer to fusion 
        energy break-even, and the ITER Final Design Report has been 
        issued and reviewed favorably, both attesting to the 
        feasibility of creating energy-producing plasmas on earth.
  implementing the restructuring of the fusion energy sciences program
    The Administration's proposed Fusion Energy Sciences budget 
attempts to move forward the fusion program restructuring around the 
twin themes of science and innovation, and moving forward the 
international process for the design and construction of a next-step 
burning plasma experiment towards a lower cost approach. We support 
both of these goals.
    Unfortunately, the proposed fiscal year 1999 budget fails to 
provide the funding necessary to achieve its goals. The reality is that 
under the Administration's budget proposal virtually every aspect of 
the fusion program will remain severely constrained in fiscal year 
1999. Despite reallocation of ITER funds, progress towards 
restructuring in both the domestic and international areas will be 
severely limited. In particular:
  --The program supported by the proposed fiscal year 1999 budget 
        includes only modest increases for Basic Plasma Science. This 
        is an area of great importance for the nation's science and 
        technology base and contributes directly to the application of 
        fusion energy science to other disciplines. Although the 
        stewardship of basic plasma science is in the hands of the 
        Office of Fusion Energy Sciences, only $5.9M appears in the 
        fiscal year 1999 budget request. Last year, only 35 of over 240 
        research proposals for basic plasma science received funding.
  --In the Innovative Confinement Concepts area the fiscal year 1999 
        budget does not provide adequate funding for concept 
        exploration experiments. Last year, only 4 of the 40 innovative 
        proposals submitted received funding, and many excellent 
        proposals given very positive reviews remain unfunded. Many 
        currently operating concept exploration experiments are also 
        underfunded. These crucial areas of innovation are severely 
        constrained.
  --Increases are supplied for fusion's Major Experimental Facilities, 
        but funds for the C-MOD and DIII-D tokamaks are inadequate to 
        provide both the necessary operating time for the national 
        teams of scientists and engineers who use these devices and the 
        long-planned upgrades to allow exploration of new regimes of 
        advanced tokamak physics. These experiments will operate a 
        maximum of 14 out of a possible 24-26 weeks in fiscal year 
        1999. There was an increase for the NSTX spherical torus to 
        complete construction, but its operation is similarly 
        underfunded as a collaborative national facility.
  --Funding for the development of Low-Activation Materials, critical 
        for the environmental attractiveness of fusion, continues at 
        the low level of $6M/year.
  --The ITER activities have been unbundled into more fundamental and 
        broad-based Technology Research and Advanced Design Studies. 
        Technology funding is not adequate to permit the initiation of 
        significant new initiatives in support of the Innovative 
        Confinement Concepts, and the funding to Advanced Design leaves 
        the U.S. in a weak position to affect the evolution of the 
        international effort towards a more cost-effective 
        implementation.
  --Finally, the opportunity to increase our present, very limited 
        collaborations on the world's largest Foreign Fusion Research 
        Devices, JET in Europe and JT-60U in Japan, in order to 
        demonstrate advanced physics regimes in these more powerful 
        devices, in support of the reduced-cost ITER, is almost 
        completely missed in this budget. Increased scientific 
        collaborations in these large international experiments are 
        critically important for the demonstration of the advanced 
        physics regimes that underpin lower-cost approaches to burning 
        plasma experiments.
    The proposed fiscal year 1999 fusion budget is inconsistent with 
the August 1997 recommendations of the FESAC subpanel, chaired by Dr. 
Hermann Grunder, Director of the Thomas Jefferson National Accelerator 
Facility, a facility supported by the High Energy and Nuclear Physics 
program of DOE. The Grunder FESAC panel recommended a Fusion Energy 
Sciences budget of at least $250M in fiscal year 1999. Consistent with 
a series of earlier FESAC and FEAC recommendations, it called for a 
budget of at least $200M in support of basic plasma science and 
confinement innovation. It also provided specific recommendations for 
redirection of the approximately $50M of funds which previously went to 
support the ITER Engineering Design Activities. Neither the recommended 
funding for science and innovation, nor the recommended funding for the 
restructuring of ITER is provided in the fiscal year 1999 proposed 
budget.
    In addition, PCAST recently reviewed the challenges and 
opportunities for federal energy research and development. After 
careful balancing of priorities by a diverse and distinguished 
Committee with a wide perspective on energy technologies, PCAST 
recommended increased funding in four R&D areas, including fusion. In 
fact, the Committee's recommendation for fusion funding in fiscal year 
1999 was $250M, completely consistent with the Grunder/FESAC 
recommendation.
    We strongly advocate increasing the Fusion Energy Sciences budget 
to at least $250M. This level of support will allow the growth of new 
research focused on science and innovation, and will permit the rapid 
investigation of more cost-effective means to the international pursuit 
of fusion energy science and technology. It will signal to students and 
researchers alike that the United States is serious about pursuing 
science and innovation in fusion.
    Our requested increase of $22M above the levels provided in the 
Administration's request does not address many of these needs, but we 
believe the most urgent are the following:
Science and Innovation in the Domestic Program--+$15 million
    (a) Increase emphasis on basic plasma science and technology for 
non-fusion applications, taking advantage of scientific and 
technological advances provided by the balance of the program: Fusion 
science and technology provide a highly stimulating research 
environment for the training of undergraduate and graduate students. An 
increase in this area would allow growth of plasma science research and 
technology development both at Universities and at national research 
centers, and continue to address the recommendations of the 1995 NRC 
report, ``Plasma Science: From Fundamental Research to Technological 
Applications.''
    (b) Increase exploration of a variety of approaches to fusion, its 
technologies and materials, including inertial fusion energy. Concept 
innovation is the central area of focus of the domestic Fusion Energy 
Sciences program. Excellent new ideas for plasma confinement innovation 
have been proposed for testing at the small and intermediate scales, 
but limited funding has severely retarded progress in this area.
    (c) Increase utilization of major U.S. experimental facilities, 
focused on innovation and basic understanding. Recent exciting results 
open up new opportunities in toroidal confinement. Plans for technology 
upgrades and increased utilization of the DIII-D and C-MOD tokamak 
facilities and plans for the operation of the NSTX spherical torus are 
highly constrained by limited funds. The benefit of incremental dollars 
spent in these areas is very high.
A More Cost-Effective Approach to the International Pursuit of Fusion 
        Energy Science and Technology-- +$7 million
    (a) Increase efforts to develop more cost-effective approaches to 
addressing the goals of ITER. Funding for intensive examination of a 
broad range of lower-cost options for the international pursuit of 
fusion energy science and technology is greatly constrained in the 
Administration's budget at a crucial time when the U.S. and the 
international team will be seeking innovative approaches to reducing 
costs.
    (b) Increase experimental collaboration on the major experimental 
facilities abroad, JET and JT-60U, with the goal of demonstrating in 
these large facilities advanced operating modes for a next-step burning 
plasma experiment, which will permit substantial cost reductions. 
Successful demonstration of advanced operating modes on these largest 
devices in the world program is a clear prerequisite for the adoption 
of such modes as a basis for lower-cost approaches to addressing the 
goals of ITER. In the Administration's budget, funding levels for 
collaboration on JET and JT-60U are far below what would be required to 
allow U.S. researchers to play a significant role on these powerful 
foreign devices.
    The intent of these recommendations is to enable the U.S. fusion 
program to accelerate the restructuring initiated two years ago by 
expanding the breadth of its research while focusing on the twin goals 
of science and innovation, and also to address the issue of finding 
less expensive means to pursue fusion energy science and technology as 
an international partner. We believe that these are very important 
goals, consonant with the expressed wishes of Congress, and necessary 
for the effort to provide the knowledge base for an attractive non-
carbon energy source to safeguard our nation's environmental health and 
long-term energy security.
    Again, we thank you for affording us the opportunity to present our 
views. We hope they will be helpful as you consider funding for our 
nation's science and energy programs for fiscal year 1999.
                                 ______
                                 

  Prepared Statement of Scott Sklar, Executive Director, Solar Unity 
                                Network

                              introduction
    The Solar Unity Network (SUN), the policy organization representing 
virtually every U.S. solar thermal and solar-electric manufacturer, 
component supplier, distributor and installer, submits this written 
testimony, in lieu of oral testimony, on the fiscal year 1999 U.S. 
Department of Energy RD&D budget. SUN receives no federal funds and 
serves explicitly as the policy entity for the U.S. solar energy 
industries.
    The solar industry requests the following funding levels (in 
millions):

                        [In millions of dollars]
------------------------------------------------------------------------
                                       Fiscal       Fiscal year 1999
                                        year   -------------------------
                                        1998
                                       actual   Administration     SUN
------------------------------------------------------------------------
Photovoltaics.......................     65.52        78.80       105.00
 Solar Buildings....................      2.66         5.00         5.00
Solar Thermal.......................     16.57        22.50        32.00
------------------------------------------------------------------------

              fiscal year 1999 photovoltaics rd&d program
    The solar industry is requesting a $105 million appropriation in 
light of inequitable cuts during the last two appropriation cycles and 
the fact that our two major competitor nations, Germany and Japan, are 
spending $95 million and $182 million respectively. Two-thirds of the 
German and Japanese budgets are tied to domestic commercialization of 
new photovoltaic technologies which do not require their companies to 
cost-share with government.
    The U.S. solar industry strongly supports the basic premise of the 
U.S. Photovoltaic RD&D program established in the Bush Administration 
and continued in the Clinton Administration. An effective RD&D program 
must be comprised of a combination of pure and applied research which, 
includes development, and technology validation. The U.S. solar 
industry has committed itself to cost-share the applied research and 
technology validation aspect of the RD&D program which leads all DOE 
civilian RD&D programs in this regard.
    In the Photovoltaics RD&D program, two key pure and applied R&D 
activities stand out and deserve enhanced funding: (1) the thin film 
partnership, which is a cost-shared program to drive the next 
generation of photovoltaic materials with a proclivity to automated 
manufacturing (essential to become cost-competitive in the traditional 
marketplace); and (2) PV BONUS, which is a cost-shared program to 
develop new kinds of photovoltaic building materials (siding, roofing, 
window-tinting) for the building sector, likely to become a premier 
application when electric utility deregulation is fully implemented.
    The most highly leveraged applied and technology validation 
programs must be enhanced and continued within the photovoltaic RD&D 
program: (1) the PV Manufacturing Initiative, which is a cost-shared 
program to overcome technological hurdles to automate manufacturing of 
new PV materials; and (2) PV COMPACT, which validates a variety of 
photovoltaics systems in end-use applications to validate their market 
readiness in a highly cost-shared program with the electric utility 
sector (91 utilities comprising more than half of the U.S. electricity 
generation have organized to support this program).
    The Photovoltaic Manufacturing Initiative is NOT a program 
supporting incremental improvements in manufacturing. The program 
specifically supports highly innovative approaches to drive cost 
reductions for NEW materials in manufacturing. The program has 
demonstrated its success in 1996 with the ribbon-cutting of three new 
U.S. automated manufacturing plants. In 1997, four more new automated 
manufacturing plants were unveiled. In 1998, four new automated 
manufacturing plants are likely to be ribbon-cut. Virtually all of the 
success in this program is from driving new manufacturing processes 
with new materials.
    The PV COMPACT program is NOT a subsidy program of market-ready 
technology but a technology validation program cost-shared by the 
electric utility sector at an order of magnitude of seven-to-one. 
Advanced PV systems need monitoring and performance data in order to be 
utilized on a wide scale basis by the electric utility industry. SUN 
supported fiscal year 1997 appropriations report language which 
directed that competitive awards be made toward projects which drive 
down costs. However, the basis of the projects were to validate 
performance first with an eye toward future replication.
    The solar industry believes the photovoltaics RD&D program as 
administered by the U.S. Department of Energy is one of the most well-
managed and best-leveraged of any program within the DOE RD&D 
portfolio.
    The President's request to establish a Million Solar Roofs program 
is essential to ensure that a vibrant, growing domestic market 
maintains the U.S. photovoltaic industries' 50 percent global market 
share. A minimum $10 million program for cost-sharing technology 
deployment through state governments is an essential requirement of the 
program.
                fiscal year 1999 solar buildings program
    The solar buildings program is primarily a basic RD&D program on 
materials and components with a technology standards and certification 
program based at the National Renewable Energy Laboratory (NREL) and 
the Florida Solar Energy Center.
    SUN recommends a fiscal year 1999 funding level of $5.00 million 
for the Solar Buildings program administered by the U.S. Department of 
Energy with no less than $2 million for ongoing cost-shared technology 
validation projects, $2 million for laboratory R&D, and $1.0 million 
for applied R&D of solar building technologies by industry, customers 
and universities.
    The Solar Buildings program, which requires a minimum of $5 million 
per year over three years, will allow the DOE program to provide 
technical assistance to the states, utilities, energy service 
companies, and local building code officials to develop programs that 
will lead to reduced technology costs and increased deployment.
    SUN believes that the Solar Buildings RD&D program should support 
the Million Solar Roofs program by providing technical assistance to 
federal procurement and federal lending technical officials.
    The solar buildings program is just beginning to cost-share RD&D 
with industry. In fact, the program primarily funds technical entities 
on systems performance, materials testing and systems certification. 
The remainder of the program is directed to system performance modeling 
and cash-flow analysis geared toward the acceptance of utility and 
energy service company utilization of these technologies. The solar 
buildings program is a true R&D program, but SUN believes the 
development activity must be cost-shared with industry as economies-of-
scale in manufacturing occur that will in turn reduce costs and 
increase deployment.
                 fiscal year 1999 solar thermal program
    The solar thermal electric program is primarily a basic RD&D 
program on materials and components with a technology validation 
segment that is cost-shared with industry. The program, based at the 
National Renewable Energy Laboratory (NREL), conducts basic research on 
concentrator materials. The program at Sandia National Laboratories 
focuses on energy storage materials and systems testing.
    SUN recommends a fiscal year 1999 funding level of $32 million for 
the Solar Thermal program administered by the U.S. Department of Energy 
with no less than $12 million for ongoing cost-shared technology 
validation projects, $9 million for lab R&D, $2 million for 
international validation of solar thermal technologies cost-shared by 
multilateral RD&D institutions, $2 million for domestic initiatives, 
and $2 million for solar industrial RD&D.
    The Solar Enterprise Zone initiative, which will require $5 million 
per year over three years, will allow the DOE program to provide 
technical assistance to the states and others to drive the next 
iteration of first-of-a-kind, large scale power tower, solar dish 
engine, and parabolic trough projects and help establish their 
performance and reliability. This cost-shared effort with five 
Southwestern states (Arizona, California, Colorado, and New Mexico, and 
Nevada) will be part of an expanded Solar Enterprise Zone concept to 
create more solar power development, manufacturing opportunities and 
more American jobs. The initiative must be leveraged at more than 50 
percent by the states and other entities. The non-profit CSTRR should 
also be supported to drive solar development of the Nevada Test Site.
    The solar industrial process heat R&D program accounts for five 
percent of the overall program and focuses on materials science and 
performance analysis.
    The Solar Thermal program continues to meet its performance 
objectives:
  --Solar Two, the power tower prototype, which utilizes mirrors which 
        focus sunlight onto a receiver to store thermal energy to 
        produce electricity day-or-night, rain-or-shine, was ribbon cut 
        in June 1996. It is now in a 3-year operating and testing 
        phase. The industry and utility consortium that successfully 
        completed Solar Two has already embarked on an ambitious plan 
        for commercial plants in the southwest U.S. (as part of the 
        Solar Enterprise Zone), and is negotiating export projects in 
        India, Brazil, and Egypt.
  --Industry teams have been developing solar-dish engine systems as an 
        alternative to diesel engines. Dish/engine deployment has been 
        quite successful with test units delivered to NREL and Sandia 
        in 1997.
  --The eight existing solar parabolic trough plants continue to 
        reliably generate 354 megawatts of power in California. Lowered 
        operating costs and new plant designs achieved with DOE 
        technical assistance have sparked renewed interest in this 
        technology. Commercial plants are under development in Mexico, 
        India, Morocco, and Egypt, and U.S. firms are well-positioned 
        to capture a strong share of these export opportunities.
    These 50-50 cost-shared, multi-year solar thermal projects between 
industry and DOE to validate advanced technology have leveraged over 
$160 million in private sector commitments and have been a strong 
success. Advanced technology prototypes will be fully demonstrated over 
the next few years and ready for early commercial market introduction 
just as market demand for solar electric projects is growing rapidly.
           fiscal year 1999 renewable cross-cutting programs
    Some cross-cutting and especially essential RD&D programs must be 
maintained. The programs that are most significant (in millions):

                        [In millions of dollars]
------------------------------------------------------------------------
                                       Fiscal       Fiscal year 1999
                                        year   -------------------------
               Program                  1998
                                       actual   Administration     SUN
------------------------------------------------------------------------
Resource Analysis...................  ........  ..............       5.0
Renewable Energy Production
 Incentive..........................       2.0          4.0          4.0
Solar International.................       1.3          8.8          7.0
Hydrogen............................      15.0         15.0         17.0
Storage.............................       3.0          4.0          5.0
------------------------------------------------------------------------

    Resource analysis.--Carried out predominantly by NREL, this program 
uses satellite and other anecdotally-collected data to develop resource 
maps for all renewable energy technologies. This is an essential R&D 
function that no one in the private sector will perform. Quantifying 
the resource is an essential tool for the financial, marketing, and 
utility regulatory decision-making communities. This program is in a 
closedown mode unless we turn it around.
    Renewable energy production initiative (REPI).--Created in the 
National Energy Policy Act of 1992 in response to renewable investment 
tax credits and renewable energy production tax credits which could not 
be accessed by municipal utilities, it created a more balanced program 
to improve the experience level of applied R&D validation for 
cooperative, power authority and municipal utilities--a sector which is 
essential to the strong growth of renewables. They are often the first 
to experience and appreciate the environmental and employment benefits 
of using these emerging technologies.
    Solar international.--$2 million only is required to continue the 
federal interagency activity, the Committee on Renewable Energy 
Commerce and Trade (CORECT), to insure that all facets of the federal 
government work together. This successful program signed into law by 
President Reagan, has been partly responsible for the more than 70-
percent of U.S.-manufactured solar equipment now exported overseas; $3 
million for Americas 21st Century initiated by the Bush Administration 
to make good on Latin American commitments and by Clinton on the 
Western Hemisphere Summit; and $2 million for Joint Implementation for 
renewables and efficiency overseas projects.
    Storage.--Solar and other renewables cannot be viable without the 
ability to store the energy. This program has been key to developing 
matched technologies to create new kinds of electronics, controls, 
capacities and batteries to meter, store, and utilize electricity most 
efficiently from intermittent resource technologies. The U.S. is still 
a leader in this area, and the U.S. storage industry cost-shares this 
program which is primarily administered by Sandia National 
Laboratories. Storage is the key for sustainable solar and wind market 
growth.
    Hydrogen.--Represents the ultimate storage medium for solar and 
other renewables, and it is a conversion fuel for biomass and fuel 
cells, and ultimately, the best transportation fuel. The DOE program 
primarily focuses on natural gas which must be broadened to renewable-
based hydrogen focusing on pure RD&D at NREL and University Centers of 
Excellence at the University of Miami, the University of Central 
Florida (Florida Solar Energy Center), the University of Hawaii (Hawaii 
Natural Energy Institute) and the University & Community College System 
of Nevada (Desert Research Institute). SUN recommends applied RD&D 
validation via renewable hydrogen projects at the Solar Enterprise Zone 
and at PVUSA.
                               conclusion
    The solar energy programs at the U.S. Department of Energy are 
well-managed, have solid cost-share agreements and they continue to 
demonstrate measurable results. The solar programs have performed 
beyond expectations, and we hope the Subcommittee recognizes these 
achievements and embraces a robust and strategic program.
                                 ______
                                 

  Prepared Statement of Gilbert A. Emmert, Professor and Chair of the 
   Department of Engineering Physics at the University of Wisconsin-
                                Madison

    This testimony is submitted on behalf of the Nuclear Engineering 
Department Heads Organization (NEDHO) by Gilbert A. Emmert, Professor 
and Chair of the Department of Engineering Physics at the University of 
Wisconsin-Madison, acting in the capacity of Chair of NEDHO. This 
testimony is also endorsed by the Education and Training Division of 
the American Nuclear Society (ANS), the National Organization of Test, 
Research, and Training Reactors (TRTR), and the Nuclear and 
Radiological Engineering Division of the American Society for 
Engineering Education (ASEE). NEDHO represents 32 nuclear engineering 
programs in 25 states, the ETD division of ANS has a membership of 
about 1,000, TRTR represents 30 university research reactor facilities, 
and the ASEE NRE division has a membership of 100 university 
professors. This written testimony provides our recommendations for the 
Department of Energy budget for University Nuclear Science and Reactor 
Support and nuclear energy research for fiscal year 1999.
                       summary of recommendations
    The Department of Energy's (DOE) fiscal year 1999 budget request 
includes $10.0 million for University Nuclear Science and Reactor 
Support. This funding is to be used for supporting the nuclear 
engineering educational infrastructure (scholarships and fellowships, 
research grants, etc.) and for assisting university research reactors 
(fuel, instrumentation upgrades, reactor sharing). The $10.0 million 
request by DOE is a significant improvement over current funding, but 
considerably short of current needs. In order to provide for critical 
infrastructure and university reactor needs, this amount should be 
increased to $14.0 million. The educational infrastructure that 
produces trained nuclear engineers for government and industry is being 
rapidly eroded due to lack of funding; an increase in this budget 
request is necessary to better ensure the availability of the 
engineering expertise needed to realize the promise of nuclear energy 
and the application of radiation science to engineering and technology.
    The Department of Energy is proposing a Nuclear Energy Research 
Initiative (NERI). This is to be a peer-reviewed nuclear energy 
research program bringing together the best minds in universities, 
national laboratories, and industry to address the critical research 
questions concerning nuclear energy. We strongly support this program 
and look forward to working with DOE to formulate the program so that 
it best utilizes intellectual talent in universities as well as that in 
national laboratories and industry.
    Nuclear power faces critical issues that have broader implications 
than the needs of a particular industry. It is appropriate that 
research on these issues be funded by a government--industry 
partnership, such as the Nuclear Energy Plant Optimization (NEPO) 
program proposed by DOE. We support research to extend the life of 
currently operating nuclear plants, to establish a process for license 
renewal, and to improve the efficiency and capacity of existing plants. 
Such research is essential if our nation is to meet the Kyoto goals for 
greenhouse gas emission reduction and to improve the quality of our 
nation's air.
                               background
    As of 1998, there are some 32 academic departments and programs in 
universities, with their principal discipline being nuclear 
engineering/radiation science and technology (NE/RST), which involves 
the design and operation of nuclear reactors and the application of 
radiation and nuclear techniques to science and engineering. Most of 
the departments are broad-based, including disciplines such as health 
and medical physics, radiation detection and measurement, thermal 
hydraulics and materials science related to nuclear processes, nuclear 
fusion and plasma physics, and the design and performance of fission 
reactors for the production of electricity. We educate engineers for 
the nuclear power industry and government (e.g. naval propulsion, 
weapons and non-proliferation activities, including treaty 
verification), health physicists (radiation specialists) who protect 
the health and safety of workers and the general public, medical 
physicists involved in cancer diagnosis and treatment, plasma 
scientists who develop new plasma processing techniques, and materials 
scientists who develop and test new materials for industry and research 
using radiation-based techniques.
    University research reactors (URR's) in the United States form a 
fundamental and vital component in our national research and education 
infrastructure critical to many national priorities such as health 
care, education, environment and technology transfer. Currently, there 
are 30 operating university research reactors on 28 campuses in 25 
states. In addition to their educational role for nuclear engineering 
and radiation science, university reactors are the source of neutrons 
for research in such diverse areas as medical isotopes, human health, 
life sciences, environmental protection, advanced materials, energy 
conversion and food science. They are also centers of multi-
disciplinary research efforts in the fields of chemistry, biology, 
medicine, epidemiology, archaeology, environmental sciences, material 
sciences, fluid mechanics, geology, energy production and many other 
areas. Many of the reactors serve as centers for pre-college education 
programs offered for high school students and teachers who come to the 
reactor for instructional programs and research. URR's also contribute 
to the educational base of future scientists and engineers in the above 
mentioned broad range of disciplines that use reactor based techniques 
to solve unique problems.
    Both NE/RST academic programs and university research reactors are 
crucial to the maintenance of technical expertise in nuclear 
engineering and radiation science and technology in the U.S. Evidence 
is growing that the prolonged absence of federal support of this 
discipline is resulting in a growing imbalance between the supply 
(shrinking) and demand (growing) for these engineers. Attached to this 
testimony is a letter from Dr. William Naughton of ComEd (the largest 
nuclear electric utility in the U.S.) expressing the industry's concern 
for future needs for nuclear engineers and for maintaining the 
educational infrastructure for nuclear engineering and radiation 
science to supply those engineers. Continuation of the present 
situation will likely result in irreversible damage to the academic 
infrastructure, and hence, the nation's leadership in this increasingly 
important scientific arena.
             university nuclear science and reactor support
    The federal government has generally looked to the DOE to provide 
the guidance and funding needed for the educational and research 
activities in nuclear engineering and radiation science and technology 
at the nation's universities. The National Science Foundation (NSF) has 
traditionally deferred funding for these academic programs to the DOE. 
For example, faculty members in other engineering or science 
disciplines can submit proposals to the NSF for funding of research and 
educational programs, but nuclear engineering faculty have been 
discouraged from doing this, with DOE being cited as the appropriate 
federal agency to funding such research requests. Prior to fiscal year 
1996, the DOE had never embraced this concept and had not provided 
within its budget, sufficient resources to fund these programs at an 
adequate level. Congress recognized the need for such programs and 
provided funding at a level of $10 million each year from fiscal year 
1990 through fiscal year 1993. This funding was reduced to $3.7 million 
in fiscal year 1994 and fiscal year 1995. In fiscal year 1996 DOE 
incorporated some parts of the program into a larger budget request of 
$6.1 million, but Congress approved only $3.5 million. In fiscal year 
1997, Congress approved $4 million of a $6.95 million budget request 
(which included $1.2 million for unrelated programs) and in fiscal year 
1998, Congress approved $7 million, which was an increase of $1 million 
above the budget request. While funding is increasing, it is occurring 
at a slow pace and remains far below the level needed to sustain a 
strong academic infrastructure. The following are the specific needs of 
the NE/RST and URR communities.
     nuclear engineering/radiation science and technology education
    The Congressionally-mandated programs provide financial support for 
a number of activities in nuclear engineering/radiation science and 
technology (NE/RST) education, specifically: (1) research grants, (2) 
fellowships for promising U.S.-citizen M.S. and Ph.D. students, and (3) 
matching nuclear electric industry contributions to improve the 
educational infrastructure for NE/RST.
    Research Grants.--The peer-reviewed Nuclear Engineering Education 
Research (NEER) grant program is the first component of the nuclear 
engineering education program. This program is extremely important 
because it provides opportunities for faculty and students to explore 
long-term, innovative ideas that could have great impact in applied 
nuclear science and technology. In the six years fiscal year 1988-93, 
over 800 proposals were submitted and DOE review panels recommended 
that 250 of these be funded because of their relevance to national 
needs, or their promise of possible major new technological 
development. Due to limited resources, only 80 of these recommended 
grants were actually funded, representing a three-fold shortfall in 
funds to support the proposals that could significantly enhance the 
nation's future competitive position in the world markets. All grants 
were canceled and the students were left without support when the 
program was abruptly terminated in fiscal year 1994. The loss of this 
program is having serious consequences for the human resource needs of 
government and industry for nuclear engineering graduates. The fiscal 
year 1998 budget included a reinstatement of this program at $2.2 
million, which drew 99 research proposals; the budget is sufficient to 
fund only about 15 of them. We recommend funding of this research grant 
program at a level of $5 million.
    Graduate Fellowships.--A second component of the nuclear 
engineering education program relates to graduate fellowships. These 
four year student stipends attract exceptionally high quality U.S. 
citizens to pursue Ph.D. programs. The demand for such graduates 
exceeds the current supply because of the diversity of areas in which 
they perform research, from studies of materials and radiation damage 
to advanced controls and artificial intelligence, to improved 
understanding of thermal-hydraulic behavior, to the design of radiation 
detection methods for the protection of personnel. Without the long 
term financial support provided by fellowships, many of the most 
capable B.S. graduates will bypass graduate school for high paying 
industry positions, and their participation in the long-term research 
and technology developments needed to maintain U.S. competitiveness 
will be lost. About 40 graduate fellowships are required to meet the 
recommendations of the National Academy of Sciences (NAS) to encourage 
talented U.S. students to enter this field. A funding level of $1 
million is necessary to maintain the supply of highly trained PhD's for 
government, universities, and industry.
    Industry Matching Grants.--The third element of the nuclear 
engineering education program is the Matching Grants initiative. This 
program provides up to $50,000 per year from industry, matched by DOE, 
to a university to support nuclear engineering research and education. 
This innovative program was initiated by nuclear electric utilities who 
were concerned that academic departments in nuclear engineering would 
not be able to maintain adequate academic programs to provide the 
necessary manpower to keep nuclear power as a viable option for 
providing electricity into the next century. The program has had its 
greatest success in supporting the infrastructure of the departments by 
providing funds that can be channeled to needed areas on a year-by-year 
basis. The program originally included industry grants to 16 
departments, totaling about $0.8 million each from the utilities and 
the DOE. This does not include all NE/RST departments who wish to 
participate. We recommend funding at a level of $1.0 million in the 
fiscal year 1999 budget to include additional NE/RST departments and to 
allow increases to offset inflation.
                      university research reactors
    DOE funding provides support for the URR community in the form of 
1) reactor fuel, 2) reactor sharing, and 3) reactor instrumentation 
upgrades.
    Reactor fuel.--Since the Atoms for Peace program when the federal 
government encouraged universities to join in developing new knowledge 
and applications of radiation science, the fuel cycle costs for 
university reactors were provided by the federal government. Included 
is the loan of uranium, fuel fabrication, shipping of new and 
irradiated fuel, and acceptance of the spent fuel elements. Programs 
are in progress to improve fuel cycle economics by designing extended 
life fuel elements. There is also interest in removing from service 
fuel with over two decades of operation. In addition, Congress has 
mandated that the use of highly enriched uranium fuel at URR's should 
be terminated; conversion from high- to low-enrichment fuel has been 
progressing on a systematic basis. The cost of all these URR fuel-
related issues total $3.8 million per year.
    Reactor sharing.--The reactor sharing program must rate among the 
most cost-effective and successful expenditures of federal funds, 
making geographically distributed URR's available to many users as 
unique regional resources. This program allows faculty and students 
from other universities, community colleges, high schools, and junior 
high schools to utilize university reactors. This has led to research 
projects and lines of inquiry which might have never occurred had there 
not been a mechanism to access these facilities. The recommended level 
of funding is $0.6 million per year at a minimum.
    Reactor instrumentation upgrades.--The cost to maintain university 
reactors and associated laboratories as state of the art teaching and 
research facilities is substantial. These facilities, initially 
constructed with major federal support, have aged without significant 
investment beyond the basic operating needs. Upgrading existing 
facilities is much more cost effective than replacing them. A 
relatively small investment in new equipment has proven to be very 
cost-effective. An annual pool of $1.0 million per year from fiscal 
year 1990-1993 had a dramatic impact on the health of URR's. It is 
recommended that the instrumentation program be maintained at a minimum 
of $1.0 million per year.
    In order to maintain the educational infrastructure for nuclear 
engineering and radiation science and to provide an adequate level of 
funding for the university research reactors, the total level of 
funding needed is $12.4 million at a bare minimum. Since the University 
Nuclear Science and Reactor Support line in the budget request contains 
items unrelated to nuclear engineering and radiation science needs, 
this amount should be increased from the $10.0 million in the 
President's budget to $14.0 million to fully fund the NE/RST education 
($7.0 million) and URR support ($5.4 million) programs.
                   nuclear energy research initiative
    The Department of Energy is proposing a Nuclear Energy Research 
Initiative (NERI). This is to be a peer-reviewed nuclear energy 
research program bringing together the best minds at universities, 
national laboratories, and in industry to address the critical research 
questions that need to be answered concerning nuclear energy. This 
program is modeled after the report of the Energy Research and 
Development Panel of the President's Committee on Advisors on Science 
and Technology (PCAST). We advocate that the peer-review process to be 
adopted for NERI be modeled after NSF review processes and support the 
DOE budget request of $24 million, although we believe that the higher 
funding level of $50 million recommended by PCAST is fully justified.
    NERI is, in some ways, similar to NEER, but differs in a very 
fundamental and important way. NERI has the mission of supporting 
nuclear energy research; NEER provides research support for the 
academic discipline of nuclear engineering and radiation science. 
Nuclear Engineering as an academic discipline has its origins in 
nuclear energy, but has broadened to consider all applications of 
nuclear and radiation processes to science and engineering. Hence, it 
is concerned not only with nuclear fission-based power plants, but also 
with health and medical physics, radiation detection and measurement, 
materials science, waste management, environmental effects and 
monitoring, production of radiation and isotopes for a multitude of 
applications, and other aspects of radiological engineering. The NEER 
program provides research support to this broader range of areas, 
especially those not adequately funded elsewhere, while the NERI 
program focuses on only nuclear energy. NEER is analogous to the 
support for most scientific disciplines (except, historically, nuclear 
engineering) provided by the NSF without concern for a specific 
mission. While there are mission-focused research programs funded by 
other agencies that draw on disciplines supported by the NSF and 
provide funding for university research, it is clear to the broader 
scientific community that both broad-based fundamental support of the 
disciplines and mission-focused support is essential. The health of the 
NE/RST academic discipline requires the fundamental, broad-based 
support provided by NEER. We support both the continuation of NEER and 
the initiation of the NERI program.
               nuclear energy plant optimization program
    Nuclear power faces critical issues that have broader implications 
than the needs of a particular industry. It is appropriate that 
research on these issues be funded by a government--industry 
partnership, such as the Nuclear Energy Plant Optimization (NEPO) 
program proposed by DOE. NEPO will focus on extending the life of 
currently operating nuclear plants, establishing a process for license 
renewal, and improving the efficiency and capacity of existing plants. 
Such research is essential if our nation is to maintain the nuclear 
option, meet the Kyoto goals for greenhouse gas emission reduction, and 
improve the quality of our nation's air. We support the DOE budget 
request of $10 million for NEPO.
                         budget recommendations
    Our recommendations for support of nuclear engineering/radiation 
science are (in millions of dollars):

                        [In millions of dollars]
------------------------------------------------------------------------
                                                       Fiscal
                                             Fiscal     year
                                              year    1999 DOE    Goal
                                              1998
                                             actual   proposal
------------------------------------------------------------------------
NE/RST:
     NEER (research grants)...............       2.2       3.0       5.0
    Graduate Fellowships..................       0.6       0.8       1.0
    Industry Matching.....................       0.8       0.9       1.0
URR:
    Reactor fuel and LEU conversions......       2.1       2.3       3.8
    Reactor sharing.......................       0.5       0.7       0.6
    Instrumentation.......................       0.3       1.0       1.0
Unrelated;
    HBCU/HSI scholarships.................       0.5       0.6  ........
    Pre-college education.................  ........       0.2  ........
    Radiochemistry........................  ........       0.5  ........
                                           -----------------------------
      Totals..............................       7.0      10.0      12.4
------------------------------------------------------------------------

                               Attachment

                    Letter From William F. Naughton

                                                     ComEd,
                                                  February 4, 1998.
Dean Stephen Director,
College of Engineering, University of Michigan,
Ann Arbor, MI.
    Dear Dean Director: On behalf of the Nuclear Energy Institute 
(NEI), ComEd requests an opportunity to meet with the Big Ten 
Engineering Deans. The purpose of the meeting would be to emphasize the 
importance of academic programs in nuclear engineering in meeting the 
world-wide growing demands for highly qualified nuclear engineers both 
today and well into the 21st century. A strong outlook will require a 
strong academic infrastructure to meet that demand. Why should nuclear 
be singled out? Historically, due to its size as compared to Mechanical 
or Electrical Engineering programs, Nuclear tends to be overlooked 
despite a strong need and market.
    To aid you in attending to this request, let me provide a little 
background information on NEI, ComEd, and the long-term employment 
outlook for nuclear engineers. NEI is the nuclear industry's 
representative in Washington D.C. NEI has nearly 300 members worldwide 
in all facets of the nuclear industry. ComEd, a Chicago based utility, 
is the largest investor owned nuclear utility in the U.S. with ten 
operating nuclear reactors. As Dr. Was has probably told you. ComEd 
inaugurated the DOE/Industry Nuclear Engineering Department Matching 
Grant Program in 1992 with five universities, four in the Big Ten. 
ComEd initiated the program in response to a National Academy of 
Sciences report that among other issues expressed concerns over the 
educational infrastructure and program quality of nuclear engineering 
education in the U.S. That program has recently been renewed for an 
additional five years, largely due to the efforts of the Big Ten 
schools affiliated with ComEd--Universities of Michigan, Illinois, 
Wisconsin, and Purdue.
    Clearly, there is a continuing need for a solid educational and 
research infrastructure at U.S. colleges and universities in nuclear 
engineering. The nuclear industry is convinced that the 21st century 
will bring renewed expansion of nuclear energy, both in the United 
States and abroad. Nuclear energy is the most effective way to meet the 
world's growing electricity needs without producing emissions that 
damage our air quality or that are thought to contribute to global 
climate changes.
    Although electricity demand in the United States continues to grow 
slowly, and no new large generating plants of any kind are expected to 
be built until 2005-2010 time frame, demand in developing countries is 
expected to soar in the next century. According to the World Energy 
Council, the International Energy Agency and the U.S. Department of 
Energy, energy demand worldwide will rise by 34 to 44 percent by 2010, 
and by 54 to 90 percent by 2020. At the same time, there is growing 
concern that increased emissions of carbon dioxide and other greenhouse 
gases from the burning of fossil fuels will cause disruptions in the 
world's climate. Nuclear energy is the only fully developed, emission-
free electricity generating option with the potential for large-scale 
expansion.
    In January 1998, President Clinton cleared the way for U.S. nuclear 
suppliers to compete in China's growing nuclear energy program. China's 
nuclear market is expected to include an average of two nuclear plant 
contracts a year between now and 2014, worth an estimated $50 to $60 
billion between now and 2020.
    Additionally, renewing the operating licenses for our nuclear power 
plants could help the nation reduce carbon emissions in 2010 to 1990 
levels, according to a report issued by the five Department of Energy 
national laboratories last fall. The authors noted that the connection 
between research and development and nuclear plant license extension. 
Many of the nation's utilities that operate nuclear power plants are in 
the planning stage for applying to the Nuclear Regulatory Commission to 
renew their operating licenses.
    While the emphasis here has been focused on the needs of the 
nuclear power industry, the wider segment of the nuclear science and 
technology industry has similar long-term employment requirements 
especially in biology, medicine, environmental sciences, isotopes, 
radiation applications, etc. Thus, our university programs in nuclear 
engineering certainly both today and in the future will play a key role 
not only in the worldwide expansion of nuclear energy but also in the 
many beneficial science and technology services that it provides 
society.
    Both NEI and ComEd look forward to meeting with you and the other 
Big Ten Deans to further discuss the current market and the long range 
forecast that signals a strong need for highly qualified nuclear 
engineers in all segments of nuclear science and technology. This 
strong outlook will require a strong academic infrastructure to meet 
that demand. Please contact me if you need any additional information.
            Sincerely,
                                       William F. Naughton,
                                            Program Manager, Fuels.
                                 ______
                                 

  Prepared Statement of Tom Sanford, Deputy Mayor, City of Gridley, CA

    Mr. Chairman, Members of the Subcommittee, my name is Tom Sanford, 
and I am the Mayor Pro Tem of the City of Gridley, California. I also 
serve as Gridley's commissioner on the governing board of the Northern 
California Power Agency, a joint power agency that includes 15 public 
power providers.
    I appreciate the opportunity to testify before the Subcommittee 
regarding the federal funding priorities for the City of Gridley's 
ethanol project.I also want to thank the Subcommittee Members, and 
Congressman Vic Fazio, who represents our region, for the 
Subcommittee's past efforts, and we appreciate your continued support.
    The City of Gridley is uniquely located in the heart of 
California's rice growing area, with an economy heavily dependent upon 
rice production and markets. In addition, Gridley operates a municipal 
utility, with responsibility for delivering electrical power to the 
Gridley community. The community, including local rice growers, have 
sponsored the Gridley Ethanol Project to solve a major rice straw 
disposal problem. This project will use rice straw and forest wood 
wastes to produce ethanol for the transportation fuel markets.
    Mr. Chairman, in order to initiate construction of the biomass 
ethanol plant, the City of Gridley and its non-Federal cost-share 
partners request $5,000,000 in fiscal year 1999. The request represents 
what is needed in order for the City of Gridley to construct the 
optimum sized biomass ethanol plant. It is critical that we secure this 
funding in order to enable the project to go to construction next year. 
The project will be ready to go to construction in the summer of 1999 
and failure to secure the funds will jeopardize our capacity to 
initiate construction on this important project. The project has a 
significant non-Federal cost share. After fiscal year 1999, assuming 
approval of the full $5,000,000 requested, the project will need one 
final contribution from the Federal Government of $5,000,000 in fiscal 
year 2000. The total planned Federal contribution to the project of 
approximately $12,000,000 will leverage a non-Federal investment of 
over $48,000,000 in the $60,000,000 plant.
    Currently, biomass to ethanol production is primarily conducted in 
the mid-west using corn husks and waste as the principal feedstock. 
Ethanol is the sole product of this current process, which makes the 
economic viability of the technology completely dependent upon the 
current state of the ethanol market.
    The technologies that will be used in the Gridley project more 
fully utilize the feed stock to produce a number of useful products 
while at the same time minimizing the byproducts requiring disposal. 
This will significantly improve the sustainability of the project and 
the technology.
    Again, thank you for your past support and for this opportunity to 
testify.
                                 ______
                                 

  Prepared Statement of Joe F. Colvin, President and Chief Executive 
                   Officer, Nuclear Energy Institute

    Mr. Chairman and members of the subcommittee, my name is Joe 
Colvin. I am president and chief executive officer of the Nuclear 
Energy Institute. The Nuclear Energy Institute is the policy-setting 
organization for the U.S. nuclear energy industry. The Institute 
represents more than 275 members worldwide, including every U.S. 
electric utility that operates a nuclear power plant, as well as 
suppliers, nuclear fuel cycle companies, engineering and consulting 
firms, radiopharmaceutical laboratories, universities, labor unions and 
law firms.
    Before I begin, I would like to express my gratitude to Chairman 
Domenici, Ranking Member Reid and the rest of the subcommittee members 
for considering the merits of nuclear energy in fiscal year 1999 
budgets for the Department of Energy and the Nuclear Regulatory 
Commission.
                              introduction
    It is impossible to enter into a discussion about commercial 
nuclear energy without first examining its role in the broader context 
of environmental and energy policy issues. Nuclear energy--by virtue of 
its large-scale, carbon-free electricity generation--must be a major 
part of any national strategy to achieve clean air standards and 
mitigate greenhouse gas emissions.
    Many policymakers have attested to nuclear energy's intrinsic value 
in meeting atmospheric emissions targets while providing nearly 20 
percent of the nation's electricity. Energy Secretary Federico Pena 
recently recognized nuclear energy's critical role in energy policy: 
``Given growing concerns over global climate change and other 
environmental issues, the United States must maintain the option to 
both operate many of its current nuclear power plants and build new 
plants based on designs that emerged from our Advanced Light Water 
Reactor Program.'' Secretary Pena's message has been echoed by other 
representatives of the Executive Branch, the President's Committee of 
Advisers on Science and Technology, the Department of Energy's research 
laboratories and the New York Public Service Commission, to name a few. 
While this growing awareness is reassuring, nuclear energy's 
environmental benefits cannot be fully realized unless Congress 
actively supports federal programs that will resolve the few remaining 
challenges confronting the nuclear energy industry.
           federal storage and disposal of used nuclear fuel
    An overwhelming majority of Congress supports a legislative 
solution to federal management and disposal of used nuclear fuel. The 
Senate and the House of Representatives last year passed S. 104 and 
H.R. 1270, respectively, requiring the Department of Energy to uphold 
its immediate obligation to manage used nuclear fuel at a central 
storage facility while the agency continues scientific analysis of the 
proposed Yucca Mountain repository site. The bills currently are the 
subject of a negotiation to forge common legislation for final 
consideration by the House and the Senate.
    The need for congressional intervention was reinforced by the 
Department of Energy's Jan. 31 default of a court-affirmed deadline to 
begin taking used nuclear fuel--a deadline Congress set in 1982. 
Although the agency claims its delay is unavoidable, the U.S. Court of 
Appeals for the District of Columbia Circuit ruled on Nov. 14, 1997, 
that DOE has an ``unconditional obligation to dispose of utilities' 
spent nuclear fuel'' (Northern States Power Co. et al. v. U.S. 
Department of Energy and the United States of America).
    The Court of Appeals also ruled that the Standard Contract process 
provides a ``potentially adequate'' remedy for damages. The Department 
of Energy has stated its intention to apply the Standard Contract to 
pay utilities for damages out of the Nuclear Waste Fund, and simply 
offset such reductions by increasing future charges to utilities to the 
waste fund. The consumer-financed Nuclear Waste Fund should not be a 
source for those damages.
    As the subcommittee weighs the Department of Energy's fiscal year 
1999 request, it must consider the agency's fuel acceptance default and 
the need for DOE to meet its obligation as part of any compensation or 
damages. The industry encourages the subcommittee to instruct the 
Department of Energy to furnish a detailed account of how and when it 
will meet its obligation to accept used nuclear fuel.
    Moreover, the improper use of the waste fund to pay damages would 
force an increase in utility customer payments to replenish the trust 
fund. In effect, the Department of Energy intends to make utilities pay 
themselves for DOE's failure to meet its statutory deadline. For these 
reasons, the Department of Energy should not be permitted to divert 
money from the Nuclear Waste Fund to compensate utilities for DOE's 
failure to honor its fuel acceptance obligation.
    Despite the Department of Energy's default, the scientific and 
technical efforts must continue to determine if the permanent 
repository site is suitable. The Department of Energy's $380 million 
fiscal year 1999 request for OCRWM is necessary to ensure the office 
continues to meet deadlines for data collection and study at the 
proposed Yucca Mountain, Nev., repository; to improve the 
infrastructure of that laboratory; and to support analysis of 
scientific and technical data for use in a DOE viability assessment due 
to Congress this fall. All of these projects further DOE's effort to 
prepare a draft environmental impact statement and license application 
for the repository. From our perspective, the fiscal year 1999 request 
assures timely scientific study and analysis, and a realistic schedule 
to complete a viability assessment for Congress by December 1998.
    The nuclear energy industry continues to support strong oversight 
of the federal used nuclear fuel management program, particularly in 
monitoring the state of Nevada's use of federal grants made from the 
fund. Two reports from the U.S. General Accounting Office, one in 1990 
and another in 1996, concluded that Nevada--which opposes the 
repository project--improperly spent more than $1 million of grant 
moneys. Through the Appropriations Committee's vigilance, recent 
appropriations acts have precluded Nevada from using grant funds for 
lobbying, litigation and certain multistate activities. Yet the GAO, in 
its 1996 report, found that Nevada's weak documentation of grant 
expenditures has made it difficult to determine whether the state is 
spending federal funds appropriately.
    Until the subcommittee is satisfied that DOE-administered funds 
provided to the state are properly spent, any further funds should be 
withheld from grant recipients shown to have misspent past federal 
grant money. In the meantime, the nuclear energy industry believes that 
other Nevada-based programs, such as the state university system and 
county oversight efforts have been spending government money wisely and 
have provided useful contributions to the repository project.
                     nuclear regulatory commission
    Safety is the nuclear energy industry's top priority and we 
recognize the unique responsibility that the Nuclear Regulatory 
Commission has to assure adequate protection of public health and 
safety. However, the industry is concerned that the Nuclear Regulatory 
Commission has created a regulatory environment in which the agency's 
interest in compliance has blurred its primary mission. Licensees are 
being penalized based on regulation to the lowest common denominator at 
a time when overall plant performance, capacity factors and safety 
ratings are high.\1\
---------------------------------------------------------------------------
    \1\ For example, in 1997, the median value for unplanned automatic 
shutdowns at nuclear power plants was 0 per 7,000 critical hours, down 
from 7.3 in 1980; 1997 World Association of Nuclear Operators 
Performance Indicators.
---------------------------------------------------------------------------
    In a 1997 audit the NRC's Office of Inspector General recognized a 
conflict between the commission's goal of focusing on issues of 
greatest safety significance and its actual resources devoted to 
verifying license compliance with regulations of limited safety 
benefit.\2\ The report, which focused on NRC events surrounding 
refueling practices at Northeast Utilities' Millstone Unit 1 plant, 
concluded that the commission should adopt a risk-informed, 
performance-based regulatory system. The Nuclear Energy Institute 
agrees that a focus on plant safety would enhance the commission's 
effectiveness and ensure that regulation focuses on those areas 
directly related to safety. The NRC's $488.6 million funding request 
should be devoted to implementing regulations that have a direct 
bearing on safety.
---------------------------------------------------------------------------
    \2\ OIG/97A-01, NRC needs Comprehensive Plan to Resolve Regulatory 
Issues, Aug. 21, 1997.
---------------------------------------------------------------------------
    Almost all of the funding requested by the NRC--$466.9 million--
would come from the collection of user fees from licensees, primarily 
nuclear power plant licensees--an increase of $12.1 million from fiscal 
year 1998. The nuclear energy industry continues to question the equity 
of a 100 percent user fee, which charges electric utilities for the 
cost of programs that are not directly related to the regulation of 
specific licensees, but rather, have national applications. Included in 
the NRC's budget is a request to extend its authority to collect a 100 
percent user fee from nuclear power plant licensees through 2003. 
Extending the commission's collection authority and any future 
budgetary increases that impact the user fee would be unfair to 
licensees who confront a changing regulatory environment amid electric 
utility restructuring.
    The 100 percent user fee could create a disadvantage for nuclear 
power plants among competing electricity sources, especially as the 
commission requests increases to its fiscal year budget throughout the 
authorized collection period.
    The nuclear energy industry believes that, rather than increase the 
NRC budget--and thereby user fees--that if the commission focuses its 
programs and regulations on safety-based performance standards, it 
could fulfill its responsibility more efficiently. For example, such an 
emphasis on performance standards would free NRC resources for license 
renewal of nuclear power plants without increasing the agency's overall 
budget. The NRC's role in extending the operating licenses of nuclear 
facilities should stress timely and efficient review of issues related 
to continued plant operation and maintaining high safety standards.
    The nuclear energy industry fully supports approval of the moneys 
requested by NRC from the Nuclear Waste Fund. These funds will allow 
the NRC to continue its oversight of the Yucca Mountain project as the 
Department of Energy prepares its license application for the 
repository. These activities are a crucial step toward implementation 
of the integrated used fuel management program.
    In the area of safe cleanup at decommissioned nuclear facilities, 
the Nuclear Regulatory Commission should be commended for its continued 
efforts to establish reasonable residual radiation standards. The 
commission's standards are consistent with radiation standards set by 
U.S. and international scientific organizations, such as the National 
Council on Radiation Protection and the International Commission on 
Radiological Protection. Yet the Environmental Protection Agency is 
challenging the commission's policy by issuing guidance on residual 
radiation that would prompt an excessive duplication of existing 
standards and indefinitely delay site cleanups. The industry encourages 
the subcommittee to clearly instruct the EPA to continue its long-
standing policy of deferring regulation of NRC-licensed site cleanup to 
the Nuclear Regulatory Commission under the authority of the Atomic 
Energy Act.
                nuclear energy research and development
    The Department of Energy's fiscal 1999 program for nuclear energy 
research and development represents a considerable improvement over its 
fiscal 1998 proposal, which fell short of congressional expectations 
and ultimately was rejected. One notable improvement in DOE's proposal 
is its inclusion of the nuclear energy industry in a cost-shared, joint 
research venture with the Department of Energy to optimize nuclear 
power plants. The nuclear energy industry firmly supports this 
initiative as a way to maintain energy diversity, and therefore, 
national security, an economic edge, and U.S. leadership in nuclear 
technology abroad.
    Nuclear energy's significant role in helping the United States 
achieve clean air compliance and curb greenhouse gas emissions recently 
was recognized by the President's Committee of Advisers on Science and 
Technology. The committee recommended a funding profile that would 
boost incrementally the Department of Energy's nuclear energy R&D 
budget to $119 million by 2003--with $50 million recommended in fiscal 
year 1999 ($16 million more than DOE's request).
    The Department of Energy proposes to enhance nuclear energy's 
national contribution to cleaner air through two new programs as well 
as a continuing education initiative:
    A new $24 million Nuclear Energy Research Initiative would ensure 
that research conducted by universities, laboratories and the nuclear 
energy industry contributes to the national interest. The research 
initiative recognizes the value of nuclear energy's role in reducing 
the emissions of carbon dioxide and other restricted gases and 
particulates. Nuclear energy accounts for 90 percent of carbon 
reductions by the U.S. electric utility industry since 1973, and 30 
percent of voluntary carbon dioxide reductions since 1993 under the 
Department of Energy's Climate Challenge program.
    The Nuclear Energy Plant Optimization program would allocate $10 
million to research and development projects that enhance the continued 
operation of our 105 nuclear plants. Similar to programs in other areas 
of energy production, the nuclear plant optimization program would 
provide technical and regulatory improvements for continued plant 
operation and increase productivity at existing plants. Both the 
industry and Department of Energy recognize the production costs of 
nuclear energy will be even more competitive once the capital costs 
have been fully depreciated after 40 years.
    Finally, the University Support program would earmark $10 million 
for universities and colleges to enhance research and education in 
nuclear sciences by helping to sustain university reactor and 
engineering programs. However, the nuclear energy industry believes an 
additional $4 million is needed to expand the Nuclear Energy Education 
Research initiative, which Congress authorized in fiscal year 1998.
    Many of the nation's nuclear medicine treatments, such as radiation 
therapy, were developed and enhanced by a work force educated in the 
nuclear sciences. It is crucial that the United States maintain its 
leadership role in nuclear technology so that it is a credible presence 
in the global nuclear community. Internationally, U.S. competitors are 
turning to nuclear energy to satisfy growing environmental constraints. 
Countries like France and Japan already have strong nuclear energy 
programs that respond to energy demand and environmental sensitivities.
    The Department of Energy's research and development proposal is 
thoughtful, well conceived and relevant to the nation's energy and 
environmental goals. For the reasons stated above, the nuclear energy 
industry urges the subcommittee to support DOE's nuclear energy 
research and development programs, but adopt PCAST's recommended 
funding level of $50 million for fiscal year 1999.
    The nuclear energy industry supports the funding as noted in these 
areas:
    Uranium Decontamination and Decommissioning.--DOE's fiscal year 
1999 request for appropriations from the fund includes $242 million for 
numerous activities at the government-owned plants and $35 million for 
uranium/thorium tailings cleanup reimbursements, as authorized by the 
Energy Policy Act. The nuclear energy industry urges the subcommittee 
to ensure that congressionally appropriated funds are used for 
decontamination and decommissioning activities as envisioned by the 
Energy Policy Act, and not for activities related to current operations 
of the gaseous diffusion plants.
    Surplus Weapons Material Disposition.--The nuclear energy industry 
supports the Department of Energy's $168.9 million request for the 
disposal of surplus weapons fissile materials, an increase of $65 
million from fiscal year 1998. The U.S. and Russian programs must move 
from a study phase to actual material disposition. The nuclear energy 
industry and federal agencies also must continue efforts to use mixed 
oxide fuel at U.S. reactors.
    International Nuclear Safety Program and Nuclear Energy Agency.--
The subcommittee should provide funding for the Department of Energy's 
International Nuclear Safety Program. Improving the operational safety 
at Soviet-designed nuclear power plants is imperative. Potential 
weaknesses in reactor safety abroad not only pose threats to public 
health and the environment, but also erode public confidence in the 
entire nuclear energy industry.
    The Nuclear Energy Institute supports the funding of continued U.S. 
membership in the OECD's Nuclear Energy Agency.
    Medical Isotopes.--The nuclear energy industry supports the 
Department of Energy's radioisotope program and encourages the enhanced 
and continued supply of isotopes for the purpose of medical research. 
Such isotopes are not readily available in the commercial sector and 
the Department of Energy has a history of supporting medical isotopes.
    DOE Radiation Standards.--The nuclear energy industry is aware of 
the Department of Energy's development of radiation standards for safe 
cleanup and restoration of its decommissioned facilities. We urge the 
subcommittee to support the Department of Energy in finalizing these 
standards in order to enhance a safe, economic and timely conclusion to 
the agency's extensive environmental restoration program. Close 
involvement between the Department of Energy and the NRC ensures the 
early identification and resolution of potential concerns that 
otherwise would require more costly long-term review.
                               conclusion
    I would like to thank the subcommittee for the opportunity to share 
the industry's perspective on issues crucial to the nuclear energy 
industry. Although the Department of Energy has failed to meet 
statutory and court-affirmed deadlines for the storage and disposal of 
used nuclear fuel, Congress should support the agency's continued 
scientific and technical work at the proposed Yucca Mountain repository 
to avoid further delays. Even as Congress considers separate 
legislation to reform the federal nuclear waste management program, the 
subcommittee must ensure that activities within the Office of Civilian 
Radioactive Waste Management progress to support the repository 
project.
    The nuclear energy industry urges the subcommittee to consider the 
fairness and equity of the Nuclear Regulatory Commission's user fee. 
Commission licensees should not be assessed 100 percent user fees for 
commission activities that do not pertain to regulating those 
licensees, but that have broader, national application.
    Finally, by funding the Department of Energy's two new nuclear 
energy research and development initiatives, the subcommittee would 
reaffirm nuclear energy's valuable contribution toward achieving clean 
air compliance and mitigating greenhouse gases and continue the 
research necessary to further improve performance and safety of U.S. 
nuclear power plants. As the nation's second largest electricity 
source, nuclear energy is well-positioned to meet future energy demand 
in a manner consistent with national environmental policy.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Akin, Dick, Sutter County supervisor, District 5, prepared 
  statement......................................................   349
Allen, E.D., chief harbor engineer, Port of Long Beach, CA, 
  prepared statement.............................................   433
Allen, W. Ron, president, National Congress of American Indians, 
  prepared statement.............................................   579
American Public Power Association, prepared statement............   564
American Society for Microbiology, prepared statement............   572
Animas-La Plata Water Conservancy District, prepared statement...   465
Armstrong, Michael D., general manager, Monterey County Water 
  Resources Agency, prepared statement...........................   420
Arverchoug, Steve, general manager, Southeastern Colorado Water 
  Conservancy District, prepared statement.......................   496

Baker, Charles C., adjunct professor, University of California, 
  San Diego, US ITER Home Team Leader, prepared statement........   592
Baldwin, David E., senior vice president, fusion group, General 
  Atomics, prepared statement....................................   592
Ballard, Lt. Gen. Joe N., Chief of Engineers, Corps of 
  Engineers--Civil, Department of the Army, Department of 
  Defense--Civil.................................................   145
    Letter from..................................................   216
    Prepared statement...........................................   177
Barnett, Jack A., executive director, Colorado River Basin 
  Salinity Control Forum, Bountiful, UT, prepared statement......   463
Beier, Keith E., council member, city of Escondido, CA, prepared 
  statement......................................................   387
Belza, Tib, chairman, Yuba County Water Agency, prepared 
  statement......................................................   350
Beneke, Patricia J., Assistant Secretary for Water and Science, 
  Department of the Interior.....................................   291
    Prepared statement...........................................   292
Bennett, Hon. Robert F., U.S. Senator from Utah:
    Prepared statement...........................................   161
    Questions submitted by.......................................   321
Bingham, Nathaniel S., habitat director, Pacific Coast Federation 
  of Fishermen's Association, prepared statement.................   347
Blum, Carl L., deputy director, Department of Public Works, Los 
  Angeles County, CA, prepared statement.........................   381
Bollinger, Donald T., chairman, Louisiana Governor's Task Force 
  on Maritime Industry, prepared statement.......................   523
Bransford, Donald, president, Glenn-Colusa Irrigation District, 
  prepared statement.............................................   419
Brewer, Robert M., Crounse Corp., Paducah, KY, letter from.......   521
Bridley, John, waterfront director, city of Santa Barbara, CA, 
  prepared statement.............................................   431
Brinson, J. Ron, president and CEO, Port of New Orleans, New 
  Orleans, LA, prepared statement................................   530
Brown, Gary G., Vulcan Materials Co., Grand Rivers, KY, letter 
  from...........................................................   523
Bumpers, Hon. Dale, U.S. Senator from Arkansas, questions 
  submitted by...................................................   289
Burns, Hon. Conrad, U.S. Senator from Montana:
    Prepared statement...........................................   162
    Questions submitted by.......................................   321
Business Council for Sustainable Energy, prepared statement......   576
Byrd, Hon. Robert C., U.S. Senator from West Virginia, questions 
  submitted by...................................................   240
Campbell, Joseph L., president, Contra Costa Water District, 
  prepared statement.............................................   359
Carlsen, Richard A., Marin County Department of Public Works, San 
  Rafael, CA, letter from........................................   366
Caver, Thomas F., Jr., Chief, Programs Management Division, 
  Directorate of Civil Works, Corps of Engineers--Civil, 
  Department of the Army, Department of Defense--Civil...........   145
Cisneros, Philip C., president, Twentynine Palms Water District, 
  prepared statement.............................................   399
City of Beverly Hills, CA, prepared statement....................   394
City of Huntington Beach, CA, prepared statement.................   395
City of Miami Beach, FL, prepared statement......................   506
City of Phoenix, AZ, prepared statement..........................   467
City of San Diego, CA, prepared statement........................   384
City of Seal Beach, CA, prepared statement.......................   389
City of Sierra Madre, CA, prepared statement.....................   394
City of Stockton, CA, prepared statement.........................   354
Clemens, Ralph O., Jr., president, Coosa-Alabama River 
  Improvement Association, prepared statement....................   508
Cochran, Hon. Thad, U.S. Senator from Mississippi, questions 
  submitted by...................................................    55
Cole, David C., Itawamba Community College, Fulton, MS, letter 
  from...........................................................   520
Collins, Father T. Byron, S.J., special assistant to the 
  president of Georgetown University, prepared statement.........   563
Colvin, Joe F., president and chief executive officer, Nuclear 
  Energy Institute, prepared statement...........................   604
County of San Joaquin and the San Joaquin County Flood Control 
  and Water Conservation District, CA, on behalf of, prepared 
  statement......................................................   353
Craig, Hon. Larry E., U.S. Senator from Idaho:
    Prepared statements 

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>533

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>424

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>iege, Daniel F., chairman, 
California Water Commission, prepared statement

327____________________________________________________________________

Krygsman, Alexander, director, Port of Stockton, CA, prepared statement

424____________________________________________________________________

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><INF>rt of South Louisiana, 
LaPlace, LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>533

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>533

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet> Questions submitted 
by....................................... 237Crescent City Harbor District, 
prepared statement................ 437Crow Creek Sioux Tribe, prepared 
statement....................... 481Curry, Darrel G., vice president, 
Missouri River Bank Stabilization Association, prepared 
statement.................. 485Dal Gallo, Frank, president, the Reclamation 
Board, the Resources Agency, State of California, prepared 
statement................ 344Delesdernier, Capt. Mark, president, Crescent 
River Port Pilots Association, prepared 
statement................................ 532Dellinger, Mark, resources 
manager, Lake County Sanitation District, prepared 
statement................................... 362Diemer, Dennis M., general 
manager, East Bay Municipal Utility District, Oakland, CA, prepared 
statement...................... 408Domenici, Hon. Pete V., U.S. Senator 
from New Mexico, questions submitted by <SUP><INF>siana, LaPlace, LA, 
prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><INF>/

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>424

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>iege, Daniel F., chairman, 
California Water Commission, prepared statement

327____________________________________________________________________

Krygsman, Alexander, director, Port of Stockton, CA, prepared statement

424____________________________________________________________________

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><INF>rt of South Louisiana, 
LaPlace, LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>siana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>424

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>iege, Daniel F., chairman, 
California Water Commission, prepared statement

327____________________________________________________________________

Krygsman, Alexander, director, Port of Stockton, CA, prepared statement

424____________________________________________________________________

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>siana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>siana, LaPlace, LA, 
prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>tement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>424

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>iege, Daniel F., chairman, 
California Water Commission, prepared statement

327____________________________________________________________________

Krygsman, Alexander, director, Port of Stockton, CA, prepared statement

424____________________________________________________________________

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>ive director, 
Port of South Louisiana, LaPlace, LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>Dorgan, Hon. Byron, U.S. 
Senator from North Dakota: Prepared statements <INF>ducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>tement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>424

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>iege, Daniel F., chairman, 
California Water Commission, prepared statement

327____________________________________________________________________

Krygsman, Alexander, director, Port of Stockton, CA, prepared statement

424____________________________________________________________________

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><INF>rt of South Louisiana, 
LaPlace, LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>533

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><INF>Marine, Inc., Paducah, 
KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet> Questions submitted by 
<SUP><INF>siana, LaPlace, LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><INF>Marine, Inc., Paducah, 
KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>tement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>424

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>iege, Daniel F., chairman, 
California Water Commission, prepared statement

327____________________________________________________________________

Krygsman, Alexander, director, Port of Stockton, CA, prepared statement

424____________________________________________________________________

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>siana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>533

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>Dunlap, Jim, New Mexico 
Rural Water Association, prepared 
statement...................................................... 468Dyer, 
William H., Tennessee Valley Towing, Inc., Paducah, KY, letter 
from.................................................... 517Eaves, Jerry, 
chairman, supervisor, fifth district, county of San Bernardino, prepared 
statement................................. 377Edwards, Thomas Cole, mayor, 
city of Newport Beach, CA, prepared 
statement...................................................... 396Emmert, 
Gilbert A., professor and chair of the Department of Engineering Physics, 
University of Wisconsin-Madison, prepared 
statement...................................................... 598Exline, 
Gloria, mayor, city of Vallejo, CA, prepared statement... 418Ferraro, 
Barbara J., mayor, city of Rancho Palos Verdes, CA, prepared 
statement............................................. 411Ferriole, Vince, 
chairman, board of supervisors, Napa County, prepared 
statement............................................. 363Fort Peck 
Assiniboine and Sioux Tribes, prepared statement....... 479Foss, Brian E., 
port director, Santa Cruz Port, prepared 
statement...................................................... 436Foster, 
Gov. Murphy J., ``Mike'', on behalf of the Louisiana Department of 
Transportation and Development, Public Works and Flood Control Directorate, 
prepared statement.................. 535Fuhrman, Maj. Gen. Russell L., 
Director of Civil Works, Corps of Engineers--Civil, Department of the Army, 
Department of Defense--
Civil................................................. 145 Prepared 
statement........................................... 187Fulstone, Richard, 
chairman, Walker River Water Users Association, prepared 
statement................................ 466Gammage, Grady, Jr., 
president, board of directors, Central Arizona Water Conservation District, 
prepared statement........ 472Geordano, Clyde A., parish president, 
Plaquemines Parish Government, Belle Chasse, LA, prepared 
statement............... 530George, Bruce, manager, Kaweah Delta Water 
Conservation District, prepared 
statement............................................. 360George, Father 
William, S.J., special assistant to the president of Georgetown University, 
prepared statement................... 563George, Merv Jr., chairman, Hoopa 
Valley Tribe, prepared 
statement...................................................... 
411Geringer, Hon. Jim, Governor, State of Wyoming: Letter 
from.................................................. 484 Prepared 
statement........................................... 483Gieringer, Wallace, 
chairman, Arkansas River Basin Interstate Committee, prepared statements 
<SUP><INF>tement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><INF>ducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>424

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>iege, Daniel F., chairman, 
California Water Commission, prepared statement

327____________________________________________________________________

Krygsman, Alexander, director, Port of Stockton, CA, prepared statement

424____________________________________________________________________

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>tement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><INF>ducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>533

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>Gillum, James R., 
``Kenny'', Kentucky-Cumberland Coal Co., LaFollette, TN, letter 
from.................................... 520Giordano, Clyde A., parish 
president, Plaquemines Parish Government, Belle Chasse, LA, prepared 
statement............... 530Goldston, Robert J., professor and director, 
Princeton Plasma Physics Laboratory, prepared 
statement......................... 592Gorton, Hon. Slade, U.S. Senator from 
Washington, questions submitted by <INF>/

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>ive director, 
Port of South Louisiana, LaPlace, LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>424

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>iege, Daniel F., chairman, 
California Water Commission, prepared statement

327____________________________________________________________________

Krygsman, Alexander, director, Port of Stockton, CA, prepared statement

424____________________________________________________________________

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>siana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>siana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>Goulart, Roberta, Contra 
Costa County Board of Supervisors, Contra Costa County, CA, prepared 
statement.................... 432Grant, Glenn A., Esq., business 
administrator, city of Newark, NJ, prepared 
statement......................................... 559Gross, Robert W., 
Ph.D., chair/board of directors, Santa Clara Valley Water 
District.......................................... 367Hall, Donnie, Hunter 
Marine Transport, Inc., Nashville, TN, letter 
from.................................................... 516Hall, Stephen 
K., executive director, Association of California Water Agencies, prepared 
statement............................. 347Harmon, Jerry C., council member 
and former mayor, city of Escondido, CA, prepared 
statement.............................. 387Harris, Stanley J., P.E., city 
engineer, Public Works Department, Kansas City, MO, prepared 
statement............................ 492Hayden, Channing F., Jr., 
president, Steamship Association of Louisiana, prepared 
statement.................................. 527Herbert, John B., president, 
and Thomas C. Herbert, Sr., vice president, SanGravl Co., New Johnsonville, 
TN, letter from..... 518Hess, William H., Parkert Towing Company, Inc., 
Tuscaloosa, AL, letter 
from.................................................... 518Hewgley, James 
M., Jr., Oklahoma chairman, Arkansas River Basin Interstate Committee, 
prepared statement....................... 503Hi-Desert Water District, 
prepared statement..................... 402Hoagland, John E., general 
manager, Elsinore Valley Municipal Water District, prepared 
statement............................. 380Hodges, William, president, 
Trinity River Authority of Texas, prepared 
statement............................................. 462Holman, Gerald 
H., chairman, Kansas Interstate Committee, prepared 
statement............................................. 500Holmes, Mark, 
executive director, Partnership for San Pablo Baylands, prepared 
statement................................... 388Hommrich, J. Richard, 
Volunteer Barge & Transport, Inc., Nashville, TN, letter 
from..................................... 522Hurlbert, Don D., Sr., P.E., 
executive director, MO-ARK, Kansas City, MO, prepared 
statement................................... 485Hutchison, Hon. Kay Bailey, 
U.S. Senator from Texas, questions submitted 
by................................................... 289Israel, Keith, 
general manager, Monterey Regional Water Pollution Control Agency, prepared 
statement............................. 421Johnson, David, director of 
public works, city of Santa Barbara, CA, prepared 
statement......................................... 405Jollivette, Cyrus M., 
vice president for government relations, University of Miami, prepared 
statement........................ 590Jones, Jan, executive director, 
Tennessee River Valley Association, prepared 
statement................................ 513Jones, Tim C., Burkhart 
Enterprises, Inc., Knoxville, TN, letter 
from........................................................... 517Kansas 
Arkansas River Basin Interstate Committee, prepared 
statement...................................................... 499Karuk 
Tribe of California, prepared statement.................... 402Kickapoo 
Tribe of Kansas, prepared statement..................... 488Kickewirth, 
Walter, chairman, board of directors, Place County Water Agency, prepared 
statement............................... 351Knabe, Don, supervisor fourth 
district, board of supervisors, county of Los Angeles, prepared 
statement...................... 435Krebs, Dr. Martha A., Director, Office 
of Energy Research, Department of 
Energy........................................... 63 Prepared 
statement........................................... 70Kriege, Daniel F., 
chairman, California Water Commission, prepared 
statement............................................. 327Krygsman, 
Alexander, director, Port of Stockton, CA, prepared 
statement...................................................... 
424LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement................................ 533Lane, Leamon B., 
R&W Marine, Inc., Paducah, KY, letter from...... 517LaPlace, Aubrey J., 
president, board of commissioners, Pontchartrain Levee District, prepared 
statement............... 555Lema, Joseph E., vice president, manufacturers 
and services division, National Mining Association, prepared 
statement...... 453Levine, John, Jr., president, Associated Branch Pilots, 
prepared statement...................................................... 
531Lopez, Gaye, manager, Colusa Basin Drainage District, prepared 
statement...................................................... 349Lowe, 
Lynn, president, Red River Valley Association, prepared 
statement...................................................... 542Lyon, 
Dick, mayor, city of Oceanside, CA, prepared statements <SUP>LA, prepared 
statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><INF>Marine, Inc., Paducah, 
KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>424

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>iege, Daniel F., chairman, 
California Water Commission, prepared statement

327____________________________________________________________________

Krygsman, Alexander, director, Port of Stockton, CA, prepared statement

424____________________________________________________________________

LaGrange, Gary P., executive director, Port of South Louisiana, LaPlace, 
LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP><INF>tement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><SUP>LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet><INF>rt of South Louisiana, 
LaPlace, LA, prepared statement

533____________________________________________________________________

Lane, Leamon B., R&W Marine, Inc., Paducah, KY, letter from

517____________________________________________________________________

LaPlace, Aubrey J., president, board of commissioners, Pontchartrain Levee 
District, prepared statement

555____________________________________________________________________

Lema, Joseph E., vice president, manufacturers and services division, 
National Mining Association, prepared statement

453____________________________________________________________________

Levine, John, Jr., president, Associated Branch Pilots, prepared statement

531____________________________________________________________________

Lopez, Gaye, manager, Colusa Basin Drainage District, prepared statement

349____________________________________________________________________

Lowe, Lynn, president, Red River Valley Association, prepared statement

542____________________________________________________________________

Lyon, Dick, mayor, city of Oceanside, CA, prepared statements

383, 431_______________________________________________________________

Malcolm, David L., chairman, board of port commissioners, Port of San 
Diego, CA, prepared statement

426____________________________________________________________________

Malloy, Pat, maintenance services director, maintenance service department, 
city of Arcadio, CA, prepared statement

392____________________________________________________________________

Martinez, Eluid L., Commissioner, Bureau<bullet>Malcolm, David L., 
chairman, board of port commissioners, Port of San Diego, CA, prepared 
statement.............................. 426Malloy, Pat, maintenance 
services director, maintenance service department, city of Arcadio, CA, 
prepared statement............ 392Martinez, Eluid L., Commissioner, Bureau 
of Reclamation, Department of the 
Interior..................................... 291 Prepared 
statement........................................... 295Mauderly, Joe L., 
senior scientist and director of external affairs, Lovelace Respiratory 
Research Institute, prepared 
statement...................................................... 566Mauel, 
Michael E., professor, Columbia University, president, University Fusion 
Association, prepared statement.............. 592McCrory, Robert L., 
professor and director, Laboratory for Laser Energetics, University of 
Rochester, prepared statement........ 560McKee, Frank, Hermitage, TN, 
letter from......................... 521Miklos, Steve, mayor, city of 
Folsom, CA, prepared statement..... 407Moses, Joe, chairman, Warm Springs 
Tribal Council, prepared 
statement...................................................... 451Mosher, 
Carl W., director, Environmental Services Department, city of San Jose, CA, 
prepared statement....................... 366Murray, Hon. Patty, U.S. 
Senator from Washington, questions submitted 
by................................................... 244Nelson, Ben H., 
president, Coastal Oyster Leaseholders Association, prepared 
statement................................ 460Nelson, Ron, chairman, 
Deschutes Basin Working Group of Central Oregon, prepared 
statement..................................... 450New York University, 
prepared statement.......................... 587Noble, Vernon A., chairman, 
Green Brook FLood Control Commission, prepared 
statement............................................. 557Northwest Power 
Planning Council, Portland, OR, prepared 
statement...................................................... 439Novak, 
Cathy, mayor, city of Morro Bay, CA, prepared statement... 430O'Brien, 
Terrence J., president, Metropolitan Water Reclamation District of Greater 
Chicago, prepared statement................ 486O'Hollaren, Ken, executive 
director, port of Longview, WA, prepared 
statement............................................. 446O'Neill, Beverly, 
mayor, city of Long Beach, CA, prepared 
statement...................................................... 417Okita, 
David, general manager, Solano County Water Agency, prepared 
statement............................................. 356Palmer, R. Barry, 
executive director, Association of the Development of Inland Navigation in 
America's Ohio Valley, prepared 
statement............................................. 456Parks, Barry E., 
Jr., Philip Services, Corp., Nashville, TN, letter 
from.................................................... 522Parsons, 
Richard W., dredging program manager, Ventura Port District, prepared 
statement................................... 427Paulson, Melissa, mayor, 
town of Corte Madera, CA, prepared 
statement...................................................... 410Perkins, 
Craig, director, environmental and public works management department, 
Santa Monica, CA, prepared statement.... 398Peterson, J.M., president, 
Missouri River Bank Stabilization Association, prepared 
statement................................ 485Peterson, R. Max, executive 
vice president, International Association of Fish and Wildlife Agencies, 
prepared statement.. 510Pettygrove, Hon. George, mayor, city of Fairfield, 
CA, prepared 
statement...................................................... 357Pfeifle, 
Kurt, general manger, Mid-Dakota Rural Water System, Inc., prepared 
statement....................................... 475Porkolab, Miklos, 
professor and director, Plasma Science and Fusion Center, Massachusetts 
Institute of Technology, prepared 
statement...................................................... 
592Poundstone, Emery, president, Reclamation District No. 108, prepared 
statement............................................. 348Pruitt, Gary K., 
executive director, Greater Baton Rouge Port Commission, prepared 
statement................................. 533Rabbin, Peter D., general 
manager, the Reclamation Board, the Resources Agency, State of California, 
prepared statement...... 344Rawlings, Jaycee, Humphreys County, TN, letter 
from.............. 519Reicher, Dan W., Assistant Secretary for Energy 
Efficiency and Renewable Energy, Office of Energy Research, Department of 
Energy......................................................... 63 Prepared 
statement........................................... 98Reid, Hon. Harry, 
U.S. Senator from Nevada: Prepared statements <SUP><INF>do River Board of 
California, Glendale, CA, prepared statement

463____________________________________________________________________

Zirschky, Dr. John, Acting Assistant Secretary of the Army for Civil Works, 
Corps of Engineers--Civil, Department of the Army, Department of Defense--
Civil

145____________________________________________________________________

Prepared statement

165____________________________________________________________________

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>DBO/......................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><INF>endale, CA, prepared statement............   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet> Questions submitted by <SUP>DBO/..............   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d R., executive director, Colorado 
  River Board of California, Glendale, CA, prepared statement....   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>f California, Glendale, CA, prepared 
  statement......................................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>f California, Glendale, CA, prepared statement.   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>do River Board of California, 
  Glendale, CA, prepared statement...............................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>f California, Glendale, CA, prepared 
  statement......................................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF> John, Acting Assistant Secretary of 
  the Army for Civil Works, Corps of Engineers--Civil, Department 
  of the Army, Department of Defense--Civil......................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>f California, Glendale, CA, prepared 
  statement......................................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>do River Board of California, 
  Glendale, CA, prepared statement...............................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>f California, Glendale, CA, prepared 
  statement......................................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>Reis, Dr. Victor H., Assistant Secretary for 
  Defense Programs, Atomic Energy Defense Activities, Department 
  of Energy......... 1 Biographical 
  sketch.......................................... 11 Prepared 
  statement........................................... 5Rogers, 
  Ross, general manager, Merced Irrigation District, prepared 
  statement............................................. 
  359Sacramento Area Flood Control Agency, prepared 
  statement......... 414Saltmarsh, Michael J., director, fusion 
  energy division, Oak Ridge National Laboratory, prepared 
  statement.................. 592San Juan Water Commission, 
  prepared statement.................... 465Sanders, Charles J., 
  III, Ingram Materials Co., Nashville, TN, letter 
  from.................................................... 
  519Sanford, Tom, deputy mayor, city of Gridley, CA, prepared 
  statement...................................................... 
  603Schafer, R.L., secretary/watermaster, Tule River 
  Association, prepared 
  statement............................................. 
  361Seemann, Jeff, project director, Nevada National Science 
  Foundation EPSCoR Project, prepared statement.................. 
  581Serna, Joe, Jr., mayor, city of Sacramento, CA, prepared 
  statement...................................................... 
  423Skidmore, David, project manager for the Santa Cruz Joint 
  Venture, prepared statement.................................... 
  405Sklar, Scott, executive director, Solar Unity Network, 
  prepared 
  statement...................................................... 
  595Southern Ute Indian Tribe, prepared 
  statement.................... 465Southwestern Water 
  Conservation District, prepared statement..... 465Sublette, 
  Kerry L., Sarkeys professor of environmental engineering, 
  University of Tulsa, prepared statement........... 583Summers, 
  Floyd R., PE, president, California Society of Professional 
  Engineers, Sacramento, CA, prepared statement..... 
  346Thomassen, Keith I., deputy associate director, energy 
  programs, Lawrence Livermore National Laboratory, prepared 
  statement..... 592Thorne, Mike, executive director, Port of 
  Portland, OR, prepared 
  statement...................................................... 
  444Ute Mountain Ute Indian Tribe, prepared 
  statement................ 465Vanselow, Glenn, executive 
  director, Pacific Northwest Waterways Association, prepared 
  statement................................ 447Venables, Jim, 
  chairman, board of supervisors, Riverside County Flood Control 
  and Water Conservation District, prepared 
  statement...................................................... 
  375Ventura County and Ventura County Flood Control District, 
  prepared statement............................................. 
  382Volusia County, FL, prepared 
  statement........................... 507Wanamaker, James E., 
  chief engineer, Board of Mississippi Levee Commission, prepared 
  statement................................. 539Wehe, David K., 
  professor, University of Michigan, prepared 
  statement...................................................... 
  569West Chino Water District, prepared 
  statement.................... 400Wheeler, K.A., Midland 
  Enterprises, Inc., Cincinnati, OH, letter 
  from........................................................... 
  516Whitener, Dave, chairman, Squaxin Island Tribe, prepared 
  statement...................................................... 
  452Willcox, George, general manager, Chambers-Liberty Counties 
  Navigation District, prepared statement........................ 
  461Williams, M.V., president, West Tennessee Tributaries 
  Association, prepared statement................................ 
  540Wong, Leland, commission president, Los Angeles Board of 
  Harbor Commissioners for the Port of Los Angeles, prepared 
  statement.. 428Wood, Roderick J., city manager, city of Novato, 
  CA, prepared 
  statement...................................................... 
  365Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared 
  statement.... 397Zimmerman, Gerald R., executive director, 
  Colorado River Board of California, Glendale, CA, prepared 
  statement................... 463Zirschky, Dr. John, Acting 
  Assistant Secretary of the Army for Civil Works, Corps of 
  Engineers--Civil, Department of the Army, Department of 
  Defense--Civil................................... 145 Prepared 
  statement........................................... 165 
  SUBJECT INDEX ---------- DEPARTMENT OF DEFENSE--CIVIL 
  Department of the Army Corps of Engineers--Civil PageAcequias 
  irrigation system, NM................................... 
  211Benefits 
  foregone................................................ 
  209Budget: Differences, resolution 
  of................................... 222 Request: On 
  construction program, impact of....................... 205 
  Fiscal year 1999 <SUP><INF>director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><INF>endale, CA, prepared statement............   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>DBO/......................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>ared statement.......................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>DBO/......................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>Bureau of Reclamation 
  programs................................... 159Central Utah 
  project............................................. 
  160Construction general 
  program..................................... 210Continued 
  budget constraints, implication of..................... 
  207Contracting policy, fully 
  funded................................. 209Corps of Engineers 
  public opinion survey......................... 215Devils Lake, 
  ND <SUP><INF>director, Colorado River Board of California, 
  Glendale, CA, prepared statement...............................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>ared statement.......................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>3.........................................
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>do River Board of California, 
  Glendale, CA, prepared statement...............................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>do River Board of California, 
  Glendale, CA, prepared statement...............................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>Fiscal year 1999: Minimum funding level need 
  for............................... 210 Budget, development 
  of....................................... 209Flood control 
  projects, importance of............................ 
  148Greenbrier River Basin, 
  WV....................................... 219Increased project 
  costs and lost benefits........................ 206Las Cruces, 
  NM, project.......................................... 212Marmet 
  Lock and Dam.............................................. 
  207National water resource development 
  effort....................... 164Program 
  execution................................................ 
  222Regulatory 
  permits............................................... 150Water 
  resource project benefits.................................. 146 
  DEPARTMENT OF ENERGY Atomic Energy Defense 
  ActivitiesAccelerated strategic computing initiative 
  [ASCI]................ 14 
  Chips........................................................ 
  16 
  Funding...................................................... 
  15Advanced experimental 
  facilities................................. 20Aging work 
  force................................................. 
  23Archival test 
  data............................................... 22Budget 
  request, fiscal year 1999................................. 
  11DARHT 
  facility................................................... 
  18Defense programs work 
  force...................................... 12Experimental 
  activities.......................................... 
  21Laboratory 
  moral................................................. 22Labs, 
  assessment of.............................................. 
  13Operating 
  requirements........................................... 
  14Parallel construction, 
  massive................................... 16Stewardship: 
  Bipartisan support for....................................... 
  13 Challenge 
  of................................................. 23 Historic 
  funding for......................................... 
  13Stockpile stewardship <SUP><INF>director, Colorado River 
  Board of California, Glendale, CA, prepared statement..........   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><INF>NM/Zirschky, Dr. John, Acting Assistant 
  Secretary of the Army for Civil Works, Corps of Engineers--
  Civil, Department of the Army, Department of Defense--Civil....   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF> John, Acting Assistant Secretary of 
  the Army for Civil Works, Corps of Engineers--Civil, Department 
  of the Army, Department of Defense--Civil......................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet> And the Comprehensive Test Ban 
  Treaty........................ 18 Mission, ASCI role 
  in........................................ 16Subcritical: 
  Experiments <SUP><INF>do River Board of California, Glendale, 
  CA, prepared statement.........................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>do River Board of California, 
  Glendale, CA, prepared statement...............................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>do River Board of California, Glendale, CA, 
  prepared statement.............................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>do River Board of California, 
  Glendale, CA, prepared statement...............................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>f California, Glendale, CA, prepared 
  statement......................................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet> 
  Tests........................................................ 
  4Supercomputers, ability to 
  build................................. 17Tritium 
  supply................................................... 
  24Weapons production 
  complex....................................... 12 Office of 
  Energy ResearchAutombiles, fuel efficiency standards 
  for........................ 95Basic energy 
  sciences............................................ 
  114Building efficiency programs, cold weather 
  climate............... 115Climate change technology 
  initiative............................. 69Electricity: 
  Production, renewable energy contribution to................. 
  113 Restructuring and renewable 
  energy........................... 117Federal Energy Bank 
  legislation.................................. 66Forest waste 
  conversion to ethanol............................... 122Fusion 
  energy research........................................... 
  121High flux beam 
  reactor........................................... 117Human 
  genome program............................................. 
  119Hydrogen 
  research................................................ 
  111Lignite 
  coal..................................................... 
  115Magnetic fusion energy 
  research.................................. 94Next generation 
  Internet......................................... 70Nuclear 
  energy program........................................... 
  119Nuclear waste 
  disposal........................................... 111Science 
  education................................................ 
  70Scientific user 
  facilities....................................... 70Solar and 
  renewable energy....................................... 97 
  Budget....................................................... 
  116Solar energy 
  potential........................................... 
  114Spallation neutron 
  source........................................ 69 DEPARTMENT OF 
  THE INTERIOR Bureau of ReclamationAnimas-La Plata project 
  <SUP><INF>do River Board of California, Glendale, CA, prepared 
  statement......................................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF> John, Acting Assistant Secretary of 
  the Army for Civil Works, Corps of Engineers--Civil, Department 
  of the Army, Department of Defense--Civil......................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><INF>NM/Zirschky, Dr. John, Acting Assistant 
  Secretary of the Army for Civil Works, Corps of Engineers--
  Civil, Department of the Army, Department of Defense--Civil....   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>f California, Glendale, CA, prepared 
  statement......................................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d R., executive director, Colorado 
  River Board of California, Glendale, CA, prepared statement....   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>d R., executive director, Colorado River Board 
  of California, Glendale, CA, prepared statement................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>Budget 
  summary................................................... 
  295California Bay-Delta ecosystem restoration <SUP><INF>do 
  River Board of California, Glendale, CA, prepared statement....   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF> John, Acting Assistant Secretary of 
  the Army for Civil Works, Corps of Engineers--Civil, Department 
  of the Army, Department of Defense--Civil......................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d statement..........................   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>/428...........................................
Wood, Roderick J., city manager, city of Novato, CA, prepared 
  statement......................................................   365

Zimmerman, Eleanor L., mayor, Norwalk, CA, prepared statement....   397
Zimmerman, Gerald R., executive director, Colorado River Board of 
  California, Glendale, CA, prepared statement...................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP>f California, Glendale, CA, prepared 
  statement......................................................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>d R., executive director, Colorado 
  River Board of California, Glendale, CA, prepared statement....   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet><SUP><INF>do River Board of California, 
  Glendale, CA, prepared statement...............................   463
Zirschky, Dr. John, Acting Assistant Secretary of the Army for 
  Civil Works, Corps of Engineers--Civil, Department of the Army, 
  Department of Defense--Civil...................................   145
    Prepared statement...........................................   165

 
                             SUBJECT INDEX

                              ----------                              

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

                                                                   Page
Acequias irrigation system, NM...................................   211
Benefits foregone................................................   209
Budget:
    Differences, resolution of...................................   222
    Request:
        On construction program, impact of.......................   205
        Fiscal year 1999.......................................146, 156
Bureau of Reclamation programs...................................   159
Central Utah project.............................................   160
Construction general program.....................................   210
Continued <bullet>Dam safety 
  program............................................... 298El 
  Paso-Las Cruces regional sustainable water project............ 
  302Rio Grande low-flow conveyance channel 
  study..................... 301Southern New Mexico 
  study........................................ 302..............
</pre></body></html>
